<html>
<title> - S. Hrg. 113-720 NOMINATIONS OF THE 113TH CONGRESS_SECOND SESSION</title>
<body><pre>[Senate Hearing 113-720]
[From the U.S. Government Publishing Office]


 
                                                        S. Hrg. 113-720

                       NOMINATIONS OF THE 113TH 
                       CONGRESS_SECOND SESSION

=======================================================================

                                HEARINGS

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE


                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                  JANUARY 16 THROUGH DECEMBER 2, 2014

                               __________


       Printed for the use of the Committee on Foreign Relations
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


      Available via the World Wide Web: http://www.gpo.gov/fdsys/






                COMMITTEE ON FOREIGN RELATIONS          
                113th CONGRESS--SECOND SESSION          

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
    \1\                              RON JOHNSON, Wisconsin
JEANNE SHAHEEN, New Hampshire        JEFF FLAKE, Arizona
CHRISTOPHER A. COONS, Delaware       JOHN McCAIN, Arizona
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                RAND PAUL, Kentucky
CHRISTOPHER MURPHY, Connecticut
TIM KAINE, Virginia
EDWARD J. MARKEY, Massachusetts \2\
          Daniel E. O'Brien, Democratic Staff Director        
        Lester E. Munson III, Republican Staff Director        

--------
\1\ Senator Casey served on the committee until July 16, 2013.
\2\ Senator Markey joined the committee on July 16, 2013.

                             (ii)          

  


                           C O N T E N T S

                              ----------                              

    [Any additional material relating to these nominees may be found
              at the end of the applicable day's hearing.]

                              ----------                              
                                                                   Page

Thursday, January 16, 2014.......................................     1

Robert C. Barber, of Massachusetts, to be Ambassador to the 
  Republic of Iceland............................................     4
George James Tsunis, of New York to be Ambassador to the Kingdom 
  of Norway......................................................     9
Colleen Bradley Bell, of the District of Columbia, to be 
  Ambassador to Hungary..........................................    12
                                 ------                                
Tuesday, January 28, 2014........................................    27

Hon. Max Baucus, of Montana, to be Ambassador to China...........    30
Hon. Arnold Chacon, of Virginia, to be Director General of the 
  Foreign Service................................................    54
Hon. Daniel Bennett Smith, of Virginia, to be Assistant Secretary 
  of State for Intelligence and Research.........................    59
                                 ------                                
Tuesday, February 4, 2014........................................    93

Bathsheba Nell Crocker, of the District of Columbia, to be 
  Assistant Secretary of State for International Organization 
  Affairs........................................................    95
Michael Anderson Lawson, of California, for the rank of 
  Ambassador during his tenure of service as Representative on 
  the Council of the International Civilian Aviation Organization   102
Robert A. Wood, of New York, for the rank of Ambassador during 
  his tenure of service as U.S. Representative to the Conference 
  on Disarmament.................................................   105
                                 ------                                
Thursday, February 6, 2014.......................................   119

Luis G. Moreno, of Texas, to be Ambassador to Jamaica............   121
John L. Estrada, of Florida, to be Ambassador to the Republic of 
  Trinidad and Tobago............................................   124
Noah Bryson Mamet, of California, to be Ambassador to the 
  Argentine Republic.............................................   127
                                 ------                                
Thursday, February 13, 2014......................................   159

Matthew Tueller, of Utah, to be Ambassador of the Republic of 
  Yemen..........................................................   164
Douglas Alan Silliman, of Texas, to be Ambassador to the State of 
  Kuwait.........................................................   168
Mark Gilbert, of Florida, to be Ambassador to New Zealand and to 
  serve concurrently as Ambassador to Samoa......................   171
Joseph William Westphal, of New York, to be Ambassador to the 
  Kingdom of Saudi Arabia........................................   174


                            (iii)          

Thursday, March 6, 2014..........................................   199

Deborah L. Birx, of Maryland, to be Ambassador at Large and 
  Coordinator of United States Government Activities to Combat 
  HIV/AIDS Globally..............................................   201
Suzan G. LeVine, of Washington, to be Ambassador to the Swiss 
  Confederation, and to serve concurrently and without additional 
  compensation as Ambassador to the Principality of Liechtenstein   206
Maureen Elizabeth Cormack, of Virginia, to be Ambassador to 
  Bosnia and Herzegovina.........................................   210
Peter A. Selfridge, of Minnesota, to be Chief of Protocol, and to 
  have the rank of Ambassador during his tenure of service.......   217
                                 ------                                
Tuesday, May 13, 2014............................................   239

Paige Eve Alexander, of Virginia, to be Assistant Administrator, 
  Bureau for the Middle East, United States Agency for 
  International Development......................................   240
Alice G. Wells, of Washington, to be Ambassador to the Hashemite 
  Kingdom of Jordan..............................................   245
Thomas P. Kelly III, of California, to be Ambassador to the 
  Republic of Djibouti...........................................   249
Cassandra Q. Butts, of the District of Columbia, to be Ambassador 
  to the Commonwealth of The Bahamas.............................   252
                                 ------                                
Wednesday, May 14, 2014..........................................   271

Mark Sobel, of Virginia, to be United States Executive Director 
  of the International Monetary Fund for a term of two years.....   274
Sunil Sabharwal, of California, to be United States Alternate 
  Executive Director of the International Monetary Fund for a 
  term of two years..............................................   276
Matthew T. McGuire, of the District of Columbia, to be United 
  States Executive Director of the International Bank for 
  Reconstruction and Development for a term of two years.........   290
Mileydi Guilarte, of the District of Columbia, to be United 
  States Alternate Director of the Inter-American Development 
  Bank...........................................................   294
                                 ------                                
Thursday, May 15, 2014...........................................   315

Andrew H. Schapiro, of Illinois, to be Ambassador to the Czech 
  Republic.......................................................   318
Nina Hachigian, of California, to be Representative to the 
  Association of Southeast Asian Nations, with the rank and 
  status of Ambassador...........................................   322
                                 ------                                
Wednesday, June 11, 2014.........................................   337

Hon. Robert Stephen Beecroft, of California, to be Ambassador to 
  the Arab Republic of Egypt.....................................   340
Hon. Stuart E. Jones, of Virginia, to be Ambassador to the 
  Republic of Iraq...............................................   342
Dana Shell Smith, of Virginia, to be Ambassador to the State of 
  Qatar..........................................................   346
James D. Nealon, of New Hampshire, to be Ambassador to the 
  Republic of Honduras...........................................   365
Gentry O. Smith, of North Carolina, to be Director of the Office 
  of Foreign Missions............................................   368
                                 ------                                
Tuesday, June 17, 2014...........................................   403

Mark William Lippert, of Ohio, to be Ambassador to the Republic 
  of Korea.......................................................   406
Jonathan Nicholas Stivers, of the District of Columbia, to be an 
  Assistant Administrator of the Bureau for Asia, United States 
  Agency for International Development...........................   409
Theodore G. Osius III, of Maryland, to be Ambassador to the 
  Socialist Republic of Vietnam..................................   413
Joan A. Polaschik, of Virginia, to be Ambassador to the People's 
  Democratic Republic of Algeria.................................   416
Thursday, June 26, 2014..........................................   437

Hon. Alfonso E. Lenhardt, of New York, to be Deputy Administrator 
  of the United States Agency for International Development......   438
Marcia Denise Occomy, of the District of Columbia, to be United 
  States Director of the African Development Bank for a term of 5 
  years..........................................................   443
                                 ------                                
Thursday, July 10, 2014..........................................   465

Todd D. Robinson, of New Jersey, to be Ambassador to the Republic 
  of Guatemala...................................................   467
Leslie Ann Bassett, of California, to be Ambassador to the 
  Republic of Paraguay...........................................   470
                                 ------                                
Tuesday, July 15, 2014...........................................   485

Jane D. Hartley, of New York, to be Ambassador to the French 
  Republic and to serve concurrently and without additional 
  compensation as Ambassador to the Principality of Monaco.......   490
Hon. John R. Bass, of New York, to be Ambassador to the Republic 
  of Turkey......................................................   493
Kevin F. O'Malley, of Missouri, to be Ambassador to Ireland......   497
Brent Robert Hartley, of Oregon, to be Ambassador to the Republic 
  of Slovenia....................................................   512
James D. Pettit, of Virginia, to be Ambassador to the Republic of 
  Moldova........................................................   515
                                 ------                                
Thursday, July 17, 2014..........................................   533

Erica J. Barks Ruggles, of Minnesota, to be Ambassador to the 
  Republic of Rwanda.............................................   535
Hon. George Albert Krol, of New Jersey, to be Ambassador to the 
  Republic of Kazakhstan.........................................   539
Allan P. Mustard, of Washington, to be Ambassador of the United 
  States of America to Turkmenistan..............................   542
David Pressman, of New York, to be Alternate Representative for 
  Special Political Affairs in the United Nations, with the rank 
  of Ambassador; Alternate Representative to the Sessions of the 
  General Assembly of the United Nations, during his tenure of 
  service as Alternate Representative for Special Political 
  Affairs in the United Nations..................................   545
Hon. Marcia Stephens Bloom Bernicat, of New Jersey, to be 
  Ambassador to the People's Republic of Bangladesh..............   547
                                 ------                                
Tuesday, July 29, 2014...........................................   577

Hon. John Francis Tefft, of Virginia, to be Ambassador of the 
  United States to the Russian Federation........................   580
Donald L. Heflin, of Virginia, to be Ambassador to the Republic 
  of Cabo Verde..................................................   592
Earl Robert Miller, of Michigan, to be Ambassador to the Republic 
  of Botswana....................................................   594
Craig B. Allen, of Virginia, to be Ambassador to Brunei 
  Darussalam.....................................................   597
Michele Jeanne Sison, of Maryland, to be the Deputy 
  Representative to the United Nations, with the rank of 
  Ambassador, and Deputy Representative in the Security Council 
  of the United Nations; and to be Representative to the Sessions 
  of the General Assembly of the United Nations during her tenure 
  of service as Deputy Representative to the United Nations......   606
Stafford Fitzgerald Haney, of New Jersey, to be Ambassador to the 
  Republic of Costa Rica.........................................   609
Charles C. Adams, Jr., of Maryland, to be Ambassador to the 
  Republic of Finland............................................   612
Wednesday, September 10, 2014....................................   631

William V. Roebuck, of North Carolina, to be Ambassador to the 
  Kingdom of Bahrain.............................................   633
Judith Beth Cefkin, of Colorado, to be Ambassador to the Republic 
  of Fiji, and to serve concurrently and without additional 
  compensation as Ambassador to the Republic of Kiribati, the 
  republic of Nauru, the Kingdom of Tonga, and Tuvalu............   636
Barbara A. Leaf, of Virginia, to be Ambassador to the United Arab 
  Emirates.......................................................   639
Pamela Leora Spratlen, of California, to be Ambassador to the 
  Republic of Uzbekistan.........................................   644
                                 ------                                
Thursday, September 11, 2014.....................................   675

James Peter Zumwalt, of California, to be Ambassador to the 
  Republic of Senegal and to serve concurrently and without 
  additional compensation as Ambassador to the Republic of 
  Guinea-Bissau..................................................   677
Robert T. Yamate, of California, to be Ambassador to the Republic 
  of Madagascar, and to serve concurrently and without additional 
  compensation as Ambassador to the Union of the Comoros.........   680
Virginia E. Palmer, of Virginia, to be Ambassador to the Republic 
  of Malawi......................................................   682
Rabbi David Nathan Saperstein, of the District of Columbia, to be 
  Ambassador at Large for International Religious Freedom........   685
                                 ------                                
Wednesday, September 17, 2014....................................   697

Robert Francis Cekuta, of New York, to be Ambassador to the 
  Republic of Azerbaijan.........................................   700
Richard M. Mills, Jr., of Texas, to be Ambassador of the United 
  States to the Republic of Armenia..............................   703
Jess Lippincott Baily, of Ohio, to be Ambassador to the Republic 
  of Macedonia...................................................   707
Margaret Ann Uyehara, of Ohio, to be Ambassador to Montenegro....   710
                                 ------                                
Wednesday, November 19, 2014.....................................   737

Antony John Blinken, of New York, to be Deputy Secretary of State   739
                                 ------                                
Tuesday, December 2, 2014........................................   817

Peter Michael McKinley, of Virginia, to be Ambassador to the 
  Islamic Republic of Afghanistan................................   820
Isobel Coleman, of New York, to be Representative to the United 
  Nations for U.N. Management and Reform, with the rank of 
  Ambassador; and as an Alternate Representative to the Sessions 
  of the General Assembly of the United Nations during her tenure 
  of service as Representative to the United Nations for U.N. 
  Management and Reform..........................................   824
Richard Rahul Verma, of Maryland, to be Ambassador to the 
  Republic of India..............................................   827


                     NOMINATIONS OF ROBERT BARBER, 
                      GEORGE TSUNIS, COLLEEN BELL

                              ----------                              


                       THURSDAY, JANUARY 16, 2014

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Robert C. Barber, of Massachusetts, to be Ambassador to the 
        Republic of Iceland
George James Tsunis, of New York, to be Ambassador to the 
        Kingdom of Norway
Colleen Bradley Bell, of the District of Columbia, to be 
        Ambassador to Hungary
                              ----------                              

    The committee met, pursuant to notice, at 2:34 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Chris Murphy 
presiding.
    Present: Senators Murphy, Cardin, Kaine, Markey, Johnson, 
and McCain.
    Also Present: Senator Charles E. Schumer.

            OPENING STATEMENT OF HON. CHRIS MURPHY, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Murphy. Good afternoon, everyone. This hearing of 
the Senate Foreign Relations Committee will now come to order.
    Today, the committee is considering three nominations--
George Tsunis, to be Ambassador to the Kingdom of Norway; 
Robert Barber, to be Ambassador to the Republic of Iceland; and 
Colleen Bell, to be Ambassador to Hungary.
    Let me begin this afternoon by welcoming our nominees and 
welcoming your families. I will let you introduce any family 
members that may be here.
    I am going to give some brief opening remarks, followed by 
Senator Johnson, our ranking member. I will introduce you. I 
understand that Senator Schumer is likely going to be here to 
introduce you, Mr. Tsunis. So if he is not here yet when we are 
done with our opening remarks, I will introduce Ms. Bell and 
Mr. Barber, and they might begin. And then when Senator Schumer 
comes here, he can introduce you, Mr. Tsunis. But we are glad 
to welcome Senator Schumer when he can arrive.
    I want to congratulate all of you on your nominations. If 
confirmed, you are going to be called upon to serve and advance 
the interests of the American people in your respective 
missions. And I thank you and your families for your 
willingness to serve this country in this important capacity.
    The moment is unique in the sense that we have a number of 
irons in the fire with our European partners. You are going to 
be there at a very important time to talk about our communal 
mission to promote global security, whether it be as NATO 
partners or in our joint efforts to combat terrorism. You are 
going to be there at a really important time for the growing 
economic partnership between the United States and Europe, a 
moment at which we hope during your tenure we will negotiate 
and perhaps enter into a new trade agreement, now referred to 
as the Transatlantic Trade and Investment Partnership.
    And we know that there is going to be continued interest in 
our very complicated, but very necessary intelligence 
relationship. I and a few members of the House were just in 
Europe over the holidays, talking about the importance of both 
clarifying our intelligence relationship going forward, but 
also preserving it because we have a communal interest to 
prevent grievous attacks against both the United States and 
Europe.
    Mr. Tsunis, let me begin with a few words about Norway. The 
United States and Norway enjoy a long tradition of friendly 
relationships based on democratic values. We also share an 
increase in addressing the problems posed by climate change, 
particularly with respect to the Arctic and building a 
cooperation in the region through the Arctic Council.
    On the security side, Norway, as you know, is a founding 
member of NATO, has been a partner with us in Afghanistan, 
Libya, the Balkans, and in counterterrorism. In her visit to 
Washington earlier this month, Norway's Defense Minister 
emphasized the importance of European nations stepping up to 
the plate at a larger scale to take a share of global political 
and economic burdens.
    Norway is also the world's seventh-largest petroleum 
exporter, and the Norwegian economy has enjoyed some pretty 
impressive growth in recent years. so we look forward to 
hearing your thoughts on how to continue these very important 
partnerships with Norway, particularly in the lead-up to next 
year's NATO summit.
    Mr. Barber, another nation that is very important to this 
committee is Iceland. The United States is one of Iceland's 
main foreign investors and trading partners. We were the first 
country to recognize Iceland's independence in 1944, following 
Danish rule.
    It is another founding member of NATO. And although we no 
longer have U.S. military forces permanently stationed in 
Iceland, Iceland and the United States have worked closely 
again on missions in Afghanistan and Lebanon and the Balkans.
    And as we talked about privately, the Icelandic economy has 
been a success story for much of the past two decades, although 
it encountered deep financial problems in 2008. The collapse of 
these major banks, coupled with the global financial crisis, it 
had a ripple effect throughout Iceland's economy, and we look 
forward to your thoughts on how the United States can continue 
to allow Iceland to recover.
    And finally, Ms. Bell, let me turn to Hungary. Since the 
fall of communism in Central and Eastern Europe, the United 
States and Hungary have maintained strong bilateral ties, 
particularly in security matters through NATO. Hungary is a 
member of the European Union. It has successfully transitioned 
from a centrally planned economy to a market-based one since 
the fall of communism. Like the other countries represented 
here, the United States is among the top foreign investors in 
Hungary.
    But notwithstanding our close cooperation on economic and 
security matters, there have been some legislative and 
constitutional changes in Hungary since 2010 that have prompted 
concerns from the United States and included controversial 
legislation granting citizenship to ethnic Hungarians living 
outside the country's borders, changes that could reduce the 
independence of Hungary's central bank, and restrictions on the 
constitutional court.
    The United States has shared these concerns that have been 
expressed also by the Council of Europe, and we look forward to 
a discussion with you about how we can continue to work with 
Hungary on promoting democratic ideals.
    We thank you all for being here today to share with us your 
thoughts. We look forward to your swift confirmation.
    And let me now turn to our ranking member, Senator Johnson.

            OPENING STATEMENT OF HON. RON JOHNSON, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. Thank you, Mr. Chairman.
    I would like to join you in welcoming our nominees and also 
thanking you and your families for your willingness to serve. I 
appreciate the fact that you all took time to meet with me in 
my office, and as we discussed, these positions of 
ambassadorships is extremely important to not only convey to 
the countries that you are going to represent us Americans' 
exceptionalism, our values, but then also you report back to us 
the concerns that those countries have in terms of U.S. 
actions.
    And so, incredibly important posts. I truly appreciate your 
willingness to serve, and I will look forward to your 
testimony.
    Thank you.
    Senator Murphy. Thank you, Senator Johnson.
    Why do we not do this? I will introduce briefly Mr. Barber 
and Ms. Bell, and you can begin testimony. And when Senator 
Schumer gets here, he can introduce Mr. Tsunis.
    Robert Barber is our nominee to be Ambassador to the 
Republic of Iceland. Mr. Barber, a leading attorney and 
litigator, has been a partner at Looney & Grossman in Boston, 
MA, since 1985. Known for his legal acumen and community 
service, he specializes in the needs of startup businesses, 
small and medium-sized companies, and commercial litigation, 
serving many companies in the role of outside general counsel. 
He is also an expert in the formation and early development of 
business ventures.
    A proven and experienced leader, Mr. Barber will bring 
essential skills to the task of furthering bilateral economic 
relations with the Government of Iceland. Mr. Barber previously 
practiced law in a variety of other roles, including as an 
assistant district attorney in the New York County District 
Attorney's Office, and he has served in a number of community 
positions, as a trustee of the Phillips Brooks House 
Association of Harvard College, as a treasurer and trustee of 
the Social Law Library in Boston, MA, and director of the 
Abbott Academy Association in Andover, MA.
    He attended Harvard College and Boston University School of 
Law, and he even holds an MCRP from the Harvard Graduate School 
of Design.
    Welcome, Mr. Barber.
    Ms. Bell, we are pleased to have you here today. Ms. Bell 
is a producer at Bell-Phillip Productions in Los Angeles, CA, 
has a strong history of accomplishment in the television 
industry. Known for her successful leadership of high-profile 
and influential social service, environmental, and arts 
organizations, she has a wealth of experience in a wide range 
of fields from the economy to human rights and the 
environmental, foreign policy, public health, and education. 
Ms. Bell will bring essential skills to the task of furthering 
our relationship with the Government of Hungary, who is a key 
U.S. ally in NATO and the EU.
    Previously, Ms. Bell worked for Bell-Phillip Television 
Productions as an associate producer. She also serves on, 
again, a number of institutions. She has been on the board of 
the JFK Center for the Performing Arts, the President's 
Advisory Committee on the Arts, the Los Angeles County Museum 
of Art, the Children's Institute, the Music Center, and the 
National Academy of Television Arts and Sciences, just to name 
a few.
    Senator Murphy. With that, why do we not do this? We will 
go to Mr. Barber for your opening remarks, then to Ms. Bell, 
and then we will have Senator Schumer here to introduce Mr. 
Tsunis.

       STATEMENT OF ROBERT C. BARBER, OF MASSACHUSETTS, 
        TO BE THE AMBASSADOR TO THE REPUBLIC OF ICELAND

    Mr. Barber. Chairman Murphy and Senator Johnson, it is a 
great privilege for me to appear before you today as President 
Obama's nominee for Ambassador to Iceland.
    I am truly honored by this nomination and very grateful to 
the President and to Secretary Kerry for their trust in me. If 
confirmed, I look forward to working with each of you and with 
your colleagues in Congress to further U.S. interests in 
Iceland.
    My oldest son, Nicholas, is with me today, representing his 
brothers, Ben and Alexander, and my wife and his mom, Bonnie. 
And if you would permit me, I would like to introduce Nick to 
you.
    Senator Murphy. Welcome.
    Mr. Barber. I am also delighted that two members of the 
Icelandic Embassy are present today, and I very much appreciate 
their appearance today. I am pleased to meet them, and if 
confirmed, I certainly would look forward to working with them.
    I am very thankful for and appreciate the support of my 
family and my friends.
    The opportunity to serve the United States, if confirmed, 
means quite a lot to me. Both my father and my maternal 
grandfather were career Army officers. In fact, I was born at 
Fort Benning, GA.
    I grew up in Charleston, SC, where the greatest influence 
on my life was my mother, Kathleen. A teacher, after having 
gone back to college while raising four kids, she guided 
gently, making sure I was aware of opportunities that were 
available to me and trusting me to make good decisions.
    I feel as though I have been lucky all my life, being able 
to attain great schools on scholarships, which opened up even 
more wonderful opportunities. So knowing how lucky I have been, 
I look forward--I look for chances to help out, to pay back, 
and indeed to pay forward. And I believe that if I am 
confirmed, representing my country as the U.S. Ambassador to 
Iceland would be the ultimate opportunity for service.
    I am hopeful, too, as the chairman mentioned, that my 
experience in leading organizations, including my law firm and 
as well as political and nonprofit groups, will enable me 
effectively to represent the United States. By nature, I am a 
team player, a firm believer in team development, for it is 
through collaborative effort that the most productive and, I 
believe, the most fulfilling outcomes are achieved.
    As well, my years acting as outside general counsel to 
entrepreneurs and their companies, from startups to mid-sized 
firms, have helped me develop an ability to find solutions and 
to connect parties with common interests and complementary 
capacities.
    The United States and Iceland have long enjoyed a strong 
bilateral relationship. When Iceland declared its independence 
on June 17, 1944, the United States, as you mentioned, was the 
first country to recognize it. In the last decade, this 
friendship has evolved from one dominated by political-military 
issues to a broader partnership that reflects our shared global 
agenda.
    Iceland is a stalwart ally and friend of the United States. 
As a charter member of NATO, Iceland has made contributions to 
peacekeeping operations around the world. And although the 
Keflavik Naval Air Station closed in 2006, NATO continues to 
operate an important radar defense system in Iceland, 
highlighting that country's continuing contribution to our 
overall security.
    A close partner on law enforcement issues, Iceland has 
recently helped break up the illegal narcotics network known as 
Silk Road and actively engages with the United States in 
antitrafficking in persons efforts. Iceland is also a staunch 
supporter of humanitarian causes, as its search and rescue 
teams provided lifesaving services following earthquakes around 
the world.
    So following its banking sector crisis of 2008, Iceland is 
reemerging with a stable economy. While it is still recovering, 
Iceland has made through a series of confidence-building 
measures steady progress in putting its economy on sounder 
footing.
    Our business relations with Iceland are strong and growing. 
The reinvigorated American-Icelandic Chamber of Commerce is now 
up and running, working on behalf of American companies in 
Iceland. Raw materials and renewable energy are just some of 
the promising new horizons in our trade and investment 
relationship.
    As businesses are looking to invest in Icelandic renewable 
energy, the United States and Iceland are cooperating to 
develop the technology we need for a green, sustainable future. 
And Iceland is also growing in importance as a potential 
strategic partner in the development of Arctic natural 
resources.
    Iceland is a world leader in the use of geothermal and 
hydroenergy for electric power and heat generation, presents a 
great opportunity for energy diplomacy in the years ahead. If 
confirmed, I shall look for ways the United States can 
strengthen connections among the energy industry, the Icelandic 
Government, and relevant U.S. institutions, and I shall 
diligently pursue all opportunities for collaboration.
    In sum, Senators, the United States-Icelandic relationship 
yields benefits to both countries in security, in energy, trade 
and investment, the environment, and humanitarian causes. If 
confirmed, I will work to broaden our cooperation in these 
areas and to protect and further U.S. interests and safeguard 
American citizens.
    Thank you again for the privilege of appearing before you 
today. I look forward to answering your questions.
    [The prepared statement of Mr. Barber follows:]

                 Prepared Statement of Robert C. Barber

    Chairman Murphy, Ranking Member Johnson, and distinguished members 
of the committee, it is a privilege to appear before you today as 
President Obama's nominee for Ambassador to Iceland. I am honored by 
this nomination, and very grateful to the President and to Secretary 
Kerry for their trust in me. If confirmed, I look forward to working 
with you and your colleagues in Congress to further U.S. interests in 
Iceland.
    My oldest son, Nicholas, is with me today, representing his 
brothers, Ben and Alexander and his mother and my wife Bonnie Neilan, 
and if you would permit me, I introduce Nick to you.
    The opportunity to serve the United States, if confirmed, means 
quite a lot to me. Both my father and my maternal grandfather were 
career Army officers; in fact I was born at Fort Benning, GA. I grew up 
in Charleston, SC, where the greatest influence in my life was my 
mother, Kathleen. A teacher, after having gone back to college while 
raising four kids, she guided gently, making sure I was aware of 
opportunities available to me, and trusting me to make good decisions. 
I feel I have been lucky all my life, being able to attend great 
schools on scholarships, which opened up more wonderful opportunities. 
So, knowing how lucky I have been, I look for chances to help out, to 
give back, to pay forward. I believe that, if I am confirmed, 
representing my country as the United States Ambassador to Iceland 
would be the ultimate opportunity for service.
    I am hopeful that my experience in leading organizations, including 
my law firm, as well as political and nonprofit groups, will enable me 
to effectively represent the United States. I am a team player, a firm 
believer in team development, for it is through collaborative effort 
that the most productive, and fulfilling, outcomes are achieved. As 
well, my years acting as outside general counsel to entrepreneurs and 
their companies, from startups to midsize firms, have helped me develop 
an ability to find solutions and to connect parties with common 
interests and complementary capacities.
    The United States and Iceland have long enjoyed a strong bilateral 
relationship. When Iceland declared its independence on June 17, 1944, 
the United States was the first country to recognize it. In the last 
decade, this friendship has evolved from one dominated by political-
military issues to a broad partnership that reflects our shared global 
agenda.
    Iceland is a stalwart ally and friend of the United States. As a 
charter member of NATO, Iceland has made contributions to peacekeeping 
operations around the world. Although the Keflavik Naval Air Station 
closed in 2006, NATO continues to operate an important radar defense 
system there, highlighting Iceland's continuing contribution to our 
overall security.
    A close partner on law enforcement issues, Iceland most recently 
helped break up the illegal narcotics network known as Silk Road and 
actively engages with the United States on antitrafficking in persons 
efforts. It also works closely with the U.S. Coast Guard to improve 
port security for vessels transiting to the United States.
    Iceland is a staunch supporter of humanitarian causes. Icelandic 
Search and Rescue teams have provided life-saving services following 
earthquakes around the world. Most recently, Iceland has provided 
monetary assistance through the U.N. to help Syrian refugees in Jordan, 
Iraq, and Lebanon.
    Following its banking sector crisis of 2008, Iceland is reemerging 
with a stable economy. While it is still recovering, Iceland has made, 
through a series of confidence-building measures, steady progress in 
putting its economy on sounder footing.
    Our business relations with Iceland are strong and growing. The 
American-Icelandic Chamber of Commerce is now up and running, working 
on behalf of American businesses in Iceland. Raw materials and 
renewable energy are just some of the promising new horizons in our 
trade and investment relationship.
    As businesses are looking to invest in Icelandic renewable energy, 
the United States and Iceland are cooperating to develop the technology 
we need for a green, sustainable future. Iceland is also growing in 
importance as a potential strategic partner in the development of 
Arctic natural resources. A world leader in the use of geothermal and 
hydroenergy for electric power and heat generation, Iceland presents a 
great opportunity for ``energy diplomacy'' in the years ahead.
    If confirmed, I shall look for ways the United States can 
strengthen connections among the energy industry, the Icelandic 
Government, and relevant U.S. institutions, and I shall diligently 
pursue all opportunities for collaboration.
    Mr. Chairman, the U.S.-Icelandic relationship yields benefits to 
both countries in security, energy, trade and investment, the 
environment, and humanitarian causes. If confirmed, I will work to 
broaden our cooperation in these areas and to protect and further U.S. 
interests and safeguard American citizens.
    Thank you again for the privilege of appearing before you today. I 
look forward to answering your questions.

    Senator Murphy. Thank you very much, Mr. Barber.
    Let me now welcome Senator Schumer here. So pleased to have 
you to introduce Mr. Tsunis. I know your time is limited. So we 
will allow you to introduce our next witness.

             STATEMENT OF HON. CHARLES E. SCHUMER, 
                   U.S. SENATOR FROM NEW YORK

    Senator Schumer. Thank you, Chairman Murphy and Ranking 
Member Johnson, Senator Markey.
    And first, Mr. Chairman, it was not too long ago in this 
body that you would wait years and maybe even decades to become 
chairman of the European Affairs Subcommittee, and here you 
are, one of our brightest, most capable freshmen, chairing it 
already. Progress is being made, I would say to the public.
    It is a privilege for me to introduce George Tsunis, the 
nominee to be the next United States Ambassador to Norway. Mr. 
Tsunis is a lifelong New Yorker, born and raised on Long 
Island. He currently lives in Cold Spring Harbor, and he has 
had a long and distinguished career in both public service and 
the private sector.
    And that leaves no doubt he is well qualified to take on 
this great task that awaits him if he is confirmed as the next 
United States Ambassador to Norway. His career and commitment 
to the community is an exemplary one, and I believe that New 
Yorkers, and particularly those on Long Island, have greatly 
benefited from Mr. Tsunis' intelligence, his generosity, and 
his philanthropic pursuits. So he is an outstanding choice to 
be Ambassador to Norway, where he is going to represent the 
United States, should he be confirmed, in a country that values 
democracy and is a strong ally.
    Mr. Tsunis is a lifelong Long Islander, raised in Commack. 
He attended Commack High School. I have given many a graduation 
speech there. He then earned his undergraduate degree at NYU, 
his juris doctor at St. Johns University.
    He is born to parents who emigrated from Greece. He is like 
so many New Yorkers, comes from overseas and just in one 
generation becomes an American and contributes so much to this 
great country of ours.
    He is a true tale of the American dream. He has never 
forgotten his roots. He is very active in the Greek American 
community. He is an archon of the Ecumenical Patriarchic in the 
Greek Orthodox Church, the highest lay honor, serves as the 
national counsel of the Greek Orthodox Archdiocese of America. 
And he and I are the grand marshals of the Greek Independence 
Day Parade in New York City in March. Yiasou.
    A highly successful entrepreneur and philanthropist, Mr. 
Tsunis first started out as an attorney where he rose through 
the ranks to become a partner in Long Island's largest law 
firm. He has also had an illustrious career in public service 
as an attorney. He was a legislative attorney on the New York 
City Council, special counsel to the town of Huntington's 
Environmental and Open Space Committee, and counsel to the Dix 
Hills Water District.
    Today, he is chairman and CEO of Chartwell Hotels, which 
owns, develops, and manages Hilton, Marriott, Intercontinental 
Hotels across the Northeast and Mid-Atlantic United States, and 
he has also been very active in foreign policy issues. He is a 
member of Brookings Institution's Foreign Policy Leadership 
Committee and its Metropolitan Leadership Council and is a 
director of Business Executives for National Security.
    So he has been extremely successful in the hotel and real 
estate businesses, but what is most impressive about Mr. Tsunis 
is the time, investment, and commitment he has shown to the 
people of New York, people of Long Island particularly, who 
suffered tremendously as a result of Superstorm Sandy.
    His philanthropic efforts and humanitarian causes have had 
a tremendous impact. As a result, he has received a number of 
well-deserved honors from groups as diverse as Dowling College, 
Long Island Cares, WLIW Channel 21, the Long Island Children's 
Museum. The Cyprus Federation's Justice for Cyprus Award he 
received, presented personally by President of Cyprus 
Christofias.
    He has made generous contributions to Stony Brook for the 
creation of the George and Olga Tsunis Center in Hellenic 
Studies and the James and Eleni Tsunis Chair in Hellenic 
Studies. The latter are in honor of his parents.
    In short, he is just a perfect candidate for Ambassador. He 
is smart. He is successful. He is practical. He has a knowledge 
of foreign affairs. He has a generous heart.
    I know him. I know George a long time. We are good friends, 
and I can tell you that all of these nice things that it says 
in his biography do not equal the goodness of the man. He is 
just a decent, honorable, caring person.
    And that matters a lot when you are Ambassador. Because 
when the people of a country, particularly a relatively small 
country like Norway, see who you are, they are going to 
understand and have a special appreciation. So I think he is 
going to be a great Ambassador to a very important 
relationship, that between United States and Norway.
    We work closely as NATO allies, trading partners. U.S. 
companies invest in Norway in critical products. And so, this 
is a great nomination, and I would urge the committee to 
approve him with alacrity and with unanimity.
    Senator Murphy. Thank you very much, Senator Schumer. Thank 
you for being here.
    And with that ringing introduction, Mr. Tsunis, the floor 
is yours.

        STATEMENT OF GEORGE JAMES TSUNIS, OF NEW YORK, 
         TO BE THE AMBASSADOR TO THE KINGDOM OF NORWAY

    Mr. Tsunis. Thank you, Chairman Murphy, Ranking Member 
Johnson----
    Thank you, Chairman Murphy, Ranking Member Johnson, and 
esteemed members of the committee.
    Let me first thank Senator Schumer, who has been a mentor. 
I thank him for his support, his guidance, his imprimatur. It 
has been very meaningful to me.
    I am both honored and humbled to appear before you today as 
President Obama's nominee to be Ambassador to the Kingdom of 
Norway. I thank the President for his trust and confidence in 
me, and I am grateful to this committee for considering my 
nomination.
    I am also grateful for this opportunity to serve our 
country, and I would be remiss in not acknowledging a few of 
the many people who have made this journey possible.
    First, my parents, who emigrated to this country of 
opportunity and meritocracy, seeking to build a better life for 
their family. My parents sacrificed a lot to give my sisters 
and I the opportunities they never had. So it is with gratitude 
that I acknowledge my mom today. I would have loved to 
introduce her, but she had recently been in the hospital. My 
mom, Eleni, who had the foresight and determination to ensure 
that my sisters and I received a sound education and a 
reservoir of love.
    Today, I would also like to remember my father, James, who 
passed away 12 years ago. My dad was the embodiment of the 
American dream, starting out as a busboy at the Roosevelt Hotel 
in New York City, eventually opening his own small coffee shop 
and then a landmark restaurant that we still operate 43 years 
later.
    He has embraced our country with open arms, teaching my 
sisters, Anastasia and Vicki, both who are public school 
teachers, the importance of hard work, the value of a good 
education, which is America's great equalizer.
    Most importantly, I would like to thank my wife, Olga, and 
our three children, James, Eleni, and Yanna, who are behind me, 
this afternoon. They are my bedrock of support and living 
reminders of the legacy my parents started here in the United 
States.
    After attending law school, I worked in government, as an 
associate in a small law firm, and then as a partner in a large 
law firm until I founded Chartwell Hotels. During my tenure as 
CEO, Chartwell not only weathered this great recession, but 
experienced unprecedented growth. It taught me how to operate 
in a stressful environment.
    My company's success was not the result of one person's 
effort. Whether public or private, a successful organization is 
built through teamwork and a collaborative sense of mission. If 
confirmed, I will draw on this experience to make the best case 
for my country, cognizant that I will be working with a 
terrific American and Norwegian team at Embassy Oslo.
    Throughout my career, I have maintained a strong interest 
in foreign and economic affairs. I have had the pleasure of 
contributing to public policy as a member of the Brookings 
Institution Foreign Policy Leadership Committee and as a 
trustee of Business Executives for National Security. If 
confirmed, I look forward to putting these experiences to work 
for the American people.
    We share strong bilateral ties with Norway, steeped in 
shared values, such as commitment to promoting human rights, 
democracy, and freedom throughout the world. Norway is a 
proactive global peace builder. Its influence and reputation in 
the international community far exceed its size.
    The most notable of these efforts are, of course, the Oslo 
Accords, although Norway has mediated a number of prominent 
conflicts. Norway is a strong supporter of the current 
negotiations between Israel and the Palestinians, which I 
believe reflects Norway's strong desire to contribute to world 
peace and its reputation as an honest arbiter.
    As a cofounder of NATO, Norway is a reliable and fully 
engaged ally. American and Norwegian soldiers fought together 
and have stood together in Afghanistan to support its 
transformation into a sovereign and secure nation.
    During NATO's operations in Libya, Norwegian F-16s were 
amongst the alliance's most effective air assets. Norway will 
further deepen its commitment to military readiness and 
interoperability with U.S. forces through its plan to purchase 
52 Joint Strike Fighters from Lockheed Martin, something I deem 
of great importance.
    Norway is an important business partner of the United 
States, and if confirmed, I will seek to expand the U.S. 
economic export opportunities and create American jobs. I will 
also work to deepen people-to-people ties between Norway and 
the United States through public diplomacy efforts. If 
confirmed, I will also seek to strengthen what is already a 
very strong relationship between our two countries and maintain 
the Embassy's proud tradition.
    As I mentioned at the start, at my core, I am grateful for 
this opportunity to serve my country. I have an obligation to 
give back, and I look forward to answering any questions you 
have.
    [The prepared statement of Mr. Tsunis follows:]

                 Prepared Statement of George J. Tsunis

    Mr. Chairman, Ranking Member Johnson, and esteemed members of the 
committee, I am both honored and humbled to appear before you today as 
President Obama's nominee to be Ambassador to the Kingdom of Norway. I 
thank the President for his trust and confidence in me, and I am 
grateful to this committee for considering my nomination. I am also 
grateful for this opportunity to serve our country, and I would be 
remiss in not acknowledging a few of the many people who have made this 
journey possible. First my parents, who immigrated to this country of 
opportunity and meritocracy, seeking to build a better life for their 
family. My parents sacrificed a lot to give my two sisters and me the 
opportunities they never had. So it is with gratitude that I introduce 
my mother, Eleni, who had the foresight and determination to ensure 
that my sisters and I received a sound education and a reservoir of 
love.
    Today I would also like to remember my father, James, who passed 
away 12 years ago. My dad was the embodiment of the American dream, 
starting out as a busboy at the Roosevelt Hotel in New York City, 
eventually opening his own small coffee shop and then a landmark 
restaurant that is still open today, 42 years later. He embraced our 
country with open arms, teaching his children the importance of hard 
work, family, and the value of a good education. These are not lessons 
that I or my sisters, Anastasia and Vicki, took lightly. My sisters 
took that lesson one step further and became public school teachers. 
Most importantly, I would like to thank my wife, Olga, and our three 
children James, Eleni, and Yanna, who are my bedrock of support and 
living reminders of the legacy my parents started here in the United 
States.
    After attending law school, I worked in government, as an associate 
in a small law firm, and then as a partner in a large firm, until I 
followed my father into the world of business and entrepreneurship when 
I founded Chartwell Hotels. During my tenure as CEO, Chartwell not only 
weathered the recession but experienced unprecedented growth. Having 
personally witnessed the strength and resiliency of U.S. business and 
its success in the international marketplace, I feel I understand the 
importance of expanding our global business and trade.
    My company's success was not the result of one person's effort. 
Whether public or private, a successful organization is built through 
teamwork and a collaborative sense of mission. If I am confirmed, I 
will draw on this experience to make the best case for my country, 
cognizant that I will be working with a terrific American and Norwegian 
team at Embassy Oslo.
    Throughout my career, I have maintained a strong interest in 
foreign and economic affairs, and I've had the pleasure of contributing 
to public policy as a member of the Brookings Institution's Foreign 
Policy Leadership Committee and as a trustee with the Business 
Executives for National Security. If confirmed, I look forward to 
putting this experience to work for the American people.
    We share strong bilateral ties with Norway, in large part because 
we share a commitment to promoting human rights, democracy, and freedom 
throughout the world. Norway is a proactive, global peace-builder and 
for a country of just 5 million people, its influence and reputation in 
the international community far surpasses its size. The most notable of 
these efforts is the Oslo Accords, although Norway has mediated a 
number of prominent conflicts, including those in Sri Lanka and 
Colombia. Norway is a strong supporter of the current negotiations 
between Israel and the Palestinians. This reflects Norway's strong 
desire to contribute to world peace, and its reputation as an honest 
arbitrator.
    In addition to peace and reconciliation efforts, Norway is a 
generous contributor to international development and humanitarian 
relief efforts. Norway is a strong partner on environmental matters, 
and a leader in the area of global climate change. With our common 
strategic interest in the Arctic, Norway is a natural partner in these 
fields. If confirmed, I will work to preserve and expand this 
invaluable partnership with Norway.
    A cofounder of NATO, Norway is a reliable ally. American and 
Norwegian soldiers and civilians have stood together in Afghanistan to 
support its transformation to a safe, sovereign, and secure nation. 
During NATO operations in Libya in 2011, Norwegian F-16s were among the 
alliance's most effective air assets. Norway will further deepen its 
commitment to military readiness and interoperability with U.S. forces 
through its plans to purchase 52 Joint Strike Fighters from Lockheed 
Martin.
    Norway is an important business partner of the United States. We 
are Norway's sixth-largest trading partner and our trade relationship 
is free of major disputes. My focus, if I am confirmed, will be 
expanding economic development opportunities both for U.S. companies in 
Norway, and encouraging Norwegian firms' investments in the United 
States. The energy sector is at the heart of the U.S.-Norwegian 
economic relationship, and it is expected that U.S. energy companies 
will expand their interests in the Norwegian oil and gas sector, 
creating new export opportunities and jobs for American businesses.
    With the Senate's confirmation, I will work to expand European 
support for the transatlantic relationship to deepen people-to-people 
ties between Norway and the United States. I will give my full support 
to public diplomacy efforts to reach out to people throughout Norway 
and to provide educational exchange opportunities for Norwegians to 
study in the United States, and expand these opportunities wherever 
possible. There is no better way to build understanding than to expose 
someone directly to life in America and direct engagement with the 
American people.
    If confirmed, I will work side by side with my outstanding Embassy 
team to strengthen this already strong relationship between our two 
countries and maintain the Embassy's proud tradition, serving U.S. 
interests. As I mentioned at the start, at my core I am grateful for 
this opportunity to serve my country--I have an obligation to give 
back--and I look forward to answering any questions you have.

    Senator Murphy. Thank you very much, Mr. Tsunis.
    Now finally, Ms. Bell, welcome.

STATEMENT OF COLLEEN BRADLEY BELL, OF THE DISTRICT OF COLUMBIA, 
                TO BE THE AMBASSADOR TO HUNGARY

    Ms. Bell. Thank you, Mr. Chairman, Senator Johnson, and 
distinguished members of the Senate Foreign Relations 
Committee.
    It is an honor for me to appear before you as President 
Obama's nominee to be the United States Ambassador to Hungary. 
I am deeply grateful for the confidence and trust that 
President Obama and Secretary Kerry have placed in me. I am 
humbled by this opportunity, and if confirmed, I will proudly 
represent our country abroad.
    With the chairman's permission, I would like to acknowledge 
some of my family members. I would particularly like to thank 
my husband, Bradley, and our four children--Chasen, Caroline, 
Charlotte, and Oliver--for their steadfast and unwavering 
support in this new endeavor.
    I would also like to thank my father, who is here with me 
today. A former United States Marine, he instilled in me the 
importance of hard work and integrity in achieving my goals. My 
passion for public service is driven by our shared hopes for a 
better world for our next generation, a world that we build 
with the friendship and cooperation of our partners and allies.
    Hungary is a strong ally of the United States. We enjoy a 
close partnership embedded in our common commitment to two 
bedrock Transatlantic organizations, the OSCE and NATO. 
Inspired by shared interests and common values, Hungary has 
been a generous and reliable contributor to the International 
Security Assistance Force in Afghanistan. Hungary also 
contributes peacekeeping troops to the international mission in 
Kosovo and to EU operations in Bosnia and Herzegovina.
    Hungary has been an active and constructive supporter of 
U.S. efforts to broker a peace agreement between Israel and the 
Palestine Authority and of the ongoing international program to 
disarm the Syrian chemical weapons program. Police and civilian 
security cooperation has been excellent, as exemplified by the 
presence of the U.S.-sponsored International Law Enforcement 
Academy in Budapest.
    Last year marked the 90th anniversary of the United States-
Hungarian diplomatic relations. That anniversary gave us an 
opportunity to celebrate and reflect on our partnership, a 
relationship which extends beyond our common interest in 
security as NATO allies, and is anchored by deep economic ties 
and common values shared by the citizens of our two nations.
    At the same time, we have been open over the last 2 years 
about our concerns about the state of checks and balances in 
Hungary and the independence of some key institutions. Many 
argue that sweeping legislative and constitutional changes have 
hurt the international investment climate, undermined property 
rights, weakened the judiciary, and centralized power in the 
hands of the executive.
    The United States has not been alone in this regard. The 
perceived erosion of democratic checks and balances has 
garnered scrutiny from various bodies within the European 
Union. If confirmed, I will work tirelessly to uphold American 
and European democratic values, to express our concerns where 
appropriate, and to urge our Hungarian partners to work 
collaboratively with international partners and civil society 
on these issues.
    The idea of pluralism is integral to our understanding of 
what it means to be a democracy. Democracies recognize that no 
one entity, no state, no political party, no leader will ever 
have all the answers to the challenges we face. And depending 
on their circumstances and traditions, people need the latitude 
to work toward and select their own solutions.
    Our democracies do not and should not look the same. 
Governments by the people, for the people, and of the people 
will reflect the people they represent. But we all recognize 
the reality and importance of these differences. Pluralism 
flows from these differences.
    The United States has also expressed concern about the rise 
of extremism, which, unfortunately, is a trend not unique to 
Hungary. However, the rise in Hungary of extremist parties is 
of particular concern. If confirmed, protecting and promoting a 
climate of tolerance will be one of my key priorities.
    The Hungarian Government has undertaken a series of steps 
to address lingering hatred and the legacy of the Holocaust to 
include planned events in 2014 to commemorate the 70th 
anniversary of the large-scale deportation to Auschwitz and the 
2015 assumption of the presidency of the International 
Holocaust Remembrance Alliance. If confirmed, I look forward to 
working with government organizations, civic and religious 
groups, and other stakeholders to confront and to beat 
prejudice and hatred in all of its forms.
    We have enjoyed and benefited from our close relationship 
with Hungary for over 90 years. Just as we continue to work 
together in Afghanistan and around the world to uphold freedom 
and democracy, so, too, will we work to maintain an open and at 
times difficult dialogue on the importance of upholding our 
shared values at home.
    I bring to the table two decades of experience as a 
businesswoman, executive manager, and leader in the nonprofit 
arena. As a producer, I have been an integral part in 
developing a U.S. product that we export to more than 100 
countries for the daily consumption of over 40 million viewers.
    The demands of producing a daily show have honed my 
managerial skills and required me to carefully coordinate the 
diverse activities of a very large staff. My work in the 
nonprofit sector has left me with a deep appreciation for the 
role and the importance of civil society in a healthy 
democracy.
    If confirmed, I will give the highest priority to ensuring 
the well-being of U.S. citizens living, working, and traveling 
in Hungary, and I will also seek opportunities to enhance our 
cooperation on international security issues and to expand 
commercial opportunities for American firms while also firmly 
promoting and protecting our shared values and principles.
    If confirmed, I pledge to do my best in advancing America's 
interests and values. I look forward to working with this 
committee and Congress in that effort.
    Thank you again for the opportunity to appear before you 
today. I would be happy to answer any questions.
    [The prepared statement of Ms. Bell follows:]

               Prepared Statement of Colleen Bradley Bell

    Thank you Mr. Chairman, Ranking Member Johnson, and distinguished 
members of the Senate Foreign Relations Committee.
    It is an honor for me to appear before you as President Obama's 
nominee to be the United States Ambassador to Hungary.
    I am deeply grateful for the confidence and trust that President 
Obama and Secretary Kerry have placed in me. I am humbled by this 
opportunity, and if confirmed, I will proudly represent our country 
abroad.
    With the Chairman's permission, I would like to acknowledge the 
presence of some of my family members who were able to join me here 
today. I would particularly like to thank my husband, Bradley, for his 
steadfast and unwavering support in this new endeavor. I would also 
like to thank my father. A former United States Marine, he instilled in 
me the importance of hard work and integrity in achieving my goals. My 
passion for public service is driven by our shared hopes for a better 
world for our next generation, a world that we build with the 
friendship and cooperation of our partners and allies.
    Hungary is a strong ally of the United States. We enjoy a close 
partnership embedded in our common commitment to two bedrock 
transatlantic organizations--the OSCE and NATO. Inspired by shared 
interests and common values, Hungary has been a generous and reliable 
contributor to the International Security Assistance Force in 
Afghanistan. Hungary also contributes peacekeeping troops to the 
international mission in Kosovo and to EU operations in Bosnia and 
Herzegovina. Hungary has been an active and constructive supporter of 
U.S. efforts to broker a peace agreement between Israel and the 
Palestine Authority and of the ongoing international program to disarm 
the Syrian chemical weapons program. Police and civilian security 
cooperation has been excellent, as exemplified by the presence of the 
U.S.-sponsored International Law Enforcement Academy (ILEA) in 
Budapest.
    Last year marked the 90th anniversary of U.S.-Hungarian diplomatic 
relations. That anniversary gave us an opportunity to celebrate and 
reflect on our partnership--a relationship which extends beyond our 
common interest in security as NATO allies and is anchored by deep 
economic ties and common values shared by the citizens of our two 
nations.
    At the same time, we have been open over the last 2 years about our 
concerns about the state of checks and balances in Hungary and the 
independence of some key institutions. Many argue that sweeping 
legislative and constitutional changes have hurt the international 
investment climate, undermined property rights, weakened the judiciary, 
and centralized power in the hands of the executive. The United States 
has not been alone in this regard. The perceived erosion of democratic 
checks and balances has garnered scrutiny from various bodies within 
the European Union. If confirmed, I will work tirelessly to uphold 
American and European democratic values, to express our concerns where 
appropriate, and to urge our Hungarian partners to work collaboratively 
with international partners and civil society on these issues.
    The idea of pluralism is integral to our understanding of what it 
means to be a democracy. Democracies recognize that no one entity--no 
state, no political party, no leader--will ever have all the answers to 
the challenges we face. And, depending on their circumstances and 
traditions, people need the latitude to work toward and select their 
own solutions. Our democracies do not, and should not, look the same. 
Governments by the people, for the people, and of the people will 
reflect the people they represent. But we all recognize the reality and 
importance of these differences. Pluralism flows from these 
differences.
    The United States has also expressed concern about the rise of 
extremism which unfortunately is a trend not unique to Hungary. 
However, the rise in Hungary of extremist parties is of particular 
concern. If confirmed, protecting and promoting a climate of tolerance 
will be one of my key priorities.
    The Hungarian Government has undertaken a series of steps to 
address lingering hatred and the legacy of the Holocaust, to include 
planned events in 2014 to commemorate the 70th anniversary of the large 
scale deportations to Auschwitz, and the 2015 assumption of the 
presidency of the International Holocaust Remembrance Alliance. If 
confirmed, I look forward to working with government organizations, 
civic and religious groups, and other stakeholders to confront and 
defeat prejudice and hatred in all of its forms.
    We have enjoyed and benefited from our close relationship with 
Hungary for over 90 years. Just as we continue to work together in 
Afghanistan and around the world to uphold freedom and democracy, so 
too will we work to maintain an open--and at times difficult--dialogue 
on the importance of upholding our shared values at home.
    I bring to the table two decades of experience as a businesswoman, 
executive manager, and leader in the nonprofit arena. As a producer I 
have been an integral part in developing a U.S. product that we export 
to more than 100 countries for daily consumption with more than 40 
million viewers. The demands of producing a daily show have honed my 
managerial skills and required me to carefully coordinate the diverse 
activities of a very large staff. My work in the nonprofit sector has 
left me with a deep appreciation for the role and the importance of 
civil society in a healthy democracy.
    If confirmed, I will give the highest priority to ensuring the 
well-being of U.S. citizens living, working, and traveling in Hungary 
and I will also seek opportunities to enhance our cooperation on 
international security issues, and to expand commercial opportunities 
for American firms while also firmly promoting and protecting our 
shared values and principles.
    If confirmed, I pledge to do my best in advancing America's 
interests and values. I look forward to working with this committee and 
Congress in that effort.
    Thank you, again, for the opportunity to appear before you today. I 
would be happy to answer any questions.

    Senator Murphy. Thank you very much, Ms. Bell.
    Just to my colleagues, I told all of our nominees here not 
to be disappointed if it was only Senator Johnson and I here 
today, and I just want to assure you that this is not a 
coordinated sneak attack on this panel to have five Senators. 
[Laughter.]
    Let me direct my first question to Mr. Tsunis and Mr. 
Barber because two countries that you are going to be 
representing us in have some common concerns in the Arctic 
region, and given that Iceland has chosen not, for the time 
being, to align themselves with the EU, they do that in part 
because they see themselves as a gateway to the Arctic for a 
variety of industries and resources.
    Of course, Norway has had a connection, historic connection 
to the Arctic. And as a neighbor of Russia, also wonder what 
their views are on Russia's new $600 billion military 
modernization and increased activity in the Arctic.
    So I wonder if you might both talk a little bit about how 
Norway and Iceland view the future of governance in the Arctic 
and perhaps how the United States and both of these countries 
can work together as we try to figure out a pathway forward?
    Mr. Tsunis. Thank you for your question, Mr. Chairman.
    Governance in the Arctic in Norway's view is through the 
Arctic Council. It was established in 1996. Norway is one of 
eight full-fledged members on the council. Actually, it was 
very important to Norway that the permanent Secretariat to the 
council be located in Tromso, which occurred last year.
    The Arctic is a very important foreign policy priority for 
both the United States and Norway. As oil and gas continue to 
be found as we go further up the Norwegian Continental Shelf, 
there are tremendous opportunities for both the United States, 
Norway, and our respective companies in those fields. There are 
also shipping lanes, which are now starting to open up, and 
that could mean very significant trade opportunities for both 
our countries.
    As regarding Russia, Norway has always had a posture of 
constructive engagement. I will tell you there is some concern 
with problems in their civil society, problems in restricting 
their media, an uneven business climate at times, and the 
military buildup that you mentioned. But it continues to have 
constructive engagement.
    And last year, both former Presidents of Russia and Norway 
entered into a cross-border cooperation, the Barents Euro 
Cooperation Agreement. And I think that was a very positive 
step.
    So, clearly, if confirmed, I am going to look to continue 
my engagement with Norway on all of these issues and to work 
with them in constructive engagement with Russia.
    Senator Murphy. Mr. Barber.
    Mr. Barber. Senator, I will add just briefly to Mr. Tsunis' 
comments and reinforce the comment that you, yourself, made, as 
well as Mr. Tsunis, that the United States and Iceland share an 
identity as Arctic nations, and they are two of the eight 
Arctic Council members. The Arctic Council has a mission to 
promote cooperation and coordination among its member states, 
including the six others, and this is a forum in which the 
United States believes it is important to engage not only with 
Iceland, but the other Arctic nations on issues that are of 
common importance to them.
    Senator Murphy. Ms. Bell, you touched briefly on the same 
subject that I talked about with respect to Hungary, which is 
some of these concerning developments regarding the rollback of 
certain democratic institutions and the relative independence 
of the bank and of the court.
    And I do not want to overstate the concern as you look at 
each one of these issues individually, but when you roll them 
all together, one of the worries is that it starts to create a 
little bit of a dangerous precedent within the OSCE and within 
NATO, as we are preaching to people who want to join these 
associations as to the democratic reforms that they have to 
undertake. It is a little bit difficult when you look at the 
totality of what is happening in Hungary to continue to hold 
that line.
    So we do not normally get into the business of telling our 
European partners through our embassies what they should be 
doing with respect to internal and domestic policy. So what do 
you think our levers are here? What is the appropriate 
intervention, the appropriate push and pull that we can give 
our partners in Hungary as they work through the future of some 
of these issues?
    Ms. Bell. Thank you, Senator.
    If confirmed, one of the key priorities will be to build 
upon the mutually beneficial economic, diplomatic, and security 
partnership that we have with Hungary. At the same time, there 
are governance issues that have been addressed over the past 2 
years. And these have not come strictly from the United States, 
but they have also been concerns that have been expressed by 
the European Union.
    As you mentioned, this erosion of checks and balances and 
the centralization of executive authority and also the freedom 
of and independence of the judiciary. And to name another would 
be media freedom. I absolutely do think that given the fact 
that Hungary is a strong and valued NATO ally of ours, a strong 
ally means an ally who has strong democracy in existence.
    So this is not always an easy conversation to have, but it 
is a necessary one. And if confirmed, I will continue to 
participate in a constructive and effective dialogue with our 
Hungarian partners about the values necessary to maintain and 
build a robust democracy.
    Senator Murphy. Thank you.
    Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    I guess I would just like to go down the table there and 
just ask a question from your standpoint. What are the greatest 
commercial opportunities we have with the country you are going 
to be Ambassador to, if confirmed?
    Mr. Barber, I will start with you.
    Mr. Barber. Thank you, Senator Johnson.
    I think that Iceland is a country remarkable, for one, in 
its pioneering and innovation in the development of renewable 
power, geothermal and hydropower. Indeed, 85 percent of all 
energy used is sourced from renewables.
    Iceland is fortunate that its geological location is such 
that these resources are pretty readily available. But beyond 
that, Iceland has utilized its own ingenuity and 
resourcefulness of its peoples to develop these resources, to 
develop the technology to exploit them.
    And there are a number of both scientific collaborations 
that are in place as we speak, as between our two countries, 
our governments, and indeed between and among commercial 
enterprises in both countries to develop this technology and to 
employ it not only in Iceland, not only in the United States, 
but actually in other places around the world. There is great 
potential there, and that is just simply one area where I hope 
that our countries can work together.
    Senator Johnson. So there are opportunities for us to 
import the advanced technology from Iceland or vice versa, that 
they actually would be importing technology from the United 
States?
    Mr. Barber. I would say both, quite frankly, Senator. But 
the Icelanders are out in front of the rest of the world in the 
effort to exploit geothermal renewable energy power here.
    Senator Johnson. Mr. Tsunis, you talked about obviously 
Norway and oil. Are there other opportunities there between our 
two countries?
    Mr. Tsunis. Sure. Although the heart of our business ties 
are in the energy field, there are--we have a $15 billion 
annual trade partnership with Norway. It is very important to 
them. We are their fifth-largest trading partner.
    There are 300 businesses that are currently operating in 
Norway. Sixty percent of our investments in Norway have to do 
with energy, and there is a huge, huge American community in 
Stavanger there.
    But in this trade relationship, we have a slight deficit in 
manufactured goods. We have a slight surplus in services, but 
there are a lot of things that we will be getting to--there are 
a lot of markets that will continue to open up.
    Senator Johnson. Well, let me just ask, as Ambassador, how 
would you promote those trade cooperations?
    Mr. Tsunis. Thank you for that save, Senator Johnson.
    There has--prior Ambassadors have been very, very engaged 
in this issue. It is important that we continue--interesting.
    Senator Johnson. Let me move on to Ms. Bell.
    Mr. Tsunis. Please, thank you.
    Senator Johnson. What are you looking at in terms of those 
commercial opportunities between the United States and Hungary?
    Ms. Bell. Thank you very much for the question.
    The United States and Hungary have a strong commercial and 
business relationship. Nine billion dollars of U.S. investment 
are in Hungary right now. There will be opportunities to 
increase our trade relationship. I look forward to advocating 
for TTIP and ultimately using TTIP as a tool to promote the 
trade relationship, which will ultimately grow U.S. jobs and 
simultaneously improve the Hungarian economy.
    I look to work--I think there are opportunities, business 
and commercial opportunities in a variety of different business 
sectors in Hungary. I will look to promote commercial 
opportunities for U.S. businesses in manufacturing, 
pharmaceuticals, health and welfare, and energy at some point.
    Senator Johnson. Ms. Bell, you talked about in your 
testimony the rise in Hungary of extremist parties, that that 
was a particular concern. Can you just describe that in a 
little more, greater detail?
    Ms. Bell. Yes. Thank you very much, Senator, for the 
opportunity to touch on this.
    It is important for us to continue to confront bigotry and 
intolerance at all times. There is an extremist group in 
Hungary. They are the third-largest political party in Hungary, 
and they hold 11 percent of the seats in Parliament. They are 
responsible for a large percentage of the incidents of anti-
Semitism and the vitriolic language that is coming out of 
Hungary.
    The Hungarian Government has stated that they will not 
cooperate with this party, Jobbik Party. Embassy Budapest and 
the United States has clearly and consistently expressed to the 
Hungarian Government the need to condemn these incidences 
immediately.
    I do believe and I hope that there is a chance that these--
with the improvement in the economy and an engaged citizenry 
and effective diplomacy that we can reduce these rates.
    Senator Johnson. OK. Well, thank you.
    Thank you, Mr. Chairman.
    Senator Murphy. Senator Cardin.
    Senator Cardin. Well, thank you, Mr. Chairman.
    And let me thank all three of our nominees for their 
willingness to serve our country. It is not easy. It will 
demand a lot of time and certainly family sacrifice. So I thank 
you all, and I thank your families for your willingness.
    In all three of the countries that you have been nominated 
to represent the United States, they are all members of the 
OSCE, the Organization for Security and Cooperation in Europe. 
I had the honor of chairing the U.S.-Helsinki Commission, which 
is the U.S. participation in the OSCE.
    The OSCE is the largest regional organization by number of 
countries in the world. It includes both the United States and 
Russia, which gives us a unique opportunity to advance the good 
governance issues that Ms. Bell was talking about as it relates 
to Hungary. I think it is fair to say that Norway and Iceland 
are strong members that share the U.S. commitment in all those 
areas and are our key allies.
    In regards to Hungary, which is a key strategic U.S. ally, 
as you point out--no question about that, a NATO partner--their 
commitments to the Helsinki principles are somewhat of concern.
    Ms. Bell, you mentioned in your statement the fact that 
their constitutional and statutory changes are problematic. You 
were a little diplomatic in your written statement. I think 
much stronger in your response to our questions, which I 
appreciate very much. Maybe you are learning diplomacy.
    But let me point out that Hungary is a friend, and we have 
an obligation to be pretty direct about this. And what is 
happening in Hungary today is very concerning. You mentioned 
the Jobbik Party, which is the third-largest party, as you 
point out, in Hungary. And it is true that the government has 
not embraced the Jobbik Party, but they have not condemned it. 
They played politics with it locally.
    So we have not seen the strong government action that we 
would like to see. Instead, we see activities taking place in 
Hungary that really raises major concern for us. They are now 
setting up this museum to commemorate the German occupation of 
Hungary. And quite frankly, there is major concern here because 
it looks like it is trying to say that everything that happened 
in Hungary during World War II was the responsibility of the 
Germans, whereas we know there were many Hungarians that were 
complicit as to what happened in Hungary during World War II.
    And I mention that because, yes, we have seen, as you point 
out in your statement, the rise of extremism. It is not just 
Jews and Jewish community in Hungary. It is the Roma community, 
which is being very much singled out.
    And we have seen a rise of anti-Semitism and extremism, but 
we found governments have stood up against it. And in Hungary, 
we are concerned that we have not seen the strength in its 
government to condemn those activities.
    So if you are confirmed as our Ambassador, you have got to 
be a strong voice on this. You cannot equivocate at all. And to 
know that if the relationship between our two countries will 
continue to grow stronger, we expect their government to take 
action and not just to say one thing to the local constituency 
in Hungary and another thing to our Ambassador.
    So I will give you one more opportunity to respond on this. 
I very much appreciate your responses to Senator Murphy and 
Senator Johnson. I think they were right on. But I hope you 
understand that you have a responsibility to be very direct 
when a friend is not taking the right course.
    Ms. Bell. Thank you very much, Senator Cardin.
    I do understand this, and I appreciate the responsibility 
that I will be taking, if confirmed. You have my word that I 
will continue to maintain a very strong and constructive 
dialogue with the Hungarian Government about the importance of 
drowning out this hate speech and these incidences of anti-
Semitism.
    And as I mentioned, the Government of Hungary did say that 
they would not engage with Jobbik, and this is something that 
we will hold them at their word.
    Thank you.
    Senator Cardin. Thank you.
    I hope also you will work closely with us in Congress and 
keep us informed and be prepared to accept advice from us as 
this issue unfolds because it is a major concern.
    Mr. Tsunis, I have known of your record for a long time, 
and I thank you for being willing to allow your talent to be 
used to represent our country in Norway. It is a very important 
country, and as you have pointed out, the opportunities between 
our countries only can get stronger.
    Mr. Barber, Iceland is a very interesting country and I 
think maybe may lead the world in its ability to take care of 
its energy needs with renewable sources. And it offers 
incredible opportunity for us, and of course, it is pretty 
close by. So it really is a country that we think can become a 
much stronger ally.
    We have had some difficulties on military facilities, but 
it seems to me that there is a lot of promise for growth, and 
we thank you very much for your willingness to step forward.
    Thank you, Mr. Chairman.
    Senator Murphy. Thank you, Senator Cardin.
    Senator McCain.
    Senator McCain. Well, thank you, Mr. Chairman.
    Mr. Barber, I take it you have been to Iceland?
    Mr. Barber. Sir, I have not. I have not had the privilege 
yet. I look forward to----
    Senator McCain. Mr. Tsunis, have you been to Norway?
    Mr. Tsunis. I have not.
    Senator McCain. I guess, and Ms. Bell, have you been to 
Hungary?
    Ms. Bell. Yes, Senator, I have.
    Senator McCain. When?
    Ms. Bell. I was in Hungary in March.
    Senator McCain. Good. Thank you.
    Ms. Bell, do you think that United States-Hungarian 
relations are in a good place?
    Ms. Bell. Senator, thank you very much for this important 
question.
    I think that there are aspects of our bilateral 
relationship that are very strong. We do have a strong military 
cooperation. Law enforcement cooperation is also very strong. 
Hungary works on a variety of different peacekeeping missions 
in Kosovo and a long-term peacekeeping mission in the Balkans, 
and also they have provided troops to Afghanistan and continue 
to do so.
    That being said, I do think that there is opportunity to 
improve the bilateral relationship. I think that there are a 
variety of ways of doing so and are not necessarily all 
mutually exclusive.
    If confirmed, I look----
    Senator McCain. For example?
    Ms. Bell. For example, to work to build the military 
cooperation that we do have at this point and also promote 
business opportunities for U.S. companies and also continue to 
work these governance issues, discuss these governance issues.
    Senator McCain. So what would you be doing differently from 
your predecessor, who obviously had very rocky relations with 
the present government?
    Ms. Bell. If confirmed, I look forward to working with the 
broad range of society----
    Senator McCain. My question was what would you do 
differently?
    Ms. Bell. Senator, in terms of what I would do differently 
from my predecessor----
    Senator McCain. That was the question.
    Ms. Bell [continuing]. Kounalakis, well, what I would like 
to do, if confirmed, I would like to work toward engaging civil 
society in a deeper, in a deeper----
    Senator McCain. Obviously, you do not want to answer my 
question. Do you think democracy is under threat in Hungary?
    Ms. Bell. I think that there are absolutely signs of an 
erosion of checks and balances in Hungary. I do think that. I 
think that there is a centralization of executive authority 
that has taken place. I do think that the media freedoms are 
compromised.
    Senator McCain. Do you think our--what are our strategic 
interests in Hungary?
    Ms. Bell. Well, we have--our strategic interests, in terms 
of what are our key priorities in Hungary, I think our key 
priorities are to improve upon, as I mentioned, the security 
relationship and also the law enforcement and to promote 
business opportunities, increase trade.
    Senator McCain. I would like to ask again what our 
strategic interests in Hungary are.
    Ms. Bell. Our strategic interests are to work 
collaboratively as NATO allies, to work to promote and protect 
the security for both countries and for the world, to continue 
working together on the cause of human rights around the world, 
to build that side of our relationship while also maintaining 
and pursuing some difficult conversations that might be 
necessary in the coming years.
    Senator McCain. Great answer.
    Mr. Tsunis, following last year's parliamentary elections, 
Norway's conservative party now had a center-right coalition, 
as you know, that will include the anti-immigration party 
called the Progress Party. What do you think the appeal of the 
Progress Party was to the Norwegian voters?
    Mr. Tsunis. Thank you, Senator. That is a very seminal 
question.
    Generally, Norway has and is very proud of being a very 
open, transparent, and democratic parliamentary government. One 
of the byproducts of being such an open society and placing 
such a value on free speech is that you get some fringe 
elements that have a microphone, that spew their hatred, and 
although I will tell you Norway has been very quick to denounce 
them, we are going to continue to work with Norway to make 
sure----
    Senator McCain. The government has denounced them? They are 
part of the coalition of the government.
    Mr. Tsunis. Well, I would say--you know what?
    Senator McCain. I doubt seriously that they----
    Mr. Tsunis. I stand corrected. I stand corrected. I stand 
corrected and would like to leave my answer at they are--it is 
a very, very open society and that most Norwegians, the 
overwhelming amount of Norwegians and the overwhelming amount 
of people in Parliament do not feel the same way.
    Senator McCain. I have no more questions for this 
incredibly highly qualified group of nominees.
    Senator Murphy. Thank you.
    Senator Kaine.
    Senator Kaine. Mr. Barber, talk a little bit about--and I 
am sorry that I missed your opening statement. But just talk a 
little bit about the state of the Icelandic economy recovery 
after the financial collapse. I know it affected Iceland in a 
very significant way. So what is the current economic status in 
the country?
    Mr. Barber. Well, Senator, thanks for the question.
    And I can tell you that from the depths of the fall of 2008 
and the extreme difficulties that both the banks and the 
country as a whole experienced as a result of the financial 
collapse, Iceland has recovered thus far remarkably well. It 
has now modest, though positive GDP growth, reduced 
unemployment, and inflation is now in check.
    All of those are parts of the problems that the country 
experienced in 2008, 2009, and indeed into 2010. They have got 
a ways to go, but as there are still some capital controls that 
are in place, restrictions on money leaving the country, and 
some credit issues still to be tackled on the commercial side, 
on the home residential side. But they are making great 
progress, and there are several indicators that are looking 
very positive.
    Senator Kaine. Mr. Barber, one of the things that, you 
know, when I hear Americans talk about Iceland, most often 
Iceland is in a sentence or paragraph dealing with a place to 
go to see the effects of climate change, you know, if I talk to 
colleagues in the United States. So I know in the United States 
there is a significant awareness of climate issues in Iceland, 
and Iceland is sort of an example.
    Talk a little bit about, to the extent that you can, about 
the sort of internal--is there a lot of internal environmental 
activism in Iceland around climate issues? Because we are 
grappling at the congressional level of moving from talking 
about it to what the right policies are. I am kind of 
interested into how big an issue is that inside Icelandic 
society.
    Mr. Barber. Well, I think it is. I think that Icelanders 
and citizens of the United States share a great number of 
values, and some of those are in the arena of the climate and 
the changing nature of our climate.
    There is a little bit of a pivot here. Well, I should say 
certainly concern about climate in Iceland kind of goes hand-
in-hand with a desire for energy independence, and that, as I 
mentioned earlier in response to a question from Senator 
Johnson, that the Icelanders have done a great deal of work in 
developing geothermal resources and are, indeed, in 
collaboration with commercial enterprises in the United States 
exporting that technology and know-how.
    In fact, there is a joint Iceland-American company that has 
just won a billion-dollar contract to build a geothermal 
facility in Ethiopia. So, so there is awareness certainly of 
climate change as an issue, but also a desire to help not just 
within its own country and, indeed, in ours, but around the 
world to help to combat some of those effects by developing 
renewable resources where they are able to be developed.
    Senator Kaine. And innovative strategies. Thank you, Mr. 
Barber.
    Mr. Tsunis, a thank you and then a question. So a thank you 
to convey.
    Norway has really been one of the great partners in the 
world on humanitarian relief in Syria, both in terms of dollars 
put into humanitarian effort, but also Norwegian personnel have 
played a major role in the destruction of the chemical weapons 
stockpile in Syria. And so, first, that is an important thing 
to acknowledge to the country when you are there that we 
recognize it. We appreciate them. We need more partners like 
Norway in this humanitarian issue.
    Increasingly, finding ways to make sure that humanitarian 
aid gets delivered in Syria is occupying more and more of our 
time, and Norway has been a good asset. So I hope you will 
convey that.
    And then the question that I wanted to ask you is, Norway 
has also been a really good ally for us in NATO and U.N. 
missions. So it is one thing to be a NATO member, but in terms 
of putting people into the field for both NATO missions with 
the United States or U.N. missions, whether they be in Libya or 
Mali or elsewhere, Norway has been a strong ally.
    Is your understanding that the Norwegian public remains 
supportive of involvement with international institutions like 
NATO and U.N. in these kinds of missions? Is there still 
popular will to continue that?
    Mr. Tsunis. Thank you for your question, Senator.
    As you know, they are a founding member of NATO. They are 
very, very engaged. NATO remains very popular in Norway, and it 
is considered the cornerstone of their defense strategy.
    In November, Foreign Minister Brende and just last week the 
Defense Minister reiterated that at its core foreign policy and 
defense strategy is its relationship with the United States and 
with NATO. They have been a very effective ally. Some of the 
most effective--some of the most effective air resources in the 
Libyan conflict had been the Norwegian F-16s.
    They are continuing their commitment to defense and NATO. 
They are in the process of purchasing 52 F-35 Joint Strike 
Fighters, which really shows their commitment to 
interoperability. They have--also on the humanitarian effort 
not only are they a very active participant in the Lifeline 
Fund, which gives emergency funds to organizations that are 
under stress in civil societies, they chair the ad hoc liaison 
committee, which distributes humanitarian effort to the 
Palestinian state.
    And in Syria, Foreign Minister Brende just announced in 
Kuwait an additional $75 million in humanitarian aid for the 
people of Syria. That comes on top of $85 million for civil 
society and two $43 million commitments for humanitarian 
efforts that they previously have done.
    They have written off $500 million in loans in Burma, and 
throughout the world, they have shown themselves to be a very 
active facilitator of conflict but have also been very generous 
in humanitarian efforts, for development funds as well so these 
societies they are helping can stand on their own.
    Senator Kaine. Mr. Chair, with permission, could I ask one 
question of Ms. Bell?
    Ms. Bell, it strikes me that as I was hearing you chat 
about some of the civil institutional challenge in Hungary, 
particularly with the press, that you bring a really 
interesting expertise to this, having a background in media and 
press. You know, what better person to be able to speak to the 
values of an open society from a press standpoint and the 
reason to have a strong press climate than somebody who kind of 
comes out of that world.
    And so, I am just really going to offer you an opportunity 
to just kind of comment upon that. I think some of the best 
work we do are our Ambassadors individually, but also our 
Nation as a nation is the example that we set. When we set the 
right example, it speaks louder than any words we could say.
    You have been part of an industry in the communications 
side. You know what a free press, free and vigorous, robust, 
contentious, you know, press environment is like here. I would 
think that that would be something that in a diplomatic way you 
could, you know, bring to the table in encouraging Hungary to 
move more in that direction.
    Ms. Bell. Thank you very much, Senator.
    Yes, I do believe that freedom of the press is a core 
democratic value, and it is one that we all have to work, you 
know, to fight for the freedom of the press. If confirmed, I 
look forward to engaging the full range of civil society on 
this issue.
    I know that in Hungary right now there are watchdog groups 
and citizens who are working hard to bring back these freedoms 
and promote that very important core value of media and free 
press in Hungary.
    Senator Kaine. And finally, the State Department also has 
great assets and a special envoy that deals with anti-Semitism, 
wherever it is to be found throughout the world. And so, that 
is an asset also that you could draw on. Sadly, we see in too 
many countries in Europe, but elsewhere as well, anti-Semitism 
just still kind of a toxic brew that keeps stirring, and 
possibly it gets more challenging when there are difficult 
economic times. It seems to kind of spike.
    But we see that throughout European countries as well as a 
little bit in the anti-immigrant strain that was mentioned with 
respect to some others. So I would just encourage you to use 
those assets at State and your own personal assets in the 
industry to help in making the case for progress.
    Thank you, Mr. Chair.
    Senator Murphy. Thank you, Senator Kaine.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    Mr. Barber, you are from Massachusetts, and I know you 
well, and I know you are going to do a great job as Ambassador. 
And I know that you do a lot of work with start-ups, and 
clearly, this is an opportunity to use your expertise in terms 
of the business relationship between the United States and 
Iceland.
    And you just mentioned this partnership that we have for a 
billion-dollar deal, and so maybe you could talk a little bit 
about this incredible energy resource, which Iceland has. They 
are 100 percent hydro or geothermal in terms of the production 
of their electricity. So it is a 100-percent renewable country.
    What can that mean for us in terms of partnerships from a 
business perspective?
    Mr. Barber. Thank you very much, Senator Markey, for your 
kind words. I hope that if I am confirmed, I will prove to be 
worthy of them.
    I think that the--thus far what I have learned about the 
collaboration between our two countries, both on the commercial 
side as well as the research, educational components, there is 
a great deal of collaboration happening, and I would hope, if 
confirmed, to be witness to--indeed, aid as I am able--further 
collaboration.
    It is, indeed, a very exciting opportunity. There is a good 
deal more that can be done. The efforts that are underway right 
now are very exciting ones. The university exchanges are among 
them.
    And I think that one of the great opportunities that if I 
am confirmed I would like to be a part of is to engage U.S. 
manufacturing companies in the effort to apply this technology 
to be the providers of some of the hard resources that get 
utilized in the exploiting of the renewable resources not just 
in our country, certainly in Iceland, but in other parts of the 
world.
    Senator Markey. Beautiful. Thank you.
    You know what I would like to do? I would like to give each 
one of you 1 minute to tell us what it is that you want to 
achieve. Just a 1-minute summary. What is your goal when you 
all left? What is it that you hope to have achieved as the 
Ambassador to the country that you are going to be our 
Ambassador?
    So we will begin with you, Ms. Bell, and then we will go 
right down, and we will finish up with Mr. Barber. So you have 
1 minute. Just tell the committee what your goal is.
    Ms. Bell. Thank you very much.
    Hungary and the United States share many common values and 
positions on foreign policy. As I mentioned earlier, they are a 
strong and valued member of NATO. If confirmed, I look forward 
to furthering our security cooperation. Hungary contributes 
regularly to allied operations and peacekeeping missions.
    I would also like to work to promote commercial 
opportunities for U.S. businesses and advocate for TTIP and 
ultimately use TTIP as a tool to increase our trade 
relationship, which will ultimately grow jobs for the United 
States and simultaneously improve the Hungarian economy.
    I also think it is an important time to continue the 
dialogue on energy security and the need for energy 
diversification to provide the energy security.
    Senator Markey. Thank you. One minute, that is great.
    Mr. Tsunis.
    Mr. Tsunis. Thank you, Senator, for your question.
    We do not have the challenges in our bilateral relationship 
with Norway that we do with some of the other countries, but 
there are opportunities where we can do things that are better. 
We have opportunities to grow trade, provide greater investment 
opportunities for Norwegian companies in the United States, 
which are beneficial to our companies and workers. Statoil has 
a $27 billion investment with the United States.
    We want to open up markets and continue to open up markets 
in Norway for our American companies, which will also benefit 
companies and workers. We want to continue our close 
intelligence, military relationships with Norway because we 
will counter threats together. We need to do this together, 
which is very, very important.
    And on the last point is just balancing energy security 
with environmental concerns. Norway does it very, very well. We 
need to continue to engage them to do that together.
    Senator Markey. And finally, Mr. Barber.
    Mr. Barber. Thank you, Senator.
    I have got three--broadly stated, three priorities. One is 
the protection of the interests of United States citizens in 
Iceland, to build upon the very strong, already strong 
bilateral relationship to promote security of the United States 
and of Iceland.
    The second is along the lines of what has been discussed 
earlier, to promote those--seek out and promote those 
opportunities for bilateral trade and investment. One of the 
functions, I think, of an Ambassador is he or she gets to be a 
convener, a facilitator, a matcher of resources with 
opportunities.
    That is a very exciting prospect for me. It is part of what 
I have been doing in my life heretofore, and I look forward to 
that as an opportunity, if confirmed as Ambassador to Iceland.
    The third is, is to using the tools that are available, the 
tools of public diplomacy, to engage audiences across Iceland 
and to encourage the already-strong educational--Fulbright, for 
example--educational and cultural exchanges because I think 
this is good, in and of itself. But it broadens and deepens the 
bilateral relationship.
    Senator Markey. Thank you, Mr. Barber.
    And thank each of you for your willingness to serve our 
country. I am sure each of you is going to do an excellent job. 
Thank you so much.
    Thank you, Mr. Chairman.
    Senator Murphy. Thank you very much, Mr. Markey.
    What I love about this panel here today is that it 
represents the best of what we hope our Ambassadors will be, 
and that is representing the true diversity of the American 
experience. We have people with diverse background in law, in 
hospitality, in media, who have done philanthropic work in 
about 10 times as many different fields.
    We really appreciate you being willing to serve and 
appearing before us today. We look forward to your quick 
confirmation in this committee and then on the floor so you can 
get to work.
    We are going to leave the record open on this hearing until 
Tuesday at 6 p.m. If there are any additional questions, we 
hope that you will turn them around as quickly as possible to 
this committee.
    Senator Murphy. And with that, we are adjourned.
    [Whereupon, at 3:50 p.m., the hearing was adjourned.]


       NOMINATIONS OF MAX BAUCUS, ARNOLD CHACON, AND DANIEL SMITH

                              ----------                              


                       TUESDAY, JANUARY 28, 2014

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. Max Baucus, of Montana, to be Ambassador to China
Hon. Arnold Chacon, of Virginia, to be Director General of the 
        Foreign Service
Hon. Daniel Bennett Smith, of Virginia, to be Assistant 
        Secretary of State for Intelligence and Research
                              ----------                              

    The committee met, pursuant to notice, at 10:04 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez (chairman of the committee) presiding.
    Present: Senators Menendez, Cardin, Coons, Durbin, Udall, 
Murphy, Markey, Corker, Risch, Rubio, Johnson, McCain, and 
Barrasso.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    The Chairman. Good morning.
    Clearly one of the biggest opportunities before U.S. 
foreign policy today is getting the relationship between the 
United States and China, in the context of our rebalance to the 
Asia-Pacific, right. And I can think of few individuals more 
able and qualified at this important moment in history than our 
friend and colleague, the Senator from Montana, to help provide 
advice and guidance to the President and to Congress about how 
to get that relationship right.
    As you are well aware, China is likely to become the 
world's largest economy and all of us need to embrace that 
fact. Six of the world's 10-largest container ports are in 
China, as are numbers 11 and 12 on that list, which presents 
tremendous opportunities for American exporters. U.S. exports 
to China have increased by almost $40 billion in the past 4 
years alone, from $67 billion to $106 billion, creating and 
sustaining millions of U.S. jobs in sectors across the board 
from automobiles and power generation, machinery, aircraft, and 
other vital industrial sectors.
    Through the rest of the 21st century and beyond, much of 
the strategic, political, and economic future of the world is 
likely to be shaped by the decisions made in Washington and 
Beijing and the capitals of Asia over the next 4 to 5 years.
    The key challenge you will face as Ambassador, should you 
be confirmed--and I am sure you will be confirmed--is how to 
recognize the strategic and economic realities unfolding with 
the rise of China. You will play an integral role in 
reconceptualizing the problems we face and how to turn them 
into opportunities. In my view, the strategic decision by the 
Obama administration during its first term, described ``as a 
Rebalance to Asia,'' was absolutely right. If confirmed, you 
will be a central player in conveying a clear message to the 
entire region that America is an Asia-Pacific player and will 
be part of the region for the long haul, that we will continue 
to extend the efforts to rebalance our foreign policy to the 
Asia-Pacific, making sure the resources are there to work with 
allies and partners to shape the broader regional environment 
in the context of China's rise, that disagreements need not 
lead to conflict, neither should any of us labor under any 
false pretense that we are not going to safeguard and promote 
our national interests, and that we need to work with China and 
our other allies in the region to construct a new rules-based 
order for the Asia-Pacific community built on open and 
inclusive diplomatic, security, and economic mechanisms and 
institutions.
    And so we look forward to hearing from you, Senator Baucus, 
shortly.
    With that, let me introduce the distinguished ranking 
member, Senator Corker, for his opening statement.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Thank you, Mr. Chairman. I appreciate the 
way we work together, and I want to thank both of you for being 
here today: Senator Tester for introducing and, obviously, 
Senator Baucus for being willing to serve in this way. And I 
appreciate the relationship we have had in my 7 years here in 
the Senate. I appreciate the very frank conversation we had in 
our office about this post that you are getting ready to 
assume. And again, I thank you for your willingness to do it.
    You know, probably the most important--I think you know 
this--relationship we, as a nation will have over this next 
decade, will be with China. And my guess is that it is not a 
relationship that is not particularly well defined. So you will 
be going to China in a period of time and in a position to 
really shape that relationship.
    Many Americans today wonder whether China is friend or foe, 
and candidly, you are going to have a big impact on how that 
outcome emerges. So I think it is an important relationship. I 
think we should do everything we can to strive to make sure 
that we complement each other's countries, and I think you are 
going to really strive to do so. I know as the Finance 
Committee chairman, you have worked on so many trade issues, 
have been an advocate for free trade. And I know you are going 
to continue to do that in this position, and yet we need to 
shape it in such a way that the Western values that we care so 
much about are front and center.
    Stability in the region is very, very important, and that 
is probably an area that you have spent less time on in your 
post as head of Finance. And yet, with China doing what it is 
doing right now in the South and East China Seas, there are a 
lot of tensions that are being created and obviously new 
tensions between Japan and China.
    So we hope to see greater global integration take place. We 
have opportunities right now to help shape that as a nation. 
You will be leading those efforts. And again, I thank you for 
your testimony, which will take place in just a moment, and 
your willingness to serve in this way.
    So I will stop, Mr. Chairman, and look forward to a very 
productive session.
    The Chairman. Thank you, Senator Corker.
    We are pleased to welcome to the committee a friend and 
colleague, the junior Senator, soon to be, possibly, the senior 
Senator from Montana, Senator Tester.

                STATEMENT OF HON. JOHN TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Chairman Menendez and Ranking 
Member Corker, Senator Murphy. It is my pleasure today to 
introduce Max Baucus to the Foreign Relations Committee. Max is 
a legend in Montana. His commitment and his passion for the 
State is second to none. That is why Montana has trusted him to 
represent that great State for nearly 40 years.
    Max is also a legend in the U.S. Senate. As a longtime 
leader of the Senate Finance Committee, Max knows the issues 
affecting our relationship with China better than anyone. Max 
has been to China eight times. He has led trade and 
agricultural missions there. He has fought to normalize our 
trade relations, and he knows the Chinese leadership well.
    As chairman of the Finance Committee, Max also knows trade 
issues inside and out, a skill that will serve him well as he 
represents our interests to our second-leading trade partner.
    Max's commitment to greater economic opportunity has paid 
off for Montanans and Americans for literally decades. As 
Ambassador, he will have the opportunity to take his passion, 
his work ethic, and his knowledge to the next level. If Max is 
confirmed as the next Ambassador to China, he will join a 
fellow Montanan overseas. Our current Ambassador to Russia, 
Michael McFall, also hails from the Big Sky State.
    But it is really the footsteps of another Montana legend 
that Max is prepared to walk in. After 24 years in the Senate, 
including a record 16 as majority leader, Mike Mansfield became 
America's Ambassador to China in 1977. As a teenager, Max 
memorably met Senator Mansfield who became a lifelong mentor to 
Max. With his deep knowledge of China, international trade, and 
a work ethic that Senator Mansfield would be proud of, it is my 
pleasure today to introduce you to Max Baucus.
    Finally, I would just say this. It is with mixed emotions 
today that I introduce to you Max Baucus. As a U.S. Senator, 
Max has been a friend and a mentor of mine since I have gotten 
here, since before I have gotten here, in fact. I remember when 
I was thinking about running for the United States Senate. Max 
Baucus was one of the first people that I went and visited here 
in his office in Washington, DC. Max looked at me and said, do 
you have the fire in the belly because if you do not have the 
fire in the belly, do not do it.
    I can tell you unequivocally here today Max Baucus has the 
fire in the belly to be the next Chinese Ambassador, and he 
will represent this country very well in that capacity.
    With that, Mr. Chairman, I introduce to you, Senator Max 
Baucus.
    The Chairman. Thank you, Senator Tester. We know your 
schedule, so you are welcome to leave when you feel you must.
    Senator Tester. Thanks.
    The Chairman. Now, Senator Baucus, the floor is yours. Your 
full statement will be included in the record. Do not hesitate 
to summarize it as you choose. And, of course, I see your 
lovely wife is here. If you want to introduce her to the 
committee as well and any other family or friends, you are 
welcome to do so at this time.

           STATEMENT OF HON. MAX BAUCUS, OF MONTANA, 
                   TO BE AMBASSADOR TO CHINA

    Senator Baucus. Well, thank you, Mr. Chairman.
    First, I want to thank my colleague, John Tester. No one 
could be more lucky than I to have such a good colleague and 
such a good friend. He is an amazing man.
    I would like to introduce my wife, Melodee, and my 
daughter-in-law, Stephanie. Would you guys please stand so we 
can see you? Melodee and Stephanie. Stephanie is my daughter-
in-law, Stephanie Baucus. And they are just wonderful, 
wonderful. They are family and mean so much to me. Thank you.
    The Chairman. Welcome to the committee and thank you for 
your willingness as well. We understand that when our 
ambassadors go abroad, it is also a commitment of their 
families. So we appreciate that.
    Senator Baucus. Mr. Chairman, Ranking Member Corker, 
members of the committee, it is an honor to appear before you 
today as President Obama's nominee to serve as the next United 
States Ambassador to the People's Republic of China.
    I thank the President for his support and trust. He is a 
true friend with whom I have been honored to get to know and 
work with closely over the years. I also appreciate the support 
and the confidence of Vice President Biden and Senator Kerry, 
friends with whom I served here in the Senate for many, many 
years.
    I am also grateful to Ambassadors Jim Sasser, Jon Huntsman, 
Gary Locke, for their friendship and counsel. These 
distinguished statesmen, along with many others, have worked 
hard to build a strong relationship between the United States 
and China. I am humbled to have the opportunity to expand on 
that foundation.
    The United States-China relationship is one of the most 
important bilateral relationships in the world. It will shape 
global affairs for generations to come. We must get it right. 
If confirmed, I look forward to working with members of this 
committee and with other Members of Congress to achieve that 
goal and strengthen ties between our two countries.
    My fascination with China goes back 50 years to my days as 
a college student at Stanford. I was a young man and grew up on 
a ranch outside of Helena, MT, full of youthful idealism and 
curiosity. So I packed a backpack and took a year off from my 
studies, hitchhiked around the world. I set out to visit 
countries I had only imagined: India, Japan, China, just to 
name a few.
    Before I departed, I had never thought about a life in 
public service, but that trip opened my eyes. I realized how 
people across the globe were interconnected, how we are all in 
this together, basically the same values, the same wishes, put 
food on the table, healthy lives, taking care of our kids. We 
are all in this world together. We are all interconnected. I 
saw the vital role America plays as leader on the world stage. 
We are the leader. I returned to the States with a focus and 
commitment to a career where I could improve the lives of my 
fellow Montanans and my fellow Americans.
    I came to Washington in 1973 with a goal of working with my 
colleagues in Congress to address the challenges facing our 
Nation. Throughout my career, I have tried my best to do just 
that.
    I am proud of the role I played spearheading environmental 
protection, strengthening America's health and safety net 
programs, and fighting for Montana. I am especially proud of 
the work I have done to build ties and foster collaboration 
between the United States and countries around the world.
    In my capacity as Senate Finance Committee chair and 
ranking member, I led the passage and enactment of free trade 
agreements with 11 countries: Australia, Bahrain, Jordan, 
Chile, Colombia, Morocco, Oman, Panama, Peru, Singapore, and 
South Korea.
    My position has also allowed me to travel to emerging and 
established markets on behalf of the United States. And since 
2010, I have been on the ground working to advance U.S. trade 
interests in Germany, Spain, Belgium, Russia, Japan, New 
Zealand, Brazil, Colombia, and China.
    I have learned some core lessons along the way. One of the 
most important, I have become a firm believer that a strong 
geopolitical relationship can be born out of a strong economic 
relationship, which often begins with trade.
    In fact, America's relationship with China began with 
trade. In 1784, a U.S. trade ship called the ``Empress of 
China'' sailed into what is now the port of Guangzhou. That 
visit opened a trade route that moved small amounts of tea, 
silk, and porcelain. Today, United States-China trade accounts 
for more than $500 billion in goods and services each year.
    From my first official visit to China in 1993 to my most 
recent in 2010, I have worked through economic diplomacy to 
strengthen ties between the United States and China. I look 
forward to continuing that work to build a stronger, more 
equitable economic relationship between our countries.
    If confirmed, I hope to accomplish two overarching goals, 
goals that are critical to our relationship with China and can 
help achieve our shared interest in a safer, more prosperous 
world.
    First, to develop our economic relationship with China in a 
way that benefits American businesses and workers.
    And second, to partner with China as it emerges as a global 
power, encourage it to act responsibly in resolving 
international disputes, respecting human rights, and protecting 
the environment.
    When I visited China in 2010, I met with President Xi 
Jinping, who was then Vice President. We discussed a range of 
topics, including Chinese current policies, its enforcement of 
intellectual property rights, its barriers to U.S. exports. I 
remember President Xi stressing that the United States and 
China have more common interests than differences. In his 
words, cooperation between our nations could help drive peace 
and stability. In fact, he used that word, ``cooperation,'' 
repeatedly.
    Leaders from both sides have recognized that we have much 
more to gain from cooperation than from conflict. I believe 
that as well, and I see many areas of our relationship where 
cooperation is not only possible, it is vital.
    China must be fully invested in a global rules-based 
economic system. Its economy continues to expand rapidly. It 
grew 7.7 percent last year. And China is the world's second-
largest economy and one of our largest trading partners.
    So how do we continue to bring China into the fold? By 
engaging the Chinese through bilateral talks and regional 
forums. Engagement will allow us to identify shared goals. It 
will allow us to achieve concrete results.
    As Finance Committee chairman, I worked to bring China into 
the global trade community. I met with Chinese Premier Zhu 
Rongji in 1999 and pushed to extend permanent trade relations 
with China and supported its entry into the World Trade 
Organization. The strategy has already paid dividends.
    Last year, China agreed to negotiate a bilateral investment 
treaty with the United States, one that adopts our high 
standard approach to national treatment protections. The treaty 
will mark an important step in opening China's economy to 
United States investors and leveling the playing field for 
American businesses. We have much more to do, though.
    Cooperation is also critical on geopolitical issues. As 
China emerges on the global stage, it has a responsibility to 
contribute more to preserving the regional and global security 
that has enabled its rise.
    The North Korea nuclear issue is just one example where 
close United States-China coordination is clearly in both 
sides' interests. And if confirmed, I would work to urge my 
Chinese counterparts to redouble their efforts to press North 
Korea to denuclearize.
    Countries in the Asia-Pacific have expressed concerns about 
China's pursuit of its territorial claims in maritime disputes 
along the periphery. And if confirmed, I will urge China to 
follow international law in maritime issues and other 
international standards and stress that all sides must work 
together to manage and resolve sovereignty disputes without 
coercion or use of force.
    I will continue to make clear that the United States 
welcomes continued progress in cross-strait relations. I will 
also encourage China to reduce military deployments aimed at 
Taiwan and pursue a peaceful resolution to cross-strait issues.
    As the United States encourages cooperation with China, it 
must also remain loyal to the values that define us as 
Americans. If confirmed, I will urge China's leaders to protect 
the universal human rights and the freedoms of all its 
citizens, including ethnic and religious minorities. I will 
call on Chinese authorities to reduce tensions in Tibet and 
Xinjiang and restart substantive talks with the Dalai Lama or 
his representatives without preconditions.
    If confirmed, I will not be an Ambassador confined to the 
Embassy in Beijing. I will be out in the field working to solve 
the challenging issues facing our two nations and building 
relations between our two peoples.
    I look forward to visiting with the people of China and 
have the honor to be a guest in their country to listen and to 
learn from them.
    Ambassador Locke has told me of the outstanding team at the 
Embassy in Beijing and in our consulates across China. If 
granted the privilege to serve as Ambassador, I will be 
fortunate to have a dedicated team of hardworking professionals 
at my side.
    Later this week, Chinese and other communities around the 
world will celebrate the start of the lunar new year. It will 
mark a time of renewal, of new beginnings. The opportunity to 
serve as Ambassador will mark a new beginning for me as well, 
and if confirmed, I will strive to strengthen the United 
States-China relationship for the benefit of our two countries 
and the world.
    Chairman Menendez, Senator Corker, all members of this 
esteemed committee, thank you so much for the opportunity to 
appear before you.
    And I will submit my remaining testimony for the record and 
welcome your questions.
    [The prepared statement of Senator Baucus follows:]

                    Prepared Statement of Max Baucus

    Mr. Chairman, Ranking Member Corker, members of the committee, it 
is an honor to appear before you today as President Obama's nominee to 
serve as the next United States Ambassador to the People's Republic of 
China.
    I thank the President for his support and trust. He is a true 
friend with whom I've been honored to closely work with over the years. 
I also appreciate the support and confidence of Vice President Biden 
and Secretary Kerry, friends with whom I served here in the Senate for 
many years.
    Before we begin, I'd also like to take a moment to introduce my 
wife, Melodee. My family is the most important thing in my life. I want 
to thank them for all of their support.
    I'm also grateful to Ambassadors Jim Sasser, Jon Huntsman, and Gary 
Locke for their friendship and counsel. These distinguished statesmen--
along with many others--have worked hard to build a strong relationship 
between the United States and China. I'm humbled to have the 
opportunity to expand on that foundation.
    The U.S.-China relationship is one of the most important bilateral 
relationships in the world. It will shape global affairs for 
generations to come. We must get it right.
    If I am confirmed, I look forward to working with members of this 
committee and with other Members of Congress to achieve that goal and 
strengthen ties between our two nations.
    My fascination with China goes back 50 years to my days as a 
college student at Stanford. I was a young man who grew up on a ranch 
outside Helena, MT, full of youthful idealism and curiosity. And so I 
packed a backpack, took a year off from my studies, and hitchhiked 
around the world. I set out to visit countries I had only imagined--
India, Japan, and China, to name a few.
    Before I departed, I had never thought about a life of public 
service. But that trip opened my eyes. I realized how people across the 
globe were interconnected. And I saw the vital role America plays as a 
leader on the world stage. I returned to the States with a focus and 
commitment to a career where I could improve the lives of my fellow 
Montanans and all Americans.
    I came to Washington in 1973 with the goal of working with my 
colleagues in Congress--both Republicans and Democrats--to address the 
challenges facing our Nation. Throughout my career, I have tried my 
best to do just that.
    I am proud of the role I played spearheading environmental 
protections, strengthening America's health and safety net programs, 
and fighting for Montana. I am especially proud of the work that I have 
done to build ties and foster collaboration between the United States 
and countries around the world.
    In my capacity as the Senate Finance Committee's chair and ranking 
member, I led the passage and enactment of Free Trade Agreements with 
11 countries: Australia, Bahrain, Jordan, Chile, Colombia, Morocco, 
Oman, Panama, Peru, Singapore, and South Korea.
    My position has also allowed me to travel to emerging and 
established markets on behalf of the United States. Since 2010 alone, 
I've been on the ground working to advance U.S. trade interests in 
Germany, Spain, Belgium, Russia, Japan, New Zealand, Brazil, Colombia, 
and China.
    I have learned some core lessons along the way. Among the most 
important, I have become a firm believer that a strong geopolitical 
relationship can be born out of a strong economic relationship, which 
often begins with trade.
    In fact, America's relationship with China began with trade. In 
1784, a U.S. trade ship called the Empress of China sailed into what is 
now the port of Guangzhou. That visit opened a trade route that moved 
small amounts of tea, silk, and porcelain. Today, U.S.-China trade 
accounts for more than $500 billion in goods and services each year.
    From my first official visit to China in 1993 to my most recent 
trip in 2010, I have worked through economic diplomacy to strengthen 
ties between the United States and China. I look forward to continuing 
that work to build a stronger, more equitable economic relationship 
between our countries.
    If confirmed, I hope to accomplish two overarching goals that are 
critical to our relationship with China and can help achieve our shared 
interest in a safer, more prosperous world.

  <bullet> First, to develop our economic relationship with China in a 
        way that benefits American businesses and workers.
  <bullet> Second, to partner with China as it emerges as a global 
        power and encourage it to act responsibly in resolving 
        international disputes, respecting human rights, and protecting 
        the environment.

    When I visited China in 2010, I met with President Xi Jinping, who 
was then the Vice President. We discussed a range of topics, including 
China's currency policies, its enforcement of intellectual property 
rights, and its barriers to U.S. exports. I remember President Xi 
stressing that the United States and China have more common interests 
than differences. In his words, cooperation between our nations could 
help drive peace and stability. He used that word--cooperation--
repeatedly.
    Leaders from both sides have recognized that we have much more to 
gain from cooperation than from conflict. I believe that as well, and I 
see many areas of our relationship where cooperation is not only 
possible, but vital.
    For example, China must be fully invested in the global rules-based 
economic system. Its economy continues to expand rapidly--it grew 7.7 
percent last year. China is the world's second-largest economy and one 
of our largest trading partners.
    So how do we continue to bring China into the fold? By engaging the 
Chinese through bilateral talks and regional forums. Engagement will 
allow us to identify shared goals. It will allow us to achieve concrete 
results.
    As Chairman, I worked to bring China into the global trade 
community. I met with Chinese Premier Zhu Rongji in 2000, and pushed to 
extend permanent trade relations with China, and I supported its entry 
into the World Trade Organization. The strategy has already paid 
dividends.
    Last year, China agreed to negotiate a bilateral investment treaty 
with the United States that adopts our high-standard approach to 
national treatment protections. The treaty will mark an important step 
in opening China's economy to U.S. investors and leveling the playing 
field for American businesses.
    It's also critical for the United States and China to work together 
to develop a shared understanding of acceptable norms and behavior in 
cyber space, including a cessation of government-sponsored cyber-
enabled theft of intellectual property. Such behavior hurts China as 
well as the United States, because American businesses are concerned 
about the cost of doing business in China. If confirmed, I will work 
with Chinese counterparts to ensure meaningful actions are taken to 
curb this behavior so that it does not undermine the economic 
relationship that benefits both of our nations.
    As the largest energy consumers, greenhouse gas emitters, and 
renewable energy producers, the United States and China share common 
interests, challenges, and responsibilities that cut across our 
economic, national security. Last year our countries announced new 
commitments to work together on climate change and clean energy. During 
Vice President Biden's last visit, for example, our two governments 
volunteered to undertake fossil fuel subsidy peer reviews this year. If 
confirmed, I will endeavor to build on our existing cooperation with 
China, including collaborative projects on energy efficiency, smart 
grids, transportation, greenhouse gas data, and carbon sequestration.
    Cooperation is also critical on geopolitical issues. As China 
emerges on the global stage, we believe it has a responsibility to 
contribute more to preserving the regional and global security that has 
enabled its rise.
    The North Korean nuclear issue is just one example where close 
U.S.-China coordination clearly is in both sides' interests. If 
confirmed, I would work to urge my Chinese counterparts to redouble 
their efforts, along with us and our partners in the 6P process, to 
press North Korea to denuclearize.
    Countries in the Asia-Pacific region have expressed concerns about 
China's pursuit of its territorial claims in maritime disputes along 
its periphery. If confirmed, I will urge China to follow international 
law, international rules, and international norms on maritime issues, 
including by clarifying the international legal basis for its claims. I 
will stress that all sides must work together to manage and resolve 
sovereignty disputes without coercion or the use of force.
    I will continue to make clear that the United States welcomes 
continued progress in cross-strait relations and remains committed to 
our one China policy based on the three joint communiques and the 
Taiwan Relations Act. I will also urge China to reduce military 
deployments aimed at Taiwan and pursue a peaceful resolution to cross-
strait issues in a manner acceptable to people on both sides of the 
strait.
    As the United States encourages cooperation with China, we must 
also remain loyal to the values that define us as Americans, including 
our commitment to universal values, human rights, and freedom.
    If confirmed, I will urge China's leaders to protect the universal 
human rights and freedoms of all its citizens, including ethnic and 
religious minorities. I will call on Chinese authorities to allow an 
independent civil society to play a role in resolving societal 
challenges; take steps to reduce tensions and promote long-term 
stability in Tibet and Xinjiang; and restart substantive talks with the 
Dalai Lama or his representatives, without preconditions.
    The free exchange of information, including over the Internet, is 
essential to the growth of modern societies. Yet in China, we have 
witnessed a government crackdown on free expression that is limiting 
areas of domestic debate. If confirmed, I will work to convince China 
that open debate and the free flow of information is in its own 
interest, enabling the type of creativity and innovation that will lead 
to a more stable and prosperous society.
    I also look forward to visiting with the people of China. I would 
be honored to be a guest in their country--to listen and learn from 
them. If confirmed, I will not be an ambassador confined to the Embassy 
in Beijing. I will be out in the field, working to solve the 
challenging issues facing our two nations and building relations 
between our two peoples.
    Ambassador Locke has told me of the outstanding team at the Embassy 
in Beijing and in our consulates across China. If granted the privilege 
to serve as Ambassador, I will be fortunate to have a dedicated team of 
hard-working professionals at my side. I will do everything possible to 
ensure that the dedicated officers and staff working at the U.S. 
mission in China have the tools and support they need to continue 
performing the important work of the United States abroad.
    Later this week, Chinese and other communities worldwide will 
celebrate the start of the Lunar New Year. It will mark a time of 
renewal and new beginnings. The opportunity to serve as Ambassador will 
mark a new beginning for me as well. If confirmed, I will strive to 
strengthen the U.S.-China relationship for the benefit of our two 
countries and the world.
    Chairman Menendez, Ranking Member Corker, thank you for this 
opportunity to appear before you today. I welcome the opportunity to 
answer your questions.

    The Chairman. Thank you, Senator Baucus, for that pretty 
comprehensive introductory statement, and your entire statement 
will be included in the record.
    Let me start off. You are extremely well versed in all of 
the economic, trade, and related issues. And I think as someone 
who has had the privilege of sitting on the Finance Committee 
under your chairmanship, I have seen that firsthand. But as you 
recognized in your opening statement, this is a pretty 
comprehensive portfolio with China. And in that regard, I would 
like to visit with you on one or two things.
    One is China continues to refer to a new type of great 
power relationship, and I wonder what you think China means by 
that. Is that China laying down a marker for saying, hey, we 
have a greater say in our back yard, so to speak? And what 
should America's counter be? Should we even be using that 
phrase? What are your views on that?
    Senator Baucus. Mr. Chairman, as you have said in your 
opening statement and I in mine, a view that is shared by all 
members of this committee and Congress, most who think about 
this question, it is imperative that we, America, be deeply 
involved in the Asia-Pacific. The rebalancing mentioned by our 
President and others referred to I think is critical. It is 
because the United States and Chinese interrelationship is so 
valid to solving problems not just in China and America but 
worldwide.
    China talks about a new relationship. I think it is always 
interesting and somewhat helpful to talk about new 
relationships, to look forward, to try to find something new 
and something fresh like the Chinese new year, the first of any 
new year. But China's interpretation of the new relationship, 
as I understand it, says its core interest is one which I think 
we should be very wary of. As I understand China's 
interpretation of the new relationship and focusing on its core 
interests, it is frankly one that suggests that China take care 
of its own issues in China, whether they are human rights 
issues or whether it is Taiwan, the Senkaku Islands, Diaoyu in 
their version, in the South China Sea. That is essentially a 
version where China takes care of its part of the world and the 
rest of the country takes care of their parts of the world. 
That is not an approach that makes sense to me. It is not an 
approach which makes sense, I am sure, to the President, 
although we have not talked specifically about this.
    The approach that makes sense is for the United States to 
urge China to be a full member of, and to participate fully in, 
the United Nations rule of law, to resolve issues according to 
international rule of law principles and norms. And that 
includes work with the United Nations with respect to North 
Korea, the United Nations with respect to Syria, Iran. It means 
open skies, open seas, to maintain security in the world. Half 
of the commercial tonnage shipped in the world today across the 
Strait of Malacca and the South China Sea--it is extremely 
important that the United States stays engaged in the world and 
helps work with China. And the approach to China should be it 
is very simple. It is one that is positive, that is 
cooperative. We work to constructive results about one grounded 
in reality. We stand up for our principles. We stand up for our 
principles, but as we work and engage China.
    The Chairman. Senator Baucus, there are a couple of areas 
on the economic front and the security front that are, I think, 
critically important, and I would like to get your commitment 
to the committee that once you are confirmed and in Beijing, 
that you will work toward these goals.
    One is the question of cyber security and theft, which of 
course has been part of the strategic dialogue that has been 
had between the administration and the Chinese leadership.
    The other one is intellectual property. A 2013 American 
Chamber of Commerce China survey found--and I was there this 
past August and talked to them about this--that 72 percent of 
respondents said that China's IPR enforcement was either 
ineffective or totally ineffective. And the U.S. International 
Trade Commission estimated that U.S. intellectual property-
intensive firms that conducted business in China lost over $48 
billion--billion dollars--in sales, royalties, and license fees 
in 2009 because of IPR violations.
    So can you commit to the committee that upon your 
confirmation, these are areas that you will work to improve 
with our Chinese counterparts?
    Senator Baucus. Thank you, Mr. Chairman. I absolutely will. 
As you asked the question--and I thought about this before. 
When I sat where you are now in the Finance Committee, I have 
asked many questions along those lines of witnesses of the 
administration. Why are you not doing more to protect 
intellectual property, get going here, get moving? It now dawns 
on me that as a member of the administration, I am going to 
have to, along with others in the administration, do what we 
can to address intellectual property theft. It includes not 
only trademarks and other traditional IP, but also it is cyber 
theft. It is industrial espionage, which obviously is becoming 
more rampant. I have heard figures that are even greater than 
the ones you mentioned. It is a huge problem.
    And it is really an opportunity for the United States to 
keep reminding China that China has benefited so much by our 
open rules-based economy, and China will benefit more in the 
future the more China protects its own intellectual property 
and follows more rules-based solutions to its economic and 
political problems. It is a huge issue and you have my 
commitment, if confirmed.
    The Chairman. And finally, I appreciate you raising us 
standing up for our principles because I think in any 
relationship, one that is honest, straightforward, but that 
stands up for our principles is important. And while we 
obviously are fixated on the economic challenges and 
opportunities, on the relationship to engage China in a rules-
based system that ultimately observes international norms as 
disputes seek to be resolved, the question of human rights, the 
question of Tibet where your immediate two predecessors, 
Ambassadors Huntsman and Locke, went to visit Lhasa, Tibet, I 
hope you will do the same when you have that opportunity. The 
question, as we celebrate the 35th anniversary of the Taiwan 
Foreign Relations Act. These are standing up for principles 
that make it very clear that we seek to engage, we seek to find 
cooperation, but that we will also stand up for some 
fundamental human rights issues and imperatives that I think 
are important. And I am glad to hear it in your statement, and 
I look forward to seeing it in your actions as Ambassador.
    Senator Baucus. Thank you, Senator.
    The Chairman. Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    Again, thank you for being here today and for your opening 
comments and our prior meetings.
    I know we talked just a little bit in our office about some 
of the security situations, and I know you are very aware that 
China has recently named an air defense identification zone 
that overlaps with commonly known Japanese territory. And under 
article 5 of our security agreement with Japan, we would come 
to their aid if certain provocations occurred there.
    I know you have had a lot of briefings with the 
administration in preparation for this. And again, I know it is 
an area that has been outside, generally speaking, of the great 
trade issues and other kind of things you pursued in Finance. 
But what is your sense of what China intends by taking these 
steps that they have recently taken?
    Senator Baucus. Senator, I think the best approach, if 
confirmed, one I will pursue, is I will do all I can to reduce 
tensions in the East China Sea. It is unfortunate that China 
set up the ADIZ. The United States has not recognized nor 
confirmed that action. And I think that it is important for the 
United States to let China know that so as to discourage other 
potential actions that China may take.
    Having said that, it is a delicate relationship between 
China and Japan. And it is, I think--and I have done this 
frankly with the Prime Minister when I was recently in Japan--
to counsel caution, counsel reduced tension, counsel to back 
off here a little because otherwise we run the risk of a major 
dispute, of a major problem where, if tensions are high, there 
could be a miscalculation or easily a miscalculation. It is 
important, again, to remind China that it is in China's best 
interest to maintain a peaceful Asia-Pacific, including the 
East China Sea, because if relations deteriorate significantly, 
that will inure to the detriment of all countries involved, in 
this case primarily China, primarily Japan, but also Korea and 
other Asian nations in the Asia-Pacific. And it is just in 
everyone's interest to just reduce the tension, and that is an 
effort I will undertake.
    Senator Corker. On December the 5th in the South China Sea, 
a Chinese warship crossed right across the bow of the USS 
Cowpens. I know that Chinese officials have been critical of 
our ``pivot to Asia'' with many of the comments that they have 
made. Again, what is your sense of what they were attempting to 
do with that episode?
    Senator Baucus. Well, Senator, if I knew, I am not sure I 
would be sitting here. It is hard to know exactly what China's 
intentions at that time were.
    I suspect that China was probing a little bit, pushing a 
little bit, seeing how far it could go. That is very risky. 
That is very dangerous. There was bridge-to-bridge 
communication between the Cowpens and the ship, the frigate, 
that crossed the bow of the Cowpens, as well as the aircraft 
carrier that was somewhat in the vicinity.
    But it raises the point of the importance of engagement at 
all levels. In this case, we are talking about military to 
military. Our Government is attempting to ramp up military-to-
military exchanges with China at various levels. It is fairly 
rudimentary at this point. We have a lot further to go, but 
everything begins with a first step somehow somewhere, and this 
is I think very, very important. I speak to Admiral Locklear, 
for example, and others. They explain to me what they are 
trying to do. And I, if confirmed, will do what I can to 
encourage the Chinese to follow up at a next higher level.
    That is important in many ways, to encourage transparency 
with the Chinese and with American transparency, to encourage 
more communication at military levels so that it eventually, at 
higher levels, a U.S. commander can get on the telephone and 
talk to a Chinese commander. What is going on here? What is up 
here? If they know each other in advance, the communication 
channels are set up, it is going to help. It is not going to 
solve all the problems, but it is going to help.
    And the rebalancing that I think is very appropriate is one 
that engages China at all levels. It is not just military. It 
is economic. It is political. It is human rights. And I 
believe, as we all know as people who represent our States work 
to get stuff done, that the more we can talk to people, even if 
we are just talking about their kids, just talking to people, 
getting to know them better and make it regular, more and more 
often the more likely it is that we are going to develop trust 
and better understand each other to minimize misunderstandings 
and minimize adverse actions that otherwise would take place.
    So I believe that we will just keep working at it. We have 
no choice. Keep working at it and we will make some headway 
here.
    Senator Corker. I know that somebody is going to bring up--
I would hope anyway--the issue relative to journalists in 
China. We were there recently and met with a number of 
journalists that were concerned about what now is actually 
happening there. And I am sure you will address that at some 
point through questions here from the dais.
    One last question and then I would like to make a brief 
statement.
    What are the areas, Senator Baucus, that you think are the 
best suited for improvements between us and China at present, 
today? You know, when you get over there, in the very first 
days of being there, you are going to begin to set an agenda. 
Where do you think the areas of improvement best lie?
    Senator Baucus. Well, Senator, I mentioned two, broadly, in 
my statement. One is pursuing economic relations and the second 
is the overall geopolitical.
    I do think that economic, commercial efforts do help 
significantly. By that I mean the more we can have an actual 
level playing field in China, the more American businesses are 
actually able to do business in China in a nondiscriminatory 
way, where China does not discriminate, whether it is their 
regulations, whether they are denying access for whatever 
reason. The more that Americans are engaging Chinese people, 
engaging Chinese companies, whether more importantly it is the 
private sector, the more that helps because the goal here is to 
get us talking to each other, getting to understand each other 
and know each other.
    Now, people counsel me, if I have the opportunity and the 
privilege and if confirmed, to come up with two or three main 
initiatives. And I am working on that right now. I do not want 
to, at this point, be presumptuous and say what they might be. 
It would be a bit premature. But I do not want to be, if 
confirmed, an ambassador that just has his talking points and 
goes around and meets with all different folks in China just 
parroting the talking points and so forth. Rather, I want to be 
one, if confirmed, to make a difference.
    Senator Corker. I actually had just a comment I would like 
to make, and I will be very brief.
    As I mentioned, we had a good meeting in our office. And I 
think the administration has been long on making statements, 
you know, like a new era of power relations or a pivot, without 
much definition or policy to go behind that. I do not think you 
are the type of person to take direction from some 25-year-old 
at the White House calling you and telling you what to do, 
which I know oftentimes happens in these positions.
    So for that, I am very upbeat about the fact that you are 
taking this position. I think you have shown independence. And 
I just would ask you to take full advantage of the fact that I 
do not think the administration has a defined policy toward 
China, to take advantage of that, develop one that really 
allows us, over this next decade, to have the kind of 
relationship, both pro and con, with China to help shape their 
future, but also to build on the economic opportunities that 
our Nation has and to strengthen the security issues that we 
both are going to have to deal with.
    So I thank you for this. I look forward to your service. I 
look forward to your continued independence in this position, 
and I look forward to seeing you on the ground there. Thank 
you.
    Senator Baucus. Thank you, Senator. If I might first thank 
you. I read your April statement focused on security, which I 
deeply appreciated and agree with you and will work to follow 
up with the points you made in that statement.
    But second, I am part of a team here working for the 
President and this administration. And I will do everything I 
can to help implement administration policy.
    Senator Corker. You can help them most by showing strength 
as an ambassador and developing that policy, which I hope you 
will do.
    The Chairman. Senator Cardin.
    Senator Cardin. Well, thank you, Mr. Chairman, and Senator 
Baucus, thank you for your extraordinary public service and 
your willingness to continue that public service as our 
Ambassador in China. I want to thank Mel and your family, 
because this truly is a family commitment, for your willingness 
to continue to serve our country. This is a critically 
important position, the Ambassador to China.
    You have already heard mentioned by my two colleagues many 
issues. Our relationship with China is complex, and there are a 
lot of important matters.
    As the chair of the Subcommittee on East Asia and the 
Pacific, I was in China last year and had a chance to meet with 
many of the government officials. And I agree with you. People 
to people are critically important. I found the meeting with 
the students to perhaps be some of the most enlightened 
discussions that I had, and they had already met with U.S. 
students that were over there, and I think that had a great 
impact on a better understanding between our two countries.
    Clearly, the economic issues are very, very important. I 
could not agree more with your statement about dealing with 
intellectual property and the chairman's comments about 
intellectual property and the amount of theft that goes on in 
that country. China needs to have confidence in its own people 
and its own creativity.
    And the currency manipulation is a matter that has to be 
dealt with. And I concur in that.
    And the security issues are critically important. Maritime 
security and China's unilateral declaration was extremely 
unhelpful. And we will get to some of these other issues.
    But I want to bring up the matter of human rights. The 
chairman mentioned it. And your statements are what I would 
have hoped to have heard, and I thank you for that. My concern 
is will good governance and human rights be always on the table 
in our discussions with China. This is a country in transition. 
They have made a lot of progress. Recently they decided to--we 
will see if they carry it out--eliminate the reeducation labor 
prisons. I hope that is the case. That is a step in the right 
direction. They have opened up some of their system allowing 
people some opportunity.
    You mentioned the Tibetan Buddhists or the Uighur. The 
discrimination against minorities goes to any minority--any 
minority--in that country. From the point of view of trying to 
practice your religion, you cannot do it. They will not let 
you. So many of the Chinese people are held back because of 
where they are born, not really having any opportunity for 
advancement. The journalists are absolutely being denied. The 
United States Embassy's Web site was even compromised by the 
Chinese Government for being able to get out information.
    So I just really want to underscore the importance of the 
statement you made that representing not just U.S. values but 
international values of good governance so that American 
companies that want to compete and work in China can get a fair 
deal. They do not have to worry about whether there is an 
implied problem with dealing with a local government official 
that they are not allowed to participate in that puts them at a 
disadvantage.
    So can you give us that assurance that good governance, 
human rights will always on the agenda of your discussion as 
our Ambassador?
    Senator Baucus. Senator, you have that assurance. It is 
extremely important.
    I am very proud of an action I took a good number of years 
ago. When I was in China, I met with the then-President, Jiang 
Zemin, and raised with him and asked him to release a dissident 
in Tibet. He said I did not know what I was talking about 
basically. But I went to Tibet, went to Lhasa and raised the 
same point there. And sure enough, within about 2 or 3 weeks, 
this person was released. And I do not know what I had to do 
with it, but I raised the point strongly a couple--three 
times--because I thought it was so important and was very 
heartened with the results.
    Protection of human rights is the bedrock. It is the 
underpinning of American and world society. We have some 
blemishes in our country, but we are the leader in human 
rights. People look to America, look to America to lead on so 
many issues, including protection of human rights, religious 
freedoms, freedom of the press, all the rights that are 
enumerated in the universal declaration. It is what most 
progress springs from.
    And the answer is, ``Yes'', Senator. You have my 
commitment.
    Senator Cardin. I thank you for that strong statement.
    I want to mention one other area where you are going to 
have a special interest in dealing with, and that is breathing 
the air over in China. When I was there--I do not know what the 
chairman's experience was--I was there for 3 days. There was 
not a cloud in the sky, but I could not see the sun.
    When we tried to deal with climate change in the past, we 
have always been concerned as to whether China would also do 
its fair share. Well, we have China's attention right now. This 
is a problem they cannot hide from because people see that 
China must do a much stronger job in reducing their carbon 
emissions.
    How do you see working with China to provide universal 
leadership so that we can have responsible policies to deal 
with carbon emissions?
    Senator Baucus. Senator, we are making some headway. We 
have a lot more to do. Recently Vice President Biden met with 
Counselor Jiang Ze Xi to put together a climate change working 
group addressing several points. One is pollution from heavy, 
larger automobiles. Second is building efficiencies through 
different finance incentives. Another was the smart grid 
systems. It is basically technologies that the Chinese can use 
that we can help provide and work with them to help achieve 
their objective.
    The point you made is obvious. It is the air pollution. I 
have seen up to a million people die in China a year due to air 
pollution.
    Senator Cardin. I might point out you are responsible for 
the safety of our personnel that are there.
    Senator Baucus. That is correct.
    Senator Cardin. They have to breathe that air. Literally 
they have to have breathing devices on certain days. I mean, I 
think it is critically important not just for the safety of 
Americans that are in China. It is obviously a universal issue. 
And as Ambassador you can make progress in that regard.
    Senator Baucus. No question. Thank you.
    Senator Cardin. Thanks, Mr. Chairman.
    The Chairman Thank you.
    Senator Rubio.
    Senator Rubio. Thank you.
    Congratulations. Your appointment comes at a pretty 
exciting time and place in terms of the issues that are going 
on with regard to China. Their growth in their economy and 
their influence in the world is really an amazing development 
to watch from a historical perspective.
    And by the way, I would just share, as I did with you on 
the phone when we spoke about this. And I think the President 
has said this. Our policy is not to contain China. On the 
contrary, I think we see a growing economy that we can be trade 
partners with, a billion people we can sell our products and 
our services to. We look, hopefully, to a China that uses its 
increased influence and its military capabilities to be a 
partner in addressing some of the global issues that our world 
confronts. Just think about how much easier the issue of Iran 
and North Korea and Syria would be if China were engaged in a 
positive way in trying to influence the direction of that.
    But there are also some real challenges, some of which have 
been highlighted here today. In particular, I think the Chinese 
use the term ``the new model of major country relations.'' And 
it seems that the way, at least, they define it right now is 
that, No. 1, the United States would basically begin to erode 
or abandon some of its regional commitments that it has made to 
places like Japan and the Philippines and Taiwan and even South 
Korea to some extent.
    And the other is something you will hear them often say. In 
fact, I think at Davos Senator McCain was asked this question 
by someone in the audience. Why is the United States always 
interfering in the internal affairs of other countries? And 
when it comes to China, that usually is this issue of human 
rights.
    The late Ambassador, Mark Palmer, in a book, ``Breaking the 
Real Axis of Evil,'' argued that United States ambassadors in 
places like China should be freedom fighters and that United 
States embassies should be islands of freedom open to all those 
who share the values of freedom, human rights, and democracy.
    You have begun to answer that question here today, and it 
was asked on some specific topics. But do you agree that the 
United States Embassy in China should be an island of freedom 
and that one of your primary jobs there will be demonstrating 
to China's peaceful advocates of reform and democracy that the 
United States stands firmly with them?
    Senator Baucus. Going to your earlier point, Senator, I 
read your speech in Korea. I thought it was very perceptive and 
it made points which I would like to work on with you.
    Clearly the United States symbolically is an island of 
freedom. You asked to some degree the specific question, should 
it apply physically to the Embassy. That is a question I am 
going to have to take back and work with the administration on. 
I do not know the administration policy precisely on that 
point, but I will determine to find it. My basic principle is 
you bet. We are there to stand up for human rights and freedoms 
generally in the world. But with respect to your specific 
question, let me take that back.
    Senator Rubio. Well, just as you do take that issue back, I 
think you will find broad consensus on this committee and I 
hope in the administration that our embassies should be viewed 
as an ally of those within Chinese society that are looking to 
express their fundamental rights to speak out and to worship 
freely, et cetera.
    On that point, the Chinese Government has detained over 
1,000 unregistered Christians in the past year. They have 
closed what they term illegal meeting points. They have 
prohibited public worship activities. And additionally, by the 
way, unregistered--and this is amazing--Catholic clergy--
unregistered with them--that remain in detention. Some have 
even disappeared.
    I would ask would you be open, if you are confirmed, to 
attending a worship service in an unregistered Catholic or 
Protestant church within China.
    Senator Baucus. Senator, I am going to do my very best to 
represent our country constructively, seriously engage, and 
listen in a way which I think is most effective. I will take 
actions which I hope accomplish that objective.
    With respect to where I go and do not go, that is a matter 
of judgment, and it is one I am going to be thinking about very 
carefully about where I go and where I do not go.
    The goal here is to be effective. A major goal, as we 
discussed here today, is the protection of human rights, 
probably the bedrock, fundamental goal because so much springs 
from that. And it is a goal that I will espouse fully and use 
whatever way I can to accomplish that goal effectively.
    But let me not answer that directly because I do not know 
the degree to which that makes sense at this point. First of 
all, I am not confirmed. I am not there. And this is frankly 
not a point that I have discussed with the administration, but 
I will take that back too.
    Senator Rubio. And I am respectful of the reality that in 
order to have the operating space to be effective, you do not 
want to necessarily be in direct and constant conflict with the 
host government. On the other hand, there comes a point, I 
would argue, Senator--and I hope you keep this in mind--where 
that effectiveness cannot come at the expense of the 
fundamental rights of the people of that country and in 
particular what we stand for as a nation.
    And I would just caution that, again, as you see the 
Chinese attitude toward some of these issues, their attitude 
basically is mind your own business on these issues. If you 
want to have a good relationship with us, you need to stop 
speaking out on these grotesque human rights violations. And I 
hope it never becomes the policy of the United States to look 
the other way on these issues for the purpose of achieving a 
more friendly operating environment because that, I hope, is 
not the definition of this new model of major country 
relations.
    I think if the Chinese are willing to use their new-found 
economic and even military abilities to be a productive member 
of the global community, committing themselves to things like 
freedom of navigation, respect for human rights, I think that 
would be an extraordinary development for mankind. If, on the 
other hand, this new-found power is used to turn their 
neighbors into tributary states and to continue to impress 
people within their own country, I think we have a big problem 
and a major, major challenge.
    I know you need to go back to the administration on some of 
these issues, but I hope this is not a matter of debate. I hope 
that it is clear that we want a good relationship with China 
but not at the expense of the fundamental human rights that 
define us as a nation and as a people. And I think you are 
going there at a very unique time where freedom activists in 
that country are looking for an advocate and a spokesperson 
that will stand with them strongly. They look to America to be 
that, and you have a unique and historical opportunity to do 
that and I hope it is one that you will embrace.
    But thank you.
    Senator Baucus. I appreciate that very much. Thank you.
    The Chairman Senator Coons.
    Senator Coons. Thank you, Chairman Menendez.
    I want to thank Senator Baucus for your 35 years of 
remarkable service to this body and this institution and 
express my confidence that, Senator, you could not have found a 
better nominee--President Obama could not have found a better 
nominee in the United States Senate. Your long work and 
leadership on the important and difficult trade issues that 
will dominate much of your service as Ambassador--I hope you 
are swiftly confirmed--makes you, I think, a great 
representative for the United States, and your grounding in our 
values and your appreciation of the difficulties and the 
tension between advocating for human rights and for our values 
while still addressing the issues of real concern to our home 
States and to our country's future. I think you are very well 
grounded in the challenges ahead.
    We both come from meat-producing States. Lots of beef comes 
from Montana. Lots of poultry comes from Delaware. And it is my 
hope that you will keep at the head of your agenda open access 
to the market of China.
    Let me, if I could, speak to two intellectual property 
issues and then to one regarding Africa.
    There have been some real changes recently in China's trade 
policy that are creating real barriers to innovations in 
biotechnology in the American agricultural sector particularly 
in grain. And if confirmed, I am hoping you can speak to how 
you would use your position as Ambassador to work with USDA and 
USTR to address the important issue of innovations in 
biotechnology and how we harmonize and sustain a good 
relationship with China. What sort of time will you invest in 
that particular area?
    Senator Baucus. Senator, it is an issue that has become of 
greater concern--the recent actions you just referred to. I 
think the answer to some degree is just to keep pushing but 
especially with respect to sound science because there are too 
often countries--and China is one--which limit agricultural 
products for political reasons, not reasons based on science. 
And I think the more we can point out what the science is and 
that the poultry that is attempted to be introduced into China 
from your State is perfectly safe, it is fine, and to keep 
pushing, to keep talking.
    It is my experience, frankly, with respect to another 
product, in this case beef, with other countries, South Korea 
and Japan, just keep talking, keep pushing over and over and 
over again. And finally, we are at the point where both Japan 
and South Korea take a lot more American beef. They are not 100 
percent yet, but huge progress from where they were about 10-15 
years ago. So I will push strongly.
    Senator Coons. Thank you.
    I have heard similar concerns. Our second-largest 
agricultural product is corn, and I have heard similar concerns 
broadly, nationally from corn growers.
    Let me move to ways in which the Chinese Government has 
used their anti-monopoly law and recent actions by their 
National Development Reform Commission to extract concessions 
from American companies, even those that do not operate in 
China, in terms of making concessions in patent cases. The 
standard they are suggesting is that any United States company 
that files a patent infringement lawsuit against a Chinese 
company will then be barred from their market and coerced to 
make concessions whether it is in patent law or trade secrets 
or other areas. If you would just speak briefly to the 
importance you attach to strengthening the intellectual 
property regime within China and continuing to make progress on 
their respect for IP rights here in the United States.
    Senator Baucus. Senator, I do not know if you were here, 
but earlier I explained how often on the other sided of the 
dais I pushed so strongly for the administration to do a better 
job of protecting intellectual property worldwide, often China. 
And now that I am on this side of the table, I have got to put 
my money where my mouth is and do something about it, at least 
working with the administration to do the best I can. I will 
push, obviously, as strongly as I possibly can.
    But it is important for China to understand--and I do not 
mean to be presumptuous here--that the more China goes down 
that road under its antimonopoly law, the more it is going to 
hurt its economy, the more it is going to hurt the living 
standards of people in its own country. And China, like all 
nations, has a lot of issues it has to deal with internally, 
and a lot of them are economic. There is environmental. There 
is pollution, but there are also economic issues within China. 
The Chinese people and the country of China in the long run 
will be a lot better off the more they open up, the more there 
is more transparency, and the more the playing field is 
actually level. It is extremely important that that also is a 
point we make over and over again. We could compete. Chinese 
companies can compete, but we want a level playing field.
    Senator Coons. Thank you.
    My last question will be about exactly that, a level 
playing field. Africa--as you know, I chair the Africa 
Subcommittee here in Foreign Relations--is I think a continent 
of immense importance to the United States, to China, and to 
the world as the greatest storehouse of remaining mineral 
reserves for the world. The recent discoveries of oil and gas 
and minerals all over the east coast, the west coast have 
sparked a real aggressive move by China to take a dominant 
position in access to Africa's natural resources. In fact, they 
have eclipsed the United States as the leading trading partner 
for Africa, and their dramatic investments in infrastructure 
and in economic development are often done in ways that are not 
on a level playing field, concessionary loans and relationships 
that do not follow the same trading rules that we do. And 
frankly, to the extent we try to advance a values agenda in 
Africa that promotes human rights and open society and 
commitment to democracy, we often find ourselves in some real 
tension with the Chinese and how they are pursuing their 
interests on the continent.
    It is my hope that as Ambassador you will seek ways that we 
could partner with the Chinese constructively and positively in 
some countries like South Sudan and Sudan where they could play 
a positive role, but you will also hold up this vision of fair 
trade, of a level playing field moving forward.
    If you would, just speak to your concerns about the Chinese 
role in Africa and how you think as Ambassador you might add to 
the forward movement we need to see here.
    Senator Baucus. Frankly, Senator, with respect to Africa, I 
have a little bit to learn. I see the press reports--we all 
do--of Chinese investment in Africa and the concerns that you 
have just outlined. And we will push for, obviously, rules-
based, value-based investment. If China wants to invest in 
Africa, that is fine. That is China's right and should, just as 
we should. But I also think we Americans--American businesses--
look for ways to invest more aggressively in various African 
countries.
    I will keep your point very firmly in mind, Senator, and go 
back and try to find a better answer.
    Senator Coons. I am confident that your rich and deep 
experience and long service here has equipped you better than 
anyone who could possibly be nominated, and I look forward to 
your service. And I am grateful for you and your family and for 
everything you have already given this country.
    Senator Baucus. Thank you, Senator.
    Senator Coons. I am confident your service will be 
exemplary. Thank you.
    The Chairman Thank you.
    Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    I would like to join Senator Coons in thanking you for your 
past service to the country and your willingness to serve in 
this capacity.
    I also appreciate the time you spent with me yesterday, and 
I enjoyed the conversation.
    As a business person, I always seem to frame these issues 
from a businessman's perspective. Taking a look at our 
relationship with China, to me it seems like just one long, 
ongoing negotiation. And one of the things I certainly learned 
in negotiating in business was I first like to understand the 
motivation of the person I am negotiating with and then I like 
to spend a lot of time on the front end figuring out what we 
agree on before we get into the areas of disagreement. So I 
kind of want to structure my questioning along that framework.
    Again, in our meeting you said you have been to China a 
number of times on different trade missions and you have met 
with a lot of leaders. How would you assess their motivating 
factors? What motivates Chinese leadership?
    Senator Baucus. Senator, I think like most leaders in most 
countries they want to do well, provide for their people, but 
also people like their jobs and want to do what they can to 
provide for their people but also undertake actions so they do 
not lose their jobs, frankly. My experience is basically yours. 
Often though, to be honest, when I talk to leaders worldwide, 
it is because I do not know them well, it is hard to get past 
the pleasantries and get past the talking points. It takes a 
lot of time to get past pleasantries and talking points that 
one does get past only when one is able to spend quite a bit of 
time with that person.
    In this case, if I am fortunate enough to be confirmed, 
theoretically I have a lot of time to spend with a lot of 
different people in China and do my best to figure out which 
ones are the most effective, which ones will make the most 
difference so that I can be most effective. That is going to be 
a goal of mine.
    And I agree with your general approach, just figure out 
what you agree on, put that aside, mark that as progress as it 
is progress, and figure out what you do not yet agree on. But 
then the next point is to, when you are talking, try to 
understand the other person's assumptions, the other person's 
premise, asking questions, just listening because the more you 
ask questions, positive questions, nonadversarial questions, 
and try to figure out where they are coming from, the more 
likely it is you are going to find little insights and new ways 
to find a solution here.
    My approach in this job since I have been here in the 
United States Senate has been to do my very best to work with 
Senators on both sides of the aisle to get results, just be 
pragmatic, and that would be my approach here, too, to just do 
the best I can, listening, being forthright. I am the kind of 
guy, too, who likes to talk straight. This is what it is and 
not be angry about it. This is just what it is. This is what we 
can do, this is what we cannot do, and to listen and to convey 
the impression that we want to solve problems.
    Senator Johnson. I appreciate that. And I tend to agree and 
I hope it is true that their primary motivating factor is 
improving the condition of the people of China.
    But then let me ask a question. So what do you think would 
motivate them to initiate the air defense identification zone? 
How does that further that goal?
    Senator Baucus. Senator, I am no real expert on China, but 
it is my strong belief that Chinese people are just as proud as 
we Americans are proud. I think, unfortunately, the Chinese 
leadership has taken advantage of that pride to test America in 
the South China Sea or the East China Sea, and it means we have 
got to stand up. It is the old thing in life, being fair but 
firm, be fair to show that you can work with people and they 
can trust you but firm, uh-uh, we are not going to be taken 
advantage of. And that is vitally important here for the United 
States in my judgment.
    And we would be fair but firm by engaging them in a 
constructive conversation, for example, with respect to the 
Senkakus, say uh-uh, we do not recognize that, the ADIZ, but 
kind of cool it, calm it. The same with the South China Sea, 
say we do not countenance potential air defense identification 
zones in the South China Sea. That is not a good thing to do 
for a lot of reasons. Our basic is that our national security 
is No. 1 to us, as their national security is to them, but also 
our commercial, economic security is so important not just to 
the United States but also to China and other countries in the 
world. Half the tonnage travels through the Strait of Malacca 
and the South China Sea, and it is vitally important that that 
commerce continue so that companies can grow and prosper.
    So in answer to your question, I cannot really tell you the 
motivation of the Chinese leadership, but I can tell you that 
the approach that we should take, if confirmed, is one that I 
will pursue, namely constructive engagement, talking but 
standing up, positive, constructive engagement grounded in 
reality and make sure they understand both sides of that. It is 
constructive and positive but also grounded in reality. And I 
think the general rebalancing to the Asia-Pacific is important, 
but again, it is at all levels. It is not just military but 
also economic and political.
    Senator Johnson. I would just like to quick hear your 
thoughts on--I think the latest figures, China owns or holds 
$1.3 trillion worth of U.S. Government debt. What are your 
thoughts on that? From my standpoint, the primary problem with 
that is if anybody holds $1.3 trillion of U.S. Government debt. 
But can you just kind of give me your thoughts in terms of the 
potential dangers of that or positive aspects?
    Senator Baucus. Yes. Well, the biggest concern, frankly, is 
that anyone holds so much of our debt. It is important to get 
our debt down.
    Actually the percentage of United States debt that is held 
by China I think is pretty small, smaller than most people 
think, but nevertheless, it is very important. The real key 
here is to get our trade imbalance down so that China is not 
continuing to accumulate such currency reserves. That is the 
big point here, so they are not then, therefore, investing so 
much in U.S. treasuries.
    Senator Johnson. Well, thank you.
    Thank you, Mr. Chairman.
    The Chairman Senator Risch.
    Senator Risch. Thank you, Mr. Chairman.
    Max, one of the issues that affects my State and is going 
to affect a lot of the IT industry in America is the Chinese 
Government with their propensity to subsidize businesses that 
are supposed to be competing in the open market, but as we all 
know, as soon as the government starts subsidizing, the market 
lists badly.
    The chip industry and particularly the prices have been 
volatile over the years because of different governments' 
subsidies of their own industries. I am speaking now of Micron 
Technology, which is one of Idaho's largest private employers. 
Their success has been up and down because of other 
governments' interference with a free market price for chips.
    You are probably aware that the Chinese Government is 
spending billions to prop up their semiconductor industry, and 
indeed, they are finalizing a policy right now to provide 
additional government support for that. That is going to harm 
U.S. producers that are out there in the marketplace trying to 
do the right thing as far as producing semiconductors. What are 
your thoughts on that? What can you do about that as far as 
reining back the Chinese efforts in that regard?
    Senator Baucus. Well, Senator, it is a big problem. The 
United States Government is undertaking some actions. We have 
seven actions before the World Trade Organization with respect 
to China, most of them revolving around the Chinese Government 
subsidizing favored industries, SOV's for example, and it is 
important that we follow up on those actions.
    The new bilateral investment treaty, which is not finalized 
yet, will help. China is engaging with the United States and 
has agreed to a bilateral investment treaty which recognizes 
national treatment which helps. We have been spending a lot of 
time trying to get China to sign up to the procurement 
agreement it earlier agreed to when it entered the WTO. It has 
not yet fully signed on to the procurement agreement because 
the terms it wants to sign up with are inadequate. They are 
insufficient. And we just keep chipping away. No pun here. Keep 
working at the problem here. This bothers me, Senator, as much 
as it does you.
    Senator Risch. Thank you much. I appreciate your commitment 
to that because this is--the size and the magnitude of the 
Chinese Government and the economic power that they have is a 
real problem. And I am glad to hear your commitment to that, 
and I would urge you to urge them in the strongest terms that 
they have got to compete fairly in the marketplace or there are 
going to be some serious problems.
    Let me turn to another product that is close to my State 
and to your home State and that is beef. We have been working 
hard to try to get the Chinese to accept U.S. beef. And I am 
very concerned about the difficulties in the East and South 
China Seas are going to cause problems with these negotiations 
that we are having. And I know you touched on that, but I 
wondered if you could comment just a little bit about your 
thoughts as far as the upheaval and us trying to get the 
Chinese to open their markets to U.S. beef.
    Senator Baucus. You have my commitment, Senator. I have 
worked very hard on this with respect to South Korea and Japan, 
and I am now starting to try to get China to take our beef. 
China does not take much American beef right now.
    The potential disturbances in the East China Sea and the 
South China Sea are extremely concerning. However, I do believe 
that with very strong, measured, statesman-like discussions 
with China, we can minimize the potential adverse development 
in those two oceans.
    But you have my commitment to work on beef.
    Senator Risch. Thank you so much, Senator. I appreciate 
that.
    The Chairman Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    Max, we congratulate you and look forward to, at our 
arrival at the Beijing airport, seeing you.
    Senator Baucus. If confirmed, I will be there with warm 
greetings.
    Senator McCain. I look forward to that. I am sure Chairman 
Menendez will appreciate that.
    Obviously, we are supportive of your nomination.
    I must say I am a little concerned at some of your answers. 
It is not that the Chinese are proud as we are proud. It is not 
that the Chinese want to keep their job. It is not that we can 
work things out with China, which we can. But it is not that 
they are proud people. It is not that they are wanting to keep 
their job.
    The Chinese leadership has a sense of history that they 
believe that the last 200 years was an aberration and that 
China has to be the leader and the dominant force in Asia. And 
you have to appreciate that if you are going to deal with them. 
And the fact is that the South China Sea has implications which 
could lead to another ``Guns of August,'' and their aggressive 
behavior, whether it be a near collision with a United States 
ship or whether the imposition of the ADIZ or whether it be 
many of the other actions they have taken are part of a pattern 
of their ambition to dominate that part of the world.
    I suggest one guy you go see in Singapore is Lee Kwan Yew. 
I suggest to you that he will give you the perspective of China 
and their ambitions and their behavior and what you can expect 
from them because he knows them better than anybody. And I will 
tell you what he will tell you. He will tell you that the 
Chinese will say, well, we will take the western Pacific and 
you can have the eastern Pacific. The construction and 
acquisition of an aircraft carrier is a statement of a desire 
to be able to project power.
    The role that China is playing in Asia today should be of 
great concern to all of us, not to mention the fact that they 
have continued to repress and oppress and to practice human 
rights violations on a regular basis in Tibet, and the tensions 
between China and India on the China-India border continue to 
be ratcheted up. The more penetrations of China across the 
border between China and India are real.
    So we have to understand that this is not a matter of being 
proud as we are proud. This is not a matter of they want to 
keep their job. This is a matter of a rising threat or 
challenge to peace and security in Asia because of the profound 
belief of the Chinese leadership that China must and will 
regain the dominant role that they had for a couple thousand 
years in Asia. And unless you understand that, you are going to 
have trouble dealing with them. Well, you are going to have 
trouble dealing with them effectively.
    That does not mean we preach confrontation. That does not 
mean that we believe that a clash is inevitable with China in 
Asia. But the best way to have that be prevented is a close 
alliance with our friends in Japan, with China, and the 
countries in the region that are now united because of the 
threat that China poses to them with their aggressive behavior 
in the South China Sea and the East China Sea.
    When the United States of America ran two B-52s over the 
area after the declaration of the ADIZ, I thought that was 
great until they then advised American airliners to observe it. 
What if the Koreans want the same thing? What if other 
countries want the same thing? We are seeing a time of rising 
tensions in Asia, and unless you understand Chinese ambitions 
and Chinese perspective and view of history and recognize that 
they are continuous human rights abusers on a daily basis, then 
I think you will have difficulty being an effective 
representative in this very important job.
    And you may disagree or agree with my comments, but I do 
not base my comments to you on John McCain's opinion. I base it 
on the opinion of every expert on Asia that I know of in China, 
and that is that there is a growing tension, there is a growing 
threat of another ``Guns of August,'' and there is a need for 
us to not only make the Chinese understand that there are 
boundaries but also to work more closely with the other nations 
in the region, whether it be Vietnam or the Philippines or 
Indonesia or other countries that the Chinese, because of their 
hand-fisted behavior, have united in a way, the likes of which 
I have never seen or anticipated.
    I would be glad to hear your response.
    Senator Baucus. Thank you, Senator.
    I do not disagree with you. You make very important points 
which I largely do agree with. I applauded the B-52s flying 
over the ADIZ. I thought that was a very important message the 
United States send. It was the right thing to do.
    And I have met twice with Lee Kwan Yew. On the way over 
again, I hope to talk to him again. He is a very, very 
important man. No question.
    Senator McCain. And by the way, one more.
    Senator Baucus. Yes.
    Senator McCain. I would check in with Kissinger also.
    Senator Baucus. Yes, he is on my list. We are scheduled to 
meet very soon actually.
    Your point is basically, I think, accurate. It is kind of 
the old thing in life: you hope for the best; assume the worst. 
And it is just important for us to maintain our alliances and 
firm them up with the countries you have mentioned, and there 
are some others.
    But the overarching goal here for us as a country, I think, 
is to engage China with eyes wide open, to try to find common 
ground. We have talked about the military-to-military 
exchanges. There are other things we can do to help minimize a 
potential confrontation, say, in the South China Sea. I am a 
realist. Believe me. And I understand the version of Chinese 
history which you have just espoused, and it has a large ring 
of truth to it. But as we work with China, as I said earlier 
several times, it is going to be grounded in reality. No. 1 is 
the United States of America, we find a relationship with China 
where we can make some headway.
    And I do believe how we manage this relationship--we are 
very much determined that living standards of Americans and 
Chinese and other people in the world--we have got to get this 
relationship right. But if we work with China, we stand tall. 
We protect our rights, maintain our friendships and our 
alliances and keep our naval fleet strong over there so that we 
can protect our interests but in a way that for us is 
nonconfrontational too. We just have to work together the best 
we can, standing up for our rights.
    Senator McCain. Thank you, Mr. Chairman.
    The Chairman Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman.
    Senator Baucus, congratulations to you, to your family. 
Congratulations.
    Senator Baucus. Thank you, John.
    Senator Barrasso. You have had a chance to talk a little 
bit about trade issues and concerns. A number of others have 
asked the question regarding specifically China's trade 
practices. As I have discussed in this committee before, soda 
ash continues to face significant trade barriers around the 
world. The United States is the most competitive supplier of 
soda ash in the world due to the abundance of this in this 
country. Green River Basin in Wyoming is the world's largest-
known deposits of this naturally occurring trona. It is a 
component of glass, detergents, soaps, and chemicals.
    In May 2007, you specifically hosted a meeting with members 
of the Finance Committee with the Chinese Vice Premier at the 
time, Wu Yi. And at that time, my friend and predecessor, U.S. 
Senator Craig Thomas, was undergoing treatment for leukemia. He 
was unable to attend the meeting with you as a member of the 
Finance Committee. But on his behalf, you specifically hand-
delivered a letter written in both English and Mandarin from 
him to the Vice Premier that asked China to eliminate their 
value-added tax rebate on soda ash exports. I am grateful for 
your assistance.
    In July 2007, China actually eliminated their 13-percent 
value-added tax rebate on soda ash exports. Very welcome news 
in this country.
    Unfortunately, on April 1 of 2009, so 2 years later, China 
reinstituted a 9-percent value-added tax rebate for soda ash 
exports.
    So I would just ask, if confirmed, to serve as our 
Ambassador to China, if you will work to highlight and 
eliminate market-distorting subsidies like the value-added tax 
rebate on soda ash exports that I believe harm U.S. workers and 
producers.
    Senator Baucus. You bet, Senator. I remember that exchange 
back then. Madam Wu Yi is a very impressionable person. And I 
am sorry that the value-added rebate was reimposed, and I will 
do my best to get that turned around again.
    Senator Barrasso. You also raised the issue of beef, and I 
know Senator Risch has talked a bit about beef. U.S. beef 
producers take great pride in providing a healthy and safe 
product. The United States exported $5.5 billion in beef sales 
across the globe this past year. And I am concerned about the 
U.S. beef industry, as I know you are, continuing to face what 
is to me an unscientific trade barrier with China. In 2003, 
China banned all U.S. beef exports after the discovery of a 
BSE-positive cow in the State of Washington. Prior to 2003, the 
United States was China's largest beef supplier.
    China's continued ban on U.S. beef imports has allowed 
Australia to take our place as the leading foreign beef 
supplier to China by value.
    In 2011, you and I both signed a letter, along with 36 
Senators, to the Secretary of Agriculture and to the U.S. Trade 
Representative on the need to take steps to eliminate these 
unscientific trade barriers to U.S. beef exports. Recently 
there have been articles indicating that China may ease some 
restrictions on imports of U.S. beef, but we do not have 
details. We do not have timelines. And I believe this issue 
needs to be raised at the highest levels with Chinese 
officials.
    I would ask you what immediate action, if you have anything 
planned that you would do with this, and would you work with 
our U.S. Trade Representative and our Secretary of State and 
the Chinese Government officials to address this issue?
    Senator Baucus. Senator, I certainly will. I care a lot 
about beef.
    Senator Barrasso. I know you do.
    Senator Baucus. We will make some headway here.
    Senator Barrasso. I am curious, Senator. Did you have any 
conversations with the Governor of Montana prior to your 
nomination about the appointment of your replacement to the 
Senate?
    Senator Baucus. I have not.
    Senator Barrasso. Any conversations with your former chief 
of staff, Jim Messina, prior to your nomination about your 
successor?
    Senator Baucus. I have not.
    Senator Barrasso. Thank you, Senator.
    And thank you, Mr. Chairman.
    Senator Baucus. Thank you.
    The Chairman Well, Senator Baucus, I think you have had a 
full exposition of the issues that you are going to be facing 
and I think you have acquitted yourself extraordinarily well, 
which is no surprise to those of us who know you.
    It is the intention of the chair to hold a business 
meeting, a markup, next Tuesday. That will depend upon 
questions for the record being answered. The record will remain 
open untill noon tomorrow. I would urge you, if you do receive 
questions for the record, to answer them as expeditiously as 
possible so that we could proceed with your nomination.
    Senator Baucus. Thank you.
    If I might, Mr. Chairman, if I am fortunate enough to be 
confirmed, I meant what I said in my opening remarks, that is, 
I want to work with you and the committee on issues that are 
important to the committee and to keep a dialogue and a 
conversation going.
    The Chairman We appreciate that commitment.
    With that, Senator Baucus, you are excused.
    And we are going to call up the next panel. We have two 
nominees before the committee: the Honorable Arnold Chacon, of 
Virginia, to be Director General of the Foreign Service; and 
the Honorable Daniel Bennett Smith, of Virginia, to be the 
Assistant Secretary of State for Intelligence and Research.
    We are going to ask the members of the audience who are 
leaving to please do so quietly so we can begin the next panel.
    With that, to both Ambassador Chacon and Mr. Smith, your 
full statements will be included in the record without 
objection. We would ask you to summarize those statements in 
around 5 minutes or so and then to have a dialogue with you 
after that. So we will start off with you, Ambassador Chacon.

         STATEMENT OF HON. ARNOLD CHACON, OF VIRGINIA, 
             TO BE DIRECTOR OF THE FOREIGN SERVICE

    Ambassador Chacon. Thank you, Mr. Chairman, distinguished 
members of the committee. I am honored to be here today before 
you as President Obama's nominee to be the next Director 
General of the Foreign Service and Director of Human Resources 
at the Department of State. I deeply appreciate the confidence 
the President and Secretary Kerry have shown in nominating me 
for this key position.
    I am pleased to have the opportunity to advance American 
diplomacy through strengthening the Department of State 
workforce. If confirmed, I look forward to directing the 
recruitment, hiring, assignment, welfare, professional 
development, promotion, and retirement processes of the Civil 
Service, the Foreign Service, and our locally employed staff 
and other colleagues who work at the Department of State.
    Mr. Chairman, if I may, I would like to take a moment to 
introduce my wife, Alida, who is also a member of the Foreign 
Service. And I am also pleased that my daughter, Sarah; 
brother, Michael Chacon; and my brother-in-law, Michael Fonte, 
could be here today as well.
    My wife Alida and I have had the privilege of serving 
together with our three children throughout Latin America and 
Europe, as well as in a number of positions in New York and in 
Washington, DC. And as a Foreign Service family, we care deeply 
about promoting the U.S. interests abroad and the future of the 
Department and its people.
    Secretary Kerry said, ``Global leadership is a strategic 
imperative for America, not a favor we do for other countries. 
It amplifies our voice, it extends our reach. It is key to 
jobs, the fulcrum of our influence, and it matters to the daily 
lives of Americans. It matters that we get it right for 
America, and it matters that we get it right for the world.''
    Mr. Chairman, diplomacy and development are ever more 
important to safeguarding national security and prosperity of 
our people in the United States because if we can successfully 
manage or solve problems diplomatically, we save the lives and 
money that would otherwise be spent in dealing with conflict.
    I believe the men and women of the Department of State are 
among the most talented, loyal, and hardworking people I have 
ever met. They and their families deserve the best possible 
support. And if confirmed, I will work hard to equip them with 
the training, tools, and supportive personnel policies they 
need to fulfill our critical mission.
    Mr. Chairman, I would like to acknowledge and express my 
sincere gratitude for your perseverance and unwavering support 
for increasing minority recruitment and retention. As my 
predecessor before me, I pledge to work closely with you to 
achieve a more diverse workforce. I have personally seen, Mr. 
Chairman, that as our embassy teams engage with foreign 
audiences, our support of the American values of social 
inclusion and freedom resonates far better when they see that 
we walk the talk by employing a workforce that includes people 
of all cultures, races, and religions drawn from across the 
United States. With innovative outreach and bold action, the 
Department of State is making inroads that will help us reach 
our diversity goals.
    The Foreign Service represents the United States around the 
world at embassies, consulates, and increasingly at less 
traditional missions where diplomatic skills play an important 
role in promoting our priorities and safeguarding our Nation. 
The Department remains focused on filling positions in priority 
staffing posts--our embassies and consulates in Iraq, 
Afghanistan, Pakistan, Yemen, and Libya--while ensuring that we 
adequately staff our other posts around the world and advance 
major initiatives in such areas as economic diplomacy, food 
security, energy security, climate change, and nuclear 
nonproliferation.
    If confirmed, I will work with others in the Department to 
ensure that all employees have the support they need to serve 
in these high-stress assignments and to cope with the pressures 
such service places on them and their families.
    While the Department's Foreign Service employees spend most 
of their careers overseas, the Civil Service employees provide 
the institutional continuity and expertise in Washington, DC, 
and in offices throughout the United States. The Civil Service 
has an admirable record of volunteering for service in Iraq and 
Afghanistan and in hard-to-fill positions overseas.
    The Department of State has also expanded its use of 
limited noncareer appointments to meet urgent needs, including 
unprecedented visa adjudication demand in Brazil and China. 
Backlogs for visas in China and Brazil have been eliminated, 
facilitating international travel for business and tourism for 
1.8 million Brazilians who visited in 2005 and nearly 1.5 
million Chinese which, according to Department of Commerce 
calculations, helped create approximately 50,000 new jobs in 
the United States.
    Our 46,000 locally employed staff represent the largest 
group of employees of the Department of State and an essential 
component of our teams around the world. They often serve under 
dangerous and challenging circumstances with sometimes 
hyperinflated currencies, and they continue to help advance our 
Nation's goals. If confirmed, I will continue to build on the 
concept of one team/one mission.
    I was proud to learn from the Partnership for Public 
Service that the State Department placed 4th among 19 large 
Federal agencies in the 2013 Best Places to Work rankings. If 
confirmed, I will do all that I can to make State an even more 
attractive employer.
    In closing, Mr. Chairman, I am pleased to have the 
opportunity to address you and the members of the committee. If 
confirmed, I ask for your help in strengthening the security 
and prosperity of America by leading and building an effective 
civilian workforce in the Department of State. I look forward 
to helping the Secretary to ensure that we are prepared to do 
just that.
    Thank you, and I look forward to your questions.
    [The prepared statement of Ambassador Chacon follows:]

             Prepared Statement Ambassador Arnold A. Chacon

    Mr. Chairman and distinguished members of the committee, I am 
honored to appear before you today as President Obama's nominee to be 
the next Director General of the Foreign Service and Director of Human 
Resources for the Department of State. I deeply appreciate the 
confidence the President and Secretary Kerry have shown in nominating 
me for this key position.
    I am pleased to have the opportunity to advance American diplomacy 
through strengthening the Department of State workforce. If confirmed, 
I look forward to directing the recruitment, hiring, assignment, 
welfare, professional development, promotion, and retirement processes 
of the Civil Service, Foreign Service, Locally Employed Staff, and 
other colleagues who work at the Department of State.
    Mr. Chairman, for over 30 years, I have had the pleasure of working 
with highly motivated Department of State employees serving both 
overseas and domestically. I am excited about the prospect of helping 
to ensure that my colleagues are ready and able to meet the diplomatic 
challenges of today and tomorrow.
    Mr. Chairman, I would like to take a moment to introduce my wife, 
Alida, who is also a career member of the Foreign Service. We have had 
the privilege of serving together with our three children throughout 
Latin America and Europe, as well as in a number of positions in 
Washington, DC. Growing up in Colorado, I learned from my parents the 
values of justice, compassion, and service to a cause greater than 
myself. My family gave me a moral compass based on love of God and 
country, which has guided my life. My wife and I share these values 
with our children. As a family, we care deeply about promoting U.S. 
interests abroad and the future of the Department and its people.
    The global environment has changed over the past several decades. 
The world has become more interconnected, but also more dangerous. I 
believe that our approach toward managing our workforce also must 
evolve. Diplomacy today requires flexibility, creativity, and a 
diversity of ideas that reflect the conscience of America in deploying 
the talents of all of our people to ensure success in an ever more 
complex environment.
    As Secretary Kerry has said, ``Global leadership is a strategic 
imperative for America, not a favor we do for other countries. It 
amplifies our voice, it extends our reach. It is key to jobs, the 
fulcrum of our influence, and it matters to the daily lives of 
Americans. It matters that we get this moment right for America, and it 
matters that we get it right for the world.''
    The Department and its diplomats are, in the words of Secretary 
Kerry, ``an enormous return on investment. Deploying diplomats and 
development experts today is much cheaper than deploying troops 
tomorrow.''
    Diplomacy and development are ever more important to safeguarding 
national security and the prosperity of our people and the United 
States, because if we can successfully manage or solve problems 
diplomatically, we save the lives and the money that would otherwise 
have to be spent in dealing with conflict. Today, as the United States 
and the world face great perils and urgent foreign policy challenges, 
we must use all of the diplomatic, economic, political, legal, and 
cultural tools at our disposal, along with military tactics when 
needed.
    Like Secretary Kerry, I believe that the men and women of the 
Department of State are among the most talented, loyal, and hard-
working people I have ever met. They and their families deserve the 
best possible support. If confirmed, I will work hard to equip them 
with the training, tools, and supportive personnel policies they need 
to fulfill our critical mission.
    The increase in personnel through the Diplomacy 3.0 hiring surge 
over the last 5 years has had a major, positive impact on diplomatic 
readiness. First, the mid-level staffing gap, a result of reduced 
hiring in the 1990s, is shrinking. Our overseas vacancy rate has 
dropped from 16 percent to 10 percent. Second, we have a strong 
commitment to provide training, particularly in foreign languages. In 
the last fiscal year, 79 percent of employees assigned to language-
designated positions met or exceeded the proficiency requirement. And 
third, we have been able to support new and important initiatives, from 
Economic Statecraft, which promotes efforts by U.S. companies and 
foreign investment and leads to jobs and opportunities here at home, to 
the empowerment of women politically, socially, and economically around 
the world.
    Our mission has also grown significantly. Our responsibilities 
overseas continue to expand, as does our presence. In recent years, we 
opened a new Embassy in South Sudan, and a new consulate in China; in 
Brazil, we have plans to open consulates in Belo Horizonte and in Porto 
Alegre. The Department has also added three new domestic bureaus to 
strengthen our expertise and diplomatic efforts in the fields of 
energy, counterterrorism, and conflict and stabilization operations. If 
confirmed, I will seek your support for staffing increases that are 
critical in meeting the President's foreign policy objectives.
    I will continue our hard work to hire, develop, and retain a 
diverse, skilled, and innovative workforce--one that truly represents 
America. As Secretary Kerry has said, ``Our commitment to inclusion 
must be evident in the face we present to the world and in the 
decisionmaking processes that represent our diplomatic goals.'' I would 
like to acknowledge and express my gratitude for your unwavering 
support for increasing minority recruitment and retention. As my 
predecessor before me, I pledge to work closely with you to achieve a 
more diverse workforce. I have personally seen that as our embassy 
teams engage with foreign audiences, our support of the American values 
of social inclusion and freedom resonates far better when they see that 
we ``walk the talk'' by employing a workforce that includes people of 
all cultures, races, and religions, drawn from across the United 
States.
    The Department's Diversity and Inclusion Plan provides a useful 
framework for action, but we have a ways to go. We continue to seek 
ways to reach out toward new audiences. After learning that many 
underrepresented groups rely heavily on mobile communications, the 
Department developed and released ``DOSCareers,'' a mobile app that 
educates and engages aspiring Foreign Service candidates and others to 
familiarize them with diplomatic careers. Launched in March and 
available on Google Play and the App Store, this app expands our 
outreach to these populations and helps candidates link up with our DC-
based recruiters, as well as our 16 Diplomats in Residence at colleges 
across the United States, learn about upcoming recruitment events, and 
even practice for the Foreign Service Officer Test. I was delighted to 
learn that in the first few months, DOSCareers had more than 10,000 
downloads. With innovative outreach and bold action, we can make the 
inroads that will help us reach our diversity goals.
    The Foreign Service represents the United States around the world--
at embassies, consulates, and, increasingly, at less traditional 
missions where our diplomatic skills play an important role in 
promoting our priorities and safeguarding our Nation. Throughout 
history, there has always been a need for diplomats, but now, as we 
face issues such as terrorism, violent extremism, and widespread 
economic instability, the need is greater than ever.
    The 14,000 members of the Foreign Service and 11,000 Civil Service 
employees are vital to America's national security. They play essential 
roles in: advancing peace, security, and freedom across the globe; 
pursuing economic opportunity overseas; creating jobs at home; and 
protecting Americans from the dangers posed by drug trafficking, 
weapons proliferation, and environmental degradation.
    Mr. Chairman, operations at our high-threat posts are increasingly 
demanding and changing. The Department remains focused on filling 
positions in priority staffing posts (PSPs)--our Embassies and 
consulates in Iraq, Afghanistan, Pakistan, Yemen, and Libya--while 
ensuring that we adequately staff our other posts around the world and 
advance major initiatives in such areas as economic statecraft, food 
security, energy security, climate change, and nuclear 
nonproliferation. The Department expects to fill more than 700 jobs in 
these five PSP countries in summer 2014. Since September 2001, the 
number of unaccompanied positions overseas has increased from 200 to 
more than 1,000. We are asking our diplomats to serve in more difficult 
and dangerous places, increasingly without the company and comfort of 
living with their families.
    If confirmed, I will work with others in the Department to ensure 
that all employees are fully trained, prepared, and compensated for the 
mission we have assigned them, and that they have the support they need 
to serve in these high-stress assignments and to cope with the 
pressures such service places on them and their families. This support 
must include the requisite staffing, training, and accountability to 
provide our employees the world over with the safest possible working 
conditions. In this regard, full implementation of Foreign Service 
overseas comparability pay continues to be a top priority.
    While the Department's Foreign Service employees spend most of 
their careers overseas, our Civil Service employees provide the 
institutional continuity and expertise in Washington, DC, at passport 
agencies, Diplomatic Security field offices, and other offices 
throughout the United States.
    Civil Service employees contribute to accomplishing all aspects of 
the Department's mission, encompassing human rights, counternarcotics, 
trade, environmental issues, consular affairs and other core functions.
    The Department of State is broadening the experience of its Civil 
Service workforce by offering opportunities to serve in our missions 
abroad. This flexible approach not only helps close the mid-level gaps 
resulting from the below-attrition hiring of the 1990s, it also 
provides employees with additional development opportunities that 
expand their knowledge and experience base. The results of such 
workforce flexibilities have been very positive and we hope to expand 
these in the future.
    The Civil Service has an admirable record of volunteering for 
service in Iraq and Afghanistan and in hard-to-fill positions overseas. 
If confirmed, I will continue to build on the concept of ``one team, 
one mission,'' to ensure that Civil Service employees are well trained, 
and that we benefit fully from their skills.
    The Department of State has also expanded its use of limited 
noncareer appointments (LNAs) to meet unprecedented visa adjudication 
demand in Brazil, and China. Backlogs for visas in China and Brazil 
have been eliminated, facilitating international travel for business 
and tourism that in turn will help boost our economy. In fact, 
according to the Department of Commerce, every additional 65 
international visitors to the United States generate enough exports to 
support an additional travel and tourism-related job. As a result of 
our increased staffing in Brazil and China, nearly 1.5 million Chinese 
and 1.8 million Brazilians visited in 2012, helping to create 
approximately 50,000 new jobs in the United States.
    Our 46,000 Locally Employed (LE) Staff represent the largest group 
of employees in the Department of State and are an essential component 
of our 275 embassy and consulate teams around the world. LE Staff 
fulfill many functions critical to our overseas operations, and we 
could not accomplish our mission without them. Our LE Staff often serve 
under dangerous and challenging circumstances, with sometimes 
hyperinflated currencies, and they continue to help advance our 
Nation's goals, even as they have endured the same 3-year pay freeze as 
American Federal Government workers. We want to provide them with the 
very best support. If confirmed, I will strive to properly recognize 
their contributions to our missions and U.S. interests by ensuring, to 
the extent that our budget allows, that their compensation keeps up 
with market trends and attracts the best and the brightest.
    I was proud to learn that Washingtonian magazine just named the 
State Department as one of the ``Great Places to Work'' for 2013, 
noting that ``employees at the State Department feel that their work 
makes a difference in foreign affairs, helping to make the world more 
secure.'' We also ranked in the top five in the Partnership for Public 
Service's 2013 ``Best Places to Work in the Federal Government'' 
survey, placing fourth overall and second in strategic management among 
the 19 large Federal agencies. A poll of liberal arts undergraduates 
placed State among the top three ideal employers because we provide the 
opportunity to do challenging work, make a positive difference in 
people's lives, and develop skills. If confirmed, I will do all that I 
can to make State an even more attractive employer.
    In closing, Mr. Chairman, I am pleased to have the opportunity to 
address you and the members of the committee. If confirmed, I ask for 
your help in strengthening the security and prosperity of America by 
leading and building an effective civilian workforce in the Department 
of State. I look forward to helping the Secretary to ensure that we are 
prepared to do just that.
    Thank you. I respectfully request that my full statement be entered 
into the record, and I look forward to your questions.

    The Chairman Thank you.
    Mr. Smith.

  STATEMENT OF HON. DANIEL BENNETT SMITH, OF VIRGINIA, TO BE 
   ASSISTANT SECRETARY OF STATE FOR INTELLIGENCE AND RESEARCH

    Ambassador Smith. Thank you, Mr. Chairman. It is a great 
honor for me to appear before you today as President Obama's 
nominee to be Assistant Secretary of State for the Bureau of 
Intelligence and Research. I am deeply grateful to the 
President and to Secretary of State Kerry for their confidence 
in nominating me for this position, as well as to the Director 
of National Intelligence, James Clapper, for his support of my 
nomination.
    I want to thank my wife, Diane, for joining me here today. 
My three sons could not be here.
    Mr. Chairman, INR is a unique and invaluable asset both to 
the Department of State and to the Intelligence Community, of 
which it is part. The Bureau has a long and celebrated history 
in providing information and in-depth, all-source analysis that 
have helped to guide our Nation's foreign policy. INR's strong 
reputation derives not from the size of its staff or its 
budget, but from the tremendous expertise and skills of its 
personnel. Indeed, the Bureau has some of the greatest regional 
and subject-matter expertise anywhere in the United States 
Government.
    Mr. Chairman, it is less well known but INR also plays a 
critical role and function in ensuring that intelligence and 
sensitive intelligence-related law enforcement activities are 
consistent with and support our foreign policy and national 
security objectives.
    Throughout the course of my 30 years as a Foreign Service 
officer, I have worked closely with members of the Intelligence 
Community, overseen and coordinated intelligence and law 
enforcement activities, and witnessed firsthand the role that 
intelligence and analysis can and should play in the 
formulation of foreign policy. Like many professionals within 
INR, I also have a strong academic background and appreciate 
very much the importance of drawing on the insights and 
expertise found in our Nation's outstanding academic 
institutions, nongovernmental organizations, and the private 
sector. As a leader in the Department and as a chief of mission 
abroad, I have also worked hard to enhance interagency 
cooperation, to improve communication and information sharing, 
and to ensure that we are all working together to advance our 
national security.
    If confirmed, Mr. Chairman, I will work tirelessly to 
ensure that INR continues to make its unique analytical 
contribution, as well as continues to ensure that our 
intelligence activities support our foreign policy and national 
security objectives.
    I thank you for having me here today and I look forward to 
your questions.
    [The prepared statement of Ambassador Smith follows:]

               Prepared Statement of Daniel Bennett Smith

    Mr. Chairman and members of the committee, it is a great honor to 
appear before you today as President Obama's nominee to be Assistant 
Secretary of State for the Bureau of Intelligence and Research (INR). I 
am deeply grateful to the President and to Secretary of State Kerry for 
their confidence in nominating me for this position, as well as to the 
Director of National Intelligence, James Clapper, for his support of my 
nomination.
    INR is a unique and invaluable asset both to the Department of 
State and to the Intelligence Community, of which it is part. The 
Bureau has a long and celebrated history in providing information and 
in-depth, all-source analysis that have helped to guide our Nation's 
foreign policy. INR's strong reputation derives not from the size of 
its staff or budget, but from the tremendous expertise and skills of 
its personnel. Indeed, the Bureau has some of the greatest regional and 
subject matter expertise anywhere in the U.S. Government. INR has 
approximately 200 analysts who have an average of 13 years of 
government and nongovernmental professional experience directly related 
to their current INR portfolio. If confirmed, I will work hard to 
ensure that INR continues to recruit and retain the highest quality 
staff and provides them with the training, professional development 
opportunities, and overseas experience they need to ensure the best 
possible analysis. Equally important, I will vigorously defend the 
integrity of the analytical process to ensure the independence and 
unbiased analysis for which INR is justly famous.
    Mr. Chairman, it is less well known but INR also plays a critical 
function in assuring that intelligence and sensitive intelligence-
related law enforcement activities are consistent with, and support, 
our foreign policy and national security objectives. The Bureau has a 
dedicated staff of professionals with significant expertise in this 
area, which encompasses many highly technical issues as well as 
practical ones. They help define the Department's intelligence 
requirements, seek cleared language for use in diplomatic 
communications, ensure that Department policymakers understand and can 
evaluate proposed intelligence activities with potential foreign policy 
consequences, and support our chiefs of mission overseas.
    I myself have direct experience in this regard, and, if confirmed, 
I look forward to helping the Bureau support the Secretary of State and 
the State Department in assuring that foreign policy concerns are taken 
fully into consideration in the decisions and activities of the 
Intelligence Community.
    Mr. Chairman, if confirmed, I believe I will bring extensive 
experience and relevant skills to the position of Assistant Secretary 
for Intelligence and Research. I have served successfully in a variety 
of demanding leadership positions both in Washington and overseas, 
including most recently as Executive Secretary of the State Department 
and as Ambassador to Greece. I know firsthand the challenges facing 
senior policymakers as well as the incredible demands on their time and 
attention. I thus appreciate the critical contribution that INR has 
made and can continue to make in providing the President, the Secretary 
of State, and other senior policymakers with timely, independent and 
well-focused analysis on a broad range of regional and global 
challenges.
    Throughout the course of my 30 years as a Foreign Service officer, 
I have worked closely with members of the Intelligence Community, 
overseen and coordinated intelligence and law enforcement activities, 
and witnessed firsthand the role that intelligence and analysis can and 
should play in the formulation of foreign policy. Like many of the 
professionals within INR, I also have a strong academic background and 
appreciate very much the importance of drawing on the insights and 
expertise found in our Nation's outstanding academic institutions, 
nongovernmental organizations, and the private sector. As a leader in 
the Department and as a chief of mission abroad, I have also worked 
hard to enhance interagency cooperation, to improve communication and 
information-sharing, and to ensure that we are all working together to 
advance our national security.
    If confirmed, Mr. Chairman, I will work tirelessly to ensure that 
INR continues to make its unique analytical contribution as well as 
continues to ensure that our intelligence activities support our 
foreign policy and national security objectives. Thank you for having 
me here today. I look forward to answering your questions.

    The Chairman Well, thank you both very much. Welcome to 
your families. As I said earlier, service of those in the 
Foreign Service, particularly our ambassadors and other 
positions, is also a family commitment. I know that you will be 
here in D.C., but nonetheless, it is still a commitment. So I 
appreciate their willingness to share you with the country.
    Ambassador Chacon, we are very proud of your service to 
date, and I would expect that the service that you have had 
will now be reflected in this new position.
    As you and I had an opportunity to discuss yesterday, there 
are some things that I am concerned about with the State 
Department. It is a concern that has lasted 21 years since I 
first came to the Congress and the House of Representatives and 
has transcended various administrations and still does not seem 
to be getting it right. And that is the nature of diversity in 
the Foreign Service and in the overall presence in the State 
Department, of which--I am concerned about it all, but one of 
the worst elements of the State Department is the Hispanic 
workforce at State, which would have to grow exponentially in 
order to fairly reflect the Hispanic component of the overall 
U.S. population. Yet, this is a goal that has proven elusive 
even when the Department had the resources to conduct large-
scale hiring programs.
    For example, in fiscal year 2011, the State Department was 
one of only five Federal agencies that saw a decline by 
percentage in the number of Hispanic employees. And your 
immediate predecessor, Director General Greenfield, made a 
genuine effort to address this issue and worked with my office 
in making minority communities aware of opportunities at State 
and in the Foreign Service. This is something that I raise with 
Heather Higginbottom in her role in management.
    And I think why we have not achieved in this goal is 
because it is my belief that State needs direct guidance from 
the top that this is a priority. If you do not establish from 
the top, from the Secretary to the Under Secretary, throughout 
this whole effort to say part of how you will be evaluated is 
whether or not you are working to diversify within your field 
the workforce of the State Department and the Foreign Service. 
Then it will not be carried out because unless people know that 
it is part of their overall review--this is an important 
equation--it will be maybe for another 20 years aspirational.
    And this is not just about doing the right thing from my 
perspective, although it is. This is also about a powerful 
message across the world. When I was in China--we just had our 
nominee for the Ambassador to China--I was meeting with human 
rights activists and lawyers who are struggling to represent a 
nascent effort to create change for basic human rights inside 
of China with a bunch of lawyers and human rights activists and 
dissidents. And the member of our team from our Embassy who was 
leading this effort in this group, in terms of engaging them 
and having set up the meeting for many who did not come because 
they were threatened not to come by the state security, was an 
African American. And the powerful message that was being sent 
to these human rights activists and political dissidents as 
someone who expressed some of the history of the United States 
and the change for basic human rights and dignity of African 
Americans in this country and now representing the United 
States of America in a country in which they were going through 
similar challenges cannot be measured. So this is not just 
simply about doing the right thing. It is a powerful message, 
the same powerful message when you have been able to represent 
our country in different parts of the world.
    And so what I want to hear from you is, one, a commitment 
to me about making this a priority as the Director General and, 
two, what is the plan. I do not expect you to give me the 10-15 
point plan right now, but I do want to hear some--you must have 
given this some thought. I do want to hear some outlines of 
what you envision having to happen in order to change these 
dynamics.
    Do you believe you have a commitment from the Secretary to 
change this reality? Because I have been doing this for 20 
years, trying to change the course of events in this particular 
regard, and I really consider it one of those things that I 
have not been very successful at. The difference is 20 years 
ago I was not the chairman.
    Ambassador Chacon. Thank you, Mr. Chairman.
    Let me begin by saying you most definitely have my 
commitment, and we most definitely have the commitment from the 
Secretary. As a matter of fact, I met with the Secretary 
yesterday. We talked about this in preparation for my coming 
here, and he wanted me to reiterate yet again, as he has told 
me personally on a number of occasions, his commitment to 
diversity that extends to his entire top staff, including 
Deputy Secretary Higginbottom that will be leading a second 
review of our Quadrennial Diplomacy and Development Review. And 
I want to say as a member of the Foreign Service, a proud 
member with over 30 years of experience there, I have seen the 
culture change. We can do a much better job clearly.
    I personally am not satisfied but I am very impressed with 
the steady progress that we have made. And it is my team that 
will be working very hard because this is an important 
imperative and priority.
    We are doing some novel things like a mobile app to be able 
to communicate with underrepresented populations to be able to 
demystify, if you will, what the Foreign Service is.
    My personal case is somewhat emblematic. I come from 
Colorado, New Mexico, 350 years, never really did much 
international travel in my youth, did not know anything about 
the Foreign Service, happened to run into a recruiter on campus 
who talked about it. When I did volunteer work overseas in 
Latin America, I became engaged with talking to Foreign Service 
officers, felt instantly smitten with this. And it helped me 
prepare better and pursue this career.
    And that is what I hope to do is to take this story outside 
the traditional stream and to go to areas where we have people 
that are genuinely interested in public service and that have 
major contributions to make.
    We hope to launch this spring as well a Foreign Service 
exam online that gives immediate feedback to people that are 
taking it. It guides them in areas where they can improve their 
score. We have diplomats in residence at over 16 universities, 
many of those serving historic institutions that serve 
Hispanics or African Americans. And again, their mandate is to 
go out and to find these people, not just to do it by chance.
    It is an exciting career. I know that we have people 
interested in second careers, accomplished people. I have 
observed some of the examination process. We have bankers and 
lawyers that want to start in public service, and I would like 
to tap into underrepresented groups and minority professional 
organizations to be able to tell this story and to bring in 
those talents.
    So we have a lot of work to do, but I think it is exciting 
because we are all working as a team. The Secretary has some 
innovative programs in terms of outreach to veterans. I would 
like to look at public-private partnerships to sponsor more 
internships like our Rangel and Pickering fellowships because 
it is a process. It is getting access to this lifestyle and 
understanding it so that they can compete on a level playing 
field when they do take the exam.
    The Chairman Well, I appreciate that answer. The one thing 
I might disagree with you on is progress. I guess progress is 
all relative. But certainly we have not had the type of 
progress over two decades that I think is commensurate with the 
growth in this country of a critical part of the population. So 
I will look forward to having a more in-depth opportunity to 
work with you.
    I am going to tell you four points that I think are 
essential to any plan.
    First of all, it starts with measurement, making sure that 
at the very top it is very clear that the process by which 
those who are going to be reviewed will have as one of the 
measurements what they have done to promote this diversity.
    Secondly is if we continue to recruit at the traditional 
places that we recruit at, we are not going to get a diverse 
pool. So I can bring you to New Jersey and some great schools 
that are very diverse, but that recruiting does not take place 
there. And that is just by way of one example. Now, if we go to 
the Fletcher School of Diplomacy, which is a fantastic school, 
or ISIS or others, we are going to get some really talented 
people, but we are not going to necessarily get the most 
diverse pool. So we need to diversify where we send these 
recruiters.
    Thirdly, we need to actually engage, if we really want to 
make this happen, to not only recruit those individuals but to 
lead them in some process that prepares them for the written 
exam and then the oral exam.
    And then lastly, I continuously am concerned about an oral 
exam that is very subjective and in which some people have said 
you can communicate effectively orally and others cannot. 
Obviously, oral communication is incredibly important in this 
job, but with all due respect, I have had those appear before 
this committee and I have met others who evidently must have 
passed the oral exam, and I have known others who have been 
rejected who, from my point of view, are equally competent in 
their ability to orally express themselves. So we need a less 
subjective and more objective standard so that we actually get 
the cadre that we want.
    So we will look forward to working with you on this. This 
is something that I am actually considering looking at 
something that we have not done in this committee for some 
time, which is a State Department authorization bill so that we 
can lay out this, among many other elements, of course--there 
are many important elements that we have not been able to do. 
And I think it is time for the committee to consider doing 
that. I know the challenges with it but I think it is 
important.
    Finally, I would hope that as we deal--something that I 
have taken to heart since I became the chairman, something that 
began with the tragedy of Benghazi, something that the ARB has 
laid out a roadmap on, that we are looking at the staffing 
necessary in fulfilling the human capital needs and language 
requirements and other critical elements to make sure that our 
embassies abroad, which are particularly in high-threat, high-
risk positions, have the staff necessary to be able to meet 
those challenges. Is that something that you are committed to 
as we move forward here?
    Ambassador Chacon. I certainly am, Senator, and we have 
taken those recommendations of the ARB to heart and have 
created 150 new security positions. We have created language 
proficiency programs for security personnel, in particular in 
Arabic. We are looking at using all of our hiring authorities 
to bring on immediately qualified personnel, for instance, that 
are retired or family members or other experts that can 
immediately begin contributing to this. It is our highest 
priority and one of my top goals, of course, is ensuring that 
we have the staff necessary for the 720 positions in the five 
priority staffing areas which include Iraq, Afghanistan, 
Pakistan, Yemen, and Libya. So, yes, you do have my commitment 
there. And we have gone a long way but we certainly can do a 
much better job.
    The Chairman Mr. Smith, I do not want you to feel left out 
of the conversation. Let me ask you, can you describe for me 
how INR participates in the formulation of threat assessment 
against U.S. posts by the Bureau of Diplomatic Security? You 
know, one of the things that came out was looking at threats in 
a different way than we had where it was not just a question of 
immediate actionable intelligence where we had a specific 
threat, but an environment that could have created--from which 
a threat could arise from. Could you give me a little sense of 
how INR goes about that and how you will, as the Assistant 
Secretary, upon confirmation, look at that issue?
    Ambassador Smith. Well, Mr. Chairman, thank you very much.
    INR works closely with our colleagues in the Bureau of 
Diplomatic Security, as well as in the regional bureaus and 
elsewhere in the Department, to ensure that they have access to 
the intelligence and information they need to make assessments 
about the security and safety of our personnel on the ground in 
a given position or a given place.
    One of the things I want to do, if I am confirmed, Senator, 
is make sure that we are working as collaboratively as 
possible, that they have access, as I understand, to all the 
information they need, but also that INR is providing the 
broader intelligence assessment and analysis to put these 
things in a broader context. I think you are absolutely right 
that in many cases we need to see the bigger picture sometimes 
and to step back, and I think INR's contribution can be 
significant in that regard.
    The Chairman Let me ask you, if you were to be confirmed, 
would you, in essence, become the Secretary's chief 
intelligence briefer?
    Ambassador Smith. I am the Secretary's representative to 
the Intelligence Community, and I will ensure that the 
Secretary has access to the information that he needs, but also 
that the Intelligence Community is focused on the priorities of 
the Secretary and the State Department.
    The Chairman So that does not mean that you are necessarily 
the chief intelligence briefer. You would be his representative 
in the Intelligence Community to try to rivet their attention 
on things the State Department cares about. But how does that 
play back to the Secretary? Any Secretary, this one or any 
other. How does that play back to the Secretary? In what role 
do you interface with the Secretary in that regard?
    Ambassador Smith. Well, I will, if confirmed, be attending 
the Secretary's senior staff meetings and other events in order 
to provide information but also to take back information to INR 
and to the Intelligence Community on the priorities and 
concerns of the Secretary on an ongoing basis. I think one of 
the strengths of INR as an institution is that proximity to the 
Secretary of State and to other policymakers in the State 
Department to provide an ongoing dialogue in order to 
anticipate their needs and to provide feedback to the 
Intelligence Community about priorities and objectives.
    The Chairman To what extent does INR engage in personnel 
rotations with other agencies of the Intelligence Community and 
vice versa with them and INR?
    Ambassador Smith. INR is a small organization, as you know, 
Senator. We have about 200 analysts, about 360 positions in 
INR, but we, within those constraints of being a small 
organization, I think try our best to ensure that our analysts, 
our employees have opportunities within the Intelligence 
Community at large, whether it is serving and being detailed to 
other parts of the Intelligence Community, but also that they 
can take advantage of opportunities abroad. One of the things I 
think that enhances our value and certainly enhances the 
insights and experience of our analysts is to be able to serve 
abroad. We look for TDY assignments and other opportunities so 
that they can spend time abroad.
    The Chairman I got your answer on how many people you have, 
and I recognize the size of it compared to the challenge.
    Can you quantify it for me? Do you have an understanding of 
the component? Is it 10 percent or 5 percent or 2 percent that 
rotate into other intelligence agencies or other intelligence 
agencies that rotate into INR?
    Ambassador Smith. Well, I would say, on hand--I do not know 
the exact statistics, Senator, but I would say that we have a 
substantial number of detailees. I know, at any given time, 
perhaps as many as 5 to 10 percent of the Bureau are detailees 
from other Intelligence Community organizations and 
institutions. We try to, as I say, make available our staff and 
allow them to do rotations within the Intelligence Community as 
much as possible. I do not know at any given time how many it 
is. Last year we had, in terms of overseas assignments though I 
know, seven who were out, enabled to go out on TDY's of our 
employees.
    The Chairman Would you, for the record, get us an answer as 
to what is the nature of the rotations? Because it seems to me 
that it would be valuable for all concerned by getting exposure 
to and experience, and the responsibilities, the tradecraft, 
and the organizational cultures of other agencies that would 
help your specific task within the Department be enriched. So 
if you could get us an answer on that, I would appreciate it.
    Ambassador Smith. I would be delighted, Mr. Chairman, but I 
give you my commitment as well, if confirmed, that is going to 
be one of my priorities, to ensure those opportunities.
    The Chairman Well, thank you both for your appearance.
    Seeing no other members, this record will remain open until 
noon tomorrow. If you have questions submitted to you for the 
record, I would urge you to respond to them expeditiously so 
that the chair can consider your nominations at the next 
business meeting.
    And with that, this hearing is adjourned.
    [Whereupon, at 12 p.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


            Responses of Max Baucus to Questions Submitted 
                       by Senator Robert Menendez

    Question. What do you view as the biggest challenges to the 
relationship? I am very concerned about Chinese actions and current 
trend lines on a range of security issues in the Asia-Pacific region. 
On Japan, China appears to be trying to use its differences with Japan 
as a wedge between the United States and an important ally and is 
increasingly aggressive in its rhetoric and behavior toward the 
Senkakus, including with its recent Air Defense Identification Zone 
declaration. What is our proper response? In the South China Sea, China 
appears to be continuing to drag its feet on the negotiation of a Code 
of Conduct, recently announced that it was going to enforce a whole 
host of fisheries regulations in the South China Sea, including in 
areas under dispute with other nations, and seems intent on trying to 
coerce the nations of the region--including the Philippines and 
Vietnam--to force a resolution of these issues in a way favorable to 
PRC interests. What role should the United States play on these issues? 
Given China's new assertiveness, is our carefully calibrated balance 
between ``cooperation and competition'' still the right approach? 
Should we be putting ``a little more hair'' on the competition side?

    Answer. The U.S.-China relationship contains elements of both 
cooperation and competition. The United States should continue to make 
clear and promote our values, interests and principles, work with China 
to manage our differences, and seek to build a cooperative partnership 
across the range of bilateral, regional, and global issues that 
confront us today. If confirmed, I would speak clearly to Beijing 
regarding not only issues of shared interest, but also our differences, 
and faithfully represent the values we hold dear as Americans--
including respect for international law and the freedom of navigation. 
I am clear-eyed about the growing U.S. and regional concerns regarding 
Chinese behavior with its neighbors over territorial and maritime 
matters.
    China's announcement of an ``East China Sea Air Defense 
Identification Zone (ADIZ)'' caused deep concerns in the region. China 
announced the ADIZ without prior consultations, even though the newly 
announced ADIZ overlaps with longstanding Flight Information Regions 
(FIRs) and other ADIZs and includes airspace and territory administered 
by others. If confirmed, I would remind the Chinese that the United 
States does not recognize and does not accept the ADIZ, which we 
believe should not be implemented. I would make clear to China that it 
should refrain from taking similar actions elsewhere in the region. I 
would also encourage China to work with other countries, including 
Japan and the Republic of Korea, to address the dangers its recent 
declaration has created and to deescalate tensions.
    In the South China Sea, the past 2 years have witnessed a troubling 
trend of provocative and unilateral activities, including Chinese 
restrictions toward long-held fishing practices at Scarborough Reef and 
its update of the Hainan provincial fishing regulations that purport to 
cover vast areas of the South China Sea. The United States has pressed 
China and ASEAN to rapidly agree on a meaningful Code of Conduct in the 
South China Sea to manage incidents when they arise, and I will 
continue to do so, if confirmed.

    Question. What kind of dialogue do we currently have with the 
Chinese on cyber theft? What will you do as Ambassador to deepen this 
dialogue? What actions could we take if we discover state-directed 
theft of corporate or national secrets?

    Answer. Cyber security is one of the administration's top 
priorities. Administration officials have repeatedly raised concerns 
about Chinese state-sponsored cyber-enabled theft of trade secrets and 
confidential business information at the highest levels with senior 
Chinese officials, including in the military, and will continue to do 
so. The United States engaged China on this and other key cyber-related 
issues during the Strategic Security Dialogue (SSD)--including during 
the January 23 interim round of the SSD--and through the first two 
meetings of the U.S.-China Cyber Working Group (CWG), conducted in July 
and December 2013. The two sides have agreed to schedule the next 
meeting in the first half of 2014.
    The United States and China are among the world's largest cyber 
actors, and it is vital that we continue a sustained, meaningful 
dialogue and work together to develop an understanding of acceptable 
behavior in cyber space. Through the CWG, the United States will 
continue to emphasize U.S. cyber policy objectives, including the 
applicability of international law to state behavior, the importance of 
norms of responsible state behavior, concerns about cyber activities 
that can lead to instability, the role of transparency in domestic 
civilian and military cyber policy, and the importance of practical 
cooperative measures to prevent crises in cyber space. If confirmed, I 
am committed to making the advancement of these issues a high priority.

    Question. A 2013 American Chamber of Commerce China survey found 
that 72 percent of respondents said that China's IPR enforcement was 
either ineffective or totally ineffective. The U.S. International Trade 
Commission estimated that U.S. intellectual property-intensive firms 
that conducted business in China lost $48.2 billion in sales, 
royalties, and license fees in 2009 because of IPR violations there. In 
certain sectors, such as wind power, where American Superconductor has 
been severely harmed by IP theft by its Chinese ``partner,'' Sinovel, 
the damage to U.S. businesses has been particularly acute. It also 
estimated that an effective IPR enforcement regime in China that was 
comparable to U.S. levels could increase employment by IP-intensive 
firms in the United States by 923,000 jobs.

  <diamond> Where does intellectual property protection rank on your 
        list of priorities as Ambassador?

    Answer. I am very concerned by high levels of trade secrets theft 
and violations of intellectual property rights in China. If confirmed, 
I will advocate forcefully on behalf of U.S. rights holders for greater 
protection and enforcement of their intellectual property, trade 
secrets, and commercially sensitive information. I will seek to ensure 
that this critical issue is addressed at the highest levels between our 
two governments. U.S. companies derive tremendous value and competitive 
advantage from the billions of dollars they invest in research and 
development, and intellectual property is part of the bedrock of our 
economy. It is critical for American innovators to know their 
intellectual property and trade secrets are being protected.
    If confirmed, I will also make it a top priority to work closely 
with U.S. rights holders, innovators, and entrepreneurs to make sure 
that they fully understand the risks and take appropriate measures to 
protect their intellectual property doing business with China. I will 
also work with other foreign governments to underscore the need for the 
Chinese Government to take stronger measures to protect intellectual 
property in China.

    Question. It's not at all clear that the new Chinese leadership is 
as welcoming to foreign investment as its predecessors have been for 
over two decades. In your chairmanship of the Finance Committee and for 
many years here in the Senate, you've pushed for open markets and 
export opportunities for U.S. firms.

  <diamond> Do we face a fundamental change in how the Chinese 
        Government views the role of foreigner companies, and what can 
        you, as Ambassador, do about that?

    Answer. There is no doubt that two-way trade and investment have 
benefited both the United States and China enormously, and both 
countries expect that they will continue to contribute to economic 
growth and prosperity. China has committed itself to an ambitious set 
of reforms, including in the area of investment, but this reform 
process is in early stages. The United States needs to continue to use 
bilateral dialogues and other engagements to press for continued 
reform, including calling on China to further liberalize its market and 
to establish a level playing field for foreign companies relative to 
domestic companies.
    In a positive development, China announced at the U.S.-China 
Strategic and Economic Dialogue (S&ED) in July 2013 that it would 
negotiate a bilateral investment treaty (BIT) with the United States 
that, for the first time in China's treaty practice, will cover all 
phases of investment, including market access, and all sectors of the 
Chinese economy (except for any limited and transparent negotiated 
exceptions). The BIT will mark an important step in opening China's 
economy to U.S. investors and leveling the playing field for American 
businesses. China also committed at S&ED to open up further to foreign 
investment in services, including through the establishment of the 
Shanghai Free Trade Zone pilot.
    If confirmed, I would seek to make further progress on a BIT while 
emphasizing the need for China to make simultaneous headway on market 
access and other priority issues in the short term, including through 
ongoing reform efforts such as in the Shanghai Free Trade Zone.

    Question. What do you hope to accomplish during your tenure in 
Beijing? What do you see as the proper role of the Ambassador? How will 
you work to get real influence on U.S. policy?

    Answer. Engaging in frank discussions while seeking to collaborate 
and narrow our differences with China is essential to having a healthy 
bilateral relationship. My primary job as Ambassador, if confirmed, 
will be to continue expanding cooperation where U.S.-China consensus 
and shared interests exist--such as on environmental issues--and to 
narrow our differences to promote common goals and interests, such as 
agreeing to a rules-based framework for our economic relationship that 
establishes a level playing field for healthy competition and 
innovation.
    If confirmed, I would continue to work with China on important 
regional and global security issues, such as the denuclearization of 
the Korean Peninsula, the importance of a nuclear-weapons-free Iran, 
and achieving a stable and prosperous Afghanistan. Equally important, I 
would seek to advance important U.S. interests on more contentious 
concerns, such as human rights and maritime security issues.

    Question. Is there a threat to the interests of the United States 
and our allies and friends from a militarily strong China that seems to 
be pushing others around as its military modernization proceeds and 
capabilities increase?

    Answer. The United States seeks a healthy, stable, reliable, and 
continuous military-to-military relationship with China. If confirmed, 
I would support the continued development of military-to-military 
relations as a key component of the U.S.-China bilateral relationship. 
Deeper cooperation is necessary to further reduce mistrust and the risk 
of miscalculation between the U.S. and Chinese militaries. We urge 
China to resolve regional issues peacefully through dialogue. We oppose 
unilateral actions that raise tensions or could result in 
miscalculations that would undermine peace, security, and economic 
growth in this vital part of the world. The U.S.-China relationship is 
not zero-sum, and we continue to pursue greater cooperation and 
engagement on our common interests.
    If confirmed, I would encourage China to exhibit greater 
transparency with respect to its capabilities and intentions and to use 
its military capabilities in a manner conducive to the maintenance of 
peace and stability in the Asia-Pacific region. I would reiterate that 
the United States has national interests in the 
Asia-Pacific region, including an interest in preserving the freedom of 
the seas and airspace.

    Question. How do we get America's message (who we are, what our 
values are) across to the Chinese public in ways that transcend the 
filters the leadership has constructed to block us? Are there 
particular human rights issues that you intend to champion as 
Ambassador?

    Answer. The best way for us to get America's message across to the 
Chinese public is through public diplomacy outreach programs and U.S.-
China people-to-people exchanges. Fortunately, our Embassy and 
consulates in Mission China have a robust public diplomacy outreach 
strategy and one of their primary objectives is to strengthen 
engagement with the next generation of Chinese leaders. They achieve 
this objective through English-language training programs for teachers 
throughout China, partnerships with U.S. universities that are working 
with universities in China, as well as academic, cultural, sports, and 
professional exchanges. The U.S.-China Consultation on People-to-People 
Exchange, an annual high-level dialogue, is a prime example of how the 
United States and China are working together to forge stronger ties 
between their peoples.
    Mission China also has an extensive social media outreach program, 
utilizing local Chinese social media platforms, with over 4 million 
followers, throughout China. Mission China continues to look for 
innovative ways to reach our target audiences through social media and 
new technology.
    One of the most effective ways for the Chinese public to understand 
who we are and what we value is to experience our culture firsthand as 
a student. According to the 2013 Open Doors Report, there are over 
235,000 Chinese students in the United States. Through the EducationUSA 
program, Mission China is reaching out to students throughout China to 
provide timely and accurate information so students can find the best 
fit for their study abroad program. Also, through President Obama's 
100,000 Strong Initiative, we focused on increasing the number of 
Americans studying in China. In fact, the U.S. Department of State 
funds more Americans to study in China than in any other country. 
Approximately 900 students, scholars, and teachers will conduct 
research, teach or study Chinese through Fulbright and our other 
exchange programs. The exchanges we sponsor bridge language barriers, 
open lines of communication, and connect people in the United States 
and China in immediate and lasting ways.
    Human rights are integral to U.S. foreign policy. If confirmed, I 
would use my position as the U.S. Ambassador to urge China's leaders to 
respect the human rights and fundamental freedoms of all citizens, 
particularly the freedoms of expression, assembly, association, and 
religion, and would communicate our support for these principles 
directly to the Chinese people.
    I would raise our human rights concerns with Chinese officials at 
the highest levels and would raise specific cases of Chinese citizens 
who are being persecuted for the peaceful expression of their political 
or religious views. I would also make clear to China that the United 
States considers China's upholding its international human rights 
commitments to be vital to our bilateral relationship. I strongly 
believe that the promotion and protection of human rights in China are 
in our national interest and should be an integral part of every high-
level conversation we have with Chinese officials.
    If confirmed, I would plan to continue outreach to Chinese 
citizens, including activists and public interest lawyers, as well as 
ethnic minorities and religious groups in China, and will urge the 
Chinese Government to cease restrictions on religious practice and to 
address the counterproductive policies in minority areas that have 
fostered grievances and have prevented long-term stability.

    Question. April 10, 2014, will mark the 35th anniversary of the 
enactment of the Taiwan Relations Act (TRA), which was passed by the 
United States Congress and signed into law in 1979. This legislation 
provides an institutional framework and legal basis for our continued 
relations with Taiwan after the end of formal diplomatic ties. The 35th 
anniversary not only represents an important milestone in our 
longstanding relationship with Taiwan, it also consolidates the 
foundation on which our bilateral security, economic, and trade 
relations will continue to grow and flourish and reassures our 
commitment to maintain peace and stability in the region. In my view, 
the Taiwan Relations Act, just as much as our One China Policy or the 
Three Joint Communiques, forms the basis of our successful policy 
toward China and is critical to maintaining cross-strait stability.

  <diamond> What is your view of the Taiwan Relations Act?

    Answer. If confirmed as Ambassador, I will continue to underscore 
the commitment to the U.S. one-China policy based on the three Joint 
Communiques and the Taiwan Relations Act (TRA). The TRA has provided 
the basis for Taiwan's unofficial but stable, friendly, and robust 
relations with the United States since 1979, allowing Taiwan to be an 
important economic and security partner in the Asia-Pacific region. The 
TRA allows the United States to continue to provide Taiwan with the 
means to develop a sufficient self-defense capability, which 
contributes to stability in the region and gives Taiwan confidence to 
engage China. Maintenance of cross-strait stability is essential to 
promoting peace and prosperity in the entire Asia-Pacific region.
    If confirmed, I will encourage continued constructive cross-strait 
dialogue, which has led to significant improvements in the cross-strait 
relationship, at a pace acceptable to people on both sides.

    Question. How do you assess China's cooperation with the United 
States on Iran, including sanctions enforcement?

    Answer. China is an important partner in the P5+1 process and in 
the implementation of the Joint Plan of Action. The United States and 
China share the goal of preventing Iran from acquiring a nuclear 
weapon. If confirmed, I would work to ensure there is continued and 
close cooperation between our two countries. As Ambassador, I would 
work with China to ensure we continue to address the international 
community's concerns about Iran's nuclear program in the P5+1 and press 
China to prevent proliferation-related transfers to Iran. If confirmed, 
I would work with China as we pursue a long-term comprehensive 
settlement with Iran. I would urge China to keep Iranian oil imports 
flat, instruct Chinese companies to refrain from sanctionable 
transactions with Iran, and boost its efforts to prevent illicit 
transfers of proliferation-sensitive technology to Iran.

    Question. How can we get China to work more closely with 
responsible members of the international community on North Korea? Is 
there a future for the six-party talks?

    Answer. The United States remains open to authentic and credible 
negotiations to implement the September 2005 Joint Statement of the 
Six-Party Talks and to bring North Korea into compliance with 
applicable Security Council resolutions through irreversible steps 
leading to denuclearization. The United States shares with China a 
common goal of achieving a denuclearized Korean Peninsula, which is 
essential to both regional stability and broader international 
security. China is a vital partner with a unique role to play due to 
its longstanding economic, diplomatic, and historical ties with North 
Korea. The administration continues to work with all U.N. member 
states, including China, to ensure the full and transparent 
implementation of UNSC sanctions.
    As Ambassador, if confirmed, I would urge China to use its 
influence to convince North Korea that it has no choice but to 
denuclearize. The United States and China need to continue to work 
together to hold the DPRK to its commitments and its international 
obligations, including those to abandon its nuclear weapons and 
existing nuclear programs in a complete, verifiable, and irreversible 
manner. One important way to do this continues to be robust PRC 
implementation of U.N. Security Council sanctions and other measures.
    If confirmed, I would continue to encourage Beijing to ensure the 
full and transparent implementation of U.N. Security Council sanctions 
targeting North Korea's nuclear-related, ballistic missile-related, or 
other weapons of mass destruction-related programs.

    Question. The Chinese Government is demonstrating increasing 
determination and sophistication at using the law as a means to compel 
citizens to either support government policies on an ever wider range 
of issues, or to remain silent (and compliant). This trend is 
accelerating and is especially noticeable across the terrain of 
fundamental human rights. We routinely hear Chinese Government 
officials dismiss foreign accusations that they disregard the freedoms 
of speech, association, assembly, and religion by asserting that 
government actions are ``according to the law.''

  <diamond> As Ambassador to China, how will you work to champion the 
        function of law to protect citizens' freedoms, instead of 
        protecting the government's ability to suppress those rights?

    Answer. Human rights are integral to U.S. foreign policy. If 
confirmed, I would use my position as the U.S. Ambassador to urge 
China's leaders to respect the human rights and fundamental freedoms of 
all citizens and would communicate our support for these principles 
directly to the Chinese people. Promoting respect for universal human 
rights and the rule of law is integral to U.S. foreign policy. If 
confirmed, I would urge China's leaders to undertake key legal reforms 
and respect the rule of law and underscore the importance of an 
independent judiciary, a robust civil society and the free flow of 
information to China's prosperity and stability. I would also strongly 
support the annual U.S.-China Legal Experts Dialogue, which provides an 
important channel to discuss our concerns about the rule of law and 
specifically the role of lawyers in Chinese society by bringing 
together judges, legal scholars, lawyers and prosecutors to discuss key 
legal issues.
    If confirmed, I would continue outreach to ethnic minorities and 
religious groups, including members of house churches, in China. I 
would also continue outreach to legal scholars and universities to 
emphasize the importance of rule of law and an independent judiciary. 
Such outreach would be conducted in a way that is effective and 
promotes our values.
    If confirmed, I would raise our human rights concerns with Chinese 
officials at the highest levels and would raise specific cases of 
Chinese citizens who are being persecuted for the peaceful expression 
of their political views or religious beliefs. I would also make clear 
to China that the United States considers China's upholding its 
international human rights commitments to be vital to our bilateral 
relationship. I strongly believe that the promotion and protection of 
human rights in China are in our national interest and should be an 
integral part of every high-level conversation we have with Chinese 
officials.

    Question. How should the United States respond to Chinese security 
officials' recent detention of Uyghur scholar, Ilham Tohti, who has 
given a voice to Uyghurs' concerns over inequality and discrimination 
and who has sought to foster understanding between Uyghurs and China's 
dominant Han population?

    Answer. If confirmed, I would urge China's leaders to immediately 
release Uighur scholar, Ilham Tohti, remove all restrictions on his 
freedom of movement, and guarantee him the protections and freedoms to 
which he is entitled under China's international human rights 
commitments. I would ensure that our Embassy continues to be in close 
communication with Tohti's family members and supporters. I would also 
work closely with other embassies in China to ensure that China hears a 
consistent message from the international community on his case.
    I am deeply concerned by ongoing reports of discrimination against 
and restrictions on Uighurs and other Muslims and, if confirmed, would 
urge the Chinese Government to cease restrictions on religious 
practice. I would also press Chinese officials to address the 
counterproductive policies in Xinjiang that have fostered grievances 
and have prevented long-term stability.

    Question. Human rights is often considered a separate issue from 
our trading relationship with China. But in many ways, they are 
interconnected. For example, a free press and vibrant civil society are 
essential to holding the Chinese Government accountable on issues such 
as food and product safety, and the right to organize independent 
unions is key to ensuring workers in China are not exploited at the 
expense of American workers.

  <diamond> How will you ensure that human rights concerns are 
        integrated with our trade and economic discussions with China?

    Answer. Promotion and protection of human and labor rights in China 
are in our national interest in all facets of the bilateral 
relationship, including our trade, economic, and development interests 
with China. If confirmed, I would use my position as the U.S. 
Ambassador to urge China's leaders to respect the human rights and 
fundamental freedoms of all citizens, including the freedoms of 
expression, peaceful assembly, and association. I would make the case 
to China that the rule of law, an independent judiciary, and a robust 
civil society will help China address challenges such as food safety 
and food and nutrition security, while enabling it to continue its 
economic growth and maintain stability. I believe that the free flow of 
ideas, on all topics, is essential for fostering creativity and 
building the kind of innovative economy that will help China continue 
to reduce poverty and improve the standard of living.
    I would raise our human rights concerns with Chinese officials at 
the highest levels and make clear that the United States considers 
China upholding its international human rights commitments vital to our 
bilateral relationship. I strongly believe that the promotion and 
protection of human rights in China are in our national interest and 
should be an integral part of high-level conversation with Chinese 
officials.
    If confirmed, I would engage regularly with companies in both 
countries, as well as with labor and civil society organizations, to 
promote responsible business conduct and to focus on sustainable 
development. Companies can further our efforts by encouraging broad 
respect for human and labor rights and leading efforts to improve 
transparency, while reducing their own reputational risk, leveling the 
playing field, and improving the overall business environment.
                                 ______
                                 

           Responses of Arnold Chacon to Questions Submitted 
                       by Senator Robert Menendez

    Question. The Department has increased personnel significantly 
within the last decade. Today, more than 50 percent of the Foreign 
Service joined within the last 10 years. What does this mean for career 
paths, promotion numbers, and workforce development? Please describe 
the Department's workforce planning and efforts to create career paths 
for these new employees.

    Answer. The Department is committed to an orderly, predictable flow 
of talent through the Foreign Service ranks. In our up-or-out system, 
promotion opportunities depend on the number of employees who separate 
(e.g., retire or resign) as well as the overall number of positions at 
each grade. Under the Diplomatic Readiness Initiative and Diplomacy 
3.0, the Department hired a large number of entry-level officers 
(ELOs), helping to narrow a previous deficit in Foreign Service 
employees. As more and more of these employees move into the mid-
levels, we have undertaken efforts to increase mid-level positions, in 
line with our mission requirements, which should alleviate some of the 
projected slowdown in promotion rates and increase in time in class for 
this cohort. Moreover, to meet mid-level staffing and assignment gaps, 
many of those employees progressed in grade at faster than historic 
rates. While we expect to now be able to return to earlier rates, we 
are acutely cognizant that building experience and managing 
expectations for our recently hired employees is a priority. We are 
also concerned that with the current less than attrition hiring, our 
flow-through will once again be disrupted, likely recreating the 
staffing gaps that DRI and Diplomacy 3.0 were meant to close and 
impacting our new staff as well as we strive to defend U.S. interests 
abroad.
    The Department takes an active interest in the development of its 
most important resource, its people. Since 2005, the Department has 
used Career Development Plans (CDPs) for Foreign Service Generalists 
and, more recently, Specialists, as a tool for mapping career 
development and developing skills needed at the senior ranks. The CDP 
builds on four principles to meet the Department's mission: operational 
effectiveness, including breadth of experience over several regions and 
functions; leadership and management effectiveness; sustained 
professional language and technical proficiency; and responsiveness to 
Service needs. Mandatory requirements and a menu of electives help 
guide employees in developing the skills and experience to demonstrate 
their readiness for the senior ranks.
    The CDP also reinforces the importance of excellence in foreign 
languages, fundamental to the work of the Foreign Service. Professional 
foreign language use is also highly valued in considerations for 
promotion, across all grades and skills. Long-term language training 
does generally slow promotion while the student is enrolled, but makes 
promotion more likely later on. Every 3 years, the Department updates 
the criteria for assigning a language designation to a position. The 
next triennial review should be completed by July 2014. The number of 
overseas language-designated positions (LDPs) grows every year; for FY 
2013, it was 2,241.
    The Department is committed to developing the wider skills for 
today's diplomacy. In addition to tradecraft skills, we are also 
focused on the leadership and management skills critical to the 
Department, both internally and in an increasingly interagency overseas 
environment. In recent years, for example, we instituted mandatory 
leadership training as a prerequisite for promotion at each rank and, 
in 2014, we expect to launch a new program of mandatory supervisory 
training for all new supervisors.

    Question. In the 21st-century it is critical that America has a 
professional, innovative, and diverse workforce. I understand that the 
Department has established recruitment programs targeting individuals 
with in-demand language skills, but once hired they may be prevented 
from serving in those countries due to assignment restrictions and 
preclusions. Please describe efforts currently underway to improve the 
Department's assignment restriction and preclusion program--which may 
be disparately impacting certain ethnicities--including the 
introduction of a robust appeals mechanism and increased internal 
reporting and oversight.

    Answer. The Department of State hires all Foreign Service officers 
and Specialists to be worldwide available, and we have worked 
diligently to maintain a diverse workforce. One way to reduce the risk 
of possible exploitation by a foreign intelligence service is to 
restrict an individual from assignment in that specific country. This 
is by no means punitive, but rather it serves to protect both the 
national security and the individual. If confirmed, I will work with 
the Assistant Secretary of Diplomatic Security to bring a common sense 
review of restrictions, and provide an outreach initiative so all 
personnel understand the rationale for these crucial security 
decisions.

    Question. The Hispanic workforce at State will have to grow 
exponentially in order to fairly reflect the Hispanic component of the 
overall U.S. population, yet this goal has proven elusive--even when 
the Department has had the resources to conduct large-scale hiring 
programs.

  <diamond> If confirmed will you make minority recruitment and 
        retention a top priority? What is your plan? How will you make 
        the Department's staff reflective of our rich cultural and 
        ethnic diversity?
  <diamond> If confirmed will you put together a high-level team to 
        develop a specific proposal and plan--in consultation with this 
        committee--to improve minority retention, recruitment and 
        hiring?

    Answer. In order to represent the United States to the world, the 
Department of State must have a workforce that reflects the rich 
composition of its citizenry. We recognize that we can, and must do, 
more to improve minority hiring. If confirmed, you have my personal 
commitment to redouble the Department's efforts to ensure that we 
represent the full cross-section of America. I look forward to working 
with you, as well as other members of the committee and community 
leaders, to do so.
    At the same time, I would like to point out the efforts already 
underway in this area, and what has thus far been accomplished. The 
culture of the Department has changed dramatically in the past few 
decades; when Congress passed the Foreign Service Act of 1980, more 
than 80 percent of FS generalists and specialists were male, and close 
to 75 percent were white males. Now females constitute 35 percent and 
minorities over 22 percent. To echo the testimony of Deputy Secretary 
for Management and Resources Heather Higginbottom, diversity is now a 
central Department commitment, and the Secretary has told me personally 
that he considers it a high priority. In the past 11 years, FS 
generalist minority hiring increased from 12.3 percent in 2002 to 28.7 
percent in 2013. Furthermore, minority hires for FS generalists are up 
from last year: Hispanic, from 8.5 percent to 11 percent; Asian-
American, from 8 percent to 11 percent; and African-American from 6 
percent to over 10 percent. This represents important if insufficient 
progress as we continue to strive to ensure the face of the FS and 
Civil Service (CS) includes people of all cultures, races, and 
religions, drawn from across the United States.
    The Bureau of Human Resources (HR) promotes diversity through a 
wide-range of plans, programs, and initiatives through its Diversity 
and Inclusion Strategic Plan (DISP). Beginning its third year of 
implementation, the DISP identifies practices to recruit, hire, train, 
develop, promote, and retain a diverse and inclusive workforce. 
Significant recruitment, outreach, and improvement activities include:

  <bullet> Assigned 16 senior and mid-level Foreign Service officers as 
        Diplomats in Residences (DIRs) to college campuses around the 
        United States to recruit for student programs and careers. Of 
        which:

      <all>  Four went to Hispanic-Serving Institutions (HSIs, 
            University of New Mexico, Florida International University, 
            University of Houston and City College of New York);
      <all>  Three assigned to Historically Black Colleges and 
            Universities (HBCUs, Howard, Spellman/Morehouse and Florida 
            A&M).

  <bullet> Dedicated a second Washington-based recruiter to Hispanic 
        outreach and another (also a second) recruiter to African-
        American recruitment;
  <bullet> Hosted or attended nearly 700 events, coast to coast, and 
        beyond, including Puerto Rico and Hawaii;
  <bullet> Targeted minority communities through Diversity Career 
        Networking Events aimed at reaching professional communities in 
        regions where the Department is less well-known;
  <bullet> Signed an MOU with the Department of Veterans Affairs (VA) 
        to access the Veterans' Resume Database, searchable pool of 
        veteran candidates for civil service direct hire using special 
        hiring authorities;

      <all>  Resulted in seven requests for veteran referrals where 
            four veterans received offer letters.

  <bullet> Increased hiring of persons with disabilities through the 
        Disability and Reasonable Accommodations Division, which aids 
        in the recruitment, assignment, and support of applicants and 
        employees with disabilities;

      <all>  Provides over 4,500 reasonable accommodations annually, 
            with the majority for sign language interpretation services 
            for one overseas and 20 domestic employees;
      <all>  Operates a Computer Accommodations and Technology Center, 
            where employees requiring reasonable accommodation may be 
            assessed for technological solutions.

  <bullet> Launched DOSCareers iPhone mobile app to reach 
        underrepresented groups and educate them about careers in the 
        Foreign Service (FS) and practice taking the FS exam;
  <bullet> Enhanced the ``I am Diplomacy, I am America'' diversity 
        recruitment campaign so that future prospects may envision 
        themselves as potential representatives of the Department;
  <bullet> Evaluated the overall program effectiveness for two of the 
        largest premier diversity scholarship programs, the Thomas R. 
        Pickering and Charles B. Rangel Fellowship student programs, 
        where approximately 60 graduate and undergraduate fellows are 
        selected to participate in each year. There have been 612 
        Pickering Fellows and 163 Rangel Fellows since the programs 
        began. Of this number, 387 Pickering Fellows and 114 Rangel 
        Fellows--totaling 501 Fellows--are currently in the Foreign 
        Service. A number of them have risen to significant positions, 
        such as Deputy Chiefs of Mission, while others have received 
        prestigious awards and/or public recognition for their 
        outstanding service.

As a result of these efforts, we have realized steady gains in 
diversity, although we agree that we still must do more to reach our 
goals.
    We are also working to improve diversity among the Senior Executive 
Staff (SES) of the Civil Service through a number of measures planned 
for 2014, including:

  <bullet> On-board a new Diversity Program Manager to promote the 
        development and implementation of diversity and inclusion in 
        the SES and senior leadership equivalent talent pools across 
        the Department;
  <bullet> Analyze a GS-14/15 SES Interest survey that we conducted to 
        help develop diverse SES talent for future leaders;
  <bullet> Revise SES Merit Staffing processes to ensure diversity 
        among SES Qualification Review Panel members and mandatory 
        interviews for all SES candidates referred;
  <bullet> Invite key diversity offices and affinity workgroups to 
        share ideas about improvements to our existing DISP metrics, 
        measures, and strategies;
  <bullet> Focus efforts on activities to strengthen workplace 
        inclusion and sustainability goals and simultaneously update 
        the existing plan metrics, measures, and strategies.

    It is worth noting that factors beyond agency control, including 
potential decrease in Federal spending due to sequestration, limited/
delayed hiring, reduced travel/awards/pay freezes, are all 
circumstances that could potentially hinder or weaken our ability to 
meet our diversity goals.
    If confirmed, I look forward to working with you to achieve our 
mutual goal of enhanced diversity in the Department's ranks. We would 
like to invite you to accompany me or one of our recruiters at an event 
in your state.
                                 ______
                                 

            Responses of Max Baucus to Questions Submitted 
                         by Senator Bob Corker

    Question. Our relationship with China is one of the most complex 
and increasingly significant bilateral relationships globally. How do 
you propose to navigate the complexities of the bilateral relationship, 
including balancing our mutual desire to expand economic opportunities 
for our respective commercial interests, while simultaneously making 
clear our expectations that Beijing adhere to international norms, 
including in the maritime domain?

    Answer. The U.S.-China relationship contains elements of both 
cooperation and competition. The United States should continue to make 
clear and promote our values, interests and principles, work with China 
to manage our differences, and seek to build a cooperative partnership 
across the range of bilateral, regional, and global issues that 
confront us today. If confirmed, I would speak clearly to Beijing 
regarding not only issues of shared interest, but also our differences, 
and faithfully represent the values we hold dear as Americans--respect 
for the rule of law, the promotion of universal values and human 
rights, guaranteeing a level playing field for healthy economic 
competition, ensuring the free flow of information, and respect for 
international law, including freedom of navigation.

    Question. Beijing has been critical of the administration's 
rebalancing or ``pivot'' to Asia, accusing the United States of 
pursuing a policy to contain China.

  <diamond> (a) How do you intend to explain the administration's Asia-
        Pacific ``pivot'' to the Chinese public?

    Answer. If confirmed, I would make clear that the rebalance is a 
multifaceted approach that recognizes the importance of the entire 
Asia-Pacific region to America's long-term prosperity and security. A 
key element of the rebalance is our pursuit of a positive, 
comprehensive, and cooperative relationship with China; the rebalance 
is not a strategy to contain China.
    If confirmed, I would use the public diplomacy tools at my 
disposal, including use of social media and public events, to 
communicate to the Chinese public that the United States welcomes the 
rise of a stable and prosperous China that assumes the responsibilities 
of a great power, respects the rights of its people, and plays a key 
role in world affairs. By pursuing a robust program of bilateral 
dialogue and exchange, I would, if confirmed, work to advance 
cooperation in areas of common interest to demonstrate that the United 
States has a stake in China's success, just as China has a stake in 
ours.

  <diamond> (b) What areas do you see as having the most potential for 
        improvement in our relationship with China, and how do you 
        personally plan to approach them? What are your top priorities 
        for your time in China?

    Answer. Engaging in frank discussions while seeking to collaborate 
and narrow our differences with China is essential to having a healthy 
bilateral relationship. If confirmed, I would work to continue 
expanding cooperation where U.S.-China consensus and shared interests 
exist--such as on environmental issues--and to narrow our differences 
to promote common goals and interests, such as agreeing to a rules-
based framework for our economic relationship that establishes a level 
playing field for healthy competition and innovation.
    If confirmed, I would continue to work with China on important 
regional and global security issues, such as the denuclearization of 
the Korean Peninsula, the importance of a nuclear weapons-free Iran, 
and a stable and prosperous Afghanistan. Equally important, I would 
seek to advance important U.S. interests on more contentious concerns, 
such as human rights and maritime issues.

  <diamond> (c) What, if any, opportunities exist for the United States 
        and China to work together to address North Korea's 
        destabilizing behavior? As Ambassador, how will you persuade 
        China to assert greater economic and political pressure on the 
        North Korean regime to abandon its nuclear weapons programs?

    Answer. The United States and China share a common goal of 
achieving a denuclearized Korean Peninsula, which is essential to both 
regional stability and international security. China is a vital partner 
with a unique role to play due to its long-standing economic, 
diplomatic, and historical ties with North Korea. The administration 
continues to work with all U.N. member states, including China, to 
ensure the full and transparent implementation of UNSC sanctions.
    As Ambassador, if confirmed, I would urge China to use its 
influence to convince North Korea that it has no choice but to 
denuclearize. The United States and China need to continue to work 
together to hold the DPRK to its commitments and its international 
obligations, including those to abandon its nuclear weapons and 
existing nuclear programs in a complete, verifiable, and irreversible 
manner. One important way to do this continues to be robust PRC 
implementation of U.N. Security Council sanctions and other measures.
    If confirmed, I would continue to encourage Beijing to ensure the 
full and transparent implementation of U.N. Security Council sanctions 
targeting North Korea's nuclear-related, ballistic missile-related, or 
other weapons of mass destruction-related programs.

    Question. Since the political transition last year, Beijing has 
engaged in a widespread crackdown on dissent and introduced a series of 
new controls on the media, undermining China's international human 
rights commitments. Several peaceful dissidents have been arrested and 
imprisoned, including a 4-year prison sentence handed down this past 
Sunday for Xu Zhiyong for organizing a series of protests against 
corruption last year in Beijing.

  <diamond> As Ambassador, how will you promote U.S. core human rights 
        values and interests in our bilateral relationship with China? 
        Do we need to reevaluate our approach to the U.S.-China human 
        rights dialogue?

    Answer. If confirmed, I would use my position as the U.S. 
Ambassador to urge China's leaders to respect the human rights and 
fundamental freedoms of all Chinese citizens and raise specific cases 
of concern, including that of legal scholar Xu Zhiyong and other 
individuals associated with the New Citizens Movement that have been 
detained, harassed and prosecuted by Chinese authorities. I strongly 
believe that the promotion and protection of human rights in China are 
in our national interest and, as such, should be an integral part of 
every high-level conversation we have with Chinese officials. I would 
continue the Embassy's strong record of meeting regularly with a wide 
range of human rights activists and their family members to gain a 
better understanding of their concerns and to express our support for 
respect for human rights in China.
    I would also continue to work closely with other embassies in China 
in order to ensure that China hears a consistent message from the 
international community on human rights.
    The promotion and protection of human rights are critical 
components of U.S. foreign policy, and the U.S.-China Human Rights 
Dialogue (HRD) is an important part of the United States overall human 
rights effort regarding China. The HRD presents an opportunity to 
engage Chinese officials in an extended, in-depth discussion of key 
human rights concerns and individual cases. It is not, however, a 
substitute for consistent high-level engagement from across the U.S. 
Government. I strongly believe that the promotion and protection of 
human rights in China are in our national interest and, as such, should 
be an integral part of every high-level conversation we have with 
Chinese officials. The rule of law, an independent judiciary, a robust 
civil society, the free flow of information and respect for universal 
human rights and fundamental freedoms are key to China's ability to 
deal with domestic and global challenges and improve its standing as a 
reliable international partner.

    Question. Foreign journalists working in China have come under 
increased scrutiny and pressure. China has withheld visas and 
threatened local staff working with foreign journalists to deter 
publication of stories critical of Chinese policies or officials. In 
addition, China has blocked the Web sites of several U.S.-owned 
publications.

  <diamond> How should the United States address China's media 
        censorship and discriminatory practices?

    Answer. I am deeply concerned that foreign journalists in China 
continue to face restrictions that impede their ability to do their 
jobs, including extended delays in processing journalist visas, 
restrictions on travel to certain locations deemed ``sensitive'' by 
Chinese authorities and, in some cases, violence at the hands of local 
authorities. These restrictions and treatment are not consistent with 
freedom of the press--and stand in stark contrast with U.S. treatment 
of Chinese and other foreign journalists.
    I was disappointed that New York Times reporter, Austin Ramzy, was 
required to leave China because of processing delays for his press 
credentials. Mr. Ramzy and several other U.S. journalists have waited 
months, and in some cases years, for a decision on their press 
credentials and visa applications.
    If confirmed, I would urge China to commit to timely visa and 
credentialing decisions for foreign journalists, unblock international 
media Web sites, and eliminate other restrictions that impede the 
ability of journalists to practice their profession. I firmly believe 
that our two countries should be expanding media exchanges to enhance 
mutual understanding and trust, not restricting the ability of 
journalists to do their work.

    Question. As you know, the United States and China are currently 
negotiating a bilateral investment treaty (BIT). A BIT with China would 
greatly benefit a broad segment of U.S. exporters currently subject to 
a number of ownership restrictions in China. With an ambitious treaty, 
we could eliminate many of these restrictions and help U.S. companies 
to compete fairly with Chinese companies. Both U.S. and Chinese 
Government officials have publicly expressed strong support for a BIT.
    The BIT negotiations could represent an important opportunity, as 
many observers believe President Xi views the BIT as a mechanism to 
push through important domestic economic reforms that were rolled out 
at last year's Third Plenum. This could be one of the more significant 
developments in the bilateral economic relationship since China's 
accession to the WTO in 2002.

  <diamond> Will you make completing a BIT with China a high priority 
        during your tenure as Ambassador to China?
  <diamond> As U.S. Ambassador to China, would you commit to pursuing a 
        high-standard Bilateral Investment Treaty with China, ensure 
        that there are no restrictions in businesses data flows, and 
        bring down the competitive barriers for our companies so they 
        can compete fairly with state-owned enterprises?

    Answer. A high-standard U.S.-China Bilateral Investment Treaty 
(BIT) would play a significant role in addressing key concerns of U.S. 
and other foreign investors, including the need to level the playing 
field and ensure that U.S. companies do not suffer from unfair 
disadvantages. The United States is taking an ambitious approach in the 
BIT negotiations with China, and one of our top priorities is to seek 
disciplines to help level the playing field between American companies 
and their Chinese competitors, including state-owned enterprises and 
national champions. The United States is also seeking to address other 
top-priority concerns in the China market, including protecting trade 
secrets from forced transfer and enhancing transparency and the rule of 
law. Negotiations are at an early stage, and I know the U.S. Government 
will continue to address these important issues as negotiations 
proceed. If confirmed, I am committed to making the advancement of 
these negotiations a high priority.

    Question. The Chinese Government in 2013 committed to resume 
bilateral investment treaty negotiations with the United States using 
the U.S. approach to BITs--one based on preestablishment, using a 
negative list. This is a significant change in approach, which China 
has not used before in this type of negotiation.
    As you know, the BIT will ultimately be considered by the Senate 
under our advise and consent process. We will be looking for a strong 
agreement with significant market openings for American companies. As 
part of our process, though, we will also evaluate China's actions to 
implement such openings in the immediate term rather than waiting for 
the BIT to be implemented. A delay in taking good faith steps to 
implement changes could be interpreted by some as a lack of commitment 
by China to making the changes that the BIT will require.

  <diamond> What are your plans to advance the BIT negotiations and 
        push China's Government to act on market openings now rather 
        than only after implementation of the BIT has begun?
  <diamond> And will you work to ensure that this committee, which must 
        approve all treaties negotiated by the United States, is fully 
        consulted and apprised on your progress on this important 
        issue?

    Answer. If confirmed, I would seek to make further progress on a 
BIT while emphasizing the need for China to make simultaneous headway 
on market access and other priority issues in the near term. The 
administration looks forward to consulting with this committee and 
other key congressional committees as negotiations continue.

    Question. China has stated its intention of becoming an innovative 
economy by 2020. This policy is being aggressively pursued by high-
level political commitments, substantial financial support and 
strategic policies. China's Government is using a variety of policy 
tools to implement these policies to reduce a perceived dependence on 
foreign intellectual property and to protect and promote national 
champions. I am concerned these policies will have a negative effect on 
U.S. companies and U.S. competitiveness.

  <diamond> If confirmed, what are your plans to combat these market 
        access barriers that are adversely affecting U.S. companies?

    Answer. If confirmed, I would continue our high-level engagement to 
press the case that discriminatory and retaliatory practices and 
regulations are unacceptable and harm not only U.S. companies but also 
China's own competitiveness and development goals. The U.S. economy is 
one of the most open in the world, and I would encourage China to 
recognize our openness as one of our key strengths. U.S. companies 
introduce international best practices and high-quality goods and 
services into the global market, and it is in China's interest to allow 
our firms to participate on a level playing field, with appropriate 
protections for intellectual property, in China's growing domestic 
market. Chinese companies are also beginning to devote significant 
resources to develop new products and technologies, and many of these 
companies have their own growing concerns about others in China 
illegally copying their ideas and technology. It is important that a 
technologically advancing China realize that robust IP protection and 
enforcement are critical for innovation.
    In addition to pushing China both bilaterally and multilaterally to 
increase its regulatory transparency and to adhere to international 
economic rules-based norms and standards, if confirmed, I also intend 
to engage the U.S. business community in China and advocate on behalf 
of U.S. firms, workers, farmers, and ranchers so that unacceptable 
trade, investment, and market access barriers do not stand in the way 
of their participation in the Chinese market.

    Question. The Chinese Government's newly announced indigenous 
innovation policies are particularly concerning. They appear designed 
to provide a clear advantage to Chinese domestic champions and create 
an unbalanced playing field for foreign companies in China.

  <diamond> If confirmed, will addressing China's indigenous innovation 
        and strategic emerging industries policies be a priority for 
        you? How will you plan to tackle these competitiveness 
        challenges facing U.S. companies?

    Answer. If confirmed, one of my highest priorities will be to 
ensure U.S. companies can compete on a level playing field in China by 
addressing China's indigenous innovation and strategic emerging 
industries policies as well as other market barriers for U.S. 
companies.
    If confirmed, I will advocate forcefully on behalf of U.S. 
companies by leveraging our high-level engagements with China on how to 
align its policies on innovation, including standards and technology 
transfer, with global best practices. The U.S.-China Innovation 
Dialogue, which the administration established in 2010 immediately 
after China launched discriminatory ``indigenous innovation'' policies, 
has been an important mechanism for raising innovation concerns with 
the Chinese.
    If confirmed, I will continue U.S. Government engagement through 
the Innovation Dialogue, through other bilateral and multilateral 
channels, including bilateral investment treaty negotiations, and 
through the efforts of our mission in China, which has worked closely 
as an interagency team to press China to make tangible progress 
eliminating the discriminatory aspects of its indigenous innovation 
policies.
                                 ______
                                 

           Responses of Arnold Chacon to Questions Submitted 
                         by Senator Bob Corker

    Question. Please explain what concrete steps you intend to take, as 
Director General of the Foreign Service, to ensure that language 
training is expanded to a greater pool of Foreign Service officers and 
other embassy personnel, and to change or recalibrate the Foreign 
Service Institute's overall approaches to language training?

    Answer. Foreign language proficiency is a hallmark of the 
professional Foreign Service employee. It enhances an employee's 
ability to improve the U.S. national image abroad, advocate foreign 
policy objectives, and engage foreign audiences in discourse on a broad 
range of subjects. For this reason, foreign language proficiency is 
integrated into the Foreign Service Career Development Program as a 
requirement for tenure and entry into the Senior Foreign Service. A 
multibureau Language Policy Working Group is dedicated to ensuring that 
the Department's employees have the language skills to meet our policy 
needs.
    In accordance with the Department's strategic plan for foreign 
language capabilities, the Department conducts a review of all language 
designated positions every 3 years to align language proficiency 
designations with foreign policy goals. The Language Policy Working 
Group is overseeing the triennial review that began in November 2013 
and will be completed by midsummer 2014. The group recently revamped 
Language Incentive Programs to encourage officers to use and improve 
their skills in critically needed languages and is overhauling the 
Department's language training strategy and updating training delivery 
methods. We are regularly increasing the number of Language Designated 
Positions (LDPs) at our posts; as of January 2014, there were 4,498 
LDPs total worldwide. Among officers assigned to LDP positions in FY 
2013, 80 percent fully met, and 13 percent partially met, the 
designated language proficiency requirement.
    The Department created Career Development Plans (CDPs) for Foreign 
Service members to map their long-term professional growth and acquire 
the skills the Department needs at the senior ranks. The CDPs reinforce 
the importance of foreign language proficiency for all Foreign Service 
members and require that generalists seeking promotion into the Senior 
Foreign Service have current foreign language skills.
    The Foreign Service Institute's model for foreign language 
instruction emphasizes communicative skills, with professional 
tradecraft training that prepares Foreign Service personnel to perform 
on the job. FSI also invests significantly in language learning 
technology, in professional development of instructional staff, and 
providing resources for continuous learning after formal training. If 
confirmed, I will make it my priority to work closely with FSI to 
ensure that all FSOs receive the language training that they need to do 
the best job possible.

    Question. Will you seek to change the Foreign Service application 
criteria to permit applicants with preexisting language skills to 
receive an admissions edge?

    Answer. The Department has for years used the tool of additional 
points for a candidate's score on the Register of eligible candidates 
for demonstrated language skills. Candidates who have a verified level 
of fluency in any one of the 69 languages used in the Foreign Service 
receive extra consideration in the hiring process. Those who have 
competency in the eight priority languages, (Arabic, Mandarin Chinese, 
Hindi, Dari, Farsi, Pashto, Urdu, and Korean) receive additional 
consideration. Responding to the Accountability Review Board's 
suggestions after the Benghazi attack, the Department instituted lump-
sum hiring bonuses of 10-20 percent of base salary for Foreign Service 
specialists with proficiency in Arabic.
    Recruitment of candidates with language skills is an integral part 
of our outreach. We use paid and unpaid advertising on educational, 
recruitment, and social media sites to target U.S. citizen speakers of 
priority languages. Our 10 DC-based recruiters and 16 Diplomats-in-
Residence at universities around the country reach out to potential 
candidates with proficiency in priority languages. Under the 
Department's Recruitment Language Program (RLP), applicants who receive 
additional consideration for speaking one of the eight priority 
languages agree to a one- or two-tour commitment, depending on the 
level of fluency and consideration received in the hiring process, to 
serve in a position requiring those skills. These priority languages 
are reviewed periodically depending on strategic policy goals.

    Question. Please explain specific steps you intend to take, as 
Director General of the Foreign Service, to reduce the attrition rate 
of the Foreign Service.

    Answer. The Department has one of the lowest attrition rates in 
government and Foreign Service attrition has remained fairly stable 
over the years with no significant spikes. While attrition numbers may 
have gone up due to hiring increases over the past 10 years, the 
relative percentage has actually declined in recent years (generalist 
rates remain under 4 percent), which keeps FS attrition stable. We have 
seen no difference between the ``Diplomacy 3.0'' and Diplomatic 
Readiness Initiative cohorts' attrition rate and our historical 
averages.
    We are nevertheless cognizant of the need to maintain a reasonable 
and stable attrition rate, while at the same time ensuring we do not 
lose good talent prematurely. With that in mind, if confirmed I will 
work to ensure that the Human Resource Bureau continues to:

  <bullet> Evaluate employee viewpoint surveys, and other surveys, to 
        gauge and address employee concerns. (Note: In the 2013 Federal 
        Employee Viewpoint Survey, the Department of State ranked 
        fourth overall among the 19 large federal agencies, and is only 
        federal agency to remain in the top 10 since 2005.)
  <bullet> Administer the FS promotion and compensation systems 
        transparently and fairly.
  <bullet> Improve communication with employees to enhance 
        understanding of mission needs, necessary policy changes, and 
        new requirements as well as manage expectations.
  <bullet> Improve HR services to employees through automation of HR 
        systems and a fully implemented tiered services delivery 
        system.
                                 ______
                                 

       Responses of Daniel Bennett Smith to Questions Submitted 
                         by Senator Bob Corker

    Question. The recently released, bipartisan SSCI Benghazi report 
found it ``unsettling'' that INR failed to disseminate any independent 
analysis regarding the Benghazi attacks a full year after the incident. 
INR officials, during interviews, stated that unless INR has something 
unique to add, they merely repeat what the rest of the intelligence 
community has to say about it. However, INR should always have 
something unique to add, especially when it involves the Department, as 
the Bureau has access to Department information and perspectives that 
the rest of the IC does not have.

  <diamond> Do you agree with the SSCI finding that the lack of 
        independent analysis from INR is unsettling?
  <diamond> What will you do to ensure INR is not irrelevant in times 
        of crisis such as the aftermath of the Benghazi attacks?

    Answer. If confirmed, I will work to ensure not only that we are 
providing real time access to the intelligence information and analysis 
that our colleagues in Diplomatic Security and elsewhere need to do 
their jobs, but that we are also providing the broader perspective on 
overall trends and developments that only INR can provide.
    In the aftermath of the tragic events in Benghazi that resulted in 
the deaths of four of our colleagues, there were a number of efforts 
made to look back at what happened and draw lessons learned. The 
primary focus in this regard was the work of the independent Benghazi 
Accountability Review Board, in addition to the law enforcement-focused 
analysis and investigation of the attacks led by the FBI. While it 
would not have been appropriate for INR to duplicate these efforts or 
conduct a separate investigation looking back at the attack itself, I 
understand that INR played a critical role through its coordination of 
and contribution to a number of intelligence community products in the 
aftermath of the Benghazi attacks that sought to shed light on 
developments on the ground and the ongoing political and security 
environment. INR actively coordinated with Diplomatic Security, State 
Department Principals, and the IC not only to ensure that State 
Department perspectives were accurately portrayed in vital intelligence 
products, but also that the flow of intelligence to State Department 
policymakers, security professionals, and others remained smooth and 
effective.
    I agree that INR provides a unique perspective and that we need to 
ensure our voice is heard. In particular, INR's analysis of the broader 
political and economic context in which our missions operate can help 
inform the more operational focus of our colleagues in the Bureaus of 
Diplomatic Security and Counterterrorism, and elsewhere in the State 
Department, on immediate and near-term threats to our missions and 
personnel. We ensure this perspective is reflected through our 
coordination of intelligence community products, the publication of 
independent INR written products, and frequent oral briefings and 
consultations with Department policymakers and interagency partners.

  <diamond> Are you committed to ensure the SSCI recommendations are 
        carried out--to (1) have an independent audit of how quickly 
        and effectively INR shares intelligence within the Department 
        and (2) have DNI and State carry out a joint review of INR in 
        order to make the Bureau more timely and responsive to world 
        events?

    Answer. If confirmed, I intend to engage early with DNI Clapper and 
INR's State Department customers--including those responsible for 
security--to review how we are sharing intelligence and intelligence 
products, the timeliness and responsiveness of INR products to world 
events, and what improvements we might make. I understand that INR 
already conducts yearly customer surveys based on rigorous polling 
methodology to determine the timeliness, quality, and relevance of its 
analytical products and intelligence support, including the flow of 
intelligence originating elsewhere in the intelligence community. I 
intend to build on these efforts. In 2013, the survey was executed by 
an independent outside firm, ensuring even further rigor. Those 
surveys, which are shared with ODNI, indicate a high degree of 
confidence in INR products and intelligence support services, and 
appreciation for their outstanding quality, timeliness, and insight 
into world events. Other reviews have also indicated that INR is 
quickly and effectively sharing intelligence with its customers 
throughout the Department.

  <diamond> The Benghazi attack was seen by many as a failure to 
        properly appreciate and act on intelligence. As the chief 
        intelligence office for the Department of State, how would you 
        learn from these intelligence failures and prevent them in the 
        future?

    Answer. The independent Benghazi Accountability Review Board and 
the SSCI Benghazi Report confirmed that there was never a specific 
warning that the attack was coming, only a general understanding that 
the security situation was difficult. The challenge for all of us is to 
determine whether, even in the absence of a specific ``tactical 
warning,'' there are indicators that should trigger additional security 
measures or other actions to reduce our vulnerability. That is 
something the State Department must do, and does, every day, but we 
must always strive to improve. We owe that to the diplomats and 
development experts who are advancing America's interests abroad 
everyday--often in dangerous places.
    INR's role in this regard is to ensure not only that policymakers 
and colleagues in Diplomatic Security have real time access to all the 
relevant intelligence, but also to provide our analysis of the broader 
context in which our missions are operating. As I noted, if confirmed, 
I will review with ODNI the timeliness and responsiveness of INR 
products to ensure we are doing just that.

  <diamond> In your opinion, how can the intelligence community more 
        effectively manage the massive amount of intelligence data 
        being reported to ensure that crucial intelligence is 
        emphasized and appreciated?

    Answer. This is a central role that INR plays for the Department of 
State's leadership and policymakers. Our job is not only to provide 
timely access to intelligence data, but also to highlight for busy 
policymakers key pieces of intelligence and analysis. A key part of 
this is ensuring that INR's analysts and staff have access to training 
and professional development opportunities to further develop their 
skills, as well as ensuring that analysts are provided with robust 
analytic IT tools. If confirmed, I will work hard to ensure that INR 
continues to effectively ``push'' crucial intelligence to policymakers, 
including in Diplomatic Security, in a timely fashion and that analysts 
have access to training and IT tools they need.
                                 ______
                                 

            Responses of Max Baucus to Questions Submitted 
                        by Senator Barbara Boxer

    Question. U.S. Embassy Air Pollution Monitoring: The U.S. Embassy 
in Beijing provides daily air quality monitoring to measure 
particulates (PM 2.5) as an indication of the air quality in the city.

  <diamond> As Ambassador to China, will you continue to ensure this 
        data is available through social media and other means? What 
        can be done to expand this monitoring to other U.S. State 
        Department consulates and diplomatic missions throughout China?

    Answer. U.S. Embassy Beijing and the U.S. consulates in China 
provide air quality data and additional information on their public Web 
sites and through their Twitter feeds as part of the administration's 
commitment to protect U.S. citizens. This information allows the 
mission community and American citizens living in China to make 
informed decisions to decrease exposure to air pollution. During 
hazardous air situations--such as the January 2013 air episode--the 
U.S. Embassy issues messages to U.S. citizens to address the high 
levels of pollution indicated by air quality indexes and to provide 
U.S. citizens information resources on air quality and protective 
measures. If confirmed, I will ensure that air quality data and 
messages continue to be released and updated in a timely fashion.

    Question. Promotion of U.S. Environmental Technologies: In a 
January 27, 2014, study published in the ``Proceedings of the National 
Academies of Science,'' researchers from China and the United States 
quantified the effects of air pollution from Chinese industrial sources 
used to manufactured goods exported to the United States. The study 
found that the air pollution attributable to export-related Chinese 
activities amounted to up to 10 percent of annual average surface 
sulfate concentrations (a pollutant that leads to the formation of 
dangerous fine particulate matter and acid rain) and 1.5 percent of 
ozone over the Western United States in 2006.

  <diamond> As U.S. Ambassador to China, will you make opening Chinese 
        markets to American air pollution control equipment and other 
        environmental technologies a priority?

    Answer. The United States has long recognized that air pollution 
can be transported over long distances and that China, as a major 
industrial player, has high emissions of air pollutants. Those 
emissions affect air quality in the United States and other countries 
downwind of China. What was new in the article was that the authors 
quantified how much air pollution from Chinese manufacturing is 
transported to the United States. The information contained in the 
January 27 article reinforces how important it is for the United States 
to work with China to mitigate emissions of air pollutants, whether 
that is through cleaner production processes, pollution prevention, 
end-of-pipe technologies, or other mitigation measures. Air pollution 
is clearly a concern for China's Government and its citizens, and if 
confirmed, I will work with the Chinese to improve air quality in both 
our countries.
    China's air pollution problems will invariably trigger commercial 
opportunities. U.S. air quality monitoring equipment is well received 
and is often considered high-quality in terms of data accuracy, 
timeliness, and product lifecycle. In order to seize these emerging 
opportunities, U.S. companies should develop suitable market-entry and 
pricing strategies. If confirmed, I will work with the U.S. Commercial 
Service at Embassy Beijing and the Consulates General in Shenyang, 
Shanghai, Guangzhou, Wuhan, and Chengdu to help U.S. exporters 
interested in exploring the Chinese market.

    Question. As you know, the continued detention of political 
prisoners is one of the most pressing human rights challenges in China. 
Tragically, the situation remains unchanged for many Chinese prisoners 
of conscience--including Nobel Peace Prize Laureate Liu Xiaobo and his 
wife Liu Xia, and prominent rights lawyer Gao Zhisheng.

  <diamond> If confirmed, how will you work to change the status quo 
        for Chinese prisoners of conscience and other victims of human 
        rights abuses in China?

    Answer. If confirmed, I would use my position as Ambassador to urge 
China's leaders to respect the human rights and fundamental freedoms of 
all Chinese citizens and raise specific cases of concern, including 
those of Nobel laureate Liu Xiaobo, his wife Liu Xia, rights lawyer Gao 
Zhisheng, and the many others who have been detained and imprisoned for 
peacefully exercising their universal human rights. I strongly believe 
that the promotion and protection of human rights in China are in our 
national interest and, as such, should be an integral part of every 
high-level conversation we have with Chinese officials. I would 
continue the Embassy's strong record of meeting regularly with a wide 
range of human rights activists and their family members to gain a 
better understanding of their concerns and to express our support for 
human rights in China. I would also coordinate with like-minded 
countries to raise individual cases to ensure that China hears a 
consistent message from the international community about human rights 
in China.

    Question. I am deeply concerned about the continued detention of 
Chinese lawyer and human rights activist, Gao Zhisheng. As you know, he 
has been arrested and detained numerous times. According to his wife 
and human rights advocates, he has also been brutally tortured.

  <diamond> If confirmed, how will you encourage the Chinese Government 
        to immediately and unconditionally release Gao Zhisheng? If 
        confirmed, what steps will you take to ensure that Gao Zhisheng 
        is allowed to reunite with his family in the United States if 
        he is released?

    Answer. I strongly believe that China has an obligation to abide by 
the 2011 decision by the U.N. Working Group on Arbitrary Detention that 
judged rights lawyer Gao Zhisheng's imprisonment to be in contravention 
of the Universal Declaration of Human Rights and called for his 
immediate release. If confirmed, I would urge China's leaders to 
immediately release Gao Zhisheng, remove all restrictions on his 
freedom of movement, and guarantee him the protections and freedoms to 
which he is entitled under China's international human rights 
commitments. I would ensure that our Embassy continues to be in close 
communication with Gao's family members and supporters. I would also 
continue to work closely with other embassies in China in order to 
ensure that China hears a consistent message from the international 
community on Gao's case.
                                 ______
                                 



            Responses of Max Baucus to Questions Submitted 
                         by Senator Marco Rubio

    Question. On December 5, 2013, the USS Cowpens had been lawfully 
operating in international waters in the South China Sea, when a PLA 
Navy vessel crossed its bow at a distance of less than 500 yards and 
stopped in the water, forcing the USS Cowpens to take evasive action to 
avoid a collision. This is only the latest in about a dozen U.S.-China 
incidents at sea in the last decade.

  <diamond> (a) Do you agree that the actions of the PLA Navy ship in 
        the USS Cowpens incident, as publicly reported, violate China's 
        obligations under the October 1972 multilateral convention on 
        the international regulations for preventing collisions at sea 
        (also known as the COLREGs or the ``rules of the road''), to 
        which both China and the United States are parties?
  <diamond> (b) Can you describe Chinese attitude toward the framework 
        of bilateral (U.S.-Chinese) dialogue enshrined in the 1998 
        Military Maritime Consultative Agreement (MMCA)?
  <diamond> (c) Do you agree that Chinese respect to the 1972 ``rules 
        of the road'' and behavior in the MMCA framework should have 
        implications on the administration's expectations about the 
        value of a binding Code of Conduct between the Association of 
        Southeast Asian Nations (ASEAN) and China for the South China 
        Sea?

    Answer. If confirmed, I will support the continued development of 
military-to-military relations as a key component of the U.S.-China 
bilateral relationship. Deeper cooperation is necessary to further 
reduce mistrust and the risk of miscalculation between the two 
militaries. The U.S.-China Military Maritime Consultative Agreement 
(MMCA) is an important forum for the discussion of maritime safety 
issues in general.
    While the December 5 USS COWPENS incident underscored concerns 
about China's efforts to restrict freedom of navigation at sea, it also 
highlighted important recent progress we have seen in bridge-to-bridge 
communication between the United States and PLA Navies. In a complex 
tactical environment, bridge-to-bridge communication was instrumental 
in defusing the situation and preventing a collision.
    In order to minimize the potential for an unintentional accident or 
incident at sea, it is important that the United States and China share 
a common understanding of the same rules for operational air or 
maritime interactions. From the U.S. perspective, an existing body of 
international rules, norms, and guidelines--including the 1972 
COLREGs--are sufficient to ensure the safety of navigation between U.S. 
forces and the forces of other countries, including China. If 
confirmed, I will continue to make clear to Beijing that these existing 
rules, including the COLREGS, form the basis for our common 
understanding of air and maritime behavior, and encourage China to 
incorporate these rules into ongoing conflict management tools. We have 
pressed China and ASEAN to agree to a rapid, meaningful Code of Conduct 
in the South China Sea to manage incidents when they arise, and I will 
continue to do so if confirmed. I will also support the further 
development of the MMCA and press China to agree to other tools that 
manage interactions at sea or in the air.

    Question. Since the first meeting of the U.S.-China Cyber Working 
Group in July 2013, has cyber theft originating from China decreased or 
continued? Has the working group affected the People's Liberation Army, 
and how has the PLA participated in the working group?

    Answer. Cyber security is one of the administration's top 
priorities. Administration officials have repeatedly raised concerns 
about Chinese state-sponsored cyber enabled theft of trade secrets and 
confidential business information at the highest levels with senior 
Chinese officials, including in the military, and will continue to do 
so. The State Department, including the Bureau of East Asian and 
Pacific Affairs (EAP) and the Office of the Coordinator for Cyber 
Affairs (S/CCI), plays a key role in these discussions, including by 
leading the Cyber Working Group (CWG). The United States and China sent 
interagency delegations, which included military representatives, to 
both CWG meetings.
    The United States and China are among the world's largest cyber 
actors, and it is vital that we continue a sustained, meaningful 
dialogue and work together to develop an understanding of acceptable 
behavior in cyber space. Through the CWG, the United States will 
continue to emphasize U.S. cyber policy objectives, including the 
applicability of international law to state behavior, the importance of 
norms of responsible state behavior, concerns about cyber activities 
that can lead to instability, the role of transparency in domestic 
civilian and military cyber policy, and the importance of practical 
cooperative measures to prevent crises in cyber space.

    Question. The late Ambassador Mark Palmer, in his book ``Breaking 
the Real Axis of Evil,'' argued that U.S. Ambassadors in places like 
China should be ``freedom fighters'' and U.S. embassies ``islands of 
freedom'' open to all those who share the values of freedom, human 
rights, and democracy.

  <diamond> Do you agree that the U.S. Embassy in China should be an 
        ``island of freedom'' and that one of your primary jobs should 
        be demonstrating to China's peaceful advocates of reform and 
        democracy that the United States stands firmly with them?

    Answer. Human rights are integral to U.S. foreign policy. If 
confirmed, I would use my position as the U.S. Ambassador to urge 
China's leaders to respect the human rights and fundamental freedoms of 
all citizens and would communicate our support for these principles 
directly to the Chinese people.
    I would raise our human rights concerns with Chinese officials at 
the highest levels and would raise specific cases of Chinese citizens 
who are being persecuted for the peaceful expression of their political 
or religious views. I would also make clear to China that the United 
States considers upholding its international human rights commitments 
to be vital to our bilateral relationship. I strongly believe that the 
promotion and protection of human rights in China are in our national 
interest and should be an integral part of every high-level 
conversation we have with Chinese officials.
    If confirmed, I would plan to continue outreach to ethnic 
minorities and religious groups, including members of house churches, 
in China. Such outreach would be conducted in a way that is effective 
and promotes our values.
    I would also continue to work closely with other embassies in China 
concerned with China's worsening human rights record in order to ensure 
that China hears a consistent message from the international community.

    Question. On January 25, the State Department's spokesperson issued 
a statement expressing ``deep disappointment'' about the conviction of 
Mr. Xu Zhiyong, a leading advocate for fiscal transparency and fighting 
official corruption. The spokesperson described Mr. Xu's prosecution as 
``retribution for his public campaign to expose corruption and for the 
peaceful expression of his views.'' This is just the latest in an 
ongoing crackdown by Chinese authorities against activists.

  <diamond> If confirmed, what steps would you take to highlight the 
        plight of these activists and elevate their cases with the 
        Chinese Government?

    Answer. If confirmed, I would use my position as the U.S. 
Ambassador to urge China's leaders to respect the human rights and 
fundamental freedoms of all Chinese citizens and raise specific cases 
of concern, including that of legal scholar Xu Zhiyong and other 
individuals associated with the New Citizens Movement that have been 
detained, harassed and prosecuted by Chinese authorities. I strongly 
believe that the promotion and protection of human rights in China are 
in our national interest and, as such, should be an integral part of 
every high-level conversation we have with Chinese officials. I would 
continue the Embassy's strong record of meeting regularly with a wide 
range of human rights activists and their family members to gain a 
better understanding of their concerns and to express our support for 
respect for human rights in China.
    I would also continue to work closely with other embassies in China 
in order to ensure that China hears a consistent message from the 
international community on human rights.

    Question. As you know, there is an effort under way in the Senate 
to impose visa and financial sanctions on individuals responsible for 
extrajudicial killings, torture, or other gross violations of human 
rights in any foreign country. I have been concerned that in some 
authoritarian countries, there is a growing tendency to use selective 
justice and government institutions to prosecute human rights advocates 
and critics.

  <diamond> Would you support the application of visa and financial 
        sanctions on individuals responsible for the use of selective 
        justice to prosecute anticorruption and human rights advocates 
        in China?

    Answer. If confirmed, I would support using a variety of mechanisms 
to encourage greater respect for human rights in China. There is a 
range of statutory and policy-based grounds for denying visas to, and 
barring entry of, human rights violators. I would take our role 
seriously in not permitting entry to those who are ineligible due to 
direct involvement in human rights abuses, such as the enforcement of 
forced abortion and sterilization. I am particularly concerned by the 
recent crackdown on anticorruption activists, and, if confirmed, would 
make progress on human rights and rule of law a top priority during my 
tenure in Beijing.

    Question. The United States has designated China as a Country of 
Particular Concern, or CPC, since 1999 for its systematic, ongoing, and 
egregious violations of freedom of religion or belief. The U.S. 
Commission on International Religious Freedom has recommended that, in 
addition to designating China as a CPC, additional measures should be 
taken to encourage Beijing to respect this fundamental freedom.

  <diamond> How would you use the CPC designation to strengthen human 
        rights and religious freedom diplomacy as part of the bilateral 
        relationship?

    Answer. If confirmed, I would use my position as the U.S. 
Ambassador to urge China's leaders to respect human rights, including 
religious freedom. The Chinese Government's respect for, and protection 
of, the right to religious freedom fall well short of its international 
human rights obligations. As Ambassador, I would support efforts by the 
Ambassador at Large for International Religious Freedom to explore new 
and innovative ways to encourage China to improve its record on 
religious freedom. I would stress to Chinese leaders that China will 
remain a CPC until it implements fundamental reforms to allow all 
people freely to practice their faith, without restrictions such as 
requiring registration with the Chinese Government.
    China's CPC designation is an important part of our efforts to urge 
China to fulfill its international commitments to protect and respect 
religious freedom, along with our ``International Religious Freedom 
Report,'' high-level dialogues such as the Human Rights Dialogue, 
exchange programs among our citizens, and grants to organizations 
working to improve religious freedom.

    Question. According to the United States Commission on 
International Religious Freedom, the Chinese Government has detained 
over a thousand so-called ``unregistered'' Christians in the past year, 
closed ``illegal'' meeting points, and prohibited public worship 
activities. Additionally, unregistered Catholic clergy remain in 
detention or disappeared.

  <diamond> If confirmed, would you commit to raise awareness of this 
        situation in China by outreaching to this beleaguered community 
        and attending a worship service in an ``unregistered'' Catholic 
        or Protestant church in China?

    Answer. Promoting religious freedom is a core objective of U.S. 
foreign policy, including in our relationship with China. If confirmed, 
I would use my position as the U.S. Ambassador to urge China's leaders 
to respect the human rights and fundamental freedoms of all people and 
encourage China to permit everyone to worship, regardless of whether 
they affiliate with a government-recognized religious association. 
Freedom of religion is critical to a peaceful, inclusive, and stable 
society.
    If confirmed, I would continue outreach to both registered and 
unregistered religious groups, including members of house churches and 
the Catholic community, in China. Such outreach would be conducted in a 
way that is effective and promotes our values.

    Question. China recently announced that it would abolish the 
reeducation through labor penal system which allowed people to be held 
up to 4 years without a judicial hearing. UNHCR estimated up to 190,000 
people were held in these camps. However, human rights activists worry 
that the closure of these forced labor camps is merely cosmetic and 
they have been relabeled as drug rehabilitation centers.

  <diamond> What is the status of the closures of the forced labor 
        camps? Since the beginning of the closure of the camps, has 
        there been an increase in people committed to drug 
        rehabilitation centers in China?

    Answer. While we welcome China's December 28, 2013, announcement 
that it would abolish the ``reeducation through labor'' system as a 
positive step if it results in the shutdown of an abusive system that 
allows Chinese authorities to imprison individuals without due process, 
the ongoing use of arbitrary administrative detention, extralegal 
detention in black jails, and other forms of forced labor remains a 
concern. If confirmed, I would urge Chinese officials to ensure that 
reeducation through labor is not replaced by other forms of arbitrary 
detention or ``rehabilitation'' that deprive citizens of their rights. 
I would emphasize that we believe that respect for rule of law and 
protection of human rights will benefit the long-term stability and 
prosperity of China.
    If confirmed, I will also work closely with my interagency 
colleagues, particularly the Department of Homeland Security, to ensure 
that we are taking all necessary steps to ensure that products of 
forced and prison labor are not entering the United States.

    Question. The Chinese Government recently announced a limited 
relaxation of their longstanding ``One Child Policy'' for Chinese 
couples in which at least one parent is an only child. However, this 
change to the ``One-Child Policy'' does not apply to all couples and 
circumstances, and reports of government-approved forced abortions 
continue to arise.

  <diamond> How will you engage with Chinese officials on the issue of 
        government-sanctioned forced abortions in China?

    Answer. I strongly oppose all aspects of China's coercive birth 
limitation policies, including forced abortion and sterilization. If 
confirmed, I would urge China's leaders frequently and at all levels to 
respect the human rights and fundamental freedoms of all Chinese 
citizens and to end the one-child policy immediately.
                                 ______
                                 

           Responses of Arnold Chacon to Questions Submitted 
                         by Senator Marco Rubio

    Question. A group of former Ambassadors recently underlined the 
shrinking proportion of Foreign Service officers (FSOs) in senior 
positions at the State Department relative to Civil Service or 
political appointees, and observed an accompanying diminution of 
Foreign Service input into the foreign policy process and management of 
the Department.

  <diamond> How does this administration compare to previous ones 
        regarding the nomination of political appointees to senior 
        positions at the State Department?
  <diamond> How does this situation impact the morale of FSOs?
  <diamond> What impact does this situation have on the need to improve 
        the professional skills of FSOs?

    Answer. The Department benefits from the strengths of a diverse 
workforce: Civil Service, Foreign Service, and political appointees. 
Each brings unique experience, skills, and perspectives. There are 
career employees in many senior leadership positions domestically and 
overseas, including the Deputy Secretary, the Counselor, and a number 
of Under Secretaries and Assistant Secretaries. The majority of 
ambassador positions are filled by career FSOs. The ratio has been 
fairly consistent over the course of multiple Presidential 
administrations: approximately 70 percent career, 30 percent noncareer. 
The Foreign Service Act of 1980 recognizes the value of appointment of 
qualified noncareer individuals as COM.
    Regarding morale, it is to be expected that a diversity of opinion 
regarding internal policies will be represented among employees. It 
would not be possible to guarantee 100 percent acceptance of any 
Department policy. I would note, however, that in the 2013 Federal 
Employee Viewpoint Survey, the Department of State ranked fourth 
overall among the 19 large federal agencies, and is only federal agency 
to remain in the top 10 since 2005. Please see my answers below 
regarding the Department's work to improve the professional skills of 
FSOs.

    Question. As you know, the 2010 QDDR acknowledge State's shortage 
of key skills necessary for modern-day diplomacy.

  <diamond> What steps, if any, has the administration taken to 
        institute a Professional Diplomatic Education Program to 
        systematically develop the professional skills of FSOs?
  <diamond> If so, what particular skills does the program seek to 
        enhance?
  <diamond> To what extent is participation in such programs a 
        prerequisite for FSOs' promotions?

    Answer. The Department takes an active interest in the development 
and training of its most important resource, its people. The skills 
demanded of a diplomat are always shifting, and never more so than now 
in the 21st century. Showing the priority we place on training our 
officers, the Department strives to maintain a training complement 
sufficient to ensure that officers may acquire necessary skills, 
without leaving important overseas positions vacant. The assistance of 
Congress in providing us with the necessary resources for this 
complement is greatly appreciated.
    The primary locus of education for the foreign affairs community is 
the Foreign Service Institute (FSI), which develops the men and women 
our Nation requires to fulfill our leadership role in world affairs and 
to advance and defend U.S. interests. Created in 1947, FSI provides 
more than 700 classroom courses, including some 70 foreign languages. 
In addition, 270 custom-developed distance learning products and about 
2,700 commercial distance learning courses are available worldwide 24/7 
through the Internet. Annual course completions currently exceed 
104,500. These courses are designed to promote successful performance 
in each assignment, to ease the adjustment to other countries and 
culture, and to enhance the leadership and management capabilities of 
the U.S. foreign affairs community. Customers include State and 47 
other USG entities.
    Since 2005, the Department has used Career Development Plans (CDPs) 
for Foreign Service Generalists and, more recently, Specialists, as a 
tool for mapping career development and developing skills needed at the 
senior ranks. Certain requirements must be met before an employee can 
elect to compete for the senior ranks. The CDP builds on four 
principles to meet the Department's mission, all critical to meet 
today's diplomatic requirements: operational effectiveness, including 
breadth of experience over several regions and functions; leadership 
and management effectiveness; sustained professional language and 
technical proficiency; and responsiveness to Service needs. Mandatory 
requirements and a menu of electives help guide employees in developing 
the skills and experience to demonstrate their readiness for the senior 
ranks. FSI also launched a Training Continuum in 2005 which allowed 
officers of different career tracks to tailor their training to meet 
the needs of their particular specialty.
    The CDP also reinforces the importance of excellence in foreign 
languages, fundamental to the work of the Foreign Service. Professional 
foreign language use is also highly valued in considerations for 
promotion, across all grades and skills. Long-term language training 
does generally slow promotion while the student is enrolled, but makes 
promotion more likely later on.
    The Department is committed to developing the wider skills for 
today's diplomacy. In addition to tradecraft skills, much of which is 
assignment-specific, we are also focused on the leadership and 
management skills critical to the Department, both internally and in an 
increasingly interagency overseas environment. In recent years, for 
example, we instituted mandatory leadership training as a prerequisite 
for promotion at each rank and, in 2014, we expect to launch a new 
program of mandatory supervisory training for all new supervisors.

    Question. Are there any efforts underway to facilitate the 
attendance of mid-level FSOs to one of our military's Professional 
Military Education Programs? Would such a cross-service education be 
valuable the modern FSOs?

    Answer. We have long, productive relationships with our Nation's 
military educational institutions, both the War College and Commands. 
In this academic year, for example, 24 mid-level employees at the FS-02 
and FS-03 levels are enrolled in the Joint Forces Staff College in 
Norfolk, VA; Army Command and Staff College in Ft. Leavenworth, KS; 
Naval Command and Staff College in Newport, RI; Air Command and Staff 
College in Montgomery, AL; Marine Corps War College in Quantico, VA; 
Inter-American Defense College in Washington, DC; and National 
Intelligence University (NIU) in Washington, DC. The Department has a 
close and longstanding relationship with the National Defense 
University (NDU), where our officers can both study and teach. In one 
NDU program, an FSO at the 01 rank serves under the general direction 
of the Commandant as Associate Professor and State Chair at the Joint 
Forces Staff College. The JFSC prepares 1,300 selected field-grade 
officers and civilians each year for command and staff responsibilities 
in multinational, governmental, and joint national security jobs. 
Students come from all branches of the armed services (including 
international military students), the Department of State, and other 
U.S. civilian agencies. The College has several schools that offer 
joint professional military education mandated by Congress, including a 
master's degree program in Joint Advanced Warfare.
    The Foreign Service Institute also manages an online Army War 
College Master of Strategic Studies Distance Education Program for FS-
01 and FS-02 employees that awards a Master of Strategic Studies.
    These highly competitive training opportunities are considered 
career-enhancing for Foreign Service personnel, offering opportunities 
for professional growth and the development of skills and knowledge 
critical to working and leading in the interagency environment.

    Question. Consular activities are vitally important, but they draw 
a lot of manpower from within the State Department ranks. What can be 
done to buttress our consular activities overseas in order to shift 
additional personnel to staffing shortfalls in other areas?

    Answer. Many of our consular positions are entry-level officer 
(ELO) positions, focused on immigrant and nonimmigrant visas. The 
number of visa adjudication positions needed overseas is influenced by 
visa demand which, in turn, is impacted by frequently changing country-
specific and worldwide political, economic, social, and national 
security conditions. Our ability to meet those needs through 
traditional methods, i.e., ELOs, is dependent on the Department's 
budget and the ability to hire.
    Unfortunately, in today's resource-constrained environment with 
attrition or less hiring and continuing growth in demand for visas, we 
estimate that by FY15 ELO hiring will be unable to provide enough 
officers to fill entry level consular positions. Consular staffing 
shortfalls are projected to exceed 400 by FY17.
    To support the economic growth that foreign visitors foster in the 
United States, we are expanding existing programs for our career Civil 
Service employees, including Passport Adjudicators, to serve overseas 
in Foreign Service Limited Non-Career Appointments (LNA). We have also 
developed other innovative LNA hiring programs to meet these urgent, 
specific mission-critical needs that cannot be met by the Foreign 
Service (FS), including a pilot program to bring in noncareer, highly 
qualified, language ready Consular Adjudicator LNAs to fill entry-level 
nonimmigrant visa adjudicator positions in China, Brazil, and several 
Spanish-speaking countries. Additionally, we are expanding 
opportunities for fully qualified appointment-eligible family members 
to serve in entry-level consular positions overseas.
    We are using these programs to buttress our vitally important and 
growing consular responsibilities but with at attrition or below 
hiring, entry-level officers will continue to be needed to complete 
that critical task.
                                 ______
                                 

            Responses of Max Baucus to Questions Submitted 
                      by Senator Richard J. Durbin

    Question. Conservationists estimate that some 62 percent of the 
elephant population in central Africa has been slaughtered in the past 
decade to satisfy the resurgent demand for ivory. Experts agree that 
the demand for ivory is fueled by China--where the nation's economic 
expansion has made the treasured product accessible to a growing middle 
class. Not only does this demand create a market that is leading to the 
decimation of the African elephant, it also undermines U.S. military 
and development objectives in Africa by fueling armed conflict and 
violence. Murderous bands of thugs like the Lord's Resistance Army and 
terrorist group al-Shabaab have turned to ivory to fund their reigns of 
terror.

  <diamond> How can the United States work with China to reduce its 
        demand for ivory that is helping fuel such horrific violence?

    Answer. The United States is engaging China to reduce demand for 
illegally traded wildlife and wildlife products. Recently the United 
States and China each destroyed more than six tons of illegal ivory 
stockpiles seized through law enforcement action. I understand the 
United States plans to continue efforts to raise global awareness, 
including in China, of this pernicious trade and its devastating 
effects on wildlife. U.S. law enforcement agencies are working with 
Chinese authorities to improve wildlife law enforcement. At the 2013 
U.S.-China Joint Liaison Group on Law Enforcement Cooperation, the U.S. 
cochairs proposed that the United States and China explore ways to 
cooperate further on wildlife trafficking. Law enforcement entities of 
the United States have joined with China, and other countries, 
including several African nations, in collaborating and exchanging 
information through Operation COBRA 2, a follow-on operation to the 
highly successful Operation COBRA 1 in 2013, which targets wildlife 
traffickers at all points in the trade chain. In addition, the United 
States continues to encourage China, as APEC 2014 chair, to support the 
ongoing work of the Anti-Corruption and Transparency Experts Task Force 
on combating corruption and illicit trade, including wildlife 
trafficking, and to join U.S. workshops focusing on demand reduction 
under APEC's aegis.

    Question. China is investing in Africa by the billions--building 
large-scale roads and infrastructure projects. It uses concessional 
financing and other favorable loan and grant terms to undercut American 
companies, making it very difficult for our businesses to compete. This 
is leaving a continent with 7 of the 10 fastest-growing economies and 
with huge potential to grow jobs in the United States largely 
inaccessible to American investors and companies. For its part, China 
gains access to natural resources and gains political and diplomatic 
influence. African consumers are subject to inferior Chinese products, 
as well as weak labor, governance, and environmental standards.

  <diamond> How can the United States do more to help American 
        businesses compete in Africa, particularly against aggressive 
        Chinese tactics?

    Answer. Foreign investment is essential to Africa's economic 
development, and there is room for both the United States and China to 
engage in public and private investment opportunities. The United 
States offers a compelling narrative for Africa. Our firms introduce 
international best practices, export top-quality products, provide 
employment opportunities, and promote economic growth in Africa, while 
also generating benefits for the U.S. economy.
    China will continue to seek a role in Africa and elsewhere, and we 
must maintain our engagement with China in this regard. The United 
States has pressed China to adhere to international labor, human 
rights, transparency, and economic standards as China pursues 
investment and development projects globally.
    If confirmed, I would press China not to undermine local and 
international efforts to promote healthy competition, good governance, 
transparency, and responsible natural resource management in Africa and 
elsewhere. I would welcome Chinese investment that is consistent with 
international standards, that promotes good governance and sustainable 
development, and that maintains a level playing field for all 
companies, and I would urge my Chinese counterparts to ensure that 
China's engagement plays this positive role.
                                 ______
                                 

            Responses of Max Baucus to Questions Submitted 
                          by Senator Tom Udall

    Question. China has some of the most unique natural features in the 
world, from the mountains of the Tibetan Plateau to the Indus, Mekong 
and Yellow Rivers that flow from it and sustain all of Asia. Yet China 
is now famous for having some of the worst air quality on the planet. 
The Chinese people are increasingly pushing back through activism 
accelerated by new social media tools and aided by the real-time air 
quality data provided by the U.S. Embassy.

    How will you advance collaboration between China, the American 
private sector, and U.S. agencies such as the EPA to reduce pollution 
there?

    Answer. Growing environmental awareness in China, driven partly by 
episodes of severe air pollution, has increased Chinese interest in 
enhanced cooperation on air pollution, climate, and clean energy. Air 
pollution does not stop at the border; by working with China, the 
United States can improve air quality in both our countries. To promote 
cooperation, the United States developed an Air Action Plan under the 
Ten-Year Framework for Energy and Environment Cooperation (TYF). 
Collaboration on air quality is also included in the memorandum of 
understanding between the U.S. EPA and China's Ministry of 
Environmental Protection and was expanded in 2013 through a U.S. Trade 
and Development Agency-funded cooperative project. Our two nations also 
boast significant bilateral climate cooperation, including through 
seven clean-energy initiatives launched in 2009--including the U.S.-
China Clean Energy Research Center--and the five new initiatives of the 
Climate Change Working Group (CCWG). The TYF and CCWG in particular are 
State Department-organized platforms for cooperation that bring U.S. 
agencies, including DOE, EPA, USTDA, DOT, and FERC, together with their 
Chinese counterparts.
    If confirmed, I would work to support these existing programs and 
encourage their expansion. For example, at the next Strategic and 
Economic Dialogue in China, we are working to include new partners--
including American industry participants--into the EcoPartnership 
Program. EcoPartnerships bring together U.S. and Chinese 
organizations--local governments, universities, nongovernmental 
organizations, and/or companies--to conduct innovative projects that 
promote U.S. priorities on energy security, economic growth, and 
environmental sustainability, including addressing air pollution.

    Question. If confirmed, what measures will you take to protect the 
health of the hundreds of Americans who serve at Embassy Beijing and 
consulates around the country?

    Answer. U.S. Embassy Beijing and the U.S. consulates in China 
provide air quality data and additional information on their public Web 
sites as part of the administration's commitment to protect U.S. 
citizens. This information allows the mission community and U.S. 
citizens living in China to make informed decisions to decrease 
exposure to air pollution. During hazardous air situations--such as the 
January 2013 air episode--the U.S. Embassy issues messages to U.S. 
citizens to address the high levels of pollution indicated by air 
quality indexes and to provide U.S. citizens information resources on 
air quality and protective measures.
    If confirmed, I would ensure that air quality data and these 
messages continue to be released and updated in a timely fashion. In 
addition, embassy and consulate residences have been provided multiple 
room air cleaners, resulting in significant reductions in particulate 
levels indoors.
    Mission China makes influenza vaccines (aka ``flu shots'') 
available for Embassy and consulate personnel and dependents in 
accordance with standard State Department policies.

    Question. Like many of my fellow Senators, I am appalled by the 
recent surge in the ivory trade, especially the increased demand in 
China leading to the growth in elephant killings in Africa.

  <diamond> How will you address this issue with the Chinese, and what 
        can the United States do to help China tighten its exports 
        rules and punishments for acquiring illegal ivory in order to 
        dissuade would-be buyers?

    Answer. The United States is engaging China to reduce demand for 
illegally traded wildlife and wildlife products. Recently the United 
States and China each destroyed more than 6 tons of illegal ivory 
stockpiles seized through law enforcement action. I understand the 
United States plans to continue efforts to raise global awareness, 
including in China, of this pernicious trade and its devastating 
effects on wildlife. U.S. law enforcement agencies are working with 
Chinese authorities to improve wildlife law enforcement. At the 2013 
U.S.-China Joint Liaison Group on Law Enforcement Cooperation, the U.S. 
cochairs proposed that the United States and China explore ways to 
cooperate further on wildlife trafficking. Law enforcement entities of 
the United States have joined with China and other countries, including 
several African nations, in collaborating and exchanging information 
through Operation COBRA 2, a follow-on operation to the highly 
successful Operation COBRA 1 in 2013, which targets wildlife 
traffickers at all points in the trade chain. In addition, the United 
States continues to encourage China, as APEC 2014 chair, to support the 
ongoing work of the Anti-Corruption and Transparency Experts Task Force 
on combating corruption and illicit trade, including wildlife 
trafficking, and to join U.S. workshops focusing on demand reduction 
under APEC's aegis.

    Question. I think it is fair to say that we have seen an 
increasingly active Chinese Navy attempting to assert authority in sea-
lanes that have been open for navigation for all countries for years. 
This behavior increases the risk of confrontation between countries in 
the region.

  <diamond> What will you do to send a message to the Chinese that the 
        international community and the United States, in support of 
        its allies, will continue to support freedom of navigation in 
        the region and how will you work specifically to de-escalate 
        tensions and improve military to military communication between 
        the United States and China and our partners and allies in the 
        region?

    Answer. If confirmed, I will encourage China to exhibit greater 
transparency with respect to its capabilities and intentions, and to 
use its military capabilities in a manner conducive to the maintenance 
of peace and stability in the Asia-Pacific region. I will reiterate 
that the United States has national interests in the Asia-Pacific 
region, including an interest in preserving the freedom of the seas and 
airspace. For over three decades, the U.S. Government has maintained a 
Freedom of Navigation Policy and Program. The U.S. Freedom of 
Navigation Program aims to preserve all of the rights, freedoms, and 
lawful uses of the sea and airspace for the United States and all 
nations by demonstrating that the United States does not accept 
maritime claims of other nations, including China, that are 
inconsistent with international law and impinge on the rights, 
freedoms, and uses of the sea that belong to all nations. The U.S. FON 
Program is global and is not directed at any single country. The U.S. 
FON Program is a multiagency effort, including both diplomatic activity 
and operational activity. As part of that diplomatic activity, I will 
do my part to encourage China to conform its maritime claims to 
international law, and encourage China to fully respect all of the 
rights, freedoms, and uses of the sea and airspace by other nations, 
including the United States. When appropriate, I will communicate to 
China the lawfulness of and need for the activities of U.S. military 
forces to preserve those rights, freedoms, and uses of the sea and 
airspace in the Asia-Pacific region.
    If confirmed, I will support the continued development of military-
to-military relations as a key component of the U.S.-China bilateral 
relationship. Deeper cooperation is necessary to further reduce 
mistrust and the risk of miscalculation between the U.S. and Chinese 
militaries.

    Question. It is well known that China is hard at work conducting 
industrial espionage and attempting to acquire information on U.S. 
defense systems in order to both counter U.S. systems, but also to 
attempt to catch up to the U.S. military's technological superiority.

  <diamond> What will you do as Ambassador to work with and send a 
        message to the Chinese, that these export violations are 
        unacceptable, and how will you work with U.S. companies doing 
        business in China to ensure that they are following all 
        applicable export laws meant to protect sensitive U.S. military 
        and dual use technology when doing business with Chinese 
        companies?

    Answer. The United States is committed to facilitating normal trade 
with China for commercial items for civilian end-uses and end-users. 
Export controls, which affect only a very small amount of total 
bilateral trade (less than 1 percent), are not just an economic issue, 
but also a national security issue. China remains a proscribed 
destination under the International Traffic in Arms Regulations, the 
federal regulation that implements the Arms Export Control Act, and is 
also the subject of separate statutory restrictions commonly referred 
to as ``Tiananmen sanctions,'' requiring a Presidential waiver prior to 
the issuance of any export license to China for any defense article on 
the United States Munitions List. China's status in this regard is 
firmly established and well-known to U.S. and foreign defense companies 
engaged in legitimate and authorized defense trade.
    The United States will continue to engage China on export control 
issues through the High Technology and Strategic Trade Working Group 
(HTWG), as reflected in the July 2013 Strategic and Economic Dialogue 
joint outcome statement. The HTWG is a longstanding dialogue under the 
Joint Committee on Commerce and Trade designed to further cooperation 
on export controls and high technology trade issues.
    If confirmed, I would reinforce U.S. policy on export controls in 
discussions with Chinese officials and in meetings with U.S. businesses 
as appropriate. I would also raise export issues and cases of export 
violations as they arise.
                                 ______
                                 

            Responses of Max Baucus to Questions Submitted 
                        by Senator John Barrasso

    Question. What leverage does the U.S. Government have to promote 
the development of human rights and rule of law in China? Are sanctions 
effective in encouraging China to comply with human rights standards? 
Are sanctions useful in persuading China to develop the rule of law? If 
confirmed, what actions will you take to help end the Government of 
China's policies of oppression and support the rights and freedom of 
the people of China? How do you plan to balance the engagement of China 
on economic issues with demonstrating serious concerns about China's 
human rights violations?

    Answer. The greatest leverage we have is China's own desire to 
achieve greater international respect, a more innovative economy, and a 
prosperous and stable society. Our consistent message to China's 
leaders, and to the Chinese people, is that greater respect for 
universal human rights is key to achieving these goals. The United 
States does not hesitate to speak out when we believe that China is 
engaging in policies and practices, such as in Tibet or Xinjiang, that 
contravene China's international human rights commitments. The United 
States public advocacy for human rights causes no small amount of 
friction with the Chinese leadership. However, it is important that we 
continue to speak out, as we have with respect to the continued 
imprisonment of Nobel Peace Prize laureate Liu Xiaobo, the recent 
sentencing of legal activist Xu Zhiyong, the disappearance of lawyer 
Gao Zhisheng, and ongoing repression in Tibet and Xinjiang.
    If confirmed, I will not hesitate to speak out and advocate for the 
respect for universal human rights and rule of law, but the use of 
economic sanctions to attempt to bring about human rights improvements 
is not likely to be effective with China. I believe economic sanctions 
would alienate us from the majority of Chinese people who have 
benefited from China's economic reform and integration into the global 
economy.
    Promoting respect for universal human rights and the rule of law is 
integral to U.S. foreign policy. If confirmed, I would urge China's 
leaders to undertake key legal reforms and respect the rule of law and 
underscore the importance of an independent judiciary, a robust civil 
society and the free flow of information to China's prosperity and 
stability. I would also strongly support the annual U.S.-China Legal 
Experts Dialogue which provides an important channel to discuss our 
concerns about the rule of law and specifically the role of lawyers in 
Chinese society by bringing together judges, legal scholars, lawyers 
and prosecutors to discuss key legal issues.
    If confirmed, I would raise our human rights concerns with Chinese 
officials at the highest levels and would raise specific cases of 
Chinese citizens who are being persecuted for the peaceful expression 
of their political or religious views. I would also make clear to China 
that the United States considers upholding its international human 
rights commitments to be vital to our bilateral relationship.

    Question. What is the total cost of China's theft of U.S. 
intellectual property to the U.S. economy each year? Why hasn't the 
Government of China been able to establish an effective intellectual 
property rights enforcement regime? Is it based upon a lack of desire 
or ability on the part of the Government of China?

    Answer. The protection and enforcement of intellectual property 
rights (IPR) in China are critical to maintaining a mutually beneficial 
trade relationship. According to U.S. Customs and Border Patrol, China 
remains the leading source of counterfeit and pirated goods coming into 
the United States. My understanding is that China has taken some 
positive actions to improve IP legislation and enforcement in recent 
years; however, piracy and counterfeiting levels in China remain 
unacceptably high, and stronger enforcement mechanisms are needed. As 
the Commerce Department has reported, IP-intensive industries support 
at least 40 million U.S. jobs and annually account for approximately $5 
trillion in the U.S. economy.
    If I am confirmed, one of the top priorities for the U.S. mission 
in China will continue to be to advocate for the protection and 
enforcement of intellectual property rights that are so critical for 
U.S. businesses.

    Question. What role should the United States play in the 
territorial disputes in the East China Sea? In November, the U.S. Air 
Force flew two bombers through the East China Sea without notification 
after China declared an air defense identification zone. Do you support 
additional U.S. military operations that assert freedom of movement and 
show support to U.S. allies in the region?

    Answer. If confirmed, I would speak clearly to Beijing regarding 
not only issues of shared interest, but also our differences, and 
faithfully represent the values, interests, and principles of the 
United States--including respect for international law and the freedom 
of navigation. I am clear-eyed about Chinese behavior vis-a-vis its 
neighbors over territorial and maritime matters.
    China's announcement of an ``East China Sea Air Defense 
Identification Zone (ADIZ)'' caused deep concerns in the region. If 
confirmed, I would remind the Chinese that the United States does not 
recognize and does not accept the ADIZ, which we believe should not be 
implemented. I would make clear to China that it should refrain from 
taking similar actions elsewhere in the region. I would also encourage 
China to work with other countries, including Japan and the Republic of 
Korea, to address the dangers its recent declaration has created and to 
deescalate tensions.
    If confirmed, I would reiterate that the United States has national 
interests in the Asia-Pacific region, including an interest in 
preserving the freedom of the seas and airspace. Where appropriate, I 
would communicate to China the lawfulness of, and need for, the 
activities of U.S. military forces to preserve those rights, freedoms, 
and uses of the sea and airspace in the Asia-Pacific region. For over 
three decades, the U.S. Government has maintained a Freedom of 
Navigation Policy and Program. If confirmed, I would support the 
continued development of military-to-military relations as a key 
component of the U.S.-China bilateral relationship. Deeper cooperation 
is necessary to further reduce mistrust and the risk of miscalculation 
between the U.S. and Chinese militaries.

    Question. Do you believe that Taiwan should be invited to 
participate in U.S.-led military exercises? Do you support arm sales to 
Taiwan?

    Answer. Taiwan and the United States enjoy unofficial but robust 
economic and cultural relations, and Taiwan is an important security 
partner to the United States. Consistent with the Taiwan Relations Act 
and the United States one-China policy, the United States makes 
available to Taiwan defense articles and services necessary to enable 
Taiwan to maintain a sufficient self-defense capability.
    Taiwan does not formally participate in international coalitions or 
exercises. However, Taiwan does regularly train on weapons or platforms 
bought from the United States, which increases not only Taiwan's 
deterrence but also its humanitarian assistance capacity. Taiwan plays 
an increasingly significant role in disaster relief enterprises, such 
as relief to Palau and the Philippines after Typhoon Haiyan in November 
2013.
    If I am confirmed, my job will be to express to Chinese officials 
and people continuing U.S. support for improving cross-strait relations 
at a pace acceptable to people of both sides of the strait and to make 
clear the United States abiding interest in peace and stability across 
the strait.

    Question. How would you characterize China's political and economic 
relationship with North Korea? What type of policy changes and actions 
would you like to see from China regarding North Korea? In what ways 
can the United States work with China to pressure North Korea on 
denuclearization?

    Answer. The United States shares with China a common goal of 
achieving a denuclearized Korean Peninsula, which is essential to both 
regional stability and broader international security. China is a vital 
partner with a unique role to play due to its longstanding economic, 
diplomatic, and historical ties with North Korea. The administration 
continues to work with all U.N. member states, including China, to 
ensure the full and transparent implementation of UNSC sanctions.
    As Ambassador, if confirmed, I would urge China to use its 
influence to convince North Korea that it has no choice but to 
denuclearize. The United States and China need to continue to work 
together to hold the DPRK to its commitments and its international 
obligations, including those to abandon its nuclear weapons and 
existing nuclear programs in a complete, verifiable, and irreversible 
manner. If confirmed, I would continue to encourage Beijing to ensure 
the full and transparent implementation of U.N. Security Council 
sanctions targeting North Korea's nuclear-related, ballistic missile-
related, or other weapons of mass destruction-related programs.

    Question. If confirmed, what policies will you support to address 
Internet censorship and promote media freedom in China?

    Answer. I am concerned that Internet restrictions in China have 
worsened. It is troublesome to see the blocking of so many Web sites 
due to the ``Great Firewall,'' which limits access to information, 
including international media Web sites; new restrictions on social 
media, including a crackdown on what the Chinese Government terms 
``online rumors''; and the censorship of Internet search engine 
results. If confirmed, I would raise objections over the blocking of 
media and social media Web sites with Chinese counterparts, making 
clear that these actions are inconsistent with China's international 
commitment to respect freedom of expression. If confirmed, I would 
express to Chinese officials that obstructing the free flow of 
information undermines the kind of open environment for free debate and 
discussion that supports innovation and economic dynamism.
    I am deeply concerned that foreign journalists in China continue to 
face restrictions that impede their ability to do their jobs, including 
extended delays in processing journalist visas and press credentials, 
restrictions on travel to certain locations deemed ``sensitive'' by 
Chinese authorities and, in some cases, violence at the hands of local 
authorities. These restrictions and treatment stand in stark contrast 
with U.S. treatment of Chinese and other foreign journalists.
    If confirmed, I would urge China to commit to timely visa and 
credentialing decisions for foreign journalists, unblock international 
websites, and eliminate other restrictions that impede the ability of 
journalists to practice their profession.

 
     NOMINATIONS BATHSHEBA CROCKER, MICHAEL LAWSON, AND ROBERT WOOD

                              ----------                              


                       TUESDAY, FEBRUARY 4, 2014

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Bathsheba Nell Crocker, of the District of Columbia, to be 
        Assistant Secretary of State for International 
        Organization Affairs
Michael Anderson Lawson, of California, for the rank of 
        Ambassador during his tenure of service as 
        Representative on the Council of the International 
        Civilian Aviation Organization
Robert A. Wood, of New York, for the rank of Ambassador during 
        his tenure of service as U.S. Representative to the 
        Conference on Disarmament
                              ----------                              

    The committee met, pursuant to notice, at 3:05 p.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Edward J. 
Markey, presiding.
    Present: Senators Markey and Barrasso.

          OPENING STATEMENT OF HON. EDWARD J. MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Good afternoon. Welcome to this hearing in 
the Senate Foreign Relations Committee.
    Today, we will hear from three highly qualified nominees 
who will represent our country's interests before international 
organizations.
    The first is Mr. Michael Lawson, the United States 
Representative on the Council of the International Civil 
Aviation Organization, which is headquartered in Montreal. This 
is an intergovernmental organization that oversees the safety, 
security, and economic sustainability and environmental impact 
of civilian air travel.
    Air navigation, the safety of air travel, and the security 
from terrorist attack have been the focuses of this 
organization for many years. More recently, environmental and 
energy issues have become a priority, especially aviation's 
contribution to climate change. Air travel is currently 
responsible for 2 percent of carbon dioxide pollution worldwide 
and about 13 percent of all transportation-sector carbon 
dioxide. As air travel increases, especially in rapidly 
developing economies, emissions are projected to grow in the 
coming years.
    In early October 2013, it was agreed upon that the goal 
of--should create a global market-based system to curb airline 
pollution emissions by 2016. Mr. Lawson is extremely well 
qualified to represent the United States in these discussions. 
He received his J.D. from Harvard Law School in 1978. He has 
over 31 years of experience practicing law, most of it as a 
partner at the firm of Skadden Arps, here in Washington and 
around the world. Since 2005, Mr. Lawson has served on the 
Board of Airport Commissioners for the four airports of the 
L.A. area, including Los Angeles International Airport. He was 
president of that board from 2010 to 2013. While on the board, 
he helped manage major improvements to the LAX, including a new 
terminal.
    Our next nominee is Bathsheba Nell Crocker, President 
Obama's nominee to be Assistant Secretary of State for 
International Organization Affairs. She will be responsible for 
overseeing and advising Secretary Kerry about the U.S. 
Government's relationships with the United Nations--U.N. 
agencies, such as the IAEA, peacekeeping missions, UNICEF, the 
U.N. High Commissioner for Refugees, and a number of other 
international agencies and organizations.
    Ms. Crocker's expertise on foreign policy and her 
dedication to public service are truly impressive. She has over 
15 years of relevant experience at the State Department, the 
United Nations, and the private sector. At the State 
Department, she is now the Principal Deputy Director of the 
Office of Policy Planning. At the United Nations, she worked as 
the Special Assistant on the Peacebuilding Issues and as the 
Deputy Chief of Staff in the Office of the Special Envoy for 
Tsunami Recovery, former President Bill Clinton.
    In the private sector, she has served as a senior policy 
advisor for the Bill and Melinda Gates Foundation and as a 
fellow at the Center for Strategic and International Studies 
and the Council on Foreign Relations.
    Her credentials are impressive in their own right, but she 
is also carrying on a family tradition. With us here today is 
her father, Chester Crocker, who was the Assistant Secretary of 
State for African Affairs under President Reagan.
    Could you please stand, Mr.--right over here? Thank you so 
much for being here.
    Could we give him a round of applause for his tremendous 
service to our country? [Applause.]
    We thank you.
    He served as Assistant Secretary of State for African 
Affairs under President Reagan, and helped lead the 
negotiations that led to independence for Namibia and the 
withdrawal of Cuban troops from Angola.
    Mr. Crocker, thank you for your service to our country.
    I am told that when Ms. Crocker is confirmed, you will be 
the first father-daughter pair to serve as Assistant 
Secretaries of State in our country's history.
    Our third nominee is Robert Wood, nominated to represent 
the United States to the Conference on Disarmament, the 
international agency responsible for negotiating arms treaties. 
Mr. Wood is a 25-year veteran of the Foreign Service who has 
served in Mexico, Nigeria, Pakistan, and South Africa. 
Recently, he served as Charge d'affaires in the U.S. Mission to 
the International Atomic Energy Agency, where he defended 
American interests and tried to help prevent the spread of 
nuclear weapons and fissile material. He was also the Deputy 
Spokesman of the U.S. Mission to the United Nations, a position 
he began the day after the September 11th attacks.
    If confirmed, one of Mr. Wood's most pressing 
responsibilities would be a preparatory conference this April 
for the 2015 Non-Proliferation Treaty Review Conference. Mr. 
Wood will be an essential spokesman, explaining and defending 
our country's significant efforts to create a world in which 
nuclear weapons no longer exist.
    Also, Mr. Wood has the opportunity to start serious 
negotiations on a Fissile Material Cutoff Treaty which would 
ban the production of nuclear materials for use in nuclear 
weapons.
    And we thank each of you for your service, and we thank 
each of you for everything that you are going to do for our 
country.
    And I will begin by recognizing you, Ms. Crocker, in order 
to lay out your case to become our representative.

    STATEMENT OF BATHSHEBA NELL CROCKER, OF THE DISTRICT OF 
  COLUMBIA, NOMINEE TO BE AN ASSISTANT SECRETARY OF STATE FOR 
               INTERNATIONAL ORGANIZATION AFFAIRS

    Ms. Crocker. Thank you very much, Mr. Chairman and 
distinguished members of the committee. I am honored to appear 
before you as President Obama's nominee for Assistant Secretary 
of State for International Organization Affairs.
    More than 30 years ago, as you have noted, my father 
appeared in front of this committee as President Reagan's 
nominee for Assistant Secretary of State for African Affairs. I 
have learned a great deal from my father's remarkable career 
about the importance of public service, the art of American 
diplomacy, and the promise of American leadership. It would be 
an honor of a lifetime to carry these lessons forward and help 
advance American interests and values at the United Nations and 
beyond.
    I have also learned a great deal from my mother, who is 
also here with us today, a woman who proved that you could have 
a successful career and be an extraordinary mother. I am so 
pleased they could both be here today.
    I also want to recognize my husband, Milan, my daughters, 
Asha and Farrin, who are here. I owe them more than I could 
ever say. And I have a number of other family members here, as 
well, today: my sister, Rennie Anderson; my brother-in-law, Kai 
Anderson; my nieces, Tala and Avey; my nephew, Caleb; my 
brother-in-law, Anand Vaishnav; and my cousin, John Putnam.
    I began my public service----
    Senator Markey. May I say that your mother is the first 
woman to ever be the wife of, and the mother of, an Assistant 
Secretary of State----
    [Laughter.]
    Senator Markey [continuing]. Which I think is also a 
distinction. That might actually be the hypotenuse in this 
whole story. [Laughter.]
    Ms. Crocker. Well said.
    I began my public service career as an attorney advisor at 
the State Department more than 15 years ago. I have seen 
firsthand how ably our diplomats represent our country. I have 
seen their courage on the front lines of conflict, their 
resilience and strength in the aftermath of natural disasters, 
and their steadfast commitment to standing up to injustice all 
over the world. I have also seen firsthand the same 
determinations and skill in the peacekeepers, development 
professionals, humanitarian workers, and health practitioners I 
worked with during my time helping lead the U.N. Asia tsunami 
recovery efforts and peace-building programs. That is why I 
share President Obama's conviction that America's national 
interests are best served by a robust, responsive, and 
responsible international system. The challenges of today, from 
terrorism to nuclear proliferation, and climate change to 
development and food security, cannot be solved by any one 
country on its own. And in an age of fiscal austerity, we need 
to work harder than ever to ensure that international 
organizations are able and willing to meet today's many global 
challenges.
    Thanks to the administration's efforts, the United States 
today is a more engaged, effective, and successful leader in 
international and multilateral organizations than it has been 
in a very long time. If confirmed, I pledge to work with this 
committee to identify and pursue new opportunities to advance 
our interests throughout the U.N. system. In particular, I will 
focus on three major priorities: efficiency, effectiveness, and 
evolution.
    First, safeguarding and maximizing U.S. taxpayers' 
investment in International Organization will be my unflagging 
preoccupation. There is no question that, despite progress, 
there are continuing challenges with management and oversight 
at the United Nations. As the largest contributor to the U.N., 
we have a special obligation and influence to promote reform 
throughout the U.N. system.
    Second, I will work to increase the effectiveness of 
multilateral institutions. In so many of our foreign policy 
priorities, from our sanctions on al-Qaeda, Iran, and North 
Korea, to our efforts to support political transitions in Iraq 
and Afghanistan, to preventing atrocities and building peace in 
war-torn countries, to sounding the alarm on human rights 
abuses, the U.N. and international organizations play a vital 
role. But, all too often, political posturing by states leads 
to political paralysis and inaction, sometimes with devastating 
consequences. If confirmed, I will push other governments to 
ensure these organizations can deliver on their promise.
    Finally, just as the international landscape continues to 
evolve, so our international institutions, and the United 
States should shape that evolution. It is time for the U.N. 
system to do away with preoccupations and processes whose days 
have long past, especially the disproportionate and unjust 
attention paid to Israel. In the U.N. General Assembly, at the 
U.N. Human Rights Council and elsewhere, Israel is subject to 
one-sided resolutions and politically motivated investigations. 
If confirmed, I will fight bias against Israel whenever and 
wherever possible. At the same time, I will continue the 
administration's efforts to promote full and equal Israeli 
participation in international bodies and support its positive 
contributions to the U.N.
    All over the world, people's lives depend on the system of 
international organizations that the United States helped 
conceive and lead. In the Philippines, the U.N. is directing 
the global humanitarian response effort to Typhoon Haiyan. In 
the Democratic Republic of Congo, U.N. Blue Helmets are helping 
secure the peace and rekindle the hopes of tens of millions in 
the Great Lakes region. And in schools, health clinics, and 
refugee camps all over the world, the U.N. is making sure that 
future generations will know a more peaceful and prosperous 
world.
    Mr. Chairman, we have a deep stake in shaping the continual 
renewal of the system of international cooperation and making 
sure it is as efficient and effective as possible. I look 
forward to working together with you and with this committee to 
sustain our leadership in international organizations and our 
promotion of U.S. foreign policy priorities.
    Thank you.
    [The prepared statement of Ms. Crocker follows:]

               Prepared Statement of Bathsheba N. Crocker

    Thank you, Mr. Chairman and distinguished members of the committee. 
I am honored to appear before you as President Obama's nominee for 
Assistant Secretary of State for International Organization Affairs. 
More than three decades ago, my father appeared in front of this 
committee as President Reagan's nominee for Assistant Secretary of 
State for African Affairs. I have learned a great deal from my father's 
remarkable career about the importance of public service, the art of 
American diplomacy, and the promise of American leadership. It would be 
an honor of a lifetime to carry these lessons forward and help advance 
American interests and values at the United Nations and beyond.
    I have also learned a great deal from my mother--a woman who proved 
that you could have an extraordinary career and be an extraordinary 
mother. I could not ask for better role models than my parents and I am 
thrilled that they could both be here today. I also want to recognize 
my husband, Milan, and my daughters, Asha and Farrin. I owe them more 
than I could ever say.
    I began my public service career as an Attorney-Adviser at the 
State Department more than 15 years ago. I have seen first-hand how 
ably our diplomats--Civil and Foreign Service officers alike--represent 
our country. I have seen their courage on the front lines of conflict. 
I have seen their resilience and strength in the aftermath of natural 
disasters. And I have seen their steadfast commitment to standing up to 
injustice all over the world.
    I have also seen firsthand the same determination and skill in the 
peacekeepers, development professionals, humanitarian workers, and 
health practitioners I worked with during my time helping lead the 
U.N.'s Asia tsunami recovery efforts and peacebuilding programs.
    This is why I share President Obama's conviction that America's 
national interests are best served by a robust, responsive, and 
responsible international system--and by strong and sustained U.S. 
multilateral engagement and leadership. The challenges of the 21st 
century--from terrorism to nuclear proliferation, and climate change to 
development and food security--cannot be solved by any one country on 
its own. And in an age of fiscal austerity, we will need to work harder 
than ever to ensure that international organizations are able and 
willing to meet today's many global challenges.
    Thanks to the administration's efforts, the United States today is 
a more engaged, more effective, and more successful leader in 
international and multilateral organizations than it has been in a very 
long time. If confirmed, I pledge to work with this committee to 
identify and pursue new opportunities to advance our interests 
throughout the U.N. system. In particular, I will focus on three major 
priorities: efficiency, effectiveness, and evolution.
    First, safeguarding and maximizing U.S. taxpayers' investment in 
international organizations will be my unflagging preoccupation. There 
is no question that, despite progress, there are continuing challenges 
with management and oversight at the United Nations. But these 
challenges should not lead us to disengage. Instead, they should lead 
us to redouble our efforts to improve efficiency, transparency, and 
accountability throughout the U.N. system. As the largest contributor 
to the U.N., we have a special obligation and influence to promote 
reform. And if confirmed, I will continue to voice our concerns and 
lead reform efforts.
    Second, I will work to increase the effectiveness of multilateral 
institutions. In so many of our foreign policy priorities--from our 
sanctions on al-Qaeda, Iran, and North Korea, to our efforts to support 
political transitions in Iraq and Afghanistan, to preventing atrocities 
and building peace in war-torn countries--the U.N. and international 
organizations play a vital role. They prevent the proliferation of 
weapons of mass destruction. They prevent war and keep the peace. They 
sound the alarm on human rights abuses. And they promote global 
commerce and universal values we hold dear. But all too often, 
political posturing by states leads to political paralysis and 
inaction--sometimes with devastating consequences. If confirmed, I will 
push other governments to ensure these organizations can deliver on 
their promise.
    We need active and sustained diplomatic efforts at the 
International Atomic Energy Agency to maintain the integrity of the 
nuclear nonproliferation regime. We need to continue our active 
engagement at the Human Rights Council to hold regimes accountable for 
the violation of human rights. We need to continue the progress made to 
improve U.N. peacekeeping. We need to work with partners and 
institutions to shape the Post-2015 Development Agenda. And we need to 
continue to push U.N. humanitarian aid agencies to provide more 
flexible, timely, and coordinated responses to humanitarian 
emergencies. American leadership in these and other bodies of 
international cooperation is essential to achieving our broader policy 
objectives.
    Finally, just as the international landscape continues to evolve, 
so are international institutions. The United States should shape that 
evolution, working with allies and partners to define a shared vision 
of international norms and cooperation for this century.
    It is time for the U.N. system to do away with processes and 
preoccupations whose days have long past--especially the 
disproportionate and unjust attention paid to Israel. In the U.N. 
General Assembly, at the U.N. Human Rights Council, and elsewhere, 
Israel is subject to one-sided resolutions and politically motivated 
investigations. We cannot allow these counterproductive actions by 
member states to undermine the institutions themselves. If confirmed, I 
will fight bias against Israel whenever and wherever possible. At the 
same time, I will continue the administration's efforts to promote full 
and equal Israeli participation in international bodies and support its 
proactive and positive contributions to the U.N.
    All over the world, people's lives depend on the system of 
international organizations that the United States helped conceive and 
lead. In the Philippines, the U.N. is directing the global humanitarian 
response effort to Typhoon Haiyan. In the Democratic Republic of Congo, 
U.N. blue helmets helped secure the peace and rekindle the hopes of 
tens of millions in the Great Lakes region. And in schools, health 
clinics, and refugee camps all over the world, the U.N. is making sure 
that future generations will know a more peaceful and prosperous world.
    Mr. Chairman, we have a deep stake in shaping the continual renewal 
of the system of international cooperation and making sure it is as 
efficient and effective as possible. I look forward to working together 
with you and with this committee to sustain our leadership in 
international organizations and our promotion of U.S. foreign policy 
priorities.

    Senator Markey. Thank you so much.
    Our inability--Shakespeare said that the will is infinite, 
but the execution is confined. So, I would like to continue the 
hearing right now, but they have called a rollcall on the floor 
of the Senate. And so, I have 5 minutes to run over to make the 
rollcall, and I will return as quickly as possible, and then we 
will recommence this hearing.
    So, this hearing stands in recess.

[Recess.]

    Senator Barrasso [presiding]. Well, thank you so much for 
your patience in dealing with the floor votes. I just passed 
Senator Markey. He was on his way to the floor; I was on my way 
back here. He said that he had been through the opening 
statements and the comments, so he suggested I just go ahead, 
in the interest of your time.
    And so, if I could, I just wanted to congratulate all of 
you on the appointments, welcome each of you and family members 
who are here with you. I appreciate you taking time to be with 
us to answer the questions. And, should you serve our Nation in 
these important positions, it is important that each of you 
provide strong stewardship of American taxpayer resources, 
demonstrate professionalism and good judgment, and vigorously 
work to advance the priorities of the United States. I hope you 
will lay out your vision and goals in each of these positions, 
and what your plan is to achieving them.
    So, I thank the chairman, and I thank the President for 
nominating you.
    If I could, Ms. Crocker, start with you--oh, OK, sorry. 
Well, I wanted, perhaps, Mr.--I am happy to hear your 
testimony, at this point, Mr. Lawson. I do not--and I do not 
want to shortchange the chairman from hearing that testimony. 
So, you have already spoken?
    Ms. Crocker. I have already provided my opening statement, 
yes.
    Senator Barrasso. All right. So, perhaps if I could just 
ask you a few question, and then, as the chairman returns, 
finish, and then I will add my questions to that if I--thank 
you.
    I want to talk about Israel and U.N. Human Rights Council, 
the--in your testimony, you talked about the--Israel being 
subjected to one-sided resolutions, political investigations, 
and U.N. Human Rights Council. In September 2013, Senator 
Gillibrand and I sent a bipartisan letter to Secretary Kerry 
about the pervasive anti-Israel bias that we see at the United 
Nations. I think item 7 of the U.N. Human Rights Council's 
Standing Agenda is used to attack Israel. It is the only 
permanent agenda item that is exclusively reserved for an 
individual member state. While terrible atrocities are being 
committed in Syria, human rights abuses are taking place in 
Iran; the Council will be neglecting serious issues while, I 
believe, wasting hours singling out Israel.
    So, could you just talk a little bit about your views on 
agenda item No. 7, what steps you would take to accomplish its 
removal from the agenda?
    Ms. Crocker. Thank you, Senator, for that question. And, as 
you note and as I indicated, fighting for the full and equal 
participation of Israel throughout U.N. bodies will be one of 
my top priorities.
    As you note, Israel continues to be subject, among other 
things, to agenda item 7 at the Human Rights Council. And this 
is something that the administration has taken great steps so 
far to try to get rid of, and we will continue to do so, and I 
will, as well, should I be confirmed.
    At the same time, I think, over the last 4 years that the 
administration--that the United States has been a member of the 
Human Rights Council, we have been able to make some good 
progress in battling back against the bias against Israel at 
the Human Rights Council, but also, importantly, making sure 
that the Council turn its attention to other important issues, 
including a Commission of Inquiry that has been set up on Syria 
and that is collecting valuable evidence on Syria; a Special 
Rapporteur on the human rights situation in Iran; a Special 
Rapporteur on Belarus, on Eritrea, on Sudan; a Commission of 
Inquiry on Libya; and other issues. We have been able to run 
two resolutions successfully on the situation in Sri Lanka.
    So, while there still remains a disproportionate focus on 
Israel at the Council, we have really been able to reduce that 
focus. And I think it is one of the important--one of those 
signs that--of why it is so important for the United States to 
be an active and engaged member at the Human Rights Council.
    Senator Barrasso. Yes. During the confirmation hearing for 
Secretary Kerry, you know, I asked specifically about his views 
on the need for management reform at the United Nations. He 
stated--he said, ``In an era of fiscal crisis and austerity, 
the U.N. must learn to do more with less.''
    In your testimony, you expressed your commitment to 
safeguarding and maximizing U.S. taxpayers' investment. I made 
a reference to that in my opening statement. Could you talk a 
little bit about your plans to ensure the United Nations limits 
growth in U.N. regular budget and is making more efficient use 
of existing resources?
    Ms. Crocker. As you know, Senator, that has been a special 
focus of the administration. And, if confirmed, I will 
certainly do my part to try to continue that focus.
    We have been able to make some good progress over the last 
5 years, in terms of management reform, including budget reform 
at the United Nations; and including, most recently, in the 
budget discussions about the 2014-2015 budget, we were able to 
successfully reverse the decades-long trend of annual growth in 
the U.N. regular budget.
    That said, it remains a continuing conversation, and it is 
a difficult one up there. Among other things that we were able 
to accomplish this time around was a 2-percent staff reduction, 
which is obviously an important accomplishment. It is not 
enough, but it is a start.
    At the same time, we have been able to make good progress 
on other important management reforms, such as financial 
disclosure requirements, audits being publicly available online 
for most of the U.N. funds in specialized agencies. We have 
clamped down on some of the abuses in the travel budget of the 
U.N., including overuse and misuse of business-class travel by 
U.N. staff. We have remained focused, and, if confirmed, I will 
be particularly focused on, on trying to constrain the growth 
in the budget. And a lot of that will be a focus on 
constraining the growth in staff costs, which, as I indicated, 
we have had some success on so far, but more work remains to be 
done.
    Senator Barrasso. Agreed.
    Mr. Lawson, just waiting for the chairman to return, I just 
have a couple of questions, if it is all right with you if I 
could proceed----
    Mr. Lawson. Yes.
    Senator Barrasso [continuing]. With those.
    I want to ask you a little about carbon trading. The 
European Union established, in a missions trading scheme that 
applies to all flights arriving and departing from European 
Union airspace. In September 2012, the Senate unanimously 
passed S. 1956, the European Union Emissions Trading Scheme 
Prohibition Act, at that time. It was signed into law by the 
President, November 2012. The law provides the Secretary of 
Transportation the authority to ensure that U.S. aircraft 
operators are not penalized, or are not harmed, by the 
Emissions Trading Scheme unilaterally created by the European 
Union.
    Can I--I just--what you believe is the appropriate role for 
the International Civil Aviation Organization to play on the 
issue of dealing with this, reducing emissions in the aviation 
sector.
    Mr. Lawson. Well, thank you for that question.
    ICAO is at the center of this issue right now. In the last 
Assembly, September 2013, we successfully--and we worked very 
hard to help this happen, but they--the Assembly passed a 
resolution that established a framework for ICAO to put 
together a comprehensive scheme for dealing with emissions 
trading worldwide. The goal is to have a complete scheme put 
together--not scheme, rather, but program put together for the 
2016 Assembly, that is coming up, that would include dealing 
with, not only a market-based measure worldwide, a global 
market-based measure, but also dealing with issues such as 
alternative fuels, dealing with operation efficiencies, and 
other matters that will reduce the amount of emissions 
generated by the aviation industry. The goal is to have this 
approved in 2016, in place for 2020, and to work with respect 
to 2005 levels, if at all possible.
    The framework--the procedural framework for doing that is 
in place--is not in place now, but is in the process of being 
put together. And so, if I am confirmed, I will work diligently 
to make sure that--to help us meet that goal. And it is a very 
aggressive goal, especially for an organization with 191 
members, 36 member councils that are going to be working very 
hard to make that happen.
    So, yes, ICAO is in the--is right in the center of that. If 
we are successful, it will be a tremendous accomplishment to 
have a global market-based measure--structure that the entire 
aviation industry will abide by. And, in the meantime, the 
issue with respect to the EUETS is that we are--the resolution 
that was passed did not prohibit organizations like the EU from 
setting up some sort of regional or national market-based 
system, but we are concerned about exactly what the Europeans 
are trying to put together right now.
    It is unclear as to what exactly is going to come out of 
the legislative activities. The Commission has proposed an air-
based system. There is not unanimity among the Council and 
Parliament and the Commission as to what exactly should be 
done. We are doing what we can to engage in our--with our 
counterparts in Europe to, hopefully, come up with something 
that does not create a distraction to what ICAO is trying to 
do. And we will sees what happens.
    If they do not come up with legislation, unfortunately what 
would happen in April 2014 is that the current stop-the-clock 
legislation would expire and the legislation that the EU had 
passed some years ago that would have imposed an ETS--Emissions 
Trading Scheme--on the totality of flights going in and out of 
Europe would come into play. And that is the type of 
legislation that the Thune bill, that you mentioned, was 
designed to give us the ability to protect our airlines 
against. We do not know whether that is going to happen. We 
hope that it does not happen. As a matter of fact, there is 
optimism that that will not happen. But, ICAO is in the center 
of that, and, if I am confirmed, I will work diligently to make 
sure that we get that done.
    Senator Barrasso. Thank you, Mr. Lawson.
    Thank you, Mr. Chairman.
    Senator Markey [presiding]. Thank the gentleman very much.
    And, Mr. Lawson, I am now going to recognize you for an 
opening statement, although, for the purposes of your opening 
statement, you should feel free to delete anything that was 
just used as material in response to Senator Barrasso's 
questions. [Laughter.]
    And that way we can save some time. So, please go forward 
for up to 5 minutes.

 STATEMENT OF MICHAEL ANDERSON LAWSON, OF CALIFORNIA, NOMINEE 
  FOR THE RANK OF AMBASSADOR DURING HIS TENURE OF SERVICE AS 
  REPRESENTATIVE ON THE COUNCIL OF THE INTERNATIONAL CIVILIAN 
                     AVIATION ORGANIZATION

    Mr. Lawson. Well, thank you.
    Much of my opening statement, actually you gave. 
[Laughter.]
    Senator Barrasso. Feel free to delete that, too. 
[Laughter.]
    Mr. Lawson. But, I do want to take a few minutes to welcome 
members of my family who are here: Kisha and John Lewis, Marcus 
Mason, and my wife of 34 years, Mattie McFadden Lawson. My sons 
could not make it, but I am told that they are watching.
    But, thank you for the opportunity to appear before you 
today as President Obama's nominee to be the Representative of 
the United States at the International Civil Aviation 
Organization. I am honored to be here and am grateful to 
President Obama for the trust and confidence he has shown in 
nominating me for this important position, and for the 
opportunity to serve my country as a Permanent Representative 
to ICAO.
    From the time of the negotiations in the United States at 
the end of World War II that resulted in the Chicago Convention 
and the creation of ICAO as a specialized agency of the United 
Nations devoted to civil aviation, the United States and ICAO 
have enjoyed an extraordinarily close and mutually beneficial 
relationship. ICAO is the only forum in which global standards 
can be set for all aspects of international civil aviation. 
Whatever the new developments or challenges in the areas of 
civil aviation--safety, security, and the environment--ICAO 
provides the mechanisms and the opportunity to address them 
effectively through the cooperation of member states.
    If confirmed, I will bring the cumulative skills and the 
totality of my professional experience to this role. And, as 
suggested, I will skip the part of my resume that you effective 
described.
    As a direct result of my experiences on the Board of 
Commissioners--Board of Airport Commissioners for Los Angeles, 
I am keenly aware of the many challenges associated with 
ensuring the safety and security of airline passengers. For 
this reason, I am proud to have been actively involved in the 
selection of the excellent team providing on-the-ground 
leadership at LAX, including executive director Gina Marie 
Lindsay and the current chief of Airport Police Department, 
Chief Patrick Cannon. That team was tested on November 1, 2013, 
when a gunman entered Terminal 3 of LAX, with the apparent 
intent of attacking and killing TSA employees. While I have no 
official insights into the tragic events of that day, it is 
clear to me that the exceptional professionalism and 
integration I saw among the various Federal and local law 
enforcement agencies that are present at LAX saved many lives.
    Senator Markey and members of the committee, if confirmed, 
I believe that the experience I have gained as a member and 
president of the Board of Commissioners, as well as the skills 
accrued over three decades in the legal profession, will prove 
relevant and valuable in representing the United States as 
Permanent Representative to ICAO.
    Throughout its history, ICAO has principally devoted its 
attention to activities involving air safety and air navigation 
issues. The recent events at LAX only underscore that aviation 
security is an unceasing task. If confirmed, I will work 
diligently to advance America's priorities at ICAO and ensure 
that ICAO continues to play an active and leading role in 
developing and implementing international aviation security 
standards.
    My experience has also made me keenly aware of the 
environmental impact of air travel. ICAO has already undertaken 
a great deal of work in this regard. Technical groups are 
developing noise and efficiency standards for aircraft and are 
beginning to work on the development of a global-market-based 
measure for international aviation CO2 emissions.
    If confirmed, I will also be committed to bringing 
continued attention to good governance and increased efficiency 
at ICAO. I will actively pursue the U.S. Government's goals 
with respect to budget discipline, transparency, and 
accountability in all areas, including ethics rules, fair 
procurement practices, financial disclosure for senior 
officials, and whistleblower protection.
    The agenda of the United States and ICAO is extensive and 
vitally important. If confirmed, I look forward to working 
closely with this committee to advance our Nation's interests.
    And thank you for the opportunity to appear before you 
today. I look forward to any questions you may have.
    [The prepared statement of Mr. Lawson follows:]

                  Prepared Statement Michael A. Lawson

    Mr. Chairman and members of the committee, thank you for the 
opportunity to appear before you today as President Obama's nominee to 
be the Representative of the United States to the International Civil 
Aviation Organization (ICAO). I am honored to be here and am grateful 
to President Obama for the trust and confidence he has shown in 
nominating me for this important position and for the opportunity to 
serve my country at ICAO.
    From the time of the negotiations in the United States at the end 
of World War II that resulted in the Chicago Convention and the 
creation of ICAO as the specialized agency of the United Nations 
devoted to civil aviation, the United States and ICAO have enjoyed an 
extraordinarily close and mutually beneficial relationship. ICAO is the 
only forum in which global standards can be set for all aspects of 
international civil aviation. Whatever the new developments or 
challenges in the areas of civil aviation safety, security, and the 
environment, ICAO provides the mechanisms and the opportunity to 
address them effectively through the cooperation of member states.
    If confirmed, I will bring the cumulative skills and totality of my 
professional experiences to this role. I have spent the majority of my 
professional career as a transactional attorney at the international 
law firm of Skadden, Arps, Slate Meagher & Flom LLP where I served for 
31 years.
    In addition to that experience, I have served since 2005 on the 
seven-member Board of Airport Commissioners of the Los Angeles World 
Airports, which oversees the operations of Los Angeles International 
Airport, Van Nuys General Aviation Airport; Ontario International 
Airport; and Palmdale Airport. In December 2010, I was asked to serve 
as the President of the Board, a position in which I remained until 
August 2013.
    The Board of Airport Commissioners is responsible for promoting the 
safety and security of the more than 60 million passengers who travel 
through its airports on an annual basis. Those responsibilities extend 
to the efficient and effective day-to-day operations of the airports, 
including environmental sustainability issues.
    I am proud to say that during my tenure on the Board, we initiated 
the largest public works project in the history of the city of Los 
Angeles--a $6 billion capital improvement program designed to return 
LAX to a world class status worthy of the third-busiest airport in the 
country and the sixth-busiest airport in the world. Those improvements 
include a new international terminal, 19 new gates, and upgrades 
designed to accommodate the next generation of large passenger 
aircraft. Given the program's enormous and complex scale, I take 
particular pride in highlighting the responsible, efficient, and 
transparent manner in which it has been managed.
    As a direct result of my experiences on the Board of Commissioners, 
I am keenly aware of the many challenges associated with ensuring the 
safety and security of airline passengers. For this reason, I am proud 
to have been actively involved in the selection of the excellent team 
providing on the ground leadership, including executive director, Ms. 
Gina Marie Lindsay and the current chief of the airport police 
department, Chief Patrick Gannon. That team was tested on November 1 
when a gunman entered Terminal 3 of LAX with the apparent intent of 
attacking and killing TSA employees. While I have no formal insights 
into the tragic events of that day, it is clear to me that the 
exceptional professionalism and integration I saw among the various 
federal and law enforcement agencies that are present at LAX saved many 
lives.
    Mr. Chairman and members of the committee, if confirmed, I believe 
the experience I have gained as a member and president of the Board of 
Commissioners as well as the skills accrued over three decades in the 
legal profession will prove relevant and valuable in representing the 
United States as the permanent representative to ICAO.
    Throughout its history, ICAO has principally devoted its attention 
to activities involving air safety and air navigation issues. The 
recent events at LAX only underscore that aviation security is an 
unceasing task. If confirmed, I will work diligently to advance 
America's priorities at ICAO, and ensure that ICAO continues to play an 
active and leading role in developing and implementing international 
aviation security standards.
    My experience has also made me keenly aware of the environmental 
impact of air travel. ICAO is already undertaking a great deal of work 
in this regard. Technical groups are developing noise and efficiency 
standards for aircraft, and are beginning work on the development of a 
global market-based measure for international aviation CO2 emissions. 
If confirmed, I will continue my predecessor's focus on ensuring that 
ICAO's environmental standards are technologically feasible, 
environmentally beneficial, and economically sustainable with continued 
expansion of international aviation.
    If confirmed, I am also committed to bringing continued attention 
to good governance and increased efficiency at ICAO. I will actively 
pursue the U.S. Government's goals with regard to budget discipline, 
transparency, and accountability in all areas, including ethics rules, 
fair procurement practices, financial disclosure for senior officials, 
and whistleblower protection.
    The agenda of the United States in ICAO is extensive and vitally 
important. If confirmed, I look forward to working closely with this 
committee to advance our Nation's interests.
    Thank you for the opportunity to appear before you today. I look 
forward to any questions you may have.

    Senator Markey. Thank you, Mr. Lawson--in 3 minutes and 50 
seconds. Excellent.
    Mr. Wood, welcome. Whenever you feel comfortable, please 
begin.

STATEMENT OF ROBERT A. WOOD, OF NEW YORK, NOMINEE FOR THE RANK 
      OF AMBASSADOR DURING HIS TENURE OF SERVICE AS U.S. 
        REPRESENTATIVE TO THE CONFERENCE ON DISARMAMENT

    Mr. Wood. Thank you, Mr. Chairman and members of the 
committee.
    It is a great honor to appear before you as the President's 
nominee to be the U.S. Representative to the Conference on 
Disarmament, or CD, in Geneva. I am also grateful to Secretary 
Kerry and Acting Under Secretary Gottemoeller for their support 
and for giving me this new opportunity to serve our country.
    I also wish to thank my wife, Gita, and son, Jonathan, for 
their love and support.
    Five years ago in Prague, President Obama committed the 
United States to seek the peace and security of a world without 
nuclear weapons, a goal he reaffirmed last June in Berlin. The 
President emphasized that achieving this goal will not be easy 
and may well take many more years of effort. Step by step, 
practical multilateral arms control is an essential part of 
this process in which the CD has a valuable role to play.
    Throughout its history, the CD and its predecessor bodies 
have made significant contributions to global arms control and 
nonproliferation efforts. The Outer Space Treaty, the Nuclear 
Non-Proliferation Treaty, the Biological Weapons Convention, 
the Chemical Weapons Convention, and the Comprehensive Nuclear 
Test Ban Treaty all were negotiated there on the basis of 
consensus and with the benefit of American leadership.
    The U.S. priority for the CD continues to be the 
negotiation of a treaty banning the further production of 
fissile material for use in nuclear weapons or other nuclear 
explosive devices, the so-called Fissile Material Cutoff 
Treaty, or FMCT. An FMCT is in the national security interests 
of the United States because it would end the production of 
weapons-grade fissile material needed to create nuclear weapons 
in the states where it is still ongoing with capped stockpiles 
worldwide and provide the basis for future reductions in 
nuclear arsenals. For these reasons, an FMCT is one of the 
President's arms-control priorities and the logical next step 
in the multilateral nuclear disarmament process.
    While fellow CD member state Pakistan has resisted efforts 
to begin FMCT negotiations, the United States continues to 
discuss with Pakistan and others possible ways to break the 
longstanding CD impasse. Moving forward on an FMCT will not be 
easy, but, if confirmed, I look forward to using my many years 
of multilateral diplomatic experience to achieve this important 
U.S. objective.
    As part of my disarmament portfolio, if confirmed, I will 
also play a role in the Nuclear Non-Proliferation Treaty, or 
NPT, review process. Specifically, I will have responsibility 
for issues related to the NPT's article 6, which addresses 
nuclear disarmament.
    This spring, a preparatory meeting will set the stage for 
the NPT's next 5-year review conference, in 2015. If confirmed 
by the time of this meeting, I will remind our partners and 
friends around the world of the enduring United States 
commitment to our arms control and nonproliferation 
obligations, and explain our strong record of accomplishment in 
this regard. I will also make clear that the road to a nuclear-
weapons-free world is only possible through a realistic, step-
by-step approach, with each step building on the last and 
supported with strong verification measures.
    This distinguished committee has a long and successful 
history of supporting such arms-control efforts, on a 
bipartisan basis, which has made the world a much safer place.
    In working to achieve this long-term nuclear disarmament 
objective, the CD remains an essential multilateral 
institution. If confirmed, I will do all that I can to make the 
CD an active contributor to international peace and security.
    If confirmed, I plan to consult closely with this committee 
and other Members of Congress, as well as their staffs.
    Thank you so much for the opportunity to come before you 
today. I look forward to any questions you may have.
    Thank you.
    [The prepared statement of Mr. Wood follows:]

                  Prepared Statement of Robert A. Wood

    Mr. Chairman and members of the committee. It is a great honor to 
appear before you as the President's nominee to be the U.S. 
Representative to the Conference on Disarmament, or CD, in Geneva.
    I am also grateful to Secretary Kerry and Acting Under Secretary 
Gottemoeller for their support and for giving me this new opportunity 
to serve our country. I also wish to thank my wife, Gita, and son, 
Jonathan, for their love and support.
    Five years ago in Prague, President Obama committed the United 
States to seek the peace and security of a world without nuclear 
weapons, a goal he reaffirmed last June in Berlin.
    The President emphasized that achieving this goal will not be easy 
and may well take many more years of effort. Step by step, practical 
multilateral arms control is an essential part of this process, in 
which the CD has a valuable role to play.
    Throughout its history, the CD and its predecessor bodies have made 
significant contributions to global arms control and nonproliferation 
efforts. The Outer Space Treaty, the Nuclear Non-Proliferation Treaty, 
the Biological Weapons Convention, the Chemical Weapons Convention, and 
the Comprehensive Nuclear-Test-Ban Treaty all were negotiated there, on 
the basis of consensus, and with the benefit of American leadership.
    The U.S. priority for the CD continues to be the negotiation of a 
treaty banning the further production of fissile material for use in 
nuclear weapons or other nuclear explosive devices, the so-called 
Fissile Material Cutoff Treaty or FMCT.
    An FMCT is in the national security interests of the United States 
because it would end the production of weapons-grade fissile material 
needed to create nuclear weapons in the states where it is still 
ongoing, cap stockpiles worldwide, and provide the basis for future 
reductions in nuclear arsenals. For these reasons, an FMCT is one of 
the President's arms control priorities and the logical next step in 
the multilateral nuclear disarmament process.
    While fellow CD member state Pakistan has resisted efforts to begin 
FMCT negotiations, the United States continues to discuss with Pakistan 
and others possible ways to break the longstanding CD impasse.
    Moving forward on an FMCT will not be easy, but if confirmed, I 
look forward to using my many years of multilateral diplomatic 
experience to achieve this important U.S. objective.
    As part of my disarmament portfolio if confirmed, I will also play 
a role in the Nuclear Non-Proliferation Treaty, or NPT, review process. 
Specifically, I will have responsibility for issues related to the 
NPT's Article VI, which addresses nuclear disarmament.
    This spring, a preparatory meeting will set the stage for the NPT's 
next 5 year Review Conference in 2015. If confirmed by the time of this 
meeting, I will remind our partners and friends around the world of the 
enduring United States commitment to our arms control and 
nonproliferation obligations, and explain our strong record of 
accomplishment in this regard. I will also make clear that the road to 
a nuclear weapons-free world is only possible through a realistic, 
step-by-step approach, with each step building on the last and 
supported with strong verification measures. This distinguished 
committee has a long and successful history of supporting such arms 
control efforts on a bipartisan basis, which has made the world a safer 
place.
    In working to achieve this long-term nuclear disarmament objective, 
the CD remains an essential multilateral institution. If confirmed, I 
will do all that I can to make the CD an active contributor to 
international peace and security.
    If confirmed, I plan to consult closely with this committee and 
other members of Congress, as well as their staffs.
    Thank you so much for the opportunity to come before you today. I 
look forward to any questions you may have.

    Senator Markey. Thank you, Mr. Wood, very much.
    Senator Barrasso.
    Senator Barrasso. Well, thank you, Mr. Chairman.
    I will finish up.
    Mr. Lawson, I would like to visit just a little about 
Taiwan. June of last year, the House and the Senate unanimously 
passed a bill to require the development of a strategy to 
obtain observer status, as you know, for Taiwan at the 
Triennial International Civil Aviation Organization Assembly. 
It was signed. And then, in October, this past October, Taiwan 
attended the 38th Assembly meeting as a guest. This was welcome 
news, but, again, Taiwan was only invited as a guest, and only 
for that specific meeting.
    So, I would ask if you support Taiwan joining the 
International Civil Aviation Organization Assembly and Council 
as an observer, and, if so, what is your strategy to obtain 
that status?
    Mr. Lawson. Thank you for that question. The answer is 
``yes,'' we are absolutely committed to taking whatever steps, 
within my power, to achieve that goal.
    By way of background, it is United States policy to support 
membership status in any organization in which Taiwan--in which 
statehood is not a prerequisite, and to support meaningful 
participation in any organization in which statehood is a 
prerequisite.
    Statehood is a prerequisite at the U.N., and ICAO is an 
agency of the U.N. Taiwan does not have observer status at the 
U.N. Assembly. It can have observer status at the Council. 
Because of some arcane--``arcane'' is probably not the right 
word--because of some rule, issues with respect to the 
Assembly, it may be difficult for Taiwan to obtain observer 
status at the Assembly. I believe that it is possible for 
Taiwan to obtain observer status at the Council level. But, in 
each case, it depends on the consensus of the Council and the 
Assembly. The reason they only got--they were--only would get 
guest status was an issue with respect to the consensus. We 
will work diligently to counter that and make sure that they 
get observer status.
    It is very important--Taiwan's participation in the global 
airspace is highly important, and it is important that they get 
access to the information that the typical committees and 
bureaus at ICAO have available, on a timely basis.
    So, yes, a short answer, we will do all that we can to 
ensure that they get that.
    Senator Barrasso. All right. And that will include asking 
other nations to cooperate and support and----
    Mr. Lawson. Absolutely.
    Senator Barrasso. Thank you. Thank you, Mr. Lawson.
    Mr. Wood, just a couple of quick questions. Fissile 
Material Cutoff Treaty. In your written testimony, you 
testified that the treaty is in the national security interest 
of the United States. And I am just going to ask you how you--
how will this treaty prevent countries, like North Korea, from 
producing more weapons-grade fissile material?
    Mr. Wood. Thank you for your question, Senator.
    This treaty, if we are able to reach a Fissile Material 
Cutoff Treaty, would halt the production of this very sensitive 
technology. And we think that is very important and in the 
national security interests of not only the United States, but 
other countries around the world. It is the first step, and it 
is the next logical step, frankly, in the Conference on 
Disarmament, in terms of our nonproliferation and arms control 
and disarmament objectives.
    So, we do think that this treaty will be very useful, in 
terms of meeting our national security interests. We hope to be 
able to get these negotiations going, but, as I mentioned in my 
statement, Pakistan has opposed starting negotiations in the 
CD. We hope to be able to try to persuade Pakistan to change 
its view. And, if confirmed, that will be one of my priority 
missions when I am in Geneva, because we think, again, as I 
said, that this treaty is in the best interests of the--the 
national interests of the United States, and it is the next 
logical step in moving forward.
    Senator Barrasso. I know you briefly mentioned President 
Obama's speech in Prague, I think in 2009, in your--at the 
time, he promised to get rid of the world--rid the world of 
nuclear weapons. During his remarks, the President also 
proclaimed, he said, ``Rules must be binding, violations must 
be punished, words must mean something.'' And I--as you nod 
your head, I assume you are in agreement with that, as we are.
    So, given the New York Times article last week that 
documented Russia's clear violation of its arms-control 
obligations under the Intermediate-Range Nuclear Forces Treaty, 
why would we continue to negotiate nuclear arms reductions with 
Russia if we agree with the President's statement that the 
rules must be binding and arms-control treaty violations must 
be punished? I mean, it was a, you know, distressing, I think, 
news for many, the report last week.
    Mr. Wood. Thank you for this question.
    The issue of the INF Treaty is something that is not in my 
portfolio, but let me just say that issues of compliance, or 
noncompliance, are something that the United States Government 
takes very, very seriously. And it is important to have, you 
know, that trust and ability to be able to know that, when you 
enter into an agreement, that it is going to be abided by.
    But, you know, with regard to specific questions of 
compliance, I would have to refer for--you to the Annual 
Compliance Report that the Department compiles.
    Senator Barrasso. Thank you, Mr. Chairman.
    Senator Markey. The Chair will recognize himself.
    Mr. Lawson, last year, I led a bipartisan effort in 
Congress to prevent the TSA from allowing passengers to carry 
knives onto airplanes. The TSA had proposed a plan to allow 
knives back on passenger planes in the United States. And that 
legislation passed on the floor of the House of 
Representatives, but the TSA decided they changed their mind on 
that issue. And I think they made the wise decision.
    The TSA has proposed a plan, in part to harmonize, now, 
U.S. standards with that of Europe, which has a more lenient 
carry-on security standard. Are you committed to ensuring that 
the U.S. maintains its tougher security and that all planes 
traveling to American soil from abroad abide by our higher 
standards? And we can use knives on planes as a good example.
    Mr. Lawson. Thank you for that question.
    The short answer is, ``yes,'' I am in favor of the more 
stringent standard.
    Just to be clear, by way of background, ICAO, as a body, 
sets minimum standards for safety and security worldwide. 
Countries such as the United States can set standards that 
exceed the minimum standards that ICAO sets. And so, the United 
States is still free to impose the no-small-knives standard on 
flights departing from, or entering into, the United States, 
and should continue to do so.
    I understand the theoretical benefit of harmonizing the 
standards worldwide. It makes--there are some efficiencies 
involved in that. There are some issues that cannot be denied 
in this context, and one of them is that one of the aspects of 
safety and security is the perception of the passengers. And I 
believe that the United States citizens are still kind of 
reeling from 9/11, and one of the issues that we have to 
consider is their perception of their own safety during this 
period of time. So, I have no problem with the United States 
continuing with a higher standard.
    Whether we should impose that higher standard on flights 
that are not coming into the United States or leaving the 
United States, I defer on that question. I am not sure that 
there is a U.S. interest in doing so, other than, again, to 
harmonize and make it more efficient worldwide. But, our goal 
is to protect U.S. citizens, wherever they are. And so, it is 
one issue that I will look into, and I will give further 
thought to it.
    Senator Markey. Please. Thank you.
    The United States--you do agree, though, that the United 
States does have the authority to impose safety, security, and 
environmental requirements in U.S. airspace. Is that correct?
    Mr. Lawson. Absolutely, the United States has the authority 
to so----
    Senator Markey. And----
    Mr. Lawson [continuing]. With one caveat with respect to 
environmental issues. Under the--we have the--it is kind of a 
three-part question--we have the absolute authority to so, 
under domestic law, but we are also--under the Chicago 
Convention, we are bound to uphold the standards set by ICAO. 
And, in this regard, it is important to note that the standards 
that are set by ICAO oftentimes give us a leeway to set more 
stringent standards.
    Senator Markey. OK. So, responding to concerns from the 
United States and other countries about exerting authority 
beyond European airspace, the European Union is now proposing 
to include only aviation emissions from portions of flights 
within their airspace within the EU Emissions Trading Scheme. 
This has not satisfied all the critics of the EU's pollution 
reduction efforts. Even as ICAO works towards a global climate 
solution for aviation, if the United States were to support new 
efforts to limit the EU's authority over their own airspace, 
would we not put at risk our authority over our own airspace?
    Mr. Lawson. Not at all. The issue here is, in part, the 
interpretation of the resolution that was passed in September 
2013 by the Assembly. That resolution does not prohibit 
national or regional-based--market-based measures established 
by any particular country. But, the resolution does say that 
each country--or each region that does this should negotiate 
or--with the other countries that may be impacted by their 
market-based measures, to get agreement. It does not say 
``shall,'' it says ``should.''
    And so, the resolution itself does not, in and of itself, 
prevent the EU from establishing an airspace standard. On the 
other hand, establishing that airspace standard will act as a 
distraction from what the--what ICAO is bound to do, has, under 
this resolution, said that it will do by 2016.
    And the resolution also does not--so, it does not--the 
resolution does not endorse the airspace structure that the 
Commission has proposed. And, by the way, this is not--as you 
say, there are some factions that do not think they are going 
far enough, some factions in the EU that think that they are 
going too far. So, the ultimate resolution is not quite set 
just yet. But, the fact of the matter is that the way the 
resolution is drafted, we--by diplomatically and politically 
trying to get the EU to pull back from its airspace position--
does not preclude us, and does not preclude anyone, from moving 
forward, because the resolution does not mandate that these 
things not happen.
    Senator Markey. OK, great, thank you.
    My time is expired. Any other questions?
    Senator Barrasso.
    Senator Barrasso. Yea, thank you, Mr. Chairman.
    Ms. Crocker, the testimony you stated we need to continue 
our active engagement at the U.N. Human Rights Council to hold 
regimes accountable for violation of human rights. Over the 
years, the Council has lacked some action on a number of 
serious human rights crises, and disproportionally criticized 
Israel. The U.N. General Assembly has recently elected China, 
Cuba, and Russia to be new Council members in November.
    In response to--Ambassador Power stated, ``Fourteen 
countries were elected to the Human Rights Council today, 
including some that commit significant violations of the rights 
the Council is designated to advance and protect.''
    In your opinion, does the election of these countries hurt 
the credibility of the Council? And please identify, perhaps, 
some examples of how the U.N. Human Rights Council has held 
regimes accountable for violations against human rights.
    Ms. Crocker. Thank you for that question, Senator.
    The administration was obviously disappointed with the 
reelection of these members to the Council last November, with 
good reason. The United States has fought to ensure that 
countries with stellar human rights records, or at least good 
human rights records, get elected to membership on the Council, 
and not otherwise.
    That having been said, again, this is an example of why it 
is so important for the United States to be engaged as an 
active member on the Council, because we have dealt with these 
countries being on the Council before. They were on the Council 
when we joined, in 2009. And, in fact, we have shown that, by 
virtue of our being an active participant, we have been able to 
battle back against some of the influence of these countries.
    So, as an example, when Cuba was last on the Council, they 
fought hard against a lot of the things that the United States 
wanted to put in place. And they lost. We were able to get some 
of the things that I referenced earlier--the Commission of 
Inquiry on Syria, the Special Rapporteur on Human Rights in 
Iran, the Special Rapporteurs on Belarus, on Eritrea, on Sudan, 
the Commission of Inquiry on Libya, the creation, for the first 
time in 17 years, of a Special Rapporteur on a functional 
issue, which is on freedom of assembly and the importance of 
civil society organizations. All of these things were things 
that Cuba tried to defeat, and they were not able to defeat, by 
virtue of the United States successfully working, 
diplomatically, actively across regional groupings in the 
Council. And we fully expect that, going forward, we will 
similarly be able to limit the influence of these countries.
    We also work hard behind the scenes to ensure that the 
countries with the worst human rights records hopefully do not 
get elected onto the Council. And we were able, for example, 
last time around, to just persuade Iran not to run in its bid 
for membership on the Council.
    Senator Barrasso. Thanks.
    Mr. Wood, kind of following--you mentioned Iran. I would 
visit a question there. And I think you said you have a role in 
the Nuclear Non-Proliferation Treaty review process in your--it 
raises a question for me about the issues of Iran as a party to 
the Nuclear Non-Proliferation Treaty. The interim deal related 
to Iran's nuclear program seems to have conceded a very major 
point, in that it references a future uranium enrichment 
program in Iran. So, does Iran really have a right to uranium 
enrichment or plutonium reprocessing technology, in your 
opinion, under the Nuclear Non-Proliferation Treaty, 
specifically, or the nonproliferation regime, you know, just in 
general?
    Mr. Wood. Thank you for the question, Senator.
    I know that Under Secretary Sherman was before the 
committee earlier today, and I know she addressed that issue. 
But, let me just say, with regard to the question of the right 
to enrich, the right to enrich is not explicitly--not stated 
explicitly in the NPT.
    Senator Barrasso. And your opinion on that?
    Mr. Wood. Having read the NPT document, I would agree with 
that, sir.
    Senator Barrasso. All right. Thank you.
    Thank you, Mr. Chairman.
    Senator Markey. Thank you.
    Mr. Wood, I have been a longtime advocate for the policy 
goals of the Fissile Material Cutoff Treaty, and I am glad that 
you mentioned this treaty will be a priority for you. I also 
believe the best way to achieve this goal is to stop the spread 
of the dangerous technologies that can create fissile material.
    Do you agree that stopping the spread of enrichment and 
reprocessing technology would help the goals of that treaty?
    Mr. Wood. Thank you for your question, Senator.
    The United States, as you know, has a longstanding policy 
of trying to prevent the proliferation of these sensitive 
technologies; specifically, enrichment and reprocessing 
technologies. I would just point out that, when the U.S. 
engages in bilateral negotiations with countries concerning 
civil cooperation agreements, we insist that these agreements, 
without question, have the most stringent nonproliferation 
conditions that are possible. And, in fact, I would submit that 
the United States, in terms of our civil nuclear cooperation 
agreements with other countries, have the most stringent, in 
terms of nonproliferation conditions, of any country.
    Senator Markey. Well, hopefully, that will turn out to be 
the case in the Iranian negotiations we are about to have, 
because I think it is going to send quite a signal, going 
forward. And, as you know, unfortunately, in the United Arab 
Emirate agreement for the transfer of nuclear technology, there 
is an ability, in the UAE, to enrich uranium as part of the 
agreement. So, I think that is a problem that we are going to 
have, going forward.
    But, at the end of the day, uniformity, consistency, that 
is what we are going to have to have on nuclear 
nonproliferation policy if we are going to be successful.
    So, again, I think all three of you are eminently well 
qualified for your position. Let me ask each of you to give us 
one minute, in summary, of what it is that you hope to 
accomplish--one minute--during the time that you will have this 
incredible privilege to represent our country in the positions 
that you will be confirmed for.
    So, we will begin with you, Mr. Wood, and we will come down 
the table.
    Mr. Wood. Thank you, Mr. Chairman.
    One of my primary objectives, if confirmed in my job at the 
CD, is to revive it. It has been 17 years since a treaty has 
been negotiated at the CD in Geneva. And, as I said in my 
statement to the committee, that the issue of a Fissile 
Material Cutoff Treaty is the priority for me, you know, if 
confirmed.
    The CD has a lot of potential. As I mentioned also in my 
statement, there have been a number of agreements, significant 
agreements, that have been negotiated there, and I think we can 
still do very, very important work there. And what I hope to 
do, as I said, is to try to revitalize that institution, 
because it does have a very important role to play in--you 
know, for U.S. national security interests.
    Thank you.
    Senator Markey. Mr. Lawson.
    Mr. Lawson. Thank you.
    I think that the one thing that--well, there are two things 
that I think are highest on my agenda.
    The first is getting the market-based measure and the 
environmental issues on the table and ready for approval by the 
Assembly in 2016. That is job one. It is not going to be easy, 
and it is going to take all of our efforts to get that done in 
the period of time that we have allotted to do it. It is a 
tremendous task, it is an important task, and that is going to 
be job one.
    Job number two will be making sure that I do my part to 
deal with management issues at ICAO, and make sure that they 
are fiscally responsible for--with the monies that the 
taxpayers are putting into this organization.
    Senator Markey. Thank you.
    Ms. Crocker.
    Ms. Crocker. Thank you, Mr. Chairman.
    I have a few priorities that I will list, and they all lead 
up to sort of one thing, which I will mention briefly at the 
end.
    The first would be budget and general management reform 
issues at the United Nations. These are things that have been a 
major priority for the administration, and that, if confirmed, 
I will continue to push on. I have worked inside the U.N. 
system; I have seen the great things about it, and I have seen 
what needs to be fixed; and I am committed to continuing to 
work on that.
    The second, as I also mentioned in my testimony, will be 
the defense and the promotion and support of Israel throughout 
the U.N. system.
    I also want to take a hard look at what we are doing on the 
peacekeeping front, and ensure that we are making the best uses 
we can out of that tool, which is increasingly important for 
U.S. national security interests around the world.
    I want to keep up an active dialogue with this committee on 
all issues related to the U.N. and the issues that will fall 
under my purview, and I look forward to an active conversation 
on that.
    And, most importantly, I want to make sure that the United 
States and the administration are continuing to use the full 
gamut of U.N. organizations, agencies, funds, and programs to 
the best effect that we can to promote and defend U.S. 
interests and U.S. foreign--U.S. national security interests 
around the world.
    Thank you.
    Senator Markey. Thank you, Ms. Corker. And thank you for 
mentioning Israel specifically, as well.
    We want to thank each of you for your testimony, your 
willingness to serve our country. I am proud to support all of 
your nominations. I hope we can quickly confirm all three of 
these extremely well-qualified individuals.
    As amazing as our troops are, they cannot go everywhere or 
respond to every crisis in the world, they cannot defend us 
against a warming climate or the worsening natural disasters 
that will result if the world fails to act. They cannot force 
other countries to dismantle and ultimately abolish nuclear 
weapons. The State Department plays a crucial role in defending 
and advancing the interests of our country. And Secretary Kerry 
needs his team in place to do his job, as well.
    I ask unanimous consent that the witnesses' full statements 
be included in the record.
    Members of the committee will have until the close of 
business Wednesday, February 5, to submit questions for the 
record, with the request to the witnesses that they respond in 
writing to the committee in a timely fashion.
    With that, this hearing is adjourned.
    [Whereupon, at 4:10 p.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


           Responses of Michael Anderson Lawson to Questions 
                Submitted by Senator Christopher Murphy

    Question. ICAO's effort to craft a strong and effective global 
market-based mechanism for airline emissions will falter without 
strong, robust efforts on the part of the U.S. representative to ICAO.

  <diamond> What specific steps will your office take to rally like-
        minded nations to consistently push for a strong emissions-
        capping system at the 2016 ICAO Assembly?

    Answer. The United States worked closely with likeminded countries 
leading up to the 2013 Assembly to adopt an important climate change 
resolution that committed, among other things, to developing a global 
market-based measure. If confirmed, I intend to continue to work with 
likeminded countries directly through their representatives at ICAO and 
through such regional organizations as the European Civil Aviation 
Conference (ECAC), the African Civil Aviation Commission (AFCAC), the 
Latin American Civil Aviation Commission (LACAC), and key Asia 
partners. In the context of this outreach, I will continue to seek the 
input of the U.S. airline industry in the structure and design of any 
market-based measure that would be proposed at the 2016 ICAO Assembly, 
and I will work diligently to ensure that whatever is ultimately 
adopted will not adversely affect the U.S. airline industry or 
otherwise put the U.S. airline industry at a competitive disadvantage 
as compared with other airlines around the world--including airlines of 
developing member states.

    Question. Further, will you actively pursue an agreement that caps 
emissions at 2020 levels, and will you push for more ambitious targets 
in the out years?

    Answer. We support the ICAO goal of carbon neutral growth from 2020 
that is also supported by the international aviation industry. The 
United States also has a more ambitious domestic target of achieving 
carbon neutral growth by 2020 compared to the 2005 baseline. With 
respect to more ambitious targets in the out years, we plan to review 
targets for the out years, but are not yet at a point of proposing new 
targets.

    Question. What benchmarks should we judge your progress by?

    Answer. The benchmark by which we should judge is performance--
actually reducing fuel burn and CO2 emissions. ICAO is tracking fuel-
burn information for contracting states. The United States has had a 
great record of reducing fuel-burn and CO2 emissions, and we will 
continue to track our performance in efficiency improvements and CO2 
reductions.
                                 ______
                                 

              Responses of Bathsheba Crocker to Questions 
                 Submitted by Senator Edward J. Markey

    Question. How can the United States try to advance its priorities 
and respond to crises through the United Nations system when the 
Security Council is paralyzed? What role does your office play in such 
situations?

    Answer. U.S. engagement throughout the United Nations system allows 
us to leverage both resources and influence with other like-minded 
nations toward common goals and to advance American values around the 
world. Our engagement at the U.N. touches on almost every issue of 
importance to U.S. national security including maintaining 
international peace and security, preventing the proliferation of WMDs, 
responding to humanitarian crises, and addressing threats to global 
health and stability. The U.N., through the Security Council and other 
bodies such as the Human Rights Council, is a primary partner in 
addressing crises of international concern from Syria to the Central 
African Republic to Haiti to North Korea and many other issues of 
paramount concern to the United States.
    At the Security Council, the United States has differing 
perspectives with Russia on Syria, for example, but we share an 
interest in reducing violence; securing chemical weapons; and trying to 
create a political settlement on the basis of the Geneva Communique. 
This enabled us to work with Russia in the Security Council to impose 
on Syria responsibilities and a timeline for the destruction of its 
chemical weapons. We will continue to use these common interests as the 
basis for collaboration toward a resolution of the Syrian crisis.
    While the Council has struggled to achieve agreement on Syria, it 
has been highly effective in addressing other issues of importance to 
the United States. The Security Council has imposed strong sanctions on 
both Iran and North Korea, built robust peacekeeping missions in 
Liberia and the Democratic Republic of the Congo, and helped strengthen 
fragile states from Afghanistan to Somalia. In 2011, the United States 
worked with our partners on the Security Council to prevent a massacre 
in Libya and help the Libyan people begin a transition to democracy 
after 40 years of brutal dictatorship. In Mali, U.N. peacekeepers have 
been critical to our efforts to restore stability, which will help 
prevent the creation of an al-Qaeda safe haven in the Sahel region.
    The United States also relies on the U.N. system to help address 
humanitarian crises that are too big for any one country to face alone. 
Organizations such as the World Food Programme, the World Health 
Organization, the U.N. High Commissioner for Refugees (UNHCR) and 
UNICEF have the expertise, capacity, and networks to reach refugees and 
conflict victims in highly insecure areas. For example, the U.N. has 
played a critical role in coordinating and delivering humanitarian 
assistance to millions of people affected by the violence in Syria, as 
well as over 2.4 million refugees from Syria who have fled to Turkey, 
Lebanon, Jordan, Iraq, and Egypt. Similarly, U.N. agencies play a 
critical role in U.S. and international efforts to strengthen global 
pandemic preparedness, fight infectious disease, improve food security, 
and promote development to alleviate poverty in the world's poorest 
regions.
    Finally, U.S. engagement in the U.N. helps advance human rights and 
fundamental American values including freedom of speech, assembly, and 
association, protection of minorities and the rights of women and 
children. Through the Human Rights Council, the United States has 
helped shine a spotlight on the worst human rights abusers, including 
North Korea, Syria, and Iran. We were also instrumental in helping to 
pass the U.N.'s first-ever resolution on the human rights of LGBT 
persons.
    The International Organization Affairs Bureau works within the U.N. 
system to promote U.S. interests, address international crises, and 
improve the effectiveness of the U.N. system to carry out its mandates. 
We work with U.N. members in all bodies to advance our mutual 
interests, engage in frank discussion of our policy differences, and 
firmly stand by our principles, our partners, and our allies. If 
confirmed, I will continue both our engagement with the U.N. in pursuit 
of U.S. interests, and our efforts to make the U.N. a stronger, more 
effective organization.

    Question. Short of a security council resolution, is there anything 
that can be done to reform United Nations rules that restrict agencies 
from delivering humanitarian aid and vaccinating children in rebel-held 
regions where the Syrian Government has tried to deny access?

    Answer. We commend the U.N. for carrying out aid deliveries across 
conflict lines in Syria and continue to urge all parties to allow 
unhindered humanitarian access so the U.N. can scale up aid for 
besieged and difficult-to-reach areas. The lack of humanitarian access 
to many areas in Syria is appalling and most of the blame lies with the 
Syrian regime.
    Despite access problems, humanitarian assistance provided by the 
U.N. and the International Committee of the Red Cross, funded by the 
United States, is reaching more than 4.2 million people in Syria, 
including opposition/contested areas. But these organizations do not 
have unfettered access to communities in need. This is not acceptable, 
and the United States, the U.N. and others have been pressing the 
regime to facilitate the implementation of humanitarian assistance, 
consistent with Syria's primary responsibility to provide and care for 
populations in need within its territory.
    We continue to engage with the Office of the Coordinator for 
Humanitarian Affairs to coordinate on how to best improve humanitarian 
access in Syria, and we are engaged in intensive bilateral and 
multilateral diplomacy with Russia and other key actors to seek a 
breakthrough in gaining access to those beyond the current reach of 
humanitarian organizations.
    Unfortunately, the Syrian regime has imposed undue restrictions on 
the U.N. and other humanitarian organizations, thereby severely 
curtailing their access to many communities in need. The Syrian regime 
bears the primary responsibility to protect and provide for its 
citizens, either directly or by giving humanitarian organizations 
access to help all those in need. At this time, the regime is failing 
to uphold such responsibilities. On the contrary, it is blocking access 
to some of the hardest-hit communities, including Al Hajar Al-Aswad, 
East Ghouta, Mouadhamiyah, Yarmouk Camp, as well as the Old City of 
Homs, and thereby preventing more than 250,000 people from accessing 
humanitarian assistance. The U.N.'s reach is also hampered by ongoing 
violence, shifting battle lines, and in negotiating for access with 
multiple armed factions.

    Question. If confirmed, will you work to discourage international 
bodies from upgrading the Palestinian Authority to full member state 
status outside a peace agreement between the Palestinian Authority and 
Israel?

    Answer. Yes. The administration has been absolutely clear that we 
will continue to oppose firmly any and all unilateral actions in 
international bodies or treaties that circumvent or prejudge the very 
outcomes that can only be negotiated between the parties, including 
Palestinian statehood. And, we will continue to stand up to efforts 
that seek to delegitimize Israel or undermine its security.
    We will continue to make clear, both with the parties and with 
international partners, that the only path for the Palestinians to 
realize their aspiration of statehood is direct negotiations, and that 
Palestinian efforts to pursue endorsements of statehood claims through 
the U.N. system outside of a negotiated settlement are 
counterproductive. The international community cannot impose a 
solution. A viable and sustainable peace agreement can come only from 
mutual agreement by the parties.
    We remain vigilant on this matter and work in extremely close 
coordination with the Israeli Government and our other international 
partners.

    Question. Many close allies of the U.S. support anti-Israel 
resolutions in the U.N. General Assembly and the Human Rights Council. 
Do you believe the United States can do more to leverage our global 
relationships to reduce anti-Israel activity at the U.N.?

    Answer. This administration has fought hard for fair and equal 
treatment for Israel across the U.N. system, including lobbying the 
member states of the U.N. to vote against biased anti-Israel 
resolutions at the General Assembly, Human Rights Council, and other 
U.N. fora. We continue to oppose anti-Israel statements, resolutions, 
and efforts to delegitimize Israel whenever and wherever raised in 
international organizations. As President Obama and Secretary Kerry 
have made clear, the United States believes that Middle East peace can 
only be resolved through direct negotiations between the parties, not 
through one-sided and provocative statements and resolutions against 
Israel at the United Nations.
    Despite concerted diplomatic efforts at U.N. fora, and in capitals 
around the globe, we have seen little change in the vote counts on 
Israel-related resolutions. But we have made some progress in reducing 
the number of those resolutions. For example, prior to American 
membership, over half of all of the country-specific resolutions the 
HRC adopted concerned Israel. This number has been reduced to well 
under one-third since the United States joined the Council. In bodies 
including the General Assembly and Human Rights Council, we will 
continue to use the U.S. voice and vote against anti-Israel 
resolutions, and in the HRC we use our influence to ensure that these 
resolutions do not pass by consensus.
    We will continue to engage foreign governments and coordinate 
closely with Israel and other like-minded states to work to shift the 
vote dynamics on anti-Israel resolutions and to improve Israel's status 
in various U.N. fora. Israel's recent admission to the Western European 
and Others Group in Geneva, which the United States lobbied 
aggressively for, and their subsequent reengagement with the Human 
Rights Council, will help to create a more positive atmosphere 
throughout the U.N. system. We will continue to work closely with 
Israel in this regard on continued efforts to improve their status at 
the United Nations.

    Question. I was disappointed that the government shutdown last fall 
forced the United States Government to reschedule its appearance before 
the U.N. Human Rights Committee on its Compliance with the 
International Covenant on Civil and Political Rights (ICCPR), a treaty 
ratified under President George H.W. Bush that protects core freedoms. 
Could you describe the role your office will play in preparing for the 
upcoming review in March, and what other parts of the State Department 
have responsibilities for preparing for the ICCPR review?

    Answer. Preparation for the U.S. Government's presentation of its 
Fourth Periodic Report on its implementation of the International 
Covenant on Civil and Political Rights (ICCPR) is a collaborative 
interagency effort. The Office of the Legal Adviser (L) has primary 
responsibility for preparing the report (submitted in December 2011), 
and for coordinating an interagency delegation to respond to the 
committee's questions during the upcoming March presentation. That 
office coordinates with many different U.S. Government agencies and 
bureaus within the State Department, such as the Bureau of 
International Organization Affairs (IO), the Bureau of Democracy, Human 
Rights, and Labor (DRL), the Bureau of Counterterrorism (CT), the 
Bureau of Population, Refugees and Migration (PRM), and the Office to 
Monitor and Combat Trafficking in Persons (J/TIP), among others, to 
update the committee on developments since the 2011 report and prepare 
delegation members for questions that are most likely to arise. The IO 
Bureau also provides, through the U.S. Mission in Geneva, critical on-
the-ground support for the U.S. presentation and related events, 
including a consultation with civil society organizations on the U.S. 
report. The IO Bureau will also participate in the delegation that 
appears before the Committee.

    Question. Will you continue the work of your predecessors to 
highlight in international forums Iran's gross human rights violations 
and Tehran's support for terrorist organizations?

    Answer. Yes. The United States is committed to continuing our 
efforts to hold Iran accountable for its egregious human rights record 
and state sponsorship of terrorism at the United Nations.
    The United States led efforts with Sweden in the U.N. Human Rights 
Council in March 2011 to create a Special Rapporteur on Iran, the first 
country-specific human rights rapporteur created since the HRC was 
established in 2006. Special Rapporteur Ahmed Shaheed, a former Foreign 
Minister of the Maldives and respected human rights advocate, serves as 
an independent and credible voice to highlight human rights violations 
and abuses in Iran. Each year, the United States works to increase the 
vote margins on resolutions to renew Special Rapporteur Shaheed's 
mandate. These actions are more than symbolic, as the Iranian 
Government has released some prisoners and taken certain other positive 
steps when it comes under pressure from the United Nations and in other 
international fora.
    Additionally, every year the United States works with Canada on an 
annual U.N. General Assembly resolution condemning human rights 
violations and abuses in Iran. The United States plans to work closely 
with Canada and other allies to secure another strong condemnation of 
violations and abuses of human rights in Iran at this year's General 
Assembly. It is resolutions such as these that deepen the Iranian 
regime's isolation and underscore the international community's 
condemnation of Iran's abhorrent behavior against its own people, its 
concern for the rights of all Iranians, and its call for Iranian 
authorities to respect their government's international obligations.
    In the U.N., we will also continue to call attention to Iran's 
sponsorship of terrorism and work to maintain sanctions pressure on the 
regime in Tehran. Engagement at the United Nations has been an 
essential part of creating the toughest, most comprehensive sanctions 
to date on the Iranian regime. Our U.N. efforts, which include adoption 
of four U.N. Security Council (UNSC) resolutions on Iran under Chapter 
VII of the U.N. Charter since 2006, have resulted in strong 
international measures to counter Iran's illicit activities. The Iran 
Sanctions Committee, with the assistance of the Iran Sanctions Panel of 
Experts, has investigated and published detailed reports on Iranian 
noncompliance with its UNSC obligations and its attempts to evade the 
sanctions imposed on it. It has also outlined for member states through 
``Implementation Assistance Notices'' published on its Web site a 
number of evasion techniques used by Iran to circumvent sanctions, and 
made observations regarding member state obligations for implementing 
the sanctions.

    Question. Is there anything that can be done to address situations 
where countries serve on international bodies while violating the 
fundamental goals of those organizations--e.g., Iran or North Korea 
chairing international bodies on disarmament, or one-party 
dictatorships serving on the U.N. Human Rights Council?

    Answer. The United States remains very concerned about such 
situations. In the case of the HRC, the United States actively 
encourages countries with strong records to seek seats and promotes 
competitive elections for the HRC. Elections to the Council are done by 
secret ballot among all 193 members of the General Assembly. The United 
States has worked behind the scenes with other countries to 
successfully oppose the election of some of the worst human rights 
violators to the Human Rights Council and other important U.N. bodies 
on numerous occasions in the past, including efforts last year to 
pressure Iran to drop its HRC bid, which Iran did. The United States 
will continue to do so.
    In the Conference on Disarmament, the presidency of the CD serves 
to facilitate discussion among the CD member states and rotates among 
all members of the CD every 4 weeks. Because the CD operates by 
consensus, no decision can be taken by the CD president without the 
approval of the United States and other CD member states. While the 
presidency of the CD is largely ceremonial and involves no substantive 
responsibilities, the United States has taken appropriate action when a 
country's policies and actions contravene the fundamental goals of the 
Conference. For example, during Iran's presidency from May 28-June 24, 
2013, the United States was not represented at the ambassadorial level 
during any meeting presided over by Iran, did not meet with the Iranian 
President during his 4-week term, and continued to call for Iran to 
comply fully and without delay with all of its obligations under the 
relevant U.N. Security Council resolutions and to meet its obligations 
under its safeguards agreement. During North Korea's rotation to the CD 
presidency in July 2011, the United States also was not represented at 
the ambassadorial level, did not meet with the DPRK president during 
the 4 weeks of his term, and called on the DPRK to comply fully with 
U.N. Security Council resolutions, safeguards obligations, and its 
commitments under the September 19, 2005 Joint Statement.

 
        NOMINATIONS OF LUIS MORENO, JOHN ESTRADA, AND NOAH MAMET

                              ----------                              


                       THURSDAY, FEBRUARY 6, 2014

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Luis G. Moreno, of Texas, to be Ambassador to Jamaica
John L. Estrada, of Florida, to be Ambassador to the Republic 
        of Trinidad and Tobago
Noah Bryson Mamet, of California, to be Ambassador to the 
        Argentine Republic
                              ----------                              

    The committee met, pursuant to notice, at 3 p.m., in room 
SD-419, Dirksen Senate Office Building, Hon. Robert Menendez 
(chairman of the committee) presiding.
    Present: Senators Menendez and Rubio.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    The Chairman. This hearing of the Senate Foreign Relations 
Committee will come to order.
    Thank you for your patience. As I think some of you may 
know, we were on the floor voting, including voting for the 
next U.S. Ambassador to China. So we appreciate your 
forbearance.
    We have three nominees before us. They are Luis Moreno to 
be Ambassador to Jamaica; John Estrada, nominated to be the 
Ambassador to the Republic of Trinidad and Tobago; and Noah 
Bryson Mamet to be Ambassador to the Argentine Republic.
    Mr. Moreno is a career member of the Senior Foreign 
Service, class of minister counselor, as the Deputy Chief of 
Mission of the U.S. embassy in Madrid, Spain. From 2010 to 
2011, he served as Political Military Affairs Minister 
Counselor, as well as Force Strategic Engagement Cell Director, 
at the U.S. Embassy in Baghdad in Iraq. He has also served as 
Deputy Chief of Mission in Tel Aviv, Israel; Counselor General 
Principle Officer in Monterey, Mexico; Deputy Chief of Mission 
at the U.S. Embassy in Port-au-Prince, Haiti; and a list of 
other experiences. And we appreciate your service.
    John Estrada is senior manager for Lockheed Martin Training 
Solutions, Incorporated. Prior to this career in the private 
sector, Sergeant Major Estrada served in the United States 
Marine Corps for 34 years, rising to become the 15th sergeant 
major of the United States Marine Corps, the Nation's highest 
ranking enlisted marine. And so we are pleased to have you 
here, Sergeant Major, to be the President's nominee as 
Ambassador to Trinidad and Tobago.
    Our third nominee is Noah Bryson Mamet. Mr. Mamet is 
founder and president of Noah Mamet and Associates. He serves 
as a member of the Pacific Council on International Policy, the 
American Council of Young Political Leaders. He also sits on 
the boards of the Los Angeles-based Green Dot Public Schools 
and NatureBridge. And we appreciate having him here as well.
    We welcome you all to the committee. We welcome any family, 
friends who may be joining us today to offer their support. And 
we know how proud you all must be. We also recognize the 
sacrifice of families who are willing to share their loved one 
in the service of the Nation, and we understand that it is an 
equal sacrifice to them as well. So we thank you for your 
support and your service.
    I understand that our distinguished colleague from Colorado 
is here to join in the introduction of Mr. Mamet, and I would 
like to recognize him at this time. Senator Bennet?

             STATEMENT OF HON. MICHAEL F. BENNET, 
                   U.S. SENATOR FROM COLORADO

    Senator Bennet. Thank you, Mr. Chairman, and it is a 
privilege to be here with these nominees. And congratulations 
to you and the committee on the successful vote on our next 
Ambassador to China.
    It is also a privilege to introduce Noah Mamet, the 
President's nominee to serve as the Ambassador to the Argentine 
Republic. I have known Noah for a number of years, and I 
enthusiastically support his nomination.
    Throughout his career, Noah has worked to build democracy 
abroad and support international economic development. He 
represented the National Democratic Institute in monitoring the 
first democratic elections in Sierra Leone since the country's 
civil war.
    Noah was instrumental in helping to establish the Clinton 
Foundation. His work was critical in developing and producing 
the first Clinton Global Initiative, which has convened leaders 
from across the globe to create and implement practical, 
innovative solutions to some of the most pressing challenges 
our world faces.
    Noah's involvement with the U.S. Institute of Peace has 
helped bolster that organization's ability and reach its 
mission to help manage and resolve international conflicts 
through nonviolent means.
    He is also a member of the Pacific Council on International 
Policy. This association's focus on addressing global 
transformation from an eastern Pacific Ocean perspective I 
think will serve Noah well in this new role.
    These experiences have given him a deep understanding and 
appreciation of our Nation's role in the world and the 
challenges that we face abroad.
    Just another small point, but Noah also shares my 
commitment on the question of education and the need to improve 
outcomes for children living in poverty in this country. He has 
served on the board of the largest and most prominent public 
charter school operator in the country, Green Dot Public 
Schools.
    And, Mr. Chairman, with that, I can say I think we will be 
very well served by Noah Mamet.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Bennet. I appreciate you 
making the introduction before the committee.
    I know your schedule, so please feel free to be excused at 
any time.
    Your full statements will be included in the record, 
without objection. I would ask you to summarize your statement 
in about 5 minutes or so so that the members of the committee 
can engage in a dialogue with you. We will start off with Mr. 
Moreno and then Mr. Estrada, as I introduced you, and Mr. 
Mamet.
    Mr. Moreno.

            STATEMENT OF LUIS G. MORENO, OF TEXAS, 
                  TO BE AMBASSADOR TO JAMAICA

    Mr. Moreno. Thank you, Mr. Chairman, Senator Rubio. Thank 
you for inviting me to appear before you today. I am honored to 
be the President's nominee to be the next U.S. Ambassador to 
Jamaica. I want to express my gratitude to the President and 
Secretary Kerry, as well as to Assistant Secretary Roberta 
Jacobson, for their trust and confidence.
    Please allow me the opportunity to introduce my wife, 
Gloria, who is here with me. Without her patience, 
unconditional support, and loving understanding, I certainly 
would not be sitting here in front of you. My oldest daughter, 
Sabina, is following online from Florida and my youngest 
daughter, Denise, along with my friends and colleagues from the 
Embassy, are also following online from Spain.
    As I acknowledge the support of my family, I would be 
remiss not to mention my parents, both deceased, who played a 
major role in my choice of career. My dad was a refugee, a 
medical doctor who fled the political violence in his native 
born Colombia and found refuge in New York City. His medical 
degree was not recognized and he did not speak a word of 
English. What followed was a classic American success story. 
During his career, he became the head of orthopedic surgery at 
Columbia Presbyterian Hospital and helped develop the 
artificial hip replacement. With my mom, a nursing student born 
in Cuba, he raised two boys in the United States, both of whom 
ended up in the senior ranks of the Department of State and in 
whom he ingrained a passion for service to their country. My 
brother Ed recently retired after 25 years of service from 
Diplomatic Security where he last served as the Assistant 
Director for Diplomatic Security, Domestic Operations. I know 
that both our parents would be very proud of the service of 
both of their sons if they were here today.
    I have been privileged to serve my country for 31 years in 
postings in the Western Hemisphere, the Middle East, Europe, 
and Washington, including three postings as Deputy Chief of 
Mission in Port-au-Prince, Tel Aviv, and most recently and 
presently in Madrid. In fact, in my 28 years of overseas 
postings, Madrid has been my only nondanger, nonhardship post. 
I have covered a wide range of issues throughout my career: 
narcotics and law enforcement, refugee issues in Haiti, and 
Kurds from northern Iraq that were resettled in the United 
States via Guam, political-military and transitional issues in 
Iraq, as well as playing a small role in the Middle East peace 
process while in Israel.
    While my assignments have afforded me a diverse and 
multifaceted background, there is a clear commonality among 
most of my assignments. I work toward team-building and finding 
solutions to challenges in tough places. If confirmed as 
Ambassador, it will be along those same lines that I will lead 
our mission in Jamaica. I will lead the Embassy team to find 
solutions to the toughest problems this close friend and 
neighbor is currently experiencing.
    The United States and Jamaica enjoy a strong, cooperative 
relationship that crosses many spheres, including citizen 
security, law enforcement, strengthening democratic 
institutions, the rule of law, respect for human rights, 
energy, climate change, and economic development. Jamaica has a 
well-earned reputation as a tourist destination, hosting over 2 
million American visitors every year. The safety and security 
of these visitors and the 40,000 Americans who currently live 
in Jamaica will be my highest priority.
    Despite this reputation as a tropical paradise, a well-
earned one, Jamaica, a mere 51 years after independence, is 
facing severe challenges which could have a long-lasting impact 
if we do not help Jamaica mitigate them now. I would like to 
highlight two of the most daunting challenges we have: the 
economic reform Jamaica has agreed to undertake as of last 
year, and ensuring the safety and security of both our nations 
and citizens. Jamaica, along with much of the Caribbean, is 
particularly vulnerable not only to these manmade risks but 
also to natural disasters such as devastating hurricanes or 
earthquakes.
    Mr. Chairman, ensuring stability abroad, both in terms of 
citizen security and economic development, in countries like 
Jamaica increases our own security at home. Our current 
assistance to Jamaica, including through the Caribbean Basin 
Security Initiative and USAID's bilateral assistance, seeks to 
partner with Jamaica to address shared regional challenges that 
affect the everyday concerns of Jamaica's citizens. If 
confirmed, I will work as Ambassador to most efficiently use 
the available resources to ensure Jamaica continues on the path 
of sustainable economic and social development. This is in the 
interest of both Jamaica and the United States.
    Last May, Jamaica signed an economic reform package with 
the IMF, the International Monetary Fund, to help tackle its 
huge public debt, almost 1\1/2\ times its annual gross domestic 
product, one of the highest ratios in the world. This package, 
together with loans from the World Bank and the Inter-American 
Development Bank, adds up to nearly $2 billion. Approximately 3 
years of this agreement remain for Jamaica to get its financial 
house in order and to begin to grow its economy, something it 
has not been able to do in three decades. If confirmed--most 
likely I will be there for the majority of that time--let me 
reassure you that this issue will be among my highest 
priorities. I will work with our Jamaican partners to encourage 
them through the difficult economic times that will, no doubt, 
take place while reminding them about the enduring and 
sustainable benefits of partnership with the United States and 
prospects that will emerge as a result of reform and more 
economic stability.
    I will skip ahead to the end, Senator, in the interest of 
time.
    This is a historic opportunity for Jamaicans to build a 
stronger, more prosperous country. If confirmed, I pledge to 
serve our country, just as I have for the past three decades, 
and to work with our Jamaican friends to continue to strengthen 
the partnership between our two countries.
    Mr. Chairman, Senator Rubio, thank you for the opportunity 
to appear before you today, and I certainly welcome your 
questions. Thank you.
    [The prepared statement of Mr. Moreno follows:]

                  Prepared Statement of Luis G. Moreno

    Mr. Chairman and members of the committee, thank you for inviting 
me to appear before you today. I am honored to be President Obama's 
nominee to be the next United States Ambassador to Jamaica. I want to 
express my gratitude to President Obama and Secretary Kerry, as well as 
to Assistant Secretary Roberta Jacobson for their trust and confidence.
    Please allow me the opportunity to introduce my wife, Gloria, who 
is here with me today. Without her patience, unconditional support and 
understanding, I would not be sitting here in front of you. My oldest 
daughter, Sabina, is following online from Florida and my youngest 
daughter, Denise, along with my friends and colleagues from the Embassy 
are also following online from Spain. As I acknowledge the support of 
my family, I would be remiss not to mention my parents, both deceased, 
and who played a major role in my choice of career. My dad was a 
refugee, a medical doctor who fled the political violence in his native 
born Colombia and found refuge in New York City. Naturally, his medical 
degree was not recognized and he did not speak a word of English. What 
followed was a classic American success story. During his career he 
became the head of orthopedic surgery at Columbia Presbyterian Hospital 
and helped develop the artificial hip replacement procedures. With my 
mom, a nursing student born in Cuba, he raised two boys born in the 
United States, both of whom ended up in the senior ranks of the 
Department of State, and in whom he ingrained a passion for service to 
their country. My brother, Ed recently retired after 25 years of 
service from Diplomatic Security where he last served as the Assistant 
Director of DS for Domestic Operations. I know our parents would be 
very proud of the service of both their sons if they were here today.
    I have been privileged to serve my country for 31 years in postings 
in the Western Hemisphere, the Middle East, Europe, and in Washington, 
including three postings as Deputy Chief of Mission in Port-au-Prince, 
Tel Aviv, and most recently, Madrid. In fact, in my 28 years of 
overseas postings, Madrid has been my only nondanger, nonhardship 
posting. I have covered a wide range of issues throughout my career: 
narcotics and law enforcement in Colombia, Peru, and Panama; refugee 
issues in Haiti and with Kurds from Northern Iraq that were resettled 
in the U.S. via Guam; political-military, and transitional issues in 
Iraq, as well as playing a small role in the Middle East peace process 
while in Israel. While my assignments have afforded me a diverse and 
multifaceted background, there is a clear commonality among most of my 
assignments--I work toward team-building and finding solutions to 
challenges in tough places. If confirmed as Ambassador, it will be 
along those same lines that I will lead our mission in Jamaica. I will 
lead the Embassy team to find solutions to the toughest problems this 
close friend and neighbor is currently experiencing.
    The United States and Jamaica enjoy a strong, cooperative 
relationship that crosses many spheres, including citizen security, law 
enforcement, strengthening democratic institutions, the rule of law, 
respect for human rights, energy, climate change, and economic 
development. Jamaica has a well-earned reputation as a tourist 
destination, hosting over 2 million American visitors every year. The 
safety and security of these visitors and the 40,000 Americans who 
currently live in Jamaica, will be my highest priority. Despite this 
reputation as a tropical paradise for tourists, Jamaica, a mere 51 
years after independence, is facing severe challenges which could have 
a long-lasting impact if we don't act to help Jamaica mitigate them 
now. I would like to highlight two of the most daunting challenges: the 
economic reform Jamaica agreed to undertake last year ensuring the 
security of both our nations and our citizens. Jamaica, along with much 
of the Caribbean, is particularly vulnerable to not only these man-made 
risks but also to natural disasters such as devastating hurricanes or 
earthquakes.
    Mr. Chairman, since 9/11 the U.S. has emphasized the need to 
strengthen our borders. The Caribbean is our third border. Ensuring 
stability abroad, both in terms of citizen security and economic 
development in countries like Jamaica, increases our own security at 
home. Our current assistance to Jamaica, including through the 
Caribbean Basin Security Initiative (CBSI) and USAID's bilateral 
assistance, seeks to partner with Jamaica to address shared regional 
challenges that affect the everyday concerns of Jamaica's citizens. If 
confirmed, I will work as Ambassador to most efficiently use the 
available resources to ensure Jamaica continues on the path of 
sustainable economic and social development. This is in the interest of 
both Jamaica and the United States.
    Last May, Jamaica signed an economic reform package with the 
International Monetary Fund to help tackle its huge public debt--almost 
1\1/2\ times its annual Gross Domestic Product, one of the highest 
ratios in the world. This package, together with loans from the World 
Bank and the Inter-American Development Bank, adds up to almost $2 
billion. Approximately 3 years of this agreement remain for Jamaica to 
get its financial house in order and begin to grow its economy--
something it hasn't been able to do in nearly three decades. If 
confirmed, I will likely be there during most of that time. Let me 
reassure you that this issue will be among my highest priorities. I 
will work with our Jamaican partners to encourage them through the 
difficult economic times that will no doubt take place, while reminding 
them about the enduring and sustainable benefits of partnership with 
the U.S. and the prospects that will emerge as a result of reform and 
more economic stability. The ingredients for success are evident. For 
example, through a USAID activity supporting Jamaica's Tax 
Administration, the Government of Jamaica has identified and recouped 
over $100 million in unpaid taxes, thereby increasing its revenue base 
and creating a foundation for sound, transparent, and self-sustaining 
revenue forecasting and collections.
    This is a historic opportunity for Jamaicans to build a stronger, 
more prosperous country. If confirmed, I pledge to serve our country 
just as I have been doing for the past three decades and to work with 
our Jamaican friends to continue to strengthen the partnership between 
our two countries.
    Mr. Chairman, members of the committee, thank you for the 
opportunity to appear before you today. I welcome your questions.

    The Chairman. Thank you very much.
    Let me, before I turn to Mr. Estrada, recognize the former 
United States Ambassador to Haiti and Croatia, James Foley. I 
appreciate you being here, Mr. Ambassador. I understand Mr. 
Moreno was your Deputy Chief of Mission in Haiti. So you are 
still backing him up here. So I appreciate it.
    Mr. Estrada.

 STATEMENT OF JOHN L. ESTRADA, OF FLORIDA, TO BE AMBASSADOR TO 
              THE REPUBLIC OF TRINIDAD AND TOBAGO

    Mr. Estrada. Mr. Chairman, Senator Rubio, good afternoon.
    It is an honor to appear before you today. I want to 
express my gratitude to President Obama and Secretary Kerry for 
the trust and confidence they have placed in me with this 
nomination to represent my country as the next Ambassador to 
the Republic of Trinidad and Tobago.
    Please allow me the opportunity to introduce my wife, Dr. 
Elizabeth Cote Estrada, who is here with me today.
    I am particularly thrilled at the prospect of representing 
the United States in the country of my birth, if confirmed. I 
was born in Trinidad and Tobago, and at age 14, I immigrated to 
the United States to forge a new life. I brought with me a 
respect for diversity and an inherent sense of the equal value 
of all people. I served with honor in the United States Marine 
Corps, attaining the Corps' highest enlisted rank, 15th 
Sergeant Major of the Marine Corps. After retiring from the 
Marine Corps, I continued service to my country as a 
presidential appointed commissioner on the American Battle 
Monuments Commission and as a committee member on the Defense 
Advisory Committee for Women in the Services. In the private 
sector, I led Lockheed Martin Training Solutions, Incorporated, 
a company specializing in flight training and logistics 
solutions for our military.
    I firmly believe that one of the greatest aspirations of 
all free people is to live their lives to the fullest without 
limitations based on their ethnicity, class, race, gender, or 
sexual orientation. If confirmed as Ambassador, with that ideal 
as my guide, I would seek to strengthen the ties between the 
citizens and elected representatives of our two great nations.
    Trinidad and Tobago is an important Caribbean partner of 
the United States. The relationship between our countries rests 
on a strong foundation. We share a common language and a firm 
commitment to democratic principles, the rule of law, and a 
free market system.
    The United States mission to Trinidad and Tobago has three 
strategic objectives. On security, the mission works with the 
Government of Trinidad and Tobago to improve the capacity of 
Trinidadian law enforcement and just sector institutions to 
reduce violent crime and illicit trafficking, safeguard human 
rights, and create safer communities. The mission promotes 
increased commerce and a transparent investment climate to 
enhance our mutual prosperity. On social inclusion, the mission 
conducts extensive outreach and encourages regional leadership 
by Trinidad and Tobago to protect vulnerable populations, 
including at-risk youth. If confirmed, I look forward to 
leading our efforts in these crucial areas.
    The United States and Caribbean partners have developed the 
Caribbean Basin Security Initiative, an ongoing, multifaceted 
citizen security initiative for the Caribbean, of which 
Trinidad and Tobago is a key player. In creating the Caribbean 
Basin Security Initiative, the United States and Caribbean 
partners prioritized three pillars: substantially reducing 
illicit trafficking of narcotics and arms, increasing public 
safety and security, and promoting social justice. I will do my 
utmost, if confirmed, to increase cooperation and encourage 
Trinidad and Tobago to become a leader in security in the 
Caribbean.
    As a resource-rich country, Trinidad and Tobago is full of 
opportunities for energy companies. The United States works 
closely with Trinidad and Tobago to develop new avenues for 
regional energy and conservation. I am excited Trinidad and 
Tobago is playing a growing role in the region and promoting 
business relationships in the hemisphere. If confirmed, I would 
advocate on behalf of U.S. companies and commercial interests 
to assure a level playing field and support their engagement 
with Trinidad and Tobago.
    I firmly believe that my service in the Marine Corps and my 
experience in the private sector, coupled with my personal 
history, have prepared me to represent the government and the 
people of the United States to the government and the people of 
Trinidad and Tobago.
    If confirmed, it would be my great honor to work closely 
with this committee and others in Congress to advance our 
objectives in the Caribbean.
    Thank you for allowing me the opportunity to appear before 
this distinguished committee. I look forward to answering your 
questions.
    [The prepared statement of Mr. Estrada follows:]

               Prepared Statement by John Learie Estrada

    Mr. Chairman and distinguished members of this committee, good 
afternoon. It is an honor to appear before you today. I want to express 
my gratitude to President Obama and Secretary Kerry for the trust and 
confidence they have placed in me with this nomination to represent my 
country as the next Ambassador to the Republic of Trinidad and Tobago.
    Please allow me the opportunity to introduce my wife, Elizabeth 
Anne Cote Estrada, who is with me here today.
    I am particularly thrilled at the prospect of representing the 
United States in the country of my birth, if confirmed. I was born in 
Trinidad and Tobago, and at age 14, I immigrated to the United States 
to forge a new life. I brought with me a respect for diversity and an 
inherent sense of the equal value of all people. I served with honor in 
the U.S. Marine Corps--attaining the Corps' highest enlisted rank as 
the 15th Sergeant Major of the Marine Corps. After retiring from the 
Marine Corps, I continued serving my country as a Presidential-
appointed Commission member of the American Battle Monuments Commission 
and as a committee member on the Defense Advisory Committee for Women 
in the Services. In the private sector, I led Lockheed Martin Training 
Solutions, Inc., a wholly owned subsidiary company specializing in 
flight training and logistics solutions.
    I firmly believe that one of the greatest aspirations of all free 
people is to live their lives to the fullest without limitations based 
on their ethnicity, class, race, gender, or sexual orientation. If 
confirmed as Ambassador, with that ideal as my guide, I would seek to 
strengthen the ties between the citizens and elected representatives of 
our two great nations.
    Trinidad and Tobago is an important Caribbean partner of the United 
States. The relationship between our countries rests on a strong 
foundation. We share a common language and a firm commitment to 
democratic principles, the rule of law, and a free market system.
    The U.S. Mission to Trinidad and Tobago has three strategic 
objectives: On security, the Mission works with the Government of 
Trinidad and Tobago to improve the capacity of Trinidadian law 
enforcement and justice sector institutions to reduce violent crime and 
illicit trafficking, safeguard human rights, and create safer 
communities. The Mission promotes increased commerce and a transparent 
investment climate to enhance our mutual prosperity. On social 
inclusion, the Mission conducts extensive outreach and encourages 
regional leadership by Trinidad and Tobago to protect vulnerable 
populations, including at-risk youth. If confirmed, I look forward to 
leading our efforts in these crucial areas.
    The United States and Caribbean partners have developed the 
Caribbean Basin Security Initiative (CBSI), an ongoing, multifaceted 
citizen security initiative for the Caribbean, of which Trinidad and 
Tobago is a key player. In creating CBSI, the United States and 
Caribbean partners prioritized three pillars: substantially reducing 
illicit trafficking of narcotics and arms, increasing public safety and 
security, and promoting social justice. I will do my utmost, if 
confirmed, to increase cooperation and encourage Trinidad and Tobago to 
become a leader in security in the Caribbean.
    As a resource-rich country, Trinidad and Tobago is full of 
opportunity for energy companies. The United States works cooperatively 
with Trinidad and Tobago to develop new avenues for regional energy 
security and conservation. I am excited Trinidad and Tobago is playing 
a growing role in regional integration and promoting business 
relationships in the hemisphere, including by hosting the upcoming 2014 
Americas Competitiveness Forum. The United States welcomes and supports 
Trinidad and Tobago's membership in and chairmanship of the Pathways to 
Prosperity initiative. If confirmed, I would advocate on behalf of U.S. 
companies and commercial interests to assure a level playing field and 
support their engagement with Trinidad and Tobago.
    Education is the foundation for economic growth. If confirmed, I 
will work with the government of Trinidad and Tobago to explore ways in 
which we can provide at-risk youth and other vulnerable populations 
with tools that can help them succeed.
    I firmly believe that my service in the Marine Corps and my 
experience in the private sector, coupled with my personal history, 
have prepared me to represent the government and people of the United 
States to the government and people of Trinidad and Tobago.
    If confirmed, it would be my great honor to work closely with this 
committee and others in Congress to advance our objectives in the 
Caribbean.Thank you for allowing me the opportunity to appear before 
this distinguished committee. I look forward to answering your 
questions.

    The Chairman. Thank you, Mr. Estrada. I am thankful that 
you did not put us through a Marine Corps drill. [Laughter.]
    That is a plus.
    Mr. Mamet.

        STATEMENT OF NOAH BRYSON MAMET, OF CALIFORNIA, 
           TO BE AMBASSADOR TO THE ARGENTINE REPUBLIC

    Mr. Mamet. Thank you, Mr. Chairman, Senator Rubio, and 
members of the committee.
    It is a privilege and an honor to be here today as the 
President's nominee to be the Ambassador of the United States 
to the Argentine Republic. I am deeply grateful to President 
Obama and Secretary Kerry for their confidence and trust and 
for sending my name to the Senate for your consideration. If 
confirmed, it will be my privilege to work closely with you, 
Mr. Chairman, this committee, and your distinguished colleagues 
on our partnership with Argentina.
    I would like to thank Senator Bennet for his kind 
introduction. I believe he is one of the great public servants 
in the country today.
    On a personal note, growing up in California, I was 
fortunate enough to have two wonderful and supportive parents, 
Bryan and Millie, who instilled in me the values of hard work, 
dedication, and love of country. I am thrilled that my mother 
was able to fly here today and is visiting the U.S. Senate for 
the very first time.
    Although my father is no longer with us, he would be proud 
beyond belief that I am here today in front of this 
distinguished committee. Rather uniquely, both my father and 
grandfather volunteered and served as enlisted men together in 
World War II. In fact, I believe my grandfather was one of the 
oldest enlisted men in the Navy at one point. Through them, I 
was raised to believe that public service in any capacity is 
the highest calling, so I am deeply honored to be here today.
    After spending many years in Washington, I founded my own 
company a decade ago. I have built a successful business, 
consulting for many companies, organizations, and NGOs, 
including the Clinton Global Initiative, the National 
Democratic Institute, as well as numerous national political 
leaders such as President Clinton and Secretary Albright. This 
experience has taught me the power of partnership, that no one 
sector alone can be as effective as the combined efforts of the 
public sector, the private sector, and civil society. If 
confirmed, I look forward to putting all of my experience into 
furthering our bilateral relationship with Argentina.
    The people of the United States and Argentina have a long 
history of friendship and close collaboration that stretches 
back nearly two centuries. The guiding principles for today's 
relationship are based on core democratic values, shared 
interests, and a natural affinity between two societies. If 
confirmed, I will work to expand cooperation with Argentina on 
mutually important issues, including energy, human rights, 
nuclear nonproliferation, and educational exchanges.
    Considering that nearly half of Argentina's population is 
under the age of 35, I will be committed to expanding 
educational exchange programs for students from both Argentina 
as well as the United States. If confirmed, I look forward to 
drawing on my extensive experience working with NGOs in the 
United States to strengthen our current relationships and build 
new ones with a vibrant Argentine civil society.
    Expanding scientific discovery and technological 
innovations is another promising area for greater cooperation. 
Our two countries have more than 60 joint projects underway in 
energy, health, science, and technology. In fact, a successful 
trip to Argentina by NASA Administrator Charles Bolden 
highlighted our longstanding cooperation on earth observation 
satellites.
    In addition to our bilateral partnership, the United States 
has a strong cooperation with Argentina in multilateral fora 
such as the U.N. and the IAEA, where Argentina is a strong 
voice in support of human rights and nuclear nonproliferation.
    Argentina's highly educated population and diversified 
industrial base have attracted more than 500 U.S. companies. 
The United States is strongly committed to working with 
Argentina to increase two-way trade that creates jobs in both 
countries. However, the United States and other governments 
remain concerned over some protectionist policies. If 
confirmed, I will continue the administration's efforts to 
address these concerns. I will also urge Argentine officials at 
the highest levels to resolve such economic legacy issues as 
Argentina's Paris Club arrears and to normalize relations with 
all of its creditors, both public and private.
    Although there are some challenges, I am optimistic that 
the future of our relationship with Argentina is bright. As 
Secretary Kerry has expressed, the United States has a vested 
and shared interest in a vibrant, strong, and prosperous 
Argentina. If confirmed, I look forward to working with the 
Argentine Government, their officials, as well as the private 
sector and civil society, as we further our bilateral 
relationship and strengthen longstanding ties between our two 
great nations.
    If confirmed, I look forward to working with you, Mr. 
Chairman, and your distinguished colleagues and staff to 
advance U.S. interests in Argentina.
    Thank you. I look forward to your questions.
    [The prepared statement of Mr. Mamet follows:]

                  Prepared Statement of Noah B. Mamet

    Mr. Chairman and members of the committee, it is a privilege and an 
honor to be here today, as the President's nominee to be the Ambassador 
of the United States to the Argentine Republic. I am deeply grateful to 
President Obama and Secretary Kerry for their confidence and trust, and 
for sending my name to the Senate for your consideration. If confirmed, 
it will be my privilege to work closely with this committee and with 
your distinguished colleagues on our partnership with Argentina.
    I'd like to thank Senator Bennet for his kind introduction. On a 
personal note, growing up in California, I was lucky to have two 
wonderful and supportive parents, Bryan and Millie, who instilled in me 
the values of hard work, dedication, and love of country. I'm thrilled 
my mother was able to fly here today and is visiting the U.S. Senate 
for the first time. Although my father is no longer with us, he would 
be proud beyond belief that I am here today in front of this 
distinguished committee. Rather uniquely, both my father and 
grandfather volunteered and served together as enlisted servicemen in 
WWII at the same time. In fact, I believe my grandfather was one of the 
oldest enlisted men in the Navy at one point. Through them, I was 
raised to believe that public service, in any capacity, is the highest 
calling, so I am deeply honored to be here today.
    After spending many years in Washington, I founded my own company a 
decade ago. During these years, I've built a successful business, 
consulting for many companies and leaders in various sectors. I've also 
worked with many NGOs including the Clinton Global Initiative and the 
National Democratic Institute (NDI), as well as with numerous national 
and international political leaders, including President Bill Clinton, 
Secretary of State Hillary Clinton, and Secretary of State Madeleine 
Albright. This experience has taught me the power of partnership, the 
truth that no one sector alone can be as effective as the combined 
efforts of the public sector, the private sector, and civil society. If 
confirmed, I look forward to putting all of my experience into 
furthering our bilateral relationship with Argentina.
    The people of the United States and Argentina have a long history 
of friendship and close collaboration that stretches back nearly two 
centuries. The guiding principles for today's relationship are based on 
core democratic values, shared interests, and natural affinity between 
two societies. In fact, just over a month ago, Argentina celebrated the 
30th anniversary of its return to democracy, a very important milestone 
for the people of Argentina. If confirmed, I will work to expand 
cooperation with Argentina on mutually important issues, including 
energy, human rights, nuclear nonproliferation, and educational 
exchanges.
    I have always believed in the importance of public diplomacy and 
people-to-people relationships. Like much of the world, many Argentines 
maintain a great interest in American culture, and if confirmed, I look 
forward to drawing on my extensive experience working with NGOs in the 
United States to strengthen current relationships and build new ones 
with a vibrant Argentine civil society.
    Considering that nearly half of Argentina's population is under the 
age of 35, I will be committed to expanding educational exchange 
programs for students from both Argentina and the United States. If 
confirmed, I will broaden our ties through our 14 Binational Centers, 
English language programs, and exchanges.
    Expanding scientific discovery and technological innovations is 
another promising area for greater cooperation. Our two countries have 
more than 60 joint projects under way in energy, health, science, and 
technology. In fact, a successful trip to Argentina by NASA 
Administrator Charles Bolden highlighted our longstanding cooperation 
on earth observation satellites.
    In addition to our bilateral partnership, the United States has 
strong cooperation with Argentina in multilateral fora such as the U.N. 
and the International Atomic Energy Agency (IAEA), where Argentina is a 
strong voice in support of human rights and nuclear nonproliferation. 
If confirmed, I look forward to continuing cooperation with Argentina 
on these critical issues of mutual concern.
    Argentina's highly educated population and diversified industrial 
base have attracted more than 500 U.S. companies. The United States is 
strongly committed to working with Argentina to increase two-way trade 
that creates jobs in both countries. However, the United States and 
other governments remain concerned over some protectionist policies. If 
confirmed, I will continue the administration's efforts to address 
these concerns. I will also urge Argentine officials at the highest 
levels to resolve such economic legacy issues as Argentina's Paris Club 
arrears and its remaining debts to U.S. bondholders.
    Although there are some challenges that have been well documented 
in the media recently, I am optimistic and confident that the future of 
our relationship with Argentina is bright. As Secretary Kerry has 
expressed, the United States has a vested and shared interest in a 
vibrant, strong, and prosperous Argentina. If confirmed, I look forward 
to a productive dialogue with Argentine Government officials, as well 
as the private sector and civil society as we seek to further our 
bilateral relationship and strengthen the longstanding ties between our 
two great nations.
    If confirmed, I look forward to working with you and your 
distinguished colleagues and staff to advance U.S. objectives in 
Argentina.

    The Chairman. Thank you. Thank you all.
    Let me start off with a question I ask of all of our 
nominees, and I would like each of you to answer simply yes or 
no, if you can. If you feel you have to equivocate, we will 
start off on a difficult process.
    Do each of you commit to this committee that, if confirmed, 
you will be responsive to inquiries and questions that the 
committee poses as you are in your posts?
    Mr. Estrada.
    Mr. Estrada. Mr. Chairman, most definitely. I look forward 
to working very closely with this committee.
    The Chairman. Mr. Moreno.
    Mr. Moreno. Unequivocally, yes.
    The Chairman. Mr. Mamet.
    Mr. Mamet. Absolutely, yes.
    The Chairman. Good. So we are starting off well. 
[Laughter.]
    In recent years, Mr. Moreno, there has been a high level of 
concern about the increasing use of the Caribbean as a drug 
transit zone. According to the Department of State in its 2013 
International Narcotics Control Strategy Report, Jamaica is the 
Caribbean's largest supplier of marijuana to the United States 
and reportedly an emerging transit point for cocaine passing 
through Central America destined to the United States.
    What is your assessment--I know you are not in post yet, 
but I am sure you have had discussions with the State 
Department--of the Jamaican Government's cooperation with the 
United States on antinarcotic efforts? And if confirmed, will 
you make this one of your significant issues at your post?
    Mr. Moreno. Certainly, Mr. Chairman. With my background, it 
is kind of a natural that it would be one of my priorities.
    I think that there is increasing analytical and anecdotal 
evidence that, in fact, as a transshipment point, the Jamaican 
corridor has really picked up. That is due, in a way, to the 
success we have had with the Merida Initiative, the success we 
have had in Colombia, and as you know, the balloon effect is 
now branching out.
    I want to take a very close look at resource allocation on 
our side as well. I want to make sure that we have the right 
resources pointed in the right direction and doing the right 
thing. We have a very big INL program, which is bolstered by 
funding from the Caribbean Basin Security Initiative. We work 
with the constabulary force. We work with the Jamaican defense 
forces. We have an FMF program that works on small ships and 
patrol boats that the Jamaican Coast Guard and Navy use.
    The cooperation has been good. We are seeing an increase of 
quite a high percentage, almost double the amount of cocaine 
seized in 2013 versus 2012, and I think they are probably at a 
record-setting margin this year.
    As you know, from my service in Colombia and Mexico, I have 
personally witnessed the damage that drug trafficking does to 
societies. Corruption including--as a matter of fact, many 
Jamaican politicians and leaders recognize that corruption 
perhaps is the most destructive facet of drug trafficking, and 
we are seeing that. But we are seeing the Jamaican Government 
address that. We have seen a commitment on their part to move 
with us. We work with the anticorruption force and the 
constabulary force. We work, along with the British and with 
the Canadians. We work with the major organized crime task 
force. We even set up a 1-800 corrupt cop number that INL pays 
for. We are also really urging the Jamaicans to move forward 
and create an independent commission that addresses corruption 
specifically.
    So we are engaged and the Jamaicans are engaged, but it is 
a tough battle and one which, as we can see what happened in 
Mexico, as we see the struggles that Colombia went through, 
that this is a very serious issue. And I think we need to 
address it and we need to look at resources and the way we 
allocate them.
    The Chairman. And in that regard, the Caribbean Basin 
Security Initiative that you alluded to--we have spent about 
$35 million in Jamaica in that respect. I hope that you will 
look at how Jamaica has used that money and what our evaluation 
of it is.
    One of the things that I am concerned about is law 
enforcement capacity-building. The other thing is ports and the 
security at ports and the screening and scanning, I should say, 
at ports because ultimately we trade with these countries, but 
they have access to our ports and those drugs end up here.
    Mr. Moreno. Yes, sir, absolutely. As a matter of fact, we 
are using antiterrorist funds administered by the Diplomatic 
Security to work with the port security program in Jamaica. I 
started the port security program in Cartagena, Colombia and in 
Barranquilla. So I am pretty familiar with how port security 
programs should work.
    We are addressing that, and the Caribbean, as you know, 
Basin Security Initiative, $263 million in total, of which 
Jamaica, as you mentioned--I am really anxious, if confirmed, 
to get down on the ground and see, as I said, about how 
resources are being allocated, how the Jamaicans have used 
their resources, and how we can continue to be more effective 
and more efficient in this because this is the kind of problem 
that once it starts--you will recall back in the 1980s and 
early 1990s when we put the above-the-horizon radars in and 
then we forced the traffickers again to go through the Central 
America-Mexico route, and we are seeing the consequences of 
that now. Now, as we apply pressure, I think we have to really 
pay close attention to that and really take a look at our 
resource allocation.
    The Chairman. Well, I appreciate that. I am very concerned 
as we squeeze elsewhere that the Caribbean becomes an 
increasingly large traffic point.
    And so that brings me to Mr. Estrada. With Venezuela 
increasingly becoming a primary transit point for the 
trafficking of drugs to markets in Europe and the United 
States, do you have a sense--and I recognize again you are not 
in post. But do you have a sense of what Trinidad and Tobago's 
proximity to the Venezuelan coast has made it vulnerable to 
trafficking operations?
    Mr. Estrada. Senator, I definitely agree because of the 
proximity. As you know, the closest point is about 7 miles off 
the coast of Venezuela. It has become a transshipment point. 
Just last month, there was a large cocaine bust in the port of 
Norfolk that originated in Trinidad and Tobago being 
transported in juice cans. So it shows that they do have a key 
challenge, and we are partnering with them to address this 
issue. We will continue to engage. And if confirmed, I will 
continue to lead our efforts in supporting the improvement of 
the Trinidad and Tobago law enforcement capacity to address 
this issue.
    The Chairman. Well, your example, an example of why I care 
so much about port security, is an example of how drugs end up 
on the streets of our community. And having the largest port in 
the Northeast, the Port of Elizabeth in Newark, I can see what, 
in fact, happens in our communities.
    Let me ask you. Also according to U.N. statistics, more 
than 13,000 people in Trinidad and Tobago are estimated to be 
living with HIV. In an effort to combat that, the country has 
received assistance under the President's PEPFAR program, which 
we recently reauthorized. How would you assess these efforts 
and the support the United States has provided to Trinidad and 
Tobago?
    Mr. Estrada. Senator, thank you for the question.
    The assistance that Trinidad has received thus far--a lot 
of it has to do with their prevention, strengthening their 
laboratory efforts, public outreach. And the CDC is on the 
ground in Trinidad and Tobago. Yes, there is a 1.5-percent 
prevalence in adult HIV rate. And this program thus far--again, 
through this assistance, it does seem to be working and with 
the embassy doing the outreach via social media and through 
other avenues that are available.
    The Chairman. And then finally, I will have questions for 
Mr. Mamet, but my time has expired. So I am going to turn to 
Senator Rubio.
    How is it going to feel to go back as the United States 
Ambassador to Trinidad and Tobago which was originally your 
native country?
    Mr. Estrada. Senator, a great question, and I am glad you 
asked. As you very well know, I left as a 14-year-old.
    The Chairman. We only ask great questions. [Laughter.]
    Mr. Estrada. Yes, sir.
    The Chairman. At least members here think so.
    Mr. Estrada. I have been back to Trinidad probably four 
times since I left in March 1970. The first time I went back to 
Trinidad was in 2004 as a guest speaker for the Marine Corps 
Ball. I was a sitting sergeant major for the Marine Corps then. 
So I had not been.
    Yes, I do have family members--small family members still 
in the country. I respect Trinidad. It is a beautiful country. 
I look forward to working with the government and the people of 
Trinidad and Tobago and getting to know them very well. 
Obviously, I do not know them as much as I did when I left as a 
14-year-old.
    My loyalty with my distinguished service in the United 
States Marine Corps--there should be no doubt in anyone's mind 
where it stands. I am American and I represent the United 
States of America's interests.
    The Chairman. We have no doubt about that. I just wanted to 
have the emotional element of it.
    Senator Rubio.
    Senator Rubio. Thank you. Thanks to the chairman.
    Thank you all for being here, particularly Mr. Estrada and 
Moreno for your longtime service to our country. We are very 
grateful for that, and we are sure you will do a great job at 
these posts.
    Let me just overlay my questions with a general observation 
that in the Western Hemisphere in general there is this 
emerging trend, which I find as a direct threat, and that is 
the growing authoritarianism that really poses a risk to both 
free markets and the democratic consensus that we find 
throughout the region. One of the countries that will be 
discussed here today, unfortunately--Argentina--perhaps falls 
in that camp.
    I thought that situation, by the way, was on full display 
in Havana a few weeks ago when all these heads of state met 
under the auspices of the sole totalitarian regime and state 
sponsor of terrorism in our hemisphere and which yesterday, by 
the way, arrested, as you know, Mr. Chairman, a well-known 
dissident. We call him Antunez who had actually met with us. He 
traveled here to Washington. He was arrested, along with his 
wife I believe, yesterday.
    So for anyone who has fantasies about what Cuba is and to 
these heads of state that travel there, particularly the 
President of Argentina about 2 weeks ago, to gain advice from 
Fidel and Raul Castro, well, I am not sure what you are going 
to get advice in unless you are looking to become a 
totalitarian government because that is the only thing they are 
good at.
    And by the way, it is a tremendous hypocrisy. The only head 
of state in the Western Hemisphere that had the dignity to meet 
with members of the beleaguered democratic opposition was the 
President of Chile, Pinera--and I wanted to publicly 
acknowledge that--as he has done many times in the past as 
well.
    I am also concerned--and I am no longer the ranking member 
of this subcommittee, but I am glad I am here today--by what 
best can be characterized as an indifferent foreign policy--and 
both parties are guilty of this--toward the hemisphere and its 
issues and at worst is quite frankly negligence, this rising 
tide of authoritarianism that we find in the region.
    There are some issues as well largely focused on Argentina 
in the time that is permitted here today.
    But I did want to ask you, Mr. Moreno. You are an expert in 
counternarcotics. Jamaica is believed to be potentially the 
largest Caribbean supplier of marijuana to the United States. 
Is there any evidence that recent efforts to legalize the use 
of marijuana in certain States here have had an impact on the 
situation?
    Mr. Moreno. In fact, it has had an impact. There had been 
movement both in the Jamaican Parliament and in the press to 
argue for either legalization for medical reasons, religious 
reasons, or to decriminalize personal possession of small 
quantities. We have been very clear on what our position is, 
that marijuana is considered a category 3 dangerous drug and as 
such, we will continue to enforce all Federal statutes 
involving marijuana.
    Also, the Embassy has been instructed to--and they followed 
up magnificently in reporting all these developments.
    There is a pending piece of legislation in the Jamaican 
parliament--we are not sure how far that could possibly go--
that would decriminalize certain aspects of possession of 
marijuana. They make the argument that, oh, that is going to 
improve tourism, that it is going to help the small farmer, et 
cetera, et cetera. We, of course, reject those arguments and we 
maintain that marijuana is still a dangerous drug and we are 
going to enforce our Federal statutes.
    Senator Rubio. Marijuana-improved tourism. Will that be in 
their promotion material?
    Mr. Moreno. Not my argument, Senator.
    Senator Rubio. No, I understand. I know that is their 
argument.
    Anyway, more in the form of a statement than a question, 
the 2003 reporting period for the Trafficking in Persons report 
found that the Government of Jamaica did not convict any 
trafficking offenders or any officials complicit in human 
trafficking. And I would just encourage you, when you are in 
that post, to be a strong voice on behalf of those victims 
because Jamaica, I believe it is Tier 2. But in any event, 
there is a human trafficking problem there as there is here. 
And I hope that you will be a strong voice.
    Mr. Moreno. Absolutely. As a veteran Foreign Service 
officer I am well aware of how important that is. In the many 
posts that I have served, it has become a very serious issue.
    Senator Rubio. And then, Mr. Estrada, on the issue of 
Trinidad and Tobago, there was a citizen from there that was 
convicted and received a life sentence in U.S. Federal court 
for a 2007 plot to bomb a jet fuel pipeline at John F. Kennedy 
International Airport. The individual had ties to Trinidad's 
militant group that attempted to overthrow the government there 
back in the 1990s.
    By the way, the individual has also been linked by 
Argentina's special prosecutor to the 1994 terrorist attack 
that many believe Iran was behind. In fact, there is strong 
evidence that Iran was behind it.
    So my question is, do we have concerns that Islamic 
radicalism is a problem in Trinidad and Tobago?
    Mr. Estrada. Thank you for the question, Senator.
    The United States Government considers the Government of 
Trinidad and Tobago to be a committed partner in combating 
terrorism in the Caribbean and preventing terrorist attacks 
against the United States. If confirmed, I will continue to 
work the Government of Trinidad and Tobago to strengthen this 
partnership.
    As of now, there are no known indigenous terrorist groups 
based in Trinidad and Tobago, but we continue to monitor the 
situation.
    Senator Rubio. Along the lines of the statement that I made 
just a moment ago, in the same Trafficking in Persons report, 
Trinidad and Tobago is a Tier 2 Watch List country for 
trafficking. It means it is a destination and a transit country 
for adults and children that are subjected to both forced labor 
and to sex trafficking. There has been information that public 
officials there have been complicit in trafficking-related 
incidents. In fact, the 2013 report states that although the 
government had infrastructure to screen for trafficking 
victims, law enforcement officials repeatedly treated victims 
as criminals and charged them with solicitation charges.
    There has also been, by the way, certain public officials 
that have been identified as severely hampering the 
government's efforts to combat trafficking.
    So I would hope that--and I expect that you will, when you 
are in that post, be a strong voice on behalf of those victims 
and be willing to--I know it makes the operating space 
uncomfortable, but to be willing to be a forceful voice in 
condemning these actions to the extent that there is the 
unwillingness of these government officials to address this 
very serious human tragedy.
    Mr. Estrada. Senator, I fully concur. Like all countries, 
Trinidad and Tobago does face some challenges, but they have 
shown the will to try to address this issue. We will continue 
to partner with them. I will lead our efforts. I will be a 
strong advocate on behalf of human rights for all people in 
that area.
    The Chairman. Mr. Mamet, let me ask you. What is our 
national interest in Argentina?
    Mr. Mamet. Thank you, Senator.
    I think we have a number of national interests. As you 
know, number one, there are over 500 U.S. companies that are 
doing business in Argentina. Some have been there for nearly a 
century. They have, by all accounts, continued to do relatively 
well, but they have had issues I mentioned in my opening 
statement on regulation, on import-export controls, and other 
areas around that.
    I think it is very important to note, as you well know, 
that they are on the U.N. Security Council. They are at the 
IAEA and they have been a good, constructive partner with us on 
nuclear nonproliferation, as well as human rights, antihuman 
trafficking. So there is, I think, a range of international 
issues we work well on.
    There are a number of issues that we do not have the best 
relationship with, but as Ambassador, Senator, if I can work 
with you, work with this committee, and have the full force of 
the White House behind me, I will bring tough messages, when 
needed, to allies. I think that it is important to tell the 
truth. And we obviously have some irritants in our relationship 
largely around a number of economic issues and financial 
issues.
    The administration has strongly urged the Argentine 
Government to clear its arrears, both public and private, as 
well as to normalize its relations with the international 
financial community, as well as its creditors and investors.
    The Chairman. Well, I would have wanted to hear from you, 
although you alluded to it at the end there, that part of our 
national interest is having a country that meets its Paris Club 
debt, of which we hold a significant amount, that we have a 
series of bondholders that have not been paid and they have 
done nothing to not merit payment, that we have a real concern 
about judicial independence and press freedom in Argentina. So 
I think our national interests are broader, and I hope that you 
will think about it in that context.
    You know, last week, referring to mounting challenges 
stemming from currency depreciation, rising inflation, recent 
nationalizations and broader signs of macroeconomic 
instability, a New York Times editorial stated that Argentina 
was facing a financial crisis caused largely by misguided 
government policies. And a Washington Post editorial stated 
that Argentina is headed for another stretch of economic and 
perhaps political turmoil.
    Do you agree with that assessment?
    Mr. Mamet. Well, Senator, as you know, the administration 
follows very closely economic activity in the country. The 
Department of the Treasury obviously monitors this very 
closely.
    I agree with what you say. There are a number of issues 
that are irritants in our relationship. I think they have made 
some progress, not nearly as much as we would hope, on a number 
of fronts, whether that is presenting at least an outline of a 
payment plan to the Paris Club, which I think just last night, 
the Paris Club came back and said they want to have those 
negotiations and have those discussions. It has been a long 
time coming. No question about it, but that is one of the 
issues that we have pushed the government on, and I think it is 
too early. I do not want to prejudge how that comes out. We 
will see.
    I think later this month the Argentine Government is going 
to present to the IMF a new inflation index, a new CPI, and so 
obviously, we need to see how that plays out as well.
    The ICSID agreements, which you know are the final arbitral 
ICSID awards that they paid--I believe it was $667 million to 
three American companies.
    So those are, I think, at least positive steps in the right 
direction. There is a lot more to do. And although I know the 
Spanish company Repsol is not a U.S. company, that has been an 
issue on the docket that we have talked to them about. We have 
urged them, as other governments have as well, because 
unfortunately when they nationalized that, they did not deal 
with it for a long time. But now it does look like they are in 
final stages of a deal with that company.
    The Chairman. I know you mentioned the Paris Club. The 
offer to negotiate its Paris Club debt--is that any different 
than past offers? They have made past offers, but they have not 
followed through.
    Mr. Mamet. That is exactly why I said I did not want to 
prejudge yet to see what happens. I think we are right in the 
middle of that. I completely agree, Senator. It is an ongoing 
issue, as I called it an irritant in our relationship, that we 
need to deal with. I think that is exactly why we need to have 
an ambassador there to dialogue at the highest levels and 
deliver those tough messages.
    The Chairman. How does Argentina's default on U.S. 
Government debt affect other aspects of U.S. relations with the 
country?
    Mr. Mamet. On the Paris Club, among other things?
    I think there is that basket of issues, IMF, Paris Club. 
The ICSID agreements I think did actually move forward the 
relationship a little bit. But, unfortunately, I think we have 
to be vigilant and keep an eye every single day on what is 
going on. I think these import controls, export controls, some 
of the regulation I think has made it a very difficult place at 
times to do business, although U.S. businesses, as I understand 
it, Chairman, are doing OK. But at the same time, I think we 
really need to be engaged with the country every single day, 
have the full force of this committee and the White House 
pushing Argentina to do what is in their own best interest.
    The Chairman. How do you see Argentina aligned within that 
Western Hemisphere?
    Mr. Mamet. Well, Mr. Chairman, as you know, they are the 
third-largest economy in Latin America. They obviously are a 
major player on all sorts of issues. Internationally, as I 
said, they work pretty well with us on a number of issues, 
nuclear nonproliferation, human rights, antihuman trafficking. 
So they are a major country with a major economy that we work 
with at the U.N., the IAEA, and a number of other multilateral 
fora.
    The Chairman. Well, to piggyback on Senator Rubio, not only 
in Cuba, but President Kirchner has taken the country in 
alliance with those in many respects who do not share our 
values with Venezuela, with Bolivia, with Ecuador. It seems to 
be aligned in the universe of those who are willing to change 
their constitutions in order to perpetuate their existence in 
government and reelection even beyond the constitutional 
mandate. So they arbitrarily and capriciously change 
constitutions. As a matter of fact, is it not true that 
President Kirchner was looking to do exactly that in Argentina?
    Mr. Mamet. Well, Senator, in regards to Cuba, if I can just 
say that the administration, as you know, respects the rights 
of all countries to have their own bilateral relations, but 
this is a very important point. As you know, in my background, 
I have worked on democracy issues. This is something that is 
very important to me personally.
    And working with this committee, I think that we need to 
continue to encourage Argentina to show a strong commitment to 
democracy, the rule of law, freedom of expression, and to hold 
their partners and their neighbors in the region accountable to 
the same basic standards that they believe in. As you know, 
they just had a 30th anniversary of return to democracy. They 
know, as well as anybody I think, the benefits of democracy, 
but we have to hold them accountable to make sure they push 
their neighbors, push their partners on those issues that we 
cherish that I personally hold dear and I know you do as well.
    The Chairman. Well, beyond Cuba, certainly the countries 
they are engaging with and seem to align themselves with are 
generally not within the universe of U.S. national interests.
    I also get concerned at someone who is willing to change 
the constitution and may have only been thwarted because they 
did not win the majorities necessary in the Congress to 
ultimately change the constitution. Otherwise they likely would 
have.
    And then I look at last year's leading human rights 
organizations such as Human Rights Watch and the U.N. Special 
Rapporteur on the independence of judges, which expressed deep 
concern about reforms passed by the Argentine Congress and 
moves taken by the Kirchner administration that pose a risk to 
the independence of the judiciary in Argentina.
    And then I see what has happened with press freedom in 
Argentina with the Clarin, which is one of the few media 
outlets to challenge Ms. Fernandez's policies, being besieged 
by the Kirchner administration.
    So I have a larger view about what is happening in 
Argentina. And just a rosy view that we have business, yes, we 
have business there, but we have bondholders who do not get 
paid. We have debt to the United States that they keep playing 
with by saying we are going to renegotiate and never get to 
that renegotiation. We have judges that are being interfered 
with. We have freedom of the press that is being violated. And 
we have a currency crisis that is going on. So our national 
interest universe here is much broader.
    Senator Rubio.
    Senator Rubio. I just wanted to take off on that point and 
say--I think you have stated it accurately, Mr. Chairman. Here 
is what I would add. Mr. Mamet, have you been to Argentina?
    Mr. Mamet. Senator, I have not had the opportunity yet to 
be there. I have traveled pretty extensively around the world, 
but I have not yet had a chance.
    Senator Rubio. Well, here is why I ask--and this is with 
all due respect. You have an impressive resume of work and so 
forth, and obviously, we are very interested in your testimony 
and what we learn in the days to come leading up to your 
nomination. I think this is a very significant post because I 
think Argentina is right where the chairman is describing. We 
have this trend in Latin America of people who get elected but 
then do not govern democratically, and Argentina is an example 
of this. Now, are they where Venezuela is? Cuba did not even 
try to have elections. But Venezuela or Nicaragua or Bolivia or 
Ecuador? That is where they are headed and that is who they 
align with.
    The chairman talked for a moment about the government-
sanctioned censorship that you are seeing going on there. For 
example, Kirchner has replaced independent media regulators 
with a board charged with overseeing the distribution of media 
licenses. This was put in effect basically in order to repress 
opposition media outlets by imposing ridiculous restrictions 
upon them. You have an antiterrorism law passed in 2011 that 
now holds the media liable for reporting on issues that could, 
``terrorize the public.'' This is a trend throughout the 
region, and now Argentina is at the forefront of these sorts of 
things.
    I will bring another point up to you. In January 2013, the 
President of Argentina announced a memorandum of understanding 
with Iran to create what she calls a truth commission to 
reinvestigate the 1994 terrorist attack on the Argentine 
Israelite Mutual Association. This understanding is a reversal 
of years of work and of exhaustive reporting on that attack by 
a special prosecutor, whom I have met, Alberto Nisman, who 
concluded that the attacks were approved by the Supreme Leader 
of Iran himself and by senior officials in the Iranian 
Government.
    Again, these are things that are very concerning to us, and 
I bring these things to light because in your answer to the 
chairman's question a moment ago, you identified Argentina as 
an ally. Is Argentina truly an ally? I should not say the 
people of Argentina or even the nation. Is this government 
under this President in Argentina--is that country an ally of 
the United States?
    Mr. Mamet. Senator, in my perspective, they are an ally who 
we disagree with and have fundamental disagreements about 
certain policies. I think mature democracies can disagree and 
do it very directly and forcefully when needed, either publicly 
or privately. And I think that is all the more reason that we 
need to engage. We need to be down there talking to them at the 
very highest levels.
    Senator Rubio. Well, again, I do not disagree that we 
should not talk at the highest levels, but again, I take issue 
with the idea that Argentina is a mature democracy. Mature 
democracies do not target newspaper and media outlets. Mature 
democracies do not interfere with the judicial branch. Mature 
democracies do not take the sort of actions that they are 
taking. They certainly have elections. I am not disputing they 
have elections. But elections alone do not make you a 
democracy.
    Let me give you another example. The Argentine-United 
States security cooperation between our countries is virtually 
nonexistent and it is nonexistent because of their 
unwillingness to work with us. And as I am sure you are aware, 
even in the agreements that we had with them in the past--I 
think it was 3 years ago--led by the Foreign Minister himself--
they seized American equipment. Those are not the actions of an 
ally. I do not recall the last time that Canada seized our 
equipment. I do not recall the last time that Mexico seized our 
equipment. I do not recall the last time Israel, South Korea, 
Japan, or any of our other real allies seized our equipment.
    Again, this is not a reflection on the people of Argentina 
or even on the national character of a country that I do 
believe has strong affinities to our shared culture. But I do 
take issue with this government who I do not consider an ally 
of the United States, nor an enemy either. But they need to 
make a decision about who they are and where they are headed 
government-wise. And I can just tell you that these signals 
that we are getting are not the signals of a mature democracy 
and they are not the actions of an ally.
    I did want to raise one more point in particular, and I 
know the chairman has already raised it, but I have people in 
Florida that have been impacted by this. And that is, for more 
than a decade, they have refused to honor their bond 
obligations. They have repeatedly defied U.S. courts, and they 
refuse to negotiate in good faith with its foreign 
stakeholders, including U.S. creditors who hold bonds with a 
face value of $8.7 billion at the time of the 2001 default.
    And by the way, it looks like they are headed for another 
default because all the actions they are taking today seem to 
be designed to avoid a short-term default. But long term, their 
structural problems are extraordinary, which is that I 
anticipate, quite frankly, that there is a very high likelihood 
that, if you are confirmed, while you are in that post, you are 
going to have another similar collapse in Argentina to what you 
saw economically just a decade ago. This is a very serious 
problem.
    So let me ask you. If you are confirmed as an Ambassador, 
will you send a clear message to that government in Argentina 
that it must engage? If it wants to be an ally, if it wants to 
have a better relationship with the United States, it must 
engage in good faith negotiations with its creditors, and it 
must honor its international financial obligations.
    Mr. Mamet. Absolutely, Senator, I will do that, and I will 
have the backing of this committee, this chairman, and the 
White House as we go in and we talk about the exact issues that 
you mentioned. The JCET incident from a couple years ago 
obviously was--it was a very difficult part in our 
relationship--a very difficult time in our relationship between 
the two countries. They have been, though--Argentina has twice 
been a victim of a major terrorist attack. They understand. 
They are committed to fighting terrorism, and the 
administration does stand ready to increase cooperation on a 
number of fronts, if asked. So I think absolutely we need to be 
engaged. If you want, we can talk about the AMIA bombing or 
Iran. There are a lot of other things I know you brought up.
    But the answer to your question, whether it is debt to U.S. 
bondholders or the debt to the Paris Club or whether it is 
incidents like the JCET incident that you referenced, I think 
we absolutely have to have a frank and tough discussion. But I 
think allies can disagree, but at the same time, we need to be 
in there fighting for our interests. And if confirmed, Senator, 
that will be my top priority, working with you, to absolutely 
fight for our interests and, at the same time, look for those 
areas that we can cooperate on.
    Senator Rubio. This is the most unique ally I think we have 
in the world then because Argentina is an ally that, according 
to what you have said, Argentina is an ally that does not pay 
American bondholders the money they owe them, does not 
cooperate with our military, and basically is open to 
reinvestigating and in my opinion potentially reinterpreting 
the fact that a terrorist attack authorized--according to their 
own special prosecutor who found this evidence--authorized by 
the Supreme Leader of Iran was carried out against the Jewish 
community in Buenos Aires. I mean, if it was not Iran, who else 
was behind it? And the evidence is pretty compelling. And 
instead of taking the advice of their own special prosecutor, 
this ally of ours has now decided to reopen it in the hopes of 
reinterpreting it. These are, in my opinion, not the actions of 
an ally. It could change. There could be a new President and a 
new direction for their government.
    But last but not least, I would just say that the 
antidemocratic direction that Argentina is going reminds me a 
lot more of Ecuador and Bolivia and Venezuela than it does of 
Mexico and Chile and Peru and Colombia. Those are allies. I 
think the Argentinean Government needs to make up its mind what 
they are toward the United States.
    Thank you.
    The Chairman. One final set of questions.
    This assignment for which you have been nominated is a big 
country in terms of the access of--with all due respect to the 
other two nominees, those are important countries as well. But 
this is a big to-do about, in my opinion as someone who has 
followed the hemisphere for 21 years, where the hemisphere 
goes.
    How would you define Argentina's positions vis-a-vis 
intellectual property and narcotics trafficking and money 
laundering?
    Mr. Mamet. Well, Senator, as I mentioned earlier, we have 
had a good relationship over the years working with them on a 
number of fronts. Ever since the JCET incident, we have scaled 
back and there is little cooperation on whether it is defense-
related training exercises or other issues. The administration 
stands ready to increase cooperation, if asked, on that 
particular note.
    The Chairman. And on intellectual property rights?
    Mr. Mamet. Senator, on that, I do not have a full answer on 
that, but I would be happy to--because you deserve a full, 
complete answer on intellectual property. Obviously, it is very 
important for our companies that are doing business down there. 
And if I may get back to you on intellectual property, I would 
be happy to do that.
    [The written response submitted by Mr. Mamet to the 
requested information follows:]

    The United States carefully monitors intellectual property rights 
protection in Argentina and presses for more effective enforcement. 
Areas of concern include counterfeiting, online piracy, and the unfair 
commercial use and unauthorized disclosure of data submitted to 
regulatory agencies to obtain approval for the sale of pharmaceuticals. 
In these and related matters, Argentine courts have not provided 
adequate protection. Argentina also does not efficiently address patent 
issues and applications. For these and other reasons, the Office of the 
U.S. Trade Representative includes Argentina on its Priority Watch 
List.
    Argentina is making progress to better protect intellectual 
property rights, albeit slowly. In 2012, the number of enforcement 
raids increased and regulatory officials improved cooperation with 
industry actors. The judiciary granted a civil injunction related to 
the online distribution of pirated content, though criminal action has 
been lacking. We urge Argentina to devote more attention and 
investigative and prosecutorial resources to this issue. As a 
consultant to corporations that operate overseas, I recognize the vital 
role the U.S. Government plays in advocating for the protection of U.S. 
intellectual property. If confirmed, I would be a vigorous advocate for 
U.S. companies in Argentina, working closely with the local American 
Chamber of Commerce to identify and address the most serious 
intellectual property concerns.
    Argentina also should do more to curtail money laundering, which 
facilitates narcotics trafficking, corruption, and tax evasion. The 
United States is not alone in making this observation; since 2009, the 
Financial Action Task Force has been working with Argentina to address 
deficiencies in its legal framework and enforcement approach.
    I recognize the challenge Argentine authorities face in a country 
where cash is commonly used for transactions and a high percentage of 
economic activity occurs in the informal sector. Argentina has made 
progress implementing legislation and building its capacity to address 
technical deficiencies.
    Nevertheless, problems persist. If confirmed, I would urge 
Argentine officials to pay greater attention to this issue, improve 
regulatory coordination, and ensure that the appropriate laws and 
regulations are established and enforced. The Financial Action Task 
Force recommends that, in addition to technical compliance, 
effectiveness must be considered when evaluating a national antimoney 
laundering strategy.
    Argentina is an important transit zone for South American cocaine 
being shipped to Europe. Argentina is also seeing increased domestic 
consumption and, with it, a rise in violent crime. In my work in 
impoverished neighborhoods in Los Angeles, I have seen the awful 
consequences of illegal drugs on communities, particularly on youth, 
and I support Argentina's efforts to address trafficking and addiction.
    Argentina has focused its efforts in Greater Buenos Aires and in 
vulnerable, low-income communities. It has made new investments in 
demand reduction. Improved coordination among its federal and 
provincial law enforcement agencies and deployments in the country's 
north of additional equipment and personnel would bolster operational 
capacity. Additionally, Argentine courts face backlogs in drug cases 
that limit their ability to bring narcotics traffickers to justice and 
allow their punishments to serve as a deterrent.
    Argentina and the United States share an important interest in 
confronting this alarming increase in illicit drug trafficking. If 
confirmed, I would urge Argentina to resume the more robust level of 
information-sharing and case coordination that occurred before 
Argentina seized a U.S. military plane and cargo in 2011 and 
subsequently reduced its security cooperation with the United States. 
Argentina's Ministry of Security reactivated some cooperation with U.S. 
authorities, including the Drug Enforcement Administration, in 2012. 
These limited joint efforts led to significant arrests, most notably of 
Colombian national Henry Lopez Londono in Buenos Aires in October 2012. 
However, far greater collaboration is possible given the scope of the 
challenge and, if confirmed, I would make this a priority.

    The Chairman. Well, let me inform you a little bit. 
Argentina has been on the special 301 priority list of the 
United States for a number of years because of its deficiencies 
in intellectual property rights enforcement.
    And with reference to drug trafficking and money 
laundering, it is pretty outrageous that our bilateral 
cooperation on counternarcotics issues has decreased 
dramatically following Argentina's February 2011 seizure at the 
Buenos Aires airport of U.S. military cargo and training 
materials, materials for an exercise that had been approved by 
the Argentine Government.
    So this is why we have some real concerns about what this 
relationship is and what our nominee will do in this country 
because we love the Argentinean people. We think they deserve 
better, and we think that Americans who ultimately invest in 
Argentina deserve much better than what they have experienced.
    With no other members before the committee and with our 
thanks to all of you for your testimony, the record will remain 
open until the close of business tomorrow.
    I would urge the nominees, if they receive questions from 
the committee members who may not have been here today but will 
submit questions for the record, for you to answer them 
expeditiously. The sooner you answer them, the more likely we 
can consider you for a business meeting.
    And seeing no other member wishing to ask questions, this 
hearing is adjourned.
    [Whereupon, at 3:55 p.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


               Responses of Luis G. Moreno to Questions 
                  Submitted by Senator Robert Menendez

    Question. What is your assessment of the Jamaican Government's 
cooperation with the U.S. on antinarcotics efforts? If confirmed, what 
efforts will you take to deepen this cooperation?

    Answer. The United States has a history of close and fruitful law 
enforcement cooperation with the Jamaican Government. If confirmed, I 
would continue this partnership with the Jamaican Government, working 
closely with the many U.S. agencies represented in our Embassy, and 
Jamaican counterparts focused on counterterrorism and counternarcotics 
activities. I would support Caribbean Basin Security Initiative (CBSI) 
funding for programs focusing on capacity-building for security forces 
and the criminal justice system.
    Our joint efforts through the CBSI to counter the growing threat 
posed by narcotics and weapons trafficking to the security of our 
citizens and our economies have resulted in the arrest of lottery 
scammers, the extraditions of drug traffickers, and the seizure of 
illegal drugs and contraband. In 2013, Jamaican authorities, with U.S. 
support, seized 1,230 kg of cocaine, compared to 338 kg in 2012.
    U.S. relationships with the Jamaica Constabulary Force (JCF) and 
Jamaica Defense Force (JDF) are excellent. Ship container and airport 
interdiction initiatives have proven beneficial in seizing drugs, 
identifying targets, and developing leads to the United States and 
other countries. The Embassy is working to assemble joint training for 
Jamaicans customs and select law enforcement groups, coordinated by 
U.S. and British law enforcement/security agencies, particularly in the 
area of drug interdiction.

    Question. What accounts for Jamaica's increased homicide rate in 
the past year? What is the Jamaican Government doing to curb violence? 
What role can U.S. assistance play?

    Answer. Jamaica recorded 1,197 murders in CY 2013, a 9-percent 
increase over 2012. Jamaican officials, including National Security 
Minister Peter Bunting, attributed the 2013 spike in homicides to 
increased use of violence in robberies, the recent prison releases of 
alleged gang leaders, a general increase in intragang battles, and a 
return to Caribbean drug routes--owing to law enforcement efforts in 
Mexico and Central America that brought with it an increase in weapons 
and drug trafficking.
    To curb this violence, the Jamaica Constabulary Force (JCF) 
launched Operation Resilience in October 2013, an antigang measure that 
resulted in hundreds of arrests and seized weapons. The Jamaican 
Government is building capacity by increasing the JCF's budget, and 
improving its organized crime and anticorruption task forces and its 
forensic capabilities.
    Jamaica is a partner in the Caribbean Basin Security Initiative 
(CBSI), through which the U.S. Government has been working in Jamaica 
since 2010 to increase the capacity of its rule of law institutions as 
well as address the root causes of crime.
    USAID's CBSI-funded Community Based Policing project provided a 
standard curriculum and training for every member of the JCF on 
improved interaction with community members and a partnership approach 
to policing. Other USAID CBSI activities focus on intervening with at-
risk youth, who are highly susceptible to choosing a life of crime and 
violence and providing them with life and job skills training.
    CBSI also provides nonlethal equipment and training, 
institutionalizes community-based policing, and supports the JCF's 
Anti-Corruption Branch. In 2012, with the assistance of INL-provided 
equipment the National Forensics Sciences Laboratory's ability to 
analyze and process ballistic evidence for the prosecution of gun 
crimes increased by 62 percent; firearms account for 70 percent of all 
murders in Jamaica.

    Question. How would you assess the Caribbean Basin Security 
Initiative in Jamaica? In your opinion, is this assistance having an 
impact?

    Answer. The Caribbean Basin Security Initiative (CBSI) is 
positively contributing to improved Jamaican law enforcement responses 
to increasing transnational criminal activity throughout the region.
    As a member of the Caribbean-U.S. Joint Working Group, Jamaica 
played a key role in developing this initiative and plays a critical 
leadership role in the region. The initiative is improving the safety 
of the United States and improving the security of all countries in the 
region. USAID's CBSI-funded Community Based Policing (CBP) project 
provides a standard curriculum and training for every member of the 
Jamaica Constabulary Force (JCF) on improved interaction with community 
members and a partnership approach to policing. The CBP project has 
also been used as a template for other countries within the region to 
develop their own CBP activities. The next phase of the CBP project 
will improve community safety by increasing the capacity of 
communities, police, and other stakeholders to address the root causes 
of crime and insecurity. USAID is working with Jamaica's at-risk 
communities to ensure they play an active role in the fight against 
crime and violence.
    Other CBSI activities focus on intervening with at-risk youth who 
are highly susceptible to choosing a life of crime and violence, and 
providing them with life and job skills training. CBSI funding focused 
on law enforcement professionalization has provided 6,000 frontline JCF 
officers with nonlethal force equipment and training and supported the 
JCF internal affairs division.

    Question. How would you assess U.S assistance to Jamaica's efforts 
to combat HIV/AIDS? What progress has Jamaica made in combating the 
HIV/AIDS epidemic?

    Answer. The Government of Jamaica has been a robust partner with 
the United States in combating the HIV/AIDS epidemic. While the 
President's Emergency Plan for AIDS Relief (PEPFAR) program began in FY 
2008, Jamaica was making investments with its own limited resources to 
address HIV/AIDs as far back as FY 2000. However, Jamaica has one of 
the highest levels of HIV prevalence in the Caribbean. Still, there are 
fewer deaths due to HIV/AIDS in recent years due to universal access to 
antiretroviral drugs and the increase in treatment sites.
    In 1999, the rate in the general population was 0.7 percent. In the 
2012 Global AIDS response report, the figure is 1.7 percent. There has 
been significant underreporting because it is estimated that 50 percent 
of the people living with HIV do not know their status as they are 
reluctant to be tested, even though testing is widely available in 
Jamaica. Stigma and discrimination of people living with HIV/AIDS 
drives the epidemic underground and there are challenges to ensure 
people adhere to the treatment program.
    The U.S. interagency PEPFAR team, along with UNAIDS, Global Fund, 
and the EU, consults with the Government of Jamaica to discuss strategy 
and avoid duplication of efforts. USAID works closely with the Ministry 
of Health to improve the capacity of civil society to respond to the 
epidemic and to enhance the sustainability of services and programs. 
The majority of resources and technical inputs have been in HIV 
prevention through behavioral changes targeting key populations (sex 
workers and out-of-school youth). The Jamaican Ministry of Health and 
key nongovernmental organizations are encouraging testing and 
counseling of the general population as well as supporting the 
reduction of stigma and discrimination among people living with HIV/
AIDS and key populations.

    Question. Jamaica has a law that in effect criminalizes 
homosexuality, and according to Jamaican human rights groups, LGBT 
people in Jamaica have been singled out and killed because of their 
sexual orientation. The Guardian newspaper reported that the British 
honorary consul in Montego Bay was found dead in 2009, with a note on 
his body reading ``This is what will happen to all gays.'' What 
specific steps will you take as the next U.S. Ambassador to Jamaica to 
promote greater tolerance and acceptance of LGBT rights? And, what 
specific U.S. programs and assistance will you prioritize to counter 
anti-LGBT sentiment in Jamaica and to support individuals and 
organizations working to build a safer environment for the Jamaican 
LGBT community?

    Answer. U.S. support for protecting the human rights of lesbian, 
gay, bisexual, and transgender (LGBT) persons is grounded in our 
commitment to ``the equal and unalienable'' human rights enshrined in 
the Universal Declaration of Human Rights and reflected in our 
Constitution. If confirmed, I would work closely with our Embassy team 
and Jamaican partners to advance LGBT rights.
    Embassy Kingston maintains excellent access and strong relations 
with Jamaican officials, nongovernmental organizations, academic 
institutions, and community leaders. If comfirmed I will continue to 
engage with the Ministry of Health and Ministry of Justice on human 
rights issues, including issues of specific concern to the LGBT 
community.
    U.S. programs and activities seek to enhance and expand 
understanding and appreciation for the human rights of LGBT individuals 
through internal discussion and dialogue. One important aspect of 
embassy activity is to meet regularly with local NGOs that engage on 
LGBT issues to gain insight on issues of discrimination and discuss 
opportunities for greater U.S. involvement.
    Priority programs include funding for ``Panos Caribbean'' that 
works to strengthen and improve the livelihoods of those in the gay 
community through public awareness campaigns. The program promotes 
tolerance and accountability for those impacted by HIV/AIDS. The 
Embassy also funded a ``Respect and Tolerance'' program with a local 
university that supports activities that promote a culture of respect 
and social tolerance for diversity.
    If confirmed, I will speak out on the needs of LGBT youth, women, 
and racial and ethnic minorities who often face multiple forms of 
discrimination. I will also maintain regular contact with academic 
institutions to stay informed on LGBT issues; ensure that the Embassy's 
Law Enforcement Working Group addresses LGBT issues in the criminal 
justice system; and work with other diplomatic missions in Kingston to 
promote respect for LGBT persons.
                                 ______
                                 

               Responses of John L. Estrada to Questions 
                  Submitted by Senator Robert Menendez

    Question. To what extent can Trinidad and Tobago supply its 
regional neighbors with natural gas and decrease the Caribbean's 
reliance on using oil and diesel for electricity generation? To what 
extent does Trinidad and Tobago have energy efficiency or renewable 
energy programs to improve environmental outcomes and free up more 
natural gas for export?

    Answer. Trinidad provides significant energy resources, mostly oil, 
to its Caribbean neighbors and it will continue to play an important 
role. While oil can be shipped without significant capital investment, 
the same is not true for natural gas. The capital cost to develop the 
infrastructure to transport natural gas is an important factor in the 
Eastern Caribbean energy market. The administration is advocating on 
behalf of a U.S. company that is working with partners from Trinidad 
and Tobago to develop a pipeline to Barbados and the neighboring French 
islands. If feasible, this project could increase energy security in 
the Eastern Caribbean. As a result of the shale gas revolution in the 
United States, Trinidad, and Tobago has already shifted its export 
market for its gas from the United States to Latin America and Asia.
    While Trinidad and Tobago is rich in oil and gas resources, its 
leaders recognize that renewable energy is critical to environmental 
protection and economic sustainability. They are considering how to 
expand renewables locally. Trinidad and Tobago has committed itself to 
renewable energy for the Caribbean region by signing a memorandum of 
understanding with the U.S. Government to launch a regional renewable 
energy center under the Energy and Climate Partnership of the Americas.

    Question. How would you assess Trinidad and Tobago's cooperation 
with the United States on counternarcotics programs and what steps 
would you take as our Ambassador to strengthen this collaboration? To 
what degree has Trinidad and Tobago's proximity to the Venezuelan coast 
made it vulnerable to trafficking operations?

    Answer. Trinidad and Tobago is an important partner in Caribbean 
Basin Security Initiative (CBSI) efforts to stem the flow of illegal 
drugs from South America. Through CBSI, the United States has 
instituted a comprehensive interagency anticrime and counternarcotics 
strategy aimed at assisting local law enforcement agencies to detect 
and interdict narcotics and to develop the skills to effectively 
prosecute these crimes. In Trinidad and Tobago, the government has 
struggled to coordinate and adequately fund its counternarcotics 
efforts; seizures in 2012 were down from 2011. If confirmed, I would 
bolster our CBSI programs and those initiated by the Drug Enforcement 
Administration to disrupt the flow of narcotics to the United States 
and would work with Trinidad and Tobago to strengthen its capacity to 
fight transnational criminals. I would also work to support its efforts 
to convince its youth to turn their backs on the false promise of the 
drug trade.

    Question. What factors account for the high level of violence in 
Trinidad and Tobago? How is the Trinidadian Government responding to 
the high murder rate? What steps would you take as U.S. Ambassador to 
help the Government of Trinidad and Tobago address violence in its 
country.

    Answer. The Government of Trinidad and Tobago recognizes violent 
crime as a key challenge and is seeking taking steps to address it, 
including to procuring the necessary equipment, training, and personnel 
to address it. I understand that through the Caribbean Basin Security 
Initiative (CBSI), the United States provides assistance to help the 
Government of Trinidad and Tobago to address the root causes of crime, 
which include the destabilizing effects of the illicit narcotics trade 
and lack of economic opportunity, and also by providing support to 
demand-reduction programs.
    There is no greater priority for a U.S. Embassy than protecting its 
citizens, including from crime. The U.S. Government has focused its 
efforts to combat crime by building Trinidad and Tobago's law 
enforcement capacity. If confirmed, I would seek to bolster the 
existing U.S. Government interagency efforts to combat crime and build 
Trinidad and Tobago's law enforcement capacity. Law enforcement efforts 
targeting other specific types of crime have resulted in a marked 
decrease in some of those categories of crime, such as kidnappings for 
ransom. If confirmed, I would promote these existing programs and work 
for their expansion.

    Question. According to U.N. statistics, more than 13,000 people in 
Trinidad and Tobago are estimated to be living with HIV and the adult 
prevalence rate in the country is 1.5 percent. In an effort to combat 
HIV/AIDS, Trinidad and Tobago receives assistance under the President's 
Emergency Plan for AIDS Relief (PEPFAR). How would you assess these 
efforts and the support that the United States has provided to Trinidad 
and Tobago to reduce the incidence and limit the spread of HIV/AIDS?

    Answer. Trinidad and Tobago has implemented a national program to 
combat HIV/AIDS. The country has a 1.5 percent adult HIV prevalence 
rate, with significantly higher rates among those engaged in high-risk 
behaviors.
    Trinidad and Tobago, along with 11 partnering Caribbean countries, 
signed the President's Emergency Plan for AIDS Relief (PEPFAR) 
Partnership Framework in April 2010. The Framework guides the 
collaboration among the U.S. Government's PEPFAR implementing agencies 
and the participating host government partners. In Trinidad and Tobago, 
the Centers for Disease Control and Prevention (CDC) has the most 
active role of the U.S. Government's implementing agencies. CDC's 
programming focuses on improved data collection, prevention strategies, 
laboratory strengthening, and building public health capacity.
                                 ______
                                 

                 Responses of Noah Mamet to Questions 
                  Submitted by Senator Robert Menendez

    Question. A recent New York Times editorial stated that Argentina 
is ``facing a financial crisis caused largely by misguided government 
policies'' and a Washington Post editorial stated that Argentina is 
``headed for another stretch of economic and perhaps political 
turmoil.'' Do you agree with these assessments? Does the current 
economic situation in Argentina have the ability to potential to affect 
economies throughout the region?

    Answer. A stable and prosperous Argentina is in the best interest 
of Argentina, the United States, and the region. Encouraging sound 
economic policies is one of the key U.S. objectives in Argentina, and 
it would be one of my top priorities if confirmed as Ambassador. I 
believe strongly in the power of free and fair rules-based trade and 
the importance of a market-led economy for economic development.
    From 2003 to 2007, Argentina was buoyed by high demand and high 
prices for its agricultural exports. Government policies helped bring 
about fiscal and current account surpluses and the accumulation of 
international reserves. Recently, however, growth has slowed and 
Argentina has experienced imbalances in its fiscal and current 
accounts, due in part to increasing subsidies for energy. Many informed 
observers both inside and outside Argentina believe these imbalances 
must be addressed to put Argentina on a sustainable and prosperous 
trajectory.
    If confirmed, I will encourage the maintenance of a stable, 
transparent, and predictable investment climate that promotes 
investment and fair and open competition. I would also ensure that the 
U.S. Embassy in Buenos Aires continues to serve as a strong advocate 
for the fair treatment of U.S. companies and investors.

    Question. What are the United States primary national interests in 
its bilateral relationship with Argentina with regard to trade, 
investment, energy, military, and counternarcotics issues.

    Answer. Notwithstanding important areas of disagreement in recent 
years, including Argentina's failure to honor its international 
obligations to public and private creditors and its inconsistent 
security cooperation, the United States and Argentina have a long 
history of cooperation. If confirmed, I will strongly advocate for U.S. 
interests in areas where our governments have not found common ground 
and in areas where we continue to cooperate.
    Our countries share many values that provide the foundation for 
collaboration on peacekeeping, human rights, nuclear nonproliferation, 
counterterrorism, education, and science. We do not always agree with 
Argentina's positions in international fora, but it has been a 
constructive partner at the International Atomic Energy Agency and the 
U.N. Human Rights Council. If confirmed, I will highlight the interests 
and values Americans and Argentines share, as well as the potential 
benefits of closer cooperation between our countries on the regional 
and global stages.
    My emphasis on cooperation should not be mistaken for reluctance to 
engage in areas of disagreement. Argentina's 2011 seizure of classified 
U.S. cargo brought into Argentina by a U.S. Army Joint Combined 
Exercise Training team was completely unjustified and unacceptable. 
Since this regrettable incident, we have been working to restore the 
level of trust necessary for more fulsome cooperation on security and 
counternarcotics.
    If confirmed, I will continue the administration's efforts to 
highlight Argentina's responsibility to meet its international trade 
and financial obligations, including by removing trade barriers in 
accordance with WTO rules and addressing other impediments to business 
and investment.
    Despite frustrations and difficulties, our economic relationship 
with Argentina is significant and mutually beneficial. More than 500 
U.S. companies operate in Argentina and employ more than 170,000 
Argentines. The United States is Argentina's largest foreign direct 
investor. The U.S. trade surplus with Argentina was $9.4 billion in 
2012. Given Argentina's educated workforce and natural resources, there 
is room for investment and trade to expand dramatically to the benefit 
of both economies.
    If confirmed, I will strongly encourage Argentina to take all 
appropriate steps to strengthen our economic ties.

    Question. What is your assessment of Argentina's participation in 
the Mercosur trade bloc and do you see Mercosur as an effective 
platform for economic integration and growth in South America?

    Answer. The administration welcomes all efforts at regional 
integration that aim to reduce obstacles to trade, further economic 
development, and increase shared prosperity. We appreciate that support 
for democracy is enshrined in Mercosur's foundational documents, and 
its implicit commitment to promote those values in the region.
    If confirmed, I would work to increase trade and investment with 
Argentina and ease market access for U.S. businesses.

    Question. In your opinion, who are Argentina's major political 
allies in Latin America? What is your assessment of relations between 
Argentina and Chile? And, what is your view on Argentina's closeness 
with the ALBA countries (Venezuela, Nicaragua, Bolivia, Ecuador, and 
Cuba).

    Answer. Argentina is active in a variety of regional multilateral 
bodies, including the Organization of American States, and it 
participates in the Summits of the Americas. It is also an active 
member of the Union of South American Nations and the Community of 
Latin American and Caribbean States (CELAC).
    Argentina's relationship with neighboring Chile is cooperative, 
including participation in joint military exercises to coordinate 
potential joint peacekeeping deployments. Argentina and Chile are 
demonstrating their regional leadership on nonproliferation by 
organizing this year a joint exercise on response and mitigation to a 
potential terrorist attack involving the release of radioactive 
material.
    The Argentine Government maintains close ties to Venezuela, whose 
President, Nicolas Maduro, visited Argentina in May 2013. Although not 
a member of the Bolivarian alliance, Argentina has at times associated 
itself with the group's positions and objectives.
    Argentina and Cuba have had bilateral relations since 1973. In 
2009, Argentine President Christina Fernandez de Kirchner visited Cuba 
and signed a range of agreements. She returned to Havana last month to 
participate in a CELAC summit. Like any country, Argentina is free to 
choose its bilateral partners. That said, if confirmed, I would urge 
Argentina to take a stronger and more consistent position 
internationally on behalf of democratic values and fundamental human 
rights, consistent with its own national history.

    Question. What is your assessment as to why Argentina has been slow 
to settle its outstanding debts? As Ambassador, what tools will you 
have at your disposal to encourage the Argentine Government to settle 
its outstanding debts? Will you urge the Argentine Government to 
negotiate in good faith with its private creditors?

    Answer. Resolution of Argentina's legacy debt issues has dragged on 
for more than a decade, tarnishing Argentina's reputation among current 
and potential investors, damaging its international relationships, and 
resulting in certain restrictions to U.S. assistance.
    If confirmed, I will strongly urge Argentina to clear its arrears 
and normalize relations with all of its creditors, both public and 
private.
    In my outreach to senior Argentine officials, I will strongly 
emphasize that the settlement of these longstanding financial disputes 
is in Argentina's interest, as it would send a strong signal that 
Argentina is a reliable and attractive destination for foreign and 
domestic investment.

    Question. What is your assessment of Argentina's most recent offer 
to renegotiate its outstanding Paris Club arrears? How does Argentina's 
default on U.S. Government debt affect other aspects of U.S. relations 
with the country?

    Answer. Argentina's unpaid debt to the U.S. Government is a chronic 
source of tension in our relationship. If confirmed, I will urge 
Argentina to clear its $9 billion in outstanding arrears to the United 
States and other members of the Paris Club, and press Argentine 
officials to normalize relations with all of its creditors.
    Argentina's failure to pay its Paris Club debt has had 
consequences. The impasse has tarnished Argentina's reputation among 
current and potential investors, damaged its international 
relationships, resulted in certain restrictions to U.S. assistance, and 
a change in U.S. policies toward Argentina at the multilateral 
development banks and at the Export-Import Bank of the United States. 
For these reasons, the U.S. and other members of the Paris Club 
regarded the restarting of negotiations with Argentina as a positive 
step and a basis for further discussion.
    If confirmed, I will urge Argentina to reach an agreement with the 
Paris Club that brings about the prompt and full repayment of its 
debts.

    Question. Do you believe that judicial independence is under threat 
in Argentina? What message would you deliver to the Argentine 
Government regarding the links between upholding judicial independence 
and its ability to attract international investment and resolve 
financial challenges in the country?

    Answer. The separation of the executive, legislative, and judicial 
branches, and the protection of their independence, are fundamental 
components of democratic governance. The administration follows this 
issue closely throughout the hemisphere, including in Argentina.
    In 2013, the Argentine Government took steps to alter the size and 
selection process of the country's Council of Magistrates, which 
oversees the judiciary. It also sought to limit the use of judicial 
injunctions against the government, and to establish new appellate 
courts. The proposals prompted concerns about judicial independence, 
and provoked criticism from Human Rights Watch and the U.N.'s Special 
Rapporteur on the Independence of Judges and Lawyers. Argentina's 
Supreme Court ultimately struck down as unconstitutional the 
controversial election process of the Council of Magistrates proposed 
by the executive branch and approved by the legislature.
    In the Human Rights Report in 2011 and 2012, the United States 
cited risks to judicial independence in Argentina, noting in particular 
political pressure on judges to shape judicial outcomes. If confirmed, 
I will be steadfast in my defense of judicial independence, and 
emphasize that any future attempts at judicial reform not undermine its 
independence and the separation of powers.

    Question. Do you believe that the Kirchner administration is taking 
steps to undermine press freedom in Argentina? If confirmed, will you 
make issues of press freedom and the defense of internationally 
recognized democratic principles one of your priorities? What message 
would you have for the Argentine Government regarding its actions 
against Grupo Clarin?

    Answer. Freedom of expression, including for members of the press, 
is a fundamental right, and in the words of the Inter-American 
Democratic Charter, an ``essential component'' of a functioning 
democracy. Argentines enjoy a diverse media environment, which 
facilitates vibrant policy debates across the ideological and partisan 
spectrums. Journalists generally operate free of intimidation or 
violence. Criticism of the government is common in the most widely 
viewed print and electronic media.
    In recent years, however, this media environment has come under 
threat, and journalism advocates have raised concerns about government 
actions that they believe pose a threat to free expression. A 2009 
media law that reduced the concentration of TV and radio ownership was 
accompanied by a highly polarizing and intensified conflict between the 
government and certain private media groups, including Clarin. In 2011, 
counterterrorism legislation also raised concerns about potential 
constraints to the free exercise of journalism. The Argentine 
Government has defied local court orders to equitably distribute 
official advertising across all media outlets, instead favoring those 
sympathetic to government views. In 2013, the Argentine Government 
pressured major supermarkets and electronics retailers to cease 
advertising in certain newspapers, depriving critical outlets of an 
important revenue source. These and other actions led Freedom House to 
classify Argentina's media environment as only ``partly free'' in its 
2013 report. The organization warned that the government had ``hampered 
the public's ability to access unbiased information.''
    If confirmed, I will speak out both publicly and privately about 
the importance of free expression and the right of citizens to benefit 
from an independent and diverse media that operates without government 
interference.

    Question. Is the Argentine Government adequately addressing the 
underlying causes of macroeconomic instability? Are you concerned how 
the current environment could impact U.S. investment, particularly U.S. 
companies already invested in Argentina?

    Answer. The Obama administration closely monitors Argentina's 
economy and its macroeconomic policies, including actions related to 
the country's currency regime. In recent months, Argentina experienced 
rising inflation and a loss of reserves driven by imbalances in its 
fiscal and current accounts. As the third-largest economy in Latin 
America, its economic stability is critically important to the region. 
It is also important to the many U.S. companies with investments in 
Argentina; in 2012, two-way trade in goods and services totaled $23 
billion, and the U.S. trade surplus with Argentina was $10.4 billion.
    If confirmed, I will encourage the Argentine Government to adopt 
policies that will contribute to economic stability, including policies 
that promote a stable investment climate to encourage investment, both 
foreign and domestic. A stable and growing Argentine economy will help 
bring about shared prosperity in Argentina, while strengthening the 500 
U.S. businesses that operate in the country.

    Question. What is your understanding of the progress of 
negotiations between the Argentine Government and Spanish oil company 
Repsol? Do you believe that the nationalization of Repsol assets in 
Argentina has implications for U.S. companies seeking to invest in the 
country?

    Answer. The Obama administration has repeatedly expressed its 
concerns about Argentina's nationalization of Repsol-YPF, which 
proceeded initially without fair compensation. The administration 
called it a ``negative development'' that dampened the investment 
climate in Argentina.
    The administration has noted developments indicating that YPF and 
Repsol agreed in principle on a mutually satisfactory compensation 
arrangement. That appears to be a positive step for Argentina. Without 
question, an open and competitive market for commodities has proved the 
most successful path to modern, efficient, and innovative development 
of energy resources across the globe. In the United States, privately 
owned energy companies are global leaders that use advanced 
technologies and methods for energy exploration and production. U.S. 
firms have a lot to offer to countries that present a favorable 
investment environment.
    In Argentina, oil and natural gas production have been declining in 
recent years, and Argentina has gone from being a net exporter of 
energy to a net importer. Despite these trends, Argentina has enormous 
potential to help supply world energy markets and contribute to global 
energy security. The Department of Energy estimates that Argentina has 
some of the world's largest shale oil and gas resources. Attracting 
private investment, including from U.S. firms, will be essential for 
Argentina to regain energy self-sufficiency. The Argentine Government 
has demonstrated a clear interest in having U.S. companies act as 
partners in their efforts to re-invigorate their energy sector; several 
U.S. firms have begun to make sizable investments, including in 
Argentina's Vaca Muerta shale oil and shale gas field.
    If confirmed, I will continue to raise the administration's concern 
at the highest levels of the Government of Argentina about actions that 
negatively affect the investment climate in Argentina. At the same 
time, I will seek to build a strong bilateral partnership on energy 
issues, including through our Bilateral Energy Working Group, to 
advance the common interests of our countries.

    Question. How do you assess Argentina's IPR enforcement and what 
are the most significant efforts that Argentina could make that would 
take it off the Special 301 Priority Watch List?

    Answer. The United States carefully monitors intellectual property 
rights protection in Argentina and presses for more effective 
enforcement. Concerns include counterfeiting, online piracy, and the 
unfair commercial use and unauthorized disclosure of data submitted to 
regulatory agencies to obtain approval for the sale of pharmaceuticals. 
Argentine courts have not provided adequate protection. Argentina also 
does not efficiently address patent issues and applications. For these 
and other reasons, the Office of the U.S. Trade Representative includes 
Argentina on its Priority Watch List. On February 12, 2014, it singled 
out Argentina in its Notorious Markets report, noting that Buenos Aires 
is home to South America's ``largest black market.''
    Argentina is making progress to better protect intellectual 
property rights, albeit slowly. In 2012, the number of enforcement 
raids increased and regulatory officials improved cooperation with 
industry actors. The judiciary granted a civil injunction related to 
the online distribution of pirated content, though criminal action has 
been lacking. If confirmed, I would urge Argentina to devote more 
attention and investigative and prosecutorial resources to this 
important issue.
    Having been a consultant to corporations that operate overseas, I 
recognize the vital role the U.S. Government plays in advocating for 
the protection of U.S. intellectual property. If confirmed, I would be 
a vigorous advocate for U.S. companies in Argentina, working closely 
with the local American Chamber of Commerce to identify and address the 
most serious intellectual property concerns.

    Question. What is your assessment of Argentina's efforts to 
confront illicit trafficking networks in the Tri-Border area? What is 
your assessment of U.S.-Argentine counternarcotics cooperation?

    Answer. The Tri-Border area of Argentina, Brazil, and Paraguay 
remains an important regional nexus of arms, narcotics, and human 
smuggling, counterfeiting, pirated goods, and money laundering--all 
potential funding sources for terrorist organizations. If confirmed, I 
will ensure that we continue to monitor this region closely and 
maintain close communication with this committee on this important 
issue.
    Argentina recognizes the need for continued to focus on policing 
its remote northern and northeastern borders--including the Tri-Border 
area--against such threats as illicit drug and human trafficking, 
contraband smuggling, and other forms of transnational crime. In my 
work in impoverished neighborhoods in Los Angeles, I have seen the 
awful consequences of illegal drugs on communities, particularly on 
youth, and I support Argentina's efforts to address trafficking and 
addiction.
    Argentina also focuses on Greater Buenos Aires and vulnerable, low-
income communities. It made new investments in demand reduction. 
Improved coordination among its federal and provincial law enforcement 
agencies and deployments in the country's north of additional equipment 
and personnel would bolster operational capacity. Argentine courts face 
backlogs in drug cases that limit their ability to bring narcotics 
traffickers to justice and allow their punishments to serve as a 
deterrent.
    Argentina and the United States share an important interest in 
confronting this alarming increase in illicit drug trafficking. The 
most consistent cooperation to date is Immigration and Customs 
Enforcement's work with Argentine customs. If confirmed, I would urge 
Argentina to resume the more robust level of information-sharing and 
case coordination that occurred before Argentina seized a U.S. military 
plane and cargo in 2011 that resulted in a subsequent reductionin 
effective security and law enforcement cooperation with the United 
States. Argentina's Ministry of Security reactivated some cooperation 
with U.S. authorities, including with the Drug Enforcement 
Administration, in 2012. These limited joint efforts led to significant 
arrests, most notably of Colombian national Henry Lopez Londono in 
Buenos Aires in October 2012. However, far greater collaboration is 
possible given the scope of the challenge and, if confirmed, I would 
make this a priority.

    Question. In your opinion, what are the factors contributing to 
money laundering in Argentina? What is the State Department's 
assessment of the extent of this problem and what steps would you take 
as Ambassador to develop greater bilateral cooperation to address these 
issues?

    Answer. Argentina should take additional steps to curtail money 
laundering, which facilitates narcotics trafficking, corruption, and 
tax evasion. We are not alone in making this observation; since 2009, 
the Financial Action Task Force has been working with Argentina to 
address deficiencies in its legal framework and enforcement approach.
    I recognize the challenge Argentine authorities face in a country 
where cash is commonly used for transactions and a high percentage of 
economic activity occurs in the informal sector. Argentina has made 
progress implementing legislation and building its capacity to address 
money laundering.
    Nevertheless, serious problems persist. If confirmed, I would urge 
Argentine officials to pay greater attention to this issue, improve the 
capacity and coordination among regulatory, law enforcement and 
judicial elements to ensure that the appropriate laws and regulations 
are fully implemented and enforced. The Financial Action Task Force 
recommends that, in addition to technical compliance, effectiveness 
must be considered when evaluating a national antimoney laundering 
strategy.

    Question. What is your assessment of special prosecutor Alberto 
Nisman's reports on Iranian involvement in the 1994 bombing of the 
Argentine Israeli Mutual Association? What is the State Department's 
position on the Argentina-Iran ``truth commission?''

    Answer. The U.S. position on the AMIA bombing is clear and 
consistent. For nearly 20 years, the United States and the 
international community have joined the Argentine Government and 
victims of this horrific terrorist attack in demanding justice. I am 
familiar with Special Prosecutor Alberto Nisman's findings, and I know 
that our Embassy personnel have met with Nisman on a number of 
occasions. If confirmed, I would reach out to Special Prosecutor Nisman 
as one of my first acts as Ambassador.
    The Obama administration is highly skeptical that a solution can be 
found to the AMIA case through the January 2013 Argentina-Iran 
agreement, which includes the establishment of a truth commission. 
Jewish groups in Argentina share that perspective, and they have 
expressed concern that Argentina's cooperation with Iran will only 
cause further delays. In recent months, the Argentine Government itself 
has acknowledged a lack of progress, though it remains committed to the 
agreement.
    If confirmed, I will ensure the U.S. Government continues to 
support the AMIA investigation so that nearly two decades after the 
bombing in Buenos Aires killed 85 people and wounded 300, the 
perpetrators might finally be held accountable. I take this issue 
extremely seriously, and I will do all I can to help bring justice to 
the victims and their families.

    Question. What is the State Department's assessment of Argentina's 
current nuclear power sector? Also, what is your assessment of U.S.-
Argentine cooperation in the nuclear power sector, including issues of 
safety and research?

    Answer. Argentina operates two nuclear power reactors capable of 
generating up to 10 percent of Argentina's total energy production. 
Argentina is expected to begin operating a third reactor this year. 
Both General Electric and Westinghouse are interested in supplying new 
reactors to Argentina. The United States and Argentina coordinate 
effectively on nuclear safety, nuclear security, nuclear research and 
development, nuclear safeguards, and nonproliferation through the U.S.-
Argentina Binational Energy Working Group and the U.S.-Argentina Joint 
Standing Committee on Nuclear Energy Cooperation, the Nuclear Suppliers 
Group, and at the International Atomic Energy Agency, where Argentina 
has been a constructive and like-minded partner on issues related to 
Iran.
    The United States and Argentina have long cooperated in addressing 
our shared energy needs and economic opportunities in the energy 
sector, and we continue to do so, including at the next meeting of the 
Joint Standing Committee on Nuclear Energy Cooperation, to be held in 
Argentina later this year.

    Question. What is your assessment of the Kirchner administration's 
claims that the Falklands are Argentine territory? Should President 
Kirchner seek to refer this case to the International Court of Justice 
at The Hague, what position would you recommend that the United States 
take?

    Answer. The U.S. Government acknowledges that there are conflicting 
claims of sovereignty between Argentina and the United Kingdom. As a 
matter of long-standing policy, the United States recognizes de facto 
British administration of the islands, but takes no position regarding 
sovereignty claims of either party.
    If confirmed, I would encourage British and Argentine cooperation 
on practical matters related to the islands, while urging a peaceful 
resolution to the core issue.
                                 ______
                                 

                  Response of Noah Mamet to Question 
                  Submitted by Senator Jeanne Shaheen

    Question. The Argentinian Government's ongoing failure to pay past 
debts remains a significant concern, undermining its credibility in the 
global marketplace.
    The Republic of Argentina has refused to settle debts owed by Caja 
National de Ahorra Y Seguro (CAJA) to the TIG Insurance Company (TIG) 
from my home State of New Hampshire. I have written a number of letters 
to the Argentinian authorities urging them to resolve these outstanding 
debts. The legitimacy of TIG's claim was validated by two final U.S. 
District Court judgments in 2001 and 2002, and the company has made 
five settlement offers to which the Argentine Government has never 
responded.

  <diamond>  Will you continue to emphasize the importance of resolving 
        outstanding debt issues between the Argentinian Government and 
        American debt holders? What are we doing to encourage Argentina 
        to settle their obligations, including to TIG?

    Answer. If confirmed, resolution of Argentina's outstanding debt 
issues will be a priority for me, just as it has been for the U.S. 
Embassy in Buenos Aires and U.S. agencies in Washington, who raise the 
issue with the Argentine Government at every appropriate opportunity. 
It is in Argentina's interest to normalize its relationship with the 
international financial and investment communities by clearing its 
arrears to the U.S. Government and other public and private creditors. 
Settling its disputes with U.S. and foreign firms is an important part 
of that process, and I would strongly urge senior Argentine officials 
to do so.
    Argentina has taken positive steps in recent months, including the 
settlement of outstanding arbitral awards with three U.S. companies, 
and the resumption of discussions regarding the payment of Argentina's 
debts to Paris Club members. These preliminary steps are encouraging, 
but much more needs to be done. If confirmed, I will press Argentina to 
honor all of its international financial commitments. The resolution of 
long-standing financial disputes would improve Argentina's investment 
climate and strengthen our bilateral relationship.
                                 ______
                                 

                 Responses of Noah Mamet to Questions 
                    Submitted by Senator Marco Rubio

    Question. During your confirmation hearing on February 6, you 
repeatedly described the Government of Argentina as an ally of the 
United States. Please describe the status of our bilateral relations 
and U.S. interests in Argentina.

    Answer. Notwithstanding important areas of disagreement in recent 
years, including Argentina's failure to honor its international 
obligations to public and private creditors, the United States and 
Argentina have a long history of cooperation. If confirmed, I will work 
to strengthen that partnership, while strongly advocating for U.S. 
interests in areas where our governments have not found common ground 
and delivering tough messages when necessary.
    Our countries share many values that provide the foundation for 
important collaboration on areas of mutual interest, such as 
peacekeeping, human rights, nuclear nonproliferation, counterterrorism, 
and science. We do not always agree with Argentina's positions in 
international fora, but they have often been a constructive partner on 
key issues at bodies like the IAEA in Vienna, and the Human Rights 
Council in Geneva.
    If confirmed, I will highlight the common interests and values 
Americans and Argentines share, as well as the potential benefits of 
closer cooperation between our countries on the regional and global 
stages.
    People-to-people connections through education, tourism, science, 
and business are strong between our countries. During the 2011-2012 
academic year, 1,800 Argentine students studied in the United States 
while 4,500 U.S. students did so in Argentina. U.S. tourism to 
Argentina has grown in recent years, and our consular section in Buenos 
Aires is one of the top visa-issuing posts in the world with more than 
600,000 Argentines having visited the United States in 2012. This 
interchange strengthens the U.S. economy while helping Argentines 
better understand U.S. culture.
    If confirmed, I will seek to bring prominent Americans to Argentina 
to highlight the dynamism, diversity, and openness of our country. It 
is my hope that through these efforts, Argentines will increasingly 
look to the United States as a partner in nurturing a peaceful, 
prosperous, and sustainable global community.
    My emphasis on cooperation should not be mistaken for reluctance to 
engage in areas of disagreement. Argentina's 2011 seizure of classified 
U.S. cargo brought into Argentina by a U.S. Army Joint Combined 
Exercise Training team was completely unjustified and should never 
happen again. If confirmed, I will continue the administration's 
efforts to highlight Argentina's responsibility to meet its 
international financial obligations, as well as its need to remove 
trade barriers and address related policies. I will aggressively 
address these and other areas of disagreement, while finding 
opportunities to advance mutual interests.

    Question. How would you characterize the current status of media 
freedom in Argentina?

    Answer. Freedom of expression, including for members of the press, 
is fundamental and in the words of the Inter-American Democratic 
Charter, an ``essential component'' of a functioning democracy. I 
couldn't agree more.
    Argentines enjoy a diverse and active media environment, which 
facilitates vibrant policy debates across the ideological and partisan 
spectrums. Journalists operate generally free of intimidation or 
violence. Criticism of the government is common in the most widely 
viewed print and electronic media.
    In recent years, this media environment has come under threat, and 
journalism advocates have raised concerns about government actions that 
they believe are obstacles to free expression. A 2009 law reduced the 
concentration of TV and radio ownership, but was accompanied by a 
highly polarizing and intensified conflict between the government and 
certain specific private media groups. In 2011, counterterrorism 
legislation raised concerns about potential constraints to journalism. 
In recent years, the Argentine Government has defied local court orders 
to equitably distribute official advertising across all media outlets, 
instead favoring those more sympathetic to government views. In 2013, 
the Argentine Government pressured major supermarkets and electronics 
retailers to cease advertising in newspapers, thereby depriving 
critical outlets of yet another important revenue source. These and 
other actions led Freedom House to classify Argentina's media 
environment as only ``partly free'' in its 2013 report. The 
organization warned that the government had ``hampered the public's 
ability to access unbiased information.''
    If confirmed, I will speak out both publicly and privately about 
the importance of free expression and the right of citizens to benefit 
from an independent and diverse media that operates without government 
interference.

    Question. What is your view of efforts by the Argentine Government 
in 2013 to provide for the election of magistrates to oversee the 
judiciary?

    Answer. The separation of the executive, legislative, and judicial 
branches, and the protection of their independence, are fundamental 
components of democratic governance. An independent judiciary provides 
a vital check on the powers of the other branches of government, and 
offers a venue for the peaceful and fair settlement of disputes. The 
administration follows these issues closely in the hemisphere, 
including in Argentina.
    In 2013, the Argentine Government took steps to alter the size and 
selection process of the country's Council of Magistrates, which 
oversees the judiciary. It also sought to limit the use of judicial 
injunctions against the government, and to establish new appellate 
courts. The proposals prompted concerns about risks to judicial 
independence, and provoked criticism from Human Rights Watch and the 
U.N.'s Special Rapporteur on the Independence of Judges and Lawyers. 
Argentina's Supreme Court ultimately struck down as unconstitutional 
the controversial election process of the Council of Magistrates 
proposed by the executive branch and approved by the legislature.
    In the Human Rights Report in 2011 and 2012, the U.S. 
administration cited the risks to judicial independence in Argentina, 
noting in particular political pressure on judges to shape judicial 
outcomes. If confirmed, I will be steadfast in my defense of judicial 
independence.

    Question. What is your assessment of the current state of democracy 
in Argentina?

    Answer. Throughout its history, Argentina has experienced episodes 
of economic turbulence and political instability, with only five 
Presidents completing their terms over the past seven decades.
    Encouragingly, in in 2013, Argentina celebrated the 30th 
anniversary of its return to democracy following a tragic period of 
dictatorship and civil conflict. In the so-called ``dirty war,'' as 
many as 30,000 Argentines died at the hands of the country's security 
forces. That national trauma instilled in Argentines a deep 
appreciation for human rights and democratic norms, such as free and 
fair elections. Argentina has several well-established political 
parties and movements that hold office at various levels and compete 
vigorously in elections, most recently, in October 2013, Argentina held 
free and fair national mid-term elections. Argentina's democratic 
values are also evident in many of its positions the country has taken 
at international fora such as the Organization of American States and 
the U.N. Human Rights Council.
    As in all democratic societies, maintaining the proper checks and 
balances between among Argentina's public government institutions 
requires vigilance. In recent years, some executive and legislative 
actions have been seen as providing unfair electoral advantages to the 
governing party, and in other cases in Argentina have threatened the 
independence of the judiciary. Democracy consists of more than holding 
elections. If confirmed, I will promote strong institutions that 
provide fair and impartial application of national law and citizen 
rights, supported by appropriate separation of powers that guarantees 
checks and balances among government branches.
    I would also hope that Argentina's national experience over the 
past three decades with the defense of democratic values would 
consistently translate into a defense of those same values 
internationally. Unfortunately, Argentina's foreign policy has not 
always reflected its domestic commitment to democracy. This is most 
notably evident in our hemisphere, where Argentina has steadfastly 
defended one-party rule and the denial of basic human rights for the 
people of Cuba. It has embraced the authoritarian regime in Havana. By 
expressing solidarity with that government, where citizens are denied 
the right to choose their leaders or express opinions on matters of 
national importance and journalists cannot operate freely, Argentina 
does a disservice to its own historical legacy and interest in 
strengthening democracy worldwide.
    If confirmed, I would promote continued cooperation with Argentina 
both bilaterally and multilaterally to spread our shared democratic 
values, while urging Argentina to hold its neighbors in the region and 
countries around the world to the same standards for political freedoms 
and human rights.

    Question. Is the Government of Argentina is following a prudent 
economic model--the ``modelo'' as it is called?

    Answer. A stable and prosperous Argentina is in the best interest 
of Argentina, the United States, and the entire region. Encouraging 
sound economic policies is 
one of the key objectives of U.S. policy in Argentina, and it would be 
one of my top priorities if confirmed as Ambassador. I believe strongly 
in the power of free and fair rules-based trade and the importance of a 
market-led economy for economic development.
    From 2003 to 2007, Argentina was buoyed by high demand and high 
prices for its agricultural exports. Government policies helped bring 
about fiscal and current account surpluses and the accumulation of 
international reserves. Recently, however, growth has slowed and 
Argentina has experienced imbalances in its fiscal and current 
accounts, due in part to increasing subsidies for energy. Many 
economists believe these imbalances must be addressed to put Argentina 
on a sustainable and prosperous trajectory.
    It is also important that Argentina normalize its relationship with 
the international financial and investment communities by clearing its 
arrears to the U.S. Government and other public and private creditors. 
The administration has raised these issues at high levels with the 
Government of Argentina for several years. Recently, Argentina has 
taken positive steps, including paying arbitral awards to U.S. 
companies; working toward implementation of a new consumer price index 
in coordination with the International Monetary Fund to improve its 
economic data; and resuming discussions regarding repaying Argentina's 
debts to Paris Club members.
    These preliminary steps are encouraging, but if confirmed, I will 
urge Argentina to deepen its efforts to resolve these longstanding 
irritants in our relationship. I will encourage the maintenance of a 
stable, transparent, and predictable investment climate that promotes 
investment and fair and open competition. I would also ensure that the 
U.S. Embassy in Buenos Aires continues to serve as an advocate for the 
fair treatment of U.S. companies and investors.

    Question. What will your message be to the Argentine Government 
relative to their interventionist economic policies and the impact that 
has had on inflation, business, trade, and commerce?

    Answer. In any country, predictable and transparent economic 
policies offer the best environment for broadly inclusive national 
development and for attracting investment. Business investment, both 
local and foreign, generates economic opportunity and promotes shared 
prosperity.
    If confirmed, I will urge the Government of Argentina to adopt 
transparent and predictable policies and regulations that promote fair 
and open competition. Policies that protect intellectual property are 
an important component of a favorable business climate, as is an 
independent judiciary.
    The United States has expressed serious concern, both bilaterally 
and at the World Trade Organization (WTO), regarding Argentine measures 
that restrict imports in an arbitrary and nontransparent manner, 
including in a WTO complaint the United States filed against Argentina 
in August 2012.
    More than 500 U.S. companies operate in Argentina and employ more 
than 170,000 Argentines. The United States is Argentina's largest 
foreign-direct investor. Meanwhile, the U.S. trade surplus with 
Argentina in goods and services reached approximately $9.4 billion in 
2012. Given Argentina's workforce and natural resources, there is room 
for this investment and trade to expand dramatically to the benefit of 
both national economies. If confirmed, I will strongly encourage 
Argentina to take all appropriate steps to strengthen our economic 
relationship.

    Question. Argentina relies heavily on the sale of commodities like 
soy to support their economy. Should there be a decline in soy prices, 
or the Argentines ability to produce soy for soy hungry nations like 
China, what impact would that have on the Argentine economy?

    Answer. Argentina has long benefited from its remarkably fertile 
and plentiful agricultural land. Led by agricultural production, 
including soy, its exports totaled $75.2 billion in 2012.
    Agricultural prices are often volatile, and all economies benefit 
from diversification in exports and trading partners. A decline in soy 
prices would have a negative impact on Argentina's revenue collection 
as well as its balance of payments. That said, the Argentine economy 
exports a range of other products and services, in agriculture, energy, 
and other sectors. The United States consumes more than 5 percent of 
Argentine exports; in 2012, it imported $411 million in iron and steel 
products from Argentina, as well as hundreds of millions of dollars in 
fresh fruit, wine, and aluminum. Argentina also exports oil and natural 
gas to the United States and other trading partners.

    Question. With alarming government expansion into the private 
market expected to continue under President Fernandez de Kirchner, what 
impact do you foresee on the Argentine people and economy? If 
confirmed, how would you recommend the U.S. engage on these issues?

    Answer. Argentines benefit when private economic activity serves as 
an engine of growth, creates jobs, and provides government revenue to 
address social needs. U.S. companies have long identified opportunities 
in Argentina, and more than 500 operate in that country today.
    Businesses in Argentina, both domestic and foreign, have faced 
serious obstacles in recent years. These include nationalizations 
without prompt, fair, and effective compensation; restrictions on 
imports; limited access to foreign currency; barriers to the 
repatriation of profits; price controls; and inadequate protection of 
intellectual property. These policies discourage local and foreign 
investment.
    If confirmed, I will be a tireless champion for the U.S. business 
community in Argentina and urge better cooperation between the private 
sector and the government. As I learned first-hand during my years 
working for Members of the U.S. Congress and later as a business 
consultant, an effective partnership between businesses and government 
is essential for countries to reach their full economic potential. I 
will work closely with my colleagues throughout the U.S. Government--
including at the Departments of State, Commerce, Treasury, Agriculture, 
Energy, Labor, and Justice, and at the Office of the U.S. Trade 
Representative and the U.S. Congress--to ensure that our national 
economic interests are promoted in Argentina and that Argentina honors 
its international obligations.

    Question. In 2012, the Government of Argentina renationalized the 
country's largest oil company, YPF, which accounts for 35 percent of 
Argentina's oil and gas market. What impact is this likely to have on 
energy prices and production?

    Answer. The administration has long expressed its concerns about 
the Government of Argentina's nationalization of Repsol-YPF, which 
proceeded initially without due compensation. At the time, we called it 
a ``negative development,'' and we believe it clearly dampened the 
investment climate in Argentina. More recently, we have noted 
developments indicating that YPF and Repsol have agreed in principle on 
a mutually satisfactory compensation arrangement. Without question, an 
open and competitive market for energy and other commodities has proved 
the most successful path to modern, efficient and innovative 
development of energy resources across the globe.
    Oil and natural gas production in Argentina are declining. 
Argentina has gone from being a net exporter of energy to a net 
importer. Despite these trends, Argentina has enormous potential to 
help supply world energy markets and contribute to global energy 
security. Attracting private investment will be essential for Argentina 
to regain energy self-sufficiency. The Argentine Government has 
demonstrated a clear interest in having U.S. companies be partners in 
their efforts to reinvigorate their energy sector.
    If confirmed, I will continue to raise the administration's concern 
at the highest levels of the Government of Argentina about actions that 
negatively affect the investment climate in Argentina. At the same 
time, I will seek to build a strong bilateral partnership on energy 
issues, based upon the common interests of our countries.

    Question. There are several failed models in Latin America of 
nationalized energy firms. How would you work with other agencies of 
the U.S. Government and American firms to try and prevent Argentina 
from duplicating mistakes made elsewhere in the region?

    Answer. In the United States, privately owned energy companies are 
global leaders that use advanced technologies and methods for energy 
exploration and production. U.S. firms have a lot to offer to countries 
that present a favorable investment environment.
    Every country has the sovereign right to decide how to best take 
advantage of its natural resource endowments. All policies need to 
adhere to requirements under local and international law. Regardless of 
the system, what matters most are transparency, efficiency, 
accountability, predictability, and responsible business practices.
    If confirmed, I would encourage Argentina to adopt predictable and 
competitive policies to attract the level of investment it needs to 
meet the country's vast energy potential. I would work with U.S. 
Government agencies--including the Departments of Energy and Interior--
to share U.S. best practices with Argentine counterparts on 
environmental and regulatory matters, including through our Bilateral 
Energy Working Group. There are several U.S. companies interested in 
investing and offering their services to develop Argentina's shale oil 
and gas fields, which are among the largest in the world. I would 
consult regularly with these and other U.S. firms and when appropriate, 
advocate with Argentine authorities on their behalf.

    Question. U.S.-Argentine security cooperation, particularly between 
our militaries, has been nonexistent due to Argentine unwillingness to 
work with us.

  <diamond> (a) If confirmed, what steps should the Argentine 
        Government take to improve military-military relationship?
  <diamond> (b) Is the Argentine Government a committed U.S. partner in 
        the fight against terrorism?

    Answer. If confirmed, I will try to build renewed trust between our 
governments and reestablish a constructive partnership based on mutual 
interests and mutual respect, and I will look for similar intent from 
the Argentine Government. After all, our countries share many security 
priorities. Defending national borders against the flow of illegal 
narcotics, for example, is a goal of both our nations. Argentina, twice 
a victim of major terrorist attacks in the 1990s, also shares the U.S. 
commitment to combat international terrorism, and cooperation in this 
area continues.
    Security cooperation with Argentina has been limited since 
Argentina's 2011 seizure of classified U.S. cargo brought into 
Argentina by a U.S. Army Joint Combined Exercise Training team. The 
team had proper prior authorization from Argentine authorities, and 
there was no legitimate reason for the seizure. Differing perspectives 
in multilateral defense and security fora have further complicated our 
bilateral cooperation.
    While many aspects of our defense relationship today remain 
challenging, U.S. security and defense cooperation and training are 
important goals for the administration, including for international 
peacekeeping capacity-building, emergency response preparedness, and 
for regional counternarcotics efforts. The United States engages the 
Argentine Armed Forces through commercial and foreign military sales. 
Some exchange of students between our militaries also continues, 
including through the International Military Educational and Training 
program.

    Question. The intelligence relationship between Argentina and the 
U.S. is important. The Tri-Border region between Argentina, Brazil, and 
Paraguay contains a large illicit trade and trafficking zone where 
foreign operators like Hezbollah are able to sell counterfeit goods, 
launder money, and raise funds for Shia groups and Iranian proxies like 
Hezbollah.

  <diamond> If confirmed, will you pledge to focus on the Tri-Border 
        area and work to commit the U.S. to monitor Islamic influence 
        and activities in the Southern Cone and work with Argentina, 
        Paraguay, and Brazil on this matter?

    Answer. The Tri-Border area of Argentina, Brazil, and Paraguay 
remains an important regional nexus of arms, narcotics, and human 
smuggling, counterfeiting, pirated goods, and money laundering--all 
potential funding sources for terrorist organizations. If confirmed, I 
will work to ensure that we continue to monitor this region closely and 
maintain close communication with this committee on this issue.
    Ideological sympathizers in South America and the Caribbean 
continue to provide financial support to terrorist groups in the Middle 
East and South Asia. If confirmed, I will work with my U.S. Government 
colleagues and the Government of Argentina to expose and combat such 
activity. I will urge Argentine officials to improve domestic law 
enforcement and regulatory coordination, and to establish and enforce 
appropriate laws and regulations to curtail money laundering. I will 
emphasize to Argentina the importance of working with its neighbors, 
Brazil and Paraguay, as well as others in the region to adopt 
complementary measures.
    If confirmed, I will make heightened cooperation a priority.

    Question. In January 2013, President Fernandez de Kirchner 
announced a memorandum of understanding with Iran to create a so-called 
``truth commission'' to reinvestigate the 1994 terrorist attack on the 
Argentine Israeli Mutual Association (AMIA).
    The MOU is a reversal of years of work and exhaustive reporting on 
the AMIA attack by Special Prosecutor Alberto Nisman, who has concluded 
that the attack was approved by Supreme Leader Ali Khamenei and senior 
officials in the Iranian Government.

  <diamond> (a) What is the U.S. Government's assessment of the work of 
        Special Prosecutor Nisman?
  <diamond> (b) Are you familiar with his 2006 and 2013 reports?
  <diamond> (c) What are the administration's views on this so-called 
        ``truth commission?''

    Answer. The U.S. position on the AMIA bombing is clear and 
consistent. For 20 years, the United States and the international 
community have joined the Argentine Government and victims of this 
horrific terrorist attack in demanding justice. I am familiar with 
Special Prosecutor Alberto Nisman's findings, and I understand that our 
Embassy personnel have met with him on a number of occasions to discuss 
them.
    The Obama administration is highly skeptical that a solution can be 
found to the AMIA case through the January 2013 Argentina-Iran 
agreement, which includes the establishment of a truth commission. 
Jewish groups in Argentina share that perspective, and they have 
expressed concern that Argentina's cooperation with Iran will only 
cause further delays. In recent months, the Argentine Government itself 
has acknowledged a lack of progress, though it remains committed to the 
agreement.
    If confirmed, I will ensure that the U.S. Government continues to 
support the AMIA investigation so that nearly two decades after the 
bombing in Buenos Aires killed 85 people and wounded 300, the 
perpetrators might finally be held accountable. I take this issue 
extremely seriously, and I will do all I can to help bring justice to 
the victims and their families.

    Question. Argentina is a Tier 2 country for sex and labor 
trafficking according to the 2013 Trafficking in Persons report. 
Argentine women and children from the rural areas are often subjected 
to trafficking in the urban centers.

  <diamond> (a) If confirmed, how will you engage with the government 
        on the issue of trafficking?
  <diamond> (b) What specific steps should the Argentine Government 
        take to prevent the trafficking of rural citizens to urban 
        centers?

    Answer. As the Government of Argentina itself has recognized, far 
too many men, women, and children in Argentina are subjected to sex 
trafficking, forced labor in sweatshops and homes, and forced 
prostitution in cities. In spite of progress made by the Government of 
Argentina in the fight against trafficking in persons during the past 
year, serious challenges remain.
    Notable recent accomplishments include passage of a federal 
antitrafficking law, the conviction of 17 trafficking offenders in 
2012, and law enforcement efforts to arrest trafficking suspects and 
rescue victims.
    This has been an area of constructive bilateral engagement in 
recent years. The U.S. Government provided advanced training to 
national and provincial authorities, facilitated by the Immigration and 
Customs Enforcement agency, to combat trafficking in persons. We have 
also provided material support to NGOs engaged in strengthening the 
protection and rights of victims of trafficking.
    Argentina remains a Tier 2 country on the U.S. Government's annual 
Trafficking in Persons report. If confirmed, I will support the 
Government of Argentina in its efforts to strengthen its 
antitrafficking regime, including prevention activities, victim 
services, and the conviction of criminals who profit from this 
destructive activity.

 
  NOMINATIONS OF MATTHEW TUELLER, DOUGLAS SILLIMAN, MARK GILBERT, AND 
                            JOSEPH WESTPHAL

                              ----------                              


                      THURSDAY, FEBRUARY 13, 2014

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Matthew Tueller, of Utah, to be Ambassador of the Republic of 
        Yemen
Douglas Alan Silliman, of Texas, to be Ambassador to the State 
        of Kuwait
Mark Gilbert, of Florida, to be Ambassador to New Zealand and 
        to serve concurrently as Ambassador to Samoa
Joseph William Westphal, of New York, to be Ambassador to the 
        Kingdom of Saudi Arabia
                              ----------                              

    The committee met, pursuant to notice, at 2:01 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Tim Kaine 
presiding.
    Present: Senators Kaine, Risch, and Barrasso.
    Also present: Senator Susan M. Collins.

             OPENING STATEMENT OF HON. TIM KAINE, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Kaine. This meeting of the United States Senate 
Committee on Foreign Relations is called to order. I want to 
thank all who are attending on this day, when both the Federal 
Government and the Senate are shut down. But this is an 
important hearing and I am glad we were able to hold it, and I 
especially appreciate my ranking member, Senator Risch's, 
willingness to do this hearing today.
    The hearing is about ambassadorial nominees to four 
critical allies and partners of the United States: Saudi 
Arabia, New Zealand, Yemen, and Kuwait. Some of the nominees 
have waited for a bit and so we wanted to make sure that we 
could do this today, and I appreciate everyone making this 
happen.
    I will make a few introductory comments about each of our 
four nominees today. I will ask Senator Risch as ranking member 
of the Subcommittee on Near East, South and Central Asian 
Affairs to make opening comments as well. At that point, we are 
fortunate to have with us Senator Collins of Maine, who will 
introduce one of our nominees, Secretary Westphal.
    After that introduction--and we would understand if the 
Senator--everybody is making moves--might need to leave at that 
point. We would certainly understand that. I will ask each of 
the nominees, beginning with Ambassador Tueller and just moving 
across the line, to make opening statements. At that point we 
will move into 7-minute rounds of questions and we may do that 
for a bit. But nevertheless, welcome to all.
    A word about each of the four nominees in no particular 
order. Dr. Westphal, welcome, nominated to be the Ambassador to 
Saudi Arabia, a very, very important partner of the United 
States in the Middle East. Dr. Westphal was appointed Under 
Secretary of the Army in 2009, has quite a bit of experience 
across the Federal Government both in the Department of Defense 
and in other agencies, including the EPA, as well as an 
extensive academic background.
    Dr. Westphal's background as a scholar and public servant 
will come in handy, and especially his work at the DOD will be 
important in his position with Saudi Arabia, one of our 
critical military partners in terms of so many important issues 
in the Middle East.
    Dr. Westphal goes to Riyadh at a very critical time, when 
there has been some at least public strain in the narrative or 
friction in the relationship. Dr. Westphal's skills will help 
us find ways where our countries, who are partners, but who 
will nevertheless have differences, as all partners do, find 
ways to communicate those differences and continue to work in 
partnership. Dr. Westphal, we are glad to have you with us 
today.
    Mark Gilbert is the President's nominee to be Ambassador to 
New Zealand. I said to Mr. Gilbert, who is a friend: You are 
kind of--if they look at the lineup of countries, who does not 
belong here? Well, we have three Middle Eastern countries and 
New Zealand. But we are rearranging geography because it is 
important that Mark, whose nomination has been up for a while, 
is here today, and we are glad to have you and your family.
    Mark has an interesting background: a long-time business 
background in the financial sector for a number of companies--
Goldman Sachs, currently Barclay's, where he has done a lot of 
important economic development work, and with the New Zealand 
trade relationship that will come in handy. But one of the 
interesting things about Mark is he also played pro baseball 
for the Chicago White Sox and other minor league teams, and 
Mark is somebody who has been a very, very good friend and 
would bring a lot to bear. He and his family will be wonderful 
representatives of the country.
    Senator Nelson was going to be here to introduce Mark today 
and was not able to come because of the weather, but submitted 
a statement. The entire statement will be included in the 
record, but let me just read an excerpt from Senator Nelson's 
statement: ``I'm very pleased to introduce to the committee an 
outstanding Floridian, Mr. Mark Gilbert, to be our next 
Ambassador to New Zealand. Mark has been a friend of mine for 
many years and is without a doubt a terrific candidate for this 
important post. Mark has a background in economics, having 
served as a director of Barclay's Wealth in West Palm Beach, 
senior vice president of Goldman Sachs in Miami, and senior 
vice president, sales manager, of Drexel Burnham Lambert in 
Boca Raton. Before his successful career in finance, Mark was a 
professional baseball player for several years, even playing in 
the major leagues with the Chicago White Sox in 1985.
    ``Mark's combined skills and professional experience make 
him an excellent nominee to serve as our next U.S. Ambassador 
to New Zealand. A major trade and regional partner, New Zealand 
will continue to pay a crucial role in U.S. efforts.
    ``I am so pleased that the President has recognized Mark 
and named him to this important post and I look forward to 
supporting his speedy confirmation by the full Senate.''
    The entire statement will be included in the record, but I 
wanted you to know that Senator Nelson thinks so highly of the 
nomination.
    [The prepared statement of Senator Nelson follows:]

               Prepared Statement of Senator Bill Nelson 
                    Introducing Nominee Mark Gilbert

    I am very pleased to introduce to the committee an outstanding 
Floridian--Mr. Mark Gilbert--to be our next Ambassador to New Zealand.
    Mark has been a friend of mine for many years and is, without a 
doubt, a terrific candidate for this important post.
    Mark has a background in economics--having served as a director at 
Barclays Wealth in West Palm Beach; senior vice president of Goldman 
Sachs in Miami; and the senior vice president sales manager of Drexel 
Burnham Lambert in Boca Raton.
    Before his successful career in finance, Mark was a professional 
baseball player for several years--even playing in the major leagues 
with the Chicago White Sox in 1985.
    Mark's combined skills and professional experiences make him an 
excellent nominee to serve as our next U.S. Ambassador to New Zealand.
    A major trade and regional partner, New Zealand will continue to 
play a crucial role in U.S. rebalance efforts toward Asia.
    In addition to being a strong economic partner, helping to forge 
the Trans-Pacific Partnership Free Trade Agreement, we have a 
significant bilateral trade relationship--totaling $11 billion in 2011.
    And while New Zealand is currently our 56th-largest trading 
partner, I'm certain that Mark will help lower that number once he has 
settled in the post.
    Mark will also represent the United States to a crucial military 
partner. Like its neighbor Australia, New Zealand has fought alongside 
the United States time and again.
    New Zealand's military commitment in Afghanistan has been vastly 
importantly. Their special forces have been deployed there since 2001, 
contributing to ISAF headquarters and the U.N. mission in Afghanistan. 
They've also contributed to the Provincial Reconstruction Team in 
Bamyan province, strengthening security and stability there.
    During the last few years, I've been pleased to see a new chapter 
in our bilateral, defense cooperation. Joint operations in the region 
now include maritime security, counterterrorism, humanitarian 
assistance, and disaster relief.
    New Zealand's participation in recent, multination military 
exercises has greatly increased our interoperability throughout the 
pacific.
    Our continued security and economic cooperation with New Zealand 
will continue to be very important. I'm certain that as Ambassador, 
Mark will reinforce and build upon this strong and mutually beneficial 
relationship.
    I'm so pleased that the President has recognized Mark and named him 
to this important post, and I look forward to supporting his speedy 
confirmation by the full Senate.

    Senator Kaine. In Kuwait, the nominee we will hear from 
today is Mr. Doug Silliman of Texas, who has had a superb and 
an extensive record as a career Foreign Service officer. Both 
he and the next nominee, Ambassador Tueller, have served in 
very difficult and challenging environments, sometimes able to 
take their families, sometimes not able to take their families. 
But they relish challenges, and Kuwait is a very important 
position.
    Mr. Silliman embodies a wonderful tradition within the 
Foreign Service. He speaks Arabic, French, and Turkish and he 
has years of experience in the Middle East. During a time of 
growing security tension across the Middle East and concerns 
over Iran and Syria, our close partnership with Kuwait, formed 
both in peace and in war, is more crucial than ever.
    A career diplomat like Mr. Silliman, who represents the 
best of our Foreign Service, who is just returning from a 
posting in Baghdad, where he was able to see what a lot of 
people thought would not be possible, the reestablishment and 
actually formation of very strong relations between Iraq and 
Kuwait, gives him exactly the kinds of experiences necessary to 
handle our important relationship with our ally in Kuwait.
    You follow in the footsteps of an illustrious predecessor, 
the next man I will introduce, Ambassador Tueller. Ambassador 
Tueller is just completing service in Kuwait and has been 
nominated for the important, challenging position of U.S. 
Ambassador to Yemen. Mr. Tueller is also a career Foreign 
Service officer. Actually, he had a career before he had a 
career, because he grew up as the son of a Foreign Service 
officer and served with his family originally as a child in 
Latin America.
    His career in the Foreign Service has been in both Latin 
America and in the Middle East, and he has served with 
distinction, most recently in Kuwait, and is now assuming, upon 
confirmation, upon vote of the Senate, this position in Yemen.
    Every day American diplomats risk their lives around the 
world and nowhere is that more true than Yemen, a country where 
political and economic normalization is in the direct security 
interests of the United States. Mr. Tueller, who most recently 
served in Kuwait, was previously posted in Yemen at a time in 
the early 2000s, has familiarity with the country, and brings a 
great deal of experience to this important task, where there is 
an ongoing national dialogue about the formation of a new 
government that might be a federal government--these were just 
announced earlier in the week--where there are potential issues 
from the U.S. security and counterintelligence programs to 
Guantanamo. All impact this mission in Yemen.
    We are pleased to have you here, and all the nominees, 
congratulations on your recommendations, nominations by the 
President, and we look forward to this hearing today.
    With that, I will turn the meeting over to my ranking 
member, Senator Risch, for his comments as well.

           OPENING STATEMENT OF HON. JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    Senator Risch. Mr. Chairman, thank you very much. From what 
I can tell, this must be an extremely important hearing, 
inasmuch from what I can tell everybody left in Washington, DC, 
is in this room. [Laughter.]
    Senator Risch. Thank you for holding the hearing. Certainly 
some of these countries are real challenges. I look forward to 
hearing the testimony of the three nominees and I suspect we 
will have some exhilarating questions after that. Thank you, 
Mr. Chair.
    Senator Kaine. Thank you. I also appreciate Senator 
Barrasso for joining us today.
    Senator Collins is here, Senator from Maine, to offer a 
word of recommendation about the nominee to be Ambassador to 
Saudi Arabia, Dr. Westphal. Senator Collins, great to have you 
here.

              STATEMENT OF HON. SUSAN M. COLLINS, 
                    U.S. SENATOR FROM MAINE

    Senator Collins. Thank you very much, Mr. Chairman. Mr. 
Chairman, I would expect that your two colleagues and I, 
because of the States we come from, would be able to brave this 
weather and think nothing of it. But I am particularly 
impressed that someone from Virginia, the Commonwealth of 
Virginia, is able to be with us today and to preside over this 
hearing. So with that, I will begin my formal comments.
    Chairman Kaine, Ranking Member Risch, I am pleased to 
appear before you today to introduce Dr. Joseph Westphal, who 
has been nominated to serve as the U.S. Ambassador to the 
Kingdom of Saudi Arabia. I have known and worked with Dr. 
Westphal in two different capacities, both here in Washington, 
where he serves as Under Secretary of the Army, and back home 
in Maine, where he was Chancellor of the University of Maine 
System from 2006 to 2009.
    Dr. Westphal has a reputation as a talented leader and 
manager in both the Federal and State government. His extensive 
experience and knowledge of national security policy are just 
two of the essential skills that he will bring to the task of 
strengthening our bilateral relationships with the Saudis 
during what is a turbulent, complicated time in the Middle 
East.
    Dr. Westphal's long career in academia and public service 
began when he received his Ph.D. in political science from the 
University of Missouri and then taught for 12 years at Oklahoma 
State University. His career took a turn toward public policy 
when he went to work for one of our colleagues, Senator Thad 
Cochran, from 1995 through 1997. He also served as a Senior 
Policy Advisor at the Environmental Protection Agency, before 
becoming an Assistant Secretary of the Army in 1998. In 2001 he 
served as Acting Secretary of the Army, responsible for 
organizing, training, and equipping the 1.1 million men and 
women serving in that branch of our military services.
    Since being nominated and confirmed as Under Secretary of 
the Army in 2009, Joe has dedicated his considerable energy to 
keeping our country safe. I have worked very closely with him 
on several issues affecting military readiness and personnel 
and I can attest to his dedication to public service, his 
pragmatic approach to solving problems, and his unwavering 
commitment to our troops.
    Secretary Westphal is also a charter member of the Deputy 
Secretary of Defense Advisory Group, which deals with all 
matters related to strategy, policy, budgeting, acquisition, 
personnel, and readiness in the Department. This group also 
provides advice to the Secretary of Defense on matters related 
to Department activities in support of operations in the Middle 
East and gulf region, and it has focused on issues related to 
Syria, Iraq, Saudi Arabia, Yemen, Iran, and other countries in 
the Central Command area of responsibility.
    Secretary Westphal has been heavily involved in this group 
and as a result has a deep understanding of the strategic 
challenges faced by the United States in this region.
    Mr. Chairman, again thank you for this opportunity to 
introduce Dr. Joseph Westphal. I am confident that if confirmed 
he will carry out the duties of this important position with 
the same commitment and unique set of practical and policy 
skills that he has brought to every position that he has held 
in his extensive previous public service.
    Thank you very much, and I thank the members of this 
committee.
    Senator Kaine. Thank you, Senator Collins. We understand 
that you may need to depart, but we appreciate you being here 
today to offer those words on behalf of Dr. Westphal.
    Senator Collins. Thank you.
    Senator Kaine. We will now move into opening statements by 
our nominees. I think we will start with Ambassador Tueller and 
move across the table. Your entire written statement will be 
included in the record. Iwould like to ask you to make your 
opening comments to about 5 minutes. The entire written 
statement will be included.
    Ambassador Tueller, welcome.

  STATEMENT OF HON. MATTHEW TUELLER, OF UTAH, NOMINATED TO BE 
              AMBASSADOR TO THE REPUBLIC OF YEMEN

    Ambassador Tueller. Thank you. Chairman Kaine, Ranking 
Member Risch, members of the committee, let me first extend my 
personal gratitude, and I think I can speak on behalf of all my 
fellow nominees, for your dedication in ensuring that this 
hearing goes ahead today despite the weather conditions.
    It is an honor to appear before you today as President 
Obama's nominee to serve as Ambassador to the Republic of 
Yemen. I am grateful to the President for his nomination and to 
Secretary Kerry for his continued trust and confidence. I am 
sorry that my wife Denise and our five children are unable to 
attend today's session, but thank them for their continued love 
and support.
    I welcome the opportunity to discuss Yemen today and ask 
that my full testimony be submitted for the record.
    Mr. Chairman and members of the committee, if confirmed I 
will work to advance critical U.S. foreign policy and national 
security interests in Yemen. My top priorities will be to 
support the people of Yemen in their ongoing transition to 
democracy, to bolster U.S. security cooperation with the Yemeni 
Government, to foster greater regional and global security, and 
ensure the safety and security of U.S. citizens and embassy 
employees.
    The United States has a strong and growing partnership with 
Yemen. Since the November 2011 signing of Yemen's transition 
agreement, the people of Yemen have accomplished what many 
thought impossible. Under the leadership of President Hadi, 
Yemen has embarked on a serious reform effort to better meet 
the political, economic, security, and social aspirations of 
its citizens.
    If confirmed, I will work to promote the various reforms 
underpinning this transition. A successful transition will also 
bolster our domestic security as the Yemeni Government develops 
its capacity to directly counter the threat of terrorism and 
root out the underlying causes of violent extremism.
    President Obama underscored last May that AQAP is the most 
active organization plotting against the United States. This 
threat emanates from Yemen. The Yemeni people have borne the 
brunt of AQAP's vicious attacks. President Hadi and the Yemeni 
people stand strongly committed to stamping out this threat to 
the peace and security of their country. If confirmed, I will 
work to deepen our two nations' commitment to close 
coordination in this shared fight by continuing strong United 
States support for programs that develop the capability of 
Yemen's security forces, counter violent extremism, and build 
the capacity of law enforcement.
    Despite Yemen's transition accomplishments, significant 
humanitarian challenges remain. The gains in political and 
security sector reforms have not yet translated into large-
scale improvements in the daily life of average Yemenis and 
over half of the population is in need of some form of 
humanitarian assistance.
    Yemen's transitional government is working to address these 
issues, but the support of the international community will 
remain critical to prevent these acute needs from derailing the 
transition process. If confirmed, I will continue our efforts 
to address Yemen's most pressing needs while assisting Yemen on 
its path to sustainability and self-sufficiency through 
economic reform and development.
    Above all, if confirmed my most important responsibility 
will be to protect our Embassy and our mission staff. We must 
continue to have a strong presence in Yemen despite the threat 
environment.
    Mr. Chairman, I have had the extraordinary privilege of 
serving as a Foreign Service officer for nearly 30 years now, 
currently as Ambassador to Kuwait. Growing up as the child of a 
Foreign Service officer, I learned early of both the privileges 
and responsibilities that come from a commitment to service to 
one's country. My formative years in North Africa, Europe, and 
Latin America inspired a desire to pursue a career building 
ties between the United States and our partners around the 
world. My service in Baghdad, Riyadh, Cairo, among other 
challenging posts, has helped prepare me to represent our 
country in Yemen.
    In October 2000 after the attack on the USS COLE, I was 
given the task of opening and heading a U.S. office in Aden in 
support of the investigation. For me that was an early 
indicator of the pressing need to develop partnerships across 
the region so that the United States could meet the threat 
posed by violent extremists. It is gratifying to see how much 
progress has been made in this respect in our counterterrorism 
cooperation with the Government of Yemen. If confirmed, I 
pledge to continue this important work, furthering United 
States interests in Yemen and in the region.
    Again, I am honored by this nomination and greatly 
appreciate the opportunity to appear before you today. I will 
be pleased to answer any questions. Thank you.
    [The prepared statement of Ambassador Tueller follows:]

          Prepared Statement of Ambassador Matthew H. Tueller

    Chairman Kaine, Ranking Member Risch, members of the committee, it 
is an honor to appear before you today as President Obama's nominee to 
serve as Ambassador to the Republic of Yemen. I am grateful to the 
President for his nomination and to Secretary Kerry for his continued 
trust and confidence. If confirmed, I will work steadfastly to advance 
critical U.S. foreign policy and national security interests in Yemen. 
In service of those U.S. interests, my top priorities will be to 
support the people of Yemen in their ongoing transition to democracy, 
bolster U.S. security cooperation with the Yemeni Government to foster 
greater regional and global stability and combat the threat posed by 
al-Qaeda, and, of course, ensure the safety and security of U.S. 
citizens and Embassy employees.
    Mr. Chairman, the United States has a strong and growing 
partnership with Yemen. Yemen, itself, is in the midst of a historic 
transition. Since the November 2011 signing of the Gulf Cooperation 
Council (GCC)-brokered political transition initiative, the people of 
Yemen have accomplished what many thought impossible. Under the 
leadership of President Hadi, Yemen has embarked on a serious reform 
effort to better meet the needs of its citizens, facilitate a 
democratic process, and participate more fully as a partner in 
supporting regional security. If confirmed, I will work to expand our 
broad engagement to continue promoting the various political, economic, 
and security sector reforms underpinning this transition, which support 
our U.S. foreign policy and national security interests of a stable, 
secure, and democratic Yemen. The ultimate success of Yemen's 
transition will not only impact our interests in the region, but also 
our domestic security as the Yemeni Government develops its capacity to 
directly counter the significant threat from Al Qaeda in the Arabian 
Peninsula (AQAP) and root out the underlying causes of violent 
extremism, in part, through a bolstered ability to meet Yemeni 
citizens' economic, humanitarian, and political needs.
    On January 25, the people of Yemen achieved a critical milestone in 
their ongoing transition process, with the conclusion of the National 
Dialogue Conference. The dialogue marked the first time representatives 
from diverse segments of Yemeni society--including political elites, 
tribal elders, women, youth, civil society, former disenfranchised 
southerners, and religious minorities--met for substantive discussions 
about the country's political future. This conversation represented a 
sea-change in Yemeni politics. If confirmed, I will work to ensure that 
these varied groups continue to have a voice in the political process--
particularly since it is these voices that call most loudly for 
equality, for prosperity, and for the rights of women, children, and 
other vulnerable groups. In addition to working to ensure that these 
groups have a voice in the political process, I will also work to 
ensure that the rights of women, children, and all individuals in Yemen 
are respected and protected.
    As Yemen works to shape its future, I will work to guarantee that 
the United States and the international community--particularly Yemen's 
GCC neighbors--remain firmly supportive of Yemen's efforts, despite the 
myriad hot-spots in the region. U.S. and international engagement will 
continue to be essential as Yemen moves forward with the next steps in 
the transition process, including constitutional reform, a 
constitutional referendum, and, ultimately, national elections, 
expected within the next year.
    A democratic, unified, and stable Yemen will also be able to 
participate more fully as a partner in supporting regional security and 
combating terrorism. Yemen continues to face frequent terrorist attacks 
by AQAP operating within its borders. President Obama underscored in 
May that AQAP is the most active organization plotting against the 
United States--and that this threat emanates from Yemen. The Yemeni 
people have borne the brunt of AQAP's vicious attacks. The assault on 
the Ministry of Defense hospital in December 2013 underscored the 
deplorable tactics employed against civilians by this terrorist group. 
The Yemeni people and the international community were horrified at 
video footage of terrorists shooting unarmed patients in their beds, 
viciously murdering doctors and nurses, and stalking through hallways 
to kill survivors. President Hadi and the Yemeni people stand strongly 
committed to stamping out this threat to the safety of their families, 
the peace and security of their country, and the citizens of its 
international partners.
    If confirmed, I will work to deepen our two nations' commitment to 
close coordination in this shared fight against terrorism. To this end, 
our assistance programs to Yemen seek to develop the capacity of 
Yemen's security forces to conduct counterterrorism operations and to 
secure maritime and land borders and territorial waters. We also 
support programs to counter violent extremism in Yemen, including a 
focus on the role that civil society can play in speaking out against 
violence. And we are assisting Yemeni efforts to build the capacity of 
law enforcement to better respond to the security concerns of Yemeni 
communities. The United States will continue to employ the full range 
of counterterrorism tools to support Yemen's fight against AQAP.
    With U.S. support, President Hadi has also taken important steps 
toward restructuring the military and security services and to enhance 
the professionalism and capacity of Yemen's Armed Forces. If confirmed, 
I will encourage the Yemeni Government to continue progress on this 
important aspect of the transition, which will strengthen Yemeni 
capacity to secure the country against threats and enhance regional 
security. I will also support international efforts to assist the 
Yemenis in countering the spread of violent extremism. The 
establishment of a credible, sustainable extremist rehabilitation 
program would be an important step for the Yemeni Government toward 
bolstering its counterterrorism capabilities.
    Finally, there still remains the significant challenge posed by the 
Guantanamo Bay detention facility. More than half of the remaining 
detainees at Guantanamo are Yemeni nationals. If confirmed, I will work 
with the administration and with Congress to support efforts to 
responsibly close the facility while protecting our U.S. national 
security interests.
    Despite Yemen's transition accomplishments to date, significant 
challenges remain. The gains in political and security sector reform 
have not yet translated into large-scale improvements in the daily life 
of average Yemenis. Almost 15 million Yemenis--over half the 
population--are in need of some form of humanitarian assistance. More 
than 13 million do not have access to safe water and sanitation, 10.5 
million are food-insecure, and more than 1 million children do not have 
access to education. As the result of years of conflict, there are also 
more than 300,000 internally displaced persons (IDPs) who are in 
desperate need of assistance. Large-scale migration will continue to 
present humanitarian and security challenges. There are nearly a 
quarter million refugees and 147,500 migrants, mostly from the Horn of 
Africa, many of whom arrive destitute and in poor health. In addition, 
Yemen is now coping with the return of approximately 400,000 Yemeni 
laborers recently deported from Saudi Arabia.
    Yemen's transitional government is working to address these issues, 
but the support of the international community will remain critical in 
the near-term to help meet acute needs and prevent them from 
overwhelming the transition process. If confirmed, I will continue our 
efforts to address Yemen's most pressing needs to create the space for 
the transition to succeed, through bilateral assistance and partnership 
with the international community through the Friends of Yemen and the 
U.N. Humanitarian Response Plan. Focusing on the longer term, I will 
also work to assist Yemen on its path to sustainability and self-
sufficiency through economic reform and development.
    Economic reform will be an essential underpinning of the ongoing 
transition's ultimate success. Without significant structural reform 
and the development of a sustainable private sector, many of the Yemeni 
citizens' key economic demands will not be met. These key reforms will 
include rebalancing government spending priorities, transitioning 
toward a more targeted and efficient social safety net, and increasing 
investments in long-term growth. The development of a robust private 
sector will also be critical to addressing Yemenis' demands for jobs 
and economic development. I will steadfastly support the President and 
Secretary's agenda in bolstering regional economic integration and 
reform. I will build on my predecessor's successful efforts at 
expanding ties between the Yemeni and American business communities. I 
will also look for ways to maximize the benefit from Yemen's WTO 
accession as an opportunity to boost regional economic development 
cooperation. Economic development and reform will not only help the 
Yemeni Government meet the needs of all Yemeni citizens, but it will 
also empower Yemenis to build better lives for themselves through 
private enterprise while developing long-term relationships with 
American and international partners across the fields of science, 
health, technology, and commerce.
    I take seriously our obligation to protect our embassies and 
embassy staff abroad and am satisfied to know that, if confirmed, I 
would lead an embassy with an excellent security team. We must continue 
to have a strong presence in Yemen, despite the threat environment, and 
remain firmly committed to our comprehensive partnership with President 
Hadi and the Yemeni people.
    Mr. Chairman, I have had the extraordinary privilege of serving as 
a Foreign Service officer for nearly 30 years, currently as Ambassador 
to Kuwait. Growing up as the dependent of a Foreign Service officer, I 
learned early of both the privileges and responsibilities that come 
from a commitment to service to one's country. My formative years 
growing up in North Africa, Europe, and Latin America inspired a strong 
desire to pursue a career building ties between the United States and 
partners around the world. Service in Baghdad, Riyadh, and Cairo, among 
other challenging posts, has helped prepare me to represent our country 
in Yemen.
    In October 2000 after the attack on the USS Cole in the Port of 
Aden, I was given the task of opening and leading a U.S. Office in Aden 
in support of the investigation into the attack. For me, that was an 
early indicator of the pressing need to develop partnerships across the 
region so that the U.S. could meet the threat posed by violent 
extremists. Serving in Riyadh on September 11, 2001, highlighted for me 
that the threat to our interests and our citizens posed by terrorists 
was a critical foreign policy priority and that our ability to counter 
this threat would be enhanced by the extent to which we could engage 
our partners in the region in standing with us against the threat. It 
is gratifying to see how much progress has been made in this respect in 
our counterterrorism cooperation with the Government of Yemen. I am 
proud to say we enjoy a close partnership with President Hadi and the 
Yemeni Government, and we share a commitment to a democratic transition 
and regional security. If confirmed, I pledge to continue this 
important work in Yemen, furthering U.S. interests there and in the 
region.
    Again, I am honored by this nomination and greatly appreciate the 
opportunity to appear before you today. I will be pleased to answer any 
questions. Thank you.

    Senator Kaine. Thank you, Ambassador Tueller.
    Mr. Silliman.

 STATEMENT OF DOUGLAS ALAN SILLIMAN, OF TEXAS, NOMINATED TO BE 
               AMBASSADOR TO THE STATE OF KUWAIT

    Mr. Silliman. Chairman Kaine, Ranking Member Risch, I am 
honored to appear before the committee today and gratified by 
the trust that the President has placed in me by nominating me 
as the Ambassador to the State of Kuwait. I have submitted my 
full written testimony to the committee for the record and 
welcome this opportunity to say a few short words.
    I would like to start by thanking my family for their love 
and support as I have dragged them across North Africa, the 
Middle East, and South Asia over my career. My wife, Catherine, 
and my younger son, Zachary, are here with me. My older son, 
Benjamin, as the chairman knows, is at William and Mary 
University and could not be with us. I also want to thank my 
father, who supported me in this career from the very 
beginning, when others had some doubts whether this was the 
right path.
    I also want to acknowledge Ambassador Matt Tueller, sitting 
next to me at the table, for his exemplary service as the 
Ambassador in Kuwait over the past 2\1/2\ years. I hope that I 
can fill his very large shoes.
    If confirmed, I pledge to work closely with this committee 
and with the entire Congress, and I look forward to seeing you 
and your staffs in Kuwait, and to consulting with you and your 
staffs whenever I am back in Washington.
    If confirmed, foremost among my priorities will be the 
safety of American citizens, those in the Embassy, deployed 
U.S. service members, and the many private Americans who live 
in and visit Kuwait.
    Mr. Chairman, there are few U.S. friends or allies as 
steadfast as Kuwait. This strong relationship was forged in the 
heat of battle during the first gulf war as brave Americans and 
Kuwaitis fought to liberate Kuwait from occupation. One of 
those Americans was my father-in-law, Doctor and retired Army 
Medical Corps Colonel, Ted Raia, who led a combat support 
hospital during the war.
    If confirmed, I will seek to deepen United States-Kuwait 
cooperation on defense and security. This includes continued 
strong American support for the defense of Kuwait, for the 
security of the wider region, and the fight against terrorism 
and terrorism financing. Our U.S. military presence in Kuwait 
is concrete proof of our country's commitment to these 
principles.
    The regional security is more than just military relations. 
As President Obama said during the visit of Emir Sheikh 
Zaballah to Washington this past September, Kuwait is one of 
our most important partners in the region, working together on 
a whole range of economic and social and security issues. In 
particular, Kuwait has led international assistance efforts for 
Syrian refugees, hosting United Nations humanitarian pledging 
conferences for Syria in 2013 and 2014 and itself donating $500 
million in assistance this year alone.
    United States-Kuwait economic and energy ties are strong, 
but can grow stronger. If confirmed, I will vigorously pursue 
opportunities for United States businesses in Kuwait and work 
to attract Kuwaiti investment into the United States.
    Kuwait has a vibrant political system with strong 
constitutional traditions. Women vote and run for office and 
currently serve in the Kuwaiti Parliament and the Cabinet. If 
confirmed, I will engage with Kuwaitis to explore how Kuwait 
might expand human rights and protections for vulnerable 
populations.
    About 60 percent of Kuwaitis are under the age of 30 and 
the United States must stay connected to this new generation, 
mostly born since the liberation of Kuwait. If confirmed, I 
will prioritize outreach to younger Kuwaitis, emphasizing the 
fundamental American values of education and tolerance.
    Mr. Chairman, Ranking Member Risch, Senator Barrasso, I 
have had the privilege of serving the American people as a 
diplomat for nearly three decades. During my career, including 
as deputy chief of mission in Iraq and in Turkey, I have 
encouraged democracy and human rights, defended the homeland 
and my posts against terrorism, advocated for American 
companies, developed the professional skills of my staff, 
promoted entrepreneurship, and even sponsored the teaching of 
American jazz. And through it all I have done my best to 
shepherd American taxpayers' dollars wisely.
    I am confident that I have the skills necessary to succeed 
as our next Ambassador to Kuwait and I hope that this committee 
and the full Senate concur.
    Mr. Chairman, thank you again for the opportunity to be 
here today, especially under these conditions. I would be very 
pleased to answer any questions the committee has.
    [The prepared statement of Mr. Silliman follows:]

               Prepared Statement of Douglas A. Silliman

    Mr. Chairman, members of the committee, I am honored to appear 
before this committee today, and gratified by the trust that President 
Obama and Secretary Kerry have shown by nominating me to serve as 
Ambassador to the State of Kuwait. If you will permit me, I would also 
like to thank my family for their support throughout my career. My 
wife, Catherine, and younger son, Zachary, are here with us today.
    I would also like to express my thanks to my friends and to the 
many colleagues across the U.S. Government with whom I have worked 
during my nearly 30 years in the Foreign Service. I particularly want 
to acknowledge Ambassador Matt Tueller, sitting here at the table with 
me today, for his exemplary service as the U.S. Ambassador in Kuwait 
over the past 2\1/2\ years. If confirmed, I will strive to follow his 
example as I pursue U.S. national interests. I also pledge to work 
closely with this committee and others in the Congress to sustain and 
enhance relations with Kuwait, and of course, we would welcome the 
opportunity to see you and your staff in Kuwait.
    There are few U.S. friends or allies in the world as steadfast as 
Kuwait, particularly in the strategically important and always dynamic 
Middle East. Of course, the strong foundation of this relationship was 
forged in the heat of battle during the first gulf war and in the 
sacrifices of the brave men and women from the U.S. military and Kuwait 
who fought to liberate Kuwait from occupation. If confirmed, my mission 
will be to continue to deepen and broaden the strategic U.S.-Kuwait 
partnership, to include not just military-to-military ties but also 
substantial academic, commercial and cultural relations.
    Foremost among my priorities will be the protection of American 
citizens in Kuwait--those working in the U.S. mission, U.S. military 
personnel deployed forward, and the numerous private Americans who live 
in, work in, or visit Kuwait.
    If confirmed, I will also seek to deepen U.S.-Kuwaiti cooperation 
on defense and security. This includes continued strong and concrete 
American support for the defense of Kuwait and the stability of the 
wider region, as evidenced by the presence of U.S. military personnel 
in Kuwait.
    Of course, regional security is not only about military-to-military 
relations but also about ensuring strong diplomatic coordination. 
Fortunately, the United States and Kuwait share a very similar outlook 
on regional developments. During the visit of Amir Sheikh Sabah Al-
Ahmad Al-Sabah to Washington this past September, he reviewed with 
President Obama and Vice President Biden the full range of regional 
issues that affect both of our nations--including Syria, Iraq, and 
Yemen, and efforts to secure Middle East peace. The two leaders agreed 
to continue to pursue shared objectives on these issues. Kuwait has 
also played a globally important role as a leading contributor to 
humanitarian assistance efforts for conflict victims and refugees 
fleeing the brutal war in Syria: in January it hosted for the second 
time a U.N. assistance conference that raised $2.6 billion in new 
assistance for the humanitarian response, including a new Kuwaiti 
pledge of $500 million.
    I was fortunate to observe first-hand from Baghdad the courageous 
steps that Iraq and Kuwait took to finally and fully normalize 
relations, and Kuwait's rapprochement with Iraq now serves as the model 
for reintegrating Iraq into the immediate neighborhood, from which it 
was so long estranged, and the wider Arab world. Meanwhile, Kuwait's 
financial assistance to Yemen and support for its political transition 
have been important factors in our ongoing efforts to ensure long-term 
stability throughout the region. Significantly, our two governments are 
also working to strengthen our joint efforts to fight against terrorism 
and terrorism financing throughout the region.
    Energy is another important issue in Kuwait. Kuwait holds about 7 
percent of the world's proven oil reserves and will remain a 
significant producer of hydrocarbons for many years to come. If 
confirmed, I will promote U.S. technical assistance as an important 
tool to help Kuwait protect and modernize its oil and gas 
infrastructure. There are also realizable opportunities to improve 
Kuwait's energy efficiency through simple steps such as further 
reducing the flaring of natural gas and increasing the energy 
efficiency of new buildings.
    These priorities should also provide new commercial opportunities 
for American companies in Kuwait. According to the International 
Monetary Fund, Kuwait has run regular and large budget surpluses for 
more than a decade--including more than $50 billion last year. At the 
same time, Kuwait's sovereign wealth fund is the region's oldest, 
controlling more than $400 billion in assets. If confirmed, I will 
vigorously pursue commercial opportunities for U.S. businesses in 
Kuwait, particularly in Kuwait's rapidly expanding infrastructure and 
housing sectors. I will also work to attract more Kuwaiti investment 
into the United States, where Kuwait represents one of our country's 
fast growing sources of incoming foreign direct investment.
    Kuwait stands out in the region for its vibrant politics and its 
outspoken press and I look forward to witnessing Kuwaiti politics first 
hand. The Kuwaiti Constitution remains the framework for political 
discussion in all its forms, and Kuwait's National Assembly is an 
empowered legislative body with significant oversight authorities. 
Women have voted and run for office since 2006, and women currently sit 
in both the Cabinet and Parliament. If confirmed, I will continue the 
regular engagement we have long enjoyed with Kuwaiti politicians, 
opinion leaders and the full range of Kuwaitis to highlight democracy 
in the United States and its impact on civil and human rights, 
increased protection for vulnerable populations, improved labor 
standards and providing better economic opportunities for all.
    I will also devote my attention to Kuwait's important youth 
population. With nearly half of the country's population under the age 
of 25, many Kuwaitis coming of age today were not yet born when U.S. 
forces helped liberate their country. Because they are growing up in a 
fundamentally different world than previous generations, the United 
States must strive to tell these Kuwaitis our story and continue to 
establish new relationships that will last far into the future.
    That is a task we can accomplish. American culture is as popular 
among Kuwaiti youth as it is elsewhere around the globe. They love to 
visit the United States, and they understand that speaking English and 
getting an American education teaches them how to connect, how to solve 
problems and how to be a world citizen in the new era of globalization. 
Right now, there are at least 6,500 Kuwaiti students enrolled in U.S. 
colleges and universities, with plans to expand their presence, and 
tens of thousands more Kuwaitis visit each year for tourism, medical, 
and business reasons, bringing with them billions of dollars to be 
injected into the U.S. economy.
    The United States uses exchange programs, English language 
scholarships, and other opportunities to engage the rising generation 
of Kuwaitis. If confirmed, I will prioritize mission engagement with 
younger Kuwaitis, emphasizing the fundamental American values of 
education, tolerance, and inclusion that are the backbone of U.S. 
success.
    Mr. Chairman, I have had the extraordinary privilege of serving the 
American people as a diplomat for nearly three decades. I began my 
career adjudicating visas in Haiti, where I quickly learned how 
fortunate we are to be American citizens. My time in the Middle East 
and South Asia taught me how compelling American values truly are. 
Throughout my career I have promoted human rights, countered terrorism, 
strengthened military-to-military ties and advocated on behalf of U.S. 
companies. Most recently, I served as the Deputy Chief of Mission in 
Iraq during the withdrawal of our troops and scaling-down of our 
Embassy; prior to that I served as Deputy Chief of Mission in Turkey. 
In these positions I was responsible for thousands of American direct 
hire personnel and many more thousands of contractors and locally 
engaged staff. Through it all, I have experienced first-hand the strong 
returns of investing in people, ensuring their personal security and 
that of their families, and prioritizing career development and mission 
morale. I am confident that during these past 30 years I have acquired 
the skills necessary to succeed as a chief of mission.
    Mr. Chairman, thank you again for the opportunity to appear here 
today. I will be pleased to answer any questions you may have.

    Senator Kaine. Thank you, Mr. Silliman.
    Mr. Gilbert.

    STATEMENT OF MARK GILBERT, OF FLORIDA, NOMINATED TO BE 
    AMBASSADOR TO NEW ZEALAND AND TO SERVE CONCURRENTLY AS 
                      AMBASSADOR TO SAMOA

    Mr. Gilbert. Chairman Kaine, Ranking Member Risch, Senator 
Barrasso, I am honored to appear before you today as President 
Obama's nominee to serve as United States Ambassador to New 
Zealand and to the independent state of Samoa. I am grateful to 
the President and to Secretary Kerry for their trust and 
confidence in nominating me, and I am equally grateful to 
receive this committee's consideration.
    With the chairman's permission, I would like to introduce 
my wife, Nancy, and daughter, Danielle, who are with me today, 
and also acknowledge my daughter, Elizabeth, who unfortunately 
because of the weather was not able to be here. They are the 
driving force behind everything that I do.
    Mr. Chairman, I can imagine no higher honor than to be 
asked to serve my country as Ambassador to New Zealand and 
Samoa. Connected by the Pacific Ocean, we are partners 
committed to expanding global trade, promoting democratic 
values, while pursuing peace and security. With almost three 
decades of experience in global finance and investment, I 
appreciate our enduring economic ties to New Zealand and the 
economic opportunities in Samoa and the Pacific region as a 
whole. If confirmed, I will strive to advance our Nation's 
interests, nurture those economic ties, and build on our 
growing relationships.
    The United States is one of New Zealand's top trading 
partners. We have collaborated closely on the Trans-Pacific 
Partnership negotiations. If confirmed, I will work to promote 
an even stronger economic link between our countries, 
capitalizing on opportunities to not only increase U.S. 
investment in New Zealand, but to also expand New Zealand 
investment here at home.
    New Zealand is an active partner in the United Nations, 
committed to resolving conflict through negotiation. It plays a 
far larger role on the world stage than the country size would 
suggest. Its Armed Forces have led and participated in numerous 
peacekeeping missions around the globe and have worked side by 
side with our troops in Afghanistan.
    In 2010 our nations signed the Wellington Declaration, 
pledging increased diplomatic ties and regional cooperation. In 
2012 we laid the foundation for the strengthened defense 
cooperation in the Washington Declaration.
    New Zealand is an integral link in the global effort 
against proliferation of weapons of mass destruction and 
actively works in the Asia-Pacific region on counterterrorism 
issues as well. As an island nation with a culture and an 
economy deeply rooted in its natural resources, New Zealand 
understands the seriousness of global scientific and public 
policy challenges, including greenhouse gas emissions and 
climate change.
    Fifty years ago we forged a scientific partnership with New 
Zealand and Antarctica. Christchurch serves as the U.S. 
Antarctic program's gateway for operations, including vital 
environmental research at McMurdo Station and our South Pole 
Base. We closely cooperate in multilateral settings, working to 
provide technical assistance to Pacific Island economies in 
education, in energy policy, and the training of the local 
workforce.
    As the first independent country to be formed out of island 
territories in the Pacific, Samoa is a leader in security and 
economic stability in the Pacific region. Its commitment to 
free trade was enhanced by its entry to the World Trade 
Organization, where it has exhibited unique leadership in 
forging a stronger partnership with the Pacific Islands Forum. 
In our bilateral relationship, the Peace Corps has deepened our 
ties between Samoans and the people of the United States by 
sending volunteers for more than four decades to work in 
communities throughout Samoa.
    Its capital, Apia, is the home of the Secretariat of the 
Pacific Regional Environmental Programme, which cooperates with 
our scientists and researchers on projects like climate change 
and the protection of vital marine habitats and resources.
    The United States conducted the first exercise of the 2012 
Shiprider Agreement between Samoa and the U.S. Coast Guard to 
achieve sustainable fisheries and to combat illegal fishing.
    Mr. Chairman, I have been incredibly fortunate to have had 
a diverse and interesting career in business, community 
engagement, and professional athletics. I am humbled to be 
nominated to represent the United States to countries as 
diverse as New Zealand and Samoa. If confirmed, it will be my 
great honor to lead a strong team of Foreign Service, civil 
service, military experts, and local staff. I also look forward 
to working closely with this committee and other Members of 
Congress to promote and protect the interests of the United 
States.
    Thank you for the opportunity to appear before you today. 
Thank you for being here today, and I would be pleased to 
answer any questions you might have.
    [The prepared statement of Mr. Gilbert follows:]

                   Prepared Statement of Mark Gilbert

    Mr. Chairman and distinguished members of the committee, I am 
honored to appear before you today as President Obama's nominee to 
serve as the United States Ambassador to New Zealand and to the 
Independent State of Samoa. I am grateful to the President and to 
Secretary Kerry for their trust and confidence in nominating me, and I 
am equally grateful to receive this committee's consideration.
    With the chairman's permission, I would like to introduce my 
family: my wife, Nancy, and daughters, Danielle and Elizabeth. They are 
the driving force behind everything I do. I'm so delighted that they 
are here today.
    Mr. Chairman, I can imagine no higher honor than to be asked to 
serve my country as Ambassador to New Zealand and Samoa. Connected by 
the Pacific Ocean, we have partners committed to expanding global trade 
and promoting democratic values while pursuing peace and security.
    With almost three decades of experience in global finance and 
investment, I appreciate our enduring economic ties to New Zealand and 
economic opportunities in Samoa, and the Pacific region as a whole. If 
confirmed, I will strive to advance our nation's interests, nurture 
those economic ties, and build on our growing relationships.
    Our relationship with New Zealand is stronger now than it has been 
in nearly three decades. In 2010, our nations signed the Wellington 
Declaration, pledging increased diplomatic ties and regional 
cooperation, and in 2012 laid the foundation for strengthened defense 
cooperation in the Washington Declaration. Over the past few years, we 
have initiated senior-level policy and military dialogues and resumed 
joint military training exercises. Despite being separated by thousands 
of miles of Pacific Ocean, our two countries share the values of 
democracy, fair economic opportunity, and a more open global community. 
We actively collaborate in advancing those shared values. In 
Wellington, we have a partner committed to expanding global trade and 
promoting democratic values while pursuing peace and security. These 
are exactly the sort of diplomatic relationships we seek to forge 
around the globe, and we will continue to expand our connections to the 
next generation of New Zealanders of all backgrounds to renew and 
strengthen our partnership.
    The United States is one of New Zealand's top trading partners and 
we have collaborated closely on the Trans-Pacific Partnership 
negotiations. If confirmed, I will work to promote an even stronger 
economic link between our countries--capitalizing on opportunities not 
only to increase U.S. investment in New Zealand, but also to expand New 
Zealand investment here at home.
    New Zealand is an active partner in the United Nations, committed 
to resolving conflict through negotiation. It plays a far larger role 
on the world stage than the country's size would suggest. Its armed 
forces have led and participated in numerous peacekeeping missions 
around the globe and have worked side by side with our troops in 
Afghanistan.
    New Zealand is an integral link in the global effort against the 
proliferation of weapons of mass destruction, and actively works in the 
Asia-Pacific region on counterterrorism issues as well.
    As an island nation with a culture and economy deeply rooted in its 
natural resources, New Zealand understands the seriousness of global 
scientific and public policy challenges, including greenhouse gas 
emissions and climate change.
    Fifty years ago we forged a scientific partnership with New Zealand 
in Antarctica. Christchurch serves as the U.S. Antarctic Program's 
gateway city for operations--conducting vital environmental research at 
McMurdo Station and our South Pole Base.
    And we closely cooperate in multilateral settings--working to 
provide technical assistance to Pacific Island economies--in education, 
in energy policy, and in training of the local workforce.
    As the first independent country to be formed out of island 
territories in the Pacific, Samoa is a leader in security and economic 
stability in the Pacific region. Its commitment to free trade was 
enhanced by its entry into the World Trade Organization, where it has 
exhibited unique leadership in forging a stronger partnership with the 
Pacific Islands Forum. In our bilateral relationship, the Peace Corps 
has deepened our ties between Samoans and the people of the United 
States by sending volunteers for more than four decades to work in 
communities throughout Samoa.
    Its capital, Apia, is the home of the Secretariat of the Pacific 
Regional Environmental Programme, which cooperates with our scientists 
and researchers on projects like climate change and the protection of 
vital marine habitats and resources.
    The United States is committed to engagement with Samoa. Last year, 
the U.S. Navy was in Samoa for 10 days, working with our Samoan and 
international partners through the Pacific Partnership to provide a 
range of assistance. And just a short time ago, we opened a brand new 
U.S. funded medical center there. We also work closely with Samoa in 
protecting important natural resources. In fiscal year 2013, we 
conducted the first exercise of our 2012 Shiprider Agreement between 
the U.S. Coast Guard and Samoa to achieve sustainable management of 
Pacific fisheries resources and combat illegal fishing.
    Mr. Chairman, I have been fortunate to have had a diverse and 
interesting career in business, community engagement, and professional 
athletics. I am humbled to be nominated to represent the United States 
to countries as diverse as New Zealand and Samoa. If confirmed, it will 
be my great honor to lead a strong team of Foreign Service, civil 
service, military experts, and local staff. I also look forward to 
working closely with this committee and other Members of Congress to 
promote and protect the interests of the United States.
    Thank you for the opportunity to appear before you today. I would 
be pleased to answer any questions that you might have.

    Senator Kaine. Thank you, Mr. Gilbert.
    Secretary Westphal.

   STATEMENT OF JOSEPH WILLIAM WESTPHAL, PH.D., OF NEW YORK, 
   NOMINATED TO BE AMBASSADOR TO THE KINGDOM OF SAUDI ARABIA

    Dr. Westphal. Thank you, Mr. Chairman. Ranking Member 
Risch, Senator Risch, thank you for being here. Senator 
Barrasso, thank you for being here. It is a great honor to be 
here. It is somewhat humbling to sit next to Senator Collins 
and have her say all those really elegant things about me, 
especially since I had the temerity to ask her to do it a 
second time. She did it when I was nominated to be the Under 
Secretary of the Army. So I am especially grateful for her. She 
called me this morning and I thought she was in Maine, and I 
asked her how the weather was in Maine. She said: ``Well, I am 
in Washington and it is probably the same as it is in Maine.'' 
So I am very grateful to her, and I am very grateful to sit 
with these great three colleagues here who are before you 
today.
    I am honored to be the President's nominee to be the next 
Ambassador to the Kingdom of Saudi Arabia, and I am also deeply 
thankful to Senator Kerry for his support and confidence that 
he has shown in my nomination. Serving as the Ambassador to 
Saudi Arabia would be a great honor and I am humbled by the 
opportunity to continue my career of public service.
    If confirmed, I will represent the United States and the 
American people to the best of my ability, advancing American 
political, security, and economic interests with a key ally in 
the region, and continue to strengthen our strategic 
relationship.
    I should also, Mr. Chairman, like my colleagues, introduce 
my wife, my wife of 45 years who has put up with all of these 
different positions that I have had. I feel like we have moved 
so many times I should have been in the Army. My wife, Linda, 
Linda Westphal, behind me here. We have four kids and six 
grandkids and I think they are probably all tuning in right now 
to watch this hearing. I thank them for their support and their 
love. They are all married, they all have kids, and they all 
have jobs, which is really good.
    Most recently I have had the great honor and privilege of 
working to support our brave men and women in uniform as they 
serve our Nation at home and abroad. In my current position as 
the Under Secretary of the Army and its Chief Management 
Officer, I am responsible for managing one of the world's 
largest organizations during a period of significant change, 
great budget uncertainty, and continued threats to our national 
security. Managing the globally deployed U.S. Army and the 
large number of our forces serving in the Middle East has given 
me a great insight into the complexity of this region's 
strategic environment.
    This vital area is beset by change and turmoil, and it is 
undergoing historical transformations in its social, economic, 
and political development.
    Mr. Chairman and members of this committee, the United 
States and Saudi Arabia enjoy a long and enduring partnership 
which, contrary to some press reports, continues to be strong 
and resilient. Saudi Arabia is a crucially important partner in 
the region with whom we share important interests in 
confronting regional challenges.
    The United States is committed to political transition in 
Syria, a new government that is representative of the Syrian 
people. The Saudi Government shares that goal. Saudi Arabia 
shares our commitment to ensuring that international assistance 
does not fail--does not fall into the hands of violent 
extremists, including groups connected to al-Qaeda. The Saudis 
have publicly endorsed the international efforts to eliminate 
Syria's chemical weapons in accordance with the U.N. Security 
Council Resolution 2118 and the related OPCW Executive Council 
decision, while emphasizing the need to hold the Assad regime 
accountable for barbarically using these weapons against the 
Syrian people.
    The United States and Saudi Arabia both are committed to 
ensuring that Iran does not acquire nuclear weapons. We share 
the long-term goal of a Middle East free of weapons of mass 
destruction and their delivery systems. The administration has 
made clear to Saudi Arabia and to our other gulf allies that 
progress on the nuclear issue means a comprehensive solution 
and the ability to verify that Iran will not be able to produce 
nuclear weapons. In addition, we both recognize Iran's 
destabilizing activities in support of the Assad regime and 
terrorist groups in such countries as Iraq, Yemen, and Lebanon.
    We continue to engage the Saudi Government on how best to 
build Egypt's economy, while emphasizing to all parties that 
Egypt's economic success requires stability that only will be 
achieved by inclusive democratic institutions. In Egypt, we 
believe that the Egyptian people should be represented by an 
inclusive democratically elected civilian government.
    Secretary Kerry, Secretary Hagel, and other senior 
administration officials continue regular high-level 
discussions with Saudi leaders about how best to influence 
progress toward this objective.
    On Middle East peace, Secretary Kerry noted recently in 
meetings with King Abdullah that we value Saudi Arabia's 
support for continuing negotiations to achieve the 
administration's goals of ending the Israeli-Palestinian 
conflict through a permanent status agreement and bringing 
stability to region.
    Mr. Chairman, members of the committee, I would conclude by 
summarizing that our longstanding friendship with Saudi Arabia 
includes a durable and critically important security and 
counterterrorism partnership, significant economic and 
commercial ties, with strong interest in maintaining stability 
of energy markets and prices. We are the educational hub for 
more than 74,000 Saudi students studying in this country, 
thereby increasing employment and development opportunities for 
young Saudi men and women.
    Finally, we have had a very strong and enduring military 
and security partnership. Our security assistance efforts to 
train, advise, and assist the Saudi Arabian Armed Forces and 
the Saudi Arabian National Guard are only two large aspects of 
one of our most robust foreign military sales in the world, 
valued at approximately $97 billion.
    If you confirm me to be our Ambassador to Saudi Arabia, I 
would work to strengthen and sustain these important interests, 
but I would also work to promote universal rights, including 
religious freedom and the rights of women. But the first thing 
I would turn upon and I would do upon arriving in country would 
be to review our security procedures and get fully briefed on 
the security environment from our Embassy team, since my first 
priority will always be the security and protection of our 
citizens.
    Mr. Chairman, Senator Risch, Ranking Member Risch, Senator 
Barrasso, I commit to keeping the committee and this Congress 
informed and engaged and seek your counsel in matters important 
to this committee and to the Congress.
    I thank you all for your service to our country and if 
confirmed I thank you for the opportunity to continue to serve. 
Thank you, Mr. Chairman.
    [The prepared statement of Dr. Westphal follows:]

               Prepared Statement of Dr. Joseph Westphal

    Chairman Kaine, Ranking Member Risch, and members of the committee, 
I am honored by President Obama's nomination to be the next U.S. 
Ambassador to the Kingdom of Saudi Arabia. I also would like to thank 
Secretary Kerry for his support and the confidence he has shown in my 
nomination. Serving as Ambassador to Saudi Arabia would be a great 
honor and I am humbled by the opportunity to continue my career of 
public service. If confirmed, I will represent the United States and 
the American people to the best of my ability, advancing American 
political, security, and economic interests with a key ally in the 
region and continue to strengthen our strategic relationship.
    I have devoted my career to public service, both in government and 
academia. Most recently, I have had the great honor and privilege of 
working to support our brave men and women in uniform as they serve our 
Nation at home and abroad. In my current position as the Under 
Secretary of the Army and its Chief Management Officer, I am 
responsible for managing one of the world's largest organizations 
during a period of significant change, great budget uncertainty and 
continued threats to our national security. Managing the globally 
deployed U.S. Army and the large number of our forces serving in the 
Middle East has given me insights into the complexity of this strategic 
region's environment. This vital area is beset by change and turmoil, 
and is undergoing historical transformations in its social, economic 
and political development.
    As the Chief of Mission in Saudi Arabia, I will prioritize taking 
care of our people. Only 9 years ago, our consulate general in Jeddah 
suffered a terrorist attack in which five local staff members lost 
their lives. The safety and security of our mission, its employees and 
family members in Riyadh, Dhahran, and Jeddah will be my top priority, 
as it is for President Obama and Secretary Kerry. I will work with you 
and my colleagues at the Department to ensure that our mission 
personnel have the correct security posture and necessary resources to 
do their jobs safely and effectively. To that end, the safety and 
security of all Americans will be my uncompromising priority.
    The United States and Saudi Arabia have a long and enduring 
partnership which, contrary to some press reports, continues to be 
strong and resilient. In addition to numerous visits by senior 
administration officials and members of this committee, the President 
now plans a visit in March to reinforce our broad cooperation. If 
confirmed, I will work across the wide set of our national priorities 
to advance critical U.S. interests through our diplomatic, security, 
and commercial engagements.
    Saudi Arabia is a crucially important partner in the region. We 
share important interests in confronting regional challenges, including 
the crisis in Syria, Iran's nuclear program and regional aspirations, 
and providing support for democratic and economic development in Yemen. 
Saudi Arabia's important role in the Gulf Cooperation Council and our 
strong desire to see the Council be ``an anchor for regional 
stability,'' as Secretary Hagel stated in his Manama Dialogue speech, 
means that if I am confirmed by the Senate, I will work to reinforce 
this important multilateral framework.
    We also have a critical security partnership; Saudi Arabia is our 
largest Foreign Military Sales (FMS) customer, with 338 active and open 
cases valued at $96.8 billion dollars, all supporting American skilled 
manufacturing jobs, while increasing interoperability between our 
forces for training and any potential operations. We saw the importance 
of this as our forces stood together during Operations Desert Shield 
and Desert Storm. On counterterrorism, our countries are very aware 
through tragic experience of the threat posed by al-Qaeda terrorists, 
and we have forged a critical partnership with the Saudis on this 
issue, which I will discuss further.
    Apart from political and security cooperation, the U.S. and Saudi 
Arabia enjoy robust commercial and business relationships, and I look 
forward to further strengthening trade and promoting American exports. 
On energy, the United States and Saudi Arabia share an interest in 
maintaining stable, reliable sources of oil and price stability. We 
also are committed to working with the Government of Saudi Arabia on 
its efforts to diversify energy sources and reduce domestic oil 
consumption. If confirmed, I will engage proactively in all aspects of 
energy policy and sustainability of mutual interest to the United 
States and Saudi Arabia.
    Secretary Kerry in his speech of January 24 in Davos stated, ``you 
cannot find another country . . . not one country . . . that is as 
proactively engaged, that is partnering with so many Middle Eastern 
countries as constructively as we are on so many high stake fronts. 
And, I want to emphasize that last point: partnering.'' I will emulate 
the Secretary's active approach in strengthening our partnership with 
Saudi Arabia, engaging Saudi officials and the Saudi people to advance 
the policy objectives of the administration and the Congress.
    Earlier in this statement, I mentioned Saudi Arabia's importance in 
regional politics. This is a region beset by change and great turmoil 
but also great opportunity. If confirmed, I will work closely with 
governmental and nongovernmental entities in Saudi Arabia to find 
constructive and collaborative means to achieve security, peace, 
economic prosperity, and the advancement of human rights. This includes 
expanding opportunities for women to participate fully in society, 
politics, and the economy. I will promote transparency, friendship, and 
proactive engagement in the relationship while working with my 
colleagues in the region to safeguard U.S. interests.
    There are many ways our mutual interests converge and I will 
briefly explain our coordination with the Saudi leadership as we 
advance U.S. policy priorities.
    First, the United States is committed to political transition in 
Syria and a new government that is representative of the Syrian people. 
The Saudi Government shares this goal and has contributed over a 
billion dollars to support Syrian civilian and refugee needs, while 
supporting nonextremist opposition groups under the political umbrella 
of the Syrian National Coalition. The Saudis share our commitment to 
ensuring that international assistance does not fall into the hands of 
violent extremists, including groups connected to al-Qaeda. We may have 
tactical differences in our approaches to Syria at times, but Saudi 
Arabia shares our goal of ending the horrible violence in Syria through 
a political transition to a representative government, and has 
exercised positive influence in Geneva as we strive to achieve common 
goals. Additionally, the Saudis have publically endorsed the 
international effort to eliminate Syria's chemical weapons, in 
accordance with U.N. Security Council Resolution 2118 and the related 
OPCW Executive Council decision, while emphasizing the need to hold the 
Assad regime accountable for barbarically using these weapons against 
the Syrian people.
    Similarly, the United States and Saudi Arabia are both committed to 
ensuring that Iran does not acquire a nuclear weapon. We share the 
long-term goal of a Middle East free of weapons of mass destruction and 
their delivery systems. Saudi Arabia remains as concerned as we are 
about Iranian activities in the region. The administration has made it 
clear to Saudi Arabia and our other gulf allies that progress on the 
nuclear issue will not lead to a decrease in U.S. concern about, or in 
action to deter and combat, Iran's destabilizing activities, whether 
its support for the Assad regime in Syria, or its lethal aid and 
training of militants in Yemen and Bahrain. The United States and Saudi 
Arabia also want to counter Hezbollah's attempts to undermine the 
Lebanese Government; we both support building up the capabilities of 
the Lebanese Armed Forces.
    In Egypt, we believe that the Egyptian people should be represented 
by an inclusive, democratically elected, civilian government. Secretary 
Kerry, Secretary Hagel and other senior administration officials 
continue regular high-level discussions with Saudi leaders about how 
best to influence progress toward this objective. In the last year, 
Saudi Arabia has provided Egypt's interim government with over $2 
billion in grants, deposits, and energy credits, and billions more in 
investments, while encouraging large contributions from other Gulf 
States. We continue to engage the Saudi Government on how best to build 
Egypt's economy, while emphasizing to all parties that Egypt's economic 
success requires stability that only will be achieved by inclusive 
democratic institutions.
    On Middle East Peace, as Secretary Kerry noted in recent meetings 
with King Abdullah, we value Saudi Arabia's support for continuing 
negotiations to achieve the administration's goal of ending the 
Israeli-Palestinian conflict through a permanent status agreement, and 
to bring stability to the region. We are counting on Saudi Arabia to 
help build support for our shared efforts, and to continue financial 
assistance to the Palestinian Authority.
    Saudi Arabia also has played a critical role in stabilizing, 
launching and promoting a successful political transition in Yemen. 
Saudi Arabia is the largest international assistance contributor to 
Yemen, and shares our important interest in combating Al Qaeda in the 
Arabian Peninsula (AQAP) and other violent extremists groups, while 
assisting efforts to provide security, support economic development, 
and address critical humanitarian challenges.
    The reemergence of violent extremism in Iraq also is a critical 
concern for the United States, and one for which we believe Saudi 
Arabia can play a constructive role. As Ambassador, I will encourage 
productive relationships and open dialogue between Saudi Arabia and 
Iraq, including support for Iraq's efforts to flush the Islamic State 
of Iraq and the Levant (ISIL) out of Anbar province--a conflict that 
has broader implications for the region. I will reinforce our message 
that progress on current problems is not gained through rehashing 
conflicts of the past or drawing sectarian lines, but by finding areas 
of mutual interest, and that violent extremist groups are a threat to 
us all.
    The Syrian crisis, turmoil in Iraq, transition in Yemen, and the 
role of al-Qaeda and other terrorist groups demand stronger, 
coordinated efforts to combat terrorism in the region. The Government 
of Saudi Arabia values our combined efforts in counterterrorism, and 
sees al-Qaeda as just as much a threat to Saudi Arabia as to the United 
States. I note that the Saudi Government actively discourages its 
citizens from participating in foreign conflicts, and issued a new law 
in early February that provides for long prison sentences for those who 
join jihadist groups in Syria or elsewhere. If confirmed, I will work 
diligently through our interagency process to strengthen further our 
counterterrorism cooperation and our overall security relationship.
    We have built durable and critically important security and 
counterterrorism ties with Saudi Arabia, with a range of programs that 
protect the citizens and institutions of both of our countries. These 
include coordination to stem the abuse of financial and charitable 
channels that fund terrorism in the region and beyond, and cooperation 
on combating violent extremist messages. If confirmed, I intend to work 
with the leadership of Saudi Arabia to further build our partnerships 
in these areas.
    As mentioned, another key priority I will work toward is growing 
U.S.-Saudi economic and commercial ties. Saudi Arabia is our 10th-
largest trading partner; in the first three quarters of last year, 
bilateral trade with Saudi Arabia amounted to approximately $52 
billion. I will work to expand and diversify our bilateral trade and 
help create new opportunities for American business in Saudi Arabia.
    We also have a significant interest in stable energy markets and 
prices. Today we import approximately about 1.3 million barrels per day 
of crude oil from Saudi Arabia which represents 15 percent of Saudi 
Arabia's total global exports. This makes Saudi Arabia our second-
largest oil supplier, after Canada. As the world's only current oil 
producer with significant spare production capacity, Saudi Arabia plays 
a critical global role in price stability. The price our trucking 
companies and airlines pay for fuel, and the price the American 
consumer pays at the pump, are heavily influenced by trends in global 
oil markets. As two of the largest oil producers in the world, the 
United States and Saudi Arabia have a mutual interest in ensuring that 
energy markets remain sufficiently supplied and support global economic 
growth.
    Shifting to education, I first observe that the quality of American 
educational institutions is well-known and highly prized among Saudis. 
I note that over 74,000 students from Saudi Arabia now study in the 
United States. It is difficult to overestimate the importance of U.S. 
education in developing the skills and perceptions of the next 
generation of Saudi leaders. Students will return home with a better 
understanding of the United States and our people, and will bring back 
American ideals that can be an important influence as Saudi society 
develops.
    Saudi Arabia is a young country, with nearly two-thirds of the 
population under 25. Saudi youth expect their leadership to adapt and 
respond to the whole population's needs, including the 50 percent 
that's female. I believe the Saudi leadership understands these 
challenges. King Abdullah has taken important steps, such as scheduling 
another round of municipal elections for 2015 in which women can vote 
and run as candidates, and decreeing that at least 20 percent of 
appointees to the national consultative council should be women. I look 
forward to monitoring these developments with my team. The Saudi 
leadership also has expanded scholarship opportunities, including for 
women, and sponsored interreligious dialogue. More than 40 percent of 
students receiving the King Abdullah Scholarship for study abroad are 
women. However, much more needs to be done to ensure expanded 
opportunities for Saudi young people, for women, and to increase 
citizens' roles in government affairs. I look forward to working with 
the Saudi leadership to help them provide these opportunities.
    If confirmed as Ambassador, I will not shy away from topics where 
we disagree, such as promoting women's full participation in society, 
supporting the rights to religious freedom and free association, or 
encouraging greater respect for labor rights and protections for the 
country's foreign workers. As Ambassador, I will support home-grown 
reform efforts and will be an advocate for full respect for the basic 
rights of all citizens and residents. I will provide public support for 
Saudis' rights to freely associate, to report corruption, wrongdoing, 
or abuse by public officials, and to petition their government for 
redress of grievances. We will make it clear that basic human rights 
are universal and we advocate that Saudi Arabia meet its international 
commitments.
    Allow me to close by noting that, although American society differs 
greatly from that of Saudi Arabia, we cannot allow our differences to 
prevent solid continuing cooperation on political, security, and 
economic challenges and opportunities. The ties between the U.S. and 
Saudi Arabia are deep and historic, and serve core American interests. 
I look forward to strengthening these relationships while maintaining 
frank and productive dialogue for issues where our views do not fully 
align.
    Thank you for this opportunity to testify today and I welcome the 
opportunity to answer any questions you may have.

    Senator Kaine. Thank you, Secretary Westphal.
    We will now begin rounds of questioning. It would be our 
intent to do questions in 7-minute rounds. Because there are 
four of you, we might not get to all of you in the first round. 
If that happens, do not breathe a sigh of relief and do not 
feel offended because we will likely have second rounds because 
of the number of nominees on the panel.
    Senator Risch. And do not leave.
    Senator Kaine. And do not waive.
    Senator Risch. Do not leave.
    Senator Kaine. Oh, do not leave. Yes, do not leave. Do not 
leave. [Laughter.]
    Senator Kaine. Especially since we have stayed here, do not 
leave.
    To begin, I will start actually. Secretary Westphal, I have 
some questions about Saudi Arabia. This is a very important 
partnership and yet it is a partnership that has some 
challenges right now. On the United States side, we have 
concerns about the treatment of women, we have concerns about 
the funding of particular elements within the Syrian 
opposition. We have concerns about some human rights issues 
with respect to journalists or freedom of religion.
    On the Saudi Arabia side, they have expressed some concerns 
about actions that we have taken even as they have supported 
with us the role of a nonnuclear Iran. They have expressed 
concern about the degree to which we have communicated with 
them about our strategy. They were concerned about United 
States action in Egypt. They have been concerned about United 
States action in Syria.
    So it is a partnership that has been an important one, but 
there are also a number of rifts, perceived rifts in the 
partnership. How would you as Ambassador try to deal with these 
issues? Without ceding any issue important to us, even on 
issues where there are differences, how would you work to kind 
of get over the little friction that has been pretty obvious in 
the relationship in recent years?
    Dr. Westphal. Mr. Chairman, I think, first of all, I think 
within the context of the broader strategy that we have, that 
the President has laid down for this region, to continue to 
fight the threat of violent extremism, counter the 
proliferation of weapons of mass destruction, eliminate 
terrorist networks, and of course keep energy flowing, energy 
prices stable, important to all our economies, in the framework 
of that context all of these issues are issues of policy where 
generally speaking on the issues of strategy we agree on, we 
may disagree on tactics about some of the solutions to those 
problems.
    On the issues of human rights and religious tolerance, 
those are issues that we will need to continue to engage with 
the Saudi Government to ensure that they can move forward.
    I think King Abdullah has done a remarkable thing since he 
came the ruler of Saudi Arabia. He has moved this country--I 
will admit that by us it seems like a glacial pace. But he has 
moved this country toward a series of reforms. They are small 
in scale, but they are significant. I mentioned that we had 
74,000 students studying here from Saudi Arabia on scholarship 
from him. There are almost 100,000 worldwide and I am told that 
about 40 percent of those are women.
    So there is a movement going forward to address this. But I 
will say that our relationship is robust, it is resilient, it 
is strong. It is evidenced by the multiple engagements that we 
have had just this year alone, conversations between the King 
and the President, the visit by the Secretary of State and the 
Secretary of Defense, Secretary of Energy, a number of other 
leaders who have been there recently, visits by them. Muhammed 
bin Nayef is here right now, the Minister of Interior, engaged 
in very, very important conversations with us on 
counterterrorism and all the issues you mentioned.
    So I think that is a very strong relationship and 
partnership. They want to be partners with us. We want to be 
partners with them and we will make that relationship continue 
to work. If I am confirmed, I will do my utmost to engage very 
proactively, very openly, with every element of the Saudi 
Government to address these issues that you mentioned.
    Senator Kaine. Secretary Westphal, obviously defense is a 
leading pillar of the relationship, as you indicated. You come 
into this nomination from the Department of Defense in your 
role with the Army. What do you intend to do to further this 
particular aspect of the relationship, the defense partnership, 
and what major platforms, if any, do you see Saudi Arabia 
potentially purchasing in the near future, given your 
background on acquisition issues?
    Dr. Westphal. Thank you, Senator. Well, Mr. Chairman, I 
think there are a number of things that one can do there. One 
of the most important foreign military sales pieces that we 
have with Saudi Arabia and we have had for a number of years is 
the training mission. We train their defense forces and we 
train their national guard. That is a huge, huge undertaking by 
us because it means that we can calibrate the way in which 
their professionalism, their military, and their security 
forces can really become more professional and do the jobs that 
sustain the ability of Saudi Arabia to transform itself into a 
more open society.
    I think we need to fortify that. We need to pay more 
attention to that and engage more deeply with them in how to do 
that. They are looking to do more work on fortifying their 
facilities, their energy facilities. They are looking to grow, 
to your question on what foreign military sales could be in the 
future, they are really looking to build, strengthen their 
navy, build a coast guard.
    Those are all areas where we are going to compete with 
other foreign countries. We must be energized. We must work 
with our defense industry. We must work to build support from 
them to look our way, because we think we have the best in the 
world in all these categories.
    Senator Kaine. Last question. Since the Eisenhower 
administration we have had a partnership with Saudi Arabia very 
heavily focused on petroleum. There has been some speculation 
that the great developments in the United States domestically 
produced energy just by themselves really could cause a 
significant change in the relationship with Saudi Arabia. Do 
you see the growing U.S. energy economy as a big game-changer 
in the relationship with Saudi Arabia or is that maybe 
overplayed a bit?
    Dr. Westphal. I do not see it as a big game-changer, under 
the following conditions. First of all, I think, wisely, the 
King and the Government of Saudi Arabia do see that they need 
to diversify their economic portfolio, that they are consuming 
too much of their own product. So it is very incumbent on us to 
help them transition to other forms of energy, whether it's 
solar, wind, and nuclear.
    Nuclear is going to be the next step and we have got lots 
of opportunities there to help them generate nuclear in a 
peaceful way to sustain their economy.
    That being said, world energy prices are what could become 
the worst problem for us. So we have to be very careful in 
working with them to continue to make sure that the markets are 
open and that they can freely export their oil to keep prices 
level, because for us domestically as we improve our domestic 
production it is the increase in prices that could affect us 
negatively. So if I am confirmed that is what I would engage in 
very seriously.
    Senator Kaine. Thank you.
    Senator Risch.
    Senator Risch. Thank you, Mr. Chairman.
    Mr. Westphal--first of all, to all four of you: Thank you 
for your service to America. I think probably one of the most 
underappreciated functions of the Federal Government is what 
you people in the State Department do in representing Americans 
all over the world.
    Mr. Westphal, I am going to be critical here for a second. 
I want to say this in the kindest and gentlest way. I read your 
testimony very carefully and I have got to tell you I am 
disappointed in not addressing really what I think are some 
serious, serious fractures in the relationship between Saudi 
Arabia and the United States.
    There is no doubt that your description is a great 
description of what traditionally our relationship has been 
with Saudi Arabia. They have been a great partner, they have 
been a great friend. We have pulled the wagon together. We have 
serious differences with them and have had over the years over 
issues, particularly women's rights issues, and they have 
tolerated us nudging them in the direction we think that they 
ought to go.
    They have become angry with us over the last 6 to 12 
months, and particularly with this arrangement that the 
administration has chosen to enter into with Iran. I know you 
are well aware of it. I am sure you have read all the things 
that have come out of Saudi Arabia. They have taken action 
which is adverse to the United States. They make no bones about 
it. They were very public about it.
    I was hoping you would address that a bit more. We all hope 
that the agreement that was put on the table as far as Iran is 
concerned will work, that the people in Iran will change their 
ways, that they will slap themselves on the forehead and say: 
Gee, we have been bad actors over the years, but we are going 
to change our ways. To be honest with you, I do not think that 
is going to happen. I have been very critical of it. Other 
members of this body have been critical of it. The Saudis have 
been as critical as we have, if not more so. As I said, they 
have taken actions that are adverse to us.
    How are you going to handle that? Let us assume for a 
moment that the administration is wrong, Iran does not change 
its ways, that it is the same old same old, that they use us in 
order to take the time to further develop their nuclear 
ambitions. I do not think we will ever get the genie back in 
the bottle again as far as the sanctions are concerned. I hope 
we do, but I think that is going to be very difficult.
    What is going to happen? What are you going to say when you 
have to walk up to the palace and talk to the King and tell 
him, well, this has not worked out? How are you going to handle 
that?
    Dr. Westphal. Well, Senator, I think that is going to 
evolve from our decision that what the Iranians are doing is 
not verifiable, they are not committing to the terms of any 
agreement that we may have with them in the near future, that 
they are simply not abiding by the terms. And the Secretary of 
State and the President, of course, will make that decision to 
take a different route.
    I think the evidence that the Saudis would like to see this 
whole situation be, the tension be reduced, is marked by their 
participation in the London 11, by their participation in 
Geneva. They agree with us that Iran should not, cannot have a 
nuclear weapon. So I think we agree on the terms. We agree on 
the conditions. We agree on the end result. The question is 
will the terms of any agreement be verifiable, and that is 
something that we have to wait to see what the administration 
finds on that.
    Senator Risch. Mr. Westphal, I agree with you that we are, 
I think, in full sync with them as far as the objective. The 
Saudis really, really do not want the Iranians to have a 
nuclear weapon. They agree with us on that objective.
    I think that they were badly offended by, first of all, the 
process and the way they were kept in the loop, or lack of 
being kept in the loop; and secondly was the finality of where 
we wound up in this first step of trusting them to do something 
and giving them something before they performed, as opposed to 
reversing that. For the life of me, I cannot understand why 
anyone would do that when you are dealing with the Iranians. 
But the administration did it.
    So you have got your work cut out for you there. You have 
been around long enough that I know that you know that there 
are serious problems here, and it is going to take 
substantially more work than it has taken in the past, because, 
again, this relationship is drifting in the wrong direction. I 
hope you are the right guy to bring it back. Certainly the 
President needs to work on that. The Saudis are critical 
partners in the region.
    Thank you for your service and thank you for your 
willingness to do that.
    Dr. Westphal. May I?
    Senator Risch. Certainly, please.
    Dr. Westphal. Senator, I agree with what you said. And I 
also want to say, and I said this at the end of my remarks and 
I mean this very sincerely, we are a representative democracy, 
so we ourselves are having a large and broad debate on this 
issue openly and in a very clear fashion. So I do believe that 
you play a role. I do intend to be very connected to this 
committee and to the Congress to understand what your 
sensibilities are on this, and translate that to the Saudi 
Government.
    But in addition to that, I would say that the 
relationships, like any good relationship, you are going to 
have disagreements, you are going to have issues where perhaps 
we did not consult them early enough, perhaps we did not engage 
with them in this way and that way. But we are very transparent 
in our conversations with them. Everything that I have been 
briefed about and come to know at this point in time--I have 
not been in these conversations, so I cannot tell you exactly 
what has transpired. But I am confident that from the President 
on down we are deeply and very seriously and very openly and 
very, very clear about our direction and our policies with 
them.
    Senator Risch. Mr. Tueller, on a personal note, will you be 
taking your family to Yemen, your wife and your five children?
    Ambassador Tueller. Senator, at the moment we do not have 
accompanied status in Yemen. So employees are there without 
families.
    Senator Risch. I appreciate that. It is probably wise under 
the circumstances on the ground. You have your work cut out for 
you.
    Mr. Gilbert, I am almost out of time. But Mr. Gilbert, I 
have gone all through this, all through the papers you have 
given me, and somehow you missed it. We do not seem to have 
your lifetime batting average here with the Cubs and with the 
Reds and the White Sox. So maybe if you could submit that for 
the record it would be helpful as we move forward on your 
confirmation.
    Mr. Gilbert. Of course, sir. I could tell you now that in 
the major leagues it was .273. My career average for 8 years 
playing was .284.
    Senator Risch. Respectable. Thank you.
    Mr. Chairman, thank you. My time is up, and you are going 
to have to excuse me.
    Senator Kaine. Yes, thank you.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    I would like to follow up, Mr. Chairman, on some of your 
comments as well as Senator Risch's just about the important 
relationship and partnership with Saudi Arabia, and talk about 
things that are happening there, because it is key to the 
stability of the region. The relationship between our two 
countries has been strained. In the past, I think as you have 
said, Mr. Westphal, perhaps we did not consult them early 
enough on things.
    I look at this and say King Abdullah's going to be 90 years 
old this year. At the end of the King's reign, it is 
anticipated there is going to be a leadership change to the 
next generation. So in trying to get ahead of this, in trying 
to consult them early enough, can you talk about what 
individuals in the line of succession to the King are there, 
how that next King is going to be selected, and how this may 
play a role as we look to the future?
    Dr. Westphal. Well, what I know, given my limited insight 
into the inner workings of the royal family, is that there is a 
crown prince and he is the successor to the King. Apart from 
that, that is how we are operating. I think as a government we 
expect that to be the case, and from that will emanate other 
changes as he takes over at some eventual point in time.
    King Abdullah to my knowledge is very engaged, even at his 
age. He is about to receive a visit from our President. I think 
this is an important meeting. I think that the King is very 
much aware of all of the issues that are taking place. So we 
are operating with that government, with that crown prince, and 
with those ministries as they are today.
    Senator Barrasso. Well, the reason I ask is that former 
Ambassador James Smith, who was our Ambassador to Saudi Arabia 
from 2009 to 2013, he warned that Saudi Arabia may become, as 
he said, a kingdom of different heads and a decentralized 
monarchy, he said, consisting of multiple fiefdoms. That is 
what makes me concerned.
    So I am just wondering, in your analysis of this division 
of the various ministries and the possibility of 
decentralization, how do we deal with that, because it is 
entirely possible that that would happen on your watch.
    Dr. Westphal. Senator, I do know he said that, but I have 
not seen any evidence of that in anything that I have read or 
anything that I have seen from anybody else. So I am loath to 
speak to that because I am assuming that they have a succession 
plan that right now is what it is. If I am confirmed as the 
Ambassador, I will certainly be very focused on making sure 
that we are very well connected within all of the ministries 
and all of the agencies of that government, that we are engaged 
with what we perceive will be future leadership.
    I think people do that when they come to this country. They 
look at who the future leaders of this you will be and engage 
with them. I think that is incumbent for me to do that.
    I appreciate your question. Just I believe that responsibly 
we must deal with the government that we are dealing with 
today.
    Senator Barrasso. I have been to the region a couple times 
in the last 3 months. Last year Saudi Arabia was elected to a 
2-year term as a rotating temporary member of the United 
Nations Security Council. They then announced that they were 
rejecting the Security Council seat just this past October, 
after months of actually engaging in the lobbying. As a 
founding member of the U.N., the Kingdom declared it would 
renounce the Security Council seat.
    I just wonder if you could have a little discussion about 
what you thought the reasons were that they declined the seat 
in the United Nations Security Council, and then how they view 
their role with the international community?
    Dr. Westphal. Senator, a good question. I think part of 
this is going to be my own sort of personal view of this. I 
think that as they looked at the situation in Syria and in 
other parts of the world becoming much more critical, a seat, a 
permanent seat--excuse me--a seat in the Security Council for 
them would not have been a permanent seat, so they would have 
to be involved in casting votes for which they would have no 
ability to follow through on in the future.
    In turn, they took a seat in the U.N. Human Rights 
Commission. I think that is an important, really important seat 
for them and for us for them to hold that seat. I think that 
means that they are looking, and they have made some very 
positive statements about addressing human rights issues. It 
helps us, I think, to move that agenda forward, not just in 
Saudi Arabia, but with them throughout the world.
    Senator Barrasso. What do you believe is the greatest 
threat to Saudi Arabian national security today?
    Dr. Westphal. Well, I think certainly terrorism. They are 
doing a great deal. We are working very closely with them to 
stop the movement of their citizens into Syria and into Iraq 
and other parts, into Yemen. They are looking very hard at 
rehabilitating people who come back from those wars.
    But the spillover of terrorist activities into Saudi Arabia 
is always a great danger that they are concerned with. So one 
of our strongest elements of our relationship with them is 
counterterrorism. We do not have as strong a relationship with 
almost any other country in the gulf region than with them on 
this matter. We certainly have one very strong in the Middle 
East with Israel and other countries, but with this particular 
threat we have a great relationship with them. We exchange a 
great deal of information.
    Again, the Minister was here. He was engaged in 
conversations with our government on these matters. They have 
done a lot to curb the flow of money into Syria and into Iraq. 
They have the banking rules that limit some of that. They are a 
little bit more advanced, I think, than other gulf countries in 
prohibiting and limiting and regulating that. We are working 
closely with them.
    So I think we have all the tools with them to engage in 
what is their biggest threat, but it is also our biggest 
threat. It is certainly in our national interest to ensure that 
that counterterrorism piece is strong and viable and supported.
    Senator Barrasso. I think it was interesting, Reuters 
reported just a couple days ago a decree by King Abdullah 
imposing prison terms of from 3 to 20 years on Saudis who go 
abroad to fight, and the concerns there. So it is interesting. 
I think there is a significant impact of the conflict in Syria 
and how it is impacting the security in Saudi Arabia. So we 
will see what happens in terms of shifts in the future.
    I am out of time, Mr. Chairman. Thank you very much.
    Senator Kaine. Thank you, Senator Barrasso.
    We will move to a second round of questions. In this and 
any subsequent rounds if necessary, we will move with 5 
minutes.
    Secretary Westphal, one last item. Senator Durbin had hoped 
to ask some questions, if here, concerning human rights issues, 
imprisonment of activists, journalists, folks persecuted under 
concerns around religious freedom. We are going to keep the 
record open for written submission of questions until the end 
of the day tomorrow, and there may be a written question 
submitted on that issue to you about how you would intend to 
deal with those issues. So I will just give you that heads up.
    Mr. Gilbert, with respect to New Zealand, New Zealand has 
been a key supporter of expanded international trade and a 
partner with the United States as we work for the Trans-Pacific 
Partnership process. Obviously, with your financial background 
and expertise, trade and commerce between New Zealand and the 
United States will be a key issue. Talk to me a little bit 
about what your priorities will be in advancing United States 
trade interests with New Zealand?
    Mr. Gilbert. Thank you, Senator. Next week is the next 
working group and then ministerial group meetings in Singapore 
regarding TPP. The work on TPP done by the U.S. Trade 
Representative, they are trying to get to a final agreement, a 
high-level, high-quality, very comprehensive agreement between 
the 12 nations that are currently negotiating on TPP.
    Our relationship with New Zealand has been a very strong 
one and has increased with trade. This is an agreement that we 
believe that will benefit not only our two countries, but all 
12 countries. Earlier today their Trade Minister Groser was 
speaking to a business group, talking about the predictions for 
TPP. He quoted the Peterson Institute here. He talked about 
their internal numbers and believes that these numbers could be 
dramatically understated.
    They signed a free trade agreement with China a few years 
back and all the projections there were greatly underestimated. 
As a matter of fact, their trade has grown 10 times faster than 
they believe that it would. So they have been a great partner 
in working on TPP and if TPP is concluded and if I am confirmed 
I look forward to working with them in helping execute the 
agreement.
    Senator Kaine. Thank you, Mr. Gilbert.
    One of the major defense policy adjustments in the last few 
years has been the President's announcement of the rebalancing, 
shift, pivot, toward Asia. While a lot of people who are not in 
Asia hear that and they get nervous, and particularly maybe 
some real estate for the rest of the panel, New Zealand has 
been a strong supporter of this announced strategy and the 
reestablishment of military-to-military ties with New Zealand 
has been a real positive during the last few years as our 
bilateral working relationships are increasing.
    Talk a little bit about what you would intend to do in your 
role as Ambassador to further the growing military-to-mil 
cooperation between the United States and New Zealand?
    Mr. Gilbert. Thank you. As I mentioned in my opening 
statement, on the back of both the Wellington Declaration and 
the Washington Declaration we have seen both our diplomatic and 
our military relationship with New Zealand strengthen. That is 
something that we believe that will continue.
    Secretary Mabus was just in New Zealand at the beginning of 
this month meeting with his counterparts there. He also, while 
he was there, met with Prime Minister Key and Foreign Affairs 
McCully. We have been doing joint military exercises for the 
first time and the Royal New Zealand Frigate, the TE MANA, is 
serving with a multinational force in the Gulf of Aden and in 
the Indian Ocean on antipiracy patrols. The TE MANA also docked 
in Guam last year and it was the first time that a Royal New 
Zealand ship had docked in a United States port in many 
decades.
    We believe that this relationship continues to move 
forward. Secretary of Defense Hagel has already given 
prepermission for the Royal New Zealand Navy to dock at Pearl 
for the Rim of Pacific fleet exercises this summer. So we are 
seeing more exercises with them. We have seen the mil-to-mil 
relationship grow, and if confirmed I look forward to being 
part of keeping that momentum going.
    Senator Kaine. One last question. My time has expired, but 
there is no one here to stop me, so I am just going to run 
wild. There is an interesting issue about the United States and 
New Zealand working together to establish a marine-protected 
reserve in the Ross Sea. But that is currently opposed--that 
proposal is currently opposed by Russia and China. Do you have 
any thoughts on that particular item? I found that interesting. 
It sounds like a good idea to me.
    Mr. Gilbert. I believe that both countries were a little 
disappointed. They had dramatically reduced the size of the 
MPA, by almost 40 percent, because they thought that that was a 
number that they would do to--actually, to have Russia and the 
Ukraine sign off on the agreement. So they were disappointed, 
both countries, we were disappointed, New Zealand was 
disappointed.
    We are continuing to work on that and there will be 
meetings later this fall that will continue that discussion. 
But it is something that the United States and New Zealand both 
believe is critically important.
    Senator Kaine. Thank you, Mr. Gilbert.
    Mr. Silliman, first I just--it is so interesting, you going 
from Baghdad to Kuwait. When we discussed this in my office 
recently, the reestablishment of fairly strong relationships 
between Iraq and Kuwait might have been something that I think 
I would have and others might have predicted would be pretty 
difficult. Talk a little bit about that effort and what that 
positive relationship does for Kuwait at this moment?
    Mr. Silliman. Thank you, Mr. Chairman. This is in fact one 
of the few things that I have been able to accomplish within my 
tenure while in the Foreign Service. I have started many 
projects, but this was one that I think we were able to begin 
and execute fairly well.
    At the end of 2011, we at the Embassy in Baghdad, 
Ambassador Tueller in the Embassy in Kuwait, and the United 
States Mission to the United Nations in New York tried to find 
ways to spark an improved relationship between Iraq and Kuwait. 
It was actually the visit of the Kuwaiti emir, Sheikh Sabah, to 
the Arab League summit in Baghdad in early 2012 that really 
broke this open. It started a chain of events that permitted 
us, in coordination with the U.N., to demarcate the border, 
work through claims on air transport and airlines going back to 
the 1990s, and to work through the last pieces of the U.N. 
Security Council structure that was meant to protect Kuwait and 
make sure that all of the bad effects of the war were 
addressed.
    We were able last June to get through the Security Council 
a Security Council resolution essentially closing the chapter 
on most of the parts of Saddam's invasion of Kuwait in 1990. 
All that remains is Iraqi payment of some war reparations, 
which they have been doing regularly. This has opened up a 
Kuwaiti Embassy in Baghdad, possibly Kuwaiti consulates in 
other parts of the country, and the possibility of new trade 
and cooperation in the region.
    Kuwait has been in some ways a bridge between Iraq and 
other countries in the region, and one of the best results of 
this has been the resumption of air flights between Kuwait City 
and Baghdad last year. So it has been very positive for 
regional security.
    Senator Kaine. We have been having a number of hearings 
about the destabilizing or sort of decreasing security 
situation in Iraq. But as I gather from our discussion so far, 
that has not really affected the Iraq-Kuwait relationship or 
border issues in north Kuwait?
    Mr. Silliman. Yes, Mr. Chairman, that is correct. It really 
has not had any impact on Kuwait. I think they watch nervously 
the developments in their much larger neighbors in all 
directions, but they have been very careful to maintain an 
excellent relationship with the Iraqi Government and have been 
consulting closely. We have been consulting closely with them 
as well, and thus far there has been no spillover into Kuwait, 
and we frankly do not expect any spillover into Kuwait.
    Senator Kaine. It appears that domestic political unrest in 
Kuwait has quieted in recent months. Some of that may be 
economic in nature. Those of us working on budget issues were 
envious when we saw that Kuwait was announcing a surplus that 
was 40 percent of its GDP, a budgetary surplus. But what do you 
think the future is of political system reform in Kuwait going 
forward?
    Mr. Silliman. Senator, that is an excellent question and 
this is a question on which there is a very lively debate in 
Kuwait itself. Kuwait already has a political system that 
stands out in the region. As I said, women are full 
participants in the political system. There is a very lively 
press. There is very lively participation in social media, 
although with some controls from the government that we wish 
they did not try to impose.
    I believe that it is the openness of the political system 
that makes it possible for Kuwaitis to move forward more 
rationally and calmly than many other countries that do not 
have such an open system. It is one of the great benefits of 
democracy that we have here and I think Kuwait benefits from 
that.
    We will continue, I will continue if confirmed, to 
encourage expanded freedom of expression, freedom of 
association and other ways, so that Kuwaitis themselves can 
have open discussions and decide what their political future 
ought to be.
    Senator Kaine. One of the issues we also frequently discuss 
in both Foreign Relations and Armed Services is sort of the 
growing sectarian nature of conflict in this region between 
Sunni and Shia Islamic populations. Yet Kuwait has been a 
little bit immune from that, and I wonder if you would talk 
about why?
    Mr. Silliman. Certainly, Senator. Kuwait is fortunate in 
the region in that they do not have the same social or economic 
differences tied to sect or religion that other countries in 
the region do. About 30 percent of the Kuwaiti population is 
Shia. It is a minority, but it is very well integrated socially 
and economically. Kuwait Shia to my understanding do not feel 
themselves second-class citizens. They participate fully in 
political life and in social life. So I think this is one of 
the reasons that you have not seen spillover from other 
sectarian conflicts in the region.
    Again, if confirmed we will watch this very carefully. But 
I think that the situation in Kuwait is much more optimistic, 
or I am more optimistic about the situation in Kuwait than in 
many other places in the region.
    Senator Kaine. One last question. What is the current state 
of the Kuwaiti reaction to the United States-Iran negotiations, 
the P5+1 discussions?
    Mr. Silliman. An excellent question. The Kuwaiti has 
publicly welcomed the joint plan of action and said also that 
they hope that the joint plan of action leads to a permanent 
agreement that will resolve the nuclear issues of Iran, because 
they believe it will increase regional security in this region 
and other parts of the world. That said, they are still nervous 
about some of the other activities of Iran that we too are 
nervous about, support of terrorism and revolutionary movements 
elsewhere in the region and the world.
    So the Kuwaitis are not being Pollyannish when they are in 
favor of the joint plan of action. But thus far they have been 
supportive, and we have consulted with them closely.
    Senator Kaine. Great. Thank you, Mr. Silliman.
    Ambassador Tueller, in news of the week there was news this 
week about Yemen considering or on the path to adopt a six-
region federal structure. Based on your experience, including 
your earlier posting in Yemen, do you think this structure make 
sense and will hold? Is there lingering possibility that 
southerners will not see this as a viable structure? What has 
been the initial kind of response to this in Yemen and what are 
your thoughts about it?
    Ambassador Tueller. Senator, that is an important step that 
has taken place in this continuing process that began with the 
GCC initiative. The national dialogue brought together 
representatives from political elites, from different regions 
of the country, the different parties, included women, 
representatives of broad swaths of society, including of course 
southerners. In the process of the national dialogue, of course 
these issues were discussed. There were recommendations made.
    It is clear that there is still a need for further 
discussion on this. But the national dialogue concluded quite 
recently, January 25. The next phase of the process called for 
a study and the recommendations for a federal system, 
devolution of power from the center. So the recommendations 
that have come out for a six-region federal system are 
consistent with the national dialogue process.
    The issues are still very much alive. We expect that 
President Hadi is going to have to continue to exercise the 
type of leadership that he has over the course of this process 
as the country moves to the next phases of drafting the 
constitution, having a referendum to approve the constitution. 
I expect that there will be challenges and we will have to be 
continuously engaged along with other partners to ensure that 
the process is not derailed or spoiled by those who would like 
to oppose it.
    Senator Kaine. Just on that point, there has been an 
ongoing Houthi rebellion in a portion of Yemen and that 
rebellion has received, revolt has received support from Iran 
and has been a serious threat to security in Yemen. Is the 
political process as it is working sort of responding to 
grievances and dampening them, or is there likely to be an 
effort by this revolt to unwind or attack the political process 
that is ongoing?
    Ambassador Tueller. Senator, first on the question of the 
Houthi rebellion. There are legitimate grievances. The Houthis 
participated in the national dialogue, so that was a positive 
step. Nonetheless, the conflict continues.
    As you mention, there is strong evidence that Iran has been 
providing support to the elements of the Houthi rebellion, 
including last year Yemen seized a dhow with weapons, referred 
the case to the U.N., and the U.N. concluded that Iran was 
likely behind the shipment of weapons to the Houthis.
    We and Yemen share a strong interest in preventing Iran 
from meddling in and exerting its influence inside Yemen. So if 
confirmed one of my major efforts will be to assist the Yemeni 
Government both in addressing on the political, social, and 
economic level grievances that will allow the rebellion to be 
fought back, but also in preventing Iran from exploiting those 
tensions inside Yemen.
    Senator Kaine. You testified a bit about AQAP and how it 
has been such a significant challenge. One of the issues really 
raised as you dig into this is the success of counterterrorism 
in one country can create problems in a neighbor. So much of 
the AQAP membership has been Saudi natives who, because of 
Saudi efforts to crack down on terrorism, have found it easier 
to move across borders into Yemen and created problems in 
Yemen.
    Talk a little bit about the current status of the Yemen-
Saudi security cooperation in dealing with AQAP and what the 
United States is doing to try to help facilitate that?
    Ambassador Tueller. Senator, you have touched exactly on 
the issue behind AQAP's growth. It of course was formed in 2009 
as a result of the unification, putting one banner over both 
the al-Qaeda elements in Saudi Arabia and Yemen, with Yemen 
providing, because of ungoverned spaces and weak central 
government authority, the opportunity for elements of Saudi 
Arabia to take root inside Yemen.
    The question of how we combat that, of course, really goes 
to creating conditions where the Government in Yemen can begin 
to exert control in those ungoverned spaces, that it can begin 
to counter extremism, and that it can, with our assistance and 
the assistance of others, have the type of law enforcement 
security services that can counter the threat posed by 
terrorists.
    Saudi Arabia has actually played a very, very constructive 
role in Yemen. It played a very important part in bringing 
about the GCC initiative that brought the country back from the 
brink of civil war. So we believe also that continued 
involvement with Saudi Arabia as a partner in addressing the 
issues in Yemen is going to be important to the success of our 
efforts there.
    Senator Kaine. In the aftermath of the horrific bombing of 
the hospital in Yemen in December, AQAP took the unusual step 
of apologizing and saying they had made a mistake and that 
there was sort of a really just acknowledging that they had 
done wrong. Has the horrific nature of that particular crime 
weakened any attachment or support that they would receive from 
elements within the Yemeni population?
    Ambassador Tueller. Sir, again and again the primary 
victims of AQAP have been Yemenis. They have attacked Yemeni 
civilians, Yemeni infrastructure. The attack on the hospital 
and I believe the statement that you are referring to afterward 
is indicative of the type of challenge we face in countering 
their propaganda efforts. To carry out that sort of vicious 
attack and then come out afterward and try to apologize, while 
that may have some appeal to some people, I believe that we 
will be able to counter that and, with the help of the 
government that is engaged in the fight with us, to make sure 
that that extremist message, the lies they tell, do not take 
hold amongst the Yemeni people.
    Senator Kaine. Talk a little bit about the security 
challenge for your personnel in Yemen. I think Senator Risch's 
question to you about would your family be attending was 
getting at that issue. Yemen might be one of the most 
challenging assignments in the United States Foreign Service 
because of security. I understand all the employees of the 
Embassy, U.S. employees, live in a single building that is a 
converted hotel. If you would just talk a bit about the 
security challenges and how you will tackle them when you are 
there.
    Ambassador Tueller. Yes, Senator. It is something that, it 
is a dynamic situation, one that I believe we constantly have 
to evaluate, look and see what the nature of the threat is, 
what are effective countermeasures, what is the nature of the 
footprint on the ground, are we doing everything possible.
    Senator, if confirmed I will spend every morning and every 
evening giving serious thought to whether we are doing the 
things in Yemen that make sense, that we have got the right mix 
of people there, that we are taking all the appropriate 
countermeasures. I am confident with the experience that we 
have gained and continue to gain that we are putting in place 
best practices to protect our facilities and our people. But I 
am not going to rest for one moment and feel complacent about 
the steps in place and will be constantly evaluating whether we 
are doing the right thing.
    Senator Kaine. Mr. Ambassador, I was struck when we talked 
privately, based on your experiences in being in Yemen earlier, 
but you pointed out that in the Arab world, in this part of the 
world, Yemen is the poorest country. So in terms of resources 
to deal with the challenges, from a physical resource 
standpoint, they are very, very stressed. And yet you really 
seem to convey that, given the level of resources they have, 
there are reasons for optimism about how they are handling the 
challenges that they face, with AQAP notwithstanding. Have I 
fairly characterized your thoughts?
    Ambassador Tueller. Yes, Senator, I do feel optimistic 
about that. I think the level of economic assistance that we 
are providing is enabling the Yemeni Government to begin to 
improve its ability to deliver services, to exert its influence 
into ungoverned areas, to create jobs, to foster private 
enterprise. Frankly, there are a number of other very committed 
partners also, including Saudi Arabia and other GCC countries.
    So if together we can move that, there is great potential 
for Yemen to move from where it is now or has been over the 
past decades to a country, particularly as we see the political 
process begin to allow a government to function properly and be 
responsive to the needs of its citizens. I am optimistic about 
where that is headed.
    Senator Kaine. A last question. In the National Defense 
Authorizing Act that we passed at the end of 2013, the language 
that was hammered out between the House and the Senate with 
respect to Guantanamo opened up the prospect for more transfers 
of Guantanamo detainees back to countries of origin, with sort 
of two components: transfers to countries of origin, transfers 
to the United States for trial in Article 3 courts.
    We did not change the fundamental law with respect to the 
Article 3 courts, but we did open up more prospects for 
transfers back to countries of origin. A huge number of the 
remaining detainees, a sizeable percentage of the remaining 
detainees at Guantanamo, are Yemenis. Talk a little bit about, 
with greater congressional authority for such transfers, talk a 
bit about the important goal of returning to Yemen those who 
have been cleared for return at this point?
    Ambassador Tueller. Senator, the administration is very 
grateful for the greater flexibility that the legislation has 
provided the President, who has made clear that it is the 
policy of this administration to close Guantanamo. It has not 
been effective. It has not served our national security 
interests. So that flexibility that allows the administration 
to look at, in the case of Yemen, a case-by-case examination of 
each individual detainee to determine whether the conditions 
can be met to make a transfer either to Yemen or to a third 
country.
    So we will continue to look at that process. Again, it is 
going to be a case-by-case basis, looking at the specific 
circumstances of each individual and what assurances would be 
required so that we make sure that our national security 
interests are taken care of before any return takes place.
    Senator Kaine. Thank you, Ambassador Tueller, for your 
testimony and to all the witnesses and all who are here in 
support of them. I am glad we were able to have this hearing 
today. Each of your countries are very, very important allies 
for the United States and it is important that we have our best 
representing us there.
    The record of this hearing, and especially because of the 
timing of it, will remain open until the close of business next 
Thursday to allow members to submit questions for the record, 
and we ask your prompt response to such questions as they are 
submitted.
    With that, the hearing is adjourned.
    [Whereupon, at 3:24 p.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


            Responses of Douglas Alan Silliman to Questions 
                    Submitted by Senator Bob Corker

    Question. What are the vital U.S. national security interests in 
Kuwait? What are the other national security interests in Kuwait?

    Answer. Kuwait is a steadfast ally in the strategically important 
gulf region and a valued partner in promoting policies that strengthen 
regional security and stability, including supporting efforts to reach 
a just and lasting peace between Israelis and Palestinians, resolving 
the Syria crisis, including addressing the humanitarian needs of the 
Syrian people, and confronting Iran's destabilizing policies in the 
region. Our longstanding strategic partnership includes excellent 
military-to-military relations; Kuwait's proven track record as a 
supportive host of U.S. Army Central is critical to our ability to 
deter threats to our own homeland and to our allies. One of our highest 
priorities is sustaining and enhancing our security partnership, 
especially with respect to countering the threat of terrorism and 
violent extremism against the United States, U.S. personnel in the 
region and U.S. allies abroad. Kuwait, which holds the rotating Gulf 
Cooperation Council presidency for 2014 and will host the Arab League 
summit March 25-26, is increasingly assuming a regional leadership role 
on issues of shared importance such as the Syria humanitarian crisis 
and Iraq's regional reintegration. Finally, Kuwait holds roughly 7 
percent of the world's proven oil reserves, and U.S. companies actively 
compete for massive contracts in Kuwait's transportation, heath, and 
infrastructure sectors.

    Question. What are the three most important goals of U.S. policy in 
Kuwait?

    Answer. Sustaining and deepening our security partnership will 
continue to be our first priority, as it is essential to ensuring U.S. 
security, and the security and stability of the broader gulf and Middle 
East regions. This includes the protection of official U.S. personnel 
in Kuwait, as well as the more than 50,000 U.S. citizens living, 
working, and visiting Kuwait City; in that respect, the Government of 
Kuwait provides outstanding cooperation in both of these areas. 
Protecting access to energy resources is a second, critically important 
objective. Kuwait produces roughly 2.7 million barrels a day and 
exports more than 2 million barrels a day; it is in our mutual interest 
to help ensure that Kuwait remains a reliable supplier to global energy 
markets far into the future. A final objective involves strengthening 
U.S.-Kuwaiti commercial ties. Kuwait has consistently run large budget 
surpluses, and the Government of Kuwait is directing a sizeable portion 
of these funds into modernizing the country's infrastructure and 
improving the Kuwaiti health and education sectors, opportunities for 
which U.S. companies can expect to be exceptionally competitive. At the 
same, the government has also increased its yearly contributions to 
Kuwait's Future Generations Fund, an investment fund to which Kuwait 
contributes a percentage of annual oil revenues. If I am confirmed, I 
will work to sustain the recent increase in Kuwaiti investment in U.S. 
assets and companies, where Kuwait ranks as our 13th-fastest growing 
source of Foreign Direct Investment.

    Question. How does achieving these goals in Kuwait align with a 
broader regional strategy?

    Answer. Deepening our security, political, and economic partnership 
with Kuwait is a key component in advancing our regional goal of 
countering threats and promoting stability. As evidenced by the Kuwaiti 
Amir's September 2013 visit to Washington and Secretary Kerry's two 
trips to Kuwait in the last 9 months, our two nations work 
collaboratively on a range of bilateral, regional, and international 
issues of utmost importance to U.S. national security. For example, as 
the Gulf Cooperation Council president for 2014, Kuwait will facilitate 
our multilateral engagement with that entity, including on ballistic 
missile defense. Kuwait has also welcomed the Joint Plan of Action as 
an important first step toward a comprehensive nuclear agreement with 
Iran, and Kuwaiti assistance has been critical to short-term economic 
stability in Egypt. To address the dire humanitarian needs stemming 
from the ongoing violence in Syria, meanwhile, Kuwait's Amir cohosted 
with U.N. Secretary General Ban Ki-moon a second-annual high level 
donors' conference that spurred a collective $4.2 billion in new 
pledges of humanitarian assistance. Finally, I had the privilege of 
personally working to advance the normalization of Iraq-Kuwait 
relations over the past 18 months, which greatly contributed to 
regional stability and continues to serve as a powerful example of the 
potential for Iraq's re-integration into the immediate neighborhood, 
from which it has been so long estranged.
                                 ______
                                 

               Responses of Matthew Tueller to Questions 
                    Submitted by Senator Bob Corker

    Question. What are the vital U.S. national security interests in 
Yemen? What are the other national security interests in Yemen?

    Answer. Our vital U.S. national security interests in Yemen center 
on addressing near-term security threats to the United States and our 
regional interests by supporting President Hadi and the Yemeni 
Government's efforts to counter Al Qaeda in the Arabian Peninsula 
(AQAP) and to complete an historic democratic transition. In supporting 
Yemen's transition process, the U.S. thereby bolsters the Yemeni 
Government's ability to meet its citizens' economic, humanitarian, and 
political needs, undercutting the lure of extremist movements.
    Our objectives include: enhancing the Yemeni Government's ability 
to protect its borders and coastlines; enabling Yemen to participate 
more fully as a regional security, political, and economic partner; 
supporting the Yemeni Government in extending control over its 
territory and ungoverned spaces to prevent use by terrorists and 
transnational criminals; facilitating Yemeni efforts to modernize its 
military and improve interoperability with U.S. and coalition forces; 
and, encouraging bolstered rule of law and human rights best practices.

    Question. What are the three most important goals of U.S. policy in 
Yemen?

    Answer. The three most important goals of U.S. policy in Yemen are 
to: (1) counter the threat from AQAP and other violent extremists, in 
partnership with President Hadi and the Yemeni Government; (2) support 
Yemen as it implements the political, economic, and social reforms 
underpinning the country's historic transition to democracy, fostering 
a more stable and prosperous Yemen; and, (3) protect and promote U.S. 
citizens, personnel, and interests in Yemen.

    Question. How does achieving these goals in Yemen align with a 
broader regional strategy?

    Answer. Achieving these goals in Yemen aligns with our broader 
regional strategy by promoting peace, security and stability, enhancing 
economic cooperation, expanding opportunities for broader trade and 
investment, and supporting aspirations for more inclusive, responsive 
governance which addresses basic universal rights and needs.
                                 ______
                                 

           Responses of Joseph William Westphal to Questions 
                    Submitted by Senator Bob Corker

    Question. What are the vital U.S. national security interests in 
Saudi Arabia? What are the other national security interests in Saudi 
Arabia?

    Answer. In his September 24, 2013 address to the U.N. General 
Assembly, President Obama outlined U.S. core interests in the region, 
which also define our vital interests in Saudi Arabia:

          We will confront external aggression against our allies and 
        partners, as we did in the gulf war . . .
          We will ensure the free flow of energy from the region to the 
        world . . .
          We will dismantle terrorist networks that threaten our 
        people.

    If confirmed, I will work to advance our defense and security 
partnerships, energy coordination, and counterterrorism relationships, 
which truly are critical to our national security.
    However, as President Obama also noted: [T]o say that these are 
America's core interests is not to say that they are our only 
interests. We deeply believe it is in our interests to see a Middle 
East and North Africa that is peaceful and prosperous, and will 
continue to promote democracy and human rights and open markets, 
because we believe these practices achieve peace and prosperity.
    Building our commercial relationships, including increasing Saudi 
imports of American products and bolstering the success of American 
firms in winning Saudi contracts and forming successful business 
partnerships, will be a high Embassy priority during my tenure as 
Ambassador.
    Likewise, if confirmed I will prioritize engagement with Saudi 
Arabia on affording opportunities for women to participate fully in the 
public and economic life of the country, and allowing citizens basic 
rights, such as freedom of association and assembly. I will not shy 
away from advocacy of Saudi reforms in these areas or from offering 
support to those fighting for protection of these rights.
    Finally, the safety and security of the many American citizens in 
Saudi Arabia, both private and official, will be a first priority for 
me as Ambassador if confirmed.

    Question. What are the three most important goals of U.S. policy in 
Saudi Arabia?

    Answer. The most critical U.S. policy goals necessarily follow the 
U.S. core interests outlined above. We must continue to maintain our 
deep security partnership while continuing to sustain our robust 
Foreign Military Sales program with a current value of more than $96 
billion. Building Saudi defense capabilities and maintaining our 
partnerships in security and counterterrorism are essential matters of 
our national security strategy. We must also work closely with Saudi 
leaders on energy matters to ensure stability in global markets, and 
further enhance our cooperation on counterterrorism which is a critical 
policy goal that I will work to advance if confirmed, in whole-of-
government fashion. I further look forward to visits from and 
consultation with members of the committee to discuss our approaches to 
these issues and how best to achieve our goals.

    Question. How does achieving these goals in Saudi Arabia align with 
a broader regional strategy?

    Answer. While our bilateral partnership with Saudi Arabia remains 
critical in its own right, it also is very much a component of the 
broader regional strategy that you reference. Saudi Arabia is an 
influential regional actor and plays a key role in every major issue 
confronting the region, from Syria to Iran. We need Saudi coordination 
and assistance to deal effectively with these complex regional 
challenges. As the Gulf Cooperation Council (GCC) collective, grows 
increasingly important as a political, security, and economic body, we 
must work with Saudi Arabia, the largest GCC member state, to 
strengthen our partnerships in the region and enhance regional economic 
and military ties. We must continue regular engagement with the GCC 
states through the U.S.-GCC Strategic Cooperation Forum to develop 
broader cooperative ties with the six GCC member states, including on 
matters such as gulf security and ballistic missile defense.
                                 ______
                                 

           Responses of Joseph William Westphal to Questions 
                   Submitted by Senator Barbara Boxer

    Question. As you are well aware, women in Saudi Arabia are 
effectively treated as legal minors due to the country's male 
guardianship system and are unable to do many of things that women here 
in the United States take for granted. In fact, according to a recent 
report from the World Bank, the economic potential of Saudi women is 
the most limited in the world due to their legal status.
    In recent years however, Saudi Arabia has made several advancements 
in women's rights. For example, in the upcoming Saudi election in 2015, 
women will, for the first time, be able to stand as candidates and vote 
in municipal elections. The majority of these advancements made by King 
Abdullah have been largely symbolic but I hope that they can at the 
very least represent a turning point for women in Saudi Arabia.

  <diamond> What will you do to engage with the Saudi Government on 
        women's issues and how will you work to advocate on behalf of 
        women especially in light of the upcoming 2015 elections?

    Answer. If confirmed as Ambassador, I will engage Saudi leaders on 
the need to accelerate reforms that allow women to participate fully in 
the political and economic life of the country and that protect women 
and girls from abuse or discrimination. I will express the view that 
Saudi Arabia will never reach its full potential if it does not allow 
half of its citizens to contribute to the country's future and 
prosperity. The historic appointment of 30 women to the Kingdom's 
Consultative Council was a positive step in this direction; however, 
much more needs to be done for the full inclusion of women in Saudi 
public life. As Saudi women prepare to vote and to run for office for 
the first time in the upcoming 2015 municipal council elections, I will 
closely monitor these important elections and encourage the women of 
Saudi Arabia to seize this important opportunity to participate in 
their country's political life. I will also engage with key Saudi women 
leaders in business and government.
    As I engage with Saudi officials, I will be clear that the U.S. 
Government supports women's freedom of movement and all opportunities 
afforded to men, including the removal of restrictions on women in 
transportation, employment, and public life. Saudi women are working 
hard to change social and government views inside their country, noting 
the illogic of current policies and practices, and they have generated 
vigorous public debate within Saudi Arabia about the role of women in 
Saudi society--a debate the Saudi leadership has at least tacitly 
supported. The recent driving campaign is just one example of the many 
home-grown campaigns that Saudis of both genders have initiated in 
recent years to press for increased opportunities and rights for Saudi 
women.

    Question. Further, how do you believe the United States can best 
work to improve economic prospects for Saudi women?

    Answer. Many women in Saudi Arabia have little ability to fulfill 
their talents and career and entrepreneurial ambitions because of 
societal and governmental strictures. If confirmed, I will examine ways 
to expand women's opportunities by showcasing Saudi women entrepreneurs 
through the use of social media and other mission resources and will 
facilitate networking among established women entrepreneurs and those 
just starting out so that others can gain from those with track 
records. I will also support increasing the number of Saudi students in 
the U.S. I will promote exchanges and training opportunities, and will 
examine partnerships for Saudi female entrepreneurs and professionals 
with peers in the U.S. I will also discuss with American companies 
operating in Saudi Arabia how they can help increase opportunities for 
women and youth and pave the way for more women to enter the labor 
force. Expanded U.S. educational offerings, network-building, and 
mentoring opportunities will benefit Saudi women just like they assist 
professionals everywhere, and over time will help expand the space 
available to women in Saudi Arabia to fully contribute to their 
country's success.
                                 ______
                                 

               Responses of Matthew Tueller to Questions 
                 Submitted by Senator Edward J. Markey

    Question. The busiest liquefied natural gas import terminal in the 
country is in my home State of Massachusetts. In fact, over the last 5 
years, 40 percent of all U.S. imports have come through Boston Harbor. 
Fourteen percent of the LNG brought into the port originates in Yemen. 
That figure is declining due to terrorists repeatedly blowing up the 
main gas pipeline in Yemen.

  <diamond> What is your assessment of the current security situation 
        as it relates to the country's oil and gas infrastructure? Do 
        you believe Yemen is a reliable source of natural gas for 
        Massachusetts consumers?

    Answer. Yemen continues to face frequent attacks by Al Qaeda in the 
Arabian Peninsula (AQAP) and other armed groups seeking to undermine 
the political transition. This has included attacks on the country's 
oil and gas infrastructure. President Hadi and the Yemeni Government 
remain committed to improving the security environment and to 
protecting--and developing--Yemen's energy infrastructure. The Yemeni 
Government has made some progress reclaiming territory in the south 
previously under AQAP control, and is working to prevent attacks on 
Yemen's oil infrastructure. However, AQAP and tribal militias still 
routinely launch small scale attacks, particularly in remote areas, 
which disrupt energy production.
    The United States supports programs to help build the capacity of 
Yemen's security forces to conduct counterterrorism operations and 
protect the Yemeni people, officials, and infrastructure from terrorist 
attacks. Our success in this initiative will contribute directly to 
Yemen's reliability as a provider of LNG to the people of 
Massachusetts.

    Question. The United States has not merely given military aid to 
Yemen since that country's political transition began in 2011 we have 
also provided humanitarian and economic development assistance. In 
fact, over the previous 2 fiscal years, we have provided over $100 
million in economic aid. Yet, much more work is needed to transition 
Yemen's political system and economy into the 21st century, 
particularly the country's electric grid. Yemen suffers chronic 
blackouts, even in the capital. Reliable power is a cornerstone of 
stability.

  <diamond> Is there anything we can do to improve the reliability and 
        security of Yemen's electric grid with our assistance, so that 
        it can move further toward self-sustaining development?

    Answer. Our security strategy in Yemen includes a strong focus on 
increasing Yemeni capacity to secure the country against AQAP and other 
threats, which will in turn build Yemeni capability to protect critical 
infrastructure. We seek to develop Yemen's security forces to conduct 
counterterrorism operations, extend government control in ungoverned 
spaces to prevent use by terrorists, and to secure maritime and land 
borders.
    We routinely engage with the Yemeni Government on discussions over 
critical infrastructure--particularly Yemen's electric grid--and, in 
tandem with the international community, continue to support efforts to 
improve the reliability and safety of the energy grid, including 
through infrastructure development programs linked to the country's 
Mutual Accountability Framework, which is critical to ensuring donor 
confidence and continued support.
    We are also working with Yemen to develop more sustainable uses of 
energy and support the establishment of ties between Yemeni and 
American business communities to promote sustainable development, 
including in the areas of renewable energy.
    Finally, we continue to advocate for U.S. businesses looking to 
work with the Yemeni Government to increase electricity generation 
capacity.

    Question. In your opinion, what should be the focus of the United 
States economic development goals in Yemen?

    Answer. The United States economic development goals in Yemen 
should continue to focus on supporting near-term development and growth 
as well as longer term macroeconomic reform to achieve stability and 
underpin the gains of the country's ongoing transition process. In 
particular, our goals should include: (1) assisting the Yemenis in 
addressing economic reform priorities, which will set Yemen on a more 
sustainable path while increasing opportunities for private enterprise; 
(2) strengthening the capacity of the Yemeni Government, including the 
Mutual Accountability Framework (MAF) Executive Bureau, to support the 
country's efforts to implement reform commitments; (3) encouraging 
other international donors to fulfill assistance pledges which will 
enable the Yemeni Government to pursue meaningful reform and 
development; and, (4) assisting the Yemeni Government in meeting the 
critical humanitarian needs of the Yemeni people to foster the 
stability required to serve as a foundation for meaningful change.
    Significant structural reform and the development of a sustainable 
private sector remain essential to addressing many of the Yemeni 
citizens' key economic-focused demands. The Yemeni Government, however, 
has limited technical capacity to undertake sweeping institutional and 
economic reforms on its own. Our development goals in Yemen should 
focus on supporting Yemen's transitional government as it works to 
advance much-needed economic and structural reforms, while coordinating 
with the international community to maximize the utility of our 
assistance.

 
                  NOMINATIONS OF DEBORAH BIRX; SUZAN 
              LeVINE; MAUREEN CORMACK; AND PETER SELFRIDGE

                              ----------                              


                        THURSDAY, MARCH 6, 2014

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Deborah L. Birx, of Maryland, to be Ambassador at Large and 
        Coordinator of United States Government Activities to 
        Combat HIV/AIDS Globally
Suzan G. LeVine, of Washington, to be Ambassador to the Swiss 
        Confederation, and to serve concurrently and without 
        additional compensation as Ambassador to the 
        Principality of Liechtenstein
Maureen Elizabeth Cormack, of Virginia, to be Ambassador to 
        Bosnia and Herzegovina
Peter A. Selfridge, of Minnesota, to be Chief of Protocol, and 
        to have the rank of Ambassador during his tenure of 
        service
                              ----------                              

    The committee met, pursuant to notice, at 2:15 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Edward J. 
Markey presiding.
    Present: Senators Markey, Cardin, Murphy, Kaine, Corker, 
and Barrasso.
    Also Present: Senators Patty Murray and Maria Cantwell.

          OPENING STATEMENT OF HON. EDWARD J. MARKEY, 
                 U.S SENATOR FROM MASSACHUSETTS

    Senator Markey. This hearing will come to order and we 
welcome all of you this afternoon. Today we welcome four 
distinguished individuals who have been nominated for senior 
positions in our Nation's State Department. I want to express 
my appreciation to the ranking member, Mr. Barrasso, as we 
begin our hearing today and I want to thank our panel for being 
here.
    Our first nominee is Deborah Birx, who has been nominated 
to serve as Ambassador at Large and Coordinator of United 
States Government Activities to Combat HIV/AIDS Globally. Dr. 
Birx has been a renowned leader and innovator in the HIV/AIDS 
field for decades. I could go on singing Dr. Birx's praises, 
but my colleague and fellow Senate Foreign Relations Committee 
member, Senator Cardin, is going to arrive here soon in order 
to graciously deliver Dr. Birx's introduction, so that is all 
that I will have to say for right now.
    Our second nominee is Susan LeVine. After a storied career 
at Microsoft, Ms. LeVine has been nominated by the President to 
be our Ambassador to Switzerland and the Principality of 
Liechtenstein. Ms. LeVine has substantial experience in the 
private sector, including at Microsoft, and we are fortunate to 
have both of her distinguished Senators from Washington who 
have also offered to introduce her to the Foreign Relations 
Committee.
    I will note at this point that there is a roll call on the 
Senate floor right now, so we are going to have an imminent 
arrival of several distinguished Senators in order to properly 
extol the virtues of our candidates.
    We also have before us Maureen Elizabeth Cormack, who has 
been nominated by President Obama to serve as our next 
Ambassador to Bosnia and Herzegovina. Ms. Cormack brings a 
wealth of experience at the State Department, most recently as 
the Principal Deputy Coordinator of the Department's Bureau of 
International Information Programs. As the Deputy Coordinator, 
Ms. Cormack provided skillful leadership to our Nation's public 
diplomacy communications operation.
    Since she began her career at the State Department in 1989, 
Ms. Cormack has demonstrated exemplary service both at home and 
overseas. I believe her background will enable her to bring 
strong leadership to our Foreign Service as the next Ambassador 
to Bosnia and Herzegovina.
    Last but certainly not least, we welcome Peter Selfridge, 
who has been nominated by the President to serve as the Chief 
of Protocol at the State Department. Mr. Selfridge has a long 
and impressive track record of ensuring that the highest 
profile Presidential trips go off without a hitch, no small 
feat. He has demonstrated this as the Director of Advance and 
Operations at the White House. That is precisely the sort of 
experience needed in our Chief of Protocol.
    As our Nation's first contact that welcomes foreign leaders 
and diplomats to our Nation, the Chief of Protocol plays a 
crucial role in our Nation's diplomatic operations. Put simply, 
our Chief of Protocol makes person to person diplomacy 
possible.
    Mr. Selfridge began his career right here in the United 
States Senate as a staff assistant and legislative 
correspondent in the office of Senator Tom Harkin, and we are 
glad to welcome him back today as we consider his nomination to 
this position. Unlike many Senators, he has made his way to the 
White House. So we congratulate you on that.
    With that, I would like to stop and actually begin to allow 
our witnesses to testify. As the Senators arrive, I am going to 
interrupt at that point so that each of the Senators can make 
their welcoming comments as well. So why do we not we begin 
with you, Ms. Birx. Whenever you feel comfortable, please 
begin.

 STATEMENT OF DEBORAH L. BIRX, M.D., OF MARYLAND, NOMINATED TO 
    BE AMBASSADOR AT LARGE AND COORDINATOR OF UNITED STATES 
       GOVERNMENT ACTIVITIES TO COMBAT HIV/AIDS GLOBALLY

    Dr. Birx. Mr. Chairman, thank you for the opportunity to 
meet with you today. Let me begin by acknowledging the much 
appreciated and unheralded work of this committee and many in 
this room who have persistently and effectively moved AIDS from 
the shadows to the center of our global health agenda.
    I am deeply grateful to President Obama for his continuing 
support and investment and in challenging us to do more, to 
Secretary Kerry for his long-term commitment to changing the 
course of this pandemic, to Secretary Clinton for the blueprint 
for an AIDS-free generation, and to President Bush for creating 
PEPFAR.
    Let me also take a personal moment to acknowledge my 
parents here today, who taught me to live my life focused on 
others, and my daughters, age 27 and 30. I am very proud of 
them and grateful for their patience and sacrifice.
    Senator Markey. Could they stand for a second so we can 
recognize them for the fantastic work they did.
    [Parents stand.] [Applause.]
    Senator Markey. Beautiful. Thank you all for being here.
    Dr. Birx. As you know, the AIDS pandemic has been 
devastating. Since the first cases were recognized in 1981, 
more than 30 million people have died of HIV and more than 30 
million people today live with HIV. But the AIDS story has 
changed dramatically over the last decade. It is no longer one 
of overwhelming despair. It has by sheer determination forged a 
different path, driven from the amalgamation of literally 
millions of untold and often heroic personal, political, and 
programmatic choices. Now the tide of this relentless pandemic 
is turning.
    Because of activists and analysts, scientists and religious 
leaders, parents and parliamentarians, we stand on the verge of 
achieving what many of us thought impossible just a few short 
years ago, the ends of the AIDS epidemic as we know it.
    My own 34-year professional journey, most of it in uniform 
in our Nation's armed services, has been intertwined with the 
path of this epidemic from the beginning. My path has been 
marked by humility, inspiration, and discovery: humility 
because at Walter Reed in the early 1980s we were caring for 
young soldiers, sailors, airmen, and marines who were suffering 
and dying from a mysterious illness and we could not save them; 
inspiration from Africa in the late 1990s, when pregnant women 
dying of HIV/AIDS still came forward, were tested, and 
confronted stigma and discrimination, forsaking their own lives 
to save their babies from HIV, and we could do nothing to save 
them; discovery for the potential pathway to an effective HIV 
vaccine through a partnership with NIH, DOD, and Thailand, and 
discovering through PEPFAR that we have not only saved lives 
but changed the course of this epidemic.
    The United States political leadership of this global 
response have also taken risks, defying conventional wisdom, 
across multiple administrations and Congresses. This committee 
was instrumental in creating PEPFAR in 2003, which has twice 
been reauthorized with strong bipartisan support.
    It only looks possible in hindsight that the whole of 
government coming together to achieve a common goal. the 
Department of State and USAID, the Departments of DOD and HHS 
and their components, as well as the Peace Corps, working 
together every day to implement PEPFAR.
    Among the lasting legacies has been the speed at which 
outstanding science and innovation has been translated into 
sound policy and programming at scale. Looking forward, our 
chance to realize an AIDS regeneration is within reach. We have 
arrived at a critical moment in time where we can redefine the 
trajectory of this epidemic.
    But our challenge is to remain--is maintaining our focus. 
If we begin to drift, if we lessen our aspirations or we leave 
our science behind, we will have squandered all of this 
investment and allowed the accomplishments of the last decade 
to unravel, with enormous negative consequences.
    We have arrived at an AIDS-free generation--we can arrive 
at an AIDS-free generation through PEPFAR and our vision is one 
that reflects shared responsibility, accountability, and 
impact. First, we need to follow the PEPFAR blueprint and the 
clear recommendations from external reviews. Second, we need to 
work together to achieve the vision of PEPFAR, holding each 
other accountable by harnessing the power of science to create 
new paths and tools, the power of scale in our programming, to 
continue to demonstrate to the sometimes-skeptical world that 
we are both capable of saving lives as well as changing the 
very face of this epidemic, the power of partnerships to create 
genuine synergies and to hold each of us accountable to our 
commitments, and the power of activism to translate our 
aspirations into our policies.
    Finally, we must stay focused in four key areas: scaling of 
effective interventions, strengthening countries' capacities 
and systems, sharing responsibility to address the epidemic, 
and most important ensuring transparency, accountability, and 
oversight.
    I believe we can accomplish what was truly unthinkable just 
a few short years ago. I look forward to the opportunity of 
working with this committee as we bring this to fruition, and 
let me stop here and express my deep appreciation and take any 
questions.
    [The prepared statement of Dr. Birx follows:]

               Prepared Statement of Dr. Deborah L. Birx

    Thank you Senator Markey, Senator Barrasso, Chairman Menendez, 
Ranking Member Corker and distinguished members of the committee. I am 
deeply honored to have been nominated by President Obama, with the 
strong support of Secretary Kerry, to serve as the United States Global 
AIDS Coordinator and to lead the global HIV/AIDS efforts on behalf of 
our Nation. It is a particular pleasure to have this opportunity to 
appear before your committee, which has so persistently and effectively 
moved AIDS from the shadows to the center of our global health agenda. 
I would like to applaud the members of this committee and your 
congressional colleagues for your unwavering bipartisan support of the 
U.S. President's Emergency Plan for AIDS Relief (PEPFAR) and for the 
recent passage of the PEPFAR Stewardship and Oversight Act of 2013. You 
are to be commended for your leadership in moving this legislation 
forward and with each reauthorization strengthening PEPFAR's investment 
strategy and program oversight to ensure maximum impact on the epidemic 
to achieve an AIDS-free generation.
    Please know that if confirmed, I will continue to work with you and 
the larger global health community to further strengthen and accelerate 
our global HIV/AIDS efforts to ensure that our programs have an even 
greater impact in saving lives, changing the course of the HIV 
epidemic, and taking a major step forward in achieving an AIDS-free 
generation. I will also ensure effective oversight, accountability, and 
enhanced transparency to you and the American people so that our 
investment of tax dollars reaps the greatest dividends. Our investments 
must continue to be smart, strategic, and impactful if we are to 
ultimately win the global battle against HIV/AIDS.
    The AIDS pandemic has devastated individuals and communities in the 
United States and around the world. Since the first cases were 
recognized in 1981, more than 30 million people have died from AIDS and 
millions more are now living with HIV, with an estimated 1.6 million 
deaths in the past year. Countless others have been affected by untold 
personal and economic loss. In recent years, however, the story of AIDS 
has changed dramatically. It is no longer just a story of devastation 
and despair--it is one of healing and hope. By sheer determination and 
millions of heroic personal, political, and programmatic choices, the 
tide of this relentless epidemic is turning.
    The U.S. global HIV/AIDS effort has both launched and anchored the 
largest and longest lasting global health collaboration in history. 
Working together we have brought about extraordinary achievements that 
have transformed individuals, communities, societies, and countries. 
Over the last decade we have seen impressive gains. We have reached, 
and in many cases exceeded, PEPFAR's targets defined by the President. 
In FY 2013, PEPFAR directly supported 6.7 million men, women, and 
children worldwide with life-saving medicines; supported HIV testing 
and counseling to more than 12.8 million pregnant women; and provided 
antiretroviral medications to prevent mother-to-child transmission of 
the virus to 780,000 women. Last June, Secretary Kerry made the 
historic announcement that PEPFAR had achieved a milestone--1 million 
babies born HIV-free. We have supported more than 4.7 million voluntary 
medical male circumcision procedures in east and southern Africa. And 
PEPFAR supported 17 million people with care and support, including 
more than 5 million orphans and vulnerable children, in 2013.
    These efforts have saved millions of lives and illustrate the 
critical role of American leadership in global health. Within the 
global response to the epidemic, PEPFAR has served as a remarkable 
example of cooperation across the breadth of our Government and our 
Nation with countless partners around the globe. This success owes a 
great debt to the leadership of President George W. Bush and the 
members of his administration for creating PEPFAR. To President Obama, 
former Secretary of State Clinton, and Secretary of State Kerry for 
their deep commitment as outlined in the ``PEPFAR Blueprint for an AIDS 
Free Generation'' to further extend our efforts. And to the visionary 
leaders in this and earlier Congresses, who had the foresight to 
propose, support and guide this program in its development. We also owe 
a debt of gratitude to Ambassadors Eric Goosby and Mark Dybul for their 
effective stewardship of PEPFAR during the current and past 
administrations. And we are grateful as well to the pioneers who 
created the Leadership and Investment in Fighting the Epidemic (LIFE) 
Initiative in the Clinton administration. The U.S. global response to 
HIV has been uniquely uninterrupted, and each administration has 
contributed its own vision while maintaining the fundamentals, securing 
bipartisan bicameral support through each reauthorization, and 
reflecting the enduring compassion of the American people.
    My entire professional career has been focused on the AIDS 
epidemic, interacting with it from a number of different perspectives 
both in the United States and throughout the world. As a physician I 
have cared for patients, beginning in the 1980s at Walter Reed Army 
Medical Center, before we knew a deadly virus was causing this 
horrendous disease. I made scientific contributions in understanding 
how this virus destroys the body's defense mechanisms.
    And while leading the Walter Reed Army Institute of Research work 
on HIV/AIDS, I was able to acquire a more thorough appreciation of the 
potential and limitations of groundbreaking vaccine research. As a 
proud Army Veteran, having risen to the rank of Colonel, I brought 
together the Navy, Army, and Air Force in a new model of cooperation--
whose lessons I would hope to adapt in this role to ensure that the 
full U.S. Government interagency PEPFAR collaboration is enhanced. 
Finally, in my current role as the Director of the U.S. Centers for 
Disease Control and Prevention (CDC), Division of Global HIV/AIDS, I 
have had the privilege of working with and across the full array of 
U.S. Government PEPFAR implementing agencies, where I developed a 
unique understanding and appreciation of the complementary roles of 
each. These diverse and demanding experiences have challenged me 
personally while reinforcing my confidence in our collective 
capacities--and my optimism that our chance to create an AIDS-free 
generation is within reach.
    Our challenge is to maintain our focus. If we begin to drift, to 
lessen our aspirations, or to stray from the scientific method, we will 
have squandered our accumulated assets and allowed the accomplishments 
of the last decade to unravel, with enormous negative consequence to a 
great many young lives. To achieve an AIDS-free generation--we need to 
refocus our efforts, reenergize our partnerships, and reaffirm our 
commitments to achieving our objectives. My confidence in our eventual 
success derives from what we have seen and experienced thus far in the 
global effort.
    We have seen our many partners in clinics and communities across 
five continents persevere and prevail in their efforts to bring sound 
science to the service of social justice.
    We have seen the compassion and passion of AIDS advocates and 
activists at the forefront of the global response drawing support to 
the organizations, health care providers and community health workers 
who directly touch the lives of those we are privileged to serve.
    Within the U.S. Government efforts, we have seen in action the 
leadership at the Department of State, including the important 
contributions of ambassadors to the field, as well as the Office of the 
Global AIDS Coordinator, and USAID; the Department of Health and Human 
Services and its agencies, including CDC, HRSA, and NIH, and the Office 
of Global Affairs; the Department of Defense; the Peace Corps; the 
Department of Labor; and the many dedicated career staff working here 
and overseas bringing their complementary expertise and shared 
commitment to this effort.
    We have seen the increased efforts of other governments, our 
multilateral partners, the private sector and a wide array of 
community, faith-based and civil society organizations, including those 
living with HIV/AIDS join forces to create a global response, which 
brought the political will of the global community to bear at the front 
line of the epidemic.
    Together we have experienced the power of activism, to translate 
our aspirations into our policies; the power of science, to create new 
paths and tools where the ones we have in hand fall short; the power of 
scale in our programming, to continue to demonstrate to a sometimes 
skeptical world that we are capable of changing the very course of the 
epidemic; the power of partnerships, to create genuine synergies and 
hold each of us accountable to our commitments; and the power of our 
collective will and generosity of the American people. Together we have 
achieved what was once thought to be unachievable.
    Looking forward, our vision is to achieve an AIDS-free generation 
through shared responsibility, accountability, and impact. First we 
need to pursue both the agenda defined by the ``PEPFAR Blueprint,'' 
reflecting lessons learned from 10 years of experience in supporting 
countries to rapidly scale up HIV prevention, treatment, and care 
services, as well as recommendations from external reviews available to 
help guide PEPFAR's next steps. Second, we need to work together with 
all our partners to realize our vision, holding each other accountable 
and continuing to work together as activists, scientists, policymakers, 
and service providers to turn the tide of this epidemic together.
    To realize this vision we must stay focused on four key areas. 
First, we need to use country-driven analyses to accelerate action to 
scale up effective interventions for maximum impact in saving lives. 
Second, we must focus on strengthening country capacities and systems 
for longer term accountability and sustained impact. Third, we need to 
establish innovative Country Health Partnerships that ensure shared 
responsibility of the epidemic with country and other global 
stakeholders, including more robust engagement of country governments 
and civil society. Finally, we need to ensure enhanced transparency and 
accountability of program objectives, impact, investments, and quality.
                   scaling of effective interventions
    As a physician and epidemiologist, I am strongly committed to 
ensuring that country-driven analysis steers efforts to accelerate 
action to rapidly scale up effective interventions for maximum impact 
and controlling the HIV epidemic. Science, epidemiology, and dynamic 
data systems are essential. We will work with partner countries toward 
scaling up the best models for facility- and community-based service 
delivery that ensures that our resources go to the right people at the 
right time. We will prioritize reduction of sexual transmission by 
driving programs using epidemiological data and intervention 
effectiveness. To achieve an AIDS-free generation, we must analyze the 
epidemic country by country and tailor our approach to those most at-
risk, to: eliminate new HIV infections among children and keep mothers 
alive; increase coverage of HIV treatment to reduce AIDS-related 
mortality and enhance HIV prevention; end stigma and discrimination 
against people living with HIV and key populations (e.g., men who have 
sex with men, sex workers, and people who inject drugs), improving 
their access to, and uptake of, comprehensive HIV services; increase 
the number of males who are voluntarily circumcised for HIV prevention; 
and increase access to, and uptake of, HIV testing and counseling, 
condoms and other evidence-based interventions.
              strengthened country capacities and systems
    I am committed to ensuring that our PEPFAR programs are designed, 
implemented, and measured to strengthen country ownership and that we 
build long-term capacity of governments and civil society in countries 
through innovative Country Health Partnerships. These efforts to 
strengthen country ownership enjoy strong international support, and 
working with our partners we will maintain a concerted focus in health 
systems in a results-oriented manner that will be critical for 
sustaining the response to HIV prevention, care, and treatment. Through 
our work we will ensure we effectively support countries in 
strengthening their health systems over time with metrics and 
strategies that align with PEPFAR's vision. I am committed to ensuring 
that civil society engagement will be enhanced to make sure that those 
voices are involved in decisionmaking, implementation, and oversight 
activities of all PEPFAR programs.
                 shared responsibility of the epidemic
    Nothing is possible alone, ``shared responsibility'' is an 
established U.S. Government perspective and I believe everything is 
possible through this perspective and partnership. This means a joint 
approach toward country led, managed, and implemented responses with 
civil society, multilateral, and bilateral partners, including key 
collaboration with the Global Fund to Fight AIDS, Tuberculosis, and 
Malaria, the World Health Organization, UNAIDS, UNICEF, other 
multilateral, nongovernmental organizations and faith-based 
organizations. PEPFAR and the Global Fund financed programs are 
complementary and intertwined in countries where both exist. If 
confirmed, I will be vigilant in ensuring that we continue to realize 
strong program coordination, decreased costs, greater impact and 
efficiencies between Global Fund and U.S. investments--so that we are 
getting the best return on all available resources to fight HIV/AIDS in 
countries. Similarly, private sector mobilization is critical to 
service delivery and sustainable programs. We will continue to work 
toward shared accountability so that countries are in a position to 
manage and control their own epidemics. We will apply lessons learned 
from PEPFAR and our development partners across the health and economic 
sectors to more effectively deploy our transition policy in a stepwise 
manner that is consistent and aligned with epidemiology, strategy, and 
financing.
              transparency, accountability, and oversight
    If confirmed, I am committed to ensuring enhanced transparency and 
accountability of program impact, cost, and quality by clearly and 
transparently aligning vision, strategy, and resources. We must 
strengthen key management and accountability relationships between 
multiple agencies, countries, and recipients in support of common 
health goals. We will use health economic data, including in-depth cost 
studies and expenditure analyses, to better manage program 
accountability to demonstrate PEPFAR's contributions to partner-country 
programs. We will use a comprehensive knowledge management framework, 
including a program monitoring and evaluation strategy, a prioritized 
and targeted research portfolio, and systems for knowledge 
dissemination, improved implementation and oversight--not only by the 
United States but also by the countries themselves.
    The history of the end of the 20th century will be forever recorded 
with the emergence of a new and deadly viral plague that challenged us 
scientifically, socially and politically. Fortunately, that history 
will also record that--eventually--we faced our own fears of the 
disease and embraced those infected and affected with the open arms of 
compassion, creative research, and determined solutions. Our task is to 
ensure that the history of the beginning of the 21st century records 
that we continued to bring our collective scientific and care-giving 
potentials together around the globe. And that with confidence in our 
tools and capacities, we focused them with unwavering urgency to 
control this pandemic. We demonstrated that this chronic disease could 
be managed in resource-limited settings. And when the end of HIV/AIDS 
epidemic was within our reach, we grasped it and held on tightly. We 
cannot permit complacency to allow this pandemic to reemerge stronger 
and deadlier than it was before.
    Mr. Chairman, though the road ahead will be challenging, I am 
confident that we will prevail. If confirmed, I will work tirelessly to 
support and further the work of our many colleagues and partners whose 
determined effort is an inspiration to us all. It is essential that the 
United States of America continue to lead the global fight against HIV 
and AIDS until we achieve our overarching objective, as envisioned by 
the President. Those who remain skeptical might find heart in Nelson 
Mandela's encouragement to us that: ``It always seems impossible until 
it is done.'' The challenge in front of us is indeed immense, but we 
have learned a great deal from our efforts and success to date. The 
time has come where we can confidently translate our aspirations into 
operations, and systematically reign in this epidemic.
    Mr. Chairman, thank you for this opportunity to appear before you 
today. I look forward to answering your questions.

    Senator Markey. Our next witness, Ms. LeVine; whenever you 
are ready, please begin.

 STATEMENT OF SUSAN G. LeVINE, OF WASHINGTON, NOMINATED TO BE 
      AMBASSADOR TO THE SWISS CONFEDERATION, AND TO SERVE 
CONCURRENTLY AND WITHOUT ADDITIONAL COMPENSATION AS AMBASSADOR 
              TO THE PRINCIPALITY OF LIECHTENSTEIN

    Ms. LeVine. Thank you so much. Chairman Markey and 
distinguished members of the committee, it is an honor to 
appear before you today as the President's nominee to be the 
next United States Ambassador to both the Swiss Confederation 
and the Principality of Liechtenstein. I am profoundly humbled 
by this opportunity and thank President Obama and Secretary 
Kerry for the trust and confidence that they are placing in me 
with this nomination. I would also like to thank Senator Murray 
and Senator Cantwell, when they get here, for their generous 
remarks on my behalf.
    If I may, I would like to introduce you to some of the 
members of my family who are here today. I would like to 
introduce you to my mother, Phyllis Davidson, my husband, Eric 
LeVine, and my children, Sydney and Talia. It is through their 
love and support that I am here today.
    Lastly, I would like to mention that I am sure my father, 
Maurice Davidson, may he rest in peace, who proudly served as 
an Army physician in Vietnam, is with us today in our hearts. 
Patriotism and service to our country were paramount to him and 
he instilled those values in me and my siblings throughout his 
life.
    Over the last----
    Senator Markey. Can I ask your family to stand up, too, so 
we can see them?
    Ms. LeVine. Absolutely.
    Senator Markey. Oscar in a supporting role here.
    [Family stands.] [Applause.]
    Senator Markey. Thank you.
    Ms. LeVine. Thank you.
    Over the last 20-plus years, be it as a leader in business, 
both as a director at Microsoft and a vice president at 
Expedia, or as an intern at NASA, or as a volunteer and leader 
in the nonprofit sector, or as a mother, I have pursued 
opportunities and overcome challenges. I have led teams, built 
partnerships, organized communities, grown businesses, created 
and cultivated social media spaces, and conducted youth 
outreach. Above all, I have achieved results.
    Throughout my career, I have focused my efforts on 
technology, innovation, education, travel, early learning, and 
social responsibility, all key areas of partnership with 
Switzerland and Liechtenstein. As two of the oldest federal 
republics in the world, the United States and Switzerland are 
close friends and partners. Our relationship spans important 
areas of bilateral and multilateral cooperation, from human 
rights to regional stability.
    As in any mature relationship, sometimes we have different 
perspectives. The issue of bank secrecy and tax evasion was a 
difficult one, but the U.S. and Swiss Governments have reached 
important agreements in this area and we are turning the page. 
Liechtenstein has also made great progress in the sharing of 
bank information.
    I believe the mission for this position is to foster 
bilateral relationships with both Switzerland and Liechtenstein 
that enhance prosperity, stability, and security in our 
respective nations and around the world. Thus, if confirmed I 
would leverage my experience and knowledge to execute three key 
strategies: one, further grow our economic ties; two, expand 
global security and development collaboration; three, increase 
awareness and appreciation for each other's culture, values, 
and policies.
    Let me elaborate. From the economic standpoint, we will 
start from a strong base. Switzerland is one of the top foreign 
direct investors into the United States, accounting for 
hundreds of thousands of American jobs. Switzerland is also a 
top-20 export market for American goods and services. 
Liechtenstein, even with a population of about 36,000, has key 
companies that account for thousands of U.S. jobs. If 
confirmed, I would make it a priority to tap into the rich 
potential for even more foreign direct investment and exports 
with these two partners.
    Second, throughout my career I have built and stewarded 
partnerships where we tackled bigger opportunities and 
challenges than we could have alone and at the same time 
reduced redundancy and cost. The United States, Switzerland, 
and Liechtenstein have done some outstanding work together on 
this front. For example, along with the Swiss we are founding 
members of the Global Counterterrorism Forum. In addition, with 
Switzerland serving as the 2014 Chairman in Office of the OSCE, 
we have the opportunity to work together for security, 
prosperity, and human rights in Europe and Eurasia. If 
confirmed, I would explore how we might better leverage and 
expand existing partnerships or create new collaborations to 
further our shared global priorities.
    Finally, if confirmed I hope to increase awareness and 
appreciation of culture, values, and policies between our 
nations. For example, as Americans among our many values we 
pursue fairness, protect our environment, and respect 
diversity. On the policy front, we are working closely with the 
Swiss on a number of policy priorities, including on the NATO-
led Kosovo force, steering humanitarian assistance, and 
conflict mediation.
    To be effective at increasing awareness and appreciation, 
it is important to understand at least one of the core Swiss 
values and policies, that of neutrality, and how they 
demonstrate that neutrality does not mean hands off. For 
example, in January alone Switzerland took over the 
chairmanship in office of the OSCE, hosted the Geneva talks on 
Syria, and hosted the World Economic Forum in Davos. If 
confirmed, I will ensure that our global priorities and 
policies are articulated to both the Swiss and Liechtenstein 
Governments and their people.
    In all of these areas and endeavors, if confirmed I will 
rely on our highly skilled embassy staff, both local and 
American.
    Mr. Chairman and members of the committee, thank you again 
for inviting me to testify before you today. If confirmed, I 
commit to serving with integrity and to proudly and humbly 
applying my experience to this position. I look forward to 
collaborating with this esteemed committee and the Congress to 
foster our relationships between the United States and the 
Swiss Confederation and the Principality of Liechtenstein in 
the global diplomatic, development, and economic spheres.
    Thank you for your consideration and I look forward to 
answering any questions you may have.
    [The prepared statement of Ms. LeVine follows:]

                 Prepared Statement of Suzan G. LeVine

    Chairman Markey, Ranking Member Barrasso, and distinguished members 
of the committee, it is an honor to appear before you today as the 
President's nominee to be the next United States Ambassador to both the 
Swiss Confederation and the Principality of Liechtenstein.
    I am profoundly humbled by this opportunity and thank President 
Obama and Secretary Kerry for the trust and confidence that they are 
placing in me with this nomination.
    I would also like to thank Senator Murray and Senator Cantwell for 
their generous remarks on my behalf. I have known both for many years 
and hope that I can live up to the very high standards that each sets 
as an incredible public servant--whether as the ultimate mom in tennis 
shoes or as a tech exec doing good.
    If I may, I would like to take just a few moments to introduce you 
to some of the very special members of my family who are here today. 
First, I'd like to introduce you to my mother, Phyllis Davidson--who 
grew up not far from here and whose parents, my grandmother and 
grandfather, a WWI veteran and cofounder of the American Legion, are 
buried in Arlington Cemetery. Next, I'd like to introduce you to my 
husband, Eric LeVine, and my wonderful children, Sidney and Talia. It 
is through their love and support that I am here today. Lastly, I'd 
like to mention that I'm sure my father, Maurice Davidson, may he rest 
in peace, who proudly served as an Army physician in Vietnam, is with 
us today in our hearts. Patriotism and service to our country were 
paramount to him and he instilled those values in me and my siblings 
throughout his life.
    Over the last 20-plus years, be it as a leader in business, both as 
a Director at Microsoft and a vice president at Expedia, or as an 
intern at NASA, or as a volunteer and leader in the nonprofit sector, 
or as a mother, I have pursued opportunities and overcome challenges. I 
have led teams, built partnerships, organized communities, grown 
businesses, created and cultivated social media spaces, and conducted 
youth outreach. Above all, I have achieved results. It is my great hope 
that the Senate will permit me the opportunity to use my skills and 
experiences to further our vital relationship with Switzerland and 
Liechtenstein.
    My dual degrees in English and Engineering reflect my unique 
approach to leadership--I am a translator and a connector. Throughout 
my career I have focused my efforts on my passions, including 
technology, innovation, education, travel, early learning, and social 
responsibility--all core sectors of excellence for both Switzerland and 
Liechtenstein, and key issues of partnership in our bilateral 
relationship.
    As two of the oldest federal republics in the world, the United 
States and Switzerland are close friends and partners. Our relationship 
is deep and strong, covering a wide range of important areas of 
bilateral and multilateral cooperation, from human rights to regional 
stability. We share many of the same values.
    The United States and Switzerland partner together in many areas, 
including in venues such as the Organization for Security and 
Cooperation in Europe (OSCE), of which Switzerland is the Chairman-in-
Office in 2014, the NATO Partnership for Peace, multiple U.N. bodies, 
and international financial institutions. Switzerland's neutrality 
allows it to play a unique mediating role, which can help address key 
U.S. foreign policy priorities.
    As in any mature relationship, sometimes we have different 
perspectives on how to address certain issues. The issue of bank 
secrecy and tax evasion was a difficult one, but the U.S. and Swiss 
Governments have reached important agreements in this area, and we are 
turning the page. Liechtenstein has also made great progress in the 
sharing of banking information.
    I believe the mission for the job to which I have been nominated is 
to foster bilateral relationships with both Switzerland and 
Liechtenstein that enhance prosperity, stability, and security in our 
respective nations and around the world. Thus, if confirmed, I would 
leverage my experience and knowledge to execute three key strategies:

          (1) Further grow our economic ties;
          (2) Expand global security and development collaboration; and
          (3) Increase awareness and appreciation for each other's 
        culture, values, and policies.

    From an economic standpoint, the growth we pursue will start from a 
strong base. Both Switzerland and Liechtenstein have an outsized impact 
in economic matters. Switzerland is one of the top foreign direct 
investors in the United States, ahead of countries many times its size, 
and Swiss companies account for hundreds of thousands of American jobs. 
Switzerland is also a top 20 export market for American goods and 
services. Liechtenstein, even with a population of about 36,000, has 
key companies that account for thousands of U.S. jobs. If confirmed, I 
would make it a priority to tap into the rich potential for even more 
foreign direct investment and exports with these two partners.
    The second strategy I want to highlight, if confirmed, will be to 
expand our global security and development collaboration. I firmly 
believe in the value of partnering on difficult issues. Throughout my 
career, I have built and stewarded so-called ``1+1 = 3 partnerships''--
where we tackled bigger opportunities and challenges than we could have 
alone and, at the same time, reduced redundancy and cost. This type of 
collaboration is critical when it comes to both global security and 
development, and the United States, Switzerland, and Liechtenstein have 
done some outstanding work together on this front. For example, along 
with the Swiss we are founding members of the Global Counterterrorism 
Forum, which aims to stop terrorism before it begins. In addition, with 
Switzerland serving as the 2014 Chairman-in-Office of the OSCE, we have 
a great opportunity to work together for security, prosperity, and 
human rights in Europe and Eurasia. If confirmed, I would explore how 
we might better leverage and expand U.S.-Swiss and U.S.-Liechtenstein 
partnerships, and other collaborations, to further our shared global 
priorities.
    Finally, if confirmed, I hope to work to increase awareness and 
appreciation of culture, values, and policies between our nations. For 
example, as Americans, among our many values, we pursue fairness, 
protect our environment, and respect diversity. On the policy front, we 
are working with the Swiss Government on a number of foreign policy 
priorities, both in Switzerland's backyard and further afield. Within 
Europe, Switzerland is a major troop contributor to the NATO-led Kosovo 
Force. Beyond Europe, Switzerland has provided over $70 million in 
humanitarian assistance for the people affected by the Syrian crisis, 
and helped to mediate among the factions in Mali. If confirmed, I will 
work with the highly skilled team at Embassy Bern to ensure awareness 
of these and other policies and values.
    Mr. Chairman, as you know, the Swiss hold neutrality as a key value 
and policy. I got a taste of this fact in 1988 when, on the first day 
of my first trip to Switzerland, I was stunned to meet my hometown 
rabbi. He was there to escort a group of students on their trip from 
Poland to Israel; since these two countries did not share diplomatic 
ties at that time, Switzerland was the way-station. This experience 
powerfully imbued me with a sense of just how important the Swiss are 
in building bridges.
    While the political landscape has changed dramatically since 1988, 
Switzerland's role as mediator and neutral broker has not. If anything, 
Switzerland has taken its global position to a whole new level. For 
example, in January alone, Switzerland took over the Chairmanship-in-
Office of the OSCE; hosted the Geneva 2 talks on Syria; and hosted the 
World Economic Forum in Davos. They are actively showing that 
neutrality does not mean hands off.
    Fundamentally, if confirmed, I believe my key responsibility is to 
ensure that our global priorities are articulated to both the Swiss and 
Liechtenstein governments and their people so that we may partner 
wherever possible on key global challenges.
    In all of these areas and endeavors, if confirmed, I will rely on 
our Embassy and its staff, both local and American. I have heard great 
things about the staff, and if confirmed I will seek to engender a true 
team spirit at the Embassy.
    Mr. Chairman, members of the committee--thank you, again, for 
inviting me to testify before you today. I feel honored to be nominated 
and, if confirmed, I commit to serving with integrity, and to proudly 
and humbly apply my professional, nonprofit, and community experience 
to this position. I look forward to collaborating with this esteemed 
committee, and the Congress, to foster our relationships between the 
United States and the Swiss Confederation and the Principality of 
Liechtenstein in the global diplomatic, development, and economic 
spheres.
    Thank you for your consideration, and I look forward to answering 
any questions you may have.

    Senator Markey. Thank you, Ms. LeVine.
    Next we will hear from Maureen Elizabeth Cormack. Welcome.

STATEMENT OF MAUREEN ELIZABETH CORMACK, OF VIRGINIA, NOMINATED 
           TO BE AMBASSADOR TO BOSNIA AND HERZEGOVINA

    Ms. Cormack. Mr. Chairman, it is a privilege to appear 
before you today as President Obama's nominee to be the U.S. 
Ambassador to Bosnia and Herzegovina. I am deeply honored by 
the confidence placed in me by the President and Secretary 
Kerry. I would like to thank this committee for giving me the 
opportunity to appear before you today. If confirmed, I will 
seek to merit your trust and avail myself of any opportunities 
to consult with you, as I know many Members of Congress have 
spent a great deal of time over the last two decades working to 
help ensure that Bosnia and Herzegovina moves toward a better 
future.
    Mr. Chairman, my husband, William Cormack, who is also a 
State Department employee, has been my support and partner for 
24 years. He has just transferred to an assignment in Pakistan 
and is very sorry not to be with us today. My oldest daughter 
is launching a new product with her colleagues at a startup in 
your great State of Massachusetts in Cambridge. My son William 
is----
    Senator Markey. A very good excuse. [Laughter.]
    Ms. Cormack. It is a good excuse.
    My son, William, is a freshman out in Colorado, and my 
daughter, Margaret, is on a semester abroad. So they are all 
here in spirit. We are a very Foreign Service family.
    Senator Markey. Thank you all so much for all that you did, 
the family, as you are watching this on a computer someplace. 
Welcome.
    Ms. Cormack. Thank you.
    Senator Markey. Please continue.
    Ms. Cormack. Thank you. I have some wonderful neighbors and 
Department colleagues who are here today and I thank them 
warmly for their support.
    Mr. Chairman, I have on several occasions in my career been 
fortunate to work on Bosnia and Herzegovina and the Balkans. My 
relationship goes back to the mid-1920s, when as European 
personnel officer for the U.S. Information Agency my first 
assignment in 1996 was to assign staff to the public diplomacy 
section of our Embassy in Sarajevo at the conclusion of the 
Dayton Accords. Those I assigned were sent on three-month tours 
to a city riddled with bomb craters.
    While serving at Embassy Paris in 1999, I was on the press 
staff for the Rambouillet Peace Talks, and as director of 
Western European Affairs in 2010 I worked with our European 
partners to ensure their contributions to the still-critical 
stabilization missions in Bosnia and Herzegovina as well as 
Kosovo.
    Thanks in large part to the key role played by the United 
States through the implementation of the Dayton Accords, Bosnia 
and Herzegovina has made strides since those early days. Much 
remains to be done, however, and the risk of backsliding cannot 
be discounted.
    Starting with the Dayton peace process in 1995 that ended 
the horrific war that claimed over 100,000 lives, the United 
States has invested huge amounts of political, human, and 
economic capital to bring peace and stability to Bosnia and 
Herzegovina and build its postwar institutions. We continue 
this work today with efforts to strengthen Bosnia and 
Herzegovina's democracy, foster good governance, increase 
respect for human rights, and promote economic prosperity.
    We have a special bond with the people of Bosnia and 
Herzegovina as a result of our leading role in helping to end 
the war and build the peace, as well as through the thousands 
of Bosnians who immigrated to the United States. My goal, if 
confirmed, will be to work with the people of Bosnia and 
Herzegovina to build a stable, multiethnic, democratic, and 
prosperous country. We support the aspirations of the people of 
Bosnia and Herzegovina, who want to see their country join the 
European Union and NATO so they too can share in the political 
stability and economic opportunities afforded by membership in 
these institutions.
    The United States is concerned, however, by Bosnia and 
Herzegovina's lack of progress on the path to EU and NATO 
membership. Bosnian politicians and government leaders pledged 
their support for advancing the country's Euro-Atlantic 
aspirations, but have failed to take the basic steps required 
to move toward membership in those institutions. Constitutional 
changes are urgently needed to progress towards EU membership 
and make the government more efficient and responsive to 
citizens. Defense reforms for NATO integration and the 
conditions for transition of the Office of the High 
Representative remain unmet.
    As evidenced in the protests throughout the country last 
month, the people of Bosnia and Herzegovina are frustrated with 
their political leadership, who have done little in recent 
years to improve the lives of their citizens and respond to the 
terrible economic situation. Politicians exploit zero-sum 
nationalism at the expense of the country as a whole, which 
prevents compromise on critical reforms.
    Despite these challenges, there are signs of progress and 
opportunities to pursue. Recent demonstrations and the 
formation of citizens forums are a hopeful sign of citizen 
engagement, though it is critical that protests remain 
peaceful.
    Our Embassy has a long history of working with civil 
society. If confirmed, I will build on these efforts to work 
directly with citizens in support of their shared aspirations 
instead of what divides them. The citizens will have the 
opportunity to hold their leaders accountable in general 
elections in October, a message I intend to strongly reinforce 
in public and private if confirmed.
    Croatia's entry into the EU and progress made by Serbia and 
others in the region offers the potential to motivate Bosnia 
and Herzegovina to resolve long-standing obstacles to the 
country's EU integration.
    Bosnia and Herzegovina remains a strong bilateral partner 
to the United States. Their troops recently returned from a 
deployment alongside the Maryland National Guard in Afghanistan 
and the staff of our Embassy in Sarajevo and branch offices in 
Banja Luca and Mostar is exceptionally talented and dedicated 
to our mission.
    If confirmed, I will continue our crucial efforts to 
support the people of Bosnia and Herzegovina and their 
aspirations for a peaceful and prosperous Euro-Atlantic future.
    Mr. Chairman, I am so grateful to appear before this 
committee today and I look forward to answering your questions. 
Thank you.
    [The prepared statement of Ms. Cormack follows:]

                Prepared Statement of Maureen E. Cormack

    Mr. Chairman and members of the committee, it is a privilege to 
appear before you today as President Obama's nominee to be the U.S. 
Ambassador to Bosnia and Herzegovina. I am deeply honored by the 
confidence placed in me by President Obama and Secretary Kerry.
    I would like to thank this committee for giving me the opportunity 
to appear before you today. If confirmed, I will seek to fully merit 
your trust and avail myself of any opportunities to consult with you, 
as I know many Members of Congress have spent a great deal of time over 
the last two decades working to help ensure that Bosnia and Herzegovina 
moves toward a better future.
    Mr. Chairman, my husband, William Cormack, who is also a State 
Department employee, has been my support and partner throughout 24 
years in the Foreign Service. He has just transferred to an assignment 
in Pakistan and is very sorry not to be here today. Our daughter, 
Elizabeth, is launching a new product with her colleagues at a startup 
in Cambridge, MA, today, our son, William, is a freshman in college, 
and our daughter, Margaret, is on a semester abroad, and so they are 
all with me in spirit. Some wonderful neighbors and Department 
colleagues are here and I thank them warmly for their support.
    Mr. Chairman, I have on several occasions in my career been 
fortunate enough to work on Bosnia and Herzegovina and the Balkans. My 
relationship goes back to the mid-1990s, when as the European Personnel 
Officer for the U.S. Information Agency, my first assignment in early 
1996 was to assign staff to the Public Diplomacy section of our Embassy 
in Sarajevo after the conclusion of the Dayton Accords. Those I 
assigned were sent on 3-month tours to a city still riddled with bomb 
craters, whose citizens still lived in great hardship. While serving at 
Embassy Paris in 1999, I was on the press staff for the Rambouillet 
Peace Talks, and as Director of Western European Affairs in 2010, I 
worked with our European partners to ensure their contributions to the 
still critical stabilization missions in Bosnia and Herzegovina as well 
as Kosovo.
    Thanks in large part to the key role played by the United States 
through the implementation of the Dayton Accords, Bosnia and 
Herzegovina has made strides since those early days. Much more remains 
to be done, however, and the risk of backsliding cannot be discounted 
as we look at the situation today.
    Starting with the Dayton peace process in 1995 that ended the 
horrific war that claimed over 100,000 lives, the United States has 
invested huge amounts of political, human, and economic capital to 
bring peace and stability to Bosnia and Herzegovina and build its post-
war institutions. We continue this work today, with efforts to 
strengthen Bosnia and Herzegovina's democracy, foster good governance, 
increase respect for human rights, and promote economic prosperity. We 
have a special bond with the people of Bosnia and Herzegovina as a 
result of our leading role in helping end the war and build the peace, 
as well as through the thousands of Bosnians who immigrated to the 
United States. My goal, if confirmed, will be to work with the people 
of Bosnia and Herzegovina, to build a stable, multiethnic, democratic, 
and prosperous country. We support the aspirations of the people of 
Bosnia and Herzegovina who want to see their country join the European 
Union and NATO, so they too can share in the political stability and 
economic opportunities afforded by membership in these institutions. 
Supporting these aspirations, in close cooperation with our European 
allies, will be one of my top priorities, if confirmed.
    The United States is concerned, however, by Bosnia and 
Herzegovina's lack of progress on the path to EU and NATO membership. 
Bosnian politicians and government leaders pledge their support for 
advancing the country's Euro-Atlantic aspirations, but have failed to 
take the basic steps required to move toward membership in these 
institutions. Constitutional changes are urgently needed to progress 
toward EU membership and make the government more efficient and 
responsive to citizens. Defense reforms required for NATO integration 
and the conditions for transition of the Office of the High 
Representative remain unmet.
    As evidenced in the protests throughout the country last month, the 
people of Bosnia and Herzegovina are frustrated with their political 
leaders, who have done little in recent years to improve the lives of 
their citizens and respond to the terrible economic situation. 
Politicians exploit zero-sum nationalism at the expense of the country 
as a whole, which in turn prevents compromise on critical reforms 
needed to grow the economy, improve governance, and move toward Euro-
Atlantic integration.
    Despite these challenges, there are both signs of progress and 
opportunities to pursue. Recent demonstrations and the formation of 
citizen forums are a hopeful sign of citizen engagement, though it is 
critical that protests remain peaceful. The Embassy has a long history 
of working with civil society in Bosnia and Herzegovina. If confirmed, 
I will build on previous efforts to work directly with citizens in 
support of their focus on shared aspirations instead of what divides 
them. The citizens will have the opportunity to hold their leaders 
accountable in the general elections in October, a message I intend to 
strongly reinforce in public and in private if confirmed. Croatia's 
entry into the EU, and progress made by Serbia and others in the region 
on their EU paths, offer the potential to motivate Bosnia and 
Herzegovina to resolve longstanding obstacles to the country's EU path.
    Bosnia and Herzegovina remains a strong bilateral partner to the 
United States. Bosnian troops recently returned from a deployment 
alongside the Maryland National Guard in Afghanistan, and the country 
remains an ISAF contributor. The staff of our Embassy in Sarajevo and 
branch offices in Banja Luka and Mostar is exceptionally talented and 
deeply dedicated to our mission.
    With the strong support of Congress, U.S. assistance continues to 
support democratic development, good governance, rule of law, economic 
growth, defense reform, and interethnic reconciliation. If confirmed, I 
will continue our crucial efforts to support the people of Bosnia and 
Herzegovina in their aspirations for a peaceful and prosperous Euro-
Atlantic future, and in their efforts to demand greater accountability 
from their leaders.
    Mr. Chairman, I am deeply grateful for the opportunity to appear 
before this committee today. I look forward to answering your 
questions. Thank you.

    Senator Markey. Thank you so much.
    Mr. Selfridge, another rollcall has gone off on the Senate 
floor. So I apologize to you. We are going to take a brief 
recess and then we will return and reconvene the hearing. So 
the chair calls this hearing to a recess and we will return in 
approximately 10 minutes.

[Pause.]

    Senator Barrasso [presiding]. Mr. Selfridge, if I could 
just welcome you on behalf of the other members who are here 
and congratulate each and every one of you. We are lucky to be 
joined by the two Senators from Washington State, who have both 
come to the committee today to first make a statement of 
introduction--and I apologize, due to votes. Senator Murray and 
Senator Cantwell, thank you so much for being here. I know you 
have an important message to bring to the committee as well as 
to the Senate, and whenever you are ready, Senator Murray, I 
turn to you.

                STATEMENT OF HON. PATTY MURRAY, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Murray. Thank you so much, Senator Barrasso, and 
Senator Markey as well, for chairing this hearing today. I 
really appreciate the opportunity to be here today with Senator 
Cantwell to introduce Suzie LeVine from our home State of 
Washington as this committee considers her nomination for 
Ambassador to the Swiss Confederation and the Principality of 
Liechtenstein.
    I know you have a lot of nominations here today, so I just 
wanted to make a few points about Suzie. I first got to know 
her well around 7 years ago and, like most people when they 
first meet her, I was really struck by her energy and her 
passion and her commitment to her community, her country, and 
to making the world a better place. She has deep roots in 
Washington State's technology and business world, was put into 
leadership roles in Microsoft and Expedia. She is an 
experienced and proven manager and has earned deep respect 
throughout the industry for her ability to translate and 
communicate complex tech issues to customers and stakeholders, 
as well as for her understanding of consumer needs and how 
technology and innovation can meet them.
    Throughout her career she has demonstrated a strong ability 
to assess problems, ask smart and insightful questions, find 
solutions, and motivate and inspire her team to act. When she 
sees a problem that needs to be solved, she is focused, 
engaged, and absolutely driven to get results.
    But she combines that drive and energy with a true ability 
to listen to people and build relationships and a deep 
compassion and caring for others. These skills were invaluable 
in the business world and she brought them with her into her 
work in the community as well. She cofounded Kavana, a 
nationally recognized Jewish community organization in Seattle. 
She started and chaired the advisory board for ILABS, the 
University of Washington's Early Learning Research Lab, and 
through her work on education issues at Microsoft brought 
people together and built partnerships to support the thousands 
of students from around the world in the Imagine Cup, the 
company's global student technology competition.
    She is clearly committed to her community and her country 
and it is clear that this patriotic spirit and love for America 
is something she and her husband Eric value deeply and have 
passed along to their children.
    Suzy is all about having a positive impact wherever she is. 
It is clear she wakes up every morning thinking about how she 
can make a difference and then spends the rest of the day going 
out and making that happen. She has done it in the business 
world, she has done that for her community and for the students 
that she has worked with across the globe. She has done it with 
a smile, a positive attitude, a relentless energy, and a true 
spirit of compassion.
    I am very confident that she will represent our country 
well and bring that same energy to her role as Ambassador. With 
all that is going on right now in Europe and across the world, 
we need people representing our country abroad who take these 
challenges seriously, who can bring people together, and who 
will stand up for our interests and represent our values.
    So I am very proud today to introduce her to the committee, 
and I am delighted to be here with my colleague Senator 
Cantwell as well.
    Senator Barrasso. Thank you, Senator Murray.
    Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Chairman Barrasso, and it is a 
pleasure to be here with my colleague Senator Murray and to 
introduce Suzy LeVine from Seattle to the Senate Foreign 
Relations Committee for her consideration for Ambassador to the 
Swiss Confederation and the Principality of Liechtenstein.
    Before I get started, I just want to acknowledge Suzy's 
family who are with her here today: her husband, Eric, and her 
children, Sydney and Talia, who I have gotten to meet before, 
and her mother Phyllis Davidson. I just want to thank them, 
because oftentimes these things are a responsibility that goes 
beyond just the Ambassador role, but the family sacrifices as 
well. So we want to thank them for their sacrifices in this 
effort and the support of Suzy.
    In Seattle, as Senator Murray said, Suzy is well known as a 
savvy business leader and a trusted community advocate. In 
Washington State we are proud of our innovation economy, 
whether that is fuel efficient planes or medical breakthroughs 
or innovation in technology, and I think Suzy LeVine represents 
the best of Washington State. She knows how to build strong 
relationships, management teams with driven results, and 
whether it is working with Fortune 500 companies or major 
research institutions, she has done a lot.
    At Microsoft she helped launch the Windows 95. As vice 
president of sales and marketing at Expedia, she was part of 
the senior management team that took the company public and 
helped it become the number one online travel company. Just 
recently at Microsoft, she was responsible for building a 
strategic partnership for the Imagine Cup, which built 
partnerships with major companies like Coca-Cola and Nokia. 
During that time she highlighted the innovation of students 
from 60 countries around the world.
    So, like the Swiss students who designed a text-to-speech 
app called ``Text For All,'' Suzy knows how important an 
innovation economy is, and I know that that will be very 
important in her role in Switzerland. That is because in 
Switzerland it was ranked the number one innovation economy in 
2013 by the Global Index of Innovation. Switzerland is home to 
the largest physics lab in the world, CERN, and it has been a 
leader in research and innovation.
    So Suzy has the right background from the tech world to hit 
the ground running in Switzerland and their very high tech 
economy. And she is a proven manager and can follow through on 
level policies and operations. She has also led a recognized 
nonprofit in Washington State and understands the important 
role of civil activities.
    The Swiss have a system of a people's referendum. They an 
propose legislation and even reverse legislation approved by 
parliament. Suzy is familiar with the many initiatives we have 
in Washington State, something I know that both the chairman 
and Senator Barrasso know from their home States as well. So 
she understands what community issues are and how they need to 
be heard, and throughout her life she has demonstrated that she 
is a good, proven team-builder.
    So I am happy to be here and I wish her well in this new 
endeavor. I am confident she will do an excellent job 
representing our country in Switzerland and Liechtenstein, and 
I urge the committee to confirm her without delay.
    Senator Barrasso. Thank you, Senator Cantwell. Thank you, 
Senator Murray. I know you have very pressing schedules, but 
thank you so much for taking the time to be with us.
    Senator Murray. Thank you.
    Senator Cantwell. Thank you very much.
    Senator Barrasso. Thank you.
    We are joined also by Senator Cardin. Senator Cardin, thank 
you for joining us. I know you have a statement to introduce 
one of the nominees.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Senator Barrasso, thank you very much. I 
appreciate this courtesy. I first want to offer my 
congratulations and thanks to all the nominees that are at the 
dais and thank them for their service to our country, their 
willingness to continue to serve our country, and we thank your 
families also because we know this is a joint sacrifice.
    Mr. Chairman, I am particularly proud of the Marylander 
that is on this panel, Dr. Deborah L. Birx of Maryland. Dr. 
Birx is a long-time Marylander and a world-renowned global 
health leader and scientist studying HIV/AIDS. Maryland is home 
to the very best medical researchers in the world. So I am 
pleased that President Obama has nominated Baltimore-born Dr. 
Deborah Birx to such an essential post.
    Dr. Birx is a model Marylander. She is a pioneer in HIV/
AIDS research who has dedicated her life's work to public 
service. Dr. Birx moved to Silver Spring, MD, in 1979 to begin 
training at the Walter Reed Army Medical Center, then in D.C.--
it is now in Maryland--and completed a joint fellowship with 
NIH at the National Institute of Allergy and Infectious 
Diseases.
    For nearly 30 years since the beginning of the epidemic, 
Dr. Birx has dedicated her professional career to understanding 
and changing the course of HIV/AIDS both in the United States 
and throughout the world. Dr. Birx has been on the front lines 
of the HIV/AIDS epidemic before even we knew what the disease 
was. While serving at the Walter Reed Army Medical Center, Dr. 
Birx led its work on HIV/AIDS, including HIV vaccine research 
in domestic and global settings. Dr. Birx was part of the cadre 
of researchers that were instrumental in helping us first 
understand the disease.
    Throughout the 1990s and through 2005, she served as the 
Director of the U.S. Military HIV/AIDS Research Program in the 
Department of Defense and received the Legion of Merit Award 
for her innovation, management, and leadership in HIV/AIDS 
research and program implementation. She rose to the rank of 
colonel, bringing together the Army, Navy, and Air Force in a 
new model of cooperation, increasing the efficiency and 
effectiveness of the U.S. military's HIV/AIDS efforts through 
the inter- and intra-agency collaboration.
    While in the Army, Dr. Birx served as Director of the U.S. 
Military HIV/AIDS Research Program and as Director of the 
Division of Retrovirology at Walter Reed Army Institute of 
Research from 1996 to 2005. Having served on Active Duty in the 
U.S. Army for 29 years, Dr. Birx retired in 2008 with the rank 
of colonel. Dr. Birx earned the prestigious U.S. Meritorious 
Service Medal for her leadership in refining, validating, and 
standardizing immunity testing in HIV-infected patients. She 
helped lead one of the most influential HIV vaccine trials in 
history, known as RV-144 or the Thai Trial, which provided the 
first supporting evidence of any vaccine being effective in 
lowering the risk of contracting HIV. She was awarded another 
U.S. Meritorious Service Medal for that effort.
    Since 2005, as the Director of the U.S. Centers for Disease 
Control and Prevention Division of Global HIV/AIDS, she led and 
managed its President's Emergency Plan for AIDS Relief, PEPFAR, 
global effort. She has published over 200 HIV-related 
publications on domestic and global epidemiology, treatment, 
vaccine development, and public health programs, policy 
implementation, and health systems strengthening, in addition 
to serving on over a dozen scientific and advisory boards.
    She received her medical degree from Hershey School of 
Medicine, Pennsylvania State University, trained in internal 
medicine and basic clinical immunology at the Walter Reed Army 
Medical Center and the National Institutes of Health.
    Today we can envision an HIV-free generation within our 
lifetime. Dr. Birx is one of the trailblazers who has dedicated 
her life to making this vision a reality. Her support for 
PEPFAR's investments in programs to prevent mother-to-child 
transmission of HIV has paid great dividends. PEPFAR has 
averted more than one million pediatric HIV infections thanks 
to researchers like Dr. Birx and her colleagues.
    So, Mr. Chairman, before there was PEPFAR and the Global 
Fund Dr. Birx was leading the charge against this disease. I 
can think of no more qualified person to be our Ambassador at 
Large and Coordinator of the United States Government 
Activities to Combat HIV/AIDS Globally than Dr. Deborah Birx.
    Let me just say in concluding remarks, we all get the 
opportunity every once in a while to introduce people from our 
State that have been nominated for a particular post. I do not 
think I have ever introduced a person who is more qualified, 
who has done more in her lifetime, than Dr. Birx. We are very 
proud of her work and I am proud that she has been nominated to 
this important post. [Applause.]
    Senator Barrasso. Well, thank you very much, Senator 
Cardin.
    Senator Cardin. They are all Marylanders behind me.
    Senator Barrasso. I do not blame them.
    Thank you, Senator Cardin. I know you have a busy and 
pressing schedule. So thanks so much for joining us, and you 
are excused if that works for you. Thank you.
    Now back to Mr. Selfridge, who has been nominated to be 
Chief of Protocol. Your flexibility in allowing us to go to 
three other Senators shows that you are already very qualified 
for the position.

STATEMENT OF PETER A. SELFRIDGE, OF MINNESOTA, NOMINATED TO BE 
 CHIEF OF PROTOCOL, AND TO HAVE THE RANK OF AMBASSADOR DURING 
                     HIS TENURE OF SERVICE

    Mr. Selfridge. My resume is not as impressive.
    I am, needless to say, very humbled by the company I share 
on both sides of this table. Ranking Member Barrasso, thank you 
for the opportunity to speak with you today. It is a tremendous 
honor for me to appear before this distinguished body as 
President Obama's nominee for Chief of Protocol of the United 
States. I deeply appreciate the confidence of both President 
Obama and Secretary Kerry in nominating me for this position.
    If you would allow me, I would also like to recognize my 
wonderfully supportive wife, Parita, my cousin, Ami, and my 
long-time high school friends who have joined me here today.
    Senator Barrasso. Could I ask them to please stand and be 
recognized.
    [They stand.] [Applause.]
    Senator Barrasso. Thank you.
    Mr. Selfridge. Thank you, sir.
    My story is not unlike those of many in this room today. I 
am a descendant of immigrants and a proud son of the Midwest. 
My mother hailed from Germany, where she was born and raised in 
the shadow of World War II. My father is a second generation 
Chicagoland native of Scottish and Irish heritage. My wife's 
parents hail from Gujarat, India, and came to America, as did 
my mother and grandparents decades prior, in search of a dream 
that they will gratefully tell you has been fulfilled many 
times over, thanks to the opportunities afforded to them by 
this great country.
    My father taught me at an early age that good etiquette and 
decorum are not only useful tools for navigating society, but a 
reflection of the person wielding them. Treating others as you 
would be treated is a virtue for everyday life and is one of 
the guiding principles of protocol.
    I have had the honor of serving as the White House's lead 
logistical representative on official travel overseas and have 
had the privilege of working with some of the best and 
brightest American ambassadors and diplomats at our missions 
and consulates abroad. I have interacted with many of the very 
same protocol officers and foreign government officials who, if 
confirmed, I would hope to work closely with as Chief of 
Protocol.
    Ranking Member Barrasso, as you and the members of this 
esteemed committee know well, the office of the Chief of 
Protocol plans an important role in advancing the foreign 
policy goals of the United States. The person selected for this 
post serves as the President's representative to visiting 
foreign leaders and their delegations, as well as the members 
of the diplomatic corps based in the United States. Not only is 
this a great honor, it also provides remarkable opportunities 
to create an environment for successful diplomacy, to promote 
cross-cultural exchanges, and to build new bridges of 
understanding.
    I believe that we are obliged to use every diplomatic tool 
at our disposal to broaden our bilateral relationships as well 
as to set the stage where diplomacy can be made to work. The 
Office of Protocol provides many such tools to our government 
and its representatives. The team at Blair House works 
tirelessly to ensure that foreign dignitaries are properly 
accommodated as well as provided for and protected during their 
stays. The Ceremonials Division plans and executes official 
events hosted by the Secretary of State. This dedicated staff, 
who I have had the privilege to meet, meticulously provides for 
the participation of the diplomatic corps in special events and 
public events, including joint sessions of Congress, 
inaugurations, funerals, and other ceremonies.
    The Diplomatic Affairs Division diligently oversees the 
accreditation of foreign ambassadors, diplomatic agents, and 
consular officials, thousands of individuals posted throughout 
the United States. The Diplomatic Partnership Division works to 
strengthen and deepen our government and our Nation's 
relationships with the diplomatic corps through programming 
designed to promote new partnerships, enhance mutual 
understanding between our countries and their own.
    Protocol's Visits Division manages the logistical planning 
behind hundreds of visits of foreign dignitaries to the United 
States, as well as all official engagements by President Obama, 
Vice President Biden, Secretary Kerry, and other officials 
overseas. This team also helps to plan and execute U.S.-hosted 
summits and other multilateral events.
    Protocol also assists with the selection of gifts given by 
the President, the Vice President, First Lady, Secretary of 
State in their engagements with foreign leaders.
    The work of the Office of Protocol provides a unique 
opportunity to showcase the very best America has to offer, not 
only as hosts, but as true partners in diplomacy.
    Mr. Chairman, Mr. Ranking Member, thank you very much for 
the opportunity to appear before you today and for your 
consideration of my nomination. I look forward to your 
questions.
    [The prepared statement of Mr. Selfridge follows:]

                Prepared Statement of Peter A. Selfridge

    Mr. Chairman, members of the committee, thank you for the 
opportunity to speak with you today. It is a tremendous honor for me to 
appear before this distinguished body as President Obama's nominee for 
Chief of Protocol of the United States. I deeply appreciate the 
confidences of the President and Secretary Kerry in nominating me for 
this position.
    My story is not unlike those of many in this room today. I am a 
descendant of immigrants and a proud son of the Midwest. I was born in 
Illinois, raised in Minnesota, and educated in Iowa. My mother hailed 
from Germany where she was born and raised in the shadow of World War 
II; my father is a second generation Chicagoland native of Scottish and 
Irish heritage. My wife's parents hail from Gujrat, India, and came to 
America, as did my mother and grandparents decades prior, in search of 
a dream that they will gratefully tell you has been fulfilled many 
times over thanks to opportunities offered by this great country.
    My father taught me at an early age that good etiquette and decorum 
are not only useful tools for navigating society, but a reflection of 
the person wielding them. Treating others as you would be treated is a 
virtue for everyday life, and it is one of the guiding principles of 
Protocol.
    As Director of Advance and Operations for the President and in a 
similar role for the Vice President before that, I have had the honor 
of serving as the White House's lead logistical representative on 
official travel overseas. I have had the privilege of working with some 
of the best and brightest American ambassadors and diplomats at our 
missions and consulates abroad and interacted with many of the very 
same protocol officers and foreign government officials who, if 
confirmed, I hope to work closely with as Chief of Protocol.
    Mr. Chairman, as you and the members of this esteemed committee 
know well, the Office of the Chief of Protocol plays an important role 
in advancing the foreign policy goals of the United States. The person 
selected for this post serves as the President's representative to 
visiting foreign leaders and their delegations, as well as the members 
of the foreign Diplomatic Corps and consular communities based in the 
United States. Not only is this a great honor, it also provides 
remarkable opportunities to create an environment for successful 
diplomacy, to promote cross-cultural exchanges, and to build new 
bridges of understanding with leaders, governments, and citizens 
throughout the world.
    I believe that we are obligated to use every diplomatic tool at our 
disposal to broaden our bilateral relationships, as well as to set the 
stage where diplomacy can be made to work. The Office of Protocol 
provides many such tools to our government and its representatives. The 
talented people who work in Protocol serve on the front lines of 
diplomatic engagement, and, if confirmed, it would be a great privilege 
to join them in carrying out this critical mission.
    The team at Blair House--the President's Guest House--works 
tirelessly to ensure that foreign dignitaries are properly 
accommodated, as well as provided for and protected during their stay. 
What's more, it's a living museum that houses a considerable collection 
of treasured art and artifacts--many of which bear witness to pivotal 
moments in our Nation's history.
    The Ceremonials division plans and executes official events hosted 
by the Secretary of State. This dedicated staff meticulously provides 
for the participation of the Diplomatic Corps in special events and 
official public functions including Joint Sessions of Congress, 
inaugurations, funerals, and other ceremonies, large and small.
    The Diplomatic Affairs division diligently oversees the 
accreditation of foreign ambassadors, diplomatic agents, and consular 
officers--thousands of individuals posted throughout the United States.
    And the Diplomatic Partnerships Division works to strengthen and 
deepen our government's--our Nation's--relationships with the 
Diplomatic Corps. As you know, there are more than 180 foreign 
ambassadors sent to the United States to represent their country's 
interests. This expert team engages those diplomats through a wide 
array of programming designed to foster good will, promote new 
partnerships, and enhance mutual understanding between their countries 
and our own.
    Protocol's Visits division manages the logistical planning behind 
hundreds of visits by foreign dignitaries to the United States, as well 
as all official engagements with President Obama, Vice President Biden, 
Secretary Kerry, and other officials. Through their important work, the 
Chief of Protocol extends the first hand that welcomes these chiefs of 
state and heads of government to our country. This team also helps to 
plan and execute U.S.-hosted summits and other multilateral events, as 
well as supports Presidential delegations in their travel abroad.
    Protocol also assists with the selection of gifts given by the 
President, Vice President, First Lady, and Secretary of State in their 
engagements with foreign leaders.
    The work of the Office of Protocol provides a unique opportunity to 
showcase the very best America has to offer, not only as hosts, but as 
true partners in diplomacy.
    Mr. Chairman and members of the committee, thank you very much for 
the opportunity to appear before you today, and for your consideration 
of my nomination. I look forward to your questions.

    Senator Markey [presiding]. Thank you, Mr. Selfridge, very 
much. We thank the other Senators who have come to introduce 
our witnesses.
    The chair will recognize himself and Iam going to begin 
with you, Dr. Birx. Recent antihomosexuality laws enacted in 
Uganda and Nigeria compromise the ability of PEPFAR programs to 
effectively reach the LGBT population with public health 
services and possibly put health workers at risk of retribution 
or imprisonment. For example, the new law in Uganda calls on 
individuals to report acts of homosexuality, but it is not 
clear what that provision means for doctor-patient 
confidentiality.
    What strategies do you think that we should put in place to 
maintain and sustain effective HIV programming in these 
difficult and challenging environments as they unfold?
    Dr. Birx. Thank you, Senator Markey, for that question 
because, as with everyone in this room, we are deeply 
disheartened by the changes in both Uganda and Nigeria. It 
represents an entire step backward to a place where many of us 
were 35 years ago when this disease was first discovered. To 
move backward at a time when we should be moving forward and 
controlling the epidemic is concerning to all of us, and I 
think you have seen the wonderful statements made by President 
Obama, Secretary Kerry, and a series of Senators and House 
members who have spoken out against this specific legislation.
    We are very concerned about the public health impact of 
such of these bills because having it has an impact on services 
that people can no longer access because of their fear of 
retribution will be a huge step back for all of this epidemic 
control. It is particularly concerning to me for Uganda because 
Uganda was one of the few countries that had early control of 
its epidemic and then had over the last few years a real 
reversion and an increase in their incidence. At a time when 
they need to really concentrate every effort on controlling 
this epidemic, to pass this kind of legislation that will again 
cause the epidemic to expand and have people not access 
services is extraordinarily concerning to all of us in the 
field.
    Senator Markey. Let me follow up by asking you: In your 
testimony you covered the unprecedented results that PEPFAR has 
achieved so far. They bear repeating. PEPFAR has supported 
antiretroviral treatment for more than 6.7 million people, 
cared for 17 million, including 5 million orphans and 
vulnerable children, and last year announced 1 million babies 
have been born HIV-free, 1 million babies born HIV-free.
    Beyond the measured results, PEPFAR transformed the 
thinking of what is possible for nations from AIDS futility to 
an AIDS-free future through leadership, science, and sound 
investments.
    Your testimony has highlighted your strategic goals and 
priorities for PEPFAR. What priority results should this 
committee hold you responsible for, this administration 
responsible for, and on what time line? What are your goals?
    Dr. Birx. Thank you, Senator. Reading through the 
legislation and the reauthorizations from this committee really 
shows the knowledge that the committee has about this disease. 
The reporting requirements have evolved with the epidemic. The 
last act had very precise reporting requirements, but 
importantly also asked the office to look very carefully at 
prevalence and incidence in each of these countries and to 
measure clear impact.
    We are working very hard to measure clear impact and that 
should be a goal that the committee should hold the office, the 
coordinator's office, responsible for, to really show country-
by-country impact on this epidemic. Working backward from that, 
you absolutely have to have the treatment, the male 
circumcision, the counseling and testing, and the prevention of 
mother-to-child transmission, which are all covered in the 
reporting requirements to this committee.
    So you ought to hold me responsible to the roadmap that was 
laid out well a year and a half ago and to all of the elements 
that we know are responsible and the tools that we need to 
control this epidemic.
    Senator Markey. So how will you use science and evaluation 
with regard to costs and efficiency to drive these targets and 
results?
    Dr. Birx. Over the last couple of years at CDC, we have 
integrated the costing analyses with site-level monitoring, so 
that we can actually analyze each site for its performance, how 
much it costs to achieve that performance, the actual quality 
of the services delivered, and also measuring the impact on the 
community as far as controlling the HIV epidemic. This has been 
really important, to have that level of detail, and that is the 
level of detail we will need to bring to the office in order to 
ensure that we are having the impact that we are investing in.
    Senator Markey. What is the role of prevention, 
specifically combination HIV prevention that brings together 
structural, behavioral, and biomedical interventions in 
achieving those results?
    Dr. Birx. Thank you for that question. That has been an 
important component of the office for the last 3 years. 
Ambassador Goosby, recognizing the importance of this 
particular approach, has launched two large combination 
prevention intervention trials that will actually look at this 
question in a very rigorous scientific methodology to ensure 
that we can answer the very question that you just asked.
    These questions have been answered in very double-blinded, 
controlled trials, but when you take that to actual community 
implementation there is always the question, does it work as 
well? So these particular trials are actually launching 
services at the community level and then looking at their 
impact, and we will be able to tell you the components that 
have the largest impact on decreasing incidence.
    Senator Markey. Great. Thank you so much for that great 
answer.
    Let me ask you, Ms. Cormack, if you could just briefly 
summarize how optimistic you are about making progress in 
Bosnia and Herzegovina? Do you have some sense that progress 
can be made?
    Ms. Cormack. Mr. Chairman, thank you for that question. I 
think that optimism is an integral component of diplomacy. So 
yes, I always go out with an optimistic approach, but also a 
realistic approach. The United States, as I noted in my 
testimony, has invested significant time and effort in helping 
Bosnia and Herzegovina emerge from a very difficult war and 
rebuild the country, rebuild the institutions of governance, 
and start to build the civil society.
    It is a period in time when we see citizens there starting 
to stand up and hold their leaders accountable, to take into 
their own hands some of the processes of democracy. I hope as I 
go out--I am a public diplomacy officer by training--to work 
directly with the people and really try to understand their 
concerns and see how we support them going forward into what we 
hope will be a Euro-Atlantic future.
    Senator Markey. Thank you so much.
    Ms. Cormack. Thank you.
    Senator Markey. Let me turn now and recognize the gentleman 
from Virginia, Mr. Kaine--oh, I am sorry. Senator Barrasso.
    Senator Kaine. I defer to my colleague.
    Senator Markey. Let me turn and recognize the ranking 
member of the full committee, Senator Corker.
    Senator Corker. Well, thank you. I enjoyed our conversation 
on the earlier panel today.
    Senator Markey. Senator Kaine and I are now in 8-minute 
seats up here.
    Senator Corker. Very good.
    Senator Markey. It is a carryover joke from the earlier 
period.
    Senator Corker. I am going to have mine for about a minute 
and a half. So I thank you for this.
    I thank all of you for what you are doing and getting ready 
to do. I just want to ask one question to Dr. Birx if I could. 
I am going to give a little preface for it. She is probably 
expecting this question. I want to thank you for being here 
today and I appreciated the meeting and discussion that we had 
regarding the PEPFAR program in my office.
    One of the many laudable achievements accomplished by the 
PEPFAR program is the fact that 6.7 million people have been 
put on treatment by the end of the year 2013. The 
prioritization of treatment and care has been a hallmark of the 
PEPFAR program, as you know well. Focusing on the goals of both 
the implementing partners and U.S.-funded initiatives, in the 
PEPFAR Stewardship and Oversight Act we included a provision 
that has been part of the program since the beginning, the 
requirement that at least 50 percent of PEPFAR dollars must be 
spent on treatment and care programs. However, because the GAO 
report pointed out in a report in March 2013 that the 
administration has been excluding a significant portion of the 
PEPFAR funding from this 50-percent calculation, we clarified 
the language, and I know you and I talked about that. The 
language now states that the calculation must be made from all 
amounts appropriated or otherwise made available to carry out 
the provisions of Section 104[a] of the Foreign Assistance Act 
of 1961.
    So the question, after that preface. Senator Coburn and I 
wrote a letter to the administration asking a number of 
questions about the history of the treatment and care provision 
and we received their response shortly after our meeting. Today 
I would like to ask you about one of the specific answers we 
received in that response.
    We asked the administration if they are planning to modify 
current policies in order to comply with the new language in 
the Stewardship Act, and they responded that they will consider 
it. My question to you, Dr. Birx: If confirmed, will you ensure 
that the agency conforms to this clarification in law regarding 
the treatment and care calculation? Will you work in your new 
position to change any necessary policies or guidance to make 
sure it is implemented in compliance with the law?
    Dr. Birx. Yes, sir, we will be compliant with the as-
written in the legislation.
    Senator Corker. Thank you so much. I look forward to your 
confirmation.
    Thank you for letting me do that on the record. If you want 
to talk about energy policy or anything else----
    [Laughter.]
    Senator Markey. I thank the ranking member for coming. 
Thank you, sir.
    The gentleman from--the Senator from Virginia, Senator 
Kaine.
    Senator Kaine. He called me ``gentleman,'' but then he 
corrected it to ``Senator.''
    Senator Markey. As a Congressman you are called 
``gentleman'' and I was in the House for 37 years, calling 
people the ``gentleman.'' But in the Senate you just call 
people ``Senator.'' They are never ``gentleman'' over here in 
the Senate.
    Senator Kaine. Very true.
    Senator Markey. The Senator from Virginia.
    Senator Kaine. Dr. Birx, I think I walked in as you were 
answering a question that the chair posed to you. But I think I 
want to come back to it. The legislative activity in Uganda is 
very, very troubling. I use that as an example for the 
possibility of other such action anywhere in the world that 
would stereotype or stigmatize folks because of their sexual 
orientation. Very possible that such legislation is something 
that we could--we will see, continue to see, in other parts of 
the world. That kind of legislation can promote an attitude, 
frankly, that will be counter to your mission of trying to 
educate, inform, eradicate and treat HIV/AIDS.
    I imagine there are other parts of the U.S. Government, 
human rights offices and things, that are charged with dealing 
with those challenges when they come up. But I would also think 
part of your portfolio could be education and using the tools 
at your disposal to try to give people, give policymakers, the 
information they need so that they do not go down the path of 
discriminatory legislation. If you could talk just a little bit 
about what you see your role as in that important educational 
effort, I would appreciate it.
    Dr. Birx. Thank you, Senator. There are many gentlemen in 
the South, including from Virginia. So thank you.
    This is an extraordinary time where we are making 
incredible progress. So to have this as a clear setback, and I 
think we all hear and share that this is an incredible setback 
to the people to be able to access services. If people cannot 
come forward for services, they cannot be tested. They will not 
know their status. They cannot receive lifesaving treatment 
and, more importantly, they cannot lower their viral load to a 
nontransmittable state.
    So it is in all countries' interest to do all of their 
program, policies, and legal framework to encourage access to 
all public health services. I share your concern. I know the 
President shares your concern. Many Senators share your concern 
and have been very outspoken on this issue, as well as 
Secretary Kerry. I know that Secretary Kerry and the White 
House are working on this right now, and the Ambassador from 
Uganda is coming to Washington for this specific discussion 
during a chief of missions meeting, and we are working--I hope 
to work very closely.
    But you are right, it is not just Uganda and Nigeria. There 
are similar laws on the books, not quite as restrictive and not 
quite as violent as Uganda's, in many of our countries in sub-
Saharan Africa, and this legal framework has to be addressed in 
the future to have full successful control of the epidemic.
    Senator Kaine. Thank you, Dr. Birx.
    Ms. LeVine, congratulations on your nomination. You will 
succeed, I am confident, a dear friend of mine, Ambassador Don 
Beyer, who did a wonderful job.
    Senator Markey and I are strong supporters of immigration 
reform. The question I wanted to ask you is about immigration, 
particularly your kind of interpretation--explain to us what 
you can about the Swiss vote on February 9, that was a narrow 
backing of a referendum to put immigration caps on immigration 
from EU countries. Why did the Swiss populace back that? What 
can we learn from it?
    Ms. LeVine. Thank you very much for that question, Senator 
Kaine. I know that this is near and dear to your heart, also 
from your background in spending time in other parts of the 
world. The referendum itself is an internal Swiss matter and in 
terms of the implications to the United States or other parts 
of the world we do not yet know what those implications are and 
the ramifications of that referendum.
    But I think that what we can take away from it is it is 
sort of a fascinating demonstration of Swiss direct democracy. 
They have an interplay of direct and representative democracy 
with which Western States, like Washingtonians and 
Massachusetts, have this interplay between having initiatives 
and representative democracy. I think what we take away from 
that is an opportunity to work more with the Swiss people.
    I am moved by Peter's testimony earlier with regards to his 
being an immigrant and coming from an immigrant background. I 
think the American story about immigration is an incredible 
one. I would suspect that 95 percent of the people in this room 
have come here some time within the past four generations. When 
I look at people like a gentleman named Hadi Partovi, who 
worked at Microsoft for a very long time, came to the United 
States as a young man, as a young boy in fact, from Iran. He 
succeeded wildly in technology and now he has created a 
nonprofit called Code.org to help people become ready for the 
22nd century, never mind the 21st century.
    We have an extraordinary story to tell, and if confirmed I 
would love the opportunity to tell that story. I think that 
that is what we as Americans can do in articulating and in 
reaching out. I also think that, if confirmed, I would love the 
opportunity to work with organizations that bridge the gap 
between different communities and continue some of the 
fantastic work that Ambassador Beyer had done, especially 
around gender equality and reaching out to women and 
technology, and to get more women into technology, of which I 
am one.
    Senator Kaine. Thank you, Ms. LeVine. Wonderful answer.
    Ms. Cormack, talk a little bit about the dynamics about the 
possible joining of NATO by Bosnia?
    Ms. Cormack. Thank you very much, Senator Kaine. Bosnia has 
pursued the track of joining NATO. It is, along with their 
accession to the European Union, something that polls show the 
majority of the population supports. As so much at the moment 
in Bosnia and Herzegovina, they have not been able to take the 
specific steps needed to move firmly onto the track of a map, 
the process for NATO.
    In the case of NATO, that is simply registering defense 
properties that have been identified by the ministry of defense 
as essential. These are unmovable defense properties that the 
ministry believes that they need for their functions. It is we 
consider a step that is fairly basic, and if confirmed I look 
forward to working with the Bosnians to try to help them move 
in that direction.
    Senator Kaine. You do not read the failure of the Bosnians 
to take those steps yet as any equivocation about wanting to 
pursue NATO? You think this is a kind of a practical matter 
that we should be able to address productively?
    Ms. Cormack. I think there are different perspectives among 
the population. Some people are probably less enthusiastic. 
Others are more so. But I do believe that, together with our 
NATO partners, we can try to move in this direction.
    Senator Kaine. Thank you.
    Mr. Chair, with your permission--I am right at the end--
could I ask Mr. Selfridge a question?
    Senator Markey. Yes.
    Senator Kaine. Mr. Selfridge, your experience in directing 
advance and operations at the White House to me seems like the 
perfect background for this protocol job, because I understand 
a little bit about that position and I think it is pretty much 
the job description for protocol officer almost. But then there 
is the issue of challenging international sort of diplomatic 
perspectives and the fact that we sometimes see things 
differently than even our friends.
    I just was curious about this. There have been some recent 
controversies relating to criminal charges against foreign 
diplomats in the United States and they have made headlines. 
These are things you hope do not happen, but they happen--
episodes related to Medicaid fraud, 49 New York-based Russian 
diplomats and spouses allegedly obtaining Medicaid benefits; 
and then the very controversial and widely publicized incident 
in December of 2013 about the arrest of an Indian deputy consul 
general in New York City on charges related to household 
employment.
    To your knowledge, to what extent in your position, Chief 
of Protocol, are you engaged in addressing or helping other 
officials within the U.S. Government figure out a way to 
address problems like that in a sensitive way?
    Mr. Selfridge. Thank you, Senator, for that question. This 
is an issue of great importance to the Department, as you know, 
and to Secretary Kerry. I think protocol's best weapon in these 
circumstances is communication. While we do not directly cover 
the visa process, we nonetheless can inject ourselves into that 
process by educating the workers themselves and the missions, 
foreign governments and their missions here in the United 
States.
    I think that is the most important step. We believe, the 
Department believes, that it has been very effective as far as 
getting information that was not previously available to these 
workers out, including hot lines, other actionable items that 
these workers can take.
    I think, as far as I guess post-infraction, the Office of 
Protocol acts as a coordinator, so to speak. They make sure the 
mission is aware of the infraction and encourage investigations 
of their own to correct them, and they can make recommendations 
in that regard. They also cooperate very closely with law 
enforcement to make sure that the missions and their diplomats 
and staff follow the law. Regardless of immunity, we expect all 
diplomats serving here to abide by U.S. law.
    So in the case of Dr. Khobragade, we believe that the 
system functioned as it should. It is unfortunate that it had 
to get to the point that it did. But the case is still pending. 
Should she return to the United States, she would face charges. 
So again, this is something, if confirmed, that I would have a 
great staff working on these issues and I would intend to make 
that a top priority.
    Senator Kaine. Thank you to each of you, and thank you, Mr. 
Chair.
    Senator Markey. Thank you, gentlemen. I thank the Senator.
    The chair recognizes the Senator from Connecticut, Mr. 
Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Welcome to all of you. I think some of the ground that I 
wanted to cover has already been covered you my colleagues. Ms. 
Cormack, great to see you here. I enjoyed our time together.
    Ms. Cormack. Thank you.
    Senator Murphy. I wish you well in your new endeavor. I 
wanted to maybe ask you a broader issue about the challenges 
that confront the Balkans today and how the division of labor 
should be allocated between a historic United States leadership 
role in the Balkans and an emerging role for the EU in trying 
to moderate some of these disputes. There is all sorts of 
issues, but the three that sort of emerge at the top of the 
list over and over again are the question you will be 
confronted regarding Bosnian governance, the issue over the 
Macedonian name dispute with Greece, and then the conflict 
between Serbia and Kosovo, which is obviously getting better 
with the new agreement, but still has lingering issues.
    So when I talk to friends in the Balkans they are welcoming 
of Lady Ashton's vigor on many of these issues, but are looking 
for a return to U.S. leadership on these questions. What do you 
see as the future of the European Union's ability to moderate 
some of these disputes and how does that dovetail with what I 
hope is a renaissance of American interest in the region in the 
coming years?
    Ms. Cormack. Thank you very much, Senator Murphy. I also 
enjoyed our conversation, so thank you.
    The United States commitment to Bosnia and Herzegovina 
remains strong. We also strongly support Bosnia's accession 
process to the European Union and NATO. We partner very closely 
with our European allies on the ground. There is an excellent 
European Union senior representative in Sarajevo. We work very 
closely with their Enlargement Commissioner. We really feel 
that we both play an important role. As you note, the United 
States has a very historic role in Bosnia and Herzegovina. Our 
commitment is something that I certainly, if confirmed, intend 
to fully maintain. I look forward to working closely with the 
people of the country and really finding out how we can work 
together to help them move to a Euro-Atlantic future.
    As we see countries like Croatia join the European Union, 
as Serbia and other countries move in that direction, Bosnia is 
in a region where they risk being isolated if they do not also 
follow that path. So it is the European Union that needs to 
have the lead in ensuring that Bosnia moves in the 
institutional sense in the direction that they need to if they 
are going to join Europe. But the United States certainly 
intends to be a key partner in that process.
    Senator Murphy. It certainly appears that the carrots that 
Europe has offered so far has not been sufficient to change the 
political dynamics on the ground in Bosnia. So I wonder whether 
there is a different set of incentives or a renewed road map 
that may be necessary in order to stimulate the domestic 
reforms necessary. I do not expect you to have a fulsome 
critique of what that road map should be, but it appears to me 
that we should know by now that whatever we have used is maybe 
insufficient and it is going to take a new set of criteria, 
both sticks and carrots I guess, to get them to change their 
calculus.
    Ms. Cormack. Thank you, Senator. If confirmed I certainly 
would look forward to working with our European partners to 
have that conversation, because you are right, we are very 
disappointed, honestly, that Bosnia and Herzegovina has not 
been able to take the first basic steps to move toward the EU 
and NATO.
    I do think that the demonstrations that we have seen in 
Bosnia and Herzegovina in recent weeks show an increasing 
frustration from the population with their leaders. These were 
economic demonstrations, people wanting jobs, wanting proper 
salaries, pensions, things that are very basic and that would 
certainly accrue to them if they start making the changes 
necessary to move down the European path.
    So figuring out what that is, what would put the political 
will in place to get that process going, is something that I 
would look forward to working on.
    Senator Murphy. Great. Well, I think you are going to be a 
fantastic ambassador. I really appreciate your service.
    Ms. LeVine, we had a chance to talk as well and I am glad 
that Senator Kaine covered with you the topic that we spent 
some time discussing, which is the rather disturbing anti-
immigration trends, not just in Switzerland but throughout the 
continent. As we sort of think about the future path for 
Ukraine, we of course envision them joining the EU. But that 
prospect is dimmed in some respect by the fact that there is 
going to be an EU that may be even more Euro-skeptic than 
before and countries like Switzerland, which are having a 
little bit harder time rapping their hands around the concept 
of free flow of peoples. So I am glad to hear your commitment 
to work on that issue.
    I wanted to just ask you about the pending free trade 
agreement with the European Union and just talk to you about 
the role that the Swiss will play and the role which your 
Embassy will play in trying to talk about ultimately the 
benefits that flow to all of Europe if we are able to ink a 
free trade agreement with the continent.
    Ms. LeVine. Well, to be clear--thank you very much for that 
question, Senator Murphy. I also enjoyed our time yesterday, 
albeit brief. I look forward to more time to discuss some of 
these matters if confirmed.
    With respect to TTIP, Switzerland is not in the EU. They 
are in the European Free Trade Area. So while they are not part 
of the negotiations themselves, I think that the role that the 
embassy plays in the State Department plays is to continue to 
keep them updated on the progress of those conversations and 
identify those areas that would impact trade with Switzerland 
because of both the role that Switzerland plays in trade with 
Europe and of course as a top 20 export market for the United 
States and as a generator of over 400,000 American jobs, Swiss 
companies care deeply about the impact of TTIP.
    So I think it is incumbent upon the State Department and 
the embassy team, and if confirmed myself as Ambassador I will 
make it a priority to continue to keep the Swiss Government 
updated and to facilitate in whatever way is necessary the USTR 
as they continue to negotiate this so that they keep the Swiss 
informed and involved.
    Senator Murphy. I appreciate that. There are all sorts of 
non-EU countries who have partnerships in various ways, shapes, 
and forms with the EU that are going to benefit from this free 
trade agreement. Switzerland will benefit from this agreement. 
Other countries on the edges of the EU will no doubt benefit. 
And we want to the extent possible to have them partners with 
us in trying to sell this, both internally and globally, as we 
move forward. So I appreciate your focus on this.
    Mr. Chairman, thank you for allowing me to ask some 
questions.
    Senator Markey. If the Senator has any other questions----
    Senator Murphy. I am good.
    Senator Markey. Beautiful.
    Let me just ask you, Ms. LeVine, one quick question. 
Switzerland is shutting down its five nuclear power plants. It 
is going to decommission them and they are moving more toward a 
renewable energy future. Do you as a businesswoman see any 
opportunities for the United States in partnership with 
Switzerland to be engaging in business transactions that can 
help both Switzerland and the United States in that area?
    Ms. LeVine. Senator Markey, I especially appreciate that 
question given your history with the environment and being an 
incredible steward for renewable energy development in the 
United States and jobs related to renewable energy. So thank 
you very much for that question.
    The short answer is yes. In addition to that, I think that 
there are a few areas related to this. Now, the Swiss have been 
leaders in clean tech funding and in fact clean tech from my 
understanding comprises about--clean tech jobs comprise about 5 
percent of the jobs in Switzerland. There are over 160,000 
people who are employed in that area. They are incredible 
funders, including sustainable asset management, green tech. 
There are emerald technology ventures.
    If confirmed, Senator, I look forward to applying my skills 
in building partnerships and in understanding and reaching out 
to entities--previously Senator Cantwell talked about work that 
I did when I was at Microsoft engaging Coca-Cola, engaging 
Nokia, to work with our students, or when I was at Expedia I 
worked with tourism boards to engage them with travel agencies, 
to increase travel. I would apply those same skills and the 
success that I have had in that domain to understand the 
respective interests and opportunities from among the clean 
tech funders in Switzerland and then, similarly, reach out to 
innovators, entrepreneurs, and thought leaders in the United 
States to gauge what are their needs, and to try to do that 
matchmaking, and with that to make sure that it is sustainable 
and mutually beneficial.
    Senator Markey. I think you are the perfect person, 
honestly, to capture that----
    Ms. LeVine. Thank you.
    Senator Markey [continuing]. Economic opportunity for both 
countries. It is going to happen. This revolution is occurring. 
Switzerland believes that the planet is warming, that there are 
no emergency rooms for planets, and that we have to engage in 
preventative care, and Switzerland is a country that accepts 
that. They have the Alps. They can see what is happening. So we 
thank you for that.
    What I am going to do here is to ask each of you, in 
reverse order, to give us the 1-minute, tell us the 1-minute 
thing you would want us to remember about what it is that you 
hope to achieve for our country in the positions that you have 
been nominated to fill. Give us your vision of what it is that 
you hope to provide for our country in this incredible 
opportunity that you are each being given. We will go in 
reverse order from the opening statements, so we will begin 
with you, Mr. Selfridge.
    Mr. Selfridge. Thank you, Mr. Chairman. That is a great 
question. I am thinking out loud right now because----
    Senator Markey. And you would like to go last. [Laughter.]
    Mr. Selfridge. I am used to that order, yes, sir.
    I am going to be thinking out loud a little bit here 
because I think the first thought that popped into my head is 
the Chief of Protocol, while somewhat--while very visible, I 
guess, when it comes to foreign diplomacy, is nonetheless 
supposed to I guess be seen and not heard. So I would like to 
be remembered as an excellent steward of the office.
    That being said, I think there is always room, to borrow 
Secretary Kerry's line, for modernization and innovation, and I 
hope to look for those opportunities in the office, to perhaps 
be the Chief of Protocol, if confirmed, that invigorates the 
office in that respect. I also want to be known as a steward of 
the taxpayer dollars. I think this is one office that does 
quite a bit with very little.
    I see my time is up. I will leave it at that and thank you 
again, Senator.
    Senator Markey. Thank you, sir.
    Ms. Cormack.
    Ms. Cormack. Thank you very much, Mr. Chairman. As I go 
out, if confirmed, to Bosnia and Herzegovina, I have three 
overarching goals. I have heard from everyone in the U.S. 
interagency that I have one of the best missions they have 
worked with, and I look forward to taking the leadership role 
of a wonderful group of people and really hoping to inspire and 
empower them to do wonderful work.
    Secondly, I hope to use my public diplomacy skills and 
reach out far more extensively to the people of Bosnia and 
Herzegovina in order to, first of all, listen and really 
understand their concerns, and then find out how the United 
States can support their aspirations.
    Finally, really support the people of Bosnia and 
Herzegovina as they move toward a Euro-Atlantic future. I do 
believe that their future, multi-ethnic, democratic, and 
prosperous, should be rooted in Euro-Atlantic institutions.
    So thank you so much.
    Senator Markey. Thank you so much.
    Ms. LeVine.
    Ms. LeVine. Chairman Markey, if confirmed I look forward to 
applying my skills, my experience, and my passion to increasing 
our economic ties, especially as measured by foreign direct 
investment and exports. I look forward to expanding our 
collaborations, existing and new, whether it is through the 
OSCE, whether it is through the Global Counterterrorism Forum, 
or whether it is creating new ones, public-private partnerships 
like ones recently announced between the Gates Foundation and 
the Swiss Government.
    I also look forward to increasing awareness and 
appreciation, especially given what we discussed before in 
terms of direct democracy and outreach to the Swiss and 
Liechtenstein people, especially the youth and the students, 
and especially in the technology community.
    Senator, I hope that I have been able to demonstrate today 
and through my submissions that, while nonlinear, my wide array 
of experiences, from working at Microsoft, Expedia, even at 
NASA, to volunteering and starting up nonprofits, and also to 
being a mom, equip me to serve our country proudly, humbly, and 
well.
    Senator Markey. Thank you, Ms. Levine.
    Ms. Birx.
    Dr. Birx. Those were all wonderful answers. I think I feel 
a lot of pressure to continue the amazing work that has been 
done in the field, and building on that coalition of activists 
and their insights, civil society and their insights, and 
linking that with the scientific innovations that we have found 
to be most helpful, and continue to take them to scale.
    In addition, making it clear that the interagency process 
is the reason why PEPFAR has been successful. It was a 
brilliant idea to harness the whole of government. It made it 
clear that no one agency could do it alone. It has been 
amazingly successful in that we have learned from each other, 
yet still built on our individual agency strengths. The control 
of the epidemic that we have today is due to that.
    Then finally, be able to demonstrate that we can 
definitively control the epidemic, and finding that country or 
those countries that we can do that in will be the absolute 
goal of the next 3 years.
    Senator Markey. I thank you, Ms. Birx.
    Well, we have four supremely qualified candidates for your 
positions. We thank each of you for your willingness to serve 
our country. I think you each have a background that fits the 
job that you have been asked to serve in perfectly, and we are 
very proud to have you as Americans willing to serve our 
country. I wish a speedy confirmation for each of you and I 
will try to help in any way that I can in order to accomplish 
that goal. So we thank you for that.
    For the other members who were not able to attend, I just 
make the public announcement that they will have until the 
close of business tomorrow to submit questions to our 
witnesses, because we hope to be able to move forward quickly 
on these nominations.
    So with that and the thanks of our country, this hearing is 
adjourned.
    [Whereupon, at 3:30 p.m., the hearing was adjourned.]
                              ----------                              


                   Material Submitted for the Record


              Responses of Dr. Deborah Birx to Questions 
                  Submitted by Senator Robert Menendez

    Burma is a PEPFAR bilateral country. In late February 2014, Doctors 
without Borders (MSF) was ejected from Rakhine State by the Government 
of Burma, which falsely alleged that MSF was stoking ethnic tensions. 
MSF is reportedly one of the biggest providers of HIV/AIDS drugs in 
Burma and also treats thousands of tuberculosis patients.

    Question. How will MSF's ejection from Burma impact the health of 
the HIV/AIDS and tuberculosis patients they were treating in the 
country?

    Answer. MSF Burma, represented by MSF-Holland (MSF-H) and MSF-
Switzerland, has been working in Burma for over 20 years, providing 
basic and maternal health care and treatment for HIV and tuberculosis 
(TB). The current situation only applies to activities conducted by 
MSF-Holland. MSF-Switzerland has not been impacted by the recent 
developments in Rakhine.
    MSF-H has significant operations in Rangoon and Kachin, Shan and 
Rakhine States. Currently, MSF-H is providing life-saving 
antiretroviral therapy to over 30,000 HIV positive patients and 
tuberculosis treatment to over 3,000 patients.
    On February 27, 2014, MSF-H received a written order from the 
Government of Burma to cease all operations in the country pending 
renewal of its Memorandum of Understanding (MOU) with the government. 
This led to a closure of all MSF-H clinics on February 28. On February 
28, the Government of Burma allowed MSF-H to resume activities in all 
areas except Rakhine State. Seven hundred patients on antiretroviral 
therapy at MSF-H sites in Rakhine State have been impacted by the 
closure.

    Question. What possible impacts will MSF's ejection from Burma have 
on the spread of HIV/AIDS and tuberculosis in the country?

    Answer. At the end of 2013, MSF was providing antiretroviral 
therapy to 31,276 patients across the country. This represents nearly 
half of the total number of people on antiretroviral therapy in Burma. 
In addition to antiretroviral drugs, MSF is also supporting additional 
key TB/HIV services, which is a critical given that the HIV rate among 
new tuberculosis patients is estimated to be nearly 10 percent.
    Because MSF's HIV/AIDS and TB activities in most of the country 
were resumed after a single day of suspension, no significant impacts 
are expected on the spread of HIV/AIDS and tuberculosis in Burma 
nationally. The Ministry of Health has assured continuity of treatment 
services for those patients in Rakhine State. It will be critical for 
the MOH to continue these services in order to ensure the current gains 
in combating HIV/AIDS and TB in Rakhine State are not lost.

    Question. What actions has the U.S. Government taken to encourage 
the Government of Burma to allow MSF back into the country?

    Answer. MSF clinics continue to operate in many parts of Burma. The 
current suspension affects the MSF-Holland clinics in Rakine State. 
U.S. Embassy Rangoon remains in regular contact with the Government of 
Burma and with local and international humanitarian assistance 
providers regarding the situation on the ground. Ambassador Derek 
Mitchell personally has been in frequent and active communication with 
both Government of Burma senior officials and MSF-H to encourage 
continued private dialogue in negotiating a way forward to ensure no 
gap in necessary humanitarian services and to work toward a restoration 
of MSF-Holland services in Rakhine State. As part of this effort, on 
the day of MSF's suspension, Ambassador Mitchell highlighted for 
Burmese officials from the Ministry of Health, the Ministry of Home 
Affairs, and the Ministry of Border Affairs, the humanitarian 
consequences of MSF-H not being allowed to continue provision of its 
life-saving services. Ambassador Mitchell also encouraged the GOB to 
continue dialogue with MSF toward ensuring unfettered access for 
humanitarian agencies to people in need. USAID Administrator Rajiv Shah 
joined with Ambassador Mitchell in expressing strong concern about the 
events of February 28 to government ministers with the Burmese 
President's Office. Under Secretary of State for Political Affairs 
Wendy Sherman also raised the issue with senior Burmese officials 
during her March 6-7 visit to Burma.
    U.S. Embassy Rangoon continues to engage daily with MSF-H and with 
the Government of Burma on this issue, urging the government to abide 
by international standards on humanitarian access and provision of 
services.

    Question. How much PEPFAR assistance goes to Burma through MSF? Are 
there other PEPFAR partner organizations that can adequately treat the 
30,000 HIV/AIDS patients that were under MSF's care?

    Answer. PEPFAR does not provide any direct financial assistance to 
MSF, nor does it support direct treatment service delivery in Burma 
through any other partners. MSF is currently providing treatment 
services to over half of all patients currently enrolled on 
antiretroviral therapy in Burma, and there are no other organizations 
that can absorb 30,000 patients at this time.

    Question. How much Global Fund assistance goes to Burma through 
MSF-H? Are there other Global Fund partner organizations that can 
adequately treat the 3,000 tuberculosis patients that were under MSF's 
care?

    Answer. MSF-H received $3.4 million USD in 2013 from the Global 
Fund, and is budgeted to receive $4.1 million in 2014. As MSF 
activities have resumed in most of the country, the U.S. Government is 
optimistic that nearly all of the 3,000 tuberculosis patients on 
treatment will continue to receive services through MSF sites. For the 
patients on tuberculosis treatment at currently shuttered MSF sites in 
Rakhine State, the Ministry of Health has made a commitment to provide 
treatment to these patients until MSF is allowed to resume activities. 
Health agencies working in Rakhine State, including other Global Fund 
partner organizations, do not have the capacity to assume the treatment 
burden for MSF's caseload.
                                 ______
                                 

              Responses of Dr. Deborah Birx to Questions 
                    Submitted by Senator Bob Corker

    Question. The President's Emergency Plan for AIDS Relief (PEPFAR) 
has enjoyed broad, bipartisan support since its launch in 2003. Last 
year, this bipartisan tradition continued with the PEPFAR Stewardship 
and Oversight Act, which passed unanimously in the Senate and by a 
voice vote in the House. The program's support stems largely from the 
fact that Congress has a clear picture of what Americans get for their 
contributions by setting ambitious bilateral targets and goals 
specifically for PEPFAR and measuring progress toward those targets. 
However, this year the administration did not announce any new 
bilateral treatment or prevention goals for PEPFAR.
    The PEPFAR Stewardship and Oversight Act requires the 
administration to report on bilateral annual targets for treatment and 
prevention programs specific to PEPFAR.

  <diamond> (a). How important do you think bilateral targets are to 
        the performance, accountability, and focus of PEPFAR?

    Answer. Annual bilateral country targets are a core marker for 
measuring performance and implementing partner accountability for 
contributing to impactful HIV prevention and treatment programs. Annual 
targets are used to build implementing partner budgets, and allow for 
the PEPFAR country team to plan and collaborate with the host 
government and the Global Fund on what can be achieved in core 
prevention and treatment programs in a given year, and how these 
targets contribute to increased levels of treatment and prevention 
program coverage.
    PEPFAR's targets for prevention, care, and treatment have been a 
critical factor in enabling both Congress and the American people to 
understand how their investments have been saving lives in countries 
around the world. In addition to these annual targets, PEPFAR works 
jointly with local and international partners to define measurable 
commitments that contribute to creating an AIDS-free generation, 
including commitments around legal reform, supply chain improvements, 
and increased domestic contributions for HIV/AIDS--all areas of work 
that ensure that treatment and care programs maximize their impact and 
meet or exceed any bilateral targets that have been set.
    PEPFAR will continue, per P.L. 113-56, the PEPFAR Stewardship and 
Oversight Act, to use bilateral targets as an essential component of 
its efforts to save lives and increase efficiencies. Fighting the AIDS 
pandemic will require global solidarity, and PEPFAR is only one of 
several donors working with partner countries on this epidemic. The act 
focuses not only on the bilateral targets established by PEPFAR in each 
partner country, but also the national targets established by the 
country itself, to which PEPFAR will contribute.

  <diamond> (b). How will you ensure that the bilateral target 
        requirements in the Stewardship Act are met?

    Answer. On a semiannual and annual basis the Office of the U.S. 
Global AIDS Coordinator (OGAC) requires all implementing agencies to 
report core prevention and treatment achievements drawn from an 
established set of program indicators. At the semiannual check-in 
point, the intent is to identify those countries (and implementing 
partners within countries) that are not on track to reach annual 
targets established, determine the problems, and develop a plan of 
corrective action. When warranted, technical support is deployed to 
country teams from headquarters to provide further assistance. Close 
monitoring of country achievements to targets and corrected action has 
enabled PEPFAR to meet annual and multiyear targets in prevention, 
care, and treatment.

  <diamond> (c). When will this year's bilateral PEPFAR targets be 
        released publicly?

    Answer. PEPFAR is committed to staying in regular communication 
with the Senate Foreign Relations Committee (SFRC) and other 
congressional committees of jurisdiction on progress toward setting FY 
2014 bilateral PEPFAR targets. The FY 2014 PEPFAR Country Operational 
Plans (COPs), the source of 2014 targets by implementing partner by 
country, will be reviewed in April/May and and finalized in the summer 
of 2014. In September/October, the 2014 COPs and targets will be made 
available to Congress and will also be posted publicly on the 
PEPFAR.gov Web site after a process of redaction has taken place to 
ensure that procurement sensitive information has been removed. The 
2014 COP will be implemented in FY 2015. Currently PEPFAR teams are 
implementing COP 2013, and all 2013 COPs have been posted publicly.
    In addition, in December 2013, the President called for the new 
U.S. Global AIDS Coordinator, once confirmed, to convene our partners 
to develop joint HIV prevention and treatment goals to ensure we are 
making progress against this epidemic together. We will engage SFRC 
closely in our processes toward setting these global targets.

    Question. PEPFAR has begun to transition from an emergency response 
to a sustainable, long-term program, including shifting toward greater 
country responsibility. While it is important for host countries to 
assume greater leadership in combating their HIV/AIDS epidemic, I am 
concerned by accounts that transitions to greater country ownership are 
driven by factors other than scientific data and country capacity. How 
those transitions are planned and executed is critically important and 
can involve significant risk to the more than $40 billion we have 
invested as well as a tremendous risk to the people who depend on these 
programs for life and health.
    What lessons have we learned from the transition process so far, 
and how do you intend to ensure that transitions to greater country 
ownership continue to increase the impact of core interventions, as 
well as protect our investments and the patients on the ground who are 
counting on us to get this right?

    Answer. Greater country ownership is key to ensuring that the 
PEPFAR investments, systems, and capacities that have been established 
in the program to date continue in the long term. Through our 
partnerships, we have saved millions of lives, and our paramount 
responsibility is ensuring that those to whom we provide treatment and 
care continue to receive treatment and care during our transitions.
    Under PEPFAR we have learned that political leadership, local 
management and technical capabilities, supportive public health 
institutions and communities, and mutual accountability are factors 
that affect the degree to which countries are ready to assume 
responsibility for the prevention, treatment, and care of people 
dependent on services that the United States has been providing. With 
our partner countries, we need to share the common goal of using 
scientific data with adequate financing to invest in proven 
interventions and key populations to achieve continued progress toward 
an AIDS-free generation.
    In countries where PEPFAR funds have been used to provide support 
for direct service delivery in prevention, care, and treatment 
programs, PEPFAR teams have delivered transition successes in 
conjunction with their country counterparts. Health care workers 
previously trained and funded by PEPFAR are now funded by the 
government. Delivery of clinical services has transitioned from 
international NGOs to the Ministry of Health, local NGOs, and faith-
based local providers. National procurement and delivery of commodities 
are funded by domestic resources. In all cases, these successes have 
been possible due to strong partnerships and sustained because of 
strong political will and commitment. In addition, across multiple 
countries, PEPFAR has registered successful transfers of 
responsibilities for the care of key populations--groups that may have 
difficulties accessing health and support services--to local civil 
society.
    Across former focus countries, district- and provincial-level 
government and nongovernmental entities have assumed the role of direct 
service provider, enabling efficiencies and maintaining or improving 
performance. We are monitoring the use and impact of evidenced-based 
scientific interventions through our newly launched quality strategy. 
To optimize the impact of investments, expand population coverage, and 
retain more patients in care, PEPFAR is developing, in partnership with 
host countries, strategies for strengthening the quality of clinical 
services with a focus on improving linkage, engagement, and retention 
in care. These strategies are rooted in sound international standards 
and locally relevant strategies for quality management so that the best 
possible results are achieved from PEPFAR and domestic investments.
    PEPFAR is also monitoring the readiness for and impact of 
transitions through a series of joint assessments with countries that 
will be taking on additional responsibility. These assessments focus on 
identifying what additional capacities are required for local 
partners--governments, research, development, and academic 
institutions, NGOs, the private sector, and civil society networks and 
communities--to lead, manage, and monitor internal and external efforts 
to address HIV/AIDS in country. Part of this process includes 
supporting a country's ability to drive the process to identify, 
source, and manage ongoing capacity-building efforts as a sustained 
government-led effort to target change, facilitated by capacity-
building frameworks and indicators developed by PEPFAR in conjunction 
with our partners.
    Our health partnership with South Africa is a model we are learning 
from, and continue to evolve with our partners in other countries, for 
transition to greater country ownership. Throughout the evolution of 
all of our partnerships, we have never lost sight of our shared goals: 
to enable more people in need of HIV/AIDS services to receive them, and 
ensure that those who already receive these services continue doing so. 
Strong partnerships with many diverse stakeholders are vital to 
achieving these goals. Where we face challenges, we work jointly to 
address them. For example, as some patients move from one facility to 
another, they can get lost in the system. Preventing this ``loss to 
follow up'' is a challenge in any health system, including within the 
United States. PEPFAR continues to work closely with our South African 
partners to support the rollout of monitoring systems to ensure 
patients are properly tracked over time and retained in care.
    As PEPFAR moves from an emergency to a sustainability response, we 
are extremely cognizant of the challenges that partner nations face as 
we make this transition. Every country is situated at a different point 
on the continuum of country ownership, with a different range of needs 
and strengths. Advancing sustainability in a way that is tailored to 
each specific circumstance will require time and careful planning. 
PEPFAR is committed to ensuring that the eventual transfer of program 
management, implementation, and ownership to the host country occurs 
smoothly and at a pace appropriate to the local context. There is not a 
one-size-fits-all approach to country ownership. The eventual 
transition of PEPFAR program activities to host countries will occur in 
a step-wise manner, at a pace appropriate to their local context. In 
all countries, PEPFAR's goal is to support the country in achieving an 
AIDS-free generation, increasing the impact of core interventions, as 
well as protecting our investments and the patients on the ground.

    Question. Health Systems Strengthening (HSS) programming is 
intended to help achieve progress toward prevention, treatment, and 
care objectives, but exactly how they achieve it might not be as clear 
as it is with spending that is specific to a particular program area. 
Additionally, because the Office of the Global AIDS Coordinator has not 
counted HSS as part of the denominator when calculating how to meet the 
treatment and care spending requirement in law, it would seem that it 
is somehow treated or viewed differently than other program focus 
areas.

  <diamond> (a). What is the total annual funding level for HSS in 
        PEPFAR by year, and how was that funding level determined?

    Answer.

Budget Code--OHSS

2005 COP--Total Planned Amount..........................     445,395,169
2006 COP--Total Planned Amount..........................      58,972,580
2007 COP--Total Planned Amount..........................     103,779,504
2008 COP-OPU Full JUL 2011--Total Planned Amount........     152,471,123
2009 COP-OPU Full AUG 2012--Total Planned Amount........     291,362,960
2010 COP-OPU Full AUG 2013--Total Planned Amount........     337,581,718
2011 COP-OPU Full AUG 2013--Total Planned Amount........     368,945,328
2012 COP-OPU Full AUG 2013--Total Planned Amount........     364,601,625
2013 COP--Total Planned Amount..........................     296,386,434

    Health Systems Strengthening (HSS) funding levels as part of the 
annual Country Operational Plan (COP). Above are the most recent data 
for the Health Systems Strengthening budget code (OHSS) for COPs, 
including reprogramming. The collective, annual amount of HSS is 
variable and is dependent on the maturity of the program and specific 
HSS requirements in order to ensure strong results in prevention, care, 
and treatment programs. HSS-core activities include: support for human 
resources for health (HRH), supply chain management and improvement, 
infrastructure improvements, policy development that allows for optimal 
program delivery, economic strengthening initiatives for vulnerable 
populations, laboratory support and support for the development of 
strategic information systems and use of data. Each PEPFAR country team 
will prioritize those HSS efforts that are necessary for successful 
core program delivery.
    In FY 2013, OHSS represented about 8 percent of the most recent COP 
total budget. The FY 2014 level is not included as the COPS are not 
fully approved.

  <diamond> (b). Is HSS programming in PEPFAR required to demonstrate 
        clear, direct contributions toward prevention, treatment or 
        care targets, and if so, how?

    Answer. HSS spending is designed to support delivery of prevention, 
treatment and care activities and achievement of targets set under 
those budget codes. The COP 2014 Guidance, OHSS budget code narrative, 
states: ``The HSS strategy and program plan should clearly demonstrate 
how its priority interventions flow from and support the prevention, 
care, and treatment pillars of the overall PEPFAR program.'' The full 
COP 2014 guidance can be found here: http://www.pepfar.gov/documents/
organization/217765.pdf.
    The FY 2014 Technical Considerations provide supporting 
documentation to link HSS programming to the delivery of prevention, 
treatment and care services. For example, the Technical Considerations 
illustrate how teams can map HSS activities to support three PEPFAR 
goals; (1) increased use of HIV/AIDS services by key populations; (2) 
option B+/pediatric treatment scale-up; and (3) antiretroviral 
treatment scale-up. The mapping provides specific examples of HSS 
investments that support these goals in several types of health system 
components: governance/leadership; human resources for health; supply 
chain management, laboratory systems, strategic information, and 
finance. The FY 2014 Technical Considerations for health systems 
strengthening can be found here: http://www.pepfar.gov/documents/
organization/217761.pdf.
    HSS is required to be linked to advancing population coverage of 
key prevention, care and treatment programs. For example, support for 
redesign of supply chains ensures that commodities are available at all 
levels of the health care delivery system and drug stock-outs do not 
occur, meaning that people are enrolled in treatment programs, receive 
TB treatment, are able to get an HIV test, and can undergo male 
circumcision--all core HIV interventions. Additionally, investments in 
building partner country supply chains results in improvements in the 
efficiency of drug supply chains and best price commodity procurements, 
which means available budgets provide health services to a larger 
portion of the population.
    Some HSS interventions are multiyear investments, but ultimately 
allow for improved achievements. For example, policy work on the use of 
point-of-care CD4 testing in low volume regions allows for people to be 
enrolled in treatment programs without waiting for the results of a CD4 
test sent to a regional lab. Investments in electronic systems allow 
governments to tabulate health care worker availability and improve 
deployment, health care worker performance and retention strategies. 
These investments deliver results over time. While their impact is not 
captured as a direct result on service delivery performance metrics, 
without these types of investments, care and treatment programs are 
poorly resourced and struggle to perform.

  <diamond> (c). Does HSS programming have specific targets to meet or 
        metrics by which its performance can be assessed?

    Answer. Health Systems Strengthening (HSS) programming is governed 
by metrics that relate to several of the health system components 
mentioned above. For example, country teams must meet specific targets 
through FY 2015 regarding the number of new health care workers. In 
addition, policy changes, as an outcome of investments in governance 
and leadership, are tracked.
    HSS metrics and target setting--while supporting the achievement of 
service delivery targets--are therefore, of a fundamentally different 
nature than those captured under delivery of prevention, care, and 
treatment services. Unlike investments in prevention, care, and 
treatment services, ``activities that fall into the HSS budget code are 
generally those that are implemented above the service delivery point 
(site) level'' (COP 2014 guidance).
    Under PEPFAR's Monitoring, Evaluation and Reporting (MER) set of 
indicators, performance of HSS investments in leadership/governance, 
human resources for health (HRH) and supply chain are currently tracked 
at the headquarters level through the following (investments in 
laboratory systems and strategic information are primarily tracked 
through different budget codes):

  <diamond> Measuring progress in developing and implementing policies 
        that directly support PEPFAR prevention, care, and treatment 
        activities (one indicator: LGF--PTT);
  <bullet> Production and distribution of new health care workers (two 
        indicators: HRH--PRE; HRH--HRIS);
  <bullet> Strengthening of HIV and other commodities supply chains 
        (two indicators: SC--TRAIN; SC--STOCK).

    Question. Recently, PEPFAR has been sharply criticized for its lack 
of transparency for a lack of publically accessible and usable 
information, and that the program has actually made less data available 
over time.

  <diamond> If confirmed, what steps will you take to reverse this 
        trend and increase the transparency and usability of PEPFAR 
        data?

    Answer. As I said in my testimony before the Senate Foreign 
Relations Committee last week, if confirmed, I will be fully committed 
to ensuring the PEPFAR program is transparent and accountable, and will 
be fully compliant with all the requirements of P.L. 113-56, the PEPFAR 
Stewardship and Oversight Act.
    Since 2007, PEPFAR has made comprehensive financial, program, and 
partner-level data available on its Web site (pepfar.gov) through 
annual publication of Country Operational Plans (COPs). All published 
COPs describe in detail the planned activities for each of PEPFAR's 
implementing partners, including the scope of their program activities 
and the associated funding. PEPFAR also posts a quarterly report on its 
Web site that provides a financial picture of the PEPFAR program, 
including the available appropriations, obligations, and outlays for 
each PEPFAR implementing agency by country.
    Moving forward, as part of its implementation of P.L. 113-56, 
PEPFAR will increase the transparency, granularity, and usability of 
its data. PEPFAR will publish all nonprocurement sensitive information 
clearly and transparently in an open web-based format, and expand the 
quality and quantity of information available in its annual reports, 
including available financial and performance data. If confirmed, I 
will keep Congress well-apprised of efforts to increase data 
transparency and usability while avoiding inadvertently creating an 
overly burdensome reporting process for partner countries and U.S. 
Government teams in the field, which are also charged with producing 
lifesaving program results.
    The Office of the U.S. Global AIDS Coordinator (OGAC) is also 
working with the State Department's Office of U.S. Foreign Assistance 
on the ForeignAssistance.gov Web site, which is driving implementation 
of a whole of U.S. Government effort to align with the International 
Aid Transparency Initiative. Data that OGAC and PEPFAR implementing 
agencies provide for publication on ForeignAssistance.gov contribute to 
overall U.S. Government efforts to increase data transparency.

 
  NOMINATIONS OF PAIGE ALEXANDER, ALICE WELLS, THOMAS KELLY III, AND 
                            CASSANDRA BUTTS

                              ----------                              


                         TUESDAY, MAY 13, 2014

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Paige Eve Alexander, of Virginia, to be Assistant 
        Administrator, Bureau for the Middle East, United 
        States Agency for International Development
Alice G. Wells, of Washington, to be Ambassador to the 
        Hashemite Kingdom of Jordan
Thomas P. Kelly III, of California, to be Ambassador to the 
        Republic of Djibouti
Cassandra Q. Butts, of the District of Columbia, to be 
        Ambassador to the Commonwealth of The Bahamas
                              ----------                              

    The committee met, pursuant to notice, at 3:33 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Tim Kaine 
presiding.
    Present: Senators Kaine, Risch, and Rubio.

             OPENING STATEMENT OF HON. TIM KAINE, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Kaine. I am going to call this hearing of the 
Senate Foreign Relations Committee to order. Today we have four 
nominees for consideration by the committee in significant 
positions, doing important work for the United States with 
allies to our Nation, vital to the United States interests. I 
thank each of these witnesses for their service thus far and 
the service I am confident they will continue to render.
    The committee always encourages our panelists to introduce 
family members and I see we have got good family member 
representation in the audience as well, which I appreciate.
    Senator Risch is in the middle of a Republican committee 
meeting, a caucus meeting, that is running a bit late, but is 
likely to be here shortly. I have his permission to go ahead 
and begin the hearing. After I do introductions, I will ask 
each of you to give your opening comments and then begin with 
questions. When Senator Risch arrives, I will ask him to make 
any opening comments should he choose. But I welcome all to the 
hearing.
    Today we have before us Paige Eve Alexander of Virginia, to 
be Assistant Administrator for the Bureau for the Middle East 
for USAID. Welcome, Ms. Alexander.
    In addition, we have Alice Wells, of Washington, to be 
Ambassador to the Hashemite Kingdom of Jordan--very happy to 
have you--Thomas P. Kelly, of California, to be Ambassador to 
the Republic of Djibouti; and Cassandra Q. Butts, of the 
District of Columbia, to be the Ambassador to the Commonwealth 
of The Bahamas.
    What I will ask you to do is to make your opening 
statements in the order that I introduced you, and after you do 
I will move into questions, and again we will have Senator 
Risch make his comments should he choose and questions, as well 
as offer that opportunity to other committee members.
    I will say before I ask you to make comments that one of 
the real joys of being on the Foreign Relations Committee is 
traveling around the world and seeing what fantastic small 
``a'' ambassadors we have. The Ambassadors, capital ``A,'' do a 
wonderful job, but I am impressed, and I know you are as well, 
by the degree to which all Americans who serve abroad are great 
ambassadors for the country.
    I recently returned from a visit to Israel, the West Bank, 
Lebanon, and Egypt, and any time I travel I try to sit down 
with junior Foreign Service officers, usually those who are in 
their first or second tour, often working in the consul office 
as consular officials. And talking to these young men and 
women, some of whom are serving far away from spouses or loved 
ones, some of whom are serving in security situations where, as 
in Lebanon, they are required to live on the compound--they get 
6 hours a week for personal time off the compound, only 6 hours 
a week. They live in Lebanon in a compound where they are 
reminded every day with the memorial at the compound of members 
of America's consular community who were killed in bombings in 
Lebanon in the 1980s and other instances.
    We know, because we are still living in the shadow of the 
horrible experience in Libya, of the sacrifices that are made 
by those on consular service. I think Americans instinctively 
understand those sacrifices that are made by members of our 
military, and I think we demonstrate our appreciation for those 
sacrifices. But we have others who serve abroad who make us 
proud, who make sacrifices as well, whether they are security 
sacrifices or living far apart from family under difficult 
circumstances.
    You seek to join those ranks. Many of you have been working 
in this field already. But we owe you and your colleagues a 
debt of gratitude for the work that you do to represent 
America, to represent our country as ambassadors abroad. So for 
that I thank you.
    With that, I now would like to ask Ms. Alexander to begin.

 STATEMENT OF HON. PAIGE EVE ALEXANDER, OF VIRGINIA, NOMINATED 
  TO BE ASSISTANT ADMINISTRATOR, BUREAU FOR THE MIDDLE EAST, 
       UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT

    Ms. Alexander. Thank you, Chairman Kaine. I am honored to 
be here today as the nominee for the Assistant Administrator 
for the Middle East Bureau at USAID. It is a privilege to 
appear before this committee again and I appreciate and am 
grateful for the confidence that President Obama, Secretary 
Kerry, and Administrator Shah have placed in me.
    I want to recognize the leadership and the dedication of 
Deputy Assistant Administrator Alina Romanowski, who has been 
serving as Acting Assistant Administrator for the Bureau for 
the last 12 months. I would especially like to thank my family, 
friends, and professional colleagues, whose support and 
encouragement have allowed me to pursue this quest. In 
particular, I would like to thank my husband, Steve Grand, and 
my children, Rachel, Carly, and Josh. They all know the 
importance of public service and I am here today with their 
full support, which means the world to me.
    For the past 3 years, I have had the honor and the 
privilege of serving as the Assistant Administrator for the 
Europe and Eurasia Bureau at AID. I have forged working 
relationships throughout the interagency, and I would expect 
this strong collaboration, which also spans the length of 
Pennsylvania Avenue, to continue as an integral part of the 
effective approach that AID would plan to take in the Middle 
East Bureau and moving these countries from a relationship of 
assistance to one of cooperation and partnership.
    Four years ago, President Obama set forth a new version of 
a results-driven USAID that would lead the world in 
development. The agency has risen to this challenge, pioneering 
new models of development that bring greater emphasis on 
innovation and results. Our current national security strategy 
recognizes that development not only is a moral imperative, but 
is a strategic and economic one.
    In perhaps no other region is this more important than the 
Middle East and North Africa. Today's USAID's Middle East 
Bureau advances national and strategic interests and programs 
in 11 countries and territories, with an annual budget of over 
$1.3 billion. The Middle East region poses many challenges, 
both politically and developmentally, and also presents 
enormous opportunities to showcase what has been done right 
through American assistance.
    The challenges that the countries face in the region are 
complex: weak democratic institutions and processes, high 
unemployment, underperforming economies, and water scarcity. 
For the past 3 years, calls for transitions and change have 
reverberated across the region. In this time of transition, the 
United States must remain as an engaged partner with the 
governments and the citizens of the region to provide support 
for economic and political reforms and to promote security and 
stability.
    AID's programs work to address the perennial barriers that 
include stagnant economic growth, high unemployment, and 
challenges in the education system, all of which affect the 
region's ability to compete in a global economy. To prepare the 
region's young people for employment USAID programs provide job 
training and workforce skills development for growing economic 
sectors. In Tunisia, USAID's work with the communications-
technology sector has already generated over 2,600 jobs. USAID 
has supported the establishment of nine Palestinian startups 
and increased ICT exports by $1.4 million.
    USAID's projects in democracy, rights and governance in the 
Middle East aim to support transitions by promoting resilient 
democratic societies and strengthening weak institutions and 
processes, whether it is through direct support for elections 
assistance in places like Libya and Iraq or USAID's assistance 
with Yemeni women in asserting their rights throughout the 
political process to program, help, and empower the average 
citizen to hold their government accountable.
    The crisis in Syria has become a regional challenge of 
daunting proportions. AID has responded to the needs of the 
most vulnerable populations both within Syria and to address 
refugee needs in Jordan, Lebanon, Turkey, and Iraq--I am sorry, 
Lebanon, Turkey, Iraq, and Egypt. Supporting neighboring 
countries as they cope with both the short- and the long-term 
effects of the Syria crisis must continue to be a top priority.
    In practice, development is a continuum. It extends from 
humanitarian relief through recovery and reconstruction to 
investments in building institutions and delivering economic 
health and education services for the citizens of the country. 
Aid can begin at any point in that continuum and it can make 
short-term interventions or long-term investments depending on 
the needs. Yet, while it is on a continuum, it is not 
necessarily a linear process. Development can have challenges 
and threats to backsliding and these still persist.
    We must nurture critically minded citizens, involve youth, 
and find opportunities that include the use of new 
technologies, and hold governments accountable. In this region, 
AID's development objectives are clear. The agency's mandate is 
to promote open and transparent governments that are 
accountable to their citizens, foster private sector 
development, and strengthen civil society organizations.
    I am keenly aware of how technical assistance providers and 
grassroots organizations are important partners in implementing 
U.S. development and diplomacy objectives. Sound approaches to 
development must permit rethinking, reforming, and 
recalibrating our work in response to changing environments.
    Thank you again for giving me this opportunity to appear 
before you today. I welcome any questions you might have.
    [The prepared statement of Ms. Alexander follows:]

               Prepared Statement of Paige Eve Alexander

    Chairman Kaine, Ranking Member Risch, and distinguished members of 
the committee, I am honored to be here today as President Obama's 
nominee for Assistant Administrator of the Middle East Bureau at the 
United States Agency for International Development. It is a privilege 
to appear before this committee again and I am grateful for the 
confidence that President Obama, Administrator Shah, and Secretary 
Kerry have placed in me.
    I also want to recognize Deputy Assistant Administrator Alina 
Romanowski, who has been serving as Acting Assistant Administrator of 
USAID's Middle East Bureau for over a year. Her vast knowledge and 
dedication, acquired across a more than 30-year career in the United 
States Government reflect the best qualities of the Career Senior 
Executive Service.
    I would especially like to thank my family, friends, and 
professional colleagues whose support and encouragement have allowed me 
to pursue this opportunity. In particular, I would like to recognize my 
husband and best friend, Steve Grand, and our children, Rachel, Carly, 
and Josh. They all know the importance of public service and I am here 
today with their full support, which means the world to me.
    The experience I have gained over a more than 25-year career in 
international development, including nearly 11 years within USAID, as 
well in posts at private foundations, academic institutions, and 
nonprofit organizations, has prepared me well for the new 
responsibilities I will take on, if confirmed.
    For the past 3 years, I have had the honor and privilege of serving 
as USAID's Assistant Administrator for Europe and Eurasia. In this 
role, I have come to appreciate and respect the importance of 
interagency cooperation and collaboration. I have forged effective 
working relationships throughout, and would expect this strong 
interagency collaboration, which will also span the length of 
Pennsylvania Avenue, to continue to be an integral part of how I would 
effectively approach USAID's work to move countries from assistance to 
cooperation and partnership.
    Indeed, my current position has given me an even greater 
appreciation for the critical interplay between Congress and the 
executive branch. I have benefited greatly from the advice and counsel 
I have received from members of this committee and others in the House 
and Senate. If confirmed, I look forward to continuing to seek your 
guidance and counsel on the critical challenges facing us in the Middle 
East.
    Four years ago, President Obama set forth a new vision of a 
results-driven USAID that would lead the world in development. The 
Agency has since risen to this challenge, pioneering a new model of 
development that brings a greater emphasis on partnerships, innovation, 
and results. We are guided in these efforts by a new mission statement: 
we partner to end extreme poverty and promote resilient democratic 
societies while advancing our security and prosperity. If confirmed, I 
will work tirelessly with the dedicated men and women of USAID to 
continue to fulfill this goal.
    Although these goals are not new, they reflect a unique moment in 
development today when exciting opportunities are emerging to change 
what is possible. In a time of fiscal restraint, we are applying the 
new model to seize this moment and reach more people, save more lives, 
and leverage more private investment than ever before--delivering 
results for the American people and those in greatest need around the 
world.
    President Obama's national security strategy recognizes development 
not only as a moral imperative, but as a strategic and economic one. In 
perhaps no other region is that more relevant than the Middle East and 
North Africa.
    The challenges that the countries of the region face are complex--
weak democratic institutions and processes, high unemployment, 
underperforming economies, and water scarcity. For the past 3 years, 
calls for transition and change have reverberated across the region. In 
this time of transition, the United States must remain an engaged 
partner with the governments and people of the region to provide 
support for economic and political reforms and to promote security and 
stability in the region.
    USAID's Middle East Bureau advances U.S. national and strategic 
interests with programs in 11 countries and territories with an annual 
budget of over $1.3 billion. If confirmed, I will provide strong 
oversight of USAID's programs in the Middle East, which respond to the 
needs and aspirations of the people in the region by facilitating more 
inclusive economic growth, supporting democratic processes, 
strengthening civil society, and addressing other key challenges, such 
as the impact of the Syria crisis.
    Throughout the Middle East and North Africa, tepid or stagnant 
economic growth and high unemployment among young people remain major 
challenges. Twenty-four percent of young people are unemployed--the 
highest rate of youth unemployment in the world. Education systems fail 
to prepare young people for the workforce, reducing the region's 
ability to compete in a global economy. USAID programs work to address 
these barriers.
    The Agency's programs target private sector growth through economic 
empowerment programs that provide small and medium enterprises training 
in business skills, startup seed capital, and regional networking 
opportunities. For Egypt and Tunisia, USAID is managing grants to 
Enterprise Funds that will provide investment in the Egyptian and 
Tunisian economies and will seek to leverage the involvement of other 
financial institutions and global investors. In Libya, USAID has 
expanded the business potential of women microentrepreneurs and women-
owned small- and medium-scale enterprises.
    USAID is also working with regional governments and local partners 
to create business-enabling environments that reduce barriers to 
starting a business and support them once they are operational. For 
instance, in several places, USAID is investing in ``one-stop shops.'' 
In Egypt these ``shops'' have reduced the time it takes to register a 
business from over a week to about an hour, and in Iraq the 
registration period has gone from 6 months to less than 2 months.
    To prepare the region's young people for employment, USAID programs 
provide job training and workforce skills development for growing 
economic sectors. In Tunisia, USAID is encouraging job creation in the 
high-impact information communications technology (ICT) sector. USAID's 
work with this sector has already generated over 2,600 new jobs. In the 
West Bank, USAID has supported the establishment of nine Palestinian 
startups and increased ICT exports by $1.4 million. In Iraq, USAID has 
assisted 5,300 Iraqi jobseekers to find positions in over 550 Iraqi 
businesses, by providing training modules that bridge skills gaps and 
supporting an online jobs portal in partnership with Microsoft.
    USAID's education programs link directly to USAID's economic growth 
work, as keeping young people in school is key to regional economic 
growth and stability. The Agency is partnering with ministries of 
education and schools to implement early grade reading programs that 
will increase literacy rates, encourage retention, and expand girls' 
access to education. In Morocco, our early grade reading program aims 
to increase the recruitment of female teachers, improve the retention 
rate, and provide opportunities outside of school to promote reading by 
engaging with and supporting community-based groups. In Egypt, USAID 
has supported advancements in early grade reading and secondary 
science, technology, and math skills. Our support is helping improve 
the reading fluency and comprehension of approximately 4.5 million 
Egyptian elementary students by introducing new teaching approaches and 
training teachers.
    USAID projects in democracy, rights and governance in the Middle 
East aim to support democratic transitions by promoting resilient 
democratic societies and strengthening weak institutions and processes. 
USAID projects in Libya and Iraq provide elections assistance to their 
respective elections commissions, helping with elections operations, 
voter registration, campaign finance, electoral dispute resolution, and 
the drafting of regulations and procedures. In February 2014, the 
Government of Iraq committed funds to support the USAID-sponsored Legal 
Clinic Network which has provided assistance on over 14,000 legal cases 
on behalf of vulnerable individuals such as female-headed households, 
internally displaced persons, and ethnic and religious minorities and 
educated over 26,000 Iraqis on their legal rights. USAID has supported 
Yemeni women in asserting their rights throughout the political 
process, and thanks in part to USAID's efforts, a 30-percent female 
participation quota was established for the National Dialogue 
Conference. USAID is also providing support for international elections 
observers and domestic monitoring for Tunisia's historic Presidential 
and parliamentary elections, which should take place at the end of this 
year.
    The Middle East is also facing substantial natural resource 
challenges, encompassing 12 of the world's 15 most water-scarce 
countries. Further compounding the problem, the region has the world's 
second-highest population growth rate and excessive water 
mismanagement, increasing competition for a scarce resource in a 
region. In Jordan, the influx of Syrians into local communities has 
increased the pressure on limited and already strained water 
availability. A USAID project has set up a revolving credit fund so 
families can access loans to install cisterns for harvesting rainwater. 
Repayment rates are high and half of the borrowers are women. This 
effort has helped tens of thousands of people secure access to water. 
In Yemen, USAID has established 16 water catchment sites throughout the 
country, which collect approximately 2 million liters of water per 
year.
    The crisis in Syria has become a regional challenge of daunting 
proportions, with 6.5 million people displaced inside Syria, 9.3 
million in need of humanitarian assistance, and over 2.6 million 
refugees spilling over into neighboring countries. USAID is providing 
more than $669 million to help over 4.2 million people inside Syria and 
more than $232 million to help Syrian refugees in neighboring 
countries. USAID has responded to the needs of the most vulnerable in 
all 14 Syrian governorates and Syrian refugees in five neighboring 
countries--Jordan, Lebanon, Turkey, Iraq, and Egypt. In addition to 
humanitarian aid, our response to the conflict in Syria is 
comprehensive--combining humanitarian, transitional, and development 
interventions to address the needs of conflict-affected Syrians and 
host communities both within Syria, and regionally. Supporting 
neighboring countries as they cope with both the short- and long-term 
effects of the Syria crisis must continue to be a top priority.
    Of the 600,000 refugees in Jordan, nearly 480,000 Syrian refugees 
live within Jordanian host communities, rather than in camps, and these 
host communities face tremendous challenges. USAID has provided 
critical assistance to these communities to alleviate increased demand 
for services, including hospital renovations and water infrastructure 
repair. A USAID community engagement project is in place to help 
alleviate tensions in host communities by promoting dialogue and 
reducing community stressors including trash removal, and limited 
small-scale infrastructure projects to reduce traffic and create jobs. 
In Lebanon, where Syrians now make up more than 25 percent of the total 
population, USAID assistance focuses on water and education as well as 
a value-chain development program to advance small-scale agriculture. 
Since January 2013, USAID has rehabilitated thousands of Lebanese-owned 
residential units for refugees, increased access to water or other 
municipal services for over 125,000 people and reached nearly 100,000 
children and at-risk youth through supplemental education activities.
    As is well understood in the literature and in practice, 
development is a continuum. It extends from humanitarian relief through 
recovery and reconstruction, to investments in building sustainable 
institutions delivering economic, health, and education services for 
the citizens of that country. Aid can begin at any point on that 
continuum and can make short-term interventions or invest in the long 
term, depending on the needs. While development is on a continuum, it 
is not necessarily a linear process. Major development challenges and 
the threat of backsliding still persist. We must nurture critically 
minded citizens, engage youth, and find opportunities that include the 
use of new technologies to hold governments accountable. If confirmed, 
I will make it a priority to focus and concentrate USAID assistance in 
areas where it can achieve maximum results that align with our 
strategic objectives.
    In this region, USAID's development objectives are clear. The 
Agency's mandate is to promote open and transparent governments that 
are accountable to their citizens, foster private sector development, 
and strengthen civil society organizations capable of investing in the 
current and future lives of the people they represent, during this 
critical period of change. The United States continued engagement with 
the people of the region is critical for lasting growth, prosperity, 
and peace.
    I am keenly aware of how technical assistance providers and 
grassroots organizations are important partners in implementing U.S. 
development and diplomacy objectives. Sound approaches to development 
must permit rethinking, reforming, and recalibrating our work in 
response to changing environments. If confirmed, I will continue to 
focus on finding scalable solutions that can affect development 
globally.
    The Middle East region poses many challenges, both politically and 
developmentally, and also presents enormous opportunities to showcase 
what has been done right through American assistance.
    Thank you again for giving me the opportunity to appear before you 
today. I welcome any questions you might have.

    Senator Kaine. Great. Thank you.
    Ms. Wells.

  STATEMENT OF ALICE G. WELLS, OF WASHINGTON, NOMINATED TO BE 
         AMBASSADOR TO THE HASHEMITE KINGDOM OF JORDAN

    Ms. Wells. Chairman Kaine, it is a great honor to appear 
before you today and I am grateful and humbled to be the 
President's nominee to represent the United States in the 
Hashemite Kingdom of Jordan. I would like to thank Secretary 
Kerry for the confidence he has shown me.
    I would not be here without the support of my husband and 
until recently a fellow Foreign Service officer, Kurt Amend, 
and our daughters Helen, Isabel, and Phoebe. Our service in 
Tajikistan, Saudi Arabia, Pakistan, India, and Russia was a 
family affair. It was an adventure and a privilege, but not 
without its share of sacrifices, and I am grateful to my 
husband and our girls for being enthusiastic participants in 
this journey.
    My brother, Tom Wells, my sister-in-law, Paula, and their 
children, Nicholas and Elizabeth, are also here today. Tom's 
military service in Operation Desert Storm is one chapter in my 
family's long engagement with the Middle East.
    Finally, my thanks to President Eisenhower, whose 1958 
Middle East Task Force brought my father, then Army Captain Wes 
Wells, and later my mother, Heidi Wells, to Lebanon.
    To my parents, I owe much more than the accident of my 
birth in Beirut, but the extraordinary example of their public 
service, their curiosity, and their service to their country 
abroad.
    As President Obama has stated, the United States has very 
few friends, partners, and allies around the world that have 
been as steadfast and reliable as His Majesty King Abdullah, as 
well as the people of Jordan. If confirmed I will work to 
ensure that our assistance, our policies, and our diplomatic 
platform further Jordan's ability to withstand the Syrian 
crisis, to counter terrorism, and to promote regional security, 
to serve as an example for political and economic 
modernization, and to advance peace in the Middle East.
    Mr. Chairman, the historic partnership between the United 
States and Jordan has never been more important as we jointly 
work to achieve peace in the Middle East and to promote a 
democratic transition in Syria. With Jordan coping with more 
than 600,000 Syrian refugees, the loss of export routes through 
Syria, a steep decline in tourism, and an energy bill that rose 
to 21 percent of its GDP, the United States has a strategic 
interest in ensuring that the Hashemite Kingdom can meet its 
international humanitarian obligations without jeopardizing its 
own economic and political stability.
    At the same time, our multifaceted partnership demonstrates 
to the people of Jordan and the region the benefits of choosing 
the path of moderation, of political and economic 
modernization, of peace with one's neighbors.
    With strong bipartisan support from Congress, the United 
States is providing Jordan with a broad package of aid to 
bolster services strained by the refugee influx. United States 
support to Jordan topped $1 billion in both 2012 and 2013 and 
our bilateral assistance alone will exceed $1 billion in fiscal 
year 2014. This has been supplemented by more than $268 million 
in humanitarian aid to international organizations assisting 
Syrian refugees in Jordan, as well as a total of $2.25 billion 
in loan guarantees to help Jordan access international capital.
    If confirmed, I will advocate continued flexibility in 
responding to the evolving crisis. The United States has a deep 
stake in Jordan's successful modernization and in supporting 
King Abdullah's embrace of political and economic reform as a 
strategic choice. To date, working with the International 
Monetary Fund, Jordan is successfully balancing competing 
demands, including the imperative of structural reforms that 
replace blanket subsidies with a targeted social safety net to 
alleviate popular discontent over fuel and electricity price 
hikes.
    We also support King Abdullah's efforts to respond for 
greater transparency and dignity, including the establishment 
of a National Integrity Commission and an Independent Electoral 
Commission. As friends of Jordan, we should encourage the full 
implementation of these home-grown initiatives.
    With the finalization of a second memorandum of 
understanding on bilateral assistance, substantial and 
predictable U.S. support can help Jordan transform the Syrian 
crisis into an opportunity. I am committed to reinforcing the 
collaborative and consultative approach to assisting Jordan as 
it charts this difficult path.
    Finally, if confirmed I will dedicate myself to building 
and sustaining a diplomatic team that can advance these 
ambitious objectives while working to ensure the safety and 
security of U.S. officials and the American community.
    Thank you very much.
    [The prepared statement of Ms. Wells follows:]

                  Prepared Statement of Alice G. Wells

    Mr. Chairman, Ranking Member Risch, members of the committee. It is 
a great honor, as well as the dream of every Foreign Service officer, 
to appear before you, and today I am grateful and humbled to be the 
President's nominee to represent the United States in the Hashemite 
Kingdom of Jordan. I would like to particularly thank Secretary Kerry 
for the confidence he has shown me.
    I would not be here without the support of my husband and, until 
recently, fellow Foreign Service officer, Kurt Amend, and our 
daughters, Helen, Isabel, and Phoebe. Our service in Tajikistan, Saudi 
Arabia, Pakistan, India, and Russia was a family affair, a great 
adventure, and a privilege, but not without its share of sacrifices. I 
am grateful to my husband and our girls for being enthusiastic 
participants in this Foreign Service journey. My brother, Tom Wells, my 
sister-in-law, Paula, and their children, Nicholas and Elizabeth, are 
also here today. Tom's military service to his country, including in 
Operation Desert Storm, is one chapter in my family's long engagement 
with the Middle East. Finally, my thanks to President Eisenhower, whose 
1958 Middle East Task Force brought my father, then-Army Captain Wes 
Wells, and later my mother, Heidi Wells, to Lebanon. To my parents, I 
owe much more than my accident of birth in Beirut, but the 
extraordinary example of their public service, curiosity, and service 
to their country abroad.
    As President Obama has stated, the United States has ``very few 
friends, partners, and allies around the world that have been as 
steadfast and reliable as His Majesty King Abdullah, as well as the 
people of Jordan.'' Mr. Chairman, the historic partnership between the 
United States and our invaluable ally Jordan has never been more 
important, as we jointly work to achieve peace in the Middle East and 
to promote a democratic transition in Syria. The United States and 
Jordan share concerns about destabilization in the region and 
increasing extremist activity. We have a strong history of mutual 
resolve and cooperation against terrorist threats, including in 
Afghanistan and Iraq, where King Abdullah directed that Jordan be part 
of the answer to restoring stability and countering the message of 
violent extremists.
    At the same time, our multifaceted partnership with the Hashemite 
Kingdom aims to demonstrate to the people of Jordan and the region the 
benefits of their choosing the path of moderation, of political and 
economic reform, of peace with one's neighbors. As a testament to our 
support for Jordan, the Jordanian people, what Jordan stands for, and 
what it has achieved, in the 15 years since King Abdullah ascended the 
throne, the United States has provided over $10 billion in assistance.
    If confirmed as the next U.S. Ambassador to the Hashemite Kingdom 
of Jordan, I will work to ensure that our assistance, our policies, and 
our diplomatic platform to advance U.S. interests and further Jordan's 
ability to withstand the Syrian crisis, counter terrorism, serve as an 
example of political and economic reform, and advance peace in the 
Middle East, while building bridges between U.S. and Jordanian 
societies.
    First, with Jordan hosting 600,000 Syrian refugees, the United 
States has a strategic interest in ensuring that the Hashemite Kingdom 
can meet its international humanitarian obligations without 
jeopardizing its own economic and political stability. While 
international attention has focused on the Zaatri refugee camp, which 
several committee members and staff have viewed firsthand, nearly 85 
percent of Syrian refugees reside in Jordanian host communities. Local 
governments, social services, and civic organizations are severely 
strained, with cities and villages facing overcrowded schools, 
shortages of hospital beds and medicines, and an inability to stretch 
municipal services to accommodate the increased population. At the same 
time, Jordan grapples with the loss of export routes through Syria, a 
steep decline in tourism, negative investor sentiment resulting from 
the war, and an energy bill that rose to 21 percent of its GDP when 
Egypt could no longer deliver on its natural gas contracts.
    In response to these needs, the U.S. Government is providing Jordan 
with a broad package of aid designed to bolster services strained by 
the refugee influx and help safeguard Jordan's economic and political 
reform. Jordan was the fifth-largest recipient of bilateral assistance 
in FY 2013. With strong, bipartisan support from Congress, U.S. support 
to Jordan has totaled over $1 billion in both fiscal years 2012 and 
2013. Our bilateral assistance alone will exceed $1 billion in fiscal 
year 2014 thanks to the generosity of Congress. This assistance has 
helped to reduce the financial strain on the sectors directly affected 
by refugees. In addition, over the past few years we have provided more 
than $268 million in humanitarian aid to international organizations 
and NGOs assisting Syrian refugees and host communities in Jordan, as 
well as a total of $2.25 billion in loan guarantees to help Jordan 
access international capital. If confirmed, I will advocate continued 
flexibility in responding to the evolving crisis, adjusting our own 
assistance priorities and diplomatic staffing as necessary. I also will 
continue to work closely with international donors and multilateral 
institutions to ensure a unified and coherent response that addresses 
Jordan's needs, while encouraging sensible reform to promote long-term 
economic sustainability and political stability.
    Second, as violent extremists expand their operations in Syria and 
the Anbar province of Iraq, our cooperative efforts with Jordan on 
regional security and counterterrorism take on increased importance. 
Jordan offers practical partnership, as well as an alternative vision 
of a modern, Muslim country. The U.S. is utilizing a full array of 
programs, including the transfer of Excess Defense Articles, to 
strengthen Jordan's capabilities. This includes completing the Jordan 
Border Security Program, which uses advanced surveillance technologies 
to safeguard Jordan's border with Syria and Iraq, while working to stop 
the flow of foreign fighters and the financial networks that support 
them. In turn, Jordan's highly skilled security forces are playing a 
leadership role in training counterparts throughout the Middle East 
region and in peacekeeping missions around the globe. If confirmed, I 
also will look for additional opportunities to amplify King Abdullah's 
``Amman Message'' of religious tolerance, as seen in Jordan's hosting 
of Pope Francis later this month, recognizing that interfaith dialogue 
and understanding are integral to repudiating the terrorist message and 
building tolerant, pluralistic societies across the region.
    Third, the U.S. has a deep stake in Jordan's successful 
modernization and supporting King Abdullah's public embrace of 
political and economic reform as a ``strategic choice.'' In Jordan, 70 
percent of the population is under the age of 30 and almost 40 percent 
under the age of 14. We support the King's vision of promoting well-
educated youth who can be an economic force multiplier. King Abdullah 
is in California today for meetings with U.S. investors and innovators 
to build greater economic ties and develop more jobs for the Jordanian 
people. To date, working with the International Monetary Fund, Jordan 
is successfully balancing competing demands, including the imperative 
of structural reforms that replace blanket subsidies with a targeted 
social safety net to alleviate popular discontent over fuel and 
electricity price hikes.
    We also support the reforms advanced by King Abdullah to promote 
greater transparency and dignity, including the establishment of a 
National Integrity Commission, a Constitutional Court, limits on the 
State Security Court, and parliamentary elections that were judged 
credible by international observers. As friends of Jordan, we need to 
encourage the full implementation of these home-grown initiatives to 
reinforce the relationship between economic and political reform. King 
Abdullah has noted publicly that ``for business to invest and expand 
with confidence, they need a predictable, level playing-field, 
transparency and accountability, the rule of law and a strong, stable 
foundation of inclusive political life,'' and we should encourage him 
to turn this vision into action.
    I am committed to reinforcing the collaborative and consultative 
approach the U.S. has taken to help Jordan, whether in reforming its 
political system and reforming subsidies, diversifying its energy 
sector, renovating water infrastructure, extending education and 
enhancing the role of women, promoting international competitiveness 
and improving government service. The 2009-2014 MOU that provides $360 
million in Economic Support Funds (ESF) and $300 million in Foreign 
Military Financing (FMF) annually has been integral to providing the 
predictability in assistance that Jordan needs to make strategic 
decisions and undertake difficult reforms. The President's announcement 
in February of our intention to renew our MOU reflects the strength of 
our strategic partnership and our ongoing commitment to help Jordan 
successfully navigate the challenges posed by the regional unrest and 
build a stronger economy. For instance, if Jordan continues to adhere 
to its bold program of subsidy reform and diversification of its energy 
resources, by 2017 it has the potential to emerge from this crisis 
period with billions of dollars in budget savings.
    Fourth, the United States relies on Jordan's continued support, as 
a partner and a stakeholder, to achieve a comprehensive final status 
peace agreement between the Israelis and Palestinians. Secretary Kerry 
appropriately called Jordan ``an essential partner for peace.'' As one 
of only two Arab States to sign a peace treaty with Israel, the host to 
2 million Palestinian refugees, and the traditional guardian of the 
Islamic holy shrines in Jerusalem, Jordan has a critical interest in 
any final status negotiations, as well as a role to play in any future 
security and border arrangement along the Jordan River. If confirmed, I 
will support continued engagement with Jordan on this important issue 
and seek to identify ways to enhance trade, environmental and other 
ties between Jordan and Israel, and Jordan and the West Bank, 
recognizing the historic role that initiatives like the Qualified 
Industrial Zones have played in forging linkages.
    Finally, if confirmed, I will dedicate myself to building and 
sustaining a diplomatic team that can advance these ambitious 
objectives, while working to ensure the safety and security of U.S. 
officials and the American community. The U.S. Embassy in Amman has 
grown substantially over the last 5 years, reflecting Jordan's regional 
importance and the Embassy's role in providing support for our mission 
in Iraq and our interests in Syria. Last year, Embassy Amman hosted 
over 15,000 official visitors, both U.S. and other nationalities, 
including--I'm glad to note--a total of 193 Members of Congress and 
staff. With the Embassy staffed to its physical capacity, choices will 
need to be made in prioritizing programs, as we anticipate the 
construction of a New Office Annex; similarly, we must remain nimble in 
responding to the evolving Syrian crisis. The safety and security of 
U.S. citizens and Embassy employees will always be the foremost 
priority, and I take the responsibility of managing risk seriously, 
recognizing the tension between security and engagement.
    Mr. Chairman, in the course of my quarter century of service as a 
Foreign Service officer, the world has changed dramatically. I entered 
the State Department with pretensions of being an expert on the Soviet 
Union, only to help open our first Embassy in the independent and 
sovereign state of Tajikistan 3 years later. As a junior officer in 
Saudi Arabia, I waited 3 days for local media to report on Saddam 
Hussein's invasion of Kuwait, but now wrestle with the immediacy of the 
24-hour news cycle and the imperative of social media. As Office 
Director for North Africa, I confronted the seeming permanence of 
Qadhafi, Ben Ali, and Mubarak's leadership, only later to see the 
frustration and despair of a street vendor in Tunisia ignite a wave of 
unprecedented political change in the Middle East. However, what has 
not changed is the importance of U.S. leadership, the power of our 
example, and the resources we bring to bear. If confirmed, it would be 
an honor to help the U.S. chart a course in Jordan at this critical 
time that promotes our shared values and our shared interests in a more 
peaceful and prosperous region.

    Senator Kaine. Thank you so much, Ms. Wells.
    Mr. Kelly.

 STATEMENT OF THOMAS P. KELLY III, OF CALIFORNIA, NOMINATED TO 
           BE AMBASSADOR TO THE REPUBLIC OF DJIBOUTI

    Mr. Kelly. Chairman Kaine, Senator Rubio, it is a great 
honor and privilege to appear before you today as President 
Obama's nominee to be the next Ambassador to the Republic of 
Djibouti. I am grateful for the confidence the President and 
Secretary of State have shown in nominating me to this position 
and for the support of Assistant Secretary for African Affairs 
Linda Thomas Greenfield. If confirmed, I look forward to 
working with this committee and the Congress to advance U.S. 
interests in Djibouti.
    Mr. Chairman, I am from a very big family. I do not think 
we can fit all of them in this room. But I do have a good 
representation here. I would like to introduce them. I am 
joined by my wife, Elsa Amaya-Kelly, my daughter, Chantal, my 
brother, Joe Kelly, my mother-in-law, Elsa Reyes de Amaya, my 
brother-in-law, Juan Carlos Amaya, my uncle, John Kelly, Aunt 
Mary Kelly, Uncle Chris Burns, Aunt Suzy Burns, Cousin Patrick 
Kelly, Cousin Michael Kelly, and Mike's wife, Karen. Again, 
that is just the tip of the iceberg. [Laughter.]
    Mr. Kelly. Mr. Chairman, during my 28-year Foreign Service 
career I have worked on a variety of issues that are relevant 
to my proposed post. I served for the first part of my career 
as an economics officer working on development issues around 
the world. I also have experience managing large diplomatic 
missions, most recently in Lithuania, Argentina, and Brazil.
    Over the last three years, I have had the privilege to lead 
the State Department's Bureau of Political-Military Affairs, 
where we worked to reinforce the global partnership between the 
State and Defense Departments for our Nation's benefit.
    Mr. Chairman, as you know, we share important interests and 
goals with Djibouti. The May 5 meeting between President Obama 
and Djiboutian President Guelleh reflected our desire to 
broaden our bilateral partnership, to work closely together to 
advance our shared vision for a secure, stable, and prosperous 
Horn of Africa.
    Djibouti hosts the only U.S. military forward operating 
site in sub-Saharan Africa. This is Camp Lemonnier, the 
headquarters of the Combined Joint Task Force Horn of Africa, 
where more than 4,000 U.S. military and contracted personnel 
are stationed. If confirmed, I will continue to expand 
coordination and cooperation between Embassy personnel and Camp 
Lemonnier and its tenant U.S. military commands.
    On the economic front, Mr. Chairman, making Djibouti an 
attractive place for investment is essential for its economic 
development. Djibouti remains very poor and less than 5 percent 
of its land is arable. The small USAID mission in Djibouti 
currently focuses on health and education, but we are expanding 
and deepening our focus areas following the President's May 5 
meetings.
    Additionally, Mr. Chairman, to help grow Djibouti's economy 
the United States has recently pledged to increase technical 
and financial assistance to the Djiboutian people and to 
further invest in Djibouti's development. If confirmed I will 
see that these programs remain a priority.
    Mr. Chairman, if confirmed I am also committed to working 
with Djibouti to strengthen democratic governance.
    If confirmed, I will underscore the importance of democracy 
and governance reforms, including greater space for media, 
opposition, and civil society groups.
    Finally, Mr. Chairman, if confirmed my highest priority 
will be the protection of Americans and U.S. interests, 
including mission personnel living and traveling in Djibouti.
    Mr. Chairman, if confirmed by the Senate I look forward to 
working closely with you and other members of the committee and 
would hope to welcome you during my tenure.
    Mr. Chairman, Ranking Member Risch, and members of the 
committee, thank you again for the honor to appear before the 
committee today. I will be happy to take your questions.
    [The prepared statement of Mr. Kelly follows:]

                 Prepared Statement of Thomas P. Kelly

    Chairman Kaine, Ranking Member Risch, members of the committee, it 
is a great honor and privilege to appear before you today as President 
Obama's nominee to be the next Ambassador to the Republic of Djibouti. 
I am grateful for the confidence the President and Secretary of State 
have shown by nominating me to this position, and for the support of 
Assistant Secretary for African Affairs Linda Thomas-Greenfield. If 
confirmed, I look forward to working with this committee and the 
Congress to advance U.S. interests in Djibouti.
    First, Mr. Chairman, let me acknowledge several family members here 
today. I am joined by my wife, Elsa Amaya-Kelly; my daughter, Chantal 
Kelly; my brother, Joe Kelly; my mother-in-law, Elsa Reyes de Amaya; my 
brother-in-law, Juan Carlos Amaya; my uncle, John Kelly; Aunt Mary 
Kelly; Uncle Chris Burns; Aunt Suzie Burns; Cousin Patrick Kelly; 
Cousin Michael Kelly; and Mike's wife, Karen Kelly.
    Mr. Chairman, please allow me to tell you about myself. During my 
28-year career, I have worked on a variety of issues that are relevant 
to my proposed post. I served for the first two-thirds of my career as 
an Economics Officer, working on development, trade, and finance issues 
around the world. I have extensive experience managing large diplomatic 
missions, serving as Deputy Chief of Mission in Vilnius, Lithuania, and 
Buenos Aires, Argentina, and as Principal Officer in Sao Paulo, Brazil. 
Over the last 3 years, I have had the privilege to lead the State 
Department's Bureau of Political-Military Affairs as Acting Assistant 
Secretary and Principal Deputy Assistant Secretary. The Political-
Military Bureau works every day to reinforce the global partnership 
between the State and Defense Departments for the benefit of our 
Nation.
    Mr. Chairman, if confirmed, I look forward to leading Embassy 
Djibouti in advancing the interests of the United States. The U.S.-
Djibouti relationship is strong, and our two countries share a firm 
commitment to peace and security, countering terrorism and piracy in 
the region, and economic development.
    Mr. Chairman, as you know, we share important interests and goals 
with Djibouti. The May 5 meeting between President Obama and Djiboutian 
President Guelleh [GEHL-ay] reflected our desire to broaden our 
bilateral partnership to work closely together to advance our shared 
vision for a secure, stable, and prosperous Horn of Africa. Djibouti 
has a strategic position at the Bab-el-Mandab Strait, which joins the 
Red Sea and Gulf of Aden. Approximately 60 percent of Djibouti's 
population is ethnic Somali, and the Government of Djibouti has 
undertaken considerable efforts to restore peace in neighboring 
Somalia, a nation whose instability threatens the stability of the 
region. Djibouti is a troop-contributing country to the African Union 
Mission in Somalia (AMISOM), and the al-Shabaab terrorist group has 
launched fatal attacks against Djiboutian forces in Somalia. If 
confirmed, Mr. Chairman, I will continue to build our bilateral 
relationship and contribute to efforts with Djibouti and other partners 
to promote a stable and peaceful Somalia.
    Djibouti hosts the only U.S. military forward operating site in 
sub-Saharan Africa. This is Camp Lemonnier, the headquarters for the 
Combined Joint Task Force-Horn of Africa (CJTF-HOA), where more than 
4,000 U.S. military and contracted personnel are stationed. If 
confirmed, I will continue to expand coordination and cooperation 
between Embassy personnel and Camp Lemonnier and its tenant U.S. 
military commands, including the CJTF-HOA contingent. If confirmed, I 
will also ensure that CJTF-HOA programming in Djibouti fits within the 
framework of U.S. Government priorities to advance our key interests.
    On the economic front, Mr. Chairman, Djibouti's Government has 
privatized the country's excellent deep-water port and airport, 
reducing corruption and increasing revenue flows. Making Djibouti an 
attractive place for investment is essential for its economic 
development. Djibouti remains very poor, ranked 165th out of 187 
countries on the UNDP Human Development Index. Less than 5 percent of 
its land is arable. The small USAID mission in Djibouti currently 
focuses on health and education but we are expanding and deepening our 
focus areas following the President's May 5 meetings. Mr. Chairman, to 
help grow Djibouti's economy, the United States has recently pledged to 
increase technical and financial assistance to the Djiboutian people 
and to further invest in Djibouti's development. Additionally, the 
United States responds to food insecurity through support for the 
Famine Early Warning Network office in Djibouti, as well as through 
U.S.-funded Food for Peace programs. If confirmed, I will see that 
these programs remain a priority.
    Mr. Chairman, if confirmed, I am also committed to working with 
Djibouti to strengthen democratic governance. Disputes over the 2013 
legislative elections fueled months of protests, and the government 
arrested hundreds of opposition supporters. If confirmed, I will 
underscore the importance of democracy and governance reforms, 
including greater space for media, opposition, and civil society 
groups.
    Finally, Mr. Chairman, if confirmed, my highest priority will be 
the protection of Americans and U.S. interests, including mission 
personnel, living and traveling in Djibouti.
    Mr. Chairman, I believe my prior experience in the Foreign Service 
has prepared me to serve as Ambassador to Djibouti. If confirmed by the 
Senate, I look forward to working closely with you and other members of 
the committee, and would hope to welcome you during my tenure.
    Mr. Chairman, Ranking Member Risch, and members of the committee, 
thank you again for the honor to appear before the committee today. I 
would be happy to take any questions you may have.

    Senator Kaine. Thanks very much, Mr. Kelly.
    Ms. Butts.

 STATEMENT OF CASSANDRA Q. BUTTS, OF THE DISTRICT OF COLUMBIA, 
 NOMINATED TO BE AMBASSADOR TO THE COMMONWEALTH OF THE BAHAMAS

    Ms. Butts. Mr. Chairman, members of the committee, I thank 
you for the opportunity to appear before you today as President 
Obama's nominee to be the next Ambassador to the Commonwealth 
of The Bahamas. I am profoundly grateful for the honor that the 
President has bestowed upon me and for the confidence shown in 
me by Secretary Kerry as I look to take up this assignment if 
confirmed.
    Please allow me to introduce my family members who are here 
today. I am joined by my mother, Mae Karim; my aunt, Barbara 
Jordan; and my brother-in-law, Frank Abbott. My family's been a 
wellspring of support for me. I am here today because of their 
love and support and because of their dedication and because of 
their belief in me.
    I believe my experience as a lawyer and a policy adviser 
and my service to my country in the executive and legislative 
branches have well prepared me for the duties of Ambassador to 
the Commonwealth of The Bahamas. Having worked on some of the 
major legal and policy issues of our time, including my most 
recent experience in international development at the 
Millennium Challenge Corporation, I have always sought 
solutions consistent with the values of our great Nation. I 
understand that leading with our values is the basis for 
finding lasting policy solutions and building strong 
partnerships at home and abroad.
    If the Senate were to confirm me, I would bring these 
experiences, grounded in my strong belief in equality, justice, 
and compassion, to the post of Ambassador to the Commonwealth 
of Bahamas. Through close political, economic, and cultural 
ties, the United States and The Bahamas have forged a strong 
bilateral relationship that has served both countries well. 
Bahamians regularly travel to the United States to visit 
friends and family and to conduct business, and approximately 6 
million U.S. citizens travel to The Bahamas annually.
    The proximity of The Bahamas to the United States 
inextricably links our countries' national security. Together 
we are confronting shared challenges, such as illicit 
trafficking, including in narcotics, arms, and people.
    If confirmed, my first and foremost priority will be to 
ensure the safety and security of U.S. citizens living in or 
visiting The Bahamas, as well as the Turks and Caicos Islands, 
which are included under Embassy Nassau's consular oversight.
    If confirmed, I will work closely with local authorities 
and U.S. law enforcement officials under chief of mission 
authority to lower crime rates and other illegal activities. 
Other priorities will include promoting greater economic ties 
and growth, including exploring ways to support the development 
and enforcement of stable, transparent regulations.
    We also want to encourage countries like The Bahamas to 
adopt cleaner technologies and build strong and resilient 
energy markets. These steps are important not only to provide a 
more secure and sustainable clean energy future, but also to 
further economic growth and limit the effects of greenhouse gas 
emissions. I will also seek to further gender equality and 
expand opportunities for disenfranchised youth.
    Expanding educational exchanges is one way, is one of the 
best ways to deepen the already existing cultural and 
historical ties between the United States and The Bahamas. At 
present approximately 1,600 students from The Bahamas study in 
the United States, and more than 750 students from the United 
States study in The Bahamas. If confirmed, I will seek to 
increase levels of educational exchange between our two 
countries, including through enhancing existing partnerships 
and building new ones.
    While geography and history have forged strong bonds 
between our countries, The Bahamas also maintains close 
relationships with many other countries. We do not see foreign 
economic and commercial links to The Bahamas as a threat to the 
U.S. interests. We believe that beneficial and sustainable 
international trade and investment must be carried out in 
adherence to international standards of transparency and good 
governance, while respecting local environmental standards and 
regulations.
    We should continue to focus our interests on the greater 
good of regional stability. The United States has not had an 
ambassador in Nassau for nearly 2\1/2\ years, but we have a 
strong U.S. Embassy staff in The Bahamas continuing the 
important work of the mission. If confirmed, I will work to 
further their good work and strengthen our already close and 
productive bilateral relationship.
    In closing, I am confident that I have the experience, the 
imagination, and the energy to lead our bilateral relationship 
with the people and the Government of The Bahamas. While at the 
Millennium Challenge Corporation, I have seen firsthand the 
important work carried out by our ambassadors and their teams 
as they engage and advocate for U.S. goals and objectives. If 
confirmed, I pledge to uphold the tradition and high standard 
of public service that ambassadors are expected to uphold.
    I look forward to the opportunity to continue to serve my 
country.
    Again, thank you, Mr. Chairman, members of the committee 
and I look forward to answering your questions.
    [The prepared statement of Ms. Butts follows:]

                Prepared Statement by Cassandra Q. Butts

    Mr. Chairman, Mr. Ranking Member, and members of the committee, 
thank you for the opportunity to appear before you today as President 
Obama's nominee to be the next Ambassador to the Commonwealth of The 
Bahamas. I am profoundly grateful for the honor that the President has 
bestowed upon me and for the confidence shown in me by Secretary Kerry 
as I look to take up this assignment, if confirmed.
    Please allow me to introduce the members of my family who are here 
today: my mother, Mae A. Karim; my aunt, Barbara Jordan; my brother-in-
law, Frank Abbott, and my nephews, Alston and Ethan Abbott. 
Unfortunately, my sister, Deidra Abbott, could not join us today 
because of a work-related commitment. My family has been a wellspring 
of support. I am here today because of their love and support and 
because of their dedication and belief in me.
    I believe my experience as a lawyer and policy advisor and my 
service to my country in the executive and legislative branches have 
well prepared me for the duties of Ambassador to the Commonwealth of 
The Bahamas. Having worked on some of the major legal and policy issues 
of our time, including my most recent experience in international 
development at the Millennium Challenge Corporation, I have always 
sought solutions consistent with the values of our great Nation. I 
understand that leading with our values is the basis for finding 
lasting policy solutions and building strong partnerships at home and 
abroad. If the Senate were to confirm me, I would bring these 
experiences, grounded in my strong belief in equality, justice, and 
compassion, to the post of Ambassador to the Commonwealth of The 
Bahamas.
    Through close political, economic, and cultural ties, the United 
States and The Bahamas have forged a strong bilateral relationship that 
has served both countries well. Bahamians regularly travel to the 
United States to visit friends and family and to conduct business. And 
approximately 6 million U.S. citizens travel to The Bahamas annually. 
The proximity of The Bahamas to the United States inextricably links 
our countries' national security. Together, we are confronting shared 
challenges such as illicit trafficking, including in narcotics, arms, 
and people.
    If confirmed, my first and foremost priority will be to ensure the 
safety and security of U.S. citizens living in or visiting The Bahamas, 
as well as the Turks and Caicos Islands, which are included under 
Embassy Nassau's consular oversight. If confirmed, I will work closely 
with local authorities and the U.S. law enforcement officials under 
Chief of Mission authority to lower crime rates and other illegal 
activities. Other priorities would include promoting greater economic 
ties and growth, including exploring ways to support the development 
and enforcement of stable and transparent regulations as well as 
improving the business environment through transparent procurement and 
investment procedures. We also want to encourage countries like The 
Bahamas to adopt cleaner technologies and build strong and resilient 
energy markets. These steps are important not only to provide a more 
secure and sustainable clean energy future, but also to further 
economic growth and limit the effects of greenhouse gas emissions. I 
will also seek to further gender equality and expand opportunities for 
disenfranchised youth.
    Expanding educational exchanges is one of the best ways to deepen 
the already existing cultural and historical ties between the United 
States and The Bahamas. At present, approximately 1,600 students from 
The Bahamas study in the United States, and more than 750 students from 
the United States study in The Bahamas. If confirmed, I will seek to 
increase levels of educational exchange between our two countries, 
including through enhancing existing partnerships and the building of 
new ones.
    While geography and history have forged strong bonds between our 
countries, The Bahamas also maintains close relations with many other 
nations. Historically, foreign investment in the Bahamian banking 
sector has been mainly by Europeans and Canadians. The key tourism and 
hospitality sectors have seen increases in American, European, and, 
more recently, Asian investment as the world economy continues to 
rebound. We do not see foreign economic and commercial links to The 
Bahamas as a threat to U.S. interests. We believe that beneficial and 
sustainable international trade and investment must be carried out in 
adherence to international standards of transparency and good 
governance, while respecting local environmental and labor regulations. 
We should continue to focus our interests on the greater good of 
regional stability.
    The United States has not had an ambassador in Nassau for nearly 
2\1/2\ years, but we have had a strong U.S. Embassy staff in the 
Bahamas continuing the important work of the mission. If confirmed, I 
will work to further their good work and strengthen our already close 
and productive bilateral relationship.
    In closing, I am confident that I have the experience, imagination, 
and energy to lead our bilateral relationship with the people and the 
Government of The Bahamas. While at the Millennium Challenge 
Corporation, I have seen firsthand the important work carried out by 
our ambassadors and their teams as they engage and advocate for U.S. 
goals and objectives. If confirmed, I pledge to uphold the tradition 
and high standard of public service that ambassadors are expected to 
uphold. I look forward to the opportunity to continue to serve my 
country.
    Mr. Chairman, Mr. Ranking Member, and members of the committee, 
thank you for the opportunity to appear before you today. I welcome 
your questions.

    Senator Kaine. Thank you all for your opening statements.
    Senator Risch has declined to do an opening statement. He 
is just going to make his questions particularly hard. 
[Laughter.]
    Senator Kaine. We will have 6-minute rounds of questions.
    Senator Risch. The first one is for you, Mr. Chairman. 
[Laughter.]
    Senator Kaine. We will have 6-minute rounds of questions. 
If we do not get to you in round one, do not worry; I am 
planning on coming back and making sure, because I have a 
number of questions for all of you.
    But I will just begin with Ms. Alexander. USAID, in my 
travels as a member of this subcommittee I have really been 
impressed with the work of USAID in Jordan, with the work that 
USAID is doing in--I was recently in the West Bank and 
interacted with some of the Palestinian businesses that have 
been working together with USAID, and also was aware of USAID's 
good work being done in Egypt, but was not able to personally 
visit that work.
    So this is very important work that is going on. USAID--in 
Egypt we were not able to visit because of security concerns. I 
just wonder if you would sort of offer some thoughts there. We 
are wrestling with complex issues here with regard to Egypt, 
levels of support, et cetera. Egypt has a significant 
counterterrorism threat that is a very real one that we need to 
provide help with. At the same time, there has been a tendency 
of concern to many of us to label opponents terrorists when 
they are really just opponents in the sense that you would 
expect there to be different points of view.
    What can USAID do in the sort of democracy-building area 
that would be appropriate in Egypt, to just use that as an 
example for other nations in the region?
    Ms. Alexander. Sure. Thank you, Senator Kaine. I think 
USAID's programs have always been broadly designed to address 
the needs of the citizens and the governments as they support 
their own citizens' needs. In Egypt in particular, it is a 
difficult situation. In many of these countries it is very 
fluid throughout the Middle East, and we are looking to 
reorient our programs in places where we can not work with the 
governments directly on infrastructure or building capacity. We 
have started looking more closely at economic growth, the 
opportunities of the private sector.
    In a lot of these situations we have had the opportunity to 
look at sectors such as--you mentioned the technology sector, 
but agriculture and tourism, as a real area for job employment 
and job growth. The linkage between economic growth and 
democracy and governance can not be lost. It is very 
difficult--and I have seen this through the transitions in 
Eastern Europe. It is very difficult to have democracy and 
governance take hold and make these transitions work if you 
have an economy that is tanking.
    So in every way possible, AID looks to orient its program 
to make sure we are addressing the needs of the people and 
being sure to bring these countries through the transition in a 
way that the economic growth and the democracy rights and 
governance are synergistic.
    Senator Kaine. A bright spot, I think it could be a bright 
spot, and one for us to pay some close attention to is Tunisia 
in the aftermath of constitutional reforms. If you could talk a 
little bit about USAID activity currently in Tunisia and what 
are some things that we can do to hopefully encourage a 
continued--the success of these recent constitutional reforms, 
the creation of a government that respects religious 
minorities, respects the rights of women, but within the Muslim 
cultural context of that country?
    Ms. Alexander. Sure. Tunisia is a bright spot for us. The 
interagency has actually quite a good division of labor between 
what the State Department programs are working on and what AID 
is working on. As we move forward in Tunisia, we have the 
Enterprise Fund and activities that we will plan to be doing 
through them, again to invest in the economy, and also to be 
looking at the democracy and governance work, both with gender 
equality programs and the dialogues that need to happen within 
Tunisia to make sure that this transition holds.
    We really--a lot of our work right now at AID is focused on 
the global development alliances that we have in Tunisia with 
HP, with UNIDO, and with the Italians on the multilateral side, 
because I think that this is a world issue. People are looking 
at these countries and recognizing that together we can be 
helpful, but we have to make sure that we are listening to the 
people of Tunisia and we are doing what they request.
    Senator Kaine. One other question that I think is a 
complicating fact and I am wondering how USAID would approach 
it is, in my visit to Israel and to the West Bank the USAID 
work with Palestinian entrepreneurs on the West Bank was very, 
very notable, and USAID has a great reputation for that work. 
The recent announcement that West Bank PLO authorities are 
working to find a unification with Hamas in Gaza is problematic 
because USAID and we do not have working relationships with 
Hamas because of its status as a terrorist organization.
    How would you at USAID intend to carry on the ongoing work 
that has been positive in the West Bank under this scenario and 
what would your approach be to these unification issues?
    Ms. Alexander. USAID has a two-track approach in West Bank-
Gaza. One is the budget support that we are working with the 
Palestinian authorities on and the other is the project 
activities that we are doing, and that includes institution 
building. So to the extent that those programs continue, we 
have high-impact, microinfrastructure programs that have begun, 
and this is part of the peace process and the need to make sure 
that these negotiations continue, because at the end of the day 
that really is going to be the solution, a two-state solution.
    As far as the announcement on the unity government, I think 
we have seen this before and we are going to watch carefully 
and see what ends up happening at the end of the day. We will 
adjust our programs as necessary, but we need to see how this 
plays out, because at this point it is not set in stone.
    Senator Kaine. Thank you, Ms. Alexander. I will say the 
Foreign Relations Committee recently had an opportunity to meet 
with Foreign Minister Liberman of Israel to talk about these 
very issues. While expressing a lot of challenges and 
skepticism about current developments, when we explored the 
reality of the need for these peace negotiations he stated very 
plainly that there really is not a solution other than a two-
state solution. How we get there and the timing and the 
circumstances is going to be very, very difficult. But, much as 
you indicated in your answer, he was very, very plain about 
that.
    Senator Risch.
    Senator Risch. Thank you, Mr. Chairman.
    Ms. Alexander, Americans are the most caring, 
compassionate, humanitarian people on the face of this planet. 
You will lead the agency that is really the flagship agency of 
that caring relationship that Americans have with other human 
beings on this planet. I am always amazed at what USAID does.
    I think the challenge for you is to convince Americans that 
they are doing this and that they are doing a good job doing 
this and that they are doing a good job doing this, and that we 
should feel good about what we are doing in that regard. What 
USAID does I find to be under the radar as far as Americans are 
concerned, and yet around the world USAID is regarded so highly 
because of the humanitarian work that they do. So we wish you 
well and have every confidence you will do a good job.
    Ms. Wells, your challenge is a little different. You are 
going to one of the countries that is certainly one of our 
friends in the Middle East. The King comes here regularly and 
meets with us. We have such a good friend in the King. Indeed, 
if everyone had, every country in the Middle East, had a leader 
like King Abdullah, the Middle East would have an entirely 
different complexion than it does today.
    I have every confidence that you will carry America's 
feelings in that regard. I would just say that it has been 
printed and, although we cannot talk completely about it in an 
open setting, but it has been printed at least in the media 
that there is considerable Jordanian cooperation going on with 
Israel regarding counterterrorism work. I would hope that you 
would encourage the two agencies to continue that work. 
Certainly Jordan needs that with the challenges they have and 
the kind of immigration that they have had.
    So with that, I would kind of like to hear your thoughts as 
far as the relationship with Jordan and Israel?
    Ms. Wells. Thank you, Senator. Jordan continues to be a 
leader on the Middle East peace process, both by being only the 
second Arab state to sign a peace treaty with Israel, but also 
by King Abdullah's public and frequent exhortations for the 
region and for the process to move forward. He describes peace 
as a basic right and a practical need, and he himself has 
championed the Arab peace initiative as well as worked very 
closely with Secretary Kerry over the last year in terms of the 
framework negotiations.
    I think what is important about Jordan, irreplaceable 
really, is how it leads by example, as you mentioned. The fact 
that Jordanian officials sit down pragmatically with Israeli 
counterparts to discuss the holy sites in Jerusalem, water, 
environment, trade, security, the fact that security officials 
have appropriate relationships with one another, is all 
extremely important.
    As we look ahead, we see new institutional relationships 
forming, including over energy security and how Israel and 
Jordan may be able to cooperate in the future on less expensive 
Mediterranean gas. We see very practical cooperation by King 
Abdullah in building Palestinian institutions, including the 
training of 5,600 Palestinian Presidential guards and national 
security officials.
    So I think that, even though sometimes among the Jordanian 
public support can be tepid for the peace treaty, the kind of 
leadership we see from King Abdullah is really what we need to 
see more of in the region. Certainly if I were confirmed I 
would work to encourage that level of practical daily 
cooperation.
    Senator Risch. Well said. I think that probably that is one 
of the--again, something that is not stressed enough, and that 
is what a success story it is, the relationship between Jordan 
and Israel, and the fact that Jordan leads by example. I think 
it makes it a lot easier for other Arab countries to deal with 
Israel when they see how well this relationship has worked 
between Jordan and Israel.
    So I am sure that as you work with them you will carry our 
message that this is a really, really good thing and we want to 
see it continue. I know the King has expressed to us over and 
over again that he wants that relationship with Israel and 
would like to see all his Arab brothers have the same kind of a 
relationship with Israel.
    So thank you very much and thank all of you for your 
service to the United States.
    Senator Kaine. Senator Rubio.
    Senator Rubio. Thank you.
    Thank you all for coming here. Congratulations to you and 
your family, and thank you for your offer to serve the country. 
For those that are already serving, thank you for that.
    My first question is for you, Ms. Alexander. I wanted to 
ask you a little bit about the recent announcement of a unity 
government by the Palestinian Authority. Is it your position 
that this new government as announced as you understand it 
complies with or satisfies U.S. conditions on aid to the PA?
    Ms. Alexander. For starters, thank you, Senator Rubio. 
Hamas is a terrorist organization and we cannot work with 
Hamas. As far as the discussion about the unity government, at 
this point we are waiting to see what ends up forming. We have 
seen this before and we really have to wait and see how the 
process works at this point.
    Senator Rubio. So obviously then we are waiting to see what 
it looks like. But is it safe to say in your opinion that Hamas 
has not adequately recognized the Jewish State of Israel's 
right to exist and has not adequately accepted all provisions--
or all previous Israeli-Palestinian agreements?
    Ms. Alexander. Yes, Hamas as currently configured has not.
    Senator Rubio. Can you confirm in your consultations with 
the agency that you are about to head that there will be an 
immediate cutoff of relevant U.S. assistance unless there is a 
full compliance with the letter and the spirit of all the 
provisions in the Palestinian Anti-Terrorism Act?
    Ms. Alexander. I can speak only to what I know at this 
point, which is the law. And as the law stands we would not be 
able to apply assistance to that government.
    Senator Rubio. Thank you.
    Ms. Wells, let me ask you about Jordan for a moment. I 
think you have touched upon it in your statement, but I wanted 
to talk briefly about the reform efforts that are occurring 
within Jordan. Obviously, there is a situation where on the one 
hand there is the need, I think as recognized by the 
government, to create more political opening, more space, for 
all voices to be heard within Jordanian political society. On 
the other hand, there is the need to provide stability.
    We have seen what has happened around the world when these 
changes are not adequately managed during a pace that is 
sustainable. In fact, it creates a space for tremendous 
instability.
    How would you assess the pace and the status of those 
reform efforts as being undertaken in Jordan today by the 
kingdom?
    Ms. Wells. Thank you. Since King Abdullah came to power in 
1999, he has launched a variety of political and economic 
initiatives. He would be the first to say he was not satisfied 
with the progress he had been able to achieve. I think what we 
have seen recently is how the confluence of events have made 
difficult choices much more possible. The fact that you had the 
Arab Spring, you had the cutoff of the inexpensive Egyptian 
gas, and you have the Syrian crisis next door reinforces the 
imperative for getting ahead of public demands for change, as 
well as being able to respond to what was an unbearable 
economic pressure being placed on the government.
    So I think we see in three broad areas substantial and 
noteworthy efforts at reform. On the political side, the King 
has relaunched a public dialogue on reform. He has led an 
effort to amend one-third of the constitution. He has created a 
constitutional court, an Independent Electoral Commission, he 
has held successful parliamentary elections in January 2013 
which outside observers deemed as credible. He has also taken 
steps to shrink the jurisdiction of the state security courts, 
and we welcome those initiatives.
    On the economic side, we see the same kind of forward-
leaning approach. His negotiation of a standby arrangement with 
the IMF allows Jordan to establish a glide path for removing 
subsidies that are simply unsustainable. He has eliminated fuel 
subsidies in 2012 and the electricity company by 2017 will be 
in a position to have full cost recovery. This is essential 
when electricity deficits were eating up 6 percent of GDP.
    So we are trying to support that. We are working with other 
donors to support that. It is a critical step and Jordan would 
be a leader in the region if it achieves those two reforms.
    Then just the final element is energy diversification. This 
is--when they lost the inexpensive Egyptian natural gas after 
20 attacks on the pipeline, their energy costs went up to 21 
percent of GDP, again unsustainable. So we have worked with 
Jordan and Jordan has been very forward-leaning in seeking to 
find less expensive fuels, including through the American 
company that works with Israel, establishing an LNG terminal, 
working to expand the mix of solar and wind.
    So I think right now as friends of Jordan we need to 
encourage that approach.
    Senator Rubio. Just one more point I wanted to raise. When 
we have had this debate here about what to do in Syria, some 
ask why should we even care about it. One of the arguments I 
have made, of course, is that our relationship and the 
cooperation that we get from the King and the Jordanian 
Government are extraordinary. It is a very important 
relationship in the region. It is one of the cornerstones of 
our Middle Eastern policy.
    You would agree, I think you have already in your statement 
here today, that the events going on in Syria pose a direct 
threat to the kingdom, to their ability to continue to be of 
assistance to us, given the potential that that has to spill 
over into their own territory if not managed appropriately. So 
would you agree that as we view the Syrian conflict we should 
view it partially through the context of what it would mean to 
our allies in Jordan?
    Ms. Wells. I agree entirely, Senator. I think from Jordan's 
perspective Syria is an existential threat. So if you look at 
our strategy in responding to the crisis, we have moved very 
aggressively both to provide the humanitarian assistance and 
economic aid that Jordan needs to weather this and weather the 
influx of refugees.
    At the same time, we have a very aggressive program of mil-
mil cooperation, bolstering Jordan's border security, 
increasing our own bilateral and multilateral training, trying 
to build the capacity, including through the targeting of 
foreign fighters, so a broad-based approach to address both the 
security element as well as the economic element.
    Senator Rubio. Mr. Chairman, I know I am out of time. Can I 
ask one brief question on The Bahamas?
    Senator Kaine. Yes.
    Senator Rubio. Ms. Butts, thanks for being here. 
Congratulations. I wish you the best on your assignment. It is 
a part of the country that is very--a part of the world that is 
very close to my part of the country in Florida.
    I did want to ask you, however. There have been reports, 
and I have seen the videos of some of this, of how Cuban 
refugees have been forcefully repatriated back to Cuba by the 
Bahamian Government. We have reached out to their government. 
They dispute some of those assertions. Nonetheless, we remain 
very concerned about it.
    I would just want to encourage you to work with the 
Bahamian authorities to ensure that not just Cuban refugees, as 
well as other refugees, including Haitian refugees and others, 
are treated appropriately and humanely if in fact they wind up 
on Bahamian territory. I think it is something that if people 
saw some of the images that have been put out there of how some 
of them have been treated by these authorities, they would be 
very concerned.
    Again, we understand the realities of addressing something 
like this, the costs associated with it. But I would hope that 
you would use your office and our Embassy to speak out in favor 
of any vulnerable peoples that may find themselves on their 
territory. I would encourage you to use your position there to 
be an advocate for that.
    Ms. Butts. Thank you, Senator Rubio. I appreciate that 
encouragement. It is certainly something that is very important 
to me. It is one of the policy issues that was most attractive 
about the role in The Bahamas. I have worked on migration 
issues before. Actually, I worked on migration issues on the 
Hill both on the Senate side and on the House side.
    I have not seen the images. I have certainly heard about 
some of the allegations with regard to how Cuban refugees have 
been treated, migrants have been treated in The Bahamas. As I 
understand it, our State Department has had a number of 
conversations with the Bahamians. It will be one of my 
priorities to ensure that all migrants are treated humanely, 
and I am happy to, if I am confirmed, to have a chance to come 
back to you, Senator, and to your staff and keep you up to date 
on the issues.
    Again, it is an issue of great importance to me too. Thank 
you.
    Senator Rubio. Let me just close by saying to all the 
nominees that I have not been here very long, about 3\1/2\ 
years, but in my short time I have learned that when the 
committee is not fully manned here with all the members it is 
usually a good sign for your nominations. So I wish you all the 
best.
    Senator Kaine. Thank you both.
    A question about embassy security that I really want to 
address both to Ms. Wells and Mr. Kelly. One of my first 
hearings as a member of the committee was a hearing to examine 
the Accountability Review Board recommendations in the 
aftermath of the analysis post-Benghazi. Those recommendations 
are significant and numerous, but I think all who were 
reviewing the recommendations find the ones that they kind of 
most lock on, and the ones that I really locked onto were sort 
of the embassy security challenges.
    In the time since then, we have augmented the Marine 
security guard training program at Quantico to expand the 
Marine presence at a number of high-threat embassies. The State 
Department has recently announced moving forward with a FASTC, 
Foreign Assistance State Training Center, that is a long-
desired effort to augment security training for embassy 
personnel. There are other issues concerning the hiring of the 
in-country security firms or individuals to assist.
    These are issues that I am really passionate about. I just 
wonder, for both, especially Ms. Wells and Mr. Kelly, if you 
could talk a little about how you intend to tackle the 
challenge of keeping your folks safe and secure as you take on 
posts in a neighborhood of the world that can be pretty 
challenging?
    Mr. Kelly. Thank you very much for your question, Senator 
Kaine. There is no more important issue for a chief of mission 
than taking care of your people. It is something that I have 
lived personally in my own career. My first assignment was in 
El Salvador during the civil war. We lost many embassy 
colleagues during my tour there, the years before and after.
    In my second tour, in Chile, I survived a terrorist attack 
against a embassy-related softball team, where a terrorist 
group put a bomb in a softball bat and killed one of my 
teammates and injured some of my embassy colleagues.
    So this is an issue that the Foreign Service has been 
dealing with for many, many years. So it is something that I am 
going to be very focused on as the chief of mission. Now, we 
have perhaps an advantageous situation in Djibouti because 2 
miles from the Embassy we have more than 4,000 U.S. military 
personnel and contractors. So I think that our security is in 
pretty good shape. We have a very robust presence by diplomatic 
security agents in the Embassy. We also have an almost brand 
new Embassy compound, which really provides state of the art 
security conditions for our personnel.
    But I think the most important thing that a chief of 
mission can do is inculcate a culture of security throughout 
the mission, and that is something that will be important to me 
every day.
    Just another point about the environment that we are 
operating in now. Another very important aspect of our 
bilateral relationship with Djibouti is, because our Djiboutian 
partners provide us with a platform to have a forward military 
location in Djibouti, that gives us access to a lot of 
neighboring countries that are potentially more vulnerable than 
we are. Our forces operating out of Djibouti were already 
fairly recently able to go into Juba in South Sudan to provide 
much-needed security reinforcement to our mission there, and 
that enabled our mission to stay open.
    So it is an issue that is very important and it is 
something that will be on my mind every single day.
    Senator Kaine. Thank you, Mr. Kelly.
    Ms. Wells.
    Ms. Wells. Like Tom, I have also experienced the 
instability that can take place, whether it was in Tajikistan 
being evacuated or from Pakistan or the political tensions 
escalating between India and Pakistan and the effect it has on 
Foreign Service families and the broader American community. 
Security would be my number one concern in Amman. It is a 
family posting. There are 760 official Americans and their 
family members under chief of mission authority. Given the 
history of events, the assassination of our USAID officer back 
in 2002, attacks on hotels in Jordan in 2005, and just the 
general events in the region, it is impossible to take security 
for granted.
    One of the very first things I would do at post would be to 
walk the wire with the regional security officer to understand 
what our strengths and weaknesses are, to go outside the 
embassy to look at schools and our housing complexes, to have a 
sense of how the unofficial American community, which numbers 
40,000, what challenges they face.
    Thankfully, we have a very capable partner with the 
Jordanians, who provide excellent security support to us. The 
Embassy is well staffed to oversee our security programs. But 
this has to be a preoccupation in this day and age.
    Senator Kaine. Thank you.
    Ms. Butts, a question about one of the major areas of 
cooperation between the United States and The Bahamas is in the 
antidrug effort. I know that The Bahamas has been a good 
partner. There is a regional initiative including The Bahamas 
and the Turks and Caicos, that they have been significant 
players in.
    We recently in Armed Services had testimony by General 
Kelly, the head of SOUTHCOM, who basically was talking about 
the effect of sequester on drug interdiction efforts by our 
Nation. He said: ``I watch about 75 percent of drugs coming 
into the United States just go by because I do not have the 
resources that I would need to stop them.'' And he estimated 
that if he did he would make a huge reduction in the amount of 
drugs that come into the United States.
    Talk a bit--we have to resolve these budgetary issues, but 
what are some opportunities as you look ahead for the United 
States and The Bahamas to be even better partners on this 
significant challenge that we face?
    Ms. Butts. Thank you for your question, Senator Kaine. 
Certainly the focus of counternarcotics is a large focus of the 
bilateral relationship with The Bahamas. As you mentioned, 
Senator, we have the Operation Bahamas, Turks and Caicos, which 
the acronym is ``OPBAT,'' which has been going on since 1982. 
It is a partnership effort with The Bahamas which focuses on 
gathering intelligence, which focuses on cooperating in 
investigations, but also focuses on executing interdictions.
    We have seen success since 1982 and we are continuing to 
see success. Actually, just this past year we have seen an 
increase, a significant increase actually, in the drugs that we 
have been able to seize through that operation.
    In addition to that, under the Obama administration we 
actually now have the Caribbean Basin Security Initiative that 
actually started in 2010. Over the 4-year period we have 
invested $263 million. What is interesting about CBSI, Senator, 
is that actually it is a regionwide initiative. Where OPBAT is 
focused on The Bahamas, Turks and Caicos, and the United 
States, CBSI is focused on the entire Caribbean. One of the 
things that the President wanted to do was to show that you 
have to have a regionwide focus if we are going to be 
successful.
    So I would say to you, Senator, in addition to the very 
important joint efforts that we are doing through OPBAT, that 
we have got to look at the region as a whole in ensuring that 
we are doing the right level of cooperation, that we are doing 
the right level of coordination. I think that the President has 
started that out with the Caribbean Basin Security Initiative, 
and I hope that we are able to continue that.
    Actually, one of the advantages that The Bahamas has in the 
region is that The Bahamas--we have the Southern Command, 
obviously, Senator, but The Bahamas is actually organized 
through the Northern Command. So we have the Northern Command 
resources, just talking about resources that we can bring to 
bear to the effort. So we have the Northern Command resources, 
but we are the beneficiaries of the efforts going on through 
the Southern Command.
    Certainly there is a recognition that we never have as much 
in terms of resources that we want. But with some of the 
rethinking and reallocation of resources as a result of pulling 
out of Iraq and winding down in Afghanistan, with actually hope 
that there will be some additional resources that might be able 
to come the way of The Bahamas and of the Caribbean so that we 
can continue what has been a very strong effort on 
counternarcotics and counterterrorism efforts.
    Senator Kaine. That is one other concern that I know many 
have, is whether offshore banks in The Bahamas are at all being 
utilized by criminal networks, whether those are networks that 
are primarily focused on narcotic activity or other criminal 
activity. What is the current status of any activity or 
cooperation between the United States and The Bahamas to try to 
specify the existence of that problem and hopefully deal with 
it?
    Ms. Wells. There has been a good deal of cooperation, 
Senator, over the years. Certainly The Bahamians understand the 
importance of ensuring that their financial services 
institutions are not being used in ways that are illicit. They 
have put regulations and reforms in place to address that. So 
we have some confidence moving forward now and moving forward 
that the financial services--that the industry in The Bahamas 
is not trafficking in finances from illegal activities. So we 
have confidence they have done a very good job. We work jointly 
with them in ensuring to provide the support that they need so 
that they can get their system in place.
    So I think we feel confident. There could always be more 
done and as the chief of mission in Nassau I certainly want to 
work and coordinate with the Bahamians to ensure that they can 
continue to do the good work that they are doing.
    Senator Kaine. Great. Thank you.
    Mr. Kelly, one of the things that is interesting, I find 
interesting, about Djibouti is the degree of foreign military 
presence. The United States only sort of permanent enduring 
military facility in southern Africa, and in addition there is 
a Japanese military presence and a French military presence and 
also the international antipiracy efforts focusing on the Gulf 
of Aden are headquartered in Djibouti.
    Given your immediate past billet at the State Department, 
you would seem to be just exactly the right person to help 
manage that. I know those are primarily mil-to-mil 
relationships, but talk a little bit about the relationship 
that you would have as Ambassador in not only interacting with 
the AFRICOM Joint Command, Horn of Africa Joint Command, but 
also with the other U.S. allies that have military presence in 
Djibouti?
    Mr. Kelly. Thank you very much for your question, Mr. 
Chairman. What I have been doing the last 3 years at the 
Political-Military Bureau is working every day to try to make 
sure that State Department and Department of Defense are 
working around the world in sync. We have taken a lot of steps 
to try to work more efficiently in that regard, including 
embedding each other's personnel in the other's agency. We now 
have more than 90 Foreign Service officers working in different 
military commands and we have doubled the number of uniformed 
officers over the last couple of years who are working at the 
State Department.
    We have that kind of model that is already functioning in 
Djibouti. At the CJTF-HOA there is a Senior Foreign Service 
officer who works as the adviser to the base commander, and 
then there is also a military liaison officer who works at the 
Embassy.
    It would be my responsibility as chief of mission to make 
sure that every day we are working together as efficiently as 
possible, to make sure that our coordinated efforts are 
advancing all of the very significant interests that we have in 
Djibouti. As you said, Mr. Senator, we have very considerable 
security interests there. Djibouti provides us with a platform 
that we just do not have anywhere else in the entire continent, 
and it gives us very important strategic access to places like 
Yemen, which is a country that is plagued by the most active 
al-Qaeda affiliate in the world right now, as well as al-Shabab 
in Somalia. So the stakes are indeed very high.
    We will also be coordinating with the other military forces 
that are there, as you mentioned. Camp Lemonnier used to be the 
overseas base for the French Foreign Legion.
    The Foreign Legion is no longer there, but there are still 
2,000 regular French troops who are stationed in Djibouti. They 
are very active. The only Japanese, significant Japanese 
military presence outside of Japan is at Camp Lemonnier as 
well.
    There is presence by several other foreign military forces, 
especially navies that are focused on the counterpiracy mission 
that you described. That is going to be an important part of my 
job as well and I am looking forward to it.
    Thank you.
    Senator Kaine. Talk a little bit--Senator Durbin is 
particularly interested in development issues in Djibouti and I 
wanted to just ask. In the recent meeting between President 
Obama and President Guelleh, talk a little bit about economic 
issues that came up and what you see as some economic 
opportunities for the United States to interact and assist in 
the development of this economy. As you point out, only a small 
percentage of the land is arable land. There are some 
significant challenges there. How can we through USAID or other 
strategies be helpful?
    Mr. Kelly. Thank you very much, Senator. I am a development 
economist by training, so I believe very strongly that our 
strategic partnerships have to be underpinned by partners who 
govern democratically and openly and who are presiding over 
prosperous economies. So I think that it is very important that 
we spend a lot of time making sure that we are bringing all our 
development assistance resources to bear to make sure that 
Djibouti continues to grow.
    Djibouti faces a number of development challenges. Besides 
the fact that they basically have to import all of their food, 
they also face real energy problems. There are blackouts that 
last for much of the day. Half of the country does not even 
have access to electricity. There is a very high rate of 
unemployment, the estimate is about 60 percent of the 
population, and young Djiboutians, 20 to 24, the unemployment 
rate is probably above 80 percent.
    So we need to continue our traditional development focus on 
basic health and primary education, but I think we have to do 
more than that. During the May 5 conversation that the 
President had with the Djiboutian President, we made a 
commitment to move into other areas that are very important for 
Djibouti's development.
    In the first instance, we are going to work actively in 
workforce development to try to help Djiboutian authorities 
develop the skills of the Djiboutian workforce in a way that is 
relevant to the private sector. Then in the energy sector we 
are going to work with other donors, including the World Bank, 
to try to develop Djibouti's considerable geothermal resources 
to provide them with some national source of energy that can 
provide them with a more constant source of power, which in 
turn I think can help them to attract more private investment, 
especially more foreign investment.
    Djibouti has very ambitious development plans. We think 
that they have a good vision, but they are going to need help 
from us and from other donors to get it right, to put in force 
the right regulatory framework. I am looking forward, as 
somebody who has worked on development for many years, to do 
that.
    Senator Kaine. Excellent.
    Ms. Wells, I wanted to ask a similar question about some 
sort of economic issues, and maybe especially given Jordan--the 
degree to which the Syrian refugees really stress an economy 
that already has a lot of stresses. Jordan is one of the most 
water-poor countries in the world. The number of Syrian 
refugees coming into Jordan taxes a system that is already 
very, very challenged.
    I believe that most now see these refugees, not as a short-
term presence, but a longer term presence. So some of the 
strategies that you might use to deal with the refugee 
population that might just be there for a short period of 
time--it now becomes more of a development issue, building 
water systems rather than providing bottled water, just to use 
an example.
    If I am correct about that, that the refugees are not 
likely to be returning to Syria any time soon, what are some 
strategies that we should be looking at in tandem with the 
Jordanian Government to make sure that the number of refugees 
does not overly tax this economy that can be fairly fragile?
    Ms. Wells. Thank you. I think the first is to step back and 
to do as you have, which is to recognize the extraordinary 
burden and the extraordinary generosity that the Jordanians are 
displaying in hosting the Syrian community, 80 to 85 percent of 
whom are living in host communities. The Jordanians have opened 
their schools to Syrian children. They have opened their 
hospitals to Syrian refugees. In the north we are seeing 
schools running double shifts, 80 kids to a class. Hospitals 
are at full capacity and in some instances running out of 
medicine.
    It obviously places a strong burden on the water 
infrastructure, with Jordan being--I think there are only three 
countries in the world that have less accessible water than 
Jordan. So I think the response has to be two-part: one, 
continuing to respond appropriately to the crisis conditions 
that Jordan faces; but two, to be nimble in our response and to 
reprogram and to redeploy assistance as appropriate, which we 
have begun to do, whether it is by using moneys to renovate and 
build new schools, directing more moneys to municipal water 
sources, taking advantage of existing programs, such as the 
Millennium Challenge Corporation's $275 million 5-year project 
to expand water and waste water efficiency, which will touch 
the lives of three million Jordanians.
    So I think in terms of how our aid program is structured 
for Jordan, we are doing the right things. We are really 
focused on the resilience that Jordan needs in water, 
education, sanitation, and health, but to constantly be 
reassessing what is the burden that is being placed on Jordan 
and are we responding appropriately.
    Our tools do not have to be limited just to assistance. We 
have a lot of other economic tools at our disposal. We have 
support for the multilateral programs, like IMF that I have 
mentioned, coordination with the World Bank and other key 
donors to make sure we have a consistent and appropriate 
response. We have a slew of trade mechanisms. Jordan has one of 
the most open economies in the Middle East, and we can use the 
free trade agreement, the qualified industrial zones, our 
bilateral investment treaty, to make sure that we as we build 
the private sector are also encouraging and helping Jordan 
achieve the increased growth that it needs.
    Then I think energy diversification, so keeping Jordan 
focused on its own long-term economic sustainability and 
modernization.
    Mr. Kelly. The Jordanian-American Chamber of Commerce paid 
a visit to us recently here and is very interested in expanding 
their ties with American technology and other firms. That is 
something that I know many of us are interested in working with 
them on.
    The last question I will ask you is about the status of 
political reforms that are under way in Jordan. Jordan has done 
a fairly good job of managing different constituencies that in 
other nations have been harder to manage. The Muslim 
Brotherhood is a sort of loyal opposition to the monarchy in 
Jordan and have been treated as a loyal opposition, not 
marginalized to a degree where they would then seek to engage--
not shut out of legitimate political opportunities so that they 
feel like to be heard they have to carry out illegitimate 
opportunity.
    But talk about sort of ongoing political reform efforts in 
Jordan and how those are affected by other challenges like the 
Syrian refugee challenge?
    Ms. Alexander. As I mentioned in an earlier answer, there 
are a variety of political reform initiatives that King 
Abdullah has taken up in the last 3 years. One of the very 
important reform initiatives is to take steps to increase the 
presence and strength of political parties. Jordan is a tribal 
country, a tribal society, along with a significant Palestinian 
population. But the Parliament has not reflected, has not 
really been based on parties. It has been based on tribal 
leaders and individuals with standing in the community, with 
one of the sole parties that has a coherent ideology being the 
Islamic Action Front.
    So if you look back at Jordan's elections, until the 
Islamic Action Front began to boycott the elections they were 
the single most important party. So some of the reforms that 
have been taken recently have been to give Jordan simply one 
man, two votes. You can place one vote, which people presume 
will go to somebody in your community or a tribal leader, but a 
second vote is for a national list. We see this as a very 
positive development and beginning to encourage the formation 
of other parties.
    I agree with your assessment that King Abdullah has ably 
managed the Jordanian Muslim Brotherhood. They are a 
legitimate, as he puts it, part of the Jordanian social fabric. 
They have been around since the 1940s, recognized by the 
government. They became a political party in 1992. They never 
established a militant wing and they have never called for the 
overthrow of the Hashemite monarchy.
    So to create a culture where there is consensus, where 
there is give and take, where all of these parties participate 
in the elections, I think is a goal. If you look at the 
parliamentary elections that took place in January 2013, they 
were judged by many outside observers as being both credible 
and an improvement on previous elections.
    So again, as friends of Jordan I think we want to continue 
to encourage those kinds of forward-leaning reforms.
    Senator Kaine. You mentioned a comment that I just want to 
underline, which was a comment about the generosity of 
Jordanians, Turks, Lebanon in particular in dealing with Syrian 
refugees. The scope of it is just staggering. I know the 
figures best probably in Lebanon because of my recent visit 
there, but the number of Syrian refugees in Lebanon is now the 
equivalent of one out of four Lebanon native population. And 
they have arrived within a space of about three years.
    So if you were to think in the United States, if we 
suddenly had 75 million war refugees show up over a 3-year 
period, you got to look yourself in the mirror and say, would 
we be as generous? I bring that point up because sometimes we 
think of this region as a region of troubles and strife and 
folks doing horrible things and a lot of atrocities, and there 
certainly are. We also need to think of it as a region where 
neighbors do some pretty incredible things.
    And the Governments of Turkey and Jordan and Lebanon are 
pretty different. They are all stressed in their own way, some 
resource, some with leadership challenges. And yet in each of 
these nations there has been an extraordinary degree of 
sacrifice really, to run double shifts in schools, to in a 
water-poor nation provide water for refugees.
    Now, the United States is the single largest funder of 
assistance to Syrian refugees who have fled borders to other 
countries, and that is something that we can do and we should 
do and hopefully we can do more. But it is important to shine a 
spotlight on what Jordan and again Lebanon and Turkey 
especially are doing in the midst of this very difficult 
situation. I am glad you brought that up.
    I want to thank you all for this, for the hearing today, 
for your willingness to serve, and your forthright and 
thoughtful answers.
    I will leave the hearing open officially. If any members of 
the committee desire to submit questions in writing, I will 
leave the record open until Thursday at 5 o'clock for those 
questions to be submitted, and if they are I will trust that 
you will respond as promptly as you reasonably can.
    With that, the hearing is adjourned.
    [Whereupon, at 4:42 p.m. the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


                Response of Alice G. Wells to Question 
                  Submitted by Senator Robert Menendez

    Question. The pressures from the Syrian humanitarian crisis on the 
Government of Jordan and many sectors of its society remain enormous. 
On April 3, 2014, the Senate passed S. Res. 384, calling on the 
President to develop and submit to Congress a comprehensive strategy to 
address the Syrian humanitarian crisis. The strategy is to be submitted 
within 90 days of the resolution's passage, or by early July.

  <diamond> If confirmed, what are your objectives for the strategy, 
        and what is the status of the administration's progress in 
        developing and completing it?

    Answer. The U.S. Government's Syria policy is guided by six 
overarching interests--countering violent extremism and preventing the 
growth of terrorist safe havens, avoiding the collapse of the Syrian 
state, preventing the transfer or use of chemical weapons, supporting 
Syria's neighbors, alleviating the humanitarian suffering, and 
fostering a political transition.
    The United States is taking steps to ensure that our humanitarian 
and development efforts across the region complement and reinforce 
those of our partners, neighboring countries, international 
humanitarian organizations, and other donors. Of the roughly $1.7 
billion in humanitarian assistance that the United States is providing 
to respond to the crisis in Syria, more than $268 million is 
distributed through international organizations and nongovernmental 
organizations operating in Jordan (Migration and Refugee Assistance, 
International Disaster Assistance, and Food for Peace (Title II) 
funding).
    Our funding and programs are geared to support both immediate needs 
and longer term programming. To the maximum extent possible, we seek to 
have governments and civil society take ownership of programs with 
continued and robust international support. The United States has been 
supporting the United Nations efforts to develop a Comprehensive 
Regional Strategic Framework (CRSF). The goal of the CRSF, which was 
just released on May 8, is to coordinate humanitarian, development, and 
macrofiscal interventions to meet immediate protection and assistance 
needs; build the resilience of households, communities and systems; 
strengthen host-country leadership; and support regional stability. We 
support the U.N.'s effort to build coherence between traditional 
humanitarian and development responses through the CRSF. Donor 
coordination tools such as the CRSF and the National Resilience Plan/
Host Community Support Platform in Jordan are useful for making the 
best use of limited U.S. Government resources during a time of budget 
constraints and several large-scale crises occurring at one time.
    Jordan has an important role to play in identifying the areas where 
we can best help them, and we will actively seek Jordan's counsel. With 
regard to Jordan, my primary role will be to focus on the interests 
that facilitate its security and assist Jordan in its efforts to help 
alleviate the humanitarian suffering.
    Our policies for the specific objectives of alleviating the 
humanitarian suffering and supporting Jordan's security are well 
developed, and I would seek to build on them. They include continuing 
robust humanitarian and economic assistance for Jordan, furthering the 
Jordan Border Security Project, pursuing and capitalizing on 
opportunities for military training exercises like Eager Lion, 
continuing and developing contingency planning and defensive assets in 
Jordan, increasing cooperation on countering the flow of foreign 
fighters, and, in light of the extraordinary refugee flows into Jordan, 
continuing and expanding our extensive cooperation to provide cross-
border humanitarian assistance and nonlethal assistance.
                                 ______
                                 

                Response of Alice G. Wells to Question 
                    Submitted by Senator Bob Corker

    Question. In FY 2012, Jordan received $20 million in USAID 
sustainable WASH funding, which is nearly 5 percent of USAID's total 
sustainable WASH budget. The 2013 Paul Simon Water for the Poor Act's 
Report to Congress states that in FY 2012 ``more than 1.7 million 
people in Jordan received improved water service through USAID-funded 
construction of pumping stations and water conveyance systems. An 
additional 8,750 plus people now receive improved access to drinking 
water.

  <diamond> Since Jordan has 96 percent access to safe water, can you 
        please describe what specific communities USAID WASH funds 
        currently target?
  <diamond> What populations are represented in the 1.7 million and 
        8,750 figures, and what is the definition of ``improved water 
        service'' versus ``now receive improved access'' used in the 
        annual report to Congress?
  <diamond> What proportion of WASH funds are supporting Syrian 
        refugees and what kind of WASH programs are being directed to 
        assistance Syrian refugees?
  <diamond> If confirmed, what do you believe are the United States 
        Government's priorities for WASH funding in Jordan? And how can 
        these funds be leveraged to bring first time access to safe 
        water and sanitation to poor and vulnerable communities?

    Answer. Jordan has access to safe water because of its piping 
network, but this does not mean that the pipes are always full of 
water. In fact, Jordan's water distribution system is by and large 
discontinuous and rationed. In the northern governorates, water comes 
only once every 2 weeks for a few hours at a time, so households are 
largely dependent on water stored in cisterns and tanks. On average, 
the wastewater network is much less widespread, with approximately 65 
percent of coverage across the country.
    The ``1.7 million population'' refers to those served by the Zaatri 
pump station and the 48 km-long Zatari-Hofa pipeline, which will serve 
the 1.7 million residents of Jordan's four northern governorates, 
Ajloun, Irbid, Mafraq, and Jerash. We are uncertain to what the 
statement ``an additional 8,750-plus people now receive improved access 
to drinking water''; refers to, however, the impact of our projects in 
improving access to drinking water in the north alone would account for 
far broader access to drinking water than that figure: A 20-percent 
immediate increase in access was anticipated at the startup of the 
Zaatri pump station, which would amount to approximately 340,000 people 
receiving improved access to drinking water for this project alone.
    The Department of State, Bureau of Population, Refugees and 
Migration (PRM), manages the U.S. assistance to Syrian refugees in 
Jordanian refugee camps, and USAID directs its assistance to Jordanians 
and Syrians living in Jordanian host communities. It is estimated that 
85 percent of Syrian refugees are living outside of the refugee camps. 
UNHCR and other relief organizations are keeping comprehensive records 
and maps detailing percentages of Syrian refugees residing in host 
communities throughout Jordan, and USAID Mission Amman is currently 
working to develop ways to better quantify the benefits of our water, 
sanitation, and hygiene (WASH) programs for Syrian refugees receiving 
this assistance. Considering that water pipelines and wastewater 
treatment plants benefit all people in Jordan, including Syrians, we 
can conclude that our assistance is benefiting millions of people.
    There are many things Jordan can do to improve water resource 
management. There is a great need for Jordan to continue improving 
water policies, tighten up its water system by reducing leaks and 
theft, and increasing its ability to recover its costs by improved 
billing procedures. Our USAID mission can help by supporting the 
Jordanian utility companies, such as the Yarmouk Water Company, in a 
similar manner that we helped the Aqaba Water Company and will soon be 
engaging Miyahuna, the Water Utility for Amman. The Ministry of Water 
and Irrigation has been asked to increase water tariffs and recover 
more costs as a condition of loan guarantees from the U.S. They also 
need to continue to find ways to decrease water use in the agricultural 
sector and better protect their aquifers, while dealing with the high 
concentration of Syrian refugees living with no access to wastewater 
treatment networks, particularly in the north of the country, where 
wastewater network coverage represents only 35-40 percent of 
households.

 
   NOMINATIONS OF MARK SOBEL, SUNIL SABHARWAL, MATTHEW McGUIRE, AND 
                            MILEYDI GUILARTE

                              ----------                              


                        WEDNESDAY, MAY 14, 2014

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Mark Sobel, of Virginia, to be United States Executive Director 
        of the International Monetary Fund for a term of two 
        years
Sunil Sabharwal, of California, to be United States Alternate 
        Executive Director of the International Monetary Fund 
        for a term of two years
Matthew T. McGuire, of the District of Columbia, to be United 
        States Executive Director of the International Bank for 
        Reconstruction and Development for a term of two years
Mileydi Guilarte, of the District of Columbia, to be United 
        States Alternate Director of the Inter-American 
        Development Bank
                              ----------                              

    The committee met, pursuant to notice, at 10 a.m., in room 
SD-419, Dirksen Senate Office Building, Hon. Robert Menendez 
(chairman of the committee) presiding.
    Present: Senators Menendez, Murphy, Corker, and McCain.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S SENATOR FROM NEW JERSEY

    The Chairman. Good morning. This hearing will come to 
order.
    Today we have four well-qualified nominees for the 
committee's consideration. These nominees, if confirmed, will 
represent the United States in the International Monetary Fund, 
the International Bank for Reconstruction and Development, and 
the Inter-American Development Bank, three essential 
international institutions tasked with international 
macroeconomic stability, poverty alleviation, and economic 
development.
    Every Presidential administration since Harry Truman's has 
valued the work of international financial institutions. Most 
have sought to strengthen them and bolster their capability to 
reduce poverty and increase economic development. President 
Eisenhower said they assist the world's poorest in their 
struggle for ``freedom from grinding poverty.''
    But then, as now, they are also instrumental in keeping 
America prosperous and secure. It is in our clear interest to 
support the global and regional institutions that promote 
global financial stability, sound fiscal policies, open 
markets, good governance, and help alleviate poverty. And, in 
the decades after World War II, they helped keep the peace.
    That said, recent efforts to undermine U.S. participation 
in these institutions in my view is not the answer, and is a 
direct threat to U.S. global leadership of an international 
economic system that we largely built.
    Do they need reform? Yes. As the world economy evolves, so 
must these organizations, and the three international financial 
institutions we will hear about today are all in the process of 
reform. I look forward to hearing our nominees' thoughts on the 
progress being made in reforming these organizations, and what 
each of them intends to do to continue the reform process.
    Our first panel will focus exclusively on the IMF. Six 
weeks ago, this committee approved a Ukrainian bill that 
included important governance and quota reforms that IMF 
members agreed to in 2010 in recognition of the key role the 
IMF played in stabilizing Ukraine's economy, but also because 
we believed it was time for the United States to ratify reforms 
that would reinforce the IMF as the first-responder to 
international financial emergencies.
    At the end of the day, supporting the IMF has not been a 
partisan issue. Presidents Reagan, Clinton, and both Presidents 
Bush backed legislation to increase IMF resources, and 
President Reagan called the IMF ``the linchpin of the 
international financial system.''
    In fact, during our debate on the Ukraine bill, I quoted 
from a letter to House and Senate leadership from members of 
the Bretton Woods committee who argued--and I quote--
``implementing the IMF quota reforms bolsters our leadership in 
the Fund and provides the United States with leverage to 
continue to preserve our national security and economic 
interests abroad.'' So I look forward to hearing from our first 
panel why they believe the IMF as an institution, and the 2010 
reforms in particular are critical to continued U.S. global 
economic leadership.
    We welcome all of our nominees and their family members and 
friends. We also encourage nominees to introduce family members 
so we can also acknowledge them for their support and shared 
sacrifice in this process.
    With that, let me recognize the distinguished ranking 
member, Senator Corker.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Mr. Chairman, thank you for calling the 
hearing and to the two of you for your public service in the 
roles that you now play and hopefully will play in the future.
    I appreciate the opportunity, as you mentioned, to examine 
the roles of these three entities, the IMF, the World Bank, and 
IDB.
    I want to share the chairman's comments and concerns 
regarding the IMF. I too wish that we had been able to pass the 
IMF reforms that actually began--I had a good conversation 
yesterday with Mr. Sobel. But these IMF reforms began early in 
the Bush administration, and somehow things have been 
conflated, if you will, recently and people have forgotten the 
origin of these and have tried to use the fact that these 
reforms are continuing to be pushed by this administration as 
if this is something new.
    But I do think it is very important for us to have the kind 
of reforms put in place at the IMF that have been discussed. 
The IMF continues to be a viable entity. I think that we do a 
very poor job here of explaining to people back home that when 
you have a population of 4.5 percent of the world and yet you 
share in 22 percent of the world's gross domestic product, it 
is very important--more important--to our citizens maybe than 
any other that the world is stable and that we have the 
opportunity to continue to grow economically, and we do a 
really, really bad job of that, I think, on this committee but, 
candidly, in the Senate and as Federal officials in general.
    So I appreciate you being here. I do think there are some 
challenges when you look at the World Bank and just other 
sources of loans. I want to talk a little bit about that.
    But, Mr. Chairman, I just want to close with this. I know 
that the IMF legislation that we looked at was a part of a 
Ukraine bill, and I appreciate the way we have done so many 
things together in a bipartisan way.
    I will have to tell you that it is very frustrating to get 
up every morning and to read the newspapers and to see what 
Russia is doing inside Ukraine. For Russia to be making 
statements that they have moved troops away--and we know that 
they have not--for them to continue to foment problems inside 
the country as we sort of race--it is almost a game of chicken 
between now and May 25 when the election takes place. It does 
not appear that we are doing anything. It looks like Putin is 
doing a whole lot. And it is very disturbing to me to know that 
we are in a position as a nation, where we are unwilling to 
prevent the kind of behavior that Russia is putting forth. And 
I know that many people on both sides of the aisle share those 
same frustrations.
    But thank you for the hearing today, and I look forward to 
the witnesses' testimony and I look forward to working with the 
chairman as we move along to try to put the IMF reforms in 
place at some point so that, again, we have an institution that 
is healthy and is able to--even though mistakes were made 
during the European crisis--and I am sure it will come up today 
or at least in written questions. Mistakes were made. Having an 
entity like this that helps usher in economic stability in 
countries where that does not exist is a good thing. So thank 
you for the hearing.
    The Chairman. Well, thank you, Senator Corker, and thank 
you for your work with us on the IMF as part of the Ukraine 
package and your observations about it, with which we totally 
agree, and hopefully we can get there at some point in this 
process.
    With that, let me introduce our first panel today: Mark 
Sobel, nominated to be U.S. Executive Director of the IMF; and 
Sunil Sabharwal, to be alternative U.S. Executive Director to 
the IMF.
    Mr. Sobel has served as Deputy Assistant Secretary of the 
Treasury for International Monetary and Financial Policy, 
Senior Advisor to the U.S. Executive Director of the IMF, and 
Director of the Office of International Monetary Policy, as 
well as other senior positions at Treasury.
    Mr. Sabharwal began his career at the European Bank for 
Reconstruction and Development. He has worked in international 
payment systems in both the United States and Europe and has 
held senior positions at First Data Corporation, Western Union, 
and GE Capital.
    Thank you both for your willingness to serve.
    Let me just say for the record that your full statements 
will be included in the record, without objection, in their 
entirety. We ask you to summarize them in about 5 minutes or 
so, so that we can enter into a Q&A session. And again, if you 
have family members here, please feel free to introduce them.
    Mr. Sobel.

   STATEMENT OF MARK SOBEL, OF VIRGINIA, TO BE UNITED STATES 
  EXECUTIVE DIRECTOR OF THE INTERNATIONAL MONETARY FUND FOR A 
                       TERM OF TWO YEARS

    Mr. Sobel. Thank you, Chairman Menendez, Ranking Member 
Corker, and members of the committee. I am honored that 
President Obama nominated me to serve as Executive Director of 
the United States to the International Monetary Fund, and I am 
grateful to Secretary Geithner, Secretary Lew, and former Under 
Secretary Lael Brainard for supporting me.
    I am delighted to be joined today by my wife, Martha 
Halperin.
    Working with talented Treasury colleagues and senior 
officials in administrations from both parties, I have had the 
rare privilege of holding a front row seat in the making of 
American history for over three decades. As you noted, I have 
served as an Assistant Financial Attache in Bonn, Germany; 
Director of the Treasury's International Monetary Policy and 
Transition Economy Offices; worked in the staff of the U.S. IMF 
Executive Director; and since 2000, as Deputy Assistant 
Secretary for International Monetary and Financial Policy. In 
recent years, I have been proud to play a role in America's 
leadership in establishing the G20 Leaders process and 
reforming the IMF.
    Seventy years ago, as our brave soldiers fought in World 
War II to liberate the global from tyranny and dictatorship, 
our Nation's financial diplomats took the lead in creating a 
new vision for international economic cooperation. Their vision 
shunned protectionism and beggar-thy-neighbor currency 
policies, forces that helped catalyze the war, and instead 
trumpeted multilateralism and shared prosperity. At the center 
of that vision, they created the IMF.
    Since its inception, the Fund has well served the world 
economy and U.S. national security and economic interests, 
whether it be in helping to mitigate economic crises in Latin 
America in the 1980s, support the transition of the ex-Soviet 
states in the 1990s, combat the Asian and emerging market 
crises of the latter 1990s, provide concessional support and 
debt relief for poverty alleviation in low-income countries, or 
tackle the European crisis of the past years.
    Without the IMF, these developments had the potential to 
rock geopolitical stability to a much greater extent, often in 
countries with strategic significance to our national security. 
Without the IMF, these developments also had the potential to 
spread more virulently around the world and seriously harm U.S. 
growth and jobs through decreased export opportunities, lost 
foreign investment, and financial shocks.
    Throughout my career, I have seen firsthand the IMF's 
strengths. Its ability to design and support country reform 
programs is unparalleled. The IMF brings together officials 
from around the world, creating shared understanding. It 
fosters multilateral rules of the road. Its technical 
assistance helps countries build the infrastructure for more 
robust economic policies. The IMF's surveillance can help 
prevent crises.
    But despite the Fund's strengths, the organization, like 
any other, has room for improvement, for example, in better 
providing crisper judgments on global rebalancing and exchange 
rate issues, strengthening its work on crisis prevention and 
debt sustainability, supporting pro-poor spending in low income 
countries, and helping make financial sectors more resilient.
    I believe firmly in defending U.S. interests and in 
advancing multilateralism, as well as in working pragmatically 
and collegially, with analytic rigor and in a nonpartisan 
manner. I also believe in the IMF's mission and that our 
Nation's leadership of the IMF is critical. Those beliefs have 
guided my career.
    If confirmed as U.S. Executive Director, I will work 
vigorously to strengthen and improve the IMF consistent with 
those beliefs. I will dedicate myself to doing my utmost to 
work with Congress to help secure U.S. passage of the 2010 
quota and governance reforms.
    Again, to have been nominated by the President to represent 
the United States in the International Monetary Fund, the very 
institution at the center of America's post-World War II global 
economic and financial vision, is a tremendous and humbling 
honor and a responsibility that I am eager to undertake.
    Thank you.
    [The prepared statement of Mr. Sobel follows:]

                    Prepared Statement of Mark Sobel

    Thank you Chairman Menendez, Ranking Member Corker, and members of 
the committee. I am honored that President Obama nominated me to serve 
as Executive Director of the United States to the International 
Monetary Fund (IMF), and I am grateful to Secretary Geithner, Secretary 
Lew, and former Under Secretary Lael Brainard for supporting me. I am 
delighted to be joined today by my wife, Martha Halperin.
    Working with talented Treasury colleagues and senior officials in 
administrations from both parties, I have had the rare privilege of 
holding a front row seat in the making of American history for over 
three decades. I have served as an Assistant Financial Attache in Bonn, 
Germany; Director of Treasury's International Monetary Policy and 
Transition Economy Offices; a member of the staff of the U.S. IMF 
Executive Director; and since 2000 as Deputy Assistant Secretary for 
International Monetary and Financial Policy. In recent years, I have 
been proud to play a role in America's leadership in establishing the 
G20 leaders process and reforming the IMF.
    Seventy years ago, as our brave soldiers fought in World War II to 
liberate the globe from tyranny and dictatorship, our Nation's 
financial diplomats took the lead in creating a new vision for 
international economic cooperation. Their vision shunned protectionism 
and beggar-thy-neighbor currency policies, forces that helped catalyze 
the war, and instead trumpeted multilateralism and shared prosperity. 
At the center of that vision, they created the IMF.
    Since its inception, the Fund has well served the world economy, 
and U.S. national security and economic interests--whether it be in 
helping to mitigate economic crises in Latin America in the 1980s, 
support the transition of the ex-Soviet states in the 1990s, combat the 
Asian and emerging market crises of the latter 1990s, provide 
concessional support and debt relief for poverty alleviation in low 
income countries, or tackle the European crisis of the past years.
    Without the IMF, these developments had the potential to rock 
geopolitical stability to a much greater extent, often in countries 
with strategic significance to our national security. Without the IMF, 
these developments also had the potential to spread more virulently 
around the world and seriously harm U.S. growth and jobs through 
decreased export opportunities, lost foreign investment, and financial 
shocks.
    Throughout my career, I have seen firsthand the IMF's strengths. 
Its ability to design and support country reform programs is 
unparalleled. The IMF brings together officials from around the world, 
creating shared understanding. It fosters multilateral rules of the 
road. Its technical assistance helps countries build the infrastructure 
for more robust economic policies. The IMF's surveillance can help 
prevent crises. But despite the Fund's strengths, the organization--
like any other--has room for improvement, for example, in better 
providing crisper judgments on global rebalancing and exchange rate 
issues, strengthening its work on crisis prevention and debt 
sustainability, supporting pro-poor spending in low income countries, 
and helping make financial sectors more resilient.
    I believe firmly in defending U.S. interests and in advancing 
multilateralism, as well as in working pragmatically and collegially, 
with analytic rigor, and in a nonpartisan manner. I also believe in the 
IMF's mission and that our Nation's leadership of the IMF is critical. 
Those beliefs have guided my career.
    If confirmed as U.S. Executive Director, I will work vigorously to 
strengthen and improve the IMF, consistent with those beliefs. I will 
dedicate myself to doing my utmost to work with Congress to help secure 
U.S. passage of the 2010 quota and governance reforms.
    Again, to have been nominated by the President to represent the 
United States in the IMF--the very institution at the center of 
America's post-WWII global economic and financial vision--is a 
tremendous and humbling honor and a responsibility that I am eager to 
undertake.
    Thank you.

    The Chairman. Thank you.
    Mr. Sabharwal.

   STATEMENT OF SUNIL SABHARWAL, OF CALIFORNIA, TO BE UNITED 
   STATES ALTERNATE EXECUTIVE DIRECTOR OF THE INTERNATIONAL 
             MONETARY FUND FOR A TERM OF TWO YEARS

    Mr. Sabharwal. Chairman Menendez, Ranking Member Corker, 
distinguished members of the committee, it is an honor to 
appear before you today to present my personal and professional 
credentials for the position of the United States Alternate 
Executive Director of the International Monetary Fund.
    I am grateful to the President for nominating me to this 
important office and to Secretary Lew for his confidence and 
support. I also want to thank your staff for taking the time to 
meet with me prior to today. If confirmed, I look forward to 
advancing our shared commitment to make the IMF an even more 
effective organization and one where U.S. interests are 
strongly represented, promoted, and defended.
    I would like to introduce members of my family who are here 
with me today, starting with my son, Nicolas, a freshman at 
Duke University with an interest in engineering and sciences; 
my daughter Izabella, a freshman at National Cathedral School 
in high school, who is vying to follow her grandfather to be an 
Olympian track athlete; and finally, my wife, Gabrielle, whose 
forensic sciences background and attention to detail actually 
has helped me a great deal to be able to be sitting here in 
front of you. Gabrielle and I also share a common passion for 
the sport of fencing, as we met 25 years ago in Culver City, 
CA, at a fencing club and continue our involvement with the 
sport and the Olympic movement.
    The Chairman. Who wins? [Laughter.]
    The Chairman. Well, that was determinative. Go ahead. 
[Laughter.]
    Mr. Sabharwal. I was born in New Delhi, India, to an Indian 
father and a Hungarian mother. My parents separated when I was 
9, and I moved to Budapest, Hungary, part of the Soviet Bloc at 
the time. Following my mother's refusal to join the Communist 
Party, she was denied a business permit, was constantly 
harassed for her religious beliefs, in the end giving the 
family no choice but fleeing the country and seeking asylum in 
the U.S. Embassy in Vienna. I had just finished high school 
then.
    Through the cooperation of the U.S. State Department, the 
United Nations, and charitable organizations, we received 
political asylum in the United States, more precisely in 
Columbus, OH, with the specific assistance of the Upper 
Arlington Lutheran Church. To date, I will never forget the 
reception we received in Columbus in December 1983, just a few 
days before Christmas, and will remain forever grateful to 
Professor Cole and his family who enabled me to enroll at the 
Ohio State University a few weeks after my arrival. While I put 
myself through college with the use of financial aid, work-
study, and scholarships, my family moved to California. Upon 
graduation, I joined them in California to begin my 
professional career.
    When I left Hungary in 1983, I thought that was going to be 
for good. Little did we know that less than 10 years later, 
massive political changes would sweep the region free. One of 
the first institutions created to foster the transition was the 
European Bank for Reconstruction and Development, and I was 
fortunate enough to play a meaningful role in the region's 
transition as an American citizen and an EBRD employee.
    I established the EBRD office in Budapest in early 1992, a 
time in which Hungary was at the forefront of innovative 
foreign direct investment legislation and regulations. This 
experience allowed me to participate in landmark public and 
private sector transactions, including the first bank and 
telecom privatizations, infrastructure projects, municipal 
finance, and venture capital deals. I then transitioned to the 
EBRD headquarters in London as a member of its financial 
institutions team, which had the responsibility of investing 
and lending to banks in the region.
    The 5 years I spent at the EBRD had shaped my early 
professional career and have had a significant impact 
throughout. I then spent about 10 years working for GE and 
First Data Corporation, most of it focused on investing in the 
financial services sector and companies that provide services 
to the financial services industry. For the last 8 years, I 
have served as an independent investor and adviser to the same 
sectors.
    As a result of my global upbringing, through which I have 
had an ability to relate to people around the world, and my 25 
years of tenure in the financial services sector, gained in 
both public and private domains, I am equipped with the 
experience necessary to carry out successfully the duties, if 
confirmed, of the U.S. Alternate Executive Director at the IMF. 
In addition, my language skills and volunteer experiences are 
also highly relevant in a body where we need to get 
representatives of nearly 200 countries to support us on a 
wide-ranging set of issues.
    I look forward to answering your questions and, if 
confirmed, working with members of the committee on policy 
matters affecting the IMF.
    Thank you for the opportunity to appear before the 
committee today.
    [The prepared statement of Mr. Sabharwal follows:]

                 Prepared Statement of Sunil Sabharwal

    Chairman Menendez, Ranking Member Corker, and distinguished members 
of the committee--it is an honor to appear before you today to present 
my personal and professional credentials for the position of United 
States Alternate Executive Director of the International Monetary Fund 
(IMF).
    I am grateful to the President for nominating me to this important 
office and to Secretary Lew for his confidence and support. I also want 
to thank you and the committee's staff members for taking the time to 
meet with me prior to today. If confirmed, I look forward to advancing 
our shared commitment to make the IMF an even more effective 
organization and one where U.S. interests are strongly represented, 
promoted, and defended.
    I would like to introduce members of my family, who are here with 
me today: starting with my son, Nicolas, who is a freshman at Duke 
University with an interest in engineering and the sciences. My 
daughter, Izabella, who is a freshman in high school at the National 
Cathedral School, and is vying to follow her grandfather to be an 
Olympian track athlete, and finally my wife, Gabrielle, with a forensic 
sciences background whose attention to detail has helped me get through 
all the documents needed prior to me sitting here in front of you. We 
also share a common passion for the sport of fencing as we met 25 years 
ago in Culver City, CA, in a fencing club and continue our involvement 
with the sport and the Olympic movement.
    I was born in New Delhi, India, to an Indian father and a Hungarian 
mother. My parents separated when I was 9, and I moved to Budapest, 
Hungary, part of the Soviet Block at the time. Following my mother's 
refusal to join the Communist Party, she was refused a business permit, 
was constantly harassed for her religious beliefs--in the end giving 
the family no choice but fleeing the country and seeking asylum at the 
U.S. Embassy in Vienna. I had just finished high school.
    Through the cooperation of the U.S. State Department, the United 
Nations, and charitable organizations, we received political asylum in 
the United States, more precisely in Columbus, OH, and with specific 
assistance by the Upper Arlington Lutheran Church. To date, I will 
never forget the reception we received in Columbus, in December 1983 
(just a couple of days before Christmas) and will remain forever 
grateful to Professor Cole and his family who enabled me to enroll at 
the Ohio State University weeks after my arrival. While I put myself 
through college with the use of financial aid, work-study, and 
scholarships, my family moved to California. Upon graduation, I joined 
them to begin my professional career.
    When I left Hungary in 1983, I thought it was for good. Little did 
we know that less than 10 years later, massive political changes would 
sweep the region free. One of the first institutions created to foster 
the transition of the region was the European Bank for Reconstruction 
and Development (EBRD), and I was fortunate enough to play a meaningful 
role in the region's transition as an American citizen and EBRD 
employee.
    I established the EBRD office in Budapest in early 1992, a time in 
which Hungary was at the forefront of innovative foreign direct 
investment legislation and regulations. This experience allowed me to 
participate in landmark public and private sector transactions, 
including the first bank and telecomm privatizations, infrastructure 
projects, municipal finance, and venture capital deals of Central & 
Eastern Europe. In 1995, I transitioned to London to join the EBRD's 
headquarters staff as a member of its Financial Institutions team, 
which had the responsibility of investing in and lending to banks in 
the region. The 5 years I spent at the EBRD had shaped my early 
professional career and have had a significant impact throughout. I 
then spent about 10 years working for GE and First Data Corporation, 
most of it focused on investing in the financial services sector or 
companies that provide services to the financial services industry. For 
the last 8 years, I have served as an independent investor and adviser 
focused on the financial services, or ``fintech'' sector.
    As a result of my global upbringing, through which I gained an 
ability to relate to people around the world, and my 25 years of tenure 
in the financial services sector--in both public and private domains--I 
am equipped with the experience necessary to carry out successfully the 
duties, if confirmed, of the U.S. Alternate Executive Director at the 
IMF. In addition, my language skills and volunteer experiences are also 
highly relevant in a body where we need to get representatives of 
nearly 200 countries to support us on a wide-ranging set of issues.
    I look forward to answering your questions, and, if confirmed, to 
working with members of the committee on policy matters affecting the 
IMF.
    Thank you for the opportunity to appear before the committee today. 
I would be pleased to answer any questions you may have.

    The Chairman. Well, thank you both. You have started off 
very well because neither one of you used your full time, and 
that is a rarity here at the hearings. So we appreciate that.
    Let me start off with you, Mr. Sobel. The United States 
championed the 2010 IMF quota and governance reforms, but we 
are the only major IMF member country that has yet to ratify 
them. How would you describe this as impacting U.S. leadership 
in the IMF? And if confirmed, what actions would you take as 
the Executive Director to counter any real or perceived decline 
in U.S. influence?
    Mr. Sobel. Thank you.
    I think, as you have suggested, both of you suggest in your 
statements, it is an absolute priority for the United States to 
implement the 2010 legislation. The IMF is extremely critical 
to the United States for our national security, for our 
economy, for our ability to lead and foster a multilateral 
system of governance around the world, and it is also crucial 
to how the world views American leadership. This is an 
institution we created, and the world looks to us to play a 
major role in leading it. And when we are the one country that 
has not passed our legislation, I think the world looks at us 
and wonders if we truly remain committed to multilateralism and 
to this institution.
    You know, I was struck during the recent spring meetings of 
the IMF and World Bank. There are many important issues in the 
global economy. There are issues about how are we going 
strengthen global growth. What are the risks and the potential 
tail risks that could undermine our economy? But, in fact, what 
happened was that the global community ended up spending most 
of its time focused on what did the inability to secure 
legislation mean for the IMF. So I think it was a distraction 
from really some of the very important issues that the world 
economy faces.
    I believe that there is a very strong case for the 
legislation, for the important role the IMF plays for the 
United States. I think the legislative package is an excellent 
one. We are not putting $1 into the IMF, and yet, we are 
preserving our veto power. We are preserving our leadership and 
influence, and we are achieving some modernization of the IMF, 
which is critical for the Fund's future. So it is an excellent 
package. I will do whatever I can to work with you to make sure 
that the importance of this legislation for the United States 
and for the global economy is understood by all.
    The Chairman. And, if confirmed as the Executive Director, 
until we get to that point, you will have a challenge, when 
dealing with your counterparts in making them understand that 
we are truly committed. And I assume that we can count on you 
to be able to do that.
    Mr. Sobel. You may, sir. I, in my current position, wear a 
G20 hat. This issue is very prominent in the G20 as well, and 
the Secretary, I, and many others have spent a considerable 
amount of time explaining the situation to others, assuring 
them that the executive branch remains fully committed to 
securing passage of this legislation, and we will certainly 
continue to do that.
    The Chairman. Let me ask you. I would appreciate it if you 
could discuss the key role the IMF plays in intervening in 
financial crises such as the ongoing situation in the Ukraine. 
And as part of that, please explain how ratification of the 
2010 reforms would strengthen the IMF's ability to fulfill its 
mission.
    Mr. Sobel. Unfortunately, countries live beyond their 
means. They fall into stress, and they come to the IMF often 
too late. But what the IMF works to do--I would say the country 
then faces two paths. One is a path of disorderly adjustment. 
In that path, the country puts in place measures that are half-
hearted, piecemeal, and there can be a very sharp, disorderly 
contraction in the economy that has major spillover effects on 
the global economy, including the United States.
    What the IMF seeks to do is to help the country put in 
place sound reforms for a market-based economy and provide some 
financial support, conditioned on implementation of tough 
reforms, tough reforms that are necessary for the country to 
live within its means and to tighten its belt, but to provide 
support to provide for a more orderly and gradual adjustment 
path that is less disruptive to the people of the country and 
less disruptive to the global economy. And that is why I think 
the Fund programs are so important in supporting market 
economies around the world and lessening the spillback to the 
United States.
    Ratification of the IMF again is absolutely vital for 
strengthening the IMF. We want the membership of the IMF to 
feel part of a multilateral system. We benefit from a 
multilateral system, and we benefit from countries playing 
according to multilateral rules of the road. What we do not 
want to see is the world economy splinter off into regional 
blocs. We do not want to see a Ukraine that is dependent upon 
its neighborhood and not have the support of the international 
community. And so to do that, we need a modernized IMF that the 
membership feels is relevant and legitimate, and the 2010 
reforms will help precisely do that.
    The Chairman. I have one last question for you. Last year, 
I joined 60 other Senators in a letter to Secretary Lew raising 
concerns about currency manipulation. A number of studies 
estimate large U.S. job losses due to direct and sustained 
intervention in foreign exchange markets by our major trading 
partners. And know that I am deliberately not referring to the 
effects of central bank monetary policies.
    We in Congress are looking for a robust administration 
action plan. Now, I understand Treasury's preference has been 
to address this through the IMF and G20, not through trade 
negotiations, but so far such attempts have fared poorly.
    If confirmed, would you use your position to motivate IMF 
leadership to press currency manipulators to move forward 
toward market-based exchange rates?
    Mr. Sobel. Thank you for that question.
    As I mentioned in my opening remarks, the IMF was created--
one of the reasons it was created was specifically to overcome 
beggar-thy-neighbor currency practices which, as I noted, was 
one of the factors that gave rise to the disruptions in World 
War II.
    Foreign exchange surveillance is a core mandate of the 
International Monetary Fund. This is another area referencing 
what Senator Corker said at the beginning. Senator Corker said 
that the governance reforms in the IMF have been pursued in 
both last administrations. The same can be said about IMF and 
foreign exchange surveillance. Both administrations very 
actively since 2005 have pressed the IMF to exercise firmer and 
more rigorous surveillance over exchange rates. And as you have 
acknowledged, we have also pushed this case very heavily in the 
G20.
    In response, I think the IMF has significantly improved its 
analysis. It has improved its coverage of exchange rate issues 
in its article 4 work and other papers. I still feel that there 
is more to be done. As I indicated in my statement, I feel 
there is more to be done in providing crisper assessments and 
judgments in this area, and I would like to assure you that, if 
confirmed, I will definitely press the IMF to undertake more 
vigorous and more robust foreign exchange surveillance.
    The Chairman. Thank you.
    Now, Mr. Sabharwal, since it is only Senator Corker and I, 
I am going to take advantage and ask one more question and will 
then turn to him.
    Being the alternate is important as well because if Mr. 
Sobel is not, for any reason, acting and you are going to get 
engaged, I want to know how you think. So I would appreciate if 
you could give us your perspective, as someone with extensive 
experience in the private financial sector, on the importance 
of the IMF in ensuring international financial stability, and 
why you think--assuming you think--full implementation of the 
proposed 2010 quota and governance reforms are justified and 
necessary.
    Mr. Sabharwal. Thank you for the question.
    The IMF really sits in the center of the global economy. 
One of its missions is to avert crises, and if a crisis does 
happen, to contain them. Whenever the private sector looks to 
invest, the first item of risk it is looking at is the risks 
that the IMF is addressing, macroeconomic risks, which includes 
financial economic currency as well. Therefore, a strong IMF 
creates strong global economies, which then leads to a growing 
economy that is helpful for us in the United States as about 15 
percent of our GDP is based on exports creating 10 million 
jobs, and of course, a stronger global economy results in more 
exports. When there is stability around the world, then those 
countries are also investing more back home.
    As a business person, I would think that a proposal where 
each U.S. dollar--our dollars--is being matched four to one by 
other countries in the objective of strengthening the IMF, and 
on top of that, we are then the only country with a veto right. 
That is a very strong proposition and one, from a businessman's 
perspective, I would take because it benefits us. It is 
leveraging our capital. It is growing the global economy that 
is creating jobs back home. The strength of the global economy 
again is enabling others to invest in our country, travel to 
our country, again beneficial for the U.S. economy.
    Thank you.
    The Chairman. Senator Corker.
    Senator Corker. Thank you, Mr. Chairman. And again, thank 
you both for being here.
    Just for those who might be looking on and members who are 
not here, explain the relationship, if you would, between the 
actual person and the alternate and how the two interrelate and 
why we have it set up in that way, if you would briefly.
    Mr. Sobel. Thank you, Senator.
    The Office of the United States Executive Director is 
responsible for being the voice of the United States. In the 
IMF, some people talk about our votes. So we cast the votes. 
The office does. The Fund tries to operate most of the time on 
consensus, but we also provide the intellectual heft from the 
United States to articulate and represent our views.
    I would say one thing I have learned in my career is that 
virtually any issue of importance to the international monetary 
system is discussed in the IMF board.
    So what does the IMF office do?
    Senator Corker. Before we get to that, just if you would 
specifically--there is an Executive Director and then there is 
an alternate. Explain why we have it set up that way, if you 
would briefly.
    Mr. Sobel. It goes back to the original governance of the 
Fund, but of course, there is just a tremendous amount of work 
that goes to the board, and the two are there to represent the 
United States in the board, to discuss with colleagues around 
the world and build a consensus to advance U.S. positions. And 
of course, if one or the other is not present, the other would 
serve as the representative.
    Senator Corker. So you have to be present to vote. Is that 
correct?
    Mr. Sobel. Yes.
    Senator Corker. You cannot do that by proxy.
    Mr. Sobel. Absolutely not.
    Senator Corker. So is that the reason you have an 
alternate?
    Mr. Sobel. Absolutely.
    The IMF board meets three to four times a week. They are 
bringing hundreds of papers to the board for discussion and 
presentation of ideas every year, and the office needs to be 
positioned to read all the papers and weigh in on each and 
every one of them. It is a tremendous volume of work.
    Senator Corker. So, Mr. Sobel, we had a meeting yesterday, 
and I have been listening to your testimony today and I 
appreciate it. You used the word ``intellectual'' a minute ago. 
You all provide the intellectual work to analyze what is 
happening. And you seem very quiet and unassuming and sort of 
reserved. It is kind of refreshing when you think about the 
environment I live in daily.
    But on the other hand, I would like to ask this question. I 
mean, you talk about influencing others. And I know you 
probably have a very high IQ, beyond certainly the person 
asking the question. I guess the question is how much on the EQ 
side is relevant to the job. I mean, is this an influencing job 
where you are out trying to influence other people? You are 
relatively quiet and I am just wondering what kind of skills 
you possess relative to getting other people from other 
countries who have divergent views to come your way.
    Mr. Sobel. Well, thank you for that question. [Laughter.]
    The Chairman. Let me forewarn you before you answer. Do not 
take Senator Corker's self-effacing way to suggest that somehow 
your intellect is greater than his. This is his ``oh, shucks'' 
way of getting to people. So I just want you to know.
    Senator Corker. Thank you.
    Mr. Sobel. I thank you for that. I had not been fooled.
    Well, first of all, I thank you for perceiving me for being 
quiet and unassuming. I know many people who would not agree 
with your assessment.
    Over my career, I have come to appreciate that the United 
States leads not only by virtue of being the largest country in 
the world, but by having good people who are smart and can put 
forward strong reasoning and lead with analysis and good ideas. 
Obviously, we have to be collegial. I think my colleagues 
around the world know that if I need to be a tough negotiator, 
I can be a tough negotiator. But I am a straight talker and I 
am on my game.
    Senator Corker. How much of the job, though seriously--I 
know we talked a little bit yesterday. But how much of the job 
is you influencing others through discussion and conversation? 
How much of it is just analyzing some paper and people reading 
and making a decision based on what is in a paper?
    Mr. Sobel. The two actually come together. You read papers. 
You form your analysis, but then you go talk to others to form 
the best position and to exchange ideas on it. And I think that 
really is in large measure the essence of what one does in the 
IMF executive board.
    Senator Corker. Well, I know we talked a little bit about 
the quota package or you did with the chairman. I think there 
has been some discussion on our side of the aisle, not by me, 
but some have questioned the difference between the NAB and the 
risk that our Nation has relative to that versus going ahead 
and making the investment that is called for by the IMF 
reforms.
    Would you mind using this opportunity to distinguish 
between the two and to talk a little bit about that risk? I 
think it would be your view that the investment is not any more 
risky than having the NAB out there, or at least I think that 
is what it was yesterday. But if you would, please share your 
thoughts in that regard.
    Mr. Sobel. Thank you.
    Both our contributions to the NAB and quotas I feel are 
extremely secure. I feel our reserve claims on the IMF are 
completely secure. The safeguards that would apply to the NAB 
or the quota are the same. When NAB or quota resources are lent 
out, they are lent out subject to strong conditionality. When 
the IMF lends to country X, our exposure as a nation is not to 
country X. It is to the Fund's balance sheet. The Fund's 
balance sheet is rock solid. The Fund is regarded around the 
world as a de facto preferred creditor. The Fund has strong 
reserves. It has strong unrealized gold profits that could back 
our loans in case there were any questions. So the Fund's 
balance sheet is rock solid. I think that is beyond debate.
    Senator Corker. Has the Fund ever lost--has the Fund ever 
had a year where losses took place?
    Mr. Sobel. No, absolutely not.
    Senator Corker. Has it ever lost money on a single loan?
    Mr. Sobel. The Fund has not lost money.
    Senator Corker. On any loans ever.
    Mr. Sobel. They at times have extended loans, and some 
principal has gone into arrears but it has been repaid.
    Senator Corker. So I think one of the things that people 
who criticize the reforms and maybe criticize the IMF in 
general are concerned about is there have been a lot of 
exceptional access loans recently. It seems to be growing. 
People get concerned. Obviously, the IMF has had a solid track 
record, as you just alluded to, but people over time, as they 
watch things happen that are, quote, extraordinary, meaning 
they are not the norm, get concerned about the IMF and the 
governance there, if you will, becoming more lax and 
potentially exposing taxpayers' losses. I wonder if you might 
respond to the fact that we have done much more of that 
recently than in the past. We, meaning the IMF.
    Mr. Sobel. Thank you.
    One observation I would make about the way the global 
economy has changed that is directly relevant to your question 
is that if you think back to the 1970s and 1980s countries 
developed current account issues, problems, and by tightening 
macro policies, they could adjust their current accounts.
    What has happened--and this is a tremendous benefit to the 
world economy--is that we are seeing countries around the world 
that have become more integrated into the global financial 
system. Their capital accounts play a much more pronounced role 
in the financing of the country, and when they face serious 
stress, capital can flee very quickly. And I think that is part 
of the reason why, starting with Mexico in 1994 and continuing 
through the Asia crisis, is that you have sent the Fund need to 
rely more on exceptional access programs to provide countries 
with resources to stop liquidity runs, to stop liquidity 
pressures and the like.
    So no policymaker that I know of has ever liked approving 
exceptional access programs, but it was felt that one needed to 
do this for the stability of the global economy.
    Now, in the case of Greece, this issue has arisen, as you 
know, and it has been debated in the press. What I wanted to 
say about the issue in that context is that in mid-2010, I feel 
that Greece was looking potentially at a massive default or a 
departure from the euro, and it was also a time when Europe had 
not built the firewalls that were really needed to protect the 
Eurozone. And had Greece defaulted or left the euro at the 
time, I feel there would have been potentially a massive 
contagion also within the Eurozone. This would have had a 
tremendously detrimental impact not only on Europe, not only on 
the world, but particularly the United States. There were a lot 
of forecasts that I saw at the time that said if it had been 
highly contagious, it could have pushed us back into recession 
at a time when we were just beginning to grow our way out of 
the 2009 financial crisis, and that would have meant a loss of 
hundreds of thousands of jobs in the United States.
    And between May and July of 2010, the stock market in the 
United States declined by about 15 percent, largely on these 
developments, and it wiped off, I was told, $2 trillion in 
capitalization. So those are the savings of American works. 
Those are their pensions.
    And so I think that the IMF, working with the Europeans to 
provide support for Greece, even if it was exceptional access, 
was very much in the interests of the United States and the 
global economy.
    Senator Corker. Is it OK if I can go just a little bit 
longer? I know I am already over, and I appreciate the extra 
time.
    So in the case of Greece in particular, there were actually 
allegations that the IMF not only did something exceptional but 
also sort of bent the rules. And that news--that kind of came 
out at a time which made it difficult, if you will, when we 
were looking at IMF reforms. Do you want to talk a little bit 
about that and the fact that it actually looked like maybe the 
IMF staff--it just seemed there was a little shading of what 
the current situation was in order to make this happen. And 
should that concern policymakers here in Washington?
    Mr. Sobel. I would be pleased to answer that.
    So when the exceptional access criteria were developed in 
the early 2000s, Under Secretary John Taylor, whom you may 
know, played a role in advancing that. As I said, no 
policymaker liked approving exceptional access loans. And he 
felt that there could be perhaps a more systematic and rigorous 
process for examining whether such loans met certain criteria: 
sustainability, could the country regain market access and the 
like. And we developed the exceptional access criteria.
    Now, there were a number of loans, even then, that were 
approved that did not fulfill all the criteria of the 
exceptional access. I think Turkey, Uruguay, Argentina, maybe 
even Brazil back then that we approved the did not meet the 
criteria.
    So if we fast forward to--so I guess the point is I always 
thought of the criteria as guidelines but not rigid rules. They 
were to help us think through the case and whether it made 
sense.
    If we fast forward to the Greek case, the IMF felt that 
there was a question as to whether there was a high probability 
of sustainability of the program. So they put into the second 
criteria systemic exception. And they put this to the board, 
which under the Fund's governance is the body that, with 
requisite voting power, is duly constituted to approve such 
loans and that policy change, and the board approved that. 
Everybody read the paper. Everybody in the world knew what they 
were doing. The shareholders did it, and I outlined the reasons 
why I felt at the time this was absolutely the right thing to 
do for the world economy and for the U.S. economy.
    Senator Corker. So I know that I have gone over and 
unfortunately so long that now there is another member. And I 
have messed up the chairman's schedule. But I have a couple of 
questions and I am going to ask you directly in writing. I 
talked to you a little bit yesterday about the Argentina bonds 
issue and whether you were involved in trying to get a brief 
written outside of the Treasury oversight, if you will. So I am 
going to ask you a couple of other questions in writing.
    But I thank you both for your willingness to serve in this 
way and your testimony today. Thank you very much.
    I am sorry to take so long.
    The Chairman. Senator, my pleasure.
    Senator Murphy.
    Senator Murphy. Thank you, Mr. Chairman. I actually will 
not belabor this meeting.
    Thank you very much, both, for being here. Mr. Sobel, I am 
sure you have covered the topic of Ukraine in your remarks and 
some of the back and forth. Maybe you have answered this, but 
let me just pose it to you and if you have, you can expound 
upon it.
    I appreciate all of the thought that the IMF has given to 
the conditions upon which support has been granted to the 
Ukrainian Government. A lot of outstanding questions remain 
about their ability to repay that loan, especially given some 
of their past history with this kind of assistance.
    What is the relationship between the ability of Ukraine to 
normalize trade relations with Russia and their ability 
ultimately to pay back the money that has been lent and will be 
lent? Or is there an ability to have a frozen conflict over the 
course of 5 or 10 years and still be able to repay their 
obligations? Ultimately, obviously, we believe that there is 
going to be an ability for Ukraine to have a relationship with 
Europe but also have a significant relationship with Russia. 
But if that were not to happen in the course of the next 10 
years, does that potentially compromise their ability to pay 
back that money and what role would the IMF have then in trying 
to facilitate some normalization of relations after the 
temporary hostilities, that we hope are temporary, abate?
    Mr. Sobel. Thank you, Senator Murphy.
    I think the IMF's loan for Ukraine is absolutely vital. I 
think Ukraine, after many years of a difficult policy 
experience, fits and starts, faces a critical moment, as I know 
you do. And we are keenly interested in seeing a Ukraine that 
is on the path of reform, that becomes an economy that is able 
to sustain its finances, to stand on its own feet, to trade and 
interact with the world, the whole world, and to lessen its 
vulnerability and dependence to its neighbors.
    And that is what the IMF package seeks to do. Obviously, it 
is going to be a very tough program, and given the history of 
Ukraine with the IMF, we are going to have to be very vigilant 
and make sure that the tough reforms that Ukraine needs to take 
are implemented faithfully. These, as you know, involve 
addressing extraordinarily heavy subsidization of energy in the 
economy. I was told that basically Ukrainian consumers pay 20 
percent of the cost of energy, and this results in a subsidy of 
about 8 percent of GDP to the economy. And so it just puts an 
enormous burden on them, but it also puts a tremendous 
dependence upon them on the region. And it also then puts huge 
pressure on their fiscal policy and whatnot. And given that 
Ukraine has had an overvalued exchange rate for a long time, it 
is not the most competitive economy and it is addressing those 
issues.
    I think if Ukraine is able to address those issues--and it 
is going to be tough. We are going to have to monitor it very 
carefully--there is the prospect that Ukraine can put itself on 
its own feet and be able to interact on a much more market-
oriented basis with the rest of the world.
    And so I feel that the IMF is offering that multilateral 
path forward and is absolutely essential. But Ukraine will have 
to pay its energy bills, and that is part and parcel of the 
program that is being put forward for the country.
    The IMF has an excellent repayment record. It is regarded 
as the world's de facto preferred creditor. The IMF is always 
repaid. And I have no doubt that Ukraine will repay the IMF, as 
it always has in the past. But I very much hope that this time 
we will be able to see Ukraine embark on a much bolder reform 
path, tackle the corruption and governance problems that the 
country has had, and make significant progress forward.
    Senator Murphy. Thank you, Mr. Sobel.
    Let me just ask one thing of you, that as we implement the 
repayment terms, I think it is important to understand, as I 
know you do, that there is going to be enormous pain with 
respect to the conversions that the Ukrainian economy has to 
make to move away from these dramatic inefficiencies and 
oversubsidization of energy prices. But the result of moving 
too quickly and too rapidly is a corresponding rapid 
undermining of support for this new government, which 
ultimately I think is the only one that has the potential to 
deliver on these reforms.
    I know this is always a tension that the IMF faces when 
trying to press economies for these types of reforms, but in 
Ukraine, which is different than some of the other European 
countries that have been offered these assistance packages, 
they have an alternative. They can always go back to a 
financial and economic dependence on Russia. Ultimately this 
path forward, one in which they are in partnership with the IMF 
and Europe, is better for Ukraine, better for the continent and 
ultimately I think better for the United States. And being 
careful about the timing and the terms upon which we ask them 
to make reforms is integral to the ability of this new 
government to be able to stand on its two feet in the long run.
    So thank you, Mr. Chairman.
    Mr. Sobel. I fully agree with that.
    The Chairman. Thank you.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    Mr. Sobel, at any time during the last year, did you urge 
officials of the Government of Mexico to file an amicus brief 
with the U.S. Supreme Court, taking the side of a foreign 
government against U.S. investors?
    Mr. Sobel. No, sir. The Mexican Government asked the U.S. 
Treasury about the litigation, but the Mexican Government 
decided on its very own to file, as did France and Brazil. We 
did not advocate that.
    The Secretary was asked about this recently in a hearing in 
the House, and he also indicated that Mexican officials have 
spoken to him and that he had interacted with them on this 
issue and explained the longstanding concerns of the United 
States on this issue.
    Senator McCain. So I take it that your answer is you did 
not urge officials of the Government of Mexico to file an 
amicus brief with the U.S. Supreme Court.
    Mr. Sobel. No.
    Senator McCain. Did you recommend to the Government of 
Mexico that they do that?
    Mr. Sobel. No.
    Senator McCain. Did you urge or express support for the IMF 
filing a brief without the approval of your own superiors at 
the Treasury Department?
    Mr. Sobel. The IMF decided on its own that it wanted to 
file a brief and then communicated that through the U.S. ED's 
Office to the Treasury. This was known in the Treasury. There 
were senior level discussions of the issue and staff level 
discussions. And Secretary Lew again said in the hearings a few 
weeks ago that he had discussed this matter with the IMF.
    Senator McCain. So at no time during last year did you urge 
the International Monetary Fund officials to file an amicus 
brief with the U.S. Supreme Court.
    Mr. Sobel. It was their decision. They decided. We did not 
encourage or discourage them. This was their decision.
    Senator McCain. Are you aware of any other examples in 
which the IMF has intervened in a domestic court case in a 
member state?
    Mr. Sobel. So I am not a lawyer. I am told that it is rare 
for IMFs, the international financial institutions, to do so, 
but that they have. And I would be happy to submit for the 
record what our lawyers have come up with in that regard.


    [The information requested was not available at the time 
this transcript went to press.]


    Senator McCain. And I assume you do not know why the IMF 
originally had the impression that the United States supported 
the filing and why that impression needed to be corrected.
    Mr. Sobel. I think you would have to ask Madame LeGarde.
    Senator McCain. So you have no idea.
    Mr. Sobel. No, sir.
    Senator McCain. Well, do you have personal views on the 
continuing litigation between U.S. investors in Argentina over 
Argentina's refusal to settle its defaulted debt?
    Mr. Sobel. So this is a longstanding issue, as you know. It 
involves a clause in sovereign bonds that the United States has 
felt the interpretation of the clause is important for the 
orderliness and predictability of the sovereign debt process, 
as well as for New York's role as a financial center.
    The Bush administration filed a case in 2004--filed an 
amicus in 2004 with the appellate court, and the Treasury also 
filed two briefs in 2012 on this same issue. So there is a 
longstanding concern in the Treasury Department--well, not only 
Treasury. It is Treasury, State, and Department of Justice that 
all come together and weigh in on these issues. There is a 
longstanding concern that has existed since 2004, if not 
earlier, on this issue and I think that remains the view of 
many. That remains the view in the Government.
    Senator McCain. Is it not a fact that Argentina has refused 
to settle its defaulted debt even though when the bonds were 
issued, they pledged to submit to U.S. court judgments and 
waive their sovereign immunity? Argentina's current leadership 
is defying U.S. courts and refuses to even negotiate with its 
creditors. And is it not true that the U.S. courts have 
consistently ruled against Argentina in the matter, most 
notably in the unanimous ruling by a panel of the Second 
Circuit Court of Appeals last August? It is my understanding 
that you disagree with that court's ruling. Do you disagree 
with that court's ruling?
    Mr. Sobel. Thank you.
    I want to be clear. We do not condone Argentina's behavior. 
We have urged Argentina to honor its commitments. We have had a 
policy for many years of opposing MDB lending to Argentina. Our 
interest in the matter has related, as provided for in our 
briefs, to our broader concerns about the impact of this issue 
on--again, it comes back to the orderliness and predictability 
of the sovereign debt restructuring process.
    It is just an issue about Argentina. We have seen a 
tremendous uptick in such litigation around the world over the 
last decade or so. There was recently an academic article, and 
I would be happy to provide to your staff after this, which 
actually contains a catalog of all the increased holdout 
litigation, but it affects countries like Liberia and Zaire and 
others around the world. That is the concern in the United 
States.
    Senator McCain. Do you agree or disagree with the court's 
ruling?
    Mr. Sobel. The court has ruled as it is.
    Senator McCain. I repeat my question, sir. Do you agree or 
disagree with the court's ruling? It is a pretty 
straightforward question.
    Mr. Sobel. I appreciate that, Senator. My job is to provide 
advice to the Secretary of the Treasury. The Treasury----
    Senator McCain. I am aware of what your job is. I would 
like to know whether you agree or disagree with the court's 
ruling. As I say for the second time, it is a pretty 
straightforward question. You are free to elaborate on your 
view, but I would like to know whether you agree or disagree.
    Mr. Sobel. I continue to believe that the court's ruling 
has given--gives rise to the questions that we have had for 
over a decade----
    Senator McCain. Mr. Sobel, you know, this is really getting 
a little frustrating. It is a fairly straightforward question. 
I would like to know whether you agree or disagree with the 
court's ruling, and you can elaborate on it however you want.
    Mr. Sobel. Senator----
    The Chairman. Let me just ask because I want to wrap this 
up. Do you have an opinion? If you have an opinion, yes. If you 
do not have an opinion, then your answer is you have no opinion 
on the ruling.
    Mr. Sobel. I have an opinion.
    The Chairman. Maybe it is not your job to have an opinion 
on the ruling.
    Mr. Sobel. OK. Senator, I have an opinion. I continue to be 
concerned that the court's ruling could upset the orderliness 
and predictability of the sovereign debt restructuring process. 
So, yes, I have concerns about the court's ruling. But that is 
me speaking personally. As to what the U.S. Government does, 
that will be a matter that will be determined by the Department 
of Justice, the Department of the Treasury, and the Department 
of State.
    The Chairman. Thank you.
    Senator McCain. Well, I thank you, Mr. Chairman.
    The Chairman. Thank you.
    Let me thank both of you for your testimony. Because we are 
going to have votes in a few minutes, I want to get to the 
second panel. There are other questions. I do not want Mr. 
Sabharwal to think he walked away that easily. We have a few 
other questions, but I am sure you will both be able to answer 
them.
    If questions are provided for the record, I would urge you 
to answer them expeditiously because the sooner you answer 
them, the more quickly we can consider you at a business 
hearing for the committee's vote.
    And with the gratitude of the committee for your testimony 
and your willingness to serve, this panel is excused.
    Let me bring up our second panel. We have Matthew McGuire, 
nominated to be the U.S. Executive Director of the 
International Bank for Reconstruction and Development, and 
Mileydi Guilarte, nominated to be the Alternate U.S. Executive 
Director to the Inter-American Development Bank.
    Mr. McGuire is the Assistant to the Secretary and Director 
of the Office Business Liaison at the Department of Commerce. 
He previously worked as a senior executive in the financial 
services industry, and has been active with nonprofit and civic 
organizations throughout his career.
    Ms. Guilarte has served at USAID, the United Nations, the 
World Bank, and the IMF, giving her a broad perspective on 
global economic development and poverty alleviation efforts.
    Welcome to both of you.
    Again, I will just state for the record that your opening 
statements will be fully included in the record for their 
entirety, without objection. I would ask you to summarize them 
in about 5 minutes. And if you do have family members or 
friends here, please feel free to introduce them prior to 
making your statement.
    Mr. McGuire.

  STATEMENT OF MATTHEW T. McGUIRE, PH.D., OF THE DISTRICT OF 
    COLUMBIA, TO BE UNITED STATES EXECUTIVE DIRECTOR OF THE 
  INTERNATIONAL BANK FOR RECONSTRUCTION AND DEVELOPMENT FOR A 
                       TERM OF TWO YEARS

    Dr. McGuire. Thank you. Thank you, Chairman Menendez, 
Ranking Member Corker, and distinguished members of the 
committee. It is an honor and a privilege to be here as 
President Obama's nominee for Executive Director of the 
International Bank for Reconstruction and Development.
    I have enjoyed meeting some of your staff in the last few 
weeks, and I look forward to answering your questions today.
    I am, as you mentioned, fortunate to have a number of 
family members with me, and I would like to acknowledge them 
before I begin. First, my wife, Michelle, is here with our two 
daughters, Alexandra and Charlotte. My mother, Georgianna 
McGuire, is here, as is my brother, Eric and his wife, Stacy. 
My uncle and aunt, John and Lynne McGuire, and their son and my 
cousin, Jason, as well as my in-laws and my other parents, 
Bobby and Dianne Mance. I am from D.C. as I will come back to 
in a minute and so many family who are here.
    The Chairman. Well, thank you for populating the hearing. 
We appreciate it. [Laughter.]
    Dr. McGuire. Certainly. I try to be helpful.
    My mother was part of the first Peace Corps group ever to 
go overseas, Ghana 1, back in 1961. She was the first person in 
her family to go to college, having worked her way through, and 
when she graduated, she heard President Kennedy's call to reach 
out beyond America's shores and make a difference, however 
small or however large that might be. She taught English in a 
small town in Ghana called Tema, and many years later, a 
student of hers from Tema's secondary school became one of my 
professors at Brown University. As you might imagine, I grew up 
hearing many stories about those sorts of connections, and I 
grew up hearing about the importance of America's role in the 
world, especially through its uniquely American institutions 
like the Peace Corps.
    My father, who died when I was 6 years old, also served in 
the Peace Corps in what was then East Pakistan and is now 
Bangladesh. He spent most of his career working on 
international affairs as well, and his influence on me has been 
considerable even in his absence.
    I also grew up working in my family's business here in 
Washington, DC, the McGuire Funeral Service. My great 
grandfather, Robert Grayson McGuire, founded the funeral home 
in 1912, and when I was old enough I began spending my summers 
and my weekends there, washing cars, arranging flowers, 
shoveling snow off the driveway, and even acting as a 
pallbearer when a family was in need of another set of hands. 
And I will always remember that my mother and my uncle paid me 
minimum wage and no more, punching a time clock like everyone 
else, for every hour and every minute that I worked there.
    Through the course of watching my grandfather, my mother, 
my aunt, and my uncle run the funeral home, I learned numerous 
things. I learned how important it is to have a bank that 
provides credit in bad times, as well as good, about how having 
economic independence makes it easier to engage with the 
political issues of the day, like the civil rights movement, 
which my family was deeply involved in, and about the pride and 
responsibility that comes from being able to hire more people 
as your company grows. These are simple yet powerful things 
that I carry with me to this day.
    The first part of my career was squarely focused on issues 
of economic equality and how public policies can increase the 
possibilities of ordinary citizens to raise their incomes and 
have a shot at realizing their dreams. I got a Ph.D. in 
anthropology from Harvard, finishing in 1998, and my 
dissertation was on the redevelopment of public housing in 
Chicago. During that time, I also spent several months in 
Ethiopia and Eritrea researching the relationship between those 
countries shortly after the end of their 30-year-long war. And 
when I finished my Ph.D., I ran a welfare-to-work job training 
program in New York before joining a firm that helped U.S. 
cities redevelop public housing projects into mixed-income 
communities.
    In 2003, I moved into the financial services industry, and 
I spent the next 8 years working for several mutual fund and 
hedge fund companies, raising capital and serving as a senior 
executive in three entrepreneurial and dynamic firms. During 
that time, I began to more fully understand the role that 
financial markets play in our economy and how interconnected 
the global economy is as a result of the ease with which 
capital moves across national borders, industry sectors, and 
asset classes. In an era where CEO's and investors can deploy 
their next dollars or euros or ryal almost anywhere in the 
world at almost a moment's notice, it is increasingly important 
that countries like ours pay close attention to their financial 
positions and that they strive to maintain and strengthen the 
integrity of their capital markets.
    And that is what I would like to close with. Should this 
committee and the full Senate confirm me, you can be sure that 
I will undertake the role of Executive Director with that very 
sensibility in mind at all times. I will strive to be a sound 
steward of our country's capital at the bank and I will work to 
ensure that each dollar we commit is used to support the values 
that have proven so durable since America's founding, that open 
societies are the strongest societies, that transparent systems 
are the most successful systems, and that those countries which 
endeavor to give all of their citizens a fair shot at becoming 
educated, being healthy, and achieving economic independence 
are the countries that will succeed no matter where they happen 
to be located. Those are just a few of the values I have 
watched President Obama champion for many years now, and I 
would be honored to carry them forward on his behalf and on the 
country's behalf as the Executive Director of the bank.
    I look forward to answering any questions you might have, 
and I thank you again for allowing me to come before you today.
    [The prepared statement of Dr. McGuire follows:]

            Prepared Statement of Matthew T. McGuire, Ph.D.

    Thank you, Chairman Menendez, Ranking Member Corker, and 
distinguished members of the committee. It is an honor and a privilege 
to be here, as President Obama's nominee for Executive Director of the 
International Bank for Reconstruction and Development. I have enjoyed 
meeting some of you and your staff in the last few weeks, and I look 
forward to answering your questions today.
    I am fortunate to have a number of family members with me, and I 
would like to acknowledge them before I begin. First, my wife, 
Michelle, is here with our two daughters, Alexandra and Charlotte. My 
mother, Georgianna McGuire, is here; as is my brother, Eric, and his 
wife, Stacy. My uncle and aunt, John and Lynne McGuire, are here as 
well; and so are my in-laws and my ``other parents'' Bobby and Dianne 
Mance.
    My mother was part of the first Peace Corps group ever to go 
overseas, ``Ghana I,'' back in 1961. She was the first person in her 
family to go to college, having worked her way through, and when she 
graduated she heard President Kennedy's call to reach out beyond 
America's shores and to make a difference however small or however 
large it might be. She taught English in a small town in Ghana called 
Tema, and many years later a student of hers from the Tema Secondary 
School became one of my professors at Brown University. As you might 
imagine, I grew up hearing many stories about those sorts of 
connections, and I grew up hearing about the importance of America's 
role in the world, especially through its uniquely American 
institutions, such as the Peace Corps. My father, who died when I was 6 
years old, also served in the Peace Corps, in what was then East 
Pakistan and is now Bangladesh. He spent most of his career working on 
international affairs as well, and his influence on me has been 
considerable even in his absence.
    I also grew up working at my family's business here in Washington, 
DC, the McGuire Funeral Service. My great-grandfather, Robert Grayson 
McGuire, founded the funeral home in 1912, and when I was old enough I 
began spending my summers and my weekends there, washing cars, 
arranging flowers, shoveling snow off the driveway, and even acting as 
a pallbearer when a family was in need of another set of hands. And I 
will always remember that my mother and my uncle paid me minimum wage 
and no more, punching a time clock like everyone else, for every hour 
and every minute that I worked there.
    Through the course of watching my grandfather, my mother, my aunt 
and my uncle, run the funeral home, I learned numerous things. I 
learned about how important it is to have a bank that provides credit 
in bad times as well as good; about how having economic independence 
makes it easier to engage with political issues of the day, like the 
civil rights movement, which my family was deeply involved in; and 
about the pride and responsibility that comes from being able to hire 
more people as your company grows. These are simple, yet powerful 
things that I carry with me to this day.
    The first part of my career was squarely focused on issues of 
economic equality, and how public policies can increase the 
possibilities of ordinary citizens to raise their incomes and have a 
shot at realizing their dreams. I got a Ph.D. in anthropology from 
Harvard, finishing in 1998, and my dissertation was on the 
redevelopment of public housing in Chicago. During that time I also 
spent several months in Ethiopia and Eritrea, researching the 
relationship between those countries shortly after the end of their 30-
year-long war. And when I finished my Ph.D., I ran a welfare-to-work 
job training program in New York before joining a firm that helped U.S. 
cities redevelop public housing projects into mixed-income communities.
    In 2003, I moved into the financial services industry, and I spent 
the next 8 years working for several mutual fund and hedge fund 
companies, raising capital and serving as a senior executive in three 
entrepreneurial and dynamic firms. During that time I began to more 
fully understand the role that financial markets play in our economy, 
and how interconnected the global economy is as a result of the ease 
with which capital moves across national borders, industry sectors, and 
asset classes. In an era where CEOs and investors can deploy each next 
dollar, or euro, or real, almost anywhere in the world at almost a 
moment's notice, it is increasingly important that countries like ours 
pay close attention to their financial positions, and that they strive 
to maintain and strengthen the integrity of their capital markets.
    And that is what I would like to close with. Should you all confirm 
me, you can be sure that I will undertake the role of Executive 
Director with that very sensibility in mind at all times. I will strive 
to be a sound steward of our country's capital at the Bank, and I will 
work to ensure that each dollar we commit is used to support the values 
that have proven so durable since America's founding: that open 
societies are the strongest societies; that transparent systems are the 
most successful systems; and that those countries which endeavor to 
give ALL of their citizens a fair shot at becoming educated, being 
healthy, and achieving economic independence, are the countries that 
will succeed no matter where they happen to be located. Those are just 
a few of the values I have watched President Obama champion for many 
years now, and I would be honored to carry them forward on his behalf, 
and on the country's behalf, as Executive Director of the Bank.
    I look forward to answering any questions you might have, and I 
thank you again for allowing me to come before you today.

    The Chairman. Thank you.
    Ms. Guilarte.

STATEMENT OF MILEYDI GUILARTE, OF THE DISTRICT OF COLUMBIA, TO 
  BE UNITED STATES ALTERNATE EXECUTIVE DIRECTOR OF THE INTER-
                   AMERICAN DEVELOPMENT BANK

    Ms. Guilarte. Thank you, Chairman. Before I begin, I would 
like to introduce my family: my mother, Zenaida, my sister, 
Maida, my sister-in-law, Meda, my brother, Jose, and my father, 
Jose.
    Chairman Menendez, Ranking Member Corker, members of the 
committee, thank you for the opportunity to appear before you 
today. I am honored that President Obama nominated me to serve 
as the Alternate Executive Director at the Inter-American 
Development Bank. I am also grateful to Secretary Lew and 
Assistant Secretary Marisa Lago for supporting me.
    I am also grateful to my family, friends, and colleagues 
that are present today for their love, encouragement, and 
unwavering support. I specially would like to thank my mother, 
Zenaida, for inspiring me to be better each day.
    If confirmed, I will bring to the IDB a deep understanding 
of Latin America, solid experience with international 
development, a strong belief in the value of public service, 
and the commitment to relentlessly promote the U.S. interests 
in the region.
    Representing the United States at the IDB, an institution 
created to support the economic and social development of Latin 
America, is a humbling yet vital undertaking. If confirmed, I 
would be the first Latina in nearly 30 years to hold this 
important position.
    Let me take the opportunity to tell you a little bit about 
my background, which has shaped how I came to pursue a career 
in international development. Born in Cuba, I left Havana for 
the United States at an early age with my family in search of a 
better life with only a single blue suitcase in our hands. I 
spent my formative years in Miami, where I worked side by side 
with my parents in flea markets each weekend to help make ends 
meet. These experiences taught me the value of discipline and 
hard work. I was the first member of my family to graduate from 
college, and I feel deeply blessed to have prospered in 
America.
    While in graduate school, I focused on developing a solid 
academic foundation to understand economic, political, and 
social issues as they impact development and democracy.
    After graduation, my deep commitment to the promotion of 
democracy and human rights led me to work and live in various 
countries around the globe. Professionally I have worked in 
countries as diverse as India, East Timor, the Philippines, and 
the Republic of the Maldives. Through these experiences, I 
deepened my leadership skills and learned how critical the 
interaction between financial institutions, donors, and civil 
society are in the development of the world's poorest nations.
    At the World Bank and at the United Nations, I worked on 
conflict prevention, humanitarian assistance, and strengthening 
emerging democracies. Most recently, at the United States 
Agency for International Development, I worked in El Salvador 
shepherding an interagency initiative which supported broad-
based economic growth and citizen security. These experiences 
allowed me to appreciate the challenges of working within 
complex multilateral institutions and develop the skills to 
help promote effective initiatives in that environment.
    Thinking about Latin America has been a constant throughout 
my life. The opportunity to represent our great country at the 
Inter-American Development Bank is a particular honor for me as 
an American born in Latin America.
    If confirmed, I will work diligently to advance U.S. 
objectives at the Inter-American Development Bank by carefully 
stewarding the resources of the U.S. taxpayer and promoting 
greater accountability, transparency, and effectiveness. I look 
forward to working closely with the members of this committee 
and your staff.
    Thank you for your consideration. I look forward to 
answering any questions you might have.
    [The prepared statement of Ms. Guilarte follows:]

                 Prepared Statement of Mileydi Guilarte

    Chairman Menendez, Ranking Member Corker, members of the committee, 
thank you for the opportunity to appear before you today. I am honored 
that President Obama nominated me to serve as the Alternate Executive 
Director at the Inter-American Development Bank. I am also grateful to 
Secretary Lew and Assistant Secretary Marisa Lago for supporting me.
    I am also grateful to my family, friends, and colleagues that are 
present today, for their love, encouragement, and unwavering support. I 
specially would like to thank my mother, Zenaida, for inspiring me to 
be better each day.
    If confirmed, I will bring to the IDB a deep understanding of Latin 
America, solid experience with international development, a strong 
belief in the value of public service, and the commitment to 
relentlessly promote the U.S. interests in the region.
    Representing the United States at the IDB, an institution created 
to support the economic and social development of Latin America, is a 
humbling yet vital undertaking. If confirmed, I would be the first 
Latina in nearly 30 years to hold this important position.
    Let me take the opportunity to tell you a little bit about my 
background, which has shaped how I came to pursue a career in 
international development. Born in Cuba, I left Havana for the United 
States at an early age with my family in search of a better life with 
only a single blue suitcase in our hands. I spent my formative years in 
Miami, where I worked side by side with my parents in flea markets each 
weekend to help make ends meet. These experiences taught me the values 
of discipline and hard work. I was the first member of my family to 
graduate from college, and I feel deeply blessed to have prospered in 
America.
    While in graduate school, I focused on developing a solid academic 
foundation to understand economic, political, and social issues as they 
impact development and democracy.
    After graduation, my deep commitment to the promotion of democracy 
and human rights led me to work and live in various countries around 
the globe. Professionally, I have worked in countries as diverse as 
India, East Timor, the Philippines, and the Republic of the Maldives. 
Through these experiences, I deepened my leadership skills and learned 
how critical the interaction between financial institutions, donors, 
and civil society are in the development of the world's poorest 
nations.
    At the World Bank and at the United Nations, I worked on conflict 
prevention, humanitarian assistance, and strengthening emerging 
democracies. Most recently, at the United States Agency for 
International Development, I worked in El Salvador shepherding an 
interagency initiative which supported broad-based economic growth and 
citizen security. These experiences allowed me to appreciate the 
challenges of working within complex multilateral institutions and 
develop the skills to help promote effective initiatives in that 
environment.
    Thinking about Latin America has been a constant throughout my 
life. The opportunity to represent our great country at the Inter-
American Development Bank is a particular honor for me as an American 
born in Latin America.
    If confirmed, I will work diligently to advance U.S. objectives at 
the Inter-American Development Bank by carefully stewarding the 
resources of the U.S. taxpayer and promoting greater accountability, 
transparency, and effectiveness. I look forward to working closely with 
the members of this committee and your staff.
    Thank you for your consideration, and I look forward to answering 
any questions you might have.

    The Chairman. Well, thank you both for your testimony.
    Just like the previous panel, you have extraordinary 
personal backgrounds, and we always marvel about how people can 
come forth from their different backgrounds and engage in 
public service. So we applaud you in that respect.
    And your father is probably the smartest person here. He 
has a guayabera on. I wish I could get away with that here. 
[Laughter.]
    But in any event, let me ask you, Mr. McGuire. The World 
Bank is now in the second year of President Kim's ambitious 
reform plan to refocus the bank on its twin missions of ending 
extreme poverty by 2030 and promoting shared prosperity.
    What is your assessment of that progress to date? 
Certainly, strong U.S. leadership is essential in this process. 
If confirmed, in addition to your assessment, what interaction 
would you expect to have with President Kim's reform program?
    Dr. McGuire. Thank you for the question, Mr. Chairman.
    You are absolutely right. Dr. Kim has undertaken 
significant changes at the bank in terms of how it operates and 
those two goals that you outlined. I am quite supportive to 
this point of the efforts he is undertaking. Anytime there is 
significant change in an institution, there are hiccups and 
bumps and I think that the changes he is making are significant 
ones, and as a result, it is imperative as the Executive 
Director, the United States maintain close focus on how it is 
all going and whether or not the capital that we entrust to the 
bank continues to carry out the purposes that the board has 
approved them to do.
    I would say that one of the things in particular he has 
done I applaud, which is a move toward practice areas or in the 
business world we called verticals, and moving toward aligning 
the experts in agriculture, in education, in energy in such a 
manner that they really can spread their expertise more 
effectively across the many regions working with the country 
directors who understand the local environment the best. I have 
seen that model work quite well in the private sector, and 
while it takes time for it to really take root, it is one thing 
in particular that I think is quite commendable. And I look 
forward to working with Dr. Kim closely on seeing its execution 
all the way through.
    The Chairman. Ms. Guilarte, what is your perspective on how 
the IDB initiatives complement U.S. foreign policy goals for 
this hemisphere? And do you believe there are areas where the 
United States and the IDB could coordinate more closely to be 
able to further mutual objectives?
    Ms. Guilarte. Thank you, Chairman.
    The IDB plays a critical role in the region. As the largest 
shareholder at 30 percent, we have a unique opportunity to 
really shape the way that we conduct our relationship with the 
region. It helps in a number of ways--our assistance to the 
bank. Primarily it helps promote and advance our national 
interests, our security agenda. It helps promote U.S. 
opportunities and increase investment to U.S. firms, create 
jobs. So in a number of ways, our assistance goes a long way. A 
stable economy for our neighbors means a stable economy for us 
as well.
    In terms of our collaboration, I think there is a lot of 
work being done right now between the IDB and the World Bank. 
One great example is for the Haiti reconstruction that we have 
worked very closely on. So there are a lot of opportunities. It 
does not mean that we cannot do more. Absolutely. And if 
confirmed, I look forward to working with my colleague at the 
World Bank to promote and encourage more collaboration, 
ensuring that we do not duplicate any of our efforts.
    The Chairman. One other question for you. Argentina has 
failed to honor international obligations to the IMF, the 
United States, and other Paris Club creditors and to private 
bondholders. And I understand that the administration's policy 
since 2011 has been to oppose all MDB loans, including from the 
IDB, to Argentina, and that the IDB is currently large inactive 
in Venezuela.
    If confirmed, will you assure us that you will work to 
ensure that the IDB continues to take the U.S. Government's 
concerns about Argentina and Venezuela into consideration, and 
will keep the Congress informed?
    Ms. Guilarte. Thank you, Chairman.
    Absolutely. The United States does not support any loans to 
Venezuela or Argentina, and if confirmed, I will continue to 
uphold that position and keep your committee informed.
    The Chairman. Thank you very much.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    And thank you both for your willingness to do this, your 
great backgrounds. And you are very fortunate today that we 
have vote coming up and this is going to be short meeting. 
[Laughter.]
    I would like for you, if you would, Mr. McGuire to explain 
to people again looking on what our national security dividend, 
if you will, is for being such a large contributor to the World 
Bank and being involved in that way.
    Dr. McGuire. Sure. There are any number of things. I would 
start with several. One, as was mentioned earlier, economic 
stability is in the interest of our national security in the 
sense that when there are fragile or failed states in any part 
of the world, they tend to have spillover effects in the 
surrounding region. And to the extent that the World Bank can 
serve to strengthen countries all over the globe, it allows us 
to extend our foreign policy toolbox, as it were, in ways that 
are very important to not only the citizens of those countries, 
but to our Government itself.
    I would point secondly, coming from the Commerce 
Department, that I think an awful lot about the U.S. economy 
and its importance not only to our national security but to the 
globe's well-being. Clearly to the extent that there are 
growing middle classes around the world, there are deeper 
export markets for our companies to sell into, and as President 
Obama says an awful lot, 95 percent of the world's customers 
are outside of the United States. So to the extent that we can 
strengthen economies around the world, there are dividends not 
only to our national security but to companies here in the 
United States, to workers here in the United States, to our 
economy every single day.
    Senator Corker. So one of the things people look at 
relative to your organization, the organization you hope to be 
a part of--China has obviously dramatically changed over the 
last two decades, and yet we are still involved with--the World 
Bank is still involved with making loans there. I guess I would 
ask, should we not be moving away from being involved with 
economies and countries like China, Brazil, and India?
    Dr. McGuire. So there are two ways I would come at that. 
First, in terms of India itself, as I understand it, the bank 
is not providing loans except--to China except in those cases 
where there are considerable human needs. It is really about 
very, very basic human needs. So if the question is in terms of 
loans there, I would just want to differentiate between China 
and some other countries.
    In terms of the----
    Senator Corker. Explain that to me again.
    Dr. McGuire. As I understand it, at this point the World 
Bank is not loaning to China for projects there except for 
those instances where there are exceptional human needs having 
to do with very basic health, having to do with really 
fundamental lives being at stake. So in the sense that it is 
not like borrowing countries where there are projects coming 
before on a very regular basis.
    Senator Corker. So on that note, though, that is 
interesting, and obviously we care about people's human needs. 
But on the other hand, China is making massive loans to 
countries in Africa, obviously taking advantage of natural 
resource access. And actually people are very worried about the 
amount of loans they are making to some of those countries and 
their ability to repay them and what happens over time to those 
countries' sovereignty.
    So can you explain to me the rub there? So here we are 
making loans to China inside their country for basic human 
needs. On the other hand, they are loaning massive amounts out 
to other countries and, in essence, maybe making them stewards 
of China. It just seems like to me there is a little bit of a 
conflict there, and I wonder how you might resolve that.
    Dr. McGuire. So I think the important point there is that 
China can do things on a bilateral basis or on a multilateral 
basis. And it is important that China is part of the World Bank 
and that we are working with them so that they are in part of 
this multilateral institution and with other countries from 
around the world who can engage and try to shape some of the 
things that are going on within not only China but elsewhere in 
the world. So really it comes down in a very basic way from my 
perspective about working with someone versus entirely against 
someone, and I think it is always advantageous to the extent 
you can bring people into these global institutions and work 
with them and try to shape behavior there.
    I would also say that in terms of Africa specifically or 
other countries where the World Bank operates, as does a 
country like China bilaterally, it is very important for a 
member of the World Bank's role often is the smart money, if 
you will. The capital markets have changed. The global 
environment is radically different now than it was 20 years 
ago. One of the things that World Bank money does is often come 
with the expertise that is highly respected and that, 
therefore, can shape the way the particular governments there 
operate differently than they might if they only were choosing 
between a bilateral choice of Chinese dollars--or Chinese yuan 
versus American dollars and there were not institutions like 
the World Bank to be mediators and to push people in the right 
direction.
    Senator Corker. So I have met Jim Kim, and I think actually 
the chairman may have hosted something where he came in to talk 
a little bit about the World Bank. And we have been reading 
stories about the restructuring, and we all know probably 
better than anybody in the world here that when you change 
anything, there is lots of resistance. A lot of people have a 
lot of stake in the status quo.
    But you feel with his background, which is very different 
for somebody looking at billions and billions and billions of 
dollars alone--he has a very different background, if you will, 
coming mostly I think from a health background. Do you feel 
like he is qualified, first of all, to carry out the role of 
the World Bank but also the changes that he has put in place 
with things that are going to lead to a good end at the World 
Bank?
    Dr. McGuire. I do and for several reasons. One, I would 
note that he has run various types of organizations in his 
career. So as president of Dartmouth University, that is a very 
different entity than when he cofounded Partners in Health, 
which was really doing health care around the world, public 
health. So I think the diversity of the types of organizations 
he has run is an advantage.
    I think also importantly, though, this is where the 
Executive Director can play a real role. The United States is a 
leader on the board, as you know. We have significantly more 
shares than anyone else at the bank. And this is a role that I 
hope that I can help play by garnering support at the board 
level, by working closely with management, and making sure that 
this does go smoothly going forward.
    Finally, the thing I would say that is important--and you 
know this as a business owner yourself, I would imagine--is how 
important the people under you are. And I think so long as he 
continues to maintain the extraordinary talent under him and 
let them do their jobs effectively, I am very confident that he 
will be able to succeed going forward.
    Senator Corker. Well, thank you both. And we will have some 
written questions to follow up. But I do appreciate especially 
people with the backgrounds that you have aspiring to serve in 
this way.
    Thank you for bringing of your family members. We have a 
minister that ends up having the children's choir a lot to make 
sure the audience is full. [Laughter.]
    So thank you very much, all of you, for being here. And we 
look forward to a speedy confirmation. So thank you.
    Dr. McGuire. Thank you very much.
    Ms. Guilarte. Thank you.
    The Chairman. Thank you, Senator Corker.
    Again, as I said to the previous panel, there will be some 
other questions submitted for the record. I would urge you to 
answer them as expeditiously as possible in order to consider 
your nomination before a business meeting of the committee.
    This record will remain open until the close of business 
tomorrow, Thursday.
    And with the thanks of the committee for your testimony and 
your willingness to serve, this hearing is adjourned.
    [Whereupon, at 11:30 a.m., the hearing was adjourned.]
                              ----------                              


                   Material Submitted for the Record


           Letter Signed by 11 House Members Supporting the 
                    Nomination of Matthew T. McGuire
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 

                 Responses of Mark Sobel to Questions 
                  Submitted by Senator Robert Menendez

                  eu financial crisis and imf reforms
    Question. Since the beginning of the financial crisis in 2009, 11 
European countries have entered into financial assistance programs with 
the IMF, with commitments totaling about $157 billion. Of these 
programs, three are with members of the Eurozone: Greece, Portugal, and 
Ireland. Some critics, including here in Congress, are concerned about 
whether loans to Europe are an appropriate use of IMF resources, and 
have called for internal, systemic reform of the IMF surveillance 
program and lending processes.

  <diamond> Given that you were working at Treasury during the crisis, 
        what is your view of the IMF's response to the crisis in 
        Europe? If confirmed, are there any aspects in particular of 
        the IMF's mandate and/or procedures that you believe merit 
        review and possible reform?

    Answer. The Fund's engagement with Europe is strongly in the U.S. 
interest. The IMF has played a critical role in supporting its European 
members' efforts to stabilize their economies and financial systems, 
and helping to mitigate contagion from Europe to other countries, 
particularly the United States. As our largest economic partner, Europe 
is an important source of growth and jobs for the United States, and 
our economic health is closely intertwined with Europe's.
    The IMF benefits all of its members by standing ready to provide 
policy advice, technical assistance, and financing, if needed. The IMF 
has supported specific European countries in cases where the European 
Union has provided the bulk of the financing and has been willing to 
apply its policy tools flexibly and aggressively to support necessary 
reforms. This lending has come with rigorous conditions in the context 
of macroeconomic adjustment programs. Today, Ireland has exited and 
Portugal is close to exiting from IMF support, and Greece has achieved 
a primary surplus and completed an international bond issue.
    Despite its many strengths, the IMF--like any other organization--
has room for improvement. As I discussed in my testimony, I think the 
IMF can provide crisper judgments on global rebalancing and exchange 
rate issues, strengthen its work on crisis prevention, spillover 
analysis, and debt sustainability, support pro-poor spending in low-
income countries, and help make financial sectors more resilient. I 
look forward to working to strengthen the IMF's work in these areas, if 
confirmed.
                                 ______
                                 

                 Responses of Mark Sobel to Questions 
                    Submitted by Senator Bob Corker

                           imf quota package
    Question. If the quota reforms are implemented, the United States 
will transfer approximately $63 billion from the New Arrangements to 
Borrow (NAB) credit line to the more permanent IMF quota system. The 
overall IMF quota will be doubled, reaching approximately $755 billion.
    There are many in Congress who approved the emergency NAB credit 
line in 2009 because they were led to believe the NAB funds were 
important in a time of global financial emergency.

  <diamond> Why is a doubling of the IMF quota justified?

    Answer. The 2010 reforms are necessary to put the IMF on a more 
sustainable and stable financial footing for the future.
    The world has changed since the 1980s and 1990s, and the size of 
IMF quotas has not kept pace with global growth and the rise in global 
trade and capital flows. With increased financial integration and 
globalization, the extent to which destabilizing flows can flee a 
country has greatly increased. Moreover, reflecting this and other 
realities, the world has confronted far greater tail risks since the 
global financial crisis. In short, there is the potential for much 
larger demands for IMF resources in the face of continuing global 
economic and financial instability.
    The doubling in quota resources was also an important element of 
the 2010 negotiations, facilitating the achievement of needed 
realignments in quota shares and to modernize IMF governance. 
Specifically, these reforms are designed to rebalance shares to more 
accurately reflect today's global economy, while maintaining the U.S. 
veto.
    It is critical to underscore, however, that the overall amount of 
resources available to the IMF when the 2010 reforms are implemented 
will only increase slightly, and the United States will not increase 
its commitment to the IMF by a single dollar.
    Under the 2010 reforms, the United States preserves its veto and 
leadership role in the IMF, facilitates a needed realignment to ensure 
that the Fund's membership remains anchored in the multilateral system 
and continues to view the Fund as legitimate, all without committing 
any new resources to the IMF. At the same time, the IMF gets the 
resources it needs to keep pace with the growth in global output, 
trade, and financial flows.

    Question. Engagement with Congress on the IMF reform package has 
not been effective since the administration agreed to the reform 
measures and quota changes in 2010. Given that you were responsible at 
the Treasury Department for the IMF during that period, what would you 
do differently going forward in your engagement with Congress to 
explain and promote congressional approval of the proposed IMF changes?

    Answer. The administration has been, and continues to be, strongly 
committed to passage of legislation to implement the 2010 IMF quota and 
governance reforms. As Deputy Assistant Secretary for International 
Monetary and Financial Policy, I have appreciated the opportunity to 
engage with the Senate Foreign Relations Committee, and other 
congressional committees, on the importance of passing this 
legislation. If confirmed, I look forward to continuing to work with 
you and other Members of Congress on this high priority legislation.
 imf surveillance and the response to the 2008 global financial crisis
    Question. One of the key functions of the IMF is to monitor the 
economic and financial policies of its member countries, highlighting 
the risks to stability in the international monetary system and 
advising on needed policy adjustments. Yet, recent financial crises 
such as the global financial crisis of 2008 and the Eurozone crisis 
seem to have caught many by surprise and unprepared.

  <diamond> In your view, what lessons have we learned from the 2008 
        crisis? What changes to IMF surveillance and policies have been 
        implemented in response to these crises?

    Answer. IMF surveillance indeed has an important crisis prevention 
role. The global community is far better served by crisis prevention 
rather than coping with crisis resolution.
    As a first line of defense, countries have important 
responsibilities to implement sound policies. Many countries, 
especially emerging markets, have learned lessons from their crises in 
the past decade, and have improved their policies, consistent with IMF 
advice, in order to create more space and shock absorbers.
    The 2008 crisis revealed other lessons. One was that the potential 
for capital to rapidly flee countries has further grown. Another lesson 
in this spirit is that interdependencies among countries have also 
increased, meaning that contagion can spread more virulently and 
quickly around the world. In this regard, IMF surveillance 
underestimated the combined risk across economies, as well as sectors, 
and the importance of financial sector feedback and spillovers. Another 
lesson is that a sound macroeconomic policy framework is the best first 
line of defense against external risks.
    Accordingly, since 2008, the United States has encouraged the IMF 
to strengthen its focus on multilateral surveillance through increased 
coverage of financial stability and external sector issues, as well as 
analysis of the spillover effects of country policies. In response, the 
IMF now produces annual spillover reports and external sector reports, 
and has enhanced its analysis of financial stability issues in 
Financial Sector Assessment Program (FSAP) reports. The United States 
has also continued to urge the IMF to undertake more rigorous bilateral 
surveillance and put forward its views in a more candid and forthright 
manner.
    Further work, though, is still needed to create incentives for 
countries to follow IMF advice to strengthen their policies and reduce 
vulnerabilities, recognizing that sovereign countries may not always 
follow the IMF's recommendations. If confirmed, I will work to ensure 
that surveillance is strengthened.
                   argentina bonds and amicus briefs
    Question. As you know, the U.S. Second Circuit Court of Appeals 
recently held that Argentina breached its contractual obligations to 
U.S. taxpayers by refusing to honor its financial obligations under 
bonds owned by those taxpayers. Last summer, Christine Lagarde, 
managing director of the International Monetary Fund (IMF) announced 
that the Fund would be filing an amicus brief in support of Argentina's 
appeal to the U.S. Supreme Court.

  <diamond> It is my understanding that the IMF has never before filed 
        a U.S. Supreme Court brief. Is that accurate?

    Answer. I am aware that though the IMF has not filed an amicus 
brief before the Supreme Court, it has filed at least one amicus brief 
in a U.S. appellate court. In 1997 and 1998, the IMF (together with the 
Inter-American Development Bank, Pan-American Health Organization, and 
Intelsat) filed, in both the federal district and appeals courts, 
amicus briefs opposing the imposition of D.C. sales taxes on cafeteria 
transactions by a World Bank contractor. International Bank for 
Reconstruction and Development v. District of Columbia, 171 F.3d 687 
(D.C. Cir. 1999).
    I understand that submission of amicus briefs by international 
financial institutions occurs infrequently, but the IMF and other 
international financial institutions such as the Inter-American 
Development Bank and the World Bank do file amicus briefs in U.S. 
courts from time to time.

    Question. What communications did you have with the IMF Executive 
Board and any staff of the IMF regarding the Argentine sovereign debt? 
Did you participate in any conversations regarding the potential IMF 
amicus brief? If so, please describe such conversations.

    Answer. The IMF's decision to file in this case was its own, 
reached by IMF management and staff. The IMF's concerns about the 
implications of the Court's ruling in undermining the orderliness and 
predictability of the sovereign debt restructuring process were similar 
to those expressed in prior U.S. Government briefs in the litigation.
    The State and Treasury Departments actively discussed the merits of 
whether the United States should file an amicus brief, working closely 
with the Department of Justice. Treasury exchanged views with the IMF 
at the staff level on the posture of the litigation, consistent with 
discussions ongoing at senior levels. As Secretary Lew stated in recent 
testimony (before the House Subcommittee on Financial Services and 
General Government on April 29, 2014), he discussed these issues with 
the IMF.
    In the context of this broader discussion, I engaged with the IMF 
management, in particular through the U.S. Executive Director, who is a 
member of the Executive Board, to help advise senior Treasury officials 
in determining the appropriate U.S. posture with respect to the IMF's 
consideration of a potential amicus brief and to engage with IMF 
officials regarding such a brief.

    Question. What are your views on the propriety of the U.S. 
Executive Director to the IMF advocating that the IMF or foreign 
governments file amicus briefs in domestic U.S. court cases?

    Answer. The positions taken by the U.S. Executive Director to the 
IMF at the IMF Board are subject to the direction of the Secretary of 
the Treasury. If confirmed, I will adhere to the instructions of the 
United States Government, and in particular, the Secretary of the 
Treasury.

    Question. Would you please elaborate on your concern that ``the 
court's ruling could upset the orderliness and the ability of the debt 
restructuring process''?

    Answer. The United States, in briefs filed in the U.S. Court of 
Appeals for the Second Circuit in [April] and December 2012, stated 
that U.S. efforts to promote voluntary debt restructuring, along with 
macroeconomic reform and support as necessary from the international 
financial institutions, is the most effective way to resolve sovereign 
balance of payment crises while minimizing economic damage. This in 
turn will help protect the U.S. economy and U.S. jobs.
    As those briefs stated, the court's ruling may make voluntary 
sovereign debt restructuring substantially more difficult by tilting 
the incentives away from consensual, negotiated restructuring in the 
first place.
    In 2004, the United States also filed a brief with the District 
Court for the Southern District of New York in the case involving 
Argentina. Like the 2012 briefs, the 2004 brief highlighted the 
potentially harmful impact on debt restructuring of both novel 
interpretations of standard contract terms and novel enforcement 
mechanisms. The 2004 brief also noted that the United States has only 
previously twice intervened in litigation on sovereign debt issues (in 
Allied Bank/Costa Rica in 1984 and in CIBC/Brazil in 1994), emphasizing 
the adverse effects that contractual uncertainty could have on 
international financial markets and on restructuring efforts.
      investor rights and sovereign borrower lending from the imf
    Question. The IMF staff issued a report in April last year on 
sovereign debt restructuring examining collective action clauses. What 
are your views on balancing the rights of bond holders with the need to 
establish a financially stable restructuring path for the debt burdened 
sovereign.

  <diamond> Do you think property rights of investors should be 
        respected when a sovereign borrower needs to restructure its 
        debt in an economic crisis? How do you balance respect for 
        investor's property rights and the need for debt relief to help 
        the borrowing country recover?

    Answer. As I stated in the hearing, the United States does not 
condone Argentina's treatment of its creditors or actions, respects the 
sanctity of contract rights, and urges countries to honor their 
commitments. As stated in the U.S. amicus brief filed in the Argentina 
case, U.S. sovereign debt policy implicitly recognizes the critical 
role of the contract in resolving a debt crisis. Restructuring 
negotiations, when these unfortunately become necessary, must take 
place within a framework where creditors can seek recourse to the 
courts to enforce contractual obligations. Moreover, creditors must be 
assured that the terms of any new debt instruments issued pursuant to a 
restructuring plan will be legally enforceable. As the amicus brief 
submitted by the U.S. Government in 2012 stated, it would harm the 
process that has evolved to address sovereign debt problems if 
creditors, in negotiating with debtors, also retained the option to 
litigate to obtain interpretations of standard terms than are not 
supported by commercial market practice.

    Question. Do you think good faith negotiations between a sovereign 
borrower and its private sector investors is the best way to arrive at 
a fair and mutually agreed restructured deal? What do you think of the 
proposals from some quarters for a non-negotiated or unilateral deal 
approach on the grounds of expediency?

    Answer. I believe that good faith negotiations between a sovereign 
borrower and its private sector are the best way to arrive at a fair 
and mutually agreed deal. Borrowers should engage constructively with 
creditors, and fully disclose information on the country's financial 
situation and plans going forward.
    I would not support proposals that would impose a unilateral deal 
on the grounds of expediency.
                 ttip and financial services regulation
    Question. Treasury has opposed including financial services 
regulatory issues in TTIP. Is that still Treasury's position or has 
there been any further interagency discussion on how to approach the 
issue in TTIP?

    Answer. It is my understanding that the administration's position 
has not changed. As Secretary Lew has indicated, traditional market 
access issues for financial services should be part of the 
negotiations; however, financial prudential and regulatory cooperation 
should continue in existing and appropriate bilateral and multilateral 
regulatory fora, such as the G20, the Financial Stability Board, and 
international standard setting bodies, in parallel alongside the TTIP 
negotiations.

    Question. My understanding is that the Europeans have stated 
publicly that the current Financial Regulatory Markets Dialogue (FMRD) 
is insufficient to address bilateral issues, and they appear to be 
insistent that these issues be addressed in TTIP.

  <diamond> Isn't there some sort of creative solution that can bring 
        some of these issues into TTIP in a way that does not undermine 
        U.S. law or negatively affect regulators' prudential authority?

    Answer. Ensuring the safety and soundness of the U.S. financial 
system through a robust regime of prudential regulation and supervision 
remains a top priority of the administration.
    Since the financial crisis, the United States has been pursuing a 
comprehensive agenda, with ambitious deadlines, on regulatory and 
prudential cooperation in the financial sector--multilaterally, in the 
G20 and the Financial Stability Board, bilaterally with the European 
Union in the Financial Markets Regulatory Dialogue, and in 
international standard-setting bodies such as the Basel Committee on 
Banking Supervision and the International Organization of Securities 
Commissions.
    Alongside the TTIP negotiations, the United States will continue to 
work to make progress in these channels in the near term, including by 
raising international standards to the levels that our financial 
regulators are now implementing in the United States. This is the best 
way to assure high quality regulation globally and level the playing 
field for U.S. firms.
                        congressional relations
    Question. In your role as Deputy Assistant Secretary of the 
Treasury, did you at any time discourage the U.S. Executive Director to 
the International Bank of Reconstruction and Development, the U.S. 
Executive Director for the Asian Development Bank, or the Executive 
Director from the Inter-American Development Bank from agreeing to 
requests to appear at hearings of the Senate Foreign Relations 
Committee?

    Answer. No.

    Question. If confirmed as U.S. Executive Director, do you commit to 
appearing at hearings of this committee when requested and to 
responding to committee requests for information in a timely manner?

    Answer. Yes, I look forward to working with your committee.
                                 ______
                                 

                 Responses of Mark Sobel to Questions 
                  Submitted by Senator James E. Risch

    Question. In your answers to Senator McCain's questions you 
indicated that both the IMF's announcement, in July 2013, that it would 
file an amicus brief with the U.S. Supreme Court siding with Argentina 
against U.S. investors, and then the subsequent reversal of this 
announcement were decisions that originated at the IMF and received no 
support or influence by any U.S. Government officials.

  <diamond> Is this an accurate summary of your position?

    Answer. The IMF's decision to file in this case was its own, 
reached by IMF management and staff. The IMF's concerns about the 
implications of the Court's ruling in undermining the orderliness and 
predictability of the sovereign debt restructuring process were similar 
to those expressed in prior U.S. Government briefs in the litigation.
    The State and Treasury Departments actively discussed the merits of 
whether the United States should file an amicus brief, working closely 
with the Department of Justice. Treasury exchanged views with the IMF 
at the staff level on the posture of the litigation, consistent with 
discussions ongoing at senior levels. As Secretary Lew stated in recent 
testimony (before the House Subcommittee on Financial Services and 
General Government on April 29, 2014), he discussed these issues with 
the IMF. In view of the posture of the litigation, and the U.S. 
decision not to file a brief, Treasury indicated to the IMF that it 
would not support the brief.

    Question. In its 68-year history, the IMF has never attempted to 
influence a domestic U.S. court case, and in fact, the Fund has 
maintained a decades-long tradition of remaining neutral in debt 
disputes between member states.

  <diamond> Will you assure this committee that, if confirmed as U.S. 
        Executive Director to the IMF, you will maintain this tradition 
        and oppose any effort by the IMF to influence a domestic U.S. 
        court case?

    Answer. The positions taken by the U.S. Executive Director to the 
IMF at the IMF Board are subject to the direction of the Secretary of 
the Treasury. If confirmed, I will adhere to the instructions of the 
United States Government, and in particular, the Secretary of the 
Treasury.
    I am aware that though the IMF has not filed an amicus brief before 
the Supreme Court, it has filed at least one amicus brief in a U.S. 
appellate court. In 1997 and 1998, the IMF (together with the Inter-
American Development Bank, Pan-American Health Organization, and 
Intelsat) filed, in both the federal district and appeals courts, 
amicus briefs opposing the imposition of D.C. sales taxes on cafeteria 
transactions by a World Bank contractor. International Bank for 
Reconstruction and Development v. District of Columbia, 171 F.3d 687 
(D.C. Cir. 1999).
    I understand that submission of amicus briefs by international 
financial institutions occurs infrequently, but the IMF and other 
international financial institutions such as the Inter-American 
Development Bank and the World Bank do file amicus briefs in U.S. 
courts from time to time.
                                 ______
                                 

               Responses of Sunil Sabharwal to Questions 
                  Submitted by Senator Robert Menendez

                               imf reform
    Question. The 2010 quota and governance reforms increase the IMF's 
resources and adjust its governance structure to more accurately 
reflect current global economic participation. However, stemming from 
IMF engagement in EU countries during the financial crisis, some 
critics contend that other systemic and operational reforms should be 
considered.

  <diamond> Do you agree that, aside from the 2010 reforms, other 
        internal reforms are needed at the IMF and do you intend to 
        explore additional reform options, if confirmed?

    Answer. It is important for the IMF to be evenhanded and maintain 
the same high standards in its lending to European countries as in its 
lending to other countries around the world. On the other hand, it is 
not uncommon that the IMF's exposure at any given time is high to a 
finite group of countries in a given region for the purposes of 
avoiding contagion, negatively affecting the global economy. An example 
of this would be the Asian crisis of the late 1990s.
    The IMF plays an important role in promoting fiscal discipline and 
open and transparent budget processes in its member countries. As a 
businessman, I believe that the IMF should apply similar discipline to 
its own internal budget framework and demonstrate strong institutional 
transparency. I understand the United States has been a strong voice 
over the years in encouraging IMF budget stringency and greater 
transparency of the IMF's operations. I look forward to supporting 
these efforts and looking into these issues further, if confirmed.
                            imf surveillance
    Question. A frequent accusation of critics is that IMF surveillance 
is ineffective, because the IMF has no means of enforcing its policy 
recommendations in countries that do not borrow from the IMF.

  <diamond> Do you agree with this assertion? If so, how might the 
        USED's office work with the IMF to make its surveillance more 
        effective?

    Answer. Surveillance is one of the IMF's primary activities to 
identify risks and prevent crises. Many countries have learned lessons 
from past crises and have improved their policies consistent with IMF 
advice. I understand that given the importance of surveillance to 
crisis prevention, the United States has encouraged the IMF to 
strengthen its focus on multilateral surveillance through increased 
coverage of financial stability and external sector issues, as well as 
analysis of the spillover effects of country policies. Multilateral 
surveillance can be further improved by increasing cooperation with and 
amongst other stakeholders of the global economy.
    In addition, more work is needed to create incentives for countries 
to follow IMF advice to strengthen their policies and reduce 
vulnerabilities, recognizing that in the end, countries are responsible 
for charting their own course.
    Therefore, I believe surveillance can be improved throughout, via a 
number of methods, such as the application of peer pressure using the 
article IV consultations and publication of IMF staff assessments. If 
confirmed, I will work to ensure that surveillance is strengthened.
                   imf transparency & accountability
    Question. To what extent has the IMF, as it claims, increased 
transparency and accountability to both shareholders and loan 
recipients? If confirmed, will ensuring greater transparency in the IMF 
be a priority for you?

    Answer. In the 1990s, very little information was published about 
the IMF's institutional or operational activities. Since then, I 
understand the United States has consistently pressed for greater 
transparency at the IMF, including enhanced disclosure of economic and 
financial information by IMF member countries. Today, extensive 
information about the IMF's operations and activities is publicly 
available on the IMF Web site, and I understand that over 90 percent of 
IMF article IV staff reports and lending program documents are 
published. If confirmed, I will work to promote enhanced transparency 
at the IMF.
                                 ______
                                 

             Responses of Matthew T. McGuire to Questions 
                  Submitted by Senator Robert Menendez

                      world bank safeguard reform
    The World Bank is currently overhauling its social and 
environmental safeguard policies. With strong U.S. leadership, the Bank 
was the first international financial institution to adopt such 
policies, which have been influential and remain critical in ending 
extreme poverty and promoting shared prosperity.

  <diamond> As USED, how will you use this opportunity to ensure 
        safeguard policies reflect international best practices and 
        U.S. development priorities at the World Bank?

    Answer. The World Bank's social and environmental safeguard 
policies are an integral part of its comparative advantage and impart 
value added beyond the financing that the World Bank provides. The 
current review of the World Bank's safeguards is an opportunity to 
update and strengthen the safeguards, both in terms of the written 
policies and the way in which they are implemented. If confirmed, I 
will work with other Board members to build support for safeguard 
policies that reflect international best practices and U.S. development 
priorities. I will also actively consult with civil society groups and 
the private sector on the World Bank's safeguard review process.
       world bank response to ukraine and global financial crisis
    Question. What is your evaluation of the World Bank's response to 
the global financial crisis? What reforms, if any, would have improved 
its effectiveness? The World Bank has announced its intention to 
support IMF and other bilateral and multilateral efforts to stabilize 
and reform Ukraine. What are the goals of this program and what role do 
you anticipate you would have as USED in discussions regarding Ukraine?

    Answer. The World Bank responded to calls from G20 Leaders to 
increase lending to emerging and developing economies in support of 
essential government spending during the global financial crises. The 
World Bank's Independent Evaluation Group concluded that the World Bank 
was responsive in scaling up countercyclical financing, but was also 
critical of the Bank's crisis-related fiscal management operations and 
financial sector support. The evaluation puts these findings into 
perspective by noting the severe economic headwinds.
    In Ukraine, the World Bank has responded rapidly. My understanding 
is that the Board will consider a lending package totaling up to $3 
billion in 2014. I also understand that World Bank programs in Ukraine 
are tackling the difficult reforms required in the country to improve 
governance and lay the foundations for future economic growth. If 
confirmed, I will continue to encourage the World Bank to respond 
effectively to the crisis in Ukraine.
            world bank energy initiatives in africa and asia
    Question. Off-grid energy markets in sub-Saharan Africa and South 
Asia have grown rapidly, but could grow faster with better access to 
reliable financing partners.

  <diamond> If confirmed, what will you do to ensure the Bank's 
        Lighting Africa and Lighting Asia programs not only break down 
        market barriers, but also provide long-term, low-cost 
        financing?

    Answer. I understand the United States supports the World Bank's 
Energy strategy, which aims to increase access to energy, enhance 
energy security and move countries toward more sustainable energy 
practices. Lighting Africa and Lighting Asia are helping to increase 
access to modern lighting services by setting industry standards for 
product quality, promoting relevant policy and regulatory reforms and 
mobilizing private capital to increase access to low-cost finance. If 
confirmed, I will continue to support and encourage the World Bank's 
efforts to increase energy access in Africa and Asia.
                    world bank doing business report
    Question. The ``Doing Business'' report has long been lauded as 
signature World Bank initiative that promotes reform efforts around the 
world to improve the ease of doing business. However, it has aroused 
some controversy and last year an external panel appointed by President 
Kim reviewed the report and suggested reforms.

  <diamond> What were the main reforms the panel recommended and how 
        would this affect the integrity of the report? What has World 
        Bank leadership decided as far as implementation of the 
        recommendations? If confirmed, would you have the opportunity 
        to influence internal decisions on this issue, and what is 
        Treasury's position on the results of the review?

    Answer. I understand the United States Government vigorously 
supports the ``Doing Business'' report, including its aggregate country 
rankings. I believe that the report is a valuable knowledge product of 
the World Bank Group that helps incentivize changes to improve business 
climates in the Bank's member countries. Dr. Kim has announced that he 
will focus on improving methodology and increasing data to strengthen 
the ``Doing Business'' report. If confirmed, I will work actively with 
senior World Bank management and other Board members to protect and 
enhance the ``Doing Business'' report.
                  world bank--emerging market lending
    Question. What reasons are there for the World Bank to continue to 
lend to dynamic emerging market economies such as China, which have 
substantial resources of their own and often have their own active 
assistance programs?

    Answer. While the World Bank's grant resources are appropriately 
reserved for the poorest countries, I believe there is an ongoing role 
for the World Bank in middle-income countries, where the majority of 
the world's poor live today. For example, World Bank programs deliver 
the highest quality procurement standards, as well as strong 
environmental and social safeguards. Moreover, World Bank lending to 
middle-income countries supports domestic consumption within these 
economies, which generates export markets for U.S. firms and 
contributes to broader global rebalancing efforts.
    To clarify a previous statement that I made about World Bank 
lending to China, the World Bank provides a range of lending to China, 
mainly for projects supporting green growth and stronger social 
inclusion. But consistent with congressional legislation, it is U.S 
policy to oppose World Bank projects for China, except those that are 
specifically aimed at meeting basic human needs, such as clean water, 
basic education, and health services to poor populations.
        world bank--procurement opportunities for u.s. companies
    Question. There are billions of dollars in procurement 
opportunities from World Bank lending.

  <diamond> To what extent are U.S. firms bidding on, and winning, 
        these contracts? What hurdles do U.S. firms face on bidding for 
        contracts? If confirmed, what actions would you take to ensure 
        American companies are fully informed of opportunities and can 
        compete on a level playing field for such contracts?

    Answer. My understanding is that in the World Bank's fiscal year 
2013, U.S. firms won 134 prime contracts with a total value of almost 
$100 million. The World Bank is currently reviewing and revising its 
procurement policy, and the U.S. Government has committed to ensuring 
that the World Bank maintains procurement policies that uphold a level 
playing field for all businesses. As a way to level the playing field 
between American firms and international firms, if confirmed, I will 
continue to push for greater use of nonprice factors, such as quality 
or after sales service, in the awarding of contracts, rather than only 
the lowest cost options.
                     world bank/ifc water projects
    Question. Access to clean and affordable drinking water is a major 
challenge in much of the world, and water-borne illnesses are a major 
source of death and lost productivity in the developing world. The 
World Bank has been a global leader in this area, particularly its 
private finance arm, the International Finance Corporation, and this 
has great potential to alleviate global poverty. However, I have heard 
concerns that IFC has prioritized financial outcomes over access.

  <diamond> I fully understand the complexity of water issues, and 
        realize the private sector has a crucial role to play. However, 
        will you commit to me now that, if confirmed, you will explore 
        this issue during your first year, in coordination with my 
        office?

    Answer. I understand that this is an issue on which the U.S. 
Executive Director's Office has been engaged with civil society 
organizations, IFC and World Bank staff in recent months. My 
understanding is that when the IFC provides support to private water 
companies, it sets out explicit development objectives for these 
investments, including expanding access and improving quality. If 
confirmed, I will continue to engage on this issue and would be pleased 
to update your office as the work progresses.
 world bank--changes to the international development association (ida)
    Question. According to some estimates, the number of countries 
eligible to borrow from the World Bank's concessional facility, the 
International Development Association, or ``IDA, will decline from the 
current 81 countries to as low as 30 within the next 10-15 years, and 
with most of those in sub-Saharan Africa.

  <diamond> Can you explain this expected development, and could this 
        fundamentally change how the World Bank operates? What would 
        this mean for the new objective of eliminating extreme poverty 
        by 2030?

    Answer. I understand that the U.S. Government places a very high 
importance on IDA, given its global reach and focus on the poorest, 
which aligns with administration priorities. Current demand for IDA 
resources remains high for countries that are too poor to attract 
sufficient capital to support their urgent development needs. And, to 
achieve the World Bank's goal of eliminating extreme poverty by 2030, 
IDA support is critical for the hardest-to-reach places, like fragile 
and conflict-affected states, where progress has been slower.
    world bank reform--measuring performance and global public goods
    Question. Many critics of the World Bank argue that its main 
weakness has been to judge performance by how much it lends rather than 
by what it and borrowing countries achieve . . . essentially a quantity 
over quality criticism.

  <diamond> Do President Kim's reforms address this common concern with 
        the World Bank?

    Answer. Yes, I understand that Dr. Kim's reforms will restructure 
the World Bank around ``global practices,'' which are thematic areas, 
such as water, energy, health, and education. I believe that 
restructuring the World Bank in this way will strengthen its expertise 
on these issues, improve the flow of knowledge across the different 
countries in which the World Bank works and improve the quality of the 
World Bank's lending. The effort to shift the World Bank's culture to a 
stronger focus on results will take sustained attention over time. If 
confirmed, I will continue to support Dr. Kim's reforms that aim to 
accelerate this cultural change and, more generally, work to elevate 
the use of evidence and the measurement of results.

    Question. Given the huge size of private investment in emerging and 
developing economies, some critics also contend that the Bank should 
devote fewer resources on country programs and instead use its global 
reach to focus efforts and serve as a catalyst for addressing global 
challenges, such as those related to the environment, health, 
agricultural productivity, and good governance.

  <diamond> The World Bank already engages in regional and global 
        initiatives, but are you aware whether the ongoing 
        reorganization will accelerate this shift? If confirmed, do you 
        anticipate supporting more regional World Bank programming?

    Answer. The World Bank can convene a broader set of stakeholders 
than bilateral agencies. This is especially important for providing 
global public goods or when dealing with global challenges like climate 
change or food security, which are too vast and complex for any one 
country--or even group of countries--to effectively manage on their 
own. If confirmed, I will continue to encourage the World Bank to work 
on regional projects and to address global challenges that are not 
contained within country boundaries.
                                 ______
                                 

              Responses of Mileydi Guilarte to Questions 
                  Submitted by Senator Robert Menendez

                    idb private sector consolidation
    Question. The IDB is reviewing options for consolidating multiple 
existing private sector divisions, following a 2012 independent 
evaluation that was critical of the inefficiencies of the current 
structure.

  <diamond> Is the administration supportive of the private sector 
        restructuring initiative? Do you expect greater efficiency and 
        efficacy from a consolidated private sector division? What 
        concerns does the administration have, and what can we expect 
        as far as consultations with Congress? If confirmed, what 
        involvement with this issue would you expect to have?

    Answer. I understand that the United States welcomes the initiative 
to improve the efficiency and development impact of the IDB's private 
sector operations, and that during the recent IDB annual meeting, the 
Board of Governors passed a resolution to continue work on developing a 
proposal for the so-called ``merge-out'' restructuring of the IDB's 
private sector windows.
    It is also my understanding that the United States has advocated 
for an in-depth review of the proposed restructuring, including an 
analysis of the assumptions and implications of the potential business 
and capitalization models. This process will be ongoing throughout 2014 
and 2015. If confirmed, I would aim to ensure that the process is 
comprehensive and that the potential implications for the IDB's 
financial outlook and development effectiveness and soundness are fully 
understood and considered. If confirmed, I will work with Congress to 
keep you updated on both the process and new developments.
                      idb--energy in the caribbean
    Question. The Caribbean has been in an energy crisis for quite some 
time. Electricity rates are high and there is a great dependence on 
Venezuela's subsidized oil. The political and economic catastrophe in 
Venezuela could very well end that subsidized oil program and further 
exacerbate hardship throughout the Caribbean.

  <diamond> Are you familiar with IDB energy initiatives related to the 
        Caribbean? What policies guide the USED's office on this issue 
        and, if confirmed, what actions would you be in a position to 
        take to help the IDB address this issue?

    Answer. I understand that the IDB is very active on this issue. For 
instance, the IDB hosted the Caribbean Energy Ministers Conference in 
December 2013. During this conference, the USED's office helped to 
facilitate a meeting between U.S. Energy Secretary Moniz and President 
Moreno, which led to an enhanced working relationship between the IDB 
energy sector staff and USG agencies. I understand that the IDB is 
funding energy studies that explore the feasibility of conversion to 
natural gas as a fuel source in the Caribbean, as well as the role for 
renewables and energy efficiency. I believe that collaboration with 
U.S. Government agencies has been integral to these studies. If 
confirmed, I will continue to support this important cooperation.
    In addition, I understand that the participation of the USED's 
office in IDB energy initiatives related to the Caribbean is in line 
with the administration's energy objectives in the region, and is 
guided by the President's Climate Action Plan, which seeks multipronged 
energy solutions. If confirmed, I will continue to pursue U.S. policy 
goals at the IDB on these important issues.
             idb--social development versus economic growth
    Question. Social development is one of the IDB's strategic policy 
goals. In particular efforts to reduce inequities in opportunity based 
on gender, ethnicity, race, disability, and social and economic 
circumstance are key priorities.

  <diamond> How important is social development for economic 
        development, compared, for example, with efforts to promote 
        productivity, to enhance private sector growth, and to 
        encourage economic and institutional reform? How will you 
        balance these sometimes competing objectives if confirmed?

    Answer. Economic growth and social development are inextricably 
linked, and I understand that both are central to the IDB's mission to 
support efforts by Latin American and Caribbean countries to reduce 
poverty and inequality through sustainable and inclusive growth. I 
understand that the IDB has put in place a development effectiveness 
framework to ensure that all IDB activities--whether for social 
development specifically, or for private sector growth and 
institutional reform--contribute to the overall goals of the 
institution, while complying with effective social and environmental 
safeguards.
    I understand that last year 21 percent of approved IDB financing 
was allocated to social sector programs; 34 percent was allocated to 
infrastructure and the environment; 9 percent to regional integration 
and trade; and 36 percent to institutional support for development. If 
confirmed, I will work to ensure that the IDB project portfolio 
continues to support both the goals of social development and economic 
growth.
                         idb--programs in haiti
    Question. The IDB is a major donor to Haiti and has pledged to 
provide $2.2 billion in grant assistance to Haiti by 2020.

  <diamond> Is IDB assistance to Haiti meeting its objectives, and is 
        it doing so in an open and transparent manner? If confirmed, do 
        you expect to have the opportunity to influence IDB programs in 
        Haiti?

    Answer. I understand that in 2010 the shareholders of the IDB, with 
strong leadership from the United States, agreed to forgive all of 
Haiti's outstanding debt to the IDB and to provide $200 million in 
transfers each year to the Haiti Grant Facility over a 10-year period. 
The fourth transfer of $200 million to the grant facility was approved 
at the recent IDB annual meeting. I understand that this funding will 
continue to provide critical resources to support the IDB's ongoing 
work in six priority sectors in Haiti: education reform, private sector 
development, energy, agriculture, transportation, and water and 
sanitation. My understanding is that IDB projects in Haiti are subject 
to the same approval processes and transparency protocols as any IDB 
project, including Board approval prior to project implementation.
    From my experience at USAID, I know that the sustainable 
development of Haiti's economy is an important policy priority for the 
U.S. Government, given Haiti's proximity to the United States and our 
close economic and people-to-people ties. If confirmed, I will 
represent these interests by supporting the IDB's annual $200 million 
transfer to the Haiti Grant Facility each year, and work with IDB staff 
to ensure that those resources are used effectively and in a 
coordinated manner in helping to meet Haiti's long-term development 
objectives.
                   idb--multilateral investment fund
    Question. The United States is in arrears to the Multilateral 
Investment Fund, and there are concerns that without additional 
financing, the MIF could be forced to cease operations as soon as 2015.

  <diamond> What other sources of funding, besides the United States, 
        can the MIF draw from? Are you aware how U.S. arrears to the 
        MIF compare to the arrears of other countries? Would 
        consolidation of the private sector functions potentially solve 
        this problem?

    Answer. I understand that the United States has been an active 
supporter of the MIF, and if confirmed, I will continue to strongly 
support the MIF's critical work and valuable contributions to 
development in Latin America. My understanding is that the United 
States is the only IDB shareholder in arrears to the MIF.
    I understand that the MIF would be part of a new, consolidated 
entity, but that its precise relationship is unclear and the reform 
process itself may take some time to conclude. For that reason, it is 
my understanding that at the recent IDB annual meeting, the Board of 
Governors asked IDB management to present formal proposals for interim 
MIF financing by June 2014, to ensure an appropriate level of 
operations until decisions are made on the private sector restructuring 
initiative.
           idb--procurement opportunities for u.s. companies
    Question. There are significant procurement opportunities related 
to IDB project lending, especially in the infrastructure sector.

  <diamond> To what extent are U.S. firms bidding on, and winning, 
        these contracts? What hurdles do U.S. firms face in competing 
        for these contracts? If confirmed, what actions would you take 
        to ensure American companies are fully informed of 
        opportunities and can compete on a level playing field for such 
        contracts?
  <diamond> What can the USED's office do to encourage the IDB to adopt 
        procurement policies that encourage the adoption of high-
        quality goods, services, and technology, as opposed to simply 
        accepting a bid with a low initial cost, but poor durability 
        and excessive maintenance requirements?

    Answer. I understand that U.S. companies are actively bidding on--
and winning--contracts related to IDB project lending. I understand 
that the percentage of U.S. firms that bid on and win consulting 
opportunities averages 75-80 percent, while the percentage for 
contractors is around 60-65 percent. Since 2011, U.S. companies have 
been awarded 240 consulting contracts for IDB-related projects, 
totaling $32,982,266, as well as 53 contracts for goods and services 
related to IDB projects, totaling $55,166,702.
    If confirmed, I will work to ensure that the USED's office, in 
collaboration with the U.S. Commercial Liaison Office to the IDB, makes 
every effort to assist U.S. companies in preparing bids for 
international procurement opportunities with the IDB and in clearing 
any hurdles that might arise during the procurement bidding process. My 
understanding is that the USED's office advises U.S. companies on how 
to be successful in their bids by providing helpful guidelines (such as 
information about IDB procurement rules, networking opportunities, and 
process suggestions), and by assisting companies with obtaining 
procurement related documents (all of which are available on the IDB 
Web site).
    It is also my understanding that the USED's office participates in 
Board- and Committee-level discussions pertaining to reforms of the 
IDB's procurement policies. If confirmed, I will continue to encourage 
robust procurement policies that conform to international best 
practices and provide a level playing field for U.S. firms.
                          economic statecraft
    Question. I have long been interested in finding ways to leverage 
U.S. agencies such as Ex-Im Bank, OPIC, and TDA to promote economic 
integration in the Western Hemisphere, specifically by tackling Latin 
America's infrastructure deficiency.

  <diamond> In your opinion, how can the U.S. Government and private 
        sector work with the IDB to address this issue and create new 
        economic opportunities here in the United States and throughout 
        the hemisphere?

    Answer. If confirmed, I will work to support the ongoing efforts 
made by the U.S. Government and the private sector to work in 
cooperation with the IDB in promoting economic integration and 
addressing infrastructure deficiencies in Latin America. As just one 
example, I understand that the U.S. Government is actively exploring 
ways to work with the IDB and other partners in the region to improve 
trade and logistics infrastructure through Central America and its 
linkages to North and South America. With regard to private sector 
coordination, I understand that the Americas Business Dialogue (ABD) is 
a private sector driven initiative facilitated by the IDB intended to 
foster a high-level and open dialogue among the region's most important 
business leaders, and is being supported by the State Department and 
the U.S. Chamber of Commerce. If confirmed, I will continue to support 
these types of efforts and seek out new opportunities to address this 
issue.
                        cuba's status in the idb
    Question. Cuba signed the 1959 IDB Charter as an ``original 
member'' but never formalized its membership. Any move to include Cuba 
in the IDB would receive intense and bipartisan interest from both 
Congress and the administration. The United States has the ability as 
the largest shareholder to withhold the quorum needed to proceed with a 
vote by the IDB Board of Governors to include Cuba as a member.

  <diamond> Given ongoing congressional interest will you assure us 
        that you will consult closely with Congress on any and all 
        developments concerning Cuba's membership in the IDB?

    Answer. It is my understanding that, at present, there are no 
discussions regarding potential membership for Cuba in the IDB. If 
confirmed, I would consult closely with Congress on any developments 
concerning Cuba's potential membership in the IDB, were that to occur.
                                 ______
                                 

              Response of Matthew T. McGuire to Question 
                 Submitted by Senator Edward J. Markey

    Question. The World Bank is currently reviewing its safeguard 
policies, which identify and minimize harm caused by bank projects to 
vulnerable people and the environment. Women, girls, and minority 
communities compose more than half of the world's population, but face 
discrimination, human rights abuses, and frequent exclusion from 
positive benefits of economic development. Recent World Bank studies 
have affirmed the real economic costs of discrimination to economic 
development. In recent months, the consequences of this exclusion on 
women, girls, and LGBT communities have become particularly evident, in 
part because of unfortunate new laws and practices in some countries 
that seek to discriminate and exclude, rather than support these 
groups.
    The World Bank has never adopted a mandatory safeguard policy to 
mitigate risks associated with its investments to these vulnerable 
groups. As a result, the Bank risks excluding these individuals--often 
some of the poorest and most marginalized--from benefiting from or 
contributing to its projects and programs, and, in so doing, it may 
even reinforce or create new inequalities in the countries in which it 
works. This is bad for our investments and it is not what we stand for 
as a country. I was pleased to see that the Obama administration 
recently released a policy paper expressing support for adding 
additional safeguards to World Bank projects, particularly safeguards 
on gender, sexual orientation, and gender identity.

  <diamond> As the Executive Director of the International Bank for 
        Reconstruction and Development, how will you seek to ensure 
        that World Bank projects do not exclude marginalized groups? 
        Would you support an effort by the World Bank to update its 
        safeguard policies so that they address the impacts of World 
        Bank projects on women, girls, and LGBT minorities?

    Answer. Exclusion of vulnerable and marginalized groups, including 
women, girls, and LGBT persons, is unacceptable. If confirmed, I will 
work with other Board members to build support for World Bank policies, 
including safeguard policies, that seek to ensure that Bank projects 
and other Bank activities do not directly or indirectly contribute to 
exclusion of these groups and that help enable the Bank to fulfill its 
goal of inclusive economic growth.

 
                    NOMINATIONS OF ANDREW SCHAPIRO 
                           AND NINA HACHIGIAN

                              ----------                              


                         THURSDAY, MAY 15, 2014

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Andrew H. Schapiro, of Illinois, to be Ambassador to the Czech 
        Republic
Nina Hachigian, of California, to be Representative to the 
        Association of Southeast Asian Nations, with the rank 
        and status of Ambassador
                              ----------                              

    The committee met, pursuant to notice, at 3:36 p.m. in Room 
SD-419, Dirksen Senate Office Building, Hon. Christopher Murphy 
presiding.
    Present: Senators Murphy and Johnson.

         OPENING STATEMENT OF HON. CHRISTOPHER MURPHY, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Murphy. This hearing of the Senate Foreign 
Relations Committee will now come to order. We will be joined 
shortly I believe by Ranking Member Senator Johnson. Thank you 
very much for your patience. As you know, we just finished a 
long series of votes, which happens to be the final series of 
votes for the week. So that may explain what could be a smaller 
turnout for this hearing. We appreciate your patience, figured 
that you guys have waited for months for this hearing to take 
place, so an extension of a few hours might not necessarily be 
so disastrous.
    I am pleased to welcome both of our nominees and also your 
friends and family who have come here today to support you. The 
committee will consider today the nominations of Andrew 
Schapiro to be our Ambassador to the Czech Republic and Nina 
Hachigian to be our Ambassador to the Association of Southeast 
Asian Nations.
    Just to outline the process, I will give some opening 
remarks. If Senator Johnson arrives, he will give his as well. 
Then we will proceed to introductions of our nominees, at which 
time you will be invited to give your opening statements and 
then answer questions from the panel. It would be great of you 
could keep your opening statements to around 5 minutes or less.
    To begin, I would like to address the United States 
relationship with the Czech Republic and the challenges and 
opportunities that await our next Ambassador. The United 
States-Czech relationship is a special one. Our democratic 
histories have served as an inspiration to each other. Former 
Czech President, poet, and playwright Vaclav Havel and the 
revolutionary manifesto Charter 77 are icons of freedom and 
democracy to millions here in the United States. 
Correspondingly, America of course was a refuge for thousands 
of Czechs fleeing both Nazi occupation and Soviet control.
    In addition to our shared values, we also have strong 
security and economic ties. The Czech Republic is a key NATO 
ally and serves as the protecting power for U.S. interests in 
Syria after we evacuated our Embassy in Damascus. Since 2002 
they have been one of our staunchest and strongest partners in 
Afghanistan, sending 700 soldiers, including special forces, 
who operate in some of the most challenging areas of 
Afghanistan.
    Perhaps not surprisingly, the Czech Republic plays a 
leading role promoting democratic values around the world, 
helping countries make that difficult transition from 
authoritarian regimes to representative democracy. It was under 
the Czech Presidency of the European Union that the Eastern 
Partnership Initiative was launched.
    Still, there are challenges in the Czech Republic that no 
doubt will be met by our next Ambassador. The surprisingly 
successful entrance of the ANO Party on the Czech political 
scene was largely driven by voters fed up with bribery and 
corruption. According to a Gallop Poll, the percentage of 
Czechs who perceive corruption as widespread in the government 
increased by 15 percentage points between 2007 and 2013, 
reaching 94 percent last October. The recent scandal that 
forced the Prime Minister's resignation and triggered new 
elections may have been the most notable of these problems, but 
hopefully it will also lead to real reform.
    Another area that will be both a challenge but also an 
opportunity is the field of energy security, which has 
increasingly become a central issue of our discussions around 
Ukraine and the European response to Russia's belligerent 
actions in the region. The Czech Republic, like many nations in 
Central and Eastern Europe, is highly dependent on Russian 
energy. They need a regional strategy to diversify their 
sources and to modernize their energy infrastructure.
    Now let me say a few words about ASEAN. The United States 
has deep interests in Southeast Asia, including maritime 
security, the promotion of democracy and human rights, the 
encouragement of liberal trade and investment regimes, 
counterterrorism, the combating of illegal trafficking of 
narcotics and human trafficking, and many other issues.
    As a Pacific nation and a global power, it is imperative 
that the United States continue to deepen our engagement in the 
region and with ASEAN, its most important multilateral 
institution. In terms of our economic partnership, the trading 
and investment figures with the region speak for themselves. 
U.S. goods trade with ASEAN is nearly $200 billion. Services 
trade is approximately $30 billion, and U.S. foreign direct 
investment in those markets is around $160 billion. Conversely, 
the 10 countries have a market of approximately 600 million 
consumers and economic growth there has been faster than the 
world average for the past decade.
    In terms of political and security interests, I would note 
that the United States has an abiding interest in maintaining 
peace and security in the Asia-Pacific region, and this 
includes ensuring open sea-lanes in the South China Sea and the 
East China Sea, where so much of the world's commerce flows. So 
it is of paramount importance that any disagreements and 
territorial disputes in Asia be resolved peacefully, through 
international law, through arbitration and through codes of 
conduct, not through aggressive actions and confrontation.
    The tension between Vietnam and China--I am sure we will 
talk about that today--that we have seen in recent days 
underscores they need for peaceful mechanisms to resolve 
territorial disputes. We hope that the Association will 
continue to play an important role in facilitating these 
discussions.
    We look forward to hearing your thoughts on those subjects 
and many others. In the absence of Senator Johnson's opening 
remarks, let me proceed to introducing our witnesses and then 
you can proceed with your statements. I am pleased to introduce 
Andrew Schapiro, who is the nominee for Ambassador to the Czech 
Republic, who has come before this committee after a career in 
both the public and private sector.
    Andrew is a Czech American who has deep family ties to the 
country to which he has been nominated to serve. I would 
encourage all of my colleagues to read the incredible moving 
story of his family's experience during the time of Nazi 
occupation of Czechoslovakia as documented in ``Letters From 
Prague.''
    Mr. Schapiro attended Yale University, graduating magna cum 
laude with a degree in history. He was awarded the Marshall 
Scholarship to do postgraduate work at Oxford, earning a degree 
in philosophy, politics, and economics, and then he returned to 
the United States to attend Harvard, the law school there, 
where he also graduated magna cum laude.
    Again, his legal career as a clerk to two distinguished 
Federal judges, both Richard Posner and Supreme Court Justice 
Harry Blackmun. He then entered public service, spending 5 
years as a Federal public defender in Manhattan. He went on to 
become a partner at two leading international law firms, 
achieving newsworthy victories in the areas of intellectual 
property, white collar criminal defense, and commercial 
litigation. He was selected for inclusion in The Best Lawyers 
of America and has been described as one of the brightest legal 
minds of his generation.
    In addition, Mr. Schapiro is involved in a number of civic 
and charitable organizations, serving on the Criminal Justice 
Act Advisory Board for the U.S. Court of Appeals in the Second 
Circuit and the Board of Directors for the Chicago Low Income 
Housing Trust Fund, as well as the Board of Directors for the 
Jewish Council of Urban Affairs.
    I am also pleased to introduce Nina Hachigian as the 
nominee for the Ambassador to be the Representative of the 
United States to the Association of Southeast Asian Nations, 
with the rank and the status of Ambassador. She is currently a 
senior fellow at the Center for American Progress, based in Los 
Angeles. She focuses on great power relationships, the United 
States-China relationship, international institutions, and 
United States foreign policy.
    She is the coauthor of the book ``The Next American 
Century: How the U.S. Can Thrive as Other Powers Rise.'' She 
was previously a senior political scientist at RAND Corporation 
and served as the director of the RAND Center for Asia Pacific 
Policy for 4 years. Before that she was with the Council on 
Foreign Relations and also on the staff of the National 
Security Council in the White House.
    She has published numerous reports, book chapters, and 
journal articles. She is on the board of the Institute for 
International Affairs of Stanford University and is a member of 
the Council on Foreign Relations and the Pacific Council on 
International Policy.
    She received her bachelor of sciences from Yale University 
and then, like Mr. Schapiro, for inexplicable reasons left 
Connecticut to pursue her J.D. from Stanford Law School.
    We will now move to opening statements. We will start with 
you, Mr. Schapiro, and then Ms. Hachigian.

 STATEMENT OF ANDREW H. SCHAPIRO, OF ILLINOIS, NOMINATED TO BE 
                AMBASSADOR TO THE CZECH REPUBLIC

    Mr. Schapiro. Thank you, Mr. Chairman, and thanks in 
advance to Ranking Member Johnson and all members of the 
committee. It is an honor to come before you as the President's 
nominee to be our next Ambassador to the Czech Republic.
    Seventy-five years ago my late mother, then a small girl, 
watched from the window of her family's apartment in Prague as 
German soldiers marched in to occupy her city. Czechoslovakia, 
as it was then known, had been a flourishing outpost of Western 
democracy and culture prior to those tragic events. Our family, 
like all the Czech people, learned the hard way that you cannot 
take liberty and security for granted.
    We ultimately learned something else--that the United 
States of America, the Nation that gave my mother and her 
parents refuge when they fled the Nazis, literally saving their 
lives, is a force for good in the world like no other.
    I want to thank President Obama and Secretary Kerry for the 
trust that they have shown in me with this nomination, and I am 
so pleased that if I am confirmed my wife and children will be 
joining me to represent America in the Czech Republic. They 
mean everything to me and they are here with us today: my wife 
Tamar, our 13-year-old daughter, Gallia, and our 10-year-old 
son, Alexander. Mr. Chairman, they will be force multipliers in 
Prague if I am confirmed for this position.
    I would also like to acknowledge my sister, also named 
Tamar, who has come in from California to be here today. Sadly, 
my parents are no longer with us, but their wisdom and their 
examples are always present.
    The Czech Republic is a staunch, important ally in the 
heart of Europe. We have deep relationships in three key areas: 
our shared security, our shared prosperity, and our shared 
values. Let me address each in turn.
    Our defense and security relationship has flourished since 
the end of the cold war. As an active member of NATO, the EU, 
and the OSCE, the Czech Republic plays a role in global affairs 
that is disproportionate to its relatively small size. As you 
mentioned, Mr. Chairman, Czech military forces serve side by 
side with U.S. forces in Afghanistan. The Czechs have helped to 
promote peace and stability in the Balkans, in Mali, and the 
Sinai, and the Czechs have courageously served as our 
protecting power in Syria since we closed our Embassy there in 
2012.
    If confirmed, I will work to fortify our bilateral and 
multilateral cooperation in building security around the world.
    Of course, Russia's actions in Ukraine now remind us and 
our allies of the role that NATO was originally created to 
perform, the defense of transatlantic security. Here again, the 
Czechs are making important contributions. They have offered 
fighter jets to reinforce Baltic air space and troops to 
support the NATO Response Force. They have also provided 
monitors for OSCE missions. In fact, a Czech was among the OSCE 
monitors recently taken captive and then released in Eastern 
Ukraine.
    The Czech Republic has quickly and faithfully implemented 
the targeted sanctions and asset freezes that have been imposed 
on Russia, and if confirmed I will make sure that we continue 
to coordinate closely with our Czech allies as we jointly 
address the situation in Ukraine. I will also take every 
opportunity to reaffirm our ironclad commitment to mutual self-
defense under NATO's Article 5.
    Today the Czech defense budget totals just over 1 percent 
of GDP, falling well short of NATO targets and placing the 
Czechs in the middle of the pack among our European allies in 
terms of defense spending. If confirmed, I will urge the Czech 
Government to boost the share of resources that it dedicates to 
defense.
    Recent events also starkly demonstrate the need for greater 
attention to European energy security. The Czech Republic, 
which gets about 75 percent of its oil and gas from Russia, 
understands that predictable and uninterrupted access to energy 
is fundamental to both national security and economic 
prosperity. If confirmed, I will work with the Czech Republic 
to help increase its energy security through diversification of 
energy sources and routes.
    Next, I want to build on our two nations' growing economic 
and commercial ties. Over the last 4 years bilateral trade 
between the United States and the Czech Republic has doubled to 
nearly $6 billion. The Czech Republic has become one of the 
United States fastest-growing export markets in Europe, and if 
confirmed I will be a strong advocate for U.S. business 
interests to support job creation back home and I will make 
expanding our trade ties and ensuring that our firms can 
compete on the ground a top priority.
    Completing an ambitious Transatlantic Trade and Investment 
Partnership, or TTIP, is a key strategic goal for both the 
United States and the European Union and its member states, 
including the Czech Republic. I promise that, along with our 
excellent interagency team in Prague, I will work to maintain 
the support of the Czech Government for TTIP and help to 
promote awareness that a mutually beneficial agreement will 
ensure continued growth and prosperity on both sides of the 
Atlantic.
    Finally, on our shared values, if confirmed I will advocate 
for transparency and rule of law in the business sector and 
encourage the Czech Government to continue its anticorruption 
efforts to help improve the overall business climate. I will 
also work with the Czech Government and civil society 
organizations to help foster a more inclusive society so that 
all Czechs, regardless of ethnicity, religion, or sexual 
orientation, benefit from equal opportunity and full protection 
of the law.
    In all of these efforts I will draw upon my experience as 
an advocate, as a public speaker, as a student of economics and 
politics, and as a manager of large and diverse teams to 
advance the goals of our Nation and the Embassy.
    Mr. Chairman, members of the committee, I noted at the 
outset that in the late 1930s my mother and grandparents 
watched Nazi troops enter their city from their apartment 
window in Prague. That apartment building still stands and it 
is within walking distance of the U.S. Ambassador's residence 
where, if confirmed, I will soon be living with my own family. 
It is not a long walk, but it is quite a journey that has taken 
us from that apartment to that residence. I am deeply honored 
to have been asked to represent the United States in Prague. I 
thank you for this opportunity to appear before you and I 
welcome any questions you may have.
    [The prepared statement of Mr. Schapiro follows:]

                Prepared Statement of Andrew H. Schapiro

    Thank you, Mr. Chairman, Ranking Member Johnson, and members of the 
committee. It is an honor to come before you as the President's nominee 
to be our next Ambassador to the Czech Republic.
    Seventy-five years ago, my late mother--then a small girl--watched 
from the window of her family's apartment in Prague as German soldiers 
marched in to occupy her city. Czechoslovakia, as it was then known, 
had been a flourishing outpost of Western democracy and culture prior 
to those tragic events. Our family--like all the Czech people--learned 
the hard way that you cannot take liberty and security for granted. And 
we ultimately learned something else: that the United States of 
America--the nation that gave my mother and her parents refuge when 
they fled the Nazis, literally saving their lives--is a force for good 
in the world like no other.
    I want to thank President Obama and Secretary Kerry for the trust 
in me that they have shown with this nomination. And I am very pleased 
that, if I am confirmed, my wife and children will join me in 
representing America in the Czech Republic. They mean everything to me, 
and they are here with us today. My wife, Tamar; our 13-year-old 
daughter, Galia; and our ten-year-old son, Alexander. They will be 
``force multipliers'' in Prague if I am confirmed for this position. I 
would also like to acknowledge my sister--also named Tamar--who has 
come in from California to be here today. Sadly my parents are no 
longer with us--but their wisdom and their examples are ever-present.
    Mr. Chairman and members of the committee, at this critical time, 
the Czech Republic is a staunch, important ally in the heart of Europe. 
We have a deep relationship in three key areas: our shared security; 
our shared prosperity; and our shared values. Let me address each in 
turn.
    First, our defense and security relationship has flourished in the 
decades since the end of the cold war. As an active member of NATO, the 
EU, and the OSCE, the Czech Republic plays a role in global affairs 
that is disproportionate to its relatively small size. Czech military 
forces serve side by side with U.S. soldiers in Afghanistan; they are 
currently in charge of base protection at Bagram Air Force base and 
contribute helicopter training units and special forces troops. The 
Czechs have promised that they will draw down only in consultation with 
allies, and have pledged to be ``in together, out together'' with us in 
Afghanistan.
    The Czechs have also made important contributions to peace and 
stability in the Balkans, providing units for both NATO's force in 
Kosovo and the EU's mission in Bosnia. Today Czech soldiers are 
deployed with the EU Training Mission in Mali, and with the 
Multinational Force Observers mission in the Sinai. Additionally, the 
Czechs have courageously served as our protecting power in Syria since 
the closure of our Embassy there in 2012. If confirmed, I will work to 
fortify our bilateral and multilateral cooperation in promoting 
democracy and building security around the world.
    And while Czech forces have proven their mettle in expeditionary 
missions, Russia's actions in Ukraine now remind us and our allies of 
the role that NATO was originally created to perform, the defense of 
transatlantic security. Here again the Czechs are making important 
contributions. They have offered fighter jets to reinforce Baltic 
airspace and troops to support the NATO Response Force. They have also 
provided monitors for OSCE missions; indeed a Czech was among the OSCE 
monitors recently taken captive and then released in Eastern Ukraine.
    The Czech Republic has quickly and faithfully implemented the 
targeted sanctions and asset freezes that have been imposed on Russia. 
If confirmed, I will make sure that we continue to coordinate closely 
with our Czech allies as we jointly address the situation in Ukraine. I 
will also take every opportunity to reaffirm our ironclad commitment to 
mutual self-defense under NATO's Article 5.
    Today the Czech defense budget totals just over 1 percent of GDP, 
falling well short of NATO targets and placing the Czechs in the middle 
of the pack among our European allies in terms defense spending. If 
confirmed, I will urge the Czech Government to boost the share of 
resources that it dedicates to defense. I know that Defense Secretary 
Hagel and Czech Defense Minister Stropnicky discussed Czech 
modernization efforts and the need to maintain readiness and 
capabilities to support NATO when they met here in Washington last 
month. If confirmed, I will continue to engage on this high priority 
topic.
    The events in Ukraine also starkly demonstrate the need for greater 
attention to European energy security. The Czech Republic--which gets 
about 75 percent of its oil and gas from Russia--understands that 
predictable and uninterrupted access to energy is fundamental to both 
national security and economic prosperity. With the cancellation of the 
Temelin nuclear power plant tender, the Czech Government is reexamining 
its energy security strategy. If confirmed, I will work with the Czech 
Republic to help increase its energy security through diversification 
of energy sources and routes.
    Next--I want to build on our two nations' growing economic and 
commercial ties. Over the last 4 years, bilateral trade between the 
U.S. and the Czech Republic has doubled--to nearly $6 billion. With a 
prosperous, industrialized economy, the Czech Republic provides 
substantial export opportunities for the U.S. in high-tech, 
manufacturing, and other sectors. Last year, with the support of the 
U.S. Commercial Service, we exported almost $2 billion of goods to the 
Czech Republic--more than at any other time in our history. In fact, 
the Czech Republic has become one of the United States fastest growing 
export markets in Europe. If confirmed, I will be a strong advocate for 
U.S. business interests to support job creation back home, and will 
make expanding our trade ties and ensuring that U.S. firms can compete 
on the ground a top priority.
    Completing an ambitious Transatlantic Trade and Investment 
Partnership, or TTIP, is a key strategic goal for both the United 
States and the European Union and its member states, including the 
Czech Republic. The Czechs will benefit from the expansion of trade and 
reduction in the cost of doing business through lowering tariffs and 
removing ``behind the border'' barriers. U.S. companies will benefit 
from the opening of opportunities--especially for small and medium-
sized businesses--to trade with and invest in the Czech Republic. I 
promise that--along with our excellent interagency team at our Embassy 
in Prague--I will work to maintain the support of the Czech Government 
for TTIP and help to promote awareness that a mutually beneficial 
agreement will ensure continued growth and prosperity on both sides of 
the Atlantic.
    Finally, on our shared values, if confirmed, I will advocate for 
transparency and rule of law in the business sector and encourage the 
Czech Government to continue its anticorruption efforts to help improve 
the overall business climate. Last year, several prominent Czech NGOs 
came together to speak with one voice on anticorruption issues. Their 
efforts led to creation of several distinct pieces of anticorruption 
legislation which a majority of parliamentarians have publicly 
supported. If confirmed, I look forward to working with Czech civil 
society organizations to support and amplify their efforts.
    Confronting all forms of racism and intolerance reinforces the 
values and security of both the United States and the Czech Republic. I 
will work with the Czech Government and civil society organizations on 
building a more inclusive society to ensure that all Czechs, regardless 
of ethnicity, religion, or sexual orientation benefit from equal 
opportunity and the full protection of the law.
    In all of these efforts, I will draw upon my experience as an 
advocate, a public speaker, a student of economics and politics, and a 
manager of large and diverse teams to advance the goals of our Nation.
    Mr. Chairman and members of the committee, I noted at the outset 
that in 1939 my mother and grandparents watched Nazi troops enter their 
city from their apartment window in Prague. That building still stands, 
and it is within walking distance of the U.S. Ambassador's residence 
where--if confirmed--I will soon be living with my own family. It is 
not a long walk, but it is quite a journey that has taken us from the 
apartment to the Residence. I am deeply honored to have been asked to 
represent the United States in Prague. I thank you for this opportunity 
to appear before you. I welcome any questions you may have.

    Senator Murphy. Thank you very much, Mr. Schapiro.
    Ms. Hachigian, I hope that I came somewhat close to 
pronouncing your name correctly. You are welcome to give your 
opening statement.

  STATEMENT OF NINA HACHIGIAN, OF CALIFORNIA, NOMINATED TO BE 
 REPRESENTATIVE TO THE ASSOCIATION OF SOUTHEAST ASIAN NATIONS, 
             WITH THE RANK AND STATUS OF AMBASSADOR

    Ms. Hachigian. Thank you, Mr. Chairman and members of the 
committee. I am deeply honored to appear before you today and 
humbled by the confidence that President Obama has shown in me 
with this nomination. My Armenian grandmother, whose locket I 
am wearing, only had a grade school education. When she came to 
this country fleeing persecution and poverty in her homeland, I 
do not think she could have imagined the path that would bring 
me here.
    Her younger son served in the U.S. Air Force during the 
Korean war. He earned a Ph.D. in math. He married another 
professor from Germany and they had a daughter, who ended up at 
this table. I am my grandmother's American dream. My parents 
would also have been very proud of this nomination.
    I would like to introduce my husband. My family is more 
important to me than anything and I would not be here if Joe 
and my two children were not willing to embark on a genuine 
adventure. I also want to thank my friends and colleagues who 
are here with us today.
    I have been working on U.S. Asia policy for some 15 years 
now since I left the staff of the National Security Council, 
first as the Director of the Center for Asia Pacific Policy at 
the RAND Corporation and now as a senior fellow at the Center 
for American Progress. In those jobs, I traveled to the region 
frequently, had the opportunity to meet with Asian leaders and 
work closely with my Asian counterparts.
    I am thrilled by the prospect of entering government again 
and serving my country if I am confirmed as the next Ambassador 
to ASEAN. I want to acknowledge the key role the Senate has 
played in recognizing the growing importance of ASEAN, 
including by creating this position in 2006.
    Just as the Rebalance to Asia is an important part of the 
administration's foreign policy, engagement with ASEAN plays a 
central role in the rebalance. Increasingly, the most 
challenging issues in Asia--energy security, territorial 
disputes, climate, human trafficking--can only be solved by 
nations working in concert. ASEAN is at the heart of Asia's 
institutions, providing the architecture to work through these 
issues, and that is why Secretary Kerry said last year ``The 
partnership that we share with ASEAN remains a top priority for 
the Obama administration.''
    What binds the 10 countries of ASEAN together is their 
commitment to nonviolence and the rule of law. We share those 
values. We share ASEAN's vision of a peaceful, prosperous, 
rules-based order in the Asia-Pacific. If confirmed and with 
your help, I will work with ASEAN to further our common values, 
including human rights for the people of Southeast Asia.
    The United States has other important interests in the 
region, including economic opportunity. Southeast Asia's over 
600 million people are already America's fourth-largest export 
market, supporting over half a million U.S. jobs. ASEAN is 
pursuing an integrated economic community and the United States 
is supporting that effort. America is the largest foreign 
investor in Southeast Asia. If confirmed and with your help, I 
will continue to work to expand U.S. business's access to the 
growing ASEAN market.
    Energy, environment, and climate are also critical issues 
in Southeast Asia. As a Californian, I especially welcome the 
chance to engage with the region on how to protect oceans and 
rivers, these critical natural resources that provide food 
security and economic livelihoods for so many.
    Our engagement with ASEAN is also about its people, many of 
whom are our relatives. Over 6 million Americans identify with 
an ASEAN ethnicity. The region is young--65 percent of ASEAN's 
people are under the age of 35. With the Young Southeast Asian 
Leaders Initiative that President Obama launched in April, we 
are looking to build ties with the leaders of tomorrow, giving 
them a platform to work with each other across ASEAN borders.
    All of our interests in Southeast Asia ultimately rest on 
the peace and stability made possible by our enduring security 
presence in the Asia-Pacific. Two treaty allies, the 
Philippines and Thailand, are members of ASEAN. The United 
States response after Typhoon Haiyan in the Philippines shows 
the unique capabilities that our military and civilian agencies 
bring to bear and demonstrates our deep and abiding commitment 
to addressing both traditional and nontraditional security 
challenges in the region.
    Half of the tonnage of the world's ship-based cargo passes 
through the South China Sea. The United States has a national 
interest in the unfettered flow of this commerce and in freedom 
of navigation and overflight in these waters. We have a deep 
stake in ensuring that the territorial and maritime disputes in 
the South China Sea are solved peacefully, without coercion, 
force, or intimidation, and in accordance with international 
law.
    Unfortunately, we have seen lately what appears to be a 
pattern of unilateral actions by China to advance its 
territorial and maritime claims, the latest of which is China's 
introduction of an oil rig into the disputed waters near the 
Paracel Islands. This is provocative and raises tensions and it 
highlights the need for claimants to clarify their claims in 
accordance with international law. America supports ASEAN's 
strong and unified voice on these disputes and its efforts to 
manage them in a manner that is consistent with a rules-based 
regional order and international law. We encourage ASEAN and 
China's efforts to conclude a meaningful code of conduct. A 
peaceful rules-based process will benefit all the claimants, 
big and small, and help preserve regional peace and stability.
    An effective ASEAN will have lasting benefits for the 
region and for our shared future. If confirmed and with your 
help, I will commit myself to deepening our ties with this 
important organization. Thank you for the opportunity to 
testify today and I am happy to answer your questions now or at 
any time in the future.
    [The prepared statement of Ms. Hachigian follows:]

                  Prepared Statement of Nina Hachigian

    Mr. Chairman and members of the committee, I am deeply honored to 
appear before you today, and humbled by the confidence that President 
Obama has shown in me with this nomination.
    My Armenian grandmother, whose locket I am wearing, had only a 
grade school education. When she came to this country, fleeing 
persecution and poverty in her homeland, I don't think she could have 
imagined the path that would bring me here.
    Her younger son served in the U.S. Air Force during the Korean war. 
He earned a Ph.D. in math, married another professor from Germany (my 
mother, who later became a small businessowner), and they had a 
daughter who ended up at this table.
    I am my grandmother's American dream.
    My parents would also have been very proud of this nomination.
    I would like to introduce my husband. My family is more important 
to me than anything, and I wouldn't be here if he and our two children 
were not willing to embark on a genuine adventure.
    I've been working on U.S. Asia policy for some 15 years now, since 
I left the staff of the National Security Council--first as the 
director of the Center for Asia Pacific Policy at the RAND Corporation, 
and now as a Senior Fellow at the Center for American Progress. In 
those jobs, I traveled to the region frequently and had the opportunity 
to meet with Asian leaders and work closely with my Asian counterparts.
    I am thrilled by the prospect of entering government again, and 
serving my country, if confirmed as the next Ambassador to ASEAN.
    I want to acknowledge the key role that members of the Senate and 
of the House have played in recognizing the growing importance of 
ASEAN, including creating this position in 2006. I will count on your 
continued engagement if confirmed.
    Just as the Rebalance to Asia is an important part of the 
administration's foreign policy, engagement with ASEAN plays a central 
role in the rebalance.
    Increasingly, the most challenging issues in Asia--energy security, 
territorial disputes, climate, human trafficking--can only be solved 
multilaterally. ASEAN is at the heart of Asia's institutions, providing 
the architecture to work through these issues, and that is why as 
Secretary Kerry said last year: ``The partnership that we share with 
ASEAN remains a top priority for the Obama administration.''
    What binds the 100 countries in ASEAN together is their commitment 
to non-violence and the rule of law. We share those values, and we 
share ASEAN's vision of a peaceful, prosperous rules-based order in the 
Asia-Pacific.
    If confirmed, and with your help, I will work with ASEAN to further 
our common values, including human rights for the people of Southeast 
Asia.
    The United States has other important interests in the region 
including economic opportunity. Southeast Asia's over 600 million 
people already are America's fourth-largest export market, supporting 
over half a million U.S. jobs.
    ASEAN is pursuing an integrated ASEAN Economic Community, and the 
United States is supporting that effort. In 2012, President Obama 
established the U.S.-ASEAN Expanded Economic Engagement initiative to 
promote increased U.S. trade with and investment in the region, and to 
encourage ASEAN countries to join high-standard trade agreements. If 
confirmed, and with your help, I will continue this work to expand U.S. 
businesses' access to the growing ASEAN market, creating more jobs for 
Americans and realizing ASEAN's own goals.
    Energy, environment, and climate are critical issues in Southeast 
Asia. As a Californian, I especially welcome the chance to engage with 
the region on how to protect oceans and rivers--these critical natural 
resources that provide food security and economic livelihoods for so 
many.
    Our engagement with ASEAN is also about its people, many of whom 
are our relatives. Over 6 million Americans identify with an ASEAN 
ethnicity.
    The region is young. Sixty-five percent of ASEAN's people are under 
the age of 35. With the Young Southeast Asian Leaders Initiative that 
President Obama launched in April, we are looking to build ties with 
the leaders of tomorrow, giving them a platform to work across ASEAN 
borders to solve social and economic challenges.
    All of our interests in Southeast Asia ultimately rest on the peace 
and stability made possible by our enduring security presence in the 
Asia-Pacific. Two treaty allies, the Philippines and Thailand, are 
members of ASEAN, and all five Pacific allies are members of the East 
Asia Summit. The U.S. response after Typhoon Haiyan in the Philippines 
shows the unique capabilities our military and civilian agencies bring 
to bear and demonstrates our deep and abiding commitment to addressing 
both traditional and nontraditional security challenges in the region.
    Half of the tonnage of the world's ship-based cargo passes through 
the South China Sea. The United States has a national interest in the 
unfettered flow of this commerce and in freedom of navigation and 
overflight in these waters.
    We have a deep stake in ensuring that the territorial and maritime 
disputes in the South China Sea are solved peacefully, without 
coercion, force, or intimidation and in accordance with international 
law.
    Unfortunately, we have seen lately what appears to be a pattern of 
unilateral actions by China to advance its territorial and maritime 
claims, the latest of which is China's introduction of an oil rig into 
disputed waters near the Paracel Islands. This is provocative and 
raises tensions, and it highlights the need for claimants to clarify 
their claims in accordance with international law.
    America supports ASEAN's strong and unified voice on these disputes 
and its efforts to manage them in a manner that is consistent with a 
rules-based regional order and international law. We encourage ASEAN 
and China's efforts to conclude a meaningful Code of Conduct. A 
peaceful, rules-based process will benefit all the claimants, big and 
small and help preserve regional peace and stability.
    An effective ASEAN will have lasting benefits for the region and 
for our shared future. If confirmed, and with your help, I will commit 
myself to deepening our ties with this important organization.
    Thank you for the opportunity to testify today, and I am happy to 
answer your questions, now or at any time in the future.

    Senator Murphy. Thank you to both of our nominees. Welcome 
to your families as well.
    We will now start an opening round of questions. Mr. 
Schapiro, let me start with you to talk a little bit about the 
subject of my first, and I think only, visit to the Czech 
Republic, which was some years ago in the middle of the tender 
for the nuclear contract, which has now been shelved, in part 
likely because of energy price dynamics in the Czech Republic 
and the region. But of course, this was always about the Czech 
Republic's efforts to make themselves energy independent, and 
maybe the price sensitivities of the market today do not allow 
for the tender to go forward. But hopefully we will have an 
ambassador there who will try to impress upon the Czechs the 
need to reopen this bidding process. We clearly have an 
American company that we hope gets fair consideration, but it 
is hard to figure out in the short term and the medium term how 
the Czech Republic really moves in a substantial manner to 
independence with respect to energy from Russia without that 
nuclear project getting under way.
    What is your understanding as you have learned about this 
country, about the prospects of that deal being put back 
together, and what is the role of our next Ambassador in trying 
to make that happen?
    Mr. Schapiro. Thank you, Mr. Chairman. You raise a very 
important issue, the issue of energy independence, which has 
both an economic and a security aspect to it, as we have 
learned in recent events. As you note, the Czech Republic does 
rely on nuclear power for some of its electricity generation, 
and we were of course disappointed that the Temelin tender, the 
tender for the Temelin nuclear power plant, has been called 
off.
    I can say that our Embassy team in the Czech Republic did 
wonderful work in advocating for Westinghouse in that regard. 
But, as you noted, it was essentially an economic decision by 
the Czech Government. The Czech energy company, CEZ, had asked 
for price guarantees, but, given the economic realities, the 
government was not able to make those price guarantees.
    If I am confirmed, I will make sure to advocate for and 
support an open and transparent tender process. There is word 
that the tender is not necessarily permanently taken off the 
shelf.
    Senator Murphy. If you could talk a little bit about the 
orientation of the Czech Republic to Europe. Their former 
President Vaclav Klaus was famously Euroskeptic in his views. 
You have now got the ANO Party. The leader of that party is not 
supportive of joining the euro zone, although he is, frankly, 
not rabidly committed to staying out of European Union affairs.
    A lot of talk within the region about this next round of 
European Parliament elections perhaps resulting in more 
Euroskeptic Parliament members going to Brussels. What do you 
see? What do you understand to be the view and the trend line 
over the next 5 years of attitudes toward Europe and the EU 
within the Czech Republic?
    Mr. Schapiro. Thank you, Senator. What I can say about that 
is that the current government is generally regarded as 
somewhat more EU-centric than the government that it replaced. 
But as you correctly point out, one of the larger parties 
within the coalition, ANO, is sometimes seen as not so tilted 
toward Europe. So I think what we can draw from that is that it 
is very hard to predict. It is a relatively new government. But 
certainly we have seen nothing that causes any alarm or 
concern. There are strains of Euroskepticism in Czech politics, 
as in most countries in the EU.
    I would not hazard to predict how the European 
parliamentary elections, which I think are a week from today, 
will turn out. I think we will have to wait and see. But 
everything I have heard suggests that we have no cause for any 
alarm.
    Senator Murphy. Ms. Hachigian, I am not sure whose phrase 
this was, but one of your focuses is on great power 
relationships and clearly that would seem to describe the 
relationship between the United States and China. But part of 
being a great power is submitting yourself to internationally 
acceptable ways of resolving disputes. One of the troubling 
trend lines in the part of the world that our subcommittee 
looks at over the past several months has been one great power, 
Russia's, enthusiasm, frankly, for walking away from those 
traditional ways of dealing with disputes and disagreements.
    As you look at this pattern of aggressive activity on the 
open seas by the Chinese, do you think this is a government 
that is moving toward attempting to settle disputes outside of 
those acceptable norms, or do you think this is just a sort of 
series of provocations designed to lay claims so that they can 
settle disputes in an acceptable form?
    Ms. Hachigian. Thank you for that question, Senator. It is 
a difficult question because I do not think we really know yet. 
What we are seeing is the pattern, and it is China's acting 
unilaterally to change the status quo and not resorting to 
diplomacy, which is what the United States would want to see, 
that these disputes are resolved peacefully and in accordance 
with international law.
    That said, the ASEAN and China are engaged in negotiations 
over a code of conduct, and the United States would very much 
like to see that be a meaningful code that is concluded 
swiftly, because there is obviously a need for more guidelines 
so that there is not further violence in the region.
    Senator Murphy. One of the criticisms of ASEAN is that it 
is a talk shop, that it is a forum for a lot of discussion, but 
not as much action. So take the dispute over the Paracel 
Islands. What is the role for ASEAN to play in a bilateral 
dispute like this and what is the potential for ASEAN to shed 
that image and deliver a little bit more action and a little 
bit less discussion?
    Ms. Hachigian. Thank you for that question. ASEAN has a 
central role in these disputes. It negotiated a declaration of 
conduct with China back in 2002, which is a document that asks 
for all the claimants to act peacefully and to not act in an 
escalatory manner. Now, as I said, it is in negotiations with 
China over a declaration of conduct.
    Over this last weekend ASEAN had its summit, and in three 
separate documents it talked about its serious concerns over 
these incidents in the South China Sea. That is significant. It 
shows a level of concern on the part of ASEAN that we have not 
seen before. The Indonesian foreign minister made some 
surprisingly strong statements. Of course, the Vietnamese 
Foreign Minister did as well.
    I think that, would we like to see even stronger statement? 
We would and if confirmed as Ambassador that is something that 
I will certainly be working on.
    The other thing I should note is that talking is actually 
very important in this region that does not have a history of a 
security architecture. So ASEAN's forums, where the entire 
region can get together, China and us and many others, to talk 
about these issues, is actually playing a meaningful role. They 
also generate a number of confidence-building exercises, 
including those related to humanitarian response and disaster 
assistance. So you have all the 10 ASEANs plus China and Japan 
and us and Australia and others working together to facilitate 
the future cooperation.
    Senator Murphy. One last question and then I will turn it 
over to Senator Johnson. Has the announced pivot to Asia, 
whether or not you agree with the realization of that policy, 
had an effect on the influence of the United States 
representative to ASEAN, or are those nations waiting to see 
what the actual policies are that come after that announcement 
in policy shift? What has this announced pivot to Asia meant 
for the influence specifically within the association of the 
U.S. representative?
    Ms. Hachigian. I would say that having a Permanent U.S. 
Representative is part of the Rebalance to Asia. If confirmed, 
I would only be the second one, so we have only had one since 
2010. We were the first non-ASEAN country to have a Permanent 
Representative in Jakarta at the Secretariat and that meant a 
lot and means a lot to the ASEANs.
    I think as I look at it from the outside, there is a lot 
going on in Asia, that we have a tremendous number of different 
kinds of programs across the board in economics, in security, 
and in democracy and human rights. It has been a very active 
policy. I think that an ambassador to ASEAN is able to point to 
all those things to show that we are there to stay, that we 
have been a Pacific power and we will continue to be one in the 
future.
    Senator Murphy. Thank you.
    Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    Ms.--how do you pronounce your name?
    Ms. Hachigian. ``Hah-CHEE-gee-an.''
    Senator Johnson. ``Hah-CHEE-gee-an,'' OK.
    Ms. Hachigian. You were very close.
    Senator Johnson. Do you draw any parallels in terms of what 
is happening in Eastern Europe, what the U.S. response has been 
to Vladimir Putin's aggressive expansion, our reaction to it, 
and what China is doing in terms of, in your words, acting 
unilaterally? Do you draw a parallel there?
    Ms. Hachigian. I see the parallel that you are drawing. But 
we have very strong interests in Asia that the rebalance is all 
about, and I do not think anyone should doubt our resolve to 
realize those interests and those of our allies in the region.
    Senator Johnson. You are saying nobody should, but are 
people doubting our resolve? Have you spoken to some of the 
ASEAN countries and are they starting to question Americans' 
resolve? And is that a concern to you, and how are you going to 
address it?
    Ms. Hachigian. I see your point. I think that we are doing 
so much in Asia that I do not think that they are doubting our 
resolve. I see the analogy that you are drawing, but these 
unilateral actions that China has been taking, they precede the 
annexation of the Ukraine and they continue to exist. I do not 
think that there has been a direct effect that I can see, 
although I do not know for certain.
    What I can say is that Putin's annexation of the Crimea has 
perhaps put more pressure on China in the region to show that 
it actually means to resolve these disputes peacefully, as is 
its stated policy.
    Senator Johnson. That would be a hopeful outcome. Let us 
hope that is exactly what China is thinking. I think they are 
probably thinking something else. I think they are thinking 
this is probably a pretty good time to act, and that is a 
concern.
    Talk to me about the economic opportunities we have in East 
Asia? What are our greatest opportunities?
    Ms. Hachigian. I think we have a terrific opportunity to 
increase exports. It is already the fourth-largest market and 
it is growing rapidly. ASEAN has plans to form an integrated 
economic community, which over time will mean more 
harmonization of standards and regulations across the 10 
countries, and I think that will make it a lot easier for our 
exporters.
    So I would say that that is a central and important 
opportunity for us, and if confirmed I will be speaking with 
U.S. businesses about how we can realize that.
    Senator Johnson. There has been an awful lot of talk here 
in Congress and in Washington about potential Chinese currency 
manipulation. I kind of happen to think that the United States 
is calling the--the pot calling the kettle black here. And 
there has been an awful lot of reports that it is very 
difficult to say exactly where the Chinese currency value would 
actually fall if it were in a true free market.
    Do you have any thoughts on that?
    Ms. Hachigian. China is a major economic player in the 
region, no question. They have strong trading relationships 
with ASEAN. But we have strong trading relations with ASEAN as 
well and we are the largest foreign investor by far.
    In terms of China's currency, I am certainly no expert and 
should probably take that question back.
    Senator Johnson. That is a pretty large driver, though, of 
economic activity between the countries, correct, currency 
valuations?
    Ms. Hachigian. It certainly is bilaterally between us and 
China, and I assume is as well within the region. But in terms 
of the detailed economic analysis of that, I do not think I can 
get it to you just now.
    [The written response to Senator Johnson's question to Nina 
Hachigian follows:]

    It is imperative that we get our relationship with China right, 
given the effect its economic policies have on the United States, 
including the Rebalance to Asia, and on the world economy. We have an 
interest in developing a positive, cooperative, and comprehensive 
relationship with China that delivers benefits to both our countries 
and to the broader international community. As a part of developing 
this relationship, we must find ways to address the array of issues 
born of our substantial and complex bilateral economic engagement.
    The policy of the administration is to use all the tools at U.S. 
disposal to direct China toward full compliance with its international 
trade and commercial obligations, including its commitment to enhance 
exchange rate flexibility. The management of our economic relationship 
cuts across a range of U.S. agencies, including USTR and the 
Departments of Treasury, Commerce, Energy, and Agriculture, in addition 
to State. I agree with the objective of leveling the playing field in 
China for U.S. businesses and workers; however, I defer specific 
questions about currency to the Treasury Department.
    More broadly, we must remind China how both our countries benefit 
from China's increased integration into the rules-based international 
economic system--and of the level playing field this system requires.

    Senator Johnson. Mr. Schapiro, why do you not speak a 
little bit in terms of what are our greatest opportunities 
economically with the Czech Republic?
    Mr. Schapiro. Thank you, Senator. I am very excited to 
build on the great work that our team on the ground in the 
Czech Republic has been doing over the last 4 years under 
Ambassador Eisen. They have doubled trade between our 
countries, so that now the Czech Republic is one of our fastest 
growing, I think it is either the second- or third-fastest 
growing export market in Europe.
    So I want to support and encourage that type of trade. I 
think there are four things I can do in that regard. First, I 
think the Ambassador's job is to be, and his team is to be, 
alert to opportunities and make sure that that gets 
communicated back home to companies, to businesses, to this 
committee.
    At the same time, we have to be advocates, and that is 
something that I have spent my career doing, so to be out 
advocating for U.S. companies on the ground.
    Next, I think we really need to work to build an 
environment in which free trade allows both our country and the 
Czech Republic to really reap the benefits of economic growth. 
For that reason, pressing and encouraging the Czechs, who are 
already essentially on board with the TTIP treaty--there are 
still discussions going on, but they have been supporters. 
Working to make sure they help the European Union get that 
across the finish line with us would be the third thing I would 
want to do.
    Then fourth, as Senator Murphy said, I think before you 
were coming in, is to do all I can to level the playing field 
by pressing for rule of law and advancing the anticorruption 
efforts that we already have under way, especially in 
procurement. If you are a U.S. company coming in, you need to 
know that the rules are going to apply by one yardstick to 
everyone.
    Senator Johnson. So specifically in what product areas or 
service areas have exports grown, and are those the same areas 
that there is renewed or increased opportunity in the future, 
or are there some other areas as well? Specifically with the 
product or service areas?
    Mr. Schapiro. The U.S. exporting to the Czech Republic, I 
know that we have increased exports in high tech and that we 
also have large resource and development capabilities that some 
American companies have placed in the Czech Republic. In turn, 
the Czechs mainly export manufactured goods to the United 
States.
    I think there is a great deal of opportunity, but I 
probably will need to be on the ground and surveying the 
landscape before I can opine as to whether one sector or 
another is best for us. We had hoped that the area of nuclear 
energy would be one and, as we discussed earlier, there still 
may be some hope to revise that effort. That is certainly 
something that creates a tremendous amount of jobs back here in 
the United States.
    Senator Johnson. Both Senator Murphy and I have been 
involved in meetings with European partners and there is always 
a great deal of vocal support for TTIP in general, but then it 
kind of gets down to the specific issues. Are you aware of any 
specific trouble spots in terms of negotiating TTIP that will 
come out of the Czech Republic?
    Mr. Schapiro. Nothing unique to the Czech Republic, other 
than there are some concerns about farmers markets and whether 
farmers markets and agriculture will be affected in a way that 
hurts Czech farmers. I think that is not the case, and so one 
of my jobs--and I know our team is already doing this--will be 
to make sure that the story gets out about how a mutually 
beneficial treaty between the United States and the European 
Union can benefit everyone.
    But the short answer to your question is there are no large 
concerns on the horizon that we have heard, nothing different 
from what we are seeing in many of the European countries.
    Senator Johnson. Thank you.
    Thanks, Mr. Chairman.
    Senator Murphy. Thank you, Senator Johnson.
    One of the things that both of us have observed as we have 
watched the crisis in the Ukraine and on Russia's borders play 
out is that, as we are increasingly concerned about security 
interests, we tend to spend a little bit less time focusing on 
some of the human rights issues and problems inside places like 
Russia. It is a convenient distraction from some of the very 
serious issues regarding the freedom of civil society.
    I think the same thing plays out in Southeast Asia as well. 
As we are focused on these almost daily security concerns, we 
maybe lose sight of some of our interests in promoting human 
rights.
    That is an opening to ask a broad question to you, Ms. 
Hachigian, over this question of what ASEAN's role is in 
promoting human rights in the region. I just noted the recent 
decision of Brunei to institute fairly strict sharia law, 
including floggings for abortions and adultery. What is the 
role that we play within ASEAN on the issue of human rights and 
how aggressive will ASEAN itself be in trying to work on those 
issues?
    Ms. Hachigian. The issue of human rights is very important 
to me. When I was in college I spent some time at an 
antiapartheid organization in South Africa. I went to 
Afghanistan to do some research on the placement of land mines 
in civilian areas. In my first trip to Southeast Asia I was 
part of a Navy program to train Cambodian military officers in 
human rights and the rule of law. So these are personal--this 
is a personal interest to me.
    I think if you look at the region overall the human rights 
situation has gotten quite a bit better over the last 20, 30 
years. But there are still pockets of real need for 
improvement, including the Rohingya in Burma and freedom of 
expression in Vietnam and then, as you say, sharia law in 
Brunei.
    ASEAN has a few years ago established a human rights 
commission, and the United States has been working with that 
commission from the beginning. If confirmed I will continue to 
work to try to make that a more effective body than it 
currently is.
    When it comes to sharia law in Brunei, I know that our 
bilateral embassy is engaged on this issue. I think it comes 
down to it being important that a nation's laws conform with 
its international obligations on human rights. Some of the 
physical corporal punishment associated with that law, if 
implemented, as you point out, would be inconsistent with 
international obligations.
    Senator Murphy. One additional question for you, Mr. 
Schapiro. We have danced a little bit around Ukraine here 
today. The Czechs have been very strong, frankly, in their at 
least language and rhetoric that they have used surrounding the 
provocations of Russia in Eastern Ukraine and the invasion and 
annexation of Crimea. What is the disposition as you understand 
it of the Czech Republic with respect to the next level 
sanctions, possible sectoral industry-wide sanctions, that will 
have an economic effect on major Russian trading partners like 
the Czech Republic? We have heard a lot of strong talk from 
some of our European partners, but not necessarily 
corresponding action.
    I am one, and I think others on the committee join me, in 
believing that it is probably about time for the United States 
to move out on our own with respect to stronger sanctions.
    What do you understand to be the disposition of the Czech 
Republic?
    Mr. Schapiro. I think I would describe the disposition as 
cautious, Senator. As you note, the Czechs have thus far stood 
side by side with us. There is no daylight between our 
positions. They have implemented the sanctions that are in 
place thus far and they have most recently condemned the May 10 
referenda in Eastern Ukraine. No major media outlets in the 
Czech Republic are tilting pro-Russian in any way.
    That being said, Russia is a significant trading partner of 
the Czech Republic. They get 70 to 80 percent of their gas and 
oil from the Russians. So they face competing concerns. I think 
my job as Ambassador, if confirmed, will be to continue to try 
and, through public engagement and through private meetings 
with the government, do all I can to support those who will 
stand with us, because the Czechs do recognize--and this is one 
of the sources of the strong support that you describe--they 
understand that you cannot be asleep at the wheel when there is 
a dangerous power not too far away. They had the experience of 
the late 1930s, they had the experience of 1968. So I think 
they get it.
    All that being said, it is true there would be some 
significant economic pain if we go to sectoral sanctions.
    Ms. Hachigian. I would just ask you in your capacity as our 
next Ambassador to convey a very strong message that this 
assumption of security based on NATO membership comes with 
limitations. One limitation is that the United States cannot 
continue to provide 70 percent of the funding. We cannot allow 
for countries like the Czech Republic to come in with only 1 
percent of their GDP. I was glad that your opening remarks 
talked about your intention to press that point.
    But secondarily, what Putin is perfecting is an ability to 
rattle nations and gain control of portions of their society 
and public affairs without a transparent invasion through 
military force. That should worry every single NATO member 
because we have an Article 5 obligation to protect NATO 
members, but the question is if the kind of tactics that Putin 
is using in places like Eastern Ukraine start to be used in a 
NATO country, a Czech Republic or a Hungary or a Baltic State, 
there is a legitimate question as to what our Article 5 
responsibility is.
    That is why, even with the pain that may come with engaging 
in tougher sanctions, our European allies especially on the 
eastern edge of the continent I would hope should be willing to 
deal with some of that temporary economic pain to make sure 
that those kind of tactics are not visited upon their country, 
posing a pretty significant and troublesome question about what 
NATO's response will be.
    Mr. Schapiro. I could not agree with you more.
    Senator Murphy. Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    I think Putin is perfecting that technique because he is 
not paying a price. Mr. Schapiro, you talked about the Czech 
Republic's dependence on Russian oil. As Ambassador, would you 
advocate for opening up those oil markets so we can end 
Vladimir Putin's basic monopoly on oil and gas supply to not 
only the Czech Republic, but the Ukraine and other parts of 
Europe?
    Mr. Schapiro. Well, I am pleased to say that the Czechs 
have increased storage capacity and made investments in 
reversible pipeline technology. We support that. I will 
encourage Czech efforts to diversify their energy sources, to 
liberalize EU energy markets, to increase interconnectivity of 
European energy supply works.
    I was pleased to read that I think just yesterday, I 
believe it was the V-4--Hungary, Poland, Slovakia, and the 
Czech Republic--announced their intention to come up with a 
plan to deal with any potential shutoff of Russian gas and oil, 
because I think this has to be a wakeup call for them, and that 
is a message I intend to bring.
    Senator Johnson. But just storing Russian oil is not the 
answer. They actually have to get supplied from other places. 
Certainly I think the United States has the capability of doing 
it, and I think it would be helpful if people on the ground 
there could advocate back to the administration. It would be 
very helpful to start, for example, to allow those LNG permit 
applications to proceed forward. Just that announcement I think 
would be helpful.
    Earlier today I read a report that the Czech Defense 
Minister said that he sees no NATO troops stationed on Czech 
soil. Do you have any further information on that? Have you 
heard about that, and what that posture is?
    Mr. Schapiro. I do, Your Honor----
    Senator Johnson. Close enough.
    Mr. Schapiro. It is my former job as a lawyer. [Laughter.]
    Senator Johnson, yes. The Czech Defense Minister's 
comment--I think it was to a Reuters reporter--about seeing no 
need for NATO troops to be stationed on Czech soil caused a bit 
of an uproar over the last 2 days in the Czech Republic. He was 
roundly criticized by all of the parties in the government, 
including the Prime Minister. He has essentially walked that 
back, said that his comments were taken out of context by 
Reuters, he was talking about permanent stationing of troops.
    In response to this, the lower house of the Czech 
legislature just--it was either yesterday or today; I am not 
sure about how the time difference plays into this--passed a 
new resolution stating that they will comply with all NATO 
obligations. So I was pleased to see that it created and 
expression of support for NATO.
    Senator Johnson. So you would anticipate, then, that the 
Czech Republic--and you would potentially help advocate for 
this--could potentially host training exercises as somewhat a 
show of strength and resolve against Vladimir Putin's actions?
    Mr. Schapiro. I think--I could be wrong about this, but I 
think the Czech Republic has already stated that it would be 
open to hosting training exercises. I know that the Defense 
Minister was here in April and met with Secretary Hagel and 
National Security Adviser Rice. It is possible that I am 
mistaken about that with regard to exercises, but I believe 
that is accurate.
    Look. Anything that we ask the Czechs to do as a part of 
NATO or that NATO wants to do that involves the Czech Republic 
is something that is going to need to be worked out through a 
dialogue with our Czech partners, and my job will be to 
facilitate that dialogue and advance our interests.
    Senator Johnson. I would like to ask both the nominees--and 
we will start with Mr. Schapiro. When we were over in the 
Ukraine, I think, one of the most important messages we heard 
is that the propaganda coming out of Vladimir Putin and Russia 
is incredibly effective. I think we see it in Venezuela. We 
have these very dictatorial regimes in total control of the 
media.
    My concern, across the board, is that America has pretty 
well withdrawn from providing the truth and providing 
information. My final question to both of you is your 
assessment of that and what do you think we can do in the 
countries that you are going to be representing the United 
States in, to hopefully increase our efforts?
    Mr. Schapiro. It is a real issue, Senator. A few weeks ago 
I turned on my television in a hotel room and I was watching 
what I thought was an ordinary news program. This was here in 
Washington. And after about 4 minutes I realized, something 
just seems off about this. Then I realized I was watching RT, 
the Russian faux cable news channel. I can see how, to those 
who do no view it necessarily with a critical eye, it is fairly 
sophisticated. That is a real issue.
    The Czechs have a good history of partnering with us to 
counter Russian disinformation. Back after the fall of the Iron 
Curtain, Vaclav Havel, who was then the President of the Czech 
Republic, invited Radio Free Europe-Radio Liberty to move from 
Germany to Prague. So RFE and Radio Liberty are now located in 
the Czech Republic. Of course a lot of what they do is beamed 
toward other areas of the world, but some of it is Russian 
language.
    I think, in light of what has happened, no one should be 
blind to the danger that that type of propaganda poses, and as 
Ambassador, if confirmed, I will encourage and support all of 
our efforts to push back.
    I will say, though, I think one of our great strengths is 
that those who pay attention understand that when they look at 
our country and the diversity of voices and CNN and Fox and MSN 
and NBC, I think people can tell the difference. I would not 
want to fall into any ham-handed propaganda, but I do not think 
that is what you are suggesting.
    Senator Johnson. No. The problem is so many people just 
live their lives and they are not paying attention, not 
closely. So when they are inundated with propaganda from 
Vladimir Putin's Russia or from the dictators now in Venezuela 
or other places, there is just no pushback.
    I think one of the problems we have, whether we are talking 
about the human rights abuses within Muslim countries, requires 
a real concerted effort to provide real information.
    So I just throw that question to you as well.
    Ms. Hachigian. Thank you, Senator. I think this is why our 
continued advocacy for freedom of the media in all these 
countries is really important. I do think, though, that actions 
speak louder than words, and even in a country where media is 
controlled, as in Vietnam, the message of China's recent 
actions has really come through. As you know, there have been 
protests across the country.
    I think, similarly, our actions and what we did in Typhoon 
Haiyan in the Philippines, that is real. That is showing a real 
commitment, and that is better than any propaganda. We just 
have to make sure we can get the message out about what we are 
actually doing. I think that is the challenge. That is what 
public diplomacy is all about and what, if confirmed, I will 
help to try to do.
    Senator Johnson. I agree, actions speak far louder than 
words, and that is a lesson we can learn in other areas as 
well.
    Thank you.
    Senator Murphy. Thank you very much, Senator Johnson.
    Thank you both for your testimony today. I think you have 
acquitted yourselves very well. We are going to keep the record 
open for a short period of time. We are going to keep it open 
just until tomorrow at 5 o'clock. So if we do get any questions 
in, we hope that you can turn them around very, very quickly, 
in part because we are going to try to move your nominations 
through the committee very, very quickly. So the record will be 
open until Friday at 5. You will try to turn any questions 
around as quickly as possible.
    Thank you for your participation today, and with that this 
hearing is adjourned.
    [Whereupon, at 4:30 p.m., the committee was adjourned.]

 
  NOMINATIONS OF ROBERT STEPHEN BEECROFT, STUART E. JONES, DANA SHELL 
              SMITH, JAMES D. NEALON, AND GENTRY O. SMITH

                              ----------                              


                        WEDNESDAY, JUNE 11, 2014

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. Robert Stephen Beecroft, of California, to be Ambassador 
        to the Arab Republic of Egypt
Hon. Stuart E. Jones, of Virginia, to be Ambassador to the 
        Republic of Iraq
Dana Shell Smith, of Virginia, to be Ambassador to the State of 
        Qatar
James D. Nealon, of New Hampshire, to be Ambassador to the 
        Republic of Honduras
Gentry O. Smith, of North Carolina, to be Director of the 
        Office of Foreign Missions
                              ----------                              

    The committee met, pursuant to notice, at 11:05 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez (chairman of the committee) presiding.
    Present: Senators Menendez, Murphy, Kaine, Corker, Risch, 
Rubio, Johnson, and Barrasso.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    The Chairman. This hearing of the Senate Foreign Relations 
Committee will come to order.
    For our first panel today, we have nominees for U.S. 
Ambassadors to Egypt, Iraq, and Qatar.
    In Egypt on Sunday, the former Minister of Defense, Field 
Marshall Sisi, was sworn into office. But, as we all know, a 
sustainable democratic transition is about more than elections. 
I remain concerned by the state of media repression in Egypt, 
the intimidation and detention of activists, mass death 
sentences, and the disproportionate use of force by Egypt's 
security services. That said, the people of Egypt have taken to 
the streets to protest successive governments, and there is no 
reason not to expect protests again if the Sisi government is 
unable to deliver on its promises.
    Ultimately, my goal is to find a way forward for the United 
States/Egypt partnership, which means maintaining the peace 
treaty between Israel and Egypt, and a strong defense in 
counterterrorism partnership. When it comes to assistance, 
continued U.S. aid must be based on the totality of our shared 
interests. And this now includes the Egyptian Government taking 
steps toward a sustainable democratic transition. That is not 
only my view, but a legal requirement of the 2014 Omnibus 
Appropriations Act. So, that said, I look forward to hearing 
from Ambassador Beecroft on his views.
    In Iraq, while political leaders are dealmaking to form a 
government, the Iraqi people are not benefiting from their 
country's increased oil output, and the conflict continues to 
surge in western Iraq, as the spillover from Syria has enabled 
the Islamic state of Iraq and Syria to take hold. Clearly, we 
must continue to support the Iraqi Security Forces, but I am 
concerned by reports that they have been using barrel bombs in 
their operations. Syria's questions remain unanswered: Iraq's 
role in Syria, the activities of Iraqi Shia militias fighting 
with Assad security forces, Iranian influence in Iraq, and the 
commitment of the Iraqi Government to protect the residents of 
Camp Liberty until we can conclude a resettlement process. So, 
Ambassador Jones, I look forward to your perspectives and 
analysis.
    Qatar presents another set of issues. I know that there are 
many who have questions about the context of the negotiations, 
the Qatari Government's role in facilitating the talks, and its 
commitments regarding the status of the Taliban detainees. 
However, Qatar's multifaceted strategic importance goes far 
beyond its facilitating role in the Bergdahl/Taliban deal. So, 
I sincerely hope that this hearing does not denigrate into a 
political debate that demands answers the nominee does not have 
and ultimately holds up the process, leaving us with no 
ambassador on the ground to enforce the terms of the agreement. 
This is not the time to debate those terms. It is time to 
confirm an ambassador who will enforce them. I look forward to 
hearing from you, and to hearing about what you see as your 
role in Qatar, broadly, as well as on this issue. If you are 
confirmed, I am monitoring this commitment, and I want to make 
it clear that Congress will play an active oversight role on 
this issue. That said, I look forward to hearing from the 
nominee on the many facets of Qatar's broader strategic 
importance.
    With that, let me turn to the distinguished Ranking Member, 
Senator Corker, for his remarks.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Thank you, Mr. Chairman.
    And thanks, to all three of you, for your desire to serve 
in this way. We obviously have three very qualified nominees, 
and going to very, very important places.
    And I think, to a lesser degree in Qatar, but certainly to 
a degree, there are two issues that overwhelmingly will affect 
the service of both Ambassador Jones and Beecroft, and that is 
the black hole that we have right now in Syria.
    And I know that both of you have already experienced that 
in the countries in which you are serving right now and the 
fact that we have never really put in place any kind of policy 
or strategy, or even laid out what our objectives are clearly. 
And that is obviously having a very destabilizing effect on 
Iraq and Jordan, where both of you have been.
    We also have a situation where there is just no regional 
strategy. You know, the administration, unfortunately, 
continues to hide behind, you know, classified briefings and 
those kind of things, and is unable to lay out a coherent 
strategy for the region. And so, again, all three of you enter 
places where that has created significant difficulties. And 
again, I thank you for your desire to serve in that way.
    Egypt, since 2011, there has been no stabilization there. 
The country is really no better off, relative to many of the 
issues that we care about, than it was. I do have hopes--maybe 
greater hopes than our chairman just mentioned--for Egypt, 
going forward. And I know that they are a very important 
relationship for our country.
    Iraq, we are continuing to read daily the devolution that 
is taking place there. You feel it on the ground. The lack of 
involvement that we have had in helping shape things on the 
ground is very, very apparent, and I know we will talk about 
that during Q&A.
    And in Qatar, because of our inability or lack of desire or 
just whatever in taking a lead, relative to the Syrian 
opposition, Qatar obviously has taken a role that has been 
unhealthy. I understand that may be tapering back some now, but 
that is a very, very important relationship.
    So, I look forward to our questions and answers. I want to 
thank each of you again for the lives you have led that have 
made you so qualified for the positions that you are ascending 
to. And I thank you for being here today.
    The Chairman. Thank you, Senator Corker.
    Let me again welcome our first panel of nominees, all 
decorated career Foreign Service officers. None is a stranger 
to demanding, consuming critical assignments, both domestically 
and abroad. And we thank them and their families for their past 
service, and for their willingness to serve again in very 
challenging roles.
    Let me introduce them. They are Robert Stephen Beecroft, to 
be Ambassador to Egypt; Stuart E. Jones, to be Ambassador to 
Iraq; and Dana Shell Smith, to be the Ambassador to Qatar.
    Ambassador Beecroft has undertaken difficult assignments in 
the most critical countries for U.S. national security and 
strategic interests. He is a career Foreign Service officer 
with the rank of minister counselor, and currently serves as 
Ambassador to the U.S. Embassy in Baghdad.
    Stuart E. Jones also is no stranger to demanding 
assignments in the most strategic, pressing areas for the 
United States. He is a career Foreign Service officer with the 
rank of career minister. He is currently serving as our 
Ambassador in Amman, Jordan, and has served twice as the deputy 
chief of mission in Baghdad, and in our Embassy in Egypt.
    Dana Shell Smith is truly a global diplomat, having served 
throughout the world in her capacity as a public affairs 
officer. She, too, is a career Foreign Service officer, with 
the rank of minister counselor, and currently serves as senior 
advisor to the Under Secretary for Public Diplomacy and Public 
Affairs.
    So, let me join Senator Corker in thanking you all for your 
service, both past and moving forward in the future.
    We have a larger audience than we normally have for 
nominees, so I assume that maybe there are some family members 
or friends present. If they are here with you, we would urge 
you to introduce them to the committee when you have your time 
to testify. We understand and appreciate that families are a 
big part of the sacrifice and the service, and we honor their 
willingness to have you serve our country while they, 
themselves, face sacrifices as a result of it.
    Your full statements will be included in the record, 
without objection, so we ask you to summarize your openings in 
about 5 minutes or so, so we can enter into a dialogue with 
you.
    And, with that, we will start off with you, Ambassador 
Beecroft, then Ambassador Jones, and then move to Ms. Smith.

   STATEMENT OF HON. ROBERT STEPHEN BEECROFT, OF CALIFORNIA, 
     NOMINEE TO BE AMBASSADOR TO THE ARAB REPUBLIC OF EGYPT

    Ambassador Beecroft. Thank you very much, Chairman 
Menendez, Ranking Member Corker, other members of the 
committee. I am honored to appear before you today as the 
President's nominee to serve as the U.S. Ambassador to the Arab 
Republic of Egypt. I am deeply grateful to President Obama and 
Secretary Kerry for their support and confidence, and, if 
confirmed, I look forward to working closely with you and other 
Members of Congress to advance the interests of the United 
States.
    I am also pleased to share this hearing with my colleagues, 
Stu Jones and Dana Smith. I look forward to working closely 
with them on the many issues facing the United States in the 
Middle East.
    Mr. Chairman, I have spent much of my career working in the 
Middle East, including assignments in Syria and Saudi Arabia, 
and as Ambassador to Jordan and to Iraq. My experience has made 
me acutely aware of Egypt's strategic importance inside and 
outside the region, and the need for effective U.S. engagement 
with Egypt. As the most populous Arab country, Egypt represents 
fully a quarter of the Arab world. It also hosts the Arab 
League. Its long-standing cultural influence and importance as 
an opinion leader and bellwether for trends across the region 
is well known. Egypt is the third-largest market for U.S. goods 
and services in the Middle East, and the United States is the 
second-largest source of foreign direct investment in Egypt.
    Approximately 8 percent of global maritime commerce flows 
through the Suez Canal every year, and a total of 427 U.S.-
flagged vessels, including over 85 U.S. military vessels, moved 
over 1.9 billion tons of cargo through the Suez in 2013.
    And I cannot stress enough the importance of Egypt's 
upholding of its peace treaty with Israel, which has delivered 
over 35 years of stability to the region. After repeated 
conflicts, beginning in 1948, the two countries have not seen 
war since 1973. Conditions in Egypt, thus, have implications 
for the security of Israel and our allies in the Arab world and 
beyond. Increased instability in Egypt would not only open 
space for violent extremist strongholds, but also encourage 
migrant flight. It would threaten global commerce with an 
ensuing ripple effect on international economies.
    For these reasons and more, we have crucial interests in 
Egypt: preserving regional peace and stability with Israel and 
all of Egypt's neighbors, countering the transnational threats 
of terrorism and weapons trafficking, creating economic 
prosperity and increased opportunities for foreign investment, 
and building inclusive democratic institutions and civil 
societies that undermine the conditions for violent extremism 
and form the bedrock of prosperous, equitable economic growth. 
As President Obama said in his May 28 address at West Point, 
support for human rights and democracy goes beyond idealism. It 
is a matter of national security.
    While views on how to advance our interests in Egypt may 
differ, there is agreement that Egypt's success as a secure, 
prosperous, and pluralistic democratic state remains vitally 
important to the United States. If confirmed, I commit to work 
with Congress to help achieve this goal and promote a 
constructive United States/Egypt partnership that furthers our 
interests.
    I want to commend the American personnel and local staff at 
our U.S. mission who have been carrying out courageous and 
difficult work during a tumultuous time. The mission has 
remained actively engaged with Egyptian Government officials, 
political parties, and civil society. Twelve cabinet-level 
agencies at the mission are advancing our national security 
objectives, protecting the welfare of American citizens and 
business, and pursuing our work with the Government and people 
of Egypt. If confirmed as Ambassador, I look forward to joining 
in their efforts.
    It is a distinct honor to have been nominated by President 
Obama to serve as U.S. Ambassador to Egypt, and I thank you for 
the opportunity to testify before you today.
    Chairman Menendez and Ranking Member Corker, I look forward 
to answering any questions you or members of the committee may 
have.
    Thank you very much.
    [The prepared statement of Ambassador Beecroft follows:]

             Prepared Statement by Robert Stephen Beecroft

    Chairman Menendez, Ranking Member Corker, and members of the 
committee, I am honored to appear before you today as the President's 
nominee to serve as the U.S. Ambassador to the Arab Republic of Egypt. 
I am deeply grateful to President Obama and Secretary Kerry for their 
support and confidence, and if confirmed, I look forward to working 
closely with you and other Members of Congress to advance the interests 
of the United States.
    I am also pleased to share this hearing with Stuart Jones and Dana 
Smith. I look forward to working closely with them on the many issues 
facing the region.
    Mr. Chairman, I have spent much of my career working in the Middle 
East, including assignments in Syria and Saudi Arabia and as Ambassador 
to Jordan and to Iraq. My experience has made me acutely aware of 
Egypt's strategic importance inside and outside the region and the need 
for effective U.S. engagement with Egypt: as the most populous Arab 
country, Egypt represents fully a quarter of the Arab world. It also 
hosts the Arab League. Its long-standing cultural influence and 
importance as an opinion leader and bellwether for trends across the 
region is well-known. Egypt is the third-largest market for U.S. goods 
and services in the Middle East, and the United States is the second-
largest source of foreign direct investment in Egypt. Approximately 8 
percent of global maritime commerce flows through the Suez Canal every 
year, and a total of 427 U.S. flagged vessels--including over 85 U.S. 
military vessels--moved over 1.9 billion tons of cargo through the Suez 
in 2013. And I cannot stress enough the importance of Egypt's upholding 
of its Peace Treaty with Israel, which has delivered over 35 years of 
stability to the region. After repeated conflicts beginning in 1948, 
the two countries have not seen war since 1973. In the ensuing years, 
Egypt has even played a constructive role supporting our mediation on 
other tracks of the Arab-Israeli Conflict.
    Conditions in Egypt thus have implications for the security of 
Israel and our allies in the Arab world and beyond. Increased 
instability in Egypt would not only open space for violent extremist 
strongholds, but also encourage migrant flight that could place added 
strain on our Southern European allies. It would threaten global 
commerce, with an ensuing ripple effect on international economies.
    For these reasons and more, we have crucial interests in Egypt: 
preserving regional peace and stability with Israel and all of Egypt's 
neighbors; countering the transnational threats of terrorism and 
weapons trafficking; creating economic prosperity and increased 
opportunities for foreign investment; and building inclusive, 
democratic institutions and civil societies that deter the emergence of 
violent extremism and form the bedrock of prosperous, equitable 
economic growth. As President Obama said in his May 28 address at West 
Point, ``. . . support for human rights and democracy goes beyond 
idealism--it is a matter of national security.''
    While views on how to advance our interests in Egypt may differ, 
there is agreement that Egypt's success as a secure, prosperous, 
pluralistic, and democratic state remains vitally important to the 
United States. If confirmed, I commit to work with Congress to help 
achieve this goal and promote a constructive U.S.-Egypt partnership 
that furthers our interests.
    I want to commend the American personnel and local staff at our 
U.S. mission who have been carrying out courageous and difficult work 
during a tumultuous time. The mission has remained actively engaged 
with Egyptian Government officials, political parties, and civil 
society. Twelve Cabinet-level agencies at the mission are advancing our 
national security objectives, protecting the welfare of American 
citizens and business, and pursuing our work with the Government and 
people of Egypt. If confirmed as Ambassador, I look forward to joining 
in their efforts.
    It is a distinct honor to have been nominated by President Obama to 
serve as U.S. Ambassador to Egypt, and I thank you for the opportunity 
to testify before you today. Chairman Menendez and Ranking Member 
Corker, I look forward to answering any questions you or members of the 
committee may have.

    The Chairman. Ambassador Jones.

 STATEMENT OF HON. STUART E. JONES, OF VIRGINIA, NOMINEE TO BE 
               AMBASSADOR TO THE REPUBLIC OF IRAQ

    Ambassador Jones. Thank you, Mr. Chairman, Ranking Member 
Corker, members of the Senate Foreign Relations Committee. I am 
deeply honored today to appear as President Obama's nominee to 
be the United States Ambassador to the Republic of Iraq. I am 
grateful to the President and to the Secretary for their 
confidence in me. If confirmed, I will work closely with you to 
advance U.S. goals in Iraq.
    I look forward to building on the excellent work of my 
predecessor and friend, Ambassador Steve Beecroft, who is, of 
course, with us today, and I am also delighted to share this 
panel with Dana Smith, a valued colleague of many years.
    With your permission, Mr. Chairman, I would like to 
introduce my daughter, Dorothy Jones, a rising sophomore at 
Duke University. She flew up from Atlanta to be with me here 
today. My wife, Barbara, and two sons, Thaddeus and Woody, are 
in Amman. I am grateful that my family has been game for every 
new posting.
    Mr. Chairman, I am both humbled and thrilled to have the 
opportunity to serve as Chief of Mission at the American 
Embassy in Baghdad, one our largest and most complex diplomatic 
missions. I have served in Iraq twice, as you mentioned, and as 
Director for Iraq Affairs on the National Security Council. 
These jobs have helped me to prepare for the complexity and 
challenges of the assignment ahead.
    We are all familiar with the history of Iraq's past decade. 
It is impossible to serve in Iraq without recalling and 
honoring the sacrifice and achievement of our U.S. service men 
and women and civilians. More than 4,000 lost their lives 
there, but they also put an end to the oppression and regional 
threat of the Saddam Hussein regime. Today, we are all 
committed to help build a new Iraq, secure in its borders, with 
strong democratic institutions, where all can benefit from its 
abundant resources.
    Iraq has, indeed, made important economic and democratic 
progress, but is now engaged in a fierce battle against ISIL, 
the Islamic State of Iraq and Levant, one of the most dangerous 
terrorist groups in the world. Monday's coordinated attack on 
Mosul in which ISIL militants overran parts of the city 
highlights just how dangerous this group is. We will continue 
to work with our international partners to try to meet the 
needs of those who have been displaced, and we will look for 
ways to support the government and the security forces in their 
conflict with ISIL.
    Overall, violence in Iraq has reached levels not seen since 
the height of the U.S. surge in 2007. Suicide vests and vehicle 
bomb attacks are averaging nearly 70 per month since the 
beginning of this year. The United States has taken important 
steps to help Iraq combat this shared enemy. We have provided 
urgently needed military equipment through the foreign military 
sales process, and the Iraqis have told us that our equipment 
and advice are making a critical difference. I would like to 
thank this panel for making these transfers possible.
    In addition to military equipment transfers, we have 
strengthened our information-sharing relationships and are 
developing programs to improve border security. We have also 
initiated a high-level dialogue between our senior military 
leadership and key Iraqi military commanders.
    Security assistance, however, is only one element of our 
assistance, and it is connected to intense political and 
economic engagement. The United States has also encouraged Iraq 
to adopt a holistic strategy to isolate ISIL from the 
population and develop a strategy for sustainable security. 
This strategy will require continued engagement between Iraq's 
political leaders, Sunni tribal leaders, and others.
    From a political standpoint, Iraq's successful national 
election on April 30 was a victory for efforts to strengthen 
Iraq's democratic institutions. While Prime Minister Maliki's 
State of Law Coalition won more seats than any other, it fell 
short of the 165 needed to form a majority government. 
Government formation is an Iraqi-owned process, and it will be 
up to Iraq's political leaders to form a government that 
reflects the will have the people, as expressed in the April 30 
election.
    Despite Iraq's political and security challenges, its 
tremendous economic growth over the last decade has been 
impressive. Iraq's economy has averaged 6.5-percent growth 
since 2005. It is now producing 3.2 million barrels of oil per 
day.
    The United States and Iraq have partnered to share best 
practices on fossil fuel production and exports. We are engaged 
with the Government of Iraq on capturing gas for power 
generation and on political issues related to hydrocarbon 
revenue management. The government also faces a challenge in 
its natural resources--in distributing the wealth created by 
its natural resources to its population and to use its oil 
wealth to promote growth in other sectors.
    Iraq's economic growth offers exciting opportunities for 
U.S. firms, particularly in key sectors, such as infrastructure 
development and construction. If confirmed, I look forward to 
promoting Secretary Kerry's Shared Prosperity agenda as 
Ambassador to Iraq.
    Mr. Chairman, as I have discussed, Iraq poses a challenging 
security environment. If confirmed as Ambassador, I will bear 
responsibility for the safety of all U.S. personnel in Iraq, 
including at Embassy Baghdad and our consulates in Erbil and 
Basrah. If confirmed, I will work closely with our security 
team on the ground, as well as with our diplomatic security 
professionals back here in Washington, to ensure that our 
people are well protected. This will be my highest priority, as 
well as to protect the safety of American citizens in Iraq.
    Since U.S. troops withdrew from Iraq in 2011, the Embassy 
and consulates have significantly reduced our staffing. As of 
June 2014, we have approximately 5,300 staff, just one-third of 
our 2012 footprint. If confirmed, I will continue to examine 
staffing levels to ensure that we have the appropriate number 
of personnel to carry out our mission.
    Our diplomatic efforts are supported by a highly skilled 
team of individuals at the Embassy in Iraq, and they represent 
a wide range of U.S. departments and agencies. This whole-of-
government approach allows us to bring the very best experts 
our government has to offer and address some of the challenges 
I have raised with you today. I would like to thank everyone at 
the Embassy in Iraq for their service, as well as the 
leadership back here in Washington, including this committee, 
that makes this level of interagency coordination possible. Our 
continued success in Iraq depends on continued collaboration.
    Mr. Chairman, members of the committee, thank you again for 
the opportunity to address you today. I appreciate and value 
this committee's oversight of our efforts in Iraq. And, if 
confirmed, I look forward to welcoming you and your respective 
staff members to Baghdad. Your continued engagement on the 
policy issues that we face in Iraq are a vital element in 
ensuring our success.
    I would be pleased to respond to any questions you may 
have. Thank you very much for this opportunity.
    [The prepared statement of Ambassador Jones follows:]

                 Prepared Statement by Stuart E. Jones

    Chairman Menendez, Ranking Member Corker, members of the Senate 
Foreign Relations Committee, I am deeply honored to appear before you 
today, as President Obama's nominee to be the United States Ambassador 
to the Republic of Iraq. I am grateful to the President and to 
Secretary Kerry for their confidence in me. If confirmed, I will work 
closely with you to advance U.S. goals in Iraq. I look forward to 
building on the excellent work of my predecessor and friend, Ambassador 
Steve Beecroft, who is of course, here today.
    With your permission, Mr. Chairman, I would like to introduce my 
daughter, Dorothy Jones, a rising sophomore at Duke University. She 
flew up from Atlanta to be with me today. My wife, Barbara, a former 
Foreign Service officer and current civil servant, is in Amman with our 
sons, Thaddeus and Woody, so they could not join us. I am grateful for 
our children's support for this assignment and throughout our Foreign 
Service careers.
    Mr. Chairman, I am both humbled and thrilled to have the 
opportunity to serve as chief of mission at American Embassy Baghdad, 
one of our largest and most complex diplomatic missions. I had the 
honor of serving as Deputy Chief of Mission in Baghdad. I also served 
as the Governorate Coordinator in Ramadi, in Anbar province under the 
Coalition Provisional Authority in 2004. Later I was Director for Iraq 
Affairs on the National Security Council staff here in Washington. 
These jobs have helped me prepare for the complexity and challenges of 
the assignment ahead.
    We are all familiar with the history of Iraq's past decade. It is 
impossible to serve in Iraq without recalling and honoring the 
sacrifice and achievement of our U.S. service men and women and 
civilians. More than 4,000 Americans lost their lives to give the Iraqi 
people a chance at a better future. Today we are committed to helping 
build a new Iraq, which has moved beyond the isolation and oppression 
of its past, with secure borders, strong democratic institutions, and 
where all citizens benefit from its abundant resources.
    On April 30, Iraq held its first national elections since the 
departure of U.S. forces. As they did in 2005 and 2010, Iraq's citizens 
overcame terrorist threats and exercised their franchise.
    Today, Iraq is also producing around 3.2 million barrels of oil per 
day. It is one of the major contributors to the world oil market and 
this oil wealth has placed Iraq on the path to economic self-
sufficiency. Iraqi oil exports have also made it possible to sustain 
the international sanctions on Iran without cost to the world economy.
    While we are encouraged by these developments, we also recognize 
that the Republic of Iraq is now engaged in a fierce fight against the 
Islamic State of Iraq and the Levant, or ISIL. The complex, coordinated 
attack on Mosul on Monday, in which ISIL militants overran parts of the 
city, highlights just how dangerous this group is. ISIL now controls 
much of Iraq's second-largest city, and thousands of people have been 
forced to flee in the last several days, according to the U.N. The 
Iraqi security forces are responding together with Kurdish Peshmerga 
forces. We will continue to monitor the situation closely, and will 
work with our international partners to try to meet the needs of those 
who have been displaced.
    Overall, violence in Iraq has reached levels not seen since height 
of U.S. surge in 2007. Suicide vest and vehicle bomb attacks are 
averaging nearly 70 per month since the beginning of this year. Most of 
these were carried out by foreign fighters, who use Syria as a safe 
haven to conduct attacks in Iraq. The U.N. has reported that in May 
2014 alone, 799 Iraqi civilians were killed by acts of terrorism.
    ISIL overtook the cities of Fallujah and Ramadi on January 1 of 
this year. Iraqi security forces cooperated successfully with Sunni 
tribal groups to largely push them out of Ramadi. But ISIL still 
occupies Fallujah and poses a threat to the Iraqi state and its 
neighbors.
    The United States has taken important steps to help Iraq combat 
this shared enemy. We have provided urgently needed military equipment 
through the Foreign Military Sales process. I would like to thank the 
members of this committee for their leadership, and the Congress for 
making these transfers possible. In addition to military equipment 
transfers, we have strengthened our information-sharing relationships, 
and are developing programs to improve border security. We have also 
initiated a high-level dialogue between our senior military leadership 
and key Iraqi military commanders, coupled with training for Iraqi 
security forces.
    Security assistance, however, is only one element of our 
assistance, and it is connected to intense political and economic 
engagement. Accordingly, the U.S. has also encouraged Iraq to adopt a 
holistic strategy to isolate ISIL from the population and develop a 
strategy for sustainable security. This includes incorporating tribal 
fighters from Anbar, Ninewa, and Salah ah Din into their security 
framework to protect the populations in their towns and villages. This 
strategy, which was employed successfully during the U.S. military 
surge in 2007, will also require continued engagement between Iraq's 
political leaders and Sunni tribal leaders to effectively defeat ISIL. 
We are also encouraging Iraqi political and security leaders to ensure 
that their difficult fight against ISIL is conducted in a manner that 
protects the civilian population and adheres to the rule of law.
    I already mentioned Iraq's successful elections. Turnout nationally 
was just over 60 percent. It is notable that turnout in Anbar province, 
where ISIL is most active, was 45 percent. Iraq's security forces 
protected more than 50,000 polling stations on April 30, and with 
support the U.N. Assistance Mission in Iraq, Iraq's Independent High 
Election Commission worked to provide Iraq's 21 million eligible voters 
the ability to vote. While Prime Minister Maliki's State of Law 
coalition won more seats than any other, it fell short of parliamentary 
majority that is required under the Iraqi Constitution to form a 
government.
    We will encourage all sides to work together to swiftly form a new 
government that is representative of all Iraqis. This is an Iraqi-owned 
process, and it will be up to Iraq's political leaders to form a 
government that reflects the will of the people as expressed in the 
April 30 election. We hope they will pay special attention to the 
rights and interests of the religious and ethnic minority populations, 
including the sizeable Christian community. Our mission in Iraq has 
worked hard--especially as ISIL attacks have escalated in the last 
year--to urge the Government of Iraq to protect these vulnerable 
groups. If confirmed, I look forward to continuing our commitment to 
ensuring that these communities are afforded the right protection.
    Despite Iraq's political and security challenges, its tremendous 
economic growth over the last decade has been impressive. Iraq's 
economy has averaged around 6.5 percent growth since 2005. This has 
been primarily driven by the energy sector. Iraq is now producing 
around 3.2 million barrels of oil per day; it is the second-largest 
producer within OPEC. The International Energy Agency estimates that 
Iraq will provide 45 percent of all new incremental oil supply 
worldwide between now and 2035. Iraqi oil will be essential to meet 
rising international demand and maintain market stability. While the 
United States imports less than 5 percent of its oil from Iraq, global 
economic growth will benefit from Iraqi oil reaching the market. 
Increasing exports from Iraq is therefore one of our highest bilateral 
strategic priorities.
    Lack of onshore pumping and storage capacity continues to prevent 
Iraqi production and exports from reaching their full potential. There 
is also tremendous opportunity to harness Iraq's significant natural 
gas resources. If this gas is converted to power, this would provide 
much-needed electricity to the Iraqi people, fueling further economic 
growth. In addition to partnering to share best practices on fossil 
fuel production and exports, we are engaged with the Government of Iraq 
on capturing gas for power generation, and on political issues related 
to hydrocarbon revenue management. The government also faces a 
challenge in equitably distributing the wealth created by its natural 
resources to its population and to use its oil wealth to promote growth 
in other sectors. These are all areas where the United States would be 
willing to help play a positive role and exchange lessons learned.
    Iraq's economic growth offers exciting opportunities for U.S firms, 
particularly in key sectors such as infrastructure development, 
construction, health care, telecom, and agriculture. Iraq imports some 
of the best equipment and technology in the world from the United 
States, including civilian aircraft and the turbines that generate 
much-needed electricity. I have spent much of my career promoting U.S. 
economic engagement overseas. If confirmed, I look forward to promoting 
Secretary Kerry's Shared Prosperity agenda as Ambassador to Iraq.
    Mr. Chairman, as I have discussed, Iraq is a challenging security 
environment. If confirmed as Ambassador, I will bear responsibility for 
the safety of all U.S. personnel in Iraq, including at Embassy Baghdad 
and at our consulates in Erbil and Basrah. If confirmed, I will work 
closely with our security team on the ground--as well as with our 
Diplomatic Security colleagues back here in Washington--to ensure that 
our people are protected. I assure you this will be my highest 
priority, as well as to protect the safety of American citizens in 
Iraq.
    Since U.S. troops withdrew from Iraq in 2011, the Embassy and 
consulates have significantly reduced our staffing. As of June 2014, we 
have approximately 5,300 staff; just one-third of our 2012 footprint. 
If confirmed, I will continue to examine staffing levels to ensure that 
we have the appropriate number of personnel to carry out our mission.
    Again I wish to commend my colleague Steve Beecroft and his whole-
of-government team for their tremendous achievements and selfless 
service; I am proud to be named as Steve's successor.
    Mr. Chairman, members of the committee, thank you again for the 
opportunity to address you today. I appreciate and value this 
committee's oversight of our efforts in Iraq and, if confirmed, I look 
forward to welcoming you and your respective staff members to Baghdad. 
Your continued engagement on the policy issues discussed today is a 
vital element in ensuring our success in Iraq. I would be pleased to 
respond to any questions you may have. Thank you.

    The Chairman. Thank you.
    Ms. Smith.

   STATEMENT OF DANA SHELL SMITH, OF VIRGINIA, NOMINEE TO BE 
                AMBASSADOR TO THE STATE OF QATAR

    Ms. Smith. Chairman Menendez, Ranking Member Corker, and 
members of the committee----
    The Chairman. Will you put your microphone on, please?
    Ms. Smith. This is my first time doing this.
    Chairman Menendez, Ranking Member Corker, and members of 
the committee, thank you for the opportunity to appear before 
you today as the President's nominee to be the U.S. Ambassador 
to the State of Qatar. I am extremely grateful to President 
Obama and to Secretary Kerry for their confidence in me.
    If confirmed, I look forward to representing the American 
people and to working with this committee and other interested 
Members of Congress to advance U.S. interests in Qatar.
    And it is a privilege to share this panel with Stu Jones 
and Steve Beecroft, two of our finest Ambassadors, whose work I 
have long admired.
    It has been an honor to serve as a Foreign Service officer 
since 1992 and to use my regional experience and the Arabic 
language in a variety of assignments. The Foreign Service even 
introduced me to my husband, who is here today, and our two 
children--well, the Foreign Service did not introduce me to 
them--he is here with our two children. And it is exciting to 
have them here, able to watch our democracy in action. I am 
delighted that my aunt and uncle and so many of my friends 
could be here, as well.
    Qatar plays a growing role in the international community, 
with influence that extends far beyond its 4,400 square miles 
and 250,000 citizens. We share a productive relationship on key 
regional issues, ranging from Syria to Iran. They have been 
extremely supportive of our commitment to find a solution to 
the Israeli-Palestinian conflict. If confirmed, I will work to 
ensure that our policies and diplomatic platform advance U.S. 
foreign policy and national security interests in Qatar and the 
region more broadly.
    Defense cooperation is a central pillar of our partnership, 
and it is best reflected in Qatar's hosting of the U.S. CENTCOM 
forward headquarters, the Combined Air Operations Center, and 
the 379th Air Expeditionary Wing at al-Udeid Airbase.
    The renewal, in December 2013, of our Defense Cooperation 
Agreement is a further testament to our enduring security 
partnership. If confirmed, I will work to deepen our military 
ties and expand our regional security cooperation.
    We have an active and productive dialogue on both 
counterterrorism and proliferation of weapons of mass 
destruction. Qatar has endorsed the Proliferation Security 
Initiative and is a founding member of the Global 
Counterterrorism Forum. These efforts take on increased 
importance, of course, as violent extremists expand their 
operations in Syria. And we are working together to improve the 
capacity of Qatar's counterterrorist financing regime and to 
disrupt illicit cash flows.
    The United States is also continuing efforts with Qatar and 
other regional partners to support the moderate opposition in 
Syria. Qatar believes, as we do, that Bashar al-Assad's 
murderous oppression of the Syrian people leaves him with no 
legitimacy to rule. And we share the view that the crisis in 
Syria should be resolved through a negotiated political 
solution. We are working closely with regional partners to 
maximize the impact of our collective efforts. Qatar has also 
publicly welcomed the Joint Plan of Action reached between Iran 
and the P5+1 on Iran's nuclear program, and has made clear it 
supports United States efforts to negotiate a comprehensive 
agreement.
    As you know, Qatar played an instrumental role in 
recovering Sergeant Bowe Bergdahl. Their efforts are a 
testament to our partnership. With regard to the five 
individuals transferred from Guantanamo in connection with 
Sergeant Bergdahl's release, the United States has and will 
continue to coordinate closely with Qatar. We are confident 
that the security measures that have been put in place, 
including restrictions placed on the activities of the 
individuals, will substantially mitigate any threat that the 
individuals may pose to our national security. The Amir 
personally provided his assurances to the President, and the 
administration is confident that the Qataris have the capacity 
and will to deliver on the commitments made. But, let me be 
clear. If confirmed, I will work each day to ensure that these 
commitments are upheld. I will consult regularly with the 
members of this committee as we move forward on this issue.
    Our thriving commercial relationship with Qatar continues 
to grow, presenting tremendous opportunities for American 
business. Qatar is one of our most important trading partners 
in the region, importing over $5 billion worth in U.S. goods in 
2013. If confirmed, I will make it my priority to advocate for 
U.S. companies vigorously to ensure that we continue to seize 
on the multitude of opportunities offered by the Qatari market.
    Qatar also hosts six branches of U.S. universities. If 
confirmed, I will work to expand our cultural and educational 
partnerships to promote enduring ties between our people for 
the next generation.
    At a U.S. mission with employees from a variety of U.S. 
Government agencies, my first priority, if confirmed, would 
remain, at all times, protecting the safety and security of the 
dedicated men and women at our mission, as well as of all 
Americans living, working, and traveling in Qatar.
    Chairman Menendez, Ranking Member Corker, members of the 
committee, it has been my privilege and great honor to spend my 
entire adult life in the service of our country, promoting and 
defending U.S. interests and values. If confirmed, I welcome 
your views and insights on Qatar and the region, and look 
forward to your visits to Doha.
    I would be pleased to answer any questions you might have 
for me today.
    Thank you.
    [The prepared statement of Ms. Smith follows:]

                 Prepared Statement of Dana Shell Smith

    Mr. Chairman, Ranking Member Corker, and members of the committee, 
thank you for the opportunity to appear before you as the President's 
nominee to be the U.S. Ambassador to the State of Qatar. I am extremely 
grateful to President Obama and to Secretary Kerry for their confidence 
in me. If confirmed, I look forward to representing the American 
people, and to working with this committee and other interested Members 
of Congress to advance U.S. interests in Qatar. It is a privilege to 
share this hearing with Stu Jones and Steve Beecroft, two of our finest 
Ambassadors whose work I have long admired. I look forward to working 
closely with them.
    It has been an honor to serve as a Foreign Service officer since 
1992, mostly in the Arab World, and to use my regional experience and 
the Arabic language in a wide variety of assignments. The Foreign 
Service even introduced me to my husband, Ray Smith, who is here today, 
an agent with the Diplomatic Security Service. As a tandem couple we 
have been fortunate to serve together and to raise a family while 
pursuing careers we love. Our two children are also with me here today. 
They have learned so much from living overseas, and should I be 
confirmed, I know that Qatar will serve as an incredible educational 
and cultural experience for them. They have been great sports moving as 
often as they have, and I am very proud of them.
    Qatar is playing a growing role in the international community with 
influence that extends far beyond its 4,400 square miles and 250,000 
citizens. As President Obama has said, ``If our two countries are 
communicating frankly and constructively, and pursuing common 
strategies, we can be a force for good for the entire region and for a 
vision of a Middle East that is democratic, that is prosperous, that is 
tolerant, that is representative of all peoples, and that is a force 
for good around the world.'' We enjoy a productive relationship with 
Qatar on key regional issues ranging from Syria to Iran. Qatar has been 
extremely supportive of our government's commitment to find a solution 
to the Israeli-Palestinian conflict; Qatar agrees that peace between 
Israelis and Palestinians would advance security, prosperity, and 
stability in the Middle East. If confirmed, I will work to ensure that 
our policies and diplomatic platform advance U.S. foreign policy and 
national security interests in Qatar and the region more broadly.
    Defense cooperation is a central pillar of our partnership and is 
best reflected in Qatar's hosting of U.S. Central Command Forward 
Headquarters, the Combined Air Operations Center, and the 379th Air 
Expeditionary Wing at Al Udeid Air Base. Al Udeid plays a critical role 
in advancing our regional security as the platform for U.S. air 
operations in the CENTCOM Area of Responsibility, including for 
Afghanistan. The renewal in December 2013 of our Defense Cooperation 
Agreement with Qatar, governing interactions between U.S. and Qatari 
forces, is a further testament to the enduring security partnership 
enjoyed by our two countries. If confirmed, I will work to deepen our 
military ties and expand our regional security cooperation.
    We have an active and productive dialogue with Qatar in the areas 
of counterterrorism and nonproliferation of weapons of mass 
destruction. Qatar has endorsed the Proliferation Security Initiative 
and is a founding member of the Global Counterterrorism Forum. In March 
2013 Qatar hosted a Forum workshop to develop a plan of action for rule 
of law-based, community-oriented policing programs to counter violent 
extremism (CVE). Qatar has also pledged $5 million to support the 
Global Community Engagement and Resilience Fund, the first public-
private global fund to support local, grassroots CVE efforts. As 
violent extremists expand their operations in Syria, these efforts take 
on increased importance, and we are working with Qatar to improve the 
capacity of its counterterrorist financing regime and disrupt illicit 
cash flows, including through the provision of training.
    The United States is also continuing efforts, together with Qatar 
and other regional partners, to support the moderate opposition in 
Syria. Qatar believes that Bashar al-Assad's murderous oppression of 
the Syrian people leaves him with no legitimacy to rule and Qatar 
shares our view that the crisis in Syria should be resolved through a 
negotiated political transition. Qatar is an active member of the 
London 11 Core Group on Syria and a strong supporter of the Syrian 
opposition. We are working closely with regional partners like Qatar to 
maximize the impact of our collective efforts to support the moderate 
opposition and address the humanitarian crisis.
    Qatar has publicly welcomed the Joint Plan of Action reached 
between Iran and the P5+1 on Iran's nuclear program, and has made clear 
it supports U.S. efforts to negotiate a comprehensive agreement.
    As we saw a few weeks ago, Qatar played an instrumental role in 
recovering Sergeant Bowe Bergdahl. Qatar's efforts in this regard are 
another testament to our partnership. With regard to the five 
individuals transferred to Qatar from Guantanamo in connection with 
Sergeant Bergdahl's release, the United States has and will continue to 
coordinate closely with Qatar. We are confident that the security 
measures that have been put in place, including restrictions placed on 
the activities of the individuals, will substantially mitigate any 
threat that the individuals may pose to our national security. The Amir 
personally provided his assurances to the President, and the 
administration is confident that the Qataris have the capacity and will 
to deliver on the commitments made. If confirmed, I will ensure that my 
Country Team tracks closely and verifies that these commitments are 
being upheld. In this regard, I look forward to consulting with the 
members of this committee and their staff, if confirmed.
    Our thriving commercial relationship with Qatar continues to grow, 
presenting tremendous opportunities for American business. Qatar plans 
to invest up to $200 billion in preparation for hosting the 2022 FIFA 
World Cup, and to date U.S. companies have performed exceptionally well 
in securing contracts for mega infrastructure projects, such as the new 
airport, port, metro system, roads and bridges. Qatar is one of our 
most important trading partners in the region, importing over $5 
billion in U.S. goods in 2013, and it is the fifth-largest destination 
for U.S. exports in the Middle East. If confirmed, I will make it my 
priority to advocate for U.S. companies vigorously to ensure that we 
continue to seize the multitude of opportunities offered by the Qatari 
market.
    Qatar's 2030 National Vision aims to transition to a knowledge-
based economy, and critical to this effort is Qatar's development of a 
strong education sector. Qatar has served as a center of innovation in 
the region, in part thanks to its warm welcome of diverse academic 
institutions and think tanks, particularly U.S. institutions. Qatar's 
``Education City'' is home to six U.S. universities, and Qatar has also 
welcomed the presence of U.S. institutes Brookings and RAND. Our 
partnerships in education have expanded dramatically, with the number 
of Qatari students choosing to study in the United States more than 
doubling over the past decade. Qatar's contribution of $5 million to 
the J. Christopher Stevens Virtual Exchange Initiative will help equip 
more than 1 million youth with the skills they need to succeed in the 
21st century through online educational exchanges between the U.S., the 
Middle East, and North Africa. If confirmed, I will work to expand our 
educational and cultural partnerships to promote enduring ties between 
our peoples for the next generation.
    At a U.S. mission with employees from a variety of U.S. Government 
agencies, my first priority, if confirmed, would remain at all times 
protecting the safety and security of the dedicated men and women at 
our mission as well as of all Americans living and working or traveling 
in Qatar.
    Chairman Menendez, Ranking Member Corker, members of the committee, 
it has been my privilege and great honor to spend my entire adult life 
in the service of our country, promoting and defending U.S. interests 
and values. If confirmed, I would welcome your views and insights on 
Qatar and the region and look forward to your visits to Doha. I would 
be pleased to answer any questions you might have for me today.

    The Chairman. Well, thank you all for your testimony, and 
again, welcome to your family and friends.
    Let me start with you, Ambassador Beecroft. Well, let me 
ask you--all three of you--an overarching question. A simple 
yes or no will do. If confirmed, will you make yourselves 
available to the committee and answer inquiries from the 
committee while you are in post?
    Ambassador Jones. Yes.
    Ambassador Beecroft. Yes, Mr. Chairman.
    Ms. Smith. Absolutely.
    The Chairman. OK.
    Ambassador Beecroft, you know, you are going from one 
difficult assignment to another one. That is why we have some 
extraordinary persons like yourself. But, speaking for myself 
as the chairman, let me just say, if we are going to continue 
to see mass death-penalty sentences, if we are going to 
continue seeing massive arrests of the young people who, in 
essence, created the situation in Tahrir Square that ultimately 
led to President Sisi's election, if President Sisi believes 
that only his engagement in the Sinai, which I applaud, is 
sufficient for his relationship with the United States, then 
there will be a rude awakening. And I hope that, in your role 
as our Ambassador, that you will be able to relay to President 
Sisi that we need a broader agenda to see progress moving 
forward, not just because that is my view, but the FY14 
appropriations legislation contains certification requirements 
to release the rest of Egypt's FY14 assistance, including that 
``A newly elected Government of Egypt is taking steps to govern 
democratically.''
    So, I would like to hear from you, as you approach this new 
assignment, what is it that you will be saying when you go to 
Egypt, and how do we make progress to create the political 
space for the Egyptian Government to address some of these 
concerns that, by law, they must do if we are ultimately going 
to continue our assistance?
    Ambassador Beecroft. Thank you very much, Mr. Chairman. I 
agree with you 100 percent, that we want to have the strongest, 
broadest possible partnership and relationship with Egypt, and 
we want an Egypt that is stable and secure because it has and 
respects fundamental human-rights, democracy, and because it 
builds a prosperous economy. If confirmed, I will engage on all 
these issues with the Egyptian Government and work with them to 
partner and develop the economy, to build human rights, expand 
those rights, to stop practices such as the mass trials that 
you have referred to, which we have condemned, and to ensure 
that justice is individualized, to ensure that there is a 
society and a country and a government that the Egyptian people 
buy into, that they see that their interests are best 
represented inside the democratic process, and not outside it, 
and that will lead to fundamental, long-term stability. Egypt 
does have promising prospects, including economic prospects, 
and it has demonstrated, over the last two decades at times, 
that it can function as a emerging economy, that it can have 
real GDP growth in excess of 7 percent. And we need to, again, 
build on that and do whatever we can to----
    The Chairman. Well, I appreciate that.
    Ambassador Beecroft [continuing]. Strengthen the 
partnership.
    The Chairman. Now, in addition to those concerns, you 
talked about the economic questions. And I am concerned by what 
I read in President Sisi's statements, where it sounds like he 
thinks that greater state intervention in the economy is going 
to create the opportunities that Egyptians need. And I am not 
quite sure, having just returned from the gulf region, that our 
gulf partners, who have actually been very helpful to the 
Egyptians, will have that view. What messaging will we be 
giving as it relates to how this economy can revive itself and 
grow?
    Ambassador Beecroft. Thank you very much. It is, of course, 
very much in our interest to see Egypt build its economy, 
strengthen its economy. It is in our interest to work with the 
gulf countries you referred to, to target assistance as 
effectively as possible, and to encourage the economic reforms 
that are necessary for the economy to progress.
    I would note that Egypt has a number of economic advantages 
we can build on. It has a relatively well-developed 
infrastructure; specifically, telecommunications, roads, ports. 
It has access to markets in--because of its proximity--in 
Europe, in Asia, in Africa. It has labor that should attract 
investment, as well. And it has natural resources, particularly 
natural gas, that can be developed. So, there is the basis for 
a strong economy. We have to encourage the reforms that will 
attract investors into the country and to target the assistance 
so that it addresses the parts of the economy that need to be 
addressed--particularly reforms.
    The Chairman. Ambassador Jones, you know, we had Prime 
Minister Maliki here last year. It was a difficult meeting. I 
do not know whether or not he will actually be the Prime 
Minister again. I guess, by many accounts, he may very well 
ultimately put together the coalition necessary to do that. 
But, as I said to Ambassador Beecroft as it relates to our 
relationship with the Egyptian Government, in this case, the 
Iraqis must understand that the use of barrel bombs, that the 
overflights and transiting of airspace by Iran sending troops 
and military equipment into Syria with impunity, and the lives 
of the people at Camp Liberty, until they are resettled, is 
going to be part of what this committee uses to judge, our 
relationship, with regards to future arms sales.
    So, I would like to hear from you--we understand the 
importance, we honor the lives of those who were lost, in 
pursuit of a more democratic Iraq, from the United States, and 
an enormous national treasure, but there has to be some change 
in the course of events here, including having a government 
that is more inclusive, in which every Sunni is not an enemy of 
the state. There are many Sunnis who want to be part of Iraq, 
as a nation, but they have to be included as well.
    Can you tell me about what you will be messaging there as 
it relates to these issues?
    Ambassador Jones. Thank you, Mr. Chairman.
    Let me take your last point first, which is, of course we 
completely agree that, for Iraq to succeed, the different 
political elements, the sectarian groups, need to come together 
and create a shared vision. They need to create a shared vision 
for their national security. They need to pull together to 
address the terrorist threat posed by ISIL. And, although the 
news from Mosul is very bad, I think one positive aspect of 
this may be that the groups are, indeed, coming together to 
address this challenge. At least we are seeing signs of that in 
the last 24 hours.
    In regards to the barrel bombs, the use of barrel bombs is 
completely unacceptable. It is an indiscriminate weapon against 
civilians and cannot be tolerated. This is something that my 
colleague Steve Beecroft has raised with the senior levels of 
the Iraqi government. There has been an instruction handed down 
through the military that barrel bombs will not be used. And we 
have also heard, from military contacts, that they recognize 
that instruction.
    In regards to the overflights, this is an issue that 
remains a problem. We are concerned that Iran is supplying the 
Bashar Assad regime with overflights over Iraq. This is 
something that we would like to see the Iraqis stop. And this 
is, again, something we have raised at the most senior levels. 
And I will continue to do that and look for ways to find a way 
to stop this traffic.
    On the issue of Camp Liberty, I know this is an issue of 
particular concern, and it is a very important issue. When I 
was the Deputy Chief of Mission in Iraq in 2010 and 2011, we 
witnessed a terrible attack on Camp Ashraf in which many people 
were killed and others wounded. I think the steps that we have 
taken since then have been quite positive. Moving the residents 
of Ashraf to Camp Liberty has improved their security. The 
Government of Iraq has also responded to our request, and 
others' requests, to improve the security around Camp Liberty, 
and that is encouraging. But, the solution, of course, is to 
remove the members of the Mujahedin-e Khalq from Iraq and get 
them to a safer place. They will not be safe until they are 
outside of Iraq. And I am--our government is taking the lead on 
this. The Special Envoy to the Secretary, Jonathan Weiner, is 
meeting with representatives of countries around the world and 
asking them to take members of the Mujahedin-e Khalq. And we 
also now have a team in Baghdad to interview members to see--
working toward receiving a group of those here in the United 
States. And I think this is the best solution that we can 
present.
    The Chairman. Well, two final points, so that it is crystal 
clear. I do not want to hear Iraq tell us that, ``We need 
actionable intelligence.'' When we have it, we will provide it. 
But they have a responsibility, in doing random surveillance of 
overflights, and that is an excuse that is unacceptable.
    Secondly, I agree with you that resettlement of the MEK is 
the ultimate solution. I hope--and I have urged the State 
Department to consider bringing some of them to the United 
States as an example to those in the rest of the world that we 
are also asking to consider resettlement. But, in the interim, 
I hold the Prime Minister responsible for the lives of those 
individuals at the camp.
    Ms. Smith, I do not want you to think I do not have 
questions for you, but, in fairness to my colleagues, my time 
is expired. I will come back to you afterward.
    Senator Corker.
    Senator Corker. I am sure Ms. Smith was fine with that, 
actually, so thank you. [Laughter.]
    Ms. Smith. That is correct.
    The Chairman. Well, I may not be from the South, but I 
would bet you I will be more genteel. [Laughter.]
    Senator Corker. So, again, I want to thank all three of 
you. And I will start--I will just go in order.
    Ambassador Jones, you know, I visited Ambassador Beecroft 
and have been to Iraq, like many of us, many times. And today 
when you are there, unlike Jordan, where you have just--where 
you still are--it feels like a vacant, deserted lot, relative 
to our emphasis on it. It feels like we have checked the box 
and moved on, and that we really have lost influence. That is, 
I think--I think everybody acknowledges that. But, that we just 
have not been really robust at all levels, relative to our 
efforts there.
    We had a great conversation yesterday, and we talked a 
little bit about the lack of the SOFA, and the fact that our 
troops are gone, and that has contributed to the lack of 
influence in a pretty big way. You have had two tours there. 
And I mentioned I was going to bring this up just to kind of 
set the record straight. Many of us have felt--and maybe even 
after you say what you say, may still feel--that one of the 
reasons that Iraq is the way that it is, is that we, you know, 
did not leave behind some presence and that we actually--this 
was actually what the administration wanted to occur.
    You have a very different perspective of that, and I 
thought that--do not take too long, if you will--but, I think 
it would be good for you to share your thoughts, relative to 
why we do not have a presence in Iraq today.
    Ambassador Jones. Thank you, Senator. As you said, we spoke 
about this yesterday. My view on this is that the Iraqi people 
really did not come together and ask us to stay in a way that 
made it possible for us to stay. And it is as simple as that. 
No major Iraqi leaders, with the exception of the Kurds, came 
forward and invited us to stay in a public manner, and they did 
not go on television. We obviously needed to have a Status of 
Forces Agreement for the security of our troops, and the Iraqis 
did not meet us halfway on that. So, I think this was the 
result of that negotiation, and that is how it ended.
    Senator Corker. And so, from your perspective, the fact 
that we have no presence there, and, candidly, much lesser 
influence, is a result, really, of just the Iraqi people not 
wanting it to be that way.
    Ambassador Jones. Yes, sir.
    Senator Corker. OK. Well, it is interesting and a very 
different perspective than, you know, I have heard from most, 
but I appreciate you sharing that.
    And, you know, I would agree with the chairman, we had a 
pretty terse meeting with Maliki here. I had had one on the 
ground with him just before that. He has obviously not been a 
good Prime Minister. He has not done a good job of reaching out 
to the Sunni population, which has caused them to be more 
receptive to al-Qaeda efforts. Obviously, the Syrian conflict--
I know there is analysis today saying that that is really not 
having an impact on Iraq. I believe it is having a major impact 
on Iraq.
    But, with our diminished status in Iraq, and the fact that 
we used to sort of play shuttle diplomacy, if you will, between 
the Sunnis and Shias and causing things to work in a better 
way--I think you did that before, in your previous capacity--
how do you view your role there, going there now, under the 
circumstances that we have and trying to mitigate some of the 
problems that exist between the--especially the Shia and the 
Sunni?
    Ambassador Jones. Yes. Well, I think I am blessed to be 
following in the footsteps of Steve Beecroft. I think Steve has 
established very good relations with all of the groups in Iraq, 
and I think this is a role that we should continue to play, 
brokering--using our good offices to broker solutions to the 
myriad problems that face Iraq. I think we have made great 
progress, in recent months, in trying to broker an arrangement 
by which the hydrocarbon law could be finalized and the 
relations between Kurdistan--the Kurdish regional government 
and Baghdad could resolve their problems. I think we can also 
find ways to support a process of political conciliation 
between some Shia--and Sunni groups with the government. This 
is the role that the United States has played in Iraq for the 
last 10 years, and I would certainly hope to continue to play 
that role.
    I think we do have significant influence because of our 
continuing presence in the commercial and petroleum sector, as 
well as a continuing presence in the military sector, though 
obviously not with troops on the ground.
    Senator Corker. Yes. Thank you.
    Ambassador Beecroft, we talked a little bit about another 
topic, and a similar topic, but for different reasons: our 
influence in Egypt, itself. I think people have had really 
strongly held beliefs about what we should and should be doing 
relative to Egypt and aid. And I have felt we should continue 
the relationship, certainly with some contingencies. But--or 
conditions--but, the fact is, we have sort of been on again, 
off again. People there have perceived us to be, in some ways, 
supporting the Muslim Brotherhood, but not the citizens of 
Egypt. You have had the--some of the gulf countries step in and 
fill a vacuum when Egypt felt we were stepping away.
    What is your sense of how the leadership of Egypt today 
views the United States? And again, similar to Ambassador 
Jones, how do you expect to be able to step into that situation 
and exert appropriate influence and shaping in the country?
    Ambassador Beecroft. Thank you very much, Senator.
    Let me first say that we do have a partnership with Egypt. 
The Egyptians are continuing to engage with us. We need to take 
advantage of that to pursue our own interests. Our interests 
and Egyptian interests do happen to overlap considerably, I 
believe. It is not going to always be--we are not going to 
always agree on matters, but, again, engaging with them, 
working with them, we can push in the right direction. And what 
we want to see in Egypt is, we want to see security and 
stability that is built on the fundamentals of a sound society, 
such as the economy and such as democracy and human rights, and 
be as inclusive as possible.
    Our assistance--I see our assistance as pursuing our 
interests in Egypt and, again, believe that our interests 
overlap considerably. If confirmed, I will engage with the 
Egyptians and I will push them in the directions that we want 
them to go, encourage them, work with them, and use the 
assistance, to the extent it is approved by Congress, to 
further our interests in the country.
    Senator Corker. Well, thank you.
    And I appreciate the relationship and conversations that we 
have had in the past with both the Ambassadors. And thank you 
for your willingness to serve in this capacity.
    Ms. Smith, Qatar has played an interesting role in Syria 
because of the lack of policy, from our standpoint. I think 
they became exasperated and sort of went out on their own, if 
you will. There are reports that that is being sort of--is 
moving back into a more coordinated effort with us. Do you have 
any sense of their efforts on the ground in Syria relative to 
opposition? And are they moving more into the mainstream, if 
you will, relative to the type of support they are giving?
    Ms. Smith. Thanks very much for that question.
    Yes, we do have the sense that we are making progress, in 
terms of coordination. It is all of our goal to support the 
moderate opposition in Syria and, of course, to address the 
humanitarian disaster that is happening there. Qatar has been 
incredibly generous. They have given $1.2 billion toward the--
addressing the humanitarian needs in Syria. And so, going 
forward, what our engagement consists of with the Qataris is 
continuing to find ways to coordinate, to work together in 
support of the moderate opposition. Obviously, with the 
ultimate goal being Assad not being in charge anymore.
    Senator Corker. In order to give you a chance to say 
something on the record that I think you are authorized to 
respond to, it is my understanding the SAS Committee is 
developing language that allows title 10 training of the 
opposition on the ground in Syria. Do you know if the 
administration supports that, or does not support it?
    Ms. Smith. It is my understanding that the administration 
does support the Levin language in the NDAA to authorize 
training and equipment----
    Senator Corker. OK.
    Ms. Smith [continuing]. Of the moderate opposition. But, 
again, I am not in those policy discussions at the moment.
    Senator Corker. I understand. I just understood you were 
authorized----
    Ms. Smith. Appreciate it.
    Senator Corker [continuing]. To say that they support it, 
and----
    Ms. Smith. I appreciate it.
    Senator Corker [continuing]. I wanted that on the record.
    So, with that, I will close and thank you.
    Ms. Smith. Thank you.
    Senator Corker. I do want to say to the other committee 
members that our staff has been able to go down and read the 
memorandum of understanding that we have between the United 
States and Qatar. I wish it was available to all committee 
members. For some reason, it is not. It is 3 pages long. My 
understanding is, it is very unremarkable. And our staff had no 
antennas raised in reading it. But, I just thought I would 
share that.
    And again, thank you for your service.
    And thanks for having this hearing.
    The Chairman. Thank you.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman.
    And thanks, to all of the witnesses, for your service and 
willingness to serve.
    Ms. Smith, let me just ask you a question I was curious 
about. And we had a chance to talk, but I forgot to ask you 
this. In Qatar, under the leadership of the new Amir, have 
there been any particular changes in direction in the United 
States/Qatar partnership or relationship that have seemed 
notable during this time of transformation? Is it kind of 
steady and we are continuing to kind of do--the relationship is 
in the same place it was? Or have we seen some changes in 
direction because of that leadership transition?
    Ms. Smith. If I am confirmed, I would love to give a more 
fulsome response when I am actually there and able to make my 
own assessment. But, my understanding is that our relationship 
continues to be as close and cooperative as it was before. The 
Amir has been in power for just about a year; and, of course, 
he is not new to the government. He was working there for over 
a decade before, under his father's rule.
    So, while I would not say that we are seeing a change, what 
we are seeing is continued progress on the areas where we have 
good and close coordination. And so, I have every expectation 
that, if I am confirmed, we will able to deepen and expand 
those positive areas where we are working together.
    Senator Kaine. One of the areas where I know there has been 
some tension--the chairman has hosted meetings before, where 
the Foreign Relations Committee members have had a chance to 
dialogue with the Amir--had been in, you know, who the 
Qataris--referring to earlier questions--the Qataris have been 
supporting in Syria. That created some tensions. Is that 
changing? Are we, maybe, more in accord with the Qataris now 
and the government about, you know, what is the right way to 
have influence to bring this humanitarian issue and, 
ultimately, the civil war to an end?
    Ms. Smith. Well, this is something we are always watching 
very closely. I have not heard from anyone that we are ready to 
just declare, you know, everything is wonderful and perfect, 
but we do feel that we are making progress in our shared 
understanding of which groups are--constitute moderate 
opposition and who is worthy of our support.
    Senator Kaine. OK. Thank you for that.
    Mr. Beecroft, you talked a little bit about the economic 
issues in Egypt. You know, it seems like that that would be a 
real test for the new President, is how quickly he can try to 
demonstrate some economic improvement. You and I had a chance 
to talk about this the other day. Could you talk a little bit 
about the role that the United States can play in helping Egypt 
in economic transformation, and also the role that other 
allies--the Gulf State allies should be able to play?
    Ambassador Beecroft. Thank you very much, Mr. Senator.
    As I mentioned earlier in the hearing, Egypt does have the 
fundamentals for a successful economy, and it needs to be 
encouraged to take the steps necessary to build that economy. 
We have a team that is actively engaged with the Egyptians and 
the Gulf States to help, again, target assistance to Egypt and 
to encourage the necessary reforms.
    One of the things that President Sisi has called for is 
investment. And investment is key to developing the economy. In 
order to get investment, you have to have certain sound 
fundamentals in place, or the investment will not come. And 
among those are, of course, a stable society based on an 
inclusive democracy that respects and guarantees human rights 
for all Egyptians and that provides the security and stability 
that encourages people to invest.
    And again, as I mentioned earlier, Egypt does benefit from 
certain advantages that should help it get through these 
crucial times if it chooses to make the right reforms. Among 
those are an infrastructure that is relatively well developed--
as I mentioned, telecoms, roads, ports; access proximity to 
markets in Europe and Asia, including or allowed by the Suez 
Canal, and in Africa; natural resources, particularly natural 
gas--my understanding is, Egypt has the third-largest proven 
reserves of natural gas in Africa; and a labor market that 
should be very, very attractive to investors.
    And so, we need to focus Egypt on, again, making the 
necessary changes so investors see that it is a safe and secure 
environment; again, that the people enjoy their rights; and 
that they are making the right economic decisions that attract 
that investment. And again, we can do that by working with the 
Gulf States that are particularly engaged in Egypt, and staying 
engaged with Egyptians, I hope.
    Senator Kaine. And, Ambassador Beecroft, one last question 
on the human-rights front. And I know there has been a question 
before I walked into the room. But, I was most troubled, when I 
was there in February, about the situation with journalists, 
and probably because the day that I was meeting with Egyptian 
leaders, including General al-Sisi, was the day there was a 
very prominent set of journalists going on trial. The U.S. 
Embassy in Egypt even asked if I would do an--come-one-come-all 
press conference, just to show an example of--an elected 
official does not have to be afraid to answer tough questions 
from an even hostile press. And I got some tough questions from 
hostile press there, but I was very used to it, because I have 
been in politics in the United States.
    But, have you seen any sign, since the Presidential 
election--is there any even early evidence about the direction 
that this together will take with respect to press freedoms? Or 
is it too soon to say?
    Ambassador Beecroft. Well, President al-Sisi, in his 
inaugural address, did make mention of his desire to be a 
president for all Egyptians and to see all Egyptians enjoy 
fundamental rights and freedoms. And I think what we want to do 
is, to the extent we can, push and take him up on that, and 
encourage him to follow through. Obviously, we believe in the 
strongest possible freedom of the press--the broadest possible 
freedoms for the press. It is very, very disturbing and 
unfortunate that journalists have been detained and charged 
with crimes in Egypt. A society cannot function effectively 
without--a democratic society--without freedom of the press. 
And so, we need to engage, we need to encourage it, we need to 
try to find ways to show that having a free press is in the 
interest of Egypt as a country, in the interest of the 
government, and interest of the people.
    Senator Kaine. Thank you.
    Ambassador Jones, thanks for your service. I very much was 
impressed with your work leading the mission in Jordan when I 
visited last July. And I do not have much time left, so let me 
just get right to it.
    What do you think about the commitment of the Iraqi 
Government to political inclusion of the different factions 
within Iraqi civil society? That has been troubling me, and I 
would like your, just, current assessment of that.
    Ambassador Jones. Thanks. And thanks also, Senator, for 
your visit to Jordan. It was a very helpful and positive 
experience.
    I think that, especially as the government faces this 
terrorist challenge with ISIL, there is a strong incentive and 
political will to try to unify the groups. Just recently, the 
Prime Minister has issued a statement, you know, encouraging 
national unity and inviting participation in unifying the 
groups against ISIL. So, I think that there is political will. 
And, you know, even before the most recent crisis in Mosul, the 
Prime Minister has reached out to Sunni groups, he has brought 
6,000 tribal members into the Iraqi security forces, he is 
aiming for a number of--an even larger number. So, I think that 
there is--that there is movement on this. And this is obviously 
something where I think the United States can continue to play 
a positive role, and we should.
    Senator Kaine. Thank you, Mr. Chairman.
    The Chairman. Senator Rubio.
    Senator Rubio. Thank you, Mr. Chairman.
    Ms. Smith, first of all, congratulates on your appointment. 
Interesting time to be going to--my first question, just out of 
the box; we have been debating here for a second--what is the 
definitive pronunciation? Is it ``Cutter,'' ``Kittare'' or 
``Gutter''? We have heard all three over the----
    Ms. Smith. In Arabic, actually it is ``QUH-tar.''
    Senator Rubio. OK. Well, how would I say it? Help me. 
[Laughter.]
    Ms. Smith. ``Cutter.''
    Senator Rubio. ``Cutter.'' OK.
    Ms. Smith. ``Cutter,'' for ease----
    Senator Rubio. Got it.
    Ms. Smith [continuing]. Is probably the best for an 
American.
    Senator Rubio. So, ``Cutter,'' all right.
    Ms. Smith. Yes.
    Senator Rubio. Great.
    So, let me ask you about Qatar. Have you been briefed on 
the memorandum of understanding?
    Ms. Smith. Yes, I have.
    Senator Rubio. Well, do you--will that be provided to 
Congress?
    Ms. Smith. I believe it has been made available to the 
chair and the ranking member.
    Senator Rubio. Do you know if that will be made available 
to other members, as well? I do not know if that has been--you 
have been informed on that.
    Ms. Smith. I do not. I am sorry, I am not in those 
conversations.
    Senator Rubio. What can you tell us about how much of the 
supervision of these individuals will the United States have 
the ability to participate in?
    Ms. Smith. Thank you for giving me the opportunity to 
address this, because I know this is very much on people's 
minds, not only in this room.
    If I am confirmed, this goes to the very top of my list of 
priorities. We will be working very closely with the Qataris. 
We will be engaging them very closely, verifying both their--
what they have been--the restrictions that they have put on 
these individuals and the information that they will be 
collecting on these individuals, but also verifying, from our 
own standpoint. And we will be assessing continuously, every 
day--every morning when I wake up, every night when I go to 
sleep--to reassess whether these people pose any threat 
whatsoever to our national security. And so, I can guarantee 
you that I will be leading a country team representative of our 
whole government that will be working on this tirelessly, if I 
am confirmed.
    Senator Rubio. Well, can you share with us, in this 
setting, what exactly are the expectations of the U.S.'s 
participation in that effort, in terms of providing 
capabilities? Is that something you could share with us at all, 
in terms of your understanding of----
    Ms. Smith. I think what I can share is that we have a very 
good and close and productive information-sharing relationship 
with Qatar. And obviously, as Secretary Kerry said, Qatar will 
not be the only one with eyes on these individuals. And I think 
it is probably best to leave it at that.
    Senator Rubio. Can you give us your indication or your 
feelings about the capabilities of the Qatari Government to 
carry out this obligation they have committed to?
    Ms. Smith. It is my understanding that they have the 
capacity to do this, that we have a high degree of confidence 
in their capacity. And we also assess that they have the will 
to do this. Their Amir called and gave the President, 
personally, his assurances, his personal commitment to 
upholding this agreement. So, we are cautiously optimistic that 
there is the ability to do this.
    Of course, I think it would not be an effective way to 
enter into it, just with blind faith, so that is why we will be 
working constantly to verify and assess, from our own 
standpoint.
    Senator Rubio. What are your views, in the aftermath of 
this swap, as to the precedent that it sets and, therefore, the 
risk that it poses for Americans, both in and out of uniform, 
in terms of becoming even more appealing targets for other 
groups to try to--to capture Americans for the purposes of 
carrying out an exchange similar to this one?
    Ms. Smith. Sorry, that is something that I am not, 
probably, qualified to address.
    Senator Rubio. Well, let me ask you this way, then. Are we 
concerned, in the aftermath of this, that Americans serving our 
country, whether it is at--in the Embassy or as part of any of 
our governmental efforts in Qatar, are now at increased risk, 
given the fact--given this--the aftermath of this?
    Ms. Smith. We are--as diplomats, we are always concerned 
about our national security. It is our top priority, both of 
the people working on our teams and also for all American 
citizens, whether in the countries where we are representing 
America or whether back here at home. So, I--absolutely, safety 
and security of Americans is the number one thing that we are 
concerned about and care about.
    Senator Rubio. Well, in that light, obviously we have all 
seen the--all are aware of what happened in Benghazi, and we 
understand that, when we send service--when we send men and 
women to represent us in the diplomatic corps around the world, 
particularly in areas of the world where are more prone to 
terrorism, or the presence of terrorist-linked groups, that it 
places particular dangers upon those who serve our country in 
that realm. What--can you give us an assessment of how you view 
our security in the Embassy there? And obviously, you have 
talked about what a priority that would be. If you could share 
with us just a little bit about the--to extent that you can, 
the processes by which that becomes a priority, and how we 
ensure the safety of those who will be working underneath you 
in that facility.
    Ms. Smith. Sure. And this is something that every chief of 
mission is concerned about and particularly focused on, in 
light of the events in Benghazi. Chris Stevens was a close 
friend of mine, so it is something that I am very mindful of.
    So, as we have moved through since the events, every 
embassy has been looked at, and looked at again. And it is a 
primary responsibility of the chief of mission to look at both 
the physical security, working with the security team that you 
lead, as well as any threats that are posed, day in and day 
out, and how that threat level might be changing. And it is a 
constant give-and-take, it is a constant conversation. And I 
think it is probably best to leave it at that.
    Senator Rubio. Thank you.
    Mr. Beecroft, based--quickly, about Egypt--what would the 
administration consider to be sufficient measures by Egypt in 
order to meet the conditions for full resumption of U.S. 
military aid?
    Ambassador Beecroft. I am familiar with the 2014 
Appropriations Act, but I am not a party to those discussions 
yet. What I look forward to is, if confirmed, going to Egypt, 
contributing to those discussions, considerations. Again, I 
know this is something the administration is looking at very, 
very closely and on a daily basis, but I am not in a position 
to answer the question. I apologize.
    Senator Rubio. OK. Well, let me ask you briefly, then--
there have been recent reports about sexual assault during 
inaugural celebrations this past week that have been very 
alarming. In particular, a video showing a mob assault a woman 
in Tahrir Square, and a policeman struggled to save her has 
been--and a policeman struggled to save her--has been 
circulating the Internet. How would you work with the Egyptian 
government to ensure the prevention and prosecution of sexual 
assault? Is--how would you work with them to ensure that this 
is a priority for them in this new government?
    Ambassador Beecroft. The act you are referring to, and 
others like it which have been reported as well, are extremely 
disturbing, and we are extremely concerned about those type of 
incidents. Women should have a--the ability to go anywhere they 
want in the country, just like a man. And they should be full 
participants in Egypt's democratic and social processes.
    We need to engage with the Egyptian Government. We need to 
make clear that these activities are unacceptable. And I 
recognize that Egypt, including President al-Sisi, has made 
statements to the effect that these are unacceptable, and he 
has called on security forces to do everything they need to do 
to enforce the law and make sure that women are safe in the 
aftermath of this incident. We have ongoing programs about 
sexual and gender violence and women's rights, and we need to 
pursue those programs, as well, through our assistance, 
consistent with the law.
    Senator Rubio. Thank you.
    The Chairman. Thank you.
    Let me, for the record--and I am just verifying this right 
now, but, my understanding is that the memorandum of 
understanding re: Qatar is available to leadership as well as 
members and appropriately cleared professional staff members of 
several committees, including the Senate Foreign Relations 
Committee, which would mean that any member, and those 
professional staff who have been cleared for intelligence 
briefings, will have access to the memo. So, all members would 
be able to read it.
    With that, Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    Again, I want to thank the witnesses and your willingness 
to serve.
    Ms. Smith, when did you review the memorandum of 
understanding?
    Ms. Smith. Earlier this week, Senator.
    Senator Johnson. On Monday or----
    Ms. Smith. I believe it was Monday.
    Senator Johnson. Is your security clearance higher than 
that of a United States Senator?
    Ms. Smith. I cannot answer that question. I do not know 
what your security clearance is.
    Senator Johnson. OK.
    I appreciate the fact, Mr. Chairman, that now we have the 
opportunity to review that memorandum of understanding, but I 
think the point of my question is, as a nominee to be 
Ambassador, you know, I think you should certainly be able to 
review that, but I think we should have been, as well. And we 
simply were not until, apparently, late last night.
    Ms. Smith. I would like to make this commitment to you, Mr. 
Senator. If I am confirmed, I will be delighted to consult with 
you and any of the members of the committee, and your staffs, 
as closely and regularly as you like.
    Senator Johnson. You--in your testimony, you said, ``We are 
confident that the security measures that we have been--that 
have been put in place, including restrictions placed on the 
activities of the individuals, will substantially mitigate any 
threat that the individuals may pose to our national 
security.'' Did you by any chance see the video of the 
celebration as these five detainees were welcomed at Qatar?
    Ms. Smith. I did not see the video. I saw reports about it.
    Senator Johnson. You should review that. It does not look 
like particularly restrictive environment to me.
    Ms. Smith. If I am confirmed, we are going to be focused on 
our national security, and we will be looking at, not only the 
directly threatening types of things they could be doing, but 
things that constitute propaganda and that constitute that type 
of thing.
    Senator Johnson. Because I was not able to take a look at 
the memorandum of understanding, I will go down and I will look 
at it. Can you tell me, were there restrictions in terms of 
public displays for propaganda purposes within that memorandum 
of understanding? In other words, has Qatar already violated 
that, based on your understanding?
    Ms. Smith. I think the best thing that I can say here is 
that there will be restrictions on some of the activities of 
those individuals. I would be delighted to consult with you, 
again, in a different setting.
    Senator Johnson. OK.
    Ambassador Beecroft, how would you assess--or, how would 
you describe the result that is occurring in Iraq now after we 
have withdrawn all of our combat forces? How is that going?
    Ambassador Beecroft. Well, Iraq is facing a very, very 
severe challenge from terrorist groups--particular--terrorist 
groups--particularly the Islamic State of Iraq and the Levant. 
And it has suffered setbacks. If there is a silver lining in 
this, it is that we are seeing Iraqis, over the past few days, 
start to pull together in ways they have not before, overcome 
sectarian divides. We have seen the Kurds and Baghdad start to 
talk to each other, start to cooperate on the battlefield. And 
we have seen Iraq putting together a conference for Sunnis to 
reconcile with as many Sunni groups as possible and engage them 
in the fight.
    So, it is an uphill battle, it is a struggle. We are doing 
what we can to help them in ways of providing assistance for 
military equipment, military weapons, ammunition, providing 
training, and sharing as much intelligence as we can with them 
to fight this battle.
    Senator Johnson. But, again, I mean, just kind of a one-
word, couple-word assessment of the result. Success?
    Ambassador Beecroft. On the battlefield, it is very, very 
difficult. It cannot be considered a success. It is going--it 
is a huge challenge.
    Senator Johnson. Ambassador Jones, what would you describe 
the result after our pullout of all combat troops in Iraq?
    Ambassador Jones. Thank you, Senator.
    As Ambassador Beecroft just characterized, I think the 
Government of Iraq continues to face a severe threat from ISIL, 
which has now penetrated Iraq through the influx of foreign 
fighters across the Syrian border as a result largely, though 
not exclusively, of course, of the Syrian civil war. ISIL poses 
a significant threat, not only to Iraq, but to Iraq's 
neighbors. And I think the United States has a commitment to 
support Iraq and its security, and we will continue to work, 
through the measures that Ambassador Beecroft just outlined, to 
try to support the Iraqi security forces in this challenge that 
they face.
    Senator Johnson. Now that we have seen Fallujah, Mosul, 
fall to, basically, elements of al-Qaeda, now that we have seen 
the Iraqi security forces shed their uniforms, go door to door, 
getting civilian clothes so they could meld into the 
population, do you see any silver linings?
    Ambassador Jones. I think what Ambassador Beecroft said was 
that--I think the escalation of the threat posed by ISIL is 
having an impact in Baghdad of drawing the political factions 
more closely together. And I think, in the last 72 hours, we 
have seen a series of meetings, where the various political 
elements are coming together and drawing up plans and looking 
for ways to cooperate for the national security.
    Senator Johnson. So, do you expect the Iraqi security force 
now to turn the tide and be able to capture back Fallujah and 
Mosul?
    Ambassador Jones. We certainly hope for that outcome, and I 
think it is incumbent on the United States to support that 
outcome.
    Senator Johnson. You are obviously going to Iraq, and, you 
know, God bless you for being willing to serve. You said there 
are 5,300 U.S. personnel in Iraq. Are they going to be safe?
    Ambassador Jones. That is a very good question, Senator. 
And thank you for your kind words.
    The compound in--as mentioned earlier, I was the Deputy 
Chief of Mission in Baghdad from 2010 until 2011, and I have 
worked in that compound. We have taken extraordinary measures 
to ensure the safety and protection of our personnel. We are 
going to have to make sure and be vigilant to maintain those.
    We cannot stay behind the walls. We have to be out. And I 
know that Ambassador Beecroft is out frequently to meet with 
Iraqi contacts in Baghdad and other parts of the country. So, 
we are going to have to do the best we can to reduce the risks 
and ensure that we can do--both do our jobs and stay safe.
    Senator Johnson. Can you tell me, of the 5,300 personnel, 
how many are really security forces? And is--are those military 
personnel? Are those State Department?
    Ambassador Jones. Yes, it is a complicated question. I 
would love to go into the details with you in another setting, 
but----
    Senator Johnson. OK.
    Ambassador Jones [continuing]. Suffice to say that we have 
a significant number of Diplomatic Security officers who are 
State Department officers. We also have, of course, the Marine 
security guards, and then we also have contract guards who are 
assigned to protect the perimeter. So, it is a significant 
number, and I will be happy to get back to you with the details 
of all those numbers.
    Senator Johnson. OK, well, I appreciate that. And I--again, 
I wish you, you know, godspeed and safety and best of luck, but 
I hope this--the security of yourself and those serving with 
you on the ground in Iraq is your top priority.
    Ambassador Jones. Thank you very much. I appreciate that.
    Senator Johnson. Thank you.
    The Chairman. Thank you.
    Ms. Smith, my questions have largely been asked and 
answered, so I will not pursue them.
    I would just instruct the nominees that the record will be 
open for the next 48 hours. To the extent that questions are 
submitted to any of you, I would urge you to respond to them 
expeditiously so that we can move your nominations through a 
business meeting of the Foreign Relations Committee.
    And, with our gratitude for your willingness to serve, this 
panel is excused.
    And I would call upon our second panel today: James Nealon, 
nominated to be the Ambassador to Honduras----

    [Pause.]

    The Chairman. If we could have everyone who is not staying 
for the rest of the hearing please leave the room and----

    [Pause.]

    The Chairman. All right. As we have everybody exit, let me, 
for the sake of time and votes that are going to be coming--our 
second panel today is James Nealon, nominated to be the 
Ambassador to Honduras. Mr. Nealon's nomination comes at a time 
when Honduras is facing serious challenges from crime and 
violence and a humanitarian crisis of children crossing borders 
by themselves, and being apprehended and held. The Government 
of Honduras is struggling to guarantee the security and 
economic well-being of its people, and, as a result, we are 
left to address how we will handle waves of children immigrants 
crossing into the United States on their own, and how the 
Honduran Government will handle the underlying issues of crime 
and violence.
    Just last week, President Obama announced the creation of a 
new interagency task force to address what he called ``an 
urgent humanitarian situation'' stemming from unaccompanied 
minors crossing the southern border of the United States, many 
of whom are from Honduras. I look forward to hearing Mr. 
Nealon's views on the best way forward to address this 
humanitarian crisis.
    Also on our panel is Gentry Smith, nominated to be the 
Director of the Office of Foreign Missions, with the rank of 
Ambassador. Mr. Smith is an expert in embassy security issues. 
He is a career member of the Foreign Service Class of minister 
counselors, serving as Deputy Assistant Secretary and Assistant 
Director for Countermeasures at the State Department, a 
position he has held since 2009. He has served as the regional 
security officer at the U.S. Embassy in Tokyo and the U.S. 
Embassy in Rangoon. He has also served as security officer and 
deputy regional security officer during two separate tours at 
the U.S. Embassy in Cairo.
    So, we welcome both of you to the committee. Again, if you 
have family members, we urge you to introduce them to the 
committee. We appreciate their willingness to join in your 
service on behalf of our country.
    Your full statements will be included in the record, 
without objection, but I ask you to summarize your openings in 
about 5 minutes or so, so that we can enter into a dialogue 
with each of you.
    And, with that, Mr. Nealon, you are recognized first.

 STATEMENT OF JAMES D. NEALON, OF NEW HAMPSHIRE, NOMINEE TO BE 
             AMBASSADOR TO THE REPUBLIC OF HONDURAS

    Mr. Nealon. Thank you very much, Mr. Chairman.
    Mr. Chairman, Ranking Member Corker, distinguished members 
of the Senate Foreign Relations Committee, it is an honor to 
appear before you as the President's nominee as Ambassador to 
Honduras. I am deeply grateful to the President and to the 
Secretary of State for their trust and confidence.
    After 30 years in the Foreign Service, I appreciate the 
privilege and the responsibility that it is to be considered 
for confirmation as Ambassador. I deeply respect the role of 
the Senate in ensuring that the United States has a foreign 
policy that reflects our Nation's values.
    I would like to recognize my wife, Kristin, who is here 
today, and our four children, Rory, Katie, Maureen, and Liam, 
all born while we were living overseas. We are a Foreign 
Service family, and we have been in this together from the very 
beginning, so this is their day as much as mine. I believe I 
also have a sister, a brother, a brother-in-law, and many 
friends here, so I thank all of them. And I see my son arrived 
from California. I am glad to see him.
    Mr. Chairman, the headlines do not often tell a positive 
story about Honduras. This is a country that faces tremendous 
challenges, many of them associated with the direct and 
indirect effects of narcotics trafficking and organized crime. 
It is a challenge to establish strong democratic institutions, 
establish a rule-of-law culture, attack impunity and 
corruption, reduce crime, attract investment, and ensure a 
prosperous future for Honduran citizens.
    We share, with many Members of Congress, a concern about 
the consequences of slow economic growth, impunity, weak 
institutions, corruption, and extreme violence in Honduras. We 
share the view that everything is related: impunity and lack of 
accountability and transparency promote a weak rule-of-law 
culture, discourage investment, and encourage illegal migration 
to the United States. We are partners with you in seeking to 
influence this trajectory in a positive direction.
    Mr. Chairman, in such circumstances, some will ask if U.S. 
engagement in Honduras makes a difference. I believe that it 
does and that it is in our interest to stay engaged. A Honduras 
with greater accountability and transparency will establish 
stronger rule-of-law institutions and be more likely to protect 
human rights. A Honduras with a vibrant middle class means a 
larger overseas market for American-made products. A more 
secure and prosperous Honduras means fewer migrants trying to 
cross our borders. A Honduras with strong interdiction capacity 
means fewer drugs arriving in our communities. As President 
Obama recently said, respect for human rights is an antidote to 
instability--a Honduras with strong human rights protections 
means enhanced security in our region.
    The United States is committed to partnering with the 
Government of Honduras to promote prosperity, governance, and 
security. In order to do so, we need willing partners in 
Honduras who have the political will to transform their 
society, the capacity to seize drugs, and the commitment to 
arrest, prosecute, and sentence criminals. They also need to 
guarantee the human rights of their own citizens.
    Mr. Chairman, Honduras is at a crossroads. We have seen 
some early signs that the Government of Honduras is ready to 
take important steps to improve the lives of its citizens. In 
May, for the first time, they extradited a notorious Honduran 
drug trafficker to the United States, an important strike 
against impunity. The new government has dedicated scarce 
resources to better combat trafficking in persons. They have 
fired corrupt police, they have indicted the entire board of 
directors of the Social Security Institute for corruption, and 
they have invited the United Nations to set up a human rights 
office. They have also formed a task force to investigate 
unsolved murders in a particularly conflictive area of the 
country, the Bajo Aguan. But, there is no doubt, the Government 
of Honduras still has a very big job ahead.
    I am fully aware of the serious doubts expressed, including 
in the U.S. Congress, regarding the willingness and ability of 
the Government of Honduras to take needed steps to improve the 
human rights situation. If confirmed, I commit to work 
tirelessly in this area.
    Mr. Chairman, I have been a Deputy Chief of Mission at 
three embassies in this hemisphere. I am currently the Deputy 
Civilian Commander at U.S. Southern Command. I have spent the 
last 30 years in nine foreign postings, working to promote 
democracy and human rights, enhance law enforcement and 
security partnerships, and promote U.S. exports and investment.
    Mr. Chairman, thank you again for the honor of appearing 
before this committee today. If confirmed, I pledge to work 
with you and your colleagues to advance the vital interests of 
the United States in Honduras.
    Thank you very much. I look forward to answering your 
questions today and at any time in the future.
    [The prepared statement of Mr. Nealon follows:]

                 Prepared Statement of James D. Nealon

    Mister Chairman, distinguished members of the Senate Foreign 
Relations Committee, it is an honor to appear today before you as the 
President's nominee as Ambassador to Honduras. I am deeply grateful to 
the President and to the Secretary of State for their trust and 
confidence.
    After 30 years in the Foreign Service, I appreciate the privilege 
and the responsibility that it is to be considered for confirmation as 
Ambassador. I deeply respect the role of the Senate in the work of 
ensuring that the United States has a foreign policy that reflects our 
Nation's values.
    I would like to recognize my wife, Kristin, who is here today, and 
our four children--Rory, Katie, Maureen, and Liam, all born while we 
were living overseas. We are a Foreign Service family and we have been 
in this together from the very beginning. This is their day as much as 
mine.
    Mr. Chairman, the headlines do not often tell a positive story 
about Honduras. Our vision for Honduras is of a country that is middle 
class, democratic, and secure. Still, this is a country that faces 
tremendous challenges, many of them associated with the direct and 
indirect effects of narcotics trafficking and organized crime 
structures operating throughout the country. It is a challenge to 
establish strong democratic institutions, establish a rule of law 
culture, attack impunity and corruption, reduce crime, attract 
investment, and ensure a prosperous future for Honduran citizens.
    We share with many Members on the Hill a concern about the 
consequences in the United States and in Honduras of slow economic 
growth, impunity, weak institutions, corruption, and extreme violence 
in Honduras. We share the view that everything is related: impunity and 
a lack of accountability and transparency promote a weak rule of law 
culture, discourage investment, and encourage illegal migration to the 
U.S. We are partners with you in seeking to influence this trajectory 
in a positive direction.
    In such circumstances, some still ask if U.S. engagement in 
Honduras makes a difference. I believe it does and that it is in our 
interest to stay engaged. A Honduras with greater accountability and 
transparency will establish stronger rule of law institutions and be 
more likely to protect human rights. A Honduras with a vibrant middle 
class means a larger overseas market for American-made products. A more 
secure and prosperous Honduras means fewer migrants trying to cross our 
borders. A Honduras with strong interdiction capacity means fewer drugs 
arriving in U.S. communities. As President Obama recently said, respect 
for human rights is an antidote to instability--a Honduras with strong 
human rights protections means enhanced security in our region.
    The United States is committed to partnering with the Government of 
Honduras to promote prosperity, governance, and security. In order to 
do so, we need willing partners in Honduras who have the political will 
to transform their society, the capacity to seize drugs, and the 
commitment to arrest, prosecute and sentence criminals, and to 
guarantee the human rights of their own citizens.
    Honduras is at a crossroads. We have seen some early signs that the 
Government of Honduras is ready to take important steps to improve the 
lives of its citizens. In May, for the first time, Honduras extradited 
a notorious Honduran drug trafficker to the United States, an important 
strike against impunity. The new government dedicated scarce resources 
to combat trafficking in persons and launched a signature program to 
bring more people into the formal economy. The government has taken 
steps to improve security, enhance the rule of law, and emphasize its 
commitment to improving human rights conditions. The President has 
fired corrupt police, indicted the entire board of directors of the 
social security institute, invited the United Nations to set up a human 
rights office, and set up a task force to investigate unsolved murders 
in a particularly conflictive area of the country, the Bajo Aguan. But 
there is no doubt the Government of Honduras still has a big job ahead.
    Honduras's location and role in regional security make its success 
vital to our own national security, and it is in our interest to work 
with the government and civil society to improve democratic governance, 
the rule of law, stability, and protection of human rights. It is also 
important that we emphasize the value of building national consensus in 
support of the serious challenges the country confronts. I am fully 
aware of the serious doubts expressed, including in the U.S. Congress, 
regarding the willingness and ability of the Government of Honduras to 
take needed steps to improve the human rights situation. If confirmed, 
I commit to work tirelessly in this area.
    The United States engages in Honduras to support social and 
economic development, improve food security, promote civil society, and 
give alternatives to joining gangs to at-risk youth. We have a wide 
variety of programs focused on increasing law enforcement and rule of 
law capacity and strengthening violence prevention efforts to improve 
the security environment, and we recognize that these efforts are only 
effective and sustainable when human rights are at the center. The 
United States should remain Honduras' best partner because it is very 
much in our interest that Honduras be stable, well governed, prosperous 
and safe.
    Mr. Chairman, I have been a deputy chief of mission at three 
embassies in this hemisphere. I am currently the civilian deputy to the 
Commander at U.S. Southern Command; in that context, my view is that 
the most appropriate role for the U.S. military in Honduras is to help 
ensure that the Honduran military is professional, under civilian 
direction, and can secure its own borders. I have spent most of the 
last 30 years working to promote democracy and human rights, enhancing 
law enforcement and security partnerships, and promoting U.S. exports 
and investment. Above all, I am proud to have spent my career working 
in the interests of American citizens to defend our values throughout 
the world.
    I understand the magnitude of the challenges the United States 
faces in Honduras. I delegate authority, not responsibility. I believe 
in the power of diplomacy and of using our influence to achieve our 
national security goals. Mr. Chairman, thank you again for the honor of 
appearing before the committee today. If confirmed, I pledge to work 
with you and your colleagues to advance the vital interests of the 
United States in Honduras.
    Thank you very much, and I look forward to any questions you may 
have, now and in the future.

    The Chairman. Well, thank you, Mr. Nealon. And, you know, 
we did not give you a complete introduction. You have 30 years 
of experience, having joined the service in 1984. You have most 
recently been the deputy chief of mission in Canada, Peru, and 
Uruguay. You have also been located in Spain, Hungary, the 
Philippines, and Chile, as well as the current assignment that 
you just talked about. So, a tremendous background. We 
appreciate your willingness to serve.
    Mr. Smith.

STATEMENT OF GENTRY O. SMITH, OF NORTH CAROLINA, NOMINEE TO BE 
           DIRECTOR OF THE OFFICE OF FOREIGN MISSIONS

    Mr. Smith. Chairman Menendez, Ranking Member Corker, and 
distinguished members of the committee, I am honored to appear 
before you today as President Obama's nominee to be the next 
Director of the Office of Foreign Missions, OFM. I am 
profoundly grateful for the confidence the President and 
Secretary Kerry have demonstrated in nominating me for this 
unique and important position.
    My entire professional life has been dedicated to public 
service. Beginning with my first career as a police officer in 
Raleigh, North Carolina, to my assignments at our Embassies in 
Tokyo, Rangoon, and Cairo, and to my current role as the Deputy 
Assistant Secretary for Countermeasures with the Bureau of 
Diplomatic Security, I have strived to improve the conditions 
in which our colleagues live and work. I believe my dedication 
and commitment in this regard will serve me well if given the 
opportunity to lead the Office of Foreign Missions, an 
organization whose primary goals are using reciprocity to 
ensure equitable treatment of United States diplomatic and 
consular missions abroad, and their personnel; regulating the 
activities of foreign missions in the United States to protect 
our foreign policy and national security interests; protecting 
the U.S. public from abuses of privileges and immunities by the 
members of the foreign missions; and the provision of service 
and assistance to the foreign mission community in the United 
States on a reciprocal basis.
    As you are aware, OFM was established in 1982 as a 
requirement under the Foreign Missions Act. In passing the act, 
Congress made it clear that the operations of foreign missions 
in the United States is a proper subject for the exercise of 
Federal jurisdiction. For more than 30 years, the act has 
guided the Department's management extension to the foreign 
missions in the United States of privileges, benefits, and 
immunities associated with the acquisition and use of real 
property, motor vehicles, driving services, tax exemptions, 
custom clearances, and domestic travel courtesies and 
restrictions. In my estimation, the Foreign Missions Act is a 
landmark piece of legislation which has positively influenced 
and conditioned the environment in which U.S. diplomatic and 
consular missions operate abroad.
    This committee is well aware of the Department's ongoing 
efforts to ensure our personnel abroad work in facilities that 
are safe, secure, and functional. I can authoritatively attest 
that the relocation of an American embassy is a complex, 
costly, and difficult task. To accomplish this job, the United 
States Government and in many countries--have, in many 
countries, the support of that host country. And in countries 
where that support is lacking, the Office of Foreign Missions 
plays a critical role in assisting in the resolution of these 
impasses we sometimes face with these governments during our 
attempts to acquire real property and in those countries where 
we are relocating our facilities.
    When a country has an interest in improving and relocating 
its own mission in the United States, the Office of Foreign 
Missions uses its ability to regulate the acquisition and the 
use of real property of those missions as leverage to achieve 
the Department's own property-related needs in that country. 
Without OFM and the authorities it has under the Foreign 
Missions Act, we may not have been able to build a new embassy 
in Beijing, China, or a new annex in that same location. This 
and more was achieved as a result of reciprocity and the 
Foreign Missions Act.
    In closing, Mr. Chairman, I am honored to have the 
opportunity to address you and the esteemed members of the 
committee. If confirmed, I will do all that I can to further 
these important objectives of Congress as set out in the 
Foreign Missions Act. I look forward to continuing to work with 
you to ensure the proper treatment of our foreign personnel 
abroad and that foreign missions here are good neighbors.
    Thank you for this opportunity and your consideration for 
my nomination. I respectfully request that my entire statement 
be entered into the record, and I would be happy to answer any 
of your questions.
    [The prepared statement of Mr. Smith follows:]

                 Prepared Statement of Gentry O. Smith

    Mr. Chairman and distinguished members of the committee, I am 
honored to appear before you today as President Obama's nominee to be 
the next Director of the Office of Foreign Missions (OFM). I am 
profoundly grateful for the confidence the President and Secretary 
Kerry have demonstrated in nominating me for this unique and important 
position.
    My entire professional life has been dedicated to public service. 
Beginning with my first career as a police officer in Raleigh, NC, to 
my assignments as a Regional Security Officer at our Embassies in 
Tokyo, Rangoon, and Cairo, and to my current role as the Deputy 
Assistant Secretary and Assistant Director for Countermeasures in the 
Bureau of Diplomatic Security, I have strived to improve the overall 
conditions in which my colleagues, and those of us with families, live 
and work. I believe my dedication and commitment in this regard will 
serve me well if given the opportunity to lead the Office of Foreign 
Missions, an organization whose primary goals are:

  <bullet> Using reciprocity to ensure equitable treatment for United 
        States diplomatic and consular missions abroad and their 
        personnel;
  <bullet> Regulating the activities of foreign missions in the United 
        States to protect our foreign policy and national security 
        interests;
  <bullet> Protecting the U.S. public from abuses of privileges and 
        immunities by members of the foreign missions; and
  <bullet> Providing service and assistance to the foreign mission 
        community in the United States on a reciprocal basis.

    As you are aware, OFM was established in 1982 as a requirement of 
the Foreign Missions Act. In passing the act, Congress made it clear 
that the operations of foreign missions and international organizations 
in the United States, including the permissible scope of their 
activities and the location and size of their facilities, is a proper 
subject for the exercise of Federal jurisdiction. The act provides the 
Department of State with broad authority to determine the treatment to 
be accorded to a foreign mission in the United States.
    OFM vigorously pursues its mandate under the act that, ``consistent 
with our obligations under the Vienna Conventions, the treatment 
afforded a foreign mission in the United States shall be determined 
after due consideration of the benefits, privileges, and immunities 
provided to missions of the United States in the country represented by 
that foreign mission.'' With this very mandate, OFM leads the 
Department's engagement in a process in which it either develops an 
approach or exploits leverage to achieve a specific end. OFM's approach 
to issues is a very realistic one. OFM knows that for every action 
there is a reaction, and so it works daily with a number of 
stakeholders, both within the Department and the broader community of 
Federal agencies, to carefully craft and implement responses to a wide 
range of actions that impact the proper or efficient operation of our 
diplomatic and consular operations abroad.
    For more than 30 years, the Act has guided the Department's 
management and extension to foreign missions in the United States, 
privileges and benefits associated with the acquisition and use of real 
property, motor vehicle and driving services, tax exemptions, customs 
clearances, and domestic travel courtesies and restrictions. In recent 
years, OFM's role and its use of the act's broad authorities has 
allowed it to expand into new areas including the provision of 
assistance with the establishment and availability of financial 
services for foreign missions and to the development of the proposed 
Foreign Missions Center at the former Walter Reed Army Medical Center 
for the purpose of creating a second dedicated ``embassy neighborhood'' 
here in our Nation's Capital.
    The act is also the reason I am before you today, in that it 
requires the Director of OFM to be appointed by the President, with the 
advice and consent of the Senate.
    In my estimation, the Foreign Missions Act is a landmark piece of 
legislation which has positively influenced and conditioned the 
environment in which U.S. diplomatic and consular missions abroad 
operate. I appreciate the fascinating history associated with the act's 
origins, and its role in achieving a number of major, and often unsung, 
improvements to the operations of many of our embassies and consulates 
abroad. For example, in the past 11 years, OFM's leadership of the 
Department's Diplomatic Tax-Relief Initiative has resulted in the 
establishment of close to 100 bilateral and reciprocal construction 
tax-relief arrangements; this has resulted in an estimated savings to 
the Department of nearly $280 million in foreign taxes associated with 
our efforts to construct new embassy and consular compounds.
    I am eager to lead OFM's efforts in using the tools Congress 
provided the Department in realizing improvements to the many 
challenges, both new and old, that face so many of our posts abroad and 
my colleagues and their families who dutifully execute the diplomatic 
and consular relations of the United States.
    The prospect of improving the conditions of my colleagues and their 
families abroad is of significant personal importance to me. Our 
personnel, many with accompanying and unaccompanying family members, 
face pressures and challenges each day that did not exist when I first 
joined the Department of State. Without question, the life of the 
Foreign Service has dramatically changed. The daily pressures on our 
personnel are significant, and I will work every day to use the tools 
Congress provided OFM to help improve, in both small and big ways, the 
daily lives of the brave men and women who are assigned to our 
embassies and consulates around the world.
    This committee is well aware of the Department's ongoing efforts to 
ensure that our personnel abroad work in facilities that are safe, 
secure, and functional. I can authoritatively attest that the 
relocation of an American Embassy is a complex, costly, and difficult 
task. To accomplish this job, the United States must have the interest 
and support of the host government. In many countries, such support and 
assistance is there for the asking. In countries where support is 
lacking, I, as a member of Diplomatic Security, along with colleagues 
in Overseas Buildings Operations and other parts of the Department, 
have come to realize and respect the critical role that OFM quietly 
plays in assisting with the resolution of impasses we sometimes face 
with foreign governments during our attempts to acquire real property 
in their countries for the relocation and construction of our 
facilities.
    When a country has an interest in improving or relocating one of 
its missions in the United States, OFM uses its ability to regulate the 
acquisition and use of real property by foreign missions as leverage to 
achieve the Department's own property-related needs in that country. 
Without OFM and the authorities it has under the Foreign Missions Act, 
the Department might not have been able to speak today of having a new 
U.S. Embassy in Beijing, as well as a new annex building under 
construction there as well. This and more was achieved as a result of 
reciprocity and the Foreign Missions Act.
    If I am confirmed and with your support, I will further use OFM's 
authorities as a means to support and realize the goal shared by both 
Congress and the President of ensuring that our personnel work in safe 
and secure facilities abroad.
    In closing, Mr. Chairman, I am honored to have the opportunity to 
address you and the esteemed members of the committee. If confirmed, I 
will do all that I can to further the important objectives Congress set 
out in the Foreign Missions Act, and I look forward to continuing to 
work with you to ensure proper treatment of our Foreign Service 
personnel abroad, and that foreign missions are good neighbors here at 
home.
    Thank you for this opportunity and your consideration of my 
nomination. I respectfully request that my full statement be entered 
into the record, and I will be happy to answer your questions.

    The Chairman. Thank you.
    Both of your statements will be fully entered into the 
record.
    Mr. Nealon, let me start off with the--for me, the most 
pressing issue of the day as it relates to Honduras, which is 
in the headlines and minds of all of us who care about the 
issues of human rights and human dignity. And it is the 
thousands of young people, and increasingly younger people, who 
seem forced to leave their families and head for the U.S. 
border because of the inability of the Honduran government and 
other Central American governments to deal with crime and 
violence in a region that is home to the highest murder rate in 
the world.
    I am personally appalled by the staggering numbers of 
minors, sometimes as young as 5 and 6 years old, who are left 
by their personal circumstances with no other choice than to 
try to cross the desert by themselves. And, as you approach 
this post, I would like to get a sense from you as to what 
discussions you have had with the administration and with the 
State Department. What is our strategy to try to address both 
the present challenge, as well as the underlying causes that 
has given us this humanitarian tragedy?
    Mr. Nealon. Thank you very much, Senator.
    I very much share your concerns about these children who 
are leaving Central America, including Honduras, and making a 
dangerous trip in an attempt to cross our borders. If confirmed 
as Ambassador to Honduras, of course, my piece of this would be 
an effort in Honduras to try to get Hondurans to see their 
future in their own country, and not try to make this dangerous 
trip. We all know what the push factors are. The push factors 
are the threat of violence and a lack of economic opportunity.
    Senator, we currently have programs in Honduras that are 
designed to address these issues. Some of them are very good 
programs. But, we have to ask ourselves if it is enough. We 
have programs such as the GREAT Program, which addresses at-
risk youth and try to wean them away from the threat of joining 
gangs. We have programs that offer economic opportunity. We 
support outreach centers, which try and create a culture where 
kids stay out of gangs, where they try to get job skills so 
they can enter the labor force. But, it is extremely difficult. 
As you said, Senator, it is one of the poorest countries in the 
hemisphere, and it is perhaps the most violent. So, the 
challenge is staggering.
    The Chairman. Well, let me just say that--here is part of 
our challenge. And I hope that, if confirmed, you will make 
this case within the administration. Last week, the White House 
informed the Congress that it would need $2.28 billion to 
address the issue of unaccompanied minors crossing to the 
United States. Now, in 2015, the administration's request to 
Congress was only $130 million for its five-country Central 
American Regional Security Initiative, which is a decrease of 
$30 million over 2014. So, given that we need to spend $2.2 
billion to address the consequences of the crisis here in the 
United States, it would seem that 130 million is absolutely 
insufficient to address the root causes of the problems. This 
is one of the things that boggles my mind.
    So, we are going to spend$ 2.28 billion--almost $2.3 
billion, if we honor the President's request, to deal with 
young people crossing the border, instead of spending that type 
of money to ultimately make sure they stay in their country and 
have the aspirations that you so aptly talked about.
    So, I know this is above your pay grade. You do not make 
this decision. But, since you are going to be going to this 
job, upon confirmation, I hope you are going to make the case 
that $130 million for five countries, which is less than what 
we have done, as compared to $2.2 billion to respond to the 
problem--it just does not make any sense.
    This is our problem with--as someone who was the Western 
Hemisphere chair here before I became the full-committee chair, 
getting the focus of the Congress and this administration on 
the Western Hemisphere is a challenge. It is our front yard. It 
is our own national interest. And we seem to have a problem 
understanding that. So, we will spend more on a crisis than we 
will on meeting the challenge in the first place.
    So, could I get you to be an advocate for this proposition?
    Mr. Nealon. Senator, you can absolutely have me as an 
advocate for this proposition, if confirmed. I am obviously not 
in a position to assess how much money--how much additional 
money we might need in Honduras to address this problem, but I 
do know that both USAID and the State Department are, right 
now, assessing those programs that we do have. So, I will very 
much look forward to seeing the results of that assessment to 
see if we can get a handle on how much additional money we 
might need.
    The Chairman. Mr. Smith, let me ask you. What do you 
consider to be OFM's highest priorities? And how do you 
perceive your role in achieving them? This is a mandate that 
has evolved and expanded since the creation of the office in 
1982. I want to get, as the nominee here, what your highest 
priorities would be, and what your role would be in pursuing 
them.
    Mr. Smith. Thank you for that question, Senator.
    As we know, the Office of Foreign Missions, as it came into 
existence from the Foreign Missions Act of 1982, gives the 
Secretary broad responsibilities for ensuring that foreign 
missions here act in a manner that is appropriate. My highest 
priority will be making sure that our citizens who work abroad 
are treated fairly in a reciprocal manner, and also ensuring 
that the activities of foreign entities here are in support--or 
do not conflict with our national interests, and also that 
there is no abuse of privileges, immunities by the missions and 
the personnel that are here.
    The Chairman. Now, I would like to hear from you, what role 
does the Director of the Office of Foreign Missions play in 
interacting with diplomatic security with respect to security 
in our embassies and consulates abroad?
    Mr. Smith. The relationship between the Office of Foreign 
Missions and the Bureau of Diplomatic Security has existed for 
a long time, from the time before the Office of Foreign 
Missions was officially a--an office within the Bureau of 
Diplomatic Security, until the point where it is now, where it 
is a separate entity. Diplomatic Security has always played a 
supporting role in helping the Office of Foreign Missions carry 
out some of its responsibilities. We help to protect the 
diplomats who are here in the United States with--through our 
police liaison unit. Diplomatic Security has relationships with 
police organizations and local police throughout the country. 
And so, we help to protect the diplomats who reside here, and 
we also offer protection to visiting diplomats who come here to 
visit the country during short periods of time through our 
protective details.
    In every location where there is an Office of Foreign 
Missions, there is also a field office for Diplomatic Security.
    The Chairman. One final question. Your--this office is 
often referred to as the Office of Tit for Tat, meaning that 
for--one of our main goals is to ensure reciprocity of 
treatment of our diplomats overseas. Can you talk about that 
reciprocity? And here is one example, for example: Argentina. A 
February 2013 Department of State Inspector General report 
suggested that there was an array of reciprocity inequities 
negatively affecting personnel at the U.S. Embassy in Buenos 
Aires, Argentina. In particular, the report cites inequities 
regarding the importation, exportation, sales, and transfer 
procedures relative to private and government-owned vehicles 
and household effects. I am under the understanding that the 
office sent a diplomatic note to the Argentine Embassy in 
Washington drawing attention to the situation, but, at the time 
of the Inspector General's report, no response had been 
received.
    So, that is an example of one of the important roles you 
play so that our people can have a decent standard of living as 
they are representing our country abroad. Tell me a little bit 
about the reciprocity issue, in general. And do you know about 
this Argentina issue, in specific?
    Mr. Smith. Thank you for that question, Senator.
    Yes, reciprocity is one of our major tools that is--that we 
can use in ensuring that our diplomats overseas, and that our 
missions that operate overseas, are treated fairly. I have 
heard, during my briefings for preparations, that there has 
been an issue in Argentina. As a matter of fact, I know that, 
as you stated, the issue was raised in the February 2013 
report.
    The reason that the issue is still under discussion is the 
fact that there is still information that we have asked for, 
that the Office of Foreign Missions has asked for, from our 
mission in Buenos Aires. And yes, we have been in contact with 
the Argentine mission here, but there are additional details 
that are needed from the people that we have out there on the 
ground----
    The Chairman. Something is wrong when, 16 months later, we 
are looking for information versus action. So, if confirmed, 
will you commit to me that you will make this one of your 
highest priorities?
    Mr. Smith. I will, indeed, Senator, if confirmed. We very 
much would like that information, because, you are absolutely 
right, we are looking and willing to engage on this issue to 
ensure that our personnel overseas are treated in the fairest 
manner possible.
    The Chairman. Senator Corker.
    Senator Corker. Mr. Chairman, I know Senator Rubio needs to 
be on the floor, so I am going to defer and let him go, and 
then I will ask my questions after Senator Kaine.
    Thank you.
    The Chairman. Senator Rubio.
    Senator Rubio. Thank you. I appreciate that.
    Thank you both for your service to our country.
    Mr. Nealon, I have two quick questions. And I appreciate 
the ranking member's indulgence on this. The first has to do 
with an issue I am sure you are aware of, and that is a U.S. 
crew that was arrested in Honduras during a river job. This is 
the salvage company, Aqua Quest International. They had a 
contract to dredge the Patuca River and raise valuable mahogany 
and cedar logs that were on the bottom of the riverbed. They 
have been there for more than a century. It was a very valuable 
contract, mutually beneficial to both Honduras but also to this 
crew that was involved in this.
    It is standard operating procedure for crews in the 
Mosquito Coast in this part of the world to have firearms 
onboard to defend themselves from both pirates and potentially 
from drug traffickers in the region. This group pulled into the 
port there, they arrived at the port, they declared their two 
pistols, or two shotguns and a semiautomatic sport rifle that 
looks like an AK-47. They declared it to the Honduran navy 
inspection post. The sailors agreed to let them continue to the 
port. But, when they arrived there, they were arrested for 
weapons charges, and they remain in the custody of the Honduran 
Government.
    I just was hoping to get your commitment today that, if 
confirmed, one of your--hopefully, by the time you get there, 
this will have been cleared up, but, if not, that you will make 
it among your highest priorities to address this outrage that 
has occurred there. And these men should not be in jail. They 
have done nothing wrong. They followed maritime law. And I just 
want your commitment publicly that we will address this issue, 
if, in fact, this has not been cleared up--and we hope it will 
be--by the time you get there.
    Mr. Nealon. Thank you very much, Senator. I am very much 
aware of the detention of the crew of the Aqua Quest in 
Honduras on May 5. You do have my word that, if confirmed as 
Ambassador to Honduras, the safety and welfare of American 
citizens will be my highest priority. I, too, hope that this 
situation will be cleared up by the time I get there, if 
confirmed. But, I want you to know that, if I am confirmed, you 
will be able to call me personally and hold me personally 
accountable for the actions of the Embassy in any case 
involving American citizens or constituents.
    Senator Rubio. Well, we appreciate that. Thank you very 
much.
    I want to talk about a broader issue that is emerging in 
the press lately, because of the urgency of it. And the 
chairman has already alluded to it a moment ago. Just the--the 
facts are pretty staggering. About 5 years ago, there were 
about 100---968 unaccompanied children that crossed the 
southern U.S. border from Honduras. This year alone--we have 
not even gone through--halfway through the year--there has been 
more than 13,000 unaccompanied minors that have come across the 
border from Honduras. This is, like I said, almost twice as 
much as last year, the entire year. We understand that violence 
and poverty are a driver of this. It is important to understand 
the desperation that a parent must have to put their kids on--
in the hands of these groups that are going to move them across 
the border. That is how desperate people are to--to turn your 
child over. Some of these unaccompanied minors are very young 
children--talking very young children--6, 7, 8, 9 years of age. 
So, this is a very serious humanitarian crisis that we are all 
kind of struggling around here to figure out what to do about 
it in the short term, just to deal with the humanitarian 
aspects of it.
    I do want to ask you, What insight do you have as to--
beyond the motivation for doing it, why is this happening? In 
essence--we have heard anecdotal reports--I have, certainly, in 
south Florida, among members, some in the Honduran community--
that there are what are, for lack of a better term, rumors that 
if, in fact, the children are able to get here, they are going 
to get to stay. Is that a--is, in fact, those rumors 
circulating? And what--and if, in fact, they are, as--I believe 
that there is some element of that; I do not know how much of 
it is quantified to that, but whatever percentage of it is--
what can we do, working with the Honduran Government, to make 
clear to parents in Honduras that, despite the desperation that 
they face and what we need to do to help the Honduran people 
overcome that in their own country, this is not something they 
should be doing? They should not be--they are putting their 
children in grave danger. When they are crossing through Mexico 
into the United States, they become prime targets for 
traffickers, they become prime targets for all sorts of 
transnational criminal organizations. And then, when they get 
to the United States, to be abundantly clear, the laws of the 
United States do not allow them to stay here. They arrived 
illegally. That whatever it is they are hearing, it is not 
accurate. What can we do through our Embassy to help make that 
clear so that we can prevent this mass migration? I think this 
is a question to ask of our posts in El Salvador and Guatemala, 
as well, but you are going to Honduras. What can we do to make 
it clear that this is not something that they should do? It is 
not wise, and it puts their children in grave danger.
    Mr. Nealon. Senator, thank you very much. And, as I said to 
Chairman Menendez, I share your very deep concern for this 
situation.
    I am not sure that I have any wisdom to add to what I 
already said to the chairman, except that I can say that the 
Honduran Government is running public service ads in Honduras 
to counter the kind of rumors that you have described. 
Obviously----
    Senator Rubio. Where do these rumors come from? Why are 
they--where did the perception that they can come and stay if 
they arrive--where is that coming from?
    Mr. Nealon. Senator, unfortunately, I am not in a position 
to answer that question for you. I simply do not know. But, I 
can tell you that, if confirmed, this issue, which I think has 
gotten the attention, rightly, of all of us, would be at the 
very top of my list of priorities to try to address. And I 
would really look forward to working with you. I know you have 
deep roots in the community in Florida. I would really look 
forward to working with you to see if we could come up with 
some ideas to address the situation.
    Senator Rubio. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman. And thank you to 
the witnesses.
    And, Mr. Smith, I will apologize to you in advance. I have 
a kind of an obsession about Honduras, and so I am not going to 
grill you. I hope you do not mind.
    And I will start with Mr. Nealon. First, congratulations. I 
mean, this is a country of many, many wonderful people, and I 
think being Ambassador to Honduras at this time, though a very 
challenging one, is going to give you a superb opportunity to 
continue what has really been an estimable career in Foreign 
Service. And so, I congratulate you there.
    I lived in Honduras, in el Progreso, in the Yoro province, 
in 1980 and 1981, and I worked with Jesuits there who are 
responsible for a lot of good work in that province and around 
the country. And I just--I kind of hate to say this, and I--
every time I say it, I kind of feel bad saying it, but, when I 
was there, it was a military dictatorship, and it was a very 
brutal place, including brutal to the people that I worked 
with, many of whom were targeted during that time, and after, 
by the government, because of their activity and advocacy on 
behalf of the least of these, especially the campesinos and the 
banana camps near el Progreso. But, it is worse now than then. 
They are less safe now than then. It is not a military 
dictatorship anymore. You know, we moved out of the military 
dictatorship era into a time of Presidential elections. But, my 
friends who are there--it is not that they want to go back, but 
they are less safe than they were. And a country that was--that 
has been a superb ally to the United States, a country that is 
one of the original partners with us on an issue--it is like 
the Peace Corps--now is one of the few countries in the world 
that cannot even have Peace Corps Volunteers there, because of 
the level of violence and danger. And that is just a tragic 
thing to think about.
    One element of the tragedy, in particular, that I am 
concerned about, is--as you might imagine, is the people that I 
worked with. There is a radio station in el Progreso, Radio 
Progreso, that was run by the Jesuits, bombed and attacked when 
I was there. And a very prominent journalist who worked at the 
radio station, who also worked for a Jesuit-run think tank, the 
Equipo de Reflexiones Investigaciones Cristianos, was just 
murdered, on the 11th of April. Carlos Mejia Orellano, murdered 
in his home in el Progreso. And the speculation has been that 
he was murdered because he was a journalist, because he was 
doing what that radio station does, which is call attention to 
human rights problems. There has been virtually no progress, or 
even interest that I am aware of, in solving that case, and he 
is one of 34 media representatives that have been killed in 
Honduras since 2010.
    The fate of people I know--and maybe it is unfair to focus 
on this, just because I know these folks--but, these are people 
doing good work, and they are raising questions that have to be 
asked, and yet they are being targeted and--as other 
journalists are, as well.
    Maybe if you could just start off there. What can you do, 
in your position as ambassador, to demand accountability for 
the deaths of journalists, demand that they take it seriously 
and hold up the virtues that we proclaim here about the 
importance of a free press and the protections that they are 
entitled to?
    Mr. Nealon. Thank you very much, Senator.
    And, first of all, I am very aware of your obsession with 
Honduras and your work as a lay missionary there, back in the 
1980s. And, if confirmed, I would be delighted to welcome you 
back and have you----
    Senator Kaine. I would love to come.
    Mr. Nealon [continuing]. Introduce me to your old friends 
and your old haunts.
    You raise a number of very important issues, but I think 
the most important is the issue that goes to impunity. As you 
probably know, Senator, impunity is a long-standing human 
rights issue in Honduras. By some estimates, as many as 95 
percent of crimes in Honduras go unresolved, not just crimes 
against journalists or politicians or members of other such 
communities, but crimes against the population in general. So, 
this is something that we simply have to address.
    I will say, Senator--and if you come down, if I am 
confirmed and we get a chance to work together on this--I 
believe we have seen some early signs of positive steps that 
this government is willing to take important steps to begin to 
address these issues. And if, with your patience, I will name a 
couple of them.
    First of all, last month, Honduras extradited----
    Senator Kaine. Good news.
    Mr. Nealon [continuing]. Carlos Lobo, a notorious 
narcotrafficker, the first such extradition in the country's 
history. They had to change the constitution in order to do it. 
And we understand more extraditions may be coming. I think this 
is a very, very positive step.
    They have fired scores of corrupt police officers. They 
have indicted the entire board of directors of the Social 
Security Institute, 16 people, for corruption. And the 
President has requested that the United Nations open up an 
Office of the U.N. High Commission on Human Rights in Honduras. 
And I understand that the Congress, our Congress, has 
appropriated a million dollars toward that, which I think is a 
fantastic step.
    So, Senator, I believe we are seeing early signs of 
positive steps, but I completely agree with you that the issue 
of impunity is something that we need to get at.
    Senator Kaine. I want to associate myself with comments 
that the Chairman made about the importance of investments.
    Trying to help the Hondurans deal with the violence 
challenges in Honduras is not just because we are good people, 
and it is not just because, if we do it, it may slow down 
unaccompanied minors coming to our borders. I mean, the 
violence in Honduras is largely driven by a drug trade that is 
fueled by Americans' demand for drugs. Hondurans are not big 
drug users. The drugs that are transiting through Honduras are 
not transiting through Honduras because of the Honduran mass 
appetite for illegal substances. Honduras has become a 
convenient staging ground, transit point, and stopover place 
for drugs that are coming north into Mexico to the United 
States or Canada.
    And so, it is, you know, the--it is hard to look yourself 
in the mirror and, you know, kind of just point the finger, 
what the Hondurans need to do about their--you know, their 
justice system, when you know that so much of the violence that 
is causing parents to set their kids free, trying to find their 
way to the U.S. border, is driven by a drug trade that is 
largely fueled by U.S. dollars and the demand for drugs.
    So, we have more than just a need to do something, you 
know, to help a partner. We have an obligation, here, because 
the violence that folks are suffering under in Honduras is 
something that is directly connected to domestic activities 
here in the United States.
    And it is my hope, as well, that we will not just, ``Oh, 
gosh, now there are unaccompanied minors. I guess we have to do 
something about it, because they are trying to come to our 
border.'' If it has--if the country has one of the highest 
murder rates in the world because of a drug trade that, at the 
end of the day, is ending up in the United States, that ought 
to call us to do some things, too. And the chairman said we 
ought to be proactive and not wait til the problem just gets to 
our door. If it is a problem that we have some responsibility 
for, then we ought to be in solving it even before it gets to 
our doorstep.
    And I associate myself, Mr. Chair, with your comments on 
that.
    Thank the witnesses and wish you the best. And I will visit 
you. I will.
    Mr. Nealon. I will look forward to that, Senator. Thank you 
very much.
    The Chairman. My thanks to Senator Kaine, for his always 
erudite insights, and particularly, I know that he has a real, 
passionate interest in Honduras. And, as such, throughout the 
Central America region, which is a challenge for us.
    I have one final question, Mr. Nealon. You know, I was 
arguing earlier that we need to invest more so that we do not 
spend so much more--multiples more, as it relates to facing the 
problem versus meeting the core elements of why we have 
situations like young people crossing the border. By the same 
token, as I advocate for increased resources for addressing the 
citizen security issue throughout Central America, including, 
obviously, in Honduras, we need a strong, shared approach with 
the governments in the region--in this case, with Honduras.
    In that sense, I want to get an understanding of your 
evaluation of the Hernandez administration's ability and 
willingness--understanding you are not on the ground, but 
hopefully the briefings have given you some insight--to address 
the challenges at hand. The State Department's 2013 Human 
Rights Report on Honduras raised concerns about corruption, the 
weakness of the justice system, and unlawful and arbitrary 
killings by security forces. President Hernandez has 
prioritized the creation of a military police force over what 
should be the U.S. priority of strengthening and reforming a 
civilian police force. And finally, the U.S. Government has 
limited intelligence-sharing and radar information as a result 
of recent legislation providing the Honduran governmental 
authorities to shoot down civilian planes believed to be 
involved in drug trafficking. And, while we certainly can 
applaud any efforts to try to interdict drug traffickings, to 
go to the extreme point of shooting down planes creates all 
types of risks, especially if you have got the information 
wrong.
    So, what do these developments imply for our relationship 
with the Government of Honduras as we try to meet this mutual 
challenge?
    Mr. Nealon. Thank you very much, Senator.
    First of all, you raised the issue of the military police. 
These are actually members of the armed forces who have law 
enforcement authorities who have been put on the street by the 
Honduran government to try to address the highest murder rate 
in the world and the other violent crime that is pervasive 
there. We do not support putting the military in the streets in 
a law enforcement capacity. We believe that that distracts from 
the very important work that we do support with our programs, 
of working with the civilian police force, because we believe 
that military police in the streets simply is not a viable 
permanent solution. We have to work with the civilian police.
    You also mentioned, Senator, the recent legislation in 
Honduras, the air sovereignty law, which some people call a 
``shoot-down law.'' That is very problematic for the United 
States, and that point has been made very clear to the Honduran 
Government. There were some immediate consequences of that law. 
For example, Southern Command, General Kelly, had to turn off 
air feeds that we provided to the Hondurans because there was 
some risk that those air feeds could be used to shoot down 
civilian aircraft. And there may be other consequences to that, 
as well, moving forward.
    The Chairman. Well, I hope this will be part of the work 
that you will pursue upon confirmation, in terms of trying to 
get us to a point that we can get the Honduran Government to 
agree with us on the common methodology, if we are going to 
fund it, one that we can be supportive of. Because, if not, it 
will be a further challenge to trying to help them with citizen 
security.
    Senator Corker asked me to say that he will submit his 
questions for the record. He has deep respect for both of you, 
but he had a conflict in his schedule, so he could not stay any 
longer.
    The Chairman. And I would urge you, not only to answer his 
questions, but any other members' questions that are posed for 
the record, as expeditiously as possible so that we can, 
therefore, consider your nominations before a business meeting 
of the full committee.
    And, with the thanks of the committee for your willingness 
to serve, this panel is excused and this hearing is adjourned.
    [Whereupon, at 12:55 p.m., the hearing was adjourned.]
                              ----------                              


             Questions and Answers Submitted for the Record


               Responses of Stuart E. Jones to Questions 
                  Submitted by Senator Robert Menendez

    Question. Assistance to the Kurdistan Regional Government (KRG).--
As a result of the current crisis related to the advance of the Islamic 
State of Iraq and Syria (ISIS) in Northern Iraq, as many as 500,000 
people have fled into KRG-controlled areas, creating an urgent 
humanitarian crisis already severe due to the presence of some 250,000 
refugees from the Syrian side of the conflict. Current estimates place 
the burden to the KRG at roughly $1,000 per person, per year. The KRG 
are reliable U.S. partners, and Kurdish Peshmerga fighters are now the 
frontline against ISIS.

  <diamond> What support are we currently providing to the KRG to 
        ensure it can respond to urgent security and humanitarian 
        pressures?
  <diamond> How will you address urgent KRG needs for food, shelter, 
        generators, water, irrigation systems, camp infrastructure, 
        vehicles and more, to help the KRG address these urgent 
        humanitarian needs?
  <diamond> The KRG has also requested assistance in releasing U.S. 
        military and security equipment withheld by the Maliki 
        government in Baghdad. What leverage do we have to facilitate 
        the immediate release of this equipment to the KRG?
  <diamond> What specific steps can the U.S. take immediately to 
        strengthen KRG border security efforts, including providing 
        body armor, communication systems and other nonlethal aid?

    Answer. The United States is extremely concerned about the 
deteriorating security situation deepening the humanitarian crisis in 
Iraq. On June 12, we announced a contribution of an additional $12.8 
million to international organization partners like the U.N. High 
Commissioner for Refugees (UNHCR) that are working to meet the needs of 
internally displaced persons (IDPs) and conflict victims in Iraq. Our 
total humanitarian assistance to those affected by conflict in Iraq in 
fiscal year 2014 is more than $136 million. Since 2010, the United 
States has contributed to the United Nations, other international 
organizations, and nongovernmental organizations more than $1.1 billion 
in humanitarian assistance for Iraqi refugees and internally displaced 
people throughout Iraq. Separately, we have provided more than $105 
million to support Syrian refugees in Iraq since the start of the Syria 
crisis in 2011. This funding goes toward international organizations 
and nongovernmental organizations supporting the more than 225,000 
refugees from Syria who have fled to Iraq since March 2011.
    Our funding for refugees from Syria supports transportation to 
refugee camps, refugee camp infrastructure, including providing safe 
water and sanitation, as well as support for education, child 
protection, and gender-based violence prevention and response. The 
recently announced $12.8 million in support for the current 
humanitarian crisis in Iraq includes $6.6 million to UNHCR for 
essential humanitarian supplies like blankets, tents, and hygiene 
items, and $6.2 million to other international organizations for food, 
clean water, core relief items, and urgent medical care for the 
affected. These organizations are working closely with the KRG and the 
Government of Iraq (GOI) to assess needs and support.
    The GOI is not withholding any military or security equipment from 
the KRG. The GOI was temporarily holding some military logistical 
equipment, which was purchased through DOD's Iraqi Security Forces Fund 
(ISFF), but transferred all of it to the KRG in 2013.
    If requested and approved by the GOI, the U.S. Government could 
provide a wide range of assistance to eligible KRG security forces 
through traditional security assistance authorities like the Foreign 
Military Sales program. The delivery of such assistance would of course 
be dependent on host nation funding as well equipment availability and 
production timelines. We have not received any such requests from the 
GOI for assistance to KRG security forces.

    Question. MeK.--I have received assurances from the Iraqi 
Government that it will ensure the security of Camp Liberty and its 
residents, while we continue to work to resettle members of the MeK 
here in the United States and in other countries outside of Iraq.

  <diamond> Is the Iraqi Government committed to the safety and 
        security of the residents at Camp Liberty while in Iraq?

    Answer. The United States continues to work closely with the 
Government of Iraq (GOI) and the United Nations (U.N.) to ensure the 
protection of those currently residing at Camp Liberty, a.k.a Camp 
Hurriya. We interact regularly with senior Iraqi officials about the 
safety and security of the Camp Hurriya residents, and they assure us 
that they are committed to this issue, despite the current situation in 
Iraq. To date, the GOI has moved in 520 bunkers, 700 small T-walls, 
90,000 sandbags and 1,488 large T-walls, about 750 of which were 
installed by April 23 in accordance with a plan agreed to by the GOI 
and the camp residents. They have also granted permissions for 
requested security enhancements at the camp as appropriate.

  <diamond> What will your role be regarding Camp Liberty and the 
        resettlement of MeK residents outside Iraq?

    Answer. If confirmed, I will continue to work closely with the 
Government of Iraq and the U.N. regarding the safety and security of 
the residents. We are fortunate to have a very able senior advisor for 
MEK Resettlement, Jonathan Winer, and he and I will coordinate closely 
on finding safe, permanent, and secure locations for the Camp Hurriya 
residents outside of Iraq.

  <diamond> Please provide an update on the resettlement process, and 
        the work of the U.S. interagency team currently in Iraq. How 
        many residents are able and willing to meet U.S. requirements 
        in order to be settled in the United States?

    Answer. Currently, 377 Camp Hurriya residents have been relocated 
outside of Iraq in countries like Albania and Germany. An interagency 
team was deployed May 18 to evaluate candidates for U.S. resettlement. 
Our initial goal is to identify at least 100 qualified individuals, 
subject to security conditions, cooperation of the MEK and availability 
of interested candidates. At this point, it is too early to say how 
many are qualified as the team has not yet finished its work.

    Question. I understand that the Government of Iraq has yet to sign 
U.S. contracts for Apache attack helicopters that we intend to sell and 
lease. We were told repeatedly and in no uncertain terms that these 
helicopters were absolutely vital to the Iraqis in order to fight the 
insurgency, and that they needed to be sent as soon as possible.

  <diamond> Given this delay, do the Iraqis feel the same way?

    Answer. Yes, the Apache remains Iraq's combat helicopter of choice.
    Congressional approval for the Apaches was urgently needed in order 
to get the case into the Government of Iraq's (GOI) long and complex 
bureaucratic process. We are disappointed by the delay on the Iraqi 
side and continue to urge the GOI to act quickly to sign and fund the 
cases. Unfortunately, several factors including internal budget issues, 
recent elections and the ongoing government formation process, and the 
current counterterrorism crisis combined to muddle Iraq's already 
complicated approval process, delaying Iraq's decision to finalize 
large, long, lead-time purchases like the Apache.
    The Apache will provide superior precision-targeting and firepower 
capability and increased in-air flight time to allow for flexibility 
and longer mission endurance at greater distances. The Apaches will 
also provide much-needed protection against small arms fire; Islamic 
State of Iraq and the Levant (ISIL) continues to damage and shoot down 
Iraq's unarmored helicopters. The Iraqi Security Forces will use the 
Apaches to support ground forces, interdict border incursions, conduct 
precision strikes against ISIL targets, and to deter terrorist 
activities and it will fill a needed capability gap.

  <diamond> Was the administration mistaken in their assertions to us 
        about the urgency of approving the sale?

    Answer. Congressional approval for the Apaches was urgently needed 
in order to get the case into the Government of Iraq's (GOI) long and 
complex bureaucratic process. We are disappointed by the delay on the 
Iraqi side and continue to urge Iraq to act quickly to sign and fund 
the cases. Unfortunately, several factors including internal budget 
issues, recent elections and the ongoing government formation process, 
and the current counterterrorism crisis combined to muddle Iraq's 
already complicated approval process, delaying Iraq's decision to 
finalize large, long, lead-time purchases like the Apache. Although the 
Apaches will not arrive in time to aid in the current crisis, Iraq will 
continue to face a critical ISIL threat and have a continuing need for 
the Apache well into the future. The Apache will provide the Iraqi 
Security Forces an armored, long-range, precision-strike platform 
capable of supporting a wide range of counterterrorism operations.

  <diamond>  Why did the Iraqi Government miss a payment for the F-16s? 
        What are the next steps to get this back on track?

    Answer. To date, Iraq has paid approximately $5 billion of the 
approximately $7.1 billion total for all 36 F-16s. A payment of $1.6 
billion was due earlier this spring, but has been delayed due to the 
operations in Anbar and Iraq's delay in passing a new budget. GOI 
officials have affirmed that the payment will be made. We have informed 
the GOI that the delivery of the first two aircraft could be delayed as 
a result of the delayed payment and we will continue to urge the GOI to 
complete the payment.
                                 ______
                                 

           Responses of Robert Stephen Beecroft to Questions 
                  Submitted by Senator Robert Menendez

                          counterterrorism law
    A new counterterrorism law awaiting ratification by the President 
has been criticized as overly broad, allowing for nonviolent protestors 
and other critics of the government to be arrested on terrorism-related 
charges. The current Egyptian Constitution exempts the Egyptian 
military from trial in civilian courts while giving military courts 
broad authority to try civilians.

    Question. Are you concerned that these laws are essentially making 
the Mubarak-era ``emergency laws'' part of Egypt's permanent body of 
laws?

    Answer. I share the U.S. Government's concerns regarding these 
laws. My understanding is that the draft counterterrorism law and the 
recently ratified Egyptian Constitution would effectively grant the 
government and security forces significant new authorities and that the 
draft counterterrorism law would give the Egyptian Government the right 
to enforce an undeclared state of emergency. It would also prescribe 
tougher punishments for terror-related offenses and increase the number 
of crimes punishable by death or life imprisonment. The laws would also 
likely further restrict political space and freedoms of expression and 
assembly and narrow legal channels for dissent, which could give new 
cause for radicalization in Egypt rather than counter or deter 
terrorism.
    The U.S. Government has expressed its deep concern over such 
measures and has made clear its opposition to military trials of 
civilians to the highest levels of the Egyptian Government.

    Question. How will you engage with the Egyptian Government to 
ensure that nonviolent critics of the government can speak freely 
without fear of reprisal or arrest?

    Answer. If confirmed, I will emphasize to the Egyptian Government 
that overly restrictive measures, such as the draft counterterrorism 
law, will undermine Egypt's stability, increase radicalism, and make it 
harder for the new government to forge the consensus needed to tackle 
daunting economic and social challenges. I will press that no matter 
how difficult the security environment, Egypt must find a way to 
distinguish extremists and terrorists from peaceful demonstrators. At 
every opportunity, I will make clear that the U.S. remains deeply 
concerned by actions the Egyptian Government takes that limit freedom 
of expression, assembly, and association, including the restrictive 
demonstrations law decreed in November 2013. I will also encourage the 
Egyptian Government to develop legislation in keeping with the spirit 
of those parts of the new constitution which guarantee basic rights and 
protections and promise to uphold Egypt's commitments and obligations 
to international human rights covenants and agreements.
                               assistance
    Earlier this year, this committee's bipartisan Egypt Assistance 
Reform Act of 2014 called for a strategic reassessment of security and 
economic assistance provided to Egypt in light of new realities on the 
ground.

    Question. What can you tell us about the administration's review of 
U.S. assistance to Egypt? Should we continue to provide $1.3B in 
security assistance to Egypt?

    Answer. The administration is reviewing how our assistance can best 
advance U.S. interests. Our military assistance to Egypt has supported 
stability in the Middle East. It has strengthened protections along 
Israel's border, enhanced the security of the Suez Canal, and increased 
Egypt's capacity to participate in regional operations, including 
peacekeeping.
    If confirmed, I will work with Congress to ensure that any 
assistance through the Egypt Foreign Military Financing (FMF) program 
is appropriately structured to counter shared security threats, such as 
terrorism and weapons trafficking.

    Question. Is the balance between security assistance and economic 
assistance still appropriate given the last several years of upheaval 
in Egypt?

    Answer. U.S. assistance to Egypt, both military and economic 
assistance, supports key U.S. interests of stability in Egypt and along 
Israel's border; safe Suez transit; countering transnational threats, 
such as terrorism and weapons trafficking; promoting inclusive 
democratic institutions, human rights, and basic freedoms; and 
supporting broad-based economic stability and growth. The 
administration considers the FY 2015 request--in conjunction with a 
more targeted approach--to be necessary and appropriate to meet our 
goals regarding Egypt.
    To that end, we are focusing our Economic Support Fund (ESF) 
funding on programs that will address Egypt's most critical sources of 
instability: its economy, particularly the need for private sector-led 
growth and youth employment, and its lack of sustainable democratic 
institutions and human rights. Our programs will support basic and 
higher education; job creation; private sector development; democracy 
and civil society promotion; and improving health outcomes. Our FMF 
request will support Egypt in its counterterrorism and border security 
efforts, including in the Sinai, adding to our ongoing counterterrorism 
and nonproliferation efforts supported through other assistance 
accounts.
    If confirmed, I look forward to working with Congress on advancing 
U.S. interests in Egypt, including through our assistance programs.
                             military sales
    The administration has also placed policy holds on a number of 
weapons systems scheduled for delivery to the Egyptian Armed Forces. 
Egyptian military leaders believe the delivery of Apache helicopters is 
particularly urgent for continuing Egypt's counterterrorism campaign in 
the Sinai.

    Question. Do you agree with the assessment that the Apache 
helicopters will help fight terrorism in the Sinai?

    Answer. Egyptian efforts to combat violent extremism in the Sinai 
are ongoing, and Apache helicopters have been a key part of those 
efforts, which is why President Obama directed the delivery of the 
pending additional Apaches. If confirmed as Ambassador, I look forward 
to discussing with Congress the conditions in Sinai and the use of 
U.S.-funded defense items in Egypt.

    Question. What is the way ahead on determining when the 
administration will release the F-16s and other military equipment 
still under a policy hold?

    Answer. President Obama made clear that credible progress toward an 
inclusive, democratically elected, civilian government is important to 
the administration's review of assistance to Egypt and release of held 
defense items. We are continuing to urge the Egyptian Government to 
make progress along those lines, including by urging President el-Sisi 
to establish transparent, accountable, and responsive democratic 
institutions, based on rule of law and respect for the rights of all 
Egyptians. If confirmed, I look forward to providing updates on the 
situation in Egypt and will consult with Congress closely as part of 
the ongoing assistance review.
                            syrian refugees
    Egypt is now host to hundreds of thousands of Syrians who have fled 
there over the past 2 years. Initially welcoming to them, the Egyptian 
Government has in the past year made a concerted effort to restrict the 
entry of Syrian refugees through visa restrictions and security 
clearance requirements.

    Question. In your view, what steps should the U.S. take through its 
engagement with the Egyptian Government to ensure that Egypt can be a 
place of refuge for Syrians?

    Answer. We recognize and appreciate the tremendous challenges faced 
by countries in the region as individuals continue to flee Syria and 
seek asylum in neighboring countries. If confirmed, I will continue 
U.S. efforts to encourage Egyptian authorities to continue extending 
support and hospitality toward refugees from Syria and all who are 
fleeing conflict. UNHCR has registered almost 138,000 refugees in 
Egypt, but according to the Egyptian Government, there may be as many 
as 300,000 Syrian refugees in Egypt. Separately, there may be as many 
as 6,000 Palestinian refugees from Syria currently in Egypt. If 
confirmed, I will continue expressing our concerns about the climate of 
anti-Syrian and anti-Palestinian public sentiment in Egypt and urge the 
Egyptian Government to communicate to the Egyptian people the 
importance of protecting all vulnerable refugees.
                                 ______
                                 

              Responses of Dana Shell Smith to Questions 
                  Submitted by Senator Robert Menendez

    Question. Terror Financing.--A large degree of funding for 
terrorist groups in the region, from Hamas to the Salafist and al-Qaeda 
inspired groups in Syria, comes from wealthy gulf benefactors.

  <diamond> How big a problem is this in Qatar?
  <diamond> What has the Qatari Government done to crack down on this, 
        and is the Qatari Government committed to controlling private 
        and charity funding streams?
  <diamond> What will you do to expand our terrorist finance and money 
        laundering cooperation with Qatar?

    Answer. We engage regularly with Qatar and our other gulf partners 
on the issue of terror financing, but there is no doubt that more needs 
to be done. Syria is attracting more violent extremists the longer the 
conflict goes on. Qatar and other regional partners are working with us 
to support the moderate Syrian opposition and to work toward a 
political solution to ensure that Syria no longer serves as a magnet 
for violent extremists.
    In recent years, we have seen some improvements in Qatar's 
counterterrorist financing efforts, including steps to improve its 
anti-money-laundering/counterterrorist financing legal framework. In 
2012, the Middle East and North Africa Financial Action Task Force 
determined that Qatar had improved its anti-money-laundering/
counterterrorist financing (AML/CTF) regime and was either ``Compliant 
or Largely Compliant'' with all of the Task Force's recommendations.
    However, Qatar's monitoring of terrorist financing by Qatari 
individuals and charitable associations remains inconsistent, and we 
will not hesitate to act to disrupt terrorist financing networks. For 
example, in December 2013, the Treasury Department announced the 
designation of a Qatar-based financier who secured funds and provided 
material support for al-Qaeda and its affiliates in Syria, Iraq, 
Somalia, and Yemen.
    We remain committed to working with Qatar to confront ongoing 
terrorist financing and on strengthening its AML/CTF regimes. For 
example, we conducted an interagency training in early June for Qatari 
officials involved in the design and implementation of Qatar's CTF 
regime to improve capacity and coordination on counterterrorism 
financing. In the coming weeks, we will send an interagency delegation 
to a number of Gulf States, including Qatar, to improve our 
coordination on stemming the flow of foreign fighters to Syria. If 
confirmed, I will ensure that counterterrorism finance issues remain a 
priority of our bilateral engagement with the Government of Qatar.

    Question. Labor Rights.--The system of kafala, or employer 
sponsorship, is prevalent in many GCC countries. Foreign workers under 
the kafala system are often subject to abuses such as wage theft, 
substandard housing, and dangerous working conditions. I have written 
letters to Secretary Kerry and International Federation of Association 
Football (FIFA) President Sepp Blatter highlighting my concerns. I was 
particularly alarmed by the deaths of 44 Nepalese workers in Qatar last 
year. The Qatari Government recently announced labor reforms that it 
says will ``abolish'' the kafala system but did not give any timeline 
for implementation.

  <diamond> How will you engage the Qatari Government to ensure that 
        these reforms are implemented, that protections for workers 
        under Qatari law are enforced and that workers building 
        infrastructure for the 2022 World Cup are not subjected to the 
        same conditions that led to the deaths of those 44 Nepalese?

    Answer. We have consistently raised concerns about the restrictive 
nature of Qatar's sponsorship system and encouraged more robust 
enforcement of labor and antitrafficking laws with senior Qatari 
officials. Advancing the protection of labor rights, particularly for 
migrant workers, is a priority of our diplomatic engagement.
    In the past year, Qatar has taken some positive steps to address 
these issues, including cracking down on visa selling, doubling the 
number of labor inspectors, and blacklisting 2,000 companies for 
violations of the labor law. On May 14, the Government of Qatar (GoQ) 
announced that the ministerial cabinet had endorsed reform of the 
sponsorship system. The proposed reforms would eliminate no objection 
certificates, which prevent employees from switching jobs without 
approval, and amend the exit permit system such that the GoQ--rather 
than employers--would have the authority to prevent workers from 
departing the country. The reforms would also increase fivefold the 
fines for passport withholding.
    The announcement did not provide a timeframe for implementation of 
the proposed changes, which must still undergo passage by the Shura 
Council. If confirmed, I will urge the implementation of these reforms 
and continue to encourage Qatari efforts to ensure the thorough 
protection of workers' fundamental labor rights in Qatar.
                                 ______
                                 

               Responses of Stuart E. Jones to Questions 
                   Submitted by Senator Barbara Boxer

    Question. Women's Rights in Iraq.--The Iraqi Cabinet has passed a 
personal status law that would effectively legalize child marriage and 
severely set back women's rights to divorce, inheritance, and child 
custody if passed by Parliament.

  <diamond> If confirmed, how would you use your leverage as Ambassador 
        to discourage Iraq from passing such a harmful law?

    Answer. If confirmed, I will continue to raise--with the Government 
of Iraq and its Members of Parliament--our strong objections to this 
draft law. The Embassy will also continue to support civil society 
efforts to advocate for respect for the fundamental rights of all 
people including women, children, minorities, and individuals of all 
faiths.
    We have previously expressed our concern regarding the draft law, 
which has not been enacted, as has the United Nations Mission in Iraq, 
and a wide range of Iraqi political, religious, and civil society 
leaders. It threatens to undermine constitutionally protected rights 
for women in Iraq and jeopardizes the rights and protection of 
children, especially girls.
    Women's rights activists and nongovernmental organizations have 
also condemned the draft law as a significant step backward for women's 
and girls' rights in Iraq.

    Question. Women in the Iraqi Justice System.--Women in Iraq face 
significant abuses throughout all stages of the criminal justice 
process--including during arrest, interrogation, trial, and 
imprisonment. These abuses have included illegal arrests, lack of 
protection for female prisoners, and sexual assault. It is clear that 
more must be done to protect Iraqi women from such abuses--particularly 
as these violations undermine the rule of law in Iraq.

  <diamond> How do you plan to work with the Government of Iraq to 
        build support for rule of law and ensure that women are 
        afforded all the same protections as men?

    Answer. I am aware of the reports of abuse of women in the criminal 
justice process and in prisons. If confirmed I will continue to raise 
our concerns about these problems with appropriate Iraqi Government 
officials at all levels. I will also consult with civil society and 
international organizations on these issues to ensure that we are kept 
informed.
    Despite serious obstacles for women and girls' political 
participation in Iraq, we were heartened that Iraq's Independent High 
Electoral Commission reported that 22 women were directly elected to 
the new Parliament, a significant increase from the 2010 election when 
only 5 women won seats by popular vote. We hope that this is a trend 
that will continue. In total, 82 of Iraq's 328 members of Parliament 
will be women based on a requirement that 25 percent of 
parliamentarians are women.
    The State Department has historically provided $10 million per year 
to support efforts to eliminate gender-based violence, protect women's 
rights, and empower women politically and economically in Iraq. To 
address reported abuses by security forces, a number of past and 
current programs focus on human rights training in prisons throughout 
southern Iraq, implementing the U.N. Convention against Torture and 
demanding accountability for human rights abuses throughout the 
country. If confirmed, I will work in partnership with Congress to 
ensure that this important level of support continues. I will also work 
with the Government of Iraq to ensure that it understands the U.S. 
commitment to the rule of law and the equal rights for all persons, 
regardless of gender.
                                 ______
                                 

           Responses of Robert Stephen Beecroft to Questions 
                   Submitted by Senator Barbara Boxer

    Question. U.S. Strategy to Respond to Gender-Based Violence.--The 
United States has made gender equality and efforts to combat gender-
based violence a priority within its foreign policy.

  <diamond> In light of the ongoing issues in Egypt, how can the United 
        States work to utilize the tools and actions laid out in the 
        U.S. Strategy to Prevent and Respond to Gender-Based Violence 
        Globally to better respond to the situation in Egypt?

    Answer. The United States, through our Embassy in Cairo, is working 
to utilize the tools and implement the actions outlined by the U.S. 
Strategy to Prevent and Respond to Gender-based Violence Globally. This 
includes supporting the Egyptian Government's legislative responses to 
gender-based violence (GBV), training for special law enforcement units 
to respond to sexual assault cases, and supporting capacity-building 
programs for government and nongovernment stakeholders to prevent and 
respond to gender-based violence.
    For example, USAID in Egypt supports a U.N. Women-led program 
working to expand legal services for survivors of gender-based 
violence, launch a youth-led public awareness media campaign, and 
improve small-scale infrastructure in pilot communities, such as 
improved lighting in high-risk areas. Our USAID mission also plans to 
increase engagement with local Egyptian organizations working on 
matters related to gender-based violence to improve their 
sustainability and effectiveness. The Embassy plans to continue 
supporting programs aimed at deterring gender-based violence, including 
those that strengthen law enforcement capacity to more effectively 
prosecute GBV-related crimes. Through public awareness programs and 
professional exchanges, the Embassy is continuing to increase community 
participation in addressing the root causes of GBV. Continued close 
coordination with partners, such as U.N. Women and the U.N. Office of 
Drugs and Crime, will allow the U.S. Government to continue supporting 
improved intergovernmental strategic planning, prevention, and training 
to prevent and respond to GBV.
    If confirmed, I will strongly support this work and encourage the 
use of all possible tools and actions recommended by the Strategy to 
Prevent and Respond to GBV. I will continue to raise issues of gender-
based violence in my engagement with the Egyptian Government, 
encouraging it to undertake serious efforts to end all forms of 
violence in Egypt--including intimate partner violence, sexual 
violence, and harmful traditional practices such as female genital 
mutilation--and work to end impunity for violence perpetrated against 
women and girls.
                                 ______
                                 

               Responses of Stuart E. Jones to Questions 
                     Submitted by Senator Tom Udall

    Question. ISIL's rapid expansion across Iraq is deeply troubling 
both for regional stability and the security of thousands of Americans 
working there. Maliki needs to reach out to marginalized groups in Iraq 
if a unified defense of Iraq's territory is going to be successful.

  <diamond> How will you work with these different groups to ensure 
        unified efforts are made within Iraq against ISIL?

    Answer. We are deeply engaged in direct dialogue and active 
diplomatic strategy with the Prime Minister and all of Iraq's leaders 
on taking a holistic approach to fighting ISIL by working together to 
address social, political, and economic issues in addition to security 
cooperation to drive ISIL out from Mosul and surrounding areas. Our 
engagement includes working with all sides to urge that they take 
critical next steps so that a timely, inclusive government formation 
process in line with the Iraqi Constitution can continue. Without 
significant, demonstrated efforts by the government on these issues, 
ISIL will continue to exploit fissures within Iraqi society and leaders 
for its own gain. We are also working with Iraq's neighbors to 
encourage unified support for the government's counterterrorism 
efforts. Iraq held national elections on time April 30; the U.N. 
praised the elections as free and fair.

  <diamond> How will you engage the international community in this 
        aspect?

    Answer. We are also working closely with the P3, Iraq's neighbors 
including Turkey, and other key players at the highest levels to 
support the Government of Iraq (GOI) as they fight ISIL. The U.N. 
Security Council issued a statement today strongly condemning ISIL's 
incursion into Iraq and threw its support behind the GOI to combat 
terrorism. We are urging donors to support the U.N.'s humanitarian 
efforts in response to the estimated 500,000 individuals who have fled 
ISIL's recent advances in Ninewa and Salah ad-Din governorates, in 
addition to the nearly 480,000 who have fled violence in Anbar 
governorate since January.

  <diamond> How will you work to ensure that the U.S. Embassy and our 
        consulates are protected against the threat of ISIL's advance?

    Answer. For a number of years, Mission Iraq has maintained a 
heightened security posture comprised of extensive physical security 
features, robust and well-armed Diplomatic Security officers, and the 
ability to be self-responding in the event of an emergency such as an 
attack. Our Embassy and consulates in Iraq, as with all U.S. Diplomatic 
Missions, have a highly trained and well-equipped contingent of DS 
agents under the Regional Security Officer (RSO). The Regional Security 
Offices also include personnel working under the World Wide Protective 
Services contract who staff protective security details and static 
guard positions.
    Embassy Baghdad has a Marine Security Guard Detachment that is 
larger than that of most detachments assigned to U.S. missions. In 
addition to this robust security platform some additional U.S. 
Government security personnel were recently added to the staff in 
Baghdad. I am happy to discuss exact numbers of security personnel with 
you in a more appropriate setting. Like all other U.S. Diplomatic 
Missions, the Embassy and our consulates also conduct regular planning 
exercises for response to possible emergency situations, including 
evacuation.
    In addition to having plans in place, Mission Iraq is well postured 
with its own assets to support evacuations or long-term sheltering in 
both permissive and nonpermissive environments. We continue to monitor 
the situation closely and are in continuous communication with our 
personnel on the ground. We are corresponding regularly with the 
Government of Iraq to ensure that our sites remain safe for our staff.

    Question. Water issues remain a major issue inside Iraq. The Tigris 
and Euphrates is drier than normal as a result of both drought and new 
dams upriver.

  <diamond> How can the U.S. work to promote water conservation and 
        improved management of resources and will you work with other 
        U.S. agencies, as well as the national labs to help Iraq devise 
        strategies to improve the management of water resources?

    Answer. Partnering with the GOI on water resource management is a 
U.S. Government priority and there are a number of USG programs focused 
on this issue. For example, Iraq's Ministry of Environment and the 
Ministry of Science & Technology (MOST) has asked for NASA assistance 
to study dust storms from space. MOST currently is developing a 
Memorandum of Understanding with NASA on this issue and is working on 
another with the U.S. Geological Survey to train Iraqi professionals on 
flood inundation, desertification, and sandstorm analysis. In the past, 
the State Department has provided $1.5 million to the U.N. Development 
Programme for the establishment of a National Water Council and to 
support capacity-building on transboundary water cooperation. The 
intent of this project is to give the Iraqi Government the needed 
diplomatic and technical tools to effectively negotiate international 
transboundary water issues with neighboring countries. The State 
Department's Oceans and International Environmental and Scientific 
Affairs Bureau is currently exploring engagement with Iraq on 
transboundary water issues through the U.N. Shared Waters and U.S. 
Water Partnership programs for FY 2014. Additionally, USAID provided 
$10 million between 2012 and 2014 for a harvest program that included 
improving water usage for efficient irrigation.
    We are open to leveraging the expertise of any U.S. department or 
agency--including the national labs--that can assist Iraq in better 
managing its water resources. As U.S. development and economic 
assistance to Iraq decreases, we are exploring options in which the GOI 
directly funds such programs in the future.
                                 ______
                                 

               Responses of James D. Nealon to Questions 
                     Submitted by Senator Tom Udall

    Question. As Ambassador, how will you address the root causes 
leading to the recent surge in minors migrating from Honduras to the 
U.S.? While putting pressure on our system to house and address each 
minor's individual case, the insecure conditions these children are 
fleeing are only getting worse. As chief of mission how will you 
prioritize and leverage each agency's involvement in Honduras as well 
direct the resources of State and USAID to address these root causes 
including fear of gang violence, and inability to access education and 
livelihood opportunities. How will you engage the new Honduran 
Government more deeply into your efforts?

    Answer. I am committed to supporting the U.S. response to the 
influx of unaccompanied children arriving at the Southwest border. 
Violence, gang recruitment, and lack of economic opportunity are among 
the root causes that drive people--adults and children--to emigrate 
from Honduras, along with the perceived economic opportunities in the 
United States. I share your concerns about the conditions in Honduras.
    If confirmed, I will work closely with the Government of Honduras 
to raise public awareness about the potential for child migrants to be 
exploited and to support messaging that makes clear the dangers of the 
journey. I will also encourage the Honduran Government to invest in 
providing sufficient and capable consular representation along the U.S. 
border and in Mexico to help respond to this humanitarian situation.
    For the long-term, a sustainable solution requires a comprehensive 
approach to address issues of security, economic opportunity, and 
governance, all of which play a role in the migration of children and 
their parents. The Department of State and USAID have a broad range of 
programs intended to support host government efforts in these areas. If 
confirmed, I will work with the Honduran Government to continue 
addressing the complex root causes of migration and will work closely 
with the U.S. Congress to ensure our requests for future assistance are 
sufficient and targeted appropriately.

    Question. I have long advocated for increased resources for the 
Western Hemisphere region, however the administration has again de-
prioritized this region in relation to others in the President's 
budget. As Chairman Menendez illustrated during the hearing, we are 
seeing the repercussions of this through the thousands of migrants 
arriving in the U.S. from Central America, escaping one of the most 
violent countries in the world.

  <diamond> How will programs in Honduras be impacted by the decreased 
        request for the CARSI program in FY 2015? What changes will you 
        advocate for in the FY 2016 request?

    Answer. I am firmly committed to advancing U.S. engagement with the 
Western Hemisphere, including, if confirmed, as U.S. Ambassador to 
Honduras. I understand the administration's FY 2015 request for the 
region places a strong emphasis on citizen security, the rule of law, 
and crime and violence prevention, which account for just under half of 
the total request.
    The FY 2015 request for the Central America Regional Security 
Initiative (CARSI) reflects an assessment of existing resources and 
current rates of expenditure in some areas, but the CARSI request level 
reflects no decrease in priority. In addition to CARSI, the 
administration's request includes $44.3 million for Development 
Assistance for USAID programming in Honduras. This assistance 
prioritizes addressing root causes of crime and insecurity, which lead 
to migration, complementing CARSI assistance.
    If confirmed, I would assess U.S. assistance to Honduras and 
advocate for resources to advance U.S. objectives.

    Question. What is the impact of human rights violations on the 
public by local security force units, and does impunity and failure to 
prosecute human rights violators increase the ability for local gangs 
or organized crime in Honduras to recruit and operate because of a lack 
of trust in law enforcement? How will you use the Leahy Law as a tool 
to address the well-documented human rights abuses in the country 
including against human rights defenders and public officials as noted 
by the State Department's Human Rights Report?

    Answer. The high level of impunity for crimes against all Hondurans 
means there is little or no disincentive to committing a crime. When 
human rights abuses are committed by government authorities, this 
impunity can leave a perception in the public mind of institutional 
weakness or government tolerance of illegal activities. Either way, the 
result is greater difficulty deterring narcotrafficking, organized 
crime, and gangs.
    Honduras continues to face significant challenges establishing 
strong democratic institutions, establishing a rule of law culture, 
attacking impunity and corruption, and ensuring a safe and prosperous 
future for Honduran citizens. The Honduran Government has made some 
efforts to change its trajectory, but more needs to be done. If 
confirmed, I commit to partnering with the U.S. Congress to assist 
Honduras to address these challenges. I will support efforts to 
increase accountability, promote the rule of law, and improve the 
capability of the Honduran Government to protect the rights of its 
people. I will be an advocate for U.S. programs to train Honduran 
officials to protect against and effectively prosecute crime--exactly 
the skills they need to address the impunity that exists, stop the high 
levels of crime in their country, and build trust between law 
enforcement officials and the communities they serve.
    In accordance with U.S. law and policy, including the Leahy law, 
the Department of State vets units and officers in Honduras who may 
receive assistance. We do not provide assistance to security force 
units when we have credible information that they have committed gross 
violations of human rights.
                                 ______
                                 

               Responses of James D. Nealon to Questions 
                    Submitted by Senator Marco Rubio

    Question. I am concerned about the rule of law in Honduras, 
particularly corruption within the legal system. Pan-American Life 
Insurance Company (Pan-American), an American company with offices in 
Louisiana, Florida, Texas, Massachusetts, Kansas, and Minnesota, has 
experienced significant injustices at the hands of the Honduran 
Judiciary. Pan-American has attempted to resolve this matter through 
various diplomatic channels, but the courts of Honduras continue to 
enter judgments against Pan-American that are contrary to Honduran law, 
basic insurance tenants and governing policy provisions.

  <diamond> 1. Have you been briefed on Pan-American's situation in 
        Honduras?
  <diamond> 2. I understand that at least two other U.S. Senators have 
        written to the Honduran authorities on the harassment of Pan-
        American, but have yet to receive a response to their concerns. 
        What concerns does this raise about Honduran authorities?
  <diamond> 3. What are your thoughts on using visa revocation as a 
        tool to curb corruption in Honduras?
  <diamond> 4. What is your position on providing U.S. foreign 
        assistance to countries in which the judiciary's integrity may 
        be compromised at the highest levels?
  <diamond> 5. If confirmed, would you agree to meet with Pan-American 
        representatives to discuss this matter in detail?

    Answer. I am aware that the Department of State and Embassy 
Tegucigalpa have been in touch with the offices of Senator Vitter and 
Senator Landrieu regarding the Pan-American case and that Ambassador 
Kubiske has spoken personally about the case to both members. 
Ambassador Kubiske has also raised the case on several occasions with 
the Honduran Government and judiciary to note our government's 
interests in U.S. companies receiving fair treatment in Honduran 
courts. If confirmed, I will meet with the Pan-American representatives 
and press the Honduran Government to answer the Senator's letters. I 
will also promote U.S. business interests in Honduras, including 
advocating for fair treatment of U.S. businesses and citizens in 
Honduras through promoting the use of applicable dispute settlement 
provisions of our Bilateral Investment Treaty and the Dominican 
Republic-Central America-United States Free Trade Agreement.
    The United States recognizes institutional weaknesses in Honduras' 
judicial system and supports efforts to increase accountability and 
promote the rule of law. U.S. assistance provides training, mentoring, 
and professionalization to Honduran officials and supports reforms to 
strengthen police, judicial, and rule of law institutions. If 
confirmed, I will continue to work in these areas and be an advocate 
for judicial independence in Honduras.
    Concerning visas restrictions, the Department faithfully enforces 
the provisions of the Immigration and Nationality Act (INA) by which 
aliens are ineligible for visas based on criminal activity. Moreover, 
we have ample additional authority under Presidential Proclamation 7750 
(2004) and section 7031(c) of the FY 2014 State Appropriations Act to 
impose restrictions based on significant corruption. The Department 
takes seriously allegations of corruption and reviews such allegations 
in order to determine whether credible evidence exists to justify 
revoking a visa or imposing visa restrictions under U.S. law.
                                 ______
                                 

            Response of Robert Stephen Beecroft to Question 
                 Submitted by Senator Edward J. Markey

    Question. I want to raise with you an issue that I believe is 
incredibly important: ensuring that the Egyptian Government respects 
the rule of law regarding the abduction of American children. Having a 
child abducted by a current or former spouse to a foreign country is 
one of the most heartrending events a parent can face. Not only does it 
deprive a child of the opportunity to have frequent contact with both 
of their parents, it does violence to our entire system of justice. 
People need to play by the rules--they can't be allowed to steal a 
child just because they don't like the decision a court makes regarding 
custody. And other countries need to respect the decisions of our 
courts.
    Now, this is a global problem, and I look forward to the Foreign 
Relations Committee considering a bill this Congress to address 
international child abduction. But this problem appears to be 
especially acute in Egypt. Because Egypt is not a partner to the Hague 
Abduction Convention, it's more difficult for the State Department to 
reunite kids, many of whom are United States citizens, with their 
American parents. In fact, last year, there were 22 active custody 
disputes involving an American child in Egypt, and apparently half of 
the cases have been pending for at least 12 years. That is appalling.
    One of those 22 cases involves one of my constituents, Colin Bower. 
Mr. Bower was married to an Egyptian citizen and had two wonderful 
little boys with her, Ramsay and Noor, both of whom are American 
citizens. In 2008, the marriage ended in divorce and an American court 
granted sole custody to Mr. Bower. A little under a year later, Mr. 
Bower's ex-wife unlawfully absconded to Egypt with the boys by making 
use of illegal passports and then got an Egyptian court to grant her 
custody.
    Mr. Bower did everything he could to get his kids back. He got 
state and federal warrants issued for her arrest. He got Interpol to 
issue a red notice for her arrest. He even got an Egyptian court to 
grant him visitation rights every 2 weeks. Yet, every effort he's made 
to enforce even the Egyptian court order has been thwarted. He's 
traveled to Egypt 12 times to see his kids. Eight times he went to the 
appointed meeting place and waited for his boys. And 8 times they never 
arrived. It's been 5 years since Mr. Bower's boys were kidnapped and 
over two and a half since he has even seen them.

  <diamond> If confirmed, will you commit to making the international 
        parental child abduction case of Noor and Ramsay Bower a 
        priority? Also, what concrete steps can you take as Ambassador 
        to ensure that Egypt respects decisions of U.S. courts 
        regarding child abduction cases?

    Answer. If confirmed, I will make the abduction case of Noor and 
Ramsey Bower a priority. I will press members of the Egyptian 
Government at all levels to gain their cooperation in resolving the 
Bower case and all other child abduction cases involving Egypt , while 
also encouraging Egypt to accede to the 1980 Hague Convention on the 
Civil Aspects of International Child Abduction (Convention). The State 
Department and I share your concern regarding international parental 
child abduction (IPCA) and we share Congress' goals of preventing IPCA, 
returning children expeditiously to their countries of habitual 
residence, and strengthening and expanding membership in the Convention 
worldwide.
    My understanding is that the State Department is currently aware of 
19 IPCA cases in Egypt, including the case of Noor and Ramsay Bower, 
and senior State Department leaders have raised these cases with 
Egyptian Government officials at every opportunity to ensure the 
Egyptian Government understands the U.S. Government's concern for the 
welfare of U.S. citizens overseas, especially children, who are some of 
our most vulnerable citizens.
    I also understand that the U.S. Embassy in Cairo has ongoing 
engagement with relevant offices in the Egyptian Government, such as 
the Good Intentions Subcommittee, to request their action on these 
cases and have discussed the case of Noor and Ramsay Bower 
specifically. The Office of Children's Issues in the Department of 
State is also in frequent contact with, and always available to, the 
left-behind parents and their representatives to discuss the status of 
their case and options for continuing action.
                                 ______
                                 

               Responses of Stuart E. Jones to Questions 
                   Submitted by Senator John Barrasso

                          iranian overflights
    Question. Please describe the actions the Government of Iraq is 
taking to stop the flow of Iranian arms from going to the Syrian 
regime.

    Answer. We know that Iran is supplying arms to the Syrian regime 
and violating the U.N. Security Council prohibition against selling or 
transferring arms and related materials, including through flights over 
Iraqi territory. Iraqi leaders have issued statements condemning the 
flow of foreign fighters and weapons through, and from, Iraqi 
territory. However, the Government of Iraq is not doing enough to 
prevent Iran from using its territory to supply the Assad regime, and 
we continue to urge all senior Iraqi officials to either deny 
overflight requests or require flights to land in Iraq for credible 
inspections consistent with Iraq's international obligations.

    Question. How is the U.S. continuing to apply pressure on Iraq to 
stop these overflights that are building and arming Iranian militias in 
Syria?

    Answer. The Government of Iraq is not doing enough to prevent Iran 
from using its territory to supply the Assad regime and Iraqi Shia 
militants, and we are urging all senior Iraqi officials to either deny 
overflight requests or require flights to land in Iraq for credible 
inspections consistent with Iraq's international obligations. Secretary 
Kerry, and other senior U.S. officials, have consistently raised this 
issue with Iraqi officials, emphasizing the connection between the flow 
of weapons and the escalation of extremist violence in the region, 
particularly in Syria. If confirmed, I will continue to make it an 
issue of urgent concern and regular diplomatic engagement.

    Question. How is the United States engaging with our gulf partners 
to stop these over flights?

    Answer. In our senior-level engagements with our gulf partners, we 
are stressing that we are not satisfied with the Government of Iraq's 
inaction to prevent the use by Iran of Iraq's airspace to resupply the 
Assad regime, and that senior officials, including the Secretary, 
continue to raise this with Iraqi officials, emphasizing the connection 
between the flow of weapons and the escalation of extremist violence in 
the region, particularly in Syria. We have urged that Iraq either deny 
overflight requests for Iranian aircraft going to Syria, or require 
such flights to land in Iraq for credible inspections, consistent with 
its international legal obligations.

    Question. What is the relationship between Iraq and Iran?

    Answer. Despite decades of mutual mistrust stemming from the Iran-
Iraq war, Iran continues to try and forge closer ties with Iraq--in the 
interests of neighborliness but mostly to expand and deepen its sphere 
of influence. There have been high-level exchanges of visits between 
the Government of Iraq, including the Kurdistan Regional Government, 
and Iranian leaders. Iraq is one of Iran's top-five trading partners, 
with bilateral trade between $6-$12 billion in 2013. Iran supplies 
about 11 percent of Iraq's electricity. The two countries have also 
signed an extradition treaty (this does not include the status of the 
Mujahedin-e Khalq members still in Iraq), but are still negotiating 
border issues going back to the 1975 Algiers Accord.

    Question. What kind of influence does Iran have either politically 
or economically in Iraq?

    Answer. While Iran continues to be an influential neighbor, Iraq 
does take actions that run counter to Iranian interests, such as 
increasing oil production just as Iranian exports were being taken off 
the market due to U.S. and EU sanctions. Had Iraq not done so, 
worldwide oil prices would have spiked, ultimately reducing the impact 
of sanctions on Iran and hurting U.S. consumers. On issues like Syria 
and nuclear proliferation, Iraq has demonstrated that it acts in its 
own interest. For example, Iraq has fully supported a negotiated 
political solution to the crisis in Syria, and the U.S. position on 
converting Syrian chemical weapons production facilities in Syria 
(Iraq, in fact, has an expert on the Organization for the Prohibition 
of Chemical Weapons staff). Iraq has ratified the Comprehensive Nuclear 
Test Ban Treaty and the Additional Protocol, which requires inspections 
of nuclear facilities, and hosted the P5+1 talks in May 2012. Iraq has 
also publicly called to prevent flows of foreign fighters and weapons 
through Iraq.

    Question. If the U.S. cannot stop these flights diplomatically, 
does Congress need to withhold foreign military sales to Iraq if these 
flights continue?

    Answer. No; withholding foreign military sales risks reducing U.S. 
influence as Iraq engages in an important fight against ISIL. We are 
seeking to increase our influence with Iraq's leaders and this is a 
critical component. U.S. security assistance enables Iraq to better 
combat ISIL, which is an increasingly direct threat to the United 
States and our allies; U.S. assistance serves broader U.S. goals, too; 
limiting or conditioning it would limit our progress toward those 
goals. Even without the growing terrorism threat, U.S. security 
assistance provides an important vehicle for cementing the United 
States enduring partnership with Iraq. Security cooperation on critical 
systems, such as air defense, will provide a basis for a long-term 
relationship.
                           security situation
    Question. When did the United States, either through intelligence, 
diplomatic channels, or military analysis, become aware of the 
deteriorating security issue in Iraq?

    Answer. We have maintained a close watch on Iraq's security 
situation since the standup of the U.S. Embassy in Baghdad in 2004. The 
threat of the Islamic State of Iraq and the Levant (ISIL) and its 
effect on Iraq's overall security situation was neither a surprise nor 
a sudden event. We have watched and warned of ISIL's growing strength 
and its threat to Iraq and U.S. interests in the region--and now to 
Europe and the U.S. homeland--since the group's resurgence in 2012 as a 
result of the escalating conflict in Syria.
    Since the start of the Syrian conflict, we watched with growing 
concern as ISIL--formerly Al Qaeda in Iraq (AQI)--took advantage of the 
escalating conflict to establish a safe-haven in Syria's eastern 
deserts. With ample resources, recruits, weapons, and training, ISIL 
slowly began to execute its strategy across the Syrian border into 
Iraq. Violence in Iraq began to increase toward the end of 2012, but 
did not accelerate until early 2013, including a marked rise in ISIL 
suicide bombings. These attacks increased throughout 2013, jeopardizing 
the political discourse in the country, further fueling mistrust from 
political leaders to ordinary citizens, and making the tangible reforms 
that Iraq needs to reconcile its society even harder to reach. Taking 
advantage of the instability it was causing, ISIL then seized parts of 
Anbar province including the cities of Ramadi and Fallujah in early 
January 2014, initiating what has been a constant counterterrorism 
counteroffensive by the Government of Iraq. Although ISIL has long 
operated in Mosul and northern Iraq, its recent, sudden, large-scale 
offensive there further escalated the fight, dramatically demonstrating 
the existential threat that we have been assisting the Government of 
Iraq to combat.

    Question. What action, if any, did the administration take when it 
first learned of the deteriorating security situation?

    Answer. As the ISIL threat increased, we took several steps over 
the last year to increase counterterrorism assistance to Iraq and to 
build a foundation for future, expanded cooperation. Military efforts 
alone will not defeat ISIL. We have encouraged a holistic 
counterterrorism approach with the Government of Iraq, fusing political 
and security efforts. We have urged the recruiting of tribal leaders 
and greater Sunni incorporation into the military ranks to reduce 
sectarian tensions.
    To increase Iraq's military capabilities, we expanded training in 
Iraq and Jordan, provided military advice, enhanced information-sharing 
relationships, and sought opportunities to increase border security.
    Additionally, we have expedited shipments of weapons, equipment, 
and ammunition to Iraq's military. Thanks to congressional support, 
recent shipments included the delivery of 300 Hellfire missiles, 
thousands of helicopter-fired rockets, thousands of rounds of tank 
ammunition, thousands of machine guns, grenades, flares, sniper rifles, 
M16 and M4 rifles to the Iraqi Security Forces. We also delivered 
additional Bell IA-407 helicopters late last year and 10 Scan Eagle 
surveillance platforms are on schedule for delivery this summer. The 
Iraqis have told us that our equipment and advice is making a critical 
difference. In particular, the Hellfire missiles are the most effective 
airborne weapon the Iraqis have, and they have been using them to great 
effect.

    Question. When the President ordered the last withdrawal of troops 
from Iraq, did that improve or diminish our ability to predict changes 
in the security situation in Iraq?

    Answer. The withdrawal of U.S. forces was consistent with the 2008 
U.S.-Iraq Security Agreement. It honored our commitment to Iraqi 
sovereignty and began a new chapter in our partnership. The follow-on 
U.S military forces discussed in 2011 was primarily a small training 
contingent that would not have had a significant impact on our ability 
to predict changes in Iraq's security situation.

    Question. Do you anticipate that a similar deterioration of 
security will occur in Afghanistan once the United States withdrawals 
from Afghanistan in 2016?

    Answer. We believe that at the end of 2016, the Afghan National 
Security Forces (ANSF) will be capable of maintaining security in 
Afghanistan with the continued international financial assistance 
pledged at the NATO summit in Chicago. The ANSF took the lead for 
security around the country in June 2013, have lost no significant 
ground to the insurgents since that time, and have won the trust of 
Afghan citizens in their ability to protect them, which was manifest in 
the high turnouts for both rounds of the elections despite determined 
Taliban efforts to disrupt the electoral process and intimidate voters.
    While the situation in Iraq is cautionary, it differs from that in 
Afghanistan in some important ways. In Afghanistan, the people 
overwhelmingly want us to stay, to the extent that every single 
contender in the Presidential election said he would sign the Bilateral 
Security Agreement (BSA).
    In addition, the international community has made a range of 
significant commitments to Afghanistan that extend well into the future 
that will continue to shore up the military and civilian sides of the 
Afghan Government as well as support Afghan civil society.
                            countering isil
    Question. Since the United States withdrew our troops in 2011, a 
security vacuum has emerged in Iraq. From the al-Qaeda fighters seizing 
Fallujah and Ramadi in January to the Islamic State of Iraq and Syria's 
(ISIS) gain of the second-largest city of Mosul to the declaration of a 
state of national emergency, Iraq is facing significant security 
challenges.

  <diamond> How committed is Prime Minister Maliki to ending the strong 
        al-Qaeda and ISIS backed insurgency that is taken place in the 
        western part of Iraq?

    Answer. Prime Minister Maliki has stated that he is dedicated to 
combating and driving back the Islamic State of Iraq and the Levant 
(ISIL). However, it has long been the case that all Iraqi leaders, 
including Prime Minister Maliki, need to do more to address unresolved 
issues to better meet the needs of the Iraqi people. Unfortunately, 
Iraq's leaders have too often been unable to overcome the mistrust and 
sectarian differences that have long been simmering, creating 
vulnerabilities within the Iraqi Government as well as its security 
forces.
    ISIL, the primary threat to Iraq's stability, has an ideology that 
has little to do with Iraqi domestic politics and no appeal to the 
overwhelming majority of the Iraqi people. ISIL's aim is to take 
territory and terrorize the Iraqi people, regardless of sect, as it 
seeks to establish an Islamic caliphate from Lebanon to Baghdad.
    We support Iraqi efforts to implement a coordinated approach to 
effectively address the security and political situations. Nobody has 
an interest in seeing terrorists gain a foothold inside of Iraq, and 
nobody is going to benefit from seeing Iraq descend into chaos. Our 
focus is on the Iraqi people, and we urge all Iraqi leaders across the 
political spectrum to unite, put differences aside, and stand together 
against the threats they face.

    Question. What steps is the administration willing to take to 
address the reemergence of al-Qaeda and ISIS in Iraq?

    Answer. The United States has been engaging in intensive and active 
diplomacy inside Iraq, across the region, and with the international 
community since this crisis erupted. We are coordinating with our 
international partners and countries in the region on next steps and 
how we can effectively help Iraq push back against ISIL's aggression.
    While it is evident that Iraq needs assistance to break ISIL's 
momentum, there is no military solution that will solve Iraq's 
problems. Any action we take would have to be done in conjunction with 
a serious and sincere effort by Iraqi leaders to govern in a 
nonsectarian manner; promote stability and unity among Iraq's diverse 
population; build and invest in the capacity of Iraq's Security Forces; 
and address the legitimate grievances of Iraq's Sunni, Kurd, and Shia 
communities. No short-term assistance we might provide--to include 
military action--will succeed absent a serious Iraqi political effort.
                            captured weapons
    Question. Media reports indicate that terrorist fighters were able 
to gain arms supplied by the United States during the capture of Iraq's 
second-largest city yesterday.

  <diamond> Who has these weapons?

    Answer. We are concerned by the reports of captured U.S. military 
equipment captured from the Iraqi Security Forces (ISF). We are working 
to confirm what material may have fallen into the Islamic State of Iraq 
and the Levant's (ISIL) hands. We are also following up on reports that 
Kurdish Peshmerga forces may have secured some of the equipment left 
behind by the Iraqi Army.
    At this time, we do not have information indicating that the loss 
of any equipment would constitute a violation of our agreements with 
Iraq regarding security and end-use of U.S.-provided equipment. 
However, we are aggressively following up on the issue. Halting the 
transfer of defense articles to the ISF because of these setbacks, 
though, would only decrease ISF capability and willingness to fight an 
enemy that endangers the stability of the region as well as our own 
national security.
    We take end-use monitoring of all U.S.-provided equipment very 
seriously. Our Office of Security Cooperation (OSC) works closely with 
senior Iraqi Ministry of Defense leadership to stress the importance of 
responsible use and stringent management of all weapons systems.

    Question. What weapons have the terrorist fighters obtained?

    Answer. The situation on the ground in Iraq is fluid, and we do not 
have confirmation of what may have fallen into ISIL's hands. Initial 
reports indicate that ISIL captured U.S. manufactured small arms, 
associated ammunition, and HMMWVs. We have not seen credible reports 
that ISIL captured any U.S. manufactured heavy combat equipment like 
M1A1 tanks or helicopters, although there are reports that ISIL 
captured some of Iraq's older, Russian-made tanks.

    Question. How capable are the terrorist fighters and the ISIS of 
effectively using those weapons and equipment?

    Answer. We assess that ISIL fighters are highly effective at 
employing small arms, crew-served weapons, and light tactical vehicles. 
They are likely less effective at using more complex weapons systems 
that require advanced operator and crew training as well as significant 
maintenance. ISIL would likely not be able to effectively employ 
advanced U.S. weapons systems like M1A1 tanks or helicopters. U.S. 
equipment, although the best in the world, requires advanced training, 
frequent maintenance, and a steady supply of spare parts--none of which 
ISIL possesses.

    Question. Do you believe that these weapons will make their way to 
Syria and support the Assad regime?

    Answer. Although ISIL may take some of the reportedly captured 
weapons to Syria, it is highly unlikely that any of the captured 
equipment will be used to support the Assad regime. ISIL is a violent 
Sunni extremist terrorist group with the stated goal of overthrowing 
the Assad regime and installing an Islamic caliphate from Lebanon to 
Baghdad. ISIL would employ any captured weapons against the Assad 
regime in Syria and against the Iraqi Security Forces and the Iraqi 
people in Iraq.
                             gtmo detainees
    Question. As you know, Jordanian officials recently rearrested a 
former Guantanamo detainee named Osama Abu Kabir for conducting 
terrorist activity. Kabir was initially picked up in Afghanistan in 
November 2001 and subsequently transferred to Guantanamo Bay. The 
United States at the recommendation of the Joint Task Force-GTMO 
released Kabir to Jordan in 2007 even though he was considered a ``high 
risk.''

  <diamond> Given your firsthand experience as an ambassador to a 
        country that has accepted high-risk Guantanamo Bay detainees, 
        what are some of the lessons learned that should be applied to 
        any future transfers?

    Answer. The USG has implemented a series of ``lessons learned'' 
from the early transfers from Guantanamo. All detainees currently 
designated for transfer have been extensively reviewed through an 
interagency process--comprised of military, national security, 
intelligence, law enforcement, counterterrorism, and foreign policy 
experts--and have been unanimously approved for transfer by the six 
agencies responsible for that review. This rigorous, updated review 
given to each detainee has resulted in a significantly lower recidivism 
rate than that prior to the 2009-10 interagency review process. We also 
obtain appropriate security assurances from the receiving nations.
                                 ______
                                 

           Responses of Robert Stephen Beecroft to Questions 
                   Submitted by Senator John Barrasso

                       egyptian-russian relations
    Question. How would you characterize the bilateral relationship 
between Egypt and Russia?

    Answer. The two countries maintain decades-old economic and 
military ties, with Russia a major source of tourists for Egypt and 
also a supplier of military equipment, primarily for air defense.

    Question. What is the reason for the recently increasing 
cooperation on energy, trade, and arms sales between Egypt and Russia?

    Answer. While there has been press speculation on increased 
activity between Egypt and Russia in areas such as arms sales, we have 
seen no confirmation of these claims. Even if the speculation is 
accurate, Egypt already has a long-standing relationship with Russia, 
and such cooperation would not represent a substantial change in that 
relationship.
    If confirmed, I will continue to emphasize to Egyptian officials 
the benefits of the U.S.-Egypt relationship to advancing our shared 
interests.

    Question. Do Egypt's expanding military and economic ties with 
Russia signal a larger shift in Egyptian foreign policy?

    Answer. While there has been press speculation on increased 
activity between Egypt and Russia, we have seen no confirmation of 
these claims. Egypt has a long-standing relationship with Russia on a 
variety of mutual interests, including economic and military ones, and 
such cooperation would not represent a substantial change in that 
relationship, nor would it be an area of concern for us. Egyptian 
officials have repeatedly told us that they value the U.S.-Egypt 
relationship, and a relationship with the United States provides unique 
benefits and capabilities not available through other partners.
    If confirmed, I will continue to press Egyptian officials on the 
benefits of the U.S.-Egypt relationship to advancing our shared 
interests, and I will make myself available to Congress to provide 
updates on the state of our relations with Egypt.
                               assistance
    Question. Is U.S. foreign assistance to Egypt still in the U.S. 
national interest? Why or why not?

    Answer. All U.S. assistance to Egypt, both military and economic 
assistance, supports the key U.S. interests of stability in Egypt and 
along the Egyptian-Israeli border; countering transnational threats, 
such as terrorism and weapons trafficking; ensuring safe Suez transit; 
promoting inclusive democratic institutions and protection of universal 
human rights; and supporting broad-based economic stability and growth. 
Continuing assistance to support these objectives--while also regularly 
reviewing how our assistance can better support our goals--remains in 
the U.S. interest.
    If confirmed, I look forward to consulting with Congress on ways 
our assistance can best be used to promote U.S. interests in Egypt.

    Question. Do you support reinstating all of the U.S. foreign 
assistance to Egypt? Which U.S. financial assistance is the most 
critical to the Government of Egypt?

    Answer. I support assistance to Egypt which is determined to best 
serve U.S. interests. As part of those interests, the United States has 
a pressing need to address Egypt's most critical sources of 
instability: its economy, particularly the need for private sector-led 
growth and youth employment, and its lack of sustainable democratic 
institutions. Our programs support basic and higher education; job 
creation; private sector development; democracy and civil society 
promotion; and improving health outcomes. Our FMF supports Egypt in its 
counterterrorism and border security efforts, including in the Sinai, 
adding to our ongoing counterterrorism and nonproliferation efforts 
supported through other assistance accounts. Our ongoing assistance 
review will also inform future assistance plans.
    If confirmed, I look forward to working with Congress on advancing 
U.S. interests in Egypt, including through our assistance programs.

    Question. What conditions need to be attached to U.S. foreign 
assistance to the Government of Egypt?

    Answer. While the Department of State does not support conditioning 
U.S. foreign assistance, the administration made clear the importance 
of credible progress toward an inclusive, democratically elected, 
civilian government to reviews of assistance to Egypt and release of 
held defense items. We are continuing to urge the Egyptian Government 
to make progress along those lines, including by urging President el-
Sisi to establish transparent, accountable, and responsive democratic 
institutions, based on rule of law and respect for the universal rights 
of all Egyptians, which will allow the participation of all voices and 
overcome the current political and social polarization in Egypt.
    If confirmed, I look forward to providing updates on the situation 
in Egypt and will consult with Congress closely as part of the ongoing 
assistance review.
                            egyptian economy
    Question. Is the Government of Egypt at risk of default?

    Answer. The Government of Egypt has not provided indications that 
it is considering default, and they have not defaulted in recent years 
when faced with similar fiscal pressures. It is true that Egypt 
continues to face economic challenges, including high expenditures, 
particularly subsidy costs, which are causing fiscal deficits to rise. 
External imbalances are also putting pressure on foreign currency 
reserves, and low economic growth has been exacerbated by disruptions 
in manufacturing and tourism. Egypt also continues to finance the 
deficit with domestic T-bills and Central Bank financing, which creates 
higher interest obligations for the government and poses an increased 
risk of inflation. Recent disbursements from the gulf have helped to 
temporarily relieve fiscal and exchange rate pressures.
    If confirmed, I will continue the State Department's work of 
emphasizing to the Government of Egypt that sustainable and credible 
reforms will set the stage for long-term stability and growth. I will 
work with our gulf partners and international financial institutions to 
emphasize a common call for reforms so that Egypt can move quickly to 
reduce its fiscal deficit and address external imbalances.

    Question. What issues must be addressed by the Government of Egypt 
in order to stabilize their internal security and improve their 
economic growth?

    Answer. The U.S. Government is urging Egypt to undertake credible 
and sustainable economic reforms to spur private sector-led growth, 
attract investment, and create jobs, especially for Egypt's youth. We 
are also urging the Egyptian Government to address its lack of 
inclusive and sustainable democratic institutions and to guarantee 
fundamental human rights as a means of combating radicalization and 
improving internal security.
    If confirmed, I will emphasize to Egyptian officials that issues of 
democracy, human rights, economic growth and development, security, and 
stability are all inextricably linked.
                           reforms and vision
    Question. What is President Sisi's vision for the future and top 
priorities?

    Answer. In his inauguration speech and initial statements, 
President el-Sisi made clear that his top priorities are strengthening 
the state, restoring security, combating corruption, promoting economic 
growth, and respecting human rights. He also noted that he planned to 
protect the rights of, and govern for, all Egyptians. As President el-
Sisi will surely be presented with multiple competing interests, he 
must seek to build institutions that will ensure all Egyptians can 
participate in the political process and provide clarity on Egypt's 
national priorities.
    If confirmed, I will work with President el-Sisi and his government 
to identify and refine our shared interests, and I will seek practical 
and effective ways that we can work together to achieve our common 
objectives. This includes working with the Egyptian Government to help 
demonstrate the benefits of pursuing political and economic reform.

    Question. How would you characterize the current state of religious 
freedom, freedom of speech, right to assembly, and the rule of law in 
Egypt?

    Answer. The Department of State and broader administration have 
repeatedly noted concerns about the current restrictive environment in 
Egypt, including on freedoms of expression, assembly, and religion and 
on issues of due process. Egypt's new constitution, passed in January 
2014, does guarantee basic freedoms, such as freedom of religion and 
the rights of women, but leaves much room for legislative and judicial 
interpretation that could curtail those freedoms. Both the State 
Department and the White House have consistently expressed concerns 
about the restrictive political environment in Egypt, including on 
limits to freedoms of peaceful assembly, association, and expression. 
In addition, the United States has made clear that it is the Egyptian 
Government's responsibility to ensure every citizen is afforded due 
process.
    I believe ensuring these rights is an essential element of any 
successful democracy and necessary for Egypt's stability and 
prosperity. Should I be confirmed as Ambassador, I will urge Egypt's 
leaders to ensure these freedoms for all Egyptians and press for the 
government to make good on its promise to govern inclusively, protect 
freedoms of the press, and allow open debate and free flow of 
information.

    Question. What is your assessment of the current Egyptian judicial 
system?

    Answer. The State Department has noted that Egypt's judicial system 
functions extremely slowly and is subject, in some cases, to political 
influence. Additionally, Egypt's new constitution permits military 
trials for civilians, which the United States has consistently opposed. 
We are also deeply concerned by the use of mass trials that deny 
individualized justice and due process and the preliminary death 
sentences against hundreds of people without due process. An 
independent and impartial judiciary is essential to any democracy and 
to the protection of individuals' rights and freedoms. It assures 
decisions based on law, rather than politics, and on democratic 
principles rather than current events.
    If confirmed, I would continue U.S. engagement with the Egyptian 
Government and society on the crucial role that judicial systems play 
in a democracy and on the government's responsibility to afford every 
citizen due process.

    Question. What actions would you take to address the continued use 
of mass trials and sentencing in Egypt?

    Answer. The White House and Secretary have both made clear that the 
denial of individualized justice and due process through mass trials 
and sentencing in Egypt is unconscionable, defying even the most basic 
standards of international justice. Mass trials and sentencing, 
including decisions by an Egyptian court to issue preliminary death 
sentences to hundreds of people, cannot be reconciled with Egypt's 
obligations under international human rights law.
    If confirmed, I will make clear our position to the Egyptian 
Government that they have the responsibility to ensure every citizen is 
afforded due process. While we respect that the Egyptian judiciary is a 
separate institution from the executive branch, I will urge Egypt's 
leaders to take a stand against proceedings that deny defendants 
individualized justice or violate due process and basic standards of 
international justice.
                          iranian overflights
    Question. As Ambassador to Iraq, what specific actions did you take 
to apply pressure on Iraq to stop Iranian overflights that are building 
and arming Iranian militias in Syria? What actions were the most 
effective? What actions were the least effective?

    Answer. Despite repeatedly declaring that it will not allow any 
party to transport arms and related materials through its airspace to 
Syria, the Government of Iraq has failed to take adequate steps to 
prevent Iran from overflying its territory to supply the Assad regime. 
Along with Secretary Kerry and other U.S. Government officials, I 
consistently urged the Prime Minister and senior Iraqi officials to 
either deny overflight requests or require flights to land in Iraq for 
credible inspections consistent with Iraq's international obligations.
    Secretary's Kerry's visit to Iraq in March 2013 as well as Prime 
Minster Maliki's meeting with the President in Washington, DC, later 
that year resulted in a temporary increase in Iraq's inspections of 
flights bound for Syria.
    In a few specific cases, we were able to provide detailed 
information in advance regarding flights carrying objectionable 
cargoes, and the Iraqi Government was generally more cooperative in 
denying overflight. We continue to engage every level of the Iraqi 
Government on this very important issue and to press them to fulfill 
their international obligations to deny overflight clearance or require 
aircraft to land for inspections.

    Question. Why has the Government of Iraq failed to stop the flow of 
Iranian arms from going to the Syrian regime?

    Answer. Despite statements from Iraqi leaders condemning the flow 
of foreign fighters and weapons through and from Iraqi territory, we 
know that Iran continues to supply arms to the Syrian regime in 
violation of the U.N. Security Council prohibition against selling or 
transferring arms and related materials through flights over Iraqi 
territory.
    Iraqi leaders have cited Iraq's lack of an air interdiction 
capability, stating they have neither fighter aircraft nor ground-based 
interceptors that could defend Iraq's airspace and force any transiting 
aircraft to land for inspections. Additionally, senior Iraqi officials 
have argued that the collapse of the Assad regime would create an even 
greater security vacuum and strengthen ISIL, which would further 
increase the ongoing terrorist threat to Iraq.

    Question. As Ambassador to Iraq, how did you engage with our gulf 
partners to stop these overflights?

    Answer. I frequently met with foreign ambassadors resident in 
Baghdad, including those ambassadors resident from Gulf States, and 
urged them to engage the Iraqi Government and press it to prevent the 
use of Iraq's airspace to resupply the Assad regime.

    Question. What is the relationship between Iraq and Iran?

    Answer. Despite decades of mutual mistrust stemming from the Iran-
Iraq war, Iran continues to try and forge closer political and economic 
ties with Iraq in part to expand and deepen its sphere of influence. 
There have been high-level visits between Iranian leaders and the 
Government of Iraq, including the Kurdistan Regional Government. Iraq 
is one of Iran's top-five trading partners, with bilateral trade of 
approximately $6 billion in 2013. Iran also supplies about 11 percent 
of Iraq's electricity. The two countries have also signed an 
extradition treaty (this does not include the Mujahedin-e Khalq members 
still in Iraq), and recently resumed negotiating border issues going 
back to the 1975 Algiers Accord.

    Question. What kind of influence does Iran have either politically 
or economically in Iraq?

    Answer. As noted in the answer to the previous question, Iran and 
Iraq have economic and political relations. They also have significant 
disagreements over border, water, investment, visa, and other issues. 
For example, while Iran is an influential neighbor, Iraq does take 
actions that run counter to Iranian interests, such as increasing oil 
production just as Iranian exports were being taken off the market due 
to U.S. and EU sanctions. Had Iraq not done so, worldwide oil prices 
would have spiked, hurting U.S. consumers and likely leading to a 
reduction in the impact of sanctions on Iran. In another example, Iraq 
has fully supported the U.S. position on converting Syrian chemical 
weapons production facilities in Syria. (Iraq, in fact, has an expert 
on the Organization for the Prohibition of Chemical Weapons staff.) 
Iraq has also ratified the Comprehensive Nuclear Test Ban Treaty and 
the Additional Protocol, which requires inspections of nuclear 
facilities.
                           security situation
    Question. What was the security situation on the ground in Iraq 
when President Obama withdrew the last American troops from Iraq?

    Answer. Although dramatically improved since the 2007 troop surge, 
Iraq remained a violent country when U.S. military forces departed in 
December 2011. Approximately 4,400 Iraqis were killed each year in 2011 
and 2012, most in attacks by violent extremist groups led by the 
Islamic State of Iraq and the Levant's (ISIL) predecessor, Al Qaeda in 
Iraq (AQI). While this violence was persistent and targeted, it did not 
threaten the stability of the state or threaten to rekindle civil war.
    However, 2011 and 2012 also witnessed the escalating civil conflict 
in Syria, inflamed by regional rivalry and opportunism by terrorist 
groups. AQI--rebranding to call itself ISIL--reemerged in Syria as one 
of the most organized and lethal terrorist groups exploiting the 
conflict and loss of state authority there. Primarily focused in Syria 
in 2012, ISIL was able to reconstitute itself from the losses it had 
suffered against U.S. military and Iraqi Security Forces, setting the 
stage for the group to shift its resources and focus back to Iraq in 
2013. Flush with resources, recruits, weapons, and training, ISIL 
slowly began to execute increasingly sophisticated and frequent attacks 
inside Iraq from its safe-havens in Syria. Violence in Iraq ticked up 
toward the end of 2012, but did not accelerate until early 2013, 
including a marked rise in suicide bombings.

    Question. At what point did you first determine that there was a 
significant problem of security deterioration in Iraq?

    Answer. Although the U.S. interagency had been watching ISIL with 
growing concern since the start of the civil war in Syria, in early 
2013 we began to see ISIL shift more of its resources and focus from 
Syria to Iraq. In 2012, Iraq witnessed an average of 5-10 ISIL suicide 
attacks per month. By the summer of 2013, Iraq was averaging 30-40 
suicide attacks per month, which were increasingly coordinated and 
effective attacks. On March 14, 2013, for example, five ISIL suicide 
bombers attacked and took hostages in the Ministry of Justice in 
Baghdad, controlling the building for several hours before detonating 
themselves. This was the first in a series of sophisticated military-
style operations throughout 2013, with suicide bombers used to clear a 
path, followed by well-trained fighters to take and hold an objective.
    These attacks increased throughout 2013, devastating the political 
discourse in the country, further fueling mistrust from political 
leaders to ordinary citizens, and making the tangible reforms that Iraq 
needed to reconcile its society even harder to reach. Taking advantage 
of the instability it was causing, ISIL then seized parts of Anbar 
province including the cities of Ramadi and Fallujah in early January 
2014, intensifying what has been a constant counterterrorism offensive 
by the Government of Iraq. Although ISIL has long operated in Mosul and 
northern Iraq, its recent, sudden, large-scale offensive there further 
escalated the fight, dramatically demonstrating the existential threat 
that we have been assisting the Government of Iraq to combat.

    Question. What action, if any, did you take when you determined 
that the security situation in Iraq had deteriorated?

    Answer. As the ISIL threat increased, we took several steps to 
increase counterterrorism assistance with Iraq and to build a 
foundation for future, expanded security cooperation. Military efforts 
alone cannot defeat ISIL. We have encouraged a holistic 
counterterrorism approach with the Government of Iraq, fusing political 
and security efforts. We have urged the recruitment of tribal leaders 
and greater Sunni incorporation into the military ranks to reduce 
sectarian tensions. In early 2014, Prime Minister Maliki pledged that 
Sunni tribal fighters injured or killed in the conflict with ISIL would 
receive the same benefits as members of the Iraqi Security Forces.
    To increase Iraq's military capabilities, we expanded training in 
Iraq and Jordan, provided military advice, enhanced information-sharing 
relationships, and sought opportunities to increase border security.
    Additionally, with the support of Congress, we have expedited 
shipments of weapons, equipment, and ammunition to Iraq's military. 
Recent shipments included the delivery of 300 Hellfire missiles, 
thousands of helicopter-fired rockets, thousands of rounds of tank 
ammunition, thousands of machine guns, grenades, flares, sniper rifles, 
and M16 and M4 rifles to the Iraqi Security Forces. We also delivered 
additional Bell IA-407 helicopters late last year and 10 Scan Eagle 
surveillance platforms are on schedule for delivery this summer. The 
Iraqis have told us that our equipment and advice is making a critical 
difference. In particular, the Hellfire missiles are the most effective 
airborne weapon the Iraqis have, and they have been using them to great 
effect.

    Question. When the President ordered the last withdrawal of troops 
from Iraq, did that improve or diminish our ability to predict changes 
in the security situation in Iraq?

    Answer. The withdrawal of U.S. forces was consistent with the 2008 
U.S.-Iraq Security Agreement. It honored our commitment to Iraqi 
sovereignty and began a new chapter in our partnership. The follow-on 
U.S military force discussed in 2011 was a primarily a small training 
contingent that would not have had a significant impact on our ability 
to predict changes in Iraq's security situation.

    Question. Based on your previous experience as Ambassador to Iraq, 
what are your recommendations to prevent a similar deterioration of 
security in Afghanistan once the United States withdraws its troops 
from Afghanistan in 2016?

    Answer. We believe that at the end of 2016, the Afghan National 
Security Forces (ANSF) will be capable of maintaining security in 
Afghanistan with the continued international financial assistance 
pledged at the NATO summit in Chicago. The ANSF took the lead for 
security around the country in June 2013, have lost no significant 
ground to the insurgents since that time, and have won the trust of 
Afghan citizens in their ability to protect them, which was manifest in 
the high turnouts for both rounds of the elections despite determined 
Taliban efforts to disrupt the electoral process and intimidate voters.
    While the situation in Iraq is cautionary, it differs from that in 
Afghanistan in some important ways. The withdrawal of our forces from 
Iraq in 2011 was consistent with the U.S.-Iraq Security Agreement 
signed in late 2008, honoring our commitment to Iraqi sovereignty. We 
could not reach agreement on key issues that would allow our troops to 
stay in Iraq, the people did not want U.S. forces to remain, and it was 
the mutual decision of both countries to start a new chapter in our 
partnership under the Strategic Framework Agreement. By contrast, in 
Afghanistan, the people overwhelmingly want us to stay, to the extent 
that every single contender in the Presidential election said he would 
sign the Bilateral Security Agreement (BSA).
    In addition, the international community has made a range of 
significant commitments to Afghanistan that extend well into the future 
that will continue to shore up the military and civilian sides of the 
Afghan Government as well as support Afghan civil society.
                                 ______
                                 

              Responses of Dana Shell Smith to Questions 
                   Submitted by Senator John Barrasso

    Question. GTMO Recidivism.--In March 2014, the Director of National 
Intelligence released the most recent recidivism rate on Guantanamo 
detainees who have been released. Out of the total of 614 transferred 
detainees, 104 are confirmed to have reengaged in hostilities and 74 
are strongly suspected of returning to the fight. We are now at a 29-
percent recidivism rate for released GTMO detainees.

  <diamond> With a 29-percent recidivism rate, do you believe releasing 
        five high-level Taliban operational commanders is in the 
        interest of U.S. national security and the security of our 
        allies?

    Answer. The administration's policy is clear: we will not transfer 
any detainee from Guantanamo unless the threat the detainee may pose to 
the United States or U.S. persons or interests will be sufficiently 
mitigated. The Secretary of Defense, in coordination with the 
President's national security team, determined that the transfer was in 
the national security interest of the United States and that the threat 
posed by the detainees to the United States or U.S. persons or 
interests would be substantially mitigated. Although we cannot publicly 
detail all of the assurances we received from the Government of Qatar, 
they were sufficient to meet these requirements. The national security 
team was unanimous in endorsing this transfer.
    The previous administration transferred over 500 detainees from 
Guantanamo. This administration has now transferred 89 detainees. There 
are 149 detainees remaining at Guantanamo, including 78 eligible for 
transfer. The DNI has concluded that 18.6 percent of detainees 
transferred by the prior administration have been confirmed, under the 
IC's definition, to have engaged in terrorist or insurgent activities 
and an additional 13.5 percent are suspected of having done so. The DNI 
has found that only 6.1 percent of detainees transferred under this 
administration have been confirmed to have engaged in terrorist or 
insurgent activities, with another 2.4 percent suspected of having done 
so. The dramatic reduction in reengagement rate--over 90 percent of 
detainees transferred in this administration are not confirmed or even 
suspected of having reengaged--is a reflection of the President's 
strong and continuing commitment to transferring detainees from 
Guantanamo Bay responsibly and consistent with our national security 
interests.
    The President's position is clear: The Guantanamo facility weakens 
our national security by wasting our resources, damaging our 
relationships with key allies and partners, and emboldening violent 
extremists--and that this administration will continue to pursue 
appropriate dispositions for the detainees remaining, based on the 
facts and circumstances of each case and consistent with our national 
security interests. This includes transferring detainees abroad when 
the threat the detainee may pose can be sufficiently mitigated and when 
consistent with our humane treatment policy.

    Question. In your preparation for the position of U.S. Ambassador 
to Qatar, have you been briefed on any of the security measures that 
will be put in place by the Qatari Government to prevent the five 
recently released Taliban detainees from returning to the battlefield?

    Answer. Following completion of the transfers and prior to my 
confirmation hearing, I was able to view the classified U.S.-Qatar 
Memorandum of Understanding governing the transfers. This MOU has also 
been made available to Members.

    Question. United Nations War Crimes.--Two of the five Taliban 
detainees are wanted by the United Nations in connection with possible 
war crimes that include the murder of thousands of Shiite Muslims in 
Afghanistan under the rule of the Taliban.

  <diamond> Has the United States ever knowingly released a detainee 
        that is wanted by the United Nations for possible war crimes?
  <diamond> Do you believe it is appropriate for the United States to 
        release individuals that are wanted by the United Nations for 
        committing war crimes?

    Answer. As I have been briefed, the United Nations has neither 
established, nor authorized, any tribunal that would have jurisdiction 
over war crimes committed in Afghanistan. Accordingly, the United 
Nations has not undertaken criminal investigations, nor has it sought 
or obtained arrest warrants for individuals accused of war crimes in 
Afghanistan and thus we know of no individuals who are wanted by the 
United Nations for war crimes committed in Afghanistan.

    Question. Qatar Terrorism Financing.--According to the State 
Department 2013 Country Reports on Terrorism, ``Qatar's monitoring of 
private individuals' and charitable associations' contributions to 
foreign entities remained inconsistent. Qatari-based terrorist 
fundraisers, whether acting as individuals or as representatives of 
other groups, were a significant terrorist financing risk and may have 
supported terrorist groups in countries such as Syria.''

  <diamond> While Qatar has taken steps to improve its terrorism 
        financing laws and enforcement, do you believe there are 
        security measures in place to prevent the Taliban Five from 
        using Qatar as a fundraising safe haven?

    Answer. The administration's policy is clear: we will not transfer 
any detainee from Guantanamo unless the threat the detainee may pose to 
the United States or U.S. persons or interests will be sufficiently 
mitigated. The Secretary of Defense, in coordination with the 
President's national security team, determined that these transfers 
were in the national security interest of the United States and that 
the threat posed by the detainees to the United States or U.S. persons 
or interests would be substantially mitigated. Although we cannot 
publicly detail all of the assurances we received from the Government 
of Qatar, they were sufficient to meet these requirements. In addition 
to the travel ban, the transferred individuals will be subject to 
security measures in Qatar that will substantially mitigate the risk 
they might pose to U.S. interests. We are confident that the Qataris 
will enforce the restrictions agreed upon and these individuals will be 
restricted from activities that could pose a threat to our national 
security.

    Question. Qatar Capabilities to Mitigate the Risk.--In 2005, a 
Guantanamo detainee was transferred to Kuwait with the promise that the 
country would mitigate the risk of him returning to terrorist activity. 
In 2008, he exploded a truck bomb near an Iraqi army base, killing 13 
Iraqi soldiers and himself.

  <diamond> In what ways is Qatar more capable than Kuwait of 
        mitigating the risk that a transferred Guantanamo detainee may 
        reengage in terrorist activity?

    Answer. Although we cannot publicly detail all of the assurances we 
received from the Government of Qatar, in addition to a travel ban, the 
transferred individuals will be subject to security measures in Qatar 
that will substantially mitigate the risk they might pose to the United 
States or U.S. persons or interests. We are confident that the Qataris 
will enforce the restrictions agreed upon and these individuals will be 
restricted from activities that could pose a threat to our national 
security.

    Question. In your written testimony, you stated: ``We are confident 
that the security measures that have been put in place, including 
restrictions placed on the activities of the individuals, will 
substantially mitigate any threat that the individuals may pose to our 
national security.''

  <diamond> Please describe the specific security measures that have 
        been put in place.
  <diamond> What restrictions are placed on the activities of the 
        individuals?
  <diamond> What specific requirements did the United States request 
        from the Government of Qatar?
  <diamond> Were all of the security measures requested by the United 
        States agreed to and implemented prior to the release of the 
        detainees?

    Answer. While we cannot publicly detail all of the assurances we 
received from the Government of Qatar, we required that certain 
security measures be put in place to substantially mitigate the threat 
that these individuals may pose to the United States and our interests. 
Those demands were met, and we are confident that the Qataris will 
enforce the restrictions agreed upon and these individuals will be 
restricted from activities that pose a threat to our national security. 
The classified U.S.-Qatar Memorandum of Understanding governing the 
transfers has been made available to Members.

    Question. Are you confident that these five Taliban detainees will 
not pose any threat to our national security after 1 year when they are 
fully free to travel and return to the fight?

    Answer. The President and his national security team, including the 
Secretary of Defense, the Secretary of State, and the Director of 
National Intelligence, all concurred that the assurances we received 
from the Qataris were sufficient to substantially mitigate the threat 
these individuals may pose to the United States or U.S. persons or 
interests. That is not to say they may never rejoin the Taliban 
movement. But the threat they may pose to the National Security of the 
United States has been mitigated to the satisfaction of our top 
military commanders and national security advisors.
    This is not a decision the President made lightly; many actions 
were taken to restrict the activities of these individuals. As the 
President said, we have confidence that we will be in a position to use 
appropriate tools to pursue these individuals if, in fact, they are 
engaging in activities that threaten our national security. The 
President would not have determined that the transfer should go forward 
if he thought it was contrary to U.S. national security interests.

 
NOMINATIONS OF MARK LIPPERT, JONATHAN STIVERS, THEODORE OSIUS, AND JOAN 
                               POLASCHIK

                              ----------                              


                         TUESDAY, JUNE 17, 2014

                                      U.S. Senate ,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Mark William Lippert, of Ohio, to be Ambassador to the Republic 
        of Korea
Jonathan Nicholas Stivers, of the District of Columbia, to be 
        an Assistant Administrator of the Bureau for Asia, 
        United States Agency for International Development
Theodore G. Osius III, of Maryland, to be Ambassador to the 
        Socialist Republic of Vietnam
Joan A. Polaschik, of Virginia, to be Ambassador to the 
        People's Democratic Republic of Algeria
                              ----------                              

    The committee met, pursuant to notice, at 3 p.m., in room 
SD-419, Dirksen Senate Office Building, Hon. Benjamin L. Cardin 
presiding.
    Present: Senators Cardin, Murphy, Kaine, Rubio, and McCain.
    Also present: Senator Patrick J. Leahy.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. First, let me welcome you all to the Senate 
Foreign Relations Committee hearing on four very important 
nominees to represent the United States in diplomacy and in our 
foreign assistance.
    We thank each one of our nominees for their willingness to 
serve our country, and I particularly want to thank their 
families. We will ask that you introduce the members of your 
family before you start your formal presentations, but we 
recognize that this is a family commitment and we thank you 
very much for your willingness to serve our country.
    So today we will hear from the President's nominees: Mark 
Lippert to the Republic of Korea to be Ambassador; Theodore 
Osius to be Ambassador in Vietnam; Jonathan Stivers, Assistant 
Administrator of the Bureau for Asia at USAID; and Joan 
Polaschik, Ambassador to Algeria. We welcome all of you to our 
committee.
    I have the honor of chairing the Subcommittee on East Asian 
and Pacific Affairs. In three of the cases here, your direct 
responsibility will be in that region. So it is a particular 
pleasure that Senator Menendez has allowed me to chair this 
hearing.
    I notice that we do have the distinguished President Pro 
Tem of the United States Senate, the chairman of the Judiciary 
Committee, Senator Leahy, with us. It is always a pleasure to 
have Senator Leahy in our midst. He is one of the great Members 
of the U.S. Senate. And I am going to allow him to introduce 
Mr. Lippert.

              STATEMENT OF HON. PATRICK J. LEAHY, 
                   U.S. SENATOR FROM VERMONT

    Senator Leahy. Well, thank you very much, Mr. Chairman. Of 
course, you and I have been friends for so many years both in 
your previous service and as a Senator. And I appreciate you 
doing this. I also appreciate the work of Chairman Menendez and 
Ranking Member Corker.
    I do not do this very often, but today I really wanted to 
be here to introduce Mark Lippert, President Obama's nominee to 
be U.S. Ambassador to the Republic of Korea. I have talked to 
an awful lot of Senators over the years about Mark's character 
and intellect, but I also just want to say on the record my 
admiration for his dedication as a public servant, not only as 
a former member of my staff, but as a naval officer, as a 
senior staff member of the National Security Council and 
Department of Defense, but also because he and his wife, Robyn, 
are dear friends.
    His qualification to serve as Ambassador to South Korea is 
extensive. He worked on foreign policy on the Appropriations 
Committee. He worked for me and advised me and helped our 
committee. And he has military service. He worked at the 
Pentagon, the White House. His breadth of knowledge and 
perspective on security, economic, humanitarian challenges we 
face in East Asia and the Pacific are significant.
    He is a graduate of Stanford University. He earned a 
masters degree in international relations.
    While I will put my whole statement in the record, I 
remember when he was here in the Appropriations Committee 
focusing on U.S. policy in East Asia where he has traveled many 
times.
    While he was serving in my office, he decided to join the 
Navy, which was a lifetime goal of his. Now, it was not 
required. We do not have a draft. He just wanted to do that and 
did and did it very, very well. And I just want to dwell on 
this just for a moment because I advocate for members of the 
National Guard and Reserves with Senator Lindsey Graham. Mark 
is an example of a true citizen soldier. He deployed twice, 
once to Iraq, once to Afghanistan. This is not somebody who 
just reads about it. He does it.
    When he left my office, he was working for a former 
colleague of ours, a first-term Senator from Illinois, who was 
racking up some frequent flyer miles to Iowa. But he helped 
that former Senator, but then that Senator left us and went on 
to an executive position, some would say the executive 
position. But I have heard then-Senator, now President Obama, 
speak so highly of Mark Lippert.
    Now, Mark, like I, married above himself, married a 
Vermonter, his wife, Robyn. And both of them have achieved so 
much in their life.
    So I just think at a time--I just came back from a trip not 
in Korea but in China and in Vietnam, and I know how important 
that area is. I will now add South Korea to my agenda once we 
have the new Ambassador there.
    Mr. Chairman, I am just going to be so pleased when I can 
cast my vote for him on the floor.
    Senator Cardin. Thank you very much, Senator Leahy. I just 
really want to join you in thanking Mr. Lippert for his 
willingness to come forward.
    You have a very impressive resume of public service, 
including in our military. We had a chance to talk and I am 
very impressed with your command of the subject and your 
knowledge of the complexities of our relationship with the 
Republic of Korea and how important that bilateral relationship 
is for our interests in the region and globally.
    Senator Leahy, thank you very much for joining us. I 
appreciate it.
    Let me introduce the other three of our nominees.
    I know that Senator Rubio will be joining us shortly as the 
ranking member of this hearing, and I will yield to him when he 
is here.
    Jonathan Stivers, I have known you since your days with 
David Bonior when I was in the House of Representatives, and I 
have always been impressed by your commitment to public service 
and your competency. I am very proud of what you have been able 
to accomplish and your being prepared for this important 
nomination as an Assistant Administrator of the Bureau for Asia 
at USAID.
    Jonathan is currently a senior advisor to the House 
Democratic Leader, Nancy Pelosi, a position he has held since 
2011. Mr. Stivers has also served as senior advisor to Leader 
Pelosi in the Office of the Speaker of the House of 
Representatives, the Office of the House Democratic Leader, and 
the Office of the House Democratic Whip. Previously, he served 
as Leader Pelosi's senior legislative assistant and press 
secretary. Prior to this, he was a staff assistant in the 
Office of the Democratic Whip David Bonior and a campaign 
assistant for David Bonior for the U.S. Congress.
    He received his bachelor's degree from Michigan State 
University and a Masters in international policy and practice 
from the George Washington University, Elliott School of 
International Affairs.
    Welcome, and we appreciate your coming forward.
    The next person is Mr. Theodore Osius from my home State of 
Maryland. I should have read that first because I would have 
introduced you first, if I realized you were the only 
Marylander on the panel. [Laughter.]
    But you certainly have priority as the President's nominee 
to represent us in Vietnam. I was just recently in Vietnam and 
I had a chance to meet with our Embassy personnel, and it is a 
critically important partnership for the United States, both in 
Hanoi and Ho Chi Minh City where we have a consulate office. 
The United States is very much valued by Vietnam and the 
opportunities there are incredible.
    Mr. Osius is a career member of the Foreign Service, class 
of minister and counselor, and is an Assistant Professor at the 
National War College, a position he has held since 2013. He was 
a senior fellow at the Center for Strategic and International 
Studies from 2012 to 2013. Prior to that, Mr. Osius served as 
the deputy chief of mission at the U.S. Embassy in Jakarta, 
Indonesia; Political Minister, Counselor at the U.S. Embassy in 
New Delhi, India; Deputy Director of the Office of Korean 
Affairs in the Bureau of East Asia and Pacific Affairs; and 
Regional Environmental Officer at the U.S. Embassy in Bangkok. 
He has also served as a senior advisor in International Affairs 
in the Office of the Vice President at the White House.
    Mr. Osius received his degrees from Harvard University and 
the School of Advanced International Studies at Johns Hopkins 
University. He knows Vietnam well. He speaks the language and 
has served in Vietnam in both our consulate in Ho Chi Minh City 
and our Embassy in Hanoi. Perhaps most importantly, he is a 
Marylander well prepared for this position, and we thank you 
for your long, distinguished service to our country.
    We are also pleased to be joined by Ms. Joan Polaschik, the 
nominee for Ambassador to the People's Democratic Republic of 
Algeria. Ms. Polaschik is a career member of the Foreign 
Service, class of counselor, and currently serves as the 
Director of the Office of Egypt and Levant Affairs at the U.S. 
Department of State, a position she has held since 2013. She 
has also served as Acting Director in the Office of Israel and 
Palestinian Affairs in the Bureau of Near Eastern Affairs; 
deputy chief of mission at the U.S. Embassy in Tripoli, Libya; 
counselor for the political and economic affairs at the U.S. 
Embassy in Baku, Azerbaijan; and Regional Refugee Coordinator 
based at the U.S. Embassy in Amman, Jordan. You have a long and 
distinguished career serving our country.
    You also served as the Iran Desk Officer and Staff 
Assistant in the Bureau of Near Eastern Affairs. Your other 
assignments have included political officer in the U.S. Embassy 
in Tunis, Tunisia; and counselor and general service officer at 
the United States Embassy in Tashkent, Azerbaijan. So you have 
really gotten around the entire region.
    You received your B.A. from the University of Virginia and 
M.S. from Georgetown University.
    It is a pleasure to have all four of you here.
    We will start with Mr. Lippert. If you have members of your 
family that are with you today, we would welcome your 
introductions, and then you may proceed as you wish. As is the 
tradition of this committee, your formal written statements 
will be made part of our record. You may proceed as you so 
desire.

    STATEMENT OF HON. MARK WILLIAM LIPPERT, OF OHIO, TO BE 
              AMBASSADOR TO THE REPUBLIC OF KOREA

    Mr. Lippert. Thank you, Mr. Chairman.
    My wife, Robyn, is right there, if she can stand up. She is 
a former Hill staffer herself, worked for Senator Leahy on the 
Judiciary Committee, and we actually met up here on the Hill.
    Mr. Chairman, I will be very brief here and will ask 
consent to put my full statement in the record.
    I will just simply say I am deeply honored to appear before 
you as the President's nominee to serve as U.S. Ambassador to 
the Republic of Korea. I am humbled by the confidence the 
President and the Secretary of State have shown in putting me 
forward for this nomination.
    Having proudly served as a personal representative of the 
member to this committee, it is very meaningful to be back in 
this committee room today. In large part through my service on 
Capitol Hill, which spanned nearly a decade, I am keenly aware 
that the close partnership with Congress is critically 
important to success in diplomacy, and if confirmed, I pledge 
always to be a strong partner and friend of this committee.
    I would also like to thank my former boss, Senator Leahy, 
for his gracious introduction. I know how busy he is juggling 
his many important responsibilities.
    Please also let me say a few words about my lovely wife. 
She has been the best partner that anyone could ask for and has 
patiently put up with years of military deployments to Iraq, 
Afghanistan, and elsewhere, long hours at the Pentagon and the 
National Security Council, and the intensity of work at the 
Senate Foreign Relations and Appropriations Committees.
    Mr. Chairman, simply put, the alliance between the United 
States and the Republic of Korea is one of the most important 
relationships that we have in the world. Through my many visits 
to the Republic of Korea, I have come to greatly respect the 
people and culture of South Korea. Our two countries share 
deeply held values of free markets, democracy, and respect for 
human rights and the rule of law. And we share a common history 
of fighting together to uphold these values and to defend our 
security.
    I am proud to say that our ties between the two countries 
have never been stronger. If confirmed, I pledge to work 
tirelessly in close partnership with this committee to make our 
alliance even stronger.
    As the former Assistant Secretary of Defense in the Asia-
Pacific, I have had the opportunity to work closely with our 
South Korean allies, commanding generals of the United States 
Forces Korea, and senior members of our diplomatic team. I have 
seen the enduring strength of this relationship firsthand.
    Mr. Chairman, my statement goes on to talk about the shared 
threats of North Korea, the economic challenges, and the great 
men and women who work at the U.S. Embassy. And with consent, I 
would ask to put my full statement in the record.
    Senator Cardin. Without objection, your entire statement 
will be made part of the record, as will, as I indicated a 
little bit earlier, the statements of the other three nominees.
    [The prepared statement of Mr. Lippert follows:]

               Prepared Statement of Mark William Lippert

    Chairman Cardin, Senator Rubio, distinguished members of the 
committee, I am deeply honored to appear before you as the President's 
nominee to serve as U.S. Ambassador to the Republic of Korea. I am 
humbled by the confidence the President and the Secretary of State have 
shown in putting me forward for this nomination.
    Having proudly served as a personal representative of the member to 
this committee, it is very meaningful to be back in this committee room 
today. In large part through my service on Capitol Hill, which spanned 
nearly a decade, I am keenly aware that close partnership with Congress 
is critically important to success in diplomacy. And if confirmed, I 
pledge to always be a strong partner and friend to this committee.
    I would also like to thank my former boss, Senator Leahy, for his 
gracious introduction. I know just how busy he is juggling his many 
important responsibilities.
    Please let me also say a few words about my wife. As Senator Leahy 
mentioned, I met Robyn when we worked together on Capitol Hill. She has 
been the best partner that anyone could ask for and has patiently put 
up with years of military deployments to Iraq, Afghanistan, and 
elsewhere, long hours at the Pentagon and the National Security 
Council, and the intensity of work for the Senate Foreign Relations and 
Appropriations Committees.
    Members of the committee, simply put: the alliance between the 
United States and the Republic of Korea is one of the most important 
relationships that we have in the world. Through my many visits to the 
Republic of Korea, I have come to greatly respect the people and 
culture of the Republic of Korea. Our two countries share deeply held 
values of free markets, democracy, and respect for human rights and the 
rule of law. And we share a common history of fighting together to 
uphold these values and to defend our security.
    I am proud to say that the ties between our two countries have 
never been stronger. If confirmed, I pledge to work tirelessly, in 
close partnership with this committee, to make our alliance even 
stronger.
    As the former Assistant Secretary of Defense for the Asia-Pacific, 
I have had the opportunity to work closely with our South Korean 
allies, Commanding Generals of United States Forces Korea, and senior 
members of our diplomatic team. I have seen the enduring strength of 
this alliance firsthand.
    I continue to be vigilant about the stark threat that North Korea 
poses the U.S. homeland, to security on the peninsula, in the region, 
and around the world--including through its continued pursuit of 
nuclear weapons and ballistic missile technology, its worldwide 
proliferation activities, and egregious human rights violations against 
its own citizens.
    If confirmed, I will work closely with the leadership of the 
Republic of Korea to ensure we are fully aligned in our efforts to 
achieve the complete and verifiable denuclearization of North Korea and 
prevent proliferation of key technologies. I have built a good working 
relationship with General Scaparrotti, the Commander of U.S. Forces 
Korea, and if confirmed, look forward to partnering closely with him 
and the Department of Defense as they work to strengthen our deterrence 
on the peninsula and ensure that the 28,500 U.S. troops stationed there 
are ready to ``fight tonight,'' if necessary.
    Although our alliance was established with a mutual commitment to 
security, our nations have built deep and growing economic ties. The 
U.S.-Korea Free Trade Agreement, or KORUS FTA, is now in its 3rd year, 
and American and Korean consumers, businesses, and workers have 
benefited from it. Last year, the United States achieved a large 
investment surplus with the Republic of Korea, and U.S. goods exports 
are up 11.7 percent this year so far. That said, the full potential of 
the FTA has yet to be fully realized; more tariff cuts and additional 
provisions will come into force in the years to come. If confirmed, I 
will work to ensure the KORUS FTA is fully implemented so that American 
exporters, entrepreneurs, and workers can receive the benefits for 
which this administration negotiated so hard.
    This alliance is also increasingly tackling global challenges as 
well. Our global partnership includes cooperation on everything from 
counterterrorism and counterpiracy to climate change and development. 
The United States is also negotiating a successor 123 civil nuclear 
cooperation agreement with South Korea that will allow us to continue 
our cooperation in this field, while maintaining our strong 
nonproliferation standards.
    Finally, our strong people-to-people ties reinforce our shared 
values and interests. Each year, the Republic of Korea sends more 
university students to the United States per capita than any other 
major country. We have innovative exchange programs between our 
students and our science experts. If confirmed, I will make public 
diplomacy a top priority and work to foster these exchanges and bring 
more Korean education and tourism dollars to the United States. And if 
confirmed, I will be proud to also represent the over 1.7 million U.S. 
citizens that are of Korean descent and who contribute vitally to the 
deepening ties between our peoples.
    Our Embassy in Seoul has a talented team comprised of career 
diplomats, civil servants from a range of U.S. agencies, and local 
Korean staff who are dedicated to advancing U.S. interests every day. 
If confirmed, I will work to ensure my team has the resources, 
training, and guidance to strengthen and broaden our alliance with the 
Republic of Korea.
    Mr. Chairman, the U.S.-ROK alliance is the linchpin of security and 
prosperity on the Korean Peninsula, in the Asia-Pacific, and around the 
world. Being nominated to represent the United States in Seoul is the 
honor of my lifetime, and if confirmed I will work night and day to 
advance this critical relationship.
    Thank you very much for your consideration of my nomination, and I 
look forward to taking your questions.

    Senator Cardin. Mr. Stivers.

  STATEMENT OF JONATHAN NICHOLAS STIVERS, OF THE DISTRICT OF 
 COLUMBIA, TO BE AN ASSISTANT ADMINISTRATOR OF THE BUREAU FOR 
    ASIA, UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT

    Mr. Stivers. Chairman Cardin, it is an honor to appear 
before you today as President Obama's nominee for the Assistant 
Administrator for Asia at USAID. I am grateful for the trust 
placed in me by President Obama and Administrator Shah.
    I am joined today by my wife, Ramsey Alwin, and my 
daughters, Josephine and Parker, who were making a little bit 
of noise back there.
    Senator Cardin. I did not know who it was, but it is 
perfectly OK. She is adorable.
    Mr. Stivers. The best decision I made in my life was 
convincing Ramsey to marry me. Her support is my bedrock, and 
everything I do professionally is in the hope that someday my 
daughters will be proud of their father.
    I would also like to thank my family who could not be here 
today: my father, Richard Stivers; my mother, Sharon Stivers; 
and my siblings, Adam and Emily Stivers.
    I would also like to recognize Denise Rollins, the Acting 
Assistant Administrator of the Asia Bureau, who has served our 
country for 25 years with great distinction, and Nisha Biswal, 
who previously served as the Assistant Administrator for Asia.
    I am particularly honored to be appearing before you, 
Chairman Cardin. I had the opportunity to see your work behind 
the scenes and up close in the House of Representatives, 
promoting human rights on the Helsinki Commission and promoting 
free and fair trade on the Ways and Means Committee.
    For the last 15 years, it has been a privilege to work on 
Asia policy and our foreign assistance initiatives. I believe 
that this experience in the legislative branch and my 
background in Asia have prepared me well for the 
responsibilities of USAID's Asia Bureau. I will always be 
grateful that Leader Nancy Pelosi placed her faith and trust in 
me to lead on foreign policy priorities in her office.
    USAID's Asia Bureau works in 32 countries--excluding 
Afghanistan and Pakistan--with a program budget of 
approximately $1.1 billion.
    In a time of budget constraint, USAID is effectively 
leveraging funding by building public-private partnerships and 
taking advantage of science and innovation. If confirmed, I 
pledge to work tirelessly to ensure that U.S. taxpayer money is 
spent effectively and wisely in the pursuit of our national 
interests.
    The President's Asia Rebalance recognizes that our future 
prosperity and security are inextricably tied to this region. 
It is a pivotal time for U.S. policy in Asia. It is a vibrant, 
diverse region with some of the strongest and fastest growing 
economies in the world. The region has enormous development 
challenges with over a majority of the world's poor and hungry, 
susceptibility to natural disasters, and democracy and human 
rights concerns.
    If confirmed, I will place a premium on four key 
priorities: promoting resilient democratic societies; 
institutionalizing the Presidential Initiatives, Feed the 
Future, Global Health, and Global Climate Change; supporting 
basic education and empowerment for women and girls; and 
fostering greater regional economic connectivity.
    First, we know that government by the people offers the 
best chance for freedom and prosperity. I believe that the 
solutions to the challenges facing Asia will ultimately come 
from the people of Asia themselves, and our best chance in 
promoting democratic change is to empower the reformers by 
helping them build institutions that can withstand 
nondemocratic events.
    Second, Administrator Shah has provided exemplary 
leadership in promoting President Obama's three initiatives. We 
have seen tremendous development gains in the Asia region, and 
if confirmed, I will make it a priority to build upon these 
gains in food security, health, and the environment.
    Third, the empowerment of women and girls through education 
is one of the most effective development tools to boost 
economic growth and to provide for a fair society. I have 
promoted basic education in my current position, and if 
confirmed, this will continue to be a key priority.
    And finally, we must continue to promote an effective 
regional architecture that strengthens regional stability, 
connectivity, and economic growth through regional initiatives 
such as USAID's Almaty Consensus and the Lower Mekong 
Initiative.
    Four years ago, President Obama set forth a new vision of 
results-driven development, and USAID has risen to this 
challenge. If I am fortunate enough to be confirmed, I will 
tirelessly pursue policy solutions that make our foreign 
assistance more effective in line with this new model.
    During my almost two decades of working in the legislative 
branch, I have learned the importance of engagement with 
Congress, and if confirmed, I can assure you that I will seek 
out, early and often, advice and guidance from you and your 
staff.
    Thank you again for the opportunity to appear before you 
today, and I welcome any and all questions you may have.
    [The prepared statement of Mr. Stivers follows:]

            Prepared Statement of Jonathan Nicholas Stivers

    Chairman Cardin, Ranking Member Rubio, distinguished members of the 
committee, it is an honor to appear before you today as President 
Obama's nominee for Assistant Administrator for Asia at the United 
States Agency for International Development (USAID). I am grateful for 
the trust placed in me by President Obama and Administrator Shah.
    I am joined today by my wife, Ramsey Alwin, and my daughters, 
Josephine and Parker. The best decision I made in life was convincing 
Ramsey to marry me. Her encouragement and support is my bedrock. 
Everything I do in my professional life is in the hope that someday my 
daughters will look back and be proud of their father. I also would 
like to thank my family who could not be here today, my father, Richard 
Stivers, my mother, Sharon Stivers, and my siblings, Adam and Emily 
Stivers.
    I would like to also recognize Denise Rollins, the Acting Assistant 
Administrator of the Asia Bureau who has served our country with great 
distinction for over 25 years, and Nisha Biswal, the current Assistant 
Secretary of State for South and Central Asia, who previously served as 
USAID's Assistant Administrator for Asia, for her advice and guidance 
throughout the process.
    For the last 15 years, it has been a privilege to work on Asia 
policy and our foreign assistance initiatives at the highest levels of 
the U.S. Congress. I believe that my experience in the legislative 
branch and my background in Asia have prepared me well for the 
responsibilities of leading USAID's Asia Bureau. I will always be 
grateful that Leader Nancy Pelosi placed her faith and trust in me to 
lead on foreign policy priorities in her office. I am proud to have 
played a leadership role on numerous legislative initiatives including 
the landmark reauthorization of PEPFAR that tripled funding levels to 
fight global AIDS, the JADE Act that tightened sanctions on the Burmese 
Government after the Saffron Revolution, and the initial development 
assistance inside Tibet and to the then newly created country of East 
Timor.
    For almost two decades, my second home has been in Congress. Over 
the years I have learned that initiatives are strongest when they are 
bipartisan, that open communication, transparency, and trust are 
crucial between the administration and Congress, and that making the 
case for foreign assistance in a manner that relates to the everyday 
lives of the American people is essential. I can assure you that, if 
confirmed, I will proactively reach out to Congress to ensure that we 
are working together to promote our national interests and our values.
    I believe deeply in USAID's mission of partnering to end extreme 
poverty and promote resilient democratic societies while advancing our 
security and prosperity. The moral case alone is reason to address 
these global challenges, but in a more interdependent world, we are 
preventing instability, fighting extremism, stopping the spread of 
infectious diseases while promoting economic and job growth at home.
    Administrator Shah's strong leadership is rebuilding USAID as the 
world's premier development agency. In a time of budget constraint, 
USAID is effectively leveraging funding by building public-private 
partnerships, utilizing multilateral and regional approaches, and 
taking advantage of science and innovation. If confirmed, I pledge to 
work tirelessly with the dedicated men and women of USAID to ensure 
that U.S. taxpayer money is spent effectively and wisely.
    USAID's Asia Bureau works in 32 countries--excluding Afghanistan 
and Pakistan--with a program budget of approximately $1.1 billion. It 
is an exciting and pivotal time for U.S. policy in Asia. Asia is a 
vibrant, diverse region with some of the strongest and fastest growing 
economies in the world. The region includes mature, consolidating, 
budding, and troubled democracies, along with authoritarian 
governments, struggling post-conflict nations, and emerging regional 
powers--all in the shadow of the rise of a great power.
    The development challenges in Asia are enormous. Home to half of 
the world's population, the Asia region also struggles with 60 percent 
of the world's hungry and 70 percent of the world's malnourished 
children. The region is susceptible to natural disasters and the 
effects of climate change, pollution, and pandemics. It has a vast 
array of governance difficulties including fragile institutions, human 
rights concerns, gender inequality, and human trafficking challenges 
that hold back the region from achieving its full potential. At the 
same time, trade volume in Asia is expected to double in the next 
decade, and by 2050, the region's share of global GDP is predicted to 
almost double.
    The President's Asia Rebalance recognizes that our future 
prosperity and security are inextricably tied to this region. At its 
core, the rebalance policy is about strengthening our relationships 
with countries, and more specifically the people of the region. If 
confirmed, I will place a premium on four key priorities: promoting 
resilient, democratic societies; institutionalizing the Presidential 
Initiatives--Feed the Future, the Global Health Initiative, and the 
Global Climate Change Initiative; supporting basic education and 
empowerment for women and girls; and fostering greater regional 
economic connectivity.
    First, we know that government by the people offers the best chance 
for freedom and prosperity. The United States also has stronger 
partnerships with stable, democratic countries that respect human 
rights. Fighting extreme poverty is often less a question of funding 
but in effectively addressing the underlying structural problems of 
governance that hold back many developing countries from becoming 
resilient, democratic societies.
    I believe that the solutions to the challenges facing Asia will 
ultimately come from the people of Asia themselves and that our best 
chance in promoting democratic change is to empower the reformers by 
helping them build institutions that can withstand nondemocratic 
events.
    Over the next 3 years we will learn a lot about democracy in Asia 
as many countries will hold national elections. Already this year, 
India has experienced the largest democratic exercise in human history, 
and next month, Indonesia, the most populous Muslim-majority country, 
will mark another significant democratic milestone with the expected 
transfer of political power. While the recent elections in Bangladesh, 
unrest in Thailand, and unrealized democratic hopes in Cambodia 
represent challenges for democracy, the expected national elections in 
Burma, Nepal, the Kyrgyz Republic and the Philippines will further 
determine the future of democracy in Asia.
    But democracy promotion is more than elections. USAID has been 
active in the region doing the difficult work strengthening civil 
society, providing technical support for good governance, combating 
corruption and promoting human rights.
    Second, Administrator Shah has provided exemplary leadership in 
promoting President Obama's three initiatives--Feed the Future, the 
Global Health Initiative, and the Global Climate Change Initiative.
    Through Feed the Future, USAID is supporting country driven 
approaches that address the root causes of poverty and hunger by 
focusing on agricultural productivity. We know that growth in 
agriculture is at least twice as effective at reducing poverty as other 
sectors. For example, in Bangladesh, a country with one of the highest 
malnutrition rates in the region, USAID has trained hundreds of 
thousands of small farmers on improved technologies and increased crop 
yields by 20 percent through a fertilizer deep placement project. In 
Cambodia, new horticulture techniques have raised household incomes of 
over 7,000 farmers by an average of 250 percent. This type of 
assistance is particularly valuable because it promotes economic growth 
while at the same time feeding hungry and malnourished men, women, and 
children.
    The Global Health Initiative is aimed at addressing regional health 
priorities, including ending preventable child and maternal deaths, 
preventing the spread of HIV/AIDS, tuberculosis and malaria, as well as 
improving surveillance and response capacity for pandemic influenza and 
other emerging threats.
    In February 2014, U.S. Secretary of State John Kerry highlighted 
the urgency of addressing climate change. In a region of the world that 
experiences over 60 percent of the world's natural disasters, and with 
more than 10 billion pounds of airborne pollutants from Asia reaching 
the United States annually, it is imperative that we continue to reduce 
emissions from deforestation, promote sustainable and resilient 
societies, and foster clean energy in the Asia through the Global 
Climate Change Initiative.
    If confirmed, I will make it a priority to build upon these gains 
in food security, health, and environmental well-being for both the 
people of Asia and the United States.
    Third, the empowerment of women and girls through education is one 
of the most effective development tools and one of the best strategies 
to boost economic growth. While many Asian countries have recently made 
progress, nearly 20 million children in Asia--a third of the world's 
children--do not have access to primary school. Millions of children in 
Asia lack basic reading and writing skills thereby holding back the 
region for reaching its full potential. I am proud to have promoted 
basic education while in Congress and, if confirmed, this will continue 
to be a key priority. As Administrator Shah noted on International 
Women's Day, ``If we are going to truly achieve the goal of ending 
extreme poverty by 2030, we cannot leave behind half of the global 
population. We have to invest in women and girls as champions of 
development who can lift their families out of extreme poverty.''
    And finally, we must continue to promote an effective regional 
architecture that strengthens regional stability, connectivity and 
economic growth through regional initiatives such as USAID's Almaty 
Consensus which supports the New Silk Road Initiative by increasing 
regional economic connectivity between South and Central Asia to 
bolster Afghanistan's stability; the Lower Mekong Initiative that 
provides a regional forum the development challenges that cross 
national boundaries; and by working with regional institutions such as 
ASEAN and APEC.
    I would like to highlight a few priority countries where USAID 
operates.
    In Bangladesh, the 2013 Rana Plaza collapse sparked outrage all 
over the world. Members of Congress led the way in calling for action 
to address labor and building safety conditions in the country. I 
played a role in this effort on a staff level working to call on 
corporations to improve building safety standards in Bangladesh and 
asking the administration to suspend the Generalized System of 
Preferences program until reforms are made. Please be assured that, if 
confirmed, workers' rights and safety will be a high priority for me 
throughout the region.
    In Burma, we have seen historic political and economic reforms 
during this critical period of transition. The country faces a long and 
difficult road ahead, as transitions are never smooth nor are they ever 
easy. The next 2 years will be challenging in regards to national 
reconciliation and the national election in 2015. The USAID mission in 
Burma--which was reopened in 2012--is committed to supporting reform 
that will bring lasting peace, stability, justice and improve the 
welfare of the people of Burma. If confirmed, my priorities in Burma 
will be to deepen USAID's engagement with civil society, expand 
economic opportunity, support reconciliation efforts, help the country 
prepare for the 2015 national elections, and continue providing 
humanitarian assistance to the most vulnerable in the country.
    In India, USAID helped secure a major success in the battle against 
polio when the World Health Organization officially removed India from 
the list of countries where the disease was active. In the coming 
years, USAID hopes to move more toward a 21st century partnership where 
USAID and India join together in tackling development challenges both 
in India and in the region.
    When Typhoon Haiyan hit the Philippines, USAID had already been 
working for decades to strengthen disaster management and response 
capabilities. A USAID team was prepositioned, enabling an immediate 
response and ensuring a coordinated relationship between USAID, the 
Department of Defense, and other USG actors. Through relief efforts, 
USAID provided food assistance to more than 3 million people and helped 
save countless lives. If confirmed, I will continue to make both short- 
and long-term assistance to the Philippines a top priority.
    While Vietnam is an emerging power with a high economic growth rate 
and a strategic position in the region, it is also a country with 
serious human rights concerns. USAID is continuing to focus its 
assistance to support the Vietnamese people as they confront the 
significant challenges they face related to health, susceptibility to 
climate change, and natural disasters. USAID also supports programs 
focused on economic governance and trade, and addressing legacies of 
the war between our two countries through the remediation of dioxin 
contamination.
    Four years ago, President Obama set forth a new vision of results-
driven development focused on achieving measureable results. Under the 
visionary leadership of Administrator Shah, USAID has risen to this 
challenge, pioneering a new model of development that brings a greater 
emphasis on partnerships, innovation, and results. In conclusion, if I 
am fortunate enough to be confirmed to this position, I will tirelessly 
pursue policy solutions that make our foreign assistance more effective 
in line with this new model.
    During my almost two decades working in the legislative branch, I 
have learned the importance of engagement with Congress and, if 
confirmed, I can assure you that I will seek out, early and often, 
advice and guidance from you and your staff.
    Thank you again for the opportunity to appear before you today, and 
I welcome any and all questions you might have.

    Senator Cardin. Thank you for your testimony.
    Mr. Osius.

    STATEMENT OF THEODORE G. OSIUS III, OF MARYLAND, TO BE 
        AMBASSADOR TO THE SOCIALIST REPUBLIC OF VIETNAM

    Mr. Osius. Mr. Chairman, it is an honor to appear before 
you today as the President's nominee to be the next Ambassador 
to Vietnam.
    I am very pleased that members of my family, including my 
mother, Nancy Zimmerman; my spouse, Clayton Bond; our 6-month-
old son, Taybo; my sister Meg; cousin Deborah; cousins, Dick 
and Kate; and dear friends, Louise, David and Sam and Amy have 
all been able to join us here today.
    I am very grateful to you, the Senator from Maryland, for 
chairing this hearing.
    This, sir, is a dream come true for me. Early in my career, 
I had the privilege of supporting Pete Peterson, the first U.S. 
Ambassador to Vietnam following normalization, as he laid the 
foundation for a new relationship between our two nations. I 
represented Al Gore on the team that prepared a bilateral trade 
agreement with Vietnam. And I accompanied President Bill 
Clinton on his historic visit there.
    I have served in Asia for most of my 25 years in the 
Foreign Service. A highlight was helping lead the small team 
that opened our post in Ho Chi Minh City, formerly Saigon. I 
relished the chance to make friends for America in a land that 
once reminded Americans only of conflict.
    I traveled all over Vietnam, once riding a bicycle 1,200 
miles from Hanoi to Saigon. In the former demilitarized zone, I 
stood on a bridge gazing at what appeared to be ponds dotting 
the landscape. An older woman said in Vietnamese that those 
were not ponds, but places where bombs had been dropped, 
including on her village. When I told her that I represented 
the Government and people of the United States, she replied 
using the familial terms that make Vietnamese such an intimate 
language: ``Hom nay, chung ta la anh chi em.'' Today you and I 
are brother and sister.
    From those beginnings, I witnessed our relationship with 
Vietnam grow into an important partnership, founded on mutual 
respect and shared strategic interests.
    As Secretary Kerry said, ``A strong, prosperous, and 
independent Vietnam that respects the rule of law and human 
rights will be a critical partner for the United States.'' 
While in the Senate, John Kerry joined with Senator John McCain 
to ensure that Americans could see Vietnam not just as a war, 
but as a nation and a people the United States could work with 
peacefully. They looked beyond the bomb craters and they saw 
hope for the future.
    Their work included ensuring the fullest possible 
accounting of servicemen we lost in Vietnam, and we must 
complete that process honorably. Our history with Vietnam is a 
tough one, and even today we face real differences. If 
confirmed, I will face those differences squarely and directly 
with the leaders in Hanoi. I will say that when Vietnam's 
Government respects human rights, it will grow stronger, not 
weaker, and our partnership's potential will grow as well. I 
will press the government to protect universal human rights, 
including by releasing prisoners of conscience and by making 
systemic changes so that Vietnam can fully integrate within the 
world community because even as in families, differences can be 
worked out and history can be overcome.
    If confirmed, I will strive to strengthen the ties that 
bind our peoples. Those linkages between people are central to 
the comprehensive partnership launched by President Obama and 
President Sang last year. Educational exchange is a good 
example. Already 16,000 Vietnamese study in the United States.
    Trade is another key element of the relationship. Two-way 
trade continues to grow from $451 million in 1995 to nearly $30 
billion last year. The successful conclusion of the high-
standard Trans-Pacific Partnership agreement will further 
deepen this trade and strategic relationship, bringing Vietnam 
into a community of nations that comprises 40 percent of world 
GDP.
    If confirmed, I will also maintain a firm commitment to the 
safety and security of all staff working for our mission.
    Half of the world's ship-based cargo passes through the 
South China Sea. The United States has a national interest in 
the unfettered flow of commerce and in freedom of navigation 
and overflight in these waters. We have a deep stake in 
ensuring that the territorial and maritime disputes in the 
South China Sea are solved without coercion, force, or 
intimidation, and in accordance with international law. 
Unfortunately, we have seen lately a pattern of unilateral 
steps by China to advance its territorial and maritime claims.
    The U.S. Congress plays a vital role in turning our 
difficult past with Vietnam into a promising future. If 
confirmed, I look forward to hosting many of you, I hope, in 
Hanoi.
    Thank you once again for considering my nomination for this 
challenging and rewarding opportunity to continue to serve the 
United States of America.
    [The prepared statement of Mr. Osius follows:]

              Prepared Statement of Theodore G. Osius III

    Mr. Chairman, members of the committee, it is an honor to appear 
before you today as the President's nominee to be the next Ambassador 
to Vietnam.
    I am very pleased that members of my family and dear friends are 
able to join us today. I am grateful to the Senator from Maryland for 
chairing this hearing, and grateful to all of you for considering my 
nomination.
    This is a dream come true for me. Early in my career I had the 
privilege of supporting Pete Peterson, the first U.S. Ambassador to 
Vietnam following normalization, as he laid the foundation for a new 
relationship between our two nations. I represented Vice President Al 
Gore on the team that prepared a bilateral trade agreement with 
Vietnam, and I accompanied President Bill Clinton on his historic visit 
there.
    I have served in Asia for most of my 25 years in the Foreign 
Service. A highlight was helping lead the small team that opened our 
post in Ho Chi Minh City, formerly Saigon. I relished the chance to 
make friends for America in a land that once only reminded Americans of 
conflict.
    I traveled all over Vietnam, once riding a bicycle 1,200 miles from 
Hanoi to Saigon. In the former demilitarized zone, I stood on a bridge, 
gazing at what appeared to be ponds dotting the landscape. An older 
woman said in Vietnamese that those were not ponds, but places where 
bombs had been dropped, including on her village. When I told her that 
I represented the government and people of the United States, she 
replied using the familial terms that make Vietnamese such an intimate 
language: ``Hom nay, chung ta la anh chi em.'' You and I are now 
brother and sister.
    From those beginnings, I witnessed our relationship with Vietnam 
grow into an important partnership, founded on mutual respect and 
shared strategic interests.
    As Secretary Kerry said last year in Hanoi, ``a strong, prosperous, 
and independent Vietnam that respects the rule of law and human rights 
will be a critical partner for the United States on many regional and 
global challenges.'' While in the Senate, John Kerry joined with 
Senator John McCain to ensure that Americans could see Vietnam not just 
as a war, but as a nation and a people the United States could work 
with peacefully. They looked beyond the bomb craters and saw hope for 
the future.
    Their work included ensuring the fullest possible accounting of 
servicemen we lost in Vietnam, and we must complete that process 
honorably. Our history with Vietnam is a tough one, and even today we 
face real differences. If confirmed, I will face those differences 
squarely and directly with the leaders in Hanoi. I will say that when 
Vietnam's Government respects human rights it will grow stronger, not 
weaker, and our partnership's potential will grow as well. I will press 
the government to protect universal human rights, including by 
releasing prisoners of conscience and by making systemic changes, so 
that Vietnam can fully integrate with the world community. Because even 
as in families, among brothers and sisters, differences can be worked 
out, and history can be overcome.
    If confirmed, I will strive to strengthen the ties that bind our 
peoples. Those linkages between people are central to the Comprehensive 
Partnership launched by President Obama and President Sang last year. 
Educational exchange is a good example; already 16,000 Vietnamese study 
in the United States, and others attend the Fulbright Economics 
Training Program in Ho Chi Minh City.
    Trade is another key element of the relationship. Two-way trade 
continues to grow--from $451 million in 1995 to nearly $30 billion last 
year. The successful conclusion of the high-standard Trans-Pacific 
Partnership agreement will further deepen this trade and strategic 
relationship, bringing Vietnam into a community of nations that 
contributes 40 percent of world GDP.
    Under the Comprehensive Partnership, our two nations are working to 
support peace, stability, cooperation, and prosperity in the Asia-
Pacific. We have expanded our work with Vietnam in areas such as 
security, nonproliferation, and law enforcement. If confirmed, I intend 
to continue the efforts of my predecessors to broaden and deepen our 
engagement. I will also maintain a firm commitment to the safety and 
security of all staff working for our mission.
    Half of the world's ship-based cargo passes through the South China 
Sea. The United States has a national interest in the unfettered flow 
of commerce and in freedom of navigation and overflight in these 
waters.
    We have a deep stake in ensuring that the territorial and maritime 
disputes in the South China Sea are solved without coercion, force, or 
intimidation and in accordance with international law. Unfortunately, 
we have seen lately a pattern of unilateral steps by China to advance 
its territorial and maritime claims, the latest of which is China's 
introduction of an oil rig into disputed waters near Vietnam.
    The U.S. Congress plays a vital role in turning our difficult past 
with Vietnam into a promising future. If confirmed, I look forward to 
hosting many of you in Hanoi. Thank you, once again, for considering my 
nomination for this challenging and rewarding opportunity to continue 
to serve the United States of America.

    Senator Cardin. Thank you very much for your testimony.
    Ms. Polaschik.

 STATEMENT OF JOAN A. POLASCHIK, OF VIRGINIA, TO BE AMBASSADOR 
         TO THE PEOPLE'S DEMOCRATIC REPUBLIC OF ALGERIA

    Ms. Polaschik. Mr. Chairman, members of the committee, 
thank you for the opportunity appear before you today. I am 
honored that President Obama has nominated me to be the U.S. 
Ambassador to Algeria, and I deeply appreciate the confidence 
that he and Secretary Kerry have shown by making this 
nomination.
    With your permission, Mr. Chairman, I would like to take a 
moment to thank my family: my mom, Marion Polaschik; my sister, 
Anne; her husband and son, Keith and Grant, are here today. 
They have been a tremendous support throughout my career, and I 
am very grateful to them.
    Mr. Chairman, the United States has a robust partnership 
with Algeria. If confirmed by the Senate, I will advance the 
following policy priorities: working with the Government of 
Algeria to counter the threat of terrorism and strengthen 
regional stability; increasing commercial ties; boosting civil 
society and democratic institutions; and working with the 
Algerian Government to support the reforms necessary to 
Algeria's long-term stability.
    As Ambassador, I will make my top priority the protection 
of the people who serve in U.S. Embassy Algiers and all 
Americans who live and work in Algeria.
    The Government of Algeria is a steadfast partner in our 
counterterrorism efforts. It is a member of the Global Counter-
terrorism Forum and the Trans-Sahel Counter-terrorism 
Partnership and is working with its neighbors to stabilize the 
broader Maghreb and Sahel region, including through training 
programs in Mali and Niger and close cooperation with Tunisia. 
If confirmed, I will work to support and expand these efforts.
    Algeria is a critical supplier of energy to global markets. 
It has potentially vast untapped shale gas reserves, and its 
government is eager to partner with U.S. firms to develop them.
    Beyond oil and gas, Algeria is working to diversify its 
economy, and there is significant potential for U.S. companies, 
particularly in the energy generation, pharmaceuticals, 
manufacturing, and machinery sectors. If confirmed, I will 
advocate for American companies in all of these areas.
    Algeria has an important role to play in strengthening 
relations between North and sub-Saharan Africa and its 
mediating role in conflicts around the continent remains vital. 
Algeria would gain from increasing trade within the region, and 
its willingness to lead in this area will be critical to 
realizing regional integration, including with Morocco. To that 
end, we appreciate Algeria's support for the U.N.-led 
negotiations over the disputed territory of the Western Sahara.
    Unlike other countries in the region, Algeria did not 
experience the upheaval of the Arab Spring. President 
Bouteflika introduced political reforms in 2011 and recently 
announced a series of constitutional amendments to further 
develop Algeria's political system. If confirmed, I will make 
it a priority to work with the Algerian Government and people 
as they take the next steps in negotiating, adopting, and 
implementing reforms that will strengthen Algeria's long-term 
stability.
    I thank you, Mr. Chairman and members of the committee, for 
this opportunity to address you. I am deeply honored to have 
been selected to lead the team at U.S. Embassy Algiers, a 
dynamic, hardworking, and dedicated group working on the front 
lines of U.S. policy. If confirmed, I hope I will have many 
opportunities to host you and your colleagues in Congress in 
Algiers. I would be pleased to address any questions you may 
have. Thank you.
    [The prepared statement of Ms. Polaschik follows:]

                Prepared Statement of Joan A. Polaschik

    Chairman Cardin, Ranking Member Rubio, members of the committee, 
thank you for the opportunity to appear before you today. I am honored 
that President Obama has nominated me to be the U.S. Ambassador to 
Algeria, and I deeply appreciate the confidence he and Secretary Kerry 
have shown by making this nomination.
    With your permission, Mr. Chairman, I'd like to take a moment to 
thank my family, which has been a tremendous support throughout my 
career. My mother, Marion Polaschik, and my sister, Anne, and her 
husband and son, Keith and Grant Barcal, have provided love, support, 
and a place to stay no matter where I was in the world and no matter 
how much worry I caused them by pursuing challenging assignments. I'm 
very grateful to them.
    Mr. Chairman, the United States has a robust and multifaceted 
partnership 
with the people and Government of Algeria. I am fortunate to be 
nominated at a 
time when the potential for expanding that bilateral relationship has 
never been stronger. In April 2014 we completed the latest round of our 
Strategic Dialogue, and just 2 weeks ago the Secretary of Energy 
visited Algeria to lead the U.S. delegation to the Algeria 
International Trade Fair--where the United States was the guest of 
honor for the first time. If confirmed by the Senate, I will continue 
to advance our key U.S. foreign policy interests in Algeria. They are: 
(1) working with the Government of Algeria to counter the threat of 
terrorism and strengthen the stability of the Maghreb and Sahel 
regions; (2) increasing commercial ties between the United States and 
Algeria; (3) boosting civil society and democratic institutions; and 
(4) working with the Algerian Government to support the political and 
economic reforms necessary to ensure Algeria's long-term stability. And 
as Ambassador, I will make my priority the protection of the people who 
serve in U.S. Embassy Algiers, and all Americans who live and work in 
Algeria.
    We know that we work in a dangerous part of the world, and I am 
pleased to report that the Algerian Government is deeply committed to 
the safety and security of our personnel and facilities, and has been 
extremely responsive to our requests for security support.
    Mr. Chairman, the relationship between the United States and 
Algeria continues to grow stronger. Since 9/11, our nations have joined 
together in the struggle against violent extremism. Algeria is on the 
front lines of the battle against violent extremism, having suffered 
the scourge of terrorism since the 1990s, and most recently in the 
attack on the gas-production facility near In Amenas in January 2013. 
The Government of Algeria understands the need to remain vigilant 
against those who wish to do us harm and is a steadfast partner in our 
counterterrorism efforts including as an active participant in the 
Global Counter-terrorism Forum and the Trans-Sahel Counter-terrorism 
Partnership. While terrorist activity in Algeria has decreased since 
the dark decade of the 1990s, the Algerian Government knows as well as 
the United States that violent extremism remains a threat. President 
Bouteflika was the first Arab leader to call President Bush following 
the terrorist attacks on 9/11, reflecting our shared view of the 
dangers posed by terrorism. This call was an expression of support that 
led to even greater cooperation.
    Today, Algeria is working with its neighbors to stabilize the 
broader Maghreb and Sahel region. Algeria has taken positive steps to 
help train security forces in countries like Mali and Niger in the 
Sahel. Algeria has also provided airlift support to African 
peacekeeping troops. The Algerian military has taken action to secure 
its eastern border to combat smuggling and weapons proliferation. 
Tunisia and Algeria have formed a close security relationship to 
aggressively confront violent extremists. We continue to engage with 
Algeria about the security situation in Libya and the challenge of 
foreign fighters in Syria as well. If confirmed, I will work to support 
these efforts.
    While counterterrorism and security remain the cornerstone of our 
relationship, in recent years we have expanded beyond CT to form a 
robust diplomatic, political, and economic partnership as well. In 
recent years, we have held two bilateral Strategic Dialogues, former 
Secretary Clinton visited Algeria twice, Secretary Kerry just visited 
in April 2014, and Energy Secretary Moniz opened the U.S. pavilion of 
the Algerian International Trade Fair--where 80 companies and 
organizations represented our commercial and economic interests in 
Algeria. These visits and dialogues are indicative of our rapidly 
expanding commercial and social ties.
    As one of the largest oil and gas producers in the Middle East and 
Africa, Algeria is a critical supplier of energy to Europe and global 
markets. Algeria has significant remaining energy resources and 
potentially vast untapped unconventional hydrocarbon resources, and its 
government is eager to partner with U.S. firms, whose expertise in this 
sector is unparalleled in the world. If confirmed, I will advocate for 
U.S. companies who can partner with Algeria to safely develop shale gas 
and other resources to ensure stability in global energy markets and 
bring further development and prosperity to the people of Algeria.
    Beyond oil and gas, Algeria is interested in diversifying its 
economy, and there is significant potential in the Algerian market for 
U.S. companies. Last year General Electric won a contract worth several 
billion dollars to develop Algeria's electricity sector. U.S. companies 
in the fields of pharmaceuticals, manufacturing, and machinery are 
investing in Algeria and have won multimillion dollar deals in recent 
years.
    Algeria has long had a significant political and diplomatic role in 
Middle Eastern and African affairs--it is literally at the confluence 
of Africa, the Mediterranean, and the Arab world. Algeria is a key 
player in the Arab League, the African Union, and the Organization of 
the Islamic Conference. It is a long-standing member of the 
Organization of Petroleum Exporting Countries and a founding member of 
the New Economic Partnership for African Development. Algeria is also 
active in the Arab Maghreb Union, which has the potential to bring the 
Maghreb states closer together.
    Algeria has an important role to play in strengthening relations 
between North and sub-Saharan Africa, and its mediating role in 
conflicts around the continent will remain vital to finding peaceful 
solutions there. Algeria has forgiven the debt of multiple African 
countries, and is looking for ways to boost economic development of its 
neighbors to the south. Algeria would gain from increasing trade within 
the region, and its willingness to lead in this area will be critical 
to realizing long-held dreams of regional integration, including with 
Morocco. To that end, we appreciate Algeria's support for the U.N.-led 
negotiations over the disputed territory of the Western Sahara. We also 
welcome Algeria's participation in the U.S.-Africa Leaders summit later 
this summer. I know the President looks forward to genuine dialogue 
with leaders of African nations, and we look forward to hearing from 
Prime Minister Abdelmalek Sellal--who will represent Algeria--about the 
many ways that Algeria stands ready to partner with and support its 
neighbors on the continent.
    Unlike other countries in the region, Algeria did not experience 
the upheaval of the Arab Spring. President Bouteflika introduced 
political reforms in 2011, and recently announced a series of 
constitutional amendments to further develop Algeria's political 
system. If confirmed, I will make it a priority to work with the 
Algerian Government and people as they take the next steps in 
negotiating, adopting, and implementing reforms that will strengthen 
Algeria's long-term stability.
    The potential of the Algerian people is limitless. As Secretary 
Kerry saw firsthand during his recent trip, the people of Algeria are 
eager to partner with the United States to develop people-to-people 
ties. We have expanded our cultural connections with Algeria, including 
boosting English Language Education, increasing opportunities for 
Algerians to study in the United States, and develop other educational 
exchange opportunities. Additionally, programs like those promoted by 
the Middle East Partnership Initiative help build civil society and 
will help bring our countries even closer together. If confirmed, I 
will work with the Algerian Government and people to continue and 
expand these programs.
    Mr. Chairman, I have had the great honor of serving as a Foreign 
Service officer for the last 20 years. I have worked in and on the 
Middle East, North Africa, and Central Asia, focusing on countries that 
present some of the same challenges and rich opportunities that exist 
in Algeria. My previous assignments in Azerbaijan and Libya provided an 
extensive background in the counterterrorism and energy issues that are 
critical to our partnership with Algeria, while multiple tours in 
transitional and post-conflict countries have instilled a profound 
appreciation for the importance of political and economic reform to 
long-term stability, and for the power of people-to-people diplomacy to 
build lasting partnerships.
    I thank you, Mr. Chairman, ranking member Rubio, and members of the 
committee, for this opportunity to address you. I'm deeply honored to 
have been selected to lead the team in U.S. Embassy Algiers, a dynamic, 
hard-working, and dedicated group working on the front lines of U.S. 
policy. If confirmed, I hope I will have many occasions to host you and 
your colleagues in Congress in Algiers. I would be pleased to address 
any questions that you may have.

    Senator Cardin. I thank you and I thank again all four of 
you for your testimony and your appearance here.
    As I said at the beginning of the hearing, this panel 
represents two of our three pillars of national defense, that 
is, diplomacy and development assistance. And that is by far 
the best return we get from the point of view of the dollars 
that are invested in our national security. So we look at each 
of you as critically important players in advancing the 
national security of the United States.
    Mr. Osius, let me start with you. You and I have had a 
chance to chat, and I very much appreciate your career 
commitment to the Foreign Service and what you have been able 
to do to advance U.S. interests.
    Vietnam is a very interesting country. They truly want to 
develop a much closer tie to the United States for many 
reasons. The security issue in the China Sea is one reason and 
their relationship with China, which is problematic right now 
because of the incident concerning the oil rig, is another 
reason. And they look at the United States as a reliable 
partner. So they were anxious to get into the TPP, which would 
be really revolutionary in the sense that we have a 
multilateral agreement that involves countries at different 
levels of development. And that issue was brought home to me in 
my conversations with the leaders of Vietnam.
    I made it clear that there needs to be advancements in good 
governance and human rights in order to see the type of 
strategic partnerships between the United States and Vietnam 
that both countries would like to see.
    Ambassador Shear has been very direct with the Vietnamese 
about this issue. As you and I have commented, he has that 
little card he points out with his checklist. I just would like 
to get your observations as to how you see your role, if 
confirmed, in advancing the U.S. objectives of improving the 
strategic ties between our two countries but doing it mindful 
that good governance and human rights must be improved.
    Mr. Osius. Thank you very much, Mr. Chairman. And may I 
thank you very much for the time that you invested in traveling 
to Vietnam. It was very clear from the reception that you 
received that they knew they were welcoming a heavyweight. They 
wanted very much to have constructive conversations with you, 
and by all reports, it was a terrific trip. So thank you so 
much for taking the time to travel there.
    On TPP, as you mentioned, Vietnam is the least developed of 
the 12 countries that are negotiating. Along with Malaysia, it 
stands to benefit most should TPP succeed, should we conclude a 
TPP agreement. So I think that, as well as the strategic 
situation that the Vietnamese are facing in the South China 
Sea, means if we want to help advance good governance, respect 
for rule of law and for human rights, now is the time. There is 
really no better time than this year, given the Vietnamese 
interest in a deepening partnership with us.
    Since the time that our two Presidents agreed on a 
comprehensive partnership, there have been some modest advances 
in human rights. You mentioned Ambassador Shear's little card. 
I have been carrying it around ever since my nomination. And by 
my calculation, one-third of the items that Ambassador Shear 
had listed on that card the Vietnamese have already dealt with. 
We would all like to see all of these issues dealt with, but I 
think we are making some progress.
    I think some of that progress may be as a result of direct 
American engagement and the fact that the Congress is so much 
interested in this issue is a fact that is not at all lost upon 
Vietnamese leaders. Since the time the partnership was 
announced, the Vietnamese have signed the Convention Against 
Torture. They have published an ILO report on forced labor and 
child labor. They have released a small number of prisoners. 
The trick going forward will be to ensure that those prisons 
are not refilled but that the changes that are made are 
systemic. And I do believe we have a real opportunity to make 
those changes in the time ahead.
    Senator Cardin. Well, as you point out, they released a few 
of the prisoners of conscience, but there are still many more 
that are imprisoned. They will have on their law books crimes 
that under international standards should not be crimes, but 
people just expressing their peaceful disagreements with 
government and they should be able to do that. They still have 
a problem on the registration of religious organizations.
    And what I think is the most challenging part is how they 
deal with corruption. As I pointed out, this is not a unique 
issue in Vietnam. Many countries have extreme challenges here. 
But Vietnam must be on a path to rid itself of the amount of 
corruption it has. We saw in Ukraine that the motivating force 
behind the populist uprising was a corrupt government more so 
than the philosophy of that government. And I think it is clear 
that that issue has to be high on our list for good governance 
reforms within Vietnam.
    Mr. Osius. Yes, sir. Transparency International lists 
Vietnam as 116 out of 177 on its corruption index. I think the 
people of Vietnam would like to see that situation improve as 
well. And as you mentioned, there have been bloggers who have 
been imprisoned. Internet freedom is one of the issues that we 
have tried hard to advance and that, if confirmed, I would 
continue to work to advance.
    Senator Cardin. Do you have any recommendations in regards 
to the maritime security challenges? The relationship right now 
between Vietnam and China is dangerous in regards to the 
rhetoric we hear. The U.S. position is pretty clear. We want a 
peaceful resolution of the territorial issues. We do not take 
sides on who is right, but we do take sides on it being handled 
in a peaceful manner and not through unilateral actions such as 
what China did.
    Any thoughts as to how you could be helpful in preserving a 
peaceful resolution of these issues and dealing with the 
commerce that goes through the China Seas?
    Mr. Osius. First, I agree with your characterization. We 
have a great stake in how these issues are resolved and that 
they are resolved peacefully and in accordance with 
international law.
    I would suggest that the strongest thing that we can do to 
send a signal in the region is continue to build powerful 
partnerships. We are building partnerships with ASEAN nations, 
including with Vietnam, over time. I think if there is a 
calculus that is being made by the Chinese, that calculus will 
be affected by the strength of our partnerships in the region.
    With Vietnam in particular, we have strengthened our 
maritime relationship. Last December, Secretary Kerry announced 
a $25 million program, $18 million of which will go to Vietnam 
for strengthening collaboration between our two Coast Guards. I 
think we should explore further expansion of Vietnam's maritime 
domain awareness and how we can help Vietnam build its capacity 
to deal with the challenges in the South China Sea. And I think 
we should continue to stand by our allies. Here I am going 
beyond Vietnam--but to support our allies such as the 
Philippines and, of course, Japan as they deal with these 
challenges.
    Senator Cardin. Thank you.
    Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Thank you to all of our witnesses today. I know you will 
serve the United States very well. I just have a few questions 
for a couple of our witnesses relative to our growing economic 
relationship, especially through the negotiation of TPP.
    But, first, let me say, although I do not have any 
questions for Mr. Stivers, I had the chance to work with him as 
he was of great assistance and counsel to the House majority. I 
know you will serve USAID just as well as you did the House 
majority and then the House minority caucus.
    I wanted just to talk a little bit, maybe direct the 
question to you, Mr. Lippert, regarding negotiations over TPP 
and where South Korea may fall into those negotiations. A lot 
of us were skeptical of the Korea FTA not necessarily because 
of the writing on the page but because of our concerns about 
how it would be enforced. Some of those concerns have been 
borne out. In particular, one of the primary selling points for 
the FTA was the potential boon to U.S. auto manufacturers with 
their ability to sell into the Korean market, and we have seen 
sort of this strange concoction of tax credit and tax penalty 
that has so far meant that we have not, I think, witnessed the 
benefit that some had predicted.
    I would just be interested in your thoughts on how we can 
continue to work through the existing enforcement issues with 
our FTA that has been signed and whether that prevents us from 
moving Korea into a broader conversation about being part of 
TPP.
    Mr. Lippert. Senator, thanks for the question.
    You make a good point, and I would just say that if 
confirmed, one of my top priorities would be full 
implementation of the KORUS FTA. As you rightly point out, 
there are some uneven implementation issues, autos origin. The 
origin issue is also a big one as well that we have to continue 
to sort through. We have made a little progress on the data 
issue, it seems to me, but I do think that the autos issue 
remains outstanding. We have seen some progress. I think the 
stats are something--there is an 80-percent increase in U.S. 
automobiles into the country, and there is some progress there.
    But I think you are right. We do have to stay on this, and 
I think having dealt with the South Korean Government in a 
defense capacity, I do feel that sustained U.S. engagement and 
raising the issue in consultation with USTR is one prong of the 
issue, that we just have to stay on it.
    The second issue that I have seen work is senior-level 
visits. We tend to make progress around visits by the 
President, by the Vice President, by the Secretary of State. So 
lining up those engagements to try to make progress on these 
key trade issues would also be a way ahead as well.
    But I do take the point. I think there is more work left to 
be done.
    Senator Murphy. How important is it to bring them into the 
rubric of the TPP negotiations? We have our own FTA obviously, 
but what are the stakes with respect to that decision?
    Mr. Lippert. Senator, I think two things. I think you raise 
an excellent question.
    I think the first point I would make is that the priority, 
if confirmed, for me is KORUS implementation. I think we have 
just got to get that done, first and foremost.
    Second is as Ambassador Froman will tell you, we have got 
to finish the round here at TPP and work with Congress to try 
to make progress on it. At that point, I think we have said we 
welcome South Koreans' interest in the TPP. We look forward to 
consulting with them in the standard mechanisms, but I do think 
that if you can bring South Korea down the road, get all the 
aforementioned issues taken care of, I think it would be a boon 
to TPP overall.
    Senator Murphy. Mr. Osius, I may have missed this. I did 
not get to hear your prepared testimony, but some have 
suggested that Vietnam has the farthest to travel in terms of 
domestic economic reforms in order to be ready for TPP. We have 
always had serious concerns about the ability of their 
government to protect intellectual property rights. What do you 
think about their ability to make the necessary changes in 
order to be part of that agreement and, to the point that we 
were discussing with respect to Korea, be able to actually 
enforce U.S. companies' rights as part of that agreement?
    Mr. Osius. Senator, I think TPP offers us the best 
opportunity to put the Vietnamese in a position where they 
must, in order to meet the terms that they have agreed to, do a 
much better job at enforcing intellectual property rights. One 
of the things that will be a challenge for the Vietnamese is 
meeting the very high labor standards that are set by the TPP. 
If they accede to the agreement, they will have to support ILO 
fundamental labor rights such as freedom of association, 
collective bargaining. They will have to deal with child and 
forced labor and essentially uphold rule of law when it comes 
to labor in ways that they have not done in the past. It will 
be a hard road for them to travel. The United States has shown 
that we are willing to help them build capacity, including in 
the area of customs enforcement where it will also be very 
important for them to work harder than they have in the past to 
meet the high standards of the TPP.
    Senator Murphy. And switching gears, just one question for 
you, Ms. Polaschik. Can you talk about Algeria within a 
regional context? It is maddening, frankly, to see the lack of 
cooperation in particular between Algeria and Morocco when it 
comes to combating terrorism and AQIM. What is the ability of 
the United States State Department and the embassy to try to 
get a little bit more regional cooperation, especially between 
those two nations when it comes to counterterrorism activity?
    Ms. Polaschik. Senator, thank you for that question.
    I think there are a couple of parts to that answer, and the 
first part is that Algeria is actually demonstrating quite 
impressive leadership on regional issues with respect to 
counterterrorism. Algeria, as you know, had its own long, 
difficult struggle with domestic terrorism and, with the growth 
of these new transnational groups, has been cooperating very, 
very closely with Tunisia to conduct operations against the 
extremists that are operating on their shared border. Algeria 
has put tens of thousands of military troops on its 
southeastern border to prevent the flow of weapons and 
terrorists from Mali and Libya and is working very, very 
closely with Mali and Niger to strengthen those two countries' 
capacity to combat transnational threats.
    Yes, Senator, you are right. Algeria and Morocco do have a 
very complicated relationship, and we consistently urge both 
countries to work to improve them because they have shared 
interests in combating transnational terrorism, illegal 
migration, the smuggling of drugs. And we also share those 
interests. So we are doing everything possible to promote 
better relations between those two countries, and we urge them 
to delink the issue of western Sahara from their bilateral 
relationship. If confirmed, I certainly would reach out to my 
colleague, Ambassador Bush, in Morocco and his team to talk 
about ways that we could work together to improve this very 
critical relationship.
    Senator Murphy. Great.
    Thank you, Mr. Chairman. Thank you to all of our nominees.
    Senator Cardin. Well, there is no country that has a more 
difficult relationship with one of its neighbors in the region, 
that are both closely aligned to the United States, than Korea 
with Japan. So, Mr. Lippert, what can you do representing our 
country? How do you intend to proceed with improving the 
relationship between Korea and Japan?
    Mr. Lippert. Senator, thanks for that question.
    As you know--and you have been out to the region many, many 
times and have dealt with this issue firsthand. So you are 
deeply knowledgeable and steeped in this issue, having talked 
to you last week on this issue.
    I think the first principle is that it is by far in U.S. 
national security interests that the Republic of Korea and 
Japan have a good relationship. There is a lot in common. They 
are both democracies, both free market economies. There is good 
trade back and forth, so on and so forth. And it is important 
for regional security that they do work together.
    In terms of what I would do, if confirmed as Ambassador, 
is--you know, Ambassador Kennedy and the State Department team 
back in Washington--we would not play a mediation role. We 
obviously have conversations to encourage a better dialogue 
between the Japanese and South Koreans to work through some of 
these very difficult and painful historical issues. In my 
capacity as Assistant Secretary, for example, we worked very 
hard to add trilateral cooperation to the agenda at the 
Shangri-La Dialogue in 2 successive years. We completed 
ministerial level talks that brought Japanese and Korean 
defense ministers closer together. The President at The Hague 
also had a trilateral session with the Japanese and South 
Korean leaders in order to find areas of common interest, 
common cooperation, and common security.
    But at the end of the day, both sides, the Japanese and the 
South Koreans, are two great countries with two very effective 
foreign ministries and are capable of making progress on this 
issue. And we can play an important role in encouraging that 
dialogue back and forth.
    Senator Cardin. I think it is important to have an honest 
and open discussion about this. The sensitivities here are 
great and actions taken by one country are interpreted rather 
strongly by the other. So whatever you can do in that regard to 
make it clear that they really need to go at least halfway--
each country--in order to resolve this--and to improve their 
bilateral relationship. I think it is very important.
    I want to get to North Korea just for one moment and how 
you see the best way to try to advance the concerns we have 
with North Korea. And I want to just preface that. North Korea 
is more than a threat against the region because of its nuclear 
capacity. It is a threat against its region because of its 
total disregard for the rights of its people and its economy 
that is in shambles. How would you suggest that we try to deal 
with these risks against regional stability?
    Mr. Lippert. Senator, thanks for the question.
    You are right. North Korea does pose a serious threat to 
the United States and its allies because of its nuclear and 
missile programs, but also its gross human rights violations, 
as outlined in the United Nations Commission of Inquiry. If you 
read that document, the evidence is staggering against the 
regime and the abhorrent behavior that it has demonstrated to 
its own people.
    In terms of moving forward on the North Korea issue, I 
would just say, if confirmed, there are sort of three lines by 
which primarily out of Washington. But obviously I would be 
helpful, if confirmed as Ambassador.
    The first is continue to build the international consensus 
to isolate North Korea and its regime. And perhaps one of the 
best examples is to isolate them on the human rights issue.
    The second is to continue the pressure and the sanctions, 
both multilateral sanctions and unilateral sanctions, as well 
as military exercises to keep the North Koreans in check and to 
send a strong signal that the United States is watching their 
behavior.
    And finally, what I have been working on at the Defense 
Department, which is strong defense and deterrence, and that 
means increasing the number of ground-based interceptors in 
Alaska. That means adding a second TPY-2 radar in Japan to 
booster our missile defense, two new ballistic missile defense 
cruisers by 2017, and the movement of the THAAD on Guam to 
ensure that we stay one step ahead of the North Korean threat 
both in terms of our own homeland and our allies.
    Senator Cardin. Thank you.
    Mr. Stivers, I am a big fan of Administrator Shah's efforts 
to leverage our development assistance in countries by trying 
to do what we can to move toward self-sufficiency and country 
sustainability so that our foreign development assistance is 
not needed forever, and doing so by leveraging government 
efforts with private sector funds and local participation.
    Asia is an interesting region. There are a lot of 
challenges that are there. Can you just share with us how you 
would carry out that goal that Administrator Shah has mentioned 
about leveraging our development assistance for sustainability 
and private partnerships?
    Mr. Stivers. Well, thank you, Senator, for that question, 
and thank you for your leadership on Asia issues.
    USAID has implemented a new model of development that does 
focus more on public-private partnerships, regional solutions 
to regional challenges, and certainly with the advances in 
science and innovation. And I know you have been a leader on 
the Global Development Lab, and I think that is one way where 
USAID is working to promote science and innovation. And in 
particular in Asia, I know USAID has launched something called 
the Millennium Alliance in India which brings together 
university partners and corporation partners to support new 
innovations, new development challenges regarding education and 
health. And I think that is one way where it has been very 
successful.
    We are in a tight budgetary era, and we want to do more in 
terms of the rebalance in terms of the emphasis on the region. 
And to the extent that we can leverage more resources in this 
new model of development, I think Administrator Shah has done 
an exemplary job of moving AID in that direction.
    Senator Cardin. I wanted to get your views on how you would 
use development assistance to advance good governance and human 
rights. You have already mentioned young women and girls, and I 
very much appreciate that. The gender equity issues have been a 
huge priority under Secretary Clinton and now under Secretary 
Kerry, and it is an area that we need to continue to advance.
    I remember a hearing that we had several years ago with 
former President Clinton as a witness and talking about how he 
goes about development assistance in other countries, and that 
there is zero tolerance for corruption. We are not doing a 
country any favors if we are participating in just feeding a 
corrupt regime.
    I want to get your commitment that that will be the policy 
of USAID, that yes, we want to help countries, but they must be 
on a path toward improving good governance and that our 
development assistance will not fuel further corruption of 
regimes.
    Mr. Stivers. Absolutely. Thank you for that, Senator, and 
thank you for your longtime support on good governance and 
human rights issues.
    There are certainly governance challenges and concerns 
throughout Asia in a number of countries that USAID provides 
assistance to. Good governance is central to development. It is 
hard to do other development initiatives, whether you are 
making advances in health or food, unless you are addressing 
the underlying structural problems that sometimes cause 
poverty, and a lot of times, that has to do with poor 
governance. And to the extent that USAID is in these countries 
strengthening civil society, training journalists, promoting 
citizen participation and oversight, I think AID's programs in 
many countries are very good in this regard. And it will be a 
top commitment for me if confirmed.
    Senator Cardin. Thank you.
    Ms. Polaschik, I want to come back. Senator Murphy covered 
somewhat terrorism and counterterrorism and what we have to do 
working with other countries. It is one of our highest 
priorities. I understand there is still a warning against U.S. 
visitors to that country about the threat of safety from 
terrorist activities. Obviously, that is unacceptable. So we 
need to do a more effective job.
    But I want to get your view on how we can improve good 
governance in Algeria. It is an oil- and gas-rich country. It 
is questionable as to whether the wealth is getting to the 
people in the most efficient way. I would just like to get your 
assessment as to how we could be helpful in promoting good 
governance in Algeria.
    Ms. Polaschik. Mr. Chairman, thank you for that question. 
It is a very good one.
    By all accounts, Algeria is a challenging place to do 
business. The World Bank's most recent Ease of Doing Business 
report, for example, lists it at number 153 of 187 of all 
countries worldwide. And American companies do raise concerns 
with us, in particular, about transparency in the 
decisionmaking process.
    That said, the Algerian Government realizes that it needs 
to take steps to reform and particularly to diversify its 
economy. As you know, it is heavily dependent upon the 
hydrocarbon sector. And in order to diversify the economy, they 
are going to have to make some pretty marked improvements to 
their overall business climate. And I think there are some 
things that could be done pretty easily to improve that. One 
would be to improve their overall regulatory environment. Two 
would be to ease the administrative processing, like one-stop 
shopping for registering businesses, and improving access to 
decisionmakers.
    The U.S. Government already is working in this area to 
support these efforts. We have some MEPI, the Middle East 
Partnership Initiative, assistance programs that are working 
with grassroots Algerian NGOs that are working to promote 
greater transparency. So if confirmed, I certainly would 
continue and support these efforts to make the changes that are 
necessary.
    Senator Cardin. It is my understanding that the government 
is directly involved in the extractive industries in Algeria. 
Transparency is going to be critically important here. We found 
that in other countries. And I am not as familiar with Algeria 
as I would like to be, but I would like to get your commitment 
that we will make it clear that transparency is absolutely 
essential so that there can be a better tracing as to how the 
resources are being used in Algeria for its own development.
    Ms. Polaschik. Absolutely, Senator.
    Senator Cardin. Thank you.
    I now yield to Senator Rubio who informs us he has been 
tied up in the Intelligence Committee. Not much going on around 
the world like Iraq, so I do not know why that would tie you up 
too long.
    Senator Rubio. I am just glad to be here.
    I do not have extensive questions. I think a lot of it has 
probably already been asked and answered. But I wanted to 
revisit a couple points.
    I am sure, Mr. Lippert, you have been asked about relations 
between Korea and Japan. Let me start with a separate question. 
It was an issue that I have confronted in Florida, which we 
actually raised during my visit to Korea in February of this 
year. As you know, the free trade agreement with Korea I 
believe was a win for them, as it is for us. But we have had 
some implementation issues regarding--for example, Florida 
citrus growers have had an issue. The fundamental issue is that 
the Koreans have disputed in the past or have asked questions 
about whether that citrus is truly being produced and packaged 
in Florida or maybe it is coming from Brazil and just being 
brought through. And we were able to use the Embassy to 
facilitate a visit by South Korean officials to Florida where 
they were able to confirm all of it.
    So my question is, as we proceed with the implementation of 
this agreement, I anticipate there may be further instances of 
this in the future that may arise on either side. And I think I 
know the answer will be yes, but I just wanted to get a 
commitment that you will be actively engaged through your 
office and the Embassy to resolve any sort of disputes that 
might arise in this process because I think they are critical 
to the future of any other trade agreements, whether it is TPP 
or anything else.
    Mr. Lippert. Senator, the answer is unequivocally yes.
    Senator Rubio. And then the second point--I am confident 
that you have been asked about it, but I was not here. So let 
me ask you about it as well.
    When I was there, one of the issues that truly captured 
everyone's attention was the friction between the Abe 
government and South Korea, some of the issues that have arisen 
around that. In fact, I felt it was perhaps even more dominant 
than the concerns about China's illegitimate claims in the 
region or maybe not to the level of the risk posed by North 
Korea, but it was certainly one of the dominant features of our 
visit and for the United States, a very troubling one because 
both of these are critical alliances for us, in fact, perhaps 
the two most important alliances in that region.
    Can you give us an update about where we stand with regard 
to that? Has there been improvement? Has that continued to 
degrade? Has there been any evidence that over the last few 
months the leadership of both countries have made efforts to 
try to bridge that divide and reestablish a cooperative working 
relationship? Because they have some mutually--they share some 
mutual defense concerns and economic ones.
    Mr. Lippert. Senator, it is an excellent question. And 
thanks for your travel out to the region. I did follow it 
closely and actually read one of your op-eds that you published 
on Asia recently.
    To your point, I think it remains challenging. I will say 
that there has been some progress, especially on the United 
States engaging in a trilateral way. The President had a very 
good trilateral summit with the two leaders on the margins of 
The Hague. I actually hosted the Defense Trilateral Talks here 
in Washington at the Pentagon between the South Koreans and 
Japanese, and there was some very good exchanges and frank 
discussions that I think were helpful. Secretary Hagel had a 
trilateral meeting on the margins of the Shangri-La Dialogue 
that I think also helped move the ball forward, at least in 
terms of some of the security issues. And then Ambassador 
Davies also had a recent exchange with some of the six-party 
talks negotiators here both on the Japanese and South Korean 
side. So I think there has been progress, but I would say that 
a lot more work needs to be done.
    Senator Rubio. And the other point I would make--and I 
wanted your opinion on this. Of course, in Japan, there has 
been a lot of conversation about how they can reinterpret their 
existing constitutional provisions to allow them to engage in 
collective self-defense. For us, of course, we largely benefit 
from that because if in fact one of our ships or personnel came 
under attack right now, given the strictest definition of the 
constitutional provisions in Japan, a very capable Japanese 
defense force theoretically would not be able to come to our 
defense.
    How is that goal of the Abe government to be a little bit 
more liberal in their application of that provision--how do 
they view that in Korea? Is there a sense there that there 
could be a defense partnership between those countries as a 
result of greater capabilities on the part of the Japanese?
    Mr. Lippert. Senator, I think you outlined the up-sides of 
the reinterpretation of collective self-defense, as well as our 
own review that we do bilaterally with the Japanese called the 
Guidelines Review in helping instill greater capabilities to 
the U.S.-Japan alliance.
    But to your precise question, what we have done at the 
Pentagon and elsewhere across the administration is encourage 
transparency and consultation with the South Korean Government 
on this issue. I still think it is a touchy subject. That is my 
own personal view. And we do have to do a good job, a better 
job of making sure that there is good outreach and information 
exchange. That was one of the focuses at the Shangri-La 
Dialogue where Secretary Hagel hosted his two counterparts to 
encourage that exchange on the reinterpretation of the 
constitution. It is what I did at the Defense Trilateral Talks 
as well here in Washington that preceded that in order to 
exchange information, demystify, get clarifying questions 
answered because I think there are concerns that are still out 
there that we have to work through in a consultative manner.
    Senator Rubio. Thank you.
    And I wanted to briefly pivot to Mr. Osius.
    Thank you all for your service, by the way, and I 
congratulate you on your nomination and wish you all the best. 
Hopefully we will be able to visit some of you in your new 
posts.
    I wanted to ask you two things. First, I am sure you have 
been asked already about the situation with regard to the 
conflict with the Chinese, and I missed that portion. Could you 
just update me on what you think our role is with regard to 
conflicts such as those where we do not have an existing 
defense agreement in the way we do with Japan or South Korea? 
But yet, we have an interest in territorial claims not being 
abused.
    Mr. Osius. I agreed very much with the way the chairman 
characterized our position. We have a strong interest in the 
behavior of nations. Even if we have not taken a position on 
specific territorial disputes, we have a strong interest in the 
rule of law being observed. We have a strong interest in 
nations resolving territorial disputes peacefully and in 
accordance with international law.
    My suggestion was that we can change the calculus of the 
Chinese in the South China Sea by forming powerful 
partnerships, and that partnerships with our allies, the 
Philippines and Japan and Thailand and others, but also with 
partners such as Indonesia and Vietnam can also change the 
calculus. And our partnership with Vietnam in the strategic 
areas is growing. We already have agreement on high-level 
dialogue on search and rescue, humanitarian assistance and 
disaster relief, and peacekeeping operations. And where the 
relationship is growing fastest is in the area of maritime 
security.
    Senator Rubio. I have one brief question. Is that OK? I 
apologize.
    This is a particular case that has arisen in Vietnam that I 
hope, when you are confirmed, that you will take up as a cause. 
In 2012, a Lutheran pastor, Pastor Nguyen Cong Chinh, was 
sentenced to 11 years in prison for, ``undermining national 
unity,'' under article 87 of Vietnam's penal code. In reality, 
Pastor Chin was arbitrarily detained, and he was jailed simply 
for practicing his faith. Reports indicate that the pastor was 
beaten while praying on two separate occasions.
    If confirmed, would you advocate for the release of Pastor 
Chinh, as well as other prisoners of conscience?
    Mr. Osius. I would, sir, absolutely.
    Senator Rubio. And how would you engage with the Vietnamese 
Government on issues of religious freedom? I ask that because I 
do believe that these sorts of abuses are an impediment to the 
sort of partnership that you have discussed that you think it 
would be wise for us to pursue with Vietnam and others. I think 
religious liberties is an important thing for us to clearly be 
on the side of. So how do you think we can most productively 
engage with the Vietnamese authorities on cases such as these?
    Mr. Osius. Senator, I agree. Activities such as that are an 
impediment to the appropriate development of our partnership 
with Vietnam.
    I think there is some good news and there is some not-so-
good news. In the 18 years that I have been visiting Vietnam or 
serving in Vietnam, the trajectory is basically pretty good. In 
the central highlands, when I first went there, the 
monasteries, the churches--they were all empty. Now they are 
full and they are full of young people, and more than half of 
Vietnam's population is under 30 and those people want to be 
able to practice their religious beliefs freely. And so I think 
there is a possibility for systemic change, and if confirmed, I 
would push as hard as I could for that kind of systemic change.
    Senator Cardin. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman.
    And to the witnesses, thank you for your service and 
congratulations on your nominations.
    I am going to apologize to the males on the panel. I am 
duty-bound by my jurisdiction to grill the University of 
Virginia graduate, Ms. Polaschik, and I am also the chairman of 
the Subcommittee on the Near East.
    And I am very interested in relationship with Algeria. I 
recently met with the Algerian Ambassador to the United States. 
Forgive me. I am sure you have covered a bit of this in your 
testimony, possibly in an earlier question. But talk about the 
nature of the current U.S.-Algeria counterterrorism 
partnership.
    Ms. Polaschik. Thank you, Senator, for that question. And 
wahoo-wa.
    Overall, the state of the U.S.-Algerian relationship on 
counter terrorism is very, very good. Algeria, as you know, 
fought its own long and difficult battle with terrorism on its 
own soil and developed a very strong capacity. Algeria is now 
working with its neighbors to address the new transnational 
threats that are posed by the various Ansar al-Sharia groups 
throughout North Africa, MUJAO from Mali, and others. So 
Algeria is working with Tunisia to counter activity on their 
shared border. It has pushed out tens of thousands of soldiers 
to its southeastern border to stem the flow of terrorists and 
weapons coming out of Mali and Libya. And it is working very 
effectively with Mali and Niger to train their own security 
services. So it is a very good partner, and certainly, if 
confirmed, I would build on the excellent work that my 
predecessor, Henry Ensher, has done and seek to expand that 
further.
    Senator Kaine. We have a very strong partnership--I am glad 
to hear you talk about that in some detail--with Algeria.
    We also have a very strong partnership with Morocco, and 
yet those two nations have had their challenges. I think a 
question has been asked about that earlier. But I am just 
struck by a relationship where air travel between the two 
countries is common. Commercial traffic that way is common, but 
the border is closed.
    What can the United States or what could you do as 
Ambassador that would hopefully help these two allies of ours 
continue to strengthen their own relationship and resolve 
difficulties?
    Ms. Polaschik. Senator, it is an excellent question and 
certainly one that we in the State Department are very 
concerned with because both Morocco and Algeria are good 
friends of the United States and they are very, very capable 
partners. So if confirmed, I would continue doing what we are 
doing all along, urging both Morocco and Algeria to work 
together to address their issues of shared concern such as 
counterterrorism, illegal migration, drugs trafficking, et 
cetera. And I would urge the Algerians to delink the issue of 
Western Sahara from their relationship with Morocco.
    Senator Kaine. Thank you for that. Algeria has one of the 
largest energy reserves in the world and is one of the largest 
energy exporters in the world. Is there anything that Algeria 
can do to help Europe wean themselves away from over-dependence 
upon Russian energy? That was a topic that I talked about with 
the Ambassador last week, and I thought that might have some 
promise.
    Ms. Polaschik. Absolutely, Senator. It is an excellent 
question.
    Algeria is a significant and stable exporter of oil, 
natural gas, and liquefied natural gas, and its geographic 
location, right next to Europe, makes it critically important 
for European energy security. Algeria is Europe's number two 
supplier of natural gas. And Algeria has significant reserves 
of shale gas. They have the third-largest recoverable reserves 
of shale gas anywhere in the world. So this is a new and 
exciting area of great opportunity. And the Algerian Government 
has announced plans to exploit these resources, and it is also 
very interested in partnering with American companies to 
develop them. So there are great opportunities for American 
companies there and to further advance European energy 
security.
    If confirmed, I certainly would make it a top priority to 
make sure that we support the Algerian efforts to develop their 
shale reserves and to work to get American companies a share of 
the market.
    Senator Kaine. I continue to believe that with respect to 
Ukraine and other nations in Europe, one of the best things we 
can do for them is to help them obtain other sources of energy. 
And often the debate here is about U.S. exports or technical 
assistance to develop European energy, but an additional way to 
make this happen is to find other partners who can export more 
to Europe, and Algeria seems to be, because of historical 
background and the fact that they are already a significant 
exporter, a perfect partner. So if there are things that we can 
do diplomatically or through American companies to help them 
develop that shale gas capacity and export more, that would be 
for the good of Ukraine, for the good of Western Europe, and I 
would love to explore that with you.
    How, if at all, is Algeria responding right now to this 
uprising by the anti-Islamist general Haftar in Libya?
    Ms. Polaschik. Senator, Libya very much shares the United 
States Government's concerns about the situation in Libya. It 
is very concerned about the spread of transnational extremists, 
the spread of weapons coming out of Libya and I think is 
willing to work with us and the neighbors to try to find a 
solution.
    That said, nonintervention in other countries' internal 
affairs has been a long-standing pillar of Algerian foreign 
policy. So I do not expect that they would do anything rash. 
What I expect is that they would continue their very active 
diplomacy. And Algeria has been a leader in helping to resolve 
conflict throughout the continent, and we certainly welcome 
their role in that regard.
    Senator Kaine. The last question I will ask is President 
Bouteflika's election to a fourth 5-year term in 2014 sort of 
underscored a continuity and a stability in Algerian politics, 
and yet he is elderly. He has had some physical challenges. 
Talk a little bit about what are the political prospects in the 
future given the fact that after 20 years of a very difficult 
challenge, I am sure there are thoughts about transitioning, et 
cetera. We do not have a favorite, but what is the current 
lineup of political parties in Algeria and thoughts about kind 
of next chapters in political leadership?
    Ms. Polaschik. Senator, Algeria since early 2011 has been 
pursuing a path of gradual reform, and just in the last couple 
of weeks President Bouteflika has announced some proposals to 
amend the constitution that would further open up the Algerian 
political system. For example, he would propose giving more 
power to the Parliament and to the Prime Minister, reimposing 
Presidential term limits and further liberalizing the media 
environment. And all of these steps we certainly welcome.
    The Algerian Constitution has a very clear process for 
succession. In the event that the President is incapacitated, 
the speaker of the upper House of Parliament would serve as 
Acting President for 60 days, during which time elections would 
be organized. We fully anticipate that the Algerian authorities 
would abide by their constitutional procedures, and we would be 
prepared to work with whomever the Algerian people elect as 
their next President.
    Senator Kaine. Thank you very much for those answers.
    Thank you, Mr. Chairman.
    Senator Cardin. Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    Mr. Lippert, the commander of U.S. Forces in Korea 
testified before the committee in March. He said that while the 
U.S. Forces that are on the peninsula are prepared to carry out 
their mission of fight tonight in the event of a conflict, that 
the follow-on force for reinforcing our troops is not ready to 
do so effectively due to sequestration. Do you share that view?
    Mr. Lippert. Senator, I would have nothing to contradict 
General Scaparotti. So, yes.
    Senator McCain. You would agree with that.
    That is of some concern.
    Mr. Osius, the Vietnamese Government wants us to waive its 
ban on lethal arm sales or transfers. Obviously, the situation 
continues to become more tense in the South China Sea or the 
Asia Sea. Depending on which country you are from is whatever 
name you want to give it, but we know the area. Have we 
considered lifting that ban? And if so, what considerations do 
we have? And if not, I guess have we laid out for them the 
criteria that we would expect in order to have that arms 
transfer lifted?
    Mr. Osius. Thank you, Senator.
    We have made it clear that we cannot lift the ban absent 
significant progress on human rights, on the development of 
respect for rule of law and human rights in Vietnam. We have 
been quite clear on what we expect in terms of progress on 
human rights.
    Senator McCain. For example, what would be a criteria? A 
judgment of a human rights organization or judgment of the 
State Department? In other words, what are the criteria?
    Mr. Osius. What we have done is we have listed nine areas 
for the Vietnamese where we would expect to see serious 
progress so that our partnership could achieve its full 
potential. I think at this point there has been progress in a 
number of those areas, in three or maybe four of those areas. 
So that may mean it is time to begin exploring the possibility 
of lifting the ban. But it has to be done at a pace with which 
this committee is comfortable and with which the Vietnamese are 
comfortable.
    Senator McCain. Well, for the record, would you provide 
just for my information those areas where they have made 
progress and those areas where progress still needs to be made? 
But they have shown some progress.
    Mr. Osius. There has been some progress. There has been 
some progress in the area of labor and labor rights. There has 
been some progress in the area of disabilities, treatment of 
people with disabilities. There has been some growth in the 
space for civil society to operate. There has been an increase 
in the number of churches that have been registered.
    Now, as Americans, we have, I think, a discomfort with the 
idea of churches having to register in the first place, but 
there is more space for churches, evangelical churches, 
Catholic churches, to operate than there was in the past.
    What we have not done is lay out a precise road map for 
what would get the Vietnamese to lifting the lethal weapons 
ban, and it may be time to consider that.
    Senator McCain. Well, I hope we would do that given a whole 
lot of factors.
    A question for you and Mr. Lippert. The Chinese, obviously, 
continue to stoke tensions in the South and East China Seas, 
and the situation certainly is worsening rather than better, 
which leads one to conclude that the actions taken so far have 
not braked Chinese behavior. I am wondering if you agree with 
that, and if you agree with that, what actions do you think we 
should contemplate, maybe beginning with you, Mr. Lippert?
    Mr. Lippert. Thanks, Senator.
    I think that we have spelled out a pretty robust strategy 
for pushing back against the Chinese starting in the East China 
Sea or east----
    Senator McCain. But you would agree that we have done so 
far has not had a deterrent effect.
    Mr. Lippert. I would say it depends on which situation, 
Senator. For example, in the Senkakus situation, I think the 
clear statement of the article 5 commitment by Secretary Hagel 
and others has, I think, had some deterrent effect on the 
Chinese with the current situation.
    I think in the South China Sea, the situation remains more 
challenging, as you point out. We have done some things in 
terms of help with our Filipino allies in terms of increased 
access. The access agreement I think was helpful. There has 
been a little bit more presence in the region that I think also 
has given a little bit of help to our allies in the region. But 
I think you are right. It is a very challenging situation and 
more needs to be done.
    Senator McCain. And for example, like what?
    Mr. Lippert. Well, first, Senator, I do think we need to 
protect, where I sit currently in the Pentagon, robust defense 
spending in the Asia-Pacific region. We just have to have our 
maritime assets out there in more force to give aid and comfort 
to our friends and allies in the region.
    Second, I think stepped-up presence does help in terms of 
overflight, P-8's, so on and so forth.
    And then, of course, our undersea assets I think also can 
play an important role as well.
    Senator McCain. Including joint operating bases such as we 
are moving forward--well, already done with Australia, moving 
forward with the Philippines and other countries in the region?
    Mr. Lippert. Absolutely. I think the initiatives we have 
had in Singapore, Australia, Philippines--also, we are now 
getting increased access to parts of Malaysia that we have not 
seen before. I think those send very important and powerful 
signals as well.
    Senator McCain. Before I turn to Mr. Osius, the Camp 
Humphrey transition is proceeding okay?
    Mr. Lippert. My sense is that things are generally on 
track. I think the HHOP issue, as you know, remains 
challenging. The amount of money we are asking U.S. service 
members to pay is very expensive. The outside-the-gate 
accommodations are not great, and I think that trying to get as 
many people as possible as our Commander of U.S. Forces Korea 
wants inside the gate is still a challenge. I know the Deputy 
Secretary of Defense a couple of months ago asked the Army to 
take another look at this to see what we could come up with 
because I think this is a very challenging issue and we need to 
sort of resolve this to move forward, Senator.
    Senator McCain. Well, I hope we can because the movement 
obviously has to take place, and also this issue of operational 
control hangs out there as well. So I am sure you will do a 
great job.
    I am not sure you will, Mr. Osius. [Laughter.]
    Senator McCain. I am confident that you will. It was a 
joke.
    Mr. Osius. Thank you, sir.
    First, in terms of security preparations, I would like to 
associate myself with what Mark Lippert said in terms of how we 
can strengthen our position in Asia. But I do not think we have 
exhausted the diplomatic route yet when it comes to the South 
China Sea. What the Chinese are doing both in Vietnam and the 
Philippines is actually making the job of the Filipinos and the 
Vietnamese easier in terms of taking their case to the world 
community. The Chinese in some ways are trying to have it both 
ways in the U.N., trying to keep the U.N. out, but also 
bringing the issue to the U.N. where they believe that they can 
control it. I think that is going to be a real challenge.
    The New York Times today reported on island building in 
South Johnson Reef. It is one thing to put an oil rig into the 
Paracels. An oil rig can be removed. When you build an island, 
it becomes much harder to remove it. You can build runways on 
it, houses on it, and you have changed the status quo. And in 
2002, the Chinese signed on to the Declaration of Conduct which 
said they would exercise self-restraint and not change the 
status quo. I think the nations of ASEAN certainly have taken 
notice that the Chinese are not living up to their obligations.
    Senator McCain. Well, I think it is very clear in the 
exchange that Secretary Hagel had with the Chinese Deputy 
Defense Minister in Shangri-La was not encouraging at all. 
Would you agree, Mr. Lippert?
    Mr. Lippert. It was a testy exchange, Senator. I would 
agree.
    Mr. Osius. Yes, sir. I agree.
    Senator McCain. I thank the witnesses.
    Thank you, Mr. Chairman.
    Senator Cardin. Let me just follow up on one thing with Mr. 
Lippert. You mentioned the exchanges we are having between 
Japan and Korea and you mentioned the Shangri-La opportunities, 
and I agree with that. I would just call to your attention 
President Park's recommendation for using an OSCE type dialogue 
mechanism for northeast Asia, which I would just suggest that 
you may wish to follow through. In my conversations with Mr. 
Abe, he was supportive of that type of a mechanism. So there 
may be some way of strengthening the dialogue mechanisms 
between Japan and the Republic of Korea, along with other 
countries in northeast Asia.
    The record of the committee will remain open untill close 
of business Thursday. That will mean that if members have 
additional written questions, we would urge you all to try to 
complete them as quickly as possible so that we can take action 
on the nominations as quickly as possible.
    Once again, thank you all for your attention to this 
committee.
    And with that, the committee will stand adjourned.
    [Whereupon, at 4:25 p.m., the hearing was adjourned.]
                              ----------                              


             Questions and Answers Submitted for the Record


            Responses of Mark William Lippert to Questions 
                    Submitted by Senator Marco Rubio

    Question. Chairman of the Joint Chiefs Martin Dempsey recently 
testified in front of the House Armed Services Committee that ``I 
consider land mines . . . to be an important tool in the arsenal of the 
Armed Forces of the United States.'' In separate testimony, General 
Scaparrotti, Commander of U.S. Forces Korea, testified that ``it is my 
assessment that landmines are a critical element in the defense of the 
Republic of Korea and our interest there. And they are a critical 
element of our contingency plans, as well.''

  <diamond> Do you agree with these statements by Chairman Dempsey and 
        General Scaparrotti?
  <diamond> What is your assessment of the implications for the U.S.-
        ROK alliance if the United States were to accede to the Anti-
        Personnel Mine Ban Convention?

    Answer. I highly value, and take very seriously, the military 
advice of the Chairman of the Joint Chiefs of Staff and the Commander 
of United States Forces Korea with respect to the use of landmines on 
the Korean Peninsula.
    Based on the above military advice, I believe that any 
consideration of the removal of antipersonnel landmines from our 
arsenal for the defense of Korea would raise serious and complex 
operational issues. These issues require careful review and 
consideration by policymakers in Washington to ensure that they are 
addressed.
    If confirmed, I would work closely with the Government of the 
Republic of Korea, General Scaparrotti, and other relevant parties to 
ensure that these operational issues and their implications for the 
defense of Korea are brought to the attention of policymakers in 
Washington and addressed.

    Question. As you know, the Republic of Korea has granted access to 
the Chinese telecommunications company Huawei for development of its 
wireless network.

  <diamond> What is your view of this arrangement?
  <diamond> If confirmed, what would you do as Ambassador to ensure 
        that United States and Korean telecommunications networks are 
        not compromised by this arrangement?

    Answer. I share your concern about security of networks in the 
United States and among its partners and allies.
    While serving at the Department of Defense, I have closely followed 
cyber issues relating to China and the Republic of Korea. I am 
concerned about the growing cyber threat to our national security and 
will continue to focus on this issue in the future.
    As a sovereign country, the determination of criteria for foreign 
investment projects related to its nationwide LTE network is ultimately 
the decision of the Republic of Korea.
    The Republic of Korea is a strong partner of the United States in 
cyber security issues. For example, the Department of Defense recently 
signed a formal agreement with the Republic of Korea military to 
jointly address cyber security threats. Additionally, the State 
Department uses the U.S.-Republic of Korea Cyber Dialogue and 
Information and Communication Technology (ICT) Policy Forum to exchange 
views on our respective policies in cyber space.
    If confirmed, I will continue to facilitate the close cooperation 
between the United States and the Republic of Korea on our respective 
cyber policies and practices, including on the subjects of cyber 
threats or areas of concern and security issues.
    I will also work closely with the Commander of United States Forces 
in the Korea to ensure that our military continues to use a 
comprehensive risk mitigation approach to cyber security to ensure our 
military communications are secure in the Republic of Korea.

 
    NOMINATIONS OF HON. ALFONSO E. LENHARDT AND MARCIA DENISE OCCOMY

                              ----------                              


                        THURSDAY, JUNE 26, 2014

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. Alfonso E. Lenhardt, of New York, to be Deputy 
        Administrator of the United States Agency for 
        International Development
Marcia Denise Occomy, of the District of Columbia, to be United 
        States Director of the African Development Bank for a 
        term of 5 years
                              ----------                              

    The committee met, pursuant to notice, at 2:10 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Edward J. 
Markey, presiding.
    Present: Senators Markey, Kaine, and Barrasso.

          OPENING STATEMENT OF HON. EDWARD J. MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Good afternoon, and welcome to today's 
hearing.
    We have two excellent nominees being considered by the 
committee for positions in the field of international 
development.
    We are joined, first, by Ambassador Alfonso Lenhardt, a 
familiar face around the United States Senate, having served 
here previously as our 36th Sergeant at Arms. Ambassador has 
now been nominated to serve as Deputy Administrator of the 
United States Agency for International Development.
    And we welcome you and your wife, Jackie, back to the 
committee.
    Ambassador Lenhardt comes to us after 4 successful years 
representing the United States as our Ambassador to Tanzania, 
and after more than 30 years of service in the United States 
Army, from which he retired with the rank of major general. He 
received a baptism-by-fire upon taking over as the Sergeant at 
Arms on September 10, 2001. The Ambassador has clearly gained a 
great deal of experience leading large organizations in complex 
environments. Such experience is needed to back up the 
administrator and an agency operating in over 100 countries 
around the globe.
    Having served as both an Ambassador and a general, 
Ambassador Lenhardt is uniquely qualified to place our 
international development programs in the broader context of 
our country's foreign policy priorities, so we will all be 
interested to hear his perspective on the policy challenges at 
the intersection of security and economic development.
    In Tanzania, Ambassador Lenhardt led American efforts to 
implement some of our government's key development programs, 
such as the President's Feed the Future Initiative. And we look 
forward to hearing from him.
    I would also like to welcome Marcia Occomy--how did I do?
    Ms. Occomy. Excellent.
    Senator Markey The President's nominee for the position of 
U.S. Executive Director at the African Development Bank. Ms. 
Occomy has worked extensively on financing projects in 
developing and post-conflict countries, including Africa. She 
brings both private-sector experience and the BearingPoint & 
Deloitte consulting firm's experience, as well, and also worked 
in the Office of Management and Budget. And that is the right 
combination for the African Development Bank, which helps 
generate economic growth by forging innovative public-private 
partnerships. The United States is the second-largest 
shareholder in the African Development Bank, so we have an 
important role in shaping the agenda. And I am particularly 
interested in hearing and discussing areas where the Bank's 
priorities intersect with some of our government's top 
development priorities, such as the President's Power Africa 
Initiative.
    Power Africa could dramatically improve the lives of 
millions in sub-Saharan Africa by expanding access to reliable, 
affordable, and sustainable energy. Congress has a role here, 
as well. Earlier this week, I was proud to support the Energize 
Africa Act as it passed out of this committee. But, 
institutions like the African Development Bank will be critical 
to generate private investment in the energy sector and to 
provide governments with needed technical and regulatory 
advice. We can use our influence in the Bank to help bring this 
initiative to fruition.
    When each of these organizations succeeds in advancing 
greater stability and prosperity overseas, American interests 
are well served. Promoting development strengthens our security 
and provides new opportunities for our economy to grow, so we 
need topnotch leaders in regional development banks and in our 
developmental agencies. And we are looking forward to hearing 
from two such leaders this afternoon.
    The ranking member is going to come in just a few minutes, 
and he will be able to make, if he wishes, an opening statement 
at that time.
    But, I turn to Senator Kaine, if he has any opening 
statement to make.
    Senator Kaine. No, thank you, Mr. Chairman.
    Senator Markey. So, let us then turn and--Ambassador 
Lenhardt, whenever you are ready, please begin.

STATEMENT OF HON. ALFONSO E. LENHARDT, OF NEW YORK, NOMINEE TO 
    BE DEPUTY ADMINISTRATOR OF THE UNITED STATES AGENCY FOR 
                   INTERNATIONAL DEVELOPMENT

    Ambassador Lenhardt. Thank you, Senator.
    Mr. Chairman and member of the committee, I am honored to 
appear before you today as the nominee for Deputy Administrator 
of the U.S. Agency for International Development. It is, 
indeed, a privilege to come before this committee again, and I 
am grateful to President Obama, Secretary Kerry, and 
Administrator Shah for their trust and confidence.
    Mr. Chairman, I respectfully request that my full written 
statement be submitted for the record.
    Senator Markey. Without objection, so ordered.
    Ambassador Lenhardt. Let me begin by thanking my wife, 
Jackie, who is not here, by the way, because of another family 
emergency we are dealing with, but who has been by my side 
during my years in public service. Jackie, like the men and 
women of USAID, has dedicated her life to serving those most in 
need. Her work in Tanzania to support young girls and women 
recovering from abuse not only transformed communities, it 
embodied America's commitment to empowering women and girls 
around the world.
    It is a pleasure to return to the Senate and see so many 
colleagues and friends. Between my time as an officer in the 
Army, as Sergeant at Arms in the Senate, and as Ambassador to 
Tanzania, I am proud to have dedicated more than 38 years of 
public service to our great Nation. From the battlefield to the 
halls of the Senate to the Embassy of Tanzania, I am fortunate 
to have gained a broad perspective of the opportunities and, 
indeed, the challenges facing the United States. These previous 
leadership roles have required me to manage and maximize 
resources effectively.
    Three decades serving in the Army have prepared me for 
managing critical situations in complex environments similar to 
those where USAID operates, from Afghanistan to Syria to South 
Sudan, USAID workers in some of the most difficult parts of the 
world and toughest parts of the world dealing with fast-
pacing--fast-changing, rather, high-pressure situations that 
require visionary leadership.
    During my time as Sergeant at Arms, I managed Congress' 
internal response in the wake of September 11 terrorist attacks 
and the October 2001 anthrax attack, strengthening security 
throughout the Capitol complex and ensuring the continuity of 
our government. As these events remind us all, we live in an 
interconnected, complicated, and oftentimes tumultuous period. 
And USAID plays a critical role in rooting out the drivers of 
extremism.
    As the Ambassador to Tanzania, I oversaw more than 700 
staff and contract personnel across eight agencies. I inspired 
a collaborative process throughout the Embassy that produced 
real results in support of our diplomatic and humanitarian 
objectives. If confirmed, I look forward to fostering that same 
spirit of collaboration with my interagency colleagues. 
Alongside Administrator Shah, I will work to advance a new 
model of development that harnesses the power of science, 
technology, and innovation, and certainly partnership, to 
accelerate progress for the world's most vulnerable people. Key 
to that effort is forming public-private partnerships that 
leverage more resources, thereby making the agency's efforts 
more sustainable. These partnerships pave the way for USAID to 
work itself out of business, its efforts replaced over time by 
thriving civil societies, vibrant public sectors, and 
transparent, accountable governments. In 2013 alone, DCA loan 
guarantees in El Salvador, Mexico, and in Nicaragua helped 
release $98 million in local lending to 4,000 small- and 
medium-size entrepreneurs.
    In addition to solidifying the reforms already underway, I 
will also work to institutionalize our development initiatives, 
from Feed the Future, climate change, and Power Africa, to 
ending preventable child death and achieving an AIDS-free 
generation. But, above all, the success of the reforms and 
initiatives I have described depend on having in place 
effective management, operations, and systems. If confirmed, I 
will devote a substantial part of my portfolio to ensuring that 
USAID maximizes its impact for every dollar it spends. Doing so 
will require that USAID streamline program areas and make 
strategic investments.
    Finally, I believe USAID has an important story to tell. In 
this regard, I will help build both domestic and international 
consensus for our efforts, ensuring we have more partners 
across the world. Sharing our story not only puts a powerful 
face to the USAID's work, but it also furthers our national 
interests. Partner countries should know how the American 
people have contributed to improving their welfare, helping 
them raise their children--their voices and grow their crops, 
and protect their children from disease and other maladies, and 
certainly to build strong and democratic institutions. Today, 
93 percent of the Tanzanian people express a favorable view of 
America. Imagine the possibilities if we were able to build on 
that and export it across the world. If confirmed, I welcome 
the opportunity to be part of this noble effort.
    Mr. Chairman, I thank you and the members of the committee 
for considering my nomination. I would be happy to answer any 
of your questions.
    [The prepared statement of Ambassador Lenhardt follows:]

             Prepared Statement of Hon. Alfonso E. Lenhardt

    Mr. Chairman, Ranking Member Barrasso, members of the committee, I 
am honored to appear before you today as the nominee for Deputy 
Administrator of the U.S. Agency for International Development (USAID). 
It is a privilege to come before this committee again, and I am 
grateful to President Obama, Secretary Kerry, and Administrator Shah 
for their trust and confidence.
    Let me begin by thanking my wife, Jackie, who has been by my side 
during my years in public service. As a trained social worker for more 
than 15 years, Jackie--like the men and women of USAID--has dedicated 
her life to serving those most in need. Her work in Tanzania to support 
young girls and women recovering from abuse not only transformed 
communities--it embodied this administration's commitment to empowering 
women and girls around the world.
    It is a pleasure to return to the Senate and see so many colleagues 
and good friends. Between my time as an officer in the Army, as 
Sergeant at Arms in the Senate, and as U.S. Ambassador to Tanzania, I 
am proud to have dedicated more than 38 years of public service to our 
great Nation. I am honored that, if confirmed, I will have the 
opportunity to extend that record of service.
    The leadership positions that I have held during the past four 
decades have prepared me to meet the challenge of advancing USAID's 
mission: to end extreme poverty and promote resilient, democratic 
societies--while advancing our own security and prosperity.
    From the battlefield, to the halls of the Senate, to the Embassy of 
Tanzania, I am fortunate to have gained a broad perspective of the 
opportunities and challenges facing the United States. These previous 
roles--as well as my time leading business and nonprofit 
organizations--have required me to manage and maximize resources 
efficiently, all while working toward ambitious objectives.
    Three decades serving as an officer in the U.S. Army have prepared 
me for managing critical situations in complex environments--similar to 
those where USAID operates. From Afghanistan to Syria to South Sudan, 
USAID works in some of the world's toughest places--dealing with fast-
changing, high-pressure situations that require visionary leadership.
    During my time as Senate Sergeant at Arms, I managed Congress' 
internal response in the wake of the September 11th terrorist attacks 
and the October 2001 anthrax attack--strengthening security throughout 
the Capitol complex and ensuring the continuity of our government. As 
these events reminded us all, we live in an interconnected, 
complicated, and often tumultuous time. USAID plays a critical role in 
rooting out the drivers of extremism, and I am prepared to diligently 
review our efforts to ensure that we are advancing our national 
security and are good stewards of taxpayer dollars.
    Most recently, as the U.S. Ambassador to Tanzania, I oversaw more 
than 700 staff and contract personnel across eight agencies. I created 
a collaborative process with Embassy staff, NGOs, and Tanzanian 
nationals that produced real results in support of our diplomatic and 
humanitarian objectives. If confirmed, I look forward to fostering that 
same spirit of collaboration with my colleagues from the State, 
Treasury, Defense, and Agriculture Departments, the Millennium 
Challenge Corporation, Peace Corps, and others.
    Since my nomination, I have had the privilege to speak with a 
number of development experts from the Agency, our diplomatic corps, 
and the National Security Council staff about their priorities and 
challenges in the years ahead.
    If confirmed, I will focus on advancing the reforms that USAID has 
worked so ardently to achieve over the past 5 years. I will also work 
to institutionalize priority programs--like President Obama's food 
security initiative, Feed the Future, among other priority initiatives 
that will double electricity access in Africa, work toward an AIDS-free 
Generation, and drastically improve child and maternal health.
    Alongside Administrator Shah, I will work to advance the Agency's 
new model of development that harnesses the power of science, 
technology, innovation, and partnership to accelerate progress for the 
world's most vulnerable people. In a time of constrained resources, 
this new approach has enabled USAID to maximize its impact in 
unprecedented ways. By applying it to all of the Agency's programs--
from vaccinating children to empowering entrepreneurs--we can unlock 
resources for millions of at-risk communities around the world.
    Key to that effort is forming public-private partnerships that 
leverage more resources and make the Agency's efforts more sustainable. 
Today, USAID is partnering with everyone from multinational 
corporations to local startups--investing in high-potential talent, 
groundbreaking technologies, and rigorous evaluation tools that deepen 
the impact of our work. Above all, these partnerships pave the way for 
USAID to work itself out of business--its efforts replaced over time by 
thriving civil societies, vibrant private sectors, and transparent, 
accountable governments.
    By pairing policy reforms with private investment, the Agency is 
making historic strides toward ending extreme poverty. In my additional 
role as U.S. Ambassador to the East African Community (EAC), I saw the 
value of this approach firsthand--uniting markets, opening borders, and 
bringing unprecedented economic growth and prosperity to East Africans. 
I recall a CODEL visit to the Selian Agricultural Research Station in 
Tanzania, a joint venture between USAID, local farmers, and the Bill & 
Melinda Gates Foundation. Alongside several members of Congress, 
including Senator Barrasso, Senator Graham, and Senator Hagan, I 
witnessed how the research into drought-resistant, high-yielding 
varieties of maize was helping farmers lift their families out of 
poverty and move their village beyond the threat of chronic hunger.
    A similar effort is under way in Latin America, where USAID is 
working to expand public-private partnerships that produce more mature 
public institutions, an active civil society, and a dynamic private 
sector--with whom USAID can partner to unleash untapped financial 
resources, spur innovation, and bring scientific and technological 
solutions to bear on the region's development challenges. For example, 
USAID's Development Credit Authority (DCA) uses risk-sharing agreements 
to mobilize local private capital to fill financing gaps in emerging 
economies like Mexico. In 2013 alone, DCA loan guarantees in El 
Salvador, Mexico and Nicaragua helped release $98 million in local 
lending to 4,000 small- and medium-sized enterprises.
    If confirmed, I will build on public-private partnerships in Latin 
America and around the world through the innovative efforts of the 
Agency's new U.S. Global Development Lab. The Lab represents a historic 
investment in the power of science and technology to bend the curve of 
development. If confirmed, I will focus on advancing the Lab's mission 
to generate, test, and scale game-changing solutions to complex 
development challenges, while attracting private sector investment to 
improve the sustainability of our efforts. In Latin America, the Lab is 
already building on a solid track record of successful USAID 
partnerships with private sector companies in the region, including 
Coca Cola, Intel, Microsoft, and Starbucks.
    In addition to solidifying the reforms already under way, I will 
also work to institutionalize the President's core development 
initiatives. I am committed to promoting a new era of agricultural 
growth through Feed the Future; ending preventable child death and 
achieving an AIDS-free Generation; enhancing opportunities for the next 
generation of global innovators through the Young African Leadership 
Initiative; combating global climate change; and through Power Africa, 
achieving the goal of doubling access to electricity on the African 
Continent.
    Having served on the ground in Tanzania, I can attest to the 
results of every one of these initiatives. For example, using a 
creative financing mechanism, USAID's Tanzania Mission was able to 
support the development of a power plant that will provide electricity 
for thousands of citizens that had long lived in the dark. Thanks to 
projects like these, more scientists can conduct pioneering research on 
life-saving treatments; more young entrepreneurs can launch 
groundbreaking technologies; and more children will have the light to 
read by at night.
    I also witnessed firsthand how the Agency's Feed the Future 
specialists collaborated with climate experts to ensure the 
sustainability of our food security programs. This kind of integrated 
approach helps countries like Tanzania increase food, energy, water and 
economic security, and reduce the likelihood and costs of climate-
related shocks--such as storms, flooding or drought.
    But above all, the success of the reforms and initiatives I have 
described--programs essential to fulfilling USAID's mission--depends on 
effective management, operations, and systems. If confirmed, I will 
devote a substantial part of my portfolio to ensuring that USAID 
maximizes its impact for every dollar it spends.
    Doing so will require USAID to streamline program areas and make 
strategic investments. As the President's Directive on Global 
Development says, ``The U.S. cannot do all things, do them well, and do 
them everywhere. Instead, the U.S. must focus its efforts in order to 
maximize long-term impact.'' Under Administrator Shah's tenure, the 
Agency has been committed to ``selectivity and focus''--and if 
confirmed, I will work to apply this principle consistently to the 
decisions we make each and every day.
    Instead of trying to find a ``one-size-fits-all'' approach, I will 
focus on promoting sustainable development through local solutions that 
empower change-agents on the ground, including entrepreneurs, 
university students, and government ministers. This approach builds 
resilient societies in areas of the world especially vulnerable to 
natural disasters and the consequences of climate change--from drought 
in the Horn of Africa, to Typhoon Haiyan in the Philippines, to a 
devastating earthquake in Haiti.
    By responding quickly and forcefully to humanitarian crises, we 
avert suffering and strengthen our own security. My experience as the 
commanding general of an Army training and operational installation in 
Alabama illustrated the importance of working as a team to identify, 
respond to, and mitigate the effects of a crisis--all while remaining 
committed to advancing long-term solutions to endemic challenges.
    Finally, I believe USAID has an important story to tell--and I will 
serve as an advocate for our Nation's work in development. From Nepal 
to Senegal to Honduras, there are tens of millions of families who have 
found pathways to prosperity, health, and security as a result of the 
American people's tireless work and generosity. In doing so, I will 
help build both domestic and international consensus for our efforts, 
ensuring that we have more partners across the world.
    I have seen such success stories firsthand. In Tanzania, USAID 
helped reduce malaria infections by 50 percent, putting us much closer 
to eliminating the disease entirely. USAID also helped train scores of 
health workers on how to perform life-saving resuscitation on 
newborns--cutting mortality rates in half.
    Sharing these stories not only puts a powerful face to USAID's 
work, but it also furthers our national interests. Partner countries 
should know how the American people have contributed to improving their 
welfare--helping them raise their voices, grow their crops, protect 
their children from disease, and build strong democratic institutions. 
Today, an overwhelming number of Tanzanians express a favorable view of 
America; imagine the possibilities as we build on that success in other 
parts of the world.
    As President Obama's global development directive stated, 
``Development is vital to U.S. national security and is a strategic, 
economic, and moral imperative for the United States.'' If confirmed, I 
welcome the opportunity to help lead our Nation's efforts in this area.
    In his last two State of the Union Addresses, President Obama 
called on Americans to help end extreme poverty within the next two 
decades. This is a powerful mission--and I would be honored to serve 
USAID, this President, and our country to make our world a brighter and 
safer place.
    Mr. Chairman, I thank you and the committee for considering my 
nomination. I would be happy to address any of your questions.

    Senator Markey. Thank you, Mr. Ambassador, very much.
    Ms. Occomy, whenever you feel comfortable, please begin.

STATEMENT OF MARCIA DENISE OCCOMY, OF THE DISTRICT OF COLUMBIA, 
NOMINEE TO BE UNITED STATES DIRECTOR OF THE AFRICAN DEVELOPMENT 
                   BANK FOR A TERM OF 5 YEARS

    Ms. Occomy. Thank you, Chairman Markey, Ranking Member 
Barrasso, and distinguished members of the committee. I am 
grateful for the opportunity to appear before you today, and I 
am honored that President Obama has nominated me to serve as 
the U.S. Executive Director for the African Development Bank.
    I grew up in Chicago in a family of excellent role models 
who taught me the importance of hard work, discipline, and 
focus to be successful in life. My grandmother was one of the 
first African-American women to attend Radcliffe College in the 
early 1900s, and later became a prominent writer during the 
Harlem Renaissance. My father entered the University of Chicago 
at the age of 15, excelling in math and later becoming a 
computer executive in the retail industry in Chicago. My mother 
taught public schools for over 30 years, dedicating her life to 
public service. They and many others in my family have 
influenced my decision, in part, to pursue an international 
development career later in my life.
    If confirmed as the U.S. Executive Director to the African 
Development Bank, my vision is to leverage my international 
development experience to support U.S. interests in seeing the 
African Development Bank carry out its mission to promote 
economic development and progress across Africa.
    Boosting growth is important for the African Continent, but 
also for the United States, by opening new markets and 
providing new customers for American goods and services. I have 
years of experience as a fiscal reform advisor on USAID finance 
projects in developing and post-conflict countries.
    I have advised Ministries of Finance as they underwent 
public financial management reforms to strengthen their 
revenues, to build financial systems, and to build the capacity 
to lead these countries toward economic growth while building 
political capacity. I have worked in Kazakhstan, Kosovo, Iraq, 
Afghanistan, and, in Africa, Egypt, Senegal, and, most 
recently, in the newest independent nation in the world, South 
Sudan. I have experienced firsthand when countries struggle to 
balance implementation of sound fiscal policies while seeking 
to maintain political stability and security. I was in South 
Sudan until recently, assisting the country with its recovery 
efforts. Prior to my fiscal reform project implementation 
experience, I worked as a policy analyst at the OMB.
    I also have experience leveraging public-private 
partnerships. As a University of Chicago graduate student on a 
Patricia Harris Fellowship, I worked with the Habitat Company, 
a leading real estate development firm, which partnered with 
the Chicago Housing Authority to build scatter-site housing for 
public-housing residents to better integrate them into the 
broader community. This project was a model for how the public 
and private sector can partner to address the social issue 
effectively.
    I recognize that leveraging private-sector investment 
solutions and technologies will be a critical aspect of the 
future development of Africa, as well. I look forward to 
supporting the African Development Bank to leverage its 
financing instruments to encourage private investment in 
Africa, including through public-private partnerships.
    Attracting private investors to Africa will require 
significant investment in infrastructure and a climate that is 
conducive to investment in Africa. Creating the right 
investment climate will depend on Africa's commitment and 
ability to improve governance, transparency, regional 
integration, and to build a skilled workforce. The African 
Development Bank has played a leading role in assisting African 
countries to address these issues. But, more work remains to be 
done.
    During his July 2013 visit to Africa, President Obama 
launched the Power Africa Initiative, an initiative aimed to 
double access to electricity in sub-Saharan Africa, in 
partnership with African countries and the private sector. In 
announcing this key initiative, the President noted: America's 
been involved in Africa for decades. We are moving, beyond a 
simple provision of assistance, to a new model, a partnership 
between America and Africa, a partnership of equals that 
focuses on Africa's capacity to solve problems and Africa's 
capacity to grow. I embrace the President's vision to promote a 
partnership between the United States and Africa that focuses 
on building Africa's capacity to solve its problems, address 
its challenges, and to realize its potential for tremendous 
economic growth.
    If confirmed, I commit to being a good steward of U.S. 
financial contributions to the Bank and to ensure that the Bank 
supports our Nation's inherent values, recognizing that open 
societies are the strongest societies, transparent systems are 
the most successful systems, and countries that commit to 
equally helping their citizens be healthy and educated, with 
economic opportunities, will be the most prosperous.
    Mr. Chairman and members of the committee, thank you for 
considering my nomination. I have enjoyed meeting members of 
your staff recently and look forward to answering your 
questions today.
    [The prepared statement of Ms. Occomy follows:]

                 Prepared Statement of Marcia D. Occomy

    Thank you Chairman Markey, Ranking Member Barrasso, and 
distinguished members of the committee, I am grateful for the 
opportunity to appear before you today. I am honored that President 
Obama has nominated me to serve as the U.S. Executive Director for the 
African Development Bank.
    I would first like to acknowledge the presence of my family and 
friends/colleagues who are here today to show support for my 
nomination--my mother Norma Jean Occomy; my sister Tracy Marie Occomy 
Crowder and her son, Malik William Occomy Crowder; my sister-in-law, 
Dr. Stacey Parks Occomy; and my niece, Mya Lynn Occomy, and nephew, 
William Andrew Eric Occomy, Jr.; my late father's sister, Marita Joyce 
Occomy Stricklin. Also present a Vassar College colleague - Karen Cox, 
a dear friend, Sidi M. Boubacar, World Bank Chief Counsel, who I worked 
with in Kosovo during the early years of my international development 
career and Daniel Lamaute. My mother who taught public school for over 
30 years in Chicago and my late father William Almy Occomy, a computer 
executive in the retail industry in Chicago, taught me to be the best 
that I can be every day.
    During his July 2013 visit to Africa, President Obama launched the 
Power Africa Initiative, a $7 billion, five-year initiative to double 
access to electricity in sub-Saharan Africa in partnership with African 
countries and the private sector. In announcing this key initiative the 
President noted, ``America's been involved in Africa for decades but we 
are moving beyond a simple provision of assistance, foreign aid, to a 
new model, a partnership between America and Africa, a partnership of 
equals that focuses on (Africa's) capacity to solve problems and 
(Africa's) capacity to grow.''
    I embrace the President's vision to promote a partnership between 
the United States and Africa that focuses on building Africa's capacity 
to solve its problems, address its challenges, and to realize its 
potential for tremendous economic growth. When President Obama launched 
the Power Africa Initiative in Tanzania, African Development Bank 
President Donald Kaberuka joined him for the launch as a symbol of how 
America and Africa can work together to promote inclusive growth in the 
region's new frontier economies.
    If confirmed, I would leverage my international development 
experience to support U.S. interests at the African Development Bank by 
ensuring it carries out its mission to promote economic development and 
progress across Africa. Boosting growth is important for the African 
Continent, but also for the United States, by opening new markets and 
providing new customers for American goods and services. I have years 
of experience as a fiscal reform advisor on USAID- financed projects in 
developing, post conflict countries. I have advised Ministries of 
Finance as they underwent public financial management reforms and 
transformations to strengthen their revenues and to build financial 
systems to put the country on a path toward economic growth, while 
building political capacity. I have worked in such countries as 
Kazakhstan, Kosovo, Iraq, Afghanistan, and in Africa, Egypt, Senegal 
and most recently in the newest independent nation of South Sudan. I 
have experienced firsthand when countries struggle to balance 
implementation of sound fiscal policies, while seeking to maintain 
political stability and security. Prior to my fiscal reform project 
implementation experience, I worked as a policy analyst at the OMB 
during the 1990s.
    I also have experience leveraging public-private partnerships. As a 
University of Chicago graduate student on a Patricia Harris Fellowship, 
I worked with Habitat Company, a leading real estate development firm, 
which partnered with the Chicago Housing Authority to build scattered 
site housing for public housing residents in an effort to better 
integrate them into the broader community. This project was a model for 
how the public and private sector can partner to address a social issue 
effectively. I recognize that leveraging private sector investment, 
solutions and technologies will be a critical aspect of the future 
development of Africa as well. I look forward to supporting the African 
Development Bank to leverage its financing instruments to encourage 
private investment in Africa including through public-private 
partnerships.
    Attracting private investors to Africa will require significant 
investment in infrastructure and a climate that is conducive to 
investment in Africa. Creating the right investment climate will depend 
on Africa's commitment and ability to improve governance, transparency, 
regional integration and to build a skilled workforce. The African 
Development Bank has played a leading role in assisting African 
countries to address these issues, but more work remains to be done. 
The implementation of U.S. policy toward Africa such as the Power 
Africa Initiative combined with our role on the Board of the African 
Development Bank, are key tools to help Africa achieve expanded 
economic growth. It would be my privilege to contribute to these 
efforts to increase the African Development Bank's impact and 
effectiveness in the interests of the United States.
    While humbled by the nomination, I am excited about the prospects 
and challenges facing the African Continent with its emerging economies 
and tremendous potential for growth. I hope to have an opportunity to 
play a role in continuing to foster the partnership between the United 
States and the African Development Bank working together to reduce 
poverty so that the African Continent can attain sustainable economic 
growth. If confirmed, I commit to being a good steward of U.S. 
financial contributions to the bank and to ensure that the Bank 
supports our Nation's inherent values--recognizing that open societies 
are the strongest societies; transparent systems are the most 
successful systems; and countries that commit to equally helping their 
citizens be healthy and educated, with economic opportunities will be 
the most prosperous.
    Mr. Chairman and members of the committee, thank you for 
considering my nomination. I have enjoyed meeting members of your staff 
recently and look forward to answering your questions today.

    Senator Markey. Thank you very much, Ms. Occomy.
    Let me begin by asking you, General. There is a new 
program, U.S. Global Development Lab, that began a few months 
ago at USAID, and its intention is to kind of innovate in this 
area of development. Perhaps you could just give us a little 
sense of how you see that programming unfolding and what you 
would envision as its ultimate product.
    Ambassador Lenhardt. Thank you, Senator.
    I think the Global Development Lab offers an excellent 
opportunity for us to--USAID to think about ways that it can do 
better at programs and look for synergies leveraging 
technology, science, and partnerships that are--I think are 
three critical pieces to being more innovative about our 
approaches to any number of programs that may be undertaken by 
USAID. I think it is something for the future.
    I will give you an example of what we saw in Tanzania, 
although we did not call it ``the lab.'' We looked for 
synergies, we looked for opportunities to partner, to 
collaborate, and looked for efficiencies, as well as, How do we 
improve effectiveness? The Lab will do that. It has already 
begun to pay dividends, in terms of how we think differently 
about partnering, how we think differently about using science 
and technology to do a better job of getting more bang for the 
bucks that are available to us.
    So, I think it is a great opportunity for us to embrace the 
future, to do more. I will tell you that I do not know as much 
as I hope to know. If confirmed, I certainly will become more 
involved in Global Development Labs. But, just looking at it 
from the standpoint of the last couple of weeks, I think it is 
a wonderful program that has the potential for reaping huge 
benefits in the future.
    Senator Markey. Thank you.
    Ms. Occomy, 10 years ago in Africa, 27 million people were 
on landline phones. Just 10 years ago, 27 total million 
Africans. Today, 1 billion Africans have cell phones. That is 
just amazing, that transformation. And they did so by skipping 
the wireline era and going right to wireless. And it is made a 
big difference, in terms of development opportunities.
    So, let us, if you could, talk a little bit about the 
President's Power Africa Program, because it kind of offers the 
same kind of potential for off-the-grid development of 
electrical generating capacity in a very brief period of time. 
So, could you talk a little bit about how the African 
Development Bank could play a role in helping to accelerate the 
pace of electrical generating distribution, as well?
    Ms. Occomy. Thank you, Chairman, for that question.
    I am very pleased that you have raised the Power Africa 
Initiative. The African Development Bank was an early supporter 
and an engaged partner in the Power Africa Initiative. When the 
President launched the initiative, in July 2013, the African 
Development Bank president was there with the President to show 
the symbol of how the bank and the United States in Africa 
could work together towards the goal of increasing electricity 
access across Africa.
    The African Development Bank, specifically since 2013, has 
supported several Power Africa Initiative projects. For 
instance, the African Development Bank provided partial credit 
guarantees for a major wind-power project, the Lake Takana 
Project, in Kenya. And the partial credit guarantees enabled 
the Bank to leverage private-sector investment to fully finance 
that project. So, if confirmed as the U.S. Executive Director, 
in my role, I look forward to working--continuing to work with 
the African Development Bank to continue that partnership with 
the United States to further the goal of increasing access to 
electricity across Africa.
    Senator Markey. I must say, from my perspective the two of 
you are incredibly well-qualified candidates for almost any 
position that we could imagine in the government. So, thank 
you.
    Let me turn and recognize the ranking member of the 
subcommittee, the gentleman from Wyoming, Senator Barrasso.
    Senator Barrasso. Thank you very much, Chairman Markey.
    First, I want to welcome both of you, congratulate both of 
you, and extend a warm welcome to your friends and family who 
are here today.
    You know, should you serve our Nation in these important 
positions for which you have been nominated, I think it is 
important that each of you provide strong stewardship of 
American taxpayer dollars--and you made mention of that; 
demonstrate professionalism and good judgment--and you referred 
to that in your statements; and vigorously work to advance the 
priorities of the United States--and you have made that 
commitment. I hope you will lay out your vision and goals, and 
I have a couple of questions.
    And first, Ambassador--General Lenhardt, good to see you 
again. It is a privilege to be with you. I appreciate your long 
history of service to this institution, the U.S. Senate, as 
well as to our Nation. I wanted to get a little bit into the 
issue of sustainability. As I look at the fiscal year 2013 
Annual Management Challenges Statement, the U.S. Agency for 
International Development's Inspector General took a look at 
it, listed six areas of serious management and performance 
challenges that you will face in this new role.
    One of the areas had to do with sustainability. The 
Inspector General notes that USAID spent about $34 million on a 
Water and Wastewater Sector Support Program, instilled 33 water 
meters to measure the flow of water in various areas. And then, 
upon review, what they found is that none of the meters were 
working, because the government did not have the funds to 
repair or replace them. So, it does not challenge the validity 
of the program or the idea behind setting up, but then the 
funds were not there to actually make sure that they could be 
repaired or replaced.
    And I just wonder, as you head this, as a man who has shown 
a history of commitment to responsible use of taxpayer dollars 
and sustainability, what steps does the agency--does USAID need 
to take to ensure long-term sustainability of these projects? 
Because in your opening statement, you said we need to make 
sure we have accountability for every dollar spent.
    Ambassador Lenhardt. Yes. Thank you, Senator. And good to 
see you again.
    The question you ask, I think, puts your finger right on 
what I consider to be a significant challenge, and certainly it 
is an important one. I mentioned my role--and this is something 
that Dr. Shah and I have talked about--in focusing on 
management, operations, and systems. There are already reforms 
underway--well underway. These past 5 years, Dr. Shah has put a 
number of reforms in place to identify areas and develop fixes 
where the disconnect is there that--you say, How does it--how 
does this happen? As you described. I am not familiar, by the 
way, of the particular issue. But, it requires a diligence, a 
steadfastness to ensuring that American dollar--taxpayer 
dollars are, in fact, protected. And we maximize those.
    And so, without being specific about how I could do it now, 
I have really got to get in and see what does it look like and 
what are the challenges. Sustainability is something that, if 
you recall when you were in Tanzania, I talked about a great 
deal, because I put it on the other foot, meaning the 
Government of Tanzania, ``How are you going to sustain these 
important programs?'' And so, sustainability is something that 
we always, always subscribe to and ensure is happening.
    I will have to look and see, specifically, this one issue, 
but I look forward to working with you and the committee and 
your counsel on how we can do a better job. But, I do know that 
reforms are already underway, and it is something that I am 
very excited about, in terms of the opportunities to work with 
a creative, innovative, take-another-look-at-things, let-us-
not-do-business-the-same-old-way approach that perhaps you 
described a bit in your comments.
    Senator Barrasso. Well, I appreciate your comments. And if 
this had not been in the Inspector General's reports and notes 
from USAID, I would not have been aware of it, either. So, I 
just, you know, would recommend that you may want to take a 
little bit of time to take a look through that to take a look 
at the broad challenges. And obviously, you have been able to 
respond to challenges in many places in this city, as well as 
around the world. So, I am looking forward to maybe hearing 
back from you on what your thoughts are after you have a chance 
to take a look at the whole thing.
    Ms. Occomy, I want to talk a little bit about energy 
sources, if I could. The African Development Bank's goal is to 
promote economic growth, reduce poverty in its 53 African 
member countries, in which we all agree. And I believe the U.S. 
Director of the African Development Bank should support low-
cost, dependable energy sources as a means to help countries 
spur their own economic growth. African countries have 
substantial fossil-fuel resources, including oil, coal, natural 
gas. The African Development Bank's energy strategy notes that, 
``For many African countries, coal-fired power generation,'' 
they say, ``is likely to form part of such an approach to help 
the continent increase its access to modern energy at an 
affordable cost.'' It is there, and it is affordable.
    So, do you agree with the African Development Bank's energy 
strategy, as outlined?
    Ms. Occomy. Thank you, Senator Barrasso, for that question.
    You know, just stepping back, it is important for the 
United States to support the African Development Bank and to 
partner with developing countries to increase access to 
electricity.
    It is important for economic growth, and it is important 
for development.
    The African Development Bank, you know, finances a wide 
range of energy projects. You know that there are vast, 
enormous needs in Africa, and the African Development Bank has 
played a leading role.
    Regarding coal-fired power plants, you know, under the 
guidance, you know, related to the President's Climate Action 
Plan, in certain circumstances, you know, with exceptions, the 
United States can support a vote for a coal-fire power plant 
for the poorest countries, which have the greatest energy 
needs, but it has to be demonstrated that there is no other 
economically feasible alternative and that that project can 
overcome certain binding constraints for the national economic 
development of the country.
    And so, if confirmed, I look forward to supporting the 
African Development Bank as it continues to finance and to 
support energy projects across the spectrum with the aim of 
increasing access to electricity across Africa.
    Senator Barrasso. Mr. Chairman----I am sorry, my time is 
expired, but I will have additional written questions for you.
    Thank you, Mr. Chairman.
    Senator Markey. Gentleman's time is expired.
    The Senator from Virginia, Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman.
    And thank you, to the witnesses, for your willingness to 
serve. And congratulations on your nominations by the 
President.
    To Ambassador Lenhardt, first, I mentioned to you briefly, 
at the beginning, when we were visiting, that, as I travel as a 
member of the Foreign Relations Committee, I always interact 
with USAID personnel in the field, predominantly in the Middle 
East, where my subcommittee jurisdiction takes me. And you have 
some very fine people.
    I know you know that, but I want to make sure that the 
American people know how valuable our small-``a'' ambassadors 
are. And whether it is been in Israel or the West Bank or 
Egypt, Lebanon, Jordan, some wonderful people who are doing 
work, and often under pretty tough circumstances, but they do 
it with a real sense of mission, wanting to represent our 
country well and help the nations where they work to achieve. 
And so, I just commend, through you, the great people that you 
have working for you.
    Ambassador Lenhardt. Thank you.
    Senator Kaine. You actually kind of stole my questions 
right in your opening. You said, ``We are in some hard places, 
from Afghanistan to Syria,'' and I wanted to ask you about 
Afghanistan and Syria, maybe beginning with Syria.
    We have many hearings, in this committee and others, where 
we talk about Syria. And it is common for someone to say the 
United States does not have a plan in Syria. And I am always 
quick to remind them, we are the largest provider of 
humanitarian aid to Syrian refugees in the entire world. And 
that does not happen by accident. That happens because the 
President and Congress are committed to it. And we should not 
be bashful about that. And yet, the humanitarian needs in Syria 
are staggering, and they get more so every day.
    If you would, talk a little bit about the USAID's current 
approach in Syria, in terms of working to avert that horrible 
humanitarian crisis.
    Ambassador Lenhardt. Thank you, Senator. Thank you also for 
your comments about the hardworking USAID personnel, and our 
diplomats, as well, in various parts of the world.
    Syria represents, as you know, a unique problem, and it is 
one that USAID has worked with for many years, and continues to 
work with. Currently, in response to the crisis, USAID is 
providing both humanitarian as well as nonhumanitarian aid, and 
is also looking at the neighboring countries--Lebanon, for one, 
Jordan, and certainly Turkey, and there is also a slippage of 
Iraq, as well. So, we continue to do the work to assist, 
wherever possible, providing for humanitarian needs, comfort, 
shelter, food, clean water, and all of those things, and also 
the--as I mentioned, nonhumanitarian aid, assisting the Syrian 
coalition--the opposition, if I can use that term--in terms of 
how they may be nurtured, how they perhaps offer an alternative 
that we could work with in the future.
    So, those are the things that I am aware of, in terms of 
how USAID continues to support Syria. And, as I said, it is 
ongoing. So, I do not see this as something that is short term 
as much as it will run out in the longer timeframe.
    Senator Kaine. Ambassador Lenhardt, I would like to 
encourage you, encourage all of our administration, sort of, 
across the board--you know, we have been blocked in the 
Security Council frequently as we have tried to make more, in 
terms of assistance to humanitarian efforts in Syria. But--
Russia using its veto power--but, during February, during the 
Winter Olympics, we were able to put something on the Security 
Council docket that it was not--they did not deem it a good 
idea, when the eyes of the world were on them, to veto that 
resolution.
    That resolution called for more aggressive delivery of 
humanitarian aid into Syria--not just Syrian refugees who have 
crossed the border, but into Syria. And the London 11, the 
nations that are trying to finance this effort, met in--a month 
or so later, kind of affirmed that that would be a positive 
strategy that we should pursue. The U.N. report about the 
success of meeting those particular obligations that were put 
out in that Security Council resolution in February have been 
pretty bleak. The Assad regime is still not really cooperating 
to allow humanitarian aid. But, I would hope that the United 
States could utilize that U.N. Security Council resolution with 
the nations that were willing to support it, and continue to be 
creative about finding ways not just to provide humanitarian 
aid outside the country, but inside.
    Let me switch to Afghanistan quickly. I mean, obviously, 
the country has invested a lot, in terms of blood and treasure. 
And some of the results in Afghanistan, if you look at it in 
terms of quality of life, are pretty amazing. The median age in 
Afghanistan, at the time of the initial United States entrance, 
militarily, in 2001, to today, has gone from 40 to over 60--20-
year increase in median age in a nation of 30 million people. 
My back-of-the-envelope tells me that is--that is 600 million 
more years of human life in a country because of some advances 
largely that have been driven by public health advances.
    The advances--the military, that I say--say, ``Look, we 
have created order,'' but it is been the NGOs, the USAIDs, and 
others that have been able to come in and put a public health 
infrastructure in place that has improved quality of life. If 
you could talk a little bit about USAID's plan in Afghanistan 
as we now move to the cessation of combat operations there.
    Ambassador Lenhardt. Thank you, Senator.
    USAID continues to support Afghanistan, but will do so 
consistent with the drawdown. Right now, in particular, though, 
Baghdad seems to be the focus. But, in other parts of the 
country--meaning the pressure point, the conflict--but, in 
other parts of the country, USAID continues normal operations. 
And so, they continue to provide humanitarian assistance, they 
continue to encourage, you know, good governance, 
accountability, and all the things that we hope, in terms of 
inspiring democratic processes.
    But, Baghdad is an issue. We watch it carefully, in terms 
of the security of that. As you know, the U.S. Ambassador 
declared it a disaster area. And so, consistent with that, we 
are watching it, and we are drawing down our forces, based upon 
the scenario that is unfolding.
    But, we are not moving out. And I think that is the point.
    Consistent with the drawdown, also, at the end of the year, 
we will come down to a certain number of USAID people on the 
ground. We still have implementing partners who are there.
    But, the bottom line is, USAID continues to provide support 
to Afghanistan. And I think that is the key. We will continue 
to do that until such time as circumstances determine that it 
is no longer safe, feasible to do that. But, until that 
happens, we are there.
    Senator Kaine. Thank you.
    Mr. Chair, could I ask Ms. Occomy one question?
    Senator Markey. Yes.
    Senator Kaine. Thank you.
    Ms. Occomy, one of the great things about being on Foreign 
Relations is learning about things that you really did not know 
that much about. And so, the African Development Bank, I will 
be honest, I was not an expert about it. And it was good to 
prepare a little bit for your testimony today.
    One of the things I am fascinated by is the current 
structure, where Nigeria, the United States, Japan, and Egypt 
are the four largest contributors of funds that the Bank uses, 
but China has now made a commitment to provide a significant 
chunk of funds to the Development Bank, about 2 to 2\1/2\ 
percent of the funds. And I think that will be an interesting 
relationship as we and China and Japan and Egypt and Nigeria 
work together to figure out what is the right investment 
strategies.
    If you would, talk a little bit about the role that China 
may play in the Development Bank, going forward, and 
opportunities that the United States and China--working 
together, we might be able to make some good headway in Africa, 
but find that that cooperation has other benefits, as well.
    Ms. Occomy. Thank you, Senator Kaine.
    It is really important to note that its importance--you 
know, China can do things bilaterally or China can do things 
multilaterally. So, the obvious situation is, we would prefer 
China to do things multilaterally, to be, you know, part of the 
African Development Bank framework, and to have its funds be 
subject to the policies, procedures, and the safeguards of the 
African Development Bank.
    So, I think it is a positive step in the right direction, 
seeing that, you know, China is being more involved and 
actively engaged in the multi---in the African Development 
Bank. It is on the board, as well. It also just announced a 
partnership with African Development Bank in a setting of the 
Africa Growing Together Fund, $2 billion, that will be managed 
by the African Development Bank. And those funds will also be 
subject to the policies, procedures, and safeguards of the 
African Development Bank. So, I see this, generally, as a good, 
positive direction and, you know, bringing China into the fold 
of the multilateral, you know, rubric.
    So, you know, if confirmed, I look forward to working with 
the African Development Bank and continuing to draw China into 
the partnership and having all of us work together towards, you 
know, economic growth and development in Africa.
    Senator Kaine. Thank you. I agree with you. I think it is a 
very positive development. And the more China is engaged in 
these international organizations, generally, the better, and 
the stronger our relationship is going to be.
    I appreciate the witnesses' answers.
    Thank you, Mr. Chairman.
    Senator Markey. I thank the Senator.
    So, we will finish up by giving each one of you 1 minute to 
tell us your vision for what you see as your role in these 
agencies that you are about to play leadership roles at.
    And we will begin with you, General. If you would just give 
us your 1-minute overview of what your vision is of your time 
there at the agency.
    Ambassador Lenhardt. Thank you, Senator.
    When I retired from the military, I thought I would never 
meet another group of people who are as patriotic, who are as 
committed, who was dedicated to the task of the mission, and 
who are selfless in everything that they undertook. I was 
surprised when I saw those same attributes in the people in the 
diplomatic service and USAID missions there in Tanzania. And 
so, this opportunity gives me that chance to remain affiliated 
with, and to lead and to manage and to look at operations and 
systems that would support these people in the work that they 
do, but also give me a deep sense of satisfaction in continuing 
my service.
    And so, if I am confirmed, I look forward to working with 
these people, because they do excellent work; over a half-
century of tireless, selfless commitment to making the world a 
better place, saving lives, improving lives, as the case may 
be. And I saw that firsthand in Tanzania. And there is nothing 
like it when you look the face of people who realize the 
connection, the partnership, the outreach from the American 
people to the Tanzanian people.
    And so, I want to continue to be part of that.
    Senator Markey. Beautiful. Thank you, General.
    Ms. Occomy.
    Ms. Occomy. Thank you, Chairman Markey, Senator Kaine.
    As I mentioned in my statement, one of my priorities--and I 
think it is important--is to leverage my experience, my fiscal 
reform experience in developing post-conflict countries, to 
support the African Development Bank, to provide technical 
assistance and leadership to many of the African countries, to 
improve their governance accountability, their public financial 
management systems, so that they can be sustainable, so that 
they can have the capacity to overcome their challenges and to 
really steer their growth.
    So, my first priority is to leverage my experience and to 
really work with the Bank to continue its technical assistance 
and support to African countries, particularly the fragile 
states and those experiencing post-conflict.
    My second priority, which I think is important, is--you 
know, an important role of the U.S. Executive Director is to 
coordinate U.S. Government activities, particularly related to 
the African Development Bank, so to really strengthen that 
coordination, to ensure that there is no duplication of 
efforts, and to sort of maximize the assistance, and also to 
strengthen coordination between the African Development Bank 
and the other multilateral development banks relating to 
African development projects, and particularly through 
coordination with the other United states Executive Director 
offices.
    Senator Markey. We thank both of you so much.
    And I think that you are going to receive a lot of support, 
and I think we also have a responsibility to move your 
nominations through the floor of the Senate, as well, so that 
you can get on the jobs that you have been given. And we are 
going to try to accomplish that goal, as well.
    And we congratulate both of you for your careers, thus far, 
which I think are just really beginning. You have tremendous 
opportunities ahead of you.
    And, to all members of the committee who could not be here, 
they will have until the close of business tomorrow to submit 
questions to our two nominees.
    And, with that, this hearing is adjourned.
    [Whereupon, at 2:55 p.m., the hearing was adjourned.]
                              ----------                              


             Questions and Answers Submitted for the Record


          Responses of Hon. Alfonso E. Lenhardt to Questions 
                  Submitted by Senator Robert Menendez

    USAID launched a Gender Equality and Female Empowerment Policy in 
2012. The Gender Equality Policy recognizes the fundamental role that 
promoting gender equality and advancing women's empowerment, including 
freedom from gender-based violence, plays in advancing international 
development. The Deputy Administrator will be tasked with advancing 
USAID's implementation of the U.S. National Action Plan (NAP) on Women, 
Peace, and Security (2011) and the U.S. Strategy to Prevent and Respond 
to Gender-based Violence Globally (2012) to integrate women's 
meaningful participation in conflict prevention and resolution and 
combat violence against women and girls in times of both peace and 
conflict. In 2015, USAID is required by Executive order to work with 
the White House, State Department, and other government agencies to add 
input into a comprehensive review of, and update to, the NAP.

    Question. The U.S. has made a strong commitment through the 
implementation of the National Action Plan on Women, Peace, and 
Security to advance the inclusion of women and gender perspectives in 
peace processes in which the U.S. is involved, such as the Geneva 
negotiations on Syria or the Middle East peace talks. How will you work 
to advance these efforts and what metrics will you use to specifically 
determine the impact of this integration?

    Answer. Throughout my career, I have been an ardent advocate for 
gender equality and women's empowerment, and I will continue to 
aggressively support progress for women and girls through USAID 
programming. In particular, I have seen during peace processes how 
women bring skills and perspectives to the negotiating table that are 
critical for transforming conflict and building peace, and I would 
welcome the opportunity to work closely with USAID's Senior Coordinator 
for Gender Equality and Women's Empowerment to advance implementation 
of the U.S. National Action Plan on Women, Peace, and Security and the 
U.S. Strategy to Prevent and Respond to Gender-based Violence 
Globally--and the full suite of policies put in place in recent years 
to improve integration of gender analysis into USAID's work.
    I know the tremendous effort that USAID has undertaken to shape and 
implement the National Action Plan, providing support to increase 
women's participation in peace dialogues in Uganda, helping female 
politicians in Yemen develop law, and empowering Syrian women leaders 
to participate in transition planning and peace negotiations. For 
example, USAID's activities are helping Syrian women mitigate the 
current crisis, evidenced by cease-fires that were negotiated following 
the establishment of women's peace circles.
    I am committed to building on USAID's work to advance inclusive 
peace and transition processes in coordination with interagency 
colleagues. To measure results, USAID is tracking the number of women 
substantively participating in peace-building activities supported with 
U.S. assistance as part of its regular program reporting. Combined with 
a qualitative assessment of women's ability to influence decisions and 
shape outcomes, these measures will enable USAID to better assess 
women's ability to affect the future of their societies.

    Question. How will you work to prepare USAID for the 2015 U.S. 
Government review and update of the National Action Plan on Women, 
Peace, and Security?

    Answer. I know the National Action Plan (NAP) has been an integral 
part of USAID's work in advancing gender equality and female 
empowerment in countries affected by conflict, crisis, and insecurity. 
As a result, if confirmed, I would ensure that USAID participates in a 
comprehensive NAP review process in close partnership with interagency 
colleagues, civil society, and women in host countries. This review 
will help identify where USAID has been successful and has faced 
challenges, as well as how it can strengthen efforts to achieve full 
implementation of the NAP. During the review process, for example, 
USAID could examine how to bring successful programs to scale, increase 
efforts to engage men and boys, and engage women and girls to help 
combat illicit activities and counter violent extremism.
    As the Agency reviews its programming--from promoting women's 
participation in crisis and conflict situations, to preventing and 
responding to sexual and gender-based violence (GBV) and trafficking in 
persons (TIP), and addressing the needs of women and girls in relief 
and recovery efforts--program evaluations will be an important part of 
informing its approach to NAP implementation.
    USAID has made great strides in integrating women, peace, and 
security (WPS) objectives into its business model, creating training 
for staff who work in crisis and conflict-affected countries and 
composing specific indicators to track investments and results related 
to WPS. I am committed to building on these efforts, and using the 
review and update of the NAP to help determine how and what more we can 
do to improve the lives of women around the world.

    Question. Despite the fact that women are frequently targets of 
radical ideologies and violence, they are often limited in their active 
participation in decision-making on peace and security issues. What 
impact do you believe this exclusion has on our efforts to counter 
extremism and terrorism around the globe?

    Answer. The exclusion of women from decisionmaking and the failure 
to protect their rights can perpetuate violence and undermine 
development. In contrast, investing in the full participation of women 
and girls in development, conflict prevention and resolution, and 
peace-building is critical for building stable, prosperous societies.
    USAID understands that many of the drivers of violent extremism are 
development challenges, and women and girls are critical to responding 
to these challenges. Moreover, as USAID's new mission statement 
prescribes ``we partner to end extreme poverty and promote resilient, 
democratic societies around the world'' precisely because the 
achievement of these goals contributes to our own prospects for 
security and prosperity. Promoting women's active participation on 
peace and security issues, whether it's supporting the recruitment of 
women in police forces or strengthening the ability of women's 
organizations to hold governments accountable, is an investment in U.S. 
security and a vital piece of USAID's mission.

    Question. How do you plan on ensuring that a gender lens continues 
to be integrated across USAID's work, especially in ``nontraditional'' 
sectors such as agriculture and infrastructure?

    Answer. Integrating gender equality and women's empowerment across 
USAID's work is a critical component to improving sustainable 
development outcomes. For example, USAID understands that reducing 
gender inequality and recognizing the contribution of women to 
agriculture is critical to achieving global food security--there is 
consistent and compelling evidence that when the status of women is 
improved, agricultural productivity increases, poverty is reduced, and 
nutrition improves. As a result, Feed the Future integrates gender-
based analysis into all of its investments.
    Furthermore, it is new tools, like the Agency's Women's Empowerment 
in Agriculture Index (WEAI) that will equip USAID with the means to 
identify ways to help women overcome obstacles and constraints. For 
example, information released in May 2014 revealed that among women in 
agriculture, the greatest constraints to empowerment are access to and 
decisions on credit, workload, and group membership. USAID missions are 
using these findings to ensure that program designs are addressing 
gender-based obstacles.
    USAID is also making an effort to bring a gender lens to other 
``nontraditional'' sectors. For example, it is clear that energy-
related projects, programs and policies that explicitly address gender 
roles, power relations, challenges and needs will result in better 
outcomes with respect to livelihoods when they explicitly address 
gender roles and gender specific challenges (challenges related to 
accessing energy services and participating in the energy sector). 
Under the $7 billion Power Africa Initiative, the Agency can support 
gender equality and female empowerment practices by partnering with 
host governments to engender their energy sector policies and 
strategies. In addition, because women in particular are 
underrepresented in the energy and infrastructure sectors, the Agency 
is developing strategies to improve women's skills in order to increase 
their employment and leadership role in these sectors. The Power Africa 
Initiative is also supporting the Beyond the Grid subinitiative, aimed 
at bringing power to the underserved.
    Training is also helping to integrate gender into other sectors. 
USAID recently launched the ``Gender 103: Roles and Responsibilities of 
Mission Gender Advisors,'' an online resource for staff that includes 
strategies for carrying out gender integration in the Agency's everyday 
tasks, and tips on working with mission leadership and technical and 
program offices to integrate gender across all sectors. USAID also 
offers frequent in-person gender integration trainings, and several 
technical sectors have either incorporated gender integration 
requirements and guidance into their live courses or are in the process 
of doing so.

    Question. While implementing the ``U.S. Strategy to Prevent and 
Respond to Gender-based Violence'' issued by Executive order in August 
2012, USAID must not only integrate gender-based violence into current 
programming but, also, conduct stand-alone programming that focuses 
primarily on violence. To ensure proper implementation, directives must 
come from the highest levels of USAID. Do you commit to making 
implementation of the strategy a priority during your tenure?

    Answer. If confirmed, I am committed to prioritizing the 
implementation of the ``U.S. Strategy to Prevent and Respond to Gender-
Based Violence Globally'' (the GBV Strategy)--and this includes both 
integrating GBV prevention and response efforts into various sectors, 
as well as creating stand-alone programming.
    To better integrate GBV into various sectors, USAID is providing 
staff and implementing partners with guidance on how best to integrate 
GBV interventions into the design, implementation, and monitoring and 
evaluation of different sectors.
    In addition, the Agency supports stand-alone programs to address 
gender-based violence across the globe. For example, in India, USAID 
partners with the Japanese Ministry of Foreign Affairs to support U.N. 
Women's Safe Cities New Delhi program, which increases the capacity of 
governmental and nongovernmental stakeholders to respond to and prevent 
violence against women and girls in public spaces. USAID is also making 
progress on strengthening the monitoring and evaluation of GBV stand-
alone programs, evidenced by the recent release the ``Toolkit for 
Monitoring and Evaluating Gender-based Violence Interventions Along the 
Relief to Development Continuum.''

    Question. Both Members of Congress and civil society are anxiously 
awaiting a public report on how implementation of the GBV Strategy is 
progressing. We understand that such a report was due this past winter 
but it has not yet been released. How will you use your position to 
advocate for a timely, public release of the report?

    Answer. I understand that pursuant to the Executive Order 13623 on 
Preventing and Responding to Violence Against Women and Girls Globally 
Common Reporting Framework, USAID has submitted its annual report, 
which outlines the Agency's progress toward implementing the GBV 
Strategy, to National Security Council staff. Much of the information 
contained in the report is sensitive, and as such, has not been 
released publicly. If confirmed, I will support the Agency's efforts to 
work with our interagency colleagues to determine the best method to 
release the report. In addition, I will continue to encourage USAID to 
maintain engagement with civil society in order to provide updates on 
the Agency's progress on GBV interventions, including efforts to 
address child marriage.

    Question. Last year Congress reauthorized the Violence Against 
Women Act and included language requiring the Department of State to 
draft and implement an interagency strategy to address child marriage. 
What is the status of the strategy and how will you work to advance its 
implementation?

    Answer. USAID's ``2012 Ending Child Marriage and Addressing the 
Needs of Married Adolescents: The USAID Vision for Action'' is a pillar 
of the GBV Strategy and is an essential component of the suite of USAID 
gender equality policies and strategies. USAID invests in both 
prevention and response to child marriage because it is a practice that 
undermines efforts to promote sustainable development. It is difficult 
to imagine that upward of 10 million girls under the age of 18 are 
prevented from living a productive life--as part of the impact of this 
practice.
    USAID's investments to address child marriage support the needs of 
married adolescents as well as expand knowledge on effective 
interventions to prevent child marriage. For example, USAID's work is 
supporting proven practices such as the program in Ethiopia where USAID 
helped raise awareness about harmful traditional practices that 
resulted in the ratification of a new law increasing the legal age of 
marriage. The Agency is also testing new approaches such as the program 
in India that evaluates an ongoing government-run conditional cash 
transfer program to delay child marriage.
    Child marriage has been a focus area for program expansion--and if 
confirmed, I will continue to stress the importance of child marriage 
to ensure that young girls all around the world have a chance at a 
brighter future.
                                 ______
                                 

          Responses of Hon. Alfonso E. Lenhardt to Questions 
                   Submitted by Senator John Barrasso

                           inspectors general
    Inspectors general were created by Congress to be independent and 
objective units within each agency whose duty it is to combat waste, 
fraud, and abuse in the programs and operations of that agency. 
Congress provides the inspectors general unfettered access to their 
agencies' systems and records in order to carry out independent 
oversight. Last year, it was reported that a prior Deputy Administrator 
for USAID interfered with an inspector general investigation on bid 
rigging.

    Question. What is your philosophy on working with the inspector 
general?

    Answer. The Office of Inspector General plays an important 
oversight role for all executive branch agencies in the Federal 
Government. The USAID Office of Inspector General has stated that its 
mission is to promote the efficiency and effectiveness of the Agency's 
programs and operations while safeguarding the integrity of all 
concerned. I fully support that mission and believe the objectives of 
the Office of Inspector General are aligned with those of the Agency. I 
share the inspector general's commitment to ensuring that USAID's 
programs are a responsible use of taxpayer dollars, and if confirmed, I 
will work closely with the Inspector General to promote the Agency's 
efficiency and effectiveness.

    Question. If confirmed, do you commit to complying with the 
Inspector General Act by providing the inspector general unfettered 
access to USAID systems and records?

    Answer. Under the Inspector General Act, the inspector general has 
the authority to access all records, reports, audits, reviews, 
documents, papers, recommendations, and other materials that relate to 
the programs under his or her oversight. If confirmed, I would fully 
comply with the act and work to ensure that the Office of the Inspector 
General has the information necessary to fulfill its oversight 
functions for the Agency and its important work around the world.
                  performance management and reporting
    USAID's ability to demonstrate results through performance 
management and reporting was one of the most significant challenges 
identified by the inspector general. The Inspector General's FY 2013 
Annual Management Challenge statement said, ``Quality, reliability, and 
sufficiency of program data are essential to assess whether projects 
are making adequate progress and having the intended impact. Even 
though USAID has extensive guidance to help manage projects, accurate 
and supported results continues to be problematic.''

    Question. Are results, impacts, and evaluations important to USAID?

    Answer. USAID's core values state: ``We strive to maximize 
efficiency, effectiveness, and deliver meaningful results across our 
work'' and ``We seek to improve ourselves and our work continually 
through reflection and evaluation.'' Over the past few years, the 
Agency has made great strides to increase the ability of its staff to 
measure results and understand the impact of USAID programs. Under 
Administrator Shah's leadership, USAID released new ``state-of the-
practice'' policies on evaluations (2011) and performance monitoring 
(2012). Since then, the Agency has trained staff on best practices and 
methods for evaluations (over 1,400) and performance monitoring (nearly 
600). Evaluation reports, including 234 in 2013, are accessible to 
USAID staff worldwide for planning and assessing purposes within three 
months of the evaluation's conclusion.
    If confirmed, I am committed to building the Agency's capacity to 
measure the work we do and deliver foreign assistance in a more 
effective and efficient manner.

    Question. What reforms do you propose in order to ensure quality 
data and accurate results are reported?

    Answer. Since the creation of the Bureau of Policy, Planning and 
Learning (PPL) 3 years ago, the Agency has made good progress in 
revitalizing core business practices. PPL has embarked on an ambitious 
path to refocus USAID on strengthening strategic thinking and command 
of evidence in the discipline of international development, and if 
confirmed as Deputy Administrator, I will fully support this effort.
    As a leader of complex organizations for over 30 years, I know that 
when project managers have access to quality information about the 
activities they are implementing, they can use the data to improve 
their work and direct it in a way that achieves better outcomes. To 
advance this objective, USAID emphasizes project design and performance 
monitoring, which are key to ensuring quality data are collected 
throughout USAID-funded activities.
    The Agency is also piloting a tool to help missions track 
information about their project performance and locations, known as AID 
Tracker Plus. By implementing this tool in conjunction with others, the 
Agency will be able to craft a Development Information Solution that 
allows USAID to tell one cohesive story from strategy to results. This, 
in conjunction with Joint Summary Reports and the Annual Performance 
Reports, which pull aggregate data worldwide, will help identify 
program successes and shortcomings.

    Question. Will you commit to making this one of your top 
priorities?

    Answer. Ensuring the quality of data and accuracy of results are 
top Agency priorities. We know that data are only useful for 
decisionmaking if they are of high quality and provide the groundwork 
for informed decisions. USAID has measures in place to ensure data meet 
this standard. For example, missions are required to conduct data 
quality assessments for all performance data reported to Washington 
every 3 years--measured against five standards of validity, integrity, 
precision, reliability, and timeliness. Furthermore, primary and 
secondary data go through rigorous USAID assessments to ensure that 
they meet the five quality standards. If confirmed, I will continue to 
emphasize data quality as a means to learn and adapt programming in 
response to evidence generated in the field.
    Ultimately, the overall impact of our programs depends on effective 
management, operations, and systems, and if confirmed, I will work to 
ensure that USAID is a good steward of taxpayer dollars.
                            cash on delivery
    At a subcommittee in May last year, I served as ranking member for 
a hearing titled ``Different Perspective on International 
Development.'' Dr. Todd Moss talked about the idea of the U.S. 
Government implementing pay for performance contracts in order for the 
U.S. taxpayer to only pick up the bill for actual achievements.

    Question. How can the USAID work toward outcome from assistance 
instead of inputs or even outputs?

    Answer. Increasingly, USAID is applying a new model for how it does 
business, which places a greater focus on outcomes and sustainability. 
Past models have focused on input/output models transacted mainly 
through acquisition and assistance instruments. Now project 
implementation often involves policy dialogue, government-to-government 
assistance, direct engagement of USAID technical staff, a grant, 
contract, loan guarantee, public-private partnerships, and/or a prize 
competition.
    Projects are framed around a clear purpose with measurable outcomes 
and are based on an analysis of the inputs and outcomes required to 
achieve the project purpose. USAID's Global Development Lab has used 
several performance-based approaches, including the Development 
Innovation Ventures and the Grand Challenges, which have milestone-
based payments and ``staged investments'' based on increasing levels of 
evidence. Prizes are another example of pay-for-performance--where 
funding is only awarded once the output or outcome has been achieved. 
For example, USAID used prizes to source algorithms that used public 
data to better assess when mass violence against civilians may occur in 
a given location. This method is being further developed and utilized 
by policymakers and academics for analytical purposes. The cost of 
procuring the algorithms via an open, challenge-driven prize were far 
lower than a traditional grant or contract.
    Under the Local Solutions initiative, USAID is also supporting 
results-based financing in its government-to-government assistance to 
strengthen host systems, mitigate risk, and encourage performance 
management.
    USAID is exploring the use of Cash on Delivery approaches, as 
relevant in the right country, with the right systems, program, and 
implementation and verification tools to inform further applicability.

    Question. How should the U.S. measure the success and effectiveness 
of international development assistance?

    Answer. The mandate of the newly created Bureau of Policy, Planning 
and Learning (PPL) is to provide strategic planning, monitoring and 
evaluation. One way this objective is being achieved is through the 
creation and institutionalization of the Program Cycle, a model based 
on rigorous methodology for designing, implementing, monitoring, and 
evaluating projects.
    The Program Cycle strengthens the discipline of development at all 
stages, utilizing cutting edge best practices to develop projects on 
the ground. It also emphasizes monitoring a project's performance in 
stages, allowing USAID missions and implementing partners to work 
together to make mid-course corrections to achieve outcomes. In 
addition, a more rigorous approach toward evaluation is leading toward 
greater accountability and continuous learning to inform future 
projects designed throughout our portfolio.
    As noted above, USAID is engaged in a fundamental reform in how it 
designs its interventions so that success is more easily measurable. 
New approaches such as the aforementioned Development Innovation 
Ventures apply a tiered funding approach that is based on results, 
fosters innovation, and encourages partnerships. The Lab has also 
developed the Development Innovation Accelerator, which creates a 
platform for identifying and sharing broad questions that allow USAID 
to connect with innovative organizations to undertake proven 
development models and techniques.
                           core competencies
    Question. In development assistance, what are the core competencies 
and comparative advantages that the U.S. Government should focus on?

    Answer. President Obama's Presidential Policy Directive on Global 
Development (PPD-6) outlines USG development focal areas, including: 
ensuring sustainable regional development outcomes, a more selective, 
locally owned, innovative approach, and establishing a coherent modern 
architecture.
Core competencies
    To ensure Official Development Assistance (ODA) remains sustainable 
even after the USG departs a country, USAID must foster strong, 
democratic governments and work with local partners and institutions, 
which ensures sustainability. Promoting institutions where leaders are 
held accountable and govern responsibly encourages a favorable 
investment climate, thus furthering self-sufficiency.
    The PPD-6 also notes that development is best attained by creating 
broad-based economic growth through providing innovative resources to 
the world's poorest. The USG's size and reach allows us to uniquely 
scale up the best, most innovative ideas for tackling today's 
development challenges. For example, the Feed the Future (FtF) 
initiative accomplishes its goal of combating extreme hunger by 
partnering with local farmers to increase their productivity, and 
engaging the private sector by producing cutting-edge agricultural 
research to benefit targeted communities.
    The USG remains a thought leader across a range of technical 
development sectors, and our expertise drives our successes in global 
health, education, energy, environment, among others. When tackling any 
development challenge, no Agency will operate alone. Federal employees 
call on colleagues from CDC, USDA, EPA, and others to provide their 
expert insight.
Comparative advantages
    The United States has unique access to a vibrant private sector and 
a variety of philanthropic organizations. The Administration's Power 
Africa initiative, for example, aims to give millions of people access 
to electricity in sub-Saharan Africa. Such a project would cost around 
$23 billion, but after an initial investment of only $7 billion, the 
USG has leveraged nearly $15 billion in commitments to fully fund this 
initiative.
    The USG is the global leader in providing rapid disaster 
assistance. No other country has the same lift or logistical capacity, 
nor the equivalent pre-positioned resources necessary to respond to 
humanitarian and environmental crises.

    Question. What objectives should be left to others to handle?

    Answer. Attaining strong, broad-based economic growth meant to lift 
the impoverished out of poverty or resolve long-standing violence 
cannot be achieved by U.S.-funded development assistance alone. It must 
be a coordinated effort planned in concert with other donors, actively 
encouraged and supported by the host nation, and jumpstarted by private 
industry.
    The Presidential Policy Directive on Global Development (PPD-6) 
states that the USG should ``forge a deliberate division of labor among 
key donors.'' Specifically, it states that the United States will 
``seek an explicit division of labor by focusing our efforts on select 
countries and regions.'' USAID is continuously assessing where we have 
a comparative advantage to work in key regions and sectors, and where 
other donors may complement or better work in those areas--reducing or 
increasing presence where needed. For example, in Brazil, we are 
transitioning from a donor-recipient relationship to a partnership 
program that leverages Brazilian financial and technical resources to 
advance shared development objectives in the region and around the 
world.
    The PPD also instructs to ``Focus our expertise in a smaller number 
of sectors, with an emphasis on selectivity and an orientation toward 
results.'' USAID significantly increased its focus through development 
initiatives such as Science, Technology and Innovation; Power Africa; 
Global Health; Feed the Future; and Global Climate Change. In addition, 
USAID phased out Feed the Future agriculture programs in 22 countries 
since FY 2010 and 23 countries from USAID Global Health programs. USAID 
also has begun creating focused integrated development objectives 
within the Country Development Cooperation Strategy (CDCS) process and 
strategic alignment will be key in the FY 2015 budget process.
    Finally, the PPD directs USG to ``Work with bilateral donors, the 
multilateral development banks and other international organizations to 
ensure complementarity and coordination of efforts.'' USAID holds 
regular consultations at the headquarter level with multiple donor and 
NGO partners such as DFID, the European Union, Norway, Denmark, 
Australia, World Bank, and the Arab Donor League. Successful 
partnerships include the partnership with the Swedish International 
Development Cooperation Agency (SIDA) focused on Science, Technology 
and Innovation for cutting-edge development solutions to reduce 
poverty. Another example is USAID also recently hosted the first U.S.-
Japan Development Dialogue to deepen collaboration with the Japanese 
International Cooperation Agency (JICA) in multiple sectors, including 
gender equality and female empowerment. USAID also continuously shares 
technical skill and lessons learned at the working group level when 
coordinating with other donors and NGOs.
    If confirmed, I will continue USAID's efforts to partner with a 
variety of sister agencies across the Federal Government as well as 
other actors, ranging from donors to private industry, NGOs, host 
country governments and community-based organizations to tackle 
development challenges across the world.
                                 ______
                                 

            Responses of Marcia Denise Occomy to Questions 
                   Submitted by Senator John Barrasso

                        power africa initiative
    The administration has identified the African Development Bank as 
one of the agencies involved in the Power Africa Initiative. The bank's 
portfolio has included energy infrastructure projects for a long time.

    Question. Please identify the specific infrastructure efforts being 
pursued by the administration that fall under the Power Africa 
Initiative at the African Development Bank.

    Answer. To help meet Africa's sizeable electricity needs, the 
United States, through Power Africa, is forging partnerships with 
African governments and organizations, other donors, and the private 
sector to advance key reforms and specific energy projects.
    As a critical Power Africa partner, the African Development Bank 
(AfDB) supports far-reaching power sector reforms and provides 
technical assistance to improve the enabling environment, offers legal 
assistance to negotiate power purchase agreements (PPAs), and provides 
various financing tools for energy projects, including guarantee 
instruments to mitigate off-taker risks.
    Some examples of the strong U.S.-AfDB collaboration on Power Africa 
include:

  <bullet> In Kenya, the AfDB and the U.S. Government are providing 
        financing, technical assistance, and partial risk guarantees 
        (designed to attract private sector investment in projects by 
        reducing the risk of participating) for the 300 MW Lake Turkana 
        Wind Project.
  <bullet> In Ethiopia, the U.S. Government is supporting the AfDB's 
        African Legal Support Facility's work to provide guidance to 
        the Government of Ethiopia regarding negotiations of the PPA 
        for the 1,000 MW Corbetti Geothermal Project.

    Question. How many of these projects were already being pursued 
prior to the announcement of the Power Africa Initiative by President 
Obama in 2013?

    Answer. The AfDB has long been committed to promoting energy access 
across Africa, and some of the Bank's current efforts under Power 
Africa existed as proposals or active projects prior to President 
Obama's announcement in June 2013. However, many of these proposals and 
projects were not advancing. Power Africa created new momentum and 
unlocked sticking points by providing a coordinated approach across 
different agencies that, together, have the range of tools needed to 
accelerate energy development--from advice on policy and regulatory 
reforms, to prefeasibility support and capacity-building, to long-term 
financing, insurance, guarantees, credit enhancements and technical 
assistance.
    The risks associated with investing in Africa's energy sector are 
significant, and a key goal of the U.S.-AfDB collaboration on Power 
Africa is to help close the know-how and financing gaps and to 
accelerate energy investment projects on the continent.
                             energy sources
    During your confirmation hearing in the Senate Committee on Foreign 
Relations, you stated, ``the U.S. can support a vote for a coal powered 
power plant for the poorest countries, which have the greatest energy 
needs.''

    Question. Do the 53 member countries of the African Development 
Bank include some of the poorest countries in the world?

    Answer. The United States can support coal projects in IDA-only 
countries, where energy needs are often the greatest, in specified 
circumstances. Thirty-seven of the AfDB's fifty-three member countries 
are IDA-only. Eligibility for IDA support depends on a country's 
creditworthiness and relative poverty, defined as GNI per capita below 
an established threshold that is updated annually (in fiscal year 2014: 
$1,205).

    Question. Is there a tremendous need for energy generation and 
transmission in the 53 member countries of the African Development 
Bank?

    Answer. Yes. Sub-Saharan Africa has the lowest electrification rate 
in the world; nearly 600 million people, 70 percent of the population, 
go without electricity every day. Rural electrification rates are well 
below 5 percent in many areas--much lower than in Asia or Latin 
America. The lack of access to power is one of the largest obstacles to 
economic growth and poverty reduction on the continent. The U.S. 
Government is partnering with the AfDB to close this energy gap by 
increasing generation capacity and access to electricity.
    Many African countries have substantial energy resources that 
include oil, natural gas, and coal.

    Question. Will you vote in support of energy development projects 
that include oil, coal, and natural gas at the African Development 
Bank?

    Answer. The U.S. Government is committed to helping to improve 
energy access and energy security to households and businesses in 
Africa and around the globe as an important element of economic 
development. Each project that comes to the Board for consideration is 
evaluated on its contribution toward sustainable development 
objectives, including support for a cleaner energy future. The U.S. 
Government's approach on coal seeks to promote technologies, such as 
carbon capture and sequestration (CCS), that will make coal feasible 
with lower emissions, alongside the promotion of cleaner sources of 
energy such as natural gas, wind, and solar. In line with the 
President's Climate Action Plan, I understand that support for coal 
power-generation projects may be considered, depending on the country, 
and subject to additional conditions, (a) for facilities deploying 
carbon capture and sequestration technology, or (b) employs the best 
available technology for reducing GHG emissions that is practically 
feasible where the project overcomes binding constraints on national 
economic development in the world's poorest countries. The United 
States Treasury ``Guidance for U.S. Positions on MDBs Engaging with 
Developing Countries on Coal-Fired Power Generation'' (issued in 
October 2013) states that in ``IDA-only countries, where energy needs 
are often that greatest, the MDB could proceed with appraising a coal 
project that does not meet the best internationally available 
technology criteria, if it can be demonstrated that the project 
overcomes binding constraints on national economic development.''

    Question. Do you believe coal provides a low cost and reliable 
energy source which is important to countries looking for assistance in 
poverty alleviation and economic development?

    Answer. Facilitating energy access and energy security to people in 
Africa and around the globe is a priority for the United States, and I 
understand how important such access is to promoting growth and 
economic development. The United States continues to pursue this goal 
using the cleanest technology possible. In line with the Climate Action 
Plan, I understand that the U.S. Government will consider support for 
coal projects using the best available technology for reducing GHG 
emissions that is practically feasible where the project overcomes 
binding constraints on national economic development in the world's 
poorest countries, or for facilities that deploy carbon capture and 
sequestration.

    Question. Do you believe requiring borrowers to accept higher cost 
energy projects is a responsible use of taxpayer dollars when 
affordable and reliable alternatives are readily available?

    Answer. The United States is committed to the pursuit of 
sustainable economic development. Least-cost alternatives in the short 
term are not always the most cost-effective in the long run. Climate 
change is one of many risks to the sustainability of development 
outcomes, and may have a disproportionate impact on the world's most 
vulnerable communities. A priority for the U.S. Government is to help 
developing economies shift to sustainable energy solutions, including 
lower-carbon energy sources so they can avoid a lock-in of high-
emission power plants. Support for cleaner energy technologies that 
reduce pollution will also improve health outcomes, including reducing 
asthma and heart attacks, thus generating long-term health savings. It 
is important that scarce public financing be used to support the 
deployment of low-emission power generation in order to achieve 
sustainable development outcomes and the most efficient use of taxpayer 
dollars.

    Question. If confirmed, what criteria would you use to determine 
whether you will vote in support of energy development projects at the 
African Development Bank?

    Answer. If confirmed, I will work with colleagues throughout the 
government to ensure that we continue to evaluate projects on an 
individual basis, and we will determine positions based on the merits 
of each project in advancing sustainable and inclusive development 
objectives, consistent with all relevant policies.
                 president obama's climate action plan
    Question. Will pushing President Obama's Climate Action Plan be one 
of your top priorities at the African Development Bank?

    Answer. The Climate Action Plan is an important priority of the 
Obama administration, and as the President's appointee, if confirmed I 
will implement all the priorities and instructions from the White House 
and Treasury Department. The Climate Action Plan is relevant for the 
African Development Bank as it provides guidance regarding the 
President's view on the circumstances under which support for public 
funding of coal-fired power plants overseas is warranted. Working to 
support the long-term sustainability of Africa's resources and the 
serious energy access needs of Africa are important goals to me and to 
the Obama administration.
                                inga dam
    Question. What investments have been made by the African 
Development Bank on the Inga Dam projects?

    Answer. The AfDB has made a number of investments in the Inga 3 
project. In 2008, the AfDB provided a grant of about $15 million for a 
feasibility study that proposed an optimal approach to the development 
of the project. Two additional grants totaling $7 million were 
subsequently made for advisory services and technical assistance, and 
in November 2013, the AfDB approved a $68 million technical assistance 
program. As part of this program, the AfDB is providing technical 
assistance to put in place appropriate institutions, support key 
technical studies, and implement the reforms necessary to realize the 
Inga 3 project.

    Question. What are your views on Inga 3 and the Grand Inga Dam?

    Answer. Inga 3 and Grand Inga have extraordinary potential to 
generate much-needed electricity for the DRC and the region. At the 
same time, the risks of undertaking such an enormous project in a 
country with weak institutions and a poor track record of managing 
large-scale infrastructure projects must not be overlooked. If 
confirmed, I will carefully consider the merits and risks of both the 
Inga 3 and Grand Inga projects.

    Question. What are the potential costs for construction and the 
energy potential of these projects?

    Answer. Costs for the construction of Inga 3 and the associated 
infrastructure are estimated to be between $11-14 billion. Inga 3, if 
constructed, will have a capacity of 4,800 megawatts of electricity. No 
reliable cost estimates are available for the construction of Grand 
Inga. Preliminary estimates of the total capacity of Grand Inga show 
that such a project could have a capacity of 44,000 megawatts.

    Question. Do you support the African Development Bank assisting in 
financing construction of Inga 3?

    Answer. Any decisions regarding the U.S. Government's support for 
Inga 3 will be based on the results of environmental and social studies 
and on the implementation of necessary reforms. The U.S. Government 
will carefully consider the results of both the AfDB and World Bank 
technical assistance programs, and will perform the same due diligence 
that it performs on any multilateral development bank project (which 
factors in legislation on the MDBs), to make a determination about 
support for Inga 3 at the appropriate time. The AfDB has not proposed 
any assistance in financing construction of Inga 3.

    Question. Do you support the African Development Bank assisting in 
financing construction of Grand Inga Dam project?

    Answer. Support for Grand Inga is not being considered by the AfDB 
at this time. The AfDB is currently providing technical assistance for 
the development of Inga 3 and has at this stage has not proposed any 
financing for the construction of either Inga 3 or the Grand Inga Dam 
project.
                             u.s. interest
    Question. How much funding has the United States invested in the 
African Development Bank?

    Answer. Since 1976, the United States has provided over $3 billion 
to the African Development Bank Group to support nonconcessional and 
concessional lending to African countries.

    Question. How is the African Development Bank in the interest of 
the United States?

    Answer. The AfDB is a strong partner that supports U.S. economic 
and security interests across Africa. By promoting private sector 
growth and improving the quality of the regulatory environment, the 
AfDB helps create new markets for U.S. businesses. By supporting 
economic growth in Africa's middle-income countries, the AfDB helps 
solidify nascent democracies in North Africa and create stable 
societies that can govern effectively and meet the needs of their 
people.
    Additionally, the African Development Fund (AfDF)--the concessional 
lending arm of the AfDB--is solely dedicated to working with the 
poorest countries in Africa. The AfDF promotes inclusive growth in the 
region's new frontier economies, deepens economic and regional 
integration, and works with post-conflict and fragile states to assist 
them in becoming productive and stable. The AfDF supports many of our 
security objectives where new threats are emerging, including the Sahel 
and the Horn of Africa, by working to address some of the underlying 
causes of instability.
    Investments by the United States in the AfDB have a significant 
leveraging effect, with each additional dollar of capital supporting 
additional lending of $20. U.S. contributions to the AfDF also provide 
significant returns, with every dollar contributed leveraging close to 
an additional $12.

 
                    NOMINATIONS OF TODD D. ROBINSON 
                         AND LESLIE ANN BASSETT

                              ----------                              


                        THURSDAY, JULY 10, 2014

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Todd D. Robinson, of New Jersey, to be Ambassador to the 
        Republic of Guatemala
Leslie Ann Bassett, of California, to be Ambassador to the 
        Republic of Paraguay
                              ----------                              

    The subcommittee met, pursuant to notice, at 10:01 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Tom Udall 
presiding.
    Present: Senators Udall, Kaine, and McCain.

             OPENING STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. I call this nomination hearing to order. 
Today we meet to consider two nominations for the Western 
Hemisphere: first, Deputy Assistant Secretary for the Bureau of 
International Narcotics and Law Enforcement, Mr. Todd D. 
Robinson, to be U.S. Ambassador to the Republic of Guatemala; 
and second, the Deputy Chief of Mission to the U.S. Embassy in 
Seoul, Korea, Leslie Ann Bassett, to be Ambassador to the 
Republic of Paraguay.
    Both nominees are Career Foreign Service officers who 
currently hold the rank of minister-counselor. Both have 
extensive experience in the Western Hemisphere, which will be 
needed to address many of the pressing issues of importance to 
the United States and the regions they will serve.
    In Paraguay, if confirmed, Ms. Bassett will be confronted 
with issues surrounding economic development, counternarcotics, 
corruption, and governance reform, as well as sticky issues of 
land reform and indigenous rights. Furthermore, she will need 
to address the issues of terrorism and the threat of terrorism 
in the triborder region of Paraguay, Argentina, and Brazil.
    Like my home State of New Mexico, Paraguay is home to 
indigenous tribes. The Paraguayan population itself is a large 
mix of Spanish and Guarani Indians, many of whom are of mixed 
descent. In fact, 90 of the population speaks Guarani. This 
relatively poor and inland country has had a very difficult 
political history, including decades of dictatorship, in the 
last century. Most recently, the impeachment of the former 
President, Fernando Lugo, in 2012 raised many questions about 
the state of Paraguayan democracy. With the help of the 
Organization of American States, Paraguay held elections in 
2013 and elected the current President, Horatio Cartes.
    Mr. Robinson, if confirmed, you will be representing the 
United States in a country that has experienced civil war, 
dictatorships, and now is in the throes of increasing gang 
violence, economic stagnation, and a resultant migration 
problem that is spreading throughout the hemisphere, including 
in my home State of New Mexico, where many of the immigrants 
are being held in the Federal Law Enforcement Training Center 
in Artesia, New Mexico.
    In order to deal with this most recent crisis, you will 
need to first address the dangers of traveling north to the 
United States. To the families and children that may be 
listening, this journey is dangerous. You should not undertake 
this journey to the United States or to Mexico. I have been 
briefed by the U.S. Immigration and Customs Enforcement, FLETC, 
and the U.S. Customs and Border Protection regarding the 
individuals undergoing removal proceedings and I can positively 
say that, despite what you may have heard, there is no amnesty 
for individuals once they reach the United States.
    While it is easy to concentrate on the impacts of this side 
of the border, you will also need to deal with the underlying 
causes surrounding the migrations of children and families 
outside of Central America. Guatemala, like other countries, is 
in the area known as the northern triangle. It is one of the 
most violent countries in the world, with a rate of homicides 
of 34 homicides per 100,000 people, narcotics trafficking and 
rampant gang violence and a population of distrustful law 
enforcement authorities due to a history of corruption and 
abuse.
    It should not be surprising that some of you believe that 
the dangerous trek to the United States would be worth the 
risk. I believe strongly that not only do we need to address 
issues on this side of the border, which includes passing 
comprehensive immigration reform and strengthening the border, 
but that we need to stop turning a blind eye to a region that 
has continued to receive diminished attention in multiple 
administrations. We need to put together a comprehensive plan 
which helps the countries of Guatemala, El Salvador, and 
Honduras, better deal with violent crime and counternarcotics, 
governance and corruption issues, human rights and judicial 
issues, and economic development.
    Until that happens, I believe that families will continue 
to see the dangerous trek to the United States as the least bad 
option, which will further stress our ability to deal with 
these issues in the border States.
    Mr. Robinson, I am looking forward to hearing from you 
about how you will address these pressing issues during this 
hearing.
    Before we hear from the nominees, I would like to give the 
ranking member, Senator McCain, an opportunity to give his 
opening statement as well.
    Senator McCain.
    Senator McCain. Well, thank you, Mr. Chairman. I do not 
have any opening statement except to thank both of the nominees 
for their long and honorable service to our country, and we 
look forward to rapid confirmation through the committee and 
through the Senate, hopefully before we are out for the year.
    So thank you, Mr. Chairman.
    Senator Udall. Senator McCain, we also look forward to 
that, and I know you put a real emphasis on having well-
qualified nominees and obviously these two I think are very 
high up on that standard.
    I would now like to turn to our two nominees for their 
opening statements, beginning with Mr. Robinson. As always, 
your full testimony will be included in the record, and please 
try and stay within the allotted time.
    Mr. Robinson.

 STATEMENT OF TODD D. ROBINSON, OF NEW JERSEY, NOMINATED TO BE 
            AMBASSADOR TO THE REPUBLIC OF GUATEMALA

    Mr. Robinson. Thank you, Mr. Chairman, Senator McCain. Mr. 
Chairman, distinguished members of the Senate Foreign Relations 
Committee, it is an honor to appear today before you as the 
President's nominee to serve as the United States Ambassador to 
Guatemala. I am humbled by the trust and confidence President 
Obama and Secretary of State Kerry have shown in putting 
forward my nomination for this position.
    I joined the Foreign Service in 1986 and since then I have 
briefed Capitol Hill staff a number of times. Needless to say, 
this time is a little different. This time, while they are not 
with me today, I have the opportunity to acknowledge the 
support of my mother, Willetta BaCote, and my brothers, Mark 
Robinson and Jeffrey BaCote. They have been enormously 
influential on my career and without their support and that of 
my friends and colleagues I would not be before you today.
    Mr. Chairman, if confirmed it will be an honor to return to 
the Republic of Guatemala. I was deputy chief of mission at the 
Embassy in Guatemala from 2009 to 2011. Much of my career in 
the Foreign Service has been in the region--Colombia, El 
Salvador, the Dominican Republic, and Bolivia. I was consul 
general in Barcelona from 2006 to 2009 and I have been a Deputy 
Assistant Secretary in the Bureau of International Narcotics 
and Law Enforcement since 2011. I would hope to use this 
experience to advance United States goals in Guatemala.
    Guatemala is at a critical moment. While the nation has 
made significant progress since signing peace accords in 1996 
that ended a three decade-long internal conflict, significant 
challenges remain: trafficking of humans, weapons, and drugs, 
high rates of violence, impunity and corruption, poor education 
and employment opportunities, and chronic malnutrition. These 
are all serious and all particularly damaging to Guatemala's 
youngest, most defenseless citizens.
    These challenges are complex. They require sustained and 
continued United States cooperation and engagement, and if 
confirmed I will work with this committee and our Guatemalan 
partners to promote respect for human rights and economic and 
social inclusion for all members of society.
    The United States and Guatemala are making progress. 
Guatemala is advancing in the fight against trafficking in 
persons and is committing additional funding in a constrained 
budget environment to its antitrafficking efforts. There is 
strong cooperation on counternarcotics, judicial strengthening, 
and maternal and child health issues, but more steps are needed 
to ensure that this cooperation is institutionalized.
    Earlier this year, a Guatemalan court convicted four labor 
traffickers, the first ever conviction for forced labor in the 
country's history. And the Department of State is working 
closely with the government of Guatemala to resolve the 
remaining 31 intercountry adoption cases pending since 2007.
    Mr. Chairman, we cannot talk about Guatemala today without 
acknowledging the urgent humanitarian situation at the United 
States southern border relating to unaccompanied children. As 
nations that value human dignity, it is our duty to respond 
collectively. Both President Perez Molina and First Lady Rosa 
Leal de Perez have acknowledged the need for collective action 
and we are working toward that end.
    The United States and the Government of Guatemala are 
committed to addressing the factors driving migration, such as 
the lack of economic and education opportunities. We cannot 
resolve this overnight and neither we nor Guatemala can address 
this singlehandedly. If confirmed, I will work with Congress 
and the Guatemala Government to see that U.S. assistance is 
effectively targeted so that Guatemalan citizens can build 
their lives at home. I will also continue efforts to correct 
misunderstandings about U.S. law and correct misperceptions 
that children are permitted to remain in the United States.
    Guatemala is a nation of diverse people who are working to 
consolidate democratic principles and who are cognizant of 
their responsibilities to advance the cause of international 
peace and security. It is a nation of enormous pride and 
cultural patrimony and it will be my high honor to represent 
the United States in Guatemala.
    Mr. Chairman, I deeply appreciate the honor of appearing 
before the committee today. I understand the serious interests 
the United States has in the success of Guatemala and the 
region as a whole. If confirmed, I pledge to work with Congress 
and this committee to ensure that as we meet the challenges 
ahead we do so reflecting the values and ideals of the United 
States.
    Thank you very much and I look forward to any questions you 
may have.
    [The prepared statement of Mr. Robinson follows:]

                 Prepared Statement of Todd D. Robinson

    Mister Chairman, distinguished members of the Senate Foreign 
Relations Committee, it is an honor to appear today before you as the 
President's nominee to serve as the United States Ambassador to 
Guatemala. I am humbled by the trust and confidence President Obama and 
Secretary of State Kerry have shown in putting forward my nomination 
for this position. If confirmed, I look forward to working closely with 
you and your colleagues to advance the interests of the United States.
    I joined the Foreign Service in 1986 and since then, I have briefed 
Capitol Hill staff a number of times. Needless to say, this time is a 
little different. This time, I have the opportunity to acknowledge the 
support of my mother, Willetta BaCote, and my brothers, Mark Robinson 
and Jeffrey BaCote. They have been enormously influential in my career, 
and without their support, and that of my friends and colleagues, I 
would not be before you today.
    Mr. Chairman, it will truly be an honor to return to the Republic 
of Guatemala. As you know, I was deputy chief of mission at the Embassy 
in Guatemala City from 2009-2011. In fact, much of my career in the 
Foreign Service has ranged throughout the region in Colombia, El 
Salvador, the Dominican Republic, and Bolivia. Before going to 
Guatemala, I was consul general in Barcelona, and when I left 
Guatemala, I took up my current duties as Deputy Assistant Secretary in 
the Bureau of International Narcotics and Law Enforcement. I have 
gained a wealth of experience from my work in these places and, if 
confirmed, I pledge to use this experience to advance U.S. goals in 
Guatemala.
    Guatemala is at a critical moment. While the nation has made 
significant progress since the signing of the peace accords in 1996 
that ended a three-decade-long internal conflict, significant 
challenges remain. Trafficking of humans, weapons, and drugs; high 
rates of violence; impunity and corruption; poor education and 
employment opportunities; and chronic malnutrition are all serious 
issues and all particularly damaging to Guatemala's youngest, most 
defenseless citizens. These challenges are complex and require 
sustained and continued U.S. cooperation and engagement and, if 
confirmed, I will work with this committee and our Guatemalan partners 
to promote respect for human rights and economic and social inclusion 
for all members of society.
    The United States and Guatemala are already making some progress. 
Guatemala has made advances in the fight against trafficking in persons 
and is committing additional funding in a constrained budget 
environment to its antitrafficking efforts. There has been strong 
cooperation on counternarcotics, judicial strengthening, and maternal 
and child health issues. If confirmed, I pledge to work to support 
President Perez Molina's ``Zero Hunger'' campaign to see that child 
health efforts, in particular, become institutionalized. Earlier this 
year, a Guatemalan court convicted four labor traffickers, the first 
ever conviction for forced labor in the country's history. The 
Department of State is working closely with the Government of Guatemala 
toward resolution of the remaining 31 intercountry adoption cases, 
pending since 2007. And, Guatemala recently became a ``compliant'' 
country in the terms of the Extractive Industries Transparency 
Initiative (EITI), which means it has agreed to work with civil society 
and international community to ensure all mining projects are conducted 
transparently.
    Mr. Chairman, we cannot talk about Guatemala today without 
acknowledging the urgent humanitarian situation at the U.S. southern 
border related to unaccompanied children. As nations that value human 
dignity, it is our duty to respond collectively. President Perez Molina 
has acknowledged the need for collective action, and we are working 
toward that end. While visiting DHS facilities in Arizona last week, 
Guatemalan First Lady Rosa Leal de Perez, a leading voice on this 
issue, reemphasized the Government of Guatemala's commitment to 
addressing the factors driving migration, including of children, such 
as a lack of economic and education opportunities. The significant 
increase in unaccompanied children is, in large measure, a direct 
result of the challenges I described earlier. We cannot resolve them 
overnight and neither we, nor Guatemala, can address them alone. If 
confirmed, I will work with Congress and the Guatemalan Government to 
see that U.S. assistance is effectively targeted to address the 
underlying causes of migration. I will also continue efforts to correct 
misunderstandings about aspects of U.S. law and correct misperceptions 
that children are permitted to remain in the United States.
    Guatemala is a nation with drive and determination to open its 
borders and compete on a global scale. It is a nation of diverse people 
who are working to consolidate democratic principles, and who are 
cognizant of their responsibilities to advance the cause of 
international peace and security. It is a nation of enormous pride and 
cultural patrimony and, if confirmed, it will be my high honor to 
represent the United States in Guatemala.
    Mr. Chairman, after nearly three decades in the Foreign Service, I 
deeply appreciate the honor of appearing before the committee today. I 
understand the serious interests the United States has in the success 
of Guatemala, and of the region as a whole. If confirmed, I pledge to 
work with Congress, and this committee to ensure that as we meet the 
challenges ahead we do so reflecting the values and ideals of the 
United States.
    Thank you very much, I look forward to any questions you may have.

    Senator Udall. Thank you, Mr. Robinson. We appreciate your 
testimony.
    We now go to Ms. Bassett.

STATEMENT OF LESLIE ANN BASSETT, OF CALIFORNIA, NOMINATED TO BE 
             AMBASSADOR TO THE REPUBLIC OF PARAGUAY

    Ms. Bassett. Mr. Chairman, Senator McCain, I appreciate 
very much the opportunity to appear before you today. This is a 
great honor for me personally and professionally. One hundred 
years ago my great-great-grandfather, Senator William J. Stone 
of Missouri, sat as chairman of this committee during a pivotal 
time in world history. His concern and interest in foreign 
affairs inspired my decision to join the Department of State 
and is the foundation of my enduring respect for the important 
role Congress plays in our foreign policy.
    I am both grateful and humbled that President Obama 
nominated me for this position and I appreciate the confidence 
that the President and Secretary Kerry have shown in me. You 
have my commitment that, if confirmed, I will live up to the 
high standards that the administration has set for its 
appointees, standards that I know this committee and the 
American people expect of nominees.
    I come before you mindful of my family's legacy of service 
to the Nation. My grandfather graduated from West Point, fought 
in World War II, and rose to the rank of general in the U.S. 
Army. My father is a graduate of the U.S. Naval Academy. My two 
uncles served in the Air Force during the Vietnam war, but only 
one came home.
    For the last three decades I have carried on this family 
tradition of service to our country as a Foreign Service 
officer representing the United States across four different 
regions of the globe. More than half my service has focused 
both in the field and from the vantage of Washington on our 
relations with the Western Hemisphere. If confirmed, I will 
draw upon all of my knowledge and experience to advance U.S. 
interests in our important relationship with Paraguay; and if 
confirmed I look forward to working with this committee in this 
effort.
    This is a time of opportunity in the bilateral relationship 
between the United States and Paraguay. We have a strong 
interest in supporting Paraguay's efforts to strengthen its 
democratic institutions, improve the rule of law, advance human 
rights, counter narcotics trafficking and terrorism, combat 
corruption, and promote an effective, transparent government 
and judicial system. The tragedy of human trafficking is 
unfortunately a significant concern in Paraguay and I believe 
more can be done.
    This is a time of opportunity in our trade relationship as 
well. Trade between the United States and Paraguay continues to 
grow. In 2013 our two-way trade totaled $2.2 billion, leaving 
us with a trade surplus of $1.6 billion. If confirmed, I look 
forward to working with the many U.S. businesses represented in 
Paraguay to support a reliable, transparent business 
environment conducive to continued growth in trade and 
investment. Steps Paraguay can take to ensure protection of 
intellectual property rights will help improve prospects for 
increased commerce.
    This is a time of opportunity in our people-to-people ties, 
anchored by a strong Peace Corps presence, sustained by the 
work of dedicated colleagues from the USAID, and made possible 
by the committed efforts of the entire U.S. Embassy in 
Asuncion. If confirmed, I promise to offer mission leadership 
focused on protecting American citizens and advancing the full 
range of our goals.
    If confirmed, I look forward to working with you, your 
distinguished colleagues, and your staffs to advance our 
priorities with the Republic of Paraguay.
    Thank you again for this opportunity and I welcome any 
questions you may have.
    [The prepared statement of Ms. Bassett follows:]

                Prepared Statement of Leslie Ann Bassett

    Mr. Chairman and members of the committee, I appreciate very much 
the opportunity to appear before you today. This is a great honor for 
me, personally and professionally. One hundred years ago my great-
great-grandfather, Senator William J. Stone of Missouri, sat as 
chairman of this committee during a pivotal time in world history. His 
concern and interest in foreign affairs inspired my decision to join 
the Department of State and is the foundation of my enduring respect 
for the important role Congress plays in our foreign policy.
    I am both grateful and humbled that President Obama nominated me 
for this position and I appreciate the confidence that the President 
and Secretary Kerry have shown in me. You have my commitment that, if 
confirmed, I will live up to the high standards that the administration 
has set for its appointees; standards that I know this committee and 
the American people expect of nominees.
    I come before you mindful of my family's legacy of service to the 
Nation. My grandfather graduated from West Point, fought in World War 
II, and rose to the rank of General in the U.S. Army. My father is a 
graduate of the U.S. Naval Academy. My two uncles served in the Air 
Force during the Vietnam war, but only one came home. For the last 
three decades, I have carried on this family tradition of service to 
our country as a Foreign Service officer representing the United States 
across four different regions of the globe. More than half my service 
has focused, both in the field and from the vantage of Washington, on 
our relations with the Western Hemisphere. If confirmed, I will draw 
upon all my knowledge and experience to advance U.S. interests in our 
important relationship with Paraguay. And if confirmed, I look forward 
to working with this committee in this effort.
    This is a time of opportunity in the bilateral relationship between 
the United States and Paraguay. We have a strong interest in supporting 
Paraguay's efforts to strengthen its democratic institutions, improve 
the rule of law, advance human rights, counter narcotics trafficking 
and terrorism, combat corruption and promote an effective, transparent 
government and judicial system. The tragedy of human trafficking is 
unfortunately a significant concern in Paraguay, and I believe we can 
do more to encourage Paraguay to take more action to prevent human 
trafficking.
    This is a time of opportunity in our trade relationship as well. 
Trade between the United States and Paraguay, while relatively modest, 
continues to grow. In 2013 our two-way trade totaled $2.2 billion, 
leaving us with a trade surplus of $1.6 billion. If confirmed, I look 
forward to working with the many U.S. businesses represented in 
Paraguay to support a reliable, transparent business environment 
conducive to continued growth in trade and investment. Steps Paraguay 
can take to ensure protection of intellectual property rights will help 
improve prospects for increased commerce.
    This is a time of opportunity in our people-to-people ties, 
anchored by a strong Peace Corps presence, sustained by the work of 
dedicated colleagues from USAID, and made possible by the committed 
efforts of the entire U.S. Embassy in Asuncion. If confirmed, I promise 
to offer collaborative mission leadership focused on protecting 
American citizens and advancing the full range of our goals.
    If confirmed, I look forward to working with you, your 
distinguished colleagues, and your staffs to advance our priorities 
with the Republic of Paraguay.
    Thank you again for the opportunity to appear today. I welcome any 
questions you may have.

    Senator Udall. Thank you very much, Ms. Bassett.
    I am going to start with questioning with Mr. Robinson. Mr. 
Robinson, as Ambassador how will you address the root causes 
leading to the recent surge in minors migrating from Guatemala 
to the United States? The mass migration is putting immense 
pressure on the United States and especially the border 
regions. In Artesia, New Mexico, the community is being asked 
to take on more of this burden. I recently visited with the 
community in the Federal Law Enforcement Training Center to 
learn more about what is being done. However, the insecure 
conditions these children are fleeing are only getting worse.
    How will you direct resources to support the Guatemalan 
Government in both preventing future migration and supporting 
the repatriation process of those returning to Guatemala?
    Mr. Robinson. Thank you, Senator. We know what the root 
causes are. We know that security--both food security and 
physical security--are important, terrible issues that are 
affecting the country. We also know that there are networks, 
criminal networks that are preying upon the families in 
desperate situations to get their family members from Guatemala 
up to the United States.
    We have programs that we have been employing, implementing, 
that include work with the Guatemalan police, with Customs, 
with Border Patrol. We also have programs that focus on food 
security and maternal and child health. I think we need to 
continue to implement those programs and I would direct 
resources in that regard.
    But this is not something that the United States can do on 
its own. Clearly, the Government of Guatemala has a role to 
play. We have seen some cooperation in that regard. If 
confirmed, I would work even more closely with government 
authorities to address the issue.
    Senator Udall. Thank you.
    Ms. Bassett, the Cartes government's openness to public-
private partnership, particularly in improving their 
infrastructure, I think provides an avenue for U.S. business to 
offer its unique expertise in this area. If confirmed, what 
kind of support will you provide to United States business 
hoping to work in Paraguay in the area of infrastructure, 
agriculture, and other areas for investment?
    Ms. Bassett. Mr. Chairman, thank you. I think you are 
absolutely correct in your assessment that this is an 
opportunity in the Government of Paraguay and with our 
relationship in Paraguay to expand our economic ties by virtue 
of the kind of investment Paraguay seeks to make in 
infrastructure that needs modernizing, both to improve 
opportunities for commerce, but also to extend the reach of 
government into more remote areas.
    We are working and if confirmed I will continue to work to 
try to promote American business opportunities through making 
sure that they are aware of the tenders that are available, 
that the opportunity for bids and procurement are as 
transparent and fair as possible, and that when appropriate we 
advocate on behalf of U.S. businesses interested in engaging in 
new initiatives with the Government of Paraguay.
    Thank you.
    Senator Udall. Thank you.
    Mr. Robinson, as you probably know, I have long advocated 
for increased attention for the Western Hemisphere region. 
However, the administration continually deprioritizes this 
region in relation to others. We are seeing the repercussions 
of this through the thousands of migrants arriving in the 
United States from Central America. How will programs in 
Guatemala be impacted by the decreased request for the CARSI 
program in fiscal year 2015? How will you rebalance this 
request to address crime prevention with equally important 
issues of economic development, judicial and governance reform, 
and addressing human rights and issues surrounding endemic 
corruption?
    Mr. Robinson. Thank you, Senator. We have to acknowledge 
that this has been a very constrained budget environment over 
the last few years. But the State Department and the 
administration have not lost their focus on the important areas 
of the Western Hemisphere, particularly the northern tier: 
Guatemala, Honduras, and El Salvador. Over the last fiscal year 
Guatemala was the recipient of $19 million in aid. They were 
also from CARSI resources, regional resources--they benefited 
from $54 million over the last fiscal year.
    We will continue--I will continue to devote and send 
resources to those areas that are--the programs that are 
particularly important: police reform, obviously; again, 
customs and border. We will also work with the judicial sector 
to continue to work to funnel those resources where necessary.
    Senator Udall. Thank you.
    Ms. Bassett, Paraguay's counternarcotics body reported that 
drug seizures were up by 39 percent in 2013. The country's 
status as a major transshipment route for Andean cocaine is 
troubling, as we have invested considerable resources to 
address the drug crisis in Colombia, Mexico, and Central 
America. How will you engage the Paraguayan authorities to stop 
these transshipments and the potential for Paraguay to become a 
cocaine-producing country itself?
    Ms. Bassett. I agree that it is a serious concern, although 
I think that the Government of Paraguay's successes in 
increasing their amount of interdiction is a positive sign of 
their commitment to address this issue. Through my experience 
working as the deputy chief of mission in Mexico and as 
political counselor in Columbia, I have a great deal of 
personal experience on both the costs and the consequences of 
the narcotics business on host governments as well as on the 
United States, and it is a very serious issue.
    I hope that we can continue to cooperate and train with 
Paraguayan police authorities to try and increase their 
efforts, but also to encourage regional cooperation, since 
Paraguay is primarily a transit country for these products, 
illicit products. So I think the opportunity is also to look at 
regional cooperation to try and stem the flow in that direction 
as well.
    Thank you.
    Senator Udall. Thank you.
    Senator McCain.
    Senator McCain. Well, thank you, Mr. Chairman.
    I thank the witnesses. Ms. Bassett, thank you for your 
family's service to the country going back several generations, 
despite your father's lack of education. [Laughter.]
    And I thank you for your outstanding service. I have had 
the privilege of seeing you in other posts and I have always 
been very impressed by your service and dedication.
    Mr. Robinson, you stated in your written statement: ``The 
United States and Guatemala are already making some progress. 
Guatemala has made advances in the fight against trafficking in 
persons and is committing additional funding in a constrained 
budget environment to its antitrafficking efforts.'' Your 
statement, I do not question the validity. But I do question 
the progress.
    There is no progress, Mr. Robinson. Numbers of children are 
the ultimate decider on whether there is progress or not, and 
those numbers continue to go up. And, as you mentioned, we 
provide $19 million in assistance. I do not know how much other 
funding and assistance. Can you for the record describe, is 
that the sum total of our financial assistance to Guatemala?
    Mr. Robinson. Thank you, Senator. No, it is not the sum 
total. I cannot be exactly sure, but I think we provided over 
the last fiscal year almost $80 million total. Some of that 
obviously goes toward programs that are run by USAID. Some of 
that goes toward funding INL programs that I am familiar with. 
Some of that is regional funding, so it is hard to break it 
down exactly.
    Senator McCain. Well, I want you to carry a message to the 
Government of Guatemala from me and other Members of Congress. 
That is, unless they show a significant amount of progress in 
reducing flow of children into our country, I and others will 
be seeking to reducing that funding dramatically. We have every 
right to expect a greater level of cooperation from the 
government of those three countries, including Guatemala, in 
many cases expediting the flow, including advertising on their 
radio and television that if you can get to the United States 
you can stay, including paying the traffickers thousands of 
dollars and seeing those transactions taking place in 
Guatemala, and of course no border enforcement whatsoever.
    So we are--there are many of us that are subject to the 
immediate impact of these floods of children.
    And by the way, there is no way that the drug traffickers 
and the people who want to send their children to the United 
States could in any way be anything but encouraged when one-
tenth or one-twentieth of those who appear at our border are 
actually returned to the country of origin. That is not a 
disincentive. Actually, that is an encouragement.
    Many of us are very disappointed at the President's 
message, where he came over and asked for legislation, $3.7 
billion for a variety of programs, and then at the end of his 
message: And of course we will negotiate with Congress other 
measures.
    Mr. Robinson, unless those families in Guatemala see 
planeloads of children return to Guatemala, they are going to 
keep sending them, and that is just a fact. Whether it is a 
Bush law, as described by some, or whether it is a Feinstein 
law or whatever it is, the 2008 law obviously was one of the 
catalysts for this, and that has to be changed. And for the 
President of the United States not to view that as the highest 
priority in my view, he still does not get it. And obviously 
the fact that he could not take the trouble to not engage in a 
game of pool and drinking beer and go down to the border to see 
the actual situation, of course, is really exceptional.
    So my message to you, Mr. Robinson, is that we are totally 
dissatisfied with the failure of the Guatemalan Government to 
do anything tangible, and the only real metric is how many 
children from Guatemala are showing up at our border; then 
there will be many of us who want to review very carefully the 
investment of American tax dollars. OK?
    Mr. Robinson. Thank you, Senator. I can assure you that I 
share your concerns and it will be among my highest priorities 
to make sure that we are, number one, making sure that our 
assistance is channeled in the right direction, but also making 
sure that the Government of Guatemala knows that it has a 
significant role to play in helping to address these issues.
    Senator McCain. Thank you.
    I thank you, Mr. Chairman, and I thank the witnesses.
    Senator Udall. Thank you very much, Senator McCain.
    Ms. Bassett, in 2014 Freedom House elevated Paraguay's 
press rating from ``Not Free'' to ``Partly Free'' due to 
reduced political influence in the media. The nation has 
improved the independence and protection of its press in recent 
years, but criminal gangs present a real challenge. Already 
this year, in the border areas with Brazil, two radio 
journalists, Edgar Fleitas and Fausto Alcaraz, reporting on 
local government services and drug trafficking taking place 
across the border were gunned down.
    What steps will you take to support the Government of 
Paraguay's efforts at ensuring the safety of journalists?
    Ms. Bassett. Thank you. As you note, Paraguay has been 
working to improve its record on both press freedoms and other 
human rights, but much work does remain to be done, and the two 
cases you cite are instances where the government has focused, 
as I understand it, its attention, and at least in one case I 
believe an arrest has been made.
    But the importance is not only in following up on crimes 
that have taken place, but trying to prevent crimes in the 
future. If confirmed, I look forward to working with the 
Government of Paraguay on improving its protections, not just 
to journalists, but to indigenous people to women and to people 
of diverse groups, so that everyone may enjoy an equal 
opportunity for a good life in Paraguay, which Gallop rated one 
of the happiest countries in the world. So it is an interesting 
contrast.
    Thank you.
    Senator Udall. Great. Thank you. That is an interesting 
contrast. Thank you very much.
    Mr. Robinson, we appreciate Secretary Kerry's decision to 
award to International Women of Courage Award this year to 
Judge Iris Yassmin Barrios Aguilar. Her work to confront high-
profile corruption, organized crime, and drug trafficking and 
human rights abuses by former military personnel set an 
important precedent and demonstrated the importance of an 
independent judiciary.
    However, the early removal of Attorney General Paz y Paz 
and President Molina's decision to not renew the mandate of the 
Commission Against Impunity are concerning. How would you work 
to improve the management, accountability, and coordination of 
the Guatemalan security and justice sectors, which is critical 
to addressing past crimes and stemming the staggering rate of 
homicides in the country?
    Mr. Robinson. Thank you, Senator Udall. I think, first of 
all, I should say that as DCM in Guatemala from 2009 to 2011 I 
had the opportunity to work with many that are in the current 
government now. If confirmed, I think I would be able to 
maintain and extend that relationship.
    Obviously, the issue of judicial reform and police reform 
is very, very important. We had an excellent relationship with 
the Attorney General, Paz y Paz. We also have a very good 
relationship with the current attorney general, Thelma Aldana, 
who I know from my time there in the past, and I can assure you 
that if confirmed I would work very, very closely with her and 
the rest of the Perez Molina government to address the issue of 
judicial reform.
    I should say that the issues that are important to the 
current attorney general are also issues that impact on the 
issue on the front pages of the newspapers today, the children. 
She has been a strong advocate for children's issues and sexual 
gender-based violence issues, domestic violence issues. I think 
that is very important.
    On the issue of extending the mandate for CICIG, the U.N. 
Commission Against Impunity, I think they have not made a 
decision yet on whether or not to extend the mandate. I would, 
if confirmed, want to consult with both the Commissioner and 
with the President to make sure that all of the important 
issues are taken into account before a decision is made on 
extending that mandate.
    Senator Udall. Mr. Robinson, thank you very much for that 
answer.
    We have been joined by Senator Kaine, who has a real 
interest in the region, and I would turn to him for any 
questioning he would like of the nominees.
    Senator Kaine. Great. Thank you, Mr. Chairman, and thank 
you to the witnesses. Congratulations to both of you for your 
appointments, and thanks also for your significant public 
service prior to this point.
    I know that there have been some questions and the Chair 
has already focused on CARSI. I have been really stunned by the 
reducing budgets for CARSI, the Central America Regional 
Security Initiative. I think it was in fiscal year 2015 $130 
million, which was down from $160 million. In that same fiscal 
year 2015 budget where we had $130 million for CARSI, we, I 
think, originally programmed around $700 million for taking 
care of detainees coming from these countries, and now we are 
saying that is not enough; we will need $3.8 billion.
    So let me start with you, Mr. Robinson. As Ambassador to 
Guatemala, what can you do to help make more plain the need for 
United States assistance in regional security efforts in 
Guatemala and the other Central American nations?
    Mr. Robinson. I absolutely acknowledge that, in this very 
tough budget environment, we have had to really focus on how we 
implement the funding that we have received. If confirmed, it 
would be among my highest priorities to make sure that those 
funds are used appropriately to increase the, for instance, 
training to customs and border patrol, to increase training for 
the police, and police reform. I think those are absolutely 
important issues.
    I will, of course, leave it to you to decide how much money 
is sent in terms of assistance. But I can assure you that my 
priority, should I be confirmed, will be making sure that we 
use those funds to the maximum efficiency possible.
    Senator Kaine. Mr. Robinson, let me continue with you if I 
can on this, because I see you have been in Guatemala 
previously as consul general. You have been in El Salvador. You 
have been in the Dominican Republic. This is going to be an odd 
question: Is there any evidence to suggest that Central 
American parents do not love their children like American 
parents do or like the parents of other nations do?
    Mr. Robinson. Senator, there is no evidence to suggest that 
Central American parents love their children any less than any 
other parents. I think part of the reason for the humanitarian, 
the urgent humanitarian situation, is probably an indication of 
how much they do in fact love their children, but the 
desperation of the situation----
    Senator Kaine. So American parents, if we would imagine--I 
have got three kids. What would it take for me to send my 
children on a journey of thousands of miles where they would be 
faced with dangers? It would be a very gut-wrenching decision 
for me as a parent. It has got to be a gut-wrenching decision 
for Guatemalan parents and others in the Central American 
region, correct?
    Mr. Robinson. I would imagine so, yes, sir.
    Senator Kaine. And it is an expensive proposition. The 
standard of living in these countries is not a significant one. 
So not only is it gut-wrenching to separate yourself from your 
children, but it costs an awful lot of money to do that.
    And I gather that these parents are only doing it because 
of their deep, deep concern about their children's safety in 
the neighborhoods and communities where they live. Is that your 
sense of sort of underlying driver of this flood of 
unaccompanied children that are coming to the U.S. border?
    Mr. Robinson. Senator, absolutely. I think there are 
several underlying reasons. One is the violence, not just in 
Guatemala, but in the northern tier countries. The other is the 
lack of education and economic opportunity. I can assure you 
that, should I be confirmed, those would be absolute priorities 
for me and for making sure that I raise those issues with 
government authorities.
    Senator Kaine. Mr. Robinson, let me just focus on violence 
for a minute. I lived in Honduras for a year and recently spent 
some time with the Honduran President, the new Honduran 
President Hernandez, talking about this issue. The violence in 
these communities, a lot of it is connected to the drug trade, 
is it not?
    Mr. Robinson. Absolutely.
    Senator Kaine. Now, the drug trade in Honduras or 
Guatemala, for example, is not a significant trade because 
Hondurans and Guatemalans consume a lot of drugs, correct?
    Mr. Robinson. We do not think that they consume a large 
amount of drugs.
    Senator Kaine. So the drug trade in these nations is really 
a drug trade where they are being used as a transit point for 
drugs that are generally produced further south, and whether it 
is Guatemala or Honduras or El Salvador, these nations are 
being used as a transit point to get drugs largely to the 
United States--Mexico, the United States, and Canada; is that 
not correct?
    Mr. Robinson. That is correct.
    Senator Kaine. Just focusing on the United States demand 
for drugs as an example, we are a big nation and the Nation, 
the citizens of the Nation are willing to pay a whole lot of 
money for illegal drugs. And it is that money that then becomes 
a corrupting influence that fuels gangs, that fuels the drug 
trade, that fuels the corruption of law enforcement authorities 
in many of these Central American nations; is that not correct?
    Mr. Robinson. Absolutely, Senator.
    Senator Kaine. So this notion of these youngsters who are 
coming to the United States, they are coming to the United 
States because their parents want them to be free from 
violence, and the violence is created to some significant 
degree by domestic choices that American citizens make, to try 
to consume illegal drugs that are coming through their 
countries. Is that not part of what is going on?
    Mr. Robinson. There is no doubt that the corrupting 
influence of the drug trade is having a major effect on the 
governments in the northern tier. But what we have also seen is 
that we can have an effect in arresting that through our 
community policing programs, through our model precinct 
programs. There are ways to go after this, and we have had very 
good cooperation with the government, particularly in 
Guatemala, but throughout the northern tier, in using these 
programs to address the security issue at a very local level, 
at a municipal level.
    Senator Kaine. Mr. Chair, could I continue for a bit? I 
would like to continue if I could.
    As I watch TV programs and things and I see American 
citizens sort of yelling at these kids who have made this long 
trip, as if the kids are somehow anti-U.S., it strikes me that 
many of these kids are only refugees because of U.S. 
destination drug trade. Would it dramatically improve the 
physical security of these countries if U.S.-demand for illegal 
drugs was eliminated tomorrow?
    Mr. Robinson. Senator----
    Senator Kaine. And I know your background includes working 
on narcotics issues. This has been a specialty of yours.
    Mr. Robinson. Absolutely. No, again there is no doubt that 
the corrupting influence of the narcotics trade is a major 
influence, and the violence that is surrounded with that is a 
major influence, on parents who make the decision to send their 
kids on this very arduous journey. How you classify them I 
would leave to another agency.
    Senator Kaine. Sure.
    Mr. Robinson. But it is an urgent humanitarian situation 
and it is one that we think collective action needs to be taken 
to address.
    Senator Kaine. My sense is it is not just something we 
should do because we do not want to have unaccompanied minors 
showing up at the border. But to the extent that U.S.-
destination drug trade is creating major security challenges in 
these nations, who have traditionally been friends and allies 
of the United States, then we even have a little bit of a 
responsibility to try to provide some assistance, either in 
reducing the demand for illegal drugs here or providing 
security assistance so that these nations can deal with a 
problem that is not entirely of their own cause. Would you 
share that view?
    Mr. Robinson. Senator, I absolutely believe and both the 
President and the Vice President and the Secretary of State 
have all made calls for collective action. This is not an issue 
that can be resolved by any one country. The United States is 
going to have to work with Mexico; they are going to have to 
work with the countries of the northern tier, in order to 
address that.
    Senator Kaine. I share that.
    Mr. Chair, I just want to make one point. I think you made 
this point earlier. When we are spending $140 million to help 
Central American nations, $130 million, deal with a regional 
security challenge that we have some complicity in, bluntly, 
and that number is going down, and we are spending $800 
projected to deal with the consequence, and then now deciding 
we have got to spend $3.8 billion to deal with the consequence, 
I think the answer just suggests itself that there is a better 
way to spend the money, that there is a better way to spend the 
money.
    I am interested in digging into the President's $3.8 
billion request because I know some of it is earmarked toward 
the causes. But if we just keep dealing with symptoms and we do 
not deal with causes, then we are going to be dealing with 
symptoms for a very long time.
    Your background in having been in these countries and your 
background in working on narcotics control issues is a very 
important background to bring to this task.
    Ms. Bassett, let me just ask you one question if I can 
about Paraguay. I know that there has been studies suggesting 
that among nations in the Western Hemisphere Paraguay has had a 
particular problem with corruption. This is a domestic 
political matter that we have to be careful about, about how we 
deal with those. But what in your position as Ambassador could 
you do to try to help foster a climate that was more hostile to 
public corruption?
    Ms. Bassett. Thank you. I think we should first take note 
of President Cartes' strong efforts to address that problem 
directly through the appointments he has made to his Cabinet, 
through reforms that he has made in government, through the 
process of issuing very public and transparent tenders for 
infrastructure reform. All those are important first steps that 
I think Paraguay has recognized it needs to take to begin to 
erode that perception of corruption that impacts its reputation 
in the region, as you say, and also its ability to attract new 
investment and trade opportunities.
    I think we can continue and, if confirmed, I will certainly 
continue to encourage the government in that direction, to use 
the resources that we may have through our assistance and other 
programs to promote those reforms and strengthen democratic 
institutions so reforms can endure from administration to 
administration; and then finally remind that our own projects 
and our own processes serve as models. So our visa process can 
be very transparent and objective and that serves as a model. 
We hope to be constructing a new chancery in Paraguay in the 
near future and that process should model the transparency that 
we hope will occur throughout every transaction in Paraguay.
    So both through our programs, our rhetoric, and our actual 
actions in country, I hope that we can reinforce the message 
that there is nothing more valuable than good governance.
    Thank you.
    Senator Kaine. Thank you to both witnesses.
    Thank you, Mr. Chairman.
    Senator Udall. Thank you so much, Senator Kaine, for your 
questioning. I think you hit on some very issues there.
    Let me thank both the witnesses for your testimony today. I 
want to once again echo what I think all of the members of the 
committee said: We thank you very much for your public service.
    We would ask you both to reply very quickly to all 
questions that are submitted for the record. This will allow us 
to move quickly to report your nominations on to the full 
committee. We will keep the record open until the close of 
business Friday so that other Senators can ask questions.
    This hearing is now adjourned. Thank you.
    [Whereupon, at 10:47 a.m., the hearing was adjourned.]
                              ----------                              


                   Material Submitted for the Record


             Responses of Leslie Ann Bassett to Questions 
                  Submitted by Senator Robert Menendez

    Question. How would you characterize the current state of U.S.-
Paraguayan relations? What steps would you propose the United States 
take to assist the Cartes administration in consolidating democracy? 
What would be your top policy priorities as U.S. Ambassador to 
Paraguay?

    Answer. Bilateral relations with Paraguay are strong. Embassy 
Asuncion engages actively and broadly with the Government of Paraguay 
on a range of U.S. national interests. President Horacio Cartes enjoys 
strong public support for his efforts to foster economic growth, reduce 
poverty, and eliminate corruption.
    If confirmed, I will seek to expand efforts to support Paraguay's 
initiatives to make its government more effective in delivering 
services to its people and to create a transparent and democratic 
state. This includes initiatives to reduce poverty, improve public 
health services, promote human rights, fight corruption, incorporate 
the informal the economy and foster development, enhance law 
enforcement capacity, and improve educational systems.

    Question. What are the principal barriers to the growth of the 
Paraguayan economy? What policies does the Cartes government have in 
place to combat poverty, and what support does the United States 
provide in this area?

    Answer. Paraguay has yet to fully realize its economic potential. 
Growth in Paraguay's relatively small economy has been volatile--for 
example, Paraguay had negative growth in 2012, followed by 13.5 percent 
growth in 2013. Paraguay's economy is heavily dependent on agricultural 
commodities exports--many Paraguayans make their living from 
agriculture, often on a subsistence basis. Roughly one-third of 
Paraguay's 6.5 million people live below the poverty line. The Cartes 
administration has sought to grow the economy, create jobs, and sharply 
reduce extreme poverty by building major infrastructure projects, using 
both government funds and newly attracted investment, and increasing 
competitiveness as Paraguay further integrates into the regional and 
global economy.
    USAID began two large 5-year programs in Paraguay in October 2013. 
The programs, totaling $33 million, are focused on inclusive and 
sustainable rural economic development, strengthening public 
institutions, and combating corruption. USAID works with public 
institutions in Paraguay to strengthen management and governance 
systems, improve accountability mechanisms, and professionalize the 
Paraguayan civil service. USAID's economic growth program supports the 
GOP's ``Cultivating Opportunities'' initiative by generating 
opportunities to increase impoverished families' incomes in the 
Northern Zone, one of the areas with highest concentration of poverty 
and limited government presence. If confirmed, I will support 
continuity of these programs in pursuit of U.S. and Paraguayan 
interests.
    In response to Paraguay's request, the U.S. Department of 
Treasury's Office of Technical Assistance funded four teams in 2014 to 
work with the Ministry of Finance and Central Bank to strengthen 
Paraguay's financial institutions and promote transparency.
    If confirmed, I will support continuation of these programs in 
furtherance of U.S. and Paraguayan interests in Paraguay.

    Question. What is the extent of the U.S. Drug Enforcement 
Administration's presence in Paraguay and is this cooperation 
sufficient? With State Department's counternarcotics assistance to 
Paraguay recently eliminated, what types of counternarcotics 
cooperation do you recommend?

    Answer. The U.S. Government works closely with the Government of 
Paraguay on counternarcotics, and focuses on strengthening Paraguayan 
capability to disrupt cocaine trafficking operations, pursue and arrest 
high-level narcotics traffickers, and to combat money laundering and 
trafficking in persons, with an emphasis in and around the Tri-Border 
area. The U.S. Government has provided training, equipment and 
technical support to Paraguay's Anti-Narcotics Secretariat (SENAD), the 
Paraguayan National Police, and the Financial Intelligence Unit (FIU) 
of the Anti-Money Laundering Secretariat (SEPRELAD) as well as training 
to judges and prosecutors who prosecute narcotics and money laundering 
cases.
    Although additional International Narcotics Control and Law 
Enforcement (INCLE) funding has not been requested, the U.S. Embassy is 
using remaining funds to strengthen antimoney laundering and asset 
forfeiture regimes, and to strengthen Paraguay's criminal justice 
system. The U.S. Government also supports sensitive investigation units 
(SIUs) that work well with DEA to disrupt drug trafficking 
organizations.

    Question. What steps do you recommend to help Paraguay tackle its 
persistent and endemic corruption? What are the lessons learned from 
USAID's anticorruption and democracy programming in Paraguay that has 
aimed to reduce corruption in public sector institutions?

    Answer. President Horacio Cartes has emphasized reforming the 
Paraguayan economy and governance controls, seeking to fight 
corruption, impunity, and international crime. He has sought to create 
jobs and sharply reduce extreme poverty by encouraging economic growth, 
investing heavily in infrastructure, and increasing competitiveness. 
These efforts are designed to help Paraguay strengthen the rule of law 
and promote transparency. We are working with President Cartes and his 
administration to address our many shared interests in this area.
    In 2012, Paraguay completed the second of two Millennium Challenge 
Corporation threshold programs totaling over $65 million. Both 
threshold programs were focused on reducing corruption and they 
achieved tangible results including: reducing the length of time for 
response to complaints and for starting a business; building a 
forensics lab to improve the reliability of evidence provided to 
prosecutors; and strengthening procurement processes and accountability 
measures in 12 key government ministries and public offices.
    Currently, USAID supports Paraguay's efforts to develop a National 
Anticorruption Strategy and will provide technical assistance for its 
implementation. An important component of this assistance will focus on 
strengthening the GOP's ability to effectively communicate reforms to 
its constituents. The overarching strategy will encompass USAID and 
Paraguay's joint efforts to strengthen management and governance 
systems improve accountability mechanisms, expand transparency through 
the Open Government Partnership, and professionalize the Paraguayan 
civil service. If confirmed, I will continue to support the Cartes 
administration's efforts to reduce corruption.

    Question. What is your view of the potential threat of terrorism 
emanating from the tri-border region of Paraguay, Argentina, and 
Brazil? What is the extent of the threat posed by the People's 
Paraguayan Army (EPP)? How would you characterize U.S. support to 
Paraguay for its counterterrorism programs and is the level of support 
adequate?

    Answer. The Tri-Border area of Paraguay is home to some of the 
continent's most active contraband traffickers. Although there is no 
evidence of terrorist operations in Ciudad del Este, Paraguay, there 
are concerns that some portion of the money laundered from smuggling 
and drug activity may be used for terrorist financing.
    The U.S. Government supports the Paraguayan Government's efforts to 
build stronger democratic institutions, improve internal auditing 
controls, establish internal disciplinary systems, and incorporate 
regular external audits. These efforts represent the types of systemic 
changes that will decrease the perception of corruption in the country 
and will improve delivery of citizen services.
    A specific example of our support is the Homeland Security 
Investigation (HSI) Trade Transparency Unit (TTU) in Paraguay that 
serves as a strategic effort to combat and prevent exploitation of the 
international trade and financial systems through trade-based money 
laundering. Through the exchange of trade data, investigators are able 
to see both sides of transactions and increase transparency.
    Since 2008, persons claiming to be part of the Paraguayan People's 
Army (EPP)--an internal guerrilla movement--have been active in the 
northern Departments of Concepcion and San Pedro. The group has been 
involved in violence designed to intimidate the population and 
government. The true size of the group has been difficult to establish, 
but the Government of Paraguay believes it to be a small, decentralized 
group of approximately 20-100 members.
    The United States cooperates with the Government of Paraguay to 
counter potentially destabilizing threats. The U.S. Department of 
State's Antiterrorism Assistance program has contributed to building 
Paraguay's counterterrorism law enforcement capacity through training 
that included: the Police Leaders' Role in Combating Terrorism, 
Fraudulent Document Recognition, Investigating Terrorist Incidents, 
Interviewing Terrorist Suspects, and Cellular Telephone Forensics.

    Question. To what degree are there models of effective land reform 
from the region that might be adapted to Paraguay?

    Answer. President Cartes has stated that he supports land reform to 
spur economic growth and alleviate rural poverty. This June, President 
Cartes signed a law returning more than 14,000 hectares to an 
indigenous community. Land reform has been successful in many 
countries. Best practices that have worked well in other countries in 
the region include: developing mechanisms for land registration and 
titling, land taxation which encourages productive use, financing 
mechanisms to help landless peasants purchase land and assistance to 
small farmers in identifying commercially viable crops to move beyond 
subsistence agriculture.
                                 ______
                                 

              Responses of Todd D. Robinson to Questions 
                     Submitted by Senator Tom Udall

    Question. Guatemala is considered to be one of the most vulnerable 
countries to climate change in the region. Tropical storms, flooding, 
and landslides are just a few of the extreme weather events impacting 
the country, many of which are expected to worsen. If confirmed, how 
will you support communities to build resilience, strengthen 
environmental governance and science based decision making?

    Answer. Given the precarious environmental situation in Guatemala, 
as well as the likelihood of continued climate-related impacts, the 
Department of State and USAID have prioritized adaptation to, and 
mitigation of, climate change and environmental degradation under the 
Country Development Cooperation Strategy and the President's Global 
Climate Change Initiative (GCCI). Under GCCI, the United States is 
working to foster low-carbon growth, reduce emissions from 
deforestation, and promote sustainable and resilient societies. In 
Guatemala, USAID's Climate, Nature, and Communities Program, for 
example, works to reduce the risks associated with climate-related 
natural disasters, while also improving adaptive capacity through 
improved natural resource management and biodiversity conservation. 
Additionally, through funding from the State Department, Guatemala 
benefits from USAID's E-CAM Regional Environment Program's work on 
regional adaptation measures focused on building capacity and 
governance structures to respond to the threats and potential impacts 
of climate change.
    If confirmed, I will work through these programs to build 
resilience within Guatemala to respond to the impacts of climate change 
and to improve domestic capabilities to the Guatemalan Government to 
develop their own mechanisms to respond to these vulnerabilities.

    Question. If confirmed, how would you address the ongoing conflicts 
around mines and hydroelectric dams in Guatemala?

    Answer. The Department of State continues to closely monitor all 
potential areas of conflict surrounding mega projects in Guatemala. We 
were encouraged that the Guatemalan Government recently became a 
``compliant country'' in the Extractive Industries Transparency 
Initiative (EITI), which means it has agreed to work with civil society 
and international community to increase the transparency of the mining 
sector. If confirmed, I will encourage the Guatemalan Government to 
work closely--and peacefully--with communities involved in mega 
projects, including mines and hydroelectric dams, to ensure an open and 
peaceful dialogue and that the Guatemalan Government complies with its 
domestic and international legal obligations relating to these 
projects. It is imperative the Guatemalan Government, communities, and 
companies involved find a sustainable way to deal with these types of 
conflicts.
    If confirmed, I will support all parties in their efforts to reach 
an agreement, if the parties believe that would be helpful.

    Question. If confirmed, what steps would you take to encourage 
companies to advance and respect human rights?

    Answer. In Guatemala, the U.S. Government has prioritized the 
promotion of respect for human rights. If confirmed, I will work to 
ensure all companies--foreign and domestic--integrate respect for human 
rights into their business practices, guided by the U.N. Guiding 
Principles on Business and Human Rights. We are already doing this in 
Guatemala under the CAFTA-DR Enforcement Plan, which seeks to protect 
the human and labor rights of domestic employees. Given the large 
extractives industry in Guatemala, we will encourage companies and the 
Government of Guatemala to join the Voluntary Principles on Security 
and Human Rights, an initiative that guides companies on providing 
security for their operations in a manner that respects human and labor 
rights.
    If confirmed, I will encourage continued dialogue between 
government, private sector, and civil society representatives to 
provide an avenue to address concerns relating to the respect for human 
and labor rights in Guatemala, through the Voluntary Principles, among 
other mechanisms.

 
NOMINATIONS OF JANE HARTLEY, JOHN BASS, KEVIN O'MALLEY, BRENT HARTLEY, 
                            AND JAMES PETTIT

                              ----------                              


                         TUESDAY, JULY 15, 2014

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. John R. Bass, of New York, to be Ambassador to the 
        Republic of Turkey
Jane D. Hartley, of New York, to be Ambassador to the French 
        Republic and to serve concurrently and without 
        additional compensation as Ambassador to the 
        Principality of Monaco
Kevin F. O'Malley, of Missouri, to be Ambassador to Ireland
Brent Robert Hartley, of Oregon, to be Ambassador to the 
        Republic of Slovenia
James D. Pettit, of Virginia, to be Ambassador to the Republic 
        of Moldova
                              ----------                              

    The committee met, pursuant to notice, at 10:03 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Christopher 
Murphy presiding.
    Present: Senators Murphy, Shaheen, Kaine, Johnson, and 
McCain.
    Also present: Senators Clair McCaskill and Roy Blunt.

         OPENING STATEMENT OF HON. CHRISTOPHER MURPHY, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Murphy. This hearing of the Senate Foreign 
Relations Committee will now come to order. I am pleased to 
welcome all of our nominees and their friends and family who 
have come here today to support them. We have two panels today. 
The committee is going to be considering the nominations of 
John Bass to be the U.S. Ambassador to the Republic of Turkey, 
Jane Hartley to be the U.S. Ambassador to France, and Kevin 
O'Malley to be our Ambassador to Ireland. Then on the second 
panel we are going to consider the nomination of James Pettit 
to serve as U.S. Ambassador to Moldova and Brent Hartley to be 
the United States Ambassador to Slovenia.
    Suffice it to say this is probably one of the busiest days 
we have had in our subcommittee. The three nominees before us 
represent three of the iconic diplomatic posts for the United 
States around the world. Our second panel will have as its 
subject two countries that are no less important to U.S. 
security interests.
    So we will begin with introductions of the nominees, you 
will be invited to give your opening statements, and then 
answer questions from the panel.
    We are blessed to have with us Senator McCaskill, who is 
here but has to leave for other obligations, to introduce Mr. 
O'Malley. We may be joined by Senator Blunt as well, but at 
this point I will recognize Senator McCaskill for the purposes 
of an introduction.

              STATEMENT OF HON. CLAIRE McCASKILL, 
                   U.S. SENATOR FROM MISSOURI

    Senator McCaskill. Thank you, Mr. Chairman, and thank you, 
Senator Johnson and the other Senators who are here this 
morning, for giving me a few minutes to talk about an 
extraordinarily American story. Kevin O'Malley is a second 
generation Irish American. He is a direct descendant from Irish 
grandparents on both sides of his family, and up until this 
confirmation process actually held dual citizenship in Ireland 
and the United States. Of course, he gave up that dual 
citizenship as part of this confirmation process.
    He has got a wonderful wife and two great sons, and he has 
been the kind of guy that everyone would want to call their 
friend. He is smart, strong, loyal, hardworking. I think one of 
the things that I want to point out to the committee is that he 
is one of the very few lawyers that I know that is comfortable 
on either side of the table. There is a tendency in the legal 
practice to get biased and decide that you are going to be in 
one area or the other in terms of how you represent clients. 
Kevin has been a lawyer who has steadfastly maintained that 
part of being a lawyer is to defend people who have been sued 
and also sometimes to sue people for causes he believes is 
just.
    So I think that is a good preparation for the job of 
Ambassador, because he does see both sides and he has been able 
to work hard on both sides of the table. As evidence of how 
well he is respected for that, in 2013--the highest award you 
can receive from your peers in St. Louis is the Award of Honor 
by the Lawyers Association of St. Louis. This award is given 
annually to a trial attorney whose service to the profession 
and community merits special recognition. He was honored for 10 
years of his service as a Federal prosecutor to the Department 
of Justice and a record of defending physicians and hospitals 
in medical malpractice suits and also as his role in 
representing plaintiffs in some other matters, and also as a 
senior author for the nine-volume Federal Jury Practice and 
Instruction treatise that is actually used in Federal trials.
    So he has academic chops, he has community involvement, he 
has great professional expertise, and he loves his country, but 
he also cares deeply for Ireland, which I think is a great 
combination. I also should point out that he served as an 
officer in the U.S. Army Reserve, so he has that military 
background also, which I think is essential as he represents 
our interests in one of our important allies. Especially at 
this time of conflict around the world, cementing our 
relationships with our colleagues that are our allies, the NATO 
allies, are very, very important.
    And that's why I hope, for all of these nominees, these 
three and the two that follow, I hope that the committee can 
move quickly, because clearly it is a time in the world that we 
need the voice of America at every table, in all of these 
countries. That is why these ambassadorships are in fact so 
critical.
    I know my colleague Senator Blunt is very supportive of 
this nominee. I am sure he will be here some time during the 
hearing this morning. He has expressed his enthusiastic support 
for Kevin O'Malley's nomination to this important position, and 
I know that you will be kind enough to give him a chance to say 
a word when he does arrive.
    And I thank you all for giving me a few minutes to 
introduce my friend and somebody who I think will be the 
essence of a great public servant to the Nation we love. Thank 
you, Mr. Chairman.
    Senator Murphy. Thank you very much, Senator McCaskill. 
Thank you for taking time to join us this morning.
    I believe that Senator Blunt is on his way, so while we are 
waiting why do I not introduce our other two nominees. In doing 
so, I will say just a quick word about the countries to which 
you are being nominated for by way of my opening remarks. Then 
when Senator Blunt comes, we can introduce him, have Senator 
Johnson make some opening remarks, and then get to your 
testimony.
    I am really pleased first to introduce Jane Hartley to the 
committee. She has got a rather impressive career in both the 
public and private sector, but it all pales in comparison to 
the most important thing on her resume, which is that she grew 
up in Waterbury, CT.
    She is currently the chief executive officer of the 
Manhattan-based Observatory Group, where she advises 
multinational corporations and financial institutions about 
policy developments and investment. She is a graduate of Boston 
College. She began her career here in Washington, where she 
worked as the White House public liaison in the White House 
Public Liaison's Office and as the director of congressional 
relations at the Department of Housing and Urban Development.
    She is an experienced leader both in the private and public 
sector, with significant experience in the global economy, 
including the bulk of her experience in and around Europe. She 
will bring a range of all of this experience to serve her well 
as she faces a number of challenges and opportunities if 
confirmed to be our next Ambassador to France.
    A word on France. Our friendship, of course, dates back to 
the very beginning of our Republic and indeed our Nation's 
first diplomatic, Benjamin Franklin, who served with 
distinction as our first Ambassador to France. Today France 
remains a steadfast partner of the United States, grounded in 
our shared values and our rich communal history. France and the 
United States collaborate on every arena, from commerce, where 
commercial transactions between our two countries reach a 
billion dollars every day, to defense and security, where we 
cooperate to counter the terrorism of extremist groups in 
Africa to the Middle East, to diplomacy, where our diplomats 
are working side by side right now in the P5+1.
    But even amongst the closest of friends, some challenges 
remain. One example is France's decision to go ahead with sales 
of the amphibious assault Mistral warships to Russia even after 
Russia's belligerent and illegal actions against Crimea in 
Ukraine.
    Ms. Hartley, we look forward to hearing your thoughts on 
these and other important issues.
    Let me introduce John Bass and then we will go to Senator 
Blunt. We are pleased to have with us Ambassador John Bass, a 
distinguished career member of the Foreign Service with deep 
knowledge of Europe and Eurasia and extensive crisis management 
experience. He is currently the Executive Secretary of the 
Department of State, a position he has held since 2012.
    I got to know him as our Ambassador to Georgia, and 
previous to that he was a leader of the Provincial 
Reconstruction Team in Baghdad. He has demonstrated over and 
over again an ability to lead challenging missions to promote 
U.S. interests. Back in Washington he has held numerous 
leadership roles within the State Department. He is the 
recipient of three Meritorious Honor Awards and five Superior 
Honor Awards, in addition to his Group Honor Awards.
    He graduated from Syracuse University, speaks fluent 
Italian and French. I am sure his Turkish is improving by the 
day.
    I am confident that Mr. Bass is going to bring all of his 
talent to strengthening our bilateral relations with Turkey. As 
you know, Turkey is one of our most important and complex 
relationships. So this nomination is an honor and a challenge 
even for the most experienced of our diplomats. It is a NATO 
ally of the United States and Europe since 1952, but the 
ongoing crises in Iraq and Syria are at the top of our agenda 
with Turkey. I have been to the refugee camps that they are 
hosting on the Syrian border and personally witnessed the 
extraordinary generosity of the Turkish people and their 
government.
    We also continue to value Turkey's contributions to ISAF in 
Afghanistan and other NATO operations, including their 
agreement to host a U.S. early warning radar system.
    But we hope that you do not neglect, if you serve in this 
post, the stalled rapprochement with Israel and peace 
negotiations with Cyprus. Resolutions of these conflicts could 
bring some much-needed stability to the region.
    Turkey is holding its first direct Presidential election 
next month and I strongly believe that we need an ambassador in 
place by the first round of voting. I urge my colleagues to 
agree to consider this nomination of our Ambassador to Turkey 
and all of our nominees before the August recess.
    We welcome you to the committee as well.
    Let me now thank Senator Blunt for joining us. Senator 
McCaskill gave us some opening words on Mr. O'Malley and we 
welcome yours as well.

                 STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. Well, thank you, Chairman, and thank you for 
your indulgence in letting me come a little late. Chairman 
Murphy, Senator Johnson, Senator McCain, Senator Kaine, I am 
glad to be here joining Senator McCaskill as we have an 
opportunity to introduce Kevin O'Malley to be the United States 
Ambassador to Ireland. I may say a few things that Senator 
McCaskill has already said, but we have probably waited long 
enough to have an Ambassador to Ireland that things can be 
repeated here with somebody as qualified as Mr. O'Malley is for 
this job.
    He really comes here with 40 years of public service and 
private service, including service in the United States Army. I 
think he is a very qualified nominee. He understands our 
country and understands the country that he will represent our 
country in.
    He was born and raised in St. Louis, MO. He is highly 
respected in that community and in our State. He is a second 
generation Irish American, capable of representing the values 
and the understanding of our country in that country in a 
significant way. He served as a special attorney for the 
Organized Crime and Racketeering Section of the United States 
Department of Justice from 1973 to 1979, and then became the 
Assistant United States Attorney in St. Louis.
    He currently serves in a number of capacities, both as part 
of the litigation practice group at Greensfelder Attorneys in 
St. Louis, but also working in a number of capacities to help 
other attorneys better understand their responsibilities. He 
serves as a fellow of the American College of Trial Lawyers and 
is continually recognized as one of the best lawyers in 
America.
    In 2009 our Governor, Jay Nixon, appointed him to be the 
only nonphysician member of the Missouri Board of Healing Arts. 
This is a group that licenses and disciplines in that area of 
health care, and he was recently selected to serve as the 
president of that board.
    Again as the only nonphysician on the board, his colleagues 
on that board chose him to lead the board.
    In 1968 he was a community ambassador in Prague, 
Czechoslovakia. Later, in the 1990s he served as an instructor 
for the American Bar Association Central and European Law 
Initiative in Moscow and later in Warsaw. He is a leading 
advocate of education. He brings to this nomination an 
incredible background and even, in visiting with him, a more 
incredible enthusiasm for this job, for our State, his State 
and my State, for our country, a great appreciation for the 
country where he will serve.
    I certainly think the President has made a great choice in 
nominating him for this job and look forward to seeing the 
committee action and hopefully soon to see him serving as our 
Ambassador to Ireland.
    Senator Murphy. Thank you very much, Senator Blunt. I know 
you have a busy morning, but thank you for lending your voice 
to introduce Mr. O'Malley.
    Now let me turn it over to Senator Johnson for opening 
remarks.0
    Senator Johnson. Thank you, Mr. Chairman. I also would like 
to thank Senator Blunt for coming here and introducing Mr. 
O'Malley.
    Just to keep it brief, I want to thank the nominees for 
taking time to visit with me in my office. I want to thank you 
for your coming here to testify today and certainly your 
willingness to serve, and just look forward to your testimony. 
Thank you.
    Senator Murphy. All right, let us get to it. We will start 
from my left to right, so let me introduce Jane Hartley to 
begin with testimony.

  STATEMENT OF JANE D. HARTLEY, OF NEW YORK, NOMINATED TO BE 
AMBASSADOR TO THE FRENCH REPUBLIC AND TO SERVE CONCURRENTLY AND 
     WITHOUT ADDITIONAL COMPENSATION AS AMBASSADOR TO THE 
                     PRINCIPALITY OF MONACO

    Ms. Hartley. Thank you, Chairman Murphy, Ranking Member 
Johnson, and members of the committee. It is a great honor to 
appear before you as President Obama's nominee to serve as the 
United States Ambassador to France and Monaco. Before I begin, 
please allow me to introduce you to my dear husband, Ralph 
Schlosstein, who has been so supportive in this process. If you 
do me the honor of confirming me, Ralph is looking forward to 
coming with me to Paris. My daughter, Kate, and my son, Jamie, 
are not able to be present, but they are here with us in my 
heart and they make me proud every day of my life.
    I am deeply grateful to both the President and Secretary 
Kerry for the trust they have placed in me to serve as chief of 
mission to our oldest friend and ally. I am also grateful to 
the Senators and staff members who took the time to meet with 
me. I appreciated those meetings and I learned from them, and I 
hope that dialogue will continue.
    Some 60 Americans have served as our Nation's highest 
representative to France. Our first two Ambassadors, Benjamin 
Franklin and Thomas Jefferson, arrived in Paris 235 years ago. 
In this century, the list is an honor roll of patriotism and 
accomplishment: Bruce, Dillon, Shriver, Rohatyn, and many, many 
others. It is humbling to be nominated to join that company. 
The honor is magnified because, if confirmed, I will become 
only the second woman to serve in this position, after the late 
Ambassador Harriman.
    Last month on June 6, D-Day, President Obama and President 
Hollande stood side by side at Omaha Beach in Normandy and paid 
a tribute to the Americans who fought to liberate France. When 
Hollande visited Washington in February, he went to Arlington 
and presented the Legion of Honor to the Unknown Soldier. 
France remembers and deeply values our sacrifice.
    Today France is a key NATO ally and stands by our side on 
almost every major issue. Our work together on counterterrorism 
activities is intense and growing, especially in Africa. France 
is an indispensable partner in the Middle East. It remains 
absolutely committed to preventing Iran from acquiring a 
nuclear weapon. If confirmed, I will remind French leaders that 
this is not the time for companies to engage in business as 
usual with Iran.
    France has been a forward-leaning partner on Syria, trying 
to increase pressure against the Assad regime, and France has 
played an important role in responding to the crisis in 
Ukraine, rallying the European partners to keep up pressure on 
Russia, including through sanctions. As the members of the 
committee are aware, France signed a contract with Russia years 
ago to deliver two Mistral-class ships. If confirmed, I will 
press French leaders to make the right decision regarding 
delivery of these ships.
    While our work together on political and security issues 
commands the headlines, our economic ties are no less 
important. We want to ensure that any U.S. firm can take 
advantage of export opportunities to France. We must keep 
engaging France on the benefits of the Trans-Atlantic Trade and 
Investment Partnership, and we want to encourage French 
investment in the United States that creates jobs. French firms 
already employ 500,000 Americans. If confirmed, I will build on 
these already strong trade links that bind our countries.
    I believe that my experience as a private sector business 
executive has especially qualified me for this opportunity. For 
20 years, I have been the CEO of a global macroeconomic and 
political consulting firm. Also, as a board member of a public 
company and as former vice chair of the Economic Club of New 
York, I have developed relationships with central bankers, 
finance ministers, and business leaders throughout Europe and 
particularly in France.
    If confirmed, I will apply my experience running 
organizations to managing our large, diverse mission to France. 
This talented, dedicated team advances our national interests 
and protects U.S. citizens every day. It would be an honor to 
lead them and to serve with them.
    My father ingrained in his children a deep belief that we 
were lucky to be living in the greatest country on Earth. He 
believed deeply and taught us that the highest honor anyone 
could attain was to serve our country. I still remember my 
parents' pride when I began my public service career 35 years 
ago, first as director of congressional relations for the 
Department of Housing and Urban Development, where I learned 
firsthand the importance of the legislative branch, and then 
serving on President Carter's staff at the White House.
    Chairman Murphy, Ranking Member Johnson, and members of the 
distinguished committee, if confirmed by the United States 
Senate, I will do everything in my power to strengthen and 
deepen the ties that have bound France and America together 
since the birth of our great country.
    Thank you. I look forward to your questions.
    [The prepared statement of Ms. Hartley follows:]

                 Prepared Statement of Jane D. Hartley

    Thank you, Chairman Murphy, Ranking Member Johnson, and members of 
the committee. It is a great honor to appear before you as President 
Obama's nominee to serve as the United States Ambassador to France and 
Monaco.
    Before I begin, please allow me to introduce to you my dear 
husband, Ralph Schlosstein, who has been so supportive in this process. 
If you do me the honor of confirming me, Ralph is looking forward to 
coming with me to Paris. My daughter, Kate, and my son, Jamie, are not 
able to be present. But they're here with us in my heart and they make 
me proud every day of my life.
    I am deeply grateful to both the President and Secretary Kerry for 
the trust they have placed in me to serve as chief of mission to our 
oldest friend and ally. I hope that you will consider that trust well 
placed, and that the committee and the Senate will award me the great 
honor of your confirmation.
    Only some 60 Americans have served as our Nation's highest 
representative to France since our first Ambassador, Benjamin Franklin, 
arrived in Paris over 235 years ago. Franklin was succeeded by another 
American Founding Father, Thomas Jefferson.
    In this century, the list is an honor roll of patriotism and 
accomplishment--Bruce, Dillon, Shriver, Rohatyn, and so many others. It 
is humbling--and challenging--to be nominated to join that company.
    The honor is magnified because, if confirmed, I would become only 
the second woman to serve in this position, after the late Pamela 
Harriman.
    This year's events commemorating the 70th anniversary of the D-Day 
landings during World War II offered a special reminder of the long and 
close relationship America has had with France over almost two and a 
half centuries.
    Last month, on June 6, President Obama and President Hollande stood 
side-by-side at Omaha Beach in Normandy and paid tribute to the 
Americans who fought to liberate France. Nine of your colleagues 
attended with the Presidents that morning at the American cemetery. Our 
sacrifice is remembered and deeply valued in France.
    When President Hollande was here in Washington last February, he 
went to Arlington and presented the Legion d'Honneur to the Unknown 
Soldier--as the representative of the 16 million Americans who served 
in World War II.
    Today, France stands by our side on almost every major issue. 
France is a unique ally in terms of its military capability and 
political willingness to deploy force in harm's way in pursuit of our 
common foreign policy interests. Our operational cooperation within 
NATO--and beyond-- has vastly improved since France's 2009 
reintegration into the Alliance's military command structure. Our work 
together on counterterrorism activities is intense and growing, 
especially in Africa.
    Twice in the past 18 months France has led the international 
community's response to crises in Africa. Its troops and airstrikes 
halted the advance of al-Qaeda affiliated terrorist groups in Mali. 
Another large deployment prevented humanitarian catastrophe in the 
Central African Republic. France's facilities, relationships, and 
expertise are a significant capability multiplier for U.S. efforts in 
the region.
    France is an indispensable ally in the Middle East. President 
Hollande has been unequivocal that Iran must not acquire a nuclear 
weapon, and France remains resolutely committed to the P5+1 
negotiations. If confirmed, I will also remind French leaders this is 
not the time for our companies to engage in ``business as usual'' with 
Iran.
    France has been a forward-leaning partner on Syria, working closely 
with us to increase pressure against the Assad regime. France has 
helped lead efforts to support the Syrian opposition, remove the 
regime's chemical weapons, provide humanitarian assistance, and reach a 
political solution. The French Government takes the threat of foreign 
fighters returning from Syria very seriously and its authorities have 
made several arrests in recent months. If confirmed, I will ensure the 
U.S. Government works closely with France on this emerging threat to 
our common security.
    France has played an important role in responding to the crisis in 
Ukraine, rallying its European partners to keep up pressure on Russia, 
including through sanctions. We support President Hollande joining 
forces with Chancellor Merkel to push for a diplomatic breakthrough 
between Russia and Ukraine. As members of the committee are well aware, 
France signed a contract with Russia in 2009 to deliver two ``Mistral-
class'' helicopter carrier ships to Russia. President Obama has made 
clear we have concerns about ``continuing significant defense deals 
with Russia'' given its actions to destabilize its neighbors. At the 
same time, the President said the U.S.-French relationship ``has never 
been stronger,'' which means we can discuss this issue frankly. U.S. 
officials repeatedly stress our strong concerns to the French. If 
confirmed, I will continue to press French leaders to make the right 
decision regarding delivery of these ships.
    The leaders of our two countries are in constant dialogue. 
President Obama hosted President Hollande in February for the White 
House's only state visit since early 2012--a reflection of the vitality 
of the U.S.-French relationship. During that visit, the President took 
Hollande to see Monticello--the home of our third President, who had 
been our second Ambassador to France. Secretary Kerry's dozen visits to 
France during the past 17 months also underscore the robust health of 
our cooperation.
    While our work together on political and security issues commands 
the headlines, our economic ties are no less important. France is the 
world's fifth-largest economy and remains one of our top economic 
partners.
    Drawing on my decades of experience as a CEO and a business 
executive, if you do me the honor of confirming me, I will focus on 
building on the trade links that bind our countries together--links 
that, as you know, are already very strong.
    Our transatlantic commerce creates jobs on both sides, for 
enterprises large and small. We want to ensure that any U.S. firm can 
take advantage of opportunities to export to France. In 2013, the 
United States exported $32 billion worth of goods to France, and we are 
France's top trading partner outside of the European Union. We must 
keep engaging France on the benefits of a Transatlantic Trade and 
Investment Partnership, making the case that an ambitious agreement can 
create more economic growth and jobs on both sides of the Atlantic.
    French investment in the United States creates jobs. U.S. 
affiliates of 2,300 French firms employ half a million Americans at an 
average annual wage of nearly $80,000. And many French firms are 
looking at the U.S. rather than France for future investments. In fact, 
the total stock of French foreign direct investment in the United 
States is 10 times the combined FDI of the BRICS countries.
    If confirmed, I will be able to use my decades of professional 
experience with running organizations to lead our large, diverse 
Mission to France. Around 900 U.S. and locally employed staff work at 
our Paris Embassy and six constituent posts. This talented, dedicated 
team advances our national interests and protects U.S. citizens every 
day. It would be a true honor to serve with them.
    For 20 years I have been the CEO of a global macroeconomic and 
political consulting firm, with a particular focus on Europe. I am a 
member of the Board of Directors of Heidrick & Struggles, a large 
global executive search firm with a substantial European presence. As 
the former Vice-Chairman of the Economic Club of New York, I have 
moderated many sessions with key European policymakers.
    I have served on the Executive Committee of the John F. Kennedy 
School of Government at Harvard University. And I have been an active 
member of the Committee on Foreign Relations for over 10 years.
    My family and I have a deep and abiding respect for the importance 
of public service. I still remember my parents' pride when I began my 
public service career 35 years ago. First, as Director of Congressional 
Relations for the Department of Housing and Urban Development--where I 
learned first hand the vital role of the legislative branch. And, later 
on, serving on President Carter's staff at the White House.
    My father ingrained in his children a deep belief that we were 
lucky to be living in the greatest country on earth. He believed 
deeply, and taught us, that the highest honor anyone could attain was 
to serve our country.
    Chairman Murphy, Ranking Member Johnson, and members of this 
distinguished committee, if confirmed by the United States Senate, I 
will do everything in my power to strengthen and deepen the ties that 
have bound France and America together since the birth of our great 
country. I look forward to this extraordinary challenge and hope to 
have the chance to serve the United States of America at this important 
moment in history.
    Thank you, and I look forward to your questions.

    Senator Murphy. Thank you very much, Ms. Hartley.
    Ambassador Bass.

 STATEMENT OF HON. JOHN R. BASS, OF NEW YORK, NOMINATED TO BE 
              AMBASSADOR TO THE REPUBLIC OF TURKEY

    Ambassador Bass. Mr. Chairman, with your permission I would 
like to submit my full statement for the record.
    Thank you, Mr. Chairman, Ranking Member Johnson, and all 
the members of the committee. I am honored to come before you 
to be considered for the position of Ambassador to the Republic 
of Turkey, and I am grateful for the confidence President Obama 
and Secretary Kerry have shown in me. If confirmed, I pledge to 
work with all of you to protect and advance our interests by 
promoting security, prosperity, democracy, and human rights in 
Turkey and in the many places where we work together.
    I am joined today by members of my family: my wife, Holly, 
who also serves the Nation as a career officer; my sister, 
Kristin Bass, my mother-in-law, Mary Holzer. I am also joined 
by colleagues who served with me in Baghdad and became family 
during my time there.
    I have spent much of my career working to achieve a 
cornerstone of U.S. policy--completing the project of building 
a Europe whole, free, and at peace. In each chapter of that 
process, Turkey has figured prominently. As you noted, Mr. 
Chairman, our partnership has never been more important or more 
complex. A NATO ally for 62 years, Turkey is an important 
security partner, helping us foster stability from Kosovo to 
Afghanistan and from Libya to the Horn of Africa.
    Turkey faces very real threats from conflict in Iraq and 
Syria. ISIL's gains in Iraq indeed pose dangers for all of us, 
as its seizures of Turkish citizens demonstrate, and we 
continue to urge their immediate release. Turkey has borne a 
significant burden from hosting more than one million Syrians 
displaced by the conflict.
    Turkey is a key member of the Friends of Syria Core Group 
and we work together to support the moderate opposition and to 
pursue a political solution to the conflict. We also work with 
Turkey to address risks from terrorists and foreign fighters 
exploiting Turkey's geography.
    Turkey is acutely aware of the threat posed by a nuclear-
armed Iran and understands the importance of supporting the 
sanctions regimes in place.
    The instability in the region means Ankara needs to renew 
or to build stronger relations with Israel, Cyprus, and 
Armenia. We encourage Turkey and Israel to normalize their 
official relations. In Cyprus, Turkey's role in support of the 
peace process is vital to reunifying the island as a bizonal, 
bicommunal federation. There is a real chance for a just and 
lasting resolution of this long-standing conflict and, if 
confirmed, I will work closely with you and your colleagues and 
support the U.N.-facilitated settlement talks to help Cypriots 
achieve this vital goal.
    We continue to encourage Turkey and Armenia to move toward 
normalization, to create the peaceful, productive relationship 
the people of both countries deserve. On this year's 
Remembrance Day, Prime Minister Erdogan's condolences to 
descendants of those Armenians killed indicates that the space 
for dialogue is opening. But more can and must be done.
    As President Obama said before the Turkish Parliament in 
2009, democracies ``must move forward. Freedom of religion and 
expression lead to a strong and vibrant civil society.'' If 
confirmed, I will stand by these principles and urge the 
Turkish Government to continue efforts to more fully integrate 
its Kurdish and other minority populations and to reopen the 
Halki Seminary.
    The United States will continue to uphold our values and 
urge transparency, accountability, and full respect for the 
rule of law. Turkey's citizens are having a robust conversation 
on these issues. Success in these areas would be a strong 
signal that Turkey's democracy is moving forward.
    Mr. Chairman, Turkey's strong growth has tripled its 
economy in recent years and our exports to Turkey have tripled 
over the last decade. But we can do more, and if confirmed I 
will be an advocate for U.S. business and find new ways to 
expand educational, technology, and other exchanges.
    Finally, Mr. Chairman, if confirmed I pledge to safeguard 
those Americans in my mission and to provide great service to 
all American citizens in Turkey.
    Mr. Chairman, thank you very much for the opportunity to 
appear here today. I look forward to continuing our work 
together if confirmed and to answering your questions.
    [The prepared statement of Ambassador Bass follows:]

             Prepared Statement of Ambassador John R. Bass

    Mr. Chairman and members of the committee, thank you, Mr. Chairman, 
Ranking Member Johnson, and all the members of the committee. I am 
honored to come before you to be considered for the position of 
Ambassador to the Republic of Turkey, and I am grateful for the 
confidence President Obama and Secretary Kerry have shown in me. If 
confirmed, I pledge to work with all of you to protect and advance our 
interests by promoting security, prosperity, democracy and human 
rights--both in Turkey and in the many places beyond its borders where 
we work together.
    I'm grateful to be joined today by members of my family--my wife, 
Holly, who also serves the Nation as a career officer; my sister, 
Kristin Bass; and my mother-in-law, Mary Holzer. I also want to 
recognize colleagues here today who became my family during our work on 
the front lines of diplomacy in Baghdad.
    I have spent much of my career working to achieve a cornerstone of 
U.S. policy--completing the project of building a Europe whole, free, 
and at peace. In each chapter of my efforts--from conventional arms 
reductions across the former Soviet bloc, through the bloody wars in 
Bosnia and Kosovo and the enlargement of NATO and the EU, to our work 
with European friends to address new threats further afield from 
terrorism, violent extremism and a prospective nuclear Iran, Turkey has 
figured prominently. I've watched Turkey's transformation into a 
modernized G20 economy and a confident partner of the United States in 
many new areas of the world. Our partnership has never been more 
important--or more complex.
    Our core security partnership has anchored our relationship for 
decades--and with good reason. A NATO ally for 62 years, Turkey has 
bordered potential or active conflicts for that entire period. In 
recent years, it has stood with us in Kosovo, Afghanistan, and Libya. 
It hosts key elements of NATO's missile defense architecture. Turkey 
has joined fellow allies in rejecting Russia's attempted annexation of 
Crimea and encouraging de-escalation of the ongoing crisis. It also is 
contributing military assets to reassurance activities in Central and 
Eastern Europe.
    At the same time it supports collective security, Turkey faces very 
real challenges on its own borders. ISIL's gains in Iraq pose 
significant dangers for regional and international security, as the 
group's seizure of Turkish citizens and diplomats demonstrates; we 
continue to urge their immediate release. Turkey is working closely 
with us and other partners to help Iraqis achieve the objective of a 
federal, democratic, pluralistic, and unified Iraq.
    Even before ISIL's metastasis into Iraq, Turkey was grappling with 
the spillover of terrorism and violence from the war in Syria. Over 70 
Turks have died as a result of cross-border fire or terrorism emanating 
from Syria. Just as the United States has provided more than $2 billion 
in humanitarian assistance for Syrians affected by this conflict, 
Turkey has also borne a significant burden from hosting more than 1 
million displaced Syrians. The Turkish Government has dedicated 
enormous resources to operating 22 refugee camps, while facing ongoing 
challenges in providing services to the many Syrians who struggle to 
survive in urban areas.
    Turkey has been a critical facilitator of U.S. assistance to Syrian 
people in need and to the moderate Syrian opposition. Turkey is a key 
member of the Friends of Syria Core Group, and we are working closely 
with Turkey to find a political solution to the conflict and reinforce 
support for the moderate opposition. Concurrently, we are working with 
the Turkish Government to mitigate the risk posed by violent extremists 
and foreign fighters exploiting Turkey's geography. If confirmed, I 
will work closely with Turkey and other regional partners to stem the 
flow of fighters, money, and expertise to and from Syria.
    Our cooperation has been similarly important on Iran, with respect 
to nonproliferation matters generally and on sanctions specifically. As 
a neighbor, Turkey is acutely aware of the threat posed by a nuclear-
armed Iran, and understands the importance of supporting the sanctions 
regime to spur Iran to meet international obligations on its nuclear 
program.
    The instability along Turkey's southern border gives renewed 
urgency for Ankara to build stronger relationships with other 
neighbors--Israel, Armenia, and Cyprus. We continue to encourage Turkey 
and Israel to restore positive official relations by completing the 
normalization process, which would enhance regional stability and 
complement their continued strong trade and investment relationship. In 
Cyprus, Turkey--along with Greece--is playing an important and 
constructive role in supporting the peace process. As Vice President 
Biden reiterated during his historic May visit to Cyprus, the United 
States remains committed to supporting the U.N.-led effort to reunify 
the island as a bizonal, bicommunal federation. After four decades of 
division, there is a real chance for a lasting settlement that would 
bring positive benefits to the entire Eastern Mediterranean. Mr. 
Chairman, if confirmed, I will work closely with you and your 
colleagues to help the parties achieve this vital goal.
    One issue that confronts all democracies as they look to the future 
is how they deal with the past. We continue to encourage Turkey and 
Armenia to move toward normalization as a means of creating the 
peaceful, productive, and prosperous relationship that the people of 
both countries deserve. On this year's Remembrance Day, Prime Minister 
Erdogan expressed his condolences to the grandchildren of those 
Armenians killed during World War I. That gesture and other positive 
efforts by the Turkish Government in recent months indicate that the 
space for dialogue is opening. But more can be done, and we encourage 
both sides to pursue a full, frank, and just acknowledgement of the 
facts surrounding the tragic events of 1915.
    Turkey is one of the oldest democracies in the region. But as 
President Obama noted when visiting Ankara in 2009, ``Democracies 
cannot be static--they must move forward. Freedom of religion and 
expression lead to a strong and vibrant civil society that only 
strengthens the state, which is why steps like reopening the Halki 
Seminary will send such an important signal inside Turkey and beyond.'' 
Five years later, events have led to questions--including from members 
of this committee--about the trajectory of Turkish democracy: whether 
media and online freedoms are adequately guaranteed; whether rule of 
law is sufficiently protected; whether citizens have the right to free 
assembly and expression; whether the judicial system is free from 
political interference; and whether the voices of all minorities are 
being heard.
    These are, ultimately, questions Turks will answer through the 
choices they make, but we will continue to advocate--as we do around 
the world--for transparent and accountable government. As Turkey 
prepares for its first direct Presidential election in August, the 
ongoing debates in Turkey could lead to an even stronger and more 
successful democracy--if Turks embrace tolerance and respect for a 
diversity of viewpoints. If confirmed, Mr. Chairman, I will urge Turkey 
to live up to all the universal democratic principles, enshrined in its 
own foundational documents and international commitments, that 
undergird true national strength. Allowing space for free and 
independent media, strengthening the rule of law and checks and 
balances, empowering women, and encouraging a robust role for civil 
society--these steps not only make countries freer, but also help them 
grow. In the same vein, we commend the important steps to advance peace 
talks between the government and Turkey's Kurds, which could bring an 
end to 30 years of armed conflict and lead to a more stable and 
prosperous Turkey.
    Mr. Chairman, Turkey's democratic progress over the past decade has 
spurred strong growth, tripling the size of its economy. U.S. exports 
to Turkey also tripled in the last decade. But for all the growth in 
bilateral trade, Turkey is still just our 34th-largest trade partner, 
at about $18 billion in total trade in 2013. We can, and should, do 
much better than this. If confirmed, I will be an advocate for U.S. 
business who leads our mission in Turkey to strengthen business-to-
business ties, identify opportunities for Turkish investment in the 
U.S., and promote the National Export Initiative. I further expect that 
my work promoting the integrity of independent institutions, the rule 
of law, and respect for fundamental freedoms will serve to bolster 
Turkey's reputation as a country with which U.S. companies want to do 
more and better business.
    Investment in our political, security, and economic ties with 
Turkey and the surrounding region would yield little without the ties 
between our two peoples and societies that are so fundamental to U.S.-
Turkey relations. In 2012-2013, Turkey sent more students to American 
universities than any other European country. If confirmed, I will 
sustain and amplify our public outreach in Turkey, finding new ways to 
connect our two societies through education exchange programs, science 
and technology partnerships, and entrepreneurship programs.
    And finally, a word about a core purpose of our overseas missions: 
service to Americans--whether they are your constituents with an 
interest in Turkey, or our fellow citizens visiting or living in 
Turkey. I pledge to provide the highest level of service to all of them 
with the same focus and energy which I and my colleagues will apply to 
promoting American interests and values. Mr. Chairman, thank you again 
for the opportunity to appear before you today. I look forward to 
continuing our work together.

    Senator Murphy. Thank you, Ambassador.
    Mr. O'Malley.

 STATEMENT OF KEVIN F. O'MALLEY, OF MISSOURI, NOMINATED TO BE 
                     AMBASSADOR TO IRELAND

    Mr. O'Malley. Mr. Chairman, members of the committee, I am 
honored and pleased to be here as President Obama's nominee to 
be the United States Ambassador to Ireland. I would like to 
publicly thank the President and Secretary Kerry for their 
confidence and their trust, and I am grateful to Senators 
McCaskill and Blunt for their support and for being here with 
me today.
    I am so fortunate to be able to be here today as an 
American asked to represent my country, one that I love and 
that has given so much to me, in Ireland, a land and a people 
that has given so much to America and that so many of us hold 
so dear. Both of my parents were Irish, and I trace my most 
recent Irish roots to my grandparents and my aunts and my 
uncles, who came from Westport in County Mayo at the beginning 
of the 20th century. I have always enjoyed traveling in their 
footsteps, crisscrossing Ireland from Dublin to Galway, from 
Cork to Mayo. I found there is an unbreakable bond and a deep 
kinship between the people of the United States and the people 
of Ireland.
    From the time of our Nation's founding, thousands of 
courageous Irish men and women came to the New World. They 
signed our Declaration of Independence, they fought in our 
Revolutionary War, and they drafted our Constitution. The sons 
and the daughters of Ireland are etched into the cornerstone of 
the United States of America.
    I learned to love Ireland and all things Irish initially 
seated at the feet of my parents and my aunts and my uncles and 
both sets of grandparents. But Ireland, I learned, was more 
than just a place; it was a way of life--hard work, spiritual 
values, family, determination, and wit.
    Today, to no one's surprise, Ireland is one of our closest 
friends and most stable trading partners. More than $38 billion 
in trade passes between the United States and Ireland each 
year. The United States exports more than $6 billion of goods 
to Ireland each year. I am confident that even that can be 
improved upon. Trade and investment ties between the United 
States and Ireland will be further strengthened if we can reach 
agreement on the ambitious Trans-Atlantic Trade and Investment 
Partnership.
    While always adhering to its neutrality, Ireland is our 
constant partner in dangerous peacekeeping missions throughout 
the world. Irish troops participate, for example, in the NATO 
mission in Afghanistan, and it has sent much-needed troops to 
the Golan Heights and has given millions of dollars in 
humanitarian aid to Syria's refugees.
    But the United States and Ireland also face several 
challenges together. The Good Friday Agreement of 1998 has 
brought years of reduced strife and reduced bloodshed to 
Northern Ireland, but this work is not yet done. Very 
courageous people were willing to take the first steps toward 
peace and reconciliation 16 years ago. While real tangible 
progress has been made, much more needs to be done in order to 
completely devolve the government, to achieve a vibrant 
economy, and to create a pluralistic shared society in Northern 
Ireland.
    President Obama has asked me, a trial lawyer, a writer, and 
an educator, to firmly represent our values in Ireland. But he 
has also asked me to listen to our friends there. In dealing 
with the peace process, for example, he trusts that I will be 
both steadfast and flexible, standing by our convictions while 
seeking conciliation.
    Another issue affecting the special kinship between our two 
countries is the changing face of Ireland. Today Ireland looks 
very different from what President Kennedy saw when he visited 
50 years ago. We must be careful not to rely only upon our 
historical friendships, but must constantly renew our alliance 
to keep it healthy and vital. For example, 30 percent of 
Ireland's population today is under the age of 24 and one in 
six is born outside of Ireland. As Ireland transforms into a 
more multicultural society, we must include Irish citizens with 
ancestry in Asia and Africa and the Middle East in that special 
bond shared between previous generations of Irish and 
Americans.
    The new generation of Irish seeks connection to the United 
States through business and technology partnerships, music, and 
the arts. We must therefore build bridges to ensure that our 
special friendship remains timeless. Both the young and the old 
in Ireland should understand that they have no better friend in 
the world than the United States of America. It is my 
intention, if confirmed as the United States Ambassador to 
Ireland, to broaden and strengthen our special bonds, to 
increase the opportunities for trade and prosperity, and to 
work for a just and a permanent peace. No American, and 
particularly no Irish-American, could ask for a more meaningful 
undertaking.
    Thank you very much for considering my nomination. I would 
like to submit my complete statement for the record and I will 
be happy to answer any questions that the committee might have.
    [The prepared statement of Mr. O'Malley follows:]

                Prepared Statement of Kevin F. O'Malley

    Mr. Chairman and members of the committee, I am honored to be here 
today as President Obama's nominee to be the United States Ambassador 
to Ireland. I would like to publicly express my gratitude to the 
President and to Secretary Kerry for the confidence and trust they have 
shown in me by this nomination. I also thank you and this committee for 
considering the nomination.
    I am so fortunate to be before you today as an American asked to 
represent the United States--a country that I love and that has given 
so much to me--and to represent my country in Ireland--a land and a 
people that has given so much to us and that so many of us hold so 
dear. Personally, I trace my Irish roots to my grandparents who came 
from Westport, County Mayo, in the beginning of the 20th century. I 
have enjoyed discovering the land of my grandparents, crisscrossing 
Ireland from Dublin to Galway, from Cork to Mayo. There is an 
unbreakable bond and a deep kinship between the people of United States 
and the people of Ireland. How did this come to pass? What makes this 
relationship so very special?
    The United States is, of course, a nation of immigrants. From the 
time of our Nation's founding, thousands of Irish men and women came to 
the new world. This legacy is forged into the very cornerstone of the 
United States of America. Nine of the 56 signers of the Declaration of 
Independence were Irish. Six of the 36 delegates to the convention 
which drafted our Constitution were Irish. An estimated 30 percent of 
the soldiers in the Revolutionary Army were Irish. These immigrants 
from Ireland were not just looking for a better life; they were 
prepared to build one in the new world. From this start, Irish 
immigrants made contributions to the United States in construction, 
railroads, and commerce. They contributed to our Nation as policemen, 
firefighters, politicians, educators, as well as winners of Oscars, 
Emmys, Grammys, Pulitzer, and Nobel Prizes.
    I learned to love Ireland and all things Irish seated at the feet 
of my parents, aunts, uncles, and grandparents. Ireland, I learned, was 
more than just a place--it was a way of life: Hard work; Spiritual 
values; Determination, and, Wit.
    When Ireland won its independence, the United States was one of the 
first nations to recognize its status as a country and to send an 
ambassador. We have been with Ireland and Ireland has been with us ever 
since.
    Ireland is today one of our most reliable allies and stable trading 
partners. More than $38 billion of trade passes between United States 
and Ireland each year, with the United States exporting more than $6 
billion worth of goods to Ireland. I am confident we can build on that. 
Irish companies employ over 120,000 persons in the United States. Some 
700 U.S. firms employ approximately 115,000 people in Ireland. These 
U.S. companies generate approximately 26 percent of Ireland's GDP. 
Ireland is one of the largest sources of direct foreign investment in 
the United States. Last year Forbes Magazine listed Ireland as the best 
country in the world within which to do business. Trade and investment 
ties between the United States and Ireland will be further strengthened 
if we can reach agreement on an ambitious Trans-Atlantic Trade and 
Investment Partnership
    Although always adhering to its neutrality, Ireland is our constant 
partner in peacekeeping missions throughout the world. Irish troops 
participate in the NATO mission in Afghanistan. Ireland also sent much-
needed troops to the dangerous Golan Heights during the Syrian crisis, 
when no other developed country answered the call. They also send 
peacekeepers to places like Lebanon, Mali, Western Sahara, the 
Democratic Republic of the Congo, and Kosovo.
    As a meaningful way to honor the victims of its own famine, Ireland 
provides nutritional assistance to infants and mothers in Zambia. And 
recalling its own efforts to emerge from its own economic crisis, 
Ireland has offered millions of dollars of humanitarian assistance to 
those suffering in Syria's crisis.
    The United States and Ireland face several challenges together. The 
Good Friday Agreement of 1998 ended years of strife and bloodshed to 
Northern Ireland, but this work is not done. Courageous people were 
willing to take the first steps toward peace and reconciliation 16 
years ago. While there has been real progress, more must be done to 
fully devolve government and achieve a vibrant economy and pluralistic, 
shared society. As President Obama said in his speech to Northern 
Ireland youth in Belfast last June, the people of Northern Ireland will 
``have to choose whether to keep going forward.'' The United States 
will be there to help.
    Another issue affecting the kinship between our two countries is 
the changing face of Ireland. We must be careful not to rely only upon 
the historical friendship, but must constantly renew our alliance to 
keep it healthy and vital. We must continue to build new connections, 
to and with young American and Irish leaders, entrepreneurs, and 
innovators.
    Today's Ireland, after all, looks very different from the one 
President John F. Kennedy visited 50 years ago. Among the 28 countries 
of the European Union, Ireland has the fastest growing population due 
to both increased immigration and higher birthrates. Approximately 33 
percent of the population of Ireland is under the age of 24. One in six 
people residing in Ireland today was born elsewhere. In just a few 
years, our fond memories and family ties, although a strong historic 
foundation for relations, will simply not be enough. The new generation 
of Irish seeks connections to the United States through business and 
technology collaboration, music, and the arts, too. As Ireland 
transforms into a more multicultural society, we must include Irish 
citizens with ancestry in Asia, Africa, and the Middle East in the 
special bonds shared between previous generations. We must, build new 
bridges to ensure this friendship remains timeless.
    I believe that the relationship between United States and Ireland 
is truly unique--molded in cultural and family ties, strengthened by 
trade and commercial successes, and celebrated through politics, music, 
literature, the arts, and shared concern for peoples beyond our own 
borders. It is my intention, if confirmed as the United States 
Ambassador to Ireland, to represent our great country to one of our 
greatest and closest friends, to broaden and strengthen our bonds, to 
work for a just and permanent peace, and to increase opportunities for 
better lives. No American, and particularly no Irish-American, could 
ask for a more meaningful undertaking.
    Thank you for considering this nomination. I would be happy to 
answer any questions you may have.

    Senator Murphy. Thank you all three of our panelists. We 
will now engage in a round of 7-minute question periods.
    First let me start with you, Ambassador Bass. There is a 
real story to be told about Turkish impressions and opinions of 
the United States before the war in Iraq and after the war in 
Iraq. We have almost come to accept that there is going to be a 
general negative feeling about the United States in the Middle 
East, but in a place like Turkey, under the Clinton 
administration the Pew polling work that is done on an 
intermittent basis in countries around the world showed a 
fairly robust reservoir of goodwill for the United States. 
Things are very different today, to the point that your 
predecessor, the Ambassador that you are going to be replacing, 
has been at times roughed up pretty badly by the Erdogan 
administration and the press, being accused of several 
outlandish conspiracy theories.
    Our ability to work with the Turks on, let us say, 
something as important as the new NATO missile shield is 
dependent in part about what the people of Turkey feel about 
the United States. It is a long time since we made the decision 
to invade Iraq and so what are the things that need to be done 
that you can help work on that will improve the opinion of 
Turks with respect to the United States? What is the underlying 
reasons for the level of distrust? How can we make it better so 
as to give Erdogan or whoever is going to be the follow-on 
leader of that country more political impetus to cooperate with 
us?
    Ambassador Bass. Senator, thank you for that question. I 
think we have to do several things simultaneously. I would 
characterize it as investing in the long aspects of this 
relationship, the important pieces of the relationship, and not 
simply the urgent pieces. We have to be able to do both and we 
have to expand, even as we address the urgent issues of the 
day, our work together on those other deep, important pieces.
    Historically, there has long been suspicion of United 
States or western motives in Turkey that come out of its 
creation as a modern state, as you know. It is clear that there 
on top of those potential cultural predispositions is a degree 
of either lack of information or misinformation about the 
United States and its policy. I think one of the things we need 
to be focused intently on is intensifying our efforts to tell 
our story and reach more populations in Turkey, and 
particularly the generation that is now coming of age that will 
inherit whatever relationship we have.
    Senator Murphy. You spoke a little bit about the Kurdish 
population there. We tend to talk about the conflicts in Syria 
and Iraq as binary, Shia and Sunni, and yet in both there is a 
very complicated question about the future of the Kurdish 
populations in both of those places. What is the ability to 
work with the Turks as leaders to try to figure out the future 
of Kurdish Government, autonomy, other related issues, not just 
within Turkey itself, but within Iraq and Syria?
    Ambassador Bass. First off, let me say we are pleased by 
the degree to which the government in Ankara is working to 
continue and reinforce the ongoing peace talks with those of 
its Kurdish citizens who have been engaged in conflict over the 
past 30 years. To the extent that conflict can be brought to a 
final close, that is good for the region, it is good for 
Turkish stability. Only recently, we have seen some good steps 
forward to legalize the ongoing peace talks so that folks can 
negotiate freely.
    With respect to the broader Kurdish populations in 
neighboring states, I think it is important that the Turks 
continue to have a strong, productive relationship, 
particularly with the Kurdistan Regional Government in Northern 
Iraq, but to do so in a way that reflects our overarching 
commitment to the unity and stability of Iraq. That is 
something we have been working quite closely with Ankara on as 
we have been trying to help the Iraqis develop and put in place 
a new government.
    Senator Murphy. Ms. Hartley, let me turn to you. The name 
of the company today is the Observatory Group, but it was 
previously the G7 Group, which speaks to the focus of a lot of 
your work, primarily anchored in Europe and G7 nations. As you 
mentioned in your opening statement, you know a lot about some 
of the economic calculus made in France. There is a worry that 
as we move forward on the TTIP negotiations that France is 
going to have some special considerations that will make it 
difficult for them to sign on to a final agreement. At the 
outset, they were a little bit nervous about, for instance, the 
protections they traditionally enjoy when it comes to their 
audio-visual industry.
    So maybe you can give us a little bit of insight as to what 
the French disposition is as we head into the more serious 
rounds of negotiations on a free trade agreement with Europe 
and potentially whether there is reason to worry about their 
commitment to an ultimate deal.
    Ms. Hartley. Thank you, Senator, for the question. As we 
know, right now the French economy is fairly weak. President 
Hollande actually has said publicly that he is supportive of 
the trade deal. There are issues. You are right, there are 
specific areas where we still disagree, where we are still 
discussing, where we are still in discussions.
    I think in terms of the mission one of the things that 
would be very important in terms of public diplomacy would be 
to make sure the public knew what a trade deal would do for the 
economy of France, because even right now if you look at 
polling in France the public supports the trade deal. It is 
only when you get down to the specifics.
    So I look forward to working with you and I look forward 
very much to reinforcing the message that trade is actually 
good for jobs in both countries.
    Senator Murphy. Mr. O'Malley, when we talked in my office 
last week we were looking forward to the July 12 marches to see 
if they came off in a peaceful manner. By and large, they did. 
What does that say about the prospects for continued 
discussions with respect to Northern Ireland, in particular the 
Haass proposals which have been sort of the standing foundation 
of the potential settlement moving forward?
    Mr. O'Malley. Thank you, Senator. I think everyone is 
relieved that so far the marching season has gone relatively 
well. There have been, as you know, far worse periods during 
these particular summer marching seasons. But we are not 
through with the marching season yet.
    I think we should point out the good and try to protect 
against the bad. I think it is important to recognize the 
courage that people exercised in renouncing violence and 
stepping forward and attempting to make a new life for the 
people in Northern Ireland and the border counties. But there 
still remains work to be done. Dr. Haass and Dr. O'Sullivan 
when they were in Ireland just recently really laid out 
proposals which could make this whole marching season issue--
could resolve it in a permanent way, so that every year 
everybody would not be on edge when the summer marching season 
came.
    So if confirmed, I would urge all parties to return to the 
table and to try to adopt an agreement along the lines that Dr. 
Haass recommended recently.
    Senator Murphy. Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    Let me pick up on that point, because it is exactly where I 
was going to go to out of your testimony. You said: ``More must 
be done to fully devolve government and achieve a vibrant 
economy and a pluralistic, shared society.'' Can you get into 
the specifics of what that Haass agreement really is talking 
about? What is the ``much more'' that needs to be done?
    Mr. O'Malley. What needs to be done is to follow the Haass 
recommendations. Dr. Haass recommended several things. There 
were agreements that were reached about dealing with the past, 
but they were not fully resolved. There were issues regarding 
how to deal with flags and emblems, but they were not fully 
resolved. There were issues dealing with how the government was 
going to interact, but they were not fully resolved.
    I think that it is important to get to--if confirmed, to be 
able to meet with all of the parties involved in these talks 
and find out precisely where all the sticking points were, why 
this agreement, which was widely, widely praised, did not go 
through.
    Senator Johnson. You mentioned agreement on flags. It seems 
like there has got to be more significant issues than that.
    Mr. O'Malley. To the Northern Irish, those are significant 
issues. They have a resonance there that you or I may not 
fully, fully appreciate or fully feel. But that is very 
important to a segment of the population, and that has to be 
dealt with.
    Senator Johnson. I appreciate that.
    Northern Ireland has a 12.5 percent tax on business and as 
a result there have been a number of American companies that 
have started operations there, certainly part of the process of 
trade between the two countries. Certainly in the political 
realm here in this country it seems like there is a resentment 
about that fact in some cases. I just kind of want to get your 
views on, what do you think about that American investment in 
Ireland taking advantage of that 12.5 percent tax rate? I just 
want your views on that.
    Mr. O'Malley. Sure. I think you meant Ireland has a 12.5 
rate.
    Senator Johnson. What did I say?
    Mr. O'Malley. Northern Ireland.
    Senator Johnson. Oh, I am sorry. Ireland.
    Mr. O'Malley. I think it is a little bit higher in Northern 
Ireland at the moment.
    There are a number of reasons why American companies have 
found Ireland to be an attractive place to do business in 
Europe, and those are some of the compelling reasons. It is an 
English-speaking country. It is a country that has a well-
educated and dedicated workforce. It is a country that 
appreciates America and American goods. Ireland is in the euro 
zone and is in the EU, and it is strategically located at the 
entrance to Europe. I think all of those considerations and 
probably many more have to do with Ireland's success in 
attracting American business.
    Senator Johnson. I realize there are more factors to it. 
But again, addressing the 12.5 percent, there seems to be some 
resentment. Do you share that resentment? Do you think that is 
an appropriate thing, for governments to compete with tax 
structures and regulatory structures to attract investment? Is 
that a good thing or a bad thing?
    Mr. O'Malley. I know, Senator, that both the United States 
and the European Union are having discussions with Ireland 
about that tax rate. If confirmed, I would participate in those 
discussions with them.
    Senator Johnson. Is your knowledge that the administration 
is opposed to that 12.5 percent rate? Are they trying to entice 
or induce Ireland to increase that tax rate?
    Mr. O'Malley. I do not know, Senator, the precise answer to 
that question. I would be happy to get back with you on that. I 
do not know that the administration has taken a position one 
way or the other on another country's tax rate.
    Senator Johnson. OK.
    Mr. O'Malley. And I do not know that anyone else has taken 
a position on our tax rate.
    Senator Johnson. Fair enough.
    Mr. Bass, talking earlier about the issues between the 
Kurds and Turkey. Certainly I have been in contact with 
citizens of the Kurdish region, and they are certainly pressing 
for independence. Reading the press, it is sounding like Turkey 
may be more open to that prospect, even though they have been 
utterly opposed to it in the past. Am I reading that right? Is 
there a growing possible acceptance on the part of Turkey to 
have an independent state of Kurdistan?
    Ambassador Bass. Senator, in our conversations with the 
Turkish Government they have continued to advocate the 
importance to Turkey and its interests of a stable, unified, 
federal Iraq. We are continuing to work closely with them to 
try to bring that about.
    It has been very painful for those of us who invested parts 
of our professional lives in Iraq over the last 10, 11 years to 
see the recent turn of events. If I am confirmed, I will 
certainly continue to work to bring that result about in 
partnership with our Turkish friends and to stay in a close 
dialogue with them about their interaction and relationship 
with the officials and the citizens in the KRG.
    Senator Johnson. What are the current pressing issues 
between the Kurdistan region and the Turkish Government?
    Ambassador Bass. There is a variety of cross-border issues 
of interest. Obviously, the rebels in southeastern Turkey over 
the 30 years of their insurgency have crossed back and forth 
from northern Iraq, so the Government of Turkey worked very 
closely with the authorities in northern Iraq to enable them to 
address some of those flows in both directions.
    There is quite a strong trade and economic relationship as 
a result of the KRG's increased self-reliance on its own 
resources and there is an energy relationship between them as 
well.
    Senator Johnson. Can you speak to the transportation of oil 
from Kurdistan through Turkey and what our policy is toward 
that, and then really how Turkey is viewing that?
    Ambassador Bass. We do not take a position on the merits of 
the specific sales. We have expressed to both parties concerns 
that the disputes within Iraq about legal title to that 
commodity may wrap those cargoes up in ongoing litigation once 
they are out.
    I think the most important thing from our perspective is to 
help stabilize oil exports from Iraq, to make sure those 
revenues are available to all the citizens of Iraq and shared 
equitably within a Federal unified state.
    Senator Johnson. Thank you.
    Thank you, Mr. Chairman.
    Senator Murphy. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you all very much for being here this morning and for 
your willingness to serve this country. This is a particularly 
turbulent time in the world and I think it is a time where 
working with our allies is particularly important. So you will 
be in critical places at a time in our history which will 
really be important.
    I am also especially pleased to see my friend Jane Hartley 
here and share in your enthusiasm at being only the second 
woman nominated to be Ambassador to France and hopefully to 
serve in that position. So thank you.
    I am going to begin with you. It was very interesting to 
see the recent elections in the European Parliament and 
France's anti-EU party, the National Front, won the most seats 
with 25 percent of the vote. I wonder if you could speak to 
what you think the implications of that election and the 
changes might be for French policy toward the European Union?
    Ms. Hartley. Well, as we spoke before, France is having a 
difficult time. The economy is quite tough over there right 
now. Unemployment is running at about 10 percent. That was an 
issue during the parliamentary elections. The one thing I would 
note on the parliamentary elections, there was low turnout, so 
it is unclear what that may mean for the general elections that 
are coming up in 2017. But the National Front is a force and 
they will continue to be a force in French politics.
    Senator Shaheen. Thank you.
    Mr. Bass, July 20 marks the 40th anniversary of Turkey's 
invasion of Cyprus. I am sure we are always concerned when a 
country is invaded, and particularly here where Cyprus has been 
partitioned since that time, basically. I wonder if you see any 
indications that Turkey may be ready to try and play a 
constructive role in looking at reunifying Cyprus and if there 
is more that we can do to encourage that kind of a role.
    Ambassador Bass. Thank you, Senator. We continue to support 
very strongly the ongoing discussions between both communities 
on the island under the auspices of the U.N., with the goal of 
a lasting settlement on the basis of a bizonal, bicommunal 
federation. In recent months, I think we have seen the 
government in Ankara, as well as the government in Athens, both 
contributing to that process of helping these two communities 
talk through the differences and try to identify the ways 
forward to a lasting settlement.
    It is something that has been quite a high priority. As you 
know, Vice President Biden was in Cyprus in May; Secretary 
Kerry very focused on this. I have been in a couple of 
conversations with him of late where he has wanted very much to 
turn to this in the coming months. If I am confirmed, I 
certainly will help to the greatest extent possible my 
colleagues working in Cyprus, in Greece, and here in Washington 
to continue to support the efforts under way to bring this to a 
lasting settlement.
    Senator Shaheen. Thank you.
    Obviously, Turkey is in a critical place, not only in terms 
of their influence throughout the greater Middle East, but also 
in terms of their geography. As we look at conflicts in Syria, 
as we look at what is happening in northern Africa, can you 
talk about how we can--maybe what we are already doing to work 
with Turkey to address some of those conflict areas?
    Ambassador Bass. Thank you. We are already doing quite a 
bit of work. Turkey cochairs with us the Global Counter-
Terrorism Forum, which is a group of about 30 like-minded 
countries who are working together to help other countries 
develop their own capacity to address some of these challenges 
at home before they become much bigger problems for a wider 
region. The Turks have taken a particular focus on the Horn of 
Africa and have been doing quite a bit of work with the Somali 
Government.
    Within their more immediate neighborhood, of course, we 
have had very good cooperation in recent months in addressing 
some of the consequences of the conflict in Syria and the 
increase in fighters, money, exploiting Turkey's geography in 
and out of those conflict zones. Our belief is that the Turks 
understand this is an acute threat for all of us and we have 
seen some important steps from them to address some of the 
issues that were potentially making their geography more 
attractive.
    Senator Shaheen. Thank you.
    Mr. O'Malley, Ireland was one of the countries hardest hit 
by the financial crisis in 2008. It is my understanding that 
the IMF and the EU is relatively pleased with the progress that 
Ireland has made with some of the austerity measures that have 
been put in place. I wonder if you can speak to whether they 
are in a position now to begin to do more investing and to roll 
back some of those austerity measures and what the future for 
the Irish economy is based on where they are now?
    Mr. O'Malley. Yes, Senator, thank you. The Irish were hit 
terribly, as you correctly point out. To their credit, they 
undertook very painful austerity measures in order to recover. 
All of the signs, as you pointed out, have indicated that 
Ireland is on its way back and has arrived at a place where 
they are, for example, now their long-term sovereign debt has 
been upgraded from BBB-plus to A-minus. Ireland is now--has 
returned back into the bond market, where it can sell bonds.
    So I think all of the indicators are that the austerity 
measures have worked. What precisely the Irish are going to do 
from now on I think is really a matter of internal Irish 
politics. They had an election recently. They have had a 
cabinet reshuffle and my guess is that they are discussing 
those measures as we speak.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Murphy. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman.
    Thank you and congratulations to all of the witnesses for 
your nominations. Mr. Bass, Ambassador Bass, let me begin with 
you. I had visited the refugee camps, Syrian refugee camps, in 
Adona. I have been very impressed, as you pointed out, with the 
degree to which Turkey is doing yeoman's work to take care of 
nearly a million refugees from Syria. In a population of 75 
million people, a million refugees is a big chunk of people. 
Similar generosity is being shown by Jordan and Lebanon in the 
region.
    I remember being there and wondering how the U.S. would 
respond to refugees fleeing violence coming to the United 
States and have not been particularly proud of recent response 
to refugees fleeing violence in Central America coming to the 
United States. So that should make us even appreciate what 
Turkey does even more.
    Yesterday the U.N. Security Council took a step that was a 
positive. This committee had passed a resolution that was 
passed out of the floor of the Senate in March calling for 
unfettered cross-border humanitarian aid deliveries even 
without the Syrian Government's approval. That had been blocked 
in the U.N. Security Council by Russia and China, but yesterday 
they acceded to a resolution that was passed unanimously to 
basically allow cross-border aid under a U.N. sanction.
    Two of the border crossings identified for this aid to be 
delivered are in Turkey. I would like you, if you would, just 
to talk about what you might be able to do as an ambassador, 
representative of the United States, the Nation that is the 
largest provider of humanitarian aid to Syrian refugees, what 
you can do together with the Turkish Government to facilitate 
greater humanitarian aid deliveries inside Syria?
    Ambassador Bass. Thanks very much for raising that. We have 
had a very good, close, collaborative relationship with the 
Government of Turkey, both to address those refugee outflows 
that you identified, but also to work to get more assistance 
into Syria to support the moderate opposition and to enable 
them to try to provide a degree of governance and services to 
the populations within those areas that are under their 
control.
    We have a pretty extensive group of experts in and around 
Adona who work directly with other relief-providing agencies 
and with the Government of Turkey on these issues, and we will 
certainly be looking for additional opportunities to expand and 
intensify that work.
    Senator Kaine. Thank you, Ambassador Bass.
    Ms. Hartley, in your opening testimony you talked about a 
concern that I just want to follow up on. The French Government 
has been a very strong partner with the U.S. in the P5+1 
discussions to find an end to any nuclear weaponization program 
in Iran, sometimes even really playing the bad cop in the 
negotiations, and we appreciate it. But at the same time, there 
seems to be a little bit of a double standard, whereas the 
French Government has been strong, but French businesses have 
been seen to really want to get back into the investment game 
with Iran.
    You commented upon that as something that you might be able 
to do as Ambassador, is to really point out that there should 
not be a back door to allow French corporations to evade 
sanctions. Talk a little bit about that challenge and how you 
would intend to address it in your capacity?
    Ms. Hartley. Thank you, Senator. I share your concern. As 
you know, recently a group of French businessmen did go to 
Iran. Secretary Kerry voiced his opposition, and I was pleased 
to see the French Government back us up, and no business deals 
were done.
    I will make that very clear, that--I will reinforce that 
statement and while I am Ambassador, until the situation with 
Iran is resolved, there will be no business as usual.
    Senator Kaine. Thank you. I really encourage you in that. I 
think it is important to do this diplomacy, but I do worry 
about companies trying to race ahead of whether--we will know 
soon whether we are going to be able to find a meaningful path 
forward with Iran. So I would encourage you to make that a 
primary area of focus.
    Mr. O'Malley, I was in Ireland during the local and EU 
parliamentary elections that took place at the end of May and 
the general interpretation when I was there was that the 
elections sort of were antiausterity and a little bit anti-
Europe. Those were the impressions at the immediate time those 
elections took place. Now that the dust has settled and I know 
there has been some Cabinet reshuffling because the Taoiseach's 
party, Fine Gael, kind of took it on the chin in those 
elections, what is the current sort of internal politics in 
Ireland surrounding--you talked a little bit about the 
austerity, but even the relationships with the EU and Europe?
    Mr. O'Malley. I think, Senator, that the dust really has 
not quite settled yet from the elections. The Cabinet 
reshuffling just took place last week and I think everyone is 
still examining where it is. We know that Ireland is very 
committed to the EU, and we know that Ireland is very committed 
to the austerity proposals that made their assent from their 
financial crisis so successful. So I do not anticipate that 
there would be any dramatic change in the Irish policy toward 
the austerity program.
    I think there was a great deal of frustration expressed 
during the elections, but I think that the Irish have adopted a 
very firm course. That course has been proven to be successful, 
and I do not anticipate that there will be any dramatic 
changes. I look forward, if confirmed, to talking to the 
Taoiseach and to get a better internal view of exactly what the 
long-term plan is.
    Senator Kaine. Thank you, Mr. O'Malley.
    One final question. Another area of concern when I was 
recently in Ireland was the announced reopening of a potential 
criminal case against Gerry Adams over a very gruesome murder 
that took place many, many years ago. Now, the precipitating 
factor was the opening of an archive at Boston College that was 
oral histories given by folks who were connected with the IRA 
that were thought to be closed until everyone passed away. But 
someone did pass away, the archive became available, at least 
with respect to that history, and then this notion of a 
criminal investigation has been restarted.
    A lot of question about is that just an isolated incident 
or is there some desire to now spend more time looking in the 
rear view mirror than in the windshield and going back and 
relitigating all of these matters that were hopefully resolved 
to some significant degree in the Good Friday Accords. I know 
the younger generation in Ireland, the kids, they do not even 
remember anything about the Troubles. It is a pretty remarkable 
story and the U.S. has a lot at stake in trying to continue on 
the path forward.
    Do you have any sense about that particular criminal 
matter? While that is domestic politics, do you think it 
suggests a broader unraveling of the Good Friday Accords and 
kind of a decision by some to start looking more backward than 
forward?
    Mr. O'Malley. Senator, I have two thoughts on that. One, 
the first is that the Boston College study, which was a totally 
private academic interest here, the release of any more of the 
data in that I do not believe will affect the peace process. I 
think that the Accords are strong. I think there has been now 
16 years of experience with them. So that the truth or whatever 
is found in the Boston College study will not cause anyone to 
repudiate the Accords or to go backward.
    But I do think, and I feel strongly, that that incident 
with the detention of Mr. Adams and the whole look backward 
compels, compels us to urge the five parties to get back to the 
table and to adopt the proposals that Dr. Haass recommended not 
very many months ago, because there needs to be a system in 
place to deal with these issues as they are going to continue 
to arise. So, if confirmed, I will do my best to convince the 
parties to go back, to have a comprehensive, a cohesive way to 
deal with these very troubling emotional issues.
    Senator Kaine. Thank you, Mr. O'Malley.
    Thank you, Mr. Chairman.
    Senator Murphy. Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    Mr. Bass, do you think the Turkish Government is in favor 
of the establishment of safe areas protected by a no-fly zone 
inside Syria?
    Ambassador Bass. I think the Turkish Government is looking 
for ways to push forward in promoting a solution to the 
conflict in Syria.
    Senator McCain. I would like the answer to the question.
    Ambassador Bass. I would like to take that back, if I may.
    [The written reply submitted by Ambassador Bass to the 
requested information follows:]

    Turkish officials have expressed interest in the idea of a no-fly 
zone over the course of the conflict in Syria. For example, during his 
May 2013 visit to Washington, Prime Minister Erdogan stated publicly 
that the decision to establish such a zone would need to come through 
the U.N. Security Council, and if it did, Turkey would support the 
idea. Turkish officials also made clear their desire for close 
consultations with the United States and the international community to 
find the means for a negotiated, political transition in Syria. If 
confirmed, I will continue to work closely with Turkey to coordinate 
support for the moderate Syrian opposition, to provide humanitarian 
support for refugees in Turkey and cross-border assistance to Syrians 
in need, and to bolster our already-strong bilateral military ties with 
Turkey.

    Senator McCain. Turkey has been, I think you would agree, 
has been a principal channel for the flow of people, arms, and 
logistical assistance to the rebels. Has the Turkish Government 
changed its border policies in light of ISIS' so far successful 
campaign in Iraq?
    Ambassador Bass. My understanding, Senator, is that the 
Turkish Government has been very careful about people flowing 
across those borders, and we have had good cooperation in 
recent months to address these challenges of additional 
fighters and potentially money flowing in and out of the 
conflict zones.
    Senator McCain. Are you concerned about Prime Minister 
Erdogan's desire to change the constitution and other actions 
that we have seen on the part of Erdogan as a drift toward 
authoritarianism?
    Ambassador Bass. Prime Minister Erdogan is the leader of a 
democratically elected parliamentary democracy.
    Senator McCain. I am aware, I am aware of that.
    Ambassador Bass. We will obviously look closely at whatever 
steps he takes----
    Senator McCain. Do you believe that many of the things, 
actions that he has taken--suppressing the social media, 
YouTube and Twitter, restrictions on Internet freedom and 
independent media--is this a drift toward authoritarianism?
    Ambassador Bass. I would say they are inconsistent with our 
concept of a strong vibrant democracy.
    Senator McCain. I would like a yes or no. I would like a 
yes or no answer.
    Ambassador Bass. I can tell you that we will continue to 
underscore our concerns----
    Senator McCain. I would like a yes or no answer, Mr. Bass. 
You are putting your nomination in jeopardy by not answering 
the question. Do you believe--it is a pretty simple, 
straightforward question--that, with his repression of social 
media, his desire to change the constitution to give more power 
to the Presidency, which he obviously will be, do you believe 
that that is a drift toward authoritarianism?
    Ambassador Bass. I think if those steps were taken without 
appropriate checks in place----
    Senator McCain. He is taking those steps, Mr. Bass. Again, 
this is really a little frustrating. I would like an honest 
answer. Do you believe that there is a drift toward 
authoritarianism?
    Ambassador Bass. Senator, I think if these possibilities 
become realities in law, then those would be----
    Senator McCain. You do not think they have become realities 
now?
    Ambassador Bass. Well----
    Senator McCain. The suppression of YouTube, the suppression 
of Twitter.
    Ambassador Bass. We have seen the constitutional court----
    Senator McCain. Mr. Chairman, I am not going to support 
this nominee's nomination and I will hold it until I get a 
straight answer.
    I think it is a fairly straightforward, question, Mr. Bass. 
Is it a drift toward authoritarianism?
    Ambassador Bass. It is a drift in that direction, yes, 
Senator.
    Senator McCain. Thank you. It took 3 minutes and 25 seconds 
of my 5-minute time.
    Mr. O'Malley, there is a question of the Shannon Airport 
preclearance agreement. I do not know--for our men and women in 
uniform. I hope that you will have a look at that. We would 
like to facilitate that process as so many of our military 
personnel flow through the Shannon Airport, where they are, as 
you know, most hospitable and very nice people there, no matter 
what hour of the day or night we happen to arrive there on our 
CODELs.
    Ms. Hartley, as you know, President Hollande has indicated 
his government plans to honor its contract to sell two Mistral-
class amphibious warships to Russia. The first ship will arrive 
in October. Do you think that that is a good idea?
    Ms. Hartley. No, I think it is a terrible idea. I share 
your concern. The President has communicated with President 
Hollande, has told him that we do not think this is the time to 
be doing defense deals with Russia. I completely agree with 
that and if I am confirmed I will reinforce that message when I 
arrive in France.
    Senator McCain. As you know--thank you. As you know, they 
have had significant involvement in Mali. In fact, we visited 
there and have seen the significant French and excellent 
professional capabilities. Do you think we ought to be 
assisting them and cooperating more in this effort in Mali?
    Ms. Hartley. My impression is that we are working with 
them, providing technology and other things. They clearly are 
the boots on the ground. I think having France there, it is 
very sophisticated. It is a force multiplier for us. France has 
continued to spend I think 1.9 percent on its defense budget 
and that is a positive. So working with them helps both of us, 
and they help us a lot by being the boots on the ground in 
Africa.
    Senator McCain. Thank you.
    Thank you, Mr. Chairman.
    Senator Murphy. Thank you very much, Senator McCain.
    I just have one followup for you, Ambassador Bass. It is on 
this question that Senator McCain raised. Let me ask it in just 
a slightly different way. What are the U.S. levers to try to 
slow this march toward the suppression of speech. We have got a 
problem in that there is a pretty weak opposition in Turkey 
that should be doing a lot of that work by itself. Without it, 
it is left to the international community to put pressure on 
them. Senator Johnson and I have been very vocal, for instance, 
about the suppression of Twitter.
    You are going to have a lot of irons in the fire when you 
are sitting with Erdogan and his deputies. How do you continue 
to raise these issues amidst all sorts of other very important 
diplomatic and military cooperation that are happening? And 
will you commit to us as a committee to make sure that these 
issues related to the suppression of free speech and free 
assembly are still top of mind for our Embassy there?
    Ambassador Bass. Absolutely. It will be very important to 
continue to press the Turkish Government, to be clear about our 
beliefs, our values, our commitment to democratic values and 
human rights, and to find ways to try to influence the 
discussion in Turkey in a way that shows the potential 
consequences for Turks if they continue down a path that would 
make Turkey less democratic. I do not think there is any 
question that that would be of enormous concern to us going 
forward.
    Senator Murphy. Thank you.
    Any further questions for this panel? [No response.]
    If not, thank you very much for joining us today. We look 
forward to moving your nominations as quickly as possible 
through the committee. You are excused and we will now seat our 
second panel.
    Ms. Hartley. Thank you.
    Senator Murphy. We are now pleased to welcome our two 
panelists in the second round, considering the nomination of 
James Pettit to be Ambassador to Moldova and Brent Hartley, our 
second Hartley of the morning, to be Ambassador to Slovenia.
    Despite the recent ratification of an association agreement 
with the EU, Moldova finds itself in a tenuous position between 
the West and Russia. As the poorest country in Europe and a 
former Soviet state, Moldova's economy at times seems 
inextricably linked to that of Russia as it continues to 
struggle with Russian export bans, instability in Transnistria, 
and a crushing debt to Gazprom. While Moldova celebrates its 
newly signed agreement and visa-free travel to Europe, it also 
desires to regain a positive relationship with Russia. The two 
should not be mutually exclusive.
    If confirmed, Mr. Pettit, you will need to navigate these 
geopolitical challenges in find new ways in which the United 
States can support Moldova's important political and economic 
reform efforts.
    Senator Shaheen and I, along with other members of the 
committee, recently introduced a bipartisan resolution 
outlining the United States commitment to Moldova's sovereignty 
and territorial integrity, and we look forward to engaging in 
an open dialogue about U.S. support for Moldova.
    Moving west geographically speaking, the United States has 
long considered Slovenia as important strategic NATO ally in 
the western Balkans. Like Moldova, Slovenia is also still 
grappling with its past as an ex-Communist state. While it is 
considered to be one of the most politically and economically 
stable countries in the EU, it is currently undergoing 
significant political upheaval as a result of alleged 
corruption and economic crises.
    If confirmed, Mr. Hartley, you are going to be facing the 
challenge of navigating these domestic difficulties as well as 
broader European security challenges.
    Let me quickly introduce our witnesses and then we will get 
right to your testimony. Mr. Pettit has been nominated to be 
Ambassador to Moldova. He is a career member of the Foreign 
Service, currently serving as Deputy Assistant Secretary of 
Consular Affairs at the Department of State. He has spent a 
third of his career living in the former Soviet Union, 
previously serving as deputy chief of mission in Kiev and as 
deputy general counsel and political officer in Moscow. He has 
served in Vienna, Taipei, Guadalajara, as well as back here in 
the State Department.
    He speaks Russian, Spanish, German, Mandarin Chinese, 
received his B.A. from Iowa State University and a master's 
degree from the National War College.
    Brent Hartley has been nominated to be Ambassador to 
Slovenia, as mentioned. He is a highly distinguished Foreign 
Service officer, currently serves as Deputy Assistant Secretary 
for European and Eurasian Affairs at the Department of State.
    We welcome both of you to the panel today, and we will 
start, Mr. Hartley, with your testimony, and then move to Mr. 
Pettit.

 STATEMENT OF BRENT ROBERT HARTLEY, OF OREGON, NOMINATED TO BE 
             AMBASSADOR TO THE REPUBLIC OF SLOVENIA

    Mr. Hartley. Thank you very much, Chairman Murphy, Ranking 
Member Johnson. I would like to submit my full statement for 
the record if I may. I am honored to be here before you today 
as President Obama's nominee to be the eighth Ambassador of the 
United States to the Republic of Slovenia. I am deeply grateful 
for the confidence the President and Secretary Kerry have 
placed in me. If confirmed, I will do my utmost to justify 
their faith and yours in my ability to advance our strategic, 
economic, and political interests with Slovenia.
    I am also grateful for the love and flexibility of my wife, 
Elizabeth Dickinson, who is here today with us, my daughter, 
Eleanor, and my son, Charlie. My 33-year Foreign Service career 
has been largely dedicated to strengthening our relations with 
European allies and partners, and my wife has been with me 
every step of the way.
    If confirmed, I will seek to sustain and deepen our 
political and security cooperation with Slovenia. This year 
Slovenia is celebrating its 10-year anniversary of NATO and EU 
membership. Slovenian soldiers have served side by side with 
U.S. Forces in Afghanistan since 2003. Slovenians have served 
in international peacekeeping missions around the world, 
including Lebanon and Syria. It has also been a close U.S. 
partner in defending human rights, combating human trafficking, 
and safeguarding religious freedom around the globe.
    We share a particular priority on promoting stability in 
the Balkans, including by encouraging the integration of Balkan 
States into NATO and the EU. Slovenian soldiers deployed in 
NATO stabilization operations in Bosnia and Kosovo and they 
continue to contribute to the EU successor mission in Bosnia 
and maintain over 300 soldiers in Kosovo in the KFOR operation. 
As a result of its Balkan experiences, Slovenia also remains 
dedicated to addressing the safety of civilians during 
conflict, demining, and conventional weapons destruction.
    We welcome Slovenia's continued strong support for 
Ukraine's sovereignty and territorial integrity and its 
implementation of international sanctions in the face of 
Russia's occupation of Crimea. We are also working together to 
address urgent humanitarian challenges in Syria, Iran's nuclear 
proliferation, and Libya's stability, and we are working with 
Slovenia, as we are doing throughout the EU, on energy security 
and diversification of energy resources.
    Our military-to-military relations are excellent, 
characterized by hundreds of military exchanges, six 
codeployments with the Colorado National Guard in Afghanistan, 
and a rich foundation for future cooperation. Unfortunately, 
severe defense budget cuts resulting from recent economic 
difficulties have left Slovenia well below the NATO goal of 
spending 2 percent of GDP on defense. If confirmed, I will work 
to encourage the Slovenian Government to reverse cuts in 
defense and to address the structural challenges exposed by the 
country's economic downturn.
    Outgoing Prime Minister Bratusek's government and the 
central bank took a positive step in 2013 to recapitalize 
Slovenia's banking sector and restore market confidence, and 
the euro zone recovery has brought some economic relief as 
well. Yet many challenges remain. The United States and 
European Union agree that the country's next leaders must 
stabilize the banking sector, rationalize public finances, and 
follow through on commitments to privatize state-owned 
enterprises.
    We are looking forward to working with the new government, 
once it is formed following the July 13 elections, on these 
challenges. These vital economic reforms will help ensure a 
level playing field for U.S. business. If confirmed, I will 
seize every opportunity to build Slovenian support for the 
Trans-Atlantic Trade and Investment Partnership and to open 
doors for U.S. trade and investment.
    Even as Slovenia works to recognize its economic potential, 
it has only recently begun to deal with a complex and painful 
historical legacy concerning different narratives of violence 
during and after World War II. This legacy profoundly affects 
contemporary political, social, and even economic life. Some 
Slovenian leaders, most notably President Pahor, have stepped 
forward to urge dialogue and reconciliation. We support this 
effort because it is in both our interests. Slovenia will be a 
stronger ally and trade partner as it finds a way to deal with 
its past.
    Finally, if confirmed, my Embassy team and I will continue 
to engage the Slovenian public on all levels. We will work to 
promote our top policy priorities through exchange and 
educational programs. We will advocate accurate reporting on 
the United States to a media often overly skeptical of U.S. 
policies. And we will go directly to the people to talk about 
U.S. policy and values through our ever-expanding social media 
toolkit.
    Thank you for the opportunity to appear before you today. I 
would be pleased to answer any questions you might have.
    [The prepared statement of Mr. Hartley follows:]

               Prepared Statement of Brent Robert Hartley

    Thank you Mr. Chairman, Ranking Member and distinguished members of 
the Senate Foreign Relations Committee.
    I am honored to be here before you today as President Obama's 
nominee to be the eighth Ambassador of the United States to the 
Republic of Slovenia.
    I am deeply grateful for the confidence the President and Secretary 
Kerry have placed in me. If confirmed by the Senate, I will do my 
utmost to justify their faith in my ability to further enhance the 
strong U.S.-Slovenia relationship.
    My 33-year Foreign Service career has been largely dedicated to 
advancing our relations with European Allies and Partners. If 
confirmed, I will work with the excellent Country Team at Embassy 
Ljubljana to promote our strategic, economic and political interests 
with Slovenia.
    In its 23 years of independence, Slovenia has built a laudable 
record of international engagement and commitment. This year, Slovenia 
is celebrating its 10-year anniversary of NATO and EU membership. 
Slovenian soldiers have served side by side with U.S. and NATO Forces 
in Afghanistan since 2003. Slovenians have served in international 
peacekeeping missions in hot spots around the world, from Lebanon to 
Kosovo, from Syria to Mali. Slovenia has also been a close U.S. partner 
in the United Nations and other international venues to defend human 
rights, combat human trafficking, and safeguard religious freedom 
around the globe. In particular, Slovenia has raised the profile of the 
critical challenge of protecting civilian populations during conflict.
    In this regard, Slovenia has placed a high priority on promoting 
stability and development in the Balkans by encouraging the integration 
of Balkan States in Euro-Atlantic structures such as NATO and the EU. 
From an operational standpoint, Slovenian soldiers deployed to Bosnia 
and Herzegovina as part of NATO's Stabilization Force (SFOR) in 1997, 
and they continue to reinforce Bosnian stability by contributing to the 
EU's successor mission, ALTHEA. Slovenia has been a major KFOR 
contributor in Kosovo from the very beginning and still maintains a 
strong presence of over 300 soldiers. Slovenia also remains dedicated 
to addressing the safety of civilians and twin challenge of demining 
and conventional weapon destruction through ITF Enhancing Human 
Security initiative.
    Our security relationship is only getting broader. We welcome 
Slovenia's continued strong support for Ukraine's sovereignty and 
territorial integrity and its implementation of international sanctions 
in the face of Russia's occupation of Crimea. We are working together 
to address the urgent humanitarian challenges in Syria, respond to 
Iran's nuclear program, and to promote Libya's stability and 
prosperity. And we are working with Slovenia and throughout the EU on 
energy security issues, including the need to diversify energy sources 
to mitigate dependence on Russian gas.
    Slovenia's relationships with the U.S. European Command and the 
Colorado National Guard through the State Partnership Program are 
excellent. In the context of the U.S. European Command (EUCOM) and 
NATO, Slovenia hosts several top-tier training exercises annually. The 
Slovenian Armed Forces' 21-year relationship with the Guardsmen of 
Colorado has resulted in hundreds of military exchanges, six 
codeployments in support of the ISAF mission in Afghanistan, and a rich 
foundation for future cooperation.
    Unfortunately, severe defense budget cuts resulting from the last 
several years of economic difficulties have left Slovenia well below 
the NATO goal of spending 2 percent of GDP on defense.
    If confirmed, I will work with the Country Team to encourage the 
Slovenian Government to reverse this worrying trend in defense budget 
cuts and to address the structural economic challenges exposed by the 
country's economic downturn since 2009.
    Outgoing Prime Minister Bratusek's government and the Slovenian 
Central Bank took a positive step in 2013 to recapitalize Slovenia's 
banking sector and restore market confidence. Yet many challenges 
remain. The United States and the European Union agree that Slovenia 
needs to reduce the public sector's role in the economy and repair 
significant fiscal imbalances.
    Although the Eurozone recovery has brought some economic relief, 
the country's next leaders must take urgent action to stabilize the 
banking sector, rationalize public finances, and follow through on 
commitments to privatize state-owned enterprises. We are looking 
forward to working with the new government, once it is formed following 
the July 13 elections, on these challenges.
    These vital economic reforms will help ensure a level playing field 
for U.S. business, a high priority for any chief of mission. If 
confirmed, I will seize every opportunity to build Slovenian support 
for the Trans-Atlantic Trade and Investment Partnership and to open 
doors for U.S. trade and investment in an EU market with real untapped 
potential for U.S. companies. Approximately 60 U.S. companies already 
operate in Slovenia--including for example a significant Goodyear 
production facility. Through continued intensive commercial diplomacy, 
I am confident that Slovenia will become more open to American 
investments and a more attractive destination for American exports.
    Even as Slovenia works to recognize its economic potential, it has 
only recently begun to deal with a complex and painful historical 
legacy--concerning different narratives of violence during and after 
World War II--that profoundly affects contemporary political, social, 
and even economic life. Some Slovenian leaders, most notably President 
Pahor, have stepped forward to urge dialogue and reconciliation. 
Embassy Ljubljana supports this effort because it is in both U.S. and 
Slovenian interests: open dialogue regarding these events can help 
create a political environment more conducive to addressing, for 
example, Slovenia's difficult economic circumstances. Slovenia will be 
a stronger ally and trade partner as it finds a way to deal with its 
past.
    Finally, if confirmed, my Embassy team and I will continue to 
engage the Slovenian public on all levels to realize these goals. In 
addition to continuing joint cultural initiatives that have proven 
popular with Slovenians, we will work to promote our top policy 
priorities through exchange and educational programs that encourage 
entrepreneurship, innovation, and greater regional and international 
cooperation. We will advocate accurate reporting on the United States 
to media that are often overly skeptical of U.S. foreign policy. And we 
will go directly to the people to talk about U.S. policy and values 
through our ever-expanding toolkit of social media products. 
Ultimately, it's the people-to-people outreach and diplomacy that can 
provide the foundation for us to achieve our policy objectives.
    Thank you very much for the opportunity to appear before you today, 
and I would be pleased to answer any questions you might have.

    Senator Murphy. Thank you very much. I shorted you on your 
bio, by the way. I just additionally add your service as 
Director for European Security and Political Affairs at the 
Department of State and Country Director for Pakistan, in 
addition to your receipt of two Senior Foreign Service 
Performance Awards, 11 Superior Honor Awards. The list goes on. 
We are very pleased that you are here before this committee.
    Mr. Pettit.

  STATEMENT OF JAMES D. PETTIT, OF VIRGINIA, NOMINATED TO BE 
             AMBASSADOR TO THE REPUBLIC OF MOLDOVA

    Mr. Pettit. Thank you, Mr. Chairman, Ranking Member 
Johnson. It is indeed an honor and a privilege to appear before 
you today as the President's nominee to be Ambassador to the 
Republic of Moldova. I deeply appreciate the confidence that 
President Obama and Secretary Kerry have placed in me. If 
confirmed, I look forward to working closely with Congress to 
promote U.S. interests in Moldova.
    Today represents an important point in a journey over the 
last three decades that has taken me to numerous parts of the 
former Soviet Union at various critical junctures. If 
confirmed, I hope to continue that journey and play my own 
small role in seeking a happy and successful outcome for the 
people of the Republic of Moldova.
    I am accompanied today by my wife Nancy, who has witnessed 
the many changes in the region along with me and whose own 
insights and wisdom continue to help me on the way. Also here 
with me today are my brother, Gerry, my nephew, Brett, and his 
wife, Suzy.
    Secretary Kerry visited Moldova in December 2013 and Prime 
Minister Leanca visited the White House in March of this year, 
in part to launch our bilateral strategic dialogue and reaffirm 
U.S. engagement in and support for Moldova's independence and 
European future. Our engagement is key to promoting security 
not just in Moldova, but in neighboring Ukraine and the region.
    If confirmed, I will build upon this progress while seeking 
to fulfill our chief strategic objective, for Moldova to become 
a fully democratic, economically prosperous state, firmly 
anchored to Europe, within its internationally recognized 
borders and with an effective and accountable government. We 
believe European integration is the best road for Moldova's 
security and prosperity.
    On June 27, the Moldovan Government signed an association 
agreement that includes provisions for establishing a deep and 
comprehensive free trade area, which will bring Moldova closer 
to the EU politically as well as benefit the country 
economically. This year the United States will provide over $31 
million in assistance to Moldova to continue supporting these 
and other objectives.
    If confirmed, I will work closely with the Moldovan 
Government and in coordination with Moldova's European partners 
to support Moldova's efforts as it continues down its European 
path.
    2014 is an election year for Moldova, with parliamentary 
elections scheduled for late November. While the country has 
made great strides since independence, challenges remain to 
consolidate its democracy and recent EU-oriented gains. 
Corruption continues to be the primary vulnerability plaguing 
Moldova's democracy, particularly its justice sector. To its 
credit Moldova's ministry of justice initiated a justice sector 
reform strategy to modernize Moldova's legal system and meet 
European standards. If confirmed, I will continue to press the 
Moldovan Government to implement these reforms.
    Moldova remains Europe's poorest country. Around 22 percent 
of Moldova's GDP comes from remittances sent from Moldovans 
working abroad, the bulk of whom work in Russia. The United 
States seeks to strengthen Moldova's economy by promoting 
regulatory reform as well as increasing the competitiveness of 
core export industries. If confirmed, I will continue to 
advance these programs as well as work with the Moldovan 
Government to take further steps to buffer its economy against 
Russian pressure.
    Moldova's primary security challenge is its unresolved 
conflict with the Transnistria region. The 5+2 negotiations on 
a political settlement involve not only the parties to the 
conflict, but also Russia, Ukraine, and the Organization for 
Security and Cooperation in Europe as mediators, and the United 
States and EU as observers.
    Although Russia continues to be an important partner in 
this process, Russia's efforts to derail Moldova's European 
integration aspirations and its refusal to withdraw its troops 
from Transnistria pose significant threats. Russia has used a 
number of political and economic levers against Moldova, 
banning the import of Moldovan wine, increasing scrutiny of 
Moldova's agricultural exports, and threatening to cut off 
Moldova's gas supply and deport Moldova's migrant workers.
    If confirmed, I will continue my predecessor's efforts to 
mitigate the negative effects of Russian pressure, help Moldova 
find new markets for its exports, and increase government-to-
government coordination through the strategic dialogue.
    I thank you again for the opportunity to share my thoughts 
about the relationship with Moldova. If confirmed, I look 
forward to working closely with you and this committee. I would 
be happy to answer any questions you may have and will submit 
the remainder of my remarks to the record with your permission.
    [The prepared statement of Mr. Pettit follows:]

                 Prepared Statement of James D. Pettit

    Chairman Murphy, Ranking Member Johnson and members of the 
committee, it is an honor and a privilege to appear before you today as 
the President's nominee to be Ambassador to the Republic of Moldova. I 
deeply appreciate the confidence and trust that President Obama and 
Secretary Kerry have placed in me. If confirmed, I look forward to 
working closely with Congress to promote U.S. interests in Moldova. 
Today represents an important point in a journey over the last three 
decades that has taken me to numerous parts of the former Soviet Union 
at various critical junctures. If confirmed, I hope to continue that 
journey and play my own small role in seeking a happy and successful 
outcome for the people of the Republic of Moldova. I am accompanied 
today by my wife, Nancy, who has witnessed the many changes in the 
region along with me and whose own insights and wisdom continue to help 
me on the way.
    Over the last year, relations with Moldova strengthened 
significantly, with Secretary Kerry visiting Moldova in December 2013 
and Prime Minister Leanca visiting the White House in March this year 
in part to launch our bilateral Strategic Dialogue and to reaffirm U.S. 
engagement in, and support for, Moldova's independence and European 
future. Continuing to strengthen our engagement is key to promoting 
security not just in Moldova but also in neighboring Ukraine and the 
region. If confirmed, I will build upon this progress while seeking to 
fulfill our chief strategic objective; for Moldova to become a fully 
democratic, economically prosperous state firmly anchored to Europe 
within its internationally recognized borders and with an effective and 
accountable government. With your permission, I would like to take a 
moment to touch upon core aspects of this objective--European 
integration, democratic development, market development, and security.
                      first: european integration
    We believe European integration is the best road for Moldova's 
security and prosperity. Over the last year, Moldova has made 
significant strides toward this goal. On April 28, the EU lifted its 
visa regime for Moldova, allowing Moldovan citizens with biometric 
passports to visit the Schengen region for up to 90 days without a 
visa. Within the last 2 months alone, 78,000 Moldovans traveled to 
Europe visa free. On June 27, the Moldovan Government signed an 
Association Agreement that includes provisions for establishing a Deep 
and Comprehensive Free Trade Area, which will bring Moldova closer to 
the EU politically, as well as benefit the country economically by 
eliminating import duties on Moldovan products going to the EU--it is 
expected to boost Moldova's GDP by 5.4 percent. U.S. assistance has 
helped Moldova progress toward its European integration goal through 
programs that enhance government transparency, accountability, and 
responsiveness to citizen interests, as well as improve the business 
climate. This year the United States will provide over $31 million in 
assistance to Moldova to continue supporting these and other 
objectives. If confirmed, I will work closely with the Moldovan 
Government and in coordination with Moldova's European partners to 
support Moldova's efforts as it continues down its European path.
                     second: democratic development
    2014 is an election year for Moldova with Parliamentary elections 
scheduled for late November. While the country has made great strides 
since independence, challenges remain to consolidate its democracy and 
recent EU-oriented gains. Corruption continues to be the primary 
vulnerability plaguing Moldova's democracy, particularly its justice 
sector. Besides hampering government effectiveness and rule of law, 
corruption has led to high voter disillusionment with the current 
governing coalition and could harm Moldova's continued European 
integration aspirations. To its credit, Moldova's Ministry of Justice 
initiated a justice sector reform strategy to modernize Moldova's legal 
system and meet European standards. The impact of this strategy can 
already be seen in the adoption of several pieces of new legislation, 
including anticorruption laws targeting judges and other public 
officials. U.S. efforts are focused on supporting this strategy by 
improving judicial administration, increasing the skills of judges and 
prosecutors, and supporting civil society advocacy. The other key 
component of our assistance program in this sector focuses on enabling 
local government to improve services for its citizens, as polling shows 
that locally elected officials are the most respected institutions in 
Moldova. Much work remains to be done. If confirmed, I will continue to 
press the Moldovan Government to implement these reforms and others 
necessary to fulfill the desires of Moldovan citizens for an 
accountable and corruption free government.
                       third: market development
    Moldova remains Europe's poorest country with an approximate 
average salary of $290 a month. Around 22 percent of Moldova's $7.2 
billion GDP comes from remittances sent from approximately 700,000 
Moldovans working abroad, equal to one-fifth of the country's 
population--the bulk of whom work in Russia. While Moldova exceeded 
international expectations and saw its GDP grow by 8.9 percent in 2013, 
further growth is in question due to lack of transparent, substantial 
legal safeguards for business and pervasive corruption, which deters 
foreign investments. The United States seeks to strengthen Moldova's 
economy by promoting regulatory reform, as well as increasing the 
competitiveness of core export industries, such as wine and fashion, 
enabling them to take advantage of the opportunities created through 
closer economic ties with Europe. In addition, through the 5-year $262 
million Millennium Challenge Corporation compact that will close in 
September 2015, the United States is rebuilding a 93 kilometer road 
that will serve as a modern transportation corridor in Northern 
Moldova, and is rehabilitating irrigation systems, which will help 
strengthen the transition to higher value agricultural products. If 
confirmed, I will continue to advance these programs, as well as work 
with the Moldovan Government to take further steps to buffer its 
economy against Russian pressure.
                            fourth: security
Moldova's primary security challenge is its unresolved conflict with 
Russian-backed separatists in the Transnistria region. Closely related 
to this is the presence of Russian military forces in this same region, 
without Moldova's consent. Although there has been no armed conflict 
between the Government of Moldova and its separatist region in two 
decades, Russia insists its peacekeeping presence must remain until 
there is a resolution to this ``frozen conflict.'' The 5+2 negotiations 
on a political settlement involve not only the parties to the conflict, 
but also Russia, Ukraine, and the Organization for Security and 
Cooperation in Europe (OSCE) as mediators, and the United States and EU 
as observers. The talks have stalled due in part to Russian and the 
separatists' unwillingness to engage in a political dialogue on the 
region's final status. Of continuing concern are media reports of 
increased Russian military activity in Transnistria, reports which 
remain unconfirmed in part due to the ongoing restrictions by 
Transnistrian authorities of access to the region by observers from the 
OSCE's Mission to Moldova. If confirmed, I will support OSCE efforts to 
find a peaceful resolution to this frozen conflict that guarantees 
Moldova's sovereignty and territorial integrity, while providing for a 
mutually acceptable special status for its Transnistria region. I will 
also work to ensure that the OSCE has unfettered access to all of 
Moldova, including its Transnistria region.
    Although Russia continues to be an important partner in the ongoing 
5+2 process and plays a large role in Moldova's economic and trade 
activity, Russia's efforts to derail Moldova's European integration 
aspirations and its refusal to withdraw its troops from Transnistria 
pose significant threats to the country's sovereignty, security, 
stability, and prosperity. Since September 2013, Russia has used a 
number of political and economic levers against Moldova, including 
banning the import of Moldovan wine, increasing scrutiny of Moldova's 
agricultural exports, and threatening to cut off Moldova's gas supply 
as well as to deport up to 265,000 of Moldova's migrant workers. In 
addition, Russian interests control much of Moldova's financial sector 
and its assets. Combined with the constant stream of anti-EU rhetoric 
from Russian television, a major source of news for Moldovan citizens, 
Russia's actions threaten Moldova's sovereignty, economic well-being 
and its European path. If confirmed, I will continue my predecessor's 
efforts to mitigate the negative effects of Russian pressure, help 
Moldova find new markets for its exports, increase government-to-
government coordination through the Strategic Dialogue, help the 
Moldovan Government secure its borders by completing the $35 million 
Defense Threat Reduction Agency program that is building up the 
capacity of Moldova's border guards, and assist the Moldovan 
Government's efforts to counteract Russia's negative propaganda 
campaign.
    While Moldova has come closer to its goal of European integration, 
its government still has much work to be done. If confirmed, I look 
forward to helping the Moldovan Government realize its citizens' 
European aspirations. At the same time, I will support any reasonable 
effort Moldova wishes to make in order to maintain trade and other 
relations with neighbors outside the EU on the basis of mutual respect 
and common interests, not on the basis of threats or political and 
economic pressure. This will contribute immeasurably to our long-
standing objective of a Europe whole, free, and at peace.
    I thank you again for the opportunity to share my thoughts about 
the relationship with Moldova. If confirmed, I look forward to working 
closely with you and this committee.

    Senator Murphy. Thank you very much to both of our 
nominees.
    Let me start with the same question to both of you. You 
both have experience in Europe, varying levels of experience 
dealing with Russia. You are going to be in countries that have 
long-standing relationships with Russia, while also looking 
toward the West as well. One of the things that a lot of us 
have been struck by--certainly Senator Johnson and I talk about 
this a lot--is the major difference in the ability of Europe 
and the United States to communicate information to the 
countries in which you are going, to Moldova in particular, 
versus the ability of Russia to do the same. Russia has 
dramatically modernized and ramped up its propaganda efforts. 
This is particularly relevant in Moldova, but I am sure it is 
an issue in Slovenia as well.
    With your broad experience in the region, what are your 
recommendations as to how the United States and Europe can try 
to compete in the information wars with Russia. Maybe I will 
put the question to you first, Mr. Pettit, in particular 
because you are going to have elections coming up in Moldova 
and an imbalance in information and its sourcing can have a 
pretty big impact on the outcome of those elections.
    So what are your recommendations? I am more asking for your 
recommendations to us as a committee as we debate this question 
of how we better resource our side of the messaging operation 
here, without of course getting into the same kind of, I would 
argue, over-the-top propaganda that the Russians engage in?
    Mr. Pettit. Thank you, Senator, for that question, Mr. 
Chairman. It is indeed daunting, the competition with the 
Russian propaganda tools that they have, and it is hard to 
duplicate, and therefore needs to be countered in a different 
way. Eighty percent of Moldovans do get their news information 
from television. There are many, many Russian cable stations 
that are rebroadcast in Moldova and which reach an audience of 
almost the entire country. Most people in Moldova do speak and 
understand Russian very well. The programming is superior, it 
is very slick, it is well packaged.
    In terms of countering that influence, we have to use the 
tools at hand. The U.S. does have RFE-RL. We do have our radio 
broadcasting programs. We do not have the equivalent of Russian 
television and therefore we have to use other tools. We have to 
use exchanges, we have to make ourselves available. High-level 
visits are very helpful. Several members of this committee have 
visited Moldova in recent months. This gives us access to 
Moldovan media. It allows us to do outreach.
    If confirmed, one of my priorities will be to have mission 
members go out and do outreach throughout Moldova, including 
Transnistria, which we already do. These efforts are very, very 
important. We have 100 Peace Corps Volunteers in Moldova. All 
of these tools in their own way do help spread the message.
    But of course, what is critical is that our EU partners 
also assist us in this effort, particularly since the signing 
of the association agreement.
    Mr. Hartley. Thank you, Mr. Chairman. I would second what 
Jim indicated with regard for the priority that we need to put 
on this issue and for the engagement of the entire Embassy 
staff in these efforts. I think the challenge that we face in 
this regard in Slovenia is far less than what Jim will face in 
Moldova and other states closer to Russia and in countries 
where they have a Russian-speaking minority.
    But nonetheless, it is critical that we get out and we are 
as active and creative as we can be. As I indicated in my 
statement, that is going to be a key priority for me if I am 
confirmed. The Embassy currently has a very active social media 
program, creative, educational, and other exchanges, including 
bringing interns in, partnering with the American Chamber of 
Commerce to bring interns in to work with American businesses 
during the summer months, in addition to some of the more 
classic exchanges that we have in the Fulbright scholarships, 
things like that.
    I certainly agree with Jim that high-level visits help. 
General Breedlove, the Supreme Allied Commander and Commander 
of U.S. Forces in Europe, was there recently and we would 
certainly welcome members of the committee visiting as well.
    Senator Murphy. We will look forward to your thoughts on 
this subject. I think it is time that this committee has a more 
robust conversation about what new assets we can provide the 
information programs we already run. We made a commitment to 
Radio Free Europe when radio was the primary means by which 
people received information. That is not true today and it is a 
little hard to understand, if we still have a commitment to a 
concept like that, why we have not upgraded the technology to 
recognize how people get their information.
    Back to you, Mr. Pettit. Talk a little bit about the 
association agreement. A big step forward for the Moldovans, 
but the question is how does it operate? What needs to happen 
in order to make the potential benefits of that agreement real? 
What do we need to be saying to the Europeans in order for 
Moldova to take advantage of the newfound abilities they have 
under that trade pact?
    Mr. Pettit. Thank you, Mr. Chairman. Obviously, the 
economic benefits for Moldova are almost immediate. Some 
analysts estimate that GDP should rise approximately 5.4 
percent just in the first year because of the favorable 
treatment of Moldovan products. However, there is a lot of hard 
work to comply with EU standards, and that is going to be the 
most difficult part for the Moldovan economy, the Moldovan 
Government.
    We have programs in place, as does the EU, to specifically 
assist Moldovan government, industry, with compliance. This is 
across the board. This is regulatory, this is meeting 
standards, this is rules applying to agriculture and tariffs 
and all sorts of things, including social components, such as 
human rights and governance. We have programs in all those 
areas. The EU has programs in all those areas. We see our role 
assisting Moldova in this aspect with attaining the necessary 
compliance with EU standards. It will be a definite benefit for 
the economy of Moldova, including Transnistria.
    Senator Murphy. People have posited that the sort of next 
shoe to drop in terms of Russia's ambitions to gain control 
over the near abroad is an increased level of Russian activity 
in Transnistria. They may not have to do that, given the fact 
that there are upcoming elections that are going to be hotly 
contested, and should the Communists win you could see a so-
called democratic reorientation of Moldova back to being within 
a closer sphere of influence with Russia.
    So my guess was always that Russia was going to put its 
efforts into winning these elections, which may get them most 
of what they want anyway. What do we know about level of 
Russian activity in the early stages of the November elections? 
What is going to be the U.S. disposition on those elections and 
making sure that they are, at the very least, conducted in a 
free and fair manner?
    Mr. Pettit. Thank you, Mr. Chairman. There is definitely 
Russian activity behind the political scenes in influencing 
electorates, particularly the more disaffected groups. As you 
may know, there are some ethnic divisions within Moldova, such 
as specifically Gagauzia, also places in the north that are 
more--that have more of a tilt linguistically and historically 
toward Russia.
    The Russians definitely take advantage of that. As we had 
already discussed, the Russian propaganda machine is enormous. 
That said, the last parliamentary elections had many foreign 
observers and were deemed and fair and transparent. I am not as 
concerned about the process itself as what the results could 
be. We will work with whatever coalition emerges from the 
November elections. We have high hopes on the pro-European 
inclinations of the current coalition, but it bears noting 
that, even when the communists were in power, they were very 
amenable toward European integration and actually implemented 
some of the preliminary steps that led to the signing of the 
association agreement.
    So the election results are impossible to predict. The 
Communist Party remains the largest single party, but it is not 
a majority. They would have to enter into a coalition with 
others. We are hopeful that the current European path will not 
be disrupted regardless of what the results are of the 
election.
    Senator Murphy. The Communist Party did oppose the 
association agreement, so it seems that for the time being they 
have cast their lot against European integration. We certainly 
know there is high levels of coordination between that party 
and the Russian Government. So I understand it is difficult for 
the United States to press political levers within a country 
when it comes to an election, but I hope we are not going into 
these elections with an optimism that a Communist majority is 
going to automatically continue a pathway toward European 
integration. I am not sure that that is a forgone conclusion.
    Mr. Pettit. You are absolutely correct, Mr. Chairman, that 
the Communists are publicly stating that they do oppose the 
association agreement. We are really talking about hearts and 
minds. Unfortunately, the polls do indicate waning support for 
the association agreement. A lot of that is based on 
misperceptions of what the result will be. So I think it is 
really in the arena of public opinion and outreach is where we 
have our work cut out for us, we, the EU, and the Moldovan 
Government, which also has to take responsibility to explaining 
to the electorate just exactly what the benefits are, which to 
us seem very clear, but have not been made clear to the 
electorate.
    Senator Murphy. Mr. Hartley, we had a hearing last week on 
European energy security. In my opening comments I told a story 
about a recent visit that Senator McCain and Senator Johnson 
and I made to Bulgaria, in which during our time there an 
announcement was made that Bulgaria was going to for the time 
being suspend work on the South Stream pipeline, and thereafter 
we were criticized in some sectors of the country as being 
Americans coming into Bulgaria and telling them how to run 
their business.
    It struck me and still strikes me that the United States is 
in a no-win position. When we attempt to exert leadership to 
benefit our interests and European interests, we are criticized 
for being too heavily involved in other nations' business, and 
then if we are not showing that level of leadership we are told 
that the United States is sitting back and failing to show the 
same kind of leadership that we have in the past.
    Slovenia is a member of the South Stream coalition. They 
have shown a willingness to move forward with the project, that 
is in contravention with the Third Energy Package from the EU. 
What is the current state of affairs with respect to South 
Stream in Slovenia? What are the things that you can do to try 
to convince them to stay on the same page as Europe when 
dealing with these complicated questions of energy transmission 
in and through the continent?
    Mr. Hartley. Thank you, Mr. Chairman. That is a big 
question. The Slovenians seem very interested in their 
participation in the South Stream project, which is interesting 
in light of the fact that they only get about 10 percent of 
their energy from gas and they have access to hydroelectric 
power, nuclear power, and other alternatives. In some ways they 
are better set for pursuing a diverse energy base than many 
other countries in that area.
    But nonetheless, they remain interested. From what I 
understand from public statements by Slovenian officials, 
however, they are not prepared to take on the European 
Commission's rulings with regard to how the South Stream 
project has been structured and the EU Commission's, the 
European Commission's opposition to it.
    If confirmed, energy security and energy diversification 
will be an important priority. It is a very big issue, 
especially in light of Russian behavior toward Ukraine and the 
ability and the willingness it has shown to use its energy 
resources as a political tool. I would want to promote greater 
interconnectedness between--within the European gas and 
electrical network and encourage Slovenian interest that is 
already evident in the possibility of building a second nuclear 
reactor, the first of which they share with Croatia.
    Senator Murphy. All right. You guys got off the hook 
relatively easily today. Really important postings; looking 
forward to working with both of you; very excited to have such 
eminently qualified individuals going into very important posts 
for the United States.
    We are going to keep the record open for members to pose 
additional questions to you and our first panel, only until the 
close of business tomorrow, in an effort to try to move your 
nominations as quickly as possible. So if you do receive 
questions, we hope that you will turn around answers as quickly 
as possible so that we can move your nominations, as well as 
the first panel's, through the committee in as expeditious a 
manner as possible.
    With that, this hearing is adjourned.
    [Whereupon, at 11:46 a.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


           Responses of Ambassador John R. Bass to Questions 
                  Submitted by Senator Robert Menendez

    Question. In the past few years in Turkey, some Turkish citizens 
have been organizing and participating in events to commemorate the 
Armenian Genocide. The United States consulate has sent representatives 
to some of these commemorations in Istanbul.

  <diamond> Will you make participating in the commemoration of the 
        100th anniversary of the genocide a priority for you and your 
        staff? How do you personally characterize the events that took 
        place between 1915-23 that resulted in the deportation of 
        nearly 2,000,000 Armenians and the killing of as many as 
        1,500,000 men, women, and children?

    Answer. The U.S. Government acknowledges as historical fact and 
mourns that 1.5 million Armenians were massacred or marched to their 
death in the final days of the Ottoman Empire. In recent years, a 
senior representative from our consulate in Istanbul has attended the 
April 24 commemoration event in Istanbul. This is typically the largest 
and most public event held in Turkey on Remembrance Day itself, and 
Istanbul is where the vast majority of Armenian citizens in Turkey now 
live. If confirmed, I will continue to make attendance at such 
commemoration events a priority, particularly in light of the upcoming 
100th anniversary of one of the worst atrocities of the 20th century.
    The administration has commemorated the Meds Yaghem, and remains 
engaged in diplomatic efforts that support the President's call for ``a 
full, frank, and just acknowledgement of the facts.'' If confirmed, my 
role would be to represent faithfully the President's policies and 
priorities. I will continue to support the courageous steps taken by 
individuals in Armenia and Turkey to foster a dialogue that 
acknowledges their shared history.

    Question. For over 20 years, Turkey has maintained an illegal 
blockade against landlocked Armenia, despite public calls from 
successive U.S. administrations for it to open Europe's last closed 
border without any preconditions.

  <diamond> What steps will you take to move this issue forward and 
        bring an end to the blockade?

    Answer. It has been and remains the administration's policy to 
encourage Turkey and Armenia to reconcile their past and normalize 
relations as a means of creating the peaceful and prosperous bilateral 
relationship that the people of both countries deserve. The status quo 
is not beneficial for either side, and both countries would benefit 
greatly from increased direct trade and normal relations. Facilitating 
Armenia's regional integration by opening its border with Turkey is a 
priority for the United States.
    If confirmed, this would be one of my key goals as Ambassador. I 
would work closely with colleagues in Washington and in our Embassy in 
Yerevan on this common objective, including taking every opportunity in 
meetings with government and civil society leaders to encourage greater 
dialogue. In addition, I would continue to support increased cross-
border cooperation between the people of Armenia and Turkey through 
research initiatives, conferences, and exchange programs.

    Question. Will you commit to meeting periodically with the Greek 
and Armenian American communities on a regular basis when you are in 
the United States?

    Answer. If confirmed, it will be my honor and duty to serve as the 
representative of the U.S. Government and fellow American citizens to 
the Republic of Turkey. To that end, I look forward to engaging 
regularly with American citizen groups of all ethnic backgrounds who 
have an interest in our relations with Turkey, including and especially 
the Armenian American and Greek American communities.

    Question. The recent conversion of two historic churches in Turkey 
into mosques and the threat of legislation that would convert the 
historic Hagia Sophia is of grave concern. Will you raise these 
concerns with Turkish authorities when you arrive in Ankara?

    Answer. The State Department views the Hagia Sophia museum as a 
unique and historic symbol for Turkey and the surrounding region, and 
we strongly support maintaining the current status of this UNESCO World 
Heritage Site. We recognize and continue to emphasize U.S. concerns 
over the challenges religious minority groups face in Turkey, including 
by highlighting instances of the conversion of other historic religious 
sites to mosques in our annual International Religious Freedom Report. 
The Government of Turkey has taken positive steps over the past year to 
return some properties to active religious communities, including the 
Mor Gabriel Monastery and 47 acres of property surrounding Halki 
Seminary, but more can be done. We currently have no confirmation of 
any serious effort to convert the Hagia Sophia to a mosque.
    If confirmed, I will continue to stress to Turkish officials the 
global sensitivity of any move to change the current character of the 
Hagia Sophia. I also pledge to continue our policy and practice of 
regularly raising these concerns with Turkish officials and encouraging 
additional measures to strengthen religious freedom in Turkey.

    Question. Less than 100 years ago, there was a vibrant and large 
Christian population in Turkey. Because of genocide and persecution, 
the population has been decimated and accounts for less than point 2 
percent of the population today. In January 2011, President Obama noted 
the importance of ``bear[ing] witness to those who are persecuted or 
attacked because of their faith.''

  <diamond> How will you address issues of religious persecution 
        against Christians and other religious minorities with Turkish 
        authorities?

    Answer. Religious minority groups face continuing challenges in 
Turkey, as noted in our annual ``International Religious Freedom 
Report.'' The State Department regularly engages at all levels with 
Turkish officials regarding the importance of religious freedom, 
including legal reforms aimed at lifting restrictions on religious 
groups, property restitution, and specific cases of religious 
discrimination. To this end, we strongly support efforts to reopen 
Halki Seminary on terms acceptable to the Ecumenical Patriarch. 
Furthermore, we condemn in the strongest terms violence toward all 
religious minorities, and we urge Turkish authorities to pursue 
investigations and bring perpetrators to justice.
    If confirmed, I will encourage the Turkish Government to follow 
through on the return of religious minority properties and to take 
additional steps to promote religious freedom, such as allowing more 
religious communities to own property, register their places of 
worship, and train clergy.

    Question. This year marks the 40th anniversary of the Turkish 
invasion and occupation of Northern Cyprus. Peace talks restarted in 
February with the aim of creating a bizonal, bicommunal federation on 
the island. Thus far, confidence-building measures have been a sticking 
point, and other issues, such as property, are proving to be as 
difficult as they have been over the course of the last four decades.

  <diamond> What efforts will you exert to encourage Turkey to 
        proactively and productively engage in these talks in order to 
        reach a final resolution that will reunify the island?

    Answer. We welcome the constructive roles of both Turkey and Greece 
in support of the settlement process, including hosting historic visits 
by the Turkish-Cypriot negotiator to Athens and the Greek-Cypriot 
negotiator to Ankara. If confirmed as Ambassador, I will work closely 
with my colleagues in Greece and Cyprus and give my full support to the 
efforts under the auspices of the United Nations Good Offices Mission 
to reunify the island as a bizonal, bicommunal federation that would 
bring security and economic prosperity to all Cypriots. I will also 
engage senior Turkish officials to promote a just and lasting 
comprehensive settlement on Cyprus.

    Question. The Eastern Mediterranean could contribute to European 
energy security, but many analysts believe that the main impediment to 
greater oil and gas exploration is the lack of regional cooperation. 
Turkey's provocations in Greek Cypriot waters, such as its insistence 
on deploying small research and exploration ships off the island's 
southern coast, exemplify a barrier to greater regional cooperation.

  <diamond> What do you believe are the opportunities for greater 
        regional cooperation in exploring these resources? What is your 
        plan for bringing Turkey to the table to negotiate in good 
        faith? Are there any positive signs?

    Answer. The discovery of offshore hydrocarbon resources in the 
Eastern Mediterranean has the potential to change the landscape for 
many countries in the region. If managed correctly, these resources 
could be a catalyst for increased cooperation and stability. If 
confirmed as Ambassador, I will continue ongoing U.S. efforts to ensure 
energy is used to promote cooperation and prosperity, rather than 
conflict.
    There have been some encouraging signs. For example, a recent 
conference held in the buffer zone brought together Turks, Greeks, 
Israelis, Lebanese, Turkish Cypriots, and Greek Cypriots to discuss the 
future of hydrocarbon developments in the Eastern Mediterranean. The 
gathering sent an important message about the potential role that 
hydrocarbon development can play in promoting greater regional 
cooperation and, ultimately, increased economic prosperity and energy 
security for Cyprus and its neighbors in the region.
    The United States recognizes the Republic of Cyprus' right to 
develop its resources in its Exclusive Economic Zone. We also believe 
the island's resources should be equitably shared between both 
communities within the context of an overall settlement. Collaboration 
with regional partners such as Israel and Egypt could enable efficient 
development of these resources while also expanding potential for 
future cooperation on a wider range of issues.

    Question. Ecumenical Patriarch Bartholomew is the spiritual head of 
300 million Orthodox Christians who compose the world's second-largest 
Christian Church. As U.S. Ambassador, what will you do to encourage the 
Turkish Government to allow the reopening of the Halki theological 
seminary, cease interference in the election of church leadership, and 
encourage the return of other religious properties belonging to the 
Patriachate?

    Answer. The United States strongly supports efforts to reopen Halki 
Seminary on terms acceptable to the Ecumenical Patriarchate. Secretary 
Kerry and Vice President Biden have consistently called for the 
reopening of the seminary without preconditions, and the U.S. Embassy 
in Ankara and consulate general in Istanbul have engaged the Turkish 
Government on this issue regularly. If confirmed, I will continue to 
urge Turkish officials at the highest levels to reopen the seminary as 
a symbol of Turkey's commitment to religious freedom.
    In addition, we support the Church's right to choose its own 
Patriarch, obtain citizenship for Church Metropolitans, and gain 
recognition of the Patriarch's ecumenical status from the Turkish 
Government. If confirmed, I will urge the Turkish Government to work 
cooperatively with the Patriarchate to resolve these and other matters 
of importance to Orthodox Christians and other religious minorities in 
Turkey. I will also continue to encourage Turkey to take additional 
steps to strengthen religious freedom, including allowing more 
religious communities to own property, register their places of 
worship, and train their clergy.

    Question. In 2013 Turkey announced that it would procure the 
Chinese FD-2000 (HQ-9) air defense system. This system is not 
compatible with the evolving ballistic-missile shield being built in 
Europe.

  <diamond> What is the administration doing, and what will you do, if 
        confirmed, to ensure that Turkey does not coproduce an air and 
        missile defense system with a Chinese Government-owned company 
        which has repeatedly been sanctioned by the United States?
  <diamond> If Turkey does pursue such cooperation with the Chinese, 
        how would this affect other elements of U.S. and NATO defense 
        cooperation with Turkey, including on missile defense and 
        coproduction of the F-35 Joint Strike Fighter?

    Answer. We have serious concerns about Turkey's decision to 
negotiate with a sanctioned Chinese company for an air and missile 
defense system that will not be interoperable with NATO. We remain 
actively engaged--at the highest levels--in urging Turkey to end 
negotiations with the Chinese and turn to a NATO interoperable tender. 
We have enlisted NATO and our allies in this effort; they share our 
concerns. Turkish officials have reaffirmed that negotiations with the 
Chinese have not concluded and have extended the tender period through 
August 28. They have indicated the door remains open for a revised U.S. 
proposal. We have made clear that if Turkey does choose a Chinese 
system, it cannot and will not be connected to NATO systems and may 
have other consequences for our defense relationship.
    Other aspects of our defense cooperation with Turkey remain strong, 
including the strategically important access that Turkey continues to 
provide us to key bases and its hosting of the AN/TPY-2 missile defense 
radar. The Raytheon-Lockheed Martin bid would be NATO-interoperable and 
contribute to a stronger U.S.-Turkey defense relationship. Turkey 
remains a key partner in the F-35 Joint Strike Fighter program, and 
announced on May 6 its plans to order two F-35 aircraft. We have told--
and will continue to reinforce to--Turkish officials that if they 
procure an air defense system from a sanctioned Chinese firm, it could 
inhibit our shared goal of expanding our economic and defense 
relationship.
    If confirmed, one of my highest priorities will be to support and 
advocate on behalf of U.S. companies and investors, including those 
competing for business and contracts in the defense and security 
sectors, consistent with applicable U.S. law and regulations. That 
includes advocacy to promote the American consortium's bid for this air 
defense tender.

    Question. Turkey ranks 154th among 180 countries on the World Press 
Freedom Index. What concerns do you have about freedom of expression in 
Turkey in the aftermath of efforts by the government to ban Twitter and 
YouTube and enforce regressive new Internet laws? What can the United 
States do to raise these concerns, including in international fora, and 
to provide a forum for public opinion and the press in Turkey?

    Answer. I share your concern regarding government actions that have 
weakened freedom of expression in Turkey, which the administration has 
conveyed both publicly and privately to the Government of Turkey. We 
believe that democracies are strengthened by the diversity of public 
voices, while an independent media operating without fear of 
retribution is crucial to ensuring transparency and accountability. The 
State Department has urged the Turkish Government to unblock its 
citizens' access to social media and ensure free access to all such 
platforms; we welcomed the Turkish constitutional court rulings in 
favor of restoring Twitter and YouTube. If confirmed, I will continue 
to call on the Turkish Government to ensure open access to information 
from many sources--including social media.

    Question. The U.S. innovative pharmaceutical industry faces severe 
challenges in Turkey, including an arbitrary fixed exchange rate system 
that saddles the industry with an extra 50 percent erosion of their 
prices. This is on top of a pricing regime that already forces the 
industry to accept some of the lowest prices in the world, in a market 
that hopes to be a top 10 global economy by 2023.

  <diamond> What will you to do to help resolve this long-standing, 
        market-distorting, unfair trade practice?

    Answer. I agree the fixed exchange rate currently utilized by the 
Turkish Government in connection with reimbursements for imported 
pharmaceutical products impedes access to the Turkish market by U.S. 
pharmaceutical companies. It also acts as a barrier to Turkey's access 
to the latest innovative medicines. The U.S. Government takes this 
issue very seriously and continues to urge changes in the pricing 
regime with senior Turkish officials. Most recently, Commerce Secretary 
Pritzker and Ambassador Froman raised pharmaceutical reforms with 
Deputy Prime Minister Babacan and Minister of Economy Zeybekci during 
the 2014 U.S.-Turkey Framework for Strategic Economic and Commercial 
Cooperation (FSECC) meeting in May.
    If confirmed, I will encourage Turkey to work with the U.S. 
pharmaceutical sector to better understand their market needs. I will 
also work with our Foreign Commercial Service and U.S. companies to 
urge Turkey to implement key pharmaceutical sector reforms--and in 
doing so, to build momentum for a broader U.S.-Turkey trade 
relationship.

    Question. Turkey has identified the pharmaceutical sector as a top 
priority for its government. However, U.S. innovative pharmaceutical 
companies continue to face a rash of highly punitive market access 
barriers that impede Turkish patients' access to medicines that are 
available to patients around the world, including in Europe and the 
United States. These barriers include marketing authorization and good 
manufacturing practices delays, uncertainty surrounding intellectual 
property protection, growing protectionist policies, a government-
pricing regime that distorts the market through mandatory price 
discounts, and a draconian exchange rate system for pharmaceuticals. 
This exchange system is especially burdensome, as the industry must 
accept a forced devaluation that is currently 50 percent below market 
levels, despite a law and court rulings requiring the government to 
adjust the rate upward. This has been a top commercial priority for the 
Embassy and the former Ambassador.

  <diamond> How will you work to improve the market conditions for the 
        U.S. research-based pharmaceutical industry in Turkey?

    Answer. I agree that the fixed exchange rate currently utilized by 
the Turkish Government in connection with reimbursements for imported 
pharmaceutical products acts as a barrier to Turkey's access to the 
latest innovative medicines. The issue of delayed marketing approvals 
as a barrier to access is also an area of concern for the United 
States.
    During this year's Framework for Strategic and Economic Commercial 
Cooperation (FSECC), the Ministry of Health suggested Turkey would 
begin implementing a ``parallel processing'' approach to pharmaceutical 
product applications for good manufacturing practices inspections and 
marketing authorizations, which should accelerate the entry of 
innovative drugs into the market.
    If confirmed, I will monitor these and other developments and 
encourage prompt implementation of such provisions. I will also press 
the Turkish Government to improve market conditions for the U.S. 
pharmaceutical industry in Turkey.

    Question. Since the beginning of the Syrian civil war, foreign 
fighters and funding have flowed through Turkey and into Syria in ever-
increasing numbers to extremist groups, giving them a major advantage 
over moderate, local, Syrian opposition forces. Many foreign fighters 
moving through Turkey come from North Africa, Western Europe, and even 
North America. Now there is a threat that these battle-seasoned 
fighters could return from Syria, via Turkey, intent on attacking their 
home countries. Furthermore, representatives of Syrian extremist groups 
are operating from eastern Turkey, where they meet with wealthy 
benefactors to raise funds.

  <diamond> What should the Turkish Government be doing to stem the 
        flow of fighters and funding through Turkey into Syria? How 
        will you engage with the Turkish Government on this critical 
        set of issues that pose security threats to the United States, 
        regional partners, and NATO allies?

    Answer. This is a critical issue for the United States and Turkey, 
as well as for the ``source'' countries from which foreign fighters are 
departing and then returning. Turkey faces particular challenges as 
violent extremists take advantage of its geographical location and high 
volume of legitimate travelers. As the conflict in Syria has continued, 
the increasing threat from violent extremists has prompted stronger 
action by the Turkish Government to counter foreign fighters traveling 
or moving money across its borders. For example, the Turkish Government 
is working to tighten entry and exit controls. The Turkish Government 
has also made significant progress in implementing terrorist 
designations.
    If confirmed, I will continue our ongoing dialogue with Turkey to 
strengthen and intensify collective action to counter the threat posed 
by foreign fighters. I will also urge more focused, intense efforts to 
cut off financial flows to terrorist organizations through continued 
work with the multilateral Financial Action Task Force (FATF).
    Finally, I will work to ensure that U.S Government agencies present 
in Turkey--including the Departments of Homeland Security, Justice, and 
Defense--are continuing to provide advice and technical expertise to 
help the Turkish Government share information about suspected or 
designated extremists and further strengthen border security.

    Question. In March 2009, Assistant Secretary of State Phil Gordon, 
in response to a question I asked at his confirmation hearing before 
the Foreign Relations Committee, expressed his hope that the Turkey-
Armenia border would be opened by October 2009. Today, nearly 5 years 
later, Turkey has refused to end its blockade of landlocked Armenia.

  <diamond> In the past year, what adjustments has the executive branch 
        made to its approach and policies to accomplish our repeatedly 
        stated interest in seeing Turkey open this border? What 
        progress can you report on this issue? Do you believe that 
        Turkey's nearly 20 year strategy of blockading Armenia has been 
        effective?

    Answer. Both Turkey and Armenia are important friends and partners 
of the United States, and improving bilateral relations between them is 
an important priority for the administration. The status quo is 
unsustainable and detrimental to Turks and Armenians. It does not serve 
the interests of either society or contribute to stability across the 
region. Both countries would benefit from reopening the border. 
Increasing direct trade and contact between the two peoples would 
foster greater trust and understanding, and would help facilitate the 
necessary reconciliation between these two nations.
    The administration has been focused on this goal for many years. 
Despite our best efforts, progress has unfortunately been limited, with 
fewer advances than we would have liked to achieve. In the last year, 
the administration has stepped up support and encouragement of 
government-to-government discussions. We have also sought new ways to 
actively promote greater people-to-people contacts and partnerships as 
well as other cross-border and regional initiatives. We will continue 
our efforts to build and expand commercial, social, and cultural ties 
between Turks and Armenians in order to foster good will and 
understanding, and to encourage their governments to reconcile their 
past and normalize relations.
    The countries of the South Caucasus region are increasingly 
important strategic security and commercial partners for the United 
States and Europe. Armenia's full integration into the region remains a 
focus of U.S. foreign policy. If confirmed, I will work closely with 
colleagues in Yerevan and in Washington to promote normalization of 
Turkish-Armenian relations, including by reopening their shared border, 
which remains key to providing people in both countries with the 
stability and prosperity they deserve.

    Question. What specific actions will you take, if confirmed, to 
mark the 100th anniversary of the Armenian genocide?

    Answer. As the 100th anniversary of one of the worst atrocities of 
the 20th century approaches, Turkey must be proactive in seeking to 
come to terms with its past. If confirmed, I will personally encourage 
Turkish leaders to take meaningful steps toward reconciliation. The 
administration acknowledges the Meds Yeghern and mourns for the 1.5 
million Armenians who were massacred or marched to their death in the 
final days of the Ottoman Empire. U.S. Government officials have 
commemorated this tragedy at Remembrance Day events in Washington and 
Yerevan, as well as in Istanbul, where the largest and most public 
event in Turkey takes place.
    If confirmed, I would ensure senior-level representation by our 
mission to Turkey at such commemoration events. I would also do 
everything I could to advance concretely President Obama's call for ``a 
full, frank, and just acknowledgement of the facts.'' In advance of 
this important anniversary year, I would seek opportunities to support 
publicly the courageous steps taken by Armenian and Turkish individuals 
to engage in honest dialogue about their shared history. Finally, I 
would be happy to provide briefings to Congress on the status of these 
efforts and discuss additional steps that might also stimulate further 
progress.

    Question. What assistance can you provide to American citizens who 
are the heirs of victims and survivors of the Armenian Genocide with 
respect to their legal claims to property?

    Answer. Though the U.S. Government is not a party to these cases, 
we continue to follow closely developments in the litigation. 
California's courts have dismissed several cases filed by Armenian 
descendants on procedural grounds, but some litigation remains pending.
    We recognize these cases are more than just legal claims for the 
heirs of victims and survivors of the tragic events of 1915; they 
represent a deep and passionate search for resolution of one of the 
worst atrocities of the 20th century. These cases are also a stark 
reminder of the importance of ongoing U.S. Government efforts to 
encourage the Turkish and Armenian people and governments to heal the 
wounds of the past. If confirmed, I would seek to intensify support for 
the ongoing reconciliation efforts between these two nations, to allow 
them to move forward together toward a future relationship grounded in 
security and prosperity.

    Question. What will you do to promote free speech about the 
Armenian Genocide within Turkey and end the gag-rule to allow their own 
history to be discussed freely?

    Answer. I share your commitment to supporting freedom of 
expression, as democracies are strengthened by diverse voices in the 
public sphere. If confirmed, I will be a champion for this and other 
universal values, as I was during my tenure as U.S. Ambassador to 
Georgia, and urge the Turkish Government to demonstrate full respect 
for its citizens' right to engage in open debate and free discussion 
without fear of retribution.
    The Department of State has supported civil society and people-to-
people initiatives to encourage reconciliation between Turkey and 
Armenia, including programs that further the President's call for ``a 
full, frank, and just acknowledgement of the facts'' regarding the 
tragic events in 1915. The upcoming 2015 anniversary of the Meds 
Yeghern presents an opportunity for Turkey to expand the political 
space for dialogue on this issue and chart a new course for the future. 
Both Turkish Prime Minister Erdogan and Foreign Minister Davutoglu have 
taken helpful steps in this direction in the last year, acknowledging 
the events of 1915 were ``wrong'' and ``inhumane,'' and offering 
condolences for the lives that were lost. This was the first time in 
history that Turkish leaders have publicly made such statements.
    If confirmed, I would encourage Turkish leaders to build off these 
statements and engage further in honest and open dialogue. I would also 
pursue opportunities to highlight the human dimension of this tragedy, 
including by continuing our current practice of meeting with courageous 
individuals in Turkey who are working to move forward the conversation 
about these countries' shared history.
                                 ______
                                 

               Response of Kevin F. O'Malley to Question 
                  Submitted by Senator Robert Menendez

    Question. The International Fund for Ireland (IFI) promotes 
economic development and reconciliation in Northern Ireland and the 
border areas of the Republic most affected by the conflict. 
Appropriations for the IFI averaged $23 million annually during the 
1990s, and $18 million annually from 2000-10. Since FY 2011, funding 
has fallen to just $2.5 million, with the administration asking for no 
funding in its budget request.

  <diamond> How has this significant decrease in funding affected our 
        ability to promote development and reconciliation?

    Answer. The United States continues to support Northern Ireland as 
it works to build a strong society, vibrant economy, and enduring 
peace. Since 1986, the United States has supported Northern Ireland's 
movement toward a shared future of peace and prosperity with over $530 
million in U.S. foreign assistance to the International Fund for 
Ireland (IFI) programs. Through the years, the fund has contributed to 
establishing stability and promoting peace and reconciliation in 
Northern Ireland and the border counties.
    Given significant budget constraints and the need to focus scarce 
resources on the highest priorities globally, the administration did 
not request funding for IFI in FY 2015. However, with the funding 
provided from FY 2011 to FY 2013, and funding the administration 
expects to allocate for FY 2014, the United States will meet an 
existing $7.5 million commitment to the IFI's Peace Impact Program. The 
Peace Impact Program is part of a commitment to a lasting and sustained 
peace, targeting those communities in Ireland and Northern Ireland most 
prone to dissident recruitment and activity.
    If confirmed, I will make it my priority to continue the United 
States support for the Northern Ireland peace process through 
diplomatic engagement and cultural and educational exchanges.
                                 ______
                                 

           Responses of Ambassador John R. Bass to Questions 
                   Submitted by Senator Barbara Boxer

    Question. If confirmed as the U.S. Ambassador to Turkey, you will 
be Ambassador during the 100th anniversary of the Armenian Genocide.

  <diamond> If confirmed, will you make participating in observances 
        within Turkey that commemorate the 100th anniversary of the 
        Armenian Genocide a priority for you and your staff?

    Answer. The U.S. Government acknowledges as historical fact and 
mourns that 1.5 million Armenians were massacred or marched to their 
death in the final days of the Ottoman Empire. In recent years, a 
senior representative from our consulate in Istanbul has attended the 
April 24 commemoration event in Istanbul. This is typically the largest 
and most public event held in Turkey on Remembrance Day itself, and 
Istanbul is where the vast majority of Armenian citizens live in 
Turkey. If confirmed, I will continue to make attendance at such 
commemoration events a priority, particularly in light of the upcoming 
100th anniversary of one of the worst atrocities of the 20th century.

    Question. Despite death threats and intimidation, Turkish scholars 
and writers have affirmed the Armenian Genocide.

  <diamond> If confirmed, will you commit to meeting with these Turkish 
        citizens who are risking their lives to urge their government 
        to openly acknowledge the Armenian Genocide?

    Answer. Over the last several years, the Department of State has 
supported civil society and people-to-people initiatives to encourage 
Turkey-Armenia reconciliation, including programs that would support 
the President's call for a full, frank, and just acknowledgement of the 
facts regarding the tragic events in 1915. If confirmed, I will 
continue our current practice and meet with individuals in Turkey 
involved in these and similar efforts and support their courageous 
steps to foster a dialogue that acknowledges Turkey's shared history 
with Armenia.

    Question. In your testimony, you mention the importance of 
normalizing relations between Turkey and Armenia as a means to creating 
a peaceful, prosperous relationship that will benefit people of both 
countries.

  <diamond> How does the failure of the Turkish Government to openly 
        acknowledge the Armenian Genocide impede efforts to normalize 
        relations between Turkey and Armenia?

    Answer. To achieve full reconciliation, Turkey must come to terms 
with its past. While progress has been slow, there have been some 
recent signs of change, such as remarks by Prime Minister Erdogan this 
past April expressing condolences to the grandchildren of Armenians who 
suffered the tragic events of 1915. The administration will continue to 
encourage a full, frank, and just acknowledgement of the facts in order 
to promote understanding between Turkey and Armenia. In addition, we 
will continue our efforts in support of the normalization of diplomatic 
relations between the two countries and the opening of their land 
border. If I am confirmed, I will also promote government-to-government 
discussions, as well as people-to-people, cultural and economic 
contacts and partnerships. Such interaction begins to build trust, 
which is an important step toward reconciliation. I stand ready to 
support all such efforts in service of reconciliation.

    Question. For two decades, Turkey has maintained its illegal 
blockade of landlocked Armenia despite public calls by successive U.S. 
administrations for an end to Europe's last closed border.

  <diamond> If confirmed, how will you work to end this illegal 
        blockade?

    Answer. It has been and remains the administration's policy to 
encourage Turkey and Armenia to reconcile their past and normalize 
relations as a means of creating the peaceful and prosperous bilateral 
relationship that the people of both countries deserve. The status quo 
is not beneficial for either side, and both countries would benefit 
greatly from increased direct trade and normal relations. Facilitating 
Armenia's regional integration by opening its border with Turkey is a 
priority for the United States. If confirmed, this would be one of my 
key goals as Ambassador. I would work closely with colleagues in 
Washington and our Embassy in Yerevan on this common objective, 
including taking every opportunity in meetings with government and 
civil society leaders to encourage greater dialogue. In addition, I 
would continue to support increased cross-border cooperation between 
the people of Armenia and Turkey through research initiatives, 
conferences, and exchange programs.

    Question. Will you commit to meeting with the Armenian American, 
Greek American, Assyrian American and Kurdish American communities on a 
regular basis?

    Answer. If confirmed, it will be my honor and duty to serve as the 
representative of the U.S. Government and fellow American citizens to 
the Republic of Turkey. To that end, I look forward to regularly 
working with American citizen groups of all ethnic backgrounds who have 
an interest in our relations with Turkey, including and especially 
Armenian American, Greek American, Assyrian American, and Kurdish 
American communities.
                                 ______
                                 

           Responses of Ambassador John R. Bass to Questions 
                 Submitted by Senator Edward J. Markey

    Ambassador Bass, if confirmed as the United States Ambassador to 
Turkey, your tenure will coincide with the 100th anniversary of the 
Armenian Genocide. Commemorating this anniversary will be greatly 
important to Armenian communities around the world, including in Turkey 
and the United States.

    Question. How do you believe the United States can help advance 
broader recognition of the Armenian Genocide in Turkey?

    Answer. Over the last several years, the Department of State has 
supported a number of civil society and people-to-people initiatives to 
encourage Turkey-Armenia reconciliation. This includes programs that 
support the President's call for a full, frank, and just 
acknowledgement of the facts regarding the tragic events in 1915 which 
resulted in one of the worst atrocities of the 20th century. If 
confirmed, I will continue to promote these initiatives and explore 
whether there are other avenues that could further reinforce U.S. 
efforts to promote a full, frank, and just acknowledgement of the facts 
and reconciliation between the two countries. I also look forward to 
meeting with the courageous individuals in Turkey who are taking steps 
to foster a dialogue that acknowledges Turkey's shared history with 
Armenia. Turkey must come to terms with its past, and I stand ready to 
support all such efforts.

    Question. What role do you believe the U.S. Embassy and consulates 
should play in marking this important occasion?

    Answer. The U.S. Government acknowledges as historical fact and 
mourns that 1.5 million Armenians were massacred or marched to their 
death in the final days of the Ottoman Empire. In recent years, a 
senior representative from our consulate in Istanbul has attended the 
April 24 commemoration event in Istanbul. This is typically the largest 
and most public event held in Turkey on Remembrance Day itself, and 
Istanbul is where the vast majority of Armenian citizens in Turkey now 
live. If confirmed, I will continue to make attendance at such 
commemoration events a priority, particularly in light of the upcoming 
100th anniversary of one of the worst atrocities of the 20th century.

    Question. How do you believe the failure to properly recognize the 
Armenian Genocide hinders the normalization of relations between 
Armenia and Turkey?

    Answer. To achieve full reconciliation, Turkey must come to terms 
with its past. While progress has been slow, there have been some 
recent signs of change, such as remarks by Prime Minister Erdogan this 
past April expressing condolences to the grandchildren of Armenians who 
suffered the tragic events of 1915. The administration will continue to 
encourage a full, frank, and just acknowledgement of the facts in order 
to promote understanding between Turkey and Armenia. In addition, we 
will continue our efforts in support of the normalization of diplomatic 
relations between the two countries and the opening of their land 
border. If I am confirmed, I will also promote government-to-government 
discussions, as well as people-to-people cultural and economic contacts 
and partnerships. Such interactions begin to build trust, which is an 
important step toward reconciliation. I stand ready to support all such 
efforts in service of reconciliation.

    Question. Do you agree with the accounts of U.S. diplomats, 
including Ambassador Henry Morgenthau, who served as U.S. Ambassador to 
the Ottoman Empire from 1913 to 1916, regarding the attempted 
annihilation of the Armenian people?

    Answer. I am aware of the history of the tragic massacres and 
forced exile that occurred at the end of the Ottoman Empire, and with 
U.S. policy during that period. Ambassador Morgenthau's accounts, and 
the reporting of other U.S. diplomats, serve as important historical 
records of these tragic events from various perspectives. The 
individual stories of the tragedy are horrifying.
    The U.S. Government acknowledges as historical fact and mourns that 
1.5 million Armenians were massacred or marched to their death in the 
final days of the Ottoman Empire. If confirmed as Ambassador, my role 
would be to represent faithfully the President's policies, as it has 
been in all of my previous assignments.

 
    NOMINATIONS OF ERICA RUGGLES, GEORGE KROL, ALLAN MUSTARD, DAVID 
                     PRESSMAN, AND MARCIA BERNICAT

                              ----------                              


                        THURSDAY, JULY 17, 2014

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Erica J. Barks Ruggles, of Minnesota, to be Ambassador to the 
        Republic of Rwanda
Hon. George Albert Krol, of New Jersey, to be Ambassador to the 
        Republic of Kazakhstan
Allan P. Mustard, of Washington, to be Ambassador of the United 
        States of America to Turkmenistan
David Pressman, of New York, to be Alternate Representative for 
        Special Political Affairs in the United Nations, with 
        the rank of Ambassador; Alternate Representative to the 
        Sessions of the General Assembly of the United Nations, 
        during his tenure of service as Alternate 
        Representative for Special Political Affairs in the 
        United Nations
Hon. Marcia Stephens Bloom Bernicat, of New Jersey, to be 
        Ambassador to the People's Republic of Bangladesh
                              ----------                              

    The committee met, pursuant to notice, at 2 p.m., in room 
SD-419, Dirksen Senate Office Building, Hon. Tim Kaine, 
presiding.
    Present: Senators Kaine and Risch.

             OPENING STATEMENT OF HON. TIM KAINE, 
                   U.S. SENATOR FOR VIRGINIA

    Senator Kaine. This meeting of the Senate Foreign Relations 
Committee will come to order.
    We have five nominees to consider today and forward to the 
full committee for their consideration. I appreciate that we 
have a little bit of a--some kind of a demonstration is 
blocking a couple of the nominees from being here right at the 
minute, but we will get started, nevertheless. I will do some 
opening statements.
    And I think I will just go ahead and tell you about all 
five of the nominees in my opening statements, and then we will 
begin with testimony from Ms. Ruggles and Mr. Pressman, and we 
will allow the other three nominees to do their testimony when 
they arrive.
    First, congratulations to you, and to all five of the 
nominees. It is an honor to be nominated to represent the 
United States in the capacities for which you are nominated. As 
a member of the Foreign Relations Committee, it has been a 
privilege to work on the committee, and one of the things that 
is so exciting is the opportunity to meet Foreign Service 
officers of every grade and every capacity, both in Washington 
and around the world. We are served very, very well by some 
dedicated public servants, and many of them live in Virginia. 
So, I want to make sure I say that right up front.
    The five nominees that we have today for a variety of 
positions are as follows: Marcia Bernicat to be Ambassador to 
the People's Republic of Bangladesh; George Krol to be 
Ambassador to the Republic of Kazakhstan; Allan Mustard to be 
Ambassador to Turkmenistan; and then two witnesses who are 
here, David Pressman, who is the Alternative Representative for 
Special Political Affairs to the U.N., with the rank of 
Ambassador, and an Alternate Representative to the Sessions of 
the General Assembly of the U.N.; and Erica Barks-Ruggles to be 
Ambassador to Rwanda.
    I am chairing this hearing, as the Chair of the 
Subcommittee on Near East, South, and Central Asia, where a 
number of these positions are in that real estate.
    A few words about each of our five nominees: Ambassador 
George Krol is a career member of the Senior Foreign Service, 
class of Minister Counselor, currently serving as the U.S. 
Ambassador for the Republic of Uzbekistan, previously the 
Ambassador in Belarus, with many other assignments in Eastern 
Europe and Central Asia.
    Welcome, to all of you. You came in quicker than I thought 
you were going to come in. I am very glad to have you here. 
Just starting the introductions.
    Ambassador Krol has served much of his career in the former 
Soviet Union, developing deep knowledge of the region, and we 
are very, very pleased to welcome him here.
    Ambassador Krol, welcome.
    Ambassador Marcia Bernicat, who served previously as the 
Ambassador to Senegal and Guinea-Bissau, and she was confirmed 
by the Senate for those positions in 2008. Ambassador Bernicat 
is a Senior Foreign Service officer who has 33 years of 
experience. She is currently serving as Deputy Assistant 
Secretary of State in the Bureau of Human Resources, and 
previously she has served in many capacities, including 
overseas postings in Barbados, Malawi, India, Mali, France, and 
other positions.
    Welcome. We are very, very glad to welcome you here.
    Allan Philip Mustard is the most Senior Foreign Service 
officer in the Foreign Agricultural Service at U.S. Department 
of Agriculture, currently serves as Agricultural Minister 
Counselor at the U.S. Embassy in New Delhi, India. He has broad 
experience in guiding economic reform assistance throughout 
Eastern Europe and the former Soviet Union. An expert leader 
and manager, he served twice in Russia and speaks excellent 
Russian. He will be bringing essential skills to the task of 
furthering bilateral relations with the Government of 
Turkmenistan as it transitions to a market economy.
    David Pressman is an American human rights attorney and 
former aid to U.N. Secretary of State Madeleine Albright. He 
currently serves as Samantha Powers' counsel at the United 
Nation. David served as an advisor to Secretary Janet 
Napolitano and chief of staff to the Deputy Secretary of 
Homeland Security, also served as Assistant Secretary of 
Homeland Security responsible for policy development on global 
criminal justice issues. He was appointed by President Obama to 
serve as the director for the War Crimes and Atrocities on the 
National Security Council.
    And finally, Erica Jean Ruggles is a career member of the 
Senior Foreign Service, currently serves as consul general at 
the U.S. consulate in Capetown, South Africa, a position she 
has held since 2011. During her career, she has served as 
Deputy to the U.S. Ambassador to the U.N., on detail as 
Director of the National Security Council, and Deputy Assistant 
Secretary in the Bureau of Democracy, Human Rights, and Labor. 
She has also had postings abroad in Norway, India, and 
elsewhere.
    These five public servants have already demonstrated their 
mettle in difficult positions and are well qualified for the 
positions for which they have been nominated.
    We are pleased to welcome you today. And what I would like 
to do is just begin with opening statements from each of the 
witnesses. I know you have submitted testimony for the record. 
It will be accepted in the record, but please take the time 
that you need.
    We will begin with Ms. Ruggles, and we will work our way 
across the dais, and we will then prepare for my withering 
cross-examination. [Laughter.]
    Ms. Ruggles.

 STATEMENT OF ERICA J. BARKS RUGGLES, OF MINNESOTA, NOMINEE TO 
            BE AMBASSADOR TO THE REPUBLIC OF RWANDA

    Ms. Barks-Ruggles. Thank you, Chairman Kaine. And thank 
you, to the members and staff who are here today.
    It is, as you said, an honor and a privilege to appear 
before you today and to have been nominated as the next U.S. 
Ambassador to the Republic of Rwanda. I am humbled by the trust 
that has been placed in me by the President and the Secretary 
of State, and I hope that you will also find me worthy of your 
trust. If confirmed, I will work closely with this committee 
and other interested Members of Congress to advance U.S. 
interests in Rwanda.
    I would like to start, if you would not mind, by 
acknowledging the presence of--behind me, of my husband and 
fellow Foreign Service officer, Taylor Ruggles. Without him and 
without our family's love and support, I would not be here 
today.
    Mr. Chairman, I sit before your committee today an 
embodiment of what so many people in so many countries admire 
about the United States, the fact that, through hard work and a 
good education, anyone in America can become anything they want 
to be. In my 22-year career, I have seen people just like me, 
from modest backgrounds, with hardworking families, who have 
not had the opportunities I did simply because they were of a 
different race, tribe, ethnic group, religion, or gender. And, 
because of that, I have become a committed advocate for 
ensuring that every individual has--the opportunities they need 
to succeed.
    Rwanda is a country that has been deeply riven by cycles of 
conflict, tragedy, and survival. Although Rwanda is still 
recovering from the 1994 genocide that killed more than 800,000 
innocent people, Rwandans have shown that recovery, 
reconciliation, and healing are possible, even in the aftermath 
of a genocide that no one believed possible in our time.
    More, however, needs to be done to secure peace and 
democracy and further expand prosperity in Rwanda for the next 
generation of its citizens. Since 1994, Rwanda has made 
enormous progress in rebuilding itself by investing in the 
health and education of its people, laying the needed 
foundation for economic prosperity and sustainable growth. In 
the past 10 years alone, it has pulled over 1 million of its 11 
million citizens out of poverty, doubled GDP, and had economic 
growth that has averaged over 6 percent.
    Rwanda is working not only to create immediate short-term 
jobs and employment, but to develop a vibrant economy by 
meeting the basic needs of its population through building 
roads, providing safe water, transportation, and health care. 
Rwandan children have the highest primary enrollment rates in 
all of Africa. For both boys and girls, Rwanda is on track to 
achieve universal access to primary education by 2015, with a 
primary net enrollment rate of over 95 percent since 2012. And, 
unlike many countries in the developing world in which girls 
have limited access to education, Rwanda's young girls are 
enrolling in primary rates at above 98 percent.
    To strengthen its economy, Rwanda has aggressively pursued 
a privatization policy that encourages foreign and local 
investment. It has diversified trade outflows and has worked 
strategically to achieve its goal of developing into a middle-
income country by 2020 and becoming an important hub within the 
East African community for regional financial services, 
aviation, information technology, and tourism.
    In addition to its economic progress, Rwanda has drawn on 
its own tragic history to try to alleviate conflicts elsewhere 
in the region. Rwandan police and troops are serving with 
distinction in U.N. and regional peacekeeping forces in Darfur, 
South Sudan, Mali, and Central African Republic. The United 
States has worked closely with Rwanda since 2006 in this 
regard, providing over $60 million in training, nonlethal 
equipment, and logistics support to enable Rwandan deployments 
in these missions.
    The United States, in partnership with the international 
community, has also supported real developmental change in 
Rwanda. We remain Rwanda's largest bilateral donor, providing 
more than $200 million in foreign assistance in fiscal year 
2013, including $90 million through the PEPFAR program.
    Although Rwanda has made much progress over the last 20 
years, there is still much we can do to encourage and support 
its development, particularly in the area of respect for human 
rights and the rule of law, ensuring freedom of expression for 
political activities and the media, and deepening Rwanda's 
democracy.
    If confirmed as Ambassador to Rwanda, I will continue to 
urge the Rwandan Government to abide by its international human 
rights commitments, including respect for the freedoms of 
assembly and expression, which are crucial to the success of 
any democratic system of governance.
    If confirmed, I will also continue to encourage Rwanda to 
play a constructive role in restoring peace and stability in 
eastern Congo, including the full implementation of its 
commitments to the Peace, Security, and Cooperation Framework, 
the regional peace process, signed in February 2013. One of the 
core objectives of that framework is the eradication of all 
armed groups, including increased international regional 
efforts to neutralize the Democratic Forces for the Liberation 
of Rwanda, or the FDLR, as they are commonly known, a group 
whose members include individuals responsible for the genocide 
in Rwanda.
    Mr. Chairman, if confirmed, I will commit all of my energy 
and experience toward strengthening the relationship between 
our two countries and advancing, to the best of my abilities, 
the U.S. goals of a democratic, prosperous Rwanda that is at 
peace with its neighbors.
    Thank you, again, Mr. Chairman, for the opportunity to 
appear before you today, and I will welcome your questions at 
the end.
    [The prepared statement of Ms. Barks-Ruggles follows:]

               Prepared Statement of Erica Barks Ruggles

    Chairman Menendez, Ranking Member Corker, and members of the 
committee, it is an honor and a privilege to appear before you today 
and to have been nominated by President Obama to be the next United 
States Ambassador to the Republic of Rwanda. I am humbled by the trust 
placed in me by President Obama and Secretary Kerry in nominating me 
for this position. I hope that you will also find me worthy of that 
trust. If confirmed, I will work closely with this committee and other 
interested Members of Congress to advance U.S. interests in Rwanda.
    I would like to acknowledge my husband and fellow Foreign Service 
officer, Taylor Ruggles. Without him, and our strong families' love and 
support, I would not be here today.
    Mr. Chairman, I sit before your committee today an embodiment of 
what so many people in so many countries admire about the United 
States--the fact that through hard work, effort, and good education, 
anyone in America can become anything they want to be. I was born in 
the Midwest and had never even been on an airplane until I was 18, 
heading to university. As I did so, I felt the weight of ensuring I 
made the most of every minute of my education to further myself as I 
knew how much my family was sacrificing financially for me to go to 
college. That education opened up the world for me.
    In my career, I have seen people just like me--from modest 
backgrounds with hard working families--who have not had the 
opportunities I did sometimes simply because they were of ``another'' 
race, tribe, religion, or gender. And because of that I have become a 
committed advocate for the need to give every child, every individual, 
the respect and opportunities they need to succeed.
    Rwanda is a country that has been deeply riven by cycles of 
conflict, tragedy, and survival. Although Rwanda is still recovering 
from the 1994 genocide that killed more than 800,000 innocent people, 
Rwandans have shown that recovery, reconciliation, and healing are 
possible, even in the aftermath of a genocide that no one believed 
possible in our times. More, however, needs to be done to secure peace 
and democracy, and further expand prosperity in Rwanda for the next 
generation of Rwandan citizens.
    Since 1994, Rwanda has made enormous progress in rebuilding itself 
by investing in the health and education of all of its people, laying 
the needed foundation for economic prosperity and sustainable growth. 
It has pulled over one million of its 11 million citizens out of 
poverty in the past 10 years, and doubled per capita GDP in that same 
period. Economic growth has averaged over 6 percent for the past 3 
years.
    Rwanda is working not only to create immediate short-term jobs, but 
to develop a vibrant economy by meeting the basic needs of its 
population for potable water, roads, transportation, and health care. 
Rwandan children have the highest primary school enrollment rates in 
Africa. For both boys and girls, Rwanda is on track to achieve 
universal access to primary education by 2015, with a primary net 
enrollment at over 95 percent since 2012. And, unlike many countries in 
the developing world in which girls have limited access to education, 
Rwanda's young girls are enrolling in primary school at a rate of about 
98 percent. Rwanda has also increased to well over 70 percent the 
number of children staying in school to complete their education.
    To strengthen its economy, Rwanda has aggressively pursued a 
privatization policy that encourages foreign and local investment. It 
has diversified its trade outflows beyond traditional exports of tea 
and coffee to products such as pyrethrum 
(a natural insecticide), hides and skins, textiles, minerals, and 
specialty coffee. Rwanda is also partnering with foreign investors to 
increase its capacity in the areas of technology, telecommunications, 
and alternative forms of energy such as solar and hydropower. Rwanda 
has worked strategically to achieve its goal of developing into a 
middle-income country by 2020 and becoming an important regional hub 
within the East African Community for regional financial services, 
aviation, information technology, and tourism.
    In addition to its economic progress, Rwanda has drawn on its own 
tragic history to try to alleviate conflicts elsewhere in the world. 
Rwandan police and troops have distinguished themselves as among the 
most capable and professional contingents to support United Nations 
peacekeeping missions in Haiti, as well as in regional and U.N. 
missions in Sudan, South Sudan, Mali, and most recently, Central 
African Republic. The United States has worked closely with Rwanda 
since 2006 in this regard, providing over $60 million in training, 
equipment, and, in some cases, logistical support to enable Rwandan 
deployments for these missions.
    The United States, in partnership with the international community, 
has supported real, positive change in Rwanda. We remain Rwanda's 
largest bilateral donor, having provided more than $200 million in 
foreign assistance in fiscal year 2013, of which more than $90 million 
is used to support the President's Emergency Plan for AIDS Relief 
(PEPFAR).
    Though Rwanda has made much progress over the last 20 years, there 
is still much we can do to encourage and support its development, 
particularly in the areas of respect for human rights and the rule of 
law, ensuring freedom of expression for political activities and the 
media, and deepening Rwanda's democracy to permit peaceful political 
discourse and competition. If confirmed as Ambassador to Rwanda, I will 
continue to urge the Rwandan Government to abide by its international 
human rights commitments, including respect for the freedoms of 
assembly and expression, which are crucial to the success of any 
democratic system of governance. As Nelson Mandela, that great icon and 
statesman of South Africa said, ``To deny people their human rights is 
to challenge their very humanity.''
    If confirmed, I will also continue to encourage Rwanda to play a 
constructive role in restoring peace and stability in eastern Congo, 
including through full implementation of its commitments to the Peace, 
Security, and Cooperation Framework, the regional peace process signed 
in February 2013 that is intended to end the recurrent, devastating 
cycle of conflict in eastern Democratic Republic of the Congo and its 
negative impacts on the surrounding Great Lakes region. One of the core 
objectives of the Framework is the eradication of all armed groups, and 
this must include increased international and regional efforts to 
neutralize the Democratic Forces for the Liberation of Rwanda (FDLR), a 
group whose members include individuals responsible for the Rwandan 
genocide.
    I believe the broad range of experience I have gained in my 22-year 
career as a Foreign Service officer will assist me in further advancing 
our goals with the Republic of Rwanda. As the Deputy Assistant 
Secretary in the Bureau of Democracy, Human Rights, and Labor, and as 
the Deputy to the U.S. Permanent Representative to the United Nations, 
I dealt with many of the kinds of issues that I would face, if 
confirmed, as the U.S. Ambassador to Rwanda. Having worked on Africa 
issues on and off since 1994, I have followed Rwanda's progress--and 
its ongoing challenges--with interest. My most recent posting in South 
Africa has only confirmed for me the important role that strong, 
independent democratic institutions--including independent courts, a 
free press and a vibrant civil society--play in safeguarding 
democracies and building more inclusive, more tolerant, and more stable 
societies.
    Mr. Chairman and members of the committee, if confirmed, I will 
commit all of my energy and experience toward strengthening the 
relationship between our two countries and to advancing to the best of 
my ability the U.S. goal of a democratic, prosperous Rwanda that is at 
peace with its neighbors.

    Senator Kaine. Great. Thank you, Ms. Ruggles.
    Ambassador Krol.

STATEMENT OF HON. GEORGE ALBERT KROL, OF NEW JERSEY, NOMINEE TO 
          BE AMBASSADOR TO THE REPUBLIC OF KAZAKHSTAN

    Ambassador Krol. Thank you, Mr. Chairman. And thank you for 
this opportunity to appear before you today in connection with 
my nomination to be the next United States Ambassador to the 
Republic of Kazakhstan. And I am honored by the trust and 
confidence the President and Secretary Kerry have demonstrated 
in me with this nomination. And, if confirmed, I will endeavor 
to fulfill their, and your, high expectations of me to advance 
our country's interests in Kazakhstan.
    And I am also honored to be sitting here before you today 
with my colleagues, with whom I have served and whom I greatly 
admire for their professionalism and their dedication to our 
country.
    As a 32-year career officer of the United States Foreign 
Service, I can think of no greater honor and privilege to serve 
our country and represent the American people as Ambassador of 
the United States. And I am grateful for the support and 
inspiration my family members and friends have provided me 
through the years. And I count on their love and support in the 
future.
    Encompassing the size--or, the territory the size of 
Europe, Kazakhstan possesses immense natural resources and is 
located at the crossroads of east and west and north and south, 
and its population is young and increasingly connected with the 
world around them. And, for the United States, our strategic 
goals in Kazakhstan are to facilitate and strengthen 
Kazakhstan's sovereignty and independence, its stability, its 
prosperity, and its democracy.
    Our strategic partnership with Kazakhstan has become 
increasingly important as Kazakhstan assumes its rightful place 
on the world stage as a country of consequence. From the 
earliest days of its independence 22 years ago, Kazakhstan has 
made numerous wise decisions. It gave up its Soviet-legacy 
nuclear arsenal, which, at the time, was the fourth-largest in 
the world, and has become a leader in nonproliferation efforts 
around the world. And, from the beginning, Kazakhstan has 
pursued economic reform, and, as a result, is now a middle-
income nation with the most advanced economy in the region. 
Kazakhstan has also actively promoted trade links east and west 
and north and south, and shares our vision of developing a New 
Silk Road to connect Central and South Asia.
    Another wise early decision was to send many of its young 
citizens abroad for education, which is an investment that 
should pay off handsomely in both the public and private 
sectors of Kazakhstan.
    Long a provider of humanitarian and development assistance 
in Afghanistan, as well as being an integral part of the 
northern distribution network into Afghanistan, Kazakhstan is 
now standing up, in collaboration with our own USAID, its own 
international development body, called KazAID.
    And, in short, Mr. Chairman, Kazakhstan is a country with 
which the United States can work. United States investment in 
Kazakhstan has grown to roughly $31 billion, making Kazakhstan 
our most important economic partner in the region. We have 
expanded our ties in the security sphere and in the areas of 
economic reform, education, and growth of Kazakhstan's civil 
society. And, if confirmed, I would use my diplomatic 
experience in the Central Asian region, where I now serve as 
Ambassador to Uzbekistan, and previously as Deputy Assistant 
Secretary of State, to lead our mission in advancing our 
growing engagement with Kazakhstan in pursuit of our broad 
national interests, which are: strengthening long-term 
stability in Central Asia and the world, promoting American 
business, encouraging respect for universal human rights, and 
preventing any threats to our national security from emerging 
in this region.
    Mr. Chairman, mutual interests and mutual respect underlie 
our relations with Kazakhstan, and only the people of 
Kazakhstan can, and should, freely determine their future 
development without outside interference or pressure. 
Respecting Kazakhstan's traditions and transition from its 
Soviet past, our approach is not to dictate to Kazakhstan its 
path of development, but to provide the people of Kazakhstan a 
strong example of a prosperous, rule-based democracy on which 
to build durable economic, social, and political stability. The 
choice will be Kazakhstan's to make, but the United States will 
always be a reliable, principled influence and partner for 
Kazakhstan's efforts to advance market reform and to develop 
into a free democratic society respectful of the rights and 
choices of its citizens.
    As a current Ambassador and a U.S. taxpayer, I also 
understand the importance of being a responsible steward of the 
public trust, of public funds, property, programs, and 
personnel. And I recognize that security of the mission and its 
personnel is one of the highest priorities of any Ambassador, 
as is ensuring that the mission is a place where no one should 
ever suffer from discrimination, harassment, or exploitation of 
any sort. If confirmed, I would maintain these high standards 
of ethical conduct, fiscal responsibility, and security for our 
mission in Kazakhstan.
    Mr. Chairman, I have spent most of my adult life in the 
diplomatic profession, and I have learned that the key to 
successful diplomacy is establishing and maintaining effective 
relationships. Clear communication is essential. At the end of 
the day, it is all about trust. This applies not only to 
engagement with foreign governments and societies, but also to 
engagement with Congress. And, if confirmed, I will always be 
available to this committee, its members and its staff, to 
discuss and work with you in pursuit of our national interests 
in Kazakhstan.
    Again, I thank you for this opportunity and look forward to 
your questions.
    [The prepared statement of Ambassador Krol follows:]

                  Prepared Statement of George A. Kro

    Mr. Chairman, Ranking Member, and other members of the committee. 
Thank for you for the opportunity to appear before you today in 
connection with my nomination to be the next United States Ambassador 
to the Republic of Kazakhstan.
    I am honored by the trust and confidence the President and 
Secretary Kerry have demonstrated in me with this nomination. If 
confirmed, I will endeavor to fulfill their and your high expectations 
of me to advance our country's interests in Kazakhstan.
     As a 32-year career officer of the U.S. Foreign Service and as an 
American citizen, I can think of no greater honor and privilege than to 
serve our country and represent the American people as Ambassador of 
the United States. I am grateful also for the support and inspiration 
my family members and friends have provided me through my years of 
service to our Nation and I count on their love and support in the 
future.
    Encompassing a territory the size of Europe, Kazakhstan possesses 
immense natural resources and is located at the crossroads of east and 
west, north and south. Its population is young and increasingly 
connected with the world around them. For the United States, our 
strategic goals are to facilitate and strengthen Kazakhstan's 
sovereignty and independence, its stability, its prosperity and its 
democracy.
    Our Strategic Partnership with Kazakhstan has become increasingly 
important as Kazakhstan takes its rightful place on the world stage as 
a country of consequence. From the earliest days of its independence 22 
years ago, Kazakhstan has made wise decisions. It gave up its Soviet-
legacy nuclear arsenal, which at the time was the fourth-largest in the 
world, and has become a world leader in nonproliferation. From the 
beginning, Kazakhstan has emphasized economic reform and, as a result, 
is now a middle-level-income nation with a financial system that 
largely meets international standards. Another wise, early decision was 
to provide international education for many of its young citizens, an 
investment that has paid off handsomely in both the public and private 
sectors of Kazakhstan. Long a provider of humanitarian and development 
assistance for Afghanistan, Kazakhstan is now standing up, in 
collaboration with our own USAID, its own international development 
body, KAZAid. This is a country the United States can work with.
    United States investment in Kazakhstan has grown to roughly $31 
billion, making Kazakhstan our most important economic partner in the 
region. We have also expanded our ties in the security sphere and in 
the areas of education and growth of Kazakhstan's civil society.
    Kazakhstan has been a generous partner in Afghanistan and a vital 
link in the Northern Distribution Network, and is a strong supporter of 
building greater transport and commercial links across the region and 
beyond. Kazakhstan has also directly supported international efforts 
regarding Iran's nuclear program and has been not only a responsible 
partner but also a world leader in global nonproliferation efforts, 
having given up at its independence what was, at the time, the fourth-
largest nuclear arsenal in the world. As Kazakhstan increases its role 
and voice in regional and international affairs, the United States 
wishes to be Kazakhstan's trusted strategic partner.
    If confirmed, I would intend to use diplomatic experience in the 
Central Asia region where I now serve as Ambassador to Uzbekistan and 
previously as Deputy Assistant Secretary of State, as well as my 
interagency contacts, to lead our mission team in advancing our growing 
engagement with Kazakhstan in pursuit of our broader national interests 
of strengthening long-term stability in the Central Asia region and the 
world, promoting American economic and business interests, encouraging 
respect for universal human rights and preventing any threats to our 
national security emerging from this region.
    Mutual interest and mutual respect underlie our relations with 
Kazakhstan. Only the people of Kazakhstan can and should freely 
determine their future development without outside interference or 
pressure.
    Respecting Kazakhstan's traditions and transition from its Soviet 
past, our approach is not to dictate to Kazakhstan its path of 
development but to provide the people of Kazakhstan a strong example of 
a prosperous, rule-based democracy on which to build durable economic, 
social and political stability.
    The choice will be Kazakhstan's to make, but the United States will 
always be a reliable principled influence and partner for Kazakhstan's 
efforts to advance market reform and to develop into a free, democratic 
society respectful of the rights and choices of its citizens.
    Having served as an ambassador twice before, and as a U.S. 
taxpayer, I understand the importance of being a responsible steward of 
the public trust, of public funds, property, programs, and personnel.
    Security of the mission and all its personnel is one of the highest 
priorities for any ambassador as is ensuring that the mission is a 
place where no one should ever suffer from discrimination, harassment 
or exploitation of any sort. If confirmed, I would maintain these high 
standards of ethical conduct and security for our missions in 
Kazakhstan.
    Mr. Chairman, I have spent most of my adult life in the diplomatic 
profession. I have learned that the key to successful diplomacy is 
establishing and maintaining effective relationships. Clear 
communication is essential.
    At the end of the day, it's all about building trust. This applies 
not only to engagement with foreign governments and societies but also 
to engagement with Congress.
    If confirmed, I will always be available to this committee, its 
members and staff to discuss and work with the committee in pursuit of 
our national interests in Kazakhstan.

    Senator Kaine. Thank you, Ambassador Krol.
    Mr. Mustard.

  STATEMENT OF ALLAN P. MUSTARD, OF WASHINGTON, NOMINEE TO BE 
                   AMBASSADOR TO TURKMENISTAN

    Mr. Mustard. Chairman Kaine, it is a great honor to appear 
before you today, sir, as the nominee to serve as the next U.S. 
Ambassador to Turkmenistan. I am humbled by the confidence and 
the solemn trust bestowed upon me by President Obama and 
Secretary Kerry by this nomination. And, if confirmed, I look 
forward to working closely with you and your committee to 
advance America's interests in Turkmenistan.
    The United States and Turkmenistan have a growing 
relationship that spans a broad range of issues, from regional 
security to energy cooperation to expanding economic 
engagement. Our nations share an abiding interest in 
Afghanistan's future, and Turkmenistan has been a strong 
partner in contributing to Afghanistan's stabilization and 
economic development, including by permitting humanitarian 
overflights for our military.
    Boeing and GE are just two examples of American companies 
that have experienced great success in the Turkmen market, and 
I believe there are many more opportunities to expand our 
commercial relations.
    However, our bilateral relationship is constrained by 
significant human rights concerns, because the government seeks 
to exert control over the lives of its citizens. If confirmed, 
I will work actively with the government to address the full 
range of human rights issues, including limitations on freedom 
of movement, freedom of expression, undue restrictions on 
religious practice, reports of arbitrary arrests and detention, 
and torture of prisoners. I believe that the sign of a mature 
bilateral relationship is one where we can have frank, open 
discussion with our counterparts on issues where we disagree. 
And, if confirmed, I will ensure that we maintain a 
constructive dialogue with the Government of Turkmenistan 
across the full spectrum of issues, even these tough ones.
    The United States has made clear to Turkmenistan our 
enduring support for its sovereignty and territorial integrity, 
and the administration has also emphasized that U.S. interest 
in the region is long-term. Turkmenistan has been an important 
contributor to Afghanistan's rebirth, providing discounted 
electricity, housing, hospitals, and other forms of 
humanitarian aid to its neighbor. Turkmenistan is also making 
major investments in infrastructure that will connect 
Afghanistan to the region and open its economy to Western 
markets. If confirmed, I will encourage Turkmenistan to 
continue to provide all possible support to Afghanistan.
    As Turkmenistan seeks to diversify distribution of its 
significant natural gas reserves, the administration continues 
to encourage Turkmenistan to move forward with the 
Turkmenistan-Afghanistan-Pakistan-India, or TAPI, Pipeline, 
which could strengthen economic ties between Central and South 
Asia. U.S. firms have the experience needed to put the 
Galkynysh gas field, which would supply the TAPI Pipeline, into 
production. If confirmed, I would use my decades of experience 
in overseas commercial advocacy to support American companies 
in their efforts to invest in energy projects in Turkmenistan 
and, likewise, work with the top levels of government in 
Ashgabat to ensure their clear understanding of international 
energy projects and markets.
    As noted earlier, the United States has a growing 
commercial relationship with Turkmenistan, and American 
companies are active across a growing range of sectors of the 
Turkmen economy, including energy, agriculture, and civil 
aviation. If confirmed, I will apply my more than 30 years of 
analytical, marketing, and trade policy expertise to advancing 
the interests of U.S. firms. I will also use my experience with 
Russia's accession to the World Trade Organization to encourage 
Turkmenistan also to join the WTO.
    Mr. Chairman, I have spent 20 of my 29 years in the Foreign 
Service at U.S. missions overseas. Through my experiences 
abroad, I have come to believe that we make our greatest impact 
on a country through direct engagement with its people. My 
first job for the U.S. Government was as a Russian-speaking 
exhibition guide in the U.S.S.R., explaining American culture 
and our way of life to citizens of a one-party state with 
state-controlled media and a command economy. Later, as an 
agricultural officer, I was privileged to have opportunities to 
drive deep into the hinterlands of Russia, Mexico, Syria, and 
other countries, both to observe local crop conditions and to 
talk to local residents about America and our democratic form 
of government. These experiences proved to me the value of 
outreach at the grassroots level. Public diplomacy programs, 
educational exchanges, cultural programming, and engagement 
through American Corner libraries embody and convey our most 
cherished values and build enduring people-to-people ties that 
are the foundation for so much of what we do. In a country like 
Turkmenistan, which remains one of the most closed societies in 
the world, public diplomacy efforts can have an outsized 
impact. I will make these programs a priority, if confirmed as 
Ambassador.
    Finally, Mr. Chairman, I know that, if confirmed as 
Ambassador, I will ultimately be responsible for the safety and 
welfare of my Embassy colleagues and their families in a remote 
part of the world. Their safety and the safety of all Americans 
in Turkmenistan will be my top priority.
    Thank you. I look forward to your questions, sir.
    [The prepared statement of Mr. Mustard follows:]

                 Prepared Statement of Allan P. Mustard

    Mr. Chairman and members of the committee, it is a great honor to 
appear before you today as the nominee to serve as the next U.S. 
Ambassador to Turkmenistan. I am humbled by the confidence and solemn 
trust bestowed upon me by President Obama and Secretary Kerry by this 
nomination, and, if confirmed, I look forward to working closely with 
you to advance America's interests in Turkmenistan.
    The United States and Turkmenistan have a growing relationship that 
spans a broad range of issues, from regional security to energy 
cooperation, to expanding economic engagement. Our nations share an 
abiding interest in Afghanistan's future, and Turkmenistan has been a 
strong partner in contributing to Afghanistan's stabilization and 
economic development, including by permitting humanitarian overflights 
for our military. Boeing and GE are just two examples of American 
companies that have experienced great success in the Turkmen market, 
and I believe there are many more opportunities to expand our 
commercial relations.
    However, our bilateral relationship is constrained by significant 
human-rights concerns because the government seeks to exert control 
over the lives of its citizens. If confirmed, I will work actively with 
the government to address the full range of human-rights issues, 
including limitations on freedom of movement, freedom of expression, 
undue restrictions on religious practice, reports of arbitrary arrests 
and detention, and torture of prisoners. I believe that the sign of a 
mature bilateral relationship is one where we can have frank, open 
discussion with our counterparts on issues where we disagree and, if 
confirmed, I will ensure that we maintain a constructive dialog with 
the Government of Turkmenistan across the full spectrum of issues, even 
these tough ones.
    The United States has made clear to Turkmenistan our enduring 
support for its sovereignty and territorial integrity and the 
administration has also emphasized that U.S. interest in the region is 
long term. Central Asia stands at the crossroads of the New Silk Road, 
connecting Asian and European markets, and Afghanistan is integral to 
the effort to strengthen the region through economic cooperation. 
Turkmenistan has been an important contributor to Afghanistan's 
rebirth, providing discounted electricity, housing, hospitals, and 
other forms of humanitarian aid to its neighbor. Turkmenistan is also 
making major investments in infrastructure that will connect 
Afghanistan to the region and open its economy to Western markets. If 
confirmed, I will encourage Turkmenistan to continue to provide all 
possible support to Afghanistan.
    As Turkmenistan seeks to diversify distribution of its significant 
natural gas reserves, the administration continues to encourage 
Turkmenistan to move forward with the Turkmenistan-Afghanistan-
Pakistan-India, or ``TAPI,'' pipeline which could strengthen economic 
ties between Central and South Asia. U.S. firms have the experience and 
expertise needed to put the Galkynysh gas field, which would supply the 
TAPI pipeline, into production. If confirmed, I would use my decades of 
experience in overseas commercial advocacy to support American 
companies in their efforts to invest in energy projects in Turkmenistan 
and, likewise, work with the top levels of the government in Ashgabat 
to ensure their clear understanding of international energy projects 
and markets.
    As noted earlier, the United States has a growing commercial 
relationship with Turkmenistan and American companies are active across 
a growing range of sectors of the Turkmen economy, including energy, 
agriculture and civil aviation. If confirmed, I will apply my more than 
30 years of analytical, marketing and trade policy expertise to 
advancing the interests of U.S. firms. I will also use my experience 
with Russia's accession to the World Trade Organization to encourage 
Turkmenistan also to join the WTO.
    I have spent 20 of my 29 years in the Foreign Service at U.S. 
missions overseas. Through my experiences abroad, I have come to 
believe that we make our greatest impact on a country through direct 
engagement with its people. My first job for the U.S. Government was as 
a Russian-speaking exhibition guide in the U.S.S.R., explaining 
American culture and our way of life to citizens of a one-party state 
with state-controlled media and a command economy. Later, as an 
agricultural officer, I was privileged to have opportunities to drive 
deep into the hinterlands of Russia, Mexico, Turkey, Syria, Bosnia-
Herzegovina, and other countries, both to observe local crop conditions 
and to talk to local residents about America and our democratic form of 
government. These experiences showed me the value of outreach at the 
grassroots level. Public diplomacy programs--educational exchanges, 
cultural programming, and engagement through American Corner 
libraries--embody and convey our most cherished values, and build 
enduring people-to-people ties that are the foundation for so much of 
what we do. In a country like Turkmenistan, which remains one of the 
most closed societies in the world, public diplomacy efforts can have 
an outsized impact. I will make these programs a priority if confirmed 
as Ambassador.
    Finally, I know that, if confirmed as Ambassador, I will ultimately 
be responsible for the safety and welfare of my Embassy colleagues and 
their families in a remote part of the world. Their safety, and the 
safety of all Americans in Turkmenistan, will be my top priority.

    Senator Kaine. Mr. Pressman.

    STATEMENT OF DAVID PRESSMAN, OF NEW YORK, NOMINEE TO BE 
 ALTERNATE REPRESENTATIVE FOR SPECIAL POLITICAL AFFAIRS IN THE 
    UNITED NATIONS, WITH THE RANK OF AMBASSADOR; ALTERNATE 
 REPRESENTATIVE TO THE SESSIONS OF THE GENERAL ASSEMBLY OF THE 
   UNITED NATIONS, DURING HIS TENURE OF SERVICE AS ALTERNATE 
  REPRESENTATIVE FOR SPECIAL POLITICAL AFFAIRS IN THE UNITED 
                            NATIONS

    Mr. Pressman. Chairman Kaine, distinguished members of the 
committee, I am honored to appear before you as the President's 
nominee to serve as the Alternate Representative for Special 
Political Affairs at the United Nations. I am grateful to 
President Obama, Secretary Kerry, and Ambassador Power for this 
opportunity and for their confidence in me.
    I would like, if I could, to briefly acknowledge the 
members of my family, who are spread out across the country 
from San Diego to New York watching this hearing. In 
particular, my twin boys, Conrad and Ezra, who are 18 months 
old, who are at home in New York with my partner, Daniel. They 
are the lights of my lives. And when you have twins, you are 
constantly exercising your multilateral diplomacy muscles at 
all times. [Laughter.]
    Mr. Chairman, I have dedicated my professional life to 
public service at the State Department under two Presidents, as 
a human rights advocate and attorney, and as an Assistant 
Secretary at the Department of Homeland Security. I served in 
the Multilateral Affairs Directorate of the National Security 
Council, and, since last fall, have served as the counselor to 
Ambassador Power at the U.S. Mission to the United Nations. I 
have had the chance to work with, around, and for the U.N. I 
have seen both its promise and its success, as well as its 
failures and its shortcomings. I have looked into the eyes of 
displaced and desperate people who counted on protection from 
nearby U.N. peacekeepers, but who were instead left to fend for 
themselves. I have also seen, however, the U.N. accomplish the 
seemingly impossible; deliver vaccines, despite government 
obstruction, to those who would otherwise perish; families 
evacuated from aerial bombardments that would otherwise have 
killed them.
    From its founding almost 70 years ago, the U.N.'s record 
has been a mixed one. The organization is far from the panacea 
that some of its most fervent backers hoped it would become, 
nor is it the failure its most ardent opponents feared. Its 
record is truly mixed. It is both indispensable and it is 
flawed. But, it can advance our interests; and, as such, we 
must lead it, and we must reform it.
    As our lives and our world become increasingly 
interconnected, so, too, do the threats to our security and 
liberty. Terrorists, proliferators, aggressors, cyber warriors, 
criminals, traffickers, and peddlers of repression do not 
respect borders. In responding to them, our efforts must 
transcend borders, as well. And, while no country can lead as 
effectively as ours can, it is not America's job to police 
every problem, to solve every crisis. That burden must be 
shared. And the United Nations, with strong and assertive 
American leadership, can help us protect our interests and 
promote international peace and security while more equitably 
distributing the burden for doing so.
    If confirmed, I would be honored to join Ambassador Power 
in her determined work to make the U.N. more responsible, 
effective, and efficient. That means ensuring U.N. peacekeeping 
missions are well designed, properly resourced, and responsibly 
led. It means ensuring that peacekeepers who are supposed to be 
out patrolling and protecting civilians are not instead 
hunkering down on their bases. It means ensuring budget 
discipline, increasing transparency, and making sure that those 
who seek to report abuse in the U.N. system can do so without 
fear of retribution. It means ensuring that we live up to the 
spirit of the U.N.'s own charter by putting an end to the 
campaign of bigotry and discrimination directed against the 
state of Israel at the U.N. It means ensuring that voices of 
liberty and freedom are not muffled by noises of repression and 
extremism at the U.N. We can, and we should, make the U.N. work 
to advance our interests and security.
    Because of U.S. leadership today, U.N.-backed and African 
Union-led peacekeepers are playing important roles in repelling 
terrorist organizations operating in Somalia while U.N. 
peacekeepers are helping stabilize northern Mali against the 
threat posed by al-Qaeda-affiliated and other extremist groups. 
Because of U.S. leadership, the U.N. is on the front lines of 
preventing regional instability by trying to end conflict and 
curb suffering in Sudan, South Sudan, the Central African 
Republic, and the Democratic Republic of Congo. Because of U.S. 
leadership, the United Nations helped lift Cote d'Ivoire out of 
the arms of a strongman intent on defying the democratic will 
of Ivoirians.
    Mr. Chairman, in closing, let me just say that I believe we 
can, and we should, use the United Nations to advance our 
security, protect our interests, and promote our values, and 
that, by so doing, we can make the world a safer, more just, 
and more humane place.
    It is to those ends that I pledge my best efforts, if 
confirmed. And it is with gratitude that I thank you and the 
members of this committee for the opportunity to appear before 
you today. And, of course, I would be pleased to answer any 
questions.
    [The prepared statement of Mr. Pressman follows:]

                  Prepared Statement of David Pressman

    Chairman Kaine, Ranking Member Risch, distinguished members of the 
committee, I am honored to appear before you as the President's nominee 
to serve as the Alternate Representative for Special Political Affairs 
at the United Nations. I am grateful to President Obama, Secretary 
Kerry, and Ambassador Power for this opportunity and for their 
confidence in me.
    I would like briefly to acknowledge members of my family who are 
spread out across our country from San Diego to New York watching this 
hearing.
    I have dedicated my professional life to public service--at the 
State Department under two Presidents, as a human rights advocate and 
attorney, and as an Assistant Secretary of the Department of Homeland 
Security. I served in the Multilateral Affairs Directorate of the 
National Security Council and, since last fall, have been Counselor to 
Ambassador Power at the U.S. Mission to the United Nations.
    I have had a chance to work with, around, and for the U.N. I have 
seen both its promise and its success; as well as its failures and its 
shortcomings. I have looked into the eyes of displaced and desperate 
people who counted on protection from nearby U.N. peacekeepers, but who 
were instead left to fend for themselves. I have also seen, however, 
the U.N. accomplish the seemingly impossible: deliver vaccines despite 
government obstruction to those who would otherwise perish; families 
evacuated from aerial bombardments that would otherwise have killed 
them.
    From its founding almost 70 years ago, the U.N.'s record has been a 
mixed one; the organization is far from the panacea that some of its 
most fervent backers hoped it would become, nor is it the failure its 
most ardent opponents feared. Its record is truly mixed. It is both 
indispensable and it is deeply flawed. But it can advance our 
interests, and as such we must lead it and we must reform it.
    As our lives and our world become increasingly interconnected, so 
too do the threats to our security and liberty. Terrorists, 
proliferators, aggressors, cyber warriors, criminals, traffickers, and 
peddlers of repression do not respect borders. In responding to them, 
our efforts must transcend borders as well. While no country can lead 
as effectively as we can, it is not America's job to police every 
problem, to solve every crisis. That burden must be shared; and the 
United Nations, with strong and assertive American leadership, can help 
us to protect our interests and promote international peace and 
security, while more equitably distributing the burden for doing so.
    If confirmed, I would be honored to join Ambassador Power in her 
determined work to make the U.N. more responsible, effective, and 
efficient. That means ensuring U.N. peacekeeping missions are well-
designed, properly resourced, and responsibly led. It means ensuring 
that peacekeepers who are supposed to be out patrolling and protecting 
civilians are not instead hunkering down on their bases. It means 
ensuring budget discipline, increasing transparency, and making sure 
that those who seek to report abuse in the U.N. system can do so 
without fear of retribution. It means ensuring that we live up to the 
spirit of the U.N.'s own Charter by putting an end to the campaign of 
bigotry and discrimination directed against the State of Israel at the 
U.N. It means ensuring that voices of liberty and freedom are not 
muffled by the noises of repression and extremism at the U.N.
    We can and we should make the U.N. work to advance our interests 
and our security. Because of U.S. leadership, today, U.N.-backed and 
African Union-led peacekeepers are playing important roles in repelling 
terrorist organizations operating in Somalia, while U.N. peacekeepers 
are helping stabilize northern Mali against the threat posed by al-
Qaeda-affiliated and other extremist groups. Because of U.S. 
leadership, the U.N. is on the front lines of preventing regional 
instability by trying to end conflict and curb suffering in Sudan, 
South Sudan, the Central African Republic, and the Democratic Republic 
of Congo. Because of U.S. leadership, the United Nations helped lift 
Cote d'Ivoire out of the arms of a strongman intent on defying the 
democratic will of Ivoirians.
    Mr. Chairman, in closing, let me just say that I believe we can and 
should use the United Nations to advance our security, protect our 
interests, and promote our values; and that by so doing, we can make 
the world a safer, more just, and more humane place.
    It is to those ends that I pledge my best efforts, if confirmed, 
and it is with gratitude that I thank you and the members of this 
committee for the opportunity to appear before you today.

    Senator Kaine. Thank you, Mr. Pressman.
    Ambassador Bernicat.

   STATEMENT OF HON. MARCIA STEPHENS BLOOM BERNICAT, OF NEW 
 JERSEY, NOMINEE TO BE AMBASSADOR TO THE PEOPLE'S REPUBLIC OF 
                           BANGLADESH

    Ambassador Bernicat. Mr. Chairman and members of the staff, 
I am honored to appear before you today. I would like to 
sincerely thank the President and the Secretary of State for 
the trust and the confidence they have placed in me as their 
nominee for Ambassador to the People's Republic of Bangladesh.
    Mr. Chairman, I would like to introduce Kathryn Bloom White 
and Luther White, my sister and brother-in-law, and Thomas 
Darby, a dear friend with whom my sister and I share a proud 
Jersey Shore upbringing. Not here today, my sons, Sumit 
Nicolaus and Sunil Christopher, hail from the subcontinent, 
and, like their father, Olivier, and me, have enthusiastically 
called the world our classroom.
    It is an honor to be nominated to serve the United States 
in such a strategically important country at such a critical 
time for our bilateral relationship. As the world's eighth-
largest country by population and third-largest Muslim majority 
nation, Bangladesh is known for its moderate, secular, 
pluralistic traditions.
    With a consistent annual economic growth rate of roughly 6 
percent, Bangladesh aspires to become a middle-income country 
and is an increasingly important trading partner and 
destination for U.S. investment. Strategically situated between 
a growing India and a newly opening Burma, it is well 
positioned to play a key role in linking South and Southeast 
Asia.
    Labor rights and workplace safety remain a top U.S. 
priority. We need Bangladeshis to ensure there will be no more 
heartrending tragedies like the Rana Plaza building collapse or 
the Tazreen Fashions factory fire. With support from the United 
States and other international partners, Bangladesh has begun 
to make progress in transforming its garment sector. If 
confirmed, I pledge to you that I will actively further our 
efforts to strengthen respect for labor rights and to improve 
workplace safety.
    Bangladesh is on pace to meet many key U.N. Millennium 
Development goals. Its development success story spans the past 
two and a half decades, and the United States has been proud to 
assist in achieving those successes. Bangladesh is the largest 
recipient of U.S. assistance in Asia, outside of Afghanistan 
and Pakistan. It is a focus country for three of the 
President's key development efforts: global health, global 
climate change, and Feed the Future. The United States also 
works closely with Bangladesh to combat trafficking in persons, 
mitigate the threat of natural disasters, strengthen 
counterterrorism, maritime security, and peacekeeping efforts, 
and combat trafficking in drugs and arms. I look forward, if 
confirmed, to continuing robust support for these important 
partnership efforts.
    The strong U.S.-Bangladesh relationship allows us to 
discuss our differences in a spirit of candor and openness. The 
United States remains concerned about recent trends in 
democracy and human rights in Bangladesh. The parliamentary 
elections of January 5 were undeniably flawed, and Bangladesh's 
main political parties urgently need to engage in constructive 
dialogue that leads to a more representative government. We 
remain gravely concerned, as well, about a tax on religious and 
ethnic minorities, political violence, and extrajudicial 
killings. If confirmed, I will work hard to support efforts to 
promote accountability and strengthen human rights and 
democracy in Bangladesh. We will work with the government, 
civil society, and Bangladeshis of all walks of life to ensure 
an environment that encourages the broadest and fairest 
participation. I will, if confirmed, passionately advocate 
policies that enshrine respect for human rights and diversity, 
room for civil society to flourish, space for the free and 
peaceful discussion of political differences, and adherence to 
the rule of law by an independent judiciary.
    The United States supports bringing justice to those who 
committed atrocities in the 1971 war with fair and transparent 
trials held in accordance with international standards. I will, 
if confirmed, continue to support the right of civil society 
organizations to operate independently and to express their 
views openly. We also encourage the government to ensure the 
continued effectiveness of Grameen Bank and protect its unique 
governance structure.
    The most serious responsibility of any chief of mission is 
to ensure the safety and security of our staff abroad. Our 
Embassy in Dhaka works closely with Bangladeshi counterparts to 
ensure protection of personnel and facilities, which will 
remain a top priority of mine, if confirmed.
    Thank you, Mr. Chairman, for your strong interest in South 
Asia and the positive role that the United States can play. If 
confirmed, I welcome the opportunity to work with you, your 
committee, and other Members of Congress to advance America's 
interests in Bangladesh and throughout the region. It would be 
a great privilege to serve the American people.
    I look forward to your questions.
    [The prepared statement of Ambassador Bernicat follows:]

          Prepared Statement of Marcia Stephens Bloom Bernicat

    Mr. Chairman and members of the committee, I am honored to appear 
before you today. I would like to sincerely thank the President and the 
Secretary of State for the trust and confidence that they have placed 
in me as their nominee for Ambassador to the People's Republic of 
Bangladesh.
    Mr. Chairman, I would like to introduce Kathryn Bloom White and 
Luther White, my sister and brother-in-law; and Thomas Darby, one of my 
dearest friends since third grade with whom my sister and I share a 
proud Jersey Shore upbringing. My sons, Sumit Nicolaus and Sunil 
Christopher, hail from the subcontinent and have enthusiastically 
called the world their classroom, as has their father, Olivier 
Bernicat. It has been my privilege to serve the American people in 
eight countries across five geographic regions over the past three 
decades.
    It is an honor to be nominated to serve the United States in such a 
strategically important country, at such a critical time for our 
bilateral relationship. As the world's eighth-largest country by 
population and third-largest Muslim-majority nation, Bangladesh is 
known for its moderate, secular, pluralistic traditions. With an annual 
economic growth rate of roughly 6 percent each year, Bangladesh aspires 
to become a middle-income country and is an increasingly important 
trading partner and destination for U.S. investment. It is 
strategically situated between a growing India and a newly opening 
Burma, and therefore is well-positioned to play a key role in linking 
South and Southeast Asia.
    Labor rights and workplace safety in Bangladesh remain a top U.S. 
priority. We need Bangladeshis to ensure there will be no more heart-
rending tragedies like the Rana Plaza building collapse or the Tazreen 
Fashions factory fire. With support from the United States and other 
international partners, Bangladesh has begun to make progress in 
transforming its garment sector. If confirmed, I pledge to you that I 
will actively further our efforts to strengthen respect for labor 
rights and to improve workplace safety in Bangladesh.
    Bangladesh's growth extends beyond its economy, as the country is 
on pace to meet many key U.N. Millennium Development Goals. It has been 
a development success story over the past two and half decades and the 
United States has been proud to assist Bangladesh in achieving these 
successes. Bangladesh is the largest recipient of U.S. foreign 
assistance in Asia outside of Afghanistan and Pakistan. It is a focus 
country for three of the President's key development efforts: Global 
Health, Global Climate Change, and Feed the Future. The United States 
has also worked closely with Bangladesh to combat trafficking in 
persons and mitigate the threat of natural disasters, to which 
Bangladesh, due to its geography, is particularly prone. I look forward 
to the opportunity, if confirmed, to continue to support these 
important partnership efforts. In addition, if confirmed I look forward 
to continuing to advance our cooperation on strengthening security, 
including on issues of counterterrorism, maritime security, 
peacekeeping and combating trafficking of drugs and arms.
    The strong U.S.-Bangladesh relationship allows us to discuss our 
differences, when they occur, in a spirit of candor and openness. In 
this context, we have noted the United States remains concerned about 
recent trends in democracy and human rights in Bangladesh. The 
Parliamentary elections of January 5 were undeniably flawed, and 
Bangladesh's main political parties urgently need to engage in 
constructive dialogue that leads to a more representative government. 
We remain gravely concerned about attacks on religious and ethnic 
minorities, political violence, and extrajudicial killings allegedly 
committed by security forces. If confirmed, I will work hard to support 
efforts to promote accountability and strengthen human rights and 
democracy in Bangladesh.
    If confirmed, I will work with the government, civil society and 
Bangladeshis of all walks of life to ensure an environment that 
encourages the broadest and fairest participation. I will, if 
confirmed, passionately advocate policies that enshrine peaceful 
democratic values, including respect for human rights and diversity, 
room for civil society to flourish, space for the free and peaceful 
discussion of political differences unmarred by violence, and adherence 
to the rule of law by an independent judiciary. The United States 
supports bringing to justice those who committed atrocities in the 1971 
war, but those trials should be fair and transparent, and in accordance 
with international standards. We will also continue to support the 
right of impressive Bangladeshi civil society organizations to operate 
independently and to express their views openly, recognizing that such 
institutions play an important role in any flourishing democracy. We 
also encourage the government to ensure the continued effectiveness of 
Grameen Bank and protect its unique governance structure.
    The most serious responsibility of any chief of mission is to 
ensure the safety and security of our staff abroad. Throughout the 
tense lead-up to and aftermath of the elections this past January, our 
Embassy in Dhaka worked closely with law enforcement and security 
counterparts to ensure protection of personnel and facilities, which 
will remain a top priority if confirmed.
    Thank you, Mr. Chairman, for your strong interest in South Asia and 
the positive role the United States can play as our government 
rebalances to that continent. If confirmed, I welcome the opportunity 
to work with you, your committee and other Members of Congress to 
advance America's interests in Bangladesh and throughout the region. It 
would be a great privilege to represent the people of the United States 
of America.

    Senator Kaine. Thank you, Madam Ambassador.
    And two prefatory comments and then I will ask questions. 
And I am actually going to move in a different order than the 
opening statements. But, I know, first, that all of us probably 
have half of our mind on this Malaysian Air downing in the 
Ukraine, and it is just--there is unreported--there is 
unconfirmed reports that there may have been Americans onboard. 
Under any circumstance, whether or not, this is a very, very 
dangerous event, and our prayers are with the victims. But, 
also, it points out the high stakes of the work that you all 
are doing. The world is a very, very challenging place right 
now.
    And, second, on a happier note, I want you to each know I 
was your agent this morning. I was at a nomination hearing for 
General Dunford to be the next Commandant of the Marine Corps, 
and I stressed upon the General the importance of the Marine 
Security Guard Program. The Marine Security Guards who police 
our embassies are trained at Quantico, in Virginia, and that 
program is a very important one. It is been growing, in the 
aftermath of the Accountability Review Board report that came 
out following the Benghazi tragedy. You each mentioned the 
security of your people and the safety of your people in your 
statements, those of you who are assuming mission command, and 
I know that that Marine Security Guard component is going to be 
a critical ally as you go forward. And so, I wanted to make 
sure that General Dunford knew that, of the many issues that we 
care about with respect to the Corps, the Security Guard 
Program is an important one. And I think he certainly, himself, 
understands that importance.
    Ambassador Bernicat, if I could begin with you. You 
mentioned the flaws in the January 2014 election. And there was 
a boycott of the election by the BNP, and other flaws. How have 
these flaws, including that boycott, affected the, sort of, 
legitimacy of the elections as it is perceived by the 
Bangladeshi population? And, you know, what can or is being 
done to try to resolve concerns and, hopefully, plan for better 
elections in the future?
    Ambassador Bernicat. Thank you, Mr. Senator.
    We are very concerned that the current legislature contains 
the majority of members who ran unopposed because of that 
boycott. That cannot be a representative body of governance. 
And so, we have pressed, we continue to press, from the day 
after the election, for the establishment of an all-inclusive 
political process that is free and fair, and free especially of 
violence, because that has been, unfortunately, a hallmark of 
the last year and a half, as well, in Bangladeshi politics, to 
have Bangladeshis come to resolution and develop a government 
that is more representative.
    That said, at the same time, we have been able to work 
effectively--and continue to work effectively with Bangladesh 
on a whole host of bilateral issues of concern to both our 
governments and the broader region.
    Senator Kaine. Madam Ambassador, how concerned are you 
about Islamist militancy in Bangladesh today? Is it a major 
concern or is it an issue that is not too, sort of, imminent 
and urgent?
    Ambassador Bernicat. Sir, I have spent the majority of my 
career serving in countries with either Muslim majority 
populations or significant Muslim populations, and I would 
simply say, Muslim population or not, absent a free and 
representative government and economic system that allows for 
broad participation, the risk for terrorism and the growth of 
extremism remains high. And so, we can do no more good, I 
think, in Bangladesh, than to continue the programs we have to 
counter those trends. Bangladesh is on a very impressive 
trajectory. Our job should be to ensure that that trajectory 
continues, in terms of economic growth and reinforcing what is 
a deep pluralistic tradition within the Bangladeshi people to 
make sure that extremism does not grow.
    Senator Kaine. Let me ask you about a couple of issues of 
this kind of inclusion. There is a history of inclusion. We 
want to make sure it continues. You mentioned the Grameen Bank 
in your testimony--is Dr. Yunus still the subject of government 
harassment, or not?
    Ambassador Bernicat. He is no longer associated with----
    Senator Kaine. Right.
    Ambassador Bernicat [continuing]. Grameen Bank.
    Senator Kaine. Right.
    Ambassador Bernicat. And we have made strong 
representations, and will continue to do so, that a proposed 
law and any other actions do not undermine a governance board 
that is run by the members, specifically women. We want to make 
sure that the legacy that Dr. Yunus has given the world is not 
undermined, because, of course, we have all benefited from the 
microfinance model he began there.
    Senator Kaine. The Senate has acted recently to pass 
legislation--we passed a resolution last week, we have passed 
another resolution this week--dealing with increasing 
complaints about oppression of religious minorities in 
different regions of the world. What are we currently doing to 
protect religious minorities in Bangladesh? And are recent 
incidents of violence against Hindus part of a larger trend or 
seen as sort of, you know, unfortunate, but not necessarily a 
trend?
    Ambassador Bernicat. Well, there has been a general trend 
of increasing violence--political violence, extrajudicial 
killings--over the last year and a half. And religious 
minorities have been among those targeted, but certainly not 
exclusively targeted.
    First and foremost, we have shown a light on this behavior. 
We bring to the government's attention reports of these acts. 
We publish them in our reports on human rights and on religious 
freedom. And we are working with the government, as well as 
asking the government, to be accountable for these actions, to 
investigate them and then to bring the perpetrators to justice; 
again, within the full framework of international standards of 
justice.
    Senator Kaine. I would encourage you, and all of you, in 
this way. You know, there are--people ask about the influence 
that America has in the world. And one of the ways we best 
influence is by being exemplary. And there are a number of 
areas where we are exemplary. And the religious pluralism of 
American society, the fact that people can live next door to 
each other, work together, you know, go to school together--
that if they had been in, maybe, original countries of origin, 
they would be at odds. Instead, in the United States, it works 
so well. Not that we are without flaws. We have flaws in every 
area. But, this is really a great example. Journalistic freedom 
is another example. We often think of these as sort of, you 
know, kind of soft skills. But, they really need to be held up 
as beacons in the world, because they are things we should be 
proud of. And I think we can help other nations embrace 
religious pluralism, as well. And I would encourage all of you 
in that.
    In the past, the military has played an active role in 
Bangladeshi politics, kind of depending upon perceived threats 
either to them or the threats they perceive in the country. 
What are the prospects that the military will sort of be 
intervening in to the political process in the future, as you 
see it today?
    Ambassador Bernicat. Right. Of course, the Bangladeshi 
military has a long and proud tradition. We have a very active 
security assistance program. Bangladeshis have--in fact, 88 
Bangladeshis have lost their lives around the world in 
peacekeeping operations in 25 different countries. We continue 
to work and train with the Bangladeshis to reinforce human 
rights, to impress upon the government that the government 
intervening--excuse me--the military intervening undermines the 
democratic process, that a true and republican military is the 
best defense, if you will, for a democracy. And we will 
continue to do that. There have been some troubling trends, as 
you are aware, of military involvement in efforts to address 
counterterrorism and other violence, domestically.
    Senator Kaine. Madam Ambassador, we had a hearing yesterday 
in the committee about the United States-India relationship, 
and the timing was really to coincide with the beginning of 
Prime Minister Modi's tenure. There was a lot of discussion in 
the hearing about the India-Pakistan relationship, but not 
questions, really, about the India-Bangladesh relationship. 
Could you talk a little bit about that relationship, especially 
in light of the new government in India?
    Ambassador Bernicat. Yes, thank you for that question. I 
have worked in or on India, dating back to 1988, actually. And 
it is refreshing to see that Prime Minister Modi has reached 
out to all of India's neighbors as his first acts. And I think 
that those are very positive signs.
    We share with India a desire for a region that is better 
and more interconnected, because it is the least interconnected 
region, particularly from an economic standpoint. And we share, 
also, with India a desire to see Bangladesh be a strong 
pluralistic democracy that is free of political violence and 
that, of course, is stable. And so, we work constantly with 
India, as well as our other diplomatic partners to that end. 
And I think Prime Minister Modi's early actions are very 
encouraging in that regard.
    Senator Kaine. They certainly are encouraging, in terms of 
his own actions; and they were received that way in Bangladesh, 
as well.
    Ambassador Bernicat. Yes. Yes, absolutely.
    Senator Kaine. The last question I would like to ask you 
is--you mention in your testimony the really significant and--
tragedy in Rana Plaza last year, and the other factory, as 
well. What has the--and we had a hearing on this topic, 
probably about a year ago on this committee, at Senator 
Menendez's instance. What progress has been made in the last 
year toward addressing some of these workplace safety, building 
standard, and labor rights issues?
    Ambassador Bernicat. Out of the most horrific garment-
industry tragedy ever in history has arisen an extraordinary 
interagency and international program, or set of programs, to 
address both worker safety and worker rights, in terms of the 
ability to form unions and to have their grievances heard. In 
the last year, we have come together as an interagency to 
support these efforts within Bangladesh, and especially--I 
think we have to give a nod to the private sector--there are 
over 150 unions that have been registered with the government, 
and there have been over 20 factories that have been closed due 
to imminent danger of physical safety. The government has 
opened a public Web site, although it has not yet uploaded the 
data, regarding the inspection of factories, which is ongoing. 
We are supporting efforts, as is the private sector, to hire 
and train more inspectors. And we will continue to press in all 
of these areas.
    Senator Kaine. And, Ambassador Bernicat, when you mention 
the private sector, that includes U.S. companies have been 
actively engaged in this effort?
    Ambassador Bernicat. Yes, absolutely, and we have worked 
together with the International Labor Organization, as well.
    Senator Kaine. Great. Thank you very much.
    I will now move to Ambassador Krol.
    I have had a number of meetings, both in the Foreign 
Relations context--I recently met with the Kazak Ambassador to 
the United States, Ambassador Umarov, and I have also met with 
Kazakhstan military officials as they have visited us in our 
Armed Services portfolio. If you would--your background and 
work in this region is pretty important--talk about, to the 
extent that you have--you know, you are sort of aware of this--
how have Russian-Kazak relationships been affected by all the 
controversy recently in the Ukraine?
    Ambassador Krol. Well, thank you, Mr. Chairman.
    I believe that, like all countries that had been all part 
of the one country, the Soviet Union, they are all looking and 
watching as--what is going on with Russia and Ukraine very 
intently. And Kazakhstan is one of them. Kazakhstan has a 
particular relationship with Russia, a long border, about 20 
percent of its population are Russian-speaking up in the north. 
They are members of a Eurasian Economic Union, Customs Union, 
as well as the Collective Security Treaty Organization that 
they have. And so, they are very intimately concerned about 
developments in that region. And I believe they do believe that 
there should be a peaceful resolution with full respect for the 
principles of sovereignty, territorial integrity, and 
independence. And that is something that, I think, throughout 
its own independent existence, Kazakhstan has been particularly 
concerned about maintaining for itself. It exists in a very 
important geostrategic place, between Russia, China, and then, 
to the south, the rest of Central Asia, as well, and it wants 
to maintain very constructive economic and political security 
relationships with its neighbors, but based on the principle of 
respect for its territorial integrity and its independence. And 
that is something that, as an American policy, that we have 
been supporting ever since we recognized the independence of 
these former republics of the Soviet Union. And we were the 
first to recognize Kazakhstan's independence.
    So, yes, they are very concerned, and hope that this will 
resolve itself in a peaceful way before their own reasons of 
their own population, but for the entire region.
    Senator Kaine. What is the current state of the Kazakh-
Russian relationship?
    Ambassador Krol. Well, as I said, that they have a 
strategic partnership, and they----
    Senator Kaine. In these organizations that you mentioned.
    Ambassador Krol. That is right, that most recently they 
joined a--created a Customs Union with Russia, Kazakhstan, and 
Belarus, and which has been turned into a--an Economic Union 
that will--basically, it creates a--one customs space and--with 
tariffs, and allowing, basically, a one market of the three 
countries that are members of this union. So, they are very 
much entwined with that. And, as I said, they are also members 
of the Collective Security Treaty Organization that--of the 
former states of the Soviet Union, and Kazakhstan is a member 
of that, and they are engaged in maneuvers and have a close 
security relationship, as well as in the air defense of the--
this space is also included in the Russia-Kazakhstan airspace 
area, as well. So, it is a very close relationship and one, 
however, that is--they feel has to be based upon respect for 
their independence--political independence and territorial 
integrity.
    Senator Kaine. Kazakhstan has been a very strong partner of 
the United States in all the work that we have done in 
Afghanistan--military partner; it is been of significant 
assistance in a northern route to retrograde personnel and 
material. Kazakhstan has done a significant job in the 
education of Afghani students, college students, and has done 
that pretty significantly.
    What--do the Kazakh Government have concerns about the 
post-2014 transition of the U.S. role in Afghanistan? And how 
could we work to allay concerns, if they have them?
    Ambassador Krol. Yes, Mr. Chairman, that--even though 
Kazakhstan does not have a border with Afghanistan, 
nevertheless, they and other countries in the Central Asian 
region are quite concerned about developments in Afghanistan, 
because it can affect their security. They would not like to 
see Afghanistan fail, and they would not like to see it to 
become a platform for extremism or terrorism that can affect 
their populations and their security. And that is why 
Kazakhstan and other countries in the region have been 
particularly supportive of efforts to stabilize Afghanistan 
politically as well as economically, and that will continue.
    We keep a very close consultative relationship with 
Kazakhstan and other countries in the region to keep them 
abreast of our policies and what we are doing in Afghanistan, 
and in emphasizing the point that we are not abandoning 
Afghanistan, that we are transitioning to another relationship 
with Afghanistan that is equally important and that will be 
even more engaged with Afghanistan in order to see it succeed 
and stabilize as a unitary state. And that is what countries 
like Kazakhstan are interested in hearing from us, and not just 
hearing from us, but seeing that that is the case, but also 
partnering with the United States and other countries to ensure 
that Afghanistan will become and remain a stable state that can 
be integrated into the larger economy.
    Senator Kaine. What role is the United States playing in 
any current efforts to try to encourage Kazakhstan to supply 
energy to Europe via the Caspian pipeline system?
    Ambassador Krol. Well, the--most of Kazakhstan's energy 
resources go out through a pipeline that goes mostly through 
Russia, and then there is another line that goes through China, 
but they have also established a line that does go through to 
Turkmenistan and also to build up the port of Aktau on the 
Caspian Sea, which could be used for sending liquified natural 
gas across the Caspian in order to reach into the pipeline that 
goes through the Caucasus. There are--they can also do tankers 
and things of that nature, as well, as they are developing the 
fields that are in the northern Caspian region. So, that is 
another part of their own desire to diversify their--as it 
were, their exports of their energy resources to--through the 
Caucasus, across the Caspian, as well as in the more 
traditional directions that they have had.
    Senator Kaine. I think you mentioned in your testimony the 
bid of Kazakhstan for membership in the WTO. Could you talk a 
little bit about the current status of that bid?
    Ambassador Krol. Yes, Mr. Chairman.
    Kazakhstan does wish to become a member of the WTO. The 
United States wishes to assist it to become a member of the 
WTO. And there have been very intensive technical discussions 
between the United States and Kazakhstan on their WTO 
accession. The fact that Kazakhstan is a member of the Customs 
Union and the Eurasian Economic Union has added some technical 
issues that have to be resolved, particularly on tariffs and on 
sanitary--phytosanitary, that is--international standards that 
we are working on with Kazakhstan. And so, it is a very active 
issue that we are working on with the Kazakhstani authorities. 
And we hope that this can be concluded relatively soon.
    Senator Kaine. Could you offer kind of a current status of 
human rights or democratization issues in Kazakhstan? 
Particularly, I asked Ambassador Bernicat about religious 
freedom. I would like your thoughts on that, as well.
    Ambassador Krol. Yes, Mr. Chairman.
    That the issues of human rights and religious freedom and 
the like are issues that have been of concern of the United 
States in Kazakhstan, not that this is an area that is an area 
of religious violence and the like; it is just the matter of 
encouraging greater openness in--and space in their society and 
in their laws in order to recognize that people could have 
choices in their religious beliefs and not to be so repressed 
in being able to express their religious beliefs, as well as 
their political beliefs, as well as their--as well as any of 
the beliefs and choices that people would have in a free and 
democratic society.
    I mean, coming out of this 70-some years of being part of 
the Soviet system, it is a very difficult transition of the 
mindset that the people can be trusted to exercise 
responsibility along with the freedoms that they would have. 
And this is an area that we, the United States Government and 
our agencies, as well as American civil society, wish to work 
very constructively with Kazakhstan in developing this 
atmosphere of greater space for civil society and respect for 
religious diversity, as well as diversity across the board.
    And, you know, if I am confirmed, this would be certainly a 
very important element of my work in Kazakhstan, and it is, 
again, a matter of trying to develop a constructive 
relationship on these issues, and to move from concern--
expressing of concern to really seeing developments that are 
effective, you know, on the ground and affecting people's lives 
and opening up this space for civil society, for political 
pluralism and religious pluralism.
    Senator Kaine. I know, in 2011, Kazakhstan passed a 
religious registration law requiring the registration of 
religious organizations if they have certain membership at a 
local level or at a national level. And the justification 
asserted was a concern about religious extremism. Is there a 
significant challenge of religious extremism as destabilizing 
to the Kazakh Government, in your view?
    Ambassador Krol. Well, right now I would say no, because it 
is not an area that there has been a great deal of religiously 
based violence. I think they are looking at a preventative 
strategy of trying to prevent influences that could lead to 
religious extremism. There have been some unfortunate examples 
of suicide bombings and related events in Kazakhstan in the 
recent past, and I think that has caused them to look at ways 
how they can deal with this issue so it does not become a 
greater issue in their society. And our encouragement is not to 
repress, but it is basically how to deal with the issue of 
preventing violent extremism by basically allowing greater 
openness for people to express themselves peacefully in their 
religious beliefs, as well as in their secular beliefs. And so, 
that is an ongoing dialogue and activity that we have with 
Uzbekistan--with Kazakhstan because of the importance of this 
for the future to prevent this situation of developing, where 
there would be more homegrown religious extremism and violence 
in their own society.
    Senator Kaine. We see this same, you know, delicate 
balancing everywhere in the world. The concerns about terrorism 
and extremism, you know, often--and often in a legitimate way--
create a need to try to control, a bit. But, if you do that too 
much, then you may actually create the self-fulfilling prophecy 
that a feeling of repression by the government can actually 
make these problems worse. And, you know, trying to assist in 
challenging circumstances in this is not an easy balance to 
strike.
    But, thank you for your testimony.
    Ambassador Krol. Absolutely.
    Senator Kaine. I will now move to Mr. Mustard, with respect 
to Turkmenistan.
    The administration has been pretty positive in its 
description of Turkmenistan as I--the quote that I saw was ``an 
enabler for regional stability,'' acknowledging the importance 
of economic and humanitarian support, and also support, as you 
testified, of the overflights to Afghanistan. How do you see 
Turkmenistan's role changing in the region as we enter into a 
new phase of our involvement in Afghanistan?
    Mr. Mustard. Thank you for that question, Mr. Chairman.
    I see Turkmenistan becoming somewhat more important than it 
already has been because of the role that it has in linking 
Afghanistan to Europe and to other parts of Asia, looking at 
what Turkmenistan is doing, in terms of developing a railroad 
that will establish links between Afghanistan and Tajikistan, 
Afghanistan connecting to the main line going up into 
Kazakhstan, also the gas pipelines that will allow Central Asia 
to link to Europe as well as to other parts of Asia, 
particularly South Asia. And then the New Silk Road Initiative 
that would--really the biggest manifestation of that, Mr. 
Chairman, is the TAPI Pipeline that would have with it not only 
a gas pipeline, but potentially also a road network--railroad 
network that would really open up Central Asia, including 
Afghanistan, to new markets in South Asia.
    So, I think Turkmenistan will become more important, not 
less important.
    Senator Kaine. Can you talk a little bit about the progress 
either--on both the TAPI Pipeline, but also on any efforts to 
look at more delivery of energy to Europe?
    Mr. Mustard. On TAPI, the good news is that we do have the 
intergovernmental agreement in place. The bad news is that it 
seems to have stalled, at this point. So, one of my priorities, 
if I am confirmed as Ambassador, will be to sit down with the 
Turkmenistan Government and get TAPI moving again.
    On the Trans-Caspian Pipeline, that is also a priority to 
try to get the connection between Turkmenbashi Port and Baku 
Port so that we can start delivering gas through that pipeline, 
as well. These will all be priorities.
    Senator Kaine. I will ask you the same question I asked 
Ambassador Krol, which is, the events in Ukraine, for a country 
that has been part of the Soviet Union in the past--I know that 
they--that--you know, that that has to be a huge factor right 
now in Turkmen politics--what is the current status of the 
relationship between Turkmenistan and Russia? And how is the 
Government of Turkmenistan looking at these unfortunate events?
    Mr. Mustard. The Turkmen Ambassador to Moscow made a 
statement, 2 days ago, to the effect that Turkmenistan 
considers Russia to be a strategic partner, but does not intend 
to join the Eurasian Union. So, it will maintain its policy of 
positive neutrality and will not join into security agreements 
or multilateral economic agreements.
    In terms of the events in Ukraine, the United States 
Government has made it clear to Turkmenistan that we support 
Turkmenistan's sovereignty and territorial integrity, as a 
matter of policy, and that will not change.
    Senator Kaine. And talk a little bit about the current 
relationship between Turkmenistan and China, if you would.
    Mr. Mustard. China is now Turkmenistan's largest trading 
partner and is the largest consumer of Turkmenistan's natural 
gas. And, conversely, China is a very large investor in 
infrastructure in Turkmenistan, not only in natural gas and in 
other fossil energy, but in other infrastructure, as well. So, 
it is a very large and growing relationship.
    Senator Kaine. And, finally, the relationship with Iran. 
That is also one of the largest markets for Turkmenistan. Has 
Turkmenistan generally abided by the Iran sanctions regime that 
we have put in place?
    Mr. Mustard. Yes, sir.
    Senator Kaine. That is--thank you for that.
    Talk about current human rights, kind of, status issues in 
Turkmenistan, any that you--will cause you concern or would be 
areas of priority as you begin this position.
    Mr. Mustard. The United States Government is very deeply 
concerned about the status of human rights in Turkmenistan. 
And, as I said in my opening statement, we believe that a 
mature relationship allows for a dialogue about these human 
rights issues.
    Turkmenistan is a party to international conventions, 
including the International Covenant on Civil and Political 
Rights and the Convention Against Torture. And we will continue 
to call upon Turkmenistan to observe the conditions of these 
agreements and to ensure that all persons on its territory 
enjoy the civil rights that are under these conventions.
    Senator Kaine. Thank you. Thank you, Mr. Mustard, I 
appreciate it.
    Mr. Pressman, your testimony about the U.N. being both 
necessary and always vexing was very true. It is an 
organization that would not exist, had the United States not 
shown leadership in creating it, even in the mid-1930s, as the 
League of Nations was collapsing. President Roosevelt realized 
there would need to be a successor and started to lay the plans 
for it before World War II delayed the plans. But, I still 
consider it a real mark of pride that it was America that 
recognized that we really needed to create such an institution.
    That said, for reasons that you have described, and others, 
we often scratch our head about things that the U.N. does. And 
so, I appreciate your willingness to serve in this capacity.
    Maybe just a couple of questions about it. One of the 
things that is been the most discouraging, in this committee, 
has been the repeated votes by China and Russia in the Security 
Council to block what we consider as necessary action in Syria. 
Last week was a good week. After a resolution promoting cross-
border humanitarian aid that was passed in February generally 
had not produced significant result, because the aid was only 
to be allowed at the approval of the Syrian Government, the 
Security Council, last week, did a resolution that called for 
the cross-border delivery of aid whether or not the Syrian 
Government allowed it. That was a positive step. And the fact 
that Russia and China voted for that after blocking similar 
resolutions in the past was important.
    But, it does raise the question about Security Council 
reform. And I know there have been a number of, you know, 
thoughts and ideas thrown around about reforming the Security 
Council. What is the current status of reform efforts? And what 
are your thoughts about what our policy should be with respect 
to reform?
    Mr. Pressman. Mr. Chairman, thank you for the question.
    The United States believes that the Security Council and 
the United Nations as a whole needs to--as one of the central 
pillars of the international security architecture, needs to 
reflect the changing world that we live in. As such, with 
respect to the Security Council, the administration has 
articulated the view that we are open, in principle, to a 
modest expansion of the permanent and nonpermanent membership 
of the Council. That said, with respect to the permanent 
members of the Council, it is critical that we consider their 
capacity to meaningfully contribute to maintenance of 
international peace and security. We do not think it would be a 
productive exercise to open up the veto arrangement. And these 
conversations are sensitive, and they continue in New York, but 
they are important to have.
    Senator Kaine. Let me ask you about one area. I mean, the 
United States has been a huge financial supporter of the U.N., 
but one area where we have been falling behind is in some of 
our peacekeeping dues payments. Is that affecting our ability 
to pursue, or effectively pursue, our interests at the U.N., or 
is that issue of the dues for peacekeeping activities not 
really a factor in the influence that we have?
    Mr. Pressman. Mr. Chairman, the ability of the United 
States to lead at the U.N. is directly tethered to our meeting 
our bills and our responsibilities. We--by virtue of meeting 
our--of not going into arrears in areas like peacekeeping, we 
have managed to sustain and maintain greater leverage over 
troop contributors, over the way peacekeeping missions are 
shaped, ensuring that they are responsible and that they are 
effective. So, it is critical.
    Now, underlying the question, I recognize, is a concern 
that many members of the Senate have with respect to how 
peacekeeping budgets are going up and up and up. And, if I 
could, Mr. Chairman, is--just reflect for a moment that we were 
making increasing demands on the U.N. peacekeeping system, just 
in the last several years, with several new missions that we, 
the United States, has turned to the United Nations, because we 
see peacekeeping as an effective and cost-effective way to 
advance our own national security interests around the world. 
That said, we also believe that the assessment scales under 
which these things are calculated--and it is complicated with 
respect to the regular budget and its relationship to the 
peacekeeping budget--needs to reflect the changing world in 
which we live in, as well. And these are negotiated at every--
3-year intervals. And, as we approach the next round of 
negotiations in 2015, one of the things that Ambassador Power 
seeks to do--and, if confirmed, I would certainly support her--
is try to ensure that the way that we are assessed reflects the 
realities of a changing economy.
    Senator Kaine. How confident are you that the peacekeeping 
mission to the Central African Republic, which I guess will 
deploy in September, will have the resources that it needs to 
carry out the stabilization and civilian protection missions of 
that peacekeeping effort?
    Mr. Pressman. Chairman, the situation in the Central 
African Republic is grave. It is extremely serious. Ambassador 
Power has now visited the Central African Republic twice. I was 
honored to travel with her on one occasion there. It is in--
because of U.S. leadership, we--and because of a multiplicity 
of commands that were on the ground--you had a African Union 
contingent, you had an EU contingent, you had a French 
contingent--and because of the gravity of the situation and 
U.S. leadership, we decided to go ahead and authorize a U.N. 
peacekeeping operation, as your question reflects.
    Your question also reflects an awareness that it is hard, 
given the increasing demands on peacekeeping, to find the right 
enablers and the right troops, particularly in a situation like 
CAR, where there really is very little infrastructure that 
preexists to support the deployment of troops. So, everything 
is having to be built. We are--as recently as this week, the 
Security Council was briefed on this. This is something we are 
tracking daily. Ambassador Power has committed that, on 
September 15, when MISCA, as it is known, the African Union 
troop, transitions to MINUSCA, the U.N. peacekeeping operation, 
that we are in as good a position as possible. I would--it 
would not be fair to say I have great confidence that we are 
going to be where we need to be on September 15, but we are 
trending in the right direction.
    Senator Kaine. And let me ask about another one, in Africa, 
the importance of U.N. efforts to assist displaced civilians 
who are seeking refuge in U.N. compounds in South Sudan. Talk a 
little bit about the current status there.
    Mr. Pressman. It is--Senator, thank you--the situation in 
South Sudan is similarly horrendous and deeply concerning. I 
mean, at present, we have approximately 100,000 internally 
displaced persons who are hunkered down on UNMIS, the U.N. 
peacekeeping operation there, compounds, because they fear for 
their lives if they leave. In addition to that 100,000, we have 
approximately a million other IDPs floating about South Sudan, 
we have a famine warning that was--just went into place, which 
means that those million IDPs are about to become a million 
hungry IDPs.
    So, the--what the U.S. has done with respect to the South--
the mission in South Sudan is really important, which is, as 
the crisis emerged--the most recent crisis emerged, at the 
end--December of last year--we essentially reformed, almost 
entirely, giving it--almost doubling its authorized troop 
ceiling and trimming back its pretty expansive mandate to focus 
almost exclusively on protection of civilians and monitoring 
human rights abuses.
    That said, Senator, I think it is clear, to you and to 
anyone who looks at the situation, that fundamentally the 
parties--President Kiir and Riek Machar--need to actually live 
up to their Cessation of Hostilities Agreement and perform the 
responsibilities that they have said that they would. And until 
that happens, we are going to be living in a very dire 
situation, and the lives of civilians in South Sudan will 
continue to hang in jeopardy.
    Senator Kaine. How important is it, in your view, that the 
U.S. continue its support for the U.N. mission and also the 
French forces in northern Mali?
    Mr. Pressman. Senator, it is critical. What--the Mali 
MINUSMA, the U.N. mission in Mali, is an excellent example of 
the United States using U.N. peacekeeping to help protect our 
direct national security interests. We have AQIM elements 
floating around in northern Mali. We have a situation where the 
Government of Mali needs the international community's help. 
There is, similarly--somewhat related to CAR, there is a 
division of labor, so to speak, within Mali, in which you have 
Operation French--the French Operation Serval, which is taking 
a more offensive counterterrorism approach; MINUSMA, which is 
trying to hold the large population centers to ensure that they 
are--they do not become victims to the prey of al-Qaeda-
affiliated extremists. And, similarly, you have an EU 
contingent on the ground that is working to build up the 
capacity of the Malian Government to deal with this crisis. 
This is important work, it is hard work, it is dangerous work. 
We have lost U.N. peacekeepers, including recently, in this 
effort, but it is one that the United States should--and, if 
confirmed, I would look forward to the opportunity to continue 
to--support.
    Senator Kaine. Great. Thank you, Mr. Pressman, for your 
answers.
    And now, Ms. Ruggles, I will say that Senator Coons really 
wanted to be here, for you and, to some degree, to pose those 
last questions to Mr. Pressman, as well. He could not be here 
today, but, as he waited, he thought, giving you a quicker 
hearing might be more important to you than waiting until he 
could come. [Laughter.]
    So, I just will say that I am speaking with some passion 
from Senator Coons, obviously, as well.
    Your post is a very important one. You know, one of the--
you know, Rwanda has an iconic place in, sort of, our 
collective memory and thinking about human rights issues in the 
world, because of the tragedies that occurred there. Now, that 
creates pressure to do very well, but it also creates a 
wonderful opportunity. When there have been tragedies such as 
Rwandans have been impacted by, then positives can also 
generate, not only attention, but a sense of hopefulness. Well, 
there may be other tragic or hard situations, but look what is 
happening. And I like the fact that, in your testimony, you 
focused on a number of instances--school attendance and things 
like that--in Rwanda that are real positive news stories. I 
think it is important that we point those out, because there 
are other desperate situations in the world, where people would 
want to see that situations that were desperate, or more so a 
number of years ago, are now pointing in the right direction. 
So, I think part of your task--not that I would advise you how 
to do your job, but I think part of your task is to shine the 
spotlight on positives in Rwanda, because I think that has a 
benefit to the U.S. relationship with Rwanda, but I think it 
has a broader benefit, as well.
    Let me begin with political scenarios in Rwanda. President 
Kagame's term expires in 2017. What are, sort of, likely 
political scenarios, post the end of his term?
    Ms. Barks-Ruggles. Well, the--as you point out, Mr. 
Chairman--and I thank you for adding me to this hearing, and 
please thank Senator Coons on my behalf, as well--the second 
term for President Kagame expires in 2017; two 2-year terms is 
the term limit in the constitution. And, at this point, it is 
unclear how that is going to play out. This is the first time 
that--under this constitution, that they will have had that 
scenario. And so, one of the things that I will focus on, if 
confirmed, when I go out there is making sure I am engaging in 
a broad political dialogue with all the actors, civil society 
as well as the government, to hear how they are planning for 
those elections, how they are planning to handle the inevitable 
contest that happens when you have the--have term limits. And I 
look forward to having that dialogue, because I think it is an 
important signal, both for the people of Rwanda, but also for 
the region.
    Senator Kaine. Talk a little bit about how you envision 
your--division of responsibilities of your working relationship 
with the U.S. Special Envoy, Russ Feingold, to the DRC in the 
Great Lakes Region. Have you talked about this challenge? It is 
not a challenge; it is a great opportunity----
    Ms. Barks-Ruggles. Absolutely.
    Senator Kaine [continuing]. To have you both working on 
this mission.
    Ms. Barks-Ruggles. Thank you, Mr. Chairman.
    I have to say, I have the greatest admiration for former 
Senator Feingold in his new role as special envoy. I think he 
has taken a very difficult situation, 18 months ago, when he 
first came onboard, and really dug in and worked with all of 
the Ambassadors in the region, as well as all the regional 
actors, to try and tackle some of the very, very tough issues 
that are really the underpinning for the continued instability 
in eastern Congo and throughout the region--the refugee flows, 
the armed groups. And the inability to build those trust bonds 
has been a real issue since 1994, since the genocide. And he 
has taken that head-on. And the fact that he is now working 
with all the governments on implementing--truly implementing 
the Peace, Security, and Cooperation Framework Agreement that 
was signed in February last year, dealing with the FDLR. They 
have now agreed to a 6-month timeframe, with a 3-month 
checkpoint half way through that timeframe, to begin the 
process of disarmament of the FDLR. Now, that has to be taken 
seriously by all governments, but, if they are--if we are able, 
all of us collectively, to implement that, that will go a long 
way towards getting rid of the instability, the continued 
distrust between the governments in the region, of each other, 
and tackling some of those underlying instability issues, much 
as the defeat of the M-23 last year after the U.N. Intervention 
Brigade was signed off by the U.N. Security Council, has led to 
a lessening of the violence and an increase in the trust 
between the various parties. It is far from a perfect world, 
but he has been doing a terrific job.
    I would view my role, if confirmed, out there as being one 
of supporting his role and working as part of a team, because 
we are going to need a team approach between myself and all of 
the colleagues in the region, working with Senator Feingold, if 
we are going to help the governments of the region build that 
trust that we need for them to have to then build the economic 
prosperity that they should be building across those borders, 
and to be building the cross-border roads and transportation 
networks that are badly needed to make sure that economic 
growth actually comes to those regions.
    Senator Kaine. One of the themes in all of your testimony, 
and some of the questions with the four mission chiefs here, 
proposed mission chiefs, is sort of the space for civil society 
in the companies--in the countries that you will--where you 
will serve. There have been some reports that that space has 
been kind of narrowing in Rwanda. Talk about, kind of, your 
perspective on that now, and what you believe you can do, as 
Ambassador, to, you know, in the right pace, a right pace for 
Rwanda, see that the space opens for civil society 
participation.
    Ms. Barks-Ruggles. Thank you, Mr. Chairman.
    The existence of a strong, vibrant civil society, including 
free media, NGOs, watchdog groups, is important and absolutely 
critical for any democratic society. It is something that we 
hold dear here, and it is something I have seen in my most 
recent posting in South Africa, the huge institutional 
importance of those groups, as well as strong, vibrant 
political opposition parties to make sure that there is that 
political dialogue.
    And, if I am confirmed, one of the things that I will 
commit to is working with all the various actors across Rwanda 
to help encourage that kind of dialogue, because they do have a 
lot to deal with from their past. A huge amount of distrust 
from--arising from the genocide, which is still fairly recent, 
only 20 years--and recognizing that, and helping them think 
about, ``How do you work through that dialogue?''--I would view 
this as part of my role, but also hearing from everybody their 
concerns and how they can move forward as they are now turning 
to the next generation. Their youngest--their younger 
generation was born after the genocide, and they do not come 
carrying all of that baggage. Maybe some of it, but not all of 
it. And helping them figure out how to work through that, I 
view very much as part of our role, as you said, as an 
exemplar, the United States being the exemplar to others.
    Senator Kaine. One of the things that interests me as I 
travel for Foreign Relations is the degree to which, in 
countries where there has been significant sectarian schisms--
and the genocide in Rwanda would be the most extreme, certainly 
more extreme than countries I have visited--but, to what degree 
in a nation's military are they able to integrate throughout 
the military, at every level, leadership to, you know, the 
first day enlisted, a real pluralistic and inclusive sense? How 
cohesive--are you aware of, sort of, this issue within the 
military in Rwanda, and their capabilities? But, in a way, 
more--I am just kind of more interested in how cohesive the 
military is across these schisms that still are fresh with many 
people.
    Ms. Barks-Ruggles. Mr. Chairman, I do not have an ethnic 
breakdown of the military, but what I will tell you is that the 
Rwandan military and police force have both been very 
professional, extraordinarily good partners for us. In 
peacekeeping missions, they have stepped up to the plate in 
tough places, like CAR, where we were having problems, and come 
in with the Africa Union mission to stabilize--help stabilize 
the situation there; similarly in AMISOM in Somalia. And they 
have been one of the groups that has been the most flexible in 
saying, ``We will join a regional force and then go over to a 
Blue Hat.'' And the level of professionalism they have 
exhibited, and cohesiveness that they have exhibited, has--is 
really extraordinary.
    So, as a cohesive military unit, they work very well 
together. I would have to get back to you on the ethnic 
breakdown.
    Senator Kaine. No, that is good evidence, though, I mean, 
if they are able to work together in tough circumstances. If 
there was a lot of internal morale challenges, that would 
demonstrate itself in performance. And so, I am happy to hear 
your perception of their effectiveness in these operations.
    Just one last thing, just kind of educate myself. Main 
strengths and weaknesses to the current Rwandan economy.
    Ms. Barks-Ruggles. The main strengths and weaknesses. They 
have a great record of economic growth, but from a very low 
base. So, keeping that going, and making sure that they are 
actually taking what has been extraordinary reforms to make 
themselves open for business, if you will--they are considered 
number one by the World Bank now in the sub-Saharan Africa, for 
the ease of doing business--and building upon that and taking 
that to the next level. So, from a high level of growth from a 
low base, and turning that into, now, the middle-income country 
they aspire to be.
    One of the areas where they have been really focusing on is 
Internet technology and renewable energy. We have a $325 
million methane gas investment from a U.S. corporation there, 
and another large renewable energy investment that is going in 
there. And I think all those are signs that they are taking 
seriously how to move their economy into the 21st century.
    However, 70 percent of their population still depends, at 
least in large part, on subsistence agriculture for their 
income. And so, learning how to take that and turn that into a 
much more market-oriented agricultural economy and pushing 
entrepreneurship so that people can come off the subsistence 
farming and start growing those small businesses that grow 
jobs, is going to be their challenge for the coming two 
decades.
    Senator Kaine. Thank you for that testimony.
    All you have all demonstrated great competence and 
professionalism in your answers, very thoughtful answers. And 
we would be lucky to have all of you, with your expertise, 
serving in the capacities for which you have been nominated.
    Again, I say what I said at the start of the hearing, the 
opportunity, as a member of the committee, to visit our 
personnel--Foreign Service personnel abroad, whether it is 
people on their first tour or whether it is seasoned 
professionals like you all are, is always--I always walk away 
from those, very impressed with the work that is done. And I 
know a lot of Americans probably think of Foreign Service as 
just--what a super-glamorous profession. And it has its 
glamour, and it has its unique opportunities to consider the 
world your classroom. But, there is also a great degree of 
sacrifice--moving repeatedly, changing jobs--that is not easy 
for spouses and kids and other family members and friends. But, 
the more you know about what our Foreign Service professionals 
do, the more one comes to admire the quality of the work under 
the circumstances in which it is performed. So, I want to thank 
you all for your service.
    If members of the committee choose to file additional 
questions in writing, I will ask them to do that by noon 
tomorrow; and I will appreciate your responding promptly, 
should those be filed. We will try to act promptly in the full 
committee on these nominations.
    And again, I thank you.
    And, with that, the hearing is adjourned.
    [Whereupon, at 3:20 p.m., the hearing was adjourned.]
                              ----------                              


                   Questions and Answers and Letters 
                        Submitted for the Record


       Responses of Marcia Stephens Bloom Bernicat to Questions 
                  Submitted by Senator Robert Menendez

    Question. The 2013 State Department Human Rights Reports on 
Bangladesh notes that disappearances and extrajudicial killings 
continue to be committed by security forces such as the paramilitary 
Rapid Action Battalion (RAB) and that human rights violators operate in 
an atmosphere of impunity. Would you support the establishment of an 
independent commission:

  <diamond> To assess the Rapid Action Battalion's performance;
  <diamond> To identify all those plausibly deemed to be involved in 
        serious violations such as extrajudicial killings who should be 
        excluded from a reformed RAB and prosecuted; and,
  <diamond> To develop an action plan to transform RAB into an agency 
        that operates within the law and with full respect for 
        international human rights norms?

    Answer. If confirmed, I will maintain the U.S. Government's 
insistence that the Government of Bangladesh hold its security forces 
accountable for any violations of internationally recognized human 
rights. I will push the Government of Bangladesh to transform the Rapid 
Action Battalion (RAB) into an agency that operates within the law and 
with full respect for international human rights. The establishment of 
an independent commission is one such way to conduct thorough, timely, 
and credible investigations of all alleged human rights violations and 
abuses in a manner that is fair and transparent to both the victims and 
the accused. If Bangladesh moves to create an independent commission, 
we will support that effort. Meanwhile, I am encouraged by the 
commitment of the Government of Bangladesh to establish the RAB 
Internal Enquiries Cell, to train requisite staff as part of a campaign 
to investigate misconduct and abuses, and to hold members of the RAB 
accountable for their actions.

    Question. Will you commit to consulting regularly with the Senate 
Foreign Relations Committee on your efforts to support labor rights and 
factory safety in Bangladesh?

    Answer. If confirmed, I will continue our active engagement with 
the Senate Foreign Relations Committee on the important issue of labor 
reform in Bangladesh. I very much appreciate the role this committee 
plays in joining our efforts to promote U.S. interests and support the 
people of Bangladesh, particularly in defense of labor rights and 
worker safety. I value the consultation and cooperation offered by the 
committee because it strengthens our hand in promoting real and 
enduring change for workers in Bangladesh. If confirmed, I will invite 
committee members and staff to visit Bangladesh so we can further 
collaborate to advance labor rights and safety.

    Question. I am concerned about progress on expanding U.S. efforts 
to assist independent workers' organizations in Bangladesh.
    The FY 2014 Appropriations bill states ``Bangladesh.--Of the funds 
appropriated by this act under the heading `Development Assistance' 
that are available for assistance for Bangladesh shall be made 
available for programs to improve labor conditions by strengthening the 
capacity of independent workers' organizations in Bangladesh's 
readymade garment, shrimp, and fish export sectors.'' The conference 
report language states: ``The agreement provides $5,000,000 to improve 
labor conditions in Bangladesh as described in the Senate report, to be 
provided through an open and competitive process, and not less than the 
budget request for democracy and governance programs.''
    The Senate report states ``Bangladesh.--The Committee directs the 
Secretary of State to prioritize assistance to labor programs in 
Bangladesh and recommends $5,000,000 to improve labor conditions in 
Bangladesh's readymade garment, shrimp and fish export sectors. The 
Committee expects the Department of State and USAID to provide training 
for workers on understanding and asserting their rights, including by 
improving the capacity of independent worker organizations. The 
Department of State, USAID, and the Department of Labor should 
coordinate efforts to avoid unnecessary overlap and work in 
consultation with the Government of Bangladesh and the International 
Labor Organization on an integrated approach.''
    Last month, USAID told SFRC staff that ``USAID's new $5 million 
labor activity will focus on ready-made garment and shrimp/fish sectors 
to increase the capacity of workers and improve conditions both in 
their workplaces and communities by addressing a range of issues, 
including women workers' safety, union representation, gender-based 
violence, health care, education, child protection, sanitation, and 
living conditions.''
    While ``health care, education, child protection, sanitation, and 
living conditions'' are causes worthy of U.S. support, they are outside 
the scope of legislation that focuses on strengthening the capacity of 
independent workers' organizations in Bangladesh's ready-made garment, 
shrimp, and fish export sectors. Why are these areas included within 
the scope of the $5 million procurement for labor rights?
    Also, I am concerned that if a procurement vehicle is not issued by 
February 1, 2015, or current programming is not extended, there will be 
a lapse in programming on strengthening the capacity of independent 
workers' organizations in Bangladesh. USAID told SFRC staff that it 
will release the Request for Applications by the end of FY 2014. Given 
that timeline, can a contract competition and final award be completed 
before February 1, 2015, so that there is no lapse in programming?

    Answer. I welcome this committee's continued attention to labor 
rights in Bangladesh and know that congressionally funded programs to 
promote freedom of association in the garment and shrimp sectors are 
making a real difference on the ground to improve labor rights and 
ensure workers have a voice.
    Following the announcement of the Senate's FY 2014 Appropriations 
bill, an interagency team from the Department of State, USAID, and the 
Department of Labor visited Bangladesh to identify areas of need for 
the new program and ensure there was no unnecessary overlap with 
programs already in place. Based on their recommendations, I assure you 
that the focus of the new program will be to directly improve labor 
conditions by strengthening the capacity of independent workers' 
organizations. Specifically, USAID assistance will support the ability 
of workers to organize independently and strengthen the capacity of 
these worker organizations to address the issues they identify as most 
pressing, such as protection of labor organizers, improvement of 
workplace safety, mitigation of environmental hazards, and ensuring 
timely payment of wages. While workers have identified improving health 
care, education, child protection, sanitation, and living conditions as 
needs, this program would not directly address those issues. Rather, it 
would seek to support the capacity of workers to organize independently 
and address such conditions as they themselves prioritize them.
    Given the timeline to implement the program, we do not foresee any 
gap in funding. The existing Global Labor Program will run through 
January 2016, and the new labor program will be awarded in early FY 
2015. For roughly 1 year, the two programs will run concurrently and 
will be closely coordinated.
                                 ______
                                 

             Responses of George Albert Krol to Questions 
                  Submitted by Senator Robert Menendez

    Question. I appreciate Kazakhstan's aspiration to become one of the 
top economies in the world and support U.S. efforts to that end, 
including for Kazakhstan's bid to join the WTO. I also believe that if 
Kazakhstan seeks to be held to a higher standard in the economic realm, 
it should also be held to a higher standard on democracy and human 
rights and not simply compared to its neighbors. I remain concerned 
about the imprisonment of Mr Kozlov and urge you to continue to raise 
his imprisonment with Kazakh officials. The space for civil society 
appears to be closing in Kazakhstan.

  <diamond> With that in mind, what do you expect the U.S. efforts to 
        support civil society can achieve in the coming year?

    Answer. What our efforts can achieve over the next year will 
ultimately depend on the choices that the Government of Kazakhstan 
itself will make. The United States, however, seeks to be a partner to 
the Government of Kazakhstan and Kazakhstani civil society in our 
advocacy for stalled legislation designed to strengthen state support 
for nongovernmental organizations by introducing an independent 
grantmaking system. The U.S. mission in Kazakhstan will also work with 
the government and civil society to encourage the development of 
implementing regulations that ensure that the new criminal and other 
related codes passed earlier this year will be implemented in ways that 
do not constrain the space for civil society.
    The United States strongly supports the development of a sovereign 
and independent democratic Kazakhstan that seeks to protect the 
universal human rights of all its people, and we strongly welcome the 
government's repeated statements of commitment to meet this goal. We 
also value that our strategic partnership with Kazakhstan that is the 
basis for an open and frank dialogue on human rights and religious 
freedoms as well as on our continuing concern about the judicial 
process that resulted in the imprisonment of Mr. Kozlov.

    Question. I am concerned about the ubiquitous nature of media from 
Russia in Kazakhstan. What specific efforts is the U.S. taking to 
support the development of the professionalism of the media sector in 
Kazakhstan? If an increasingly professionalized media can be developed, 
will the Kazakh Government provide space within which they can operate 
and conduct genuine and credible reporting?

    Answer. The United States strongly supports the development in 
Kazakhstan of a professional, free, and independent media. In support 
of this goal, we have provided Economic Support Funds to 
nongovernmental organizations that support the Kazakhstani media's 
ability to provide accurate, unbiased, and objective information to the 
citizens of Kazakhstan.
    Current USAID programming to strengthen the development of a 
professional, independent, and commercially competitive media sector in 
Kazakhstan includes a regional network that broadcasts social, 
economic, political, and children's programming every day in four 
languages to over 20 local partner television stations. In addition, we 
are supporting the production and distribution of quality television 
content to a regionwide network of 43 independent local stations.
    Our mission is also increasing its outreach to Kazakhstani media 
via various social platforms in both the Kazakh and Russian languages 
and as a result is receiving significantly more requests for interviews 
with U.S. officials. More can be done to expose the Kazakhstani public 
to a broader range of information and opinions. To this end, we are 
exploring the expansion of the media-hub program to create a platform 
for U.S. voices, including U.S. policy experts and scholars, to engage 
more broadly with media throughout the region.
                                 ______
                                 

              Responses of Allen P. Mustard to Questions 
                  Submitted by Senator Robert Menendez

    Question #1. Human rights and democratic development remain 
substantial hurdles to deepening our relationship with Turkmenistan. 
Last May, I sent a letter to President Berdimukamedov calling for the 
release of several prisoners of conscience (see attached). Will you 
commit to the Senate Foreign Relations Committee that you will advocate 
on behalf of these and other prisoners of conscience and that you will 
work with the Bureau of Democracy, Human Rights, and Labor to ensure a 
coordinated State Department approach to addressing these issues? Will 
you also commit to consulting with SFRC on human rights issues?

    Answer. The State Department has been steadfast in raising human 
rights concerns with Government of Turkmenistan interlocutors. Our 
bilateral relations with other nations should be broad-based and true 
to our fundamental values, not limited solely to those areas where we 
find easy agreement. The State Department, including our Embassy in 
Ashgabat, regularly engages with Turkmenistan across the spectrum of 
human rights issues, and has been a strong advocate for prisoners of 
conscience. We also seek to advance these issues through multilateral 
venues, including funding International Organization for Migration 
(IOM) and U.N. Development Program (UNDP) programs that promote 
antitrafficking in persons and other human rights initiatives. If 
confirmed, I am committed to continuing these practices.
    The Bureau for Democracy, Human Rights, and Labor provides valuable 
expertise on the many difficult human dimension issues that constrain 
our bilateral relationship with Turkmenistan and I look forward to 
working closely with them if I am confirmed. I also commit to being at 
the committee's disposal to discuss human rights or any other issues 
that may be of interest to you and I look forward to our continued 
collaboration to advance America's interests in Turkmenistan.

    Question #2. With the intergovernmental agreement in place, and in 
light of the lack of progress on the pipeline, what are the next 
concrete steps that the U.S. can take to encourage the development of 
Turkmenistan-Afghanistan-Pakistan-India pipeline?

    Answer. The Turkmenistan-Afghanistan-Pakistan-India pipeline (TAPI) 
is a long-term project with enormous potential long-term benefits, but 
it can only succeed if it is done on a commercial, economically 
sustainable basis. TAPI appears to have nearly all of the essential 
elements to succeed, including strong political support. What is 
missing, however, is a commercial champion. Without the involvement of 
an international oil company (IOC) to work in cooperation with 
Turkmengaz in the development of gas production and serve as commercial 
champion for the project, it is doubtful that the project will be 
financeable.
    The State Department is encouraging the Government of Turkmenistan 
to sign confidentiality agreements with U.S. IOCs in order to allow 
those companies to evaluate the commercial viability of the project and 
participate in a consortium that will both develop the gas field that 
will supply TAPI and also build the pipeline. We are also working with 
the downstream countries (Afghanistan, Pakistan, and India) to 
encourage them to work with Turkmenistan to develop a TAPI project 
based on economically and commercially sound principles. Further, the 
administration consults regularly with the Asian Development Bank (ADB) 
which is also providing technical assistance to the TAPI partner 
countries.
    While the U.S. Government negotiated the terms of a nonbinding 
intergovernmental framework arrangement with Turkmenistan on energy 
cooperation, the framework has not yet been signed.
    Continued political investment and technical assistance by the U.S. 
government will be needed to advance TAPI, particularly efforts to 
convince Turkmenistan to press forward on TAPI with IOC upstream 
involvement. If confirmed, I will continue to urge the Turkmen to take 
the necessary steps to make TAPI a viable project.

    Question #3. What are the main impediments to progress in the 
Trans-Caspian pipeline? What steps will you take to address these 
issues?

    Answer. There are both political and commercial impediments to 
progress on the Trans-Caspian pipeline. Russia and Iran have stated 
that a Trans-Caspian Pipeline cannot be built unless all five littoral 
states agree, and both have raised strong objections to the project. 
Their opposition is based largely on ostensible environmental grounds, 
despite the fact that there are hundreds of miles of pipelines already 
operating in the Caspian. In fact, gas from Turkmenistan flowing to 
European markets could threaten Russia's strong position in those same 
markets. Long-standing disagreement between Azerbaijan and Turkmenistan 
over the disputed Serdar/Kapaz field in the Caspian Sea would also need 
to be resolved, although relations appear to be improving with several 
high-level bilateral meetings between the two countries this year.
    In addition to these political impediments, Turkmenistan will also 
have to attract commercial partners, including an international oil 
company (IOC), to help build, finance, and operate the pipeline. To 
date, the Turkmen Government has not been willing to provide acceptable 
terms for an IOC's access to its onshore gas fields (which would feed 
the pipeline), and without such terms, an IOC is not likely to be 
interested in the project.
    If confirmed, I would encourage Turkmenistan to finalize the 
trilateral agreement currently under negotiation with the European 
Union and Azerbaijan that would form the legal basis for a Trans-
Caspian pipeline. I would also draw on my decades of commercial-
advocacy experience to help open opportunities for U.S. energy 
companies to bring their expertise and participate in the Trans-Caspian 
Pipeline consortium.

 Letter Attached to Question No. 1 Submitted by Senator Robert Menendez
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 

              Responses of Allan P. Mustard to Questions 
                 Submitted by Senator Richard J. Durbin

    Question. For years I have been urging the Government of 
Turkmenistan to release a number of political prisoners languishing in 
its jails, including Annakurban Amanklychev, Sapardurdy Khadzhiev, and 
Gulgeldy Annaniyazov (see attached letters). Last year my staff and 
that of Senator Boxer traveled to Turkmenistan to further press for 
their release. Amanklychev and Khadzhiev were released early from their 
sentence in 2013, but Annaniyazov remains in jail. These cases are 
unfortunately only examples of a larger lack of political freedom in 
Turkmenistan. Can you comment on your commitment to pursuing political 
freedom and human rights should you be confirmed as Ambassador to 
Turkmenistan?

    Answer. If confirmed as Ambassador, one of my very top priorities 
will be to urge Turkmenistan to strengthen respect for human rights and 
fundamental freedoms, ensure accountability for torture and other 
human-rights violations, allow civil-society groups to function freely, 
and build fully democratic institutions. As party to a number of 
international human-rights conventions, including the International 
Covenant on Civil and Political Rights and the Convention against 
Torture and other Cruel, Inhuman, and Degrading Treatment or 
Punishment, I will remind government officials of Turkmenistan's 
obligations to respect and ensure to all persons on its territory the 
rights that it has recognized and guaranteed under those conventions.
    The Department of State has regularly raised Gulgeldy Annaniyazov's 
case directly with Government of Turkmenistan interlocutors since 2008. 
The case was recently raised by the U.S. delegation at our Annual 
Bilateral Consultations on January 14, 2014, in Ashgabat, and 
Ambassador Robert Patterson discussed the case with Deputy Foreign 
Minister Vepa Hajiev again on February 12. The Embassy followed up with 
diplomatic notes requesting amnesty for Annaniyazov on the occasion of 
Turkmenistan's February 19 Flag Day holiday, Constitution Day on April 
22, and Night of Omnipotence at the end of July (Turkmenistan 
customarily amnesties prisoners on the occasion of national holidays). 
Annaniyazov's case and our related due-process concerns have also been 
referenced in numerous public statements by the United States at the 
annual OSCE Human Dimension Implementation Meetings (HDIM) in Warsaw. 
If confirmed, I am committed to continuing the United States advocacy 
for Annaniyazov's release.

             Letters Submitted by Senator Richard J. Durbin
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 
  NOMINATIONS OF JOHN TEFFT, DONALD HEFLIN, CRAIG ALLEN, EARL MILLER, 
            MICHELE SISON, STAFFORD HANEY, AND CHARLES ADAMS

                              ----------                              


                         TUESDAY, JULY 29, 2014

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. John Francis Tefft, of Virginia, to be Ambassador of the 
        United States to the Russian Federation
Donald L. Heflin, of Virginia, to be Ambassador to the Republic 
        of Cabo Verde
Craig B. Allen, of Virginia, to be Ambassador to Brunei 
        Darussalam
Earl Robert Miller, of Michigan, to be Ambassador to the 
        Republic of Botswana
Michele Jeanne Sison, of Maryland, to be the Deputy 
        Representative to the United Nations, with the rank of 
        Ambassador, and Deputy Representative in the Security 
        Council of the United Nations; and to be Representative 
        to the Sessions of the General Assembly of the United 
        Nations during her tenure of service as Deputy 
        Representative to the United Nations
Stafford Fitzgerald Haney, of New Jersey, to be Ambassador to 
        the Republic of Costa Rica
Charles C. Adams, Jr., of Maryland, to be Ambassador to the 
        Republic of Finland
                              ----------                              

    The committee met, pursuant to notice, at 2:32 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez (chairman of the committee) presiding.
    Present: Senators Menendez, Cardin, Shaheen, Coons, Udall, 
Murphy, Kaine, Markey, Corker, Flake, and McCain.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    The Chairman. We have three panels today. I will chair the 
first panel, which will be the nomination of John Francis Tefft 
to be Ambassador to Russia. We will then pass the gavel to 
Senator Coons, who will chair our second panel of nominees: 
Donald Heflin, to be Ambassador to Cabo Verde; Craig Allen, to 
be Ambassador to Brunei Darussalam; and Earl Robert Miller, to 
be Ambassador to the Republic of Botswana.
    Then Senator Coons will pass the gavel to Senator Kaine, 
who will chair our third panel of nominees: Michele Sisan, to 
be Deputy Representative to the U.N. with the rank of 
Ambassador, along with two associated positions; Stafford 
Fitzgerald Haney, to be Ambassador to Costa Rica; and Charles 
Adams, to be our Ambassador to Finland.
    Let me welcome our first nominee, John Tefft. Ambassador 
Tefft has been a Career Foreign Service officer since 1972, and 
deserves at this critical time to be given every consideration 
by the committee. Let me say that the geopolitics is vastly 
different from what we confronted during the last hearing for a 
U.S. Ambassador to Russia in 2011. In my view, we cannot afford 
to wait to send an Ambassador to Moscow, as Senator McCain just 
urged us to do.
    Before we begin, I just want to express my concern about 
Russia's violation of its obligations under the Intermediate 
Range Nuclear Forces Treaty. Russia's violation is a very 
serious matter, and it is vital that it comply with its 
obligations under the treaty and eliminate any prohibited items 
in a verifiable manner.
    The INF Treaty is a cornerstone of European security and 
was one of the first steps the United States and the then-
Soviet Union took to end their cold war confrontation. The 
treaty sought to eliminate the nuclear threat to Western Europe 
and the European parts of the Soviet Union. The fact that 
Russia is now violating its obligations is another sign that 
under President Putin Russia is operating in a manner that 
threatens the security of all European states.
    In view of that reality, we cannot delay in sending 
someone, not when President Putin enjoys soaring domestic 
approval ratings, but continues to double down on his reckless 
course in Ukraine that has resulted in terrible tragedy and 
loss of innocent life with the downing of the Malaysian Flight 
17 by pro-Russian rebels supported and supplied by Putin, not 
when the Ukrainian Army is making advances in the east and 
Moscow is answering by putting more heavy weaponry into the 
irresponsible hands of rebel militias.
    In fact, last week, along with the Chairs of other Senate 
committees responsible for national security, I signed a letter 
to President Obama asking for immediate sanctions against 
Russia's defense sector, including state-owned Rosoboronexport, 
to prevent Russia from providing weaponry, equipment, or 
assistance and training to separatists in Ukraine.
    It is my view that we must also consider broader sanctions 
on Russia's energy and financial industries and other sectors 
of the Russian economy, as appropriate. We also need an 
ambassador in Moscow as events continue to unfold. I hope that 
both sides of the aisle will agree to expedite Ambassador 
Tefft's nomination at this critical time. He has served as U.S. 
Ambassador a total of three times, and each time to a country 
of the former Soviet Union--Ukraine, the Republic of Georgia, 
and Lithuania. He is also a lifelong student of Russia and the 
former Soviet republics. We need Ambassador Tefft's knowledge 
and experience in Moscow to address not only the crisis in 
Ukraine, but also President Putin's blatant disrespect for 
human rights, complete control of media, systematic erosion of 
the rule of law, and flouting of international law and norms, 
all which affect our bilateral relationship.
    So we welcome you, Ambassador, to the committee. I am going 
to call upon Senator Corker for his remarks. When Senator 
Corker is finished, please invite or recognize any of the 
members of your family who are here. I understand you have had 
a multidecade partner in your efforts, and we appreciate her 
willingness to once again allow you to serve your Nation, and 
we understand the sacrifices that she and other members of 
families, both in your case as well as the other nominees, face 
when they are willing to serve their country abroad.
    Senator Corker.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Well, thank you, Mr. Chairman. I will be 
brief. I want to second the comments, the laudable comments 
that have been made about your previous service, and also thank 
your spouse for her willingness to come out of retirement. I 
know you were living here. I know there are grandbabies in the 
region, and yet you are heading back to Russia to serve our 
country.
    I think everybody on this committee just about has 
expressed strongly their concern about Russia's actions in 
Crimea and eastern Ukraine. I think there has been a lot of 
frustration, I know there has been by most, relative to the 
sanctions that have been put in place. I do want to say I 
applaud the sanctions that were put in place the day before the 
Malaysia flight was shot down. I think there may be something 
much--we have not seen the details yet, but it looks like that 
us and Europe have come more closely together, and hopefully we 
will know the details of that soon.
    But you go to Russia at a time that, as was mentioned, it 
is very important. I think your service in the other countries 
nearby are very helpful, not only to all of us, but to those 
countries and to Russia. I might add, everyone here knows that 
Russia had to agree, in spite of his service in these other 
countries which obviously geopolitically they believe pose some 
threat to them, they have to agree to the fact that he is our 
nominee. So you are going there under challenging 
circumstances, as has been mentioned, as the chairman mentioned 
this morning, the news that all of us have known previously, 
that it was announced that we are actually going to bring forth 
these charges relative to the INF Treaty; it really makes it an 
additionally challenging time.
    The type of issues that we are seeing in eastern Ukraine 
and in Crimea are the kind of, that should they get out of 
hand, could lead to some really terrible global issues. I think 
all of us have been concerned again, many of us, that the tepid 
response we have had may lead an emboldened Putin to continue 
on.
    It now appears that possibly he is beginning to get some 
degree of pushback within the country. Hopefully that is the 
case. I know he has been riding a strong nationalistic 
popularity because of what he has been doing, but I do hope our 
Nation and Europe will continue to work together to put 
pressure on him to get him to move away from the types of 
actions that he has taken.
    Importantly, I hope you as Ambassador will do everything 
you can as one Ambassador to make that happen. I know your 
access to Putin will be a little different than the access you 
had in the other countries that you served, but I am very glad 
you are willing to do this and look forward to your testimony.
    I will say, on the confirmation, this committee has 
actually been really incredible as far as getting nominees out 
on a bipartisan basis very quickly to the floor. I do hope in 
this case--many of them have been held up, as we know. But I do 
hope in this case we will figure out a way to get you out very, 
very quickly and get you on your way to Russia. So thank you.
    The Chairman. Ambassador Tefft, your full statement will be 
included in the record, without objection. I may have to 
interrupt you if we get--we have a 10th member who is on his 
way here. I believe Senator Durbin is on his way. So I may have 
to interrupt you, though I hope we will get through your 
testimony before that moment comes. But I just want to excuse 
myself up front.
    With that, the floor is yours.

STATEMENT OF HON. JOHN FRANCIS TEFFT, OF VIRGINIA, NOMINATED TO 
            BE AMBASSADOR TO THE RUSSIAN FEDERATION

    Ambassador Tefft. Thank you very much, Mr. Chairman. I am 
very grateful for the opportunity to appear before you today as 
President Obama's nominee to be the next Ambassador of the 
United States to the Russian Federation. I am grateful to you 
and to Senator Corker and Senator McCain for the kind remarks 
you have made about me and my wife. I have to say to you as 
someone who has been a private citizen working in the private 
sector for the better part of the last year, I have appreciated 
and admired the work of this committee and the leadership you 
have provided on not only the situation in Russia and Ukraine, 
but also more broadly on foreign affairs. So I thank you for 
that.
    If I am confirmed, I will continue to work closely with the 
members of this committee and your staff, as I have done before 
in my various assignments. Clearly we face, as you have said, 
some of the most challenging times in the relations between the 
United States and Russia since the end of the cold war.
    I would just like to say a couple of words from my prepared 
remarks that we have submitted to the record. I would like to 
say that our relations with Russia today are obviously, as you 
said, in serious trouble. The future is uncertain. The United 
States cannot ignore the fundamental challenge to the 
international order posed by Russia's actions in the Ukraine 
crisis. Russia's efforts to annex Crimea, which we will never 
accept, have violated the core precepts of intelligence law and 
have shredded the very fabric of freely adopted obligations 
among Europe's nations that have kept the peace for nearly 70 
years.
    Russia's policy of destabilizing parts of eastern Ukraine 
violates the sovereignty of its neighbor. They also undercut 
the solemn obligations Russia itself undertook to observe the 
independence and territorial integrity of Ukraine.
    As you said, Mr. Chairman, and as President Obama and many 
European leaders have emphasized, adherence to the structure of 
European security is vital. The horrendous shootdown of the 
Malaysian airliner and the loss of almost 300 innocent lives 
has truly shocked the world and underlined the importance of 
resolving this crisis quickly and peacefully.
    In this environment, I believe we must continue to talk 
clearly to our Russian interlocutors and to make sure Russian 
officials and citizens understand American policy, our 
interests, and our values. At the same time, managing this 
crisis effectively and wisely will require that our own 
government continues to know as precisely as we can what the 
Russian side is thinking, what their objectives are, and why 
they are taking the approaches they do even when we find them 
unacceptable.
    If given the opportunity to serve, I will try to do just 
that, to engage in frank and difficult diplomacy.
    Mr. Chairman, one of the great privileges of my career has 
been to lead the teams of committed Americans serving our 
country at embassies overseas. If confirmed, I will do my best 
to lead the highly professional and motivated team that we have 
at our Embassy in Moscow and at our three consulates across 
Russia.
    Finally, I appreciate very much what you said about my 
wife. I would like to recognize her in front of all of you. She 
has been my indispensable partner in this career from the very 
beginning. In addition to her own professional accomplishments 
as a biostatistician and a nurse, she has made her own unique 
contributions to representing our country in every post in 
which we have served. I know she will do that again and bring 
her invaluable experience to bear in Moscow.
    I would also like to thank my wonderful daughters, 
Christine and Kathleen. They make me proud every day. They have 
been supportive of my work throughout my career. Kathleen is 
here today along with her husband, Andy Horowitz. My daughter, 
Christine, is unfortunately at home, or fortunately at home, 
taking care of our 10-day-old second granddaughter. Her 
husband, Paul Stronsky, is here with us today, as is my wife's 
cousin, Margie Klick, and her husband, Randy, and Jose Yacub, 
who is my administrative assistant at the RAND Corporation.
    Mr. Chairman, thank you for letting me make those remarks. 
I am prepared now to answer any questions you might have.
    [The prepared statement of Ambassador Tefft follows:]

             Prepared Statement of Ambassador John F. Tefft

    Mr. Chairman and members of the committee, I am honored to appear 
before you today as President Obama's nominee to serve as the next 
Ambassador of the United States to the Russian Federation. I am 
grateful to the President and Secretary Kerry for their support and for 
their confidence in recalling me to government service. If confirmed, I 
look forward to working closely once again with the members of this 
committee and its staff, as we face some of the most challenging times 
in the relations between the United States and Russia since the end of 
the cold war.
    I have had the privilege of serving my country for nearly 41 years 
as a Foreign Service officer, much of that time in Eastern and Central 
Europe. Three times I served as a U.S. Ambassador--most recently in 
Ukraine, and previously in Georgia, and Lithuania. I also served as 
Deputy Chief of Mission in Moscow--and for 10 months of my assignment I 
was Charge d'affaires at the Embassy.
    As an Ambassador my most important responsibility and highest duty 
has been to promote and defend the interests of the United States. Over 
the course of my career, I have tried to do that as best I can, to 
advance the objectives of our country and to represent the values and 
ideas for which the United States stands.
    Mr. Chairman, our relations with Russia today are in serious 
trouble and their future is uncertain. The United States cannot ignore 
the fundamental challenge to the international order posed by Russia's 
actions in the Ukraine crisis. Russia's efforts to annex Crimea--which 
we will never accept--have violated core precepts of international law, 
and have shredded the very fabric of freely adopted obligations among 
Europe's nations that have kept the peace for nearly 70 years. Russia's 
policy of destabilizing parts of eastern Ukraine violates the 
sovereignty of its neighbor. It also undercuts the solemn obligations 
Russia itself undertook freely to observe the independence and 
territorial integrity of Ukraine. As President Obama and many European 
leaders have emphasized, adherence to the structure of European 
security is vital. The horrendous shootdown of the Malaysian airliner 
and loss of almost 300 innocent lives has shocked the world and 
underlined once again the importance of resolving this crisis quickly 
and peacefully.
    In this environment, we must continue to talk clearly to our 
Russian interlocutors and make sure Russian officials and citizens 
understand American policy, interests, and values. At the same time, 
managing this crisis effectively and wisely will require that our own 
government continues to know as precisely as we can what the Russian 
side is thinking, what their objectives are, and why they are taking 
the approaches that they do even when we find them unacceptable.
    If given the opportunity to serve, I will try to do just that--to 
engage in frank and difficult diplomacy.
    Historically, we have had many dimensions to our relationship with 
Russia, chief among them human rights and democracy, security and arms 
control, and economic and business affairs. We must continue to press 
all of these in concert. We also need to be ready to engage in 
cooperation on the international stage when it is clearly in our 
interest--for example, to eliminate Syria's chemical weapons. And we 
must work to preserve people-to-people ties, even during times of 
severe tensions.
    If confirmed, I will also do my best to engage Russians from all 
parts of that society. I will try to explain what we stand for, and to 
promote respect for the dignity of every citizen, democratic values, 
good governance, and rule of law. I say this in the conviction that the 
most effective antidote to Russian propaganda mounted against the 
United States is simply stating the plain truth about our country and 
our values.
    If given the opportunity to serve again, I will also use the 
resources at my disposal to promote and protect U.S. economic interests 
in the Russian market. My record on supporting American business over 
the course of my career is clear. I will vigorously oppose corruption, 
and I will do my utmost to ensure America's firms receive equal and 
fair treatment in trade and investment transactions in accordance with 
U.S. law and WTO rules.
    Mr. Chairman and members of this committee, America's relations 
with Russia have a long and complex history.
    We have been allies and we have been adversaries.
    We have cooperated and we have clashed.
    But, one constant has been our country's enduring engagement with 
Russia, its people, and its government. That engagement reflects 
geographic, economic, and geopolitical realities. We have no 
alternative to managing and conducting our relations in a way that most 
effectively advances and protects American interests and global peace.
    Just as our interests and values now require intensive diplomacy 
accompanied by firm sanctions to counter Russia's recent threats to 
European stability, it is inescapable that pursuing America's most 
important interests around the world will sometimes also mean working 
with Russia. We need to identify and counter terrorist threats, stem 
narcotics flows, ensure aviation and maritime safety, counter the 
proliferation of weapons of mass destruction, verifiably reduce nuclear 
arsenals and eliminate nuclear fissile material wherever it is in the 
world. America cannot address these tasks alone. But Russia remains a 
critical international player in many of these matters, and America's 
hand can become stronger when our interests and Russia's align.
    If confirmed, I will use all the resources at my disposal to pursue 
American goals through diplomatic engagement with the Russian 
Government, and I will promote expanded ties between the American and 
Russian people.
    Mr. Chairman, one of the great privileges of my career has been to 
lead the teams of committed Americans serving our country at embassies 
overseas. If confirmed, I will do my best to lead our highly 
professional and motivated team at the Embassy in Moscow and in our 
three consulates across Russia. This is a team of skilled officers and 
staff. I know that the Americans who serve our country in Russia 
understand the importance of their work. It will be an honor to lead 
them. And, Mr. Chairman, if the Senate chooses to place its confidence 
in me as U.S. Ambassador to Russia, I will ensure that we conduct our 
business in a manner that is fully consistent with the highest 
standards of ethical and moral values.
    Finally, Mr. Chairman, I would like to recognize my wife, Mariella, 
who has been my indispensable partner in this career from the very 
beginning. In addition to her own professional accomplishments as a 
biostatistician and a nurse, she has made her own unique contributions 
to representing our country in every post in which we have served. I 
know she will once again bring her invaluable experience to bear in 
Moscow. I would also like to thank my wonderful daughters, Christine 
and Cathleen. They make me proud every day, and have been supportive of 
my work throughout my career.
    Mr. Chairman, thank you for the privilege of appearing before the 
committee. I am prepared to answer any questions you might have.

    The Chairman. Well, most nominees take a full 5 minutes, so 
I want to congratulate you on your brevity.
    Ambassador Tefft. This is the experience after you do this 
four times, sir. [Laughter.]
    The Chairman. Let me first welcome all of your family, and 
we appreciate again their willingness to share you with the 
Nation.
    Since I am sanctioned and cannot go to Russia to visit you 
if you get confirmed, I hope to be able to have an open line of 
communication with you so that we can talk about issues as we 
move forward.
    Ambassador Tefft. Absolutely, sir.
    The Chairman. I thought that after the tragedy of the 
Malaysian Airline flight that President Putin would have a 
different vision of where he was at, that he would change 
course, that it would be an off-ramp. But he seems to have 
doubled down. His invasion of Crimea, what is going on there, 
upends the international order. I know that when I was in 
Europe the Europeans are shocked because they never thought 
that that was going to be one of their challenges. They thought 
security challenges were more in the context of modern day 
terrorism, not the actions of a state actor.
    So how do you look at that reality, knowing that you are 
going into a set of circumstances under which, instead of what 
we would think would be the normal course of events, such as 
deescalating, moving in a different direction, what would be 
the response when we see Putin doubling down? How do you view 
that? How do you engage in that as you go to Russia?
    Ambassador Tefft. I think, as you say, the $64,000 question 
is what is exactly President Putin's approach at this point. 
You were not the only one, Senator, who thought that this 
horrible tragedy provided an opportunity to disengage, to find 
a way to resolve this horrible conflict that is killing people 
every day in eastern Ukraine.
    I do not know specifically what President Putin's plans 
are. I note, like you, that the sanctions--that Europe has 
increased substantially its sanctions today, going into 
sectoral areas, according to what I have read in the press. My 
understanding is that we are now going to add some additional 
sanctions ourselves.
    I would also note, as you mentioned, that we saw this week 
criticism of President Putin, specifically the press interview 
that was given by his very old friend and adviser, former 
Deputy Prime Minister Kudryn, who was quite clear about his 
concern, not just with the Ukraine crisis and the impact this 
was going to have on the economy, but also the individuals in 
the society, the ultranationalists, who he was quite critical 
of.
    We know from different press articles and other things that 
many in the business community are very concerned at the way 
things are going. This is not just sanctions. I know from my 
work at RAND that there are businessmen who are not sanctioned 
or not party to this, but they have lost deals because they 
have lost foreign capital that they had counted on to either 
expand or to even continue operating.
    So the pressure is clearly there. I cannot tell you--I wish 
I could tell you how I could see the denouement of this. But I 
think we need to, as I said, keep the pressure on and to 
continue to give President Putin an opportunity to find a way 
to deescalate this crisis and to bring an end to the conflict 
in Ukraine along the lines that President Poroshenko has 
outlined.
    The Chairman. What do you think should be our response to 
the administration's statement that Russia has violated their 
treaty obligations?
    Ambassador Tefft. I think this is a very serious matter, 
Senator. It obviously goes to the core of trust. I understand 
that in international relations trust is one component, but I 
hope that the Russians will seize the opportunity that we have 
offered to come to the table, to meet with our experts, to try 
to resolve this, to shelve this particular weapons system and 
to bring themselves back in compliance with the INF Treaty.
    The Chairman. I would assume that if you are confirmed this 
is an issue that you will drive significantly on behalf of the 
administration, because there are those of us in the Congress 
who knew about this, based upon what was then classified 
information, and now that it has become public have been very 
concerned about where this is leading and where it is heading.
    If you look at the multiplicity of actions that Russia has 
taken and now you add this dimension to it, you begin to wonder 
how much the international order has been upended by President 
Putin.
    Ambassador Tefft. I agree with you, sir. I would say that 
back during the Soviet days, I was on the Soviet desk twice, 
two 3-year tours, and one of the things I spent a lot of time 
on was arms control. So I have got to dust off some of my 
knowledge and bring it to bear. But I will do my best to press 
this issue when I am in Moscow if confirmed.
    The Chairman. Finally, if we cannot go ahead and deter or 
get Russia to change course, one of my hopes is that we will 
look at in the sectoral sanctions that we are looking at 
energy. I am really concerned that we, who lead the world in a 
shale revolution, are going to help the Russians create a 
Russian shale revolution that will give them more gas and 
greater ability to leverage it, as they have leveraged it in 
Ukraine, as they are leveraging it against Europe.
    The last thing that is in the national intelligence and 
security of the United States is to have our technology sold to 
the Russians so that they can have a shale revolution, so they 
can have more energy, so they can have more resources and more 
leverage against Europe and other countries. So I hope you are 
going to look at that closely with the State Department and 
members of the U.S. Department of Energy, because I think that 
is a sanction that has long-term consequences for the Russians 
in terms of both what they can do moving forward and what the 
consequences are economically.
    Ambassador Tefft. I will, sir.
    The Chairman. Senator Corker.
    Senator Corker. Thank you, Mr. Chairman. Again, thank you 
for your opening comments.
    The INF Treaty obviously was relative to proximate 
locations to Russia. Therefore the violations were violations 
that, if they continued, were violations that would have had an 
impact on Europe in general. My guess is some of them already 
were aware of these violations due to their intelligence. But 
do you see this having any impact relative to the other issues 
we are dealing with Russia on right now?
    Ambassador Tefft. Well, I think it goes to the----
    Senator Corker. I am talking about with the European 
community that we are working with.
    Ambassador Tefft. Right, I understand. My understanding, 
Senator, is that the allies are being briefed at NATO today or 
tomorrow--I am not sure exactly when--to go over this. They, 
like the committee, have been apprised of the problem before; 
they have known of it. I think our European allies should be 
very concerned because, as we all know, the INF missiles are 
the ones that most apply to the European Continent. We worked 
very hard back in the eighties to get that INF Treaty to 
preserve the security and to make the security of Europe 
indivisible from our own.
    Senator Corker. When you talked about off-ramps, hopefully 
we will continue to look at possible off-ramps for Putin. As 
the chairman mentioned, you would have thought the downing of 
the passenger aircraft would have been the perfect off-ramp. 
Instead, he turned into the wind and doubled down.
    What types of off-ramps do you see as being possible in the 
future with actions being as they have been from him?
    Ambassador Tefft. Well, I watched Secretary Kerry this 
morning on television when he appeared with the Foreign 
Minister of Ukraine, my friend Pavlo Klimkin. And the Secretary 
was again emphasizing, sir, that he had talked apparently to 
Foreign Minister Lavrov this morning, reiterated the readiness 
of the United States and Ukraine to engage in negotiations at 
any stage, to meet at any time to try to do this, based on the 
peace plan that President Poroshenko has outlined.
    I am not aware of any particular meeting coming up that 
would provide an opportunity like that, but the Secretary 
seemed to indicate that he was ready at any stage to engage in 
something like that. I think a lot depends on what the policies 
of President Putin are.
    Senator Corker. The Hague recently ruled that Russia had 
basically stolen $50 billion from shareholders of Yukos. It 
seems like there are numbers of issues that are occurring right 
now. Hopefully, that will affect some of the elite. But I know 
we talked some about that yesterday. I assume that you will be 
forceful in pursuing that to its end, and that we have U.S. 
shareholders who also were damaged in that process.
    Ambassador Tefft. Yes, sir. In all my career in my other 
assignments, I have made promoting the fair treatment of 
American businesses and investors one of my top priorities, and 
I will certainly do that. I am also cognizant that there is a 
provision in the Russian-Moldova Jackson-Vanik Repeal and the 
Sergei Magnitsky Rule of Law Accountability Act which obliges 
the administration to help American investors who were victims 
of this, and I will certainly do that. My Embassy and I--I 
think the Embassy has already been engaged on this and I will 
certainly continue to do that.
    The Chairman. Senator Corker, if you would yield for just a 
moment.
    Just for members of the committee, what I intend to do is 
when Senator Corker finishes his line of questioning, recess 
the nomination hearing, meet off the floor quickly, reconvene 
the business meeting, have hopefully a successful vote, come 
back and continue the nomination hearing.
    Senator Corker.
    Senator Corker. I have had ample time to spend with our 
nominee. I am thankful that he is willing to do this. We had a 
long, long conversation yesterday. So in order to expedite our 
business meeting, I will stop and thank him again for his 
willingness to serve our country in this way.
    Ambassador Tefft. Thank you, Senator.
    The Chairman. Thank you, Senator Corker.
    Ambassador, we have a vote for the head of the Veterans 
Administration, so we are going to go do that. I urge members 
who want to come back for this hearing to come back immediately 
thereafter. So, we will briefly recess, subject to the call of 
the chair.

[Recess from 2:55 p.m. to 3:17 p.m.]

    The Chairman. This hearing will come back to order. 
Ambassador, thank you for your forbearance.
    I believe that Senator Corker was the last member, so 
Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Mr. Ambassador, thank you very much for sticking with us 
today. This is important, so we want to be able to get the 
nominees that were underlying in the business meeting through, 
but also make sure that we get a chance, as Senator McCain and 
Senator Menendez have stated, to get you through this process 
and through the Senate by the end of the week.
    Thank you for spending a little bit of time with me earlier 
this week. I maybe want to allow you to elaborate on a 
conversation that we were having about how you interpret the 
events of the last 6 months with respect to whether or not it 
is a display of Russian strength or Russian weakness. Nothing 
is that simple, but there have been a lot of pundits who have 
suggested that this is Putin pushing around the rest of the 
world, getting his way in essentially resetting international 
norms through aggressive behavior. Then there is a whole other 
school of thought which suggests that this was a panicked 
reaction by a leader of a nation who is in retreat in a lot of 
ways, unable to control the allegiances of former republics, an 
economy which has failed to diversify in any meaningful way.
    I know it is not simple to just sort of suggest which 
direction Russia is heading in, but tell me sort of how you 
interpret the motivations for these exceptional actions in 
Ukraine?
    Ambassador Tefft. Thank you very much, Senator. When I have 
been in Moscow recently in May and in April working, doing my 
job for the RAND Corporation, I have met with many Russians. 
Certainly the predominant view there was that the decision to 
go into Crimea was something of an impulsive decision following 
the breakdown of the agreement that had been brokered by the 
three European Union Foreign Ministers back in late March.
    I know that that agreement--that while there are many in 
Russia who think that it was something that was broken down by 
some kind of plot or some kind of plan, was in fact something 
spontaneous. Nobody knew that President Yanukovych was leaving, 
was leaving.
    But I think the other thing as I look back on the Ukraine 
crisis, I think there is a fundamental misunderstanding on the 
part of many in the Russian leadership. I have had this 
conversation, private conversations as well. They did not 
understand what was really at stake on the Maidan. When I left 
Ukraine it was very clear if you looked at the polling that 
President Yanukovych was not only very unpopular, but something 
on the order of 74 percent of the people said they thought the 
country was going in the wrong direction.
    When I left it was still--the plans were still on the books 
to move ahead with becoming a member of the European--an 
associate member, an association agreement with the EU. When 
that fell apart and the demonstrations developed, it was not 
hard to understand why that was happening.
    I think that for me personally one of the things that is so 
frustrating here is that this did not need to happen. A lot of 
the things that have occurred in Ukraine and the Russian 
response did not have to happen. They could have had a better 
relationship with Ukraine if they had tried.
    But there is this strong view that President Putin has 
enunciated many times of a Eurasian union. It is pretty clear 
that not just the people of Ukraine do not want to be part of a 
Eurasian union. They wanted to have a good relationship with 
Russia. I will be honest. When I was in Moscow--or I was in 
Ukraine, I, speaking on behalf of the administration and the 
United States, said we supported the EU association agreement, 
but we also believe strongly that there should be a good 
relationship between Ukraine and Russia. And most Ukrainians I 
knew understood that very, very clearly.
    Unfortunately, choices were made the other way. I hope that 
this is an aberration. I think the strong international 
response to this has sent a pretty clear message. I think you 
can read some of the commentaries in Russia and see that there 
are a lot of people raising the larger question of is this the 
right policy approach, is this the best way to build 
relationships with our neighbors, is this the best way, in the 
words of some Ukrainians--of some Russians, is this the way we 
should treat our cousins across the border in Ukraine?
    Senator Murphy. I want to ask one more question. You had 
this challenge in Ukraine. You will have it again in Russia. 
How do you continue to advance a dialogue that is happening 
with the Russians on a number of fronts, whether it be Iran or 
Afghanistan, while pressing the case for more political 
discourse and the greater ability for dissidents to express 
themselves?
    What has been remarkable during this period of time over 
the last 6 months is very quietly Putin has also been 
increasing a crackdown on political discourse, most recently 
essentially eliminating the ability of small television 
channels in that country to advertise, to receive revenues 
necessary for their existence, essentially shutting the doors 
on a number of different independent outlets throughout the 
country.
    So you have gotten real good at this over the years. What 
do you see in Moscow as the ability of our Embassy to continue 
to promote freedom of expression, to continue to promote those 
who would try to protest this government with an increasing 
foot on their neck as they try to do it?
    Ambassador Tefft. Well, I will very much try to, as I said, 
have very candid and serious talks with the Russian leaders. 
The Embassy, the U.S. Government as a whole, has developed ways 
to get our message out and our support for those themes.
    The other thing that I have done in my previous assignment 
and I would expect to do in Moscow is work very closely with 
our European allies, with the EU Ambassador, who is a very 
distinguished diplomat, the former Foreign Minister of 
Lithuania, who I know well, along with other ambassadors, to 
try to bring to bear, if you will, the predominance of 
persuasiveness, I would hope.
    I have no illusions in saying this. In one of my 
conversations yesterday with one of the other Senators I made 
the point that, looking at how we actually conduct our public 
diplomacy, looking at not just how we are doing, but how 
effective we are being with social media and other things, in a 
society that, as you say, is very increasingly restricted in 
terms of the ability of embassies and other governments to get 
their message out, it is going to be something I will spend a 
lot of time on. One of the things as I prepare to go out in 
consultations here is to be hard-minded about the effectiveness 
of that and to try to come up with the best ways we can move 
forward.
    Senator Murphy. Thank you, Mr. Chairman.
    The Chairman. Senator Flake.
    Senator Flake. No, thank you.
    The Chairman. Ambassador, let me ask you some final 
questions, unless a member returns. You were our Ambassador in 
Georgia in 2008.
    Ambassador Tefft. Yes, sir.
    The Chairman. And you experienced Russia's provocative 
behavior in that post. How do you compare what Russia did in 
Georgia in 2008 with what you see in Ukraine in 2014?
    Ambassador Tefft. I think what we have seen in Ukraine is 
actually a much more organized, at least as I understand it, 
operation. Certainly the Russians prepared their forces before 
the war actually broke out. They were massed north of the 
border. But the operation as it came into Georgia was not 
militarily as well organized, I think, as certainly what we 
have seen in Ukraine, not just in Crimea, but I also have the 
sense that in Ukraine there was much more direct coordination 
between Moscow and these fellows that they have on the ground 
out there. At least that is the impression I have in reading 
about it.
    Then there are lots of articles in the newspaper about the 
various people of the Russian Special Services, as well as the 
GRU, the intelligence side of the military, and their direct 
involvement, people who were involved not just in Georgia, but 
in Chechnya and Crimea. I saw the other night a CBS 
correspondent who said: This is the same fellow I saw in Crimea 
back last fall and I have seen him once before in another 
place.
    Clearly there is a coterie of people who have been 
designated, who are the ones who do these things.
    The Chairman. Some of us look at what happened in the 
Ukraine and in Moldova and say to ourselves, well, this is a 
repeat of a game plan, maybe a little different in terms of the 
specificity or exactness of Russian troops versus those who are 
not insignia-ed being sent in, but in essence creating frozen 
conflicts, which perhaps serves his purposes just as well as an 
actual outright invasion.
    What do you think about that?
    Ambassador Tefft. I always have the impression in Georgia 
that there was a fundamental miscalculation. You remember early 
on in the conflict they bombed some of these apartment 
buildings in Gori, the city right in the center of Georgia. I 
think the calculus was somehow we are going to get these people 
angry and they are going to turn against President Shakashvili, 
turn against their government. Actually, what happened was the 
exact opposite. Even people who were bitter political enemies 
of President Shakashvili's came out and said: He is our 
President, he is the President of independent Georgia, and we 
support him for that, even as we criticize him.
    I think there was a miscalculation, and I do not know in 
the Russian system who was responsible for that, but I think 
that is there.
    I think you could also--I think historians will know better 
when we have more information, but I think some of the things 
that have been done in eastern Ukraine have been done--have 
been a miscalculation. The impression I always had when I left 
a year ago was that there was a very big generational 
difference in east Ukraine. I found many of the students and 
younger generation people there very much--they are critical of 
their own government in Kiev, but not wanting to be a part of 
Russia. They wanted to be a part of an independent Ukraine. 
They wanted to see that Ukraine changed.
    So I think there was a miscalculation on the part of Russia 
that somehow saw all these huge numbers of people, the Novi 
Rossiya, as President Putin called it, as being ready just to 
kind of embrace Russia and become a part of Russia. And I do 
not think that was ever in the cards.
    The Chairman. One final question. Some of us read the 
responses about Russia becoming self-dependent, insular in 
terms of global economic issues, which I find incredibly hard 
to believe. I believe that what Putin has done here has actual, 
maybe not in the short term, but in the mid to longer term, 
real consequences for Russia economically.
    Ambassador Tefft. Absolutely.
    Senator Murphy. And woke up the Europeans to think about 
how they diversify and become more energy independent, as well 
as others. What do you think is some of the inherent problems 
Russia would face if it tried to become autodependent?
    Ambassador Tefft. I just do not see in this global market, 
in this globalized world that we live in, how withdrawing into 
yourself, into an insular kind of nation, is going to help you. 
Number one, economically you are not going to succeed. We all 
know that you need capital, you need foreign customers. Russia 
needs to develop manufactures and things that it can sell in 
the world, not just extractive minerals that are the 
fundamentals of their national economy today.
    I just think that it is really a big danger. I was very 
intrigued, as I mentioned to you yesterday, the comments that 
were made by former deputy prime minister Kudryn, who was very 
clear in a Tass interview, not just that the Ukraine policy was 
wrong, but that those--he spoke out very strongly against the 
ultranationalists and saw them taking Russia in the wrong 
direction.
    Clearly, this is going to be one of the key things that I 
and my staff are going to have to watch in Russia as the battle 
between the ultranationalists, if you will, and the modernizers 
or those who want to have Russia as part of the global economy 
and the global political system push ahead. It is going to be a 
key, I think, a key part of any analysis of Russia.
    The Chairman. Well, thank you for your insights. Clearly, 
having a Russia that is part of the international order, both 
in terms of security, as well as economic issues, is the 
preferable course of events. But how we get there is still a 
road map to be determined.
    Senator Corker, are there any other questions?
    Senator Corker. No.
    The Chairman. All right. There are no other questions for 
you, Ambassador. We are in the midst of discussions as to how 
we might accelerate your nomination to be considered by the 
full Senate.
    Excuse me a moment. [Pause.]
    So, with the thanks of the committee for your testimony, 
you are excused.
    Ambassador Tefft. Thank you very much, Senator.
    The Chairman. I do not know if there will be any questions 
for the record. If there are, I would urge you to answer them 
expeditiously so that we can move your nomination.
    Ambassador Tefft. We are poised and ready. Thank you, sir.
    The Chairman. That is what we want to hear.
    At this point Senator Coons is going to preside over our 
next panel of nominees, and I thank Senator Coons for his 
willingness to do so.
    [Pause.]
    Senator Coons [presiding]. Ladies and gentlemen, I would 
like to call to order the second panel of the United States 
Senate Committee on Foreign Relations, considering three 
ambassadorial nominees. I am pleased to chair this hearing to 
consider the nominees for Botswana, Cabo Verde, and Brunei. All 
three of our nominees have impressive records of accomplishment 
and I look forward to hearing their priorities for advancing 
U.S. interests.
    Our first nominee is for Botswana, long known as one of the 
most stable and democratic countries on the continent, a close 
ally of the United States. It has made smart investments in 
education and health care, dedicated a large portion of its 
capable military to addressing wildlife trafficking. But 
despite these positive trends, there are challenges in terms of 
having the second highest HIV-AIDS rate in the world, rising 
wildlife trafficking challenges, and reports of marginalization 
of the San people.
    Earl Miller, the nominee for Botswana, is a career Foreign 
Service officer currently serving as consul general in 
Johannesburg, and is deeply familiar with regional issues as a 
result of his posting in southern Africa. His knowledge of the 
region, his previous service in Botswana, and his leadership 
skills will allow him to bring strong contributions to this 
mission.
    Next we consider Cabo Verde, an island nation off the 
northwest coast of Africa, known for having grown to become a 
stable, democratic, lower middle-income country, a strong ally 
and partner of the United States, in part due to our strong 
investment ties and shared regional concerns, such as 
countering narcotrafficking off the coast. In addition, there 
is a sizable Cabo Verdean diaspora community in the 
northeastern United States, with which I have long been 
familiar.
    Mr. Donald Heflin brings extensive regional leadership 
experience. A career Foreign Service officer, he currently 
serves as the director for consular affairs visa office and 
previously served as principal officer in Nuevo Laredo in 
Mexico, and gained regional expertise as the deputy and later 
Acting Director of the State Department's Office of West 
African Affairs.
    Last but certainly not least, we consider Brunei, a small 
country in Southeast Asia. Brunei recently implemented a new 
penal code rooted in a strict interpretation of sharia law, 
which includes measures such as the death penalty for adultery, 
homosexual acts, and insulting the Koran, prison sentences for 
pregnancy out of wedlock or failing to pray on Friday. These 
new restrictions will, moreover, apply to all Bruneians, 
including the 22 percent who are not Moslem. These regulations 
are troubling and I am hopeful our next U.S. Ambassador will 
encourage the government to protect human rights, dignity, and 
freedom of belief for its people.
    Brunei is also an increasingly important partner for 
achieving U.S. objectives, one of four states that launched the 
TPP, a cornerstone of the administration's economic engagement 
strategy in Asia. It also opposes territorial aggression by 
China in the South China Sea and therefore it is imperative our 
Ambassador skillfully manage bilateral relations in order to 
achieve regional goals.
    For this post, the President has nominated Mr. Craig Allen, 
who has spent three decades living and working in Asia. A 
career member of the Foreign Commercial Service, class of 
minister counselor, Mr. Allen most recently served as Deputy 
Assistant Secretary for China at the Department of Commerce. He 
also served as senior commercial officer at the U.S. consulate 
in Johannesburg, senior commercial officer in Beijing, and 
deputy senior commercial officer in Tokyo.
    I would now like to invite my colleague Senator Flake to 
make any opening statement he would like before I invite our 
nominees to make their opening statements. Senator Flake.
    Senator Flake. Thank you, Mr. Chairman.
    Thanks for being here. I have met with two of you in the 
last little bit in my office. I look forward to your testimony 
and thank you for your service.
    Senator Coons. Thank you, Senator Flake.
    I would like to welcome our nominees and encourage you to 
take the time to introduce your families and friends, who we 
all know are an essential part of your service in government. 
We are grateful for their sacrifices as well as yours and for 
their ongoing support.
    Mr. Heflin.

  STATEMENT OF DONALD L. HEFLIN, OF VIRGINIA, NOMINATED TO BE 
            AMBASSADOR TO THE REPUBLIC OF CABO VERDE

    Mr. Heflin. Thank you, Mr. Chairman. Chairman Coons, 
members of the committee, it is my honor to appear here today 
as the President's nominee to be the next U.S. Ambassador to 
the Republic of Cabo Verde. I am grateful to President Obama 
and Secretary Kerry for this tremendous vote of confidence and 
for this opportunity to come before you.
    I wish to acknowledge my daughter, Sara, who is here with 
us today. Sara is currently a junior at Austin Peay State 
University in Tennessee and lived in six countries growing up. 
Her first posting as a Foreign Service kid started when she was 
8 weeks old.
    I regret my parents did not live long enough to be here 
today. They both devoted their entire adult lifetimes to public 
service, highlighted by my father's 4 years as a pilot during 
World War II.
    The 10 islands that make up the Republic of Cabo Verde are 
just off the West Coast of Africa. Cabo Verde enjoys a vibrant, 
multiparty political system and an unbroken history of civilian 
rule since its independence in 1975. It is a success story of 
progress, prosperity, political stability, and democracy. Cabo 
Verde and the United States have enjoyed warm relations since 
we first opened our consulate there nearly 200 years ago.
    There are more than 450,000 Americans of Cabo Verdean 
origin. Many of these families immigrated to New England during 
the days of the great 19th century whaling fleets, which they 
worked on. They participate fully in the life of our great 
country and many of them wish to invest in the prosperous 
future of Cabo Verde.
    The United States and Cabo Verde are partners on a number 
of important matters. Among them maritime security and 
transnational crime are key. The government of Cabo Verde 
strongly supports counternarcotics maneuvers and is a gracious 
host to U.S. ship visits. Cabo Verde is a model in the region 
for strategic partnership. If confirmed, it is my goal to 
maintain and enhance this multilateral and interagency 
cooperation.
    U.S. engagement and support of Cabo Verde's economic and 
commercial development is bearing fruit. Cabo Verde's first 
Millennium Challenge Account compact was successfully completed 
in 2010, producing significant gains in all three of its 
projects: first, improvements in transportation networks, 
facilitating integration of internal markets; second, 
improvements in water management and soil conservation, which 
promoted increases in farm profits and incomes; and third, 
support to Cabo Verdean microfinance institutions. It is my 
hope if confirmed to engage Cabo Verde in consolidating these 
gains.
    Cabo Verde's continued strong government performance 
resulted in its selection as the first country in the world to 
qualify for a second Millennium Challenge Corporation compact, 
which began in 2012 and is focused on carrying out wide-
reaching reforms in the water and sanitation and land 
management sectors. These two compacts support Cabo Verde's 
overall national development goal of transforming its economy 
from aid dependency to sustainable private sector-led growth.
    Mr. Chairman, prior assignments in Africa and in African 
affairs have equipped me with the cultural and regional 
knowledge and language skills to relate to the Cabo Verdean 
Government and people. Similarly, if confirmed I will draw upon 
my 27-year career in the Foreign Service, including my 
experience as principal officer in Nuevo Laredo, Mexico, to 
effectively lead the U.S. mission in Praia, Cabo Verde. I look 
forward to entering entry-level officers who staff many of the 
Embassy's positions.
    If confirmed, my number one priority will be to promote the 
safety and welfare of American citizens in Cabo Verde.
    I would be pleased to answer any of your questions.
    [The prepared statement of Mr. Heflin follows:]

                 Prepared Statement of Donald L. Heflin

    Chairman Coons and members of the committee, it's my honor to 
appear here today as the President's nominee to be the next U.S. 
Ambassador to the Republic of Cabo Verde. I am grateful to President 
Obama and Secretary Kerry for this tremendous vote of confidence and 
for this opportunity to come before you.
    I wish to acknowledge my daughter, Sara, who is here with us today. 
Sara is currently a Junior at Austin Peay State University, and lived 
in six countries growing up. Her first posting as a Foreign Service kid 
started when she was 8 weeks old.
    I regret that my parents did not live long enough to be here today. 
They both devoted their entire working lives to public service, 
highlighted by my father's four years as a pilot in World War II.
    The 10 islands that make up the Republic of Cabo Verde are just off 
the west coast of Africa. Cabo Verde enjoys a vibrant, multiparty 
political system and an unbroken history of civilian rule since 
independence in 1975. It is a success story of progress, prosperity, 
political stability, and democracy.
    Cabo Verde and the United States have enjoyed warm relations since 
we opened our first consulate there nearly 200 years ago. There are 
more than 450,000 Americans of Cabo Verdean origin. Many of these 
families have lived in New England since originally immigrating to work 
on the 19th century whaling ships. They participate fully in the life 
of our great country, and many of them wish to invest in the prosperous 
future of Cabo Verde.
    The United States and Cabo Verde are partners on a number of 
important matters. Among them, maritime security and transnational 
crime are key. The Government of Cabo Verde strongly supports 
counternarcotics maneuvers and is a gracious host to U.S. ship visits. 
Cabo Verde is a model in the region for strategic partnership. If 
confirmed, it is my goal to maintain and enhance this multilateral and 
interagency collaboration.
    U.S engagement in support of Cabo Verde's economic and commercial 
development is bearing fruit. Cabo Verde's first Millennium Challenge 
Account Compact was successfully completed in 2010, producing 
significant gains in all three of its projects, namely: (1) 
improvements in transportation networks facilitating integration of 
internal markets; (2) improvements in water management and soil 
conservation, which promoted increases in farms profits and incomes; 
and, (3) support to Cabo Verdean microfinance institutions. It is my 
hope, if confirmed, to engage Cabo Verde in consolidating these gains.
    Cabo Verde's continued strong governance performance resulted in 
its selection as the first country to qualify for a second Millennium 
Challenge Account Compact, which began in 2012 and is focused on 
carrying out wide-reaching reforms in the water and sanitation and land 
management sectors. These two compacts support Cabo Verde's overall 
national development goal of transforming its economy from aid-
dependency to sustainable, private-sector led growth.
    Mr. Chairman, prior assignments in Africa and in African Affairs 
have equipped me with the cultural and regional knowledge and language 
skills to relate to the Cabo Verdean Government and people. Similarly, 
if confirmed, I will draw upon my 27-year career in the Foreign 
Service, including my experience as Principal Officer in Nuevo Laredo, 
Mexico, to effectively lead the U.S. Mission in Praia, Cabo Verde. I 
look forward to mentoring entry-level officers who staff many of the 
Embassy's positions. If confirmed, my number one priority will be to 
promote the safety and welfare of American citizens in Cabo Verde.
    I would be pleased to answer any of your questions.

    Senator Coons. Thank you very much, Mr. Heflin.
    Mr. Miller.

 STATEMENT OF EARL ROBERT MILLER, OF MICHIGAN, NOMINATED TO BE 
             AMBASSADOR TO THE REPUBLIC OF BOTSWANA

    Mr. Miller. Mr. Chairman, Ranking Member Flake, and members 
of the committee, it is a great honor to appear before you 
today as President Obama's nominee to serve as the next 
Ambassador to the Republic of Botswana. I appreciate the 
confidence the President and Secretary Kerry have placed in me 
by putting my name forward for your consideration.
    I am also deeply grateful for the support of my wife, Ana, 
and sons, Andrew and Alexander. They are back in Johannesburg, 
sir. Our first overseas assignment in the Foreign Service was 
in Botswana, a country we love dearly.
    During my 27 years in the Foreign Service, I have had the 
privilege of serving in senior leadership positions at a 
variety of challenging posts. Over the past 3 years, as the 
U.S. consul general in Johannesburg, South Africa, I managed 
the rapid growth of one of our busiest regional support and 
training centers. Our multiagency consulate general in 
Johannesburg is now larger than many U.S. embassies in Africa, 
an expansion reflecting in particular our growing economic 
partnership with southern Africa.
    Mr. Chairman, Botswana is one of Africa's great success 
stories. It is one of the continent's longest standing 
multiparty democracies and one of the United States' most 
reliable partners in Africa.
    Our current engagement in Botswana across a range of issues 
underscores the country's potential as a regional and in some 
instances global partner for the United States. Our joint 
efforts to combat HIV-AIDS has made a worldwide contribution to 
the global evidence base on HIV treatment and prevention. If 
confirmed, I would draw on my law enforcement experience to be 
a strong advocate for the International Law Enforcement Academy 
in Botswana, a partnership between our two nations that trains 
police officials from 34 African countries. Botswana also hosts 
the International Broadcasting Bureau's Voice of America relay 
station, serving most of the African Continent.
    Botswana has worked with us to promote democracy, good 
governance, and human rights. It has taken principled stands on 
these issues at the United Nations, the African Union, and the 
Southern African Development Community. Botswana has a strong 
military-to-military relationship with the United States. The 
Botswana Defense Forces' current leadership is U.S. trained and 
is one of the continent's strongest supporters of AFRICOM.
    Botswana has many key assets U.S. investors look for: 
stability, a reputation for transparency, respect for rule of 
law, and generally favorable investment conditions.
    The Southern African Development Community is headquartered 
in Gaborone. If confirmed, I will serve as the United States 
representative to SADC, recognizing regional integration is 
essential to the long-term stability and prosperity of southern 
Africa.
    Botswana is a regional leader and strong partner on 
conservation and environmental issues, such as managing 
regional water supplies and combating wildlife trafficking, a 
serious and growing problem across the continent.
    Botswana does confront serious challenges. Botswana's HIV 
prevalence of 25 percent among young adults is the second-
highest in the world. The decline in diamond reserves 
constitutes Botswana's greatest strategic challenge since its 
independence. As diamond resources dwindle, the country must 
find an alternate source of revenue or it could upend the 
country's development trajectory.
    Botswana suffers from income inequality, poverty, high 
unemployment, aging infrastructure, and a need for a more 
skilled labor market. Women are disproportionately affected by 
HIV and gender-based violence is a serious problem.
    The United States is keenly interested in Botswana 
maintaining a strong, stable, and reliable partner. Botswana is 
an example of what is possible in Africa and why it matters. If 
confirmed, I would work to enhance Botswana's potential and 
support the country as it addresses its economic, 
environmental, and health challenges to the benefits of both 
our nations.
    Mr. Chairman and members of the committee, thank you again 
for the opportunity to appear before you today. I will be happy 
to answer any questions you may have.
    [The prepared statement of Mr. Miller follows:]

                    Testimony of Earl Robert Miller

    Mr. Chairman and members of the committee, it is a great honor to 
appear before you today as President Obama's nominee to serve as the 
next Ambassador to the Republic of Botswana. I appreciate the 
confidence the President and Secretary Kerry have placed in me by 
putting my name forward for your consideration. I am also deeply 
grateful for the support of my wife, Ana, and sons, Andrew and 
Alexander. Our first overseas assignment in the Foreign Service was in 
Botswana, a country we loved dearly.
    During my 27 years in the Foreign Service, as both a diplomat and 
federal law enforcement officer, I have had the privilege of serving in 
senior leadership positions at a variety of challenging posts. The 
success of our diplomacy depends on our people. If confirmed, I will 
make it my highest priority to ensure the safety, security, and well-
being of our mission employees and all Americans in Botswana. Over the 
past 3 years, as the U.S. consul general in Johannesburg, South Africa, 
I managed the rapid growth of one of our busiest regional support and 
training centers. Our multiagency consulate general in Johannesburg is 
now larger than many U.S. Embassies in Africa, an expansion reflecting, 
in particular, our growing economic partnership with Southern Africa.
    Mr. Chairman, there is nowhere I would rather serve than Botswana. 
It is one of Africa's great success stories. It is one of the 
continent's longest-standing multiparty democracies. Botswana has also 
been one of the United States most reliable partners in Africa.
    Our current engagement with Botswana, across a range of issues, 
underscores the country's potential as a regional, and in some 
instances, global, partner for the United States. Our health 
partnership, particularly our joint efforts to combat HIV/AIDS, has 
made a worldwide contribution to the global evidence base on HIV 
treatment and prevention. The Botswana Combination Prevention Project 
that our two countries launched in late 2013 is an important component 
of the President's commitment through the President's Emergency Plan 
for AIDS Relief (PEPFAR) to achieve an AIDS-free generation. If 
confirmed, I would draw on my significant law enforcement experience to 
be a strong advocate for the International Law Enforcement Academy 
(ILEA) in Botswana, a partnership between our two nations that trains 
police officials from 34 African countries, and has made a significant 
contribution to our continentwide efforts to strengthen democratic 
institutions, improve governance, protect human rights, combat wildlife 
trafficking, and advance peace and security. Botswana also hosts the 
International Broadcasting Bureau's Voice of America relay station, 
serving most of the African Continent.
    Botswana has worked with us to promote democracy, good governance, 
and human rights throughout the continent. It has regularly taken 
principled stands on these issues at the United Nations, the African 
Union, and the Southern African Development Community. Botswana also 
has a strong military-to-military relationship with the United States. 
If confirmed, as both a former Marine Corps officer and senior diplomat 
who has worked closely with U.S. and host government armed forces 
around the world, I would prioritize further strengthening these ties. 
The Botswana Defense Force's (BDF's) current leadership is U.S.-trained 
and does not shy away from partnering with the United States. The BDF 
is one of the continent's strongest supporters of AFRICOM. Last year, 
Botswana approved the basing of an Air Force C-12 in Gaborone, and in 
the first 9 months, the C-12 team supported missions within the region.
    There are significant economic ties between the United States and 
Botswana. The United States imports between 200 and 300 million dollars 
of goods and services from Botswana every year and is the top purchaser 
of polished diamonds, which form over 70 percent of Botswana's exports. 
Botswana has many key assets that U.S. investors look for: stability, a 
reputation for transparency, respect for rule of law, and generally 
favorable investment conditions.
    The Southern African Development Community, or SADC, is 
headquartered in Gaborone, Botswana. Botswana is influential in this 
group of 15 southern African nations. If confirmed, I will serve as the 
United States representative to SADC. Regional integration and 
cooperation are essential to the long-term stability and prosperity of 
all of Southern African nations. I would look forward to exploring 
appropriate opportunities to work with SADC to promote these 
objectives.
    Finally, Botswana is a regional leader and strong partner on 
conservation and environmental issues. On challenges such as managing 
regional water supplies, sustainable growth and combating wildlife 
trafficking--a serious and growing problem across the continent--
Botswana is in many respects an impressive model. The Government of 
Botswana has taken on a leadership role within southern Africa on 
wildlife trafficking. In late 2013, we partnered with the Botswana 
Government in organizing the Gaborone Wildlife Enforcement Network 
conference, which resulted in 10 southern African nations recommending 
formation of the Wildlife Enforcement Network of Southern Africa 
(WENSA), a regional antiwildlife trafficking entity. We are working 
with Botswana's Ministry of Environment, Wildlife, and Tourism on a 
followup conference, which we hope will take place later this year, 
aimed at drafting and finalizing the WENSA's foundational documents.
    Despite Botswana's impressive development history, the country 
confronts serious challenges. Botswana's HIV prevalence rate of 25.4 
percent among 15-49 year olds is the second-highest in the world. Our 
investment of more than $700 million through PEPFAR over the past 10 
years has aided the Government of Botswana in its response to HIV/AIDs. 
Botswana's epidemic has reached a tipping point--for every one new 
person on treatment, there is less than one person newly infected. But 
many challenges remain.
    The decline in diamond reserves constitutes Botswana's greatest 
strategic challenge since independence. Diamond revenues, though well-
managed in Botswana, constitute the largest source of government 
revenue and are used to improve the lives of its people. As diamond 
resources dwindle, the country must find an alternate source of revenue 
or face a severe economic downturn. If Botswana fails to meet this 
challenge, it could upend the country's development trajectory and 
severely constrain Botswana's capacity to cope with health challenges 
associated with one of the world's highest HIV prevalence rates. This 
could put the sustainability of our $700 million PEPFAR investment at 
risk, make it difficult for Botswana to sustainably manage its globally 
significant natural resources, particularly the Okavango Delta and its 
wildlife, and undercut Botswana's influence in the region.
    Botswana's current diamond-wealth translates into a $6,200 GDP per 
capita, relatively high for a developing country. Despite this high GDP 
rate, Botswana suffers from income inequality, poverty, high 
unemployment, aging infrastructure, and a need for a more skilled labor 
market. The top 20 percent of income earners in Botswana account for 70 
percent of the country's household consumption, while over one-fifth of 
Botswana's population lives on less than $1.25 per day. In Botswana's 
remote rural communities, poverty is particularly acute; in the least 
populated district, nearly one in two people are impoverished with no 
realistic prospects for living standard improvement on the horizon. 
Women are disproportionately affected by HIV, and gender-based violence 
is a serious problem.
    Botswana is a strong and vocal partner of the United States today 
because of strong relationships forged 20 years ago in universities, 
military academies, and through programs such as the Peace Corps. If I 
am confirmed, I will build on these types of relationships with the 
rising generation of Botswana. Youth make up the largest segment of 
Botswana's population: over half of the population is under age 25. The 
United States is viewed positively by Botswana's youth, which opens 
important opportunities for us to influence the next generation of 
Botswana's leaders.
    The United States is keenly interested in Botswana remaining a 
strong, stable, and reliable American partner. Botswana has 
consistently been successful, a source of hope for others, and an 
example of what is possible in Africa, and why it matters. If 
confirmed, my goal would be to work to enhance Botswana's potential and 
support the country as it seeks to address its economic, environmental, 
and health challenges. These goals require robust diplomatic, 
development, and defense engagement on our part.
    Mr. Chairman and members of the committee, thank you again for the 
opportunity to appear before you today. I will be happy to answer any 
questions.

    Senator Coons. Thank you, Mr. Chairman.
    Mr. Allen.

   STATEMENT OF CRAIG B. ALLEN, OF VIRGINIA, NOMINATED TO BE 
                AMBASSADOR TO BRUNEI DARUSSALAM

    Mr. Allen. Mr. Chairman, Ranking Member Flake, members of 
the committee, thank you very much. It is a great honor to 
appear before you today.
    Before beginning my testimony, it is my privilege to 
introduce to you my family: my wife, Micheline Tusenius, our 
two children, Christopher and Caroline. It also gives me great 
pleasure to introduce my very proud 90-year-old mom, Betty 
Allen, my brother, Scott Allen, and my three nieces, Lisa, 
Jessica, and Sarah.
    As a veteran Foreign Service officer with six previous 
assignments, I want to thank my family for their extraordinary 
flexibility, patience, and many sacrifices. In particular, I 
would like to thank my wife ,Micheline, who has forsaken her 
own career for our family, giving me the opportunity to serve 
the American people overseas.
    Mr. Chairman, if confirmed it would be an honor to serve my 
country as the United States Ambassador to Brunei. The United 
States and Brunei have enjoyed strong and prosperous relations 
since 1850, when our two countries signed a treaty of peace, 
friendship, commerce, and navigation. Still in effect today, 
this treaty has underpinned our close cooperation for 160 
years.
    The United States and Brunei have a long history of working 
together to promote peace, stability, and development. If 
confirmed, I hope to continue that tradition and strengthen our 
relationship for the 21st century.
    Today the United States relationship the Brunei rests on 
two central pillars. The first is growing economic partnership 
and the second is expanding regional cooperation. Our economic 
partnership is manifest through rapidly expanding trade. In 
2013 American companies exported $559 million worth of goods 
and services to Brunei and we regularly enjoy large bilateral 
trade surpluses. Recently Brunei purchased $600 million worth 
of U.S. military and civilian aircraft.
    Our bilateral economic cooperation is further demonstrated 
by rapidly increasing investment flows, including $116 million 
worth of American investment in Brunei in 2012.
    Finally, as you noted, Mr. Chair, Brunei was a founding 
member in the launch of TPP negotiations, and indeed they are a 
key part of our effort to finalize a high standard agreement 
for the 21st century.
    The second pillar of our relationship with Brunei concerns 
regional issues. Brunei successfully chaired ASEAN last year. 
They have long been an important member of the region, and 
recently the United States and Brunei have cooperated on a 
number of matters of great importance to Southeast Asia. For 
example, we have launched the joint English language enrichment 
program for ASEAN, a $25 million, 5-year initiative funded by 
the Bruneian Government. Also, Brunei and Indonesia joined us 
in founding the U.S.-Asia Comprehensive Energy Partnership, and 
to support this goal the Export-Import Bank of the United 
States and the energy department of Brunei's Prime Minister's 
office are collaborating on a $1 billion Ex-Im program to 
further finance U.S. exports to the region.
    In addition, we have an active and growing defense 
cooperation relationship, highlighted by Brunei's active 
participation in annual exercises with the U.S. Pacific Fleet. 
Brunei has hosted a large humanitarian assistance exercise 
which brought together servicemembers from the United States 
and the region.
    Certainly there are challenges, Mr. Chairman. As you noted, 
Brunei's sharia law has caused serious concerns. The first 
phase of this law went into effect on May 1. We are concerned 
that the code criminalizes several aspects of freedom of 
religion, including apostasy, and we are concerned over some of 
the punishments that have been announced for future 
implementation. We are also concerned, as you noted, Mr. 
Chairman, that it criminalizes consensual same-sex conduct 
between adults.
    Freedom of expression and freedom of religion, which 
includes the right to change one's religion, are fundamental 
human rights enshrined in the Universal Declaration of Human 
Rights. While we understand that no physical punishments have 
been implemented under the current phase of the law, Brunei 
should ensure that its law prohibits torture or other cruel, 
inhumane, or degrading treatment or punishment.
    While Bruneian officials have offered assurances that the 
standards that will be applied under the sharia system will be 
so exacting that it will be almost impossible for there to be a 
conviction that would result in sentences such as stoning or 
amputation, the threat of such extreme punishment still raises 
concern.
    To these ends, we regularly communicate with Brunei 
regarding fundamental human rights and encourage the Government 
of Brunei to uphold its international commitments. We are 
watching closely to see how the law is being implemented.
    Mr. Chairman, Ranking Member Flake, members of the 
committee, thank you for inviting me to testify before you 
today and giving my nomination your kind consideration. I am 
pleased to answer any questions you may have. Thank you.
    [The prepared statement of Mr. Allen follows:]

                  Prepared Statement of Craig B. Allen

    Chairman Coons and members of the committee, it is a great honor to 
appear before you today.
    Before beginning my testimony, it is my privilege to introduce you 
to my family: my wife, Micheline Tusenius, and our two children, 
Christopher and Caroline.
    Please also allow me to introduce you to my very proud 90-year-old 
mother, Betty Allen; my brother, Scott Allen; and, my sister, Sara 
Bowden.
    As a veteran Foreign Service officer with six previous overseas 
assignments, I want to thank my family for their extraordinary 
flexibility, patience, and many sacrifices.
    I am especially grateful to my wife, Micheline, who has forsaken 
her own career for our family--giving me the opportunity to serve the 
American people overseas.
    This month marks my 29th year in government. During this period, I 
have worked at the Department of Commerce on issues associated with 
Asia for 25 years. In the course of my work, I have visited Brunei 
twice and been intimately involved in our trade relationship with 
Brunei, ASEAN, APEC, and the region.
    Indeed, it is fair to say that I have been preparing for this 
moment for 29 years, and thus I am grateful to you for considering this 
nomination.
    Mr. Chairman, if confirmed, it would be an honor to serve my 
country as the United States Ambassador to Brunei.
    The United States and Brunei have enjoyed strong and prosperous 
relations since 1850, when our two countries signed the Treaty of 
Peace, Friendship, Commerce, and Navigation. Still in effect today, the 
treaty has underpinned our close cooperation for the last 164 years. 
More recently, the United States was one of the first countries to 
recognize Brunei's independence from the United Kingdom in 1984. In the 
30 years since then, the United States and Brunei have worked together 
to promote and foster peace, stability, and development, and if 
confirmed, I hope to continue that tradition and strengthen our 
relationship for the 21st century.
    Today, the United States relationship with Brunei rests on two 
central pillars. The first is our long-standing, robust, and growing 
economic partnership. This economic cooperation is manifest through the 
continuously expanding trade between our two countries, to the great 
benefit of both. In 2013, United States companies exported $559 million 
of goods and services to Brunei, and we regularly enjoy annual trade 
surpluses. Our positive cooperation is further demonstrated by the 
continuous and increasing investments U.S. companies are making in 
Brunei, including $116 million worth in 2012. Recent Bruneian purchases 
of U.S. military and civilian aircraft totaling $600 million further 
attests to the strength of the economic relationship. Finally, Brunei 
was a founding party in the launch of the Trans-Pacific Partnership 
negotiations and is a key part of current efforts to finalize a high-
standard TPP agreement that will promote jobs and growth in the United 
States, Brunei, and across the Asia-Pacific region.
    The second pillar of the relationship is our engagement with Brunei 
on regional issues. Brunei was the chair of ASEAN last year and has 
long been an active and positively engaged member of the region. 
Recently, the United States and Brunei have cooperated to address a 
host of matters important to Southeast Asia. Together we launched the 
English Language Enrichment Project for ASEAN, a $25 million, 5-year 
initiative--funded by the Bruneian Government--that seeks to strengthen 
ASEAN's global engagement through improved English language capacity 
and advanced educational and teaching opportunities in the region. In 
2012, Brunei and Indonesia joined us in founding the U.S.-Asia Pacific 
Comprehensive Energy Partnership, which supports efforts to bring 
cleaner, more reliable sources of energy to the Asia-Pacific region by 
focusing on four priorities: renewables and cleaner energy; power 
markets and interconnectivity; the emerging role of natural gas; and 
sustainable development including rural electrification and energy 
efficiency. In support of those goals, a recently signed Memorandum of 
Understanding between the Export-Import Bank of the United States and 
the Energy Department of Brunei's Prime Minister's Office calls for 
information sharing and up to US$1 billion in Ex-Im Bank loans to 
finance U.S. exports in support of selected projects in the region. In 
these ways we are moving forward with Brunei to address regional issues 
vital to the maintenance of stability and growth.
    In addition to these programs, the United States and Brunei 
cooperate on a host of other issues. We have an active and growing 
defense cooperation relationship, highlighted by Bruneian participation 
in annual exercises with U.S. Pacific Fleet, including the Cooperation 
Afloat Readiness and Training exercise and, in 2014, for the first 
time, RIMPAC (Rim of the Pacific Exercise). In addition, in 2013 Brunei 
hosted a large Humanitarian Assistance/Disaster Relief exercise which 
brought together servicemembers from the United States and the region. 
The importance of this kind of training was clearly demonstrated just a 
few months later by the tragedy of Typhoon Haiyan, for which both the 
United States and Brunei offered assistance. Strides have also been 
made elsewhere: in 2013 Brunei was removed from the Special 301 Watch 
List in recognition of its efforts to protect intellectual property. 
Lastly, cultural, educational, and people-to-people ties continue to 
grow and define our bilateral relations in new and positive ways. Of 
particular note, the U.S.-Brunei English Language Enrichment Program 
for ASEAN is a novel way to improve English language skills throughout 
the region. Together, these programs highlight a multifaceted 
relationship that is both deep and broad, and one that is central to 
both promoting U.S. interests and the region and fostering the peace 
and stability that continue to bring economic growth.
    Certainly, there are challenges in the relationship. The United 
States has serious concerns regarding certain provisions of Brunei's 
Sharia penal code, the first phase of which went into effect on May 1. 
We are concerned that the code criminalizes several aspects of freedom 
of religion, including apostasy, and we are concerned over some of the 
punishments that have been announced for future implementation. We are 
also concerned that it criminalizes same-sex conduct between adults. 
Freedom of expression and freedom of religion, which includes the right 
to change one's religious beliefs, are human rights enshrined in the 
Universal Declaration of Human Rights. While we understand that no 
physical punishments have been implemented under the current phase of 
the law, Brunei should ensure that its law prohibits torture or other 
cruel, inhuman or degrading treatment or punishment. While Bruneian 
officials have offered assurances that the standards that will be 
applied under the Sharia system will be so exacting that it will be 
almost impossible for there to be a conviction that would result in 
sentences such as stoning or amputation, the threat of such punishment 
still raises concerns. To these ends, we regularly communicate with 
Brunei regarding fundamental human rights and encourage the Government 
of Brunei to uphold its international commitments. We are watching 
closely to see how the law is being implemented. Mr. Chairman, if 
confirmed, I will focus on working with Brunei authorities on these 
important issues, using every tool available to me to encourage Brunei 
to move expeditiously toward full compliance with international human 
rights standards.
    Mr. Chairman and members of the committee, thank you for inviting 
me to testify before you today and for giving my nomination your 
serious consideration. I am pleased to answer any questions you may 
have.

    Senator Coons. Thank you, Mr. Allen.
    Then we will start 5-minute rounds. If I could first, Mr. 
Heflin, just two questions on maritime security and the 
diaspora. I am particularly interested in how we engage the 
diaspora in the United States in economic investment, in 
deployment and in political relations back to their country of 
origin. As you referenced there is a sizable Cabo Verdean 
community in New England. What could we do to more successfully 
engage the African diaspora in the United States, which is a 
critical competitive advantage lacked by China, Brazil, Russia, 
India, others? What more could we do?
    Mr. Heflin. Mr. Chairman, as you know, the diaspora from 
Africa and other countries often leads the way in our 
relationships, including our economic relationships, with 
African countries. The Cabo Verdean community in New England 
has already shown interest in investing in the open economy of 
Cabo Verde.
    Right now the sky is the limit. For instance, looking at 
trade figures recently between the United States and Cabo 
Verde, they are fairly low. Typical exports from Cabo Verde to 
the United States in a given year are about a million, two 
million dollars, and from the United States back to Cabo Verde 
$8, $9, $10 million. Those could go up dramatically. If 
confirmed, I intend to work on fostering trade ties.
    There is also a very interesting proposal on the table from 
one of the New England colleges to open a campus in Praia to 
begin to prepare Cabo Verdean students to come up and study at 
the university level in the United States That is something my 
successor may well push over the top--my predecessor may well 
push over the top during our time there, and if not if 
confirmed I intend to.
    Senator Coons. I would be interested in followup from you 
once confirmed, presuming confirmation, about exactly how we 
can do a better job at engaging diaspora communities.
    Second, on maritime security. You referenced 
narcotrafficking as a major concern for me and for many off the 
Coast of West Africa, in addition to illegal fishing. Could you 
just explain the extent of the cooperation between the United 
States and Cabo Verde in combating both narcotrafficking and 
illegal fishing in the Western Coast of Africa?
    Mr. Heflin. Happy to, Mr. Chairman. We have had engagement 
on a lot of different levels with a lot of different agencies 
between the United States and Cabo Verde.
    AFRICOM's naval assets regularly conduct exercises and ship 
visits down there and over the years we have given the Cabo 
Verdeans three ships, including a 51-footer, that they put to 
good use. Their problem obviously is in the sea lanes between 
them and West Africa and traffic coming over from South America 
and heading up toward Europe.
    We also helped them start a command center, called COSMAR, 
in which they have formed an interagency group to start to get 
control of their own water, which, as you know, in African 
countries the problem sometimes is narcotraffickers, but 
sometimes overfishing or other economic losses from their 
waters. So with a small and very able coast guard-type navy, 
this command center that we have worked with them on, our Coast 
Guard works with them closely, and the State Department's 
Bureau of International Narcotics and Law Enforcement also has 
programs with the Cabo Verdeans. They have been a very good 
partner.
    Senator Coons. Thank you.
    Mr. Miller, you referenced Botswana has one of the most 
stable, capable militaries. We have a close police training 
relationship in Botswana. They are also a strong supporter of 
AFRICOM. What else do you think Botswana could do to play more 
of a role in supporting regional security efforts and what more 
could we be doing to combat wildlife trafficking? Botswana has 
historically done very well, but issues with some of its 
neighbors are preventing predictable long-term success and we 
have, I think, a real challenge, not just in Botswana, but in 
the entire region in wildlife trafficking.
    Mr. Miller. Thank you for the question, Senator. I have 
seen firsthand in South Africa over the last 3 years the 
devastation caused by the increasingly sophisticated and lethal 
wildlife trafficking syndicates. The Botswana Defense Force is 
the first line of defense in Botswana to combat wildlife 
trafficking. It is a highly regarded, well respected defense 
force.
    We have a number of programs in place to assist the BDF and 
the Government of Botswana with antipoaching operations, 
including classes on antitrafficking investigations, money-
laundering investigative courses to strike at the roots of the 
syndicates that are behind many of the trafficking outfits in 
the region.
    We are strong supporters of Botswana's establishing a 
wildlife enforcement network for southern Africa in Botswana. 
The only way we will solve this problem is through a regional 
and ultimately a global approach.
    Senator Coons. Thank you.
    Senator Flake.
    Senator Flake. Thank you, and thank you to your families as 
well for the sacrifices that they have made and continue to 
make. I know it is quite a commitment. I spent 1 year 
overseas--we had a child just a year and a half old--in 
Namibia, and I look at that and think of the difficulty that 
is, to have one child away from cousins and parents, 
grandparents and everything else, and you have done it many, 
many times. Your service is appreciated, all the families in 
particular.
    Mr. Heflin, with regard to Cabo Verde, the Millennium 
Challenge, again we are in the second iteration. What did we 
learn in the first? What lessons are we taking forward and how 
can we make sure that we expand on the benefits?
    Mr. Heflin. Millennium Challenge Corporation has not quite 
finished its after-action report on the first compact. The 
second compact, it was decided to spend the first 2 years 
getting the legal and regulatory framework in place, and it is 
coming along nicely. Once that is done and only once that is 
done will we move on to construction and other spending.
    Senator Flake. Mr. Allen, the trade surplus, that is a 
pretty good surplus we have got. How much of it traditionally 
is military equipment or planes? Is that typical year to year 
or is that just a bump lately?
    Mr. Allen. Thank you, Ranking Member Flake. The trade 
surplus and the trade numbers are quite volatile. Last year we 
delivered several aircraft and that skewed the numbers. We have 
a number of other aircraft, large aircraft deals in the 
pipeline, and thus I would consider it a rising trend in U.S. 
exports to Brunei in the foreseeable future--aircraft, oil 
equipment, consumer goods, food, and a good number of other 
commodities as well.
    Senator Flake. The only economy is certainly shrinking from 
where it was. How much longer? They are looking to revive it 
for as long as they can. They are certainly looking to 
diversify and that will be a lot of your role, and certainly I 
think why they have so much interest in the TPP. We appreciate 
their leadership and help there. I hope it is something that 
the Congress can give the President the tools to actually give 
effect to.
    But in the area of diversification, what are they doing?
    Mr. Allen. Sir, I share your sentiments entirely with 
regard to TPP. The IMF just this week or last week released a 
report suggesting that Brunei's GDP would be trending upward 
toward 6 percent this year and next. So their economy is doing 
quite well.
    In terms of diversification, they are trying to move 
downstream in the petroleum business, develop tourism and other 
service exports, and develop other segments of their economy 
that employ more Bruneian citizens, and integrate themselves 
better in ASEAN and in the region.
    Senator Flake. Thank you.
    Mr. Miller, I have not spent much time in Botswana. I spent 
a year in South Africa, a year in Namibia, and 6 months in 
Zimbabwe, so I have kind of surrounded it. But actually when I 
got back to college I wrote my master's thesis trying to 
explain Mugabe's hold on the electorate in Zimbabwe during the 
eighties. Now I think we have determined what that hold is. It 
is brute force and chicanery lately.
    But now I think all of us are trying to explain the hold he 
has on the rest of Africa. It has been very disappointing to 
see particularly the other SADC countries countenance what has 
gone on in Zimbabwe. Botswana I will note was the one country 
to be somewhat critical initially, but then kind of fell in 
line with the other southern African countries.
    What can you do in your role to make sure that there is the 
appropriate pressure and the appropriate stand taken by SADC 
countries at least standing up to what should not be 
countenanced in Zimbabwe? Long question, sorry.
    Mr. Miller. Thank you for that question, Senator. President 
Khama has taken some lonely and courageous and principled 
stands within SADC as a proponent of human rights and democracy 
across Africa, including Zimbabwe. He supported the global 
political agreement and sent a robust election observer 
delegation to Zimbabwe for the recent elections and was 
critical within SADC for the elections failing to abide by 
SADC's own standards.
    Botswana and Zimbabwe enjoy full diplomatic relations, but 
Botswana is not shy about criticizing what it sees as 
violations of human rights in Zimbabwe.
    I will take every opportunity to engage at the highest 
levels with the Government of Botswana and within SADC on 
issues of human rights. I would look forward to working with 
Ambassador Bruce Wharton and his fine team in Harare on 
regional human rights and good governance issues.
    Senator Flake. Well, thank you. In most cases here--I mean, 
SADC has some great governing principles, as does the AU, and I 
think all we need to do is make sure these countries stand up 
for their own standards. Certainly Botswana has been more 
willing to do so than other countries in the region. Please 
pass on our thanks for that, and hopefully we can foster that 
kind of attitude to stand up for not Western standards or U.S. 
standards, but the standards, the election standards and 
otherwise, human rights standards, that SADC has itself 
propounded and other countries in the region.
    But again, thank you all for your service. I have no doubt 
that you will serve the country well in this capacity.
    Mr. Miller. Thank you, Senator.
    Senator Coons. Thank you, Senator Flake.
    I have just a few more questions, if I might, for Mr. 
Allen, who I did not get to in my first round. If you would, 
just speak further about how you are going to address the issue 
of sharia law and some challenges that may create for us in 
terms of further progress on TPP or our relationship with 
Brunei?
    Mr. Allen. Thank you, Chairman. Firstly, I share your 
sentiments exactly on sharia, Brunei's sharia penal code. I 
think that the first thing that we need to do is monitor 
implementation, watch very closely. Thus far they are in the 
very early stages of this and we therefore need to monitor 
closely. We need to increase our dialogue on the importance of 
human rights and our expectations of human rights in Brunei.
    We need to remind the Government of Brunei when and if it 
becomes necessary, when it becomes necessary, of their 
international human rights obligations. We need to speak out in 
favor of our principles, and I will not be shy in upholding our 
principles with the government and the people of Brunei.
    With regard to TPP, it is useful to note that Brunei was a 
founding member, part of the P4. It is also important to note 
that trade is an important--trade and investment, economic 
exchange, is an important way to broaden support for the 
universal values that we hold dear. We have not used trade 
agreements in the past to address religious concerns.
    Vis a vis the specific strategy for TPP, I would have to 
refer you to USTR, which is of course leading those important 
negotiations. But I look forward to being a partner with them 
to ensure the passage of TPP and also ensuring that our views 
on human rights are known and hopefully respected in Brunei.
    Thank you.
    Senator Coons. Well, given your long career service in 
Commerce, I would also be interested in how you view 
intellectual property rights, whether you view them as central 
to our making progress on TPP with Brunei and how essential you 
think advocating for a regime in trade that respects and 
protects American intellectual property rights, how central you 
think that is.
    Mr. Allen. Thank you, Senator. I believe it is absolutely 
essential. Intellectual property rights are core to our economy 
and, more particularly, to our future economic growth.
    With regard to Brunei, there still are some intellectual 
property right problems, but they were lifted off of USTR's 
special watch list recently, thus indicating some progress 
made. That said, I understand that there still are problems and 
I look forward to working with the government of Brunei to 
further clean up and improve the protection for intellectual 
property rights.
    Within the context of TPP, those negotiations are ongoing 
and clearly very important to our future economic prosperity 
and growth.
    Thank you.
    Senator Coons. Thank you very much, Mr. Allen.
    Senator Flake, any further questions?
    Senator Flake. No, Mr. Chairman.
    Senator Coons. Well, with that I would like to thank all 
three of our nominees today. I would like to also thank, if I 
might, Mr. Heflin's daughter, Sara, Mr. Miller's wife, Ana, and 
sons, Andrew and Alexander, and of course Micheline Tusenius 
and Christopher and Caroline. Thank you all for your support. I 
know there are many others here as well. We are grateful that 
you stuck with us and we are grateful for your willingness to 
serve.
    Then we will keep the record of this panel open until noon 
tomorrow, Wednesday July 30, and I will recess for a third 
panel.

[Recess from 4:08 p.m. to 4:10 p.m.]

    Senator Kaine [presiding]. This third panel of the Senate 
Committee on Foreign Relations is now called to order. When I 
asked folks to assemble, I betrayed my trial lawyer roots by 
indicating that the ``witnesses'' should take their places. 
These are not witnesses; they are nominees, and we are very, 
very glad to have all three of them here.
    What we will do is, I will do a brief introduction of each 
of the three. Then I will ask them to make opening statements 
in the order that I introduced you, and following that I will 
have questions for each of you. Normally we would have other 
committee members here, but normally we do not do three panels. 
So you may only have to face my withering cross-examination 
this afternoon.
    But again, welcome to all. These are all quite important 
positions.
    So, to begin with introductions: Michele Sison has served 
as U.S. Ambassador to Sri Lanka and the Maldives since 2012. 
She previously served as assistant chief of mission in Baghdad, 
Iraq, U.S. Ambassador to Lebanon, and U.S. Ambassador to the 
UAE. She holds the rank of Career Minister in the U.S. Foreign 
Service. Her early assignments include: service as Principal 
Deputy Assistant Secretary of State for south Asian affairs and 
positions in Pakistan, India, Cote d'Ivoire, Cameroon, Benin, 
Togo, and Haiti, in the 32 years since 1982 when she joined the 
Foreign Service.
    Sison also served as the State Department's director of 
career development in assignments in 2010 and 2011. She 
received her bachelor degree in political science from 
Wellesley and also studied at the London School of Economics. 
She is the mother of two grown daughters.
    Ambassador Sison, welcome.
    Our next two nominees are ambassadors in different ways. 
While they have not served in the Foreign Service, they have 
both served a huge percentage of their professional career as 
Americans abroad. The millions of Americans we have who live 
abroad, who proudly represent the United States as they do 
their business and raise their families abroad are ambassadors 
in a different way.
    S. Fitzgerald Haney is a Principal and Head of Business 
Development in Client Service for Pzena Investment Management. 
He also has served as a member of the United States Holocaust 
Memorial Council since 2013. Quickly, his business background: 
from 2006 to 2007 he served with International Discount 
Telecommunication; 2002 to 2006 he was director of strategic 
planning at Depository Trust and Clearing Corporation; from 
1999 to 2001 he was a senior associate at Israel Seed Partners 
in Jerusalem, Israel; previously vice president of marketing 
and strategic planning at Citicorp-Citibank in Mexico City and 
Monterrey. Prior to that, he had various positions with 
Pepsico, including significant stints in Sao Paolo, Brazil, and 
also in Mexico City and San Juan, Puerto Rico.
    He began his career after his bachelor's and master's 
degree from Georgetown, serving as a Procter and Gamble 
assistant brand manager in San Juan, Puerto Rico.
    Welcome, Mr. Haney. It is good to have you here.
    Finally, Charles Adams is the Managing Partner of the 
Geneva office of the international law firm Akin Gump Strauss 
Hauer and Feld. He has worked in Geneva for over 20 years, 
serving as managing partner for two law firms, and his practice 
focuses heavily on international arbitrations in Europe and 
around the world.
    He is a graduate of Dartmouth College and the University of 
Virginia School of Law, was a Peace Corps Volunteer in Kenya 
from 1968-70, and grew up living the patriotic and peripatetic 
life of a child of a long-time member of the American Foreign 
Service.
    So, Mr. Adams, welcome to you as well.
    I would like to ask you each now to make opening 
statements. Your written statements will be submitted for the 
record, but if you could speak for about 5 minutes that would 
be great, and then I will ask each of you questions. I will 
begin with Ambassador Sison.

STATEMENT OF HON. MICHELE JEANNE SISON, OF MARYLAND, NOMINATED 
TO BE THE DEPUTY REPRESENTATIVE TO THE UNITED NATIONS, WITH THE 
 RANK OF AMBASSADOR, AND DEPUTY REPRESENTATIVE IN THE SECURITY 
COUNCIL OF THE UNITED NATIONS; AND TO BE REPRESENTATIVE TO THE 
 SESSIONS OF THE GENERAL ASSEMBLY OF THE UNITED STATES DURING 
 HER TENURE OF SERVICE AS DEPUTY REPRESENTATIVE TO THE UNITED 
                            NATIONS

    Ambassador Sison. Mr. Chairman, it is an honor to appear 
before you today as President Obama's nominee to be the Deputy 
Permanent Representative of the United States to the United 
Nations. I am grateful to the President, Secretary Kerry, 
Ambassador Power for their faith and confidence in my ability 
to represent the American people at the United Nations.
    I know my daughters, Allie and Jessica, are watching this 
hearing out in Arizona on their laptops and I would like to 
give them a heartfelt shout-out in recognition of the many 
years they spent accompanying me around the globe as Foreign 
Service kids. My two girls truly are my pride and joy.
    Mr. Chairman, if confirmed I look forward to advancing 
America's interests at the United Nations at a time of 
unprecedented challenges. President Obama has stressed that the 
global nature of the threats facing the world today cannot be 
adequately addressed by one nation alone. For that reason, 
America depends upon and must continue to demonstrate 
leadership within an effective, responsive, and responsible 
international system.
    I have been privileged to serve our country three times as 
U.S. Ambassador, as you mentioned, in the United Arab Emirates, 
Lebanon, and Sri Lanka, and Maldives. Throughout my career I 
have worked with our international partners on issues as varied 
as nonproliferation, counterterrorism, climate change, and 
post-conflict transition. Representing our Nation in 
challenging posts around the world from Haiti to Cote d'Ivoire 
and Pakistan to Iraq, I have seen the United Nations--I have 
seen that the United Nations, for all its shortcomings, has the 
ability to complement and amplify U.S. efforts to achieve a 
number of our foreign policy goals, including to prevent and 
end armed conflicts, ensure accountability, and build the 
conditions for a lasting peace.
    On the ground, I have worked alongside U.N. colleagues to 
deliver life-saving humanitarian assistance to communities 
racked by conflict and natural disaster. And I have coordinated 
closely with U.N. personnel on efforts to aid refugees and 
internally displaced persons.
    As U.S. Ambassador to Lebanon, I witnessed how U.N. 
peacekeepers contribute to allaying tensions along the blue 
line between Israel and Lebanon. I have vigorously promoted 
U.S. interests by urging our partners overseas to adhere to 
U.N. Security Council resolutions designed to deter the 
proliferation efforts of Iran and North Korea, al-Qaeda-linked 
terrorism, and other grave threats to peace.
    Of course, there can be no sustainable peace without 
justice and the rule of law. I have worked closely with the 
U.N. throughout my career to promote accountability and respect 
for human rights, as well as to address the issue of sexual or 
gender-based violence in conflict. While I believe no country 
can lead as effectively as the United States, it is not our 
Nation's job to solve every crisis around the world. The U.N. 
is an important forum for sharing that burden internationally.
    If confirmed, I will seek to expand the number of capable 
and willing partners working with us at the U.N. on each of the 
issues I have mentioned and will seek to unite them in a common 
cause in tackling our many common challenges.
    Finally, although I recognize the U.N.'s potential to 
advance critical U.S. priorities, I am also well aware of the 
U.N. system's limitations and the challenges it faces to ensure 
that its important work is performed efficiently and 
effectively. Some of these challenges are internal to the U.N. 
system and some reflect the competing priorities of its member 
states.
    If confirmed, I will actively pursue our shared priority of 
ensuring that American taxpayer resources are used effectively 
to advance U.S. goals and objectives. I pledge to work to 
ensure U.N. fiscal discipline, transparency, ethics, oversight, 
and reform. I will also continue this administration's firm 
commitment to fight any unfair bias against Israel at the U.N.
    Mr. Chairman, I have worked closely with this committee 
throughout my career and I greatly respect the active role of 
the committee in shaping American foreign policy. If confirmed, 
I look forward to the opportunity to continue to work with you 
to advance U.S. national interests at the United Nations. I am 
honored to appear before you today and I appreciate your 
consideration of my nomination.
    I would be happy to answer any questions you may have for 
me. Thank you.
    [The prepared statement of Ambassador Sison follows:]

         Prepared Statement of Ambassador Michele Jeanne Sison

    Mr. Chairman and members of the committee, it is an honor to appear 
before you today as President Obama's nominee to be the Deputy 
Permanent Representative of the United States to the United Nations. I 
am grateful to the President, Secretary Kerry, and Ambassador Power for 
their faith and confidence in my ability to represent the American 
people at the United Nations.
    I know my daughters, Allie and Jessica, are watching this hearing 
out in Arizona on their laptops, and I'd like to give them a heartfelt 
shout-out in recognition of the many years they spent accompanying me 
around the globe as Foreign Service kids. My two girls truly are my 
pride and joy.
    Mr. Chairman, if confirmed, I look forward to advancing America's 
interests at the United Nations at a time of unprecedented challenges. 
President Obama has stressed that the global nature of the threats 
facing the world today cannot be adequately addressed by one nation 
alone. For that reason, America depends upon--and must continue to 
demonstrate leadership within--an effective, responsive, and 
responsible international system.
    I have been privileged to serve our country three times as U.S. 
Ambassador: in the United Arab Emirates, Lebanon, and Sri Lanka and 
Maldives. Throughout my career, I've worked with our international 
partners on issues as varied as nonproliferation, counterterrorism, 
climate change, and post-conflict transition. Representing our Nation 
in challenging posts around the world--from Haiti to Cote d'Ivoire, and 
Pakistan to Iraq--I have seen that the United Nations, for all its 
shortcomings, has the ability to complement and amplify U.S. efforts to 
achieve a number of our foreign policy goals, including to prevent and 
end armed conflicts, ensure accountability, and build the conditions 
for a lasting peace.
    On the ground, I've worked alongside U.N. colleagues to deliver 
life-saving humanitarian assistance to communities wracked by conflict 
and natural disaster, and I've coordinated closely with U.N. personnel 
on efforts to aid refugees and internally displaced persons. As U.S. 
Ambassador to Lebanon, I witnessed how U.N. peacekeepers contribute to 
allaying tensions along the ``Blue Line'' between Israel and Lebanon.
    I have vigorously promoted U.S. interests by urging our partners 
overseas to adhere to U.N. Security Council Resolutions designed to 
deter the proliferation efforts of Iran and North Korea, Al-Qaeda-
linked terrorism, and other grave threats to peace. Of course, there 
can be no sustainable peace without justice and the rule of law. I've 
worked closely with the U.N. throughout my career to promote 
accountability and respect for human rights, as well as to address the 
issue of sexual or gender-based violence in conflict. And, while I 
believe no country can lead as effectively as the United States, it is 
not our Nation's job to solve every crisis around the world; the U.N. 
is an important forum for sharing that burden internationally. If 
confirmed, I will seek to expand the number of capable and willing 
partners working with us at the U.N. on each of the issues I've 
mentioned, and will seek to unite them in common cause in tackling our 
many common challenges.
    Finally, although I recognize the U.N.'s potential to advance 
critical U.S. priorities, I am also well aware of the U.N. system's 
limitations and the challenges it faces to ensure that its important 
work is performed efficiently and effectively. Some of these challenges 
are internal to the U.N. system, and some reflect the competing 
priorities of its member states. If confirmed, I will actively pursue 
our shared priority of ensuring that American taxpayer resources are 
used effectively to advance U.S. goals and objectives. I pledge to work 
to ensure U.N. fiscal discipline, transparency, ethics, oversight, and 
reform. I will also continue this administration's firm commitment to 
fight any unfair bias against Israel at the U.N.
    Mr. Chairman, I've worked closely with this committee throughout my 
career, and I greatly respect the active role of the committee in 
shaping American foreign policy. If confirmed, I look forward to the 
opportunity to continue to work with you to advance U.S. national 
interests at the United Nations.
    I am honored to appear before you today and I appreciate your 
consideration of my nomination. I would be happy to answer any 
questions you may have for me. Thank you.

    Senator Kaine. Thank you, Ambassador Sison.
    Mr. Haney.

    STATEMENT OF STAFFORD FITZGERALD HANEY, OF NEW JERSEY, 
    NOMINATED TO BE AMBASSADOR TO THE REPUBLIC OF COSTA RICA

    Mr. Haney. Chairman Kaine, it is an honor to appear before 
you today as President Obama's nominee to serve as the next 
United States Ambassador to Costa Rica. I am profoundly humbled 
by this opportunity to serve and thank the President and the 
Secretary of State for the confidence they have placed in me. 
If confirmed, I look forward to working with you and your 
colleagues to protect U.S. citizens in Costa Rica, deepen the 
bonds that unite our countries, and advance U.S. interests in 
Central America.
    With the chairman's permission, I would like to acknowledge 
my family who are here with me today, starting with my wife, 
Rabbi Andrea Haney, and my children Asher, Nava, Eden, and 
Shaia. If I am confirmed, my wife and our four children will be 
joining me in San Jose, and it is only through their love and 
support that I am here today.
    I would also like to acknowledge my brother-in-law, Adam 
Dobrick, and my sister-in-law, Alison Dobrick, and various 
friends supporting us today.
    Finally, I would also like to mention my mother, father, 
and brother, who are here with us in our hearts. My mother, 
Sandra Haney, was and still is my hero. Working days and 
studying at night, she showed us by her example that the United 
States is truly a land of opportunity. She was also a link in a 
long line of family that has in various ways served our Nation 
proudly. From a fifth great-granduncle who fought in the 
Revolutionary War, to my brother who served both overseas and 
at home, to my great-uncle who recently received an honorary 
doctorate in public service, we have a long and proud tradition 
of serving our Nation. It is in my mother's honor and in her 
memory that I hope if I am confirmed to dedicate my service.
    Costa Rica is an important ally in a region of critical 
strategic importance to the United States. It is the most 
stable democracy in Central America. Its strong commitment to 
investing in education and health has helped it achieve 
literacy, life expectancy, infant mortality, and income levels 
that are considered among the best in the region.
    It is no surprise that these positive attributes have 
attracted significant numbers of U.S. citizens and today 
approximately 100,000 call Costa Rica home and more than 1 
million visit annually. If confirmed, their safety and well-
being will be my top priority.
    Despite its successes, Costa Rica, like its neighbors, 
confronts many challenges, including security challenges, as 
international drug trafficking organizations and organized 
crime increasingly penetrate Central America. The United States 
and Costa Rica enjoy an excellent partnership in security 
cooperation. If confirmed, I will continue to work with the 
Government of Costa Rica to ensure that organized crime does 
not undermine the country's economy and democratic 
institutions.
    Another of my highest priorities if confirmed will be 
promoting greater Central American integration. The region will 
not prosper without better regional cooperation on trade, 
infrastructure development, energy integration, and investment.
    Given its stability and relative prosperity, Costa Rica is 
not a source of the unaccompanied young people who have been 
streaming north to escape poverty, violence, and hopelessness, 
and in fact is itself a destination. Costa Rica can play a 
constructive role in working to create conditions in Central 
America that are conducive to reducing poverty and violence. 
President Solis has emphasized he is committed to working to 
promote regional integration and prosperity, and if I am 
confirmed I will support him in those efforts.
    I have many years experience living and working in the 
international businesses in Latin America and understand the 
region and its challenges. As was made clear during the recent 
investment promotion visit to the United States, Costa Rica is 
serious about improving its business climate and attracting 
foreign investment. If confirmed, my private sector experience 
would be an asset in helping Costa Rica advance in those areas. 
It would also serve me in working to advocate for stronger 
intellectual property protection, promote entrepreneurship and 
private-public partnerships, and ensure that U.S. companies and 
investors encounter a fair and level playing field for doing 
business in Costa Rica.
    If confirmed, I will also work closely with Costa Rica to 
advance the many other policy objectives and priorities the 
United States and Costa Rica share. Costa Rica shares our 
commitment to protecting democratic freedoms and human rights 
and has made it clear it will resist any attempts to weaken the 
inter-American human rights system. Costa Rica will also 
continue to be a strong partner with the United States on 
initiatives to mitigate and adapt to climate change and promote 
renewable energy use and sustainable development.
    I believe Costa Rica has the opportunity to become a 
regional hub of innovation, good governance, and increased 
competitiveness. As our dedicated team at Embassy San Jose 
states, a safe, prosperous, and green Costa Rica benefits the 
citizens of both our nations.
    Mr. Chairman, I thank you again for your consideration of 
my nomination and I welcome your questions.
    [The prepared statement of Mr. Haney follows:]

            Prepared Statement by Stafford Fitzgerald Haney

    Mr. Chairman, members of the committee, it is an honor to appear 
before you today as President Obama's nominee to serve as the next 
United States Ambassador to Costa Rica.
    I am profoundly humbled by this opportunity to serve and thank the 
President and the Secretary of State for the confidence they have 
placed in me. If confirmed, I look forward to working with you and your 
colleagues in Congress to advance U.S. interests in Costa Rica and 
deepen the bonds that unite our countries.
    With the Chairman's permission, I would like to acknowledge friends 
and family who are with me today; starting with my wife, Rabbi Andrea 
Haney, and my children, Asher, Nava, Eden, and Shaia. If I am 
confirmed, my wife and our four children will be joining me in San 
Jose, and it is only through their love and support that I am here 
today. I would also like to acknowledge my mother-in-law, Betsy 
Dobrick, my brother and sister-in-law, Adam and Allison Dobrick, and 
various close friends who are here today and whose support means so 
much to me and my family.
    Finally, I would also like to mention my mother, father, and 
brother, may they rest in peace, who are here with us in our hearts. My 
mother, Sandra Haney, was, and still is, my hero. As a young widow with 
two young children, she left home and family to provide my brother and 
me with the best education and opportunities she could. Working during 
the day and going to school at night, she showed us, by her example, 
that the United States is truly the land of opportunity for those who 
work hard on a level playing field. She did not have it easy as a 
single African-American woman raising two children alone in the 1970s, 
but she never gave up and she knew her sacrifices would allow her 
children to have a better life. It was her firmly held belief, one that 
she passed on, that America's core values should serve as an example 
throughout the world. She also was a link in a long line of family that 
has, in various ways, served our Nation proudly. From a 5th great-
granduncle who fought in the Revolutionary War, to my brother who 
served both overseas and at home, to my great-uncle who recently 
received an honorary doctorate in public service and was recognized by 
the Tennessee state legislature, to my mother's marches and sit-ins to 
protest what she saw as injustices not compatible with the America we 
aspire to be--we have a long and proud tradition of serving our Nation. 
It is in my mother's honor and in her memory that I hope, if I am 
confirmed, to dedicate my service.
    Costa Rica is an important ally in a region of critical strategic 
importance to the United States. It is the most stable democracy in 
Central America, and its long-held traditions of protecting human 
rights and freedom of expression are a model for the region. Its strong 
commitment to investing in education and health has helped Costa Rica 
achieve literacy, life expectancy, infant mortality, and income levels 
that are significantly better than and serve as a good example for the 
rest of Central America. It is no surprise that these positive 
attributes have attracted significant numbers of U.S. citizens to the 
country. Today, approximately 100,000 U.S. citizens call Costa Rica 
home, and more than 1 million visit annually. If confirmed, their 
safety and well-being will be my top priority.
    Despite its successes, Costa Rica, like its neighbors, confronts 
many challenges, including security challenges, as international drug 
trafficking organizations and organized crime increasingly penetrate 
Central America. The United States and Costa Rica enjoy an excellent 
partnership in security cooperation. If confirmed, I will continue to 
work with the Government of Costa Rica to ensure that organized crime 
does not undermine the country's economy and democratic institutions.
    If confirmed, another of my highest priorities will be promoting 
greater Central American integration. The region will not prosper 
without better regional cooperation on trade, infrastructure 
development, energy integration, and investment. Greater integration 
has long been an aspiration in Central America, but effective 
mechanisms for achieving that goal have remained elusive. The United 
States 
can play a constructive role in helping Central America create jobs and 
economic opportunities for its 43 million people by helping the region 
improve infrastructure, integrate markets, reduce nontariff barriers, 
and benefit more from its free trade agreement.
    Given its stability and relative prosperity, Costa Rica is not a 
source of the unaccompanied young people who have been streaming north 
to escape poverty, violence, and hopelessness, and, in fact, may be a 
destination itself. Costa Rica can play a constructive regional 
leadership role in working to create conditions in Central America that 
are conducive to reducing poverty and violence and creating jobs and 
opportunity. President Solis has emphasized he is committed to working 
to promote regional integration and prosperity, and, if confirmed, I 
will support him in those efforts. I will also work to create strong 
linkages between the American Chambers of Commerce in Central America, 
so that the private sector is fully incorporated into the process of 
seeking solutions to the region's development challenges.
    I have many years' experience living and working in international 
business in Mexico, Central America, the Caribbean, and Brazil. I 
understand the region and the challenges it faces. As President Solis 
made clear during his recent investment-promotion visit to the United 
States, Costa Rica is serious about improving its business climate, and 
attracting foreign investment. If confirmed, my private sector 
experience would be an asset in working with Costa Rica to advance in 
those areas. It would also serve me to advocate for stronger 
intellectual property protection, promote entrepreneurship and private-
public partnerships, and ensure that U.S. companies and investors 
encounter a fair and level playing field for doing business in Costa 
Rica.
    If confirmed, I will also work closely with Costa Rica to advance 
the many other policy objectives and priorities the United States and 
Costa Rica share. Costa Rica shares our commitment to protecting 
democratic freedoms and human rights, and has made clear it will 
vigilantly resist any attempts to weaken the Inter-American Human 
Rights System. Costa Rica will also continue to be a strong partner 
with the United States on initiatives to mitigate and adapt to climate 
change and promote renewable energy use and sustainable development. I 
believe Costa Rica has the opportunity to become a regional hub of 
innovation and the potential to assume a leadership role in advancing 
good governance and prosperity throughout Central America.
    As our dedicated team at Embassy San Jose states: A safe, 
prosperous, and green Costa Rica benefits the citizens of both our 
nations.
    Mr. Chairman, committee members, I thank you again for your 
consideration 
of my nomination to serve as Ambassador to Costa Rica, and I welcome 
your questions.

    Senator Kaine. Thank you, Mr. Haney.
    Mr. Adams.

 STATEMENT OF CHARLES C. ADAMS, JR., OF MARYLAND, NOMINATED TO 
            BE AMBASSADOR TO THE REPUBLIC OF FINLAND

    Mr. Adams. Thank you, Mr. Chairman. It is a privilege to 
appear before you today as the President's nominee to be 
Ambassador to the Republic of Finland, and it is a tremendous 
honor to have been asked to serve in this post. Like my 
colleagues, I thank President Obama and Senator Kerry for the 
confidence that they have shown in me and if confirmed very 
much look forward to working with you and your colleagues in 
Congress to further U.S. interests in Finland.
    I regret only that my wife, Vera, and my 12-year-old 
daughter, Maya, who if I am confirmed will accompany me to 
Helsinki, could not be here with me today. I hope that they are 
watching on the Internet back at home in Geneva, although it is 
way past Maya's bedtime by now.
    I hope also watching is my son, Matthew, who is 31, who 
lives and works in Los Angeles, of whom I am very proud and who 
has been a great support to me throughout the process leading 
up to my appearance here before you today.
    I do have here a group of dear friends and law partners 
whose support I very much appreciate also.
    If I may, I would like to say just a few words about why my 
appearance here today before you is of such personal 
significance to me. As you mentioned, Mr. Chairman, my late 
father Charles C. Adams dedicated the entirety of his 
professional career to representing the United States as a 
Foreign Service officer, devotedly supported throughout by my 
late mother, Florence Schneider Adams.
    They and what came over time to be a family of six kids 
spent many years in posts all over the world, principally in 
Europe and Africa, between assignments back home here in the 
United States. I thus had the opportunity to witness at 
firsthand, through the eyes of the Foreign Service brat that I 
was, the tremendous skill and savvy and dedication and courage 
that my parents and all other professionals of the Foreign 
Service brought to their service to their country and the 
burdens and the sacrifices that they were prepared to endure.
    After service in the Peace Corps in Kenya in 1968 to 1970 
and after law school at Mr. Jefferson's university in 
Charlottesville, I chose to enter the private sector, and I 
have practiced international law and international arbitration 
at high levels for now over 40 years. But I always have had 
very close to my heart the idea that as a salute to the memory 
of my mom and dad and to the magnificent men and women of the 
Foreign Service with whom they served, that I might some day be 
afforded the opportunity and the extraordinary privilege to 
serve my country as an ambassador of the United States.
    And should I be honored by the confirmation of this 
nomination, that long-held aspiration will have been fulfilled.
    I am very excited that the President has asked me to 
represent the United States in Finland. Finland is a very close 
U.S. partner. During the cold war Finland served as a key 
interlocutor between East and West, hosting numerous 
international summits, including those leading to the Helsinki 
Final Act, the founding document of the Organization for 
Security and Cooperation in Europe, which will celebrate its 
40th anniversary next year.
    Finland has been a member of the European Union since 1995, 
has developed an innovation-led economy, engages closely with 
the United States and the NATO Partnership for Peace program, 
including in Afghanistan, and leads in promoting human rights 
around the globe. Finland's participation in multilateral fora 
is a core component of its foreign policy. Finland is an 
important partner of the United States in international 
organizations like the United Nations and the Organization for 
Security and Cooperation in Europe. And if confirmed, I will 
work to sustain and advance the strong U.S.-Finland bilateral 
relationship.
    I will work to do so by championing U.S. national interests 
across three areas: our shared security, shared prosperity, and 
shared values. First, on our shared security, ever since 1950 
Finland has been a dedicated participant in U.S. peacekeeping 
missions around the world and, although not a member of NATO, 
Finland is a participant, as I said, in the Partnership for 
Peace and maintains very high levels of cooperation with us.
    Finland has also played a critical role in addressing the 
crisis in Syria through its participation in the mission to 
transport and destroy Syrian chemical weapons and has provided 
$21.9 million in humanitarian assistance to the Syrian people.
    Second, the United States and Finland share the vision of a 
strong, robust, trans-Atlantic economy that delivers for all of 
our citizens, and if confirmed one of my top priorities will be 
to increase economic cooperation between Finland and the United 
States through expedited, expanded bilateral trade through the 
TTIP, Trans-Atlantic Trade and Investment Partnership.
    Finland has played a very active role in advancing our 
shared security, economic and social values, and if confirmed I 
look forward to representing my country and advancing a still 
deeper connection between the United States and Finland. I am 
very grateful for the opportunity to address you and am at your 
disposal to answer any questions you may have. Thank you very 
much.
    [The prepared statement of Mr. Adams follows:]

               Prepared Statement of Charles C. Adams, Jr

    Mr. Chairman and honorable members of the committee, it is a 
privilege to appear before you today as the President's nominee to be 
Ambassador to the Republic of Finland. It is a tremendous honor to be 
asked to serve in this post, and I would like to thank President Obama 
and Secretary Kerry for their confidence in me. If confirmed, I look 
forward to working with you and your colleagues in Congress to further 
U.S. interests in Finland.
    With your kind permission, I would like to say a few words about my 
personal background and why this makes the privilege to serve as an 
Ambassador so meaningful, if confirmed by the Senate.
    My late father, Charles C. Adams, dedicated the entirety of his 
professional career to representing the United States as a Foreign 
Service officer, supported throughout by my late mother, Florence 
Schneider Adams. They, and what came over time to be a family of six 
children, spent many years in posts all over the world, principally in 
Europe and Africa, between assignments back home here in the United 
States. I had the opportunity to witness at first hand, through the 
eyes of the ``foreign service brat'' that I was, the enormous skill, 
savvy, dedication, and courage that my parents, and all other 
professionals of the Foreign Service, brought to their service to their 
country, and the burdens and sacrifices they were prepared to endure.
    After service in the Peace Corps in East Africa in 1968-70, I chose 
to enter the private sector, and have practiced international law and 
policy at high levels for now over 40 years. But I have always had 
close to my heart the idea that, as a salute to the memory of my mom 
and dad, and to the magnificent men and women of the Foreign Service 
with whom they served, I might someday be afforded the extraordinary 
privilege of serving my country as a United States Ambassador.
    I am very excited that the President asked me to represent the 
United States in Finland. Finland is a close U.S. partner. During the 
cold war, Finland served as a key interlocutor between East and West, 
hosting numerous international summits, including those leading to the 
Helsinki Final Act, which will celebrate its 40th anniversary next 
year. Finland has been a member of the European Union since 1995, has 
developed an innovation-led economy, engages closely with us as a NATO 
partner, including in Afghanistan, and leads in promoting human rights 
around the globe.
    Finland's participation in multilateral fora is a core component of 
its foreign policy. Finland is an important partner of the United 
States in international organizations like the United Nations and the 
Organization for Security and Cooperation in Europe.
    If confirmed, I will work to sustain and advance the strong U.S.-
Finland bilateral relationship. I will work to do so by championing 
U.S. national interests across three areas: our shared security, shared 
prosperity, and shared values.
    First, on our shared security: ever since the 1950s, Finland has 
been a dedicated participant in U.N. peacekeeping missions around the 
world. Although not a member of NATO, Finland is a participant in 
NATO's Partnership for Peace program and maintains a high level of 
cooperation and interoperability with the Alliance.
    Finland has contributed troops to the ISAF mission in Afghanistan 
and has pledged $8 million per year from 2015 to 2017 in support for 
the Afghan National Security Forces. Finland has taken the lead on 
implementation of UNSCR 1325, the Resolution for Women, Peace and 
Security, which seeks to protect women's rights and participation in 
Afghan society.
    Finland also played a critical role in addressing the crisis in 
Syria through its participation in the mission to transport and destroy 
Syrian chemical weapons and has provided $21.9 million in humanitarian 
assistance to the Syrian people.
    Second, the United States and Finland share the vision of a strong, 
robust transatlantic economy that delivers for all our citizens. That 
is why, if confirmed, one of my top priorities will be increasing 
economic cooperation between Finland and the United States, through 
expanded bilateral trade and investment. Finland strongly supports a 
Transatlantic Trade and Investment Partnership (TTIP), which, if 
successfully negotiated, could further increase bilateral economic ties 
and strengthen the overall U.S.-EU economic relationship. I will also 
work closely with the Finns on the increasingly important Arctic 
region. Finland is eager to work with us on our upcoming chairmanship 
of the Arctic Council, and will take over the chairmanship after us in 
2017.
    Finally, on our shared values, the U.S.-Finnish relationship 
continues to thrive because of the strong people-to-people ties between 
our two nations. These relationships are the lifeblood of the U.S.-
Finnish partnership. If confirmed, I will travel throughout the country 
meeting with students, media, local officials and civil society 
listening to their priorities and concerns and speaking to the enduring 
value of our cooperation.
    Finland has played an active role in advancing our shared security, 
economic, and social values. If confirmed, I look forward to 
representing my country in advancing a still deeper connection between 
the United States and Finland.
    I am grateful for the opportunity to have addressed you today, and 
am at your disposal to answer any questions you may have. Thank you.

    Senator Kaine. Thank you very much, Mr. Adams. Wonderful 
testimony, both written and oral presentations from each of 
you.
    I will start, Ambassador Sison, with you. I share your 
opening comments about the U.N., were my views exactly. The 
U.N. is frequently vexing and frustrating and yet it is a proud 
U.S. accomplishment. Even as the League of Nations was 
unwinding in the 1930s, long before the Second World War 
started, President Roosevelt in his first term knew there would 
need to be a successor and began to plan for the creation of 
the U.N. as early as 1933 or 1934. The war delayed it, but 
obviously it was--the U.S.'s participation, leadership, 
financial support, has been critical to the organization, and I 
think we can be proud of many of the accomplishments of the 
U.N. over the course of its history.
    Still, there are challenges at the U.N. One of the ones 
that has sort of been most vexing to me has been the relative 
impotence of the Security Council in dealing with the civil war 
in Syria. The United States is the largest provider of 
humanitarian aid to Syrian refugees in the world, but much of 
that aid has been to Syrian refugees outside of Syria. The 
Bashar al-Assad government has not been cooperating 
significantly with humanitarian aid delivery, except in various 
fits and starts when the PR would suggest that he should. But 
often in the U.N. Security Council, except for one or two 
occasions, Russia, usually with the agreement of China, has 
blocked resolutions to take a more vigorous posture.
    If you would, offer your thoughts on the Syrian refugee 
crisis, which I think is one of the greatest humanitarian 
crises of the last 50 years, and what the U.N. can do more, 
especially in light of the recent resolution that Russia signed 
onto, even to allow cross-border humanitarian aid without the 
agreement of the Bashar al-Assad government?
    Ambassador Sison. Thank you, Senator. Indeed, after 3 years 
of fighting there are more than 10.8 million people in need of 
assistance and 6.4 million internally displaced, due of course 
to the actions of the Assad regime and its actions against the 
Syrian people.
    U.S. leadership has been critical at the United Nations in 
addressing these pressing humanitarian assistance needs. As you 
noted, the second humanitarian assistance U.N. Security Council 
resolution was just passed this month, July 14. UNSCR 2165, as 
you noted, authorized the U.N.'s use of four border crossings 
from Turkey, Jordan, and Iraq to deliver the humanitarian 
assistance. And just last Thursday we saw the first convoy of 
nine trucks cross into Syria with nine truck loads of badly 
needed foodstuffs and medicines.
    Of course, there is also pressure on the countries outside 
of Syria, Syria's neighbors: Lebanon, I understand you recently 
traveled out there; Jordan, Turkey, of course. That has 
impacted those neighboring countries as well, and I will get 
back to that in a moment.
    U.S. leadership at the U.N. has been critical in focusing 
an overall strategy to continue to push as much humanitarian 
assistance into Syria through, as possible, through all 
available channels. There is a dual strategy that we are 
promoting with the U.N., funding organizations with a presence 
in Damascus, yes, including the U.N., but also funding 
organizations, NGOs and U.N. agencies, to conduct this cross-
border humanitarian assistance deliveries into the areas where 
the most vulnerable populations are located.
    Of course, this is very challenging for the U.N. agencies 
on the ground. Severe security challenges. The Assad regime's 
minimal steps to facilitate cross-line and cross-border access. 
Those aid agencies out there are having a challenging time to 
get this assistance to the millions of people in need.
    Now, I mentioned the focus also on the neighboring 
countries, because of course there have been outflows of Syrian 
refugees into Lebanon, into Turkey, into Jordan. So U.S. 
leadership is also working to keep those borders open to those 
seeking to flee; advocacy for increased donor support to assist 
these vulnerable populations, and to provide not just 
humanitarian assistance, but development aid, in those 
neighboring countries.
    The U.N. is now integrating what they call the resilience 
pillar, having a regional response plan that addresses the 
economic and development needs of these receiving countries. So 
again, U.S. leadership has been critical in addressing the 
needs on the ground, and of course in getting those two 
humanitarian assistance resolutions through the Security 
Council, as well as the chemical weapons U.N. Security Council 
resolution.
    Senator Kaine. I am so glad that you mentioned your service 
in Lebanon and connected it to it. When I was in Lebanon in 
February, talking to a nation with a population of about 4 
million that is dealing with a million refugees that have 
arrived in the space of 3 years made me wonder, how would the 
United States deal with people fleeing violence from other 
countries in those numbers. We have seen a little bit of how we 
would respond recently as people fleeing violence in Central 
America have come to our southern border.
    But the challenges that--I believe the challenges that this 
humanitarian crisis will continue to present will be a major 
part of your daily headache and responsibility there.
    It has to my way of thinking disclosed some continuing 
challenges with the Security Council and they may not be easy 
to fix. But what are your thoughts about proposals that are on 
the table to potentially consider either enlarging the 
membership of the Security Council or changing the way that the 
membership is chosen?
    Ambassador Sison. Thank you, Senator. In terms of U.N. 
Security Council reform, of course the United States believes 
that the Security Council and the U.N. in general need to 
reflect the world that we live in, 21st century. The 
administration is open in principle to a modest expansion of 
the permanent and nonpermanent memberships, although I would 
underscore that any consideration of expansion of the permanent 
membership would of course need to take into consideration the 
ability to contribute commensurately to the U.N. Charter's 
requirements of maintaining peace and security around the 
world. We would remain opposed, however, to any alteration or 
expansion of the veto.
    Senator Kaine. What is the current status of the U.S. 
contributions to the U.N. peacekeeping operations, since you 
mentioned that very important mission? There has been some 
controversy about the status of U.S. contributions to that 
particular mission in general. We have been such a sizable 
funder of U.N. operations. Talk a little about that and whether 
you see the need for any additional U.S. peacekeeping 
operations in response to security challenges that are out 
there now?
    Ambassador Sison. The United States, indeed, is the major 
contributor to peacekeeping operations with our assessment at 
28.4 percent now, Senator. Of course, U.N. peacekeeping 
operations in many of the hot spots around the world promote 
U.S. national security interests by helping preserve or 
stabilize, restore international peace and security, including 
in places of direct U.S. national interest. Here I am thinking 
of Mali, for example, where we saw al-Qaeda-linked terrorists 
threaten not only Mali, but the region.
    Moreover, U.N. peacekeeping operations help us maintain 
global stability, avoid the need for more costly intervention. 
Yes, we do contribute over a quarter of U.N. peacekeeping 
operations' costs. Other member states, however, share that 
burden with the remaining 70-plus percent, as well as 
contributing their troops and police.
    So we can think of this as a global bargain, if you will, 
with over 100,000 peacekeepers deployed, coming from 122 
countries around the world into these hot spots around the 
world, over 16 multidimensional U.N. peacekeeping operations.
    Senator Kaine. How about financial reform? I spent a day at 
the U.N. when Ambassador Rice was the U.N. Ambassador. I would 
recommend it to all my colleagues on Foreign Relations to go 
spend a day at the U.N., visiting various missions, visiting 
the Secretary General. I went to a Security Council meeting.
    I asked Ambassador Rice when I walked into my meeting with 
the Secretary General: Is there something that you want me to 
say that will be helpful to you? Very high on her very short 
list was to continue to press the case for management and 
budgetary reforms at the U.N. You alluded to that in your 
testimony as a priority. Would you talk a little bit more about 
that?
    Ambassador Sison. Thank you, Senator. If confirmed, one of 
my top priorities of course would be to be very focused on 
making sure that U.S. taxpayer dollars going into the regular 
budget assessment or peacekeeping budget assessment, that those 
U.S. taxpayer dollars are being used wisely and well, and that 
our U.S. leadership at the U.N. is focused on making it more 
transparent, more effective, more efficient.
    I can see as I prepared for this hearing, sir, that this 
has been a very successful focus for our U.S.-U.N. team up 
there in New York. U.S. leadership at the U.N., for example, in 
the 68th session achieved a 1-year freeze in professional staff 
salaries and a 2-year freeze in benefits. This is pathbreaking, 
groundbreaking, up at the U.N.
    U.S. leadership continues with a focus on curbing growth in 
the compensation costs up there at the U.N. In April of this 
year the United States cochaired the Geneva Group, which is a 
group that looks at these management and budgetary issues, and 
we advocated additional measures to reduce staff compensation 
growth across the U.N. common system. We have also focused on 
the ballooning U.N. air travel expenditures. We have focused on 
our U.S. Government U.N. transparency and accountability 
initiative, which is a comprehensive review of each U.N. 
entity's audit and whistleblower protections. We are working 
closely with the U.N.'s Office of Internal Oversight Services, 
which is the entity that focuses on waste, fraud, and abuse. Of 
course, the United States has been right up there in front, 
strongly supporting efforts to further strengthen OIOS's audit 
and investigation functions.
    Senator Kaine. Could you talk a little bit--I am very happy 
you mentioned one of the areas that we often find vexing, which 
is some reflexive anti-Israel policies in the U.N. I remember 
when I was in Israel in April 2009 as Governor of Virginia. 
There was a U.N.--I believe it was UNESCO--meeting in Geneva 
that one of the invited keynote speakers was Ahmedinejad, 
Mahmoud Ahmedinejad of Iran, and to have a Holocaust denier 
speaking to an international organization of that kind--and the 
sad coincidence of timing, it was during Yom Hashoah in Israel, 
and it just seemed so odd.
    There are many instances like that, where in the U.N., as 
an American audience looking on, we see that reflexive anti-
Israel attitude. What can you do to deal with that? Let us 
bring it to a point that we are all very concerned about now. 
Talk a little bit about the role that the U.N. can play in 
trying to find a path to a cease-fire in Gaza, where in the 
calm of a cease-fire the issues and grievances can be put on 
the table so that we can continue the quest to find that path 
to what the U.N. called for in 1947, which is a peaceful Israel 
and Palestine living side by side?
    Ambassador Sison. Yes, thank you, Senator. Indeed there is 
all too often an unfair, biased targeting of Israel in many 
U.N. fora, and if confirmed I would certainly work and do my 
utmost to fight against this type of unfair and biased 
targeting of our friend and ally, Israel.
    There have been a number of positive agenda actions, if you 
will, including Israel in a number of key consultative groups 
recently. For example, the Western European and Others grouping 
out in Geneva, the so-called JUSCANZ human rights consultative 
group up in New York. These consultative groupings are really 
where a lot of the work behind the scenes at the U.N. is 
accomplished, and by bringing Israel into these consultative 
groupings I believe we can definitely move forward in 
addressing some of our mutual concerns.
    On the second aspect of your question, Senator, of course 
we saw yesterday, just after midnight Monday, the U.N. Security 
Council calling for immediate and unconditional humanitarian 
cease-fire. Of course, we have seen Secretary Kerry and 
Secretary General Ban Ki-moon out in the region over the last 
several days, last week. Of course, the immediate goal for all 
of us is stopping the violence, to look for a cessation of 
hostilities, to look for a cease-fire along the contours of the 
November 2012 Israel-Hamas cease-fire.
    So the U.N. of course is out there with U.S. support, 
providing assistance to the civilian population through the 
U.N. Relief Works Agency. But the bottom line--and this is the 
political good offices, of course, of the U.N., the United 
States, and many others--is to work for a cease-fire, an end to 
the violence. Of course we condemn Hamas's attacks against 
Israel, support Israel's right to defend itself, but at the 
same time--at the same time, are very concerned about the 
civilian deaths, Palestinian civilians, Israeli civilians, 
Israeli IDF soldiers.
    So the bottom line is all of us working together to stop 
the violence, to promote a ceaselfire agreement.
    Senator Kaine. Well, you are coming to the position at a 
challenging time. There are so many other issues I could ask 
you about, but in September we have both the visits of the 
heads of state to the United Nations as well as the U.S. turn 
to be in the lead position in the Security Council, and much 
work to do. But I appreciate your service and congratulate you 
on your nomination.
    Let me move to questions for Mr. Haney. We have really been 
grappling with this issue of the unaccompanied minors coming to 
the border. We are trying to learn a little bit from Costa Rica 
because, while the countries in the northern triangle are the 
three countries, are the primary countries where these 
youngsters are coming from, including seeking asylum in Costa 
Rica and other nations, they are generally, the countries where 
these countries are coming from struggle with high levels of 
corruption in law enforcement and the judiciary.
    But Costa Rica is known for a largely uncorrupt police 
force. Along with effective law enforcement, Costa Rica enjoys 
low levels of impunity compared to northern triangle neighbors, 
where roughly 9 of 10 cases are never even prosecuted.
    You alluded to this a bit in your testimony, but what are 
some of the factors that explain this difference and how can 
Costa Rica potentially serve as a model for the other nations 
in the region?
    Mr. Haney. Senator, thank you. Mr. Chairman, thank you for 
your question. As you said, I think Costa Rica has the 
opportunity to serve as a model for the rest of the region as a 
home-grown success story, if you may, of what the emphasis on 
human rights and democratic institutions that have been long 
established within the Costa Rica history.
    Costa Rica has, because of its investment it has made in 
education and in health, it has achieved a level of prosperity, 
and without violence, that its neighbors lack, unfortunately, 
today. I think with the help of President Solis, who is very 
focused on regional integration and very focused on how Costa 
Rica is not an island, it is part of the isthmus, and will face 
the same challenges sooner or later as its neighbors do if it 
does not help come to some kind of agreement on how we can best 
face these challenges.
    So I think Costa Rica just by its following the current 
path that it is on can set a good example. I think you 
mentioned the judiciary and the police. We have done a lot of 
work with both in Costa Rica. We have a very strong partnership 
as far as security cooperation, as far as capacity-building and 
training. I think that with our ongoing support Costa Rica will 
maintain that and can actually serve as a center for training 
for the rest of the region as well.
    I think it is very important that we always do remember 
that you cannot be more willing than your partner and you 
cannot get your partner to be more able than they are. I think 
in Costa Rica we have a very unique opportunity for a very 
willing and capable partner at the same time.
    Senator Kaine. I share your assessment. One danger that I 
would see that we might have in Costa Rica is--I lived in 
Honduras 30 years or so ago and I kind of pay attention, 
special attention to Honduras, which is now, sadly, the murder 
capital of the world. It was not that way when I lived there. 
It was not that way 15 years ago. But it seemed to be that 
there was some significant success in U.S. efforts to fight 
drug trade in Mexico and Colombia, but drug trade is mobile, 
almost like capital is, and as there were more effective law 
enforcement efforts in the countries where there were serious 
problems some of the traffickers and transit routes rerouted. 
And to the extent that we take some significant steps with 
respect to the northern triangle countries, there could be 
pressure for them to reroute to Costa Rica as well.
    So that is something that will require ongoing significant 
security work between the nations. It is good to know that the 
partnership is strong and that the civil institutions begin 
with a strength.
    Let me switch to a strength of yours, which is on the 
international economic side, given your background. Costa Rica 
has been the most stable, not just from a security standpoint, 
but economically, of the countries in Central America. But 
recently there have been some concerns. American firms have 
done some downsizing and at least cited as a reason for the 
downsizing--there may be other reasons--that they were 
concerned about some of the potential fiscal policies of the 
incoming President Solis. So we saw some American firms, like 
Intel and Citibank, reduce some of their presence--I am sorry, 
Bank of America, not Citibank--reduce some of their presence, 
citing that.
    What do you think of the current sort of economic climate, 
fiscal climate, in Costa Rica, and what can you do with the 
experience you bring to the table to promote U.S. foreign 
direct investment there and find opportunities for American 
businesses as well?
    Mr. Haney. Thank you, Mr. Chairman. I think the best 
example--the best indication we have had of the current 
administration, President Solis's, commitment to making Costa 
Rica as attractive as possible for U.S. and other foreign 
investment is the fact that his first trip outside of the 
region as President was an investment promotion trip here to 
the United States, where he went to Silicon Valley, to New 
York, and then eventually D.C.
    I think that he very well made the case that Costa Rica 
realizes that it has some challenges around some bureaucracy, 
around infrastructure, that it needs to work on, both physical 
as well as investment, but overall that the country was very 
willing and looking for that FDI, that foreign direct 
investment, and to work with U.S. corporations in country.
    So while Intel did, for example, shut one of its fab plants 
down in Costa Rica or is in the process of doing so, at the 
same time it announced that it is opening up a mega-lab, an R 
and D center, within the country. So I think that also points 
to one of my key priorities, which is Costa Rica can serve as a 
hub of innovation. It has the human capital because it has 
invested in education over the last few generations.
    So I think my private sector background of working both 
with entrepreneurs as well as with the broad overall 
international business, I would hope to help Costa Rica address 
some of the issues that might be limiting additional investment 
from U.S. firms within the country.
    Senator Kaine. What is your sense of how Costa Rica has 
taken advantage of CAFTA? Have they tried to leverage the free 
trade agreement in Central America and the Dominican Republic 
effectively or do you think there is still some significantly 
greater up side that could be realized in looking at trade?
    Mr. Haney. Thank you, Senator. I think as far as Costa Rica 
goes, by almost any measure of success it has been the most 
successful country within CAFTA. It was the last one, as you 
know, to actually implement after a national referendum. But it 
today accounts for about 40 percent of all CAFTA trade, just 
Costa Rica alone.
    So I think--but I still think there are opportunities 
within Costa Rica's ability to leverage CAFTA to its benefit, 
both within country--I think it can go deeper into the Costa 
Rica economy. So we are looking at additional inclusion around 
development. So not just the first tier, not just the export 
sector, but we are really thinking of how do you drive the 
benefits of CAFTA into the small and medium enterprises, which 
will be really the engine for ongoing continued economic 
development within Costa Rica.
    I think on the second point, that Costa Rica, and I think 
all the CAFTA countries themselves, have not taken as much 
advantage of the intraregional trade as they can. So while they 
have been very focused on exporting to the United States and 
taking advantage of the CAFTA-DR that way, the trade within the 
seven countries themselves has not blossomed as one would hope. 
I think that is one of the tools we have to help address some 
of these core issues that are driving some of what we have seen 
of late within Central America.
    Senator Kaine. And President Solis's regional integration 
goal would suggest that would be something that he would also 
share, a priority he would share.
    Mr. Haney. Correct. He has stated many times that he 
believes that only with regional integration will Costa Rica 
and the region itself be able to be competitive in the 21st 
century. When you think about Costa Rica, which has done fairly 
well for itself--it is an upper-middle-income country--but it 
is under 5 million people. President Solis recognizes that a 
market of 5 million versus a market of 43 million, which is all 
the Central American countries together, is a vast difference 
on investment and scalability.
    Senator Kaine. Mr. Haney, thank you very much for your 
answers.
    Let me move to Mr. Adams now. Talk about the very delicate 
issue of the Russia-Finland relationship? Even to today, as the 
EU in the last couple days have been grappling with sanctions 
of Russia following activities in the Ukraine and the downing 
of the Air Malaysia flight, Finland's economy is very connected 
to the Russian economy, tourism, and other ways. They have been 
a little bit reluctant, but seem to be a solid partner in the 
announcements we are seeing come out of the EU today.
    But talk a little bit about that relationship and the 
current status of it especially in light of the activities 
involving Russia and its neighbor in Ukraine?
    Mr. Adams. Thank you, Mr. Chairman. Recent events in the 
Crimea and in the Ukraine have put something of a spotlight on 
precisely the subject that you have mentioned, the long 
historical relationship of Finland and Russia. As you know, 
Finland at one time, from 1809 to 1917, was part of Russia as 
an autonomous grand duchy of the tsar. And from December 6, 
1917, forward, the date of Finland's independence, its 
relationship with Russia has been a complex and delicate one.
    Naturally, with 1,300 kilometers of border, this is the 
second-longest border of Russia with its neighbors to the west 
after the Ukraine. The economic ties have been very strong. 
Russia is Finland's single largest export market. It is its 
second-largest supplier after Sweden in the most recent 
statistics, for fiscal 2013.
    It is true that Finland's economy to a substantial degree 
is interlinked with that of Russia. On the other hand, Finland 
has been a staunch supporter of the EU and has stated its 
intention of implementing and enforcing to the fullest degree 
the EU sanctions recently announced against Russia, this 
notwithstanding the fact that of all the members of the EU it 
is Finland which in proportional terms could be said to have 
the most to lose. But notwithstanding, Finland is very much 
behind the full set of sanctions recently announced.
    What also I think is important to take note of is the fact 
that Finland is in a unique position, because of its proximity 
and historical connection to Russia, to state the position of 
the EU and to state the position of the United States as 
Finland's partner within the Partnership for Peace in NATO on 
the issues which have brought this crisis to a head.
    Just last week, President Niinisto in a telephone 
conversation with President Putin emphasized the necessity of 
Russia's doing that which would be required to resolve the 
crisis and to get past the matter of sanctions in the interest 
of Russia and in the interests of Finland as well, in order 
that the matter of the sanctions could be addressed in the 
context of a resolution of the crisis which is at hand.
    Finland has played a constructive role, will continue to 
play a constructive role, and if confirmed I will continue to 
encourage Finland in taking a strong stand in alliance with its 
partners within the EU and in also implementation of the policy 
which has been that of the United States.
    Senator Kaine. You indicated in your opening testimony that 
Finland had often played a role of an interlocutor between the 
United States and the old Soviet Union. That role of 
interlocutor could be as important in the 21st century as it 
was in the 20th. As you point out, for cultural reasons they 
have a unique ability to do that. I would encourage you in that 
regard.
    Are there any issues with respect to the negotiation of the 
TTIP that either will cause controversy in Finland or where 
Finland and the United States are currently likely to not see 
eye to eye?
    Mr. Adams. Actually, Mr. Chairman, Finland is a 
particularly strong proponent of TTIP and has taken positions 
within the councils of the EU which are much more aligned with 
those of the United States with respect to the issues currently 
under discussion than some of the countries of the EU to the 
south, particularly when it comes to issues pertaining to 
agriculture and to geographic indicators.
    Finland has been looking forward to a successful conclusion 
of the round of negotiations on TTIP because Finland, as does 
the United States, views this accord or the potentiality of 
this accord as a strong impetus to increase trade, to increase 
shared prosperity, to increase job creation, both within the EU 
and in the United States.
    Senator Kaine. One of the areas where the United States and 
Finland would seem to have a lot in common and the ability to 
learn from one another is the great innovation culture that 
Finland has been known for. I doubt it is--I suspect it is a 
causal relationship, not even--more than even a correlation, 
that they are also known for educational success. My wife is 
Secretary of Education in Virginia and recently met with the 
Minister of Education from Finland on a trip to the United 
States.
    Talk a little about that sort of innovation and education 
success culture in Finland and how you might as Ambassador 
share best practices back and forth between the United States 
and Finland?
    Mr. Adams. I would be happy to do that, Mr. Chairman. You 
correctly say that innovation has been a hallmark of modern day 
Finland and the source of its quite remarkable success. For a 
country of 5.3 million people, Finland punches far above its 
weight in matters of innovation, in matters of technological 
development.
    The United States has recognized this. The United States 
has looked for ways to enhance its cooperation with Finland in 
areas of innovation. In point of fact, the United States 
Embassy in Helsinki in February of last year inaugurated its 
own innovation center as a part of the Embassy complex in the 
presence of President Niinisto and Members of his Cabinet, the 
purpose of the innovation center being to function as a focal 
point and as a forum for interchange between the United States 
and Finland in precisely this area.
    Another way in which I think these shared exchanges can be 
enhanced is through the International Visitor Leadership 
Program, of which Finland has been a very active participant. 
In fact, President Niinisto himself is an alumnus of an 
International Visitor Leadership Program visit to the United 
States, as are several of the Members of his Cabinet. And many 
of these exchanges have focused on the area of education, 
where, as you say, Finland and the United States each will 
greatly benefit from a continuation of these exchanges in 
looking to further the excellence of the respective systems of 
education.
    Senator Kaine. One last question for you, Mr. Adams, and 
you alluded a little bit to this in your testimony. But just 
talk about the current status of U.S.-Finish defense 
cooperation, which I know would have a sensitivity because of 
Finland's geography and proximity to Russia. But it seems like 
the partnership has been a good one and I would like you to 
elaborate a little bit on that.
    Mr. Adams. It has been an excellent one, Mr. Chairman. As I 
mentioned, Finland is not a member of NATO. It is a member and 
full participant in NATO's Partnership for Peace program. 
Currently Finland has 95 troops in Afghanistan. There are 21 in 
Kosovo in the context of the NATO peacekeeping program in that 
country. Finland has also been a participant over the years in 
various U.N. peacekeeping missions.
    The United States and Finland have emphasized the point of 
the interoperability of Finland's military and of its equipment 
with that of NATO, and Finland has proven to be a very strong 
customer of the United States in military procurements. So 
that, notwithstanding the sensitive aspects of the issue of the 
defense relationship and the military relationship and security 
relationship between Finland and the United States, given the 
geographical proximity of Finland's neighbor to the east, this 
is an area which, if confirmed as Ambassador, I would look 
forward to continuing to consolidate and enhance.
    Senator Kaine. Great. Thank you, Mr. Adams.
    Well, a few concluding remarks that I have. The testimony 
and questions have been thorough and impressive. One of the 
wonderful things about being on the Foreign Relations Committee 
is the opportunity to travel, especially to the Near East, 
South, and Central Asia, where my subcommittee chairmanship is, 
but also to Latin America because of personal interest. When I 
do travel, I have an opportunity to interact with a lot of 
wonderful Foreign Service professionals.
    This post will be a great honor to you because it is an 
honor to represent the country, it is an honor to be nominated 
by the President. But it is also an honor to lead wonderful 
people, and you will each have the opportunity to do that in 
your capacities.
    I try to make it a habit when I travel to have a roundtable 
meeting with young Foreign Service officers who are in their 
first or second tour, often working in the consular desk, and 
talk to them about what they are doing. I am just so impressed.
    Sometimes the experiences are a little grave. I was with a 
number of young Foreign Service officers who showed me around 
the memorial in the Embassy compound in Beirut. I think 
Americans in our collective memory, we remember well the 
bombing of the Marine barracks, but the U.S. Embassy was bombed 
and many were killed. And the U.S. Embassy annex was bombed and 
many were killed. And others who served in ambassadorial posts 
lost their lives as well. The commitment that people have who 
serve in very dangerous parts of the world is something that is 
really notable.
    Sometimes it is more lighthearted. I was in Egypt and met 
with young Foreign Service officers, and a woman on her first 
tour, who was I think a Virginia resident, was talking about 
needing to leave our meeting for her Friday Skype date. When I 
asked what that was, her husband is in the Foreign Service too 
and he is serving thousands of miles away and they dress up and 
get a glass of wine in front of each other and they talk by 
Skype across the miles.
    The service provided by our men and women who serve in the 
State Department is superb. I think the American public now, 
thank God, we reflexively and sincerely offer thanks to men and 
women in the military who serve all over the country. But we 
have an awful lot of public servants who might be in the 
Foreign Service or the DEA or the Department of Commerce or 
billets of the Peace Corps all over the world, and that service 
is impressive, too. I have a feeling that one of the honors 
that will be the most powerful in your experience, should you 
be confirmed--and I am confident you will be--will be the 
opportunity to lead some many wonderful public servants. That 
is something that would be a very exciting aspect of the job, I 
am sure.
    So thank you for the testimony today and your willingness 
to serve. Congratulations on your nomination. I will announce 
that we will keep the record of this hearing open until noon 
tomorrow in case there are any members of the committee who 
have questions who were not able to attend today that they 
would like to submit for the record. I would urge all of you to 
respond promptly to written questions should they be submitted.
    But with that, the hearing is adjourned.
    [Whereupon, at 5:08 p.m., the hearing was adjourned.]
                              ----------                              


             Questions and Answers Submitted for the Record


        Responses of Ambassador John Francis Tefft to Questions 
                    Submitted by Senator Bob Corker

    Question. Given the current state of relations between Russia and 
the West, under what circumstances and caveats should the U.S. consider 
reengaging with Russia in security cooperation activities?

    Answer. In response to attempted annexation of Crimea and ongoing 
efforts to destabilize eastern Ukraine, the U.S. Government has taken a 
number of actions, including suspending bilateral discussions with 
Russia on trade and investment; suspending other bilateral meetings on 
a case-by-case basis; and putting on hold U.S.-Russia military-to-
military engagement, including exercises, bilateral meetings, port 
visits, and planning conferences.
    However, where it is in the U.S. national interest to engage, for 
example, on the New START Treaty or on Iran's nuclear proliferation, we 
will continue to engage. Although the current situation has 
significantly undermined mutual trust, no one should forget that even 
in the darkest days of the cold war, the United States and Russia found 
it in our mutual interest to work together on reducing the nuclear 
threat. But we have and will continue to limit cooperation in other 
areas as long as Russia is unwilling to be a good neighbor and reliable 
partner in the region.
    The administration believes that we can make progress in areas 
where there is a shared understanding between Moscow and Washington on 
what might threaten us all. In a globalized world we must never cease 
to address such security challenges, even in the context of profound 
disagreements with the Kremlin over other matters, such as Ukraine.

    Question. Now that the administration is discussing the INF Treaty 
violation at the highest levels with the Russian Government, what is 
the U.S. strategy to achieve compliance from Russia with the INF 
Treaty? What actions are the Obama administration prepared to take 
beyond simply asking the Russians to halt development and testing of 
systems that violate the central tenets of the treaty?

    Answer. The administration will work to resolve the compliance 
issues outlined in the report through bilateral and multilateral means.
    Our next steps will be to intensify our diplomatic efforts with 
Russia to seek its return to compliance and we will also be consulting 
with allies.
    We have notified Russia of our determination and are prepared to 
discuss this in a senior-level bilateral dialogue immediately, with the 
aim of assuring the United States that Russia will come back into 
compliance with its treaty obligations.
    The United States will, of course, consult with allies on this 
matter to take into account the impact of this Russian violation on our 
collective security if Russia does not return to compliance.

    Question. What assurances do we have, given the identified 
violation of the INF Treaty, that Russia intends to continue compliance 
with other current obligations under treaties related to arms control? 
Should we trust those assurances?

    Answer. Current tensions with Russia highlight the importance of 
predictability and confidence-building provided by arms control 
treaties. This is especially the case with the continued successful 
implementation of the New START Treaty and the security and 
predictability provided by verifiable mutual limits on strategic 
weapons. The New START Treaty enhances our national security and 
strategic stability with Russia and both the United States and Russia 
are implementing the treaty's inspection regime. We assess that Russia 
is implementing and complying with the New START Treaty, and that the 
treaty remains in our national security interest. We take questions 
about compliance with arms control treaties very seriously and are 
continuing to monitor Russian compliance with all arms control 
treaties.

    Question. Under the current circumstances, is the administration 
still pursuing negotiations on further nuclear reductions?

    Answer. As President Obama said in Prague in 2009 and reiterated 
last year in Berlin, the United States and Russia possess 85 percent of 
the world's nuclear forces and both countries should continue the 
process of reducing their nuclear arsenals. The United States and 
Russia are continuing to implement the New START Treaty. Although the 
United States remains open to further nuclear reductions with Russia, 
Russia has made clear it is not prepared to pursue nuclear reductions 
beyond New START, and this is not a current focus of discussion between 
our countries.

    Question. What are the tripwires that would cause the United States 
to determine that New START and the INF Treaty are no longer in the 
national interest?

    Answer. The United States believes that the INF Treaty serves the 
mutual security interests of the parties--not only the United States 
and Russia, but also the 11 other successor states of the former Soviet 
Union, which are also States Parties to the treaty and bound by its 
obligations. Moreover, this treaty contributes to the security of our 
allies and to regional security in Europe and in the Far East. We will 
continue to monitor Russian activities, to keep Congress informed of 
our diplomatic efforts, and to consult with Congress on our next steps.
    The New START Treaty enhances our national security and strategic 
stability with Russia and both the United States and Russia are 
implementing the treaty's inspection regime. We assess that Russia is 
implementing and complying with the New START Treaty, and that the 
treaty remains in our national security interest.
    It is the policy of the administration to take compliance issues 
very seriously and to seek to resolve them. Consequences of 
noncompliance with treaty obligations should be appropriate to the 
specific circumstances and considered on a case-by-case basis.

    Question. Will you commit to maintaining the position that U.S. 
missile defenses and use doctrine are not open for negotiation with the 
Russian Government under any circumstances?

    Answer. As the President has stated on numerous occasions, the 
United States will not agree to any commitments on missile defense that 
would limit our ability to defend the United States, our troops, and 
our allies and partners.

    Question. What engagement is still under way with Russia, and what 
future plans does the administration have, to establish a follow-on 
agreement akin to the treaty of Conventional Forces in Europe?

    Answer. No engagement with Russia is underway regarding a follow-on 
agreement to the Treaty on Conventional Forces in Europe (CFE). Over 
the last year the U.S. Government has been consulting with NATO allies 
regarding ideas to update the conventional arms control regime in 
Europe. Any future decision to engage on these issues with Russia would 
be an alliance decision and would depend on the circumstances at the 
time. The United States, along with 28 other States Parties, continues 
to implement the CFE Treaty and to call on Russia to fulfill its 
obligations under the treaty.

    Question. What efforts will you pursue, in tandem with other 
officials within the U.S. Government, to gain full compliance by the 
Russians with the Open Skies Treaty?

    Answer. The Department of State, together with other U.S. 
Government agencies, will continue to raise Russian compliance and 
implementation issues regarding the Open Skies Treaty bilaterally via 
diplomatic channels, as well as in the Open Skies Consultative 
Commission in Vienna.
                                 ______
                                 

        Responses of Ambassador John Francis Tefft to Questions 
                    Submitted by Senator Marco Rubio

    Question. On June 26, Secretary of State Kerry said that Russia 
should disarm separatists in eastern Ukraine in ``the next hours'' or 
face sectoral sanctions. Since then, Russia has actually increased its 
support to pro-Russian separatists.

  <diamond> What is your assessment regarding the ongoing impact of 
        American actions taken thus far on President Putin's calculus?

    Answer. We have been very clear with the Russians that a failure to 
change their behavior would come with costs. The United States, 
together with our EU and G7 partners, has imposed real costs that are 
already having strong negative impact on the Russian economy, and will 
continue to do so if Russia does not follow through on its commitments. 
We have sought to have the greatest impact on those whose actions have 
threatened the sovereignty and territorial integrity of Ukraine, as 
well as key companies in the strategic sectors of banking, energy, and 
defense technology. In addition to the sectoral sanctions announced by 
the President on July 16 and July 29, the United States remains 
prepared to take further measures if Russia does not take steps toward 
de-escalation.
    President Putin himself has said that Western sanctions imposed on 
Russia have had real impact on domestic businesses, including limiting 
access to funding for many Russian companies. Russian economic 
officials have also conceded that Western sanctions are having a 
significant impact on the Russian economy. Aside from the uncertainty 
that sanctions have introduced to the Russian market, these impacts 
include economic growth projections revised downward to near-zero 
percent, currency intervention by the Russian Central Bank, capital 
flight, ruble depreciation, declines in the Russian stock market, 
increasing inflation, and downgrades to Russian debt.

    Question. Under President Putin's leadership, the Russian 
opposition has come under increasing pressure. Freedom of the press and 
freedom of expression continue to be severely limited. If confirmed, do 
you pledge to be vocal in your support for Russian civil society and an 
independent press and to meet frequently with members of the Russian 
opposition?

    Answer. The administration's commitment to democracy, human rights 
and civil society in Russia will remain firm. If confirmed, I will 
ensure the human rights work that has defined America to generations of 
Russians continues, confident that this is not just the right thing to 
do, but is also the best investment in future good relations between 
our two countries.

    Question. Given the administration's decision to finally state 
publicly that Russia is not in compliance with the Intermediate Range 
Nuclear Forces (INF) Treaty, does the administration support the United 
States unilaterally continuing to abide by a treaty that the other 
party is not complying with?

  <diamond> Will a copy of President Obama's letter to President Putin 
        on this issue be shared with Congress?
  <diamond> How many times and at what level have U.S. concerns about 
        Russian noncompliance with the INF Treaty been raised with the 
        Russians since May 2013?

    Answer. The United States believes that the INF Treaty serves the 
mutual security interests of the parties--not only the United States 
and Russia, but also the 11 other successor states of the former Soviet 
Union, which are also States Parties to the treaty and bound by its 
obligations. Moreover, this treaty contributes to the security of our 
allies and to regional security in Europe and in the Far East. For that 
reason, we will make every effort to get Russia to return to compliance 
with its obligations and to ensure the continued viability of the 
treaty.
    The President sent a letter to President Putin on this matter and 
this issue has been raised with Russia by senior administration 
officials numerous times over the course of the past year. It is a 
long-standing practice across administrations not to share diplomatic 
exchanges. We will continue to keep Congress informed on these issues 
and will work to address Members' concerns through appropriate 
channels.

    Question. You have served in several U.S. embassies in eastern 
Europe. How do you assess Vladimir Putin's regional ambitions? Based on 
your time in Georgia and Ukraine, how do you think he will continue to 
respond to the westward-oriented path of those countries and Moldova?

    Answer. President Putin presides over a Russia with serious 
systemic problems, and has been quite consistent about his worldview, 
as laid out in his 2007 address at the Munich Security Conference. 
Nonetheless, the United States does not see this as a zero-sum game. 
For example, while the United States strongly supports Ukraine and 
other Eastern Partnership countries' bids for greater economic and 
commercial ties with their European partners, we do not believe this 
must be at Russia's expense. Expanded trade ties will help increase 
prosperity for all parties, including Russia. Georgia, Moldova, and 
Ukraine showed great determination in finalizing their association 
deals with the EU in June and the United States will not accept any 
attempt to limit the sovereign choices of these countries, but they 
have great potential to increase trade with Russia and Central Asia as 
well.

    Question. For the 2nd straight year, Russia was listed as a Tier 3 
trafficking country in the Trafficking In Persons Report. Last year 
when they were originally downgraded to Tier 3, Russia accused the 
United States of using ``unacceptable'' methodology and did not make an 
effort to improve their efforts.

  <diamond> How do you plan to constructively engage on the issue of 
        human trafficking?
  <diamond> What benchmarks must Russia meet to be removed from Tier 3?

    Answer. Russia was downgraded to Tier 3 in 2013 in accordance with 
requirements of a 2008 amendment to the Trafficking Victims Protection 
Act (TVPA), which added a provision that limited the number of years a 
country can remain on the Tier 2 Watch List. Russia remained on Tier 3 
in the 2014 Trafficking in Persons Report. In 2013 and 2014, Russia 
lacked a national action plan to combat trafficking, a single 
coordinating authority for antitrafficking efforts, and funding in the 
federal and local budgets for trafficking prevention and victim 
protection. These deficiencies illustrated Russia's low political will 
to address human trafficking and led to Russia's Tier 3 ranking. The 
United States and Russia have had regular dialogue over the years on 
the issue of human trafficking. If confirmed, I will continue to engage 
with our Russian counterparts to encourage them to move forward with 
their draft national action plan. For specific benchmarks, I would 
point you to the Trafficking in Persons Report 2014.
                                 ______
                                 

       Responses of Ambassador Michele Jeanne Sison to Questions 
                    Submitted by Senator Marco Rubio

    Question. In March, the United Nations Security Council's North 
Korea Sanctions Committee sanctioned the operator/manager of the Cong 
Chon Gang, a North 
Korean vessel interdicted by Panama smuggling 240 tons of weapons from 
Cuba to North Korea. According to the committee's report, the Chong 
Chon Gang interdiction constituted the largest amount of arms and 
related materiel interdicted to, or from, North Korea since the 
adoption of the Security Council Resolution 1718 in 2006. The report 
also notes the collusion of North Korean and Cuban officials and 
expresses concern over North Korea-Cuba military cooperation.

  <diamond> (a) What specific actions does the administration plan to 
        take to ensure Cuba is sanctioned for this egregious violation 
        of U.N. Security Council resolutions?

    Answer. Willful violations of U.N. Security Council resolutions are 
very serious matters. Since Panama's interdiction of the Chong Chon 
Gang in July 2013, the United States has been working to ensure that 
all those responsible for the violation are accountable for their 
wrongdoing.
    We have worked to maximize the diplomatic cost Cuba has suffered 
for its role in the Chong Chon Gang incident. Cuba's diplomatic efforts 
have failed to convince most countries that Cuba did not break any 
rules.
    To underscore Cuba's role in this violation, the United States has 
repeatedly condemned Cuba's role in this violation in meetings of the 
U.N. Security Council and the Security Council's DPRK Sanctions 
Committee.
    To emphasize further this point, we pushed for the committee to 
adopt an Implementation Assistance Notice on this incident to make 
clear to the world the facts of the case and to convey the clear and 
unanimous conclusion of the U.N. Sanctions Committee, which we share, 
that this transaction violated sanctions.
    Through this Notice, the international community has also refuted 
Cuba's erroneous and misleading claim that this arms shipment was 
allowed under U.N. Security Council resolutions.
    In more concrete terms, Cuba has suffered a disrupted commercial 
transaction, with various costs due to the seizure of approximately 240 
tons of arms and related materiel (these items were not returned).
    Going forward, we intend to ensure that the Security Council, the 
DPRK Sanctions Committee and the U.N.'s Panel of Experts (POE) continue 
to subject Cuba to extra scrutiny in light of this incident. We will 
continue to advocate for sharp committee responses and clear rebukes to 
Cuba for its role in this violation.

  <diamond> (b) If confirmed, would you support publicly revealing the 
        names of North Korean and Cuban officials, as well as entities, 
        involved in these violations and included in the report's 
        confidential annex? Please explain.

    Answer. The United States generally supports the public release of 
U.N. sanctions Panel of Expert reports to their respective committees, 
but such reports are confidential. The committee can agree, by 
consensus, to publish these reports or otherwise release certain 
information included in them.
    Last winter, the United States proposed that the committee release 
information contained in the POE's confidential incident report. 
Certain members of the committee, however, objected to our proposal.
    While we are bound by confidentiality rules, we continue to pursue 
ways to secure the release of more information that could help member 
states implement the U.N. sanctions, as well as to examine additional 
steps under domestic authorities or bilaterally with other member 
states to achieve that same objective.

  <diamond> (c) If confirmed, would you recommend designating under 
        U.S. law all officials and entities involved in these 
        violations?

    Answer. Imposing sanctions on sanctions violators can be an 
important tool to improve enforcement of these measures.
    On July 28, 2014, the U.N. Security Council DPRK Sanctions 
Committee designated Ocean Maritime Management Company, Limited (OMM), 
the operator/manager of the vessel Chong Chon Gang, for a targeted 
asset freeze. On July 30, 2014, the Treasury Department imposed 
sanctions on Chongchongang Shipping Company and Ocean Maritime 
Management Company, the two North Korean companies that attempted to 
import a concealed shipment of arms and related materiel from Cuba to 
the DPRK aboard the DPRK-flagged cargo vessel Chong Chon Gang in July 
2013. The Treasury Department also identified as blocked property 18 
vessels in which these companies have an interest, including the Chong 
Chon Gang. These designations and identifications were made pursuant to 
Executive Order (E.O.) 13551, which blocks the property of persons who, 
among other things, have attempted to import arms or related materiel 
into the DPRK.
    Although the Treasury Department cannot comment on other pending or 
possible investigations, it has maintained a comprehensive sanctions 
program against Cuba since 1963, under which all Cuban entities and 
individuals are blocked, pursuant to 31 C.F.R. part 515.
    Should we uncover information sufficient to pursue sanctions 
against any additional individuals or entities involved in the Chong 
Chon Gang incident, I would certainly support and encourage such action 
wherever appropriate.
                                 ______
                                 

        Responses of Ambassador John Francis Tefft to Questions 
                  Submitted by Senator James E. Risch

    Question. We have known for months about Russia's violation of the 
INF Treaty, but it took almost a [year to] officially acknowledge the 
violation and brief NATO. Why did it take so long to inform our friends 
of this violation? Now that the administration has acknowledged the 
violation, what do you believe is your role in improving Russia's 
compliance with INF and other international arms treaties? Will you 
provide a copy of the letter President Obama sent to President Putin?

    Answer. When specific questions arise about a country's treaty 
implementation, decisions can only be made about whether those issues 
constitute noncompliance after a careful, fact-based process, which 
includes diplomatic work and thorough interagency consideration.
    We believe that the treaty benefits the security of the United 
States, our allies, Russia, and the other 11 States Parties to the 
treaty. For that reason, we will make every effort to get Russia to 
return to compliance with its obligations and to ensure the continued 
viability of the treaty.
    We can confirm that the President did send Putin a letter on this 
issue; however, it is a long-standing practice across administrations 
not to share diplomatic exchanges. We will continue to keep Congress 
informed on these issues and will work to address Members' concerns 
through appropriate channels.

    Question. Yesterday an international tribunal determined that 
Russia expropriated Yukos Oil Company and owes over $50 billion to the 
majority shareholders in Yukos. I understand this is the third 
international tribunal to determine that Russia expropriated Yukos and 
must pay compensation. Yet American investors lost over $12 billion and 
have received no compensation. Americans do not benefit from today's 
decision, unless the State Department informs Russia that it expects 
compensation for its citizens as well.

    Answer. The decision announced this week in an arbitration brought 
against Russia by the majority Yukos shareholders does not directly 
impact U.S. investors, who do not benefit from an applicable treaty 
through which to bring their claims directly against Russia. The United 
States is not a party to the Energy Charter Treaty, under which this 
arbitral award was rendered.
    However, the Department will study the decision carefully and 
determine how it, and the underlying evidence presented in that case, 
might be helpful in the Department's consideration of the complex legal 
and factual issues presented by the U.S. investor claims. If confirmed 
I will continue to follow up on this case.

    Question. Congress has directed the State Department and USTR to 
report on their advocacy for U.S. investors in Yukos Oil Company, but 
little has been done. As Ambassador, what steps would you take to press 
Russia to fulfill its obligation to compensate these American 
investors?

    Answer. Promoting the fair treatment of U.S. investors in Russia is 
a top priority, which was also the intent of Congress in including a 
Yukos provision in the Russia and Moldova Jackson-Vanik Repeal and 
Sergei Magnitsky Rule of Law Accountability Act of 2012.
    The Department of State has been closely following the Yukos 
matter, and has raised it with the Russian Government on numerous 
occasions, including demarches to the Ministry of Economic Development, 
the Ministry of Foreign Affairs and the Russian Ambassador in 
Washington. The Department will look for opportunities to continue to 
advocate for U.S. investors in Yukos, as appropriate, under the current 
political circumstances.

    Question. Do you believe harassment of U.S. Embassy personnel is a 
serious issue at U.S. diplomatic facilities in Russia? What steps will 
you take to reduce the level of harassment? Will you commit to 
reviewing the role of Foreign Service nationals at U.S. diplomatic 
facilities in Russia, especially among the security personnel?

    Answer. The protection and security of the personnel working at our 
diplomatic facilities is of the highest priority.
    Where harassment may exist, I will do everything in my power to 
advocate on behalf of all of our personnel stationed in Russia, and to 
raise the issue with the Russian Government wherever prudent. We will 
pursue cooperation with local and national law enforcement bodies when 
possible, and I will work closely with the mission's security experts 
on our security and safety practices.
    The Department also takes the question of Foreign Service nationals 
seriously and would be available to discuss in a classified setting.

    Question. Do you believe it is vital that U.S. diplomatic 
facilities in Russia contain spaces to conduct classified discussions 
and briefings? Will you to push upgrade and improve these capabilities 
at U.S. consulates in Russia?

    Answer. We are committed to ensuring that the U.S. mission to 
Russia is able to fully carry out its duties, including classified 
meetings and discussions.
    The Department will continue to review the status of our diplomatic 
facilities in Russia to determine if any upgrades are necessary.

 
NOMINATIONS OF WILLIAM V. ROEBUCK; JUDITH BETH CEFKIN; BARBARA A. LEAF; 
                       AND PAMELA LEORA SPRATLEN

                              ----------                              


                     WEDNESDAY, SEPTEMBER 10, 2014

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

William V. Roebuck, of North Carolina, to be Ambassador to the 
        Kingdom of Bahrain
Judith Beth Cefkin, of Colorado, to be Ambassador to the 
        Republic of Fiji, and to serve concurrently and without 
        additional compensation as Ambassador to the Republic 
        of Kiribati, the republic of Nauru, the Kingdom of 
        Tonga, and Tuvalu
Barbara A. Leaf, of Virginia, to be Ambassador the United 
        States of America to the United Arab Emirates
Pamela Leora Spratlen, of California, to be Ambassador to the 
        republic of Uzbekistan
                              ----------                              

    The committee met, pursuant to notice, at 10:33 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Tim Kaine, 
presiding.
    Present: Senators Kaine, Murphy, Risch, Rubio, and McCain.

             OPENING STATEMENT OF HON. TIM KAINE, 
                   U.S. SENATOR FOR VIRGINIA

    Senator Kaine. This meeting of the Senate Foreign Relations 
Committee is called to order.
    We have the fortune today to be conducting this hearing 
concerning the nominations of four long-time public servants to 
important ambassadorial posts.
    Senator Risch, the ranking member on the Committee on Near 
East, South, and Central Asia, is en route and has indicated he 
does not want to delay the beginning of this hearing, so we 
will begin.
    I will do introductions of the four nominees before us.
    Following, each will give opening statements. Try to keep 
those to 5 minutes or less. And we will then get into 
questions. I have a number of questions for each of you, and I 
am sure other Senators who attend will, as well.
    The nominees today are William ``Bill'' Roebuck, who is a 
career member of the Senior Foreign Service, class of 
counselor, and currently serves as the Deputy Assistant 
Secretary for Egypt and Maghreb Affairs in the Bureau of Near 
Eastern Affairs of the Department of State. Mr. Roebuck has 
served in a variety of positions during his career as a Foreign 
Service officer, at State Department HQ, but also in Libya, 
Iraq, Israel, Syria, Jamaica. Prior to serving in the Foreign 
Service, he was a Peace Corps Volunteer in Cote d'Ivoire.
    Barbara Leaf is a career member of the Senior Foreign 
Service, class of minister counselor, and currently serves as 
Deputy Assistant Secretary for the Arabian Peninsula overseeing 
relations with the Gulf in Yemen and 10 other diplomatic posts. 
Ms. Leaf has served in a number of positions within State 
Department HQ, but also at Iraq, Italy, Bosnia, Herzegovina, 
France, Egypt, Israel, and Haiti.
    Thank you, Ms. Leaf.
    Judith Cefkin is a career member of the Senior Foreign 
Service, class of minister counselor, and currently a senior 
advisor for Burma in the Bureau of East Asian and Pacific 
Affairs at the Department of State, a position she has held 
since 2013. She has served previously in positions in main 
State, but also Bangkok, Bosnia, Herzegovina, the Philippines, 
and France.
    And finally, Pamela Spratlen is a career member of the 
Senior Foreign Service, class of minister counselor, and 
currently is U.S. Ambassador to Kyrgyzstan. She has served 
previously in positions in Russia and Kazakhstan.
    And, Ambassador Spratlen, welcome.
    The nominees are all people with tremendous public-service 
background. And I will just say to each of you, I just returned 
with five other Members of Congress from a 9-day CODEL in 
Tunisia, Morocco, and Spain, where we interacted, not only with 
the Ambassadors in each of the countries, but one of the things 
I do when I travel is, I always try to have a roundtable 
discussion with first- or second-term FSOs to talk about their 
lives and hear about their excitement in representing the 
United States, but also the challenges, and especially 
challenges that can exist in serving in some of the more 
difficult bits of real estate where we have embassies and 
consulates around the world. Anytime I do that, I always walk 
away with a real sense of pride in the kinds of people that we 
send. You are all nominated for capital-A Ambassador, but you 
will be working with a whole lot of small-a ambassadors. 
Everybody who represents the United States in any of these 
positions, whether it is a consular officer or anybody in the 
Department of State, or whether it is somebody who is working 
for an agency like the DEA or the Department of Commerce or, 
you know, any other agency--Ex-Im Bank, where we have people 
abroad--they are small-a ambassadors for the United States, and 
we have a superb team of people who sacrifice and serve. And I 
am always struck by that when I travel.
    So, thank you for your commitment to service. 
Congratulations on being nominated for the positions--Mr. 
Roebuck for Ambassador to Bahrain; Ms. Leaf to Ambassador to 
the United Arab Emirates; Ms. Cefkin, Ambassador to Fiji; and 
Ambassador Spratlen to be Ambassador to Uzbekistan. 
Congratulations on those nominations. We will do all we can to 
move them promptly.
    And what I would like to do is now start with opening 
statements. And why do I not just start with Mr. Roebuck, and 
then we will move across the table.

STATEMENT OF WILLIAM V. ROEBUCK, OF NORTH CAROLINA, NOMINEE TO 
            BE AMBASSADOR TO THE KINGDOM OF BAHRAIN

    Mr. Roebuck. Thank you, Chairman Kaine. Thank you for the 
opportunity to appear before you today as President Obama's 
nominee to be the U.S. Ambassador to the Kingdom of Bahrain. It 
is a great honor as well as a dream of every Foreign Service 
officer to be in this position.
    Mr. Chairman, with your permission, I would like to include 
my full statement for the record. I will just make a brief oral 
statement----
    Senator Kaine. All of your statements will be included for 
the record.
    Mr. Roebuck. Thank you.
    I would like to start by acknowledging my wife, Ann, 
without whom I am quite confident I would not be sitting in 
this chair today. She and my son, William, who could not be 
here because he just began his freshman year at the College of 
Charleston last week, they both accompanied me on many 
challenging assignments overseas and provided invaluable 
support.
    Those challenging assignments have included, as you 
mentioned, Senator Kaine, Jerusalem, Gaza, Damascus, Baghdad, 
and Tripoli, where I fostered political dialogue, helped 
governments address threats posed by violent extremism, 
promoted and protected human rights, supported elections, and 
encouraged regional security efforts between neighbors. I 
believe those experiences have seasoned me as a diplomat and 
positioned me well to take on this challenging assignment, if 
confirmed. I have also had great mentors in the Foreign Service 
who have ensured that I drew the right lessons from those 
challenging experiences.
    Mr. Chairman, the United States and Bahrain have long 
shared important mutual interests demonstrated through our 
history of close bilateral cooperation, which we deeply value. 
Bahrain and the United States share key strategic goals 
reflected by the fact that our security relationship has grown 
over the years. Today, more than 8,000 Americans who are 
attached to the Fifth Fleet and to U.S. Naval Forces Central 
Command live and work there. Although we took the decision to 
limit certain aspects of our security cooperation following the 
unrest in Bahrain in 2011, our military relationship with 
Bahrain remains fundamentally strong and mutually beneficial. 
If confirmed, I look forward to working with the Government of 
Bahrain and with my colleagues at the Department of Defense to 
ensure that our security partnership remains strong.
    While mutual concerns about regional stability motivate our 
close cooperation on security matters, we also have a strong 
foundation to build on in the areas of trade and finance. 
Bahrain has one of the most open economies in the region, and 
our bilateral trade has doubled to nearly $2 billion a year 
since our Free Trade Agreement entered into force in 2006.
    With respect to the political situation in Bahrain, we 
encourage all of Bahrain's constituencies to work in good faith 
to develop a broad consensus on addressing the underlying 
social and economic grievances that drove the protest of 2011. 
We think that a successful political compromise that allows 
these political societies to participate in upcoming elections 
would be the surest signal of Bahrain's progress toward reform 
and reconciliation. I believe strongly that a country that 
protects and promotes human rights will ultimately be a more 
stable country and a more effective security partner. If 
confirmed, I will make a strong case, both publicly and 
privately, to explain why political dialogue, reform, and 
promoting human rights are in Bahrain's long-term interest. The 
recent expulsion by Bahrain of a senior American diplomat was a 
significant setback in this regard. If confirmed, I will work 
to ensure that we continue to have an open and honest dialogue 
with Bahrain on the full range of issues affecting our 
bilateral relationship, including human rights.
    Finally, should I be confirmed as Ambassador, protecting 
U.S. citizens in Bahrain will be one of my highest priorities. 
I have served at a number of high-threat posts, where security 
for Americans was a critical priority, most recently as Charge 
d-Affaires at our Embassy in Libya, and I know the type of team 
effort that is required with the Embassy Country Team, with 
local security officials, and with the broader American 
community.
    The United States/Bahrain relationship has translated into 
economic, social, political, and cultural benefits for the 
people of both countries. If confirmed, I will work to ensure 
that Bahrain can continue to rely on the United States and that 
we can continue to rely on Bahrain as an effective partner.
    Thank you again for the opportunity to testify before you. 
I am pleased to answer any questions you may have.
    [The prepared statement of Mr. Roebuck follows:]

                Prepared Statement of William V. Roebuck

    Chairman Kaine, Ranking Member Risch, and members of the committee, 
thank you for the opportunity to appear before you as the President's 
nominee to be the U.S. Ambassador to the Kingdom of Bahrain. It is a 
great honor, as well as the dream of every Foreign Service officer, to 
appear before you today. I am extremely grateful to President Obama and 
Secretary Kerry for the confidence they have shown in me. If confirmed, 
I look forward to representing the American people, and to working with 
this committee and other interested Members of Congress to advance U.S. 
interests with Bahrain.
    I have spent most of my career posted in the Middle East, including 
assignments in Jerusalem, Gaza, Damascus, Baghdad, and Tripoli, 
fostering political dialogue, providing support for elections, helping 
governments address the threats posed by terrorism and violent 
extremism, promoting and protecting human rights, and encouraging 
regional security efforts between neighbors, I believe those 
experiences have seasoned me as a diplomat and positioned me well to 
take on this challenging assignment.
    Mr. Chairman, the United States and Bahrain have long shared mutual 
interests in regional security, demonstrated through our history of 
close bilateral cooperation and partnership. We deeply value this 
friendship, rooted in the history of our two peoples dating back to the 
early years of the 20th century. If confirmed, I will work to maintain, 
expand, and deepen this partnership, while also continuing our support 
for King Hamad's efforts to bring reform, political dialogue, and 
reconciliation to Bahrain. My experience teaches me that these 
priorities are not mutually exclusive--in fact, I think they are 
inextricably linked. This approach will strengthen Bahrain's long-term 
security, stability, and prosperity.
    Bahrain and the United States share key strategic goals, reflected 
by the fact that our security relationship has grown over the years. 
Our Navy arrived in Bahrain during the 1940s, and today more than 8,000 
Americans who are attached to the Fifth Fleet or U.S. Naval Forces 
Central Command live there. We work closely with the Bahraini Defense 
Forces, in particular their Navy and Air Force, on a range of fronts, 
including counterterrorism and antipiracy operations. Bahrain has 
pledged to help fight terrorists in Iraq and Syria; welcomed the 
appointment of Iraqi Prime Minister designate Al-Abadi; deployed its 
navy and ground forces in support of Operation Enduring Freedom; 
commanded the coalition task force responsible for maritime security in 
the gulf; and sent air, ground, and naval assets to Kuwait in support 
of Operation Iraqi Freedom.
    Although we took the decision to limit certain aspects of our 
security cooperation following the unrest in Bahrain in 2011, our 
military relationship with Bahrain remains fundamentally strong and 
mutually beneficial. If confirmed, I will look forward to collaborating 
with the Government of Bahrain and my colleagues at the Department of 
Defense to help Bahrain develop its defense capabilities to provide for 
its own defense, and to improve interoperability with our forces. Going 
forward, the U.S.-GCC Strategic Cooperation Forum, launched jointly in 
2012 by Secretary Clinton and the GCC Secretary General, will be an 
important mechanism by which I hope to make progress on our partnership 
with Bahrain, addressing air defense, maritime security, cyber attacks, 
and other threats.
    The State Department provides counterterrorism and critical 
incident response training for the Bahraini law enforcement units that 
provide security for U.S. naval facilities and the U.S. Embassy, and 
that act as Bahrain's primary internal security force. Bahrain is also 
a valuable partner in disrupting illicit finance flows to terrorist 
organizations. Bahrain hosts the Secretariat for the Middle East and 
North Africa Financial Action Task Force, a regional body that 
coordinates efforts against terrorist finance. In addition, Bahrain is 
a member of the Egmont group, the international coordinating body for 
Financial Intelligence Units, which facilitates global cooperation in 
the fight against terrorist financing. If confirmed, I will continue to 
prioritize our close counterterrorism partnership with Bahrain.
    While mutual concerns about regional stability motivate our close 
cooperation in security matters, we also have a strong foundation to 
build upon in the area of trade, and financial cooperation.
    Bahrain is one of the most open economies in the Middle East/North 
Africa region and shows a continued commitment to economic 
diversification and reform. Bilateral trade last year reached $1.7 
billion--more than double the levels since before the free trade 
agreement entered into force in 2006. More American companies are 
setting up shop in Bahrain every year. Consistent with the President's 
National Export Initiative and Secretary Kerry's directive that we 
improve our effectiveness at economic and commercial diplomacy, if 
confirmed, I will ensure that all our Embassy's agencies and sections 
understand the priority we place on commercial diplomacy and that they 
are working closely with stateside offices to vigorously promote the 
export of U.S. manufactured goods, services, and farm products to this 
important market. If confirmed as Ambassador, I would also seek to 
encourage more Bahraini students to study at U.S. colleges and 
universities.
    Let me say a few words about the political situation in Bahrain: We 
encourage all of Bahrain's constituencies to work in good faith to 
develop a broad consensus on how to address underlying social and 
economic grievances that drove the protests of 2011. We think that a 
successful political compromise that allows these political societies 
to participate in the upcoming elections would be the surest signal of 
Bahrain's progress toward reform and reconciliation.
    The Government of Bahrain has made some important strides in 
implementing the Bahrain Independent Commission of Inquiry 
recommendations to advance a reform and reconciliation agenda. For 
instance, the government has created a victims compensation fund that 
has distributed about $6 million to the families of 39 victims of the 
2011 violence and appointed an ombudsman to the Ministry of Interior. 
It is important to acknowledge King Hamad's leadership in initiating 
the Bahrain Independent Commission of Inquiry, for accepting the 
recommendations put forward in the report, and for committing to 
implement reforms. The government has more to do on a range of BICI 
recommendations.
    I believe that a country that protects and promotes human rights 
will ultimately be a more stable country and a more effective security 
partner. If confirmed, I will make a strong case both publicly and 
privately for why political dialogue, reform, and promoting and 
protecting human rights are in Bahrain's long-term interest. The recent 
expulsion by Bahrain of a senior American diplomat was a significant 
setback in this regard. If confirmed, I will work to ensure that we 
continue to have an open and honest dialogue with Bahrain on the full 
range of issues affecting our bilateral relationship, including human 
rights.
    Finally, Mr. Chairman, should I be confirmed as Ambassador, 
protecting U.S. citizens in Bahrain will be one of my highest 
priorities. In the course of my career, I have served at a number of 
high-threat posts, where security for Americans was a critical 
priority. I served recently for 6 months as Charge d'Affaires at our 
Embassy in Libya, where I worked closely with my regional security 
officer and his team, and ensured close coordination with local law 
enforcement and with the American business community outside the 
Embassy. I understand that the safety and security of American citizens 
is a critical priority and I believe my experiences as a diplomat in 
the region have equipped me well to address this issue effectively.
    The U.S.-Bahrain relationship has translated into economic, social, 
political, and cultural benefits for the people of both countries. I am 
committed to further building up these vital partnerships in the 
Kingdom and further solidifying our unique relationship that is based 
on mutual respect and a long history of consultation between friends. 
If confirmed, I will work to ensure that Bahrain can continue to rely 
on the United States and that we can continue to rely on Bahrain as an 
effective partner.
    Thank you again for this opportunity and I will be pleased to 
answer any questions you may have.

    Senator Kaine. Thank you, Mr. Roebuck.
    Ms. Cefkin.

  STATEMENT OF JUDITH BETH CEFKIN, OF COLORADO, NOMINEE TO BE 
 AMBASSADOR TO THE REPUBLIC OF FIJI, AND TO SERVE CONCURRENTLY 
   AND WITHOUT ADDITIONAL COMPENSATION AS AMBASSADOR TO THE 
  REPUBLIC OF KIRIBATI, THE REPUBLIC OF NAURU, THE KINGDOM OF 
                       TONGA, AND TUVALU

    Ms. Cefkin. Mr. Chairman and members of the committee, I am 
deeply honored to appear before you today as the President's 
nominee to be the United States Ambassador to the Republic of 
Fiji, the Republic of Kiribati, the Republic of Nauru, the 
Kingdom of Tonga, and Tuvalu. I am grateful to the President 
and Secretary for their confidence in nominating me for this 
position, and I am equally grateful to receive your 
consideration.
    With the chairman's permission, I would like to introduce 
my husband, Paul Boyd, who is also a Foreign Service officer. 
He has just capped over 40 years of public service, including 
combat service with U.S. Special Forces, work in law 
enforcement, and, for the past 30 years, we have shared the 
adventure of the Foreign Service.
    Senator Kaine. And where is Paul? Thank you.
    And where is Ann? Is Ann here with you, Bill?
    Thank you both. I just wanted to make sure I know who you 
are. Thank you.
    Ms. Cefkin. Thank you.
    My Foreign Service experience has taught me the power of 
our country's values-based diplomacy. If confirmed, I will 
relish the opportunity to draw on the lessons of my many years 
of regional policy experience also to advance U.S. strategic 
interests in the South Pacific.
    As a Pacific nation, the United States shares an important 
history with our Pacific Island nations. We also share a common 
destiny. This is reflected in President Obama's rebalance to 
the Asia-Pacific region. If confirmed, I look forward to 
working in partnership with the five nations to which I would 
be accredited to seek to ensure that our common future is one 
of prosperity, peace, stability, and human fulfillment.
    Perhaps nowhere is the need for this focus more compelling 
than on the waters that bind us, those of the mighty Pacific 
Ocean. As Secretary Kerry noted when he organized the recent 
Oceans Conference, our oceans facilitate our trade and provide 
much of the food we eat, and even the air we breathe. Yet, 
today Kiribati, Tuvalu, Nauru, Tonga, and Fiji face dramatic 
challenges related to rising sea levels, ocean warming and 
acidification, marine pollution, and overfishing. These 
challenges threaten the very existence of them, these 
populations. They also threaten broader global commerce and 
food security, issues that directly impact the United States. 
If confirmed, I will strive to advance solutions to improve 
regional environmental management, support adaptation projects, 
and promote sustainable fisheries methods.
    The Pacific Islands are global players. Both Fiji and Tonga 
have been important contributors to international peacekeeping 
operations. We also work closely with Kiribati, Nauru, Tuvalu, 
and Tonga in the U.N. They take very seriously their 
responsibilities in that forum.
    Furthermore, Fiji plays an important role in the Pacific 
region as a hub for commerce, diplomacy, academic affairs, 
transportation, and communications. And Suva is headquarters 
for the Pacific Island Forum and the Secretariat for the 
Pacific Community regional offices. If confirmed, I look 
forward to continuing to build this regional and global 
cooperation.
    Success in tackling our common regional and global 
challenges will depend on fostering internal strength of our 
Pacific Island partners that comes from strong democratic 
institutions, rule of law, and respect for human rights. The 
Pacific islanders share our values, but realizing them, in 
practice, has been challenging. We are encouraged that, after 8 
years of a coup-installed military regime, Fiji is scheduled to 
hold elections next week that offer the hope for a return to 
democratic governance. If confirmed, I will take great 
satisfaction in working to build foundations of democracy and 
good governments through all means available to us.
    Embassy Suva is responsible for the United States largest 
geographic consular district in the world. At the same time, 
the region is challenged by frequent natural disasters. If 
confirmed, I will make emergency preparedness and attention to 
support for American citizens a priority focus.
    My career at the State Department has taught me that our 
people are our most precious resource. If confirmed, it will be 
my privilege to lead Embassy Suva's diverse and dedicated team 
of American and local staff and support our 85 Peace Corps 
Volunteers who are in Fiji and Tonga, and I will work 
diligently to ensure our mission community's safety and 
security and to advance the professional enrichment of every 
member of our team.
    Thank you for the opportunity to appear before you today 
and for considering my nomination. If confirmed, I pledge to 
work closely with Congress to realize the full potential of our 
Pacific partnerships. It would be my pleasure to answer any 
questions that you have.
    [The prepared statement of Ms. Cefkin follows:]

                 Prepared Statement of Judith B. Cefkin

    Mr. Chairman and members of the committee, I am deeply honored to 
appear before you today as the President's nominee to be United States 
Ambassador to the Republic of the Fiji Islands, the Republic of 
Kiribati, the Republic of Nauru, the Kingdom of Tonga, and Tuvalu. I am 
grateful to the President and the Secretary for their confidence in 
nominating me for this position, and I am equally grateful to receive 
your consideration.
    With the chairman's permission, I would like to introduce my 
husband, Paul Boyd. Paul, who is also a Foreign Service officer, has 
just returned from his assignment in Seoul, Korea. With this 
assignment, Paul has capped over 40 years of public service, including 
combat service with the U.S. Special Forces and 9 years as a police 
officer. For the past 30 years, we have shared the adventure of the 
Foreign Service.
    As a Foreign Service officer I have been privileged to serve in a 
varied and fascinating mix of assignments touching on practically every 
region of the world. Certainly, the Asia-Pacific region has been a 
cherished area of focus, and much of my career has been dedicated to 
issues of countries in transition, striving to advance democratic and 
economic development. In my current position as senior advisor for 
Burma, I have been honored to work closely with Congress to elaborate 
strategies to expand freedom and opportunity for the people of Burma as 
they navigate a historic transition.
    As Deputy Chief of Mission in Thailand, I took pride in motivating 
collaboration among a diverse and dynamic 3,000-person interagency team 
to enhance Bangkok's position as a regional platform supporting 
programs and operations throughout Asia. And as Deputy Chief of Mission 
in Bosnia and Herzegovina, it was gratifying to guide U.S. initiatives 
to cement the peace established by the Dayton Accords and encourage 
Bosnia's path toward integration in Euro-Atlantic institutions.
    My experience has taught me the power of our country's values-based 
diplomacy. If confirmed, I will relish the opportunity to draw on these 
lessons and my many years of regional policy experience to advance the 
United States strategic interests in the South Pacific.
    The United States is a Pacific nation. We share an important 
history with the Pacific Island nations. We also share a common 
destiny. This is reflected in President Obama's rebalance to the 
dynamic Asia-Pacific region. If confirmed, I look forward to working in 
partnership with the five nations to which I would be accredited to 
seek to ensure that our common future is one of prosperity, peace and 
stability, and human fulfillment.
    Perhaps nowhere is the need for this focus more compelling than on 
the waters that bind us--those of the mighty Pacific Ocean. As 
Secretary Kerry noted when he organized the recent Oceans Conference, 
our oceans facilitate our trade and provide much of the food we eat and 
even the air we breathe. This is abundantly true for the Pacific. Yet, 
today, Kiribati, Tuvalu, Nauru, Tonga, and Fiji face dramatic 
challenges related to rising sea levels, ocean warming and 
acidification, marine pollution, illegal, unreported, and unregulated 
fishing, and overfishing. These challenges threaten the very existence 
of some of their populations. They also threaten broader global 
commerce and food security--issues that directly impact the United 
States. If confirmed I will strive to advance solutions to improve 
regional environmental management, support adaptation projects, and 
promote Exclusive Economic Zones' surveillance arrangements and 
sustainable fisheries methods.
    The Pacific Island nations are global players. Both Fiji and Tonga 
have been important contributors to international Peacekeeping 
Operations. Fijian forces are currently participating in the U.N. 
Disengagement Observer Force mission in the Golan, the Multinational 
Force and Observers mission in the Sinai, and the U.N. Assistance 
Mission in Iraq, where they are responsible for providing security for 
mission personnel and facilities. Tonga was an early member of the 
Coalition to liberate Iraq, and until April of this year provided 
security at Camp Bastion in Afghanistan. Kiribati, Nauru, and Tuvalu 
are also committed to their responsibilities as U.N. members, and the 
United States cooperates closely with them on a wide range of issues in 
that forum. Furthermore, Fiji plays many important roles in the Pacific 
region as a hub for commerce, diplomacy, and academic affairs as well 
as transportation and communications. Suva is home to the University of 
the South Pacific and the headquarters of the Pacific Islands Forum, 
the preeminent multilateral organization in the region. It is also home 
to regional offices of the Secretariat of the Pacific Community, which 
manages technical and development programs throughout the Pacific. If 
confirmed, I look forward to continuing to build this regional and 
global cooperation.
    Success in tackling our common regional and global challenges will 
depend on fostering the internal strength of our Pacific Island 
partners that comes from strong democratic institutions, rule of law, 
and respect for human rights. The Pacific Islanders share our respect 
for democratic values, but realizing those values in practice has been 
challenging, most notably in Fiji and to varying degrees in the other 
countries as well. We are encouraged that after 8 years of a coup-
installed military regime, Fiji is scheduled to hold elections on 
September 17 that offer the hope of return to democratic governance. 
The Kingdom of Tonga, which has also made progress toward a more 
representative form of government, holds its elections later this year. 
If confirmed, I will take great satisfaction in working to build 
foundations of democracy and good governance through all means 
available to us, including by expanding people-to-people ties and 
nurturing civil society. And as a special personal priority, I will 
champion efforts to combat violence against women--sadly, a challenge 
with which all too many South Pacific women struggle.
    Embassy Suva is responsible for the United States largest 
geographic consular district in the world--over 2 million square miles. 
In addition to Fiji, Kiribati, Nauru, Tonga, and Tuvalu, that includes 
French Polynesia, New Caledonia, and Wallis and Futuna. An estimated 
45,000 American Citizens are resident in these countries and 
territories and 30,000 more are estimated to visit each year to enjoy 
the region's wealth of natural wonders and rich cultural diversity. At 
the same time the region is challenged by almost yearly cyclones, 
floods, and tsunami warnings. If confirmed, I will make emergency 
preparedness and attention to support for American citizens a priority 
focus.
    My career at the State Department has taught me that our people are 
our most precious resource. If confirmed, it will be my privilege to 
lead Embassy Suva's diverse and dedicated team of American and local 
staff and to support our 85 Peace Corps Volunteers who are serving in 
Fiji and Tonga. I will work diligently to ensure our mission 
community's safety and security and to advance the professional 
enrichment of every member of our team.
    Thank you for the opportunity to appear before you today and for 
considering my nomination. If confirmed, I pledge to work closely with 
this committee and others in Congress to realize the full potential of 
our Pacific partnerships. It would be my pleasure to answer any 
questions that you might have.

    Senator Kaine. Thank you very much, Ms. Cefkin.
    Ms. Leaf.

   STATEMENT OF BARBARA A. LEAF, OF VIRGINIA, NOMINEE TO BE 
             AMBASSADOR TO THE UNITED ARAB EMIRATES

    Ms. Leaf. Chairman Kaine, Ranking Member Risch, members of 
the subcommittee, it is a great honor to appear before you 
today as President Obama's nominee to be Ambassador to the 
United Arab Emirates. I am deeply grateful to the President and 
Secretary Kerry for the confidence they have placed in me. If 
confirmed, I will do my very best to uphold my responsibilities 
on behalf of the U.S. Government and the American people.
    Mr. Chairman, I would like to begin by recognizing and 
thanking my family who are here today with me: my husband, 
Chris, our wonderful daughters, my mother, Madonna, my sister, 
Mary Beth, and my brother, Tim. My family's loving support and 
willingness to bear sacrifice in their own right have been 
indispensable to my ability to serve our country wherever 
needed.
    Mr. Chairman, I have spent much of my career working in or 
on the Middle East, serving in Iraq, Egypt, Tunisia, and 
Jerusalem. Most recently, I served as Deputy Assistant 
Secretary for the Arabian Peninsula, where the growing 
importance of the UAE in the region and as a foreign policy 
partner for us were driven home almost daily.
    The UAE shares many of the same interests that animate our 
own regional and international policies, and our two 
governments work closely on these shared priorities. The 
Emiratis have sent troops to Afghanistan and given nearly a 
billion dollars in aid there. On Iraq, they have provided 
substantial diplomatic and humanitarian support since 2003, and 
I believe we are about to see that reach new levels of 
cooperation as we confront ISIL together.
    The UAE remains engaged with the moderate Syrian 
opposition, pledging $360 million in humanitarian assistance. 
The UAE supports international sanctions on Iran and P5+1 
negotiations to negotiate a comprehensive solution on Iran's 
nuclear program.
    In Egypt, the Emiratis have pledged over $7 billion in aid 
and work with the Egyptian Government and the United States to 
foster economic recovery and stability there. The UAE has also 
provided a central political and financial underpinnings to 
U.S.-led efforts on the Middle East--on Middle East peace 
efforts.
    And on Libya, we share a goal of a stable democratic state, 
and we are consulting closely to synchronize our efforts.
    The UAE is a first-rate military partner, and Emirati 
troops and pilots have participated with the United States in 
five major coalition operations since 1990. Bilateral defense 
cooperation is superb. The Port of Jabel Ali is the U.S. Navy's 
busiest overseas port of call, hosting more of our ships on 
liberty calls than any other port outside of Norfolk. The 
Emirates play host to some 3,000 U.S. military personnel and 
U.S. military assets that support and undergird regional 
security.
    Our bilateral trade is an especially vital part of the 
relationship. The UAE is the largest market for U.S. goods and 
services in the Middle East, with a trade surplus of over $22 
billion last year, our third-largest globally. Over 1,000 
American firms have regional headquarters in the Emirates, 
working in petroleum, defense, education, and health care.
    The UAE is also a regional leader on energy diversification 
and met the gold standard in 2009 on nonproliferation when it 
signed a 30-year 1-2-3 Agreement with the United States that 
opened the door to partnering with us on civil nuclear 
technology. In doing so, the Emirates took on a voluntary 
obligation to forgo domestic uranium enrichment and nuclear 
fuel reprocessing. They will rely on international markets for 
fuel for the four nuclear power plants they are constructing.
    One of the Emirates' most noteworthy human capital 
investments is the drive to bring women into all levels of 
government and business. Women make up 70 percent of university 
graduates today. They are training as military pilots. And, 
increasingly, they fill key diplomatic and government 
positions. Four Cabinet Members are women. The UAE stands out 
in the region in recognizing it cannot realize its potential 
without the full participation of half of its citizenry.
    The United States works closely with the UAE on human 
rights and countering trafficking in persons. And, while it 
does not fully comply with the minimum standards for the 
elimination of trafficking, it is making significant efforts to 
do so: prosecuting cases, funding shelters for victims, and 
implementing public awareness campaigns. That said, there is 
more work to be done on these and other human rights issues.
    In the wake of the region's 2011 revolutions, we have seen 
the UAE act against certain civil society organizations and 
curtail certain activities of individuals. The UAE views the 
forces of extremism that stalk the region today as the 
preeminent threat to the modern, moderate, forward-looking 
country built with breathtaking speed and success by the 
country's founding father, Sheikh Zayed bin Sultan Al Nahyan. 
But, in defense of that project, the UAE Government has 
periodically encroached on its citizens' freedoms of expression 
and association. If confirmed, I pledge to engage in a 
productive and candid dialogue on these issues, working from 
the core values and democratic principles that define America.
    In closing, Mr. Chairman, there is no question that the 
United States has a deeply committed foreign policy and 
security partner in the UAE. If confirmed, I pledge to work 
with its government to promote our national security and a more 
stable and prosperous Middle East. I will advocate aggressively 
for U.S. companies.
    And, finally and most importantly, more than 50,000 
American citizens make the UAE their home, in addition to our 
own diplomatic and military personnel. If confirmed, I pledge 
to do my utmost to protect the safety and security of the 
dedicated men and women at our mission, as well as that of all 
Americans living, working, or traveling in the UAE.
    I appreciate the committee's oversight of our mission in 
the United Arab Emirates, and, if confirmed, look forward to 
hosting members and staff there.
    Thank you for letting me appear today before you, and I 
would be happy to take your questions.
    [The prepared statement of Ms. Leaf follows:]

                 Prepared Statement of Barbara A. Leaf

    Chairman Kaine, Ranking Member Risch, members of the subcommittee, 
it is a great honor to appear before you today as President Obama's 
nominee to serve as Ambassador to the United Arab Emirates. I am deeply 
humbled and grateful to the President and Secretary Kerry for the 
confidence they have placed in me. If confirmed, I will do my best to 
live up to their trust and to work as closely as possible with this 
committee to carry out my responsibilities on behalf of the U.S. 
Government and the American people.
    Mr. Chairman, with your permission I would like to submit my full 
statement for the record and begin by expressing my enormous 
appreciation for the support of my family, who are here today with me: 
my husband, Chris, and our two wonderful girls. Suffice to say that 
that my family's loving support and willingness to bear sacrifice in 
their own right have been indispensable to my ability to carry out my 
responsibilities as a Foreign Service officer. I would also like to 
thank my mother, Madonna, and sister, Mary Beth, who have joined us 
today.
    Mr. Chairman, I have spent much of my career working in or on the 
Middle East, including in assignments in Iraq, Egypt, Tunisia, and 
Jerusalem. Most recently I served as Deputy Assistant Secretary for the 
Arabian Peninsula, where the growing importance of the UAE in the 
region, as well as its critical value as a foreign policy partner for 
the U.S., were driven home almost daily.
    The UAE is a young nation gifted with extraordinary resources and 
ambitions to match. It is a country that benefited early on from the 
region's oil wealth, but one which took a longer view of what success 
would look like, committing to economic diversification, education of 
its people, moderate government, and global engagement. In the last 
decade in particular, the UAE's role on the world stage has evolved 
accordingly, as it has increasingly demonstrated leadership in 
grappling with global issues such as violent extremism, illicit trade 
and proliferation, and poverty. If confirmed, I pledge to broaden and 
deepen our cooperation with the UAE on these and the many other issues 
of direct national security interest to the U.S.
    The UAE shares many of the same goals and interests that animate 
our policy in the region and internationally, and our two governments 
work closely and collaboratively on these shared priorities. As a 
member of the International Security Assistance Force in Afghanistan 
since 2003, the UAE has sent troops to Afghanistan, and, in the last 5 
years alone, has contributed nearly $1 billion for humanitarian aid and 
reconstruction in that country. On Iraq, the UAE has provided 
substantial diplomatic, humanitarian, and other support to U.S.-led 
efforts, and I believe we are about to see that reach new levels; in 
2008 the UAE forgave over $7 billion in Iraqi debt, and it has 
contributed over $60 million in aid to Iraq since 2009. On Syria, the 
UAE remains engaged with the United States in supporting the Syrian 
Opposition, is an active member of the Friends of the Syrian People 
(FoSP) Core Group known as the London 11, and has pledged $360 million 
in humanitarian assistance for Syria and the region. On Iran, the UAE 
supports international efforts to implement sanctions on Iran and the 
P5+1's efforts to achieve a comprehensive solution on Iran's nuclear 
program. In Egypt, the UAE has pledged over $7 billion in loans, grants 
and in-kind goods while working with the Government of Egypt and the 
U.S. to foster economic reform there. On Libya, we share with the UAE a 
goal of a stable, democratic end state. We are consulting closely with 
the UAE on Libya, and we are continuing to make clear to all countries 
with an interest in Libya that we believe unilateral foreign 
intervention undermines the process of achieving a stable government. 
The UAE, along with other Arab League states, has played a key 
supporting role in the Middle East peace process, urging both sides to 
remain committed to achieving a durable peace. The UAE has also been a 
major provider of humanitarian assistance to the Palestinian Authority 
and in Gaza. It has been a supporter of the post-conflict 
reconstruction process in Somalia, providing extensive aid ($213 
million since 2009) and establishing formal diplomatic ties with 
Somalia in 2013. As a member of the Gulf Cooperation Council (GCC), 
which brokered the historic political transition in Yemen in 2011, the 
UAE supports the Yemeni Government's efforts to achieve peace and 
stability. The UAE is also a valued member of the multilateral Friends 
of Yemen group, and has contributed over $1.3 billion in aid to Yemen 
since 2009.
    The UAE is a strong military partner and a reliable contributor to 
coalition operations, participating in five major such efforts with the 
U.S. since Operation Desert Storm. This cooperation is only amplified 
on a bilateral basis. The port of Jebel Ali in Dubai is the U.S. Navy's 
busiest overseas port-of-call, hosting more Navy liberty ship visits 
than any other port outside of Norfolk. The UAE plays host to some 
3,000 U.S. military personnel and key U.S. military assets. The UAE is 
one of our largest Foreign Military Sales (FMS) customers, with over 90 
implemented FMS cases valued at approximately $19.2 billion. The UAE 
has actively participated in international operations to police the 
gulf and has supported U.S. forces in our various military operations 
in the region. The UAE's security partnership with the U.S. and the 
international community is not new; in 1999, the UAE was among the 
first non-NATO states to publicly support NATO's bombing campaign in 
Kosovo, and the UAE sent almost 1,500 peacekeeping and special 
operations troops to participate in the NATO-led peacekeeping mission 
there, the single largest contribution to the mission by a 
predominantly Muslim state. During Operation Desert Storm, UAE troops 
took part in the Gulf Cooperation Council's Peninsula Shield Force, 
participating in the liberation of Kuwait in March 1991; UAE forces 
also participated in international coalitions in Somalia and Libya.
    Our trade relationship with the UAE is an especially vital part of 
the bilateral relationship. The UAE is the largest market for U.S. 
goods and services in the Middle East. Our bilateral trade surplus in 
2013 was $22.3 billion, the third-largest surplus in the world for the 
United States. The United States continues to be a premier destination 
for foreign direct investment (FDI) from the UAE, with the Emirates now 
among the top 20 sources of FDI into the United States. Just as 
significantly, the UAE is a great place for American business. With its 
infrastructure and business and logistical services, the UAE has become 
the regional headquarters for over 1,000 American companies active in 
the petroleum, defense, services, education, and health care sectors. 
It has developed a leading role in business services, including finance 
and logistics, and has emerged as the preeminent business hub between 
Asia and Europe. Dubai's Emirates Airlines is the single largest 
customer for Boeing's 777 aircraft.
    The UAE is also a partner on energy policy and environmental 
responsibility. While it holds nearly 8 percent of the world's proven 
oil reserves and nearly 5 percent of proven gas reserves, the UAE has 
also sought to expand to renewable energy and is home to the newly 
established International Renewable Energy Agency. The UAE early on 
made a commitment to diversify its economy beyond fossil fuels, 
adopting long-term plans to develop its manufacturing base, services 
sector, and nonoil trade. In 2012, the UAE launched a long-term Green 
Economy Initiative, which aims to make the UAE a world leader in energy 
efficiency and environmental safety. As part of its effort to diversify 
its energy sources, the UAE is constructing four civil nuclear power 
plants, the first of which is expected to start operating in 2017, and 
is reported to be considering the construction of additional plants 
after that. U.S. companies including Westinghouse Electric and Bechtel 
are providing equipment, fuel, and design and project management 
services for the Baraka project. The vision of the UAE on 
sustainability can also be seen with the establishment of the Masdar 
Institute, which was created in cooperation with the Massachusetts 
Institute of Technology as a cutting edge institution looking at ways 
to meet the energy challenges of the future.
    In the area of nonproliferation of weapons of mass destruction, the 
UAE takes its international obligations seriously. In my own time 
working on Middle East issues, I have seen a significant evolution of 
the UAE's approach to proliferation--from a country with many informal 
and unregulated trade routes, to a global trade leader and regional 
transshipment hub that is taking meaningful steps to ensure its trade 
links are not exploited by illicit actors. Not only has the UAE 
cooperated vigorously with U.S. law enforcement on interdiction, but it 
has also helped conduct interdiction training for other gulf countries.
    In another sign of the UAE's forward-thinking support for 
international standards, in 2009 the UAE signed a nuclear cooperation 
agreement with the U.S. This 30-year agreement, which allows the UAE to 
partner with the U.S. on civil nuclear technology, includes a voluntary 
obligation by the UAE to forgo domestic uranium enrichment and nuclear 
fuel reprocessing and instead rely on existing international markets 
for nuclear fuel.
    One of the UAE's most noteworthy efforts in human capital terms is 
its effort to involve women in all levels of government and business. 
In 2012, the UAE adopted a requirement that the boards of directors of 
all UAE Government agencies and corporations must include women. 
Emirati women make up 70 percent of the UAE's university graduates 
today. Four UAE Cabinet Ministers are women--including international 
cooperation and development minister Sheikha Lubna Al Qasimi, who was 
on Forbes magazine's 2007 list of the 100 most powerful women in the 
world, along with UAE businesswoman Fatima Al Jaber. The UAE stands out 
in its recognition that it cannot realize its economic, political and 
cultural potential without the full participation of half of its 
citizens. It goes without saying that, if confirmed, I will look for 
opportunities to encourage just this kind of forward-thinking among 
Emirati leaders at all levels of society, to increase opportunities for 
women to participate fully in business, government, and society.
    The U.S. also works closely with the UAE on human rights and 
countering trafficking in persons. The UAE is working to improve its 
response to the scourge of forced labor and forced prostitution, 
particularly among the substantial foreign migrant worker population 
the country hosts. The Department's most recent congressionally 
mandated Trafficking in Persons report found that the UAE does not 
fully comply with the minimum standards for the elimination of 
trafficking, but that it is making significant efforts to do so. During 
the past year, the UAE continued to prosecute sex trafficking cases, 
fund shelters for sex trafficking victims, and implement public 
awareness campaigns.
    That said, there is more work to be done on these and other human 
rights issues. While the UAE Government provides some avenues for 
migrant workers' complaints, some forced labor victims remain 
unidentified, unprotected, and are vulnerable to being punished for 
offenses committed as a direct result of being subjected to human 
trafficking. Over the last several years, in the wake of the so-called 
Arab Spring revolutions of 2011, we have also seen the UAE act against 
certain civil society organizations, shutting down offices of 
organizations such as the National Democratic Institute and Konrad 
Adenauer Foundation, and curtailing certain activities of individuals. 
The UAE views the forces of extremism which stalk the region today as 
the preeminent threat to the modern, moderate, forward-looking country 
built with breathtaking speed and success over the last 40 years, by 
the country's founding father, Shaikh Zayed al-Nayahn. But in defense 
of that project, the UAE Government has periodically encroached on its 
citizens' freedoms of expression and association. If confirmed as U.S 
Ambassador to the UAE, I pledge to engage in a productive and candid 
dialogue on these issues, working from the core values and democratic 
principles that define America.
    As the UAE's political and economic prominence only continues to 
grow, so too must our engagement. With Abu Dhabi's growing engagement 
in some of our top foreign policy priorities including Egypt, Syria, 
and Iraq, there is no question that the United States has a serious and 
committed partner in the UAE. If confirmed, I pledge to work with the 
UAE Government to promote our foreign policy objectives and a more 
stable and prosperous Middle East.
    The UAE is ripe for increased U.S. business as Abu Dhabi invests to 
diversify beyond oil production and Dubai continues its expansion as a 
regional and global commercial hub. If confirmed as U.S. Ambassador, I 
will advocate aggressively for U.S. companies and work to find new 
export opportunities for American goods and services in the UAE.
    It goes without saying that paramount among my priorities, if 
confirmed, will be the welfare, security, and interests of all American 
citizens in the UAE. More than 50,000 American citizens make the UAE 
their home; add to that the staff in the U.S. diplomatic mission and 
U.S. military personnel in the UAE. If confirmed, I pledge to do 
everything possible to protect the safety and security of the dedicated 
men and women at our mission, as well as that of all Americans living 
and working or traveling in the United Arab Emirates.
    I appreciate and value this committee's oversight of our mission in 
United Arab Emirates. If confirmed, I look forward to welcoming the 
committee's members and staff to the UAE. Mr. Chairman, Ranking Member 
Risch, members of the subcommittee, thank you for this opportunity to 
address the committee. I would be pleased to respond to any questions 
that you may have.

    Senator Kaine. Thank you, Ms. Leaf.
    Ambassador Spratlen.

STATEMENT OF HON. PAMELA LEORA SPRATLEN, OF CALIFORNIA, NOMINEE 
         TO BE AMBASSADOR TO THE REPUBLIC OF UZBEKISTAN

    Ambassador Spratlen. Chairman Kaine, Ranking Member Risch, 
ladies and gentlemen, it is a great honor to appear before you 
today as the United States Ambassador-designate to the Republic 
of Uzbekistan.
    I am deeply grateful for the confidence President Obama and 
Secretary Kerry have entrusted in me with this nomination. If 
confirmed, I will work to strengthen bilateral relations with 
Uzbekistan and promote U.S. interests and values there. I look 
forward to working with Congress in pursuit of these goals.
    My 25 years in the Foreign Service have prepared me for 
this position. I know and appreciate the region. As the U.S. 
Ambassador to the Kyrgyz Republic, I have the opportunity to 
implement important U.S. security, human dimension, and 
development policies in a fragile democracy. As the Deputy 
Chief of Mission in Kazakhstan, I helped deepen our partnership 
with that country, a key ally during the time that it hosted 
the 2010 summit of the Organization for Security and 
Cooperation in Europe. As Director for Central Asian Affairs 
and then-Acting Deputy Assistant Secretary, I became well 
acquainted with U.S. policy priorities in Uzbekistan and played 
a role in the earliest days of the South and Central Asia 
Bureau. With the experience I have gained to date, I feel well 
prepared to tackle the challenges and seek opportunities for 
the United States in Uzbekistan.
    Uzbekistan lies at the heart of Central Asia and is the 
most populous country in the region. Since its independence 
from the Soviet Union in 1991, the United States has always 
maintained a strong commitment to Uzbekistan's sovereignty and 
stability. The United States also remains committed to 
encouraging Uzbekistan's development toward becoming a more 
tolerant, prosperous democratic society that cooperates 
effectively with its neighbors, adheres to its international 
obligations, and promotes peace and stability domestically, 
regionally, and globally.
    Uzbekistan is an important partner in our ongoing efforts 
to help neighboring Afghanistan reach its full potential. 
Uzbekistan continues to provide vital assistance to Afghanistan 
in the form of electricity that keeps the lights on in homes 
and businesses across Kabul. The only railroad that connects 
Afghanistan to the outside world runs through Uzbekistan. 
Uzbekistan is also a key link in the northern distribution 
network, which helps keep U.S. and NATO troops well supplied 
and helps U.S. and NATO forces remove cargo from Afghanistan 
now that the mission there is in transition. If confirmed, I 
will encourage the Government of Uzbekistan to continue that 
important support.
    Our security cooperation with Uzbekistan is in a time of 
transition, but will continue to focus on the common goal of 
preventing Afghanistan from once again becoming a safe haven 
for terrorists. Increased cooperation with Uzbekistan on a 
number of training programs would help prevent a resurgence of 
terrorism in the region, stem the flow of illegal narcotics, 
and prevent human trafficking and illicit smuggling. Our 
security cooperation also includes efforts to professionalize 
the conduct of security forces and reinforce the need for 
accountability in law enforcement institutions. If confirmed, I 
would build on our existing partnership to continue this 
cooperation.
    Uzbekistan's large population and energy and mineral 
resources make it a natural choice for U.S. companies seeking 
to invest in Central Asia. The United States has been working 
with Uzbekistan to improve its investment climate and foster a 
cooperative regional economic environment. If confirmed, I will 
encourage Uzbekistan to implement necessary changes to further 
attract U.S. investment, diversify its economy, and promote 
regional and economic connectivity.
    As Ambassador to the Kyrgyz Republic, I have highlighted 
the importance of nurturing nascent democratic institutions, 
civil society groups, and a free and open media. I also 
understand the profound importance of protecting respect for 
human rights, the rule of law, and fundamental freedoms. If 
confirmed, I will strongly encourage the Government of 
Uzbekistan to comply with all of its international legal 
obligations on human rights. I will also continue to press the 
government on specific prisoner cases, such as those raised by 
Senator Menendez and others in recent letters to President 
Karimov. I will work closely with my government counterparts in 
a diverse array of civil society institutions to address 
concerns about forced and child labor, allegations of torture, 
arbitrary arrests and imprisonment, restrictions on independent 
civil society opposition and media, as well as religious 
freedom.
    I know from my past experience on Central Asian affairs 
that progress on some of the issues will not be easy. If 
confirmed, I am fully committed to working with Members of 
Congress, the executive branch, and the people of Uzbekistan to 
make concrete progress on tough issues, like human rights and 
economic reforms. I will employ constant engagement to stress 
the need for meaningful action in these areas.
    I place the utmost importance on protecting American 
citizens and U.S. values overseas, and, if confirmed, I will 
focus my efforts on protecting U.S. citizens and their 
interests in Uzbekistan.
    The position of Ambassador is a position of public trust, 
and I take this responsibility very seriously. Direct 
engagement with the people of Uzbekistan will be a priority if 
I am confirmed. Public diplomacy efforts, outreach, and 
educational exchanges promote mutual understanding and foster 
deeper bilateral ties.
    Finally, I place great emphasis on strong leadership. If 
confirmed, I will bring my experience, enthusiasm, and 
knowledge to bear as I lead the mission to the best of my 
ability.
    I thank you for your consideration of this nomination, and 
I look forward to your questions.
    [The prepared statement of Ambassador Spratlen follows:]

                Prepared Statement of Pamela L. Spratlen

    Mr. Chairman and members of the committee, it is a great honor to 
appear before you today as the United States Ambassador-designate to 
the Republic of Uzbekistan. I am deeply grateful for the confidence 
President Obama and Secretary Kerry have entrusted in me with this 
nomination. If confirmed, I will work to strengthen bilateral relations 
with Uzbekistan and promote U.S. interests and values there. I look 
forward to working with Congress in pursuit of these goals.
    My 25 years in the Foreign Service have prepared me for this 
position. I know and appreciate the region. As the U.S. Ambassador to 
the Kyrgyz Republic, I have had the opportunity to implement important 
U.S. security, human dimension, and development policies in a fragile 
democracy. As the Deputy Chief of Mission in Kazakhstan, I was able to 
help deepen our partnership with Kazakhstan, a key ally during the time 
the country hosted the 2010 summit of the Organization for Security 
Cooperation in Europe. During my tenure as Director for Central Asian 
Affairs and then Acting Deputy Assistant Secretary, I became well 
acquainted with U.S. policy priorities in Uzbekistan and played a role 
in the earliest days of the South and Central Asia Bureau. With the 
experience I have gained to date, I feel well-prepared to tackle the 
challenges and seek opportunities for the United States in Uzbekistan.
    Uzbekistan lies at the heart of Central Asia and is the most 
populous country in the region. Since its independence from the Soviet 
Union in 1991, the United States has always maintained a strong 
commitment to Uzbekistan's sovereignty and stability. The United States 
also remains committed to encouraging Uzbekistan's development toward 
becoming a tolerant, prosperous, democratic society that cooperates 
effectively with its neighbors, adheres to its international 
obligations, and promotes peace and stability domestically, regionally, 
and globally.
    Uzbekistan is an important partner in our ongoing efforts to help 
neighboring Afghanistan reach its full potential. Uzbekistan continues 
to provide vital assistance to Afghanistan in the form of electricity 
that keeps the lights on in homes and businesses across Kabul. The only 
railroad connecting Afghanistan to the outside world runs through 
Uzbekistan. Uzbekistan is also a key link in the Northern Distribution 
Network, or NDN, which helps keep U.S. and NATO troops well-supplied 
and helps U.S. and NATO forces remove cargo from Afghanistan now that 
the mission there is in transition. If confirmed, I will encourage the 
Government of Uzbekistan to continue this important support.
    Our security cooperation with Uzbekistan is in a time of 
transition, but will continue to focus on the common goal of preventing 
Afghanistan from once again becoming a safe haven for terrorists. 
Increased cooperation with Uzbekistan on a number of training programs 
would help prevent a resurgence of terrorism in the region, stem the 
flow of illegal narcotics, and prevent human trafficking and illicit 
smuggling. Our security cooperation also includes efforts to 
professionalize the conduct of security forces and reinforce the need 
for accountability in law-enforcement institutions. Uzbekistan is an 
increasingly important partner in these efforts, especially in light of 
its deliberate, reliable resistance to Russian pressure in the post-
Soviet space. If confirmed, I will build on our existing partnership to 
continue this cooperation.
    Uzbekistan's large population and energy and mineral resources make 
it a natural choice for U.S. companies seeking to invest in Central 
Asia. The United States has been working with Uzbekistan to improve its 
investment climate and foster a cooperative regional economic 
environment. If confirmed, I will encourage Uzbekistan to implement 
necessary changes to further attract U.S. investment, diversify its 
economy, and promote regional economic connectivity.
    My most recent experience as Ambassador to the Kyrgyz Republic 
highlighted the importance of nurturing nascent democratic 
institutions, civil society groups, and a free and open media 
atmosphere. I also understand the profound importance of promoting 
respect for human rights, the rule of law, and fundamental freedoms. If 
confirmed, I will strongly encourage the Government of Uzbekistan to 
comply with all of its international legal obligations on human rights. 
I will also continue to press the government on specific prisoner cases 
such those raised by Senator Menendez and others in recent letters to 
President Karimov. I will work closely with my government counterparts 
and a diverse array of civil society institutions to address concerns 
about forced and child labor, allegations of torture, arbitrary arrests 
and imprisonment, restrictions on independent civil society, 
opposition, and media, and religious freedom.
    I know from my past experiences on Central Asian affairs that 
progress on some of the issues I just described will not be easy. If 
confirmed, I am fully committed to working with Members of Congress, 
the executive branch, and the people of Uzbekistan to make concrete 
progress on tough issues like human rights and economic reforms. I will 
employ constant, consistent engagement to stress the need for 
meaningful action in these areas.
    I place the utmost importance on protecting American citizens and 
U.S. values overseas. If confirmed, I will focus my efforts on 
protecting U.S. citizens and their interests in Uzbekistan. The 
position of Ambassador is a position of public trust, and I take this 
responsibility very seriously.
    Direct engagement with the people of Uzbekistan will also be a 
priority if I am confirmed. Public diplomacy efforts, outreach, and 
educational exchanges promote mutual understanding and foster deeper 
bilateral ties.
    Finally, I place great personal emphasis on strong leadership. If 
confirmed, I will bring my experience, enthusiasm, and knowledge to 
lead the mission to the best of my ability.
    Thank you. I look forward to your questions.

    Senator Kaine. Thank you, Ambassador Spratlen.
    We will have 7-minute rounds of questions. And if we do not 
get to you on a first round, do not relax, because we will 
often have multiple rounds.
    I will start with Mr. Roebuck. I was very distressed about 
the news of the recent arrest of a prominent human rights 
activist, Meriam al-Khawaja in Bahrain. If you could, describe 
the status of that case and what the State Department is doing 
to raise that issue, please.
    Mr. Roebuck. Thank you, Senator Kaine.
    We have followed this case closely. We are aware of Ms. 
Khawaja's arrest. We have raised this case publicly with the 
Bahraini Government, and we have also done so privately. And we 
have urged the government to ensure that Ms. Khawaja's due-
process rights are protected, that she has the right to 
expeditious judicial proceedings, access to a lawyer, and 
hopefully that this matter will be resolved as quickly as 
possible. So, we have raised this matter, and we are following 
it very closely.
    Thank you, Senator.
    Senator Kaine. Sort of in a related area, and then I think 
a number of the questions about Bahrain will be dealing with 
this. The Bahraini Government--and you alluded to this--
expelled visiting Assistant Secretary Tom Malinowski, and the 
ostensible reason was for holding a meeting with opposition 
representatives without government officials present. Also, 
Representative Jim McGovern and human rights researchers have 
been denied entry in Bahrain. Talk about the current status of 
the dialogue between the governments on the situation with 
Assistant Secretary Malinowski and how you, in your post, will 
handle the issue of interacting with all segments of Bahraini 
society, including folks associated with opposition parties.
    Mr. Roebuck. Thank you, Senator.
    The expulsion of Assistant Secretary Malinowski, we have 
made clear to the Bahraini Government, was unnecessary and 
unhelpful. We have dealt with the aftermath of the expulsion 
primarily through diplomatic channels. We believe the Bahraini 
Government has understood our position clearly. We expect, 
going forward, that the Bahraini Government will take steps 
more consistent with our strong bilateral relationship, and 
that they will address this issue. We continue to support a 
strong reform reconciliation process in Bahrain, hopefully 
leading to inclusive elections across broad Bahraini society 
sectors.
    With regard to the return of Assistant Secretary 
Malinowski, I have discussed this with Assistant Secretary 
Malinowski. He wants to return at a time that would be most 
helpful. We have discussed this with the Bahraini Government. 
They have indicated they would welcome his return. And so, we 
are discussing with the Ministry of Foreign Affairs about the 
timing for that.
    Bottom line, we have made our position known to them. We 
expect, in the future, that they will take steps more 
consistent with our strong bilateral relationship and with 
existing diplomatic norms.
    Thank you.
    Senator Kaine. What is the--I was in Bahrain in December 
2013, and one of the issues at that time--it was a significant 
point of discussion, and I imagine it still is--is the status 
of U.S. arms sales to Bahrain. It is been significant, but 
there has also been suspensions of arms sales because of human 
rights concern. What is the current status of the situation 
with respect to the arms sales between the United States and 
Bahrain?
    Mr. Roebuck. Senator, we continue to carefully evaluate our 
security cooperation posture toward Bahrain. We have not made 
changes in the policies recently. We will consult closely with 
Congress before making any such changes.
    At present, we are withholding the export of lethal and 
crowd-control items intended predominantly for internal 
security purposes, and certain other items. We have resumed, on 
a case-by-case basis, the export of certain items related 
exclusively to external defense, counterterrorism, and the 
protection of U.S. forces in Bahrain. Our strong assessment is 
that we continue to have a very strong security partnership 
with the Government of Bahrain. And, if confirmed, I will do 
everything I can to strengthen that relationship.
    Senator Kaine. There is some difference of opinion, I 
think, on the degree to which Iran is supporting Shiite 
hardline opposition factions within Bahrain. What is your 
current understanding of the role that Iran is playing, if any, 
in civil unrest in that country?
    Mr. Roebuck. Senator, we have seen Iranian attempts, in the 
past, to exploit and exacerbate sectarian unrest of the kind 
that is going on in--and has gone on--in Bahrain. They do this 
to advance their own agenda and to undermine peace and 
stability in the region. I think it is inevitable that 
prolonged unrest and instability in Bahrain would open the door 
to Iranian influence among extremists in that country. We also 
believe that further efforts at reform will promote 
reconciliation, restore confidence. And, in doing so, it 
lessens sectarian tensions and it denies Iran the ability to 
exploit such situations.
    Senator Kaine. I am trying to remember, from my visit last 
December, the population of Bahrain is--the leadership is 
predominantly Sunni, but the population is dramatically--65-70 
percent Shia. Do I remember that correctly?
    Mr. Roebuck. The population is about 1.25 million, and the 
figures that you have given are approximately the breakdown we 
understand on the demographics.
    Senator Kaine. One last question, and then to Senator 
Risch.
    Another key influence in Bahrain is Saudi Arabia, because 
of their closeness to the Bahraini Government. Are we working 
in tandem with Saudi Arabia in efforts to promote, you know, 
additional reforms or the national dialogue efforts to reduce 
unrest in Bahrain? Does Saudi Arabia play a role in that 
effort?
    Mr. Roebuck. Thank you, Senator.
    The Saudis have a very important relationship with Bahrain. 
They are close allies. I think it is fair to say that they have 
significant influence. And we believe that the Saudis can play 
a positive role. We discuss this issue and related regional 
issues with the Saudis on a regular basis.
    We also underscore, with the Saudis and with our other gulf 
partners, the importance to Bahrain of a reconciliation 
process, reform and political dialogue, not only for Bahrain's 
security and stability, but also for regional security and 
stability. And we will continue those discussions.
    Senator Kaine. Thank you, Mr. Roebuck.
    Senator Risch.
    Senator Risch. Thank you, Mr. Chairman.
    Mr. Roebuck, let us take the Malinowski incident first. Did 
State Department know that the meeting was going to take place 
with the opposition prior to the time it took place?
    Mr. Roebuck. Yes, sir, we did. This was part of an arranged 
schedule of meetings that Assistant Secretary Malinowski 
arranged with the Embassy. This is a fairly typical way that a 
U.S. Government official would fly into the country and arrange 
a set of meetings across the board with all sectors of a 
political society.
    Senator Risch. So, was the Bahrainian response to that a 
surprise to State Department?
    Mr. Roebuck. Yes. I would say that we were--I think that is 
a fair description. As I noted to Senator Kaine, we found the 
response of the Bahraini Government unnecessary and unhelpful, 
and we made that clear to them in the aftermath of the 
expulsion.
    Senator Risch. But, at this point, the wound is healed, you 
say that Malinowski's now welcome back in Bahrain? Did I catch 
that right?
    Mr. Roebuck. I would say, Senator, that we are continuing 
to address this issue. We have discussed it at the most senior 
levels with the Bahraini Government. They understand the 
importance of taking corrective action, and they have indicated 
that they would welcome Senator Malinowski back. So, we are 
considering that and considering the proper timing for a return 
visit.
    Senator Risch. Do they appreciate the fact that they have 
overreacted on the issue?
    Mr. Roebuck. I think that the Government of Bahrain has 
understood our position, which we have made clear, publicly and 
privately. I think they understand the need to take corrective 
steps, and they have indicated that they would do so.
    Senator Risch. I guess the thing I am struggling with here, 
as you can see, is that a lot of us, when we go to various 
countries, meet with the opposition. I mean, it is not--like 
you say, it is not an unusual thing. And I am just--I am 
wondering what happened, here, that caused this kind of a 
reaction.
    Mr. Roebuck. I think, Senator, that the negotiations and 
the dialogue that have gone on between the government and the 
opposition over the last couple of years has taken place in a 
difficult atmosphere, with a lack of trust on both sides, and 
that sometimes, you know, this atmosphere has prompted 
reactions--temporary reactions that require a change of course 
in--a course correction subsequently down the line. I think 
that is in the period where we are now.
    Senator Risch. Again, though, what--the description of the 
situation between the in-power and the opposition, that is not 
unusual. I mean, the description you gave is what usually 
happens in these circumstances. So, I am just--I am surprised 
at the reaction.
    In any event, let us move on. I have a very local issue, 
and that is that the small arms sales to Bahrain is very 
important to my State, in that we do have a growing industry, 
manufacturers of small arms. And because of the sanctions that 
have been in place, they have some sales--specific sales that 
were stopped, as far as Bahrain is concerned, and they ask me, 
``Well, you know, what are you trying to do, here?'' And you 
explain to them that what you are trying to do is to get some 
conformance to certain standards, as far as human rights are 
concerned. And, of course, they come back and say, ``Well, 
look, if we do not sell them these, they are going to the 
Italians, or they are going somewhere, because these small arms 
are ubiquitous and easily obtained on the market, so you are 
not really gaining anything by stopping these kinds of sales, 
when they are easily obtainable from about anywhere.''
    What do I respond to them when they say that?
    Mr. Roebuck. Senator, thank you for the question.
    I think the response needs to be that the United States 
maintains a relatively comprehensive arms policy with any given 
country. We have established a set of arms policies with regard 
to Bahrain, carefully vetted in our interagency process. We do 
not have plans to change it now, but we are looking carefully 
at when we would change it down the line.
    I think that the current policy toward arms reflects our 
strong security cooperation with Bahrain, but it also reflects 
our other interests and values, and that we are postured about 
where we need to be, overall, with regards to our arms 
policies. I understand the particular issue you raise with some 
group of sales in that larger policy, but I think, overall, we 
are where we need to be right now with regard to our arms 
policy regarding Bahrain.
    Senator Risch. I heard what you just said, and I appreciate 
that. And I do not think there is anyone that wants to 
undermine the objective of trying to get compliance to basic 
human rights standards. After listening to your answer, I am 
not persuaded that stopping them from buying something in the 
United States that they can buy anywhere on the market is going 
to have any influence whatsoever in their decisionmaking. 
Again, do not get me wrong, I want to see you continue to 
pressure and attempt to get compliance, but I have real 
difficulties believing that keeping out of their hands an item 
that they can buy anywhere reaches that goal. And, for Idahoans 
that want to work and for the good-paying jobs that are created 
here, it would seem to me that, if they are not created here, 
they are going to be created in China or Italy or somewhere 
like that. So, I hope you would keep that in mind as you help 
to form policy in that regard.
    And my time is almost up, but I want to--a very short 
question for Ms. Leaf.
    There has been quite a bit of disagreement between the UAE 
and Qatar regarding the Muslim Brotherhood. Could you talk 
about that for just a minute and what you think is the 
prescription for trying to resolve that?
    Ms. Leaf. Thank you, Senator.
    You know, the UAE and Qatar are two parts of a larger set 
of discussions and disputes that have been ongoing in the GCC. 
We saw, in the spring, a rather dramatic demonstration of that, 
when the Saudis, Emiratis, and Bahrainis withdrew their 
ambassadors.
    What I would say, more broadly, is that the GCC has gone 
through these kind of internal disputes before, and they have 
come together. And we saw evidence of that this last weekend, 
when there was a GCC Foreign Ministerial, and they closed 
ranks. It is not to say they have thoroughly resolved these 
disputes. One of them is over the issue--as you say, over the 
issue of support to the Muslim Brotherhood or each state's 
stance on the Muslim Brotherhood, but they closed ranks in a 
very important way, and I think that is a reflection of all of 
the member states' recognition that there are huge security 
challenges afoot in the Middle East that directly threaten 
their interests and that now is the time to pull together in--
and I think we are going to see evidence of that to an even 
greater degree over the coming days as we work with the GCC, 
including both of those members, in confronting ISIL.
    Senator Risch. Thank you very much.
    Thank you, Mr. Chairman. My time is up.
    Senator Kaine. Thank you, Senator Risch.
    Senator McCain.
    Senator McCain. Ms. Leaf, I could not disagree with you 
more. It is unprecedented what the other countries did when 
they withdrew their ambassadors. You will have to tell me 
another time when that happened. The Qataris continue to 
provide funding to the most extreme elements, particularly in 
Iraq and Syria. The Qataris have, basically, been the strongest 
supporters, not just of the Muslim Brotherhood, but their money 
is going to people like al-Nusra, people like ISIS, and others. 
How can you sit there and say that this is just something 
normal? And, because they had a meeting of the GCC, that 
certainly does not address the issue--you are going to be the 
Ambassador to UAE, but our problems with Qatar are very deep-
seated, ranging from funding to money laundering to all kinds 
of problems that we have with the Qataris. It is well known 
that they are extending financial and other support to the most 
extreme elements that we are trying to fight against. Would you 
disagree with that?
    Ms. Leaf. Senator, I would say that they have a history 
with a number of Islamist movements in the region, and I think 
this----
    Senator McCain. Wait a minute. Let me----
    Ms. Leaf. Sorry.
    Senator McCain [continuing]. Just stop you right there. 
``Have a history.'' Are they still doing it?
    Ms. Leaf. Senator, I cannot discuss all of this in this 
setting. I would be happy to take these questions back and 
provide a fuller response in a classified setting.
    Senator McCain. Well, until you can give me a full 
response, in response to published information in newspapers 
and television and radio all over America and all over the 
world, then you have got the wrong guy, here. This is a serious 
problem of Qatar's assistance to these radical elements and 
funding which is going on as we speak. So, to just say, ``Well, 
this kind of thing has happened before,'' it has not. And it is 
very serious. And, as long as ISIS is able to do the things 
they are doing with the assistance and cooperation of Qatar, 
our challenge with ISIS is dramatically, significantly 
increased.
    I had not even intended, frankly, to ask you a question. 
But, when you sit there and say, ``Well, this is just a normal 
thing,'' it is not normal. It is not. And the relations between 
Qatar and Iran are also troubling. That is not normal. It is 
not what we are trying to achieve in the Middle East.
    So, I will be submitting to you some questions that are 
based on public information--not on sensitive information, but 
based on public information. And I would expect an answer from 
you.
    But, believe me, I have spent enough time over there to 
know that this is a normal situation, the behavior of Qatar.
    And, by the way, do you know whether UAE and Egypt notified 
the United States of America when they launched airstrikes 
against Libya?
    Ms. Leaf. Senator, regarding this incident that you are 
referring to, there is very little that I could say in this 
hearing, but I would be happy to ask for a classified briefing 
for you on that matter.
    Senator McCain. I am not going to a classified hearing with 
you. I am asking you a question, whether the published reports, 
in the New York Times and the Washington Post, that UAE and 
Egypt launched airstrikes in Libya--whether the United States 
of America was informed by them, or not. Do you refuse to 
answer that question?
    Ms. Leaf. No, Senator, I will answer that question. I 
cannot speak to those reports in this setting.
    Senator McCain. Then I cannot support your nomination if 
the Senate of the United States is not entitled to have that 
information.
    Ms. Leaf. Senator, I would be happy to provide that to you 
in a classified setting.
    Senator McCain. It is not necessary, in a classified 
setting, if it is published information whether it is true, or 
not.
    Ms. Leaf. I am aware of what the press has reported, but 
all I can say to you, Senator, in this setting, is the 
following, that I would be happy to take that back. I cannot--
--
    Senator McCain. What is classified about it? They either 
told the United States of America, or not. What is classified 
about that?
    Ms. Leaf. Senator, I would be happy to take it back.
    Senator McCain. Well, perhaps you can tell me, in 
preparation for this hearing, why you were told that that--were 
you told that that is classified information?
    Ms. Leaf. These are all issues--related to those events, 
they are classified, sir.
    Senator McCain. Ms. Cefkin, I have a special feeling--it is 
nice to see you again--I have a special feeling for Fiji, and I 
wish you well. They have been through a terrible, difficult 
time, and I am interested in your assessment as to whether this 
first-time election in so long is going to be successful, or 
not. And thank you for--they are wonderful, gentle people, and 
they have had a very great--great difficulties in recent years. 
So, I thank you for your service. And I am interested in your 
assessment. I think it is September 17, is going to--the vote 
is going to be?
    Ms. Cefkin. Thank you very much for that question, Senator.
    You are correct, the vote is scheduled for September 17, 
next week. We are working very closely with an international 
coalition led by Australia and Indonesia that is organizing 
international observers. We have several Americans that will 
participate in that observer mission. We have also been 
providing some voter education support through NGOs to the 
people of Fiji to help support a credible election outcome.
    Of course, there are various predictions. I am reluctant to 
speculate and to give you any absolute prediction about what 
the outcome will be, but we remain cautiously hopeful that 
there will be a credible election that takes place that will 
allow us to move to another phase of our cooperation, our 
relations, and to look for ways to continue to deepen support 
for democratic institutions and democratic culture in Fiji.
    We have, and we--the United States--will continue to urge 
that Fiji continue the progress, build on this progress, to 
further expand the rights of its citizens to fully participate, 
to fully enjoy freedom of expression and organization. We know 
that--I know, from my personal experience, that transitions are 
difficult, that they take time, generally. One election is not 
sufficient to complete the process of democratic transition. 
But, yes, we are committed, and, if confirmed, I will make that 
an absolute priority to focus on support for democratic 
development in Fiji.
    Senator McCain. Well, there are many places where 
Ambassadors are very important. It is one of those. And I know 
you will be working closely with, especially, the Australians, 
as well as the other countries in the region that have imposed 
embargoes and other restrictions on Fiji. And I appreciate very 
much what the Australians, particularly, have done in 
addressing this issue.
    Mr. Chairman, I had additional questions, but I would wait 
until next round if----
    Senator Kaine. Thank you. Senator McCain, you can continue. 
I am going to have some additional questions, too, but I will 
hit cleanup if you want to continue, and then we will move to 
Senator Rubio.
    Senator McCain. Thank you. I just wanted to talk to Mr. 
Roebuck for a minute.
    The situation in Bahrain is pretty clear cut in some 
respects, I think, in that there has been a suppression of the 
opposition and the treatment of Tom Malinowski is not an 
acceptable situation. Obviously, we cannot have our 
representatives thrown out of a country that is supposed to be 
a friend of ours. But, at the same time, there is ample 
evidence of Iranian influence; in fact, even Iranian weapons 
have been intercepted trying to be delivered to the opposition. 
So, it is not just a sort of a human rights issue and lack of 
democratization. We have got the Iranians playing heavily, 
here. And I am curious, How do we balance that, in your view? 
And, by the way, it is good to see you again, and thank you for 
your service.
    Mr. Roebuck. Thank you, Senator.
    Senator McCain. Tell me how we can thread that needle.
    Mr. Roebuck. Thank you, Senator.
    As you indicate, we have a range of important interests in 
Bahrain. I have addressed the human rights dimension of our 
relationship in some detail in the--in my statement and in the 
questions. We will continue to raise those important issues.
    We also have, of course, a very, very important security 
partnership with Bahrain. They host NAVCENT, they host the 
Fifth Fleet, 8,000 servicemembers live and work there. This 
hosting allows us to do a range of incredibly significant----
    Senator McCain. I understand all that.
    Mr. Roebuck. OK. Got it.
    So, the security relationship is very important. We want to 
ensure that that is maintained.
    On the human rights and the internal security situation 
that you mentioned, we are encouraging the government and the 
opposition to continue political dialogue reform efforts and a 
reconciliation process to address the type of social and 
economic grievances that you allude to. They have had problems. 
There was significant unrest in 2011. And the efforts of the--
--
    Senator McCain. I want you to get to Iran.
    Mr. Roebuck [continuing]. And the efforts of the--thank 
you, sir--the efforts of the Bahrain Independent Commission of 
Inquiry have been important to help them address these issues.
    With regard to Iran, we are aware of Iranian attempts to 
have influence in Bahrain, in places like Bahrain, where there 
is sectarian unrest. I think it is inevitable that, you know, 
given that unrest and instability, they are trying to take 
advantage of that situation. We are aware of the reports that 
you mentioned. Much of the discussion surrounding these 
reports, Senator, is limited to classified sourcing and 
information. It is difficult for me to get into too much of it. 
But, your basic point about this involvement is accurate, in 
the broad sense----
    Senator McCain. So, is there not a--this is my final 
question--is there not a real threat, here, that this could 
turn into a--basically, a proxy war between the Saudis and the 
Iranians?
    Mr. Roebuck. I think there is always a risk of outside 
powers getting involved in a situation like in Bahrain, where 
there has been----
    Senator McCain. Well, the Saudis have already been in, 
militarily, once.
    Mr. Roebuck. Correct. They went in as part of the GCC 
Peninsula Shield Forces for a few months in 2011. There is that 
danger. And I think it is--and it is important that we continue 
to talk closely with our allies, like the Saudis, ensure that 
they are playing a positive role. We believe, from our 
discussions, that they want to play a positive role. It is 2014 
now, it is not 2011. I think they understand the--that. And I 
think, on the Iran side, you know, we continue with the P5+1 
talks. Bahrain and others in the region clearly understand the 
dangers of a nuclear Iran to the region and to the world. And 
we will----
    Senator McCain. Well, could I say----
    Mr. Roebuck [continuing]. Continue to address that----
    Senator McCain [continuing]. I am not so worried about a 
nuclear Iran, in this case, I am worried about Iranian arms and 
equipping the opposition and you are getting into a real 
firefight, here.
    But, I thank you, Mr. Roebuck, and I thank you for your 
previous service. And you are inheriting a very, very delicate 
situation, where a lot of interests have to be balanced, here, 
probably one of the most difficult that I know of in the entire 
region.
    I thank you, Mr. Chairman.
    Mr. Roebuck. Thank you, sir.
    Senator Kaine. Thank you, Senator McCain.
    Senator Rubio.
    Senator Rubio. Thank you, Mr. Chairman, for holding this 
hearing.
    Thank you all for your willingness to serve or prior to 
service to our country.
    Mr. Roebuck, the bulk of my questions in the time I have 
will be toward you, just simply because of my interest in 
Bahrain and what is occurring there.
    You may have answered this already. I may have missed it, 
so I may be restating it. But, I want to talk about the 
expulsion of Tom Malinowski, ostensibly for holding a meeting 
with the Wefaq representatives without a government 
representative present. My understanding is, the government 
also, reportedly, barred a Member of Congress, in the last few 
weeks, from visiting the country, based on a similar concern.
    If and when, as I anticipate you will be, you are confirmed 
as Ambassador of the United States, do you plan to comply with 
this requirement, that they have a government representative 
anytime we meet with members of an opposition party?
    Mr. Roebuck. No, sir, Senator Rubio. We have made it clear 
to the Bahraini government that this an unacceptable condition. 
It is not only unacceptable in Bahrain, it is worldwide. There 
are established diplomatic protocols for such meetings. And we 
use those types of--we expect compliance with those types of 
international norms in our meetings worldwide. And that goes 
for Bahrain, also.
    Senator Rubio. Well, there is an invitation out to Mr. 
Malinowski to return to the Kingdom. Do you know, what is the 
status of that? And have they set any ``ground rules,'' for his 
return, for him to be able to come back?
    Mr. Roebuck. Senator, I spoke with Assistant Secretary 
Malinowski late last week about this. He wants to return at a 
time that would be most helpful to the broader political 
dialogue and reconciliation process. We have discussed this at 
senior levels with the Bahraini Government. They have indicated 
they would welcome him back. They understand the need for 
corrective steps to address the previous expulsion. And we will 
continue to work through this issue to try to resolve it. But, 
the conditions that you cite would not be acceptable for a 
return visit, and that has been part of the broader 
conversation.
    Senator Rubio. Now, I want to get a little broader on this, 
and I think some of the questions around here have touched upon 
it, because Bahrain is a nation that I have taken an interest 
in, a couple of years ago, for reasons of both human rights and 
geopolitical reality. And, you know, I believe human rights 
should always be at the forefront of what we do from a national 
security perspective and from a foreign policy perspective. And 
so, I was deeply concerned to see that a minority in that 
country felt oppressed and felt like they did not have the 
space to speak out in the Kingdom. And we engaged ourselves 
early in that conversation; in fact, met with some young people 
from there that expressed to us that their desire was not to 
overthrow the Kingdom, but simply to create a political 
accommodation where they had a greater role and more of a 
voice.
    As that process has broken down over the last few years, 
you have begun to see evidence or indications that the 
opposition in the country has become increasingly potentially 
more radicalized, or at least elements of it there have become 
more radicalized, and that potentially have created stronger 
links with Iran as their sponsor in these efforts.
    The answer we always get back, whenever we express our 
desire to speak forcefully on these issues of human rights, is, 
we have to be careful not to go too far on human rights, I am 
told, because Bahrain has such critical importance to the 
United States, from a geopolitical perspective, that somehow we 
need to push aside the human rights considerations because they 
are such an important partner in that region, from a defense 
perspective.
    I think that is troubling and shortsighted, for a couple of 
reasons. One, I think it undermines our credibility, when we go 
around the world talking about how we are fighters on behalf of 
human rights and democracy, freedom, and the liberty of all 
people, and, on the other hand, we are willing, or appear 
willing, to tolerate it in some parts of the world because they 
are good partners. We did that in the cold war, as well, in 
many instances. And I do not criticize it now, and hindsight is 
always 20/20, but it was, to some--we still, in some extent, 
pay the price for that in some parts of the world.
    The other is, I think it is actually bad for our allies, 
because, when they do this, when you have a large number of 
people in this country--in this instance, not even a minority--
I just called it a minority; it is not a minority, but a group 
that feels being oppressed because they do not have a voice--I 
think, long term, that is unsustainable. If you are an ally of 
the United States, what we should be explaining to these 
countries--and I hope that we are--is, ``What you have today is 
an unsustainable position. You have got to create space for 
every segment of your society to be involved. Otherwise, you 
have put for yourself--you put yourself in an unsustainable 
long-term position that actually is ripe for the sorts of 
instability that do not just undermine you, but ultimately 
undermine our standing in that part of the world.'' But, again, 
the argument I get back is, ``We have got to be careful not to 
push too hard, because Bahrain is too important.''
    I will say that in 2013 a former Director of National 
Intelligence, Dennis Blair, said, ``Bahrain needs the United 
States, from both the security and economic points of view, 
more than the United States needs Bahrain.'' He went on to say, 
``The Fifth Fleet Headquarters should be moved back onboard a 
flagship as it was until 1993. Permanent basing in a repressive 
Bahrain undermines our support for reform and is vulnerable if 
instability continues.''
    So, I guess my point is, as you walk into this role there, 
what is your view of this balance, to the extent there needs to 
be a balance? And how would you--and, furthermore, how would 
you evaluate our alternatives for the naval support activity 
facility in Bahrain? How crucial is that facility? How crucial 
is that facility being stationed in that place, in Bahrain? How 
crucial is that to U.S. defense strategy in the Persian Gulf 
region?
    But, the first one is the most important. How do you view 
that balance? Because I am not even sure there should be a 
balance, per se. I think all of our national security and 
foreign policy credibility is undermined when we are seen to be 
the sponsor of, and looking the other way to, repression.
    Mr. Roebuck. Thank you, Senator Rubio.
    I believe there does need to be a balance. I think that a 
country that promotes and protects human rights will be 
ultimately a more stable country and can be a more effective 
security partner. My commitment is to make the case, publicly 
and privately, if confirmed, to the Bahrain Government that it 
is in their long-term interest to promote and protect human 
rights, and also to support a vibrant political dialogue, 
reform, and reconciliation process. My view--and I think our 
policy is informed by this view--is that these two objectives--
security partnership and human rights--are not in conflict, but 
that they mutually reinforce each other. I think it takes work 
to make sure that the policy functions in that way, but I do 
believe that that is a fundamental understanding of our 
policies towards Bahrain.
    I do think that the hosting of U.S. Naval Forces Central 
Command, the Fifth Fleet, in Bahrain is incredibly important to 
our regional interest. That deepwater port's central location 
allows us to cover 2.3 million square miles of critical oceans 
and seas, demonstrate resolve to Iran, ensure the free flow of 
oil and commerce, and mount counterterrorism, counterpiracy, 
counternarcotics efforts.
    So, yes, it is critical, but I believe we can balance that 
interest with our concern for human rights. And it is 
absolutely essential that we do so.
    Thank you, sir.
    Senator Rubio. Can I just----
    Senator Kaine. Please continue.
    Senator Rubio. Here was what I would just say. When you go 
that part of the world or you speak to people and say, ``Well, 
why is the United States involved, and why do we care about 
what is happening in different parts of the world?''--one of 
the things we should always lead with is, ``Well, we care about 
human rights. There are certain realities,'' I mean, this 
Nation was founded on the principle that all human beings were 
created equal, endowed by a creator with certain rights that 
belong to them that are not granted to them by government. 
These are the founding principles of our Nation. And I think we 
have been a beacon to the world for over 240 years because we 
have been willing to go around the world and help those who 
aspire to that for themselves. It gives credibility to--and 
standing. And it makes us more than just a geopolitical player. 
It makes us, in essence, someone other countries look at as an 
inspiration.
    Here is where we run into trouble. When you go to these 
parts of the world and say, ``Well, you care about human 
rights, and you care about democracy, and you care about 
freedom unless it is some country that is critically important 
to you in some way. Then you are willing to look the other way. 
I mean, you looked the other way in Saudi Arabia, where there 
are no human rights, per se, where women are not even allowed 
to drive a car. You look the other way in Bahrain.'' You know, 
and I have had these conversations, where they are--you know, 
where I have explained to Bahraini officials that it is 
critical that the space be created, because what they have, 
long term, is a powder keg.
    People are not all of a sudden just going to decide to take 
it. This will continue to be a problem, and an unsustainable 
one.
    And I look at other examples, where, over time, we were 
able to convince allies of ours, in a different era--the 
Philippines comes to mind--where, slowly but surely, we 
pressured and put--during the Reagan administration, created 
conditions, where eventually that dictatorship fell and 
transitioned to a democracy, albeit one that has some 
challenges, but certainly no longer governed by a dictatorship, 
as an example of a role the United States should also play. If 
we are truly someone's ally, I think it is critical for us to 
explain and be forceful and continuing to nudge them toward a 
sustainable position that honors both human rights and 
democracy and does not cost us our credibility. Because I think 
when we look the other way, whether it is Bahrain, Saudi 
Arabia, or anywhere else, and say, ``We care about human rights 
unless we happen to have bases in your country and you are 
helping us achieve some other foreign policy objective''--I 
actually think that threatens and undermines our credibility, 
our standing, and ultimately those countries, as well. So, as 
their allies, I think it is important that we continue to be 
forceful in explaining to them that, if they do not create 
these spaces where people can become legitimate and open and 
free parts of that society, where they feel like they have an 
outlet and a voice in the politics for those nations, those 
countries are in an unsustainable place and ultimately are 
going to continue to be places where Iran and others can come 
in and try to exploit that division.
    So, I hope you will use this post as an opportunity to 
continue to further that dialogue and continue to nudge them in 
that direction. Otherwise, the situation they find themselves 
in is unsustainable, and I think Bahrain will continue to be 
susceptible to Iranian influence trying to stir up Shia 
militants and others to take actions against the Kingdom.
    So, thank you.
    Senator Kaine. Thank you, Senator Rubio.
    Ms. Leaf, let me pick up with you on the--I want to make 
sure I understand the dialogue you had with Senator McCain. We 
are very concerned on the committee, as you know, about this 
issue of the airstrikes in Libya. And I have seen it--you know, 
I have seen it kind of interpreted a couple of different ways. 
One interpretation is, you know, ``How dare something like this 
happen without the U.S. being deeply involved.'' I think a 
willingness to publicly self-police in the region is actually--
could be a real healthy thing. I think this has been a region 
where often nations have, you know, quietly told us we need to 
do things, and they have been unwilling to stand up and do 
things themselves. Nevertheless, there is--you know, there is a 
lot of concerns about how it could be interpreted.
    I understood your answers to be, this question about 
whether the United States was notified is certainly a question 
that is important, that is worthy of an answer, the Senate 
should get an answer, but, to answer that question, you would 
have to reveal what you know through classified information 
that you are not at liberty to reveal. Is that basically 
correct?
    Ms. Leaf. Yes, that is the--that is correct, Senator. And 
I--what I would say is there are more things that I simply 
cannot discuss in this setting, much as I would like to be 
responsive to Senator McCain's question, and to your own. I 
think perhaps if it is helpful, I could add a few comments 
about the larger issue of the U.S. and UAE collaboration on 
Libya, because that actually is a policy----
    Senator Kaine. That would be helpful.
    Ms. Leaf. Thank you. That is an issue that we have been 
discussing in some depth with Emiratis since--well, since at 
least the spring and into the summer, and we are going to have 
another round of such discussions, in addition to the--to very 
regular senior-level contacts that we have between our 
government and theirs.
    Libya is a place that the Emiratis engaged on as part of 
the NATO-led coalition, as you know, Mr. Chairman, and they 
have had an abiding interest, as we do, in seeing that country 
stabilize and become secure. And their concerns have been 
growing for some time, which they have reflected to us, about 
the growth of Libyan and transnational extremist groups.
    So, we are enhancing--we are deepening the dialogue with 
them and other key partners on this issue as we speak.
    Senator Kaine. You talked a little bit about events of the 
last weekend in kind of a--at least, kind of at face value, a 
reunification of some of the foreign ministers in the GCC. I am 
also struck, as I watch this--sometimes there is a theatrical 
element to breaks, and then there is a theatrical element to 
reunifications. And I am trying to determine what is theater 
and what is real.
    Talk a little bit about the events of the last weekend and, 
sort of, what that----
    Ms. Leaf. I would----
    Senator Kaine [continuing]. Suggests to you is occurring.
    Ms. Leaf. I would be happy to do so. In fact, I mean, these 
are very serious differences of view that have roiled the 
waters of the GCC. So, I perhaps gave an impression that it was 
business as normal. I would not by any means suggest so. 
Rather, that the overriding security challenges that have beset 
the region over the last couple of years and really have 
perhaps crested at this point in Iraq with the emergence of, 
really, a truly terrifying and brutal movement--ISIL--that has 
had a very sobering effect on many people across the region, 
not the least of which are GCC partners.
    I would not suggest that they have been able to put all 
differences aside on the issues that Senator McCain addressed. 
Far from it. And it was dramatic, what occurred in the spring. 
It was significant. But, there has been a pretty steady pulling 
together over the last weeks, in part led by the Saudi 
Government. But, I think it is a collective reflection that we 
see right now that they have got really, really bigger fish to 
fry, if you will. They are addressing their internal 
differences over the Muslim Brotherhood and other issues. They 
are addressing them as brothers in a family.
    Senator Kaine. What more can the UAE do to support 
countries like Lebanon and Jordan with the Syrian refugee 
issues? I know they have been engaged on this humanitarian 
front, but talk a little bit about the status of that 
engagement, what more they can do.
    Ms. Leaf. I will do so, happily.
    The UAE is a really generous foreign assistance donor. I 
was looking at figures the other day that indicated they have 
provided assistance to 137 different countries around the 
world. Jordan ranks right at the top of their regional 
priorities. And the figure that I mentioned earlier is really 
meant to address this wave of Syrian refugees and the enormous 
impact that that has had on Syria's neighbors. Jordan and 
Lebanon together remain key diplomatic and humanitarian 
assistance priorities for the UAE. That goes without saying. 
Without us even raising it, that is a priority for that 
government.
    Senator Kaine. Thank you, Ms. Leaf.
    Ambassador Spratlen, a couple of questions. Talk a little 
bit about the current status of, sort of, democratization and 
human rights in Uzbekistan. And, in particular, I am always 
interested whether U.S. and other international-based NGOs are 
able to operate freely in the country. If you could address 
that issue.
    Ambassador Spratlen. Well, thank you for the question, 
Senator Kaine.
    Yes, the issue of human rights has been at the top of U.S. 
priorities with Uzbekistan for as long as we have had our 
diplomatic relations with them, over 20 years. And, as you may 
know from having read some of the congressionally mandated 
reports--the Human Rights Report, the International Religious 
Freedom Report, and others--Uzbekistan, quite unfortunately, 
ranks very, very low, in global terms, when it comes to 
compliance with internationally respected human rights norms. 
As a result, this is a conversation we consistently have as 
part of our bilateral relationship. I think one of the main 
differences is that Uzbekistan is a country that has a great 
deal of concern about the issue of terrorism, about the issue 
of dissent. And the central government uses considerable 
resources to constrain that dissent.
    What I would also say, however, is that Uzbekistan highly 
values its relationship with the United States. We know each 
other well. And I think those conversations that we do have 
with them quite regularly are built on mutual understanding and 
mutual respect. But, what we would like to see is for the 
Uzbekistan government to recognize that it is in its own 
interest to meet those international commitments.
    With respect to the international human rights community, 
we are aware that there are a number of groups, such as Human 
Rights Watch and Freedom House and so on, that previously 
operated in Uzbekistan and have not been able to do so for a 
number of years. It is also true, however, that in recent 
years, I would say that the relationship with Uzbekistan has 
been improving. And that would include in terms of our 
conversations with them about human rights. And, while we have 
not seen, necessarily, actions on the part of the government 
that would signal a change in their policy, we have seen that 
they have been willing to release some prisoners when we, the 
United States, has made those requests, and we also know that a 
limited number of international human rights organizations are 
operating in Uzbekistan. For example, the National Democratic 
Institute is operating there, and they have a very good 
professional.
    This individual just recently arrived, and so we will have 
to see what will happen with the person's ability.
    The issue really--to operate there--the concern is that 
this--the operating space for human rights for civil society is 
really quite narrow in Uzbekistan. And the only thing I can 
say, Senator, is that this is very much a high priority for me 
in my current position, and it will remain so. We have had some 
limited successes in Uzbekistan. And I think as we continue to 
press, not only at the Embassy level, but with our visitors, we 
will continue to make the case that it is in the interest of 
Uzbekistan to narrow the gap between its international 
commitments and put the realities that we see on the ground.
    Senator Kaine. I am aware of some reports that anticipate a 
possible retirement of the President, President Karimov, and 
that there could be some kind of internal power struggle among 
political elites in that event that could be destabilizing. I 
mean, those are in country; you know, those are issues that 
will be decided there. But, what is your current, sort of, 
outlook on the political stability of leadership in Uzbekistan?
    Ambassador Spratlen. Well, I would say that political 
stability is really at the top of Uzbekistan's priorities. It 
has been led by Islam Karimov since the independence of 
Uzbekistan in 1991. I do not really want to get into 
speculating about----
    Senator Kaine. Right.
    Ambassador Spratlen. [continuing]. What will happen in the 
future. I think that we just have to watch very carefully what 
happens. There are all kinds of scenarios that might occur, but 
I think the most important thing is for us to deal with the 
reality that we have in Uzbekistan right at the moment. I 
think, from the point of view of President Karimov, he is very 
proud of the fact that the country has been very, very stable. 
I think there are a lot of things that could be different in 
Uzbekistan, and we have, as I said, been able to have those 
conversations with them. But, I would prefer not to speculate 
about what might happen in the future about the leadership.
    Senator Kaine. I want to ask you some questions about the 
current energy outlook in Uzbekistan. Can they produce 
additional gas for export? Is there any ability for them to use 
those resources to enter the European market? Would Russia try 
to block them from doing that? Talk a little bit about energy 
resources and their potential in Uzbekistan.
    Ambassador Spratlen. Certainly. Thank you for the question.
    Senator, during the Soviet period, Uzbekistan was really at 
the center of the energy situation for the countries in the 
region. It was really the hub. After the breakup of the former 
Soviet Union, and with the independence of all of the states, 
what turned out to be true is that countries like Kazakhstan 
and Turkmenistan ended up being the places that had enormous 
reserves for oil and gas. Uzbekistan does not have those kinds 
of resources, the kinds of resources that Azerbaijan, that 
Kazakhstan and Turkmenistan have. However, they do 
strategically use the oil and gas revenues that they do have. 
Of course, it is very important to them to use those resources 
for domestic consumption. They also sell to China. In the past, 
Russia has been an important customer of theirs, but, of 
course, the economic situation in Russia right at the moment 
has caused some changes in that. But, I would say that, yes, 
energy is important for Uzbekistan, but they are not going to 
be playing this--the kind of major role in the global energy 
market and for Europe that some of the other countries in the 
region have played.
    Senator Kaine. How would you characterize the current 
relationships between Uzbekistan and Russia, on one hand, and 
Uzbekistan and China, on the other?
    Ambassador Spratlen. Well, I would say the most important 
thing about Uzbekistan as a state is that it highly values its 
sovereignty and its independence, and it does not want to be 
put in a position of being forced to choose its partners. And, 
therefore, I think it has been very shrewd and very careful in 
developing relations with a variety of major partners. 
Obviously, as a former Soviet state, the relationship with 
Russia is an important one. But, I think Uzbekistan has 
signaled, in a number of ways, that it intends to safeguard its 
sovereignty. It was previously a member of the Collective 
Security Treaty Organization. It pulled out of that. It 
suspended its membership a couple of years ago. I think that 
was a kind of signal of their independence. And they have had a 
very robust relationship with China that has been developing at 
a very measured but important pace since 1991. In 2012, they 
raised the level of their relationship with China to a 
strategic partnership, and there have been exchanges of visits 
between Presidents that have been marked by signing various 
documents. And the relationship continues to grow strongly 
economically. There are some 500 companies--Chinese companies 
operating in Uzbekistan, and there is significant economic 
activity on the part of China.
    So, what I would say is that Uzbekistan is using its 
relationships with major partners to ensure that it maintains 
its sovereignty and its independence, that it is not forced to 
choose partners, but, at the same time, that it sustains 
relationships that are meaningful and important to them.
    With respect to Russia, I would just note that there are a 
considerable number of Uzbekistan citizens who work in the 
Russian Federation, and that the remittances that they send 
back home are extremely important to Uzbekistan's GDP.
    So, I would say that these relationships, both with Russia 
and with China and with other important partners, continue to 
develop and grow, but all with the idea that Uzbekistan is at 
the center of it, wanting to safeguard its sovereignty and its 
independence.
    Senator Kaine. One last question, and it deals with 
equitable water-sharing in Central Asia. I understand that 
Uzbekistan has some concerns about hydroelectric dams being 
built in neighboring countries, Kyrgyzstan and Tajikistan. But, 
what is the appropriate role that we can play to encourage 
equitable water-sharing in these Central Asian nations?
    Ambassador Spratlen. Well, Senator, yes, you have touched 
on one of the most sensitive questions in the region right at 
the moment. Uzbekistan is a downstream country, and the 
countries such as the Kyrgyz Republic and Tajikistan hold 
significant hydropower resources. And, in the case of 
Tajikistan, there is an interest in building a major dam 
project, which Uzbekistan has very strongly opposed.
    What I would say is that the United States, as a matter of 
policy, is interested in having--we believe that all of the 
countries of Central Asia would prosper more and would enjoy 
more stability and security if they cooperated together. And 
this is also true in the area of water resources.
    With respect to the specific issue of the Rogun Dam, our 
goal and, I think, the role of the United States is really to 
facilitate the dialogue and to ensure that the negotiations or 
the discussions that take place among countries are done--
happen on the basis of facts, happen on the basis of what is 
technologically true. But, we know that these are also 
political questions for the country, for the individual 
countries.
    But, the main role for the United States is to be a 
facilitator of dialogue. And if confirmed, of course, that is a 
role I will continue to play.
    Senator Kaine. Ambassador Spratlen, thank you for those 
answers.
    And, Ms. Cefkin, I would--this is a little bit of a 
followup on a line of questioning from Senator McCain, as well. 
But, I was intrigued, your position in Fiji in a time of 
political transition--how can you draw on your experience in 
working on Burma issues, which has been through an important 
transition--and you have, you know, seen that up close and 
personal--how can you draw on that experience to assist in your 
efforts, your work in--with Fiji?
    Ms. Cefkin. Thank you very much, Senator, for that 
question.
    That is correct, that I feel very privileged that, through 
many of my assignments, the constant thread has been working 
with countries that are in transition, that are striving to 
develop their democratic systems, as well as promote their 
economic development. And I find great personal satisfaction in 
engaging on those issues.
    I think that, first and foremost, what I have learned is 
the importance of really building people-to-people ties and 
networks. We have such a wealth, in the United States, of 
groups ranging from our nongovernmental organizations to our 
academic institutions to our government officials that can 
bring a lot of expertise and experience that they have to 
share. And I find, in general, that people of the countries do 
aspire to really take on board these lessons, and they are very 
hungry for the information.
    So, I certainly will look, if confirmed, to tap our 
programs through our public diplomacy programs and through 
whatever assistance resources are available to continue to 
expand that people-to-people engagement, as well, of course, as 
our diplomatic engagement and making sure that our positions on 
these issues are clearly understood.
    Senator Kaine. To what extent has the ban on U.S. military 
assistance to Fiji sort of affected our objectives in the 
region?
    Ms. Cefkin. Well, I think certainly, Senator, that there is 
a very clear strategic importance to this region that can 
greatly benefit from greater military engagement. We have seen, 
as I noted in my comments, that several of these countries, 
including Fiji, have been very willing participants in 
international peacekeeping operations. They have participated 
with us, in the case of Tonga, in the coalition in Iraq and in 
Afghanistan. Currently, we have 45 Fijian peacekeepers who are 
being held captive in the Golan. So, it shows very much their 
willingness to accept risk, to support global peacekeeping. So, 
it would be, obviously, I think, to our benefit, if their 
political conditions allow, for us to be able to expand our 
support to them in these efforts.
    And we also, I am happy to say, have a wealth of expertise 
in the United States Government, and resources also on the law 
enforcement front, where we are working very closely with these 
countries to support their surveillance efforts to protect 
fisheries. So, I think that we would hope to be able to look 
for opportunities to expand those efforts.
    Senator Kaine. I was in the Sinai in February and had a 
chance to visit with the multinational force of observers that, 
since the 1970s, I guess, has been performing the border 
security with Israel in that region. And Fiji plays a major 
presence in that, and has for years. And while I did not visit 
their units, the American military personnel who were sort of 
head of that operation had very, very complimentary things to 
say about the Fijian commitment to this mission, these 
peacekeepers there in the Golan and other places. They have 
been a good partner in some very important parts of the world. 
And I hope the political transition would move at a pace where 
we would feel more comfortable in expanding our degrees of 
military cooperation.
    You raised the issue of climate change in Fiji, and the 
other nations that you represent are affected by this. Has 
the--when we, as the United States, are in international fora 
concerning climate change issues, you know, do we publicly give 
support to, or raise the issues of, these small Pacific nations 
who are certainly seeing some of the most dramatic impacts of 
changing climate?
    Ms. Cefkin. Thank you for raising this very important 
issue, Senator.
    Yes, we are working very closely with them in international 
fora, in international negotiations, U.N. Climate Convention 
negotiations, as well as through other less formal fora; for 
example, the Oceans Conference, which Secretary Kerry 
organized, in June this year. Several of the Pacific Island 
nations were represented at a very senior level, including 
Kiribati. President Tong, of Kiribati, was one of the keynote 
speakers, and he made the very important point that, really, 
these countries are on the front lines of this effort, the 
strategic priority of mitigating climate change and preserving 
our ocean resources, that these countries, in many senses, are 
our early warning system, and the very dramatic existential 
challenges they are facing, from rising ocean levels, warming, 
acidification, and overfishing, is quite dramatic. We are 
working with them through some USAID resources on climate 
adaptation projects to support their communities' efforts to 
find ways to adapt and help mitigate the effects of climate 
change. We are working with them on programs to help improve 
environmental governance and also efforts to look at 
alternative energy resources. So, that is another important 
tool we have to support our common interest in working to 
mitigate climate change and to help preserve ocean resources. 
Through our public diplomacy programs, we have sponsored groups 
that have been able to come and to learn the benefit of some of 
our experiences.
    So, there are a number of activities that are ongoing, 
where I think we are working very cooperatively together. And 
it is very important that we continue to do so.
    Senator Kaine. I would definitely encourage that we do more 
of that. You know, this is in the, kind of, ``for what it is 
worth'' category. In Virginia, as I deal with Virginians on 
climate issues, some climate issues are perceived by Virginians 
to--Virginians actually are very concerned about the issue, 
overwhelmingly believe that humans are having an impact on 
climate, it is a serious thing, we ought to do something about 
it. What to do about it, how quickly to--how quickly to take 
those steps, there are a lot of differences of opinion there. 
But, many climate issues, Virginians kind of see as ``tomorrow 
issues'' that we ought to do something, because we want 
tomorrow to be OK. But, sea level rise is a ``today issue'' in 
Virginia. It is very visible. It is not a tomorrow issue that 
is kind of theoretical, ``We should get to it sometime''; it is 
a today issue. And if it is a today issue in the Hampton Roads 
part of Virginia, it is a today issue probably on steroids in 
the nations where you will be serving. And I think people can 
see that so visibly that it has a way of convincing people of 
the science and of the urgency of a response. So, I think, 
working together with these nations is not only in their 
interest, but it also, I think, can have the ability of really 
shining a spotlight and educating people about the critical 
nature of this challenge that we are all dealing with as a 
planet. So, I would encourage you in those ways.
    Last question I wanted to ask is this. We have our own 
policy with respect to these nations, but Australia and New 
Zealand do, as well. Talk a little bit about the relationship 
between the United States, Australia, and New Zealand and how 
we work together to coordinate economic or diplomatic or 
strategic efforts in the region.
    Ms. Cefkin. Senator, thank you.
    They are, of course, very critical partners for us in 
working in the South Pacific, as also is the United Kingdom, 
which, of course, has deep historic interest and connections. 
And we are working very closely with them, both bilaterally and 
multilaterally, and informally in a smaller like-minded 
grouping. We are regularly sharing our assessments and our 
plans and looking for synergies where we can collaborate. For 
example, on this issue of working on environmental management, 
currently the United States and New Zealand are cooperating on 
a very important waste management project in Kiribati. We are 
active partners in the various regional fora that are currently 
active in the region, including the Pacific Island Forum. And 
so, we work closely with them on all those levels.
    But, you are right. Obviously we all have mutual interests, 
but first and foremost, if confirmed, I would be very attentive 
to, fundamentally, what is the U.S. interest and what can we do 
and what can we bring to the table in support of our common 
objectives.
    Senator Kaine. Thank you very much.
    Well, this will conclude the hearing. I will ask that the 
record remain open until 5 p.m. on Friday for members of the 
committee who want to submit questions for response by any of 
the nominees.
    Again, I will state what I stated at the beginning of the 
hearing. Each of you have very distinguished and very diverse 
careers of serving this country in a variety of places, 
including in some challenging assignments, and we are in your 
debt for your service. We thank you and wish you the best, 
going forward.
    With that, the hearing is adjourned.
    [Whereupon, at 12:05 p.m., the hearing was adjourned.]
                              ----------                              


             Questions and Answers Submitted for the Record


             Responses of William V. Roebuck to Questions 
                  Submitted by Senator Robert Menendez

    Question. In President Obama's 2011 speech following the outbreak 
of peaceful protests in Bahrain and other Arab nations, he said to the 
Bahraini Government, ``The only way forward is for the government and 
the opposition to engage in a dialogue, and you can't have a real 
dialogue when parts of the peaceful opposition are in jail.'' I hope 
that this message has been reiterated privately, though it has not been 
publically reaffirmed. Other civil society leaders have been detained 
such as human rights defender Meriam al-Khawaja, who testified in the 
House in 2011. She was arrested on her return to Bahrain on Saturday, 
August 30, and international NGOs believe she was targeted for her 
international advocacy work in Washington and elsewhere.

  <diamond> Does the President's call for the release from prison of 
        peaceful opposition leaders remain U.S. policy?
  <diamond> Is President Obama's message one you will be conveying 
        publicly and privately to the Bahraini Government?

    Answer. Yes--it remains our position that peaceful members of 
Bahrain's political opposition should be released; such imprisonment 
undermines the right of political expression and compromises the 
atmosphere for reconciliation.
    We have repeatedly voiced concern about these cases, both publicly 
and privately, at the highest levels. As I said in my statement, if 
confirmed, I will make a strong case for why political dialogue, 
reform, and promoting and protecting human rights are in Bahrain's 
long-term interest.

  <diamond> If confirmed, how will you engage with the Bahraini 
        Government and opposition leaders to move forward with a 
        national dialogue and political process?
  <diamond> What specific ideas or proposals do you plan to offer?
  <diamond> Are there specific actions that the Government of Bahrain 
        or opposition societies have already taken that represent 
        significant steps toward reconciliation?

    Answer. I believe a stable Bahrain will be a more stable partner to 
the United States, and that the country's long-term stability requires 
advancements in its reform and reconciliation agenda. If confirmed, I 
will commit to supporting the Bahraini people in seeking a resolution 
to Bahrain's ongoing unrest. This is a Bahraini challenge that will 
require a Bahraini solution, but Bahrain's partners, including the 
United States, can also be supportive in the process.
    Both sides--the government and the opposition--have taken good-
faith steps toward reconciliation, but there is much more to be done. 
Before bringing any specific proposals to the table, I would first want 
to engage with the range of Bahraini stakeholders and assess how I can 
be helpful to the process.

    Question. The U.S. Government has called on the Government of 
Bahrain to fully implement all of the recommendations of the Bahrain 
Independent Commission of Inquiry (BICI), including Recommendation 
1722(a), which requires investigations into all gross violations of 
human rights, including torture and extrajudicial killings, and that 
officials ``at all levels of responsibility'' be included in the scope 
of the inquiry.

  <diamond> If confirmed, how will you encourage the Government of 
        Bahrain to take steps to fully implement the BICI 
        recommendations, including undertaking credible investigations 
        into the role of all levels of Bahraini security forces in the 
        torture and extrajudicial killings of its citizens?

    Answer. King Hamad has repeatedly reaffirmed his commitment to 
implementing reforms. The Bahraini Government has taken some important 
steps in line with BICI's recommendations, including rebuilding 
mosques, establishing the Ombudsman's Office, establishing a Special 
Investigative Unit, establishing the Commission on the Rights of 
Prisoners and Detainees, some training of police in human rights 
standards, and other measures.
    However, the Government of Bahrain has more to do on its 
implementation of unfulfilled BICI recommendations and we will continue 
to press them on this. We have stated publically and privately that the 
Government has made no meaningful progress on accountability for abuses 
committed by security forces, media incitement, or antitorture 
safeguards. In fact, we have unfortunately seen backsliding in some of 
these areas, including reduced sentences for the few security officials 
convicted of mistreatment and ongoing cases of individuals subject to 
arrest and long prison sentences for peaceful political expression.
    Implementation of the BICI recommendations is an important tool to 
move beyond the events of 2011. This report, however, did not fully 
address the broader social, political, and economic concerns that many 
Bahrainis have voiced and that a successful National Dialogue may begin 
to address. If confirmed, I will engage Bahraini stakeholders on the 
BICI recommendations, and more broadly, on the dialogue and 
reconciliation process.

    Question. Over the past several months, Bahrain has established new 
trade and military ties with Russia, including ordering a new weapons 
system from Russian state arms company Rosoboronexport.

  <diamond> How should the United States interpret this warming 
        relationship and how should we respond?

    Answer. Bahrain, like many of its Gulf Cooperation Council 
partners, has a diverse range of defense relationships, but its 
preeminent defense relationship is with the United States. Our Navy 
arrived in Bahrain during the 1940s, and today more than 8,000 
Americans who are attached to the Fifth Fleet or U.S. Naval Forces 
Central Command live there. We work closely with the Bahraini Defense 
Forces, in particular their Navy and Air Force, on a range of fronts, 
including counterterrorism and antipiracy operations.
    Bahrain is an important partner of the United States and our mutual 
interests intersect more than they diverge. If confirmed, I will 
directly engage the Government of Bahrain to ensure that the space 
where our interests overlap continues to grow.

    Question. For several years the U.S. Government has refrained from 
selling certain items--including TOW missiles, Humvees, and crowd 
control items--to Bahrain, citing concerns of ``increased 
polarization'' throughout Bahrain and ``the excessive use of force and 
tear gas by police.'' The U.S. Government has continued to sell Bahrain 
numerous other items that are used reportedly only for ``external 
defense,'' though several Foreign Military Sales cases remain on hold.

  <diamond> Please list the FMS cases that remain on hold. What is the 
        administration's policy on steps that need to be taken in order 
        to lift the hold on these cases?

    Answer. We continue to withhold the transfer of items to Bahrain 
that could be used for internal security, including small arms and 
crowd control items. We will be pleased to provide a list to the 
committee via confidential means. The administration does not currently 
have plans to modify our security cooperation policy with Bahrain. We 
continually reassess the policy and the situation in Bahrain, and we 
will continue to consult with the Congress prior to enacting any 
changes to the policy.

  <diamond> Do you assess that if these holds are lifted, Bahraini 
        security forces will use U.S. origin items responsibly?

    Answer. Whether a government would use defense articles 
appropriately is a critical factor we consider in making arms transfer 
decisions for any country. The Conventional Arms Transfer policy, 
updated in January 2014, provides significant detail into how these 
decisions are made.
    If confirmed, a principal factor in my recommendations to the 
Department of State on the appropriateness of any arms transfer to 
Bahrain will be whether such defense articles would be appropriately 
used if transferred.

    Question. If confirmed, please describe steps that you will take to 
enhance effective implementation of Section 620M of the Foreign 
Assistance Act of 1961, commonly known as the Leahy amendment, within 
the Embassy in Bahrain, as well as the steps you would take to 
accomplish the goal of the law, namely, helping the Government of 
Bahrain end impunity for human rights violations by security forces.

    Answer. The Department closely monitors human rights developments 
worldwide, including for evidence of misconduct by foreign security 
forces. This information is used for various purposes such as policy 
decisions or the annual Report on Human Rights, and is retained for use 
in Leahy vetting.
    Leahy vetting takes place when assistance is proposed for a unit or 
individual member of foreign security forces. Bahrain is no exception. 
If confirmed, I will ensure that Embassy Manama and the Department of 
State continue to gather information on the conduct of Bahraini forces 
that will be taken into account in Leahy vetting and for any future 
security assistance to Bahrain.
                                 ______
                                 

               Responses of Barbara A. Leaf to Questions 
                  Submitted by Senator Robert Menendez

    Question. A coalition of nations is currently forming to defeat the 
regional threat caused by ISIS. Does the U.A.E. actively support this 
coalition led by the United States? If so, what will the U.A.E. 
contribute?

    Answer. The UAE has been one of the earliest and strongest voices 
supporting the international coalition to combat the Islamic State of 
Iraq and the Levant (ISIL). In addition to private expressions of 
support for the U.S.-led campaign against ISIL, the UAE on September 3 
issued a statement unequivocally condemning ISIL's atrocities and 
calling on the international community to take action against extremism 
and terrorism. In a September 10 Wall Street Journal op-ed, UAE 
Ambassador to the U.S. Yousef al-Otaiba wrote of the threat posed by 
Islamic extremism, and said, ``Now is the time to act,'' including 
through direct intervention.
    We have been in touch with the UAE and many other partners on the 
need for an international coalition to combat ISIL and we are pleased 
with the UAE's initial response. Secretary Kerry will continue to meet 
with regional partners, including the UAE in Jeddah to continue working 
out details of this coalition. Most of the specific military and 
security contributions of gulf partners will be classified, but we are 
prepared to provide a briefing on this subject in a classified setting.

    Question. The State Department describes the U.A.E. as a ``key 
partner.''

  <diamond> A. How would you define the core elements of our strategic 
        relationship with the U.A.E.?

    Answer. The core elements of our strategic partnership with the UAE 
are our shared goals for a stable region, our military and security 
partnership to confront the threats to the region, and our significant 
trade relationship.
    On security, over 3,000 U.S. military personnel and key U.S. 
military assets are deployed to UAE bases. The UAE has been a reliable 
contributor to international coalition operations, participating in 
five major efforts with the United States since Operation Desert 
Storm--the only Arab country to do so. The UAE Air Force is built 
around the F-16 fighter, and the UAE has acquired a range of U.S. 
weapons systems to make its military interoperable with U.S. Forces. 
The UAE military is among the most capable in the Middle East, and the 
UAE modeled its new National Defense College on our own.
    The UAE is one of our most important trading partners in the Middle 
East, importing over $22 billion in U.S. goods in 2013. It is the 
largest destination for U.S. exports in the region. In November 2013, 
Boeing and GE announced orders of over $100 billion for aircraft and 
engine sales to Etihad Airways, Emirates Airlines, and Flydubai. These 
combined deals, the largest in civil aviation history, will support 
hundreds of thousands of U.S. jobs for the next decade.
    The Emiratis have been an important partner on Afghanistan, where 
they have fielded troops as part of ISAF; on Syria, where they are 
engaged in support for the SOC and in humanitarian relief efforts to 
offset the huge strain placed by Syrian refugees on neighboring 
countries such as Jordan; on Iran, where they have strongly supported 
and implemented a broad range of sanctions; and on Somalia, where they 
play a key role in stabilization efforts and counterpiracy.

  <diamond> B. In your opinion, how does the U.A.E. view this 
        relationship?

    Answer. Speaking from my experience as the Deputy Assistant 
Secretary of State for Gulf Affairs, and my many conversations with 
Emirati leaders, I am confident that the UAE values its relationship 
with the United States deeply. We have differences of perspective and 
approach on issues from time to time, as we do with even our closest 
allies. However, Emirati leaders are clear that they aspire to a truly 
strategic relationship with the United States, and view U.S. leadership 
in the region as indispensable to the UAE's security.

  <diamond> C. Is the United States regarded as an indispensable 
        partner of the U.A.E.?

    Answer. I believe the relationship is hugely valuable to both 
parties, and if confirmed I will work to ensure that the partnership 
continues to support U.S. national security objectives regionally and 
internationally.

    Question. According to State's Human Rights Report, the U.A.E. has 
an estimated 20,000 to 100,000 Bidoon (stateless individuals) who are 
mostly Baluchis or Pakistanis who came to the U.A.E. before there were 
defined boundaries. In many cases these individuals have lived there 
for centuries.

  <diamond> What progress is being made by the U.A.E. Government to 
        address the problems routinely faced by the Bidoon, including 
        harassment and discrimination?

    Answer. In July 2012, the UAE Government expanded the mandate of a 
government committee charged with reviewing requests for citizenship. 
Under the broader mandate, the committee could take up applications of 
those Bidoon who could satisfy certain legal conditions to be eligible 
for naturalization and subsequently could gain access to education, 
health care, and other public services. Separate from that, Bidoon who 
register with the government are able to receive identification cards, 
which allow individuals to work in public sector jobs and obtain 
medical services. The government is working with individual Bidoon to 
correct their residential status, and some Bidoon have begun to attend 
public schools alongside Emiratis. Some Bidoon have availed themselves 
of another country's citizenship, namely that of the Republic of 
Comoros, to gain a passport and legal identification under a program 
supported by the UAE Government. Nevertheless, if they were deported, 
the Republic of Comoros would not accept these persons.
    More work must be done to ensure that the status of these stateless 
individuals is rectified. The U.S. Embassy regularly raises these 
concerns with the UAE Government, and meets with stateless individuals 
to stay apprised of the current situation facing the Bidoon.

    Question. The U.A.E. has long-standing worker rights issues for 
noncitizens, including allegations in May of serious abuse toward South 
Asian workers constructing buildings for an Abu Dhabi branch of NYU.

  <diamond> A. What is the U.A.E. doing to correct these abuses?

    Answer. On the specific question of the NYU allegations, NYU Abu 
Dhabi is working on an ongoing basis with the Mott McDonald Group, a 
third-party auditor. In addition, the government of Abu Dhabi and the 
New York University announced in June that Daniel Nardello, a former 
Assistant U.S. Attorney in New York, would lead an investigation to 
inquire into labor conditions at NYU Abu Dhabi.
    While the UAE Government views labor conditions as a serious issue, 
and UAE law prohibits all forms of forced or compulsory labor, 
enforcement of the law is far from adequate. The Emirati Government has 
taken some steps to prevent forced labor, including developing a Wages 
Protection System (WPS), an electronic salary transfer system intended 
to ensure timely and full payment of agreed wages. The government fines 
employers who violate workers' rights by entering incorrect information 
into the WPS, not paying workers for over 60 days, making workers sign 
documents falsely attesting to benefits, or making workers pay 
recruitment fees issued by the Ministry of Labor or recruitment 
agencies. The Ministry of Labor made 200 inspection and followup visits 
to recruitment agencies. The Ministry's Combating Human Trafficking 
Department conducted 474 inspection visits. However, the government 
rarely prosecutes potential forced labor cases under the country's 
antitrafficking law and does not provide protection services for forced 
labor victims.

  <diamond> B. How can the Embassy help the U.A.E. to develop laws or 
        other mechanisms to stop these problems?

    Answer. As part of our ongoing dialogue with the UAE Government, 
the Embassy urges the UAE to continue investigating any allegations of 
abuse, as well as to pursue new means of protecting laborers and 
improve labor conditions.

  <diamond> C. Has the Embassy used the International Visitor 
        Leadership Program (IVLP) in the last 12 months to train 
        prosecutors and/or judges handling worker abuse cases?

    Answer. During the past 12 months, our Embassy has sought to use 
the IVLP program to familiarize UAE judges with U.S. practices on 
worker/labor abuse cases during a Single Country Program (SCP) arranged 
for the Dubai Judicial Institute in December 2013. While the SCP was 
focused on cyber crime, Mission UAE recommended that the visiting group 
engage with New York's Court Innovation Center because of the center's 
focus on human trafficking issues. This meeting took place, and the 
judges reported that it was one of the most productive of their trip.
                                 ______
                                 

            Responses of Pamela Leora Spratlen to Questions 
                  Submitted by Senator Robert Menendez

    Question. I sent a letter to President Karimov in May to express 
concern about the imprisonment of Dilmurod Saidov, Salijon 
Abdurakhmanov, Akzam Turganov, Bobmurod Razzokov, and Muhammad 
Bekjanov. Several human rights groups as well as the Bureau for 
Democracy, Human Rights and Labor have highlighted the political nature 
of these cases and called for their release.

  <diamond> What is the current status of these five prisoners?
  <diamond> Please provide a summary of recent U.S. efforts to secure 
        their release.
  <diamond> If confirmed, how will you advocate on behalf of these and 
        other prisoners of conscience in Uzbekistan?

    Answer. These five prisoners remain incarcerated. Muhammad Bekjanov 
is in urgent need of medical care because his health has severely 
deteriorated over the last 15 years he spent in prison. In a press 
release after a January 2014 prison visit, human rights activists 
reported that Salijon Abdurakhmanov's health had improved after he 
received 2 months of treatment for a stomach ailment. Dilmurod Saidov 
stated that he had not been subject to mistreatment and had been 
exempted from physical labor while Akzam Turgunov reportedly linked an 
improvement in his prison conditions with the June 2013 letter that 
Senator Durbin and 11 of his colleagues sent to President Karimov.
    The United States has ongoing concerns about the human rights 
situation in Uzbekistan. The Department of State consistently raises 
prisoner cases at the highest levels of the Uzbekistani Government, and 
we have made specific inquiries about the plight of several prisoners. 
In May 2014, Deputy Secretary of State William J. Burns raised the 
cases of Dilmurod Saidov, Salijon Abdurakhmanov, and Akzam Turganov 
with Foreign Minister Kamilov. On April 28, the State Department 
Spokesperson publicly highlighted the case of Muhammad Bekjanov as part 
of the Department's 2014 Free the Press Campaign. The State Department 
highlighted Bobmurod Razzokov's case in its most recent Human Rights 
Report.
    If confirmed, I will employ persistent engagement with the 
Government of Uzbekistan to advocate on behalf of these and other 
prisoners of conscience in Uzbekistan, and for needed broader reforms 
to address torture, due process, and other serious human rights 
concerns. I will use congressionally mandated reports, multilateral 
fora, and my own good offices to urge the government to end its 
practice of politically motivated imprisonment. I will also encourage 
the government to allow civil society organizations such as the 
International Committee of the Red Cross access to prisons to monitor 
conditions there. I will work with Members of Congress to amplify the 
messages of advocacy on behalf of prisoners of conscience. Prisoner 
cases will be a top priority for me if confirmed.

    Question. Large-scale, government-organized use of forced labor, 
particularly for harvesting cotton, is a serious and entrenched human 
rights issue in Uzbekistan.

  <diamond> If confirmed, what approach will you take with the 
        Government of Uzbekistan to persuade it to end this practice?
  <diamond> What role, if any, can the United States play in supporting 
        agricultural sector reforms that will end the use of forced 
        labor?

    Answer. The State Department has long-standing concerns about 
forced labor of children and adults in Uzbekistan, as evidenced by 
Uzbekistan's Tier 3 ranking on the State Department's ``Trafficking in 
Persons Report.'' If confirmed, I will continue to make ending the 
forced labor of children and adults in Uzbekistan a top priority. To 
this end, I will continue to work with the Government of Uzbekistan and 
the International Labor Organization (ILO) on a program for cooperation 
aimed at ultimately eliminating forced labor in Uzbekistan. If 
confirmed, I will urge the government to continue to engage with the 
ILO and press for further action by the government to address the 
forced labor of 15-18 year olds and of adults. If confirmed, I will 
also seek to hold the Government of Uzbekistan to its recent commitment 
to keep all children under the age of 18 out of the cotton fields 
during the 2014 harvest, which began on September 8.
    The United States can continue to press for agricultural sector 
reforms that will end the use of forced labor. The United States 
strongly supports the ILO's recently established Decent Work Country 
Program (DWCP), and if confirmed, I will continue this important 
support. The DWCP is designed to help Uzbekistan comply with 
international labor standards and will analyze the forced labor problem 
in Uzbekistan, including the economic, political, and social causes, 
and provide specific recommendations to the government on how to 
improve. Given the complexity of this problem, if confirmed, I will 
employ steady, persistent engagement over the full course of my tenure 
as Ambassador with the goal of ultimately ending the forced labor of 
adults and children in Uzbekistan. If confirmed, I will also work with 
Members of Congress and civil society to address this problem.

    Question. I am concerned about the nature of our security 
cooperation with Uzbekistan and strongly support the assistance 
conditions outlined in section 7076 of the FY14 appropriations law 
related to human rights, the establishment of a multiparty political 
system, free and fair elections, freedom of expression, and the 
independence of the media. In July, the administration exercised a 
national security waiver to continue assistance to Uzbekistan despite 
lack of progress on those issues.

  <diamond> Can U.S. security assistance be used to leverage progress 
        on democracy and human rights?
  <diamond> Does exercising this waiver diminish the U.S. ability to 
        promote the democratic principles outlined in section 7076 of 
        the FY14 appropriations law?
  <diamond> How will you specifically work to advance the principles 
        laid out in section 7076 of the FY14 appropriations law?

    Answer. Increased security cooperation with Uzbekistan has afforded 
us the opportunity to address issues like respect for human rights with 
Uzbekistan's security forces. We view the expanded access afforded by 
this enhanced cooperation as an opportunity to make the point to our 
Uzbekistani partners that effectiveness in countering terrorism and 
violent extremism--our common objective--is undermined by repression of 
citizens' rights.
    Our security cooperation is complemented by a foreign assistance 
portfolio that aims to increase civil-society participation in 
government decisionmaking and support rule-of-law and judicial reform. 
Several of our programs, such as exchanges and health sector 
cooperation, increase our ability to promote the democratic principles 
outlined in prior congressional legislation by promoting engagement 
with the people of Uzbekistan.
    Exercising this waiver does not diminish the U.S. ability to 
promote democratic principles. It allows the United States to provide 
assistance to the central government of Uzbekistan, including nonlethal 
equipment to enhance Uzbekistan's ability to combat transnational and 
terrorist threats. Enhancing Uzbekistan's defensive capacity improves 
the security of the United States supply transit system to Afghanistan 
and our ability to support U.S. troops there.
    The State Department anticipates that the nature of our security 
cooperation with Uzbekistan will soon transition from NDN-focused to an 
effort aimed at preventing Afghanistan from once again becoming a safe 
haven for terrorists who seek to attack U.S. interests or the homeland. 
The United States seeks to cooperate with Uzbekistan on preventing a 
resurgence of terrorism in this region, particularly through training 
on counterterrorism and counternarcotics missions. Uzbekistan is an 
increasingly important partner in these efforts, especially in light of 
the threat that terrorist groups like ISIL pose to the Middle East and 
Southwest Asia.
    If confirmed, I will continue Embassy Tashkent's steadfast efforts 
to improve the human rights situation in Uzbekistan. I believe that 
respect for human rights and security cooperation both are high 
priority objectives, and if confirmed, I will pursue U.S. objectives 
vigorously in both arenas. If confirmed, I will employ persistent, 
pragmatic engagement at the highest levels to urge Uzbekistan to 
improve its human rights record. I will press for expanded operating 
space for civil society and partner with both domestic and 
international nongovernmental organizations to hold the Government of 
Uzbekistan accountable on respect for fundamental freedoms. I will also 
use U.S. assistance programs to effect the changes called for by prior 
congressional legislation. Finally, I will regularly consult with 
Members of Congress in order to keep them informed on Uzbekistan's 
progress.

    Question. If confirmed, please describe steps that you will take to 
enhance effective implementation of Section 620M of the Foreign 
Assistance Act of 1961, commonly known as the Leahy amendment, within 
the Embassy in Tashkent as well as the steps you would take to 
accomplish the goal of the law, namely, ending impunity for human 
rights violations by security forces.

    Answer. Encouraging accountability and respect for human rights 
among security forces features prominently in the U.S. security 
relationship with Uzbekistan. If confirmed, I will continue to 
encourage the Government of Uzbekistan to improve its human rights 
record and end impunity for human rights violators, especially among 
security forces.
    If confirmed, I will continue Embassy Tashkent's effective 
implementation of Section 620M of the Foreign Assistance Act, commonly 
known as the Leahy amendment. Embassy Tashkent has a comprehensive 
system in place to implement the Leahy amendment, commonly known as 
``Leahy vetting.'' If confirmed, I will ensure we are conducting Leahy 
vetting based on the most complete information available. If the 
vetting process reveals credible information that a unit or a security 
force member has committed a gross violation of human rights, the 
Embassy will deny that unit or individual from receiving assistance and 
will notify the host government promptly. In these cases, if confirmed, 
I will instruct my team to join me in strongly encouraging Uzbekistan 
to take effective steps to thoroughly investigate any allegations of 
gross human rights violations.
    To assist Uzbekistan in ending impunity for human rights violations 
by security forces, if confirmed, I will use existing and future 
military exchange and assistance programs to promote respect for human 
rights among Uzbekistan's security forces. Also, if confirmed, I will 
stress with my Uzbek interlocutors that the lack of sufficient progress 
on human rights will continue to constrain our bilateral relationship. 
Finally, if confirmed, I will keep Members of Congress informed of our 
efforts and cooperate closely with the legislative branch on improving 
Uzbekistan's overall human rights record.
                                 ______
                                 

           Responses of Rabbi David Saperstein to Questions 
                    Submitted by Senator Marco Rubio

    Question. Many who support your nomination differ with you on 
questions related to religious freedom, such as the meaning of marriage 
and the right to life.

  <diamond> May I have your assurance that you will use your position 
        to protect the religious freedom of those who disagree with you 
        on issues such as same-sex marriage and abortion?

    Answer. Throughout my career, I have had the opportunity to serve 
in leadership roles in interfaith coalitions spanning all major faith 
groups, and in faith groups in the United States with a broad range of 
theological views. My work with these groups has been driven by our 
shared values, including the universal freedoms of thought, conscience, 
and belief. This includes the freedom to manifest one's beliefs not 
only through worship but through teaching, preaching, practice, 
observance, and political expression. If confirmed, I will work to 
ensure these internationally recognized rights of religious freedom for 
everyone, including those with differing views on marriage and 
abortion.

    Question. On numerous occasions, I have voiced concern on the 
issuance of the Country of Particular Concern designations. Until 
recently, the administration had waited almost 3 years to reissue this 
designation.

  <diamond> Would you support making the CPC designation an annual 
        occurrence as part of the International Religious Freedom 
        Report rollout?

    Answer. The International Religious Freedom office leads an annual 
review of all Countries of Particular Concern and other countries where 
gross violations of religious freedom are alleged to occur. If 
confirmed, I will participate fully in the annual review of countries 
and work within the Department of State to regularize the designation 
or redesignation processes as appropriate. The CPC process should be 
regular and systematic to be most effective. Indeed, under IRFA, we do 
not need to wait for the annual report if designation of a country is 
justified. Ultimately, my goal will be to put the CPC designations to 
the most effective use possible to encourage needed reform. We will use 
the CPC process, plus a range of diplomatic tools, in our efforts to 
end violence and discrimination and promote international religious 
freedom.

    Question. A common concern is that the Ambassador at Large is 
buried in the bureaucracy at the State Department, without the 
authority or resources to accomplish anything. In the past, the State 
Department's treatment of this position has shown that it is a far 
lesser priority than, for example, the Ambassador at Large for Global 
Women's Issues.

  <diamond> Who will you directly report to?
  <diamond> Have you received assurances that you will be given the 
        authority and resources to succeed?
  <diamond> If after you enter your post, you find that you do not have 
        the tools to succeed, will you return to this committee and 
        recommend changes to the International Religious Freedom Act?

    Answer. If confirmed, I will serve as the principal advisor on 
religious freedom issues to the President and Secretary of State. The 
office that supports me is located administratively in the Bureau of 
Democracy, Human Rights and Labor (DRL), permitting me to draw on DRL's 
staffing, resources, and administrative support. I will report my 
findings and advice directly to the Secretary, as I deem appropriate, 
and I look forward to working with colleagues throughout the State 
Department and interagency to coordinate policy on religious freedom 
issues. If confirmed, I promise to work closely with this committee and 
Congress to advance our shared goal of promoting religious freedom 
worldwide.

    Question. Earlier this year, Boko Haram kidnapped nearly 300 school 
girls in Nigeria. Although some of these girls have escaped, most 
remain captives of this terrorist organization. The Christian 
Association of Nigeria and International Christian Concern have stated 
that the majority of the girls kidnapped were Christian and that is why 
this particular school was targeted.

  <diamond> Would you agree that Boko Haram is a terrorist organization 
        with a religious agenda aimed at persecuting Christians?
  <diamond> If confirmed, what specifically would you do to address the 
        problem of religious persecution in Nigeria and to assist 
        Nigeria's Christian community, which is increasingly under 
        attack from Boko Haram?

    Answer. Boko Haram, seeks to impose its violent extremist ideology 
on the territory it controls and was designated a terrorist 
organization on November 13, 2013, Boko Haram has murdered more than 
5,000 people over the last 4 years. Their attacks have included 
indiscriminate acts of violence and targeted violence against perceived 
enemies and while the majority of their victims have been Muslim, the 
group has deliberately targeted Christians, as well as Muslims who 
spoke out against or opposed their radical ideology.
    The Department takes the issue of religious persecution in Nigeria 
very seriously, and if confirmed, addressing this will be a priority 
for me. In fiscal years 2012 and 2013, the Department of State 
allocated approximately $35.8 million in security assistance programs 
that benefited Nigeria, subject to congressional notification and 
approval. The Department of State is working with vetted police and 
civilian security components to build Nigerian law enforcement 
capacities to investigate terrorist cases, manage explosive devices, 
and secure Nigeria's borders. The Department of State is also 
supporting training of a vetted Army infantry unit to combat Boko Haram 
militarily.
    If confirmed, I will work with the Government of Nigeria, Nigerian 
religious leaders, and civil society groups in their efforts to combat 
Boko Haram and to promote respect for ethnic and religious diversity as 
a central component to bringing peace and stability back to the people 
of Nigeria. If confirmed, I will also support DRL's work with Nigerian 
civil society to increase accountability for perpetrators of violence 
by addressing the ethnoreligious violence in the Middle Belt and by 
building strong, nonpartisan institutions.

    Question. Religious freedom violations rarely occur in a vacuum; 
they are usually deeply connected to a complex context: deep-rooted 
militant religious nationalism in countries like Burma, Sri Lanka, and 
India, repressive regimes like those we see in China, Central Asia, 
Cuba, Vietnam, and North Korea, internal conflict and the influence of 
terrorist or criminal groups as we see in Pakistan and Indonesia or 
religious extremism of the sort we see in much of the Middle East but 
also on the rise in North Africa and parts of Asia. U.S. policy on 
international religious freedom is often further complicated by 
economic or geopolitical strategic relationships and interests.

  <diamond> As Ambassador, how will you seek to address the root causes 
        of international religious freedom violations in a holistic 
        way--within the State Department, but also with Congress, the 
        Department of Defense, Department of Homeland Security, and the 
        White House's National Security Council?

    Answer. Threats to international religious freedom worldwide are 
interlinked with many other factors, such as repressive regimes, 
internal conflict, and violent extremism. Promoting religious freedom 
is a whole-of-government effort, and effectively elevating and 
advocating for religious freedom requires a unified effort to engage 
with foreign governments on this issue. If confirmed, I will highlight 
international religious freedom concerns at all levels within the State 
Department, including our missions around the globe and I will seek to 
work cooperatively with the Department of Defense, Department of 
Homeland Security, and with the White House's National Security 
Council. In addition, if confirmed, I will pursue discussions with 
civil society members, including religious leaders, people of faith, 
and NGO representatives, regarding the root causes of religious freedom 
violations and will work multilaterally as well as bilaterally to urge 
and advance reforms.

 
  NOMINATIONS OF PETER ZUMWALT; ROBERT YAMATE; VIRGINIA PALMER; RABBI 
                            DAVID SAPERSTEIN

                              ----------                              


                      THURSDAY, SEPTEMBER 11, 2014

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

James Peter Zumwalt, of California, to be Ambassador to the 
        Republic of Senegal and to serve concurrently and 
        without additional compensation as Ambassador to the 
        Republic of Guinea-Bissau
Robert T. Yamate, of California, to be Ambassador to the 
        Republic of Madagascar, and to serve concurrently and 
        without additional compensation as Ambassador to the 
        Union of the Comoros
Virginia E. Palmer, of Virginia, to be Ambassador to the 
        Republic of Malawi
Rabbi David Nathan Saperstein, of the District of Columbia, to 
        be Ambassador at Large for International Religious 
        Freedom
                              ----------                              

    The committee met, pursuant to notice, at 3:05 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Christopher 
A. Coons presiding.
    Present: Senators Coons, Kaine, and Flake.

        OPENING STATEMENT OF HON. CHRISTOPHER A. COONS, 
                   U.S. SENATOR FROM DELAWARE

    Senator Coons. I am pleased to chair this hearing for the 
ambassadorial nominees to Senegal and Guinea-Bissau, Madagascar 
and Comoros, and Malawi, as well as for the nominee to serve as 
our Ambassador at Large for Religious Freedom. All four 
individuals before us today have impressive records of 
accomplishment and I look forward to hearing their priorities 
for advancing U.S. interests and goals.
    Our first nominee is to serve in Senegal and Guinea-Bissau. 
Senegal has a strong record as a stable democratic partner, a 
regional ally in peacekeeping and counterterrorism. Especially 
since the election in 2012 of President Sall, Senegal has also 
been a partner in countering corruption and promoting growth. 
In contrast, Guinea-Bissau has faced numerous challenges, 
including civil war, coups, and narcotrafficking, that have 
contributed to instability.
    James Zumwalt, nominee for the post in Senegal and Guinea-
Bissau, is a career Foreign Service officer currently serving 
as Deputy Assistant Secretary for Japan and Korea. He has 
experience with difficult circumstances which have well 
prepared him for this post. He led the interagency team that 
managed the U.S. response to the 2011 tsunami and previously 
served in the DRC.
    Next we consider Malawi, a country that recently 
experienced elections that were successful and is working to 
improve development and governance and growth. Malawi has been 
a strong contributor to regional peacekeeping missions and is 
an MCC partner.
    Virginia Palmer, our second nominee, is a career member of 
the Foreign Service with a distinguished record, most recently 
serving as DCM in the Embassy in South Africa. I had the 
privilege, indeed the joy, of visiting Ms. Palmer and seeing 
her leadership firsthand during a CODEL last year and was 
impressed with her broad understanding of regional dynamics, 
including the importance of AGOA and the U.S. economic 
relationship.
    Next we consider Madagascar and the Comoros. Madagascar is 
finally emerging from 5 years of unrest and transitioning to a 
democratically elected government. Resumption of its 
eligibility for AGOA is an indicator of its recent progress. 
Challenges remain and the next U.S. Ambassador will have to 
work on continuing to rebuild our ties.
    Meanwhile, Comoros has a strong relationship with the 
United States, particularly as it relates to security. Robert 
Yamate, our nominee to serve in both countries, has experience 
serving in Madagascar in addition to other valuable African 
posts. His experience on the continent, most recently as DCM in 
Senegal, makes him a strong candidate for reestablishing and 
strengthening our ties with Madagascar and Comoros.
    Finally, we consider Rabbi David Saperstein, our nominee 
for Ambassador at Large for International Religious Freedom, a 
critically important issue as religious minorities face grave 
threats around the world. Just yesterday Senator Kirk and I 
cochaired the first Senate Human Rights Caucus event, focusing 
on the brutal human rights violations perpetrated by ISIS in 
Iraq and Syria, including violence against Christians, Yazidis, 
Shia, Sunnis, and others.
    As religious minorities face persecution globally, I am 
pleased President Obama has nominated Rabbi David Saperstein 
for this important post. As the first chair of the U.S. 
Commission on International Religious Freedom, he has ably 
demonstrated his ability to defend and advance U.S. values and 
protect religious freedom.
    I would like to welcome all our nominees and encourage them 
to introduce their families. These positions require a whole-
of-family effort and we are grateful for your sacrifices and 
ongoing support. But first I would like to invite Senator Flake 
to give his opening statement.
    Senator Flake. Thank you, Senator Coons.

             OPENING STATEMENT OF HON. JEFF FLAKE, 
                   U.S. SENATOR FROM ARIZONA

    I appreciated the opportunity to meet all of you in my 
office earlier this week and last week. I really appreciate the 
sacrifices that the families go through, for a lot of these 
far-away posts in particular. Some of you have been doing it 
actually a long time. I enjoyed meeting Ms. Palmer also last 
year on a different CODEL and look forward to hearing from you, 
and I appreciate your willingness to serve.
    Thanks.
    Senator Coons. I would now like to invite each of our four 
nominees to make your opening statement and to introduce your 
families. Let me start with Mr. Zumwalt.

 STATEMENT OF JAMES PETER ZUMWALT, OF CALIFORNIA, NOMINATED TO 
     BE AMBASSADOR TO THE REPUBLIC OF SENEGAL AND TO SERVE 
CONCURRENTLY AND WITHOUT ADDITIONAL COMPENSATION AS AMBASSADOR 
                TO THE REPUBLIC OF GUINEA-BISSAU

    Mr. Zumwalt. Chairman Coons, Ranking Member Flake, I am 
honored to appear before you today. I wish to thank President 
Obama and Secretary Kerry for the trust and confidence they 
have placed in me as their nominee for United States Ambassador 
to the Republic of Senegal and to the Republic of Guinea-
Bissau.
    Mr. Chairman, I would like to introduce my wife, Ann 
Kambara, who is sitting behind me, and until last month also 
served her country as a Foreign Service officer. Since we met 
31 years ago, we have worked together in a variety of countries 
and in Washington. Ann has been my anchor, my sounding board, 
and my inspiration. She has supported me enthusiastically as I 
prepared for this new opportunity to serve.
    I also wish to acknowledge my mother, who I think is 
watching this hearing. She is the person who first stimulated 
my interest in foreign cultures and she supported my career 
choice to join the Foreign Service, even though she knew it 
would mean that we would live far apart. So, Mom, thanks so 
much for your love and your support all of these years.
    Mr. Chairman, with your permission I have a written 
statement that I would like to submit for the record.
    Senator Coons. Without objection.
    Mr. Zumwalt. Thank you.
    As a regional leader, Senegal has helped to resolve 
conflicts by deploying peacekeepers across Africa, and we have 
worked together with Senegal to combat religious extremism, 
transnational crime, and infectious diseases. If confirmed, I 
would work closely with the government and civil society in 
Senegal to sustain and build upon this partnership.
    Senegal is one of our most important African partners. As 
you mentioned, Mr. Chairman, the 2012 Presidential election 
reinforced Senegal's role as a model of stable democracy. We 
share common values, including religious tolerance and respect 
for ethnic and cultural diversity. President Macky Sall's visit 
to Washington, DC, for the U.S.-Africa Leaders summit 
underscored the importance of our partnership. If confirmed, I 
would look forward to strengthening our close ties.
    Senegal is also a leading U.S. development partner, where 
the United States Agency for International Development, the 
Millennium Challenge Corporation, the Peace Corps, and other 
U.S. agencies build regional infrastructure, improve food 
security, and strengthen education and health care services. If 
confirmed, I would continue these efforts to help Senegal 
achieve inclusive economic growth, including through expanded 
bilateral trade and investment flows.
    As you mentioned, Mr. Chairman, Guinea-Bissau has suffered 
from decades of poor governance and widespread corruption, 
which have weakened state institutions there. However, we do 
see signs of progress. Guinea-Bissau held parliamentary and 
Presidential elections in April and May of this year. Bissau-
Guineans voted in large numbers, highlighted the people's 
desire for domestic and responsive government.
    Following the inauguration of a democratically elected 
president, President Jose Mario Vaz, the United States lifted 
restrictions on foreign assistance. If confirmed, I look 
forward to working with the Government of Guinea-Bissau and our 
international partners to support this democratic process. In 
order to break its cycle of instability, the Guinea-Bissau 
Government must address reconciliation, combat trafficking of 
narcotics and natural resources, and implement economic 
reforms. But if confirmed I would travel frequently to Bissau 
to build strong relationships with the government, with civil 
society, business, and religious leaders, and with the people 
of Guinea-Bissau in order to advance U.S. interests there.
    Thank you, Mr. Chairman and Ranking Member Flake, for your 
continuing interest in Africa. We are truly fortunate to enjoy 
strong bipartisan support from the Congress for our efforts to 
promote democratic values, sustainable economic development, 
and to strengthen people-to-people ties. If confirmed, I look 
forward to working with you, with your committee, and other 
Members of Congress to represent the interests of the American 
people in Senegal and Guinea-Bissau.
    I would be happy to answer your questions. Thank you.
    [The prepared statement of Mr. Zumwalt follows:]

               Prepared Statement of James Peter Zumwalt

    Mr. Chairman, Ranking Member Flake, and members of the committee, I 
am honored to appear before you today. I wish to thank President Obama 
and Secretary Kerry for the trust and confidence they have placed in me 
as their nominee for Ambassador to the Republic of Senegal and to the 
Republic of Guinea-Bissau.
    Mr. Chairman, I would like to introduce my wife, Ann Kambara. Ann, 
until last month, also served her country as a Foreign Service officer. 
We met 31 years ago when we both worked at our mission in Japan. Since 
then we have worked together to advance U.S. interests in a variety of 
countries and in Washington. When we worked together far from home, Ann 
became my anchor, my sounding board and my inspiration. She has 
supported me enthusiastically as I prepare for this new opportunity to 
serve. If confirmed, it would be a great honor and privilege to promote 
again U.S. interests in Senegal and Guinea-Bissau.
    Senegal is one of our most important African partners. The 
transparent, free, and peaceful 2012 Presidential election reinforced 
the country's role as a model of stable democracy in Africa. We share 
common values, including democracy, religious tolerance, and respect 
for ethnic and cultural diversity. President Macky Sall's visit to 
Washington, DC, to participate in the U.S.-Africa Leaders summit last 
month--where he agreed to play a leading role to establish the 
Partnership on Illicit Finance, an anticorruption and transparency 
initiative--and President Obama's visit to Senegal last year further 
underscored the importance of our bilateral relationship. If confirmed, 
I look forward to strengthening our shared democratic values and our 
close ties.
    Senegal is a leading U.S. development partner in West Africa, where 
investments by the United States Agency for International Development, 
the Millennium Challenge Corporation and other U.S. agencies are 
helping to build rural infrastructure, improve food security, and 
strengthen education and health care services. In addition, 220 
American Peace Corps Volunteers play an important role in grassroots 
development and building people-to-people ties. To reinforce these 
efforts, the Government of Senegal this year unveiled an ambitious 
development plan, which aims to accelerate economic reforms, and 
mobilize private sector investment in order to boost economic growth. 
If confirmed, I will continue these efforts to help Senegal achieve 
inclusive economic growth, including through business climate reforms 
to facilitate private sector-led growth. Senegal is well-positioned to 
build on its role as a regional business hub, and, if confirmed, I 
would engage U.S. and Senegalese Government and business leaders to 
promote bilateral trade and investment.
    As a regional leader, Senegal has helped to resolve conflicts 
across the continent--most recently by deploying peacekeeping troops to 
the U.N. Mission in Mali. As a result of Senegal's commitment to 
promoting peace and security, Senegal was selected as one of six 
countries to participate in the African Peacekeeping Rapid Response 
Partnership, a $110 million, 3-5 year initiative announced at the U.S.-
Africa Leaders summit. Senegal also serves as an important partner for 
the United States as we work together to combat religious extremism, 
transnational crime, and infectious diseases in West Africa. If 
confirmed, I would work closely with the government and civil society 
in Senegal to sustain and build upon our regional partnership to 
promote democracy, economic development, and combating transnational 
threats.
    Under President Sall's leadership, we have seen significant 
progress in the Casamance peace process--Africa's longest running 
conflict. Negotiations continue and we hope the remaining obstacles to 
a long-lasting peace agreement will be resolved. We support the peace 
process through our Casamance advisor, based at the U.S. Embassy in 
Dakar. In addition, the United States Agency for International 
Development, the Department of Agriculture and the Millennium Challenge 
Corporation are also engaged in programs and projects which contribute 
to regional stability and prosperity. If confirmed, I would continue to 
prioritize the Casamance peace process in our engagement with Senegal.
    Guinea-Bissau has suffered from decades of poor governance and 
widespread corruption, which have weakened state institutions and 
rendered the government ineffective in providing basic services to its 
citizens. However, we are beginning to see progress. Guinea-Bissau held 
parliamentary and Presidential elections in April and May of this year, 
2 years after a military coup. Bissau-Guineans went peacefully to the 
polls in the large numbers, highlighting their strong desire for 
democracy and responsive government.
    Following the inauguration of democratically elected President Jose 
Mario Vaz, the United States lifted coup-related restrictions on 
foreign assistance to Guinea-Bissau. If confirmed, I look forward to 
working with the Government of Guinea-Bissau and our international 
partners to determine how best the United States can support democratic 
progress. In order for Guinea-Bissau to break its cycle of instability, 
its government must address reconciliation, combat trafficking of 
narcotics and natural resources, and implement multisector economic 
reforms, which would increase investment, spur sustainable development, 
generate employment, and reduce poverty. If confirmed I would continue 
to promote U.S interests in Guinea-Bissau from the U.S. Embassy in 
Dakar. Embassy Dakar officials, including one position dedicated full 
time to Guinea-Bissau, will continue to play an invaluable role by 
traveling frequently to Guinea-Bissau to build strong relationships 
with government, civil society, business, and religious leaders, to 
inform our policy, and to advance U.S. interests.
    Thank you, Mr. Chairman and Ranking Member Flake, for your 
continuing interest in the United States relations with Africa. We are 
fortunate to have the strong bipartisan support for our efforts to 
promote democratic values, sustainable economic development, and 
vibrant partnerships through people to people ties. If confirmed, I 
look forward to working with you, your committee and other Members of 
Congress in representing the interests of the American people in 
Senegal and Guinea-Bissau.
    I would be happy to answer your questions.

    Senator Coons. Thank you, Mr. Zumwalt.
    Mr. Yamate.

 STATEMENT OF ROBERT T. YAMATE, OF CALIFORNIA, NOMINATED TO BE 
    AMBASSADOR TO THE REPUBLIC OF MADAGASCAR, AND TO SERVE 
CONCURRENTLY AND WITHOUT ADDITIONAL COMPENSATION AS AMBASSADOR 
                  TO THE UNION OF THE COMOROS

    Mr. Yamate. Mr. Chairman and Ranking Member Flake, I am 
honored to appear before you today as President Obama's nominee 
as Ambassador to the Republic of Madagascar and the Union of 
the Comoros. If confirmed, I look forward to strengthening our 
relationships with the Government of Madagascar and the 
Government of the Comoros.
    Mr. Chairman, please allow me at this time to introduce to 
you my wife, Michiko, who has been my partner and confidante 
through almost 30 years of Foreign Service assignments.
    My career with the Department of State, particularly my 
postings in Africa, has given me the expertise and experience 
that will enable me to lead our relationships with Madagascar 
and the Comoros effectively. I particularly enjoyed my 
assignments in the region, in Dakar, Abidjan, Harare, and, most 
significant in today's discussion, Antananarivo, where I served 
over 20 years ago.
    This is a critical time in our engagement with Madagascar. 
The 2009 coup resulted in sanctions and restrictions during the 
regime of the de facto government. After nearly 5 years of 
international isolation, President Rajaonarimampianina's win in 
the 2013 democratic elections has given us to opportunity to 
engage with the new government in support of the country's 
domestic, development, security, and economic improvement.
    The new Government of Madagascar outlined in their general 
state policy its principal priorities: alleviating poverty and 
instability, strengthening rule of law, combating corruption, 
increasing foreign direct investment, and developing the 
private sector.
    Mr. Chairman, Madagascar has unique and abundant flora and 
fauna, 80 percent of which are endemic to this island nation. 
Madagascar is known for its rosewood as well as its diverse 
wildlife, including lemurs and tortoises. Due to illegal 
harvesting and export, this valuable natural heritage is under 
threat. With our assistance restrictions lifted, USAID has 
allocated $2.5 million in fiscal year 2014 funds to help 
protect the country's unique ecosystem, working toward the 
United States aim of conserving global biodiversity.
    In June of this year, the U.S. Government reestablished 
Madagascar's eligibility for the African Growth and Opportunity 
Act, creating new opportunities for employment for thousands of 
Malagasy and improving the business and investment climate. 
Strengthening the economy is crucial to Madagascar, where the 
latest figures for 2012 show that 81 percent of the population 
lives on less than $1.25 per day. Natural disasters, including 
periodic cyclones, droughts, and locust infestations have 
further compromised the living standard of the Malagasy people. 
USAID's development assistance programs continue to play a 
significant role in preserving the health and welfare of 
millions of Malagasy.
    Mr. Chairman, if confirmed I will also serve as Ambassador 
to the Union of the Comoros. Our aim is to expand positive 
relationships in these strategically located islands, which are 
home to moderate Sunni Muslim communities and a fledgling 
democratic state. Comoros is in its second decade of democratic 
rule, with peaceful transfers of power since 2001.
    While we lack a full-time U.S. presence in the Comoros, we 
maintain a close relationship with our public affairs 
programming, mil-to-mil cooperation, and regular weekly visits 
by a full-time Comoros action officer resident in Madagascar. 
If confirmed, I plan to visit the Comoros regularly.
    Looking ahead, if confirmed I look forward to the 
opportunity to serve as Ambassador to Madagascar and the 
Comoros, to advance and strengthen our relationships with both 
countries in a number of areas, notably development, stability, 
and economic cooperation.
    Mr. Chairman, Ranking Member Flake, I thank you for 
considering my nomination and I look forward to answering any 
questions you may have. Thank you.
    [The prepared statement of Mr. Yamate follows:]

                 Prepared Statement of Robert T. Yamate

    Mr. Chairman, Ranking Member Flake, and members of the committee, I 
am honored to appear before you today as President Obama's nominee as 
Ambassador to the Republic of Madagascar and the Union of the Comoros. 
If confirmed, I look forward to strengthening our relationships with 
the Government of Madagascar and the Government of the Comoros.
    Mr. Chairman, please allow me at this time to introduce to you and 
the rest of the committee my wife, Michiko, who has been my partner and 
confidante through almost 30 years of Foreign Service assignments.
    My career with the Department of State, particularly my postings in 
Africa, has given me the expertise and experience that will enable me 
to lead our relations with Madagascar and the Comoros effectively. I 
particularly enjoyed my assignments in the region, in Dakar, Abidjan, 
Harare, and, most significant in today's discussion, Antananarivo where 
I served over 20 years ago.
    This is a critical time in our engagement with Madagascar. The 2009 
coup resulted in sanctions and restrictions during the regime of the 
de-facto government. After nearly 5 years of international isolation, 
President Rajaonarimampianina's (Ra-Jo-Nar-Mam-PYANN's) win in the 2013 
democratic elections has given us the opportunity to engage with the 
new government in support of the country's democracy, development, 
security, and economic improvement.
    The new Government of Madagascar outlined in the ``General State 
Policy,'' its principal priorities: alleviating poverty and 
instability, strengthening rule of law, combating corruption, 
increasing foreign direct investment, and developing the private 
sector. The U.S. goals in Madagascar align well with Madagascar's and 
also include promoting good governance and respect for human rights. 
President Rajaonarimampianina has taken steps in the right direction. 
The Ministry of Justice's recent assessment of anticorruption efforts, 
carried out in conjunction with the United Nations Development Program 
is one such step. Early in his Presidency, Rajaonarimampianina also 
dismantled two military units that were believed to have committed 
human rights abuses and illicit activity. If confirmed as Ambassador, I 
will work with my counterparts to increase the capacity of the Malagasy 
maritime forces and law enforcement entities.
    Mr. Chairman, Madagascar has unique and abundant flora and fauna, 
80 percent of which are endemic to this island nation. Madagascar is 
known for its rosewood, as well as its diverse wildlife, including 
lemurs and tortoises. Due to illegal harvesting and export, this 
valuable natural heritage is under threat. With our assistance 
restrictions lifted, USAID has allocated $2.5 million in FY 2014 funds 
to help protect the country's unique ecosystem, working toward the U.S. 
aim of conserving global biodiversity.
    The U.S. Embassy in Antananarivo is committed to supporting the 
National Export Initiative in Madagascar, increasing exports from 
America. The best prospects for exports and investment lie in the 
extractive, construction, tourism, and textile sectors. In June of this 
year, the U.S. Government reestablished Madagascar's eligibility for 
the African Growth and Opportunity Act (AGOA), creating new 
opportunities for employment for thousands of Malagasy, and improving 
the business and investment climate.
    Strengthening the economy is crucial in Madagascar, where the 
latest figures from 2012 show that 81 percent of the population lives 
on less than $1.25 per day. Natural disasters--including periodic 
cyclones, drought, and locust infestation--have further compromised the 
living standard of the Malagasy people. USAID's development assistance 
programs continue to play a significant role in preserving the health 
and welfare of millions of Malagasy. In FY 2014, we intend to provide 
$63 million for food aid and health programs.
    Mr. Chairman, if confirmed, I will also serve as Ambassador to the 
Union of the Comoros. Our aim is to expand positive relationships in 
these strategically located islands, which are home to moderate Sunni 
Muslim communities and a fledgling democratic state. From the time 
Comoros gained independence from France in 1975 until 2000, Comoros 
suffered 20 coups or attempted coups. Today, I am happy to note, 
Comoros is in its second decade of democratic rule, with peaceful 
transfers of power since 2001. President Dhoinine (dwah-hee-NEE-nee) 
came into power in 2011, and welcomes increased U.S. Government 
engagement with Comoros to improve the capacity of government 
operations, provide English language instruction, encourage U.S. direct 
investment, and enhance security cooperation. While we lack a full-time 
U.S. presence in the Comoros, we maintain a close relationship with our 
public affairs programming, mil-to-mil cooperation, and regular weekly 
visits by a full-time Comoros officer resident in Madagascar. If 
confirmed, I plan to visit the Comoros regularly. In addition, the 
Department of Defense supports an English-language military training 
facility and medical clinic.
    Looking ahead, if confirmed, I look forward to the opportunity to 
serve as Ambassador to Madagascar and the Comoros, to advance and 
strengthen our relationships with both countries in a number of areas, 
notably development, stability, and economic cooperation. Mr. Chairman, 
I thank you and the committee for considering my nomination, and look 
forward to answering any questions you may have.

    Senator Coons. Thank you, Mr. Yamate.
    Ms. Palmer.

 STATEMENT OF VIRGINIA E. PALMER, OF VIRGINIA, NOMINATED TO BE 
              AMBASSADOR TO THE REPUBLIC OF MALAWI

    Ms. Palmer. Thank you, Mr. Chairman, Ranking Member Flake. 
It is a very great honor and privilege to appear before you as 
President Obama's nominee to serve as the U.S. Ambassador to 
the Republic of Malawi. I appreciate the confidence that the 
President and Secretary Kerry have expressed in me by putting 
my name forward for your consideration.
    I am also truly grateful for the support of my husband and 
fellow Foreign Service officer, Ismail Asmal, who is here with 
me today, my daughters, Aliya and Nadia Asmal, who have served 
for five tours overseas with us--Nadia is here today and her 
sister is watching online from California--and my parents, 
Richard and Becky Palmer, who first exposed me to the 
international world and allowed me to take those grandbabies 
far away. My mother is here today.
    If confirmed, I look forward to working with this committee 
and Congress to promote U.S. interests in Malawi, including 
strengthening Malawi's democratic institutions, encouraging 
economic growth, and improving health and education there. In 
many jobs since joining the Foreign Service in 1986, but 
particularly in overseas assignments as DCM in South Africa and 
Vietnam, as economic counselor in Nairobi, and political chief 
in Harare, I worked to promote good governance and private 
sector-led economic growth. If confirmed, this is the 
experience I will draw on to lead the terrific team that we 
have at the Embassy in Malawi to advance U.S. interests there.
    Over the last 20 years, Malawi has had multiple democratic 
transfers of power from one political party to another. When 
former President Bingu wa Mutharika died unexpectedly in 2012, 
principled leaders demanded and achieved a constitutionally 
correct handover of power, a triumph for Malawi. Malawi's 2014 
elections marked another democratic milestone for Africa. The 
election of President Peter Mutharika was unambiguous and power 
again passed peacefully from one party to another.
    If confirmed, I will work to further develop democratic 
institutions in Malawi. I look forward to supporting priorities 
shared by the United States and Malawi of improving Malawi's 
public financial management, modernizing the civil service to 
increase government accountability, and ending corruption.
    Malawi is one of the poorest countries in the world, with 
per capita GDP of only $226. Over 45 percent of Malawians are 
under the age of 15, presenting daunting economic and 
educational challenges as Malawi strives to meet the Millennium 
Development Goals. If confirmed, I will support U.S. Government 
efforts to encourage private sector-driven sustainable economic 
growth to help alleviate this crushing poverty.
    A member of the New Alliance for Food Security, Malawi has 
committed to improving its investment climate and to expanding 
its markets. Our Feed the Future program, which focuses on crop 
diversification and enhanced trade, is directly supportive of 
the new alliance and will make Malawi more food secure. Our 
$350 million Millennium Challenge Corporation compact, which 
will help with infrastructure improvements and power sector 
reforms, will expand access to much-needed electricity and 
encourage private sector investment.
    Our broad economic engagement in Malawi is complemented by 
our strong commitment to health and education assistance, vital 
to helping Malawi's human capital. The United States is the 
largest bilateral donor to the Malawi health system, with a 
2014 budget of $155 million. If confirmed, I will work to 
maximize the effectiveness of our PEPFAR and other health care 
programs in Malawi.
    Improvements in Malawi's education system are likewise 
essential if Malawi is to achieve its full potential. If 
confirmed, I will be proud to lead the United States efforts to 
bolster the quality of primary education, a $20 million annual 
investment to promote literacy and encourage children, 
particularly girls, to stay in school.
    Finally, our security cooperation with Malawi is 
outstanding. In recent years, the United States has trained six 
battalions of Malawian peacekeepers who have been deployed in 
the DRC and in the Cote d'Ivoire. In 2013 and 2014, Malawi 
hosted the largest counterterrorism exercise on the African 
Continent and a regional peacekeeping exercise, both sponsored 
by the U.S. Africa Command. If confirmed, I look forward to 
continuing our strong security cooperation to advance our 
shared objective of peace and stability in Africa.
    Despite its challenges, Malawi holds great promise and is a 
strong partner of the United States. If confirmed, I look 
forward to continuing the momentum of the U.S.-Africa Leaders 
summit and to working with the Government of Malawi and its 
people on our shared goals of a healthier, more prosperous 
Malawi with an even stronger partnership with the United 
States.
    Thank you again, Mr. Chairman, Ranking Member Flake, and I 
would be happy to take any questions you might have.
    [The prepared statement of Ms. Palmer follows:]

                Prepared Statement of Virginia E. Palmer

    Mr. Chairman, Ranking Member Flake and members of the committee, it 
is a great honor and privilege to appear before you today as President 
Obama's nominee to serve as United States Ambassador to the Republic of 
Malawi. I appreciate the confidence the President and Secretary Kerry 
have placed in me by putting my name forward for your consideration. I 
am also deeply grateful for the support of my husband and fellow 
Foreign Service officer, Ismail Asmal, my daughters, Aliya and Nadia 
Asmal, and my parents, Richard and Becky Palmer.
    If confirmed, I look forward to working with this committee and 
Congress to advance U.S. interests in Malawi, including strengthening 
its democratic institutions, encouraging economic diversification, and 
building its health and education capacities.
    I most recently served as Deputy Chief of Mission to the Republic 
of South Africa. There, I helped manage one of the largest U.S. 
missions in Africa. Since joining the Foreign Service in 1986, I have 
served as the Department's Director for Economic Policy in the Bureau 
of East Asian and Pacific Affairs, as the Economic Counselor at Embassy 
Nairobi, and as a political officer at Embassy Harare--positions in 
which I promoted democracy and encouraged economic growth and better 
governance. If I am confirmed, I will draw on these experiences to lead 
our team in advancing U.S. interests in Malawi.
    During its first three decades as an independent country, Malawi 
was a one-party state. Since 1994, when the people of Malawi voted in 
their first democratic, free, and fair elections, Malawi has undergone 
peaceful transfers of power among political parties. When former 
President Bingu wa Mutharika died unexpectedly in 2012, principled 
leaders demanded and achieved a constitutionally correct succession-- 
a triumph for Malawi. Malawi's 2014 elections marked another democratic 
milestone for Africa. In the election of President Peter Mutharika, 
power again peacefully and democratically passed from one party to 
another. Despite these successes, there still is work to be done. If 
confirmed, I will work to further develop democratic processes and 
strong governing institutions in Malawi. I look forward to supporting 
priorities shared by the United States and Malawi of improved public 
financial management, civil service modernization, reduced corruption, 
and increased government transparency and accountability.
    A major U.S. Government priority in this nation of 16 million 
persons, with a per capita GDP of only $226 dollars, is to encourage 
private-sector driven, sustainable economic growth. As a member of the 
New Alliance for Food Security, Malawi has committed to improving its 
investment climate and to expanding its markets. Our Feed the Future 
program, which focuses on crop and nutritional diversification, value 
addition, and enhanced trade, is directly supportive of the New 
Alliance, and strengthens Malawi's resilience and food security. Our 
$350.7 million Millennium Challenge Account Compact will expand access 
to electricity and encourage private sector investments through 
infrastructure rehabilitation and energy sector reforms. If confirmed, 
I look forward to advancing this objective.
    Our broad economic engagement in Malawi is complemented by our 
strong commitment to health and education assistance, vital to building 
Malawi's human capacity. Nearly 60 percent ($153 million) of the United 
States $257 million in assistance to Malawi in FY 2013 went to combat 
HIV/AIDS and other diseases. If confirmed, a priority for me will be to 
maximize the effectiveness of the President's Emergency Plan for AIDS 
Relief program (PEPFAR) in Malawi. Malawi can only achieve its full 
potential if it enjoys improved basic education. If confirmed, I will 
be proud to lead the United States support to bolster the quality of 
primary education--a $20 million annual investment--to promote literacy 
and encourage children, and particularly girls, to stay in school.
    Malawi maintains outstanding security cooperation with the United 
States. Malawi has been a peacekeeping partner in the State 
Department's Africa Contingency Operations and Training Assistance 
(ACOTA) program since 1998. Four battalions of ACOTA-trained Malawian 
peacekeepers deployed to Cote d'Ivoire in 2012 and 2013 and two 
battalions deployed to the Democratic Republic of the Congo in 2013 and 
2014. In 2013, Malawi hosted Epic Guardian, the largest 
counterterrorism exercise on the African Continent, with 1,000 U.S. and 
Malawian military, police, and civilians. If confirmed, I look forward 
to continuing our strong security cooperation and assistance, to 
advance our shared objective of supporting peace, stability, and 
respect for human rights in Africa.
    Malawi faces significant challenges. Over 45 percent of Malawi's 
population is under the age of 15, presenting daunting economic and 
educational challenges for the Malawi Government, as it strives to 
achieve the Millennium Development Goals (MDGs). In addition, Malawi 
has a nearly 11 percent adult HIV prevalence rate and a very high 
degree of risk for major infectious diseases. U.S. partnership is 
integral to combating these problems so Malawi can keep moving toward 
achievement of the MDGs.
    Despite these challenges, Malawi holds great promise. Malawi is a 
strong partner of the United States. If confirmed, I look forward to 
continuing the momentum of the U.S.-Africa Leaders summit, advancing 
youth leadership in programs such as the Mandela Washington Fellowship 
for Young African Leaders, and working with the Government of Malawi 
and its people on our shared goals of a healthier, better educated, 
more prosperous citizenry that embraces democratic values.
    Mr. Chairman and members of the committee, thank you again for the 
opportunity to appear before you today. I will be happy to answer any 
questions.

    Senator Coons. Thank you, Mr. Palmer.
    Rabbi Saperstein.

STATEMENT OF RABBI DAVID NATHAN SAPERSTEIN, OF THE DISTRICT OF 
COLUMBIA, NOMINATED TO BE AMBASSADOR AT LARGE FOR INTERNATIONAL 
                       RELIGIOUS FREEDOM

    Rabbi Saperstein. Chairman Coons, Ranking Member Flake, I 
thank you also for this hearing to consider my nomination as 
the Ambassador at Large for International Religious Freedom. I 
am honored to appear before you, just as I am honored by the 
confidence President Obama and Secretary Kerry have placed in 
me.
    First, if you will allow me, I would like to pause and 
remember for a moment those we lost 13 years ago on this date. 
We honor all the survivors of those tragic events. We stand 
with the families and loved ones of those who perished. As we 
say in the Jewish tradition, [zichronom livracha], ``May their 
memories ever be for a blessing.''
    I want to acknowledge today and introduce the presence of 
my wife, Ellen Weiss, a distinguished journalist; one of my 
sons, Daniel, a wonderful musician and ceramist. Another son, 
Ari, is watching online from California, himself a writer and 
painter. My remarkable colleagues are here from the Religious 
Action Center of Reformed Judaism, and the superb and dedicated 
staff of the International Religious Freedom Office at the 
State Department, and an array of religious leaders from varied 
faith traditions and political persuasions, who have long been 
my partners in our work for justice and religious freedom.
    Like most Jews, I know all too well that over the centuries 
the Jewish people have been the quintessential victims of 
religious persecution, ethnic cleansing, and demonization. We 
have learned all too painfully the cost, the terrible cost, 
when good people remain silent in the face of religious 
oppression.
    This is just one key reason why I cannot remain silent 
today, when we see the historic Christian, Yazidi, and other 
communities in Iraq and Syria being devastated; when we see 
Baha'is in Iran, Tibetan Buddhists in China; Shia Muslims in 
Saudi Arabia, Pakistan, and Bahrain; Rohingya Muslims in Burma; 
all victims of either governmental or societal discrimination, 
harassment, persecution, or physical attacks. And even in 
Western Europe we are witnessing an alarming resurgence in 
anti-Semitic discourse and violence against Jewish communities. 
Sadly, this list is far from exhaustive.
    Religious freedom faces daunting and alarming challenges 
worldwide. Recently we have all witnessed the nightmare unfold 
of tragic violent attacks by ISIL against Yezidis, Christians, 
Alawites, Shabak, Turkmen, Shia, and others, including members 
of their own sect, Sunni Muslims, in parts of Iraq and Syria. 
Using claims of religion to justify their abhorrent behavior, 
we see ISIL terrorize vulnerable groups based on religious and 
ethnic identity with death by beheading, crucifixion, stonings, 
ethnic cleansing, desecration and destruction of religious 
properties, forced conversions, forced marriages, rape. It is a 
symptom of a worldwide challenge.
    Our goal must be to ensure the internationally recognized 
right of religious freedom for everyone. It is an urgent task 
and the needs are great. Toward that end, if confirmed I will 
do everything within my abilities and influence to engage every 
segment of the State Department and the rest of the U.S. 
Government to integrate religious freedom into our Nation's 
statecraft and foreign policies. Counterterrorism, conflict 
stability efforts, economic development, human rights--all 
these foreign policy goals and more require the stability, 
security, and contributions of members of religious majorities 
and religious minorities in countries across the globe if we 
are to further and achieve our Nation's values, interests, and 
agenda.
    If confirmed, I pledge to ensure the integrity of the 
annual International Religious Freedom Report. I expect to 
regularize annual review of country designations for Countries 
of Particular Concern, which I believe are key instruments in 
motivating progress on religious freedom. And if confirmed I 
commit to continue the close working relationship that I had 
when I chaired the U.S. Commission on International Religious 
Freedom (USCIRF), with USCIRF and the International Religious 
Freedom (IRF) Office and to consult closely and fully with 
Congress, for I know full well that we do the best work when 
the legislative and executive branches are reinforcing each 
other's respective efforts.
    In sum, religious freedom was essential in the founding of 
America. Our magnificent Bill of Rights began with religious 
freedom, knowing without it all freedoms were imperiled. So to 
the religiously oppressed in every land who live in fear, 
afraid to speak of what they believe in, who worship in 
underground churches, mosques, or temples lest authorities 
discover and punish them for devotion to an authority beyond 
the state, who languish in prisons, bodies broken, spirits too 
often disfigured, simply because they love God in their own way 
or question the existence of God, who feel so desperate that 
they feel forced to flee their homes to avoid killing and 
persecution because of their faith, to all of them together, 
the State Department, the Congress, you and I, if you confirm 
me, can be a beacon of light and hope. I pray that contributing 
to that dream will be my legacy if you confirm me.
    Thank you again for your consideration. I look forward to 
answering any questions you may have.
    [The prepared statement of Rabbi Saperstein follows:]

          Prepared Statement of Rabbi David Nathan Saperstein

    Chairman Coons, Ranking Member Flake, and members of the committee, 
thank you for this hearing to consider my nomination as Ambassador At 
Large for International Religious Freedom. I am honored by this 
opportunity to appear before you, as I am honored by the confidence 
President Obama and Secretary Kerry have placed in me to serve our 
Nation in advancing the right to freedom of religion around the world.
    First, I want to pause and remember those we lost on September 11, 
13 years ago. On this day, we stand with their families and loved ones, 
and honor all survivors of those tragic events. As we say in the Jewish 
tradition: ``zichronom livracha--may their memories ever be for a 
blessing.''
    I want to acknowledge the presence today of my wife, Ellen Weiss, a 
distinguished journalist, and my son, Daniel; my remarkable colleagues 
from the Religious Action Center of Reform Judaism; and an array of 
religious leaders from varied faith traditions and political 
persuasions who have been my partners in the vital work we have done to 
help ensure that religious freedom and our shared values of human 
dignity, justice and peace flourish more fully in our nation and around 
the world.
    Indeed, it has been one of the great opportunities of my life to 
have had the opportunity to play a leadership role in interfaith 
coalitions that span many, diverse faith groups around the world, and 
faith groups in the United States with a broad range of theological 
views. To current events, efforts to isolate extremist groups willing 
to use force to impose their views on others must include, among other 
things, empowering and strengthening civil society actors (including 
religious communities) that subscribe to the rule of law, freedom of 
religion, and principles of religious tolerance and coexistence. I hope 
I can draw on those long relations and experiences in this urgent task.
    I want to express, as well, my abiding appreciation to the members 
of this committee, and to the Congress, for consistently elevating 
international religious freedom issues and concerns. Enacting the 
International Religious Freedom Act (IRFA) sent a clear and strong 
signal that the universal right of religious freedom would be a 
priority in U.S. foreign policy. I was honored to have worked closely 
with key Senators and other Members of Congress of both parties in the 
shaping of that legislation as part of the broad coalition of religious 
organizations and denominations who so staunchly supported the passage 
of IRFA.
    During my career, my mandate has covered a wide range of issues. I 
believe that the ability to see the interconnected relationship of 
varied issues will be an asset for the work of the International 
Religious Freedom office. But there are few issues that have been as 
central to my career as that of religious freedom, and with it the 
universal freedoms of thought, conscience, and belief--including 
freedom to change one's religion or beliefs, and to manifest one's 
beliefs not only through worship but through teaching, preaching, 
practice, and observance--as well as the right to hold no religious 
beliefs.
    I started young in my exposure to these issues in that my father, a 
beloved congregational rabbi for 60 years and my mother, herself active 
in varied social justice causes, managed to travel to some 80 nations, 
sometimes bringing my brother and myself, visiting Jewish communities 
and engaging with other religious leaders wherever they could. Both 
spoke widely to community forums on issues of Jewish and religious life 
across the globe. They were outspoken advocates for Soviet Jewry long 
before it became the norm. My older brother, Marc Saperstein, a leading 
Jewish historian, has written extensively on the history of Jewish-
Christian relations.
    Like most Jews, I know all too well that, over the centuries, the 
Jewish people have been a quintessential victim of religious 
persecution, ethnic cleansing, and demonization. We have learned, first 
hand, the costs to the universal rights, security and well-being of 
religious communities when good people remain silent in the face of 
such persecution.
    This is just one key reason why I cannot remain silent today, when 
we see historic Christian, Yezidi, and other communities in Iraq and 
Syria being devastated; when we see Bahais in Iran; Tibetan Buddhists 
in China; Shia Muslims in Saudi Arabia, Pakistan, and Bahrain; Rohingya 
Muslims in Burma--all victims of governmental or societal 
discrimination, harassment, persecution or physical attacks. And even 
in Western Europe we are witnessing a steady increase in anti-Semitic 
discourse and violence against Jewish communities. Sadly, this list is 
far from exhaustive but shows the broad range of very serious threats 
to religious freedom and religious communities in nearly every corner 
of the globe.
    It was these passions that led, 16 years ago, to my engagement with 
passage of IRFA. And, I suspect, my track-record of engagement with 
religious freedom issues led in 1999, to the honor of being appointed 
to the first USCIRF--and the subsequent honor of being chosen 
unanimously by my colleagues to serve as its first Chair.
    This nomination comes at a time when forces aligned against 
religious freedom have grown quite strong. Encouragingly, in many 
countries, such freedoms flourish. Yet in even more, religious freedom 
faces daunting and alarming challenges. Seventy-five percent of the 
world's population lives in countries where religious freedom remains 
seriously limited, and many religious minorities face persecution, 
intimidation and harassment.
    Recently, we have all seen the tragic violent attacks by the 
Islamic State of Iraq and the Levant (ISIL) against Yezidis, 
Christians, Alawites, Shabak, Turkmen Shia, Sunnis, and others, in 
parts of Iraq and Syria. ISIL, and groups like it, use violence to 
impose their views on others who do not share them, and use the claims 
of religion to justify their abhorrent behavior as they target 
vulnerable groups based on religious and ethnic identity. They 
terrorize their neighbors and offer nothing but death, forced 
conversions, forced marriages and rape. ISIL's attacks illustrate, in 
real time, just how vulnerable religious minorities can be to violence, 
displacement, marginalization, gender based violence, and property 
destruction. This, Mr. Chairman, to say nothing of the unspeakable 
atrocities they have committed against members of their own sect, Sunni 
Muslims, who make up the majority of the Syrian population. We have 
witnessed ISIL crucify members of their own Sunni sect in public 
squares in Raqqa and stone to death Sunni women accused of adultery, 
proudly tweeting and posting these horrific acts on YouTube and other 
social media. Indeed, ISIL's brutality spares no one.
    Our goal should be to ensure the internationally recognized right 
to religious freedom for everyone. It is an urgent task, and the needs 
are great. With President Obama, Secretary Kerry, Under Secretary Sarah 
Sewall, and Assistant Secretary for Democracy, Human Rights, and Labor 
Tom Malinowski, we have gifted leadership deeply committed to this 
agenda. I am well aware that the strong leadership of an Ambassador at 
Large is more important now than ever, and we should participate in 
this important work both because it is the right course of action, and 
because it is in our national interest. Toward that end:

  <bullet> If confirmed, I commit to using this position fervently (and 
        fiercely) to advocate for the rights of individuals to choose, 
        change, and practice their faith safely, to end blasphemy and 
        apostasy laws, and without government interference or the 
        threat of violence or marginalization, to ensure that people 
        are free and safe to assemble, worship, teach, learn, and share 
        their faith with others.
  <bullet> If confirmed, I will seek to engage every segment of the 
        State Department and the rest of the U.S. Government, to 
        integrate religious freedom into our Nation's statecraft: 
        counterterrorism, conflict stability efforts, economic 
        development, human rights--all these foreign policy goals need 
        the stability, the security, the contributions of members of 
        religious majorities and religious minorities, in every 
        country, to further our Nation's values, interests, and agenda.
  <bullet> If confirmed, I pledge to ensure the integrity of the annual 
        International Religious Freedom Report. I expect to regularize 
        annual reviews of country designations for Countries of 
        Particular Concern (CPCs) to ensure timely and appropriate 
        designation of CPCs and Presidential Actions, which I believe 
        are key instruments in motivating progress on religious 
        freedom.
  <bullet> If confirmed, I will do everything within my abilities and 
        influence to continue the close working relationship with 
        USCIRF and consult closely with the Congress. I know full well 
        from my tenure on USCIRF that we do the best work when the 
        legislative and administrative branches are reinforcing our 
        respective efforts.
  <bullet> If confirmed, I pledge to elevate the focus on religious 
        freedom in regional and multilateral organizations, and within 
        the international community at large.

    And if confirmed, I will work closely with all faith groups 
domestically and abroad, and expand efforts to coordinate with outside 
stakeholders and civil society groups in order to pursue our religious 
freedom goals abroad. To this end, I will work closely with my long-
time friend, Shaun Casey, a brilliant and talented leader, appointed by 
Secretary Kerry to enhance the Department's engagement with religious 
leaders in the United States and across the globe.
    In sum, religious freedom was essential in the founding of America, 
and the American people continue to value the freedoms of religion, 
thought, conscience, belief, expression, and association. We began our 
magnificent Bill of Rights with a commitment to religious freedom, 
knowing that without it, all other freedoms were imperiled. And so too 
today.
    I am dedicated to advancing those freedoms, and hope to be able to 
do so from the position of Ambassador At Large for International 
Religious Freedom.
    Allow me to conclude with a personal story. In 1939, my father 
traveled throughout Palestine and Central Europe on the eve of the 
Second World War. He was one of the last to see the glory of European 
Jewry in full bloom before the nightmare of Nazism enveloped and 
destroyed it. He visited Danzig, now Gdansk, just days after the Nazis 
had been elected in the May elections. He went with enthusiasm to see 
the magnificent historic main synagogue of this vibrant Jewish 
community. To his utter dismay; it lay in ruins, only the portal over 
what had been the beautiful entrance front doors was still intact. On 
the front lawn, there was a sign that had been erected during the 
election campaign by the Nazis which said ``Komm lieber Mai und mache 
von Juden uns jetzt frei--come dear month of May and free us from the 
Jews.'' With tears welling up in his eyes and a chilling sense of the 
impending disaster symbolized by this scene, his glance gazed upward 
and then he saw the words--the ancient vision of Malachi, still 
inscribed over the remaining doorway: ``Halo Av echad l'chulanu; halo 
eyl echad b'ra'anu:have we all not one Father? Has not one God not 
created us?'' (Mal. 2:10). Two visions: one of hatred and tyranny, the 
other of brotherhood and sisterhood, of unity and peace; one of 
oppression, the other of freedom; one of darkness and despair, the 
other of light and hope. This is the choice we face today with a sense 
of great urgency.
    To the religiously oppressed in every land who live in fear, afraid 
to speak of what they believe in; who worship in underground churches, 
mosques or temples--lest authorities discover and punish their devotion 
to an authority beyond the state; who languish in prisons, bodies 
broken, spirits too often disfigured--simply because they love God in 
their own way or question the existence of God; who feel so desperate 
that they flee their homes to avoid killing and persecution because of 
their faith--to all of them, together, you and I, the State Department 
and the Congress, can be a beacon of light and hope. Should you confirm 
me, I pray that contributing to fulfilling that dream will be my 
legacy.
    Thank you again for your consideration and I look forward to 
answering any questions you may have.

    Senator Coons. Thank you, Rabbi.
    We will now go to questions in 7-minute rounds. If I might, 
Mr. Zumwalt, first just speak, if you would, for a few minutes 
about how we could continue to strengthen and broaden our 
security cooperation with Senegal; and if you would talk as 
well to how we might make progress in combating 
narcotrafficking in Guinea-Bissau?
    Mr. Zumwalt. Thank you. We have a very strong relationship 
with the Senegalese military. As you know, Senegal is a net 
provider of security and today they are participating in 
peacekeeping operations throughout Africa. So some of our 
engagement is involved in trying to strengthen their 
capabilities to provide that peacekeeping.
    But we also, the Senegalese military and we, have other 
areas of cooperation--border security and the increasing 
capability to combat the narcotrafficking and the smuggling 
that you mentioned. Also, maritime security is important. 
Senegal has an important fishing industry and they need ought 
protect their resources.
    For Guinea-Bissau, you are very correct to identify 
narcotrafficking as one of the key issues. The challenge really 
is narcotraffickers look for the weak link, the country with 
weak judicial systems and not having the rule of law. So I 
think since we now have had a democratic transition, one of the 
things we need to do is to look how can we strengthen the 
judicial system, the law enforcement capabilities, also to talk 
frankly about corruption and issues there to see if we can 
reduce the attractiveness of that country to narcotraffickers.
    Senator Coons. Mr. Yamate and Ms. Palmer, both the 
countries to which we hope you will be confirmed, Madagascar 
and Malawi, are AGOA eligible, but have not really fully taken 
advantage of AGOA. Would each of you in turn speak to how you 
might work to strengthen the opportunities they might have, 
given the significant challenges of poverty and 
underdevelopment in Madagascar and in Malawi.
    Mr. Yamate.
    Mr. Yamate. Thank you. Madagascar has just recently become 
AGOA eligible, after 5 years of being ineligible following the 
coup of 2009. Prior to 2009, Madagascar utilized AGOA basically 
to their fullest within the textile industry. Forty-five 
percent of their exports for Madagascar was through AGOA in the 
textile area. Now, currently it is down to just over 20 
percent.
    Madagascar, the Government of Madagascar and President 
Rajaonarimampianina is very, very thankful for reestablishing 
AGOA benefits. There is still some work to be done in getting 
that process utilized. But there are approximately 50,000 
individuals who lost jobs because of the loss of AGOA. This is 
an absolute positive again for AGOA and for AGOA eligibility, 
and Madagascar is very much going to benefit from it.
    Thank you.
    Senator Coons. Thank you.
    Ms. Palmer.
    Ms. Palmer. Thank you, Mr. Chairman. About 90 percent of 
Malawi's exports to the United States enter duty-free under 
AGOA, GSP, or MFN. I think the basic problem is that Malawi is 
not exporting very much, and U.S. Government efforts will be, 
or are centered on, improving their economic standard.
    We need to focus on agriculture. Eighty percent of the 
Malawians are working in the agricultural field. So we need to 
help them with crop diversification, with value addition, and 
with trade facilitation so that they can trade with their 
neighbors better and produce better for export to us.
    They also need to address governance challenges that I 
mentioned briefly, and the President has been very committed to 
tackling corruption. We will also be helpful with the MCC 
account in helping them to have better power, which will help 
manufacturing in general and commercial agriculture in Malawi.
    Senator Coons. What is the status of the MCC compact, which 
was recently restored? What do you see as the opportunities for 
its full restoration and progress?
    Ms. Palmer. Actually, progress has been good in the year 
since it was begun again. They are doing the initial sort of 
survey work and contract-letting and they are talking to the 
power utility, ESCOM, about power sector reforms that are 
required. They have had structural engineers look at the major 
hydrodam to see what kind of infrastructure improvements need 
to be made, and they have conducted a survey to improve the 
transmission lines.
    I think that the MCC is going to be vital to getting Malawi 
the electricity it needs. Only 7 percent of Malawians have 
access to electricity and they cannot have the economic growth 
that we need without having it.
    Senator Coons. Thank you.
    Rabbi Saperstein, thank you for your stirring opening 
statement and for your passionate commitment to religious 
freedom. Like you, I am deeply troubled by the rise of anti-
Semitism in Europe and globally and by the sweep of oppressions 
that you cited in your opening statement.
    Please tell me, if confirmed, what role would you play, 
first in partnership with the U.S. Special Envoy to Monitor and 
Combat Anti-Semitism? Then second, what do you consider your 
priority actions, in addition to this, to take on all the 
different challenges you spoke about, from ISIS's barbaric 
actions against Christians and Yazidis to oppression of Muslims 
in Burma? Last, to that end, do you have the resources you 
need?
    Rabbi Saperstein. Senator Kaine, it is good to see you, 
sir.
    The Special Envoy to Monitor and Combat Anti-Semitism that 
exists in the State Department work in a fully integrated 
manner within the Bureau for Democracy, Human Rights, and Labor 
(DRL), and particularly with the International Religious 
Freedom Office. Special Envoy Ira Forman has done a superb job 
on this, traveling tirelessly, visited 17 countries.
    Just last week I attended a gathering he had of the key 
people throughout the State Department who work on this issue 
and the prominent leaders of the American Jewish community and 
the European Jewish community. It was a very productive 
meeting, mapping out the problems in more detail and what 
strategies would be most effective to respond to them.
    So we would work very closely. It is a joint responsibility 
between the Religious Freedom Office and the Special Envoy's 
office to address this issue, and if confirmed I would be 
working with someone who is a personal friend that I have 
worked with for many, many years. Together, I think we 
reinforce each other. I think that is true of all the special 
envoys.
    In terms of the enormity of the problems we face, there are 
certain urgent priorities simply by the facts on the ground, 
what is happening in the CAR, what is happening in the Near 
East region, and particularly in Iraq. I am prepared to travel 
anywhere that I can be of help to an already superb staff in 
the International Religious Freedom Office that is fully 
engaged. It was their relationships with many of these 
religious minorities in Iraq that provided invaluable 
information that helped guide the response of our armed forces 
and our diplomatic forces in addressing the rise of ISIL, the 
plight of the Yezidis, and the challenge to the Christian 
communities there.
    We have the situation in Pakistan and other countries 
across the globe which are urgent challenges. I am really 
prepared to work as tirelessly as I can to focus on where I 
think we can make a real difference, or where the urgency of 
the moment requires a response. We cannot do everything, but if 
there are countries we can actually move to improve the 
situation that is where I want to focus my efforts.
    Senator Coons. Thank you, Rabbi.
    Senator Flake.
    Senator Flake. Thank you.
    I appreciate the answers so far. Mr. Zumwalt, when we 
talked in my office we talked about the trouble with Ebola a 
few countries away, but in the region, and Senegal's response 
not to have flights go, for example, to Liberia and how that 
kind of imperils our ability to get people there when flights 
do not fly, in terms of international aid workers and others. 
What can we do to help them address the concerns that they 
have, the security concerns and health concerns, but also help 
out the international community here?
    Mr. Zumwalt. Thank you very much for that question. Ebola 
is a very serious problem that requires a sustained, 
coordinated U.S. Government effort to help countries who are 
affected by Ebola to deal with the issue. I think from the 
perspective of the Embassy in Dakar, if I were confirmed I 
would have four priorities for dealing with Ebola. The first 
would be to make sure that the United States Government were 
approaching the problem in Senegal with a whole-of-government 
response. We have many talented, good people from CDC, 
Department of Defense, AID, and other places who each are doing 
good work, but we have to make sure we are presenting a very 
coherent approach toward the government.
    The second priority would be coordinating with other donors 
to make sure that we are not leaving gaps or overlapping or 
overwhelming the host government with requests for information. 
So the donors would need to work together, and it is ideally 
suited in Dakar to do that because all the donors are present 
there.
    Third would be the relations with Senegal, and really we 
would have three aspects to that. One is assessing the 
situation and making sure that policymakers back in Washington 
understood the situation on the ground. Senegal, as you know, 
has had one Ebola case they are working hard to prevent others 
from occurring.
    But the second is to understand the government and what it 
is trying to do. You mentioned the reaction the Senegal 
Government had is to close off flights, which we do not think 
is the right action. But we need to understand why they are 
taking this action and help them deal with the concerns they 
have about the public health situation in Senegal.
    Then finally, the last priority in our communications would 
be influencing Senegal's actions. I think you have laid out one 
important area where perhaps we would prefer a different 
approach, and so we need to engage and talk to the government.
    Then finally, the fourth priority as a mission I would have 
is the safety, welfare, and security of American citizens. We 
have about 6,000 Americans living in Senegal. Many of them are 
in remote places. So if I were at the mission I would want to 
make sure that American citizens had the information they 
needed to make the right kind of decisions to protect their own 
health and welfare of themselves and their families.
    Thank you.
    Senator Flake. Thank you.
    Mr. Yamate, you mentioned the unique flora and fauna that 
Madagascar has. It is certainly envied by a lot of places. We 
have committed, you mentioned, $2.5 million, USAID, to help 
them conserve and protect their ecosystem. How can we leverage 
that? That is not a lot, but can we leverage that with other 
partners and with the host government to help out?
    Mr. Yamate. Absolutely, sir. Leverage is necessary and we 
need collaboration, cooperation with all the different sectors, 
nongovernment organizations, the government itself, and all 
members of society, to work in preserving this ecosystem which 
exists nowhere else in the world.
    Senator Flake. Do you think the government values that 
sufficiently now?
    Mr. Yamate. Yes, they do. In their general state policy 
that they have just brought about about a month and a half ago, 
this is one of their main priorities, is preservation of the 
environment, which includes flora, fauna, animal life, 
rosewood. Rosewood logging, illegal logging, is ongoing. There 
is very strong ongoing effort by the government of President 
Rajaonarimampianina to try and offset the rosewood logging. My 
understanding is that most recently within the last week there 
have been individuals at the highest level that have been 
identified and we are hopeful of arrests in the near future.
    But again, this is a concerted effort led by the Government 
of Madagascar, but also with the assistance and with the 
acknowledgment of the international community.
    Senator Flake. Thank you. Last, and my confirmation for you 
hinges on this, can you spell the President's name? [Laughter.]
    Mr. Yamate. I will have to get back to you about that. 
[Laughter.]
    Senator Flake. It is only 19 letters. Come on.
    Ms. Palmer, you mentioned education and 45 percent of the 
population under the age of 15. That is something important, 
and particularly for young girls. What percentage of young 
girls make it through the primary education system there?
    Ms. Palmer. Just over 50 percent, I believe, sir. And even 
fewer then complete high school. Apparently, a Malawian girl 
has a 50 times higher chance of being married in her late teens 
than she does of going to university.
    Senator Flake. Do we have programs to help? Do we think 
that we can push that number higher?
    Ms. Palmer. Absolutely, sir. We are working primarily on 
teacher preservice and in-service training and providing 
textbooks and then doing work with communities to encourage the 
cultural values necessary to keep girls in school.
    Senator Flake. Thank you.
    Mr. Saperstein, I just wish you were a little more 
passionate about the issue that you are facing here. 
[Laughter.]
    I am completely kidding, for anybody who did not get that. 
But we had a great discussion in my office and here again it is 
evident that you care very much about the topic. We spoke at 
length in my office about the challenges you face, particularly 
with countries that we have other relationships with, and it is 
difficult to pressure them on these particular issues, but to 
find ways, and I think you have identified some ways, that we 
can elevate these religious freedom issues into the other 
discussions that we have. So I look forward to supporting your 
nomination. In the interest of time, I will not ask you to go 
into any of those. I know that you have thought deeply and have 
worked a lifetime on this.
    I appreciate all of you have devoted your careers to 
representing the United States around the world and I really 
appreciate what you are doing.
    Thank you, Mr. Chairman.
    Senator Coons. Thank you, Senator Flake.
    Senator Kaine.
    Senator Kaine. Thank you, Chairman Coons.
    Thank you to the witnesses. Congratulations on your 
nominations and thank you for your service. I visited last week 
American consuls and Embassies in North Africa and Spain, and I 
always try to meet with first-term FSO's when I do. I am always 
just struck by we have some great capital ``A'' Ambassadors; we 
also have some spectacular small ``a'' ambassadors all over the 
world. You are lucky to be working with such a good 
organization and we are lucky to have you serving in this way 
that involves some significant personal sacrifice.
    I am going to focus my questions on Rabbi Saperstein. Let 
me start off by putting a lot of pressure on you. I heard the 
historian Gary Wills speak once and he said that every great 
idea in the American Constitution had been in some other 
constitution and we were just good scavengers of picking really 
good ideas and putting them together, save one. And the one 
that was really uniquely American was the protection of free 
religious exercise, and also the absence of an established 
religion, that all could worship as they please or not and 
there would not be any punishment or preference because of how 
you made that choice.
    That was a conceptual idea that could have led to a society 
indifferent to religion. Instead, it has led to a society that 
is very spiritual in nature. Look at this accident of who you 
have up on the stage here, the dias: Senator Coons worked with 
the Council of Churches in South Africa; Senator Flake did 
missionary service with the Mormon Church in South Africa, 
Zimbabwe, and Namibia; I worked with Jesuit missionaries in 
Honduras.
    We have a society that tolerates free exercise, but it does 
not lead to an indifference. It leads to a real flourishing of 
spirituality and religious organizations. It has had to mature. 
The Mormons were subject to significant prejudice. Catholics 
have been at times. So it has not all been smooth, and it is 
not smooth today.
    The United States still has such a leadership role to play 
in the world. In the 20th century it was our industrial might 
and military might in World War I and World War II that played 
such an important role in our global leadership. In the 21st 
century we still have a leadership role to play, an important 
one, and one of the important, maybe one of the most important, 
things we can do is be a beacon or example to nations of a 
place that tolerates a diversity of religious feeling and 
opinion and has had a flourishing culture where we live and 
work and go to school with people of different religious 
backgrounds and we make it work.
    As we see these challenges that you alluded to in your 
testimony in any part of the world, we just have such a 
leadership role to offer. I think your position as Ambassador 
for this first freedom, we call it in Virginia--it was put in 
the First Amendment for a reason when Madison was drafting the 
Constitution. We can hold ourselves out as an example of hope 
where people of different backgrounds can live together 
productively and happily.
    I really was excited that you as the first chair of the 
U.S. Commission in International Religious Freedom have taken 
this post, because you have this in your DNA and your 
bloodstream. I really just want to encourage you. We should 
raise the profile of religious freedom issues and raise our, in 
a humble way, our example of a society that gets it right more 
often than not on this. We should raise this across the board 
in everything we do, in foreign policy and structurally 
throughout the Department of State. And you have the profile to 
do that.
    We talked yesterday in my office and one of the things I 
did not know and I was interested in was your discussion of how 
the Department of State's report to Congress on international 
freedom is now not just used by the United States, but other 
nations who do not have the ability to do their own are 
actually using that report in positive ways. Could you talk a 
little bit about that?
    Rabbi Saperstein. Well, the Framers of the U.S. 
Constitution had the revolutionary idea that our rights would 
not depend upon our religious identity, our religious 
practices, or our religious beliefs, and that our rights came 
from within and were not just granted by the state. This is an 
idea that has helped reshape the world. Slowly, steadily, 
though it has ebbed and flowed, we are making progress.
    So take the religious freedom issue. We created this idea. 
We, you, the Congress of the United States, created this idea 
of an Ambassador at Large for International Religious Freedom. 
Now there are a score of countries around the globe that either 
have their own ambassador, minister, special offices, or 
councils designated for advocating for religious freedom. And 
it is spreading across the globe. It is not just western 
countries now. Morocco is undertaking this effort. The 
President of Senegal has announced that he is going to be 
gathering Muslim leaders and scholars from sub-Saharan African 
to talk about religious freedom and minority religions.
    This is a model that is spreading across the globe. One of 
my priorities will be to actually reach out to these 
representatives, because if we can coordinate and reinforce our 
efforts can be far more effective than what any one of us could 
do alone.
    So that vision really has begun to transform the world. It 
will not be an easy task to get where we want to go, but, 
working together, we will achieve much more than any of us 
alone.
    Senator Kaine. I look forward to working with you in that 
regard.
    Again, I thank all the witnesses.
    Senator Coons. Thank you, Senator Kaine. I always enjoy 
your questions. I wish you could come to every one of our 
hearings.
    If you will forgive me, as all the witnesses know, given 
the pending briefing for all Senators on ISIS, although we have 
many more questions we wish we could force you to ask, your 
written statements, your personal testimony, your answers to 
our questions have been compelling and engaging, and thank you 
very much for your willingness to serve, for your long records 
of service both in advancing the principles of religious 
freedom and in representing our Nation in many places around 
the world.
    I would also like to thank Ann, Michiko, Ismail, Nadia, 
Becky, and Ellen, as well as Daniel, who have all shared your 
wonderful parents with us, your spouses, your children with us, 
over so many years. We are grateful to your families for their 
support.
    We will leave the record open until Tuesday, September 16, 
for any members of the committee who were not able to join us 
today who may wish to submit questions for the record. With 
that, this hearing is adjourned.
    [Whereupon, at 3:49 p.m., the hearing was adjourned.]

 
   NOMINATIONS OF ROBERT CEKUTA; RICHARD MILLS; JESS BAILY; MARGARET 
                                UYEHARA

                              ----------                              


                     WEDNESDAY, SEPTEMBER 17, 2014

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Robert Francis Cekuta, of New York, to be Ambassador to the 
        Republic of Azerbaijan
Richard M. Mills, Jr., of Texas, to be Ambassador of the United 
        States to the Republic of Armenia
Jess Lippincott Baily, of Ohio, to be Ambassador to the 
        Republic of Macedonia
Margaret Ann Uyehara, of Ohio, to be Ambassador to Montenegro
                              ----------                              

    The committee met, pursuant to notice, at 10:05 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Christopher 
Murphy, presiding.
    Present: Senators Murphy and Johnson.

         OPENING STATEMENT OF HON. CHRISTOPHER MURPHY, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Murphy. This hearing of the Senate Foreign 
Relations Committee will now come to order.
    Good morning. Welcome to our nominees and their families, 
other guests who are joining us here today.
    We are considering the nomination today of Robert Cekuta to 
be the United States Ambassador to the Republic of Azerbaijan, 
Richard Mills to be Ambassador to the Republic of Armenia, Jess 
Baily to be Ambassador to the Republic of Macedonia, and 
Margaret Ann Uyehara to be our Ambassador to Montenegro.
    To begin with, Senator Johnson and I will give brief 
opening statements. I will very quickly introduce our nominees 
with short bios, and then the floor shall be yours.
    One year ago, this likely would have been a very different 
hearing. Many of the questions would be the same: the frozen 
conflict between Azerbaijan and Armenia, the name issue in 
Macedonia, the status of Montenegro's NATO accession. But 
today, even those questions are going to be informed by 
Russia's invasion of Ukraine and annexation of Crimea, by the 
realization that Russia does not view its neighbors as 
sovereign, independent states who will determine their own 
destinies. There has been a paradigm shift in European 
security, and we are unlikely to go back to business as usual 
any time soon.
    As a result of this shift, you can expect that Congress is 
going to be more engaged in many of the challenges that you are 
going to be taking on in your new assignments. This includes 
energy security, economic development, NATO and EU integration, 
good governance and respect for ethnic minorities.
    The Balkan region in particular deserves additional U.S. 
attention and resources. Montenegro is close to attaining NATO 
membership, and I encourage you to help them get over the 
finish line. In the meantime, we look forward to seeing 
progress in areas such as press freedom and the rule of law. 
Macedonia has contributed significantly to NATO operations in 
Afghanistan, and they too deserve an opportunity to join the 
alliance. The so-called name issue has persisted for too long. 
It is holding back the Balkans' Euro-Atlantic integration. 
Unresolved ethnic tensions in Macedonia are a potential 
flashpoint, and I hope that our next Ambassador will find ways 
to promote reconciliation.
    Moving to our nominees from the Caucasus, Armenia is 
further behind in terms of economic growth and political 
independence from Moscow, and it was disappointing to see 
Armenia cast one of the few votes against condemning Russia's 
annexation of Crimea. Nevertheless, we should continue to find 
ways to work with Armenia, strengthen their democracy, help 
them reduce their regional isolation. Ultimately the United 
States benefits from having a strong, independent, prosperous 
partner in Armenia.
    Azerbaijan is an increasingly important partner in this 
area particularly when it comes to energy security. And I am 
pleased that our nominee has significant experience on this 
particular subject. While there are lots of areas that we are 
going to work with, one area that I hope that you will not 
neglect is the importance of an active civil society and a 
peaceful political opposition. Senator Johnson and I have both 
worked together on raising concerns about a growing crackdown 
on civil society activists, and my colleagues and I here in the 
Senate are going to continue to raise those concerns.
    We are glad that you are all here. We look forward to your 
testimony, and let me turn it over to Senator Johnson for 
opening remarks.

            OPENING STATEMENT OF HON. RON JOHNSON, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. Well, thank you, Mr. Chairman. You have 
done your usual good job of summarizing the issues with the 
four countries.
    I just want to thank the nominees for coming here to 
testify today and thank you for your willingness to serve. 
Being an ambassador of the United States is a serious 
responsibility. I certainly hope that you will convey our 
intentions to the country, that you will be representing the 
United States. I believe the United States is, although not 
perfect, a phenomenal force for good in the world, and we want 
to help people. Your jobs as ambassadors are to convey that to 
the peoples of those countries, but also to make sure that we 
here in Congress and America in general understand the issues 
and the viewpoints of the countries that you will be 
representing America to. So it is kind of a dual role. It is 
very similar to business. You have a sales guy. He is certainly 
representing your products to the customer but he is 
representing the customer back to the company.
    So, again, I just want to thank you for your willingness to 
serve and look forward to your testimony.
    Thank you, Mr. Chairman.
    Senator Murphy. Thank you, Senator Johnson.
    I will introduce you from our right to left and then you 
can give testimony in that same order.
    First, Robert Cekuta is a career member of the Senior 
Foreign Service. He has served most recently as Principal 
Deputy Assistant Secretary in the Bureau of Energy Resources of 
the Department of State. Mr. Cekuta has developed a deep energy 
expertise and broad experience in fostering democratic and free 
market reforms, which are going to be key issues in Azerbaijan. 
He played a critical senior management role in establishing the 
new Energy Bureau where he has developed programs advancing 
global energy security, while overseeing initiatives to fight 
corruption and build good governance and accountability when it 
comes to oil and gas production.
    Mr. Cekuta earned his bachelor's degree from Georgetown, a 
master's degree from the Thunderbird School of Global 
Management, and a master's degree from the National Defense 
University.
    Richard Mills, Rick Mills, is our nominee to the Republic 
of Armenia, another career member of the Senior Foreign 
Service. Most recently he served as Deputy Chief of Mission in 
Beirut. Mr. Mills has served with distinction at some of the 
most difficult and important posts in the Foreign Service. 
Known for raising morale within his assigned missions and 
engaging local media and officials to effectively articulate 
U.S. policy, Mr. Mills will bring essential skills to the task 
of furthering bilateral relations with the Government of 
Armenia, an important U.S. partner in Eastern Europe.
    Mr. Mills earned his bachelor's degree from Georgetown as 
well, a J.D. from the University of Texas School of Law, and a 
master's degree from the National Defense University.
    Jess Baily, a good friend of members of this committee, is 
a career member of the Senior Foreign Service as well. Most 
recently served as Deputy Chief of Mission in Turkey where he 
skillfully managed a complex mission in a NATO ally in the 
heart of a critical region. His years of experience in Europe, 
his strong interagency and management skills, and his public 
diplomacy expertise will enable him to further bilateral 
relations with the Government of Macedonia and engage 
effectively with the Macedonian public.
    Mr. Baily is the only member of this panel who was wise 
enough to get his undergraduate degree in Connecticut from Yale 
University, and he has his master's degree from Columbia, which 
is located, I think, in a State near Connecticut. [Laughter.]
    Margaret Uyehara is another career member of the Senior 
Foreign Service. Most recently she served as Executive Director 
to the Bureaus of European and Eurasian Affairs and the 
International Organization Affairs in the Department of State. 
She has three decades of experience managing Department of 
State staff and resources in the Balkans, in Washington, and 
around the world. She is going to bring these essential skills 
to the tasks of developing a cadre of largely entry-level 
officers at the Embassy in Montenegro and to further bilateral 
relations with the Government of Montenegro, a key U.S. partner 
in the Balkans.
    Ms. Uyehara earned her bachelor's degree at Kalamazoo and 
also studied at Georgetown University.
    Margaret, I understand that you have four of your five 
children--three of your five children today. As the father of 
two young ones myself, I am ready to vote for you simply based 
on your impressive family management experience alone.
    Thank you all for being here. Why do we not start with you, 
Mr. Cekuta, and move down the row?

    STATEMENT OF ROBERT FRANCIS CEKUTA, OF NEW YORK, TO BE 
            AMBASSADOR TO THE REPUBLIC OF AZERBAIJAN

    Mr. Cekuta. Thank you, Mr. Chairman, Ranking Member 
Johnson, for the privilege of appearing here as President 
Obama's nominee to be the next United States Ambassador to 
Azerbaijan. I deeply appreciate the opportunity to testify and 
am humbled by the confidence President Obama and Secretary 
Kerry have placed in me. If confirmed, I look forward to 
working with this committee and with all Members of Congress to 
advance the interests of the United States in Azerbaijan.
    I would like to introduce my wife, Anne, who has joined me. 
Our daughter, Margaret, our sons, Matthew and Stephen, are 
unfortunately unable to be here today.
    For over 36 years, I have been dedicated to promoting U.S. 
foreign policy interests around the world. As Principal Deputy 
Assistant Secretary for the State Department's Energy Resources 
Bureau, for example, I worked to advance U.S. energy policy in 
complex regions from the Middle East to the Caucasus to 
Ukraine. My unwavering focus throughout my career has been to 
advance U.S. interests, including universal values of 
democracy, strong rule of law, and the protection of human 
rights and dignity.
    Many of you have been personally engaged on developments in 
Azerbaijan. It is a country with a rich history and with the 
potential for a bright and prosperous future. Our relationship 
is important not just to our two countries, but to Azerbaijan's 
neighbors and to the wider region. We stand only to gain from a 
stable, democratic, peaceful, prosperous Azerbaijan 
strategically linked to the United States and to our European 
friends and allies.
    Since establishing diplomatic relations, we have worked 
with Azerbaijan on three equally important areas, each of which 
is key to its full integration into the Euro-Atlantic 
community: security, energy, and democracy.
    The United States has long recognized Azerbaijan as a 
stalwart partner on international security. After the attacks 
of September 11, then-Azerbaijani President Heydar Aliyev was 
among the first to extend support and to offer close 
cooperation to combat terrorism. That cooperation continues. 
American and Azerbaijani troops served together in Kosovo and 
Iraq. They serve together now in Afghanistan where Azerbaijan 
has shown a sustained commitment to the international effort, 
including its part of the Northern Distribution Network for 
supporting NATO's operations.
    If confirmed, I will also work to enhance our security 
cooperation in other areas, including border security, 
nonproliferation, and countering human trafficking.
    The United States and Azerbaijan have also cooperated for 
over 20 years on energy. The Baku-Tbilisi-Ceyhan oil pipeline 
and progress on the Southern corridor for gas are powerful 
symbols of Azerbaijan's commitment to global energy security, a 
key element of our efforts to diversify energy routes and 
sources for European markets. If confirmed, I will continue to 
work with Azerbaijan to diversify its energy routes and bolster 
its critical energy infrastructure protection.
    Just as we continue cooperating on energy and security, we 
must work with Azerbaijan to advance democratic institutions 
and processes and to strengthen the rule of law.
    Azerbaijanis point to the 1918 constitution to say they 
were the Muslim world's first democracy and that women could 
vote in Azerbaijan before they won that right here in the 
United States. That constitution and republic fell in 1920, but 
it set a tradition of which Azerbaijanis can be proud.
    Azerbaijan lives in a very difficult neighborhood. It must 
maintain its security and stability, but these can only come 
with a strong commitment to democratic principles, including 
respect for the rule of law, human rights, and fundamental 
freedoms. This is an area of great concern to the 
administration, as I know it is for you and for your colleagues 
here in Congress. If confirmed, I will work ceaselessly with 
Azerbaijanis to build the strong democracy and economy they 
want and deserve.
    Finally and no less importantly, Azerbaijan is a pivotal 
player in the region's peace and stability, and there is no 
higher priority for achieving a more secure and prosperous 
future for the Caucasus than the peaceful settlement of the 
Nagorno-Karabakh conflict. As cochair of the OSCE Minsk Group, 
the United States continues helping all sides achieve a 
peaceful, lasting negotiated settlement for the conflict based 
on the principles of the Helsinki Final Act and the U.N. 
charter, including the non-use of force or threat of force, 
territorial integrity, and the equal rights and self-
determination of peoples.
    The United States has made major efforts to facilitate a 
settlement. On September 4, the Secretary met with the two 
Presidents at the NATO summit to discuss a way forward. We 
publicly commended the Presidents of Armenia and Azerbaijan for 
these important steps, and we encouraged them to continue to 
discuss elements of a settlement. Such meetings must continue. 
Only a negotiated settlement can lead to a long-term peace and 
stability in the region. If confirmed, I will support the 
administration's commitment to achieving this goal.
    As President Obama stated in June, ``True democracy, real 
prosperity, lasting security--these are neither simply given, 
nor imposed from the outside. They must be earned and built 
from within.'' If confirmed, I will do all I can to work with 
Azerbaijanis to build a strong, vibrant, modern democracy and 
sustainable, diversified economy they want and deserve.
    Thank you, Mr. Chairman, for considering my nomination. I 
look forward to your questions.
    [The prepared statement of Mr. Cekuta follows:]

                 Prepared Statement of Robert F. Cekuta

    Thank you, Mr. Chairman, Ranking Member Johnson, and distinguished 
members of the committee, for the privilege of appearing here today as 
President Obama's nominee to be the next United States Ambassador to 
Azerbaijan. I deeply appreciate the opportunity to testify this 
afternoon, and am humbled by the confidence President Obama and 
Secretary Kerry have placed in me. If confirmed, I look forward to 
working with this committee and all Members of Congress to advance the 
interests of the United States in Azerbaijan.
    I would like to introduce my wife, Anne, who has joined me here 
today, along with my daughter, Margaret. My sons, Matthew, who is 
working in Maine, and Stephen, who has just started university, are 
unfortunately unable to be here.
    For just over 36 years, I have been dedicated to promoting U.S. 
foreign policy interests across the world. Most recently, as Principal 
Deputy Assistant Secretary for the State Department's Energy Resources 
Bureau, I have worked to advance U.S. energy policy in some of the most 
complex regions from the Middle East to the Caucasus to Ukraine. The 
core objective of my work has been boosting our energy security and 
diversifying our supply.
    In this and all my previous assignments, my work has been defined 
by an unwavering commitment to advancing U.S. interests, including 
universal values of democracy, strong rule of law, and the protection 
of human rights and dignity. As Deputy Chief of Mission in Tirana, I 
advocated judicial independence, expansion of the operating space for 
civil society, and supported electoral reform in Albania. If confirmed, 
I will bring all of these experiences to bear in the service of 
advancing these and other core U.S. interests in Azerbaijan.
    Many of you have been personally engaged on developments in 
Azerbaijan. Senator Cardin just led an OSCE Parliamentary Assembly 
delegation to Baku in June and chaired a hearing on Azerbaijan prior to 
that trip. Azerbaijan is a country with a rich history and has the 
potential for a bright and prosperous future. Our relationship with 
Azerbaijan is important not just to our two countries, but to 
Azerbaijan's neighbors and the wider region. The United States and 
Azerbaijan stand only to gain from a stable, democratic, peaceful, 
prosperous Azerbaijan strategically linked to the United States and our 
European friends and allies.
    In the 22 years since the United States and Azerbaijan established 
diplomatic relations, we have worked with Azerbaijan on three equally 
important areas--security, energy, and democracy--necessary for the 
country's full integration into the Euro-Atlantic community. Allow me 
to speak to each of these three areas briefly.
    The United States has long recognized Azerbaijan as a stalwart 
partner on international security. We remember that following the 
attacks of September 11, 2001, then-Azerbaijani President Heydar Aliyev 
was among the first to extend a hand of support and to offer his 
country's close cooperation in our efforts to combat terrorism. That 
cooperation continues. American and Azerbaijani troops served together 
in Kosovo and Iraq. They serve together now in Afghanistan where 
Azerbaijan has shown a sustained commitment to the international effort 
including its role as a transportation route in the Northern 
Distribution Network for supporting NATO's operations. Thousands of 
flights have crossed Azerbaijan's airspace en route to Afghanistan, and 
thousands of containers have departed Baku in support of the 
International Security Assistance Force.
    If confirmed, I will also work to enhance our security cooperation 
in numerous other areas, including border security, nonproliferation, 
and countering human trafficking. Later this month nonstop flights will 
begin between Azerbaijan and the United States, following several years 
of cooperation in bolstering Azerbaijan's civil aviation safety and 
security capacity.
    The United States and Azerbaijan have also enjoyed more than 20 
years of cooperation on energy security. The Baku-Tbilisi-Ceyhan oil 
pipeline and the progress on the Southern corridor for gas represent 
powerful symbols of Azerbaijan's commitment to global energy security--
a key element of our efforts to diversify energy routes and sources for 
European markets. If confirmed, I will continue to work with Azerbaijan 
to diversify its energy routes and bolster its critical energy 
infrastructure protection.
    But, just as we continue our security and energy cooperation, we 
must also continue our efforts to work with Azerbaijan on advancing 
democratic institutions and processes, and strengthening rule of law. 
Both are essential to ensure long-term stability and to help 
Azerbaijanis unleash the full potential of their country. Democracies 
only thrive when they are bolstered by an independent judiciary, 
respect for the rule of just laws, a free media, a vibrant civil 
society, pluralism, competitive, democratic electoral processes, and 
respect for human rights and fundamental freedoms, including freedom of 
assembly, association, expression, movement, and religion.
    Azerbaijanis point to their 1918 post-Tsarist constitution to say 
they were the Muslim world's first democracy and that women had the 
right to vote in Azerbaijan before they won that right in our country. 
That constitution and republic fell in 1920, but it is a tradition of 
which Azerbaijanis can be proud. Recently, Azerbaijan decided to 
continue a well-publicized program to decrease corruption at lower 
levels of public administration. The government established six 
administrative service centers in Baku and the regions, which function 
as one-stop centers for government services from nine ministries, where 
Azerbaijanis can obtain documents such as birth certificates and 
marriage licenses. However, much more needs to be done to combat 
corruption and protect those who identify it.
    We recognize that Azerbaijan lives in a very difficult neighborhood 
and must maintain its security and stability, which the United States 
strongly supports. But we also recognize that the security, stability, 
and prosperity that Azerbaijan seeks can only come with a strong 
commitment to democratic principles, including respect for rule of law, 
human rights, and fundamental freedoms. Those are critical components 
of security and stability for any country. This is an area of great 
concern to this administration, as I know it is for you and your 
colleagues in Congress. If confirmed, I will do everything in my power 
to work with Azerbaijanis to build the strong, vibrant, modern 
democracy and sustainable, diversified economy that they want and 
deserve.
    Finally, but no less importantly, Azerbaijan is a pivotal player in 
the region's future peace and stability. And there is no higher 
priority today for achieving a more secure and prosperous future for 
the Caucasus than the peaceful settlement of the Nagorno-Karabakh 
conflict. As a cochair of the OSCE Minsk Group, the United States 
continues to assist all sides as they seek to achieve a peaceful, 
lasting negotiated settlement of the conflict based on the U.N. Charter 
and relevant documents, and the principles of the Helsinki Final Act, 
including the nonuse of force or threat of force, territorial 
integrity, and the equal rights and self-determination of peoples.
    The Secretary of State and Ambassador Warlick have made major 
efforts to facilitate a settlement. On September 4, Secretary Kerry met 
with the Presidents at the NATO summit in Wales to discuss a way 
forward in peace negotiations. We publicly commended the Presidents of 
Armenia and Azerbaijan for these important steps, and we encourage them 
to continue to discuss elements of a settlement.
    Such meetings must continue, as only a negotiated settlement can 
lead to long-term peace and stability in the region. If confirmed, I 
will support the administration's commitment, at the highest levels, to 
achieving this goal. In this, I will support the efforts of the U.S. 
cochair, Ambassador James Warlick, as we work closely with the sides to 
reach a settlement.
    As President Obama stated in June in Warsaw, ``True democracy, real 
prosperity, lasting security--these are neither simply given, nor 
imposed from the outside. They must be earned and built from within.'' 
If confirmed, I will do everything in my power to work with 
Azerbaijanis to build the strong, vibrant, modern democracy and 
sustainable, diversified economy that they want and deserve. And I will 
work to advance our relationship in ways consistent with our shared 
interests and our shared values.
    Mr. Chairman, thank you very much for considering my nomination. I 
look forward to your questions.

    Senator Murphy. Thank you.
    Mr. Mills.

STATEMENT OF RICHARD M. MILLS, JR., OF TEXAS, TO BE AMBASSADOR 
                   TO THE REPUBLIC OF ARMENIA

    Mr. Mills. Thank you, Mr. Chairman and Ranking Member 
Johnson.
    Twenty-three years ago, I served as the Department of 
State's first desk officer for the newly independent Armenia. 
So it is a particular honor for me to be before you today as 
President Obama's nominee to serve as the next Ambassador to 
the Republic of Armenia.
    With me today is my wife, Leigh, a retired Foreign Service 
officer who has been my partner throughout this two-decade 
career from desk officer to this hearing.
    Mr. Chairman, the goal of our Armenian policy is 
straightforward: a free and prosperous Armenia at peace with 
its neighbors. Achieving this goal means helping Armenia 
strengthen its democracy and fight corruption, liberalize its 
economy, resolve the Nagorno-Karabakh conflict peacefully 
through the Minsk Group process, and to reconcile with its 
neighbor Turkey through a full, frank, and just acknowledgement 
of the sufferings of the Armenian people. If confirmed, these 
will be my priorities.
    Like you, Mr. Chairman, while we have been clear about our 
disappointment over some of Armenia's recent decisions such as 
its vote in the U.N. General Assembly with Russia against 
upholding Ukraine's sovereignty and territorial integrity, the 
U.S. Government's commitment to a strong bilateral relationship 
with Armenia remains unchanged. Armenia's decision in September 
2013 to end its negotiations with the EU on a comprehensive 
free trade area and to join the Russian-led Eurasian Economic 
Union I think underscored the need to achieve our goals of 
decreasing Armenia's regional isolation and bolstering its 
economic and security independence. If we achieve that, this 
will give Armenia greater ability to build economic and 
security relationships with a range of partners, including not 
only Russia, but its immediate neighbors, the Europeans, and 
the United States as well. We are stressing, since Armenia's 
decision, that strengthened economic collaboration with the 
United States and Europe can complement Armenia's future 
membership in the Eurasian Economic Union.
    This year marks the fifth anniversary of Armenia and 
Turkey's signing of the protocols on the establishment of 
diplomatic relations and the development of bilateral 
relations. We continue to emphasize the importance of 
proceeding with final approval of these protocols, without 
preconditions or linkage to any other issues. We have been 
clear that responsibility for moving forward now lies with the 
Turkish Government, and we continue to press at the highest 
levels for Turkish movement and ratification of the protocols.
    Efforts toward Turkish-Armenian reconciliation are 
especially important at this time, as I know you know, because 
the United States and the world will stand in solidarity with 
the Armenian people next year to mark the centenary of one of 
the 20th century's worst atrocities when 1.5 million Armenians 
were massacred or marched to their deaths in the final days of 
the Ottoman Empire. In advance of this tragic anniversary, it 
is important that Turkey engage with Armenia to achieve a full, 
frank, and just acknowledgement of the facts so that the two 
nations can begin to forge a productive relationship.
    The protracted conflict over Nagorno-Karabakh continues to 
be a source of concern to the U.S. Government, as you heard 
from my colleague. The administration is committed to a 
peaceful settlement through the Minsk Group process. Secretary 
Kerry delivered this message when he met with the Presidents at 
the NATO summit in Wales on September 4. If confirmed, I will 
coordinate with Ambassador James Warlick, the U.S. cochair of 
the Minsk Group, on how Embassy Yerevan and I can assist the 
administration's efforts to facilitate followup meetings in the 
months ahead.
    Our goal of a free and prosperous Armenia equally requires 
work inside Armenia itself. There are many fronts in this 
effort: progress on democratic and economic reforms, increased 
respect for human rights, and combating corruption. If 
confirmed, I will build on my predecessor's public and private 
advocacy these issues, as well as work to effectively implement 
targeted U.S. assistance programs that can focus on the 
development of civil society and judicial independence.
    In addition, I will continue our efforts to advance market 
reforms with the goal of increased bilateral trade and 
investment to the benefit of both countries.
    My work 23 years ago introduced me to Armenia, its 
inspiring history, and its capacity for political and cultural 
renewal. If confirmed, I look forward to enhancing my 
understanding of the country and to working closely with the 
members of this committee and with the Congress as a whole in 
representing my fellow Americans as the United States 
Ambassador to the Republic of Armenia.
    Thank you. I welcome your questions.
    [The prepared statement of Mr. Mills follows:]

                 Prepared Statement of Richard M. Mills

    Thank you, Mr. Chairman, Ranking Member Johnson, and distinguished 
members of the committee.
    Twenty-three years ago, I served as the Department of State's first 
desk officer for newly independent Armenia, so it is a particular honor 
for me to be before you today as President Obama's nominee to serve as 
the next Ambassador to the Republic of Armenia. With me today is my 
wife, Leigh, a retired Foreign Service officer, who has been my partner 
throughout my two-decade, professional journey from desk officer to 
this hearing. It means a great deal to me that she was able to join me 
here today and, if I am confirmed, will be with me in Yerevan.
    My parents blessed me with curiosity about the world and a 
conviction that a public service career dedicated to promoting 
understanding of the United States and our values would be a fulfilling 
one. My parents were my inspiration to join the U.S. Foreign Service. 
Even though they were not able to travel from Texas to be here today, 
they are both certainly here with me in spirit.
    Mr. Chairman, if confirmed, I will build upon the achievements of 
my predecessors and continue the Obama administration's commitment to 
achieving U.S. foreign policy objectives for Armenia.
    The goal of our Armenian policy is simple: a free and prosperous 
Armenia, at peace with its neighbors. Achieving this goal means helping 
Armenia strengthen its democracy and rule of law; liberalize its 
economy, expand trade, and attract diversified foreign investment; 
resolve the Nagorno-Karabakh conflict peacefully through the Minsk 
Group Process; and to reconcile with its neighbor Turkey through a 
full, frank, and just acknowledgment of the painful elements of the 
past. If confirmed, these will be my priorities.
    While we have been clear about our disappointment over some of 
Armenia's recent decisions, such as its vote in the U.N. General 
Assembly with Russia against upholding Ukraine's sovereignty that put 
Armenia at odds with the overwhelming majority of the international 
community, the U.S. Government's commitment to a strong bilateral 
relationship with Armenia remains unchanged. Armenia's decision, in 
September 2013, to join the Russia-led Eurasian Economic Union and to 
end its negotiations with the European Union on a Deep and 
Comprehensive Free Trade Area, served to emphasize the need to achieve 
our goals of decreasing Armenia's regional isolation and bolstering its 
economic and security independence. This would give Yerevan greater 
ability to build economic and security relationships with a range of 
partners, including not only Russia, but its immediate neighbors, the 
EU, and the United States as well. We have stressed since Armenia's 
decision that strengthened economic collaboration with the United 
States and Europe can complement Armenia's future membership in the 
Eurasian Economic Union.
    Important to reducing Armenia's isolation and bolstering its 
economy is timely progress toward reconciliation with neighboring 
Turkey. This year marks the fifth anniversary of Armenia and Turkey's 
signing of the Protocol on the Establishment of Diplomatic Relations 
and the Protocol on the Development of Bilateral Relations. We continue 
to emphasize the importance of proceeding with final approval of these 
Protocols, without preconditions or linkage to other issues, and have 
been clear that responsibility for moving forward lies with the Turkish 
Government. The administration will continue to press at the highest 
levels for Turkish ratification of the Protocols. While the Protocols 
remain the administration's preferred path to normalized relations, the 
process outlined in the Protocols has stalled. The pressing need for 
reconciliation between the two states requires that both sides consider 
other confidence-building measures that they could take now pending 
progress on the Protocols.
    Efforts toward Turkish-Armenian reconciliation are especially 
important at this time, as the United States and the world will stand 
in solidarity with the Armenian people next year to mark the centenary 
of one of the 20th century's worst atrocities, when 1.5 million 
Armenians were massacred or marched to their deaths in the final days 
of the Ottoman Empire. In advance of this tragic anniversary, it is 
important that Turkey engage with Armenia to achieve a full, frank, and 
just acknowledgement of the facts so that both nations can begin to 
forge a relationship that is peaceful, productive, and prosperous.
    The protracted conflict between Armenia and Azerbaijan over 
Nagorno- Karabakh continues to be a source of concern to the U.S. 
Government, especially as the loss of life on both sides of the line of 
contact has tragically and sharply increased over the last few months. 
The administration is committed to a peaceful settlement through the 
Minsk Group process. Secretary Kerry delivered this message when he met 
with the Armenian and Azerbaijani Presidents at the NATO summit in 
Wales on September 4 to discuss a way forward in peace negotiations. If 
confirmed, I will coordinate with Ambassador James Warlick, the U.S. 
cochair of the Minsk Group, on how Embassy Yerevan and I can assist the 
administration's efforts to facilitate followup meetings in the months 
ahead.
    As important as it is to assist Armenia to build relations with all 
of its neighbors and secure a peaceful resolution of the Nagorno-
Karabakh conflict, our goal of a free and prosperous Armenia equally 
requires work inside Armenia as well. There are many fronts in this 
effort: enhanced progress on democratic and economic reforms; increased 
respect for human rights and fundamental freedoms; and strengthened 
rule of law and systemic reforms to combat corruption that address the 
real concerns of Armenian citizens and international investors. If 
confirmed, I will build on my predecessor's advocacy on these issues 
and work to implement targeted U.S. assistance programs that place a 
strong emphasis on the development of civil society, good governance, 
and judicial independence.
    Our military cooperation with Armenia is strong and deepening. As a 
result of that military cooperation and U.S. support, Armenia is 
expanding its peacekeeping commitments with the U.N. in the Middle 
East, in addition to its long-standing efforts in support of the 
peacekeeping missions in Kosovo and with ISAF in Afghanistan.
    In addition, I will continue our efforts to deepen economic ties, 
increase trade and investment, and advance market reforms, with the 
goal of increased bilateral trade and investment to the benefit of both 
countries. We have had success working with our Armenian partners in 
the U.S.-Armenia Task Force (USATF) to strengthen the business and 
investment environment in Armenia and are considering whether to begin 
negotiations with Yerevan on a Trade and Investment Framework 
Agreement. There are opportunities for significant trade and investment 
in Armenia, especially in the county's information technology sector. 
But before Armenia can unleash the full potential of U.S. and foreign 
business interest, there must be progress on issues such as 
intellectual property rights protection, customs reform, and respect 
for contracts, so if confirmed these will be priorities as the Embassy 
works to strengthen the rule-of-law inside Armenia. There are also 
opportunities to leverage public-private partnerships, especially 
drawing on the resources and knowledge of the Armenian-American 
diaspora, to augment what is overall a decreasing foreign assistance 
budget for Armenia. If confirmed, I will continue my predecessor's 
focus on pursuing such partnerships.
    Mr. Chairman, I want to close by assuring you that, if confirmed, I 
look forward to working closely with you, with members of this 
committee, and with the Congress as a whole in representing my fellow 
Americans as the United States Ambassador to the Republic of Armenia. 
And, in accordance with the Foreign Service's own values and 
traditions, I will, if confirmed, report candidly and objectively to 
Washington about developments in Armenia and provide recommendations 
for action that I believe are in the best interests of the United 
States.
    My work 22 years ago introduced me to Armenia, its inspiring 
history, its capacity for political and cultural renewal, and its 
potential to be a catalyst for regional economic development. If 
confirmed, I look forward to enhancing my understanding of the country 
and the region by working with you, the Armenian Government, the 
Armenian people, and the Armenian-American community.
    Thank you and I welcome your questions.

    Senator Murphy. Thank you.
    Mr. Baily.

 STATEMENT OF JESS LIPPINCOTT BAILY, OF OHIO, TO BE AMBASSADOR 
                  TO THE REPUBLIC OF MACEDONIA

    Mr. Baily. Mr. Chairman, Ranking Member Johnson, I am 
honored to appear to you today as President Obama's nominee for 
the position of United States Ambassador to the Republic of 
Macedonia. And I am grateful for the confidence that President 
Obama and Secretary Kerry have placed in me. If confirmed, I 
look forward to working with you, this committee, and the 
Congress to advance and protect United States interests in 
Macedonia.
    I am proud to be accompanied today by my wife, Capie, a 
former Foreign Service officer; our son, Noah, a college 
sophomore in Connecticut and Navy ROTC student; and my sister, 
Mary Wheeler. Unfortunately, my parents, Joan and Oliver Baily, 
who did so much to nurture my enduring curiosity in the world 
were not able to attend today. My family has provided me 
unwavering support through 29 years of moves around the world, 
often in challenging places. To Capie and Noah, thank you for 
sharing with me the joys and the hardships of this fantastic 
and rewarding career.
    Having returned 2 weeks ago from serving for 3 years in 
Turkey, I am as aware as you of the worrisome set of challenges 
which require effective U.S. diplomacy. As Russia sows conflict 
in Ukraine and ISIL terrorizes fragile societies and preys on 
vulnerable recruits, the United States must fortify 
relationships with friends and partners to achieve our shared 
goals of peace, prosperity, and security. And while Macedonia 
has not yet achieved full integration into the Euro-Atlantic 
community, we share the goal of forging a Europe whole, free, 
and at peace, and we confront global challenges together.
    Macedonia has been a steadfast partner in international 
security operations. This past July, Macedonia deployed its 
17th rotation of troops in Afghanistan and has affirmed its 
willingness to stay beyond 2014. At the U.N., Macedonia has 
supported Ukraine's sovereignty and territorial integrity. And 
earlier this month, Macedonia's Parliament passed legislation 
to address the problem of foreign fighters. It is in the United 
States interest that we continue to help this committed friend 
and partner achieve readiness for NATO and EU membership.
    Mr. Chairman, we are all familiar with the long-standing 
dispute between Macedonia and Greece over the former's name, 
and the resulting stagnation in Macedonia's NATO and EU 
accession processes. If confirmed, I pledge to bring my 
diplomatic experience to bear on helping Macedonia to work with 
Greece to find a mutually agreeable solution to this issue. 
Such a resolution would increase security and stability in 
Macedonia, in the Balkan region, and across Europe.
    And even as we encourage resolution of the name issue, our 
Embassy in Skopje works daily to increase security, promote the 
rule of law, and media freedom, combat terrorism, and expand 
trade and investment. My experience in leading multiagency 
missions and in working with Europe and the United Nations has 
prepared me to help Macedonia confront the challenges it faces 
today. Among these is full implementation of the Ohrid 
Framework Agreement, which ended the civil conflict in 2001. 
And although the largest ethnic Albanian party is in the ruling 
coalition, gaps persist between ethnic Albanian and Macedonian 
populations. If confirmed, I would build on the efforts of our 
Embassy to encourage all parties to bridge ethnic divides and 
seek a common future.
    And while Macedonia has developed strong democratic 
structures, the United States, the European Union, and most 
importantly Macedonian citizens have expressed concerns about 
freedom of the press, the independence of the judiciary, and 
corruption. The United States is already a partner in 
addressing these issues, and should I be confirmed, I will 
engage with the leaders and the public on Macedonia's reform 
agenda and not only because that agenda advances its membership 
in European institutions. A free media, an independent and 
impartial judiciary, and a transparent government strengthen 
the democracy and promote the prosperity to which Macedonians 
rightly aspire. Along with Macedonia's economic reforms, they 
are critical to opening up new opportunities for bilateral 
trade and investment.
    And of course, while working on these issues, I will always 
remember that my top priority is to serve and protect U.S. 
citizens, whether colleagues working in the mission, Peace 
Corps Volunteers, U.S. investors and exporters, or your 
constituents in need of help.
    Mr. Chairman, Ranking Member Johnson, thank you very much 
for this opportunity to appear today, and I look forward to 
your questions.
    [The prepared statement of Mr. Baily follows:]

              Prepared Statement of Jess Lippincott Baily

    Thank you, Mr. Chairman and members of the committee. I am honored 
to appear before you today as President Obama's nominee for the 
position of United States Ambassador to the Republic of Macedonia, and 
I am grateful for the confidence the President and Secretary Kerry have 
placed in me. If confirmed, I look forward to working with this 
committee and Congress to advance and protect U.S. interests in 
Macedonia.
    I am proud to be accompanied by my wife, Capie, a former Foreign 
Service officer; our son, Noah, who just began his sophomore year as a 
Navy ROTC student at Yale; and my sister, Mary. Unfortunately, my 
parents Joan and Oliver Baily, who did so much to nurture my enduring 
curiosity about the world, were not able to attend. Diplomatic service 
is a team effort. My family has provided me unwavering support through 
29 years of moves around the world, often in challenging places and 
uncertain times. To Capie and Noah, I owe my enduring thanks for 
sharing with me the joys and hardships of this fantastic and rewarding 
career.
    Having returned last week from serving 3 years as Deputy Chief of 
Mission in Turkey, I am as aware as you that we face a worrisome set of 
global challenges in which effective diplomacy is essential to 
defeating the forces that threaten democracy and peace. As Russia sows 
conflict in Ukraine and ISIL terrorizes fragile societies and preys on 
vulnerable recruits internationally, the United States must fortify 
relationships with friends and partners to achieve our shared goals of 
peace, security, and prosperity. While Macedonia has not yet achieved 
full integration into the Euro-Atlantic community--and certainly work 
remains to be done as it continues down that path--we share the goal of 
forging a Europe whole, free, and at peace and confront together global 
challenges.
    Macedonia has been a steadfast partner in international security 
operations: this past July, 153 Macedonian soldiers deployed in the 
country's 17th rotation to Afghanistan to provide force protection at 
International Security Assistance Force headquarters in Kabul. 
Macedonia is one of the highest per capita contributors to ISAF. It has 
affirmed its willingness to stay in Afghanistan beyond 2014; and it 
supports the EU peacekeeping mission in Bosnia and Herzegovina and the 
U.N. mission in Lebanon. In March, Macedonia voted in favor of the U.N. 
General Assembly resolution supporting Ukraine's territorial integrity. 
And earlier this month, Macedonia's Parliament passed legislation to 
address the problem of foreign fighters. As our committed friend and 
partner, Macedonia deserves our assistance in achieving readiness for 
NATO and EU membership. It is in the United States and Europe's 
interest that we continue to lend that help.
    Mr. Chairman, we are all familiar with the long-standing dispute 
between Macedonia and Greece over the former's name and with the 
resulting stagnation for Macedonia's NATO and EU accession processes. 
If confirmed, I pledge to bring my diplomatic experience to bear on 
helping Macedonia as it works with Greece to find a mutually agreeable 
solution. When Macedonia and other countries of the Western Balkans 
gathered in Berlin 2 weeks ago, they declared that this dispute ``must 
urgently be resolved by a willingness to compromise on all sides.'' Six 
years have passed since NATO's Bucharest Summit Declaration promised an 
invitation to Macedonia as soon as the name issue was resolved. A 
resolution will be a key step toward increased stability and security 
in Macedonia, in the Balkan region and across Europe.
    Even as we encourage resolution of the name issue, our Embassy in 
Skopje works daily to increase security, promote the rule of law and 
fundamental rights, combat terrorism, and expand trade and investment--
in partnership with our European allies. My experience in leading 
complex missions in Ankara and Erbil and in working with Europe and the 
United Nations has prepared me to help Macedonia confront the 
challenges it faces today. The 13th anniversary of the Ohrid Framework 
Agreement, which ended the civil conflict in 2001 by providing a plan 
for ensuring equal rights for citizens of all ethnicities, just passed, 
but there is more work to be done on implementation of the agreement. 
Although the largest ethnic Albanian party is in the ruling coalition, 
gaps persist between the ethnic Albanian and Macedonian populations, as 
evidenced by protests this summer. If confirmed, I would build on the 
efforts of our Embassy team to encourage all parties to bridge these 
ethnic divides and to call on leaders from both sides to increase 
interethnic communication and understanding.
    And while Macedonia has developed strong democratic structures, the 
United States, the European Union, other friends of Macedonia, and--
importantly, its own citizens--have expressed concerns about the 
freedom of the Macedonian press, the independence of the judiciary, and 
the transparency of government finances. As Assistant Secretary Nuland 
said at the Croatia Forum in July, ``as we look to shore up the values 
at the core of the transatlantic community, the fight against 
corruption and democratic backsliding must now be an equally frontline 
concern.'' The United States is already a partner in confronting these 
challenges. Should I be confirmed, I will engage with leaders and the 
public on Macedonia's reform agenda, and not only because that agenda 
advances its European Union candidacy. A free media, an independent and 
impartial judiciary, and transparent government decisions strengthen 
the democracy and promote the economic prosperity to which Macedonians 
aspire. Along with Macedonia's economic reforms, they are critical to 
opening up new opportunities for bilateral trade and investment, 
another U.S. priority.
    Of course, while working to help Macedonia reinforce its democratic 
institutions and achieve its full Euro-Atlantic aspirations, I will 
always remember that my top priority is to serve and protect U.S. 
citizens, whether colleagues working in our mission, U.S. investors and 
exporters, or your constituents in need of help. Such service remains a 
core task of our overseas missions.
    Mr. Chairman and members of the committee, thank you very much for 
this opportunity to appear today. I look forward to working with you if 
confirmed and to answering any questions you may have for me.

    Senator Murphy. Thank you.
    Ms. Uyehara.

STATEMENT OF MARGARET ANN UYEHARA, OF OHIO, TO BE AMBASSADOR TO 
                           MONTENEGRO

    Ms. Uyehara. Thank you, Mr. Chairman and Ranking Member 
Johnson.
    It is a great honor to appear before you today as President 
Obama's nominee to serve as the United States Ambassador to 
Montenegro. I deeply appreciate the confidence the President 
and Secretary Kerry have placed in me. If confirmed, I pledge 
to work closely with this committee and Congress to protect and 
promote U.S. interests in Montenegro.
    My husband and best friend, Michael, also a career Foreign 
Service officer, is not here today, but he is no doubt watching 
from Belgrade streaming live where he just began a new 
assignment with the Organization for Security and Cooperation 
in Europe.
    My son, Andrew, and my daughter, Leilani, who is teaching 
English in Japan, are also not here, but they are here in 
spirit.
    But I am delighted to have my other three children with me: 
my daughter, Malia, an undergrad at the University of Virginia; 
my son, Chris, a Ph.D. candidate at the University of North 
Carolina; and most importantly--sorry, kids--my son, a captain 
in the U.S. Army who just returned from a yearlong deployment 
in Kuwait and surprised the heck out of me on Saturday night, 
by the way. It is on YouTube.
    I could not be prouder of all of them and grateful for 
their love and support and indeed the support of all of my 
colleagues, many of whom are sitting right back behind me this 
morning.
    Today's hearing marks a pivotal moment in my 32-year 
Foreign Service career. In my current position as Executive 
Director for European and Eurasian Affairs and International 
Organizations, I lead a team responsible for the support of 79 
overseas posts with over 26,000 people and an annual operating 
budget of over $700 million. This team is the operational 
backbone of our foreign policy in the region and at the world's 
key international organizations. Over the years, I have worked 
to increase efficiency and contain costs, all the while 
ensuring that our diplomats have the resources necessary to 
represent our interests abroad. I believe my decades of 
experience will enable me to be an innovative and effective 
leader of our mission to Montenegro and a partner to the 
Montenegrin Government and its people as they progress on their 
path toward Euro-Atlantic integration.
    If confirmed, my top priority will be ensuring that 
Montenegro attains full partnership in the Euro-Atlantic 
community. A democratic and prosperous Montenegro that meets 
the requirements for NATO and EU membership will be a stronger, 
more capable partner for the United States. Montenegro has been 
steadfast in its commitment to becoming a NATO ally and has 
already shown that it is a dedicated security partner by 
deploying forces in NATO, EU, and U.N. missions from Africa to 
Afghanistan. Importantly, in the wake of the current crisis in 
Ukraine, Montenegro sent a powerful signal by voting with the 
United States and the overwhelming majority of the 
international community on the U.N. resolution condemning 
Russia's actions in Ukraine and publicly supporting the EU 
sanctions.
    Recognizing this commitment to Euro-Atlantic values, NATO 
Foreign Ministers agreed this past June to begin an intensified 
and focused dialogue with Montenegro to assess its readiness 
for NATO membership and promised to review its progress no 
later than the end of 2015. This decision recognizes the great 
strides Montenegro has already made and how very close it is to 
the finish line. If confirmed, I will work closely with 
Montenegro as it focuses on the areas that are instrumental to 
eventual NATO membership.
    But our shared interests extend far beyond security. 
Montenegro's continued economic growth and prosperity yield 
direct benefits for U.S. investment, exports, and jobs. Major 
U.S. companies are doing business in Montenegro with several 
important projects on the horizon. But there is room for even 
greater growth. If confirmed, I will work with Montenegro's 
already active business community to strongly advocate for U.S. 
businesses. Together, I am confident that we can further 
enhance the economic ties that bind our two nations and help 
create jobs on both sides of the Atlantic.
    A key element in the United States-Montenegrin economic and 
security relationship is the guarantee of transparent and 
accountable public institutions steeped in the rule of law. 
Montenegro has worked to root out its corruption. It is forming 
a fully independent special prosecutor's office to fight 
organized crime and has established a new preventive anti-
corruption agency. But more can be done. And the United States 
is a strong partner in these efforts. If confirmed, my team and 
I will continue that collaboration to advance the goal of a 
Montenegro that is a democratic source of stability in the 
Balkans.
    And finally, if I am confirmed, I pledge to place the 
safety and security of U.S. citizens in Montenegro and our 
mission above all else and to provide excellent services to all 
U.S. citizens in Montenegro.
    Mr. Chairman, Ranking Member Johnson, our relationship with 
Montenegro is an important one, built on shared commitment to 
Euro-Atlantic values, security, prosperity, democracy for all 
Americans and Montenegrins. And if confirmed, I pledge to work 
with you to further advance those values in the service of our 
common strategic goal: a Europe whole, free, and at peace.
    Thank you very much for this opportunity to appear before 
you, and I look forward to answering any questions.
    [The prepared statement of Ms. Uyehara follows:]

               Prepared Statement of Margaret Ann Uyehara

    Thank you, Mr. Chairman and Members of the Committee. It is a great 
honor to appear before you today as President Obama's nominee to serve 
as the United States Ambassador to Montenegro. I deeply appreciate the 
confidence the President and Secretary Kerry have shown in me. If 
confirmed, I pledge to work closely with this committee and Congress to 
protect and promote U.S. interests in Montenegro.
    My husband and best friend, also a career Foreign Service officer, 
is not able to be here today but he is no doubt watching from Belgrade, 
where he just began a new assignment. But I am delighted to have my 
daughter, Malia, an undergrad at UVA, with me. My other four children 
could not be present, but they are here in spirit. My sons, Andrew, and 
Ryan, a Captain in the U.S. Army, is returning today from Kuwait where 
he has just finished a tour of duty with a Patriot missile unit, 
defending our freedom. Leilani is teaching English in Japan, and 
Christopher is earning his Ph.D. I could not be prouder of all five of 
them and grateful for their love and support. Lastly, I am touched by 
the presence of a great number of my other family here today: my 
Foreign Service family of colleagues.
    Today's hearing marks a pivotal moment in my 32-year Foreign 
Service career, 12 years of which I have spent either in Europe or 
working directly on European issues. In my current position as 
Executive Director for European and Eurasian Affairs and International 
Organizations, I lead a team responsible for the management and support 
of 79 overseas posts, which translates to a team of over 26,000 people 
worldwide, through an annual operating budget of $700 million. This 
team is the operational backbone of our foreign policy in Europe and 
Eurasia and our representation at the world's key international 
organizations. Over the years, I have worked to increase efficiency and 
contain administrative costs overseas, all the while ensuring that our 
diplomats have all the resources necessary to effectively represent our 
interests abroad. And serving in positions around the world, from Tokyo 
to Kiev, I have witnessed first-hand the important role the United 
States plays in working with countries as they strengthen their 
security, grow their economies, and fortify their democratic 
institutions. I believe that my decades of experience will enable me to 
be an innovative and effective leader of our mission to Montenegro and 
partner to the Montenegrin Government and its people as they progress 
on their path toward Euro-Atlantic integration.
    If confirmed, my top priority will be ensuring that Montenegro 
attains full partnership in the Euro-Atlantic community. A democratic 
and prosperous Montenegro that meets the requirements for NATO and EU 
membership will be a stronger, more capable partner for the U.S. 
Montenegro has been steadfast in its commitment to becoming a NATO 
ally, and has already shown that it is a dedicated security partner by 
deploying forces in support of NATO, U.N., and EU missions from Africa 
to Afghanistan. Montenegro is currently providing force protection in 
Afghanistan as part of the International Security Assistance Force. And 
it enjoys an enduring partnership with the Maine National Guard through 
our State Partnership Program. Importantly, in the wake of the current 
crisis in Ukraine, Montenegro sent a powerful signal by voting with the 
United States and the overwhelming majority of the international 
community on the U.N. resolution condemning Russia's actions in Crimea, 
and publicly supporting EU sanctions against Russia.
    Recognizing this commitment to Euro-Atlantic values, NATO Foreign 
Ministers agreed this past June to begin an intensified and focused 
dialogue with Montenegro to assess its readiness for NATO accession, 
and promised to review Montenegro's progress no later than the end of 
2015. This decision is a recognition of the great strides Montenegro 
has already made and of how close they are to the finish line. If 
confirmed, I will work closely with Montenegro as it focuses on the 
areas that are instrumental to eventual NATO membership.
    Our shared interests extend beyond security. Montenegro's continued 
economic growth and prosperity yield direct benefits for U.S. 
investment, exports, and U.S. jobs. Major U.S. companies are doing 
business in Montenegro with several important projects involving U.S. 
companies on the horizon. But there is room for even greater growth. In 
particular, Montenegro's energy sector presents opportunities for 
hydroelectric power expansion and off-shore oil and gas exploration. If 
confirmed, I will work with Montenegro's already active business 
community, including the American Chamber of Commerce and U.S.-
Montenegro Business Council, to strongly advocate for U.S. business in 
Montenegro. Together I am confident that we can further enhance the 
economic ties that bind our two nations and help to create new jobs on 
both sides of the Atlantic.
    A key element in the U.S.-Montenegrin economic and security 
relationship is the guarantee of clean, transparent accountable public 
institutions steeped in the rule of law. The fight against corruption 
must be at the front lines of this effort. Montenegro has worked to 
root out corruption. It is forming a fully independent Special 
Prosecutor's Office to fight organized crime and corruption and has 
established a new preventive anticorruption agency. But more must be 
done.
    The United States is a partner in these efforts. We are providing 
law enforcement and prosecutorial training to the Government of 
Montenegro to help in this critical work. And next week, in fact, 
Montenegro's top jurist--the President of the Supreme Court of 
Montenegro--will be here for meetings at the U.S. Supreme Court. If 
confirmed, I will continue our collaboration aimed at bolstering rule 
of law and fighting corruption. I will work with my team to advance the 
goal of a Montenegro that is a democratic source of stability in the 
Balkans.
    Finally, if I am confirmed for this position, I pledge to place the 
safety and security of U.S. citizens in Montenegro and our mission 
above all else, and to provide excellent service to all U.S. citizens 
in Montenegro.
    Mr. Chairman and members of the committee, our relationship with 
Montenegro is an important one--built on our shared commitment to 
security, prosperity, and democracy for all Americans and Montenegrins. 
If confirmed, I pledge to work with this committee to further advance 
these values in the service of our common strategic goal: a Europe 
whole, free, and at peace. Thank you very much for this opportunity to 
appear before you. I look forward to answering any questions you may 
have.

    Senator Murphy. Thank you very much.
    Where is Ryan? Ryan, we have a great deal of gratitude for 
all of the children of diplomats. We know the sacrifice that 
you make. But you are rising above and beyond the call. Thank 
you very much for your service. Thank you for being here. Thank 
you for surprising your mom.
    Let me start with Mr. Cekuta and Mr. Mills and dig a little 
bit deeper into the Nagorno-Karabakh conflict.
    Russia has, at times, taken steps to destabilize the 
conflict in large part by providing military support and arms 
to both sides of it and then has also tried to play a role as a 
mediator as well. I would love for both of you--I will ask you, 
Mr. Cekuta, first and then Mr. Mills. What is your 
understanding of Russia's sincerity about trying to play a role 
to bring this conflict to an end? What are Russia's interests 
in this conflict remaining frozen, semifrozen versus their 
interests in trying to gain some resolution? And is there any 
prospect, amidst the tensions that exist over Ukraine, for the 
United States and Russia to work together, to the extent that 
we do have common interests? So a multipart question.
    Mr. Cekuta. Thank you, Senator. Those are very important 
points and things which we will need to be considering if we 
are confirmed in this job.
    The United States, along with Russia and France, have been 
cooperating working together as co-chairs of the Minsk process 
to find a way forward on the Nagorno-Karabakh conflict, to find 
a solution to that issue. Our cochair, Ambassador Warlick, has 
been working closely with his counterparts in this process. I 
note that President Putin organized a meeting earlier this past 
summer in Sochi with the Armenian and Azerbaijani Presidents. 
But I also would note that the Armenian and Azerbaijani 
Presidents met last November under the auspices of the Minsk 
Group process, met with Secretary Kerry this past September 4th 
on the margins of the NATO summit.
    The Minsk Group process is the one that seems to have the 
greatest--which enjoys the confidence of all the parties and 
which seems the best way forward. And I think, Senator, if 
confirmed, this will be the area where I would see working 
closely with Ambassador Warlick to move this process ahead and 
find a solution to the Nagorno-Karabakh conflict.
    Thank you.
    Mr. Mills. Mr. Chairman, I would just echo what Bob has 
said. Just I would underscore Ambassador Warlick in all his 
discussions with me has emphasized that he works well with his 
Russian cochair and they have been an active participant in the 
Minsk Group process.
    As Bob said, meetings with Presidents can be helpful in 
moving the negotiations along, but we are being very clear to 
both sides that the Minsk Group process remains the best 
process and mechanism for reaching a solution on this issue 
because it is the process that the two parties have the most 
confidence in.
    I think in terms of arms being provided into the region, we 
are concerned about arms that come from anywhere that could 
destabilize the situation. And so we watch that and monitor 
that very, very carefully.
    It will be, obviously, a priority for both Bob and I to 
remain in contact ourselves, but to work with Ambassador 
Warlick to move the issue forward.
    Senator Murphy. Mr. Baily, you touched on some recent 
concerns raised about ethnic tensions within Macedonia, and of 
course, ethnic reconciliation is a key element of the lasting 
regional peace in the Balkans. And so you have got a Slavic 
majority and an Albanian minority. You have got reports of 
rising tensions. You have got, as you mentioned, the Ohrid 
Agreement.
    What is your understanding of where the Ohrid Agreement 
stands? I know you are not there yet, so you are not deeply 
enmeshed in this process. But you talked broadly about what our 
mission can do there to try to get at this maybe increasing 
problem. Maybe provide us a little bit more specificity as to 
what the United States can do possibly within the context of 
that agreement to try to make the situation better, not worse.
    Mr. Baily. Thank you, Mr. Chairman. That is a good 
observation.
    The Ohrid Agreement, as you know, ended a civil conflict 
and sought to bring active participation by the Albanian 
minority into both the governance of the country as well as its 
economy and give it a future within Macedonia. In many 
respects, there has been important progress. As I mentioned, 
the leading Albanian party is now part of the governing 
coalition. There is more local governance at a local level so 
that people have more control over their lives, but there is a 
lot more to do. As we saw in the demonstrations that occurred 
this July after a verdict, many Albanians have questions about 
the fairness of the judiciary. And so that is an area where we 
are working very actively to increase trust in the judiciary 
not only for just ethnic Albanians but for Macedonian citizens 
at large.
    We are also working in many areas, public diplomacy through 
our Peace Corps programs to build a sense of a common future 
and of tolerance between the ethnic Albanian and Macedonian 
populations. I would note that, of course, within the fabric of 
Macedonian society, there are more than Slavs and Albanians. 
There are Turks. There are Roma and others. So this is a 
microcosm in many ways of the richness of the Balkans. And to 
get all those populations to see a common future, I think the 
United States has an important role given our own history and 
our own set of values in this.
    Senator Murphy. You mentioned the lack of faith in the 
judiciary. In 2005 when Macedonia was originally considered for 
EU candidate status, they were considered a real success story 
within the western Balkans. And since then, there have been 
significant reports of backsliding in terms of their commitment 
to democracy and the integrity of their institutions.
    Again, I am asking you a question that you may not have a 
handle on until you are there, but do we have any sense of what 
has been the precipitating cause of some of the deterioration 
of their democratic institutions and judicial institutions?
    Mr. Baily. I think one of the primary causes is a sense of 
greater politicization of some of these institutions, including 
the judiciary, including the media. And so the United States 
does have efforts in our assistance programs, in our public 
diplomacy programs to address those. We have increased training 
within the judiciary, introduced things like sentencing 
guidelines to ensure fairness, auto case management so that you 
can avoid perhaps politicized case assignment, codes of ethics 
and so forth. But fundamentally we think that it is important 
to have a strong and free and impartial media as well to serve 
as an important check on political power. That is another area 
where we are working. I look forward to looking into all these 
things and to find out how we can be more effective.
    Senator Murphy. I will save my questions for Ms. Uyehara 
for the second round.
    Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    Certainly as the chairman and I have traveled together in 
Eastern Europe, a recurring theme always is corruption in 
government. You see where the Eastern European countries have 
rooted out the most corruption, are the ones that are more 
successful, places like Poland.
    Ms. Uyehara, you mentioned an anticorruption process in 
Montenegro. We met an incredibly courageous young woman in 
Romania, head of their special corruption prosecution group. 
She was under a death threat. We found it extremely important 
that the United States support those efforts. Can you speak to 
that in terms of what your intentions would be within 
Montenegro to support their anticorruption efforts?
    Ms. Uyehara. Thank you very much, Senator. That is a great 
question and it is certainly a very, very important issue for 
us, all of us on this panel, but throughout particularly the 
area and in Montenegro. Corruption is a horrible thing. To 
speak very bluntly, it corrodes society. It undermines people's 
faith and confidence in public institutions, and it prevents 
the kind of economic growth and development that all of our 
countries definitely need particularly in this environment.
    Montenegro, from my reading and preparing for this hearing, 
very much recognizes that it needs to do more in this regard. 
We have a very robust and very targeted rule of law program 
with two very excellent resident legal advisors in Montenegro 
and work very closely with all members and levels of the 
judiciary, the police force, and the prosecutors to try to 
reform those institutions and to try to make them more 
accountable and transparent. Certainly if I am confirmed, 
Senator, I will do everything I can to make sure that we have a 
very targeted, focused effort that yields the greatest 
possibility of results, and I will work very closely with all 
levels of society and nongovernmental institutions, as well as 
the Montenegrin Government, to make sure that they have a more 
robust society and respect the rule of law, sir.
    Senator Johnson. Okay. I appreciate that. I think those 
individuals fighting against corruption in those countries 
really do value the leadership of America, the support of 
America. So I would certainly encourage that activity.
    Mr. Mills or Mr. Cekuta, either one of you or both of you 
can answer this question. I would like to be brought up to 
speed in terms of the history of the Nagorno-Karabakh conflict. 
What issues were at the heart of it? What issues may have been 
resolved? What issues still remain unresolved in the process? 
Let me start with you, Mr. Mills.
    Mr. Mills. The conflict is over 20 years old, Senator, as 
you know. It involves competing claims to the Nagorno-Karabakh 
territory. Warfare back and forth in the early 1990s resulted 
in Armenia assuming responsibility for the territory. And its 
cease-fire was imposed in 1994. There is a line of contact 
between the two sides. The Minsk Group process was created to 
resolve the future status of this territory. We have had some 
breakthroughs in the past, but we have not been able to get the 
two sides to reach a final solution.
    I think there is wide recognition that any settlement will 
require respect for basic principles contained in international 
law, the U.N. charter, and the Helsinki Final Act. And three 
principles will be key to any settlement: nonuse of force, 
nonthreat of use of force; respect for territorial integrity; 
and respect for the self-determination of peoples. Any solution 
requires involvement of all those three principles and it will 
require agreement from all the parties involved.
    I think Ambassador Warlick himself laid out the elements 
for a solution in his speech he gave at the Carnegie Institute 
here in Washington in May. So I would refer you to those as 
very useful. They have gotten a lot of attention in both 
countries. And the process is moving forward. Ambassador 
Warlick is actually in Yerevan today building on the meeting 
that the Secretary had with the two Presidents on September 4. 
And he himself was quoted in the papers this morning as saying 
that he believes there is a window of opportunity now for the 
sides to move forward. Ultimately, though, it will require 
compromise from both sides and preparing peoples on all sides 
for compromise based on those principles.
    Senator Johnson. What I am hearing is none of the issues 
have been resolved. There has been a framework. There are 
discussions going on, but the heart of the issues is still 
there and it is going to require compromise. Nothing has been 
resolved. Is that basically true, Mr. Cekuta?
    Mr. Cekuta. Thank you, Senator.
    I think I agree with what Rick said, and I think the point 
here is that from talking to Ambassador Warlick and our 
understanding where he sees the situation right now and what he 
has put forward in his Carnegie statement back in the spring, 
the outlines for an agreement seem to be there. And the 
principles for reaching that agreement are sort of in place. 
The question now is bringing the two sides together. And this 
is what can be done from the Minsk Group. This is what the 
Secretary was trying to do in the meetings in Wales earlier 
this month and where Jim is working right now to try to bring 
this together.
    One of the things which I think is important to bear in 
mind is that there is no military solution to this conflict, 
that it really is something that needs to be worked out and it 
can be worked out. And so one of the things, I think, for both 
Rick and for me to be doing will be working with Jim, working 
with the Minsk Group to try to help build the framework for an 
agreement that could bring peace to this part of the world.
    Senator Johnson. Thank you. I am almost out of time. I will 
just wait for a second round, Mr. Chairman.
    Senator Murphy. Thank you.
    Ms. Uyehara, I want to talk to you about Montenegro's 
potential NATO membership. We talked about this privately. I am 
a believer that Montenegro is ready and could have been offered 
a plan for membership in Wales. And my frustration has been 
that it has not appeared clear to me that Montenegro has been 
told in explicit enough terms exactly what they need to do from 
here until now, as you mentioned, 2015 when a decision will be 
made up or down.
    What is your understanding of the communication that has 
been made to Montenegro as to what they need to do, and what is 
the role of our Embassy to try to get them from here to there 
in time for this decision to be made next year?
    Ms. Uyehara. Thank you very, very much, Senator.
    As I mentioned in my testimony, certainly assisting 
Montenegro in its quest for full integration into the Euro-
Atlantic community and to fulfill its aspirations to join NATO 
will be one of my top foreign policy priorities, if I am 
confirmed as Ambassador. And I agree with you, Senator. We need 
to do everything we can to help them ensure that they are ready 
when NATO and the NATO allies decide that they want to offer 
them a place in that community.
    In June, the NATO Foreign Ministers offered to begin an 
intensified and focused dialogue with Montenegro. That includes 
a number of visits both to Montenegro and of Montenegrins 
coming to Brussels to discuss exactly what the criteria are and 
what they need to do. The NATO Foreign Ministers identified 
four areas where there needed to be continued progress, and 
those areas include defense and intelligence sector reforms and 
bolstering public support for NATO, as well as the rule of law 
issues that we have talked about previously.
    I am personally very excited. This offers a great 
opportunity for Montenegro to showcase its successes and really 
to demonstrate its strong and sustained track record of 
reforms.
    If I am confirmed, I will definitely work very closely with 
the Montenegrin Government and with our allies to ensure that 
Montenegro knows exactly what it needs to do and is ready to 
get across the finish line.
    Senator Murphy. You talked about public support. 
Montenegrins have a very clear memory of the damage done by 
NATO bombing in the 1990s, but this is clearly a place where 
our Embassy, where our Ambassador can make a difference in 
trying to build public support for a new NATO mission. I would 
assume that that is a place that you can be of help.
    Ms. Uyehara. Thank you, Senator. Absolutely. I very much 
look forward, if I am confirmed, to getting out and taking 
every public speaking opportunity and every public diplomacy 
opportunity there is. I tend to be a bit of an extrovert, and I 
think this would be a great--both in my role and personally, I 
look forward to meeting as many people as I can really talking 
about the benefits of NATO membership, as well as the 
responsibilities, the very important responsibilities, that go 
with it.
    Senator Murphy. I will just end not in the form of a 
question but as my one editorial comment of the hearing, which 
is that as we seek to craft a unified transatlantic response to 
Russian aggression, I believe it is critical in order for us to 
maintain the commitment of open doors that NATO historically 
has had. If the message is sent forth that the doors are shut 
and that countries like Montenegro and Georgia that, while they 
have obstacles, I believe are ready for membership action 
plans, do not have a pathway into NATO, then it rewards the 
kind of tactics that Russia is using to try to destabilize 
countries from inside. This is exactly what Russia wants. 
Russia wants an EU and a NATO that has no interest in 
continuing to expand partnerships. And I think that this is 
important for the future of the bilateral relationship, that we 
would be strong players in bringing Montenegro across the 
finish line. But I think that this is a critical component of a 
larger strategy to answer this new security paradigm inside 
Europe.
    Mr. Cekuta, just one more question for you. I want to draw 
on your experience in energy security and have you just talk a 
little bit about the prospects for TAP and its potential 
ultimately for enlargement--it is only about 2 percent of 
Europe's energy needs but could be larger--and then the future 
prospects of a trans-Caspian pipeline that can bring gas 
through Azerbaijan from Turkmenistan into Europe. What are the 
prospects for these pipeline projects to make a difference in 
Europe, and what can we do to help them along?
    Mr. Cekuta. Thank you, Senator. It is also a particularly 
timely question because this weekend we will see the ceremonial 
groundbreaking, if you will, for construction of the Southern 
Corridor of the new pipeline from Azerbaijan across through 
Turkey to Italy.
    In terms of energy diversification, Azerbaijan is--well, it 
is the country which actually did have the first oil well. It 
has tremendous energy resources. More work will need to be done 
to develop them in the area I would see where it would be a 
great focus for the Embassy both in terms of the broader 
security picture, as well as an area where we could be working 
with U.S. companies both in terms of oil companies but also the 
services companies, the technology companies that can help 
provide what is needed for a country to develop its energy 
resources.
    The United States has been long engaged with Azerbaijan and 
with other European countries in terms of diversifying routes 
and diversifying sources of energy. This is one of the things 
which has become increasingly important I think particularly in 
the recent months and an area of great focus for the United 
States and something where I know in my former work in the 
Energy Bureau, my boss, Ambassador Pascual, was focused very 
much on engaging with the European Union, with the countries in 
the region to find ways forward and an area where I think we 
will continue to be engaged. Diversification of energy and 
those resources is going to be important for the well-being and 
for strengthening the European economy and for the ability of 
those countries to be able to stand up and conduct the foreign 
policies they want to do.
    Senator Murphy. Lastly, Mr. Cekuta, I hope that at the top 
of your list, we will be raising concerns with the Azerbaijan 
Government regarding the number, the increasing number of 
individuals whose imprisonments have very troubling political 
overtones. Senator Durbin, Cardin, and I recently sent a letter 
to President Aliyev expressing concerns. We are particularly 
concerned with two individuals, Leyla and Arif Yunus, who are 
leaders of the Democracy Unit but may both be in failing 
health. I hope that you will raise those specific concerns 
regarding those prisoners but make the more general issue one 
of top concern while you are there.
    Mr. Cekuta. Thank you, Senator.
    As I noted, there are three pillars we need to be working 
on in our relationship with Azerbaijan: security, energy, and 
democracy, rule of law. And you have put your finger on one of 
the areas that is really important. I very much share your 
concerns. It will be one of the things which I will look into 
when I get there. It is an area that we will work on, but I 
need to get on the ground and understand it a little bit 
better. But thank you very much, Senator, for making that 
expression.
    Senator Murphy. Thank you.
    Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    Mr. Baily, I just had to take advantage of the fact that 
you have recent experience in Turkey. As we are facing a very 
real threat from ISIS, both regionally as well as worldwide, 
including here in America and the West, I am very supportive of 
President Obama's desire to assemble a coalition of the 
willing. I think I share the disappointment that Turkey did not 
step forward and offer a full partnership in allowing us to, 
for example, use the Incirlik Air Base for potentially 
launching strikes.
    Can you just give us some insight in terms of what Turkey 
was thinking, why they would be reluctant to do so as a full 
member of NATO, also being, I would think, threatened and 
concerned about the growth of ISIS?
    Mr. Baily. Thank you, Senator Johnson.
    As you noted, Turkey is a tremendously important partner of 
the United States in dealing with Syria, in combating 
terrorism. They have taken in millions of Syrian refugees and 
displaced persons. They are working to try to secure their 
border to stop the flow of foreign fighters. They have several 
of their diplomats who are right now held hostage by ISIL 
forces in Mosul. And we have had a number of strong 
partnerships with Turkey in combating these.
    Secretary Kerry, as you know, was just out in Ankara last 
Friday, and I think he will be testifying later today before 
this committee. I can give you my view. I think he can give you 
a fresher view from speaking with President Erdogan and Prime 
Minister Davutoglu and other Turkish leaders. So I will leave 
it to the Secretary, I think, to give a fuller assessment of 
where we are today with Turkey.
    Senator Johnson. I understand that, and I will potentially 
ask that question of the Secretary. You have been there. And 
this is just a genuine desire to understand what their thinking 
is.
    Listen, I am pretty sympathetic with the fact that they 
have 40 diplomats who are being held hostage right now. Is that 
why they are being restrained here? Quite honestly, that would 
make some sense. I am just trying to understand.
    Mr. Baily. That is certainly one of the issues, sir, that 
has them concerned, as it would any government. I think they 
also probably want to fully understand the long-term strategy 
going forward not only with regard to ISIL but with regard to 
the Assad regime. I think that is also a concern. So from my 
experience in working with Turkey, I think we have a good 
dialogue, and I think together we have a long history of coming 
together with common solutions. So I am confident that Turkey 
has condemned ISIL, has condemned al Nusrah, and will be a 
partner and is a partner in this effort.
    Senator Johnson. I certainly have been disappointed over 
the last few years with the direction that Turkey has moved. 
Internally in terms of a free, democratic society, moving more 
toward more autocratic rule, more Islamic. And to me, this is 
just another symptom or a symbol of that movement away from a 
strong western democracy toward a different form of government, 
more autocratic. Am I incorrect in that perception?
    Mr. Baily. Sir, we would share many of the perceptions you 
have just said particularly in terms of checks and balances 
within the system, concerns that we have expressed regarding 
freedom of expression and freedom of assembly. We detail those 
in reports publicly. We bring those up in conversations 
privately. I think that Turkey has a strong history of secular 
democracy, and so I think there are many in Turkey who are also 
sharing those concerns and it is important to work with them on 
these issues as well.
    Senator Johnson. What is the best way to work with them? 
How can we shape them? How can we pull them back in a better 
direction? Let us put it that way.
    Mr. Baily. Well, I think you would look to what Turkish 
leaders have said. They want to have the highest standards of 
democracy. They are a candidate member of the European Union. 
They are a member of other European institutions. And so I 
think one of the ways we can do that is to remind Turkish 
leaders, to remind the Turkish people of the very values to 
which they aspire. I think that is an important role. And I 
think it is one that is shared by many, many Turks. Some of 
these issues in terms of religious expression and other issues 
within Turkey have a long history and have a different history 
than in this Nation. So I think that is an important way to do 
it. But these are values that Turks share. I have come to know 
that over 16 years and working there.
    Senator Johnson. Thank you.
    I just want to close out by, again, thanking the nominees 
here for serving your Nation over a number of years. I think 
the chairman probably shares my view. I have been involved in 
the Foreign Relations Committee now for only a little over a 
year and a half. I have been, as we have traveled around, just 
incredibly impressed with the quality, the dedication, and the 
professionalism of the members of our Foreign Service. I think 
all four of you represent that dedication, that quality of 
individual, that type of commitment to your profession. So I 
just want to thank you for your willingness to serve. God bless 
you and I wish you the best of luck in your posts.
    Thank you, Mr. Chairman.
    Senator Murphy. A well-said wrap-up. We are going to 
potentially give you some homework assignments in that we are 
going to close the record at 5 o'clock today. So if there are 
any additional questions for the record from our colleagues, we 
would appreciate you turning them around very quickly so that 
if there is a chance to get you on the agenda for tomorrow, we 
are available to take advantage of it. I cannot promise that 
that will happen, but we are going to expedite the formal 
closing of this hearing for 5 o'clock today to at least make 
that an available opportunity.
    Thank you all for being here. Thank you to your families, 
and this hearing is adjourned.
    [Whereupon, at 11:02 a.m., the hearing was adjourned.]
                              ----------                              


             Questions and Answers Submitted for the Record


            Responses of Robert Francis Cekuta to Questions 
                  Submitted by Senator Robert Menendez

    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What is the 
impact of your actions? Why were your actions significant?

    Answer. I was deputy chief of mission in Albania in the late 1990s 
and worked with the Albanian Government, political figures, civil 
society, USAID, other donors, and the OSCE to help create or rebuild 
institutions to put the country back on a track toward rule of law and 
a market economy following the political, economic, and social 
disruptions resulting from the collapse of a massive set of pyramid 
schemes. The focus was on allaying suspicions, reforming and 
strengthening the laws and institutions for the conduct of elections, 
reinforcing the idea that allowing different views leads to a healthy, 
stable country, and strengthening the ability of the post-Communist 
Albanian media to report developments freely. While the country's 
progress after the 1997 crisis was not always straight-forward, the 
changes I and the Embassy helped put in place contributed to Albania 
being able today to be a member of NATO and pursue EU membership.
    Promotion of human rights and democracy has been an important 
aspect of other subsequent jobs I've held as well. As Economic Minister 
Counselor in Berlin, I was the point person working with Germany to 
boost the country's efforts to combat trafficking in persons. As 
Principal Deputy Assistant Secretary in the State Department's Energy 
Resources Bureau, a key focus was working with other countries to 
strengthen rule of law and fight corruption and the so-called 
``resource curse'' that has meant that the benefits of developing oil, 
gas, or other extractive industries in resource-rich countries have 
flowed to only a few individuals rather than helping grow the overall 
economy and yield benefits to the broader population. In this 
connection, I sat on the Board of the Extractive Industries 
Transparency Initiative for more than 2 years, and worked to develop 
and implement the EITI's new global standard, and to support the fight 
against corruption in a number of countries around the world.

    Question. What are the most pressing human rights issues in 
Azerbaijan? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Azerbaijan? What do 
you hope to accomplish through these actions?

    Answer. If confirmed, I will urge the Azerbaijani authorities, 
consistent with Azerbaijan's constitutional and international 
commitments, to ensure freedoms of assembly, association, and 
expression, to foster an environment conducive to a vibrant and 
peaceful civil society, respect pluralism, and to strengthen judicial 
independence and due process. I look forward to working closely with 
all partners to ensure that civil society can conduct its work as 
effectively as possible.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Azerbaijan in 
advancing human rights and democracy in general?

    Answer. It is a cause for concern that the authorities have erected 
challenges and obstacles for U.S.-funded and other organizations. If 
confirmed, I will urge the Government of Azerbaijan to create an 
environment in which civil society can operate freely, and I will work 
closely with all partners to ensure that they can conduct their work as 
effectively as possible. Rule of law is critical to democratic and 
economic development as well as to human and national security. The 
Department has raised our concerns about respect for human rights and 
the rule of law in Azerbaijan with the government and has spoken out 
publicly about these concerns.
    For example, during this year, we have raised our concerns 
bilaterally and at the OSCE Permanent Council about the arrests and 
sentencing of civil society activists and journalists as well as the 
adoption of recent legislative amendments that have restricted the 
activities of nongovernmental organizations in Azerbaijan. Azerbaijan's 
progress in this area would help to deepen our bilateral relationship.

    Question. Are you committed to meeting with human rights and other 
nongovernmental organizations in the U.S. and with local human rights 
NGOs in Azerbaijan?

    Answer. Yes, and, if confirmed, it will be among my first 
priorities upon arriving in Azerbaijan. I will continue the Embassy's 
current commitment to have Embassy officers, at all levels, meet with 
those outside of the government, such as civil society representatives, 
and independent journalists, to demonstrate our support for universal 
values of pluralism and fundamental freedoms.

    Question. Secretary Kerry met with the Presidents of Armenia and 
Azerbaijan, Sargsian and Aliyev, respectively, at the Wales NATO summit 
on September 4, 2014, regarding renewed fighting in July along the 
Nagorno-Karabakh line of contact. Given the importance of resolving the 
Nagorno-Karabakh conflict and ensuring it does not turn into an all-out 
conflict, what is the administration currently doing to support the 
OSCE Minsk Group Talks? Has there been progress in the Minsk Group 
talks toward reaching a political settlement? What are the chances an 
all-out conflict will resume?

    Answer. The OSCE Minsk Group has continued to engage with the sides 
at the highest levels and to promote dialogue to help them reach a 
peaceful settlement. In November 2013, Presidents Aliyev and Sargsian 
met for the first time in almost 2 years in Vienna, under the auspices 
of the Minsk Group cochairs. The administration is also committed to a 
peaceful settlement through the Minsk Group process. Secretary Kerry 
delivered this message when he met with the Presidents at the NATO 
summit in Wales on September 4 to discuss a way forward in peace 
negotiations. We encourage the Presidents to continue to work with the 
cochairs and discuss elements of a settlement.

    Question. Clashes this year along Nagorno-Karabakh's Line of 
Conflict have been the worst since the cease-fire was signed in 1994, 
claiming 15 lives this summer. If confirmed, how will you respond to 
these new instances of aggression and provocation? What will you do to 
support the successive appeals by the Minsk Group and the United 
Nations Secretary General for Azerbaijan to withdraw its snipers from 
the line of contact, which Armenia and Nagorno-Karabakh have agreed to 
do?

    Answer. The United States strongly condemns violations of the 
cease-fire and deeply regrets the loss of life that resulted from these 
incidents along the Line of Contact. We have frequently, publicly, and 
privately, called upon both sides to take all measures to respect the 
cease-fire. If confirmed as Ambassador, I, too, will strongly advocate 
for de-escalating tensions and preparing the public for a peace the 
people of Armenia and Azerbaijan deserve. I will also support the U.S. 
cochair of the OSCE Minsk Group, Ambassador James Warlick, in his 
efforts to help achieve a peaceful and lasting settlement to the 
Nagorno-Karabakh conflict.

    Question. If confirmed, will you commit to meeting with the 
Armenia-American diaspora in the U.S. before you take up your post, and 
regularly meet and communicate with the diaspora thereafter, on 
progress toward lifting the Azeri blockade of Armenia and other Azeri 
policies that run counter to U.S. policies intended to encourage 
regional cooperation and economic integration?

    Answer. Yes, and, if confirmed, meeting with Armenian and 
Azerbaijani-American diaspora groups will be among my first priorities. 
Long-term stability and economic prosperity in the Caucasus is 
dependent on the full normalization of relations among all the states 
in the region. The United States has long believed that opening the 
border between Turkey and Armenia would contribute to regional 
stability and economic development. If confirmed, I will strongly 
support the administration's efforts to pursue regional peace and 
reconciliation. I would make a strong case that Azerbaijan--along with 
Armenia and Turkey--stands to gain from a Caucasus region that is 
stable, secure, and at peace.

    Question. By any measure, the human rights situation in Azerbaijan 
has deteriorated over the last year. Freedom House, in its annual 
Freedom in the World report, determined that freedom declined in 2013, 
and has stated that the country is in the midst of what some would call 
the most brutal crackdown on civil society in recent history, citing 
arrests and attacks against the media, activists, and government 
critics, as well as travel bans, the freezing of bank accounts, and 
public smears to silence dissent. According to international NGOs, the 
Azerbaijani Government currently has over 100 political prisoners.

  <diamond> If confirmed, what will you do to secure the release of 
        these political prisoners and advocate against these myriad and 
        worsening human rights abuses?

    Answer. If confirmed, I will urge the Azerbaijani authorities, 
consistent with Azerbaijan's constitutional and international 
commitments, to ensure freedoms of assembly, association, and 
expression, to foster an environment conducive to a vibrant and 
peaceful civil society, respect pluralism, and to strengthen judicial 
independence and due process. I will follow up on the U.S. Statement at 
the August 14 OSCE Permanent Council, which urged ``the Government of 
Azerbaijan to halt the continuing arrests of peaceful activists, to 
stop freezing organizations' and individuals' bank accounts, and to 
release those who have been incarcerated in connection with the 
exercise of their fundamental freedoms.'' I look forward to working 
closely with all partners--domestic and international--to ensure that 
civil society can conduct its work as effectively as possible.

    Question. The Djulfa Armenian cemetery, an over 1,300-year-old 
Armenian cemetery that used to have thousands of intricately carved 
tombstones, has been desecrated but has not been included in the State 
Department's International Religious Freedom Report or its Human Rights 
Report? Why has the Djulfa Armenian cemetery been excluded from these 
reports? If confirmed, what specific steps will you take to restore, 
preserve, or protect the Djulfa Armenian cemetery as a holy site?

    Answer. I do not know why the Djulfa Armenian cemetery was not 
mentioned in the State Department's reports at the time of its 
desecration, but I can assure that--if confirmed--I will direct my 
staff to include recent developments related to this cemetery in 
Department reports such as the annual International Religious Freedom 
Report on Azerbaijan. The United States condemned the desecration of 
the Djulfa Cemetery and urged the Azerbaijanis to investigate the 
incident. Despite our repeated requests to visit the Djulfa Cemetery, 
local authorities have so far refused permission to do so. If I am 
confirmed, I will amplify our concerns to the Government of Azerbaijan. 
If confirmed, I also will urge the government to protect the rights and 
holy sites of all groups.

    Question. The European Court of Human Rights recently requested 
that Azerbaijan explain the circumstances surrounding its refusal to 
repatriate to Armenia the remains of Karen Petrosyan, an Armenian and 
political prisoner who was taken into captivity on August 7, 2014, and 
died shortly thereafter while in captivity. If confirmed, will you 
commit to actively support the efforts of the United States, France, 
Russia, and the International Committee of the Red Cross to ensure the 
remains of Mr. Petrosyan are returned to his family?

    Answer. We lament the death of detainees in custody and call on the 
sides to investigate when such incidents occur. We will continue to 
encourage all sides to continue to work with international humanitarian 
organizations to repatriate remains of the deceased and call on the 
sides to fulfill their humanitarian obligations. The tragic loss of 
life in the war between Azerbaijan and Armenia reminds us that there 
cannot be a military solution to the Nagorno-Karabakh conflict. Only a 
lasting and peaceful settlement can bring stability, prosperity, and 
reconciliation to the region. As a cochair of the Minsk Group, the 
United States remains firmly committed to working with the sides to 
achieve peace.
                                 ______
                                 

              Responses of Richard M. Mills to Questions 
                  Submitted by Senator Robert Menendez

    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What is the 
impact of your actions? Why were your actions significant?

    Answer. The United States believes that ensuring respect for human 
rights, rule of law, and democratic processes is fundamentally 
important to Armenia's political and economic development as well as 
its internal stability and security. If confirmed, I will bring hands-
on experience in these areas gained from many of my previous tours, but 
especially from my work in post-Soviet St. Petersburg in 1993-95 and in 
Baghdad from 2009-10.
    In St. Petersburg, I identified nascent civil society groups, 
focused on good governance and human rights, whose work could benefit 
from U.S. Government support, worked to obtain appropriate program 
funding and training for them, and provided these new organizations 
with guidance on identifying other possible sources of support in the 
United States. I built partnerships among these groups to increase 
their leverage and influence, using the consulate's convening power to 
chair regular meetings in which they came together to pursue strategies 
to move forward legislation or to create public campaigns to reach a 
broader public in northwest Russia. As the Democracy Advisor at Embassy 
Baghdad I managed approximately $100 million in State Department-funded 
programs designed to build grassroots, democratic infrastructure and 
support Iraqis working to protect human rights. A particular focus of 
my work was to promote an Iraqi parliamentary election process in 2010 
that was free, fair, and carried out in accordance with international 
standards. I targeted our programs to train Iraqi media on the 
principles of balanced election reporting, ensure local community and 
constituent issues were part of the political debate, and provide Iraqi 
civil society and political parties with poll watching capability, 
using new social media techniques. In addition to meeting with 
activists across Iraq, I worked with colleagues at the Embassy, USAID 
and other U.S. Government agencies to bring concerns about the election 
process to the attention of Iraqi officials and media for resolution. 
The international monitors that traveled to Iraq to monitor the 2010 
election process and voting praised them for meeting international 
standards, transparency, and media coverage. This experience will 
inform my efforts to work closely with Armenian political parties and 
Government to help foster the same kind of positive process in advance 
of parliamentary elections in 2017.

    Question. What are the most pressing human rights issues in 
Armenia? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Armenia? What do 
you hope to accomplish through these actions?

    Answer. If confirmed, strengthening democracy and human rights in 
Armenia will be a high priority. Despite some positive steps in areas 
such as freedom of association and the press over the past 5 years, 
much remains to be done in Armenia. I will continue to regularly 
highlight in my discussions with Armenian officials the importance of 
democratic reform, including strengthening the rule of law bolstered by 
an independent judiciary, combating corruption, and conducting 
democratic electoral processes.
    In addition, I will continue to emphasize Embassy engagement and 
public solidarity with those outside of the government, such as 
opposition party leaders, civil society representatives, and 
independent journalists, to demonstrate our support for the universal 
values of pluralism and fundamental freedoms. I will actively seek 
partnerships with like-minded organizations and individuals to advance 
our democracy and human rights goals, and, if confirmed, want to 
explore with the Armenian-American community ways it can enhance its 
ongoing contributions to strengthening judicial independence, ensuring 
freedom of assembly and expression, and supporting an open, vibrant, 
and prosperous society.
    Among the goals of all these efforts will be to work with Armenian 
political parties and the government to help foster Armenian 
parliamentary elections in 2017 that meet international standards and 
reflect fundamental freedoms. As a first step, I will encourage the 
government to work closely with the OSCE's Office of Democratic 
Institutions and Human Rights (ODIHR) to implement the electoral 
reforms ODIHR proposed following Armenia's last parliamentary elections 
in 2012 and Presidential election in 2013.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Armenia in 
advancing human rights and democracy in general?

    Answer. Despite some positive steps in areas such as freedom of 
association and of the press over the past 5 years, much remains to be 
done in Armenia.
    Systemic corruption is Armenia's primary obstacle to its democratic 
development. Corruption is too common in Armenia and hinders economic 
growth, undermines public confidence in government and the rule of law, 
and fosters cynicism about the efficacy of democratic change. It is 
positive, however, that President Sargsian and newly appointed Prime 
Minister Abrahamyan have spoken publicly about the need to combat 
corruption in order to stimulate the economy and enhance Armenia's 
growth as a society. If confirmed, I intend to follow up on their 
pledges to address the issue.
    The Armenian Government has taken some steps to address corruption 
and is working on a new anticorruption strategy. These steps have 
produced some meaningful progress, as evidenced by Armenia's improved 
score on the Millennium Challenge Corporation's corruption index in 
FY14 over the previous year. In addition, USAID, through technical 
assistance and local government support, is implementing programs to 
increase the level of transparency and accountability in government by 
supporting procurement reform initiatives and efforts to improve public 
access to government-held information.
    If confirmed, I am committed to working with the government and 
civil society to help them each move forward, and cooperate where 
necessary, to address corruption and promote democratic governance.

    Question. Are you committed to meeting with human rights and other 
nongovernmental organizations in the U.S. and with local human rights 
NGOs in Armenia?

    Answer. Yes, and, if confirmed, it will be among my first 
priorities upon arriving in Armenia. I will continue the Embassy's 
current commitment to have Embassy officers, at all levels, meet with 
those outside of the government, such as opposition party leaders, 
civil society representatives, and independent journalists, to 
demonstrate our support for universal values of pluralism and 
fundamental freedoms.

    Question. Secretary Kerry met with the Presidents of Armenia and 
Azerbaijan, Sargsian and Aliyev, respectively, at the Wales NATO summit 
on September 4, 2014, regarding renewed fighting in July along the 
Nagorno-Karabakh Line of Contact. Given the importance of resolving the 
Nagorno-Karabakh conflict and ensuring it does not turn into an all-out 
conflict, what is the administration currently doing to support the 
OSCE Minsk Group Talks? Has there been progress in the Minsk Group 
talks toward reaching a political settlement? What are the chances an 
all-out conflict will resume?

    Answer. The OSCE Minsk Group has continued to engage with the sides 
at the highest levels and to promote dialogue to help them reach a 
peaceful settlement. In November 2013, Presidents Aliyev and Sargsian 
met for the first time in almost 2 years in Vienna, under the auspices 
of the Minsk Group cochairs. The administration is also committed to a 
peaceful settlement through the Minsk Group process. Secretary Kerry 
delivered this message when he met with the Presidents at the NATO 
summit in Wales on September 4 to discuss a way forward in peace 
negotiations. We encourage the Presidents to continue to work with the 
cochairs and discuss elements of a settlement.

    Question. It is estimated that Russia supplies Armenia with nearly 
80 percent of its energy needs. What assistance is the U.S. providing 
to Armenia to help it diversify its energy portfolio and decrease its 
dependence on Russia? Russia, under the Presidency of Vladimir Putin, 
has placed a high priority on exercising its military and economic 
influence in Armenia. If confirmed, how will you counter Russia's 
growing influence in the country?

    Answer. The U.S. has provided approximately $82 million since 1993 
through the Department of Energy and Nuclear Regulatory Commission to 
upgrade the Armenian Nuclear Power Plant (ANPP) and to ensure the 
safest possible operation until its closure. For example, the U.S. 
began providing training to the Armenian Nuclear Regulatory Authority 
(ANRA) on internationally recognized approaches to performing nuclear 
power plant safety analyses and funded equipment upgrades at ANPP. 
USAID has also provided approximately $85 million in assistance since 
1992 on energy efficiency and energy regulation. Currently, USAID is 
funding a $5.6 million program on clean energy and water to promote 
alternate energy sources, as well as supporting Armenia's energy 
security and regional integration.
    The best way to counter Russia's influence in Armenia is to 
maintain our effort to decrease Armenia's regional isolation and 
bolster its economic and security independence. We will make clear to 
the Armenian people, business community, and officials that the door to 
strengthened economic collaboration with the United States and Europe 
remains open. We will continue to work with our Armenian partners to 
continue its democratic and economic reforms and preserve the progress 
made in the Eastern Partnership over the past 3\1/2\ years, in addition 
to the reforms made through the U.S.-Armenia relationship, spanning 
over 20 years.

    Question. If confirmed, you will be Ambassador to Armenia during 
the 100th anniversary of the Armenian Genocide. On this 100th 
anniversary, as a representative of the government and people of the 
United States, a nation that is home to well over a million Americans 
whose families were decimated by the Genocide, how will you demonstrate 
America's uncompromising commitment to forcefully condemn and properly 
commemorate all instance of genocide, regardless of foreign pressures 
or political considerations?

  <diamond> Will you commit to participating in events to recognize the 
        Armenian Genocide's 100th anniversary?

    In your written testimony, you state that 2015 will ``mark the 
centenary of one of the 20th century's worst atrocities, when 1.5 
million Armenians were massacred or marched to their deaths in the 
final days of the Ottoman Empire,'' and that ``it is important that 
Turkey engage with Armenia to achieve a full, frank, and just 
acknowledgement of the facts so that both nations can begin to forge a 
relationship that is peaceful, productive, and prosperous.''

  <diamond> What do you characterize as a ``full, frank, and just 
        acknowledgement of the facts?'' If confirmed, what will you do 
        to encourage Turkey to fully recognize the Armenian Genocide?

    Answer. If confirmed, I will continue the tradition of officially 
participating in the memorial event in Yerevan every April. The event 
will have special resonance in 2015, as Armenia and the world will mark 
the centenary of one of the 20th century's worst atrocities, when 1.5 
million Armenians were massacred or marched to their deaths in the 
final days of the Ottoman Empire. I will work to identify ways that the 
Embassy can amplify our message to the Armenian people that the United 
States stands in solidarity with Armenia at this time of remembrance 
and acknowledgement of the facts of that terrible time.
    To achieve full reconciliation, Turkey must come to terms with its 
past. Delays in fully addressing this history only add to the pain 
experienced by many Armenians and Armenian-Americans. Enhancing 
contacts could begin to build trust, which is the necessary first step 
to reconciliation. If confirmed, I will work to continue to promote not 
only government-to-government discussions, but also people-to-people 
contacts, cultural and economic partnerships, and other cross-border 
and regional initiatives.

    Question. If confirmed, will you commit to meeting with the 
Armenia-American diaspora in the U.S. before you take up your post in 
Yerevan, and regularly meet and communicate with the diaspora 
thereafter?

    Answer. Yes, if confirmed I intend to meet with representatives of 
the Armenian-American diaspora community as part of my preparations 
before departing for Yerevan. I will continue the practice of my 
predecessors by communicating regularly, including meetings whenever 
possible, with members of the diaspora during my tenure as Ambassador 
to Armenia.

    Question. This year marks the fifth anniversary of the signing of 
the Protocol on the Establishment of Diplomatic Relations and the 
Protocol on the Development of Bilateral Relations by Armenia and 
Turkey. As you reference in your written testimony, the process 
outlined in the Protocols has stalled. If confirmed, what will you do 
to put pressure on Turkey to normalize relations with, and end its 
blockade of, landlocked Armenia, which destabilizes the region and 
prevents Armenia's further development?

    Answer. We support the work done by both Armenia and Turkey to 
normalize relations. In particular, we strongly support efforts by the 
Turkish and Armenian people to work through this painful history in a 
way that is honest, open, and constructive. We continue to emphasize 
the importance of proceeding with final approval of these Protocols, 
without preconditions or linkage to other issues, and have been clear 
that responsibility for moving forward lies with the Turkish 
Government. And we continue to encourage both Turkey and Armenia to 
pursue direct talks that would facilitate normalization. Armenia has 
reached out recently by sending Foreign Minister Nalbandyan to 
President Erdogan's inauguration. Facilitating Armenia's regional 
integration by opening its border with Turkey is a priority for the 
United States. If confirmed, this would be one of my key priorities as 
Ambassador--not only by supporting government-to-government 
discussions--but by promoting people-to-people contacts and 
partnerships, and other cross-border and regional initiatives. Contact 
begins to build trust, and trust is the necessary first step to 
reconciliation and conflict resolution. Clearly, the status quo is not 
helpful to anyone.
                                 ______
                                 

            Responses of Jess Lippincott Baily to Questions 
                  Submitted by Senator Robert Menendez

    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What is the 
impact of your actions? Why were your actions significant?

    Answer. Promoting human rights and democracy has been a central 
part of my career, not only in the public diplomacy positions I have 
held, but also when I worked on policy issues before the U.N. Security 
Council and when I held leadership positions in Turkey and Iraq. My 
most important actions include promoting independent media in Senegal, 
where state press organizations dominated; providing grants to emerging 
civil society organizations in Turkey in the 1990s when government 
restrictions hindered their growth; and helping the Kurdistan Regional 
Government improve the rule of law and its judicial system, assisting a 
variety of organizations to highlight concerns about freedom of 
expression and media in Turkey.
    In addition to specific programs and activities, as an American 
official, I have also engaged activists, government critics, and ethnic 
and religious minorities as important voices in their societies. Our 
actions as U.S. Government officials convey respect and often provide 
hope to people working against difficult odds. I know this from 
conversations with the individuals whom I have helped, from a 
struggling opposition editor in Senegal in 1988 to an academic 
imprisoned in Turkey in 2013. Finally, I am particularly gratified to 
have led Mission Turkey's efforts to establish a U.S. Government 
structure to coordinate assistance to Syrian civilians in Turkey and in 
Syria. This team delivered humanitarian aid to millions of displaced 
and injured Syrians and strengthened the ability of civil society and 
local government councils to deliver much-needed services.

    Question. What are the most pressing human rights issues in 
Macedonia? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Macedonia? What do 
you hope to accomplish through these actions?

    Answer. The Government of Macedonia generally respects the human 
rights of its citizens, but as the State Department Human Rights Report 
has documented, we have identified concerns, including the rule of law, 
interethnic relations and minority rights, and media freedom.
    Politicization of the judicial system undermines courts' 
independence, transparency, and respect for human rights, including the 
appearance of selective prosecution of the government leaders' 
political enemies. Tensions between ethnic Macedonian and ethnic 
Albanian populations and their respective political parties continue to 
complicate individuals' opportunities for education, employment, and 
political participation. Interethnic tensions have exacerbated, and 
been exacerbated by, several recent high-profile court cases.
    Promoting media freedom has been a key U.S. priority in Macedonia, 
and is of particular interest to me as a public diplomacy officer who 
has worked on media issues throughout my career. Most media outlets are 
owned by or have strong ties to political parties. Government spending 
on media advertising can exert heavy influence over media content.
    If confirmed, I will continue to place a premium on the Embassy's 
human rights and democracy promotion. I will also work closely with the 
OSCE and EU missions in Macedonia, which have programs in these areas 
that complement U.S. efforts. As a signatory to the Ohrid Framework 
Agreement, the United States coordinates closely with the EU, OSCE, 
NATO, and others to encourage continued reforms in Macedonia, and 
should I be confirmed, I would continue our work through these 
invaluable partnerships. U.S. assistance is now primarily geared toward 
rule of law, democracy and good governance (including support for 
independent media), economic growth, education, border security, and 
military reform. I would lead Embassy Skopje in urging the Government 
of Macedonia to address rule of law issues, especially official 
interference in the judiciary, while maintaining an overall cooperative 
relationship.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Montenegro in 
advancing human rights and democracy in general?

    Answer. The potential obstacles to addressing the human rights 
issues will be their long-standing and pervasive natures. It will 
require sustained effort by the Macedonians themselves, and continued 
strong advocacy from the United States and other leading international 
community partners, to address these concerns. Macedonia's multiethnic 
coalition government has made some reform progress, but the pace has 
slowed. Despite regular pro-reform rhetoric, coalition partners VMRO-
DPMNE and DUI have enacted few meaningful reforms in recent years. 
Macedonia is proceeding with the legislative and practical 
implementation of the 2001 Ohrid Framework Agreement, including working 
toward equitable representation of minorities in state structures and 
decentralization of authority to the municipal level; however, 
accusations are common from minority ethnic groups, particularly ethnic 
Albanians, that the government is not doing enough to implement the 
agreement. Of particular concern are the areas of rule of law and media 
freedom, but I would continue to encourage increased judicial 
independence, which would boost the currently low level of public trust 
in the judiciary. Additionally, Macedonia has passed many laws that 
should improve the investment climate and interethnic relations, and 
accomplish other necessary reforms, and the Embassy continues to 
encourage their full implementation. Still, reliable implementation of 
existing laws is needed.
    Notably, Macedonia has sustained its Tier 1 in the State 
Department's annual TIP reports since 2011. Aside from Slovenia, 
Macedonia is the only country in the Balkans to hold a Tier 1 status. 
The Government of Macedonia fully complies with the minimum standards 
for the elimination of trafficking. We consider this a success story in 
our bilateral relationship, as last year the Government of Macedonia 
identified more victims of trafficking and adopted a budget for the 
implementation of the national action plan for 2013. However, the 
government decreased law enforcement efforts by investigating and 
convicting fewer offenders. We have recommended additional law 
enforcement efforts to combat TIP, and improved victim identification 
and protection, and have encouraged the government to work closer with 
nongovernment organizations to achieve this goal.

    Question. Are you committed to meeting with human rights and other 
nongovernmental organizations in the U.S. and with local human rights 
NGOs in Macedonia?

    Answer. As I have throughout my Foreign Service career, I would 
welcome and seek out opportunities to engage with human rights and 
other NGOs both in the U.S. and Macedonia. Should I be confirmed, I 
would continue the excellent ongoing collaboration between our Embassy 
in Skopje and NGOs in Macedonia, from the grants our Public Affairs 
Section gave to the Holocaust Fund of the Jews from Macedonia this past 
year, to the planned support of youth LGBT through the BeLonG project 
as a way to prevent bullying, with the long-term goal of fostering 
inclusiveness and tolerance in schools. Our Embassy also already 
partners with some excellent NGOs that focus on human rights issues, 
whose work I hope to further build upon, including Open Gate La Strada 
on antitrafficking, the Helsinki Committee for Human Rights of the 
Republic of Macedonia, and HERA, which works toward advancing sexual 
and reproductive rights.

    Question. Macedonia has asserted its right to use and be recognized 
by it constitutional name, the Republic of Macedonia, since its 
independence from Yugoslavia in 1991. Greece, whose largest province is 
also called Macedonia and whose heritage provides legitimate claims to 
use of the name, has requested that Macedonia include a geographic 
qualifier, such as Northern Macedonia, to distinguish itself.

  <diamond> How would you characterize Greece's claims to the name 
        Macedonia? If confirmed, will you support efforts to resolve 
        the name dispute during your tenure as Ambassador to Macedonia?

    Answer. The United States strongly supports the ongoing U.N. 
mediation effort, led by Matthew Nimetz, to settle the issue in the 
near term. We also continue to support active engagement between Athens 
and Skopje. We encourage both governments to be flexible and 
cooperative in this process. We will embrace any mutually acceptable 
solution that emerges from the negotiations.
    Regional stability in Southeast Europe is a U.S. priority. Greece 
and Macedonia are both important partners in that regard. The status 
quo prevents the full integration of Macedonia into Euro-Atlantic 
institutions.
    We look to political leaders of both countries to exercise 
leadership. This dispute is more than 20 years old. It is in both 
parties' interest to finally bring this issue to a close. If I am 
confirmed, I will continue to emphasize in my dealings with Macedonian 
authorities that flexibility and compromise are absolutely necessary.
                                 ______
                                 

            Responses of Margaret Ann Uyehara to Questions 
                  Submitted by Senator Robert Menendez

    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What is the 
impact of your actions? Why were your actions significant?

    Answer. Throughout my career, I have worked diligently to ensure 
that our efforts to promote human rights and democracy have had the 
resources necessary to be efficient and effective. As Executive 
Director for European and Eurasian Affairs and International 
Organizations (EUR-IO/EX), I have been a staunch supporter of U.S. 
Government policies for the OSCE, particularly the OSCE's Office for 
Democratic Institutions and Human Rights (ODIHR) and its efforts to 
promote democracy and the rule of law throughout the OSCE region and 
beyond. Specifically, my office provided funding for our contributions 
to ODIHR, including our support for Election Observation Missions 
(EOMs) throughout Europe, Eurasia, and Central Asia.
    In the past year, EUR-IO/EX established six new Foreign Service 
positions in Kiev and sent over 100 people on temporary duty 
deployments to ensure that Embassy Kiev had adequate staff--including a 
senior Assistance Coordinator--to support the critical activities to 
support Ukraine's democracy including its crucial May 25. Separately, 
we also obtained the additional resources to add another full-time 
human rights officer within the Europe and Eurasia Bureau in 
Washington, to create a three-member team. This allowed us to be more 
responsive to the human rights challenges in the European region, 
including an expanded focus on anti-Semitism, Roma issues, LGBT rights, 
civil society, and religious freedom.
    In addition, I have directed the provision of additional financial 
and human resources to U.S. Embassy Kosovo, which has strongly 
supported the development of effective democratic, political, and rule 
of law institutions in the aftermath of that country's independence 
struggle. My team ensured that Embassy Tbilisi was able to sustain its 
operations, another locale where U.S. support has played a leading role 
in advancing democracy. My office was also instrumental in helping 
ensure that the United States was appropriately represented in the 
Human Rights Council (HRC) in Geneva. Since we joined the HRC in 2010, 
my office has provided creative and cost-effective staffing to ensure 
the advancement of U.S. policy goals in that international body.
    Earlier in my career, as the Management Counselor at Embassy Kiev 
from 2005-08 in the aftermath of the Orange Revolution, I successfully 
obtained the necessary resources for the Embassy to support democratic 
development in Ukraine. As Chief of the American Citizens Services Unit 
at Embassy Tokyo from 1995 to 1998, I recognized the conditions for 
U.S. citizen and all prisoners were of grave concern. Prisons were not 
heated, often leading to frostbite in the winter, and meals provided 
often did not give sufficient calories to U.S. citizen prisoners. I 
engaged vigorously with the Government of Japan to improve prison 
conditions and worked closely with the Embassy's political section to 
more appropriately detail these problems in the State Department's 
annual Human Rights Report. Thanks to my team's efforts, we garnered 
improved medical care, warmer winter clothing, and better reading 
materials for prisoners. One U.S. citizen, who was in solitary 
confinement, was not permitted even a radio in his cell. His only 
contact was my quarterly visits. With vigorous advocacy, he was given 
access to both print material and a radio.

    Question. What are the most pressing human rights issues in 
Montenegro? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Montenegro? What do 
you hope to accomplish through these actions?

    Answer. As the State Department has documented in the annual Human 
Rights Report, pervasive corruption--marked by nepotism, political 
favoritism, and weak controls over conflicts of interest in all 
branches of the government--represent the country's most serious human 
rights problem. A second major problem has been societal discrimination 
and violence against minorities, including the lesbian, gay, bisexual, 
and transgender (LGBT) community, and the Romani, Ashkali, and Egyptian 
ethnic minorities. A third major problem is the chilling effect on 
freedom of expression created by the continuing harassment of 
journalists and the failure to resolve several past cases of violence 
and threats against journalists and government critics.
    To address these problems, I would, if confirmed, support efforts 
to make Montenegro's law enforcement institutions more professional, 
competent, and able to effectively fight corruption and bring to 
justice those who commit violent acts against minorities or harass 
journalists. I would likewise support the work of the independent human 
rights Ombudsman in Montenegro, and continue to support and strengthen 
civil society, which serves as an important watchdog over the police 
and justice system. In that regard, I would support the Civil Society 
component of our Resident Legal Advisor program, which provides grants 
to NGOs involved in raising public participation in, and awareness of, 
ongoing rule of law reform efforts. I would also ensure that the 
Embassy continues advocacy on this issue in public and in private, 
which has proved effective in drawing attention to deficiencies and 
encouraging better compliance with international norms.
    Progress in all of these areas will require sustained efforts over 
time. I firmly believe that Montenegro can--with continued U.S. and EU 
assistance--achieve real progress in all of these areas and thus 
further the protection of human rights in Montenegro. My hope, if 
confirmed as Ambassador, is to see steady progress in making the police 
and judiciary more professional and accountable, closer to Western 
standards, and to see stronger protection of the media.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Montenegro in 
advancing human rights and democracy in general?

    Answer. The potential obstacles to addressing the human rights 
issues are tied up in the issues themselves: corruption, 
discrimination, and limits on freedom of expression are pervasive and 
long-standing societal ills that will take time to eradicate 
completely. Their entrenched nature will be our principal challenge, as 
will obtaining adequate funding to continue our sponsored programming. 
Fortunately, for fiscal year 2014, the United States is providing $4.5 
million in foreign assistance to Montenegro; assistance which will help 
to strengthen judicial institutions; combat trafficking in persons, 
organized crime, and corruption; and support exchange programs to 
bolster civic participation and civil society. Our targeted assistance 
programs showed impressive results in the past year. For example, with 
the help of the Embassy's Resident Legal Advisor and Senior Police 
Advisor, Montenegro agreed this year to establish a new fully 
independent Special State Prosecutor's Office, a new elite police team 
to support the Special Prosecutor, and a new preventive Anti-Corruption 
Agency. The challenge will be in helping Montenegro ensure that its 
reform efforts take root and strengthen.
    Additionally, while the Government of Montenegro has made 
significant efforts to combat trafficking in persons, it does not fully 
comply with the minimum standards for the elimination of trafficking as 
established by Congress, and is thus ranked Tier 2 in the Department's 
annual Trafficking in Persons Report. Some positive efforts highlighted 
in the 2014 report include the government's increase of the 
antitrafficking budget; elevation of the National Coordinator position 
from under the Ministry of Interior to an independent agency; and the 
conviction of more trafficking defendants than in previous years. 
However, challenges remain, including limited law enforcement efforts 
resulting in few prosecutions and inadequate victim identification 
efforts.

    Question. Are you committed to meeting with human rights and other 
nongovernmental organizations in the U.S. and with local human rights 
NGOs in Montenegro?

    Answer. I am fully committed to meeting with human rights and other 
NGOs both in the U.S. and Montenegro. I am a strong believer in the 
value of civil society, NGOs, and public advocacy groups as drivers of 
human rights protection and continuing democratic progress in many 
countries. Should I be confirmed, I would continue the excellent work 
already in progress by our Embassy in Montenegro to support the rights 
of the country's vulnerable populations, including women, at-risk 
youth, ethnic minorities, and the LGBT community. The Embassy's notable 
support to the LGBT community through participation in Podgorica's 
first Pride March and its widely covered statements of public support, 
as well as its work with the Red Cross to organize a youth camp for 
children from economically and socially vulnerable households are 
strong examples of the foundation on which I hope to build, if 
confirmed, once I am on the ground in Montenegro.
                                 ______
                                 

            Responses of Robert Francis Cekuta to Questions 
                    Submitted by Senator Bob Corker

    Question. According to U.S. and Azerbaijani NGOs, there are 
approximately 100 political prisoners in Azerbaijan. What will you do 
to support democracy and human rights activists at a time when the 
government is intensifying its crackdown on civil society? Will you 
maintain regular contacts with these activists and speak out publicly 
in their defense?

    Answer. If confirmed, I will urge the Azerbaijani authorities, 
consistent with Azerbaijan's constitutional and international 
commitments, to ensure freedoms of assembly, association, and 
expression, to foster an environment conducive to a vibrant and 
peaceful civil society, respect pluralism, and to strengthen judicial 
independence and due process. I look forward to working closely with 
all partners to ensure that civil society can conduct its work as 
effectively as possible.

    Question. The National Democratic Institute (NDI) was forced to 
close its office in Azerbaijan earlier this year and IREX--a USAID 
contractor--is under criminal investigation. Moreover, subrecipients of 
IREX, the National Endowment for Democracy, and other U.S.-funded 
organizations have been denied access to their bank accounts and their 
leadership has been jailed in some cases.

  <diamond> Is the current crackdown anti-American? What impact has the 
        crackdown had on the U.S.-Azerbaijani relationship?

    Answer. It is unfortunate that the authorities have erected 
challenges and obstacles for U.S.-funded and other organizations. If 
confirmed, I will urge the Government of Azerbaijan to create an 
environment in which civil society can operate freely, and I will work 
closely with all partners to ensure that they can conduct their work as 
effectively as possible. Rule of law is critical to democratic and 
economic development as well as to human and national security. The 
Department has raised our concerns about respect for human rights and 
the rule of law in Azerbaijan with the government and has spoken out 
publicly about these concerns.
    For example, during this year, we have raised our concerns 
bilaterally and at the OSCE Permanent Council about the arrests and 
sentencing of civil society activists and journalists as well as the 
adoption of recent legislative amendments that have restricted the 
activities of nongovernmental organizations in Azerbaijan. Azerbaijan's 
progress in this area would help to deepen our bilateral relationship.

    Question. The State Department has been working for some time to 
secure a new Embassy compound (NEC) in Baku, in order to replace the 
current and arguably obsolete Embassy facility. Federal efforts to 
obtain a NEC, however, have proven difficult in the face of host 
government resistance, and have usually faced the most resistance when 
U.S. officials, including former Ambassador Richard Morningstar, have 
voiced their concerns about human rights and civil society abuses in 
Azerbaijan.

  <diamond> What specific steps would you pursue as Ambassador to 
        accelerate the acquisition of property for use for the NEC?
  <diamond> Please provide details about how you would engage with the 
        State Department's Office of Foreign Missions, which can 
        theoretically leverage domestic property and other interests of 
        the Azerbaijani Government in order to leverage acquisition of 
        the NEC.
  <diamond> What additional points of leverage, political or otherwise, 
        would you pursue in order to accelerate the Azerbaijani 
        Government's movement toward the provision of the NEC?

    Answer. Protecting American citizens--both our Embassy staff and 
Americans working and traveling abroad--is one of the State 
Department's highest priorities. The State Department has been working 
to secure a site on which to construct a New Embassy Compound, fully 
compliant with current security standards, in Azerbaijan for several 
years now including visits by senior Department officials. This process 
requires cooperation by the Government of Azerbaijan. We have 
identified several prospective sites for this new compound. If 
confirmed, I will ensure that the acquisition of property and the 
construction of the needed New Embassy Compound remain a priority. 
Simultaneously, Azerbaijan is seeking a new Embassy building in 
Washington, DC, and discussions on reciprocal property issues between 
our two governments are ongoing.

    Question. Russian aggression in Ukraine has demonstrated the 
pitfalls associated with an overreliance on Russia to fulfill the 
energy demands of American allies and partners in Europe. Despite 
Russian pressure, Azerbaijan is currently constructing the Trans-
Anatolian Natural Gas Pipeline (TANAP), which will reduce Europe's 
dependence on Russian natural gas and increase the continent's 
diversity of supply.

  <diamond> What else can the U.S. do to expand Azerbaijan's role in 
        meeting Europe's energy requirements?

    Answer. We will continue to work closely with Azerbaijan and other 
countries in the region to ensure that TANAP and the other parts of the 
Southern Gas Corridor are completed as quickly as possible. Further, we 
will encourage Azerbaijan to move swiftly to develop new fields in the 
Caspian. These gas fields have the potential to add significant volumes 
of gas to the Southern corridor beyond the gas from the Shah Deniz 
project, which will supply the initial gas to the Southern corridor. At 
the same time, we will work with both Azerbaijan and Turkey to identify 
other sources of gas that can be transmitted through TANAP and the 
Southern corridor, possibly including gas from Turkmenistan, Iraq, and 
the Eastern Mediterranean.

    Question. Azerbaijan has provided troops to the ISAF mission in 
Afghanistan and facilitated the transport of supplies and personnel 
through the Northern Distribution Network (NDN). How important is 
Azerbaijan's troop contribution and role in NDN to coalition efforts on 
the ground in Afghanistan? Will the U.S. be able to rely on 
Azerbaijan's cooperation moving forward? What effect would Azerbaijan's 
withdrawal from this form of cooperation have on U.S. national 
interests?

    Answer. Azerbaijan has been a strong supporter of coalition 
operations in Afghanistan. Azerbaijan has 94 troops deployed in 
Afghanistan as part of the International Security Assistance Force 
(ISAF). Azerbaijan provides valuable overflight, refueling, and landing 
rights for U.S. and coalition aircraft bound for Afghanistan. As such, 
Azerbaijan is a key node on the Northern Distribution Network allowing 
nonlethal goods to transit its territory to resupply our forces in 
Afghanistan. Azerbaijan has also contributed to the Afghan National 
Army Trust Fund, including a 1 million euro donation announced in 
January 2014.
    If the Government of Azerbaijan scaled back its cooperation with 
the United States, it could harm our shared interests in building 
regional security, diversifying energy supplies, pursuing democratic 
and economic reforms, combating terrorism, and stemming the flow of 
illegal narcotics and weapons of mass destruction.
                                 ______
                                 

            Responses of Robert Francis Cekuta to Questions 
                   Submitted by Senator Barbara Boxer

    Question. Earlier this summer, more than 20 Armenian and Azeri 
soldiers were killed during fighting along the Line of Contact--the 
deadliest cease-fire violation since 1994. This recent violence--which 
reportedly began after Azeri forces attempted to penetrate Armenian 
lines--is deeply concerning.

  <diamond> If confirmed how will you respond, both publicly and 
        privately, to new instances of Azerbaijan's acts of aggression 
        and provocation, which continue to increase and claim more 
        lives?
  <diamond> How will you specifically work to ensure that the 
        Azerbaijani Government respects the Organization for Security 
        and Co-operation in Europe (OSCE) Minsk Group negotiated cease-
        fire?

    Answer. The United States strongly condemns violations of the 
cease-fire and deeply regrets the loss of life that resulted from these 
incidents along the Line of Contact. We have frequently, publicly and 
privately, called upon both sides to take all measures to respect the 
cease-fire. If confirmed as Ambassador, I, too, will strongly advocate 
for de-escalating tensions and preparing the public for a peace the 
people of Armenia and Azerbaijan deserve. I will also support the U.S. 
cochair of the OSCE Minsk Group, Ambassador James Warlick, in his 
efforts to help achieve a peaceful and lasting settlement to the 
Nagorno-Karabakh conflict.

    Question. The previous two U.S. Ambassadors to Azerbaijan attempted 
to visit the Armenian cemetery of Djulfa to investigate the 2005 
destruction of Armenian Khachkars, or burial monuments. The Azerbaijani 
Government officially denied both of their requests to visit the site.

  <diamond> If confirmed, will you commit to attempt to travel to 
        Djulfa to investigate the destruction of the cemetery? What 
        steps will you take to ensure that other Armenian religious 
        sites and monuments in Azerbaijan are protected?

    Answer. The United States condemned the desecration of the Djulfa 
Cemetery and urged the Azerbaijanis to investigate the incident. 
Despite our repeated requests to visit the Djulfa Cemetery, local 
authorities have so far refused permission to do so. If I am confirmed, 
I will amplify our concerns to the Government of Azerbaijan. If 
confirmed, I also will urge the government to protect the rights and 
holy sites of all groups.

    Question. Last month on Twitter Azerbaijani President Aliyev made 
numerous anti-Armenian statements and bellicose threats including that, 
``The war is not over. Only the first stage of it is. But the second 
stage may start too.'' President Aliyev also declared that, ``We will 
restore our territorial integrity either by peaceful or military means. 
We are ready by both options.''
    President Aliyev has made previous public statements that 
``[Azerbaijan's] main enemies are Armenians of the world.'' Such 
statements foment anti-Armenian sentiment in Azerbaijan, which 
exacerbates existing tensions and makes it increasingly difficult to 
reach a permanent peace agreement regarding the Nagorno-Karabakh 
region.

  <diamond> If confirmed, what will you do to work with the Azerbaijani 
        Government to strongly counter anti-Armenian sentiment and to 
        build toward a long-lasting peace?

    Answer. The United States has repeatedly called on the Presidents 
of both countries to prepare their publics for a peaceful and lasting 
settlement to the Nagorno-Karabakh conflict. Inflammatory rhetoric 
undermines our common efforts to achieve peace. If confirmed as 
Ambassador, I will support U.S. Minsk Group Co-Chair Jim Warlick's 
efforts to help the sides reach a lasting settlement to the conflict. 
In addition, I will be an advocate for Track II diplomacy, and will 
support Ambassador Warlick's efforts to work with the sides on 
implementing people-to-people programs, which are so important for 
building trust between the people of Armenia and Azerbaijan.

    Question. Congress has enacted legislation known as ``Section 907'' 
prohibiting U.S. assistance to Azerbaijan until it meets a number of 
conditions, including taking demonstrable steps to cease ``offensive 
uses of force against Armenia and Nagorno-Karabakh.'' However, the 
recent deadly violence in Nagorno-Karabakh and the threats of war made 
by President Aliyev call into question the Azerbaijani Government's 
commitment to a lasting peace.

  <diamond> Is the Government of Azerbaijan fully meeting the 
        conditions of section 907?
  <diamond> Do you support continuing to waive section 907, as the 
        administration has done for the last several years?
  <diamond> Should the U.S. Government be providing military aid to the 
        Government of Azerbaijan at the same time that it is committing 
        acts of aggression and threatening renewed war against both 
        Nagorno-Karabakh and Armenia?

    Answer. Since 2002, Presidents have waived section 907 on an annual 
basis, opening the door for bilateral cooperation with Azerbaijan and 
assistance programs in areas limited to counterterrorism efforts, 
border security and protection, and maritime security. All security 
assistance and defense cooperation with Azerbaijan is carefully 
considered to ensure it does not undermine efforts for a peaceful 
settlement of the conflict in Nagorno-Karabakh.
    If confirmed, I will recommend to the administration the policies 
and programs that best serve the interests and goals of the United 
States in Azerbaijan and the region. We will pursue these policies in 
consultation with Congress, utilizing the resources that Congress 
provides.
                                 ______
                                 

              Responses of Richard M. Mills to Questions 
                   Submitted by Senator Barbara Boxer

    Question. If confirmed, you will be Ambassador to Armenia during 
the 100th anniversary of the Armenian Genocide. On this important 
anniversary, how will you work to demonstrate America's commitment to 
forcefully condemn and properly commemorate all instances of genocide?

    Answer. If confirmed, I will continue the tradition of officially 
participating in the memorial event in Yerevan every April, which will 
have special resonance this coming year, as Armenia and the world mark 
the centenary of one of the 20th century's worst atrocities, when 1.5 
million Armenians were massacred or marched to their deaths in the 
final days of the Ottoman Empire. I will work to identify ways that the 
Embassy can amplify our message to the Armenian people that the United 
States stands in solidarity with Armenia at this time of remembrance 
and is committed to remembering so that such dark chapters of human 
history are never repeated. My goal will be to honor this centenary by 
working to achieve the U.S. Government's goal of a full and just 
understanding of the facts of that terrible time.

    Question. In 2013, trade between the United States and Armenia 
totaled approximately $192 million. What steps is the administration 
taking to increase trade between our two countries?

    Answer. If confirmed, increasing trade to the benefit of both 
Armenia and the United States will be a personal priority, building on 
the work of my predecessors.
    In the first instance, increasing trade requires addressing factors 
in Armenia that discourage international investment, so I will work to 
advance market reforms and increase the transparency of the business 
climate in Armenia. U.S. firms have told us that the lack of 
transparency regarding customs and tax administration, as well as a 
lack of respect for signed contracts, are significant factors 
discouraging investment in Armenia. I will use every opportunity to 
press Armenian officials to address these issues. There have been 
recent positive steps in the business and regulatory climate that can 
be built upon. We were encouraged by Armenia's implementation of civil 
aviation liberalization reforms, and a number of U.S. information 
technology companies have opened branches in Armenia, taking advantage 
of the skills of Armenia's work force in this sector.
    In addition, if confirmed, I intend to work to provide U.S. 
businesses with information about opportunities involving Armenia and 
will work to identify new opportunities for U.S. exports to Armenia, 
such as the considerable opportunities for the establishment of U.S.-
based franchises in Armenia. I will advocate on behalf of U.S. firms 
pursuing investment projects in Armenia, as well as support reforms to 
increase business-to-business exchanges, such as the launch of a visa 
liberalization process.

    Question. For two decades, Turkey has maintained its illegal 
blockade of landlocked Armenia despite public calls by successive U.S. 
administrations for an end to Europe's last closed border.

  <diamond> How can the United States work to finally end this blockade 
        which destabilizes the region and prevents economic 
        development?
  <diamond> If confirmed, how will you work within the State Department 
        and with other regional governments to end this illegal 
        blockade?

    Answer. Facilitating Armenia's regional integration by opening its 
border with Turkey is a priority for the United States. Regional 
integration is in the economic interest of all the countries of the 
region and certainly in the U.S. interest. U.S. investment, for 
example, is hampered by regional divisions and closed borders.
    If confirmed, working to promote open borders will be one of my key 
priorities as Ambassador--not only by supporting government-to-
government discussions--but by promoting people-to-people contacts and 
partnerships, such as historical restoration projects, as well as other 
cross-border and regional initiatives, such as the possibility of 
reopening cross-border transportation and energy links. Contact begins 
to build confidence, and confidence is the necessary first step to 
reconciliation and conflict resolution. Clearly, the status quo is not 
helpful to anyone.
                                 ______
                                 

             Response of Robert Francis Cekuta to Question 
                Submitted by Senator Benjamin L. Cardin

    Question. Over the past year the environment for civil society, the 
media and opposition parties has deteriorated significantly. Some 
groups have put the number of political prisoners in Azerbaijan at 
almost 100. Most recently human rights defender, Ms. Leyla Yunus, and 
her husband, Arif Yunus, were charged with serious crimes. They remain 
in pretrial detention and are in poor health.

  <diamond> As U.S. Ambassador, how would you engage with the 
        Government of Azerbaijan to improve the rule of law and respect 
        for civil society?

    Answer. Azerbaijan's progress in respect for human rights and 
fundamental freedoms would help to deepen our bilateral relationship. 
The United States believes that the rule of law and democratic 
institutions and processes are fundamentally important to Azerbaijan's 
political and economic development as well as its internal stability 
and security. We continue to call on the Azerbaijani authorities to 
strengthen due process, and judicial independence, ensure freedoms of 
assembly, association, and expression, and support an open, vibrant, 
and peaceful civil society. If confirmed, I will urge the Government of 
Azerbaijan to create an environment in which civil society can operate 
freely, and I will work closely with all partners to help Azerbaijanis 
build the strong, vibrant modern democracy and pluralistic society they 
want.
                                 ______
                                 

            Responses of Robert Francis Cekuta to Questions 
                 Submitted by Senator Edward J. Markey

    Question. Given Azerbaijan's ongoing war rhetoric, continued 
militarization and latest cease-fire violations what steps will you 
take to condemn or restrain threats or acts of aggression by 
Azerbaijan? Are you satisfied with the effectiveness of U.S. and OSCE 
efforts thus far to restrain Azerbaijan's threats and acts of 
aggression?

    Answer. The United States strongly condemns violations of the 
cease-fire and deeply regrets the loss of life that resulted from these 
incidents along the Line of Contact. We have frequently, publicly and 
privately, called upon both sides to take all measures to respect the 
cease-fire. If confirmed as Ambassador, I, too, will strongly advocate 
for de-escalating tensions and preparing the public for a peace the 
people of Armenia and Azerbaijan deserve. The OSCE Minsk Group has 
continued to engage with the sides at the highest levels and to promote 
dialogue to help them reach a peaceful settlement. In November 2013, 
Presidents Aliyev and Sargsian met for the first time in almost 2 years 
in Vienna, under the auspices of the Minsk Group cochairs. The 
administration is also committed to a peaceful settlement through the 
Minsk Group process. Secretary Kerry delivered this message when he met 
with the Presidents at the NATO summit in Wales on September 4 to 
discuss a way forward in peace negotiations. We encourage the 
Presidents to continue to work with the cochairs and discuss elements 
of a settlement. I will also support the U.S. cochair of the OSCE Minsk 
Group, Ambassador James Warlick, in his efforts to help achieve a 
peaceful and lasting settlement to the Nagorno-Karabakh conflict.

    Question. If Azerbaijan follows through on its declarations to 
renew its aggression against Nagorno-Karabakh, what would you propose 
as a response?

    Answer. The United States has repeatedly called on the Presidents 
of both countries to prepare their publics for a peaceful and lasting 
settlement to the Nagorno-Karabakh conflict. Inflammatory rhetoric 
undermines our common efforts to achieve peace. If confirmed as 
Ambassador, I will support U.S. Minsk Group Co-Chair Jim Warlick's 
efforts to help the sides reach a lasting settlement to the conflict. 
In addition, I will be an advocate for Track II diplomacy, and will 
support Ambassador Warlick's efforts to work with the sides on 
implementing people-to-people programs, which are so important for 
building trust between the people of Armenia and Azerbaijan.

    Question. Fostering regional cooperation and economic integration 
in the South Caucasus is the stated policy of the United States. What 
actions will you take to confront Azerbaijan's continued attempts to 
isolate Armenia and what steps will you take to foster regional 
cooperation and economic integration?

    Answer. Facilitating regional integration is a particular priority 
for the United States. We work steadfastly to end Armenia's isolation 
both by seeking a peaceful and lasting settlement to the Nagorno-
Karabakh conflict and by promoting reconciliation between Armenia and 
Turkey. We believe regional integration is in the economic interest of 
all three countries and certainly in our interest. In looking at the 
region as a whole, our strategic interests are focused on several 
priorities: the advance of freedom and democracy; regional security, 
including counterterrorism and peaceful resolution of ethnic conflicts; 
and economic prosperity, including energy. All would benefit from 
neighborly relations and regional integration of the South Caucasus.
                                 ______
                                 

              Responses of Richard M. Mills to Questions 
                 Submitted by Senator Edward J. Markey

    Question. Do you agree with the accounts of U.S. diplomats, 
including Ambassador Henry Morgenthau, who served as U.S. Ambassador to 
the Ottoman Empire from 1913 to 1916, regarding the attempted 
annihilation of the Armenian people?

    Answer. I have read original source material and later histories 
addressing the tragic massacres and forced exile that occurred at the 
end of the Ottoman Empire. I have also reviewed the independently 
published book titled ``U.S. Official Records on the Armenian Genocide 
1915-1917,'' which contains the reports submitted by various U.S. 
officials at that time, including Ambassador Morgenthau and other U.S. 
diplomats in the Ottoman Empire. They are all important, eyewitness 
records of these tragic events. In addition, I have read books by 
historians and journalists that address the subject. The individual 
stories that these histories contain are horrifying; the magnitude of 
the terrible acts these volumes report--over 1.5 million killed or 
forcibly deported--is simply incomprehensible.

    Question. The written statement of the United States before the 
International Court of Justice in 1951 stated that: ``the Turkish 
massacres of Armenians, the extermination of millions of Jews and Poles 
by the Nazis are outstanding examples of the crime of genocide.'' Do 
you agree with this statement by the United States that the Turkish 
massacres of Armenians is an example of the crime of genocide?

    Answer. I, like all people of good will, mourn these tragic events 
and the great suffering experienced by the Armenian people. I, too, 
grieve the loss of so many innocent lives and fully respect that the 
Armenian-American community and the Armenian people want their pain and 
loss to be acknowledged. This is why the administration--and I--
acknowledge and mourn the mass killings and forced deportations of over 
1.5 million Armenians at the end of the Ottoman Empire as one of the 
worst atrocities of the 20th century.

    Question. Do you acknowledge and recognize the record of the United 
States affirming the Armenian Genocide?

    Answer. There should be no doubt in anyone's mind that the U.S. 
Government--and I--certainly recognize and deplore the mass killings 
and deportations that occurred in 1915. I too mourn the loss of so many 
innocent lives and fully respect that the Armenian-American community 
and the Armenian people want their pain and loss to be acknowledged. As 
the President has emphasized in his April 24 Remembrance Day 
statements, the achievement of a full, frank, and just acknowledgement 
of the facts of what occurred in 1915 is in all our interests.

    Question. What instructions were you given, if any, regarding the 
use of the term genocide when referring to the Armenian Genocide of 
1915 prior to this hearing?

    Answer. Like all executive branch officials, I have a 
responsibility to represent the policy of the President on this and all 
other issues. The President's position on this issue is well known and 
on the record. The administration has consistently acknowledged, as a 
historical fact, that 1.5 million Armenians were massacred or marched 
to their deaths in one of the worst atrocities of the 20th century. As 
the President has emphasized in his April 24 Remembrance Day 
statements, the achievement of a full, frank, and just acknowledgement 
of the facts of what occurred in 1915 is in all our interests.

 
                      NOMINATION OF ANTONY BLINKEN

                              ----------                              


                      WEDNESDAY, NOVEMBER 19, 2014

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Antony John Blinken, of New York, to be Deputy Secretary of 
        State
                              ----------                              

    The committee met, pursuant to notice, at 2:01 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez (chairman of the committee) presiding.
    Present: Senators Menendez, Cardin, Shaheen, Coons, Murphy, 
Kaine, Corker, Risch, Rubio, Johnson, Flake, and McCain.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    The Chairman. This nomination hearing for Tony Blinken as 
Deputy Secretary of State will come to order. Let me welcome 
you back to the committee. As the former staff director of the 
committee for Chairman Biden at the time, you know as much 
about the nomination process as anyone, although perhaps you 
are less familiar with being on that side of the table.
    Between your service here and in the White House, you also 
understand, I think, the challenge of managing multiple complex 
situations concurrently, and those experiences, I believe, will 
serve you well as confirmed for this position.
    Your nomination as Deputy Secretary of State comes at a 
time when the United States is facing a range of critical 
challenges, from Ebola in West Africa to Russian aggression in 
Ukraine, to the challenge of countering ISIL in Syria and Iraq, 
to Iran's continued quest for a nuclear weapons program. At the 
same time, we are seeking to forge new global partnerships with 
India, in the Middle East and Asia, and looking for 
opportunities to expand American exports and business 
opportunities.
    So there will be no shortage of critical issues that you 
will face. Each will require your full attention and the full 
attention of this committee, and I look forward to hearing your 
views on all of these issues and working closely with you on 
issues of mutual concern should you be confirmed.
    Foremost on our national security agenda is countering the 
barbarity of ISIL, whose terrorist ambitions threaten our 
national security as well as the stability of the entire 
region. I would like to hear from you today about the 
administration's views on a new ISIL-specific AUMF.
    I was hoping that the committee would hear from security 
Kerry and/or security Hagel this week on the President's 
announced plan to work with Congress on a new AUMF, an 
authorization for the use of military force, but that did not 
happen. I continue to believe it is incumbent that Congress 
take the lead in authorizing the use of force, and in my view 
any prolonged military campaign requires a new, congressionally 
approved AUMF, and I believe that Congress should act and the 
administration should seek expeditious congressional action.
    We also face a continued crisis in Ukraine, where the 
cease-fire is collapsing, as more Russian tanks, troops, and 
weapons cross the border into eastern Ukraine. In my view it is 
time to provide defensive lethal military assistance to Ukraine 
and escalate pressure on Putin. Sanctions are impacting 
Russia's economy, but Putin continues on a reckless path and 
all indicators point to an imminent offensive to carve out a 
land bridge to Crimea.
    I believe we must be willing to raise the cost to Putin, 
which will only come through the provision of defensive lethal 
military assistance to the government in Kiev. Clearly, that is 
just a beginning of a long list of challenges. The diplomatic 
calculations are complicated, and all of these challenges will 
be part of your portfolio as the Deputy Secretary of State.
    I know that there will be times when we will agree and 
times that we will disagree. But I look forward to working 
closely with you should you be confirmed. I think your 
experience to date poises you to do an excellent job in this 
regard. And I look forward to the answers to your questions, 
but unless they surprise me I look forward to supporting you.
    Senator Corker.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Thank you, Mr. Chairman, for having this 
hearing. I want to thank Mr. Blinken for his service to our 
country and his willingness to serve in this capacity.
    This position I think, as most people know, is a very, very 
important position. The Deputy Secretary serves as the 
Secretary of State when the Secretary is out of country, and he 
also is the principal adviser to the Secretary. A lot of 
people, I think, do not understand the importance sometimes of 
this position, so it is very important, and it is important 
that he is a very candid adviser to the Secretary.
    We have had the benefit of having someone who is a 
professional for 30 years. He has just left, and he is someone 
who is very independent. He shared the good, the bad, and the 
ugly. I know we had a very private conversation the other day. 
I hope you are going to be as forthcoming today as you were in 
our office.
    But it is my strong desire that the person who fills this 
position is equally as independent and has the ability to share 
with us, because it is our liaison to be able to make the kinds 
of judgments we need to make here. On that note, I just have to 
say we have had some terse conversations in the past when I 
felt like, speaking for the White House, I was being spun, I 
was not being talked to as a person about reality; I was being 
spun. We have had a conversation about that and likely will 
have a conversation today about that. But obviously this 
position is a very different position than someone spinning, if 
you will, for the White House and trying to paint a flowery 
picture about what has occurred.
    So it will be your responsibility, if confirmed, to provide 
us the kind of information and work with us directly to help us 
create the best foreign policy for our Nation. It is my hope 
that during this hearing again you will demonstrate that 
independence. If you are confirmed, again I expect you to work 
very, very closely with us. Again I look forward to your 
testimony today, and again I want to thank you. I know we 
talked extensively about your background and your upbringing. I 
hope you will share some of that during your opening comments. 
But I do appreciate the fact that you have an extensive 
background and I do appreciate your commitment to serving our 
country in an appropriate way.
    So thank you, Mr. Chairman.
    The Chairman. Thank you.
    I know Senator Schumer wanted to be here to introduce you. 
But because of votes we decided to move up the hearing, with 
the agreement of the ranking member, in order to try to get the 
bulk of this hearing in before we have a large number of votes, 
votes that are going to take a fair amount of time. So I 
appreciate his willingness to come before the committee and 
recommend you to the committee and we look forward to putting 
his statement in the record.
    Let me remind you that your full statement will be entered 
into the record, without objection. I would ask you to 
summarize in about 5 minutes or so, so we can get to the heart 
of questions and answers that the members are going to want to 
hear. I certainly invite you to introduce any family members 
who are here with you today, since we know that they are part 
of the sacrifice of serving our Nation and we thank them in 
advance for the support they lend you in carrying out your 
duties.
    With that, you are welcome to proceed.

           STATEMENT OF ANTONY BLINKEN, OF NEW YORK, 
           NOMINATED TO BE DEPUTY SECRETARY OF STATE

    Mr. Blinken. Mr. Chairman, Ranking Member Corker, thank you 
very much. And to you members of the entire committee, it is an 
honor to appear before you today as President Obama's nominee 
to become Deputy Secretary of State. I am grateful to the 
President for the privilege of this nomination and I am 
grateful to two past chairmen of this committee: to Secretary 
of State Kerry for his confidence in me; and to Vice President 
Biden for his friendship, his partnership, and his mentorship 
for more than a decade.
    It is indeed a novel experience for me to sit on this side 
of the dais. For 6 years I served as staff director of this 
committee, in the majority, in the minority. I sat where Mr. 
Ryan and Mr. Munson are sitting right now, in my case behind 
then-Senators Biden, Helms, Lugar, Hagel, Dodd, Kerry, Obama, 
as well as several distinguished Senators who will be here 
today.
    I watched them work together in the best tradition of 
bipartisan American foreign policy, to strengthen our 
diplomacy, to advance our interests and our values around the 
world.
    During those 6 years, I developed enormous respect for the 
Senate as a whole and for this committee in particular, for its 
members, for its staff, and for its indispensable role in 
shaping our Nation's foreign policy. If confirmed, I will do my 
best to uphold the standards of professionalism that I learned 
here in this room, in these halls, and I pledge to work closely 
with all of you to try to fulfill the potential of American 
leadership.
    There is another reason I am very attached to this 
committee. It confirmed my father, Donald Blinken, to be 
Ambassador to Hungary. It confirmed my uncle, Alan Blinken, to 
be Ambassador to Belgium. And just last year, it confirmed my 
wife, who is sitting behind me, Evan Ryan, to be Assistant 
Secretary of State for Educational and Cultural Affairs. So I 
really hope that nothing I do today gives you cause to break 
this fine tradition of diplomatic service in our family.
    The Chairman. We hope you can do as well as she did. 
(Laughter.)
    Mr. Blinken. Thank you, Mr. Chairman.
    Let me just say--and, Ranking Member Corker, we have talked 
about this; Chairman Menendez, we have talked about this--I 
recognize that, if confirmed, I will play a difficult role. 
Part of my current job at the White House is to explain and 
defend this administration's policies, including with Congress. 
If confirmed, my new job would bring a different 
responsibility--to work with this committee and the leadership 
of the State Department to advance our foreign policy and the 
national interest around the world.
    I have consulted with leaders I consider friends who played 
similar roles in the past, including Bob Zoellick, John 
Negroponte, Rich Armitage, Jim Steinberg, Strobe Talbott. I 
have to tell you that, if confirmed, my role model would be my 
immediate predecessor, Bill Burns, a man who epitomizes the 
word ``professional,'' who served Republican and Democratic 
administrations alike with integrity, with balance, and with 
decency.
    Let me also begin by thanking the committee for its work 
over the last 2 years. Whether it was the Ukraine loan 
guarantee, PEPFAR reauthorization, embassy security, OAS 
reform, pushing forward State Department nominees, this 
committee has played an indispensable role in translating our 
foreign policy vision into practice, and indeed bringing the 
vision itself. If confirmed to my new position, I would again 
want to work very closely with every member.
    If I am confirmed, I would also be coming full circle to 
where I started in government 21 years ago, in the Department 
of State. Virtually every day since then--during my time at 
State; during 13 years over two administrations at the White 
House on the National Security Council staff; and during my 
tenure with this committee--I have worked with the men and 
women of the State Department. I have experienced firsthand 
their extraordinary leadership of our foreign policy at a time 
of immense challenge and change. I have watched them do more 
than most Americans will ever know to keep us safe, to keep us 
secure, to keep us prosperous. I have witnessed their passion, 
I have witnessed their energy, I have witnessed their courage. 
And I have seen them bring luster and strength to a word that 
deserves our respect: diplomacy.
    Just in the past year, American diplomacy has mobilized 
countries around the world to confront ISIL and Ebola, to 
sanction Russia for its aggression in Ukraine, to revitalize 
NATO's commitment to the defense of its own members. That same 
hard-nosed diplomacy, backed by the credible threat of force, 
eliminated Syria's chemical weapons stockpiles, achieved a 
first-step agreement with Iran that stopped and in some 
respects rolled back its nuclear program.
    Secretary Kerry's personal diplomacy helped the competing 
Afghan political blocks achieve the first peaceful political 
transition in that country's history, and the Secretary has 
worked tirelessly to build a secure, lasting peace and the 
Jewish, democratic State of Israel and the Palestinians, just 
as we stand resolutely with Israel whenever and wherever it is 
under threat.
    We saw American diplomacy in action this summer at the 
first-ever U.S.-Africa Leaders summit, building new 
relationships among governments, with the private sector, to 
unleash the next era of African growth, strengthen democratic 
institutions, deepen our security partnerships.
    We saw it at the Inter-American Development Bank just a 
week ago, with Vice President Biden bringing countries together 
to support the leaders of Central America as they develop plans 
to strengthen their institutions and economies and combat the 
corruption, crime, and trafficking that affect us here at home.
    Just this past week, we also saw it in Asia, where 
President Obama led our diplomacy to strengthen the core 
institutions in Asia, to enlist China in the effort to roll 
back climate change, to build greater confidence between our 
militaries, lower tariffs on information technology, expand 
visas to the benefit of our students, businesses, and the 
economy, to advance Burma's democratization, to bring the 
Trans-Pacific Partnership closer to fruition, representing 40 
percent of world GDP.
    You know, in a few weeks, just before Christmas, I think 
many of us, certainly we, will engage in what is an annual 
ritual, and that is to watch ``It's a Wonderful Life'' on 
television. We all know what happened to Bedford Falls when 
George Bailey was out of the picture, and to me, at least, it 
is self-evident where the world would be without American 
leadership in the picture on all the challenges I just 
mentioned.
    So I would submit to you that the question before us is not 
whether America is leading, for I believe we are, but rather 
how we are leading, to what ends, to what effect? That is a 
proper subject for debate, discussion, and dialogue.
    Mr. Chairman, I have submitted for the record some of my 
thoughts on the answer to this question. I would just like to 
leave you, if I could, with a personal note. I wanted to give 
you some very brief insight into what brought me to government 
service and what motivates me every day to carry out that 
service. I am very fortunate. I was born into a family that had 
done very well. I actually acquired four parents along the way. 
I am blessed with two wonderful stepparents, as well as my 
parents, who have given me incredible love and support in 
everything that I have done.
    I grew up in New York, then at an early age moved to 
France. In France I had the unique experience from age 9 to 18 
of beginning to see the world through the eyes of others, but 
in particular to see my own country through the eyes of others. 
I found myself enlisted at a very young age in playing junior 
diplomat, trying to explain the United States to my fellow 
students. This was during the end of the Vietnam war, the cold 
war, Afghanistan. And I think that is what got me most 
motivated and interested to do this work.
    But even more than that, it is the family story. I think we 
all come from family stories that resonate and move us in 
certain directions. My grandfather--my father's father--fled 
what is now Ukraine, fleeing a pogrom, coming to the United 
States like so many others, supporting his mother, his younger 
brother, working his way through school, sending his own sons 
off to Harvard, including my father, who became Ambassador to 
Hungary and was in Hungary and got the Hungarian Government to 
help bring in American troops so that they could go into Bosnia 
and protect its people. I am proud of my father every day for 
the way he has conducted his life and his service.
    His wife, my stepmother, fled Communist Hungary, literally 
at night on a train, as a young child, spirited out of the 
country. Her mother, married in a sham marriage to get out of 
the country, she came to the United States. She was welcomed 
here, and she has given so much service over her life to the 
International Rescue Committee, to help others in need.
    My own mother, who has spent her entire career bringing the 
greatest American artists around the world--at times when our 
policies are under challenge, that soft power that she has done 
so much to advance has done wonders for our foreign policy.
    Finally, her husband, my stepfather. He was made an 
American by a special act of Congress. He served in the Kennedy 
administration. He started life in Bialystok, Poland. He is 
among, if not the youngest, survivor of Auschwitz, having spent 
4 years in the concentration camps.
    At the very end of the war, when he was being marched on a 
death march out of the camps--the allies were advancing from 
one side, the Russians from the other--he made a run for it, 
and he found cover despite the German fire. A day later, having 
taken cover, he heard a sound, a rumbling sound. It was a large 
tank, and as he looked out from his shelter he looked at the 
tank and, instead of seeing the dreaded swastika, he saw 
something else--a five-pointed white star.
    And he ran for the tank. The hatch opened up. He got down 
on his knees and he spoke the only three words in English that 
he knew and that his mother had taught him: ``God bless 
America.'' And the GI lifted him from the ground into the tank, 
into the United States, into freedom.
    It is those experiences from my parents, their lives, their 
service, that have motivated me to come to this place and 
motivated me to want to do the job that I stand before you for 
consideration.
    So, Mr. Chairman, Ranking Member Corker, I am grateful for 
this opportunity. I am grateful for your consideration. I look 
forward, if confirmed, to working with everyone on this 
committee, and I welcome your questions.
    [The prepared statement of Mr. Blinken follows:]

                Prepared Statement of Antony J. Blinken

    Mr. Chairman, Ranking Member Corker, members of the Senate Foreign 
Relations Committee, it is an honor to appear before you today as 
President Obama's nominee to become Deputy Secretary of State.
    I'm grateful to President Obama for the privilege of this 
nomination and to two past chairmen of this committee--to Secretary of 
State Kerry for his confidence in me; and to Vice President Biden for 
his friendship, partnership and mentorship for more than a decade.
    It is a novel experience for me to sit on this side of the dais. 
For 6 years, I served as staff director of this committee, in the 
majority and the minority. I sat where Mr. O'Brien and Mr. Munson sit--
in my case behind then-Senators Biden, Helms, Lugar, Hagel, Dodd, 
Kerry, Obama, as well as several distinguished Senators here today. I 
watched them work together in the best tradition of bipartisan American 
foreign policy to strengthen American diplomacy and advance our 
interests and values around the world. During those 6 years, I 
developed enormous respect for the Senate as a whole and for this 
committee in particular--for its members, its staff, and its 
indispensable role in shaping our foreign policy.
    If confirmed, I will do my best to uphold the standards of 
professionalism that I learned here, in this room and in these halls. 
And I pledge to work closely with all of you to fulfill the potential 
of American leadership.
    There is another reason I am so attached to this committee. It 
confirmed my father, Donald Blinken, to be Ambassador to Hungary; my 
uncle, Alan Blinken, to be Ambassador to Belgium, and just last year, 
my wife, Evan Ryan, to be Assistant Secretary of State for Educational 
and Cultural Affairs. I hope that nothing I do today gives you cause to 
break this family tradition of diplomatic service.
    I recognize that, if confirmed, I will play a different role. Part 
of my current job at the White House is to explain and defend this 
administration's policies--including with Congress. If confirmed, my 
new job would bring a different responsibility--to work with this 
committee and the leadership of the State Department to advance our 
foreign policy and the national interest around the world. I've 
consulted with leaders I consider friends who have played this role in 
the past--including Bob Zoellick, John Negroponte, Rich Armitage, Jim 
Steinberg, and Strobe Talbott. If confirmed, my role model would be my 
immediate predecessor, Bill Burns--a man who epitomizes the word 
``professional,'' and who served Republican and Democratic 
administrations alike with integrity, balance, and decency.
    I want to begin by thanking the committee for its work over the 
last 2 years. Whether it was the Ukraine loan guarantee, PEPFAR 
reauthorization, Embassy Security, OAS reform, or pushing forward State 
Department nominees, this committee played an indispensable role in 
translating our foreign policy vision into practice.
    If confirmed, my new position would bring me full circle to where I 
started in government 21 years ago: the Department of State. Virtually 
every day since--during my time at State; my 13 years over two 
administrations on the National Security Council Staff at the White 
House; and my tenure with this committee--I've worked with the men and 
women of the State Department. I've experienced firsthand their 
extraordinary leadership of our foreign policy at a time of immense 
challenge and change. I've watched them do more than most Americans 
will ever know to keep us safe, secure, and prosperous. I've witnessed 
their passion, energy, and courage. I've seen them bring luster and 
strength to a word that deserves our respect: diplomacy.
    Just in the past year, American diplomacy has mobilized countries 
around the world to confront ISIL and Ebola, to sanction Russia for its 
aggression in Ukraine and to revitalize NATO's commitment to the 
defense of its members. That same hard-nosed diplomacy, backed by a 
credible threat of military force, eliminated Syria's chemical weapons 
stockpiles and achieved a first-step agreement with Iran that stopped 
and in some respects rolled back its nuclear program. Secretary Kerry's 
personal diplomacy helped competing Afghan political blocs achieve the 
first peaceful political transition in their country's history. And he 
has worked tirelessly to build a secure, lasting peace between the 
Jewish, democratic State of Israel and the Palestinians--just as we 
stand resolutely with Israel whenever and wherever it is under threat.
    We saw American diplomacy in action this summer, at the first-ever 
U.S.-Africa Leaders summit--building new relationships among 
governments and the private sector to unleash the next era of African 
growth, to strengthen democratic institutions, and to deepen our 
security partnerships.
    We saw it again at the Inter-American Development Bank, where Vice 
President Biden convened two dozen countries to build support for the 
efforts of Central American leaders to strengthen their institutions 
and economies, and combat the corruption, crime, and trafficking that 
affect our own security here in the United States.
    And just this past week, President Obama led the administration's 
diplomacy in Asia to strengthen its core institutions; to enlist China 
in the effort to roll back climate change, build greater confidence 
between our militaries, lower tariffs on information technology and 
expand visas to the benefit of our students, businesses, and economy; 
to advance Burma's democratization; and to bring the Trans-Pacific 
Partnership closer to fruition--further liberalizing trade among 
economies that represent 40 percent of world GDP.
    In a few weeks, just before Christmas, many of us will engage in an 
annual ritual: watching ``It's a Wonderful Life'' on television. We all 
know what happened to Bedford Falls when George Bailey was out of the 
picture. I think it is self-evident where the world would be without 
American leadership on all the challenges I just mentioned.
    So I would submit to you that the question before us is not whether 
America is leading--for we are--but rather how we are leading--by what 
means and to what ends--now and into the future. That is the question 
we can--and must--answer together.
    For all the progress we've made, many daunting challenges remain.
    We've struck huge blows against al-Qaeda's senior leadership; now, 
we must defeat its progeny in the Middle East and North Africa, which 
threaten our interests, allies, and partners.
    We liberated the people of Libya from a tyrant; now, we must work 
with the new government to fill a power vacuum and address that 
country's turmoil.
    We eliminated the strategic threat posed by Syria's chemical 
weapons; now, we must stop a civil war that rages on, killing 
innocents, sending waves of refugees throughout the region and 
attracting violent extremists.
    We've advanced nuclear security around the world, with countries 
taking concrete steps to secure or eliminate materials; now, we must 
press for the denuclearization of the Korean Peninsula and pursue a 
comprehensive agreement to ensure that Iran's nuclear program is for 
peaceful purposes.
    We have strengthened the security and resilience of the Internet 
that is so vital to our economy, safety, and health; now, we must get 
ahead of attacks by malicious governments, criminals, and individual 
actors.
    We've made America the world leader in fighting pandemics and 
improving global health security--building on the work of the Bush 
administration; now our leadership is vital to checking the spread of 
infectious diseases, with new microbes and viruses and the potential 
deliberate release of pathogens all accelerated by globalization.
    We've led the way in promoting more open governance, combating 
corruption and empowering civil society and young leaders in emerging 
democracies; now, we must help those making the transition from 
demanding rights and freedoms to building the institutions that can 
guarantee them.
    We've emerged from the global economic crisis and revitalized our 
own economy as an engine for global economic growth; now, our 
leadership remains critical to prevent future crises that threaten 
global stability.
    The strategic environment in which we must contend with these and 
other challenges is more fluid, fraught with complexity but also more 
full of opportunity than ever before.
    Power among states is shifting, with new entrants and aspirants to 
the ranks of the majors.
    Power is shifting below and beyond the nation-state, requiring 
governments to be more accountable to substate and nonstate actors--
including increasingly empowered individuals.
    The growing interdependence of the global economy and the rapid 
pace of technological change are linking people, groups, and 
governments in unprecedented ways--incentivizing new forms of 
cooperation but also creating shared vulnerabilities.
    A struggle for power is underway among and within many states in 
the Middle East and North Africa--a combustible process of defining a 
new order.
    The global energy market is in the midst of profound change, with 
developing countries now consuming more energy than developed ones and 
the United States, the world's largest natural gas and oil producer, 
with our dependence on foreign oil at a 20-year low and declining.
    To most effectively advance America's interests in such a volatile 
environment, we must lead with purpose--to ensure the security of our 
country, its citizens, our allies and our partners; to promote a strong 
U.S. economy; to advance our values; and to shape an international 
order that bolsters peace, security, and opportunity.
    We must lead from a position of strength--with unrivaled military 
might, a dynamic economy and the unmatched strength of our human 
resources.
    We must lead by example--lifting our citizens, growing our economy, 
and living our values here at home, all of which strengthen our 
leadership abroad.
    We must lead with capable partners--because we can best advance our 
interests in an interconnected world when others are working with us, 
while recognizing that American leadership is necessary to mobilize 
collective action.
    We must lead with all of the instruments of American power--with an 
ever-ready military and our economic might that can empower diplomacy 
and development.
    And we must lead with perspective. For all our unique power, there 
are historic transitions underway in the world that are not about us 
and cannot be fully controlled by us. But American leadership, more 
than that of any other nation, can shape this change, mitigate its 
risks, and seize its opportunities.
    Mr. Chairman, Ranking Member Corker, members of the committee--we 
all share a stake in, and a commitment to, the continued renewal of 
American leadership in the world. Congress plays a vital role in this. 
Our foreign policy is more effective and sustainable when it benefits 
from strong congressional engagement and oversight. Even when there are 
disagreements, I know firsthand and from both ends of Pennsylvania 
Avenue the imperative of open dialogue and working together. If 
confirmed, I look forward to working with you to advance American 
leadership and diplomacy, to deliver results for the American people 
and to make our country--and the world--more peaceful and prosperous.
    Thank you for your consideration.

    The Chairman. Well, thank you. That is a very riveting 
personal history. That is very insightful.
    Let me ask you a couple questions. As you know, the 
President has stated that he is interested in engaging Congress 
on a new AUMF. As you also may know, I am personally 
uncomfortable--and I understand all the claims of both 
constitutional and other authorities under existing AUMF's, but 
I am personally uncomfortable on relying on either the 2001 
September 11 AUMF and certainly the 2002 Iraq AUMF to prosecute 
action against ISIL. I think if you are going to have, as the 
President has clearly stated, a new prolonged military 
campaign, that that needs a congressionally approved AUMF.
    First of all, do you agree that we should be pursuing a new 
ISIL-specific AUMF?
    Mr. Blinken. Yes.
    The Chairman. The President has said that the 
administration would be presenting what he thinks needs to be 
the set of authorities in that AUMF. In my own view, such an 
authorization for the use of military force should be specific 
to ISIL and should not--and should include authority, I should 
say, to go after individuals and organizations fighting for or 
on behalf of ISIL, should be limited to 3 years or some other 
reasonable timeframe, should foreclose the possibility of a 
large-scale, enduring ground combat mission that we saw in Iraq 
from 2003 to 2011 as some of the elements of it.
    Do you agree that those are appropriate elements of an AUMF 
to address the ISIL-specific threat?
    Mr. Blinken. Mr. Chairman, without negotiating the 
specifics today, I think the elements you have laid out as a 
general matter would be appropriate. I know we have had some 
opportunity to discuss them and those would seem to me to form 
a good basis for a conversation on developing a new AUMF.
    The Chairman. Let me ask you on Ukraine. This committee has 
taken a forward-leaning view on a bipartisan basis about 
helping the Ukrainians not only financially, but also in 
defensive weapons. I know there has been a reticence by the 
administration to do that because we are going to, quote 
unquote, ``provoke the Russians.'' Well, I do not think the 
Russians need much provoking because they seem to be acting 
without provocation.
    They did it in the first instance when they invaded and 
ultimately annexed Crimea through irregular forces. Now, for 
the second time, with much less camouflage, they are engaged in 
having Russian troops, tanks, armored vehicles, surface-to-
surface missiles--some of which I witnessed when I was in 
Ukraine--taking place in the original time, and now we see even 
after the cease-fire it happening again.
    While I applaud the sanctions that the administration has 
pursued and this committee has supported, the reality is that 
unless there is a change in Putin's calculus which includes the 
cost of what he is pursuing in eastern Ukraine and from every 
information that we have seeking for that bridge to the sea 
there, that unless we change that calculus we are just going to 
see a continuous action moving forward.
    So can you give me your insights--I am not talking about 
the administration, National Secretary Council. I am talking 
about what your insights are if you were to be confirmed in 
this position, as to what you would say about those views?
    Mr. Blinken. Certainly. Thank you, Mr. Chairman. A few 
things. Since the beginning of this crisis, we have sought to 
do three things. We have sought to support Ukraine, and I will 
come back to that. We have sought to impose costs on Russia for 
its actions in Ukraine. And we have sought to reassure our 
partners, particularly in NATO. And we have been moving 
aggressively, at least in my judgment, on all three of those 
lines of effort.
    With regard to Ukraine, as you know, we have provided to 
date a significant amount of assistance, including about $100 
million worth of security assistance, and this includes 
everything from the infamous MREs and blankets, but also, as 
you know, things like night vision goggles, protective vests, 
countermortar radar--which is in fact just being delivered--
communications gear, transportation gear, et cetera.
    We have not, you are right, provided lethal defensive 
assistance. Part of the reason has been that in our judgment, 
as much as we are able to throw at the Ukrainians, anyone can 
give them in terms of lethal support, unfortunately, if the 
Russians choose to, they will outmatch that easily.
    That said, what we have seen in recent days and in recent 
weeks, including the blatant violation by Russia of the very 
agreements it signed, the Minsk Accords, which among other 
things require it to help reestablish the international border, 
to make sure that Ukraine has sovereignty over its own border, 
to make sure that that border is monitored and that there is a 
buffer zone--instead of doing that, it has gone in exactly the 
opposite direction. It has deployed more forces to the border. 
We have compelling information that those forces have been sent 
into Ukraine and sent to the separatists.
    So the question of defensive lethal assistance has never 
been off the table. It remains on the table. It is something 
that we are looking at, and indeed the Vice President will be 
in Ukraine in the next few days and I am sure that will be a 
topic of discussion.
    At the same time, Mr. Chairman, we have worked very hard to 
impose significant costs on Russia for its actions there. I 
believe we have. The challenge is that many of those costs will 
play out over time. But I think some of them are already 
visible and they are getting more and more visible.
    As a result of bringing the Europeans together on sanctions 
repeatedly, we have seen already a significant impact on the 
Russian economy. We have seen capital flight that is of great 
magnitude. We have seen foreign direct investment drying up. We 
have seen the ruble hit an all-time low. We have seen Russia 
having to dip into foreign reserves, $70, $80 billion.
    The Chairman. Let me interrupt you--but we have seen that, 
too, and we have also seen Putin continue to invade Ukraine. So 
while I appreciate that it is not off the table, if we do not 
exercise the--from my perspective, if we do not exercise the 
ability to give Ukraine defensive weapons, maybe Russia can 
overpower it if it chooses to do so--I will not dispute that--
but by the same token, the consequences of how many Russian 
sons will be sent back to Russia as a result of that has to 
affect Putin's calculation.
    The problem is that as time progresses that becomes an 
increasingly less likely proposition and less effective. So I 
hope that you are going to calculate that in a much more 
significant way, because, yes, the sanctions are biting, yes, 
there are consequences, and also yes, they have not deterred 
Putin from acting.
    Let me ask you one other question. There is a whole 
universe of the world to engage in here, so it is difficult. 
Let me ask you one other question. I specifically--working with 
Senator Rubio--looked at what was happening in Venezuela and 
said to ourselves: This is amazing; here in the Western 
Hemisphere you have a country that is violating its citizens' 
human rights simply protesting against its government, 
repressed by military force, and a country that, even though it 
has one of the largest oil reserves in the world, cannot put 
basic commodities on the shelves for its people. So people 
protest peacefully to try to make a point to their government.
    We were rebuffed by the administration in pursuing 
sanctions against the Maduro regime. We gave time for everybody 
who had some expectation of negotiations, and they were going 
to get there and bring Maduro to a different place. And guess 
what, we are in the same circumstances. We have the leader of 
the opposition in a sham trial where he cannot even present 
defenses, which tells you everything about the legal system in 
Venezuela. And if I go visit Venezuela, the screening process I 
have to go through is with Cuban security agents who run 
Venezuela's security.
    Can you really tell me that our policy there is a success 
or have we recalibrated and decided that at this point 
sanctions is an appropriate way to proceed?
    Mr. Blinken. Mr. Chairman, we share your views of the 
Maduro government and his leadership. We are working with 
partners in Latin America to see if they could, with us and 
others, get some of the opposition leaders out of jail, move 
forward on electoral reform. In doing that, they told us that 
sanctions at that point might be counterproductive, and we 
thought it was worth letting them try, with our support, to 
move forward.
    As we sit here today, that has not succeeded. They have 
tried. It has not produced results. So, given that, we would 
not oppose moving forward with additional sanctions. As you 
know, the administration took steps of its own this summer, in 
consultation with Congress, including visa restrictions on 
violators of human rights. But we would look forward to working 
with you to go further.
    I think there is still an opportunity to try to get a 
reformed electoral commission that brings the opposition onto 
the commission, that has Congress do that before it gets pushed 
to the Supreme Court, where of course nothing will happen. I 
think that is worth a shot and I would like to be able to work, 
if confirmed, with you on that.
    I would also say that you are exactly right, Maduro is 
going to have increasingly difficult problems delivering for 
his people. He needs oil to be at about $85 a barrel--and it 
is, of course, lower than that--in order for him to make good 
on his social contract. That is not happening. So I think the 
squeeze is getting tougher and tougher.
    The last thing I will say on this: My cousin went to school 
with Leopoldo Lopez, so, believe me, I hear from her regularly 
about his status and what we are doing to help him.
    The Chairman. Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    I, too, want to thank you for sharing the compelling 
stories of your family and again for your desire to serve in 
this way.
    I think you know this because we have had this 
conversation, and I am sure you have read this, but there has 
been some concern about the President's desire, it seems, to 
have people that are very close to him in various positions and 
to be very insular. While your role in your current job is one 
to champion the administration's policies, as you mentioned in 
your opening statement, this one is very different. One of the 
criticisms of the administration, I think, it would be hard to 
debate, although I am sure it would be debated, has been that 
he has been a day late and a dollar short on so many things, 
has been cautious, has had internal debates that protract. 
Things fester, things get worse, it is very difficult to 
overcome, as your conversation with Chairman Menendez about 
Ukraine.
    Do you believe you have the abilities in this other 
position to be a bulwark against this cautious navel-gazing and 
to bring clarity to foreign policy in a way that would allow 
our Nation to move ahead and show the leadership that you 
talked about in your opening comments?
    Mr. Blinken. Thank you, Senator. In my current job, my role 
has been to try to bring what we call the interagency together, 
so that every voice is heard as we deliberate policy, we bring 
all of these judgments to bear, and then we try and lift up a 
recommendation to the Cabinet, to the President. Part of that 
is a deliberative process to make sure that everyone is heard 
and we factor everything in.
    If I move over to the State Department, if confirmed, my 
job, among other things, will be to advocate strongly for the 
position of the State Department in those interagency 
deliberations, to do that and to try and move the process 
forward and to get decisions made.
    Secretary Kerry is someone who is, as you know, a very 
passionate and energetic participant in that process. We worked 
very hard to deal with what is an extraordinary number of 
challenges that are all coming, so it seems, at the same time. 
But I pledge to you that, if confirmed, that is exactly what I 
will try to do. I have to say, I have tried to do that in my 
current job. I recognize the frustrations that emerge and it is 
something that I will continue to try to do if confirmed.
    Senator Corker. Thank you for that. I know that is the same 
answer you gave in the office and I appreciate that.
    On Ukraine, to get specific, will you be urging, if 
confirmed, the Secretary of State to give lethal assistance to 
Ukraine now?
    Mr. Blinken. Senator, I believe that that is something that 
we must look at and look at----
    Senator Corker. I know looking at it is one thing. We have 
been looking at it now for a long time. The question is, yes or 
no: In this new position, as you leave the White House, where 
you have to be a part of whatever is decided there, will you--
again, just to raise the cost; we understand that Russia is 
always going to be able to overwhelm a country like Ukraine. 
But will you, yes or no, urge the Secretary of State to pursue 
a policy of arming with lethal support--appropriate lethal 
support that they are ready for, Ukraine?
    Mr. Blinken. I know this may not be a satisfactory answer. 
Here is what I can say. I have to keep what counsel I would 
give--what counsel I give now to the President, what counsel I 
would give to the Secretary of State if confirmed, private. 
That would be part of the job.
    But let me say this----
    Senator Corker. What is your own view?
    Mr. Blinken. I believe that, given the serious Russian 
violations of the agreement that they signed, the Minsk Accord, 
that one element that could hopefully get them to think twice 
and deter them from further action is strengthening the 
capacity of the Ukrainian forces, including with defensive 
lethal equipment. So that is why I think it is something that 
we should be looking at.
    Senator Corker. That is not as satisfactory as our 
conversation the other day, but I understand we are in a public 
setting.
    The AUMF that the chairman discussed. It has been the 
tradition, it is the standard, that when an AUMF is sought, as 
you mentioned is semi-being sought, although being sought in a 
very tricky way, that the administration seeks explicitly an 
AUMF and actually sends a draft up of what they would like for 
it to be, and then we begin the negotiations. do you believe 
that it is appropriate that if an AUMF is going to be written 
that the administration explicitly seek that and that you and 
your office are up here with a draft in direct negotiations in 
seeking that, yes or no?
    Mr. Blinken. Senator, first can I just thank you, the 
committee, you personally, the chairman, for the work that you 
have done in the past on the Syria AUMF a year ago, on the AUMF 
most recently.
    As you know, we have said that we would welcome an AUMF. I 
can tell you, not only would we welcome it, we would like it, 
and we would like to have a targeted, focused AUMF that deals 
with the challenge before us, which is defeating ISIL. The 
question is what is the best way to get something that gets 
bipartisan support, because we are much stronger if the 
executive branch and the legislative branch are working 
together and acting together, especially on issues of war and 
peace. And if we can get an AUMF that gets broad support, there 
is no question we will be better off.
    We have engaged, as you know, with you, with other Members 
of Congress, in recent weeks on an AUMF.
    Senator Corker. You have not engaged with me. That is 
totally untrue.
    Mr. Blinken. All right. Well, I know we have engaged with 
certain members. Let me tell you that, going forward from 
today, we will absolutely actively engage with you, with other 
interested members, on trying to come up with an AUMF that 
answers what is needed, which is something that is focused on 
ISIL, that preserves the authorities the President needs to 
take action in the national interest, and I hope has everyone 
coming together so that we can demonstrate that we are united.
    So the short answer is we want to work with you on that, we 
want to work with you on that in the days and weeks ahead.
    Senator Corker. A very important component of seeking an 
AUMF explicitly is laying out what it is the administration 
hopes to achieve. It is a very important element. And I know 
that when this was all announced this fall this was a half-
baked deal. I actually believe that General Allen and others 
are putting some elements together that are beginning to make 
some sense. But I think it is very important--beginning to make 
some sense, I might add. I think it is very important for you 
to explicitly ask for it and to come up here and explain fully, 
both in classified settings and in public settings, what the 
Nation can expect as an outcome if, in fact, this is 
authorized.
    On Iran, do you believe that Congress, who put the 
sanctions in place, working with the administration no doubt, 
do you think that Congress should have the right to vote on a 
deal that is maybe the biggest, one of the biggest, 
geopolitical decisions that is going to be made by this Nation, 
in the event an agreement is reached with Iran?
    Mr. Blinken. Senator, Congress will vote on any deal. It 
will have to vote on any deal, because any deal at the end of 
the day would include at some point the lifting of sanctions.
    Senator Corker. But if you suspend sanctions, which you can 
do, certainly the permanent lifting we have to vote on. The 
moment you suspend sanctions, you break apart the international 
coalition. And you know that, and Iran knows that, and that is 
why they have been urging you to suspend. We know that, because 
they know that the moment you do that and you actually begin 
the actual lifting under that expansion you have broken apart 
the entire coalition that has put these sanctions in place.
    So do you not think on the front end that Congress should 
play a role? I am not talking about on the permanent lifting, 
that could be, by the way, years down the road. I am talking 
about on the front end.
    Mr. Blinken. Our view would be that we would not even 
suspend sanctions until Iran has taken significant steps to 
comply with any agreement that is reached. We have to see that 
first before suspension.
    Senator Corker. I understand that.
    Mr. Blinken. And then, precisely because the hammer that 
Congress has wielded and has held over the heads of the 
Iranians has been so effective, we want to keep that in place 
as long as possible. We also want to make sure that there is a 
snapback provision so that if any sanctions are suspended, not 
lifted, if Iran violates the agreement or cheats in any way, 
the sanctions can be snapped back with some automaticity to 
avoid exactly the problem that you rightfully raise.
    Senator Corker. And that addresses them violating the 
agreement.
    Mr. Blinken. Absolutely.
    Senator Corker. What it does not address is on the front 
end, if Congress believes the arrangement you have reached, 
even if they honor it, is unacceptable. So again I would just 
ask, having come from this committee, stepping into now an 
independent position if confirmed, do you believe that we 
should have the opportunity to give an approval of an agreement 
that has so much to do with the future of that region and the 
world?
    Mr. Blinken. I think if we get to an agreement and are able 
to reach one, one of the things that we need to talk about and 
work together on is how we can most effectively work together 
to make sure that it is implemented and the Iranians make good 
on their commitments. So there may be schemes under which 
Congress, acting at certain times in certain ways, will make 
that more effective. We should talk about that. Not knowing 
right now what any deal is going to actually look like, what 
the terms will be, what the commitments will be, what the 
timelines will be, I think it is something we should come back 
and talk about and figure out how we can most effectively 
continue to work together to make sure any deal is implemented.
    Senator Corker. Thank you.
    The Chairman. Senator Cardin.
    Senator Cardin. First, Mr. Blinken, thank you very much for 
your public service and thank you for sharing your family's 
story. It is inspirational.
    I just want to underscore the point that Senator Corker 
just made, because I think there is bipartisan support for the 
comments that we must be together. I think there is concern. 
First, I want to compliment the administration for keeping the 
coalition together and keeping the sanctions in the position 
where it has kept Iran at the negotiating table. You have been 
effective in doing that.
    There is concern that there will be some agreements reached 
in the very near future, by the 24th, that may jeopardize the 
unity of the sanctions moving forward. I would just urge you in 
the strongest possible terms to work with Congress so that we 
are together on the strategy moving forward with Iran.
    Our greatest hope is that you reach a comprehensive 
agreement that prevents Iran from having a breakout capacity 
for a nuclear weapon, with inspections, et cetera. We look 
forward to that. If that is not the case, then I think it is 
critically important that we understand and are together on the 
strategy moving forward and that we are together in our resolve 
that Iran will not become a nuclear weapons state. I would just 
urge you to listen to what Senator Corker has said, because I 
think there is strong support in Congress for the statements 
that he made.
    I want to underscore a point that Chairman Menendez said. 
We were talking about the sanctions in our hemisphere that you 
have imposed on visas. I also applaud the administration for 
imposing visa restrictions on Hungary in regards to six 
individuals who were implicated for corruption. Senator McCain 
and I have authored legislation that would make the Magnitsky 
sanctions global, which are basically visa bans, but add the 
ingredient that Congress can initiate a required review by the 
State Department on matters that we believe should be subject 
to consideration of visa restrictions.
    You and I had a chance to talk and I very much appreciate 
your commitment to basic human rights and your understanding 
that the U.S. national security very much depends upon stable 
regimes respecting human rights, and that we need to be more 
open about that and making that more of a priority.
    My point for raising that is that I will be looking for 
your leadership as to how we can move forward while making it 
clear that this country stands strongly in support of human 
rights, and that we will look at ways that countries are 
fighting corruption. Ukraine is a good example. We are all 
outraged by what Russia has done. We have provided a great deal 
of support. We are working with their economy. But they need to 
deal with their problems of corruption. We just had a hearing 
of the Helsinki Commission today and that was the centerpiece.
    I want to ask you a question following up on the point that 
I raised in regards to a provision dealing with the mineral 
rights of countries and the provision that was included in the 
Dodd-Frank law, known as the Cardin-Lugar provisions, that the 
SEC is still struggling with. It requires transparency from the 
extractive industries.
    The court sent back their first rulings because of First 
Amendment concerns and the SEC it is now prepared to issue its 
new regulations. The reason I bring it up is that the SEC is 
required to consider First Amendment issues, which they should, 
and one of the major concerns that was expressed by the 
administration when Dodd-Frank was moving forward was our need 
for stable energy supplies and the importance for transparency 
and the importance of investors knowing what countries are 
doing and where the funds are going.
    It is my understanding that the communication from the 
State Department and the administration could be critically 
important to the SEC in underscoring the importance to our 
country of stable energy supplies. I would just urge you to 
please follow up on that, because time is running out on this 
issue.
    If you want to respond, that is fine.
    Mr. Blinken. Thank you very much, Senator. Let me just say 
very quickly, if confirmed I welcome following up. Even if not 
confirmed, if there is anything I can do to be helpful----
    Senator Cardin. You still have a day job.
    Mr. Blinken. For the time being, thank you.
    I just wanted to underscore one thing you said because I 
think it is so important: corruption and the work that you have 
been doing and the other members of this committee have been 
doing to combat corruption. One of the things I think that is a 
common denominator around the world of virtually every popular 
movement we have seen, whether it is in Ukraine or whether it 
is the Arab Spring, has been people rising up in disgust at 
corruption. It is one of the most powerful instigators of 
change.
    We have been working in a very deliberate way over the last 
6 years to focus on this issue. I think there is more that we 
can do and particularly more that we can do working with 
Congress. One of the issues I would welcome working on, if 
confirmed, with you and other members of the committee, are the 
efforts the United States is making to combat corruption, 
because we see it everywhere as an instigator of change and 
there are ways that we can use it effectively to help advance 
the kind of change that we would like to see.
    Senator Cardin. I thank you for that, and I agree with you 
completely. In Tunisia, the Ukraine, it was about corruption; 
it was not about who was President or who the government was.
    We just saw the recent tragedy in Israel at the synagogue, 
a barbaric act. Three Americans were killed. One was a relative 
of a constituent of mine, Judge Karen Friedman. So this hits 
us. It is against our own country in a way. If this happened in 
America there would be justified outrage and demand that our 
country take steps to protect the security of our country.
    Israel always seems to be placed on the defensive when it 
come to defending its own people. Its only strong ally is the 
United States.
    Will you continue to speak up for Israel's obligations to 
defend its citizens against these types of barbaric actions and 
preparing itself to defend the security of its own country?
    Mr. Blinken. Absolutely. Senator, the United States has, 
is, and will continue to stand sentry, even if it is alone, 
against threats to Israel and against any attempt to undermine 
Israel's legitimacy. We do it day in and day out around the 
world in international organizations. Secretary Kerry is often 
at that post, again alone sometimes. We will do it as long and 
as hard as it takes. We will always be there.
    What we saw this week was especially barbaric. Any 
terrorist attack is horrific. To do something in a place of 
worship is even beyond the pale of what we have seen before. 
You heard the President condemn it. Immediately the Secretary 
of State was on the phone with Prime Minister Netanyahu. 
President Abbas condemned it. Unfortunately, we saw Hamas' true 
colors come out in a statement glorifying it.
    These murderers represent the extremism that threatens to 
bring the region into a bloodbath. So I think the first job--
and it is incredibly difficult, especially when passions are 
high--is for leaders to work to lower tensions, to reject 
violence, because majorities want peace. They want to work 
toward that. And we will work with anyone who wants that. We 
will work to isolate anyone who does not.
    I have to tell you as well, these kinds of attacks are 
personal to me. I have a cousin who lives in Tel Aviv with her 
husband, her daughter, two sons. The daughter recently 
completed her military service. During Gaza this summer, her 
eldest son was in military training, and indeed he was training 
for the engineering unit that was the one that was going in to 
deal with the tunnels and the bombs. He was not deployed during 
Gaza, but he is now deployed. And another son is coming of 
military age.
    We were getting emails from her throughout the summer about 
what it was like to live under the threat of these rockets and 
terrorists tunneling underground to try and kill or capture 
civilians. She talked about how the bomb shelter that they had 
at home, that is usually a storage room, now a bomb shelter. 
She talked about how, riding to work on her bike, she would 
ride with one earpiece out so that she could hear an air raid 
siren. She talked about living on a 90-second timer because 
that is how much time you have to get to a bomb shelter if the 
siren goes off. This is something that I feel is real, it is 
visceral.
    We also saw the terrible tragedy of civilians and children 
being killed in Gaza. And I thought to myself as well, getting 
these emails from my cousin, what are Palestinian American 
mothers and fathers writing home to their families here about 
what they have experienced? We have to somehow remember the 
humanity that lies at the heart of all these situations. This 
is at the end of the day about men and women, mothers and 
fathers, daughters and sons. If we lose sight of that, we 
really lose.
    But one thing is for sure and it is unshakeable. We have a 
fundamental commitment to Israel's security and to stand with 
Israel whenever and wherever it is under threat. I am very 
proud of the record of this administration in doing just that 
and it is something that will continue as long as we are 
acting.
    Senator Cardin. Thank you.
    The Chairman. Thank you.
    Now, let me, for the edification of the members, advise you 
of what my intention is. My intention, since there are votes at 
3 o'clock, is to ask Senator Kaine to take the chair shortly 
before. I am going to go vote and come back, try to keep this 
going as long as we can so that members can get their questions 
in. So if you are a little further down the rung before asking 
your question, you might want to go vote so you can come back 
and ask your question.
    Senator Risch.
    Senator Risch. Thank you, Mr. Chairman.
    Mr. Blinken, Monday is the 24th of November. What can we 
expect on Monday?
    Mr. Blinken. Senator, as you know, the negotiating teams 
are engaged at this very moment----
    Senator Risch. Understand.
    Mr. Blinken [continuing]. On working toward an agreement. 
So I do not want to prejudge what may happen or may not happen. 
Right now, I think it is going to be difficult to get to where 
we want to go. It is not impossible. It depends entirely on 
whether Iran is willing to take the steps it must take to 
convince us, to convince our partners, that its planning would 
be for entirely peaceful purposes. As we speak, we are not 
there. The Secretary of State is prepared to engage directly 
and personally if we have enough to go on to move this over the 
goal line. But it is literally a minute-to-minute, hour-to-hour 
thing. I was getting emails before coming here.
    As we speak, I can not tell you what to expect. I can tell 
you that in the days ahead as we move toward the 24th we will 
continue to be in very close consultation with you, with the 
Members of the Senate, with the Members of the Congress, on 
where we are, where this is going, and then, depending on where 
this goes, to work with you to figure out what the most 
effective next steps would be.
    I wish I could tell you today, are we going to get a deal, 
are we not going to get a deal. I just can not.
    Let me add one thing, though. We have been very clear that 
we will not take a bad deal, period. Any deal that we achieve 
has to effectively cut off Iran's pathways to a bomb. It has to 
deal with the Arak facility and its ability to develop a weapon 
through a plutonium path. It has to deal with Fordow, the 
buried facility, where it was before the interim agreement 
producing 20 percent. It has to deal with Natanz and an effort 
to accumulate a large number of centrifuges and a large 
stockpile and be able to produce material for a bomb very 
quickly. And it has to deal as effectively as possible with the 
potential for a covert program by having an unprecedented 
inspection and access regime. Then we will also have to deal 
with the possible military dimensions of the program, with 
missiles, and with the sanctions piece that we talked about 
earlier.
    So as you evaluate anything that we are able to produce, 
you will rightly and appropriately evaluate it against all of 
those lines. That is what we need to be talking about as this 
moves forward, and I pledge to you that in the days ahead and 
the weeks we will be in very close contact as we see if we can 
get there.
    Senator Risch. I appreciate that. The operative words here 
are good deal versus bad deal. I have heard people from the 
State Department sit in the exact same chair you are sitting in 
and describe the last couple of deals as good deals. I have to 
tell you that I speak for myself, but I think probably for some 
other members of this committee, and that is our understanding 
of what a good deal is differed greatly from what the State 
Department's version of what a good deal was.
    As you know, I was very critical of it. Other members of 
this committee were very critical of it. I certainly hope I do 
not have to be put in that position again.
    I could not agree with you more. In fact, we told the 
Secretary of State just what the administration has been 
saying, and that is no deal is substantially better than a bad 
deal. Once that bad deal happens, you will never get that genie 
back in the bottle again and we are going to wind up having to 
live with what could be a very, very difficult situation.
    So I caution you in that regard. I hope our definition and 
the State Department's definition of what is a good deal is 
substantially closer to the same point than it has been in the 
past.
    Let me make a parochial pitch here that I have over and 
over and over again, and particularly to Wendy Sherman, who sat 
in that chair. I have a constituent that is being held there, 
Pastor Abedini. There is absolutely no reason he should be in 
prison in Iran. In addition to that, there are two other 
Americans that are there that are under the same circumstances, 
that should not be there.
    It absolutely escaped logic to me why we released the 
billions of dollars that we did without demanding that those 
three be released before a penny changed hands. I just do not 
get it. Knowing how badly those people wanted the money, I just 
cannot understand why that was not the last consideration, the 
last requirement that was put on the table before the money 
changed hands.
    I heard Wendy Sherman talk about it. There was a lot of 
talk. I still do not understand it. I would one more time say 
that if you do get close to that, that ought to be paragraph 
number 236 or whatever the last paragraph is, that this thing 
does not become operative until those three people walk free.
    Again, just listening to you, I do not sense a lot of 
optimism that we are going to get to that point. But should we 
get to that point, I want to urge you in the strongest terms to 
see that those three people are turned loose and we can welcome 
them back here to America and my constituent back to Idaho.
    Thank you, Mr. Chairman.
    Mr. Blinken. Senator, could I just say, first of all, thank 
you. I want you to know that every single day we are working 
for the release of Mr. Abedini, but also any other unjustly 
imprisoned American around the world. This is something that we 
are not only focused on, we are fixated on.
    The only thing that we talk to the Iranians about other 
than the nuclear agreement on the margins of these 
conversations are the American prisoners who are there. This is 
something that we are determined to resolve. We are determined 
to bring our people home. You have my assurance that, if I am 
confirmed for this job, that will be at the very top of my 
agenda.
    Senator Risch. Well, thank you very much. If I can put a 
little more strength into that, you know, there is a human side 
to this that never gets talked about. Mrs. Abedini lives in 
Boise, ID. She has children. The children have not seen their 
father for some time. They have family there. They have a close 
circle of friends there. This has a human component that does 
not get talked about. These people want their father, their 
husband, home very badly. I am glad to hear what you are 
saying, but I will be much happier when actual action takes 
place.
    Thank you very much.
    The Chairman. Thank you.
    Senator Shaheen, and I will ask Senator Kaine to preside.
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you, Mr. Blinken, for both being here today and for 
your willingness to continue to serve the country. I want to 
follow up on Senator Risch's questions about the Iranian 
negotiations, because reports about those negotiations have 
suggested that, as you just did, that we are not close to 
reaching an agreement and that another extension might be 
something that people could agree on.
    What positive signs or movement do we need to see in order 
to agree to another extension? Because I assume we would all 
argue that unless we think there is some reason to continue 
these negotiations we should not do that if they are not going 
anywhere.
    Mr. Blinken. Senator, thank you. Here is the challenge. We 
are driving to the 24th. We want to see if we can get an 
agreement that answers our requirements, the requirements of 
the international community, and that is what we are focused 
on. As I said a moment ago, right now, if I am judging where we 
are, I think it will be difficult to get there, but not 
impossible, and it really depends on whether Iran can get to 
``Yes.'' The short answer is we do not know.
    I do not want right now, at this delicate moment in the 
negotiations, in a public setting to get into the details, 
because we really have to leave that, and you will understand 
why, with the negotiators. However, I know that some of my 
colleagues were up on the Hill yesterday in a closed session 
going through in much more detail some of the elements of what 
we are looking for. I know that in the days ahead we will be 
doing more of that. I would welcome any opportunity certainly 
to talk individually or collectively, in the right setting, on 
those issues.
    But at least as a public matter, I have to leave it to the 
negotiators to try to have to the flexibility to do the job and 
get the job done.
    Senator Shaheen. Well, thank you. Again to follow up on 
Senator Risch, I do hope that, in looking at an extension of 
negotiations, that we have some clear signs there is potential 
for movement if we are going to extend on our end.
    To follow up on what is happening with ISIS, can you talk a 
little bit about the new administration in Iraq and whether 
they are making sufficient progress on engaging with the Sunni 
population so that we are seeing any real change there?
    Mr. Blinken. Senator, you have raised a critical question 
and it goes to the heart of what we are trying to achieve and 
indeed what is necessary to achieve if there is going to be 
success against ISIL. One of the many failures of the previous 
Iraqi administration is that it failed to not only engage, but 
address, the legitimate grievances of the Sunni community. That 
created an environment in which large parts of that community 
either acquiesced to ISIL when it rose up or indeed even went 
into league with it because it saw it as the only way to 
advance its interests.
    When Prime Minister Maliki, the former Prime Minister, was 
here in November 2013, I think before ISIL was on the map for 
most people, the President said to him in their meeting: The 
number one challenge you have is Al Qaeda in Iraq/ISIL--it was 
becoming ISIL--and we want to give you, and we are working to 
give you, the equipment and assistance you need to deal with it 
as a counterterrorism and military matter, but that is not 
enough. You have to deal with this problem comprehensively, you 
have to engage the Sunnis, you have to address their legitimate 
grievances. Otherwise we will not succeed. And, as we know, he 
did not.
    The new government was one of the conditions that the 
President set before launching the comprehensive effort that we 
are making to counter ISIL and ultimately defeat it, precisely 
because absent a government that was willing to engage the 
entirety of Iraq, to work with the Sunnis, to work with the 
Kurds, that strategy could not effectively succeed.
    What we have seen, I think, is significant progress. I was 
in Iraq about 4 weeks ago for a week. I spent a lot of time 
with virtually all of the leadership in Baghdad on all sides: 
military leaders, economic leaders, all of the government 
leaders, the President, the Prime Minister, the head of the 
Council of Representatives, political party leaders. What I 
found was that virtually everyone was giving the benefit of the 
doubt to the Prime Minister and the new leadership to try to 
move the country forward.
    He has taken a number of very significant steps already. 
First, the former Prime Minister, Maliki, had established 
something called the Office for the Commander in Chief to 
basically short-circuit the military and have it report 
directly to the Prime Minister's office and make it his 
personal service, which was a disaster. Prime Minister Abadi 
eliminated that office and fired the people in charge.
    Last week he fired 36 generals, many of whom were beholden 
to the previous government, had a sectarian agenda, or were 
incompetent. That was significant.
    Maybe most significant of all, there is a national program 
that they need to move forward on to address legitimate 
grievances of the Sunnis, but also they are seized with an idea 
that we have been working with them on and that is to form a 
national guard. What that would do would be to enlist from 
local communities and provinces people to protect those 
communities and provinces. So in the Sunni areas you would be 
enlisting Sunnis to protect their own. But they would be 
tethered to the state because it would pay their salaries and 
provide them with equipment.
    This would build on and in a sense institutionalize 
something that was so successful in the 2006-2007 period and 
that was the Sons of Iraq during the surge. There is tremendous 
promise there.
    It is going to take a little while to get that stood up. So 
meanwhile we have been working with the Iraqis--and the 
government is really pushing this--on a bridging mechanism to 
get there. That is, how can we now deal with the fact that many 
of these tribes want to work with the government, they see 
their future is better with Iraq than it is with ISIL, but they 
need support, they need equipment, they need money? So the 
government is working on a program, with our support, to bring 
in about 5,000 tribesmen, to pay them, to equip them, to get 
them working with Iraqi Security Forces right now to deal with 
ISIL.
    So I came away from my most recent trip and from virtually 
daily engagement believing that the Prime Minister is moving 
things in the right direction, he is reaching out, he is 
engaging, and if that succeeds that offers real promise to our 
overall efforts.
    Senator Shaheen. Thank you. I am almost out of time, but 
when we spoke on the phone we talked about the special 
immigrant visa program and the need to make sure that that 
moves forward. I wonder if you can tell me what we are hearing 
from Afghanistan now as we are looking at the drawdown of our 
troops and the importance of that program and whether we are 
going to be able to provide the visas that are required for the 
people who are being threatened?
    Mr. Blinken. Senator, first I want to commend your 
leadership on this issue. It has been absolutely instrumental 
in answering an obligation that I believe we have, and that is 
this program, addressed specifically to people in Iraq and in 
Afghanistan who have gone to work with us, who put their lives 
on the line for us, who put their families on the line by their 
association with us, deserve our every effort, if they qualify, 
to bring them to the United States and out of harm's way.
    This is something that I have been focused on in my current 
capacity. It is something I believe in deeply. In Afghanistan, 
in a sense because of the success that we have had, we are 
running up against the limit and we need to be able to do more. 
We want to work with you very actively and aggressively to be 
able to do that, because we cannot abandon these people who put 
themselves on the line for the United States.
    So I look forward, if confirmed, to working with you on 
those issues, and I really thank you for everything that you 
have done to date.
    Senator Shaheen. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Kaine [presiding]. Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    Mr. Blinken, again thank you for your service and your 
willingness to serve. I want to first acknowledge the fact that 
these issues you are dealing with, these problems, are 
enormously challenging. There is nothing easy about them 
whatsoever. What I want to try and find out during my 
questioning is, Have you, has this administration, learned from 
the misjudgments, past mistakes? Are we willing to recognize 
reality?
    We talked a little bit earlier about Ukraine. I have heard 
members of the administration repeatedly talk about how 
Vladimir Putin is looking for off-ramps. I believe Vladimir 
Putin is looking for nothing but on-ramps. Can you just give me 
your evaluation of that? Do you really think that he is looking 
for a way out of this, a way out of this situation, or is he 
really looking to continue to be aggressive?
    Mr. Blinken. Thank you very much, Senator. In my judgment, 
President Putin has managed to precipitate virtually everything 
he sought to prevent through this crisis and through the 
aggressive actions he has taken in Ukraine. Ukraine is now more 
Western-oriented than it has ever been and indeed it has more 
of a national identity than it has had, and in effect, even 
with the terrible aggression in eastern Ukraine and Crimea, he 
has lost the bulk of the country.
    He has precipitated as well NATO being more energized than 
it has been, Europe more focused on energy security. We talked 
a little earlier about the economic----
    Senator Johnson. I really want my question answered. Is 
Vladimir Putin looking for off-ramps?
    Mr. Blinken. To get to your question, because it is a very 
important one, I agree, Senator, here is the challenge. This is 
at least in my judgment. What has happened is this. President 
Putin has probably lost his ability, as a result of their own 
mismanagement of the economy and in my judgment as a result of 
the pressure exerted, to deliver effectively for his people 
economically. Of course, oil prices have played a big part in 
that. That leaves him with one card and that is the nationalist 
card. When you play that card, I think in the short term it can 
be beneficial. You rally people around the flag, your numbers 
go up, and we have seen that.
    Here is the problem. If you stop playing the card, people 
then start to focus on the fact that actually things are not 
going so well and you have led them down the wrong path. So 
that is why this is the challenge. He does need an off-ramp. 
Otherwise he will keep playing the card, he will keep taking 
steps that are dangerous and destabilizing and that are going 
to create even greater conflict.
    So we thought, and we continue to believe, that the Minsk 
agreement that Russia signed was an appropriate off-ramp, if 
that is what you like to call it, for Russia and a way of 
moving forward to help Ukraine regain its sovereignty. 
Unfortunately, to date----
    Senator Johnson. He is not taking it.
    Mr. Blinken [continuing]. He has not taken it.
    Senator Johnson. I thought President Poroshenko gave an 
extraordinary speech before a joint session of Congress. What 
was your reaction, what was the White House's reaction, to 
President Poroshenko reminding all of us that you cannot defeat 
Soviet aggression with blankets?
    Mr. Blinken. We saw the President shortly after his speech 
to Congress and the President met with him, the Vice President, 
and others. And we have talked about this a little earlier in 
this, in today's session. We have worked very hard to support 
Ukraine across the board. We have worked to develop 
international support for its economy. We produced a package 
initially of $27 billion from the international financial 
institutions, the Europeans, and others. We are working now, as 
you know, to add----
    Senator Johnson. We covered that ground. What was the 
reaction? Did it have any effect whatsoever on this 
administration's attitude?
    Mr. Blinken. You asked at the outset, Senator, Do we go 
back? do we revisit things? do we rethink things? The short 
answer is ``Yes,'' we do, almost literally every single day. As 
I noted earlier, we provided a significant amount of security 
assistance to date, more than $100 million. Again, it is beyond 
the blankets and the MREs. It really is things that matter in 
the field to the Ukrainians, as well as technical advice, 
assistance, et cetera.
    That said, as I said earlier, we are continuing to look 
actively every day at other forms of assistance, including 
defensive lethal assistance.
    Senator Johnson. Okay. Let us shift to ISIS and Iraq. I 
happen to believe it is a historic blunder, a strategic 
blunder, not leaving a stabilizing force behind in Iraq to be 
the glue to hold that coalition together. What was your 
reaction in January 2014 when you heard President Obama 
basically imply that ISIS was a JV team? Did that surprise you, 
that the President of the United States would say something 
like that?
    Mr. Blinken. Senator, I think as I recall the context of 
those comments was a distinction between terrorist groups that 
were focused inwardly and did not have an agenda that planned 
to attack the United States or, internationally, that did not 
have an international jihadist agenda and were focused 
primarily on their own countries. That was the distinction that 
was being made in that context. That is my recollection of it.
    Senator Johnson. My recollection is you had the President 
of the United States trying to minimize the threat of a group 
like ISIS. Were you aware of the threat, the growing menace, 
that ISIS represented to not only the region, but also to the 
world?
    Mr. Blinken. Absolutely. Let me, if I can, just tell you a 
little bit about that. And we can certainly talk about the 
drawdown and withdrawal from Iraq at the end of 2011. I am 
happy to come back to that.
    From the moment that we withdrew our troops from Iraq, we 
worked literally from January 2012 to work our way back in to 
help the Iraqis develop a more effective means to deal with 
what was then Al Qaeda in Iraq and became ISIL. We said to the 
Iraqis at the time: You are making a big mistake if you take 
your foot off the throat of AQI. At that time they were down. 
The senior leadership had been decimated, the Iraqis were 
feeling overconfident.
    But the fact of the matter is at that point in their 
history they wanted America out of Iraq.
    Senator Johnson. Do you agree that was a mistake, to not 
leave a stabilizing force behind in Iraq? Do you think that 
policy has worked?
    Mr. Blinken. I believe that we tried to leave a stabilizing 
force, precisely because we thought that having the ability to 
help the Iraqis develop a more effective counterterrorism means 
was necessary going forward. From 2012 on, we started to work 
aggressively to help them build up their capacity to deal with 
counterterrorism. We worked with them on developing targeting 
cells, on bringing more intelligence in, on arming them more 
effectively.
    The year 2012 was an exercise in frustration. They did not 
see the problem. We pushed it. I worked with David Petraeus, 
who was CIA Director at the time, to do that. The Arab League 
summit came around in March 2012. We said: We will bring you 
ISR--intelligence, surveillance, and reconnaissance--to help 
protect the summit, and we thought that was a means to get 
better eyes on what was going on in Iraq, including the al-
Qaeda threat. It became public. They would not do it.
    But let me just quickly tell you what happened after that; 
2013 rolled around and all of a sudden the Iraqis began to be 
seized with this problem because they saw ISIL emerging in 
Syria and spilling over into Iraq. They saw that they had a 
problem that we had been warning them about for more than a 
year. For a year starting in 2013, we led an effort and I led 
an effort to make sure that we were getting to the Iraqis the 
equipment they needed, the technical advisers and assistance 
they needed, the targeting cells, the ISR. We started to work 
with Congress on getting them more. And throughout 2013 I led 
14 meetings of the Deputies Committee on that very issue. We 
were seized with this before ISIL was in the public eye.
    Senator Johnson. Just one quick question. When you lay out 
a goal to degrade and ultimately destroy ISIS, do you think it 
is wise to signal to your enemy what you may or may not do to 
accomplish that goal? In other words, no combat troops on the 
ground. Do you think that is wise to signal? Whether you intend 
to do it or not, do you think it is wise to signal that to your 
enemy?
    Mr. Blinken. What we have focused on in designing this 
campaign to deal with ISIL is a comprehensive effort that works 
on a military line of effort, but also dealing with the foreign 
financing, dealing with the fighters, dealing with the 
ideology.
    On the military piece, we believe that it is not necessary 
and indeed it is not sustainable to have a repeat of what 
happened a decade ago, which was to have a large and indefinite 
American deployment of forces into Iraq or anywhere else to 
deal with this problem. What we believe is more effective and 
more sustainable is to strongly support a partner on the ground 
with air power, with intelligence, with training and equipping, 
with advisers, and they will then do the fighting to fight for 
the future of their own countries.
    I believe that in Iraq we have the foundation and the 
makings of being able to do just that. We are working on the 
same thing in Syria. We believe that is the most effective and 
sustainable way forward to deal with the problem.
    Senator Johnson. But taking----
    Senator Kaine. I am sorry. Senator Murphy.
    Senator Johnson. Thank you, Mr. Chairman.
    Senator Murphy. Thank you very much, Mr. Chairman.
    We have got votes on the floor, so I am going to try to be 
brief. A couple questions. Thank you for your service, Mr. 
Blinken. Long days, long nights. It is not going to get any 
shorter in your new capacity.
    I want to ask you a quick question about your new job. You 
have done a good job of defending the administration's policy 
here this morning. Mark Mazzetti of the New York Times wrote a 
brilliant book a couple years back about the massive buildup of 
military capabilities at our covert agencies and the great 
frustration that exists at elements of the State Department 
when they are trying to conduct diplomacy abroad--he 
specifically was writing about a period from 2010 to 2012 in 
Pakistan--when they do not know what is coming at them from 
secret drone strikes in that instance, but other activities in 
other parts of the world.
    We find the same frustration here when we are trying to 
evaluate whether or not we should authorize an overt arming and 
training of Syrian moderate rebels and we ask the question, 
well, what have we learned from the activities that have been 
openly reported thus far, we cannot get that information.
    It strikes me that we have seen a massive outsourcing over 
the last 10 years of diplomacy from the State Department to the 
military and a substantial outsourcing of military activity 
from the Department of Defense to the CIA and to covert 
authority. You are moving from having an umbrella view of all 
of those activities to now a narrower window within the State 
Department, and I think you will find many people in that 
agency who have some serious questions about whether they can 
do their job when you have this level of activity occurring 
without oversight from the State Department or from this 
committee, which is charged with overseeing American foreign 
policy.
    I would love your thoughts about what mentality you are 
going to bring to the State Department, having viewed this in a 
more robust lens at the National Security Staff?
    Mr. Blinken. Senator, I think that is a very important 
question and it is one that we grapple with literally every 
day. Part of my responsibility right now in my current job--
indeed, it is at the heart of the responsibility--is to bring 
the entire interagency together on any problem, to make sure 
that not only is every perspective and voice heard, but to make 
sure indeed that each agency and Department knows what the 
other is doing.
    So when we have a meeting of the so-called Deputies 
Committee that I chair, not only is every agency there that is 
relevant to the question; we bring in, thanks to video 
technology, our ambassador from the field. We bring in, as 
appropriate, the station chief in the field. We bring in the 
relevant combatant commander or general in the field, precisely 
because we want to make sure that everyone knows and has full 
visibility onto what everyone else is doing, and to make sure 
that the appropriate departments and appropriate agencies and 
appropriate actors are the ones carrying out the appropriate 
responsibilities. That is something that is essential to the 
proper functioning of our government and our foreign policy, 
and it is something that I focus on every single day.
    If I am confirmed and move over to the State Department, I 
will get to move one seat down on that table, off of the 
chairman's seat and one seat down. But I will continue to bring 
that perspective to bear on those deliberations, because what 
you pointed to is vitally important and it is the only way we 
can function effectively. Our ambassadors have to know what is 
going on from other agencies. The other agencies need to know 
what our diplomacy is doing. That kind of communication, 
coordination, if it does not happen it does not work.
    Senator Murphy. I would just argue for a historical 
realignment whereby diplomats are doing diplomacy, our 
warfighters are doing what they do best, and that our covert 
agencies are gathering intelligence. They have always done 
operations, but this is a pretty unprecedented scale.
    Just one question on Russia and Ukraine. All of the 
conversation has been about--most of the conversation on this 
committee has been about whether we arm or whether we do not 
arm the Ukrainians. But it seems to me a lot of the 
conversation misses the broader picture, which is that Russia 
is employing a set of tools that is unprecedented. Somebody 
referred to a new phrase I had not heard of yesterday, that 
Russia has militarized information. They are using information, 
propaganda, payoffs, support for NGOs, in a way that we have no 
understanding of and no ability to match.
    Now, we do not necessarily want to go tit for tat, but 
instead of spending all this time talking about what specific 
arms we are going to give to the Ukrainians, we should be 
paying attention to what Russia is doing today in Latvia, in 
Estonia, in Serbia, in Montenegro, to essentially try to prep 
the next set of crises. Hopefully, this committee will be able 
to grapple with the need to have a much more robust 
conversation about how we meet those new Russian tactics.
    Hopefully, I think you understand that, but it would be 
great to see some real proposals coming out of the State 
Department, some new innovative proposals about how we revamp 
programs like Radio Free Europe so that it has any semblance of 
a chance to match up against what the Russians are providing in 
the periphery of their area of influence.
    Mr. Blinken. Senator, let me just say very briefly that 
that is something that, if confirmed, I would welcome working 
with you and other members of this committee on. You are 
exactly right, Russia has a panoply of asymmetric tools to 
wield influence in countries on its periphery, and we see that 
every day in the Baltics. We obviously see it in Ukraine and 
Georgia and Moldova. We see it in the Balkans and places 
farther flung.
    For us to be effective, we have to be focused on that as 
well, and indeed we are. It is something we welcome working on 
with you. We have--just a small point on this, and in the 
context of Ukraine, we immediately stood up an effort that our 
Under Secretary for Public Diplomacy, Rick Stengel, has been 
running to work on countering the messaging, which is very, 
very strong and effective. You know the Russian propaganda 
machine at home. That is something we are working on very 
vigorously every day.
    But the larger point that you make, this is an area where I 
think we could very profitably work together and I welcome 
doing that if confirmed.
    Senator Murphy. Thank you, Mr. Chairman.
    The Chairman [presiding]. Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    Mr. Blinken, on March--oh, by the way, over the weekend I 
was at a seminar, a panel with former Secretary Gates, former 
Secretary Panetta, and also former National Secretary Adviser 
Mr. Hadley. All of them strongly disagree with every one of 
your assertions here, particularly about the diminution of 
American power and influence throughout the world, including 
the fact that they said again, including Ryan Crocker, one of 
the most respected members of the diplomatic corps, have all 
said the administration could have succeeded in keeping United 
States troops in Iraq after 2011 if it had been more creative 
and determined. You and I had that discussion in my office and 
you made some assertions which are just patently false, which 
was very disappointing to me.
    In March 2012 you said: ``What is beyond debate is that 
Iraq today is less violent, more democratic, and more 
prosperous and the United States more deeply engaged there than 
at any time in recent history.'' I vehemently disagreed with 
that at the time. So did the rest of us. Now, will you admit 
you were wrong in that assessment?
    Mr. Blinken. Senator, at the time----
    Senator McCain. Yes or no, will you admit that you were 
wrong with that assessment?
    Mr. Blinken. At the time I made that--I stand behind the 
words I said at the time. I think they accurately reflected 
where we thought----
    Senator McCain. Even though we knew, we knew, that if all 
the troops were going to be removed that the ensuing situation 
would evolve, and predicted it. And you were celebrating the 
fact that we had no more troops left in Iraq. You celebrated 
it, and so did the President: the last troop, combat troop, has 
left.
    By the way, the Baghdad chief of the New York Times said 
the administration was ignorant of reality, ``and did not want 
to see what was really happening because it conflicted with 
their narrative that they left Iraq in reasonably good shape.'' 
You did not leave Iraq in reasonably good shape, Mr. Blinken, 
and the events afterward directly negated your assessment at 
the time. It is very disappointing to me that you will not even 
admit that you were wrong. You were wrong because you said you 
were leaving behind a prosperous and less violent, more 
democratic--and none of that--than any time in recent history.
    Now, I would like to ask you some questions. Do you believe 
that we should be providing the Ukrainian resistance with 
weapons, with lethal weapons with which to defend themselves 
now? Not whether it is on the table or not. Do you believe we 
should be supplying them with weapons in order to defend 
themselves, yes or no?
    Mr. Blinken. Senator, what I can say is I believe we need 
to consider that.
    Senator McCain. I am asking you whether you believe we 
should be giving them the weapons or not, Mr. Blinken, and that 
is a straightforward question.
    Mr. Blinken. Senator, you will understand that the advice 
that I provide to the President----
    Senator McCain. I am not asking for your advice. I am 
asking you for your opinion. You are supposed to be coming 
before this committee and give us your views.
    Mr. Blinken. My belief is that that can play a role 
potentially in deterring----
    Senator McCain. Let the record show, Mr. Chairman, that the 
witness would not answer the question. Now----
    The Chairman. I will let the record reflect that the 
witness answered the question as he did.
    Senator McCain. Excuse me. He would not answer either in 
the affirmative or the negative in response. He would not 
answer in response to the question, the question I will ask one 
more time: Do you believe we should be supplying the Ukrainians 
with lethal defensive weapons, yes or no?
    Mr. Blinken. And again, Senator, I believe that is 
something that we need to look at very actively.
    Senator McCain. After 4,000 dead and the country 
dismembered and 4,000 more Russian troops invading eastern 
Ukraine, and you think it is something that should be looked 
at. That is really quite interesting.
    Do you believe that Bashar Assad is getting stronger now 
that we are attacking only ISIS in Syria?
    Mr. Blinken. Senator, I believe that as we work to build up 
the moderate opposition, as we make it a stronger counterweight 
not only to ISIL but to the regime, Assad will get weaker, his 
position will change----
    Senator McCain. But we are not attacking Bashar Assad, Mr. 
Blinken, and that is a fact. Are we?
    Mr. Blinken. We are working to build----
    Senator McCain. Are we attacking or not?
    Mr. Blinken. We are currently--no, we are not attacking 
Bashar Assad.
    Senator McCain. We are not attacking Assad?
    Mr. Blinken. No, we are not.
    Senator McCain. At the end of September you stated: ``The 
best way to deal with Assad is to transition him out so that 
the moderate opposition can fill the vacuum. That is what we 
have been working on.''
    At the G20 over the weekend, President Obama was asked if 
he was actively discussing ways to remove President Assad as 
part of a political transition, and his response was ``No.''
    Are we working to transition Assad out or not?
    Mr. Blinken. We believe, the President has said 
repeatedly--I am not sure the exact words that you are 
referring to, but I have heard him say repeatedly----
    Senator McCain. It is fairly simple. He said ``No.''
    Mr. Blinken. Assad has lost his legitimacy. There is no way 
going forward that Syria can be stable with Assad in power. So 
what we have been looking----
    Senator McCain. So the President was incorrect, when asked 
if he was actively discussing ways to remove Bashar Assad as 
part of a political transition, and his answer was ``No''?
    Mr. Blinken. The President has been focused and consistent 
on the effort to support the moderate opposition, to build it 
up as a counterforce, to change the dynamic so that we can get 
to a political transition that winds up removing Assad.
    Senator McCain. Mr. Blinken, you quite often referred about 
the moral obligations and the standing of the United States of 
America. Do you believe that it is moral for us to train 
Syrians to go into Syria, in this case in Saudi Arabia, to go 
into Syria and fight, when we are not attacking Bashar Assad 
and Bashar Assad is intensifying his attacks on the Free Syrian 
Army? Is that moral?
    Mr. Blinken. Senator, we have been working now for more 
than 3 years to support the----
    Senator McCain. Again, we do not answer the question. It is 
too bad that you can not answer straightforward questions, Mr. 
Blinken. I want to ask you whether you think it is immoral or 
not for us to send these young Syrians into an environment 
where they will be barrel-bombed by Bashar Assad.
    Mr. Blinken. Thanks to the work that we have been able to 
do with you, with Congress, we are now----
    Senator McCain. You have done no work with me. You have 
done no work with me, Mr. Blinken.
    Mr. Blinken. On the Train and Equip Program for the Syrian 
opposition----
    Senator McCain. You have not worked with me on anything.
    Mr. Blinken. Well, that is something that we would want to 
do and relish doing.
    Senator McCain. After 6 years, you would want to do that. I 
thank you.
    Mr. Blinken. Senator, could I just--if I could just add. We 
have been working with the moderate opposition for nearly 3 
years. We have been working to build them up, give them 
support, give them greater means to defend themselves----
    Senator McCain. Mr. Blinken, when you say that it is very 
disturbing to me, because I know these people. I have been in 
Syria and I have met them. A lot of them that I have met with 
are now dead because we would not help them when the President 
of the United States said ``No'' to the recommendation of his 
Secretary of Defense, Secretary of State, and head of the CIA 
to provide arms to them. A lot of them have died. And we did 
not do all of those things you are saying, and there is ample 
proof by the fact of the situation that they are in today, 
which is probably more tenuous than it has ever been in 
history.
    So again, I really take strong exception to hear you say 
something that I know, because I have been on the ground there, 
is not true. And I know these people very well. They feel 
abandoned. There have been many media reports, not just my 
reporting, but just a couple days ago in The Wall Street 
Journal. They feel abandoned and they have every reason to feel 
abandoned, and many of them are deserting to go to al-Nusra 
because they do not believe that they are getting any 
assistance.
    Mr. Blinken. Senator, all I can tell you is from what I 
see, what I believe, what I know from what we have done. We 
have been working with them. We have been supporting them. We 
now have an opportunity, again thanks to the great work that 
has been done with Congress, to intensify and accelerate that 
effort, to give them even greater means to defend themselves, 
to defend their families, to defend their communities, to 
become a counterweight to ISIL, but also to become a 
counterweight to Assad.
    We share the same objective. We would welcome continuing to 
work with you and deepen that and figure out a way to get it 
done effectively.
    Senator McCain. We know a way to get it done, Mr. Blinken. 
We have known it for a long time, a way to get it done, and we 
have articulated it time after time after time. And since that 
way was not pursued, we are now in the situation we are in 
today, whether it be Iraq or whether it be in Syria. Dividing 
Syria and Iraq into two different kinds of conflicts when we 
are fighting one enemy, of course, is bizarre.
    One more point. I guess I am way over time. I am sorry, Mr. 
Chairman. Just today we were meeting with some people who 
affirmed to us our belief, if you move everybody out of 
Afghanistan you will see the Iraq move again. Do you believe 
that we should leave a sustaining force in Afghanistan?
    Mr. Blinken. Senator, to me the lesson for Afghanistan from 
Iraq is the need for political accommodation, what we did not 
get sufficiently in Iraq. At the time that I said the remarks 
that you referenced, I actually believed that we were in a 
position where Iraqis were working together politically within 
the confines of their constitution----
    Senator McCain. But you were wrong.
    Mr. Blinken. Unfortunately, the Prime Minister chose to 
take Iraq in another direction. The foundation was there, the 
means were there. It did not happen and that is something that 
unfortunately has stood Iraq in very bad stead.
    But I believe one of the lessons we should draw from that--
and you are right to focus on--is that, absent that kind of 
political accommodation and willingness to work together, it 
will be difficult to sustain all of the progress in 
Afghanistan. Happily, at least for now, we have in the new 
President, Mr. Ghani, the Chief Executive, Abdullah Abdullah, a 
commitment to work together inclusively, to bring the country 
together, and to give the investment that we made in 
Afghanistan the chance to succeed, including the Afghan 
Security Forces.
    We need to keep that investment going, we need to keep the 
financing going, and we need to support them in their efforts. 
If that happens, I believe--and of course we have two more 
years to continue in an aggressive way to help build up and 
develop the capacity of those forces.
    Senator McCain. Unfortunately, Mr. Blinken--the time has 
expired. Unfortunately, you will be wrong again. If we do not 
leave a sustaining force behind, Afghanistan will collapse and 
you will be wrong again.
    I thank the chair.
    The Chairman. The chair has allowed the Senator greater 
time than he allowed himself.
    We have one or two colleagues who wish to come back and ask 
questions. We have a second vote. I think it is important not 
to close the hearing so that we can have them have their 
expressions of whatever questions they want to ask you.
    I would like to take, before I have to go vote, a moment to 
ask you two quick questions. Hopefully, you can answer them 
quickly. One is, when the United States invaded Iraq who was 
the big winner?
    Mr. Blinken. I think you could point to a few potentially. 
And you are talking about in 2003?
    The Chairman. Yes.
    Mr. Blinken. I think certainly Iran benefited at the time. 
I think that arguably, unfortunately, al-Qaeda benefited 
because it was able to then develop a front in Iraq that it did 
not have. So there were some unfortunate consequences to that 
action.
    On the other hand, thanks to the extraordinary sacrifice of 
our men and women in uniform, our diplomats, our civilians, 
whatever one thinks about the war and how it started and why it 
started, because of that sacrifice, because of that 
extraordinary effort over a decade, we gave Iraq a chance to 
succeed. We helped give it the institutions of governance. We 
helped create structures that could allow it to actually be 
something relatively unique in the region. And there was a 
moment, at least in my judgment, where people were actually 
working within the confines of the constitution and 
institutions, despite their tremendous differences, to move the 
country together. So----
    The Chairman. And it is in that context that you made the 
comment that Senator McCain referenced?
    Mr. Blinken. Yes. Thank you.
    The Chairman. My own observation, as someone who voted 
against the war in Iraq, was that it was the biggest blunder 
that we committed. We ended up, no weapons of mass destruction, 
no clear and present danger to the United States, no imminent 
threat, and the loss of so many lives and national treasure.
    Now, we certainly cherish the contributions and the 
sacrifices made by American forces to ultimately liberate the 
Iraqi people. But at the end of the day, there is a lot of bad 
actors in the world. I can name a few that I would like to see 
go. You might imagine who is on the top of that list. And yet 
it is not in the national interest of the United States to 
necessarily pursue that course of action.
    What we did is give Iran an opportunity for an ascendancy 
that creates challenges throughout the region. I just wanted to 
create context to your comments. And I have filibustered 
sufficiently to have Senator Kaine take the chair as I go to 
vote.
    Mr. Blinken. Thank you, Mr. Chairman.
    Senator Kaine [presiding]. Thank you, Mr. Blinken, for your 
service and your willingness to be here. What a position of 
honor your position will be. As a member of the committee, I 
visit a lot of countries and I always have meetings with FSOs, 
usually in their first or second term, to talk about their 
lives and their questions and their sacrifices. Sometimes they 
ask me about traffic in northern Virginia where they own 
property, but mostly we talk about the very serious issues that 
they deal with. What a wonderful bunch of people that you have 
worked with and you are going to continue to work with. So I 
will just start off by honoring them.
    I think we do a pretty good job of acknowledging members of 
our military who serve now, but there are so many Americans 
abroad who are small ``a'' ambassadors, and we just need to 
thank all of them. So I think you are going to have a great 
opportunity to serve with wonderful people, and I know you know 
that.
    Two thoughts on the AUMF process, and we talked a bit about 
this in the office. I do think it is a mistake for the 
administration not to have sent up AUMF language, because I 
think you are more likely to get an AUMF that you like if you 
send up language and you are less likely if you do not.
    That being said, we are the article I branch. So I do not 
think there is any excuse for us not to do it and to do it with 
dispatch, and I hope we will. And I know we will work together 
on the terms of it.
    So that is a critique. Let me now offer a compliment. 
Senator King and I visited the Al Udeid Air Base in Qatar in 
early October to see the coalition in action. The 
administration--and it is both a military effort and a 
diplomatic effort, the efforts to pull together a meaningful 
coalition of nations who believe ISIL is a threat. It sounds 
good on paper and when you see it, it is even more impressive, 
the seamlessness of the coalition partners working together in 
the air strike campaign.
    We were in a room that looked like the New York Stock 
Exchange, with big screens up, and folks from so many nations 
making hard decisions, but making them in an apparently 
seamless way. That was a month ago. It was highly impressive. 
So I know there is a lot of elements to this. The assembly of 
the coalition may be one of the most difficult, at least if the 
early evidence is an indication. We felt pretty positive about 
it, both Senator King and I. So I will offer that to you as a 
compliment.
    One thing I would like to caution you, both in the State 
Department and all of us more broadly--and I would love to hear 
your response on it--is, do not let Iraq-Syria take our eyes 
off Afghanistan. We let that happen. I think we let that happen 
in 2003. I think we let it happen in 2006-2007.
    I first was in Afghanistan in April 2006 as Governor 
visiting my Virginia Guards men and women who were serving 
there. I think it was the belief of a lot of the American both 
diplomatic and military leadership on the ground in Afghanistan 
at that point that Iraq was taking our attention away. The 
achievements that had been gained in Afghanistan as a result of 
American effort, diplomatic effort, military effort, had been 
significant--life expectancy advances, kids in schools. It is 
fragile under this new government. The formation of the new 
government is a huge tribute to your boss and to American 
diplomatic effort. But it is fragile.
    While I am a supporter of an authorization for military 
action against ISIL in Iraq and Syria, I am mindful of the fact 
that we have turned our attention to one theater and then not 
paid the attention that was necessary. The Afghanistan 
situation is hopeful enough, but fragile enough, that if we 
turn our attention too dramatically to the events that are in 
the newspaper every day we run the risk of losing gains that 
have been achieved at an awful lot of sacrifice.
    I would love to hear your thoughts on that.
    Mr. Blinken. Senator, what you have just said resonates in 
a very powerful way and it resonates because you said it in 
this room. A decade ago in this room, President Karzai sat 
where I am sitting today and he said almost exactly what you 
said. This was before the war in Iraq and he was testifying on 
Afghanistan, and he said: It is not my role necessarily to give 
the United States advice about what it should do or should not 
do somewhere else, but I ask you, whatever you do, do not take 
your eyes off Afghanistan. So what you just said seems to have 
resonated across the decade back into this very room, and I 
could not agree more.
    Secretary Kerry, as you know, is intensely focused on this 
question. Had it not been for his extraordinary personal 
diplomacy, I am not sure that we would have gotten the 
accommodation that we saw between President Ghani and Chief 
Executive Officer Abdullah Abdullah. That is a tribute to, and 
triumph of, American diplomacy and his personal engagement.
    Now, you are exactly right, we need to help sustain that, 
and we are. We are very focused on giving them the support that 
they need to continue to move the country forward in an 
inclusive way. That is very much a focus of the Secretary and 
of the administration.
    Second, I think you are right to underscore this because we 
have to sustain the investment we have made in Afghanistan. We 
made a commitment to help develop the Afghan National Security 
Forces. We got other countries around the world to do the same 
thing. Countries made commitments and pledges in Chicago and 
Tokyo militarily, on the financial assistance side. Those have 
to be sustained.
    In fact, if you look at the assessments that have been 
done, our analysis and the analysis of the intelligence 
community is the single most important factor in helping 
Afghanistan continue to move forward is sustained support from 
the intelligence community. So we hear very much what you are 
saying. We agree with it, and I think there is a vital role 
that we can play together working with the committee to make 
sure that we are doing justice to that.
    Senator Kaine. There were early signs of success in the 
coalition government--the signing of the bilateral security 
agreement, the signing of the status of forces agreement, the 
reinitiation of a criminal investigation into corruption of the 
Kabul Bank, the signing of a long kind of--dust was all over 
it--potential energy deal with Pakistan, indicating potential 
for opening up better ties there. So there were some good early 
signs.
    But a sign that is still a troubling one is the difficulty 
in the formation of a Cabinet. I know that the Afghan 
leadership is going to be going to a donors conference in 
London in early December, and I am sure the donors are going to 
pepper them with questions about that. The United States played 
such a key role in the diplomatic rapprochement between 
President Ghani and Executive Abdullah. That was key. I think 
there is going to be diplomatic roles to play in some steps 
along the way, including in this, in the formation of the 
government, because I can not imagine that conversation with 
the donors will go very well if they walk in and there is not 
tangible evidence of real progress toward the formation of an 
inclusive government.
    Mr. Blinken. And we have made exactly that case to them.
    Senator Kaine. Great.
    So many other questions have been asked; numerous questions 
about Iran. Just one point about Iran. I think it was Senator 
Risch who said he had been a harsh critic of the administration 
or just a critic of the administration's proposal on the 
interim deal in the JPA. I was actually a real supporter. But I 
may be as hawkish on the ultimate, the big deal.
    I really felt like the interim deal had to be done. There 
had to be an interim phased approach that was trust-building 
because of the lack of trust between the parties. When there is 
a situation that is just fundamentally characterized by lack of 
trust, the only way you get to a better place is to test each 
other out in small things and see if the tests are passed 
enough to move on to larger things.
    So the interim deal, a huge supporter. But you are going 
to--you said you cannot say where it is going to go, but it is 
going to be one of three paths. It is either going to be a 
deal--then we will talk about whether it is a good or bad deal. 
If it is going to be no deal, that would be relatively clear. 
Unfortunately, we have to figure out the consequences. Or it is 
going to be some request for additional time to put it 
together. I think the body will be pretty tough on that. To the 
extent that the toughness of Congress is at all lost on the 
negotiators on the Iranian side, I know that our team over 
there will disabuse them of that notion as you are in the final 
phases before November 24.
    Last thing; just a thought. I am over time, but, hey, I am 
the last guy with questions, so I can easily do this. Something 
I would like you to kind of respond to. We focus our energy, as 
we often should, as we should, on the problematic areas. We 
ought to focus our energy too, and you should, in states and 
areas where things are actually moving in a positive direction, 
try to shine a spotlight on them, try to encourage others to do 
the same.
    In the first Arab Spring country, Tunisia, that I recently 
visited, the United States has played an important role and 
there have been important both parliamentary and now upcoming 
Presidential elections. That could be a significant success 
story of positive movement in the Arab world that I think 
should be an important area.
    The United States-India relationship--you and I talked 
about this--I think is entering a new phase, for a variety of 
reasons, where there is a huge up-side opportunity on economic 
cooperation and trade, on military cooperation, on cooperation 
on cyber issues. There are a number of instances of economies 
and countries in Latin America. There are some that are going 
bad. We have had questions about Venezuela certainly, but there 
is also some very positive examples.
    Let us not have all of our diplomacy or all of the energy 
of leaders like you be around the crisis zones where things are 
going bad. One of the ways you help things go better in places 
where they are going bad is to shine the spotlight on where 
they are going well and try to extract the lessons and use 
them, so lessons from Plan Colombia that can be used in Central 
America or lessons in Tunisia that can be used in other nations 
in northern Africa like Algeria as they probably approach a 
governmental transition within the next 5 or 10 years.
    So I would just encourage you in that, and if you have any 
thought about that I would love to hear your response.
    Mr. Blinken. Well, I appreciate very much that you just did 
put the spotlight on a number of very positive developments, 
ones where we have been working very hard, sometimes behind the 
scenes, sometimes quietly, supporting, providing assistance, 
giving advice, in just those ways. I think we have seen the 
United States-India relationship that you just pointed to come 
a remarkable distance. It started with the end of the Clinton 
administration. The Bush administration did a tremendous job in 
carrying the relationship forward, and now we have just had the 
extraordinarily successful visit of Prime Minister Modi here to 
the United States and an agenda that is working across 
virtually every issue of importance to us with India that we 
are carrying forward. There again, it is something where I 
think we could work together very, very profitably in the 
months ahead.
    Latin America as well. Extraordinary success stories. We 
have seen countries make fundamentally important decisions 
about their macroeconomic policies that have been to their 
benefit, improving governance, dealing with security challenges 
with the assistance of the United States, including in 
Colombia, Mexico, now other places. There, too, is a lot to 
work with, to work for, and to work together on.
    The long and short of it is I think you are exactly right 
that we should not lose sight of the good news, especially 
because if we can make sure that it actually gets deep-rooted, 
not only will that consolidate the good thing where it is 
happening, but, as you just said, it can serve as a model, 
lessons learned, inspiration for other places.
    Senator Kaine. With the permission of the ranking member, 
just one other brief point before I hand it back to see if you 
have an additional round.
    On the Latin America point, one of the things I have been 
struck by is, American foreign policy almost always has 
revolved around an east-west axis. We were worried about 
Europe, worried about the Soviet Union, worried about China. 
Even when we had a policy in the Americas, it has often really 
been a, well, we are worried about Europe in the Americas, so 
we have the Monroe Doctrine; we are worried about the Soviet 
Union in the Americas, so we are engaging in Truman Doctrine 
proxy activities there.
    The concern in Latin America is often that they are a 
source of attention only upon a crisis. If there is 
undocumented kids coming to the borders in big numbers, we go 
and we work on that; those numbers abate, the attention kind of 
moves away.
    But the reality of kind of the facts on the ground right 
now is Canada is our number one trade partner and Mexico is our 
number two trade partner. You could see foreign policy going on 
an east-west axis, but if you look at our economic activity it 
is probably much more north-south than it is east-west. If you 
look at who comes to this country, the origins of people living 
here, the languages that are spoken here, our cultural 
traditions are so oriented around the north-south axis.
    I do talk--this committee, we will have meetings with heads 
of state of South American countries. They will tell us about 
the deep engagement of China in trying to do natural resource 
deals or trying to do things, and they will say that: We feel 
more cultural affinity with the United States, but we just do 
not see the level of engagement.
    So I would just put that on your shoulders going into this 
position. Our economy is running north and south. The flow of 
people is running north and south. Our cultural traditions and 
heritages--we are a nation--next year is the 450th anniversary 
of the founding of St. Augustine, FL. We have been a Hispanic 
nation 42 years before Jamestown. But we do not make that a 
primary focus of our foreign policy, and I would just encourage 
you and your colleagues at the State Department to take 
advantage of the opportunities that seem to be low-hanging 
fruit in the hemisphere.
    Mr. Blinken. I very much appreciate that, Senator. If I 
could just maybe say a very brief word to address it, because, 
first, I know from my conversations with the Secretary that 
this is something that he is personally very focused on. We 
have a very dynamic Assistant Secretary of State who I know, 
Roberta Jacobson, who does an amazing job every day.
    But it is also something that the President and Vice 
President have been intensely focused on. The President has 
made six trips to Latin America as President. Just this year in 
2014, because this is something I was able to witness, he 
received in the Oval Office the heads of Chile, El Salvador, 
Guatemala, Haiti, Honduras, Uruguay. He visited Mexico. And the 
Vice President has been a human dynamo on 8 trips to the 
region, 10 countries, constant phone engagement.
    We have worked, as you know, to advance free trade 
agreements with Colombia, with Panama. We have established, 
precisely to your point, economic dialogues with countries that 
are emerging in a big way--Mexico, Brazil. We have the 
Caribbean Security Initiative which is vitally important there. 
And of course there have been the responses to the crises as 
well--Haiti and then the unaccompanied children.
    Then there is a very other important component to this. 
There is a very dynamic exchange component. We have 100,000 
strong in Latin America and we have 72,000 students from the 
region studying in the United States today. That is an increase 
of about 8 percent over the previous year. We have 43,000 
Americans studying in Latin America, which is also an increase.
    So we think you are exactly right and we want to work on 
all of these different lines of effort to maximize the 
relationships, strengthen them. When you look at countries like 
Chile, like Peru, like Colombia, like Mexico and others, there 
is an extraordinary foundation for progress. And of course, if 
we are able to get the Trans-Pacific Partnership done, that, 
too, will further deep-root that progress.
    Senator Kaine. Senator Menendez is returning. I am going to 
hand it back to him. Mr. Blinken, thank you for your testimony 
today.
    Thank you, Mr. Chairman.
    The Chairman [presiding]. Thank you, Senator Kaine. I 
appreciate it.
    Senator Coons, when he gets accommodated, will be next, and 
then, depending upon whether any other member up or not, we 
will be closing the hearing. Senator Coons.
    Senator Coons. Thank you very much, Chairman Menendez. 
Thank you for holding this hearing.
    Thank you, Mr. Blinken, for long and honorable service to 
this Nation, your 6 years as staff director here on the 
committee and your very capable and dedicated service in the 
Obama administration and to my own home State, Vice President 
Joe Biden.
    I also want to thank, in passing, Bill Burns as well, who 
has served very well as Deputy Secretary and is an accomplished 
Foreign Service officer. We thank him for his 33 years of 
service to our country.
    If I might, Mr. Blinken, first an issue of particular 
interest to me, in part because I chair the Africa 
Subcommittee, in part because of its strategic importance for 
us, is the concern about failed states, about states--and I 
will just mention two--Somalia and the Central African 
Republic, where in one instance we had for nearly 20 years a 
complete collapse of centralized control or authority, and as a 
result real threats to regional and global security, and the 
other where there is an ongoing and significant humanitarian 
crisis.
    Tell me how you think we might together get ahead of the 
issue of failed states around the world, and what is the proper 
mix between sort of economic and security and political 
initiatives to regain governance and to move forward in human 
rights and to secure and stabilize failed states in the region 
and the world?
    Mr. Blinken. Senator, thank you for your leadership on 
this, for your work on this. I think you have identified one of 
the principal challenges we face, because we see again and 
again that where we face problems one of the things that is at 
the root of the problem is a failure of a state, is the failure 
of governance, is the failure of institutions.
    We have seen the incredible hope generated by, for example, 
the Arab Spring. But then, translating those hopes and 
aspirations on the street, into the institutions that can 
actually guarantee the rights and opportunities that people are 
clamoring for is a huge and indeed generational challenge, 
because unfortunately this does not happen overnight. So what 
we have tried to do--and you can go across the board. We talked 
about Tunisia a little bit earlier. We have now the great 
challenge in Yemen.
    I think what you pointed to is essential, that in many of 
these places we have to take and we are taking a comprehensive 
approach to the problem. Often there is a military component 
because there may be a challenge from an insurgency, from a 
terrorist group. We have to help these countries develop the 
means and the capacity to deal with those problems.
    But that is not sufficient. Unless we are able to help them 
develop the institutions of governance that give their people a 
sense that they can advance their interests through the 
democratic process, it is not going to work. Unless we can help 
them create institutions and economies that can actually 
deliver for people in their daily lives and that gives them the 
means not only to subsist, but to move forward, it is not going 
to work.
    So I think what you alluded to is the need to look at these 
problems comprehensively to bring all of the different 
components of our government to bear on these problems, and to 
do it in a coordinated way, because what we do know is that 
if--and I know that, especially after a decade where our 
country has been engaged in two wars, with a large deployment 
of forces, that some people say, well, maybe this is a time to 
be a little bit less engaged. I think the answer is it is not. 
It is actually a time to be more engaged. But the question is 
how should we be engaged and how can we be engaged in a 
sustainable way that can actually help lift up some of the 
countries that are under challenge?
    I think, for example, that the large-scale indefinite 
deployment of American forces is something that obviously would 
be a challenge to sustain. Developing the capacity of our 
partners to work on these problems is a more sustainable way to 
do it.
    Similarly, as we look at the development agenda, we have 
the development goals that now need to be brought forward 
beyond 2015 and to work on those. The Bush administration 
created an extraordinarily powerful mechanism in the Millennium 
Challenge Corporation that has done remarkable work, and this 
is something that we have continued.
    So it is a long way of saying that as we think about our 
engagement we have to address this question of failed states, 
but we have to figure out ways to do it that are sustainable, 
that we can keep going, that we can resource, and that we can 
bring all of government to bear on. Of course, I should add, 
the private sector and other sectors are absolutely critical. 
This summer, something that you played a leadership role in, 
the Africa Leaders summit, we brought to Washington, as you 
know, an extraordinary gathering of African leaders, and we 
worked with them to help unleash more growth in Africa, also to 
deal with security challenges, institutional challenges.
    A key component of that was bringing the private sector to 
the table and helping to strengthen those relationships. Power 
Africa is a wonderful example of the government and the private 
sector working together to help people in a meaningful way and 
to help economies develop a foundation that can carry them 
forward and actually prevent government failure, failed states, 
and so forth.
    So there is a broad agenda there. This committee has done 
extraordinary work on it to date. If I move over to the State 
Department, that is something that I would welcome working with 
the chairman on, working with you on, and other members.
    Senator Coons. I could not agree more. As you know, last 
night was the Millennium Challenge Corporations 10th 
anniversary event. I have had the opportunity to visit a half 
dozen states in Africa where they have made a real difference, 
and I think bringing the energy and the resources of the 
private sector, whether through AGOA, through the Partnership 
for the Future, or through MCC, to bear in making progress is 
critical.
    I also just want to make sure that you are keeping in mind, 
that we all keep in mind, democracy, and civil society. On the 
continent of Africa at least, there are a half-dozen countries 
where leaders are seeking to change the constitution to extend 
their terms, to avoid the accountability of free, fair, and 
open elections. I think that is something we have to balance as 
well.
    Mr. Blinken. Absolutely.
    Senator Coons. You have been here a long time. So although 
I have many questions and I am confident you would answer them, 
let me just ask a last question if I could. Given your almost 
unique role as having served significantly here and now in the 
Executive Office and now going--of the President--and now going 
to the State Department, how can we improve communication, 
collaboration, and relationships, between this committee, this 
body, the Senate, and the White House?
    Mr. Blinken. I actually think it is in a sense pretty 
simple, and it goes to something that Chairman Menendez talked 
to me about last week and something I feel very strongly about. 
That is giving real meaning to the word ``consultation.'' I 
heard the chairman loud and clear. I also heard from Ranking 
Member Corker on this. I think we can always do a better job 
and I am determined to do a better job, if confirmed, in making 
that word mean what it means, which is not inform, but actually 
consult, work together, have a dialogue, try and develop these 
policies together. There will be places, obviously, where we 
disagree, as any executive and legislative do. But it is my 
conviction, from having spent 6 years here, having spent 13 
years in the executive, that it sure works better when we are 
working together, and it does not work if we are not 
communicating and communicating in a meaningful way.
    So I heard the chairman on that loud and clear. I am 
determined to do that if I am confirmed.
    Senator Coons. I could not agree more, and whether it is 
the AUMF and the conflict with ISIS, the potential agreement 
with Iran and concerns about our vital ally Israel and our 
safety and security, the Rebalance to Asia, or the things we 
talked about in Africa, all of these, we are much more likely 
to be successful together.
    Thank you for your testimony.
    Thank you, Mr. Chairman, for making it possible for me to 
come and question. And I may not be the last.
    Thank you so much for your testimony.
    The Chairman. Senator Rubio.
    Senator Rubio. Thank you. I apologize.
    Thank you. Good to see you. I appreciate your time, and I 
will be brief. I know we have votes going on as well.
    I have two followup questions. I understand you have 
already spoken about the issue of Venezuela. My understanding 
is, just to clarify on sanctions against government officials 
that are responsible for human rights violations or corruption, 
the administration's position, it is now willing to cooperate 
or be helpful in terms of sanctions legislation?
    Mr. Blinken. That is correct, Senator.
    Senator Rubio. Can I ask, would the administration consider 
doing some of those things directly? They do have authority to 
take some of those actions. They already have with regards to 
the visas. Is that something that is being contemplated?
    Mr. Blinken. That is something we would very much like to 
work on with you. As you know, we took the actions that we took 
this summer, indeed consulting with you on that, in terms of 
the visa restrictions that we did. As we had a brief 
opportunity to discuss, we have been focused on trying to see 
if our partners in Latin America could actually get results in 
terms of the opposition's agenda--getting people out of jail, 
advancing progress on the electoral commission, et cetera. I 
think, unfortunately, to date the effort has not borne fruit, 
which is why we think that working with you on what you have 
been proposing is something that we should do.
    So certainly, if confirmed, and even if not, in my current 
capacity, I would welcome having that conversation and working 
on that with you.
    Senator Rubio. Then on the issue of Colombia briefly. As 
you are well aware, they have been negotiating, the government 
has been negotiating with the FARC over a potential peace 
agreement. That, of course, has been suspended because of the 
kidnapping of a Colombian general. One of the issues that arose 
during my recent trip there is that there may come a point 
where as part of those negotiations the FARC is asking that 
people currently in custody in the United States be released 
early, that their sentences be commuted. Can we rule that out 
now to make sure that it is clearly understood that that is not 
something the administration would ever support doing?
    Mr. Blinken. Senator, what I can tell you is this. As you 
know, we are not a party to the negotiations, so we would have 
no requirement, whatever they negotiate, to send anyone back. 
We are obviously a strong ally of Colombia, as we strongly 
support the process, and as we go forward, if they call on us 
to play a role--and again, because we are not part of the 
negotiations, there is nothing we would be required to do--
obviously I would commit, and I do here, to consult very 
closely with you about anything that the Colombians may ask for 
in the future if something actually materializes in terms of a 
final deal.
    Right now, as you know as well as I do, they are not there. 
We had the very unfortunate kidnapping of the general this 
week, and we are strongly supporting their efforts to try and 
carry this forward. But this is something, if the Colombians 
ask things of us, we would work with you to see what should be 
done
    Senator Rubio. Then my last question is: As you know, the 
current sanctions that exist toward Cuba have been codified via 
the Helms-Burton legislation and other previous pieces of 
legislation that have passed, that have been enacted in the 
past. Absent Cuba meeting the requirements of that legislation, 
do you anticipate during the rest of the President's term that 
there will be any unilateral change or any change in the United 
States sanctions or conditions against Cuba absent them meeting 
those conditions of democracy, human rights, and so forth, the 
things outlined in that legislation?
    Mr. Blinken. Senator, I think on Cuba let me just say a 
couple things if I could. First, I think we share strongly an 
understanding, and one that you have firsthand, of the nature 
of the regime. It has been an imprisoned island all my life, 
literally. I actually remember my parents talking to me about 
Cuba, that they had been able to visit in the 1950s before it 
became an imprisoned island. And of course, we know exactly 
what is going on today, the detentions, the harassment, the 
police state.
    I think the question is--and I know we had a brief 
opportunity to discuss this--I think we all believe that change 
almost by definition will come, has to come, and the question 
is how do we best help the Cuban people prepare for that 
change. I know there are differences of views on the best and 
most effective way to do that in terms of getting them 
information, getting them resources, et cetera.
    But to cut to the chase, obviously anything that might be 
done on Cuba will have to be consistent with the law; and 
second, anything that in the future might be done on Cuba would 
be done in full consultation, with the real meaning of the word 
``consultation'' that I just alluded to, with this committee.
    Senator Rubio. I guess my point is there has been some 
chatter--and I understand some of it is just chatter, as 
happens in this town--that somehow in the next couple years, at 
the end of his term the President may seek to make some 
changes, perhaps even unilaterally, toward United States 
sanctions and policy toward Cuba, as some have advocated for. 
Is that being contemplated absent a real democratic opening?
    Mr. Blinken. I think you know that the President has views 
on how to try to help move Cuba in a democratic direction, to 
help support people moving in that direction. If he has an 
opportunity, I am sure that is something he would want to 
pursue. But it depends on Cuba and the actions that they take. 
What we have seen, as I just alluded to, are actions in exactly 
the wrong direction--the detentions, the harassment. They talk 
about wanting to improve relations. They have, as you and the 
chairman know so well, Alan Gross, an American citizen, who is 
now in his fifth year of detention. You know, when you say you 
want to improve relations and you are unjustly imprisoning an 
American, never mind what you are doing to your own people, 
that is usually problematic.
    Senator Rubio. I guess the only thing that concerns me--and 
I understand that perhaps you need to consult with them 
further. But the only thing that concerns me is I have not 
heard you say point blank that, absent democratic openings, we 
are not going to see actions on the part of this administration 
to weaken the current embargo and sanctions against Cuba.
    Mr. Blinken. At least in my judgment, unless Cuba is able 
to demonstrate that it is taking meaningful steps to move 
forward, I do not see how you move forward in the relationship.
    Senator Rubio. When you say ``move forward,'' move forward 
on democratic reforms, not simply economic reform.
    Mr. Blinken. Not simply economic reform.
    Senator Rubio. Thank you.
    The Chairman. Well, let me thank you. Let me just say on 
this last topic, in which I obviously have a fair amount of 
interest, you know, going ahead--and Cuba is the only country 
in the Western Hemisphere that violated U.N. Security Council 
resolutions and sanctions in sending military equipment to 
North Korea. Yet we were relatively silent about that. If any 
other country would have done it, we would have been totally 
driving at the U.N. A different set of circumstances, they 
received no consequences.
    Cuba does not meet the standards that the Summit of the 
Americas leaders set forth when it said that ``The maintenance 
and strengthening of the rule of law and strict respect for the 
democratic system are an essential condition''--``an essential 
condition''--``of our presence at this and future summits.'' 
Clearly, Cuba does not meet that standard.
    Cuba has an American citizen held hostage who did nothing 
but try to help the Jewish community in Cuba communicate with 
each other. And yet it wants to hold him hostage in return for 
Cuban spies, who were not benign spies--they were spies who 
were spying against our Defense Department, one of which 
integrated the Defense Department, Belen Ana Montes.
    So I could go down a long list in addition to the human 
rights, which sometimes I think we cavalierly say, yes, there 
is detentions. Not there is detentions. There is arrests in 
which people are detained for long periods of time, years, 
simply because that which we enjoy in America they try to seek 
to exercise--free speech, protests. There are individuals, like 
the Ladies in White, who just every week march with a gladiola 
peacefully to church dressed in white to protest peacefully 
that their sons and husbands are in jail for no legal reason, 
and they are savagely beaten.
    Sometimes we sort of gloss over all of this. This 
administration in its speech, when it started this 
administration at its inaugural speech, talked about opening up 
the hand to those who are willing to take it, and the clenched 
fist. Well, the administration has unilaterally opened up the 
hand and done a series of things, including more visits, more 
money flowing to Cuba--not just residents--not just families of 
United States citizens, but anyone can send money to Cuba. The 
regime has received those moneys because they are the ones who 
control the economy in the command and control economy on the 
island; and at the end of the day, the regime has not 
reciprocated one scintilla, but has become more repressive.
    I could go on and on. So I understand Senator Rubio's 
concerns, because I heard them as well. Talk about the whole 
question of consultation versus notification. This is the 
epitome of notification, but not consultation. And there will 
be a very significant response if what we have is notification 
and not consultation at the end of the day.
    I appreciate your answers before the committee. I have one 
or two that I am not going to delay, that I am going to ask you 
to respond in writing. I am concerned about Turkey, its 
presence in the exclusive economic zone in Cyprus, which I 
think is a belligerent move, unnecessary, and to the detriment 
of both Greek and Turkish Cypriots, as well as to our 
negotiations there. But I will allow you to respond to that in 
writing for me.
    This record will remain open until the close of business 
tomorrow. I would urge you, if you get questions, which 
undoubtedly you will, to answer them as expeditiously as 
possible so that when we return from the Thanksgiving recess 
there can be a business meeting to consider your nomination 
before the committee.
    With that, this hearing is adjourned.
    [Whereupon, at 4:15 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


   Statement of Senator Charles E. Schumer in Support of Tony Blinken

    Chairman Menendez and Ranking Member Corker, I would like to 
express my support for Mr. Tony Blinken who was recently nominated to 
be the next Deputy Secretary of State.
    Tony is a native of New York City (Yonkers), and after his 
childhood, Tony attended college at Harvard University and successfully 
graduated Magna cum Laude. He then went on to Columbia Law School and 
got his JD with the goal of practicing law. After a short stint in 
private practice, Tony found his passion for foreign affairs writing at 
the New Republic Magazine and the New York Times.
    After his career in journalism, he served at the State Department 
from 1993 to 1994 as the Special Assistant to the Assistant Secretary 
of State for European Affairs, where he got his first taste of public 
service. Moving up quickly, he went on to work at the National Security 
Council under the Clinton administration for 7 years where he directed 
European Affairs and NATO policy.
    After a year in the think tank world at the Center for Strategic 
and International Studies as a senior fellow, he came to the Senate 
where many of us worked closely with him on foreign affairs issues. He 
worked directly for this committee as the Democratic staff director 
during then Senator Biden's tenure as chairman and then ranking member. 
While holding this prestigious position for over 6 years, he organized 
hearings on Iraq in 2002 which helped spark a national debate before 
the war and played a key role in NATO enlargement and the civil nuclear 
agreement with India. He has traveled all over the world with Senator 
Biden and leading Republican Senators Lugar, Graham, and Hagel.
    I want my friends and colleagues to know that Mr. Blinken, over the 
past several years in the administration, has acted with a cogency that 
denotes his extensive experience in handling flash points around the 
globe: Iraq, Russia, and the Middle East. As Deputy Secretary of State, 
no doubt these will be at the top of his portfolio.
    As Assistant to the President and Principal Deputy National 
Security Advisor, he developed diplomatic relationships with multiple 
Iraqi governments in over 25 trips to Iraq; secured a deal on oil 
payments between the Iraqi Government, the Turkish Government, and 
Kurds; and chaired a series of high-level meetings in the region with 
senior leaders from Iraq, Jordan, the UAE, Turkey, and Egypt to help 
Iraq reintegrate with its neighbors.
    On Russia--he was assertive up front, and kept his foot on the gas, 
pushing at each juncture to take steps to counter Russian aggression 
and their support of the rebels in eastern Ukraine.
    And on the Middle East--Tony is a steadfast advocate for Israel's 
Iron Dome system. He was one of the first to jump and draft legislation 
to fund the system.
    As the Deputy Secretary of State, Tony will come into this position 
with decades of foreign policy experience in dealing with the most 
important regions in the world, the ability to build bridges amid 
disagreement and dissent, and a sharp intellect to make sound policy 
decisions on complex issues. He is a well-known, successful, strategic 
thinker in the foreign policy arena. I give Tony my full support for 
his nomination and I urge my colleagues to support him as well.
                                 ______
                                 

             Responses of Antony John Blinken to Questions 
                  Submitted by Senator Robert Menendez

    Question. European security also means energy security. Europe must 
diversify its supply and invest in its energy infrastructure. Greater 
regional cooperation, such as in the eastern Mediterranean, can help, 
but Turkey's provocations in Cyprus' EEZ are creating instability that 
puts at risk further exploration and the placement of projects that 
would benefit Greek and Turkish Cypriots alike.

  <diamond> What actions have you taken and what messages have you sent 
        about Turkey's decision to send its ships into Cyprus' EEZ?

    Answer. I share your concern about recent developments and can 
assure you that the Obama administration remains strongly committed to 
a just and lasting settlement to reunify the island of Cyprus as a 
bizonal, bicommunal federation. If confirmed, I will reinforce our 
diplomatic efforts to achieve such a settlement. We support Cyprus' 
right to develop its resources in its Exclusive Economic Zone (EEZ) and 
believe that the island's oil and gas resources should be equitably 
shared between both communities in the context of an overall 
settlement. Reducing tensions and getting the parties back to the 
negotiating table as soon as possible are critical to advancing the 
peace process.
    The administration remains fully engaged with all stakeholders to 
reduce tensions over the EEZ and in support of United Nations Special 
Advisor Espen Barth Eide's efforts to move past the current impasse and 
resume negotiations. The Vice President spoke with President 
Anastasiades on October 31 and underscored our support for the Republic 
of Cyprus' sovereignty and right to develop resources in its exclusive 
economic zone, in keeping with customary international law. He also 
expressed our hope that all states in the region would pursue a 
mutually beneficial approach to developing energy resources. During the 
Vice President's November 21-23 visit to Turkey, he discussed with 
Turkish officials how Ankara can play a constructive role in defusing 
tensions and getting the talks back on track.
    I appreciate your continued support of the settlement process. I 
assure you of the administration's unwavering commitment to resolving 
the long-standing division of the island, which we believe will enhance 
regional stability and prosperity, as well as improve the lives of all 
Cypriots.

    Question. This summer, President Obama requested $3.7 billion in 
supplemental funding to respond to the refugee crisis that developed on 
our southern border. Not surprisingly, this crisis came after years of 
U.S. disengagement and sustained cuts to our foreign assistance budgets 
for Central America and the Western Hemisphere at large. While both 
President Obama and Vice President Biden have met repeatedly with Latin 
American leaders in the wake of this crisis, robust and sustained 
engagement still is needed.

  <diamond> Will you make the crisis in Central America a priority? And 
        will you commit to working to increase foreign assistance 
        budgets for the Western hemisphere, a region whose security and 
        economic development have a direct impact on the United States 
        and its citizens?

    Answer. The short answer to both questions is ``Yes.''
    The administration remains firmly committed to partnership in the 
Western Hemisphere. Our goal is to strengthen democracy, advance 
prosperity, and ensure security in a manner that benefits all citizens.
    The U.S. Government is making new investments in Central America 
and will continue to make the region a priority. Since 2008, $803 
million has been appropriated for the Central American Regional 
Security Initiative. Additional investments, however, will be critical 
to respond comprehensively to the underlying factors that drive 
migration, particularly to advance prosperity and good governance. 
Adequate resources for U.S. efforts in Central America will be critical 
to work collaboratively with partners in the region on shared 
objectives.
    The administration's $300 million FY 2014 emergency supplemental 
reflected a request for a downpayment on needs for Central America. We 
are committed to working closely with Congress to secure the resources 
necessary for Central America. The Department expects that the 
administration's FY 2016 foreign assistance request to Congress will 
reflect additional prioritization on Central America.

    Question. I was pleased to see Secretary Clinton and now Secretary 
Kerry take steps to move the State Department toward a stronger 
emphasis on the economic dimension in our diplomacy. And a few years 
ago the administration laid out a plan to reorganize some of our trade 
and development agencies in the hopes of making these institutions 
better aligned and more effective. This is an area in which I believe 
there is much work still to be done.

  <diamond> Could you please discuss the current status of the State 
        Department's progress in these areas, and what additional steps 
        you are planning?

    Answer. Secretary Kerry has established a Shared Prosperity Task 
Force to strengthen economic diplomacy as a central tenet of our 
foreign policy priorities. The State Department needs to be on the 
front lines promoting America's economic interests and our vision of a 
rules-based, transparent, global economy that serves the needs and 
aspirations of our own citizens and benefits people worldwide. We call 
this economic policy agenda ``Shared Prosperity,'' to convey that our 
focus on expanding trade and investment opportunities for American 
business builds the conditions for a more prosperous and secure world.
    The Shared Prosperity Task Force has set up Four Working Groups 
focused on building systems and capacities to succeed in this 
existential task.
    The Knowledge Platforms Working Group, which our Office of 
Management Policy, Rightsizing, and Innovation (M/PRI) leads, is 
working to ensure that all State employees have the information they 
need deliver on our economic agenda and to make relevant information 
more available across multichannel platforms. In the 21st century, all 
State personnel deserve current information in real-time, and through 
these platforms we will better capitalize on our opportunities.
    Our Human Capital Working Group, which our Human Resources Bureau 
(M/DGHR) leads, is revamping Foreign Service Institute training to 
include ``Shared Prosperity'' modules in its class offerings, from A-
100 and other orientation classes through ambassadorial training. This 
working group is leading an effort to expand interagency ``detail'' 
opportunities for State Officers (beyond USTR) to include the Treasury 
Department, Commerce Department, the Overseas Private Investment 
Corporation, and the Office of Management & Budget.
    Entrepreneurship is an essential element of American business 
culture, one which excites would-be entrepreneurs around the world, and 
offers opportunities to create jobs and more inclusive economic growth. 
Our Entrepreneurship Working Group is currently cataloguing and working 
to coordinate entrepreneurship initiatives that currently exist at the 
department.
    The Jobs Diplomacy Working Group, which our Bureau of Economic and 
Business Affairs (EB) leads, is coordinating internally and with the 
interagency to be a more effective advocate for U.S. companies. This 
includes doing more to inform U.S. businesses of commercial 
opportunities abroad. In 2013, high-level State Department advocacy 
assisted with more than $5.5 billion in foreign government contracts 
being awarded to U.S. companies.
    Additionally, our posts conducted over 80 calls with U.S. 
businesses through our ``Direct Line'' program, which is tailored 
particularly for smaller U.S. companies that often face steep 
challenges operating in foreign markets. Since its inception in 2012, 
nearly 200 embassies and over 5,000 U.S. companies have participated in 
Direct Line calls and webinars.
    Over the past year, the Department also launched the Business 
Information Database System to alert U.S. businesses to significant 
international commercial opportunities, populating it with over $240 
billion in leads.
    Working with the Department of Commerce, we helped recruit over 
1,300 attendees for the 2013 SelectUSA summit to attract job-creating 
foreign investment to the United States, and we have pursued an active 
trade policy agenda to expand opportunities for U.S. business in 
overseas markets. For instance, we helped to conclude the World Trade 
Organization's Trade Facilitation Agreement (TFA) and revive the WTO's 
Information Technology Agreement (ITA).
    In the fast-growing area of digital commerce, the Department has 
led successful efforts to uphold the multistakeholder model of Internet 
governance and the ability of U.S. companies to operate across national 
boundaries.
    We have made recent progress on market-opening aviation agreements 
with Mexico, Japan, and Ukraine and have worked to minimize commercial 
disruptions in other transportation markets.
    The State Department and USAID have also helped U.S. business by 
providing critical support to partner countries in transition. For 
instance, we facilitated loan guarantees to key partners including 
Jordan, Tunisia, and Ukraine and led the multinational campaign that 
made 2014 the first year of full European Bank for Reconstruction and 
Development operations in the Middle East/North Africa region, with 
over $1 billion in finance for Egypt, Jordan, Morocco, and Tunisia.
    Finally, the Department has helped pave the way for expanded U.S. 
economic ties with African partners, culminating in a historic U.S.-
Africa Leaders summit in August 2014.

    Question. Though there are signs of what may be a slow-down of the 
spread of Ebola in Liberia, the number of new cases in Sierra Leone is 
on the rise. And recent news about the confirmation of new infections 
in Mali was very troubling. The epidemic has already taken a severe 
human toll, and has had a significant economic impact on already 
fragile economies. Today, the World Bank issued a revised estimate of 
the short- and medium-term economic impacts, projecting that the region 
could see $3-4 billion in lost GDP. This is a vast improvement over 
previous estimates; however, given the fragile nature of these 
economies and the poverty rates, this estimate is still worrisome. 
There are also possible political repercussions in Liberia, Sierra 
Leone, and Guinea.

  <diamond> How concerned should we be about political instability in 
        West Africa as a result of the epidemic's continued spread?
  <diamond> If confirmed, what role will you have in planning to 
        mitigate such instability, and what steps will you recommend we 
        take to support the governments in maintaining stability in 
        affected countries?

    Answer. Liberia, Sierra Leone, and Guinea--the worst-affected 
countries--remain stable at this time. Mitigating the second order 
impact of the crisis is one pillar of our four-part strategy because 
both economic and/or sectoral decline will both impede the 
international response and render recovery a much longer process. We 
are responding at the community level, by providing food that we 
procure locally where possible and in order to prevent local market 
collapse, community care for families ravaged by the disease, and 
assistance, including bed nets, to address other urgent health 
requirements. Given the significant impact of the Ebola epidemic on the 
economies of the affected countries, we are working closely with and 
support the efforts of the World Bank and African Development Bank, and 
called for and have welcomed the International Monetary Fund's decision 
to provide debt relief in addition to grants and loans.
    We must remain vigilant--there have been occasional security 
incidents pertaining to the Ebola outbreak. In Guinea, particularly in 
the remote Forrestiere Region, there have been incidents in which local 
communities have attacked officials and healthcare workers who were 
conducting outreach activities. Such attacks are likely fueled by a 
combination of fear and mistrust of government officials and outsiders. 
In Liberia, there have been localized incidents of unrest due to 
frustration over the failure of local authorities to collect bodies of 
the deceased or respond to requests for medical care in a timely 
manner. In the West Point neighborhood of Monrovia in August, the 
imposition of a quarantine led to violent protest that resulted in one 
death. While none of these countries have so far experienced widespread 
violence, protests, or instability, there is the risk that the ongoing 
crisis will fuel growing frustration, especially if the second-order 
effects on the economy, social fabric, and governance systems of these 
countries are not adequately addressed. If confirmed, I will ensure 
that our Embassies continue to monitor the security situation in West 
Africa carefully, and I will promote a whole-of-government effort to 
identify and address the potential drivers of instability, in close 
partnership with the governments of Liberia, Guinea, and Sierra Leone. 
The administration, in cooperation with our international partners, 
will continue our effort to stop Ebola at its source in West Africa, 
which is what we need to do to end the global security and health 
threat posed by the epidemic.

    Question. South Sudan.--It has been almost a year since conflict 
broke out in South Sudan. During that time, nearly 2 million people 
have been displaced, and 4 million face food shortages. Aid groups are 
unable to reach significant portions of the civilian population due to 
insecurity, and there are allegations of human rights abuses by all 
parties to the conflict. At a meeting during the U.S.-Africa Leaders' 
summit in August, I urged President Salva Kiir of South Sudan to work 
toward a political solution to this man-made crisis. The Office of the 
Special Envoy for Sudan and South Sudan has been leading U.S. efforts 
on pushing peace between various factions in South Sudan, and the 
United States has imposed targeted personal sanctions on some of the 
key actors in the conflict. Unfortunately, a peace agreement remains 
elusive.

  <diamond> How effective, in your estimation, have the targeted 
        sanctions been to date?
  <diamond> If confirmed, will you be recommending expanding the 
        sanctions to other individuals?
  <diamond> When the administration announced targeted sanctions 
        earlier this year, the State Department informed Congress that 
        these measures were part of an effort to regionalize, even 
        internationalize, sanctions. Where does that effort stand? Does 
        the administration support an arms embargo?

    Answer. The United States has utilized its targeted South Sudan 
sanctions Executive order to designate four individuals to date, two 
from the Government of South Sudan and two from opposition forces. We 
will continue to use the authority under the Executive order to hold 
accountable those who commit human rights abuses or obstruct the peace 
process. We have made this intention clear to the international 
community, including to regional governments brokering peace talks, and 
to the leadership of both of the warring parties. Targeted sanctions 
have been a necessary and effective tool to demonstrate the importance 
that the U.S. Government places on resolving this conflict and our 
commitment to hold accountable those who undermine peace and security 
in South Sudan.
    Intergovernmental Authority on Development (IGAD) regional 
leadership has requested that increased external international pressure 
be brought to bear on the parties. Our imposition of sanctions was 
followed by similar actions from the European Union and Canada. The 
next step is to press ahead with a U.N. Security Council resolution 
establishing a U.N. sanctions regime. This process is currently under 
negotiation at the United Nations. We are working to ensure a robust 
U.N. Security Council sanctions regime which will demonstrate the 
international community's resolve in helping end the needless suffering 
of millions of South Sudanese.
    Going forward, the Council will continuously review the 
appropriateness of these measures in light of the situation on the 
ground. We are continuing to review additional options to increase this 
pressure, as appropriate. We have and will continue to use all 
available tools to bring about a peaceful resolution to the conflict, 
and we are doing so in the context of a broad international coalition.

    Question. Nigeria.--When I met with President Jonathan during the 
U.S.-Africa Leaders summit in August, we spoke of three key issues: 
security in the north, national elections in 2015, and the need for 
widespread inclusive development, particularly in the north. Since our 
meeting, Boko Haram has continued its rampage. Recent media reports 
claim that 4,000-5,000 refugees a week are crossing into Cameroon due 
to insecurity. I am deeply concerned about the safety of the Nigerian 
people as well as the implications for elections in February.

  <diamond> Please speak to the administration's elections assistance 
        strategy and how it will be impacted by the unrest in the 
        north. Do you believe Nigeria can credibly move forward in 
        February if the State of Emergency remains in place in the 
        north, and insecurity significantly suppresses participation in 
        the three affected northern states?
  <diamond> What is the U.S. strategy related to ensuring there is an 
        inclusive development agenda in northern Nigeria, and what 
        programs and activities should we be implementing to prevent 
        and or counter violent extremism in Nigeria?

    Answer. As Nigeria looks ahead to the February 2015 general 
elections, the United States strongly supports a free, transparent, 
credible, inclusive, and nonviolent electoral process. We have 
consistently called upon all Nigerians to refrain from advocating, 
fomenting, or condoning violence before, during, or after the 
elections.
    We have also worked with the Independent National Electoral 
Commission (INEC) as they administer a vote in which Nigerians are free 
to voice their opinions and participate in the electoral process 
without fear of retribution. We have also emphasized publicly and 
privately to political party officials, elected leaders, and candidates 
for office that they have a special responsibility to uphold these 
democratic precepts.
    The United States remains committed to working with Nigeria to 
strengthen its democratic institutions in the years to come. A peaceful 
election in February 2015 will constitute a major step in that process.
    The United States is committed to supporting Nigeria as it 
addresses the violence caused by Boko Haram. At the same time, Nigeria 
must take a comprehensive approach to fighting violent extremism that 
brings both civilian and security tools to the fight and protects 
innocent civilians.
    Helping Nigeria to address this threat is a long-standing effort. 
Most recently, over the past 6 months the United States started sharing 
some intelligence with Nigeria, began training a new army battalion and 
will consider training additional battalions, and held numerous high-
level discussions with Nigerian authorities to explore additional 
measures. The United States, along with the United Kingdom and France, 
is working closely with Nigeria and its neighbors to establish a Multi-
National Task Force to coordinate regional efforts against Boko Haram.
    Through the recently launched Global Security Contingency Fund 
(GSCF) we will provide $40 million in assistance to Nigeria and its 
neighbors--Niger, Cameroon, and Chad--to train personnel in border 
security, command and control, and other best practices to counter 
violent extremism. The Fund also provides assistance for the justice 
sector, rule of law programs, and stabilization efforts.
    We are working closely with Nigeria and its neighbors to help 
counter extremism through existing programs like the Trans-Sahara 
Counterterrorism Partnership. We are also partnering with Nigeria 
through the President's Security Governance Initiative. Through these 
programs and initiatives we are helping the Nigerians to build up rule 
of law and to strengthen their security institutions. We will continue 
to seek other ways to assist Nigeria to counter Boko Haram and meet 
citizen security needs in the region.
    USAID's programs targeting the Northeast of Nigeria include key 
elements of the U.S. Government's strategy to counter Boko Haram, and 
directly address the key, underlying drivers of the conflict. 
Humanitarian operations supported by the Office of Foreign Disaster 
Assistance (OFDA) and Food for Peace are ramping up to respond to the 
escalating challenges posed by growing numbers of internally displaced 
persons (IDP). OFDA's programs address challenges related to health; 
logistics; protection; livelihoods; capacity-building of Nigerian 
emergency management institutions; food security; and water, 
sanitation, and hygiene. USAID's Office of Food for Peace is finalizing 
a first wave of programming to more directly address the unfolding food 
security issues arising due to the conflict. At the same time, USAID's 
Office of Transition Initiatives (OTI) is implementing an activity 
under its Support Which Implements Fast Transition (SWIFT) contract 
that will assist the Government of Borno State to build its capacity to 
respond to local needs. Complementing these emergency-response 
activities, USAID programming supports the delivery of urgent education 
services to IDPs and conflict-affected communities in the Northeast. As 
progress is made on these fronts, including on-ground security in the 
region, the mission intends to expand its local governance, health 
systems, and education systems programming into Borno State to help the 
state government make rapid advancements in its ability to deliver 
quality services to its citizens.

    Question. President Obama recently made history by announcing a 
bold, joint climate commitment with China that is sure to reinvigorate 
international climate talks, but some in this body seem to think China 
needs to do little to meet their obligations. China's pledge on 
nonfossil energy will require roughly a trillion dollars in new clean 
energy investment or the equivalent of building one nuclear plant a 
week for the next 16 years.

  <diamond> Do you think such a commitment is meaningless? And on the 
        other hand, is it possible for China to attain?

    Answer. The targets that China announced on November 12, 2014, are 
meaningful, ambitious and, we believe, attainable. China announced two 
major long-term commitments to address climate change: a goal to peak 
CO2 emissions around 2030 and to make best efforts to peak early, and 
an intention to increase the share of nonfossil fuels in primary energy 
consumption from 15 percent in 2020 to around 20 percent by 2030, with 
current share estimated at around 10-11 percent.
    China's first-ever announcement of a peak year for CO2 emissions is 
a milestone. Achieving this peak around 2030 or earlier will require 
significant additional action by China starting today. A range of 
experts--including the International Energy Agency (IEA), the Energy 
Information Administration (EIA), the Massachusetts Institute of 
Technology (MIT), the Institute for Energy and Economics (Japan), and 
others--has projected that under current policies, China's CO2 
emissions will peak around 2040 or even later. A recent MIT study 
conducted in partnership with China's Tsinghua University, for example, 
suggests that peaking Chinese CO2 between 2025 and 2035 will require 
aggressive decarbonization policies equivalent to a carbon tax rising 
to $38/ton in 2030.
    China's commitment to achieve 20 percent of all energy from 
nonfossil sources by 2030 is also significant. We estimate that China 
will need to install 800-1,000 gigawatts of additional nuclear and 
renewable electricity generation capacity by 2030 to meet their goal. 
For reference, the entire U.S. generation capacity in 2012 was a bit 
less than 1,000 gigawatts. To meet its target, China will need to add 
roughly 1 gigawatt of nonfossil electricity capacity to the grid every 
week between now and 2030. That's the equivalent of one nuclear power 
plant, 500 average-sized wind turbines, or 200,000 roof-top solar 
installations every week for the next 15 years. Achieving these 
commitments in the context of an economy growing as fast as China's 
will be challenging, and they will need to start immediately.
    We expect that the targets China has set will be integrated 
formally into their 5-year planning process. We will be able to monitor 
progress through the biennial reports China is required to submit to 
the U.N. Framework Convention on Climate Change (UNFCCC) every 2 years 
detailing action against international commitments. The administration 
insisted on these transparency provisions during the negotiation of the 
Copenhagen Accord to ensure that all nations could track each other's 
progress against targets.
    This kind of parallel commitment by China is the type of action 
long called for by congressional leaders on both sides of the aisle to 
complement U.S. measures to reduce carbon pollution at home.

    Question. Mr. Blinken, some are criticizing the President's recent 
pledge to commit $3 billion to the Green Climate Fund. Is this really 
all that different than President Bush's $2 billion pledge to the 
Climate Investment Funds in 2008?

    Answer. A U.S. contribution to the Green Climate Fund (GCF) builds 
on a history of strong U.S. leadership to fund critical efforts to 
combat climate change around the world, including the Bush 
administration's pledge of $2 billion in 2008 to the Climate Investment 
Funds (CIFs). The CIFs are a set of World Bank trust funds created to 
support mitigation and adaptation in developing countries, and were 
designed as a transitional mechanism. The GCF builds on the work of the 
CIFs.
    The United States has a compelling interest in enabling vulnerable 
countries to build resilience to climate change. More resilient 
communities are less likely to descend into instability or conflict in 
the aftermath of extreme climate events that would need more costly 
interventions to restore stability and rebuild. Building resilience 
also helps safeguard our investments in many areas, including food 
security, health, education, and economic growth. In addition, it is in 
our interest to help developing countries grow their economies in a way 
that minimizes dangerous carbon pollution.
    The GCF will partner with developing countries to reduce their 
carbon pollution and strengthen their resilience. It will leverage 
private sector investment and help spur global markets in clean energy 
technologies, creating opportunities for entrepreneurs and 
manufacturers who are leading the way to a low-carbon economy, 
including those from the United States.
    The U.S. pledge has succeeded in spurring other donors to step up 
to the plate. So far, a range of contributing countries as diverse as 
Japan, Germany, Canada, Panama, Mongolia, Mexico, and Korea has pledged 
a total of over $9.7 billion to the GCF, with more pledges expected 
soon.

    Question. China Maritime Security.--Although I was pleased by the 
Confidence Building Measures the United States and China agreed to last 
week when President Obama was in China, I remain concerned about 
Chinese actions and current trendlines on a range of security issues in 
the Asia-Pacific region: On Japan, China appears to be trying to use 
its differences with Japan as a wedge between the United States and an 
important ally, and even with the recent Xi-Abe (She/Ah-bay) meeting 
remains aggressive in its rhetoric and behavior toward the Senkakus. 
And in the South China Sea we continue to see provocative Chinese 
behavior, and seems intent on trying to coerce the nations of the 
region to force a resolution of these issues in a way favorable to PRC 
interests.

  <diamond> What role should the United States play on these issues? 
        Given China's new assertiveness, is our carefully calibrated 
        balance between ``cooperation and competition'' still the right 
        approach? Should we be demonstrating in more robust terms our 
        enduring national interests in freedom of navigation, the free 
        flow of commerce, and the peaceful resolution of disputes 
        consistent with international law?

    Answer. The United States is committed to freedom of navigation, 
respect for international law, unimpeded lawful commerce, and peace and 
stability in the South and East China Seas. The United States has also 
highlighted publicly and privately, most recently by President Obama 
during his visit to Beijing and at the East Asia summit and the U.S.-
ASEAN summit in Burma, our growing concern over provocative unilateral 
activities undertaken by claimants to change the status quo in the East 
and South China Seas, such as ongoing land reclamation efforts in the 
South China Sea. The President stated last April that, while we take no 
position on the issue of ultimate sovereignty over the Senkakus, we 
oppose unilateral attempts that would undermine Japanese administration 
of the Senkakus.
    The United States supports regional stability and a rules-based 
system in the Asia Pacific through our robust diplomatic, military, and 
economic presence. We are deepening our alliances and security 
partnerships and have repeatedly made clear to all parties that we are 
fully committed to the defense of our allies. For example, we have 
signed a defense cooperation agreement with the Philippines, and, since 
the end of last year, we have committed additional funding for helping 
our partners and allies increase their maritime awareness and ability 
to patrol their waters. In particular, we are deepening cooperation 
with partners like Vietnam on improving maritime domain awareness and 
security, both through bilateral programs as well as in coordination 
with regional partners like Japan. In addition, we are working to 
support efforts by ASEAN to use regional consultations and institutions 
to establish and enforce rules of the road and a ``freeze'' or 
``moratorium'' on provocative actions, as part of ASEAN's efforts to 
establish a Code of Conduct for the South China Sea.
    The United States welcomes the rise of China that is peaceful, 
prosperous, and stable, and plays a responsible role in the world. In 
the U.S.-China relationship, we seek to expand our areas of cooperation 
and constructively manage our differences. I believe this approach 
serves the best interests of the United States and the region. The 
recently announced military-to-military confidence-building mechanisms 
(CBMs) are a step forward in helping to increase transparency and 
predictability, and to reduce risk of unplanned encounters between our 
two militaries.

    Question. China Cyber.--Earlier this year, the U.S. Department of 
Justice issued a 31-count indictment against five members of the 
Chinese PLA for cyber economic espionage and other offenses that 
targeted five U.S. firms and a labor union for commercial advantage. 
This was the first time that the Federal Government has initiated such 
action against state actors. In the wake of this indictment China has 
withdrawn from the cyber dialogue and there seems to be little progress 
in seeking to engage China in discussing how to develop a responsible 
approach to cyberspace.

  <diamond> What kind of dialogue do we currently have with Chinese on 
        Cyber Theft? What are the next steps on this dialogue? What 
        actions could we take if we discover state-directed theft of 
        corporate or national secrets? Do you think the United States 
        should initiate a case against China in the WTO for its cyber 
        theft of U.S. trade secrets? Will PLA cyber espionage alter our 
        current approach for influencing Chinese cyber behavior?
  <diamond> As Deputy Secretary of State, and thus the lead U.S. 
        official in the Strategic Security Dialogue at the Strategic 
        and Economic Dialogue, how will you raise these issues with 
        your Chinese counterparts?

    Answer. Cyber security is one of the administration's top 
priorities. The United States remains deeply concerned about Chinese 
Government-sponsored, cyber-enabled theft of trade secrets and other 
sensitive business information for commercial gain. Although China 
suspended its participation in the Cyber Working Group, we continue to 
underscore with Chinese officials, at the highest levels of our 
government and through a variety of channels, that China's cyber-
enabled theft of trade secrets remains a major irritant in our 
bilateral relationship. We will again raise our concerns with China 
during the December 3-4 meeting of the U.S.-China Joint Liaison Group 
on Law Enforcement Cooperation, which has its own cyber working group 
that is focused on cyber crimes such as online fraud. When we have 
evidence of such theft, the U.S. Government considers a range of 
diplomatic, economic, and law enforcement responses on a case-by-case 
basis.
    Despite our differences with China over what constitutes acceptable 
behavior in cyberspace, we recognize that this issue does not define 
the totality of our cyber relationship. We remain committed to 
expanding our cooperation with China on cyber matters where we have 
common ground, and to candidly and constructively addressing 
differences. We use our engagements with China to emphasize U.S. cyber 
policy objectives, including the applicability of international law to 
state behavior, the importance of norms of responsible state behavior, 
concerns about cyber activities that can lead to instability, the role 
of transparency in domestic cyber policy, and the importance of 
practical cooperative measures to prevent crises in cyberspace.
    If confirmed as Deputy Secretary, I intend to raise our cyber 
concerns with the Chinese at every opportunity, including at the 
Strategic Security Dialogue. Regular open and frank dialogue is crucial 
to building trust and developing common rules of the road on this 
important strategic issue.

    Question. Burma.--The three most important issues playing out in 
Burma today are the plight of the Rohingya, the peace process, and the 
2015 general election. In all three, we see negative developments: the 
Government of Burma has already begun to implement an action plan that 
would place self-identifying Rohingya in internment camps indefinitely, 
while humanitarian organizations still do not have unhindered access to 
Rohingya; government cease-fire negotiators have backtracked on recent 
commitments, military officers have taken a front seat at negotiations, 
and the Tatmadaw is reportedly undertaking new campaigns in several 
border states; finally, the ruling party is pushing to change the 
electoral system to give it undue advantage, while one-sided 
restrictions on candidate eligibility and political campaigning remain 
in place.

  <diamond> Given all of these negative developments, how should the 
        United States recalibrate our policy to send a clear message to 
        the Government of Burma that we do not consider the status quo 
        to be acceptable?

    Answer. Burma's reform process remains a work in progress. It is 
essential for the United States to remain engaged with the Government 
of Burma and with the people of Burma to help shape and facilitate a 
successful democratic transition.
    Burma is now entering the 4th year of its transition from more than 
six decades of authoritarian rule. Undoing the legacy of the repressive 
military regime and building an inclusive and resilient democracy will 
not be easy, fast, or painless. We are clear-eyed that there is more to 
be done to ensure Burma's reforms stay on track.
    President Obama expressed our deep concern about the situation in 
Rakhine State, in particular as it relates to the Rohingya population 
during his recent visit to Burma. In his meeting with Thein Sein just 
last week, President Obama called this issue Burma's ``most urgent 
matter,'' noting the world is watching. The President urged a process 
in Rakhine State that provides humanitarian access for all those in 
need, particularly the Rohingya; does not hold or settle Rohingya 
indefinitely in camps; and allows the stateless to become citizens of 
Burma without having to self-identify as members of a group or 
nationality to which they do not believe they belong. He also 
emphasized that if the situation in Rakhine State continues as is or 
deteriorates further, it threatens to derail Burma's overall reform 
process.
    While we understand that most international NGOs have been able to 
return to Rakhine State, many are at reduced capacity. We have urged 
the Burmese Government to allow humanitarian agencies, including 
Medecins Sans Frontieres (MSF), unimpeded access to all people in need 
of humanitarian assistance.
    The Government of Burma has been working with ethnic armed groups 
to achieve a national cease-fire. The success of the peace process is 
essential to ensuring the success and durability of political and 
economic reform in Burma. We have encouraged continued dialogue among 
the government and ethnic armed forces to bring to a close more than 
six decades of conflict. We stand ready to assist the government and 
ethnic groups implement and monitor, once signed, a nationwide cease-
fire agreement.
    The United States urges all sides to commit to a policy of 
restraint and dialogue as the only path to genuine and lasting peace, 
stability, and development in Kachin State and in Burma as a whole.
    The United States is watching closely the electoral process in 
Burma. The credibility of Burma's 2015 elections is of utmost 
importance to the development of Burma's democratic institutions and 
will serve as a critical marker in Burma's reform process. During the 
President's visit, Parliament rejected a problematic proposal to shift 
to a new, proportional representation electoral system.
    President Obama strongly encouraged constitutional reform during 
his trip to Burma last week, consistent with previous U.S. Government 
statements on the issue. The government and military have repeatedly 
stated they would follow the ``people's will'' when considering 
constitutional amendments and a referendum would be one way to 
accomplish this. By codifying democratic norms into law, including 
through constitutional reform, the Government of Burma can demonstrate 
its commitment to the democratic reform process.
    Constitutional reform should reflect the will of the people of 
Burma, and permit credible, transparent, and inclusive elections that 
enable the people of the country to pick the leader of their choice; 
address rights of members of ethnic minorities; and increase civilian 
control of the military.
    If confirmed, I would continue to work with Burma to make progress 
on the reform process.

    Question. North Korea.--Secretary Kerry has previously stated that 
that the United States should consider diplomatic engagement with North 
Korea at the ``appropriate moment'' and under appropriate 
circumstances. Could you share with us your sense of what might 
constitute an appropriate moment and the appropriate circumstances?

    Answer. The administration has repeatedly offered Pyongyang an 
opportunity to improve its relationship with the United States, 
provided North Korea demonstrates a willingness to fulfill its 
denuclearization commitments. Unfortunately, North Korea has not shown 
a genuine interest in constructive engagement with the United States. 
Instead, it continues to mistakenly believe that it can obtain economic 
assistance and other concessions while pursuing a nuclear program in 
defiance of its own commitments and obligations and the will of the 
international community.
    North Korea abandoned the six-party talks, has violated its 
international obligations and commitments, and openly flouts U.N. 
Security Council resolutions. It is the only country this century to 
test three nuclear devices and threaten the United States with a 
nuclear attack. Therefore, North Korea must demonstrate its seriousness 
of purpose before we would see value in significant diplomatic 
engagement. We remain open to authentic and credible negotiations to 
implement the September 2005 Joint Statement and bring North Korea into 
compliance with all applicable Security Council resolutions. But we are 
not interested in talks for talks' sake. The onus is on North Korea to 
take meaningful actions toward verifiable denuclearization and refrain 
from provocations. We will continue to judge North Korea by its 
actions, not its words.
    As National Security Advisor Rice stated in her November 2013 
speech at Georgetown, ``we are prepared for negotiations, provided that 
they are authentic and credible, get at the entirety of the North's 
nuclear program, and result in concrete and irreversible steps toward 
denuclearization. Pyongyang's attempts to engage in dialogue while 
keeping critical elements of its weapons program running are 
unacceptable.'' I fully share this view.

    Question. U.S. Leadership in International Financial 
Institutions.--While this is ostensibly an issue for the Treasury 
Department, I am concerned about the potential loss of U.S. leadership 
in the international financial institutions, such as the IMF, World 
Bank, and the regional development banks, which we helped to establish. 
We've seen time and time again the critical role these institutions 
play in safeguarding U.S. diplomatic and security interests abroad--
most recently promoting economic reforms in Ukraine. Despite the fact 
that the United States championed the 2010 IMF quota and governance 
reforms, we are now the only major IMF member country that has yet to 
ratify them. I believe that our failure here weakens U.S. diplomatic 
influence and has created a space for countries like China to begin 
crafting new spheres of influence and a new set of institutions that 
exclude the United States.

  <diamond> I want to flag this for you as a source of real concern to 
        me. Please comment on how the failure to move IMF reforms, and 
        to fully support institutions such as the Ex-Im Bank, affect 
        our diplomatic influence in the world.

    Answer. I strongly share your concern. The U.S. failure to ratify 
IMF reform is undermining our leadership on global economic issues, 
which have been a central instrument of our influence since World War 
II. An increasing number of countries are now calling for moving 
forward on the IMF quota and governance reforms agreed in 2010 without 
the United States.
    We are now the only country holding up the approval of the reform 
that will embed large emerging economies in the international economic 
system we designed. Our inaction has helped fuel momentum for regional 
alternatives. The BRICS (Brazil, Russia, India, China, South Africa) 
nations' New Development Bank excludes the United States. In addition, 
21 countries have joined the Chinese-led Asian Infrastructure and 
Investment Bank (AIIB), despite our oft-stated concerns regarding its 
governance structure and its commitment to adhere to international best 
practices on lending.
    U.S. hesitation on IMF reform diminishes our capacity to influence 
at the IMF and more generally on economic issues. This reduces our 
capacity to use the IMF to support vital national security and economic 
interests. The IMF provides critical support to key partners, including 
to support Ukraine's financial security, prevent financial crises in 
the Middle East, and fight Ebola in West Africa. Its financial 
assistance and advice also helps secure foreign economies as markets 
for U.S. goods and investments and sources of investment in the United 
States. Giving important developing economies a greater stake in the 
IMF will preserve the integrity of the existing international financial 
infrastructure, without increasing U.S. monetary commitments or 
endangering the U.S. veto over important IMF decisions. It is critical 
that Congress move forward with the authorization of the 2010 IMF 
reforms.
    With regard to the Export-Import Bank (Ex-Im) specifically, its 
work in the areas of risk protection, credit, and term financing helps 
advance our economic diplomacy by ensuring that U.S. companies--large 
and small--have access to the financing they need to turn export 
opportunities into sales. Ex-Im and U.S. development finance 
institutions such as the Overseas Private Investment Corporation (OPIC) 
are important tools to help U.S. businesses gain footholds in emerging 
markets, creating U.S. jobs and growth opportunities both at home and 
abroad. Supporting these institutions not only contributes to U.S. 
exports and jobs but also helps U.S. products remain competitive 
internationally, particularly in fast-growing emerging markets.

    Question. India.--In September, I met with India's Prime Minister 
in New York and am glad to see that this important relationship appears 
to be back on track and has such potential for growth. Past Deputy 
Secretaries have played pivotal roles in advancing this critical 
relationship--coming out of Prime Minister Modi's visit to Washington, 
what are your priorities with respect to India and how will you seek to 
deepen our engagement with New Delhi?

    Answer. During his visit to Washington, Prime Minister Modi 
emphasized the priority India accords to its partnership with the 
United States, a principal partner in the realization of India's rise 
as a responsible, influential world power. Both leaders committed to a 
new vision for the relationship, reflected in the mantra ``Chalein 
Saath Saath: Forward Together We Go.'' We are working with India to 
bring to fruition our mutual vision that our relationship should 
benefit not just our two countries, but also emerge as a powerful force 
of good for peace, stability, and prosperity in the world. We look 
forward to strengthening our ties in ways that increase prosperity and 
security in both countries through areas of mutual interest including 
regional security, defense trade, cooperation on climate change, 
homeland security and counterterrorism, economic growth, space 
exploration, and sustainable development.
    Defense and security cooperation are pillars of the U.S.-India 
partnership. If confirmed, I will work to further strengthen the 
cooperation between our security establishments to help meet the 
evolving security challenges of the 21st century, including deepening 
our already strong counterterrorism and homeland security cooperation. 
I will also work to advance our defense partnership and strengthen our 
economies by promoting expanded opportunities for coproduction and 
codevelopment of defense articles.
    The United States, including our businesses and universities, can 
play an important role in helping address the challenges India faces 
and creating opportunities that benefit both countries. Investing in 
India's youth through our ongoing community college collaboration and 
Fulbright-Nehru programs for students and administrators will enable 
India to realize its full potential and further strengthen India's 
leadership in promoting global economic prosperity and democratic 
stability. Additionally, the United States seeks to further develop our 
trade and investment ties through initiatives including the November 
2014 U.S.-India Technology summit, Science and Technology Joint 
Commission Meeting, meetings under the Commercial Dialogue, and the 
Trade Policy Forum. These dialogues advance market-opening initiatives 
that foster both bilateral and regional trade and investment linkages, 
deepening our relationship with New Delhi.
    As Deputy National Security Advisor, I worked closely with the 
Indian Government, including through my own regular conversations with 
the Indian Ambassador to the United States, to ensure that the visits 
to Washington by Prime Minister Singh in September 2013 and Prime 
Minister Modi a year later advanced our strategic partnership. I look 
forward to taking our bilateral relationship to new heights if 
confirmed as Deputy Secretary of State.

    Question. Central Asia.--The countries of Central Asia are 
experiencing a wave of renewed Russian assertiveness and unprecedented 
levels of Chinese economic influence. At the same time, the human 
rights situation in Central Asia continues to deteriorate.

  <diamond> Given the need to reorient our policy in the region as ISAF 
        draws down from Afghanistan, how does the administration plan 
        to leverage our diplomatic, economic, and security resources to 
        promote the development of democratic institutions, human 
        rights, and economic growth in the countries of Central Asia? 
        How can the United States better counter the pervasive 
        influence of Russian media and propaganda in the region?

    Answer. The United States will continue to advocate to Central 
Asian governments the need to protect human rights and civil liberties. 
During my time as Deputy National Security Advisor I met with the 
Foreign Ministers of Kazakhstan and Uzbekistan--two of our important 
partners in the region--and discussed with them the need to improve 
governance, to protect human rights, and focused on how good governance 
and respect for human rights are the foundation for long-term economic 
prosperity, stability, and security. The administration will promote 
operating space for independent civil society and stress their valuable 
role in achieving long-term stability by serving as a hedge against 
extremism and popular discontent. The U.S. Government will continue to 
communicate support for the people of the region broadly, with 
particular emphasis on the rights of women, ethnic and religious 
minorities, and members of other vulnerable groups.
    The State Department will combat human rights abuses by supporting 
human rights defenders both through quiet diplomacy and publicly, as 
appropriate. The United States will raise concerns in multilateral fora 
such as the UNHRC and OSCE, and will consistently integrate human 
rights messaging into private U.S. diplomatic engagements. The 
administration will also continue to support the long-term political 
liberalization of Central Asian societies through sustained programs in 
rule of law and institutional reform while cultivating relationships 
with democratically minded actors, both within and outside of 
governments. Through U.S. efforts to promote regional economic 
connectivity, the United States is also seeking opportunities for 
Central Asian countries to find additional economic linkages and 
markets with international partners, including through membership in 
the World Trade Organization.
    Besides the unwavering support for a democratic, human-rights 
respecting Central Asia, the most consistent element of U.S. policy and 
assistance programs in Central Asia for the past 20 years has been to 
support the independence, sovereignty, and territorial integrity of the 
five states. That policy will not change, especially with Russia's 
assertion of a so-called right of protection of Russian-speaking 
populations and of an ``exclusive sphere of influence'' in Central 
Asia. Countering Russian media influence in the region requires a 
strategy that is sustained and uses multiple lines of activity. The 
administration will continue to support programs aimed at strengthening 
independent media in Central Asia to increase the diversity of voices 
and opinions in the media space. U.S. programs will focus on 
strengthening journalism capacity and quality in Russian and vernacular 
languages, so that local broadcasters can attract more audiences and 
offer citizens alternative, balanced sources of information. The 
Department of State will also increase people-to-people interactions 
with Central Asian communities through its public diplomacy and 
assistance efforts to bolster opinion leaders who understand U.S. 
policies and values, and amplify our messaging.

    Question. As the Hungarian Government continues to openly admire 
authoritarian regimes like Russia and test repressive methods of 
control over civil society, what steps will the administration take to 
strengthen democracy and discourage further backsliding in Hungary?

    Answer. We have raised concerns about the state of Hungary's 
democracy, both publicly and privately.
    For example, we have criticized legislation passed since 2010 that 
has had a negative effect on democratic institutions and media freedom 
in Hungary. Earlier this year the United States made several statements 
at the Organization for Security and Cooperation in Europe's Permanent 
Council and Human Dimension Implementation Meeting citing the 
Government of Hungary's intimidation of civil society and the media. In 
addition, we have applied Presidential Proclamation 7750 (as well as a 
similar authority, referred to as the FY 2014 Anti-Kleptocracy 
Provision) to certain Hungarian officials. Presidential Proclamation 
7750 provides authority to suspend entry of certain persons, including 
current or former government officials, engaged in or benefiting from 
official corruption. In September, the President cited Hungary in his 
remarks at a Clinton Global Initiative event on civil society, saying 
``From Hungary to Egypt, endless regulations and overt intimidation 
increasingly target civil society.'' We have taken these steps as a 
friend and ally of Hungary. Many of our concerns are shared by our 
partners in Europe, by an array of European institutions, as well as by 
many Hungarians themselves.
    If confirmed as Deputy Secretary, I will continue this forthright 
and constructive diplomatic dialogue with the Hungarian Government as 
well as our efforts to support Hungary's democratic institutions and 
civil society.

    Question. European security also means energy security. Europe must 
diversify its supply and invest in its energy infrastructure. Greater 
regional cooperation, such as in the Eastern Mediterranean, can help, 
but Turkey's provocations in Cyprus' EEZ are creating instability that 
puts at risk further exploration and the placement of projects that 
would benefit Greek and Turkish Cypriots alike.

  <diamond> What actions have you taken and what messages have you sent 
        about Turkey's decision to send its ships into Cyprus' EEZ? 
        What more can and should the administration do to encourage 
        Turkish and Greek Cypriots to resume U.N.-facilitated peace 
        negotiations?

    Answer. I share your concern about recent developments and can 
assure you that the Obama administration remains strongly committed to 
a just and lasting settlement to reunify the island of Cyprus as a 
bizonal, bicommunal federation. If confirmed, I will reinforce our 
diplomatic efforts to achieve such a settlement. We support Cyprus' 
right to develop its resources in its Exclusive Economic Zone (EEZ) and 
believe that the island's oil and gas resources should be equitably 
shared between both communities in the context of an overall 
settlement. Reducing tensions and getting the parties back to the 
negotiating table as soon as possible are critical to advancing the 
peace process.
    The administration remains fully engaged with all stakeholders to 
reduce tensions over the EEZ and in support of United Nations Special 
Advisor Espen Barth Eide's efforts to move past the current impasse and 
resume negotiations. The Vice President spoke with President 
Anastasiades on October 31 and underscored our support for the Republic 
of Cyprus' sovereignty and right to develop resources in its Exclusive 
Economic Zone, in keeping with customary international law. He also 
expressed our hope that all states in the region would pursue a 
mutually beneficial approach to developing energy resources. During the 
Vice President's November 21-23 visit to Turkey, he discussed with 
Turkish officials how Ankara can play a constructive role in defusing 
tensions and getting the talks back on track.
    I appreciate your continued support of the settlement process. I 
assure you of the administration's unwavering commitment to resolving 
the long-standing division of the island, which we believe will enhance 
regional stability and prosperity, as well as improve the lives of all 
Cypriots.

    Question. A Europe whole, free, and at peace is no longer something 
we can take for granted. The administration acknowledged this when it 
announced the European Reassurance Initiative in June, which will 
ensure a persistent air, land, and sea presence in the region. We must 
also work with our European allies to ensure they recommit to NATO and 
to collective security.

  <diamond> Given the difficult economic environment in Europe, how 
        should we work with our NATO and European allies to hold member 
        countries accountable to defense spending increases in line 
        with agreements made at the NATO Wales summit in September?

    Answer. We continue to press our NATO allies at the highest levels 
to honor the Defense Investment Pledge agreed at the NATO Wales summit 
in September, which includes commitments to halt declines in defense 
spending, as well as aim to spend 2 percent of gross domestic product 
on defense within 10 years. Allies also agreed that in order to ensure 
future capabilities, allies should allocate at least 20 percent of 
their defense spending to equipment, procurement, and research and 
development. NATO Defense Ministers will be reviewing progress against 
these benchmarks on a regular basis.
    We recognize the financial pressures that our allies face, but 
cutting defense is not the answer, particularly in the context of the 
current security environment in Europe. We will continue urging NATO 
allies to dedicate the resources necessary to ensure NATO's ability to 
deter and, if necessary, respond to threats.

    Question. At the NATO Wales summit in September, Secretary Kerry 
met with the Presidents of Armenia and Azerbaijan regarding renewed 
fighting in July along the Nagorno-Karabakh Line of Contact. Last 
week's downing of an Armenian helicopter by Azerbaijan that took the 
lives of three Armenians reinforces the importance of resolving the 
Nagorno-Karabakh conflict and ensuring it does not turn into an all-out 
conflict.

  <diamond> What is the administration currently doing to support the 
        OSCE Minsk Group Talks? Has there been progress in the Minsk 
        Group toward reaching a political settlement? What are the 
        chances an all-out conflict will resume?

    Answer. The administration remains firmly committed to a peaceful 
resolution to the Nagorno-Karabakh conflict through the OSCE Minsk 
Group format, and fully supports the OSCE Minsk Group Co-Chairs' 
efforts to help the sides reach a lasting settlement. The recent 
meetings of the Presidents of Armenia and Azerbaijan in Sochi, Wales, 
and Paris were important for revitalizing the most important channel of 
communication between the sides. At all three summits, the Presidents 
discussed key elements of a settlement to the conflict, and at Paris, 
they agreed to continue their dialogue next year under the auspices of 
the Minsk Group Co-Chairs. As a Co-Chair country, the United States is 
in constant touch with the sides at the highest levels to facilitate a 
political settlement.
    We are very concerned by the November 12 downing of an Armenian 
military helicopter along the Line of Contact. The administration 
continues to urge the sides to avoid an escalation of violence and 
commit themselves to peace.

    Question. By any measure, the human rights situation in Azerbaijan 
has deteriorated over the last year. Freedom House, in its annual 
Freedom in the World report, determined that freedom declined in 2013, 
and has stated that the country is in the midst of what some would call 
the most brutal crackdown on civil society in recent history, citing 
arrests and attacks against the media, activists, and government 
critics, as well as travel bans, the freezing of bank accounts, and 
public smears to silence dissent. According to international NGOs, the 
Azerbaijani Government currently has over 100 political prisoners. Many 
in the international community are calling for sanctions against 
Azerbaijan in response to the rapidly deteriorating human rights 
situation.

  <diamond> Would you support U.S. financial sanctions and travel 
        restrictions against the Azerbaijani Government and any 
        officials who have supported, promoted, or perpetrated human 
        rights abuses?

    Answer. If confirmed, I will urge the Azerbaijani authorities, 
consistent with Azerbaijan's constitutional and international 
commitments, to ensure freedoms of assembly, association, and 
expression; to foster an environment conducive to a vibrant and 
peaceful civil society; to respect pluralism; and to strengthen 
judicial independence and due process. I will also urge the Government 
of Azerbaijan to halt the continuing arrests of peaceful activists, to 
stop freezing organizations' and individuals' bank accounts, and to 
release those who have been incarcerated in connection with the 
exercise of their fundamental freedoms, as previously noted in several 
U.S. statements to the OSCE Permanent Council and at the Human 
Dimension Implementation Meeting. I would welcome the opportunity to 
work more closely with the Senate on these threats to Azerbaijan's 
long-term stability and security. I look forward to working closely 
with all partners--domestic and international--to advance respect for 
fundamental freedoms for all Azerbaijani citizens and ensure that civil 
society can conduct its work as effectively as possible.

    Question. Reform in the Middle East.--In remarks on November 17 at 
the 3rd Annual Transformation Trends Policy Forum, Secretary Kerry said 
``Even as we mobilize forces to defeat ISIL, we must also encourage 
measures to reform governance and create opportunity throughout the 
MENA region. That will not happen by trying to persuade the local 
population to turn away from its rich spiritual and cultural 
traditions. Change must develop from inside. But by reaching out where 
we can, investing in what we can, the United States can help to furnish 
the leverage that builders within the region seek.''

  <diamond> If confirmed, what specific policies, programs, and 
        engagements would you recommend to implement this vision for 
        supporting reform? Does the State Department and the broader 
        interagency have appropriate and sufficient authority and 
        funding to move forward in promoting reform? The State 
        Department's FY15 budget request did not include funding for 
        the Middle East and North Africa Incentive Fund. Why?

    Answer. If confirmed, I would be a strong advocate for the 
Department's commitment to a reform agenda that supports greater 
political and economic opportunity for people in the MENA region. Our 
diplomatic engagement and assistance programs can bolster the 
leadership and technical capacities for country reform agendas. Where 
there are effective local champions, political will and a commitment to 
reform, our diplomatic engagement and assistance programs can provide 
support for the realization of these reforms.
    Throughout the region, we will continue to engage civil society, 
government and nongovernment leadership to support reforms aimed at 
economic growth, democracy, and good governance. In Tunisia we will 
target our assistance to the development of security and governance 
institutions and a vibrant economy. Tunisia serves as an example to 330 
million Arabs that democracy and Islam are compatible and that their 
futures are better served by dialogue and compromise. Our assistance to 
Jordan has supported progress of a home-grown Jordanian political 
reform program, that has resulted in, among other things, 
internationally praised national and local elections, constitutional 
amendments, and the establishment of a National Integrity Commission, 
an Independent Election Commission, and an Anti-Corruption Commission. 
Our assistance to Jordan is and will continue to be premised on 
promoting political and economic reform. We will continue to work with 
countries that have made tangible commitments to and progress on 
reform. Regionwide, we will continue our support for civil society and 
private sector actors pressing for more inclusive political processes 
and open economic systems.
    The Department is committed to increasing economic opportunity for 
citizens in the region, particularly youth. Youth unemployment is one 
of the most critical challenges facing the region and we have been 
focusing our foreign assistance programming to target this complex 
issue, alongside other donors. We will continue to invest in areas that 
promote development of the private sector as an engine for growth and a 
workforce that responds to evolving economies.
    In support of these efforts, for FY 2015, the Department requested 
over $2 billion specifically to respond to the ongoing opportunities 
for reform in the region and to respond to the crisis in Syria. These 
funds would provide humanitarian assistance, support to the moderate 
Syrian opposition, and economic and governance assistance to countries 
in the region based on their needs and reform commitments. The 
administration requested authorities to support reform efforts and 
respond flexibly to the changing situation on the ground. The 
Department has also requested budget amendments to address increasing 
needs in countries bordering Syria and to counter-ISIL. Together, these 
resource requests reflect a firm commitment to the region and the 
United States strategic interests there.

    Question. Iraq.--Since Iraqi leaders came together to form a new 
government and agree on a new Prime Minister, the United States has 
used air power to halt ISIL's advance, advised Iraqi Security Forces 
(ISF) and Peshmerga forces in order for them to retake territory and 
strategic assets, and has recently announced the deployment of 1,500 
additional U.S. military advisors to Iraq and requested $1.6 billion to 
stand up a special Iraqi Train and Equip Fund. Yet, the conditions that 
led to ISIL's entrenchment in Iraq have not fundamentally shifted: 
Sunni prisoners still languish in Iraqi prisons, the Iraqi Security 
Forces remain infiltrated by Shia militias who seemly commit sectarian 
acts of violence with impunity, and the Iraqi Parliament recently 
approved a Badr Brigade Member as the new Minister of Interior--this is 
a group trained by the Iranian Revolutionary Guards!

  <diamond> How will you recommend that U.S. advice and assistance be 
        used to influence responsible Iraqi decisionmaking and 
        encourage Iraq's implementation of an inclusive, nonsectarian 
        agenda? Is the United States willing to withhold support, 
        assistance, and funding for Iraq if these long-standing 
        concerns, which are in the interest of all Iraqis' security and 
        stability, are not addressed?

    Answer. President Obama this summer made clear that U.S. airstrikes 
and kinetic action to halt ISIL's advancement into Iraq would not be 
effective absent forward movement in Iraq's democratic process, aided 
by the selection of new Prime Minister Haider al-Abadi, who has 
committed, through words and actions, to reform the policies of his 
predecessor and govern in an inclusive manner. U.S. officials, 
including in my own meetings with the new Abadi government during my 
visit to Iraq last month, have made clear to the that ISIL cannot be 
defeated by military action alone; wholesale political reform and 
inclusive governance are essential to unifying the Iraqi people against 
the extremist threat and promoting stability in the country.
    Already, we have seen significant progress in efforts at reform. 
One of Prime Minister Abadi's first actions in office was to abolish 
the Office of the Commander in Chief, an office that had centralized 
control of the security command structure under former PM Maliki. PM 
Abadi also successfully completed the formation of his government on 
October 18, securing the confirmation of security ministers, to include 
a prominent Sunni Minister of Defense, for the first time in 4 years. 
The completion of Abadi's government represented the outcome of a 
political compromise to which all major components of Iraq's polity 
agreed. The new Minister of Interior, Mohammed Ghabban, is a member of 
the Badr Corps political party, which performed strongly in the recent 
parliamentary elections. His selection was indicative of successful 
political compromise between differing political blocs to choose a 
candidate that was both popular among Shia factions and acceptable to 
Sunni blocs in Parliament. Among Minister Ghabban's first acts in 
office were visits to Qatar and Saudi Arabia to discuss cooperation 
with those states as well as with Iraq's other predominantly Sunni 
neighbors.
    Though progress remains an uphill battle, within 5 weeks of 
completing his government, PM Abadi has taken significant and decisive 
action to enact political and security reforms aimed at uniting the 
country. On November 12, Abadi continued forward momentum by removing 
36 high-level military commanders in an anticorruption drive and 
appointed 18 new commanders, including Sunnis, to high level positions.
    Through concerted engagement, many Sunni tribes have also joined 
the government in the fight against ISIL and are entering agreements to 
be incorporated into the ISF. On November 11, the Government of Iraq 
(GOI) presided over a ceremony marking an agreement to arm and 
compensate over 3,000 Sunni tribesmen, thereby formalizing their role 
in the fight against ISIL and affirming the GOI's commitment to include 
Sunnis in the process. The Abadi government also is committed to 
creating a National Guard as a mechanism to engage Sunnis in the 
defense of their own communities, with full support from the state. At 
the same time we engage to support Sunni inclusion in security forces, 
we have also made clear, privately and in public statements, concerns 
over unregulated Shia militias, the necessity to regulate all armed 
groups, and the importance of holding individuals accountable for human 
rights abuses. Senior GOI officials and Iraq's most prominent religious 
leaders agree and have stressed similar in public statements.
    Significant work, however, remains to be done. In every interaction 
with senior GOI officials, Ambassador Jones, other State Department 
officials, and I stress the priority of finding political solutions to 
the ISIL problem, emphasizing that a key element to the success of 
defeating ISIL in Iraq is the improvement of the socioeconomic 
conditions that allowed ISIL to foment. This includes additional 
political reform to address Sunni grievances and additional respect and 
promotion for human rights. Iraq's inclusive new government has pledged 
to enact reforms and stamp out corruption that has marginalized Iraqis 
of all ethnicities and religious sects and has taken initial steps to 
deliver on its promises.
    U.S. security assistance, which comprises the preponderance of our 
support to Iraq, is targeted to enable Iraq to better combat terrorist 
groups, including ISIL. This assistance is also important in helping 
Iraq continue to protect its oil production capabilities, which are 
vital not only for supporting the Iraqi Government's finances, but also 
for the health of the global economy.
    U.S. assistance also serves U.S. goals; further limiting or 
conditioning it would reduce our progress toward those goals and 
undermine our influence in Iraq. Even without the ISIL threat, U.S. 
security assistance provides an important vehicle for cementing the 
United States enduring partnership with Iraq. Security cooperation on 
critical systems provides a basis for a long-term relationship.
    I assure you your concerns are being heard, and political reform 
and respect for human rights remain policy priorities, which are 
supported through robust assistance programs. However, conditioning our 
assistance could hinder progress toward our goals in Iraq, reduce our 
influence, and undermine U.S. national security interests. If 
confirmed, I would welcome working closely with the committee to make 
our assistance as effective as possible and to advance the reforms 
necessary to Iraq's progress and stability.

    Question. Syria.--Recent reporting suggests that al-Qaeda's Syria 
affiliate the Nusra Front is coordinating on the ground in Syria with 
ISIL. While this may not be a strategic alliance, the decision by these 
extremist groups to coordinate even tactically on the ground introduces 
serious complications for the ``ISIL first'' strategy and a threat to 
the moderate Syrian fighters we are seeking to empower with the train 
and equip program. Further, earlier this month Nusra Front ousted U.S.-
backed opposition fighters from Idlib province in northern Syria, 
dealing the moderate opposition a serious blow.

  <diamond> What are the specific implications of Nusra Front-ISIL 
        cooperation in Syria, and how will this affect our strategy to 
        dismantle and defeat ISIL? Further, the train and equip program 
        is intended for U.S.-backed fighters to defend their 
        communities and fight ISIL. But given recent developments, are 
        there any moderate fighters left in northern Syria for us to 
        train? If reauthorized, the train and equip program for 
        moderate Syrian fighters will not deliver effects on the ground 
        for the better part of a year. What can we do in the interim to 
        empower the moderates in Syria?

    Answer. Defeating the Islamic State in Iraq and the Levant (ISIL) 
is a complex challenge. We are working closely with other members of 
the anti-ISIL coalition on multiple lines of effort. This is a 
multiyear strategy that will need sustained support. Potential 
cooperation between Nusra and ISIL does not alter our strategy to 
counter ISIL: as we have said in the past, defeating ISIL will take 
more than just military might; it will require us to address the issues 
of foreign fighters, terrorist financing, supporting moderate partners 
on the ground to provide basic governance and counter extremist 
ideology. Weakening ISIL in each of these ways will make their areas of 
operation less hospitable for extremists of all stripes, including 
Nusra.
    We are also increasing our assistance to the moderate opposition in 
Syria, which is fighting both ISIL and Nusra. As we move forward with 
the Department of Defense train and equip program for the moderate 
opposition, we do not anticipate a shortage of moderate recruits. We 
will tap into an already existing pool of Syrians who have repeatedly 
expressed a desire to receive assistance to help defend their 
communities and facilitate a political solution to the crisis. We will 
also seek to link the military train and equip effort to civilian 
opposition leadership at both the local and national level and to 
enable these civilian structures to provide basic governance, including 
rule of law and essential services, to their communities.

    Question. Yemen.--How can U.S. assistance and engagement support 
the newly formed technocratic government in Yemen to move forward with 
political reconciliation?

    Answer. The United States daily, on-the-ground engagement in Sanaa 
has been critical to keeping the political transition process on track 
and continuing to counter the shared threat from Al Qaeda in the 
Arabian Peninsula (AQAP) despite the current very difficult period. Our 
continued engagement and assistance programs will help enable the 
government to better provide basic services and support for its 
population, nearly half of whom live in poverty, and help it to defend 
itself from internal and external threats. Our current support to 
Yemen's health and education sector and our support to its military and 
security services contribute to this goal. Coordinating closely with 
others in the region and among the international community, we are 
supporting the new government's efforts to work broadly with all 
political constituencies as it seeks to successfully implement the Gulf 
Cooperation Council (GCC Initiative), the National Dialogue Conference 
outcomes, and the Peace and National Partnership Agreement.
    We are working with the Yemeni Government and international 
partners to ensure that urgent reforms are completed as part of the 
political transition. Our efforts will better enable support to a 
strong, capable government that can show all of Yemen's political 
factions that only through consensus and cooperation will the country 
be able to overcome its challenges.

    Question. What are the implications of the Libyan Supreme Court's 
ruling that the House of Representatives is unconstitutional? Please 
describe U.S. policy and engagement to date in Libya, and what 
specific, additional measures would you recommend to encourage movement 
toward a political solution?

    Answer. Our recognition of the Libyan Government currently headed 
by Prime Minister Abdullah al-Thani remains unchanged as we study the 
November 6 Supreme Court decision. Libyans themselves have many 
questions about the Court's decision. Our priority is to seek a 
political solution that helps the Libyan people build a national 
government and a national consensus on the path forward. Thus we urge 
Libyan leaders to participate constructively in U.N. Special 
Representative of the Secretary General (SRSG) Bernardino Leon's work 
to develop that consensus. Those who engage in or provide support for 
acts that threaten the peace, stability, or security of Libya may be 
designated for sanctions under U.N. Security Council Resolution 2174, 
and those associated with al-Qaeda or its affiliates may be designated 
for sanctions under U.N. Resolution 2161.
    Ambassador Deborah Jones and her staff are engaging with a full 
range of Libyans from our Embassy in Valletta, Malta, in coordination 
with other international envoys to build support for SRSG Leon's 
effort. Similarly, a wide range of senior Washington-based officials 
are engaging Libyans and other partners to build support for the U.N.'s 
efforts.

    Question. The administration has invested heavily in building an 
anti-ISIL coalition that includes not only Western governments but also 
regional governments including many Arab States and Turkey. However, 
there is tension within the coalition as many regional coalition 
members as well as Syrian Opposition Coalition President Hadi al-Bahra 
have criticized the administration's ``Iraq first'' strategy of 
confronting ISIL to be addressing a symptom of the violence in and 
around Syria rather than the cause, which they consider to be the Assad 
regime and its unrelenting attack on its own people.

  <diamond> If confirmed, how will you work to manage this tension 
        within the coalition?

    Answer. Since the President's September 2014 establishment of the 
global coalition to counter ISIL, the U.S.-led coalition has grown to 
more than 60 partners. Coalition partners are working together across 
multiple mutually reinforcing lines of effort including military 
support, stopping the flow of foreign fighters, countering ISIL's 
financing and funding, addressing humanitarian crises, and de-
legitimizing ISIL's ideology. With a coalition this large and this 
diverse, of course there will be some differences of opinion on 
strategy, but the threat that ISIL represents--to Iraq, to Syria, to 
the broader region, and to the global community--has galvanized 
coalition focus and solidarity and inspired the coalition to take 
action to counter ISIL in both Iraq and Syria. We will continue to work 
to balance the different capacities and concerns of our coalition 
partners as we move forward on our campaign against ISIL, including 
through kinetic strikes in both countries and by building the capacity 
of partners on the ground--the Iraqi Security Forces and Peshmerga in 
Iraq, and the moderate opposition in Syria.
    In all these efforts, we are working hand in hand and consulting 
closely with coalition partners, and senior U.S. officials have 
dedicated significant time and energy to building and sustaining the 
counter-ISIL coalition and will continue to do so. The President, Vice 
President, the Secretary, the National Security Advisor, and I have all 
worked with our coalition counterparts as we advance implementation of 
our strategy. Special Presidential Envoy to the Global Coalition to 
Counter ISIL, John Allen, and his deputy, Brett McGurk, have been 
traveling through the region almost nonstop for the past few months 
doing the serious diplomacy that is required to keep this coalition 
strong and united. This will be a complex, long-term campaign, and we 
will continue to work closely with all our global coalition partners to 
listen to their ideas and concerns and to refine our strategy as 
necessary in our shared efforts to degrade and defeat ISIL.
    As for the conflict between the regime and the opposition in Syria, 
Assad has created the conditions that have allowed ISIL and other 
extremist groups to flourish, and it is clear that Syria can never be 
stable under his leadership. As the President has said, Assad lost all 
legitimacy a long time ago. We continue to call for a negotiated 
settlement that leads to a political transition and that addresses 
Syrians' legitimate grievances. Though our efforts in Syria currently 
are focused on countering ISIL, our support to vetted, moderate 
elements of the armed opposition will enable it to act as a 
counterweight to ISIL and the regime and ultimately to help create the 
conditions to end the civil war in Syria

    Question. In May Assistant Secretary Roberta Jacobson testified 
before this committee that the unrestricted trafficking of drugs 
through Venezuela constituted a national security threat to the United 
States. On top of that, this year, we've seen the Venezuelan Government 
use its security forces and judiciary to punish political dissent, 
leading to 43 deaths, more than 50 documented cases of torture, and 
thousands of unlawful arrests. Additionally, while high profile 
political prisoners, like Leopoldo Lopez, remain in prison, where he is 
subjected to cruel and degrading treatment, not one member of the 
government has been held accountable for their role in systematic human 
rights violations. Although this committee passed bipartisan 
legislation requiring enactment of targeted human rights sanctions, 
administration officials asked us to delay further action.

  <diamond> Do you believe that congressional action should still be 
        delayed? (FOLLOW-UP) Will you advocate for more forceful 
        executive action--including asset freezes and visa 
        revocations--against human rights violators in Venezuela?

    Answer. The administration has already taken steps such as imposing 
visa restrictions on government officials who are believed to be 
responsible for or complicit in human rights abuses. We need to look at 
all options to find the most effective way to encourage the Venezuelan 
Government to respect democratic principles and the human rights of its 
citizens. The most effective efforts are those taken in conjunction 
with partners. We will continue to work closely with others in the 
region to support greater political space in Venezuela, and ensure the 
government lives up to the hemisphere's shared commitment to the 
promotion of democracy, as articulated in the Inter American Democratic 
Charter.
    As I noted during my hearing, if confirmed, I would look forward to 
working with Congress to build on the administration's actions to date 
and determine what we can do to go further, including through 
legislation. We should not take any options off the table. Financial 
sanctions have proven effective in some situations, and could 
potentially be a useful tool, if targeted toward specific individuals 
and entities and used in concert with diplomatic efforts to advance 
specific U.S. foreign policy goals. We would not oppose moving forward 
with additional sanctions, and if confirmed, I would review our options 
under existing authorities and work with Congress to promote alignment 
between executive and legislative measures aimed at promoting improved 
human rights conditions in Venezuela.

    Question. Turkish President's RecepTayyip Erdogan history of both 
anti-Semitic remarks and actions are deeply troubling. For example, his 
recent statements that Israeli actions in Gaza were more barbaric than 
the atrocities perpetrated by the Nazis and accusations of Israel 
committing genocide in Gaza, were factually wrong and deliberately 
inflammatory. The State Department rightly condemned them. President 
Erdogan must understand that such words and deeds not only hinder the 
cause of peace but also make it difficult for Congress to support 
further defense sales, training missions, or trade promotion with 
Turkey.

  <diamond> How will you respond should President Erdogan make further 
        anti-Semitic statements?

    Answer. We are deeply concerned by anti-Semitic statements made by 
Turkish leaders and engage directly at all levels to express our 
disapproval of such statements. As you note in your question, we have 
publicly and privately condemned President Erdogan's unacceptable 
remarks claiming Israeli actions in Gaza were more barbaric than the 
atrocities perpetrated by the Nazis, which were self-evidently wrong, 
unhelpful, and distracted from efforts to bring an end to the violence. 
President Obama most recently discussed our concerns over anti-Semitism 
in Turkey with President Erdogan during their September 5 meeting in 
Wales and the Vice President raised these same concerns during his 
visit to Turkey last week. Our Ambassador and Embassy officers also 
meet regularly with the Jewish community to discuss their concerns over 
security and religious freedom, and to promote interfaith dialogue. If 
I am confirmed as Deputy Secretary, I will not hesitate to denounce 
anti-Semitic statements, from wherever they emanate. We will also 
continue to engage with Turkish officials and urge them to promote 
tolerance and avoid anti-Semitic rhetoric.

    Question. Tunisia.--Tunisia is the closest thing to a ``success 
story'' with regard to democratic nation-building to come out of the 
events of Arab Spring, especially after the successful parliamentary 
elections held there a few weeks ago. It is certainly in the U.S. 
national interest to support Tunisia's path to democracy and an 
important example to other peoples in the region still struggling to 
create inclusive, representational governments of their own.

  <diamond> What are the U.S. political, economic, and security 
        interests in, and goals for, Tunisia? How does the U.S. 
        strategy for engagement and assistance align with these 
        objectives? What types of U.S. assistance, security and 
        otherwise, have been most effective since 2011 in addressing 
        Tunisia' security challenges and promoting economic and 
        political reform, and an active civil society?

    Answer. Tunisia's transition offers hope for genuine democratic 
change in North Africa and the Middle East. Ensuring Tunisia's 
stability through economic, security, and governance support is 
important to U.S. national interest due to its strategic location, and 
as a counterbalance to ISIL's violent and extremist behavior elsewhere 
in the region. Increased economic engagement, through supporting 
private sector investment and economic reforms, will be central to 
supporting the Tunisian Government's efforts to drive sustained growth 
and employment and diversify its trade.
    In the security sector, $150 million in U.S. security assistance 
has helped the Tunisian military and other security agencies reorient 
their focus from one geared toward conventional threats to one capable 
of addressing asymmetric challenges. Tunisia is also a partner in the 
Security Governance Initiative (SGI) announced by President Obama at 
the U.S.-Africa summit in August, which provides a vital avenue to 
support Tunisian work to strengthen civilian and military security 
institutions. Overall, the Tunisians have made considerable strides, 
but need to do more and will look to the United States for expertise 
and support.
    The provision of nearly $1 billion in external financing secured 
with sovereign loan guarantees, including U.S. assistance, has been an 
important U.S. support mechanism for Tunisia. The United States has 
used these loan guarantees as a means to incentivize Tunisia's reform 
efforts. Encouraging private sector investment is also critical to 
Tunisia's long-term stability. Foreign assistance programs are geared 
toward promoting a culture of entrepreneurship and linking youth with 
private sector employment. Additionally, the U.S. Government is 
supporting the March 5, 2015, North Africa (PNB-NAPEO) Investment and 
Entrepreneurship Conference in partnership with the Aspen Institute, 
which will seek to drive critical private sector investment in Tunisia.
    We also believe that intensifying contact between Americans and 
Tunisians, especially Tunisia's increasing youth population, are 
extremely important and we have therefore expanded scholarship and 
exchange programs with Tunisia.
    U.S. assistance for democratization and governance initiatives, 
through support to the Tunisian elections and political party-building, 
as well as for increasing the participation of marginalized groups in 
the political process, contributed to the parliamentary elections that 
Tunisians and the international community have widely seen as credible 
and legitimate. Staying engaged with Tunisia in building responsive 
government institutions and promoting the role of civil society will 
remain critical as Tunisia moves into the next phase of its democratic 
transition.
                                 ______
                                 

             Responses of Antony John Blinken to Questions 
                    Submitted by Senator Bob Corker

    Question. In your testimony you said: ``We liberated the people of 
Libya from a tyrant; now, we must work with the new government to fill 
a power vacuum and address that country's turmoil.''

  <diamond> Does the U.S. Government still recognize the Tobruk-based 
        government and the Libyan House of Representatives to be the 
        sole legitimate governing authorities in Libya? If so, what 
        steps will the U.S. Government take to isolate their Tripoli-
        based rivals? If not, what steps will the U.S. Government take 
        to put pressure on all sides in Libya's current political 
        impasse to ensure their commitment to a political solution?
  <diamond> How does the U.S. Government view the HOR's endorsement of 
        General Khalifa Haftar's military operations?
  <diamond> Under what circumstances would the United States Government 
        consider taking military action against terrorist targets in 
        Libya? Under what authority? Which groups presently operating 
        in Libya are subject to the 2001 AUMF?

    Answer. Our recognition of the Libyan Government currently headed 
by Prime Minister Abdullah al-Thani remains unchanged as we study the 
November 6 Supreme Court decision. Libyans themselves have many 
questions about the Court's decision. We remain committed to helping 
the Libyan people achieve national consensus on the path forward, and 
continue to urge Libyan leaders to engage productively with U.N. 
Special Representative of the Secretary General (SRSG) Bernardino Leon 
to develop that consensus. Those on both sides of the conflict who 
engage in or provide support for acts that threaten the peace, 
stability, or security of Libya may be designated for sanctions under 
U.N. Security Council Resolution 2174, and those associated with al-
Qaeda or its affiliates may be designated for sanctions under U.N. 
Resolution 2161.
    Libyans and the United States share real and serious concerns about 
terrorist activities in Libya. Counterterrorism operations should be 
overseen by a government that draws its authority from a clear and 
broad popular mandate to have the best chance of success. That is why 
we support SRSG Leon's effort to create a national political consensus 
before the violence in Libya grows worse.
    We regularly assess terrorist threats to the United States and our 
interests, in Libya and elsewhere. Before conducting any military 
action, the United States would ensure that it had sufficient 
authorities for the operation.
    Over the past 2 years, the United States has conducted two 
operations in Libya that underscore our Nation's commitment to 
protecting our citizens. In October 2013, U.S. Forces captured Abu Anas 
al-Libi, a senior al-Qaeda figure, indicted for his alleged role in al-
Qaeda's conspiracy to kill U.S. nationals and conduct attacks against 
U.S. interests worldwide, including the East Africa Embassy bombings in 
1998. In June 2014, the U.S. military, in cooperation with law 
enforcement personnel, captured Ahmed Abu Khattalah, indicted for 
numerous offenses arising from his alleged participation in the 
September 2012 terrorist attacks in Benghazi, Libya, which led to the 
deaths of four brave Americans.

    Question. The administration is seeking $165 million in additional 
ESF and PKO funding to support the Syrian opposition as part of its 
anti-ISIL OCO request for FY 2015. How will the proposed uses of these 
funds differ substantively from previous U.S. support to opposition 
groups? What has past U.S. support tangibly achieved?

    Answer. The $165 million in additional resources for Syria 
requested in the counter-ISIL FY 2015 OCO budget amendment, combined 
with the President's FY 2015 budget request, will ensure that 
sufficient resources are available to build the capacity of moderate 
partners inside Syria as they seek to counter ISIL, provide local 
security and governance in their communities, and help foster the 
conditions that can lead to a political transition. These additional 
resources would work in parallel with the Department of Defense efforts 
to train and equip vetted, moderate Syrian opposition fighters, and to 
ensure that there is an effective, moderate governance structure within 
which a new military force will operate.
    Current U.S. support to the moderate opposition is positively 
impacting the lives of Syrians on a daily basis. For example:

  <bullet> Support to local governance institutions: The United States 
        provides operational funding to support more than 25 local 
        councils and civil society organizations to enable them to 
        respond to community needs and improve governance in liberated 
        areas.
  <bullet> Training and equipment to enhance the capacity and cohesion 
        of local councils and civilian activists: The United States has 
        trained over 1,400 civilian activists and councilmembers from 
        over 300 opposition councils and organizations. The United 
        States has also trained more than 500 Syrian women running as 
        candidates for local and provincial councils and to play a role 
        in international and community-driven peacebuilding efforts. 
        These initiatives help to mobilize and build the capacity of 
        citizen groups, enhance information-sharing, provide community 
        services, and strengthen local governance.
  <bullet> Supporting Civil Defense: The United States has provided 
        over $12.6 million in civil defense equipment for emergency 
        first responders. This includes the provision of 155 trucks and 
        vehicles such as ambulances and fire trucks in addition to 
        search and rescues kits and supplies to establish emergency 
        shelters. This life-saving assistance allows civil defense 
        teams in Aleppo, Idlib, Hama, Deir ez-Zor and Raqqah to provide 
        emergency response to attacks on civilians.
  <bullet> Technical expertise and immediate repairs to restore water, 
        electricity, and agriculture that benefit more than 100,000 
        Syrians. Working closely with Syrian engineers, relief 
        committees, and local councils, the United States has assisted 
        farmers, small businesses, and communities to reinstate 
        economically viable activities through repair of equipment, 
        facilities, provision of spare parts and alternative technology 
        to improve the agricultural based local economies.
  <bullet> Support for Civil Society: The United States supports 
        hundreds of nascent Syrian civil society organizations working 
        on a broad range of issues in support of local governance 
        efforts, including: relief and recovery, education, trauma 
        healing, human rights documentation and promotion, peace-
        building and reconciliation, and transitional justice.
  <bullet> Support for Independent Media: The United States supports 
        nine FM radio and two satellite TV independent media stations. 
        This support enables Syrian journalists to counter regime and 
        violent extremist narratives, laying the foundation for 
        inclusive tolerant debate.
  <bullet> Non-Lethal Support to Moderate Armed Opposition: The United 
        States is supporting vetted elements of the moderate, armed 
        opposition to enhance their operational capabilities to better 
        protect the Syrian people. For example, we have provided more 
        than 550,000 MREs, more than 4,500 medical kits, vehicles, 
        pickup trucks and buses, armored SUVs and ten-ton trucks to 
        help improve their logistical capabilities.

    Question. On October 10, you said that the sanctions imposed on 
Russia could be eased; however, as you know, easing the sanctions would 
allow Russia to create a ``frozen conflict'' in eastern Ukraine without 
cost, and I believe there must be permanent consequences for the 
annexation of a neighboring country's territory.

  <diamond> What do you think should be the conditions for easing 
        sanctions on Russia both today and in the future?
  <diamond> Regardless of the situation in eastern Ukraine, do you 
        believe that most of the sanctions should not be lifted as long 
        as Putin continues to illegally occupy Crimea?

    Answer. The President has clearly said we will not accept Russia's 
occupation and illegal annexation of Crimea or any part of Ukraine. We 
will continue to work with our allies and partners to impose costs that 
respond to Russia's actions, including in Crimea.
    Any decision on a rollback of sanctions would depend on Russia's 
actions. We have said that sanctions can begin to be rolled back if 
Russia fulfills its commitments, including implementing the Minsk 
agreements, and works to reach a lasting and comprehensive solution to 
the conflict. Implementing the Minsk agreements would require Russia to 
restore Ukraine's sovereignty and territorial integrity in eastern 
Ukraine, including by removing all Russian troops and equipment, 
returning the Ukrainian side of the international border to Kiev's 
control with an effective border monitoring mechanism, and releasing 
all hostages. We have been equally clear that if Russia continues its 
unacceptable and destabilizing actions, the costs for Russia will 
continue to rise.

    Question. Can you please describe how the administration's recently 
approved Central America strategy will help the region secure 
sustainable economic growth and how your strategy relates to the 
Alliance For Prosperity plan announced by the Presidents of Guatemala, 
Honduras, and El Salvador?

    Answer. Over the course of the past 18 months, the U.S. Government 
has taken a hard look at both our approach and our investments in 
Central America. We determined that a comprehensive focus on security, 
prosperity, and governance is critical to changing the region's 
trajectory. This will involve expanding our current security programs 
and adding a new emphasis on prosperity and governance, and we are 
working across the U.S. Government to do so. Our approach is intended 
to encompass the entire Central America region, not just the countries 
of the Northern Triangle, because we believe that the region's future 
lies in its economic integration to create a single market of 43 
million people. The leaders of El Salvador, Guatemala, and Honduras 
appear to have reached similar conclusions for their subregion, as 
reflected in their own coordinated plan, a historic effort that all 
three countries agreed on.
    On November 14, the Vice President addressed a conference hosted by 
the Inter-American Development Bank on ``Investing In Central 
America,'' directly challenging the three Presidents to take concrete 
steps to address problems such as corruption, and pledging that if they 
can demonstrate such political will, the United States will lend its 
support to help them address the underlying causes of migration through 
U.S. assistance and by rallying international support for the Central 
American plan. Secretary of Commerce Pritzker reinforced this message 
when she addressed business leaders and the Central American Presidents 
during the same conference, stating that if they would take the 
necessary actions we could mobilize support for private sector 
investment in the region.
    The U.S. Strategy for Engagement with Central America therefore 
both aligns with and supports the overall objectives of the Alliance 
for Prosperity plan. However, our effort is broader because we also 
realize that all seven Central American nations must act together for 
the benefit of the region.
    The U.S. Strategy for Engagement with Central America prioritizes 
prosperity, governance, and security. These objectives are interrelated 
and interdependent, and attention to each objective is necessary for 
success. Specifically, our prosperity agenda fosters integration of a 
regional market of 43 million people so that local businesses can 
become more competitive and the region can be more attractive to 
international investors. Economic growth should reach everyone, not 
just the well-connected few. Our efforts will promote better education 
and vocational training for all citizens, including women and 
vulnerable ethnic groups, and business environments friendly to 
entrepreneurs, providing alternatives to the illicit activities that 
contribute to insecurity and undermine effective governance.

    Question. Does the administration currently have a clearly 
articulated and consistent policy on negotiating 123 Agreements, or is 
it done on a case-by-case basis?

  <diamond> What criteria or standards are used to determine the 
        starting and ending point for each agreement?
  <diamond> Are the same criteria and/or standards applied to each new 
        negotiation? If not, why not?
  <diamond> How do U.S. national security concerns, including regional 
        assessments of the potential for further nuclear proliferation, 
        affect the administration's approach to negotiating 123 
        Agreements?

    Answer. We use our 123 Agreement negotiations to achieve a broad 
range of nonproliferation commitments with our partners, and we employ 
a variety of bilateral and multilateral measures in addition to 123 
Agreements to help minimize the spread of enrichment and reprocessing 
technologies globally. The administration believes that by applying a 
principled approach to implementing nonproliferation commitments in 123 
Agreements, we will maximize our ability to achieve the lowest number 
of sensitive fuel cycle facilities worldwide while raising global 
nonproliferation standards. This principled approach allows for 
flexibility in structuring the legal and political commitments while 
meeting the requirements of U.S. law and maintaining our principled 
stance on enrichment and reprocessing (ENR).
    Our approach has been effective in convincing states to rely on the 
international market for nuclear fuel services, rather than develop 
domestic ENR programs. Regardless of the region or the state in 
question, if we are not sufficiently convinced that concluding a 
particular 123 Agreement would meet our policy goals on ENR, we will 
not conclude the agreement. When negotiating agreements, we take into 
account all relevant factors, including the state's nonproliferation 
record, its technical capabilities, and any regional proliferation 
issues.

    Question. Is the administration concerned that the recent nuclear 
agreement with Iran--in which Iran is permitted to retain enrichment 
capabilities--undermines our ability to meet U.S. nonproliferation 
objectives, including in future 123 Agreement negotiations?

  <diamond> Why should countries, such as United Arab Emirates, Saudi 
        Arabia, and Jordan, be asked to accept a gold standard 
        agreement when the administration has capitulated to the 
        enrichment demands of bad actors like Iran?
  <diamond> What message does an inconsistent standard for negotiating 
        123 Agreements by the United States send globally?
  <diamond> Does one standard exist for the Middle East and a different 
        standard for the Asia-Pacific?

    Answer. The United States has a long-standing policy of preventing 
the spread of enrichment and reprocessing (ENR) technologies; any 
comprehensive deal with Iran will not change that underlying policy. 
The United States employs a range of measures, both multilateral and 
bilateral, to help prevent the spread of ENR technologies around the 
world. Legally binding commitments added to the peaceful nuclear 
cooperation (123) agreements are not the only means to combat the 
proliferation of ENR. In fact, the strong nonproliferation provisions 
already required in our 123 Agreements have helped to restrain the 
further spread of ENR for decades.
    The key ENR issue when negotiating 123 Agreements is how to prevent 
states that do not already possess these technologies from acquiring 
them, and limiting their spread in those countries that do possess 
them. For countries without an existing enrichment program, we seek to 
ensure that states make the choice to rely on the international market 
for nuclear fuel services.
    Our approach has been effective in convincing states to rely on the 
international market for nuclear fuel services, rather than develop 
domestic ENR programs. Regardless of the region or the state in 
question, if we are not sufficiently convinced that a particular 123 
Agreement would meet our policy goals on ENR, we will not conclude the 
agreement.
    In line with the Obama administration's long-standing policy 
opposing the spread of enrichment and reprocessing (ENR) technologies, 
the Joint Plan of Action halts progress on the most worrisome elements 
of Iran's nuclear program and rolls it back in key respects, including 
by limiting Iran's enrichment capacity and diluting or converting 
Iran's stockpile of near-20-percent low enriched uranium.
    Iran mastered the fuel cycle and began enriching years ago. We 
cannot eliminate that knowledge. With respect to the ongoing 
negotiations, any long-term, comprehensive deal acceptable to the 
United States must effectively cut off the various pathways Iran could 
take to obtain fissile material for a nuclear weapon. Other countries 
are not likely to follow Iran's path, which involved decades of 
isolation, global sanctions, and, should a comprehensive agreement be 
reached, would require long-term and unprecedented constraints on its 
program.

    Question. Along the same lines, why does the administration not 
begin all negotiations at a consistent start point, such as the gold 
standard?

    Answer. We begin all 123 Agreement negotiations with the same 
objective of minimizing the spread of enrichment and reprocessing (ENR) 
technologies, and we structure possible legal and political commitments 
in the agreement to meet the requirements of U.S. law and maintain our 
principled stance on ENR. We also pursue additional mechanisms to 
support achieving our objectives. These include, for example, legal or 
political commitments to rely on the international market for nuclear 
fuel services rather than acquiring sensitive nuclear technologies, or 
to participating in bilateral or multilateral nonproliferation 
activities, such as adherence to the Nuclear Suppliers Group 
Guidelines, implementation of an IAEA Additional Protocol to a state's 
safeguards agreement, and support for the International Atomic Energy 
Agency's (IAEA) Fuel Bank and other fuel assurance mechanisms.

    Question. Given the recent actions of the Russian Federation, 
including the bomber patrols near U.S. waters and the relentless 
positioning of nuclear forces, is it still this administration's 
intention to attempt to negotiate further nuclear force reductions with 
the Russians rather than work to bolster U.S. defenses?

    Answer. The United States remains committed to pursuing a 
responsible approach to nuclear disarmament in keeping with our Nuclear 
Non-Proliferation Treaty (NPT) commitments and supports reductions in 
all types of nuclear weapons: strategic and nonstrategic, deployed and 
nondeployed. The United States has made clear our readiness to discuss 
further nuclear reductions with the Russian Federation, but progress 
requires a willing, trustworthy partner and a conducive strategic 
environment. This includes a willingness by Russia to adequately 
address our concerns about its violation of the Intermediate-Range 
Nuclear Forces Treaty.
    As we go to lower numbers, we are committed to maintaining a safe, 
secure, and effective arsenal that ensures effective deterrence and 
strategic stability. This includes making needed investments to 
modernize the aging cold-war-era nuclear infrastructure, which is 
essential to fulfilling the President's goal of reduced reliance on 
nuclear weapons.
    The administration is pursuing an overhaul of the nuclear weapons 
enterprise, to include development of replacement weapons delivery 
systems for all elements of the triad, life extension programs (LEPs) 
and updates of all our existing nuclear warhead types, and 
modernization of nuclear weapons production facilities. Following the 
recently completed Defense Nuclear Enterprise Review, the 
administration is committed to spending several billion dollars over 
the next 5 years to sustain the enterprise and to ensure personnel 
serving in the nuclear forces have the resources and support they 
deserve to conduct their vital deterrence mission.
    In the face of growing North Korean missile capabilities, the 
administration moved in 2013 to strengthen homeland missile defense by 
announcing plans to deploy 14 additional ground-based interceptors 
(GBIs) at Fort Greely, AK, by 2017, a nearly 50-percent increase in our 
homeland missile defense capability. We are also continuing to test and 
improve the GBI, particularly the CE-II kill vehicle.
    In addition, the administration is pressing ahead with all three 
phases of the European Phased Adaptive Approach (EPAA) missile defense 
system that protects our NATO allies and U.S. Forces in Europe. We have 
deployed a radar in Turkey, two Aegis BMD-capable ships to Rota, Spain, 
with plans for two more in 2015, and are currently establishing an 
Aegis Ashore site in Romania that will be operational in 2015. Plans 
for the deployment of a second Aegis Ashore site in Poland in 2018 
remain on schedule. We are also working with a number of NATO allies, 
bilaterally and in the NATO framework, to encourage them to acquire 
their own missile defense capabilities.

    Question. In pursuing New START, the administration deflected 
efforts by Russia to link strategic offensive and defensive systems as 
they sought binding restrictions on our missile defenses. Does the 
administration continue to take the position that our missile defense 
systems are absolutely nonnegotiable? How has this position affected 
the Russians' interest in pursuing a follow-on treaty? What plans is 
the administration making to further shore up our Eastern European 
partners with missile defense technology?

    Answer. The administration has consistently informed Russia that 
the United States will not agree to constrain or limit U.S. ballistic 
missile defense capabilities.
    The United States has made clear our readiness to discuss with the 
Russian Federation further reductions that cover all types of nuclear 
weapons. This includes the proposal made by President Obama last year 
in Berlin to reduce deployed strategic nuclear weapons further, up to 
one-third from the level established in the New START Treaty. But 
progress in negotiating such reductions requires a willing, trustworthy 
partner and a conducive strategic environment.
    Regarding plans the administration has for missile defense 
cooperation with European partners, the United States is committed to 
implementing all three phases of the European Phased Adaptive Approach 
(EPAA). The United States has already deployed a radar to Turkey, two 
Aegis BMD-capable ships to Rota, Spain with plans for two more in 2015, 
and is currently establishing an Aegis Ashore site in Romania to be 
operational in 2015. Plans for the deployment of a second Aegis Ashore 
site in Poland in 2018 remain on schedule.
    We are also working with a number of NATO allies, bilaterally and 
in the NATO framework, to encourage them to acquire their own missile 
defense capabilities. Acquiring these capabilities would be in addition 
to their substantial monetary contributions to the NATO command and 
control system. In the case of Poland we are actively supporting 
Raytheon's effort to sell its PATRIOT PAC-3 Air and Missile Defense 
system to Poland.

    Question. There are a number of significant concerns with regards 
to the Russian track record of compliance with their current arms 
control obligations. Why should the United States continue to engage in 
negotiations on yet another arms control agreement or stringently 
implement other agreements while the Russians are less than sincere 
about their compliance with current commitments?

    Answer. The United States remains committed to pursuing a 
responsible approach to nuclear disarmament in keeping with our Nuclear 
Non-Proliferation Treaty (NPT) commitments and supports reductions in 
all types of nuclear weapons: strategic and nonstrategic, deployed and 
nondeployed. The United States has made clear our readiness to discuss 
further nuclear reductions with the Russian Federation, but progress 
requires a willing, trustworthy partner and a conducive strategic 
environment. This includes willingness by Russia to adequately in a 
verifiable manner address our concerns about its violation of the 
Intermediate-Range Nuclear Forces Treaty.
    Current tensions with Russia highlight the importance of the 
predictability and confidence-building provided by arms control 
treaties and their associated verification regimes. This is especially 
the case with the continued successful implementation of the New START 
Treaty and the security and predictability provided by verifiable 
mutual limits on strategic nuclear weapons.
    The New START Treaty enhances our national security and strategic 
stability with Russia, and both the United States and Russia are 
successfully implementing the treaty's inspection regime. As certified 
in the 2014 New START implementation report, Russia is in compliance 
with the New START Treaty. Similarly, it remains in the interest of the 
United States and our allies to continue implementing treaties and 
agreements that contribute to security and confidence building in the 
Euro-Atlantic region such as the Open Skies Treaty and the Vienna 
Document. We take questions about compliance with arms control treaties 
very seriously and are continuing to monitor Russian compliance with 
all its arms control obligations. With respect to the INF Treaty, we 
believe the treaty serves the mutual interest of the United States, our 
allies, and Russia. We will continue our diplomatic efforts to urge 
Russia to return to verifiable compliance with the treaty, and we will 
not cease to raise this matter until it is resolved. We will also 
continue internal planning and coordination with allies to take into 
account the impact of this Russian violation on our collective security 
in the event Russia does not return to compliance and to take 
appropriate steps to address threats to our security.
                                 ______
                                 

             Responses of Antony John Blinken to Questions 
                    Submitted by Senator John McCain

    Question #1. In March 2012, you said: ``What's beyond debate is 
that Iraq today is less violent, more democratic and more prosperous--
and the United States more deeply engaged there--than at any time in 
recent history.'' You testified in your nomination hearing that, at the 
time you made this comment, you believed it was true.

  <diamond> With the benefit of hindsight, do you believe the judgments 
        reflected in that statement, in full or in part, were 
        incorrect?

    Answer. I stand by my statement. In March 2012, Iraq was less 
violent, more democratic and more prosperous than it had been at any 
time in its recent history.
    By 2012, violence in Iraq had been in steady and sustained decline 
for several years. The core metric used by the United States Government 
to measure violence--``weekly security incidents'' (attacks against 
civilians, the government, and diplomats)--was down from an average of 
1,600 a week at the end of 2007 and early 2008 to 100 a week in 2011-
2012. The Shiite militia had stood down; indeed, what had been frequent 
rocket and mortar attacks against the United States Embassy went to 
zero. Al Qaeda in Iraq was in retreat--its main leaders had been 
killed, while suicide bomb attacks had dropped from an average of 
dozens a month to five a month.
    Iraq was increasingly prosperous. Oil production--the lifeblood of 
Iraq's economy--was up 50 percent from 2005, to almost 3 million 
barrels per day, providing the revenue that enabled lawmakers to pass a 
$100 billion budget in February of that year.
    Iraq was more democratic. Following the withdrawal of U.S. troops 
in 2011, the United States maintained an unwavering commitment to the 
development of Iraq's nascent democratic institutions and continued 
support for the democratic process, including successful national 
elections. By 2012, politics had supplanted violence as the dominant 
means for the country's various factions to settle their disputes and 
advance their interests. There were repeated political crises--over the 
election law, the election itself, the de-baathification process, the 
formation of the government. But instead of leading to renewed 
sectarian violence, Iraqis, until that point, resolved each of those 
differences through the political process, with quiet but continuous 
support from the United States.
    Iraq's political leadership and the rise of ISIL in Syria forfeited 
much of this progress. We repeatedly warned the Iraqi Government that 
while AQI was down, it was not out and it was imperative to sustain 
pressure against them. Despite our repeated efforts, the Iraqi 
Government refused our assistance in the fight against AQI/ISIL until 
2013, when the group had become entrenched and suicide bomb attacks 
jumped from 5 a month to 50 a month. Starting in early 2013, the Iraqis 
quietly began to accept our help--we established a targeting cell in 
Baghdad, resumed ISR flights, significantly increased the provision of 
weapons and provided technical advice. When Prime Minister Maliki 
visited the White House in November 2013, President Obama told him that 
the biggest threat Iraq faced was ISIL, that the United States was 
willing to provide even more counterterrorism support, but that only a 
comprehensive approach--especially addressing the legitimate grievances 
of the Sunni community--could be effective. But the Maliki government 
turned increasingly sectarian, playing to its base in the runup to 
elections in 2014. ISIL took advantage of the polarization to lay siege 
to Fallujah and Ramadi and ultimately to take Mosul.
    Yet even in the midst of the growing ISIL crisis, on April 30 of 
this year, over 20 million Iraqis went to the polls to cast their 
ballot in a democratic election, determined to be fair and free by U.N. 
and EU elections monitors. Voter turnout was 62.2 percent, outpacing 
much of the region, despite significant attempts by ISIL to scare 
citizens away from the polls. The Iraqi determination to participate in 
the democratic process, in spite of countless obstacles, affirms the 
resilience of a more democratic Iraq. Following the election, we saw 
extensive negotiations on government formation, the peaceful transfer 
of power from former PM Maliki to PM Haider al-Abadi, and a Cabinet 
confirmation process that ensured Sunni, Kurdish, Shia, and minority 
leaders had a seat at the table. While Iraqi determination sealed the 
country's commitment to democracy, the United States played no small 
role in encouraging the elections to be held on time and supporting 
technical training and development of election monitors, poll workers, 
and senior officials.

    Question #2. Can you provide any examples of judgments that you and 
your administration colleagues have made in your policy toward Iraq and 
Syria that you now believe were wrong, and what lessons you have 
learned from those mistakes?

    Answer. Yes. Let me start with some context. By 2012, the Iraqi 
Security Forces were more numerous and better trained and the Iraqi 
Government more confident it could maintain security on its own, 
supported by a robust U.S. security assistance program. As noted in 
Question #1, violence in Iraq was significantly down, the Shiite 
militia had stood down and what was then Al Qaeda in Iraq was in 
retreat. And politics seemed to have supplanted violence as the primary 
means by which different groups advanced their interests.
    Nonetheless, we were deeply concerned that AQI remained a potential 
threat. Throughout 2012, we tried but did not succeed in focusing the 
Iraqi Government in sustaining proactive pressure on AQI. From early 
2013, the committee that I chair, the Deputies Committee, met more than 
a dozen times on the question of increasing support to Iraq to deal 
with AQI and then ISIL. The Principals Committee and the National 
Security Council met multiple times on the same issue. Slowly and 
quietly, Iraq began to accept our offers of assistance, as noted above. 
But by then ISIL had developed significant momentum and Iraqi politics 
had turned increasingly sectarian, despite repeated warnings from the 
administration that a failure to address legitimate Sunni grievances 
would exacerbate the ISIL threat.
    In retrospect, while we were focused on the emerging ISIL threat, 
we underestimated the weakness of the Iraqi Security Forces in their 
ability to respond during the June ISIL takeover of the city of Mosul 
and overestimated our ability to convince the Government of Iraq to 
heed our advice on political and security considerations, which further 
undermined the effectiveness of the Iraqi Security Forces.
    This lesson, amplified by our experience in Libya, informed our 
current approach to Iraq. As President Obama has said, we and our 
European partners underestimated the need in Libya to have an answer 
for the day after Qadafi, including a viable political process and a 
coherent force to fill the security vacuum, despite repeated efforts to 
secure Libyan support for a robust training program and/or an 
international force to help keep the peace. That's why President Obama 
this summer conditioned launching our comprehensive counter-ISIL 
campaign in Iraq on seating a new, inclusive government committed to 
reform. We knew that U.S. airstrikes and kinetic action to halt ISIL's 
advance into Iraq would not be effective or sustainable absent forward 
movement in Iraq's democratic process, aided by the selection of new 
government and Prime Minister committed, through words and actions, to 
reform the policies of the Maliki administration and govern in an 
inclusive manner. And we have made clear to the Abadi government that 
ISIL cannot be defeated by military action alone, that wholesale 
political reform and inclusive governance are essential to unifying the 
Iraqi people against the extremist threat and promoting stability in 
the country. Already, we have seen significant progress in that 
direction.

    Question #3. Are there any circumstances in which you would 
recommend to the President that he order U.S. troops into a combat role 
in Iraq or Syria?

    Answer. Yes. I can certainly imagine hypothetical circumstances in 
which our military commanders might advise the President to deploy 
combat troops to fight in Iraq and I would second that advice. For 
example, if our Embassy was in imminent danger of falling to ISIL or 
the group had acquired a weapon of mass destruction and our military 
advised that U.S. troops in a combat role were necessary to contend 
with the problem, I would join their recommendation.
    In the current campaign against ISIL, U.S. troops in a combat role 
are neither necessary nor advisable. The Iraqi Security Forces, the 
Kurdish Peshmerga and Sunni tribes already have demonstrated that they 
can be effective on the ground, especially when we provide air power, 
intelligence, training, equipment, advice and assistance. The Iraqi 
Government has made clear it does not want U.S. troops in a combat role 
in Iraq. The campaign will be more effective and sustainable if Iraqis 
are the ones doing the fighting on the ground to secure their own 
country.

    Question #4. To what extent has the collapse of Iraqi forces in 
June 2014 and resulting security conditions in Iraq prompted the 
administration to reevaluate its current troop withdrawal plan for 
Afghanistan?

    Answer. It is important to learn from experience, and to be guided 
by historical lessons. In formulating our policy in Afghanistan, we 
have looked to lessons learned from Iraq and other conflicts. That 
said, I don't believe that we can lump Iraq and Afghanistan together. 
These are different countries, with unique histories, political and 
economic realities, and regional dynamics. We have to deal with each 
country with an understanding of what makes it different than others. 
Getting this balance right is of course a challenge, but one we must 
face.
    The primary lesson of Iraq is the need for political 
accommodation--it was a failure of the political process that pushed 
Iraq over the edge and created space for ISIL, and that's what 
Afghanistan needs to avoid. That is why Secretary Kerry and the 
administration invested so heavily in forging a post-election 
compromise between the two leading candidates to govern together and 
inclusively. It is a point we have been stressing to President Ghani 
and CEO Abdullah, as we concurrently reassure them of our commitment to 
sustain our sizeable investments in the ANSF, consistent with the Tokyo 
commitments. Fortunately, President Ghani and CEO Abdullah have made it 
clear that they fully share this view and are acting on it, including 
just recently agreeing to a diverse allocation of Cabinet positions.
    Our planning for the U.S. role in Afghanistan is based on our long-
standing discussions with the Afghan Government, our NATO allies and 
other international partners. Beyond 2014, the United States will 
continue two narrow missions in Afghanistan. First, the United States 
and NATO will transition to a noncombat mission of training, advising, 
and assisting the Afghan National Security Forces (ANSF). Second, the 
United States will continue to maintain a counterterrorism capability 
in Afghanistan to target the remnants of al-Qaeda and disrupt other 
extremists who directly threaten the U.S. homeland, U.S. persons 
overseas, and allies.
    The President's national security team has been defining the 
operational and legal details required to continue executing those 
missions in 2015 within the scope of the Bilateral Security Agreement 
we signed in September with the Government of Afghanistan. These 
recommendations were recently passed to the President, who approved 
them.

    Question #5. Do you believe that a conditions-based withdrawal 
would be more effective in securing long-term stability in Afghanistan?

    Answer. The United States has pursued a conditions-based drawdown 
of our forces in Afghanistan, insofar as we have steadily built up and 
then transferred security responsibilities to the Afghan Government 
over the past 6 years. The conditions we helped to create were 
increased Afghan capacity. But a timetable also helped keep the 
pressure on the Afghans to assume that responsibility, and not take for 
granted a U.S. presence in perpetuity. It is important that they know 
in advance what responsibilities they must assume and when they must 
assume them. Ultimately, we cannot do for Afghans what they must do for 
themselves.
    At the same time, we and our NATO allies agree on the need to 
continue to support the ANSF, the Afghan Government, and the Afghan 
people. To that end, the United States has committed to a long-term 
partnership with Afghanistan based on our Strategic Partnership 
Agreement and on the recently signed Bilateral Security Agreement. The 
United States and NATO will transition to a noncombat mission of 
training, advising, and assisting the ANSF. The United States also will 
continue to maintain a counterterrorism capability in Afghanistan to 
target the remnants of al-Qaeda and disrupt other extremists who 
directly threaten the U.S. homeland, U.S. persons overseas, and allies.
    While the U.S. combat mission will end this year, we will continue 
to support the Government of Afghanistan as it pursues a future of 
peace, greater prosperity, and an end to conflict. To the extent that 
Taliban members directly threaten the United States and coalition 
forces in Afghanistan, provide direct support to al-Qaeda, or pose a 
strategic threat to Afghan Security Forces, we will take appropriate 
measures to keep Americans safe and assist the Afghans.

    Question #6. In June, President Obama argued that destroying ISIS 
in Iraq required the removal of then-Prime Minister Maliki and the 
establishment of an inclusive new government. Why does this not equally 
apply to Assad in Syria? Does destroying ISIS in Syria not also require 
the removal of Assad and the establishment of an inclusive government 
in Syria?

    Answer. As Secretary Kerry noted recently, the relationship between 
Assad and ISIL is symbiotic; they feed off each other. Assad has done 
little to combat the ISIL threat and has, in fact--through his regime's 
brutality toward its own people--been a key factor in spurring ISIL's 
growth. President Obama has said repeatedly that Assad long ago lost 
all legitimacy and must step aside for Syria to establish an inclusive 
government. But the President and Secretary also have been clear that 
there is no military solution to the conflict in Syria. Our goal is 
helping the Syrian people reach a negotiated political transition that 
fulfills Syrians' aspirations for freedom and dignity--a future without 
Assad or ISIL.
    That's why we have supported the moderate opposition and are in the 
process of ramping up that aid, together with our partners. The 
Department of Defense program to train and equip vetted, moderate 
elements of the Syrian opposition, which Congress has authorized, and 
which Saudi Arabia and Turkey, among others, have committed to support, 
will further enable us to bolster the moderate opposition, and put it 
in a position to defend itself against ISIL and regime forces; 
stabilize areas under its control; and, by shifting the balance on the 
ground, help create the conditions for a negotiated transition.

    Question #7. Is the administration's ``ISIS first'' approach in 
Syria benefiting the Assad regime? If yes, does this not contradict the 
administration's stated political goal to transition from Assad to an 
inclusive government?

    Answer. The threat that ISIL represents--to Iraq, to Syria, to the 
broader region, and to the global community--and U.S. leadership have 
mobilized an international coalition of more than 60 countries to take 
action to degrade and ultimately defeat ISIL in Iraq and Syria. Assad 
has been at war against the moderate opposition since long before the 
ISIL campaign. Our increased support to vetted, moderate elements of 
the armed opposition in Syria through the Train and Equip Program that 
Congress authorized and other efforts, will enable it to act as a 
counterweight to ISIL and also more effectively defend itself against 
the regime and ultimately help create the conditions to end the civil 
war in Syria.

    Question #8. What kind of political transition in Syria is the 
administration discussing that does not remove Assad from power?

    Answer. We are not discussing with any of our international or 
Syrian partners, or the regime itself, any political transition process 
that envisages Assad remaining in power. Our objective remains an 
inclusive, legitimate government for all Syrians; we are supporting 
those Syrians who share that goal. As President Obama has reiterated, 
Assad stands in the way of political transition, lacks legitimacy, and 
needs to step down so that Syrians can achieve a democratic, just, and 
inclusive government. And as Secretary Kerry noted recently, we will 
work with Syrians who strive to empower moderates against the extremes 
of both Asad and ISIL.

    Question #9. Do you share the concerns that Secretary Hagel has 
reportedly expressed--that we may not be able to succeed against ISIS 
if there is not a clear strategy toward Assad?

    Answer. Our strategy toward Assad is clear. We are strengthening 
our support for the moderate opposition, in part, so that it can 
advance the conditions for a political transition that ultimately 
results in Assad's departure. The goal of such a transition would be an 
inclusive government capable of serving the interests of all the Syrian 
people.
    Defeating ISIL is a complex challenge that requires a multiyear 
strategy and sustained support. The United States and coalition 
partners--Bahrain, Jordan, Qatar, Saudi Arabia, and the United Arab 
Emirates--have conducted more than 450 airstrikes in Syria. We are 
focused on degrading ISIL, denying it safe haven, and disrupting its 
ability to project power by taking away its freedom of movement and 
resupply in ungoverned spaces, particularly in eastern Syria. The 
degradation or destruction of ISIL targets in Syria limits the 
terrorist group's ability to lead, amass forces, and conduct 
operations. We believe that the moderate opposition must be part of the 
solution to the twin challenges of ISIL and Assad: over time, it can 
serve as the ground force that, together with coalition airstrikes, can 
counter ISIL; and it also can act as a counterweight to the Assad 
regime and help facilitate a negotiated transition.

    Question #10. Do you believe the United States can maintain public 
support among Syrians for the fight against ISIS without doing more to 
prevent Assad's war against them?

    Answer. The Syrian people rose up against Assad in 2011 to demand 
basic human rights and freedoms. The administration supports these 
demands, and has backed members of the moderate opposition in pursuing 
them. It is clear that the moderate opposition has the will to fight 
ISIL and defend the Syrian people against the regime; they are doing 
both of these things now. However, they require our assistance in this 
struggle. We have provided significant nonlethal assistance to date to 
the political and military opposition, and continue to do so. We will 
also, through the Department of Defense's Train and Equip Program, 
provide lethal assistance and training to vetted, moderate fighters to 
defend themselves against ISIL and the regime, hold territory, and to 
empower a subset of fighters to take the fight to ISIL. These efforts 
will better enable the opposition to defend itself against the regime.
    At the same time, no one knows better the brutality and barbarity 
of ISIL then those people living in areas that they currently control. 
Beheading, slavery, and rape are commonplace. Throughout Syria and 
Iraq, local populations who may have initially been supportive of 
ISIL's presence as a counter to Assad are now seeing this terrorist 
group for the inhumane butchers that they are.

    Question #11. The President and other administration officials have 
repeatedly condemned the Assad regime's barbaric use of so-called 
barrel bombs against civilian populations. And yet the attacks not only 
continue; they are increasing since U.S air strikes in Syria began. Is 
the administration planning to take any action to stop these attacks? 
If no, how does the administration expect the 5,000 Syrians who have 
been trained and equipped to succeed against ISIS without protecting 
them and their families from Assad's airstrikes and barrel bombs?

    Answer. This is something we're working every day with our friends 
and partners in the region. We have provided extensive support to the 
moderate opposition and are working with Congress, the Defense 
Department, and regional partners to significantly expand that support 
so that moderate fighters will be in a better position to defend 
populations against ISIL and the regime--including its use of barrel 
bombs--and to create the conditions for a political settlement.
    The United States, through the Department of State and USAID, 
complement those efforts with continuing nonlethal support to 
moderates, armed and civilian, to provide governance, rule of law, and 
basic services.

    Question #12. I am sure you are aware of the numerous reports of 
Sunni tribal forces who have risen up to fight ISIS, but have been 
slaughtered by the hundreds, in large part because they are not getting 
the assistance they need to succeed. These Sunni tribal elements were 
integral to our success against Al Qaeda in Iraq during the war, as you 
pointed out in your testimony. They are equally important in the fight 
against ISIS now.

  <diamond> What programs has the administration put into place to help 
        empower Sunni tribes and other Sunnis that want to end Islamic 
        State control over their communities?

    Answer. Support from Sunni tribes in countering ISIL is both 
critical and necessary. The President has made clear his commitment to 
supporting greater cooperation between Sunni tribes and the Iraqi 
Government, and empowering tribal fighters and the Iraqi Security 
Forces to combat their common enemy ISIL. The President raised this 
with former Prime Minister Maliki over a year ago when they met in 
Washington, and the President and Vice President Biden continued to 
urge the Iraqi Government, including in multiple meetings and phone 
calls with Prime Minister Abadi, to make Sunni outreach a priority. I 
did the same during my most recent visit to Iraq in October.
    The United States has encouraged the Iraqi Government to not just 
cooperate with Sunni tribes, but to take concrete steps to integrate 
tribal fighters into the Iraqi Security Forces. This integration would 
help address some grievances raised by Sunni communities, including 
their desires for local security control and salaries and benefits for 
those fighting to protect them.
    A major component of this integration effort is the development of 
a National Guard. This effort aims to establish a security structure 
that draws from local recruits and allows them to protect their own 
communities, while being tethered to Baghdad through the provision of 
salaries, weapons, and equipment. This effort is also a critical part 
of security sector reform and seeks to develop a durable security 
arrangement that will help Sunni communities trust the forces 
protecting them as well as empower communities and tribes to provide 
their own security. We are strongly supportive of this initiative and 
have been working for months to help bolster support for the program 
among Iraqi leaders. When I visited Iraq in October, there was strong 
consensus support for this effort from all the leaders with whom I met, 
and we continue to work with the Iraqis to refine the program and to 
move forward with the necessary steps, and legislative action in the 
Council of Representatives, to implement it.
    In the meantime, Sunni tribes face an immediate and constant threat 
from ISIL. The recent massacre of hundreds of members of the Albu Nimr 
tribe highlights the brutality of ISIL's actions against Sunnis. While 
the National Guard program is developing, we are urging the Iraqi 
Government and Sunni tribes to move forward on a bridging mechanism to 
begin the integration process as soon as possible so that tribal 
fighters can receive the weapons, equipment, and training they need to 
counter ISIL. Earlier this month, Iraqi Government officials traveled 
to Al Asad Air Base in Anbar province to hold a conference with 
hundreds of Sunni tribal leaders and representatives to discuss this 
bridging mechanism. In the weeks since, we have seen the process of 
integration begin with Iraqi forces starting to integrate hundreds of 
Sunni fighters, and we will continue to press all sides to continue and 
increase this effort.
    To support our commitment to help build the capacity of Iraqi 
forces, including Sunni forces, the President has authorized the 
additional deployment of up to 1,500 military personnel to train, 
advise, and assist Iraqi forces. This deployment includes personnel to 
Al Asad Air Base to support Iraqi efforts to develop and execute 
operations to counter ISIL. This U.S. presence in Anbar province will 
continue to support the integration of Sunni tribal fighters and to 
facilitate coordination between the Iraqi Government and Sunni tribes 
in their common fight against ISIL.

    Question #13. Do you believe that Putin's actions in Ukraine 
constitute an ``invasion'' of the country?

    Answer. As we have said consistently, Russia is blatantly violating 
the sovereignty and territorial integrity of Ukraine, and its actions--
including repeated armed incursions into Ukraine and its support for 
the Separatists--have been profoundly destabilizing. There is a 
fundamental international norm at stake, which is that sovereign states 
must respect the borders and territorial integrity of other sovereign 
states. This is enshrined in the U.N. Charter and the Helsinki Final 
Act. Russia has acted in a way that violates international law and 
long-standing norms as well as its own commitments to Ukraine's 
sovereignty and territorial integrity. That is why the United States 
has mobilized the international community to impose significant costs 
on Russia for its actions in Ukraine and will not relent until Russia, 
through its actions, respects Ukraine's sovereignty and territorial 
integrity.

    Question #14. Do you believe that the costs that we and our allies 
are imposing on Russia are sufficient to deter further aggression by 
Putin against Ukraine?

    Answer. A key element of our strategy for dealing with Russia's 
continuing violations of Ukraine's sovereignty and territorial 
integrity has been raising the costs on Russia for its actions in order 
to deter further such actions. The United States has galvanized support 
from the EU, G7, and other international partners to impose and sustain 
such costs, including political isolation and economic sanctions. At 
critical moments, that pressure has created space for Ukraine to hold 
the most successful elections in its post-Soviet history and to sign an 
Association Agreement with the European Union, which is what sparked 
the Maidan movement in the first place.
    Sanctions, and the uncertainty they have created in the market, are 
having a significant impact, directly and indirectly, on Russia's 
already weak economy. The Kremlin's actions in Ukraine and the 
international response to them have sparked significant capital flight, 
had a chilling effect on foreign investment, driven the ruble to its 
lowest levels ever, sharply constrained the ability of Russian 
companies to float bonds and raise money, fueled inflation and driven 
growth to zero. Russian companies face a looming credit crunch--Russian 
banks and firms have to repay $134 billion in external debt between 
mid-November and the end of next year, $32 billion of which comes due 
this December alone. Both the IMF and Russian Ministry of Economy 
expect capital outflows to reach $100 billion in 2014 and the IMF 
predicts that outflows will remain elevated in 2015. In October alone, 
the central bank's reserves declined by over $28 billion as it 
attempted to cushion the currency's decline in the face of sanctions 
and lower oil prices; the ruble has lost around a quarter of its value 
since we imposed our first round of targeted sectoral sanctions in 
July.
    Over time, our carefully coordinated and targeted sectorial 
sanctions will have even deeper impacts. For example, Russia is no 
longer able to acquire the cutting edge technology it requires to 
further develop energy exploration and exploitation.
    President Putin has found that Russia's aggression in Ukraine is 
the subject of every multilateral gathering he attends. There is no 
doubt in the market of our resolve to follow through on our pledges to 
impose further costs on Russia if it continues its destabilizing 
actions in eastern Ukraine. If Russian authorities continue their 
aggressive actions and violations of international law, the costs will 
only continue to rise.

    Question #15. Do you think the lack of lethal military support for 
Ukraine encourages further Russian aggression?

    Answer. While Russia has continued its destabilizing actions in 
Ukraine, Putin's aggression has been met by a united front by the 
United States and our European partners. We have imposed serious costs 
on him, which over time will reveal the losing hand he is playing. We 
have prioritized the unity of this effort with Europe, because the 
impact is that much greater when the United States and Europe act 
together. In the long term, this will be the most effective deterrent 
to Russian aggression. As I indicated in my testimony, we continue to 
assess the situation and look actively, every day, at other forms of 
assistance, including defensive lethal assistance.
    But I don't think anyone--not the United States, not our closest 
allies--believe there is a military solution in Ukraine. What we are 
doing is raising the costs of the conflict on Russia. That includes 
sanctions, taken in coordination with our partners, and which are 
having a significant impact on Russia's economy. But beyond that, we 
are taking steps to support Ukraine and its ability to determine its 
own future. To ensure that the Ukrainian military is strengthened and 
modernized, the United States is providing over $118 million in 
security assistance to the Government of Ukraine. This has included 
body armor, helmets, vehicles and patrol boats, night and thermal 
vision devices, heavy engineering equipment, advanced radios, demining 
equipment, countermortar radars, and other items. We are providing 
equipment and training to assist Ukraine in monitoring and securing its 
borders, operating more safely and effectively, and preserving and 
enforcing its territorial integrity. The U.S. EUCOM-led Joint 
Commission on Bilateral Reform is leading an effort to assess and 
prioritize Ukraine's needs for all NATO allies and partners, as well as 
the United States, to improve Ukraine's capacity to provide for its own 
defense, identifying near-term priorities while setting the stage for 
longer term defense cooperation. This effort includes a recently 
concluded visit by medical and security assistance advisory teams.
    We are also taking steps to deter Russia from taking further 
destabilizing actions on its periphery by increasing our support to our 
partners and allies. The President has asked Congress for $1 billion to 
maintain and expand our European reassurance efforts. The European 
Reassurance Initiative (ERI), which was delivered to the Hill on June 
26, proposes increases in U.S. military deployments to Europe. We 
believe that an expanded and persistent U.S. air, land, and sea 
presence in Europe, especially in Central and Eastern Europe, is a 
necessary and appropriate show of support to our NATO allies and 
partners who are deeply concerned by Russia's aggression in Ukraine. In 
addition, ERI will provide funding for more extensive bilateral and 
multilateral exercises and training with allies and partners; 
improvements to infrastructure that will boost responsiveness, 
especially in Eastern Europe; and enhanced prepositioning of U.S. 
equipment. A portion of the funding would also help build partner 
capacity in some of the newer NATO allies and with non-NATO partners 
such as Georgia, Moldova, and Ukraine.

    Question #16. In your testimony you stated that the administration 
is looking at providing lethal assistance to Ukraine. In these 
discussions, what circumstances would the prompt the administration to 
change its current opposition and provide lethal assistance to Ukraine?

    Answer. I don't think anyone--not the United States, not our 
closest allies--believe that there is a military solution in Ukraine. 
What we have to do right now is to take the leverage provided by the 
sanctions the United States led the Europeans to put in place, and 
actually achieve implementation of the Minsk agreement. Russia is 
hurting. As discussed in detail in answer to Question #14, the pressure 
we've exerted through coordinated sanctions is having a significant and 
growing impact on Russia. We are focused on getting the Minsk process 
moving, and if it doesn't we have made it very clear to President Putin 
that the pressure will only grow. And as I indicated in my testimony, 
we continue to assess the situation and look actively, every day, at 
other forms of assistance, including defensive lethal assistance. In 
that regard, one relevant factor would be whether Russia continues to 
blatantly violate its Minsk commitments by providing the Separatists 
with tanks.
    In the meantime, we are working closely with Ukraine to help them 
use the tools they already have more effectively. The U.S.-Ukraine 
Joint Commission on Defense Reform and Bilateral Cooperation has 
provided targeted recommendations for NATO allies and partners, as well 
as the United States, on our next steps in security assistance, 
including in areas such as generating forces, combat lifesaving care, 
logistics, and joint operations, to name a few. We are providing near-
term, tangible capacity-building assistance while at the same time 
laying the groundwork for longer term reform to build Ukraine's 
capacity to provide for its own defense and increase its 
interoperability with NATO and other Western forces. With your support, 
we plan to use the President's European Reassurance Initiative to 
provide Ukraine another $45 million in FY 2015 to further support our 
efforts to build Ukraine's defense capacity, in addition to the over 
$118 million in training and equipment that we have already committed.

    Question #17. The remaining $575.5 million of this year's military 
aid to Egypt is subject to the Secretary of State certifying that the 
Egyptian Government ``is taking steps to support a democratic 
transition.'' What are the metrics by which the administration intends 
to measure the concrete steps the Egyptian Government must take to 
certify this condition? At this point in time, does the administration 
intend to certify that Egypt is taking these steps?

    Answer. At this time, the Secretary has not made a decision 
regarding certification with respect to assistance to Egypt. The 
administration continues to monitor the situation in Egypt and 
encourage the Egyptian Government to ensure that it upholds 
constitutionally guaranteed rights to freedom of expression, 
association, assembly, and worship for all of its citizens. We continue 
to have concerns about Egypt's political trajectory, including steps 
that would effectively alienate or disenfranchise significant segments 
of the opposition, and we have delivered this message at the highest 
levels. We will continue to press the government to allow civil society 
to operate freely--including by amending or repealing the Protest Law 
and passing an NGO Law that ensures freedom of association--and to 
release jailed journalists and political activists. We believe that 
Egypt will be more stable and prosperous when all its citizens are 
allowed to organize in an open, vibrant civil society and express their 
political views free from government interference.
                                 ______
                                 

             Responses of Antony John Blinken to Questions 
                    Submitted by Senator Marco Rubio

    Question. Should the President use his existing authorities to 
impose financial sanctions on individuals involved in human rights 
violations in Venezuela?

    Answer. We need to look at all options to find the most effective 
way to encourage the Venezuelan Government to respect democratic 
principles and the human rights of its citizens. The most effective 
efforts are those taken in conjunction with partners, and we will 
continue to work closely with others in the region to support greater 
political space in Venezuela, and ensure the Venezuelan Government 
lives up to the hemisphere's shared commitment to the promotion of 
democracy, as articulated in the Inter-American Democratic Charter.
    With respect to the role of the United States, the administration 
has already taken steps such as imposing visa restrictions on 
government officials who are believed to be responsible for, or 
complicit in, human rights abuses. If confirmed, I would look forward 
to working with Congress to build on the administration's actions to 
date and determine what we can do to go further. We should not take any 
options off the table. Financial sanctions have proven effective in 
some situations, and could potentially be a useful tool, if targeted 
toward specific individuals and entities and used in concert with 
diplomatic efforts to advance specific U.S. foreign policy goals.

    Question. In your assessment, has the President's strategy against 
ISIS proven to be effective?

    Answer. The President's strategy to degrade and ultimately defeat 
ISIL is delivering steady progress. The momentum is shifting in Iraq as 
the Iraqi Security Forces (ISF) increase pressure against ISIL with 
successful offensive operations. While it is still early in the 
military campaign, coalition airstrikes coordinated with ISF ground 
operations have resulted in several successful engagements, including 
with respect to the Mosul dam, Erbil, Haditha Dam, Rabiya border 
crossing, and more recently Bayji and Zumar. ISIL is suffering 
significant losses and has been forced to change its tactics, hurting 
ISIL's morale and challenging their ongoing propaganda campaigns that 
fuel foreign fighter recruitment. Military successes, combined with 
strong leadership by PM Abadi and Defense Minister Obeidi, have 
reinvigorated the ISF. Through concerted engagement, many Sunni tribes 
have joined the fight against ISIL and are entering agreements to be 
incorporated into the ISF, including eventually into a new National 
Guard. Through our advise and assist and training missions, we will 
strengthen ISF (including Peshmerga) capabilities to build on initial 
success and to launch additional offensives to retake ISIL-held 
territory.
    In Syria, the United States and coalition partners Bahrain, Jordan, 
Saudi Arabia, and the United Arab Emirates have conducted more than 400 
airstrikes, restricting ISIL's freedom of movement and resupply and 
ability to project power into Iraq that it has enjoyed inside 
ungoverned spaces in eastern and northern Syria. Strikes in Kobani, a 
location where ISIL is concentrating its fighters and materiel, and 
parts of eastern Syria, particularly Raqqah and Dayr Az-Zour, have 
degraded ISIL by taking out command and control nodes, finance centers, 
training camps, and oil refineries that produce gas for its vehicles 
and a critical source of financing. Targeting in Syria is evolving 
beyond fixed facilities and now includes more dynamic targeting of a 
tactical nature, such as vehicles, armored vehicles, and convoys. The 
destruction and degradation of ISIL targets in Syria further limits the 
terrorist group's ability to lead, control, amass forces, project 
power, and conduct operations.
    An important part of our strategy in Syria is to continue to build 
up the moderate opposition, including through the Train and Equip 
Program authorized by Congress. An effective partner on the ground can 
fill the space created by coalition air power and ultimately is 
necessary to deny ISIL safe haven.
    Defeating ISIL cannot be achieved through military action alone, 
however. President Obama's strategy to defeat ISIL also involves 
comprehensive efforts to dismantle ISIL's financial networks and 
recruitment of foreign terrorist fighters. Working with the coalition, 
we have degraded ISIL's ability to derive income from illicit oil sales 
and have cut off ISIL's access to international banking networks. Many 
countries have enacted or stepped-up enforcement on legislation that 
criminalizes travel to commit terrorist acts and other activities that 
support terrorism. We have seen some progress in interdicting the 
transit of foreign fighters to Syria, but there must be more action. 
Long-term, we are working with our partners to delegitimize ISIL's 
ideology and the draw of violent extremism.
    A key element to the success of defeating ISIL in Iraq is the 
improvement of socioeconomic conditions that allowed ISIL to foment. 
Iraq's inclusive new government has pledged to enact reforms and 
address corruption that has marginalized Iraqis of all ethnicities and 
religious sects and, since the completion of government formation, has 
taken initial steps to deliver on its promises. For example, the Prime 
Minister disbanded the controversial ``Office of the Commander in 
Chief,'' fired more than three dozen generals who were incompetent or 
pursuing sectarian agendas and has reached out to the Sunni tribes and 
the Kurds.
    We are encouraged by initial successes that have blunted ISIL's 
onslaught, but we are aware that significant challenges remain and that 
we will have setbacks. However, we are certain of the importance of 
defeating ISIL and are devoted to our mission. As I saw firsthand 
during my meetings with the new Iraqi leadership in Iraq last month, we 
have a credible partner in the Abadi government. And we have a broad 
and committed international coalition.

    Question. Do you agree that the administration is absolutely 
obligated by law to get congressional approval to lift sanctions as 
part of a final deal with Iran?

    Answer. Terminating legislatively imposed sanctions would require 
congressional action. However, as we have stated in public testimony 
and in closed discussions on the Hill, in the first instance we would 
look to suspend sanctions in order to ensure that we can quickly snap 
them back into place should Iran fail to meet its commitments. Then, 
only if and after Iran has upheld its end of the arrangement would we 
look to lift or terminate sanctions.

    Question. In your view, does the lack of American lethal military 
support for Ukraine encourage or deter further Russian aggression?

    Answer. The United States continues to believe that there is no 
military resolution to the crisis, and our focus is on finding a 
diplomatic solution. We support the Minsk cease-fire and the peace 
plan, and call on Russia and the separatists Russia supports to abide 
by the agreed measures and seek a peaceful resolution. We have provided 
significant nonlethal security assistance to Ukraine to help address 
the crisis. We are constantly assessing the situation and have not 
ruled out any options, including defensive lethal assistance, depending 
on how conditions on the ground evolve.
    In response to the crisis, the United States is providing over $118 
million in security assistance to the Government of Ukraine. We are 
providing equipment and training to assist Ukraine in monitoring and 
securing its borders, operating more safely and effectively, and 
preserving and enforcing its territorial integrity. This equipment 
includes night vision goggles, secure communication, protective vests, 
vehicles and countermortar radar. The U.S. EUCOM-led Joint Commission 
on Bilateral Reform is leading an effort to assess and prioritize 
Ukraine's needs to improve its capacity to provide for its own defense, 
identifying near-term priorities while setting the stage for longer 
term defense cooperation. This effort includes assessments by U.S. 
medical and security assistance advisory teams that were completed 
earlier this fall.

    Question. What steps is the administration taking to help Moldova 
preserve its territorial integrity and sovereignty?

    Answer. I visited Moldova with Vice President Biden in 2011. 
Helping our European partners like Moldova maintain and guard against 
threats to their sovereignty and territorial integrity is a priority 
for the United States. The United States actively participates in the 
5+2 negotiations, which seek a comprehensive settlement to the 
Transnistrian conflict that guarantees Moldova's sovereignty and 
territorial integrity. The United States also continues to advocate for 
the withdrawal of Russian forces from Moldova's Transnistria region, 
replacement of the current Russia-dominated peacekeeping force with a 
genuinely multinational presence under an international mandate, and 
full access to the region by the OSCE Mission to Moldova, consistent 
with its existing mandate.
    The United States is helping Moldova create a modern, sustainable 
military force. Our defense officials are in regular contact with 
Moldova's Ministry of Defense, including visits by high ranking DOD 
officials over the last year. In FY 2014, the United States provided 
$1.25 million for Foreign Military Financing and $750,000 for 
International Military Education and Training (IMET) for Moldova. The 
United States is also working to equip the Moldovan Military with 
Excess Defense Articles (EDA) from U.S. stocks, including a recent 
delivery of 49 vehicles (HMMVWs, trucks, trailers) via EDA. If 
approved, the European Reassurance Initiative could provide an 
additional $10 million in FMF to Moldova in 2015 to help build 
Moldova's military capacity and improve interoperability with NATO and 
other Western forces.
    The United States is also helping the Moldovan Government secure 
its borders through a $35 million Defense Threat Reduction Agency 
Program supporting capacity-building of Moldova's border guards.

    Question. As you know, the LIBERTAD Act codified into law specific 
democratic benchmarks that the Government of Cuba must meet before the 
President begins to normalize relations. Do you anticipate any efforts 
to normalize relations with Cuba in the next 2 years absence Cuba 
meeting the democratic standards specified in the LIBERTAD Act?

    Answer. The administration remains committed to policies that 
support the Cuban people's desire to freely determine their future, 
reduce their dependence on the Cuban state, and advance U.S. national 
interests. We will continue to pursue constructive relations between 
the United States and Cuba, consistent with U.S. law and with our 
national interests.
    The Cuban Government infringes upon universally accepted rights 
such as freedom of expression and freedom of assembly, harasses members 
of independent civil society, and has kept a U.S. citizen detained for 
nearly 5 years for trying to bring Internet access to the Jewish 
community on the island. As President Obama has stated, the 
administration will continue to think creatively about how to promote 
positive change in Cuba. We look forward to the day when the Cuban 
people are able to enjoy human rights and fundamental freedoms.

    Question. Do you have any reservations about U.S. programs that 
help the Cuban people communicate freely without government censorship? 
If confirmed, will you fully support such programs?

    Answer. There is no question that if I am confirmed as Deputy 
Secretary I will continue to support efforts to help Cuban citizens 
communicate more freely with one another and with the outside world.
    The Cuban Government continues to unduly limit fundamental 
freedoms, including freedom of expression, press, association and 
peaceful assembly, as well as the free flow of information to, from, 
and within the island. Although the Cuban Government continues to blame 
the U.S. embargo for lack of Internet on the island, the Cuban 
Government limits access to the Internet to a small number of 
professionals and the party faithful. Cuban restrictions on 
technologies, monitoring, censorship, and control over who has access 
to the Internet make Cuba among the least-connected countries in the 
world.
    The President and his administration remain committed to policies 
that support the Cuban people's desire to freely determine their 
future, reduce their dependence on the Cuban state, and advance U.S. 
national interests. As part of our policy, the administration has taken 
steps to improve conditions for Cuban citizens through initiatives 
aimed at increasing the free flow of information to, from, and among 
the Cuban people. U.S. foreign assistance supports this policy.

    Question. Secretary Kerry has said that the administration would 
not consider exchanging development worker, Alan Gross, for three Cuban 
spies that remain imprisoned in the United States, as there is no 
equivalency in their cases. Is this still the position of the 
administration?

    Answer. Alan Gross is an international development worker who was 
sentenced to 15 years and has been unjustly imprisoned by Cuban 
authorities for nearly 5 years. He deserves to come home to his family. 
Securing his release remains a top priority for the administration.
    Cuban Government interlocutors frequently attempt to compare Mr. 
Gross' imprisonment to that of the convicted Cuban intelligence agents 
from the ``Wasp Network,'' three of whom continue to serve sentences in 
the United States. Mr. Gross was a development worker, and there is no 
comparison. His situation is fundamentally dissimilar to those of the 
convicted intelligence agents.
    Cuba's continued imprisonment of Mr. Gross for trying to help 
Cubans gain access to the Internet is indefensible. If confirmed as 
Deputy Secretary, I will use every appropriate diplomatic channel to 
press for Mr. Gross' release, both publicly and privately.

    Question. As you know, the Summit of the Americas is coming up next 
year in Panama. Assistant Secretary of State for Western Hemisphere 
Affairs, Roberta Jacobson, has said that ``. . . the summit process is 
committed to democratic governance and that the governments that are 
sitting at that table ought to be committed to the summit principles, 
which include democratic governance.''

  <diamond> Does the Cuban regime meet this standard? In your view, 
        should the President attend if Cuban regime officials attend?

    Answer. The United States supports the important commitments--
especially with respect to democracy and human rights--made at the 2001 
Summit of the Americas in Quebec by all of the democratic states of our 
region. At that summit, all participating governments agreed, by 
consensus, that a ``strict respect for the democratic system'' is an 
essential condition for participation in the Summit of the Americas 
process. Cuba remains a clear outlier in the region in terms of 
democratic values and respect for human rights. As a hemispheric 
community, we should work to promote positive change, democratic 
reforms, and increased respect for human rights in Cuba.
    If confirmed, I will consult closely with the Assistant Secretaries 
for the Western Hemisphere and Democracy, Human Rights, and Labor, as 
well as other senior Department of State and National Security Council 
officials, regarding President Obama's attendance. I will engage with 
summit planners, organizers, and like-minded governments to advocate 
that the summit include meaningful engagement between leaders and 
members of civil society and that the summit reaffirms our region's 
commitment to democracy and human rights, as expressed through the 
Inter-American Democratic Charter.
                                 ______
                                 

             Responses of Antony John Blinken to Questions 
                    Submitted by Senator Jeff Flake

    Question. The President has indicated his willingness to work with 
Congress on a new authorization for the use of military force (AUMF) to 
combat ISIL in Iraq and Syria. While the President continues to 
maintain that there will be no deployment of ``combat troops'' as part 
of this fight, the Chairman of the Joint Chiefs of Staff, General 
Martin Dempsey, has testified before Congress that he would not rule 
out recommending the introduction of combat forces to this fight.

  <diamond> Would you support approval of an AUMF which included a 
        prohibition on the deployment of combat forces in the fight 
        against ISIL?

    Answer. As the President has stated, our strategy to work with a 
coalition of partners ``to degrade, and ultimately destroy, ISIL'' 
includes a number of key elements: a systematic campaign of airstrikes 
in Iraq and Syria; support to forces fighting ISIL on the ground; the 
use of our substantial counterterrorism capabilities to prevent ISIL 
attacks; and the provision of humanitarian assistance to civilians who 
have been displaced by this terrorist organization. The President has 
also made clear that this effort does not involve American combat 
troops fighting on foreign soil.
    Although the President has the authority to address the threat from 
ISIL, he has said that we are strongest as a nation when the executive 
branch and Congress work together on matters involving the use of U.S. 
military force. The administration is therefore engaging with the 
Congress on a new AUMF. The goal of this engagement is to produce an 
AUMF that specifically addresses the current fight against ISIL and, as 
the President has said, ``reflects what we perceive to be not just our 
strategy over the next 2 or 3 months, but our strategy going forward.''
    As I noted during my hearing, the administration will continue to 
engage with the Congress on the elements of an AUMF to ensure that they 
are appropriately tailored, while still preserving the authorities the 
President needs to execute his counter-ISIL strategy and to respond as 
might be necessary to defend the United States.

    Question. How would the continued absence of an AUMF approved by 
Congress affect the coalition the administration has put together to 
fight ISIL?

    Answer. The President has been clear that he has the authority to 
address the threat from ISIL and to build a strong international 
coalition in support of that effort. The international coalition looks 
to the United States to continue to provide robust leadership in the 
fight against ISIL, and we are strongest as a nation--and as the leader 
of the coalition--when the executive branch and Congress work together 
on matters involving the use of U.S. military force. We would therefore 
welcome congressional support for our military efforts to combat ISIL 
including through a new AUMF. As I noted during my hearing, we want to 
work actively with Congress to develop one.
                                 ______
                                 

             Responses of Antony John Blinken to Questions 
                     Submitted by Senator Rand Paul

    Question. Earlier this year, in spite of laws prohibiting U.S. 
assistance to the terrorist organization Hamas, the Obama 
administration quietly worked to help Hamas circumvent these clear 
funding prohibitions and join a U.S.-backed Palestinian unity 
government.

  <diamond> Do you believe Hamas is worthy of assistance from U.S. 
        taxpayers?
  <diamond> Do you believe this U.S.-facilitated arrangement should 
        continue even if Hamas maintains its refusal to renounce 
        violence or to recognize Israel?

    Answer. Our position is absolutely clear and unchanged. Hamas 
remains a designated Foreign Terrorist Organization. The United States 
does not and will not provide any assistance to Hamas nor maintain any 
contact with members of Hamas.
    The Palestinian Authority (PA) government is comprised of 
independent technocrats; no members of Hamas are a part of this 
government and we assess that Hamas does not exert influence over the 
government. Moreover, the PA government has maintained its commitment 
to the principles of nonviolence and recognition of the State of 
Israel. We have made clear to the PA government that it must continue 
to uphold these principles.
    Assistance to the Palestinian people is an essential part of the 
U.S. commitment to a negotiated two-state solution for Palestinians and 
Israelis, promoting a comprehensive peace in the Middle East. It is in 
the interest of the United States to ensure these efforts continue as 
they help to build a more democratic, stable, prosperous, and secure 
region.
    The Department of State, Foreign Operations, and Related Programs 
Appropriations Act for Fiscal Year 2014 enables continued economic 
assistance to the PA. Our foreign assistance to the PA is provided 
consistent with this authority.

    Question. At the same time that the Palestinian unity government 
was formed, the State Department indicated that ``we will be judging 
this government by its actions.'' Since that comment, Hamas has 
launched thousands of rockets into Israel. In the wake of the November 
18 Jerusalem synagogue attack, a senior Hamas official rejected pleas 
to condemn the violence by reiterating his desire for intifada against 
Israel.

  <diamond> How would you then judge the unity government given these 
        kinds of actions and statements?
  <diamond> How do you judge the political legitimacy of Hamas as a 
        participant in that unity government?

    Answer. We have closely followed the actions of the Palestinian 
Authority (PA) government of national consensus since its formation in 
June 2014. The PA government is comprised of independent technocrats; 
no members of Hamas are a part of this government. We assess that Hamas 
exerts no influence over the PA government. President Abbas' goal in 
pursuing reconciliation and in forming the PA government of national 
consensus is to end the period of Hamas rule in Gaza and empower the PA 
to reassert control there.
    The PA government has demonstrated its commitment to the principles 
of nonviolence, recognition of the State of Israel, and acceptance of 
previous commitments and obligations. Throughout this difficult period 
in recent months, President Abbas has directed the PA security services 
to take all possible measures to prevent terror attacks and dismantle 
terrorist infrastructure in the West Bank. Security cooperation between 
the Palestinian and Israeli security forces continues. President Abbas 
and other PA officials have consistently condemned violence, including 
the horrific November 18 attack on a synagogue in Jerusalem that 
resulted in the deaths of three American citizens. As I noted during my 
hearing, the statement by a senior Hamas official apparently condoning 
the attack was ``a reminder of Hamas' true colors.'' While we are 
urging the PA to do more to alleviate tensions on the ground, we 
recognize that President Abbas remains a key partner for peace.
    Hamas has refused to cooperate with the PA consensus government, 
blocking PA ministers from exercising control over their portfolios in 
Gaza; preventing PA employees in Gaza from reintegrating into the civil 
service; and refusing to disarm its military wing and cede control over 
security and border crossings in Gaza to the PA. We condemned Hamas' 
deplorable attempts to target Israeli civilians with rockets and 
mortars this past summer and provided additional missile defense 
assistance to Israel to help protect millions of Israelis from the 
threat of rocket fire. Indeed, in the midst of the crisis, Israel's 
Ambassador to the United States asked to see me urgently late at night 
at the White House. He conveyed a request from his government for more 
Iron Dome interceptors. I brought the request to the President the next 
morning. Within days, the administration made a formal request of 
Congress for $225 million in additional funding, which was approved.

 
    NOMINATIONS OF PETER McKINLEY; ISOBEL COLEMAN; AND RICHARD VERMA

                              ----------                              


                       TUESDAY, DECEMBER 2, 2014

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Peter Michael McKinley, of Virginia, to be Ambassador to the 
        Islamic Republic of Afghanistan
Isobel Coleman, of New York, to be Representative to the United 
        Nations for U.N. Management and Reform, with the rank 
        of Ambassador; and as an Alternate Representative to 
        the Sessions of the General Assembly of the United 
        Nations during her tenure of service as Representative 
        to the United Nations for U.N. Management and Reform
Richard Rahul Verma, of Maryland, to be Ambassador to the 
        Republic of India
                              ----------                              

    The committee met, pursuant to notice, at 2:33 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Tim Kaine 
presiding.
    Present: Senators Menendez, Shaheen, Murphy, Kaine, Risch, 
Johnson, and McCain.

             OPENING STATEMENT OF HON. TIM KAINE, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Kaine. This meeting of the Senate Foreign Relations 
Committee is called to order.
    Ranking Member Senator Risch is on his way and will be here 
presently. Senator Johnson, welcome.
    This is an important hearing dealing with three critical 
nominees. I will make opening statements. If Senator Risch is 
here, he will then make opening statements. If he is not here, 
we will move right to witness introductions and witness 
statements.
    I know Senator Reid, the majority leader, will be coming at 
some point during the hearing as well because he wants to give 
some introductory comments about the nominee for the India 
post, Richard Verma. When he arrives, we will offer him the 
chance to cut in line and make his intro comments because I 
know he will be moving on to other priorities.
    But I want to welcome all to this hearing. And it is good 
to see, given the importance of these posts, a full committee 
room.
    Given what is occurring in the Nation's current war against 
ISIL in the Middle East, there can be a danger, as we focus on 
those challenges, that we lose focus on the importance of other 
South Asian nations to the United States national interest. 
Afghanistan and India are very, very different nations with 
very different situations, but they are critical partners for 
the United States in the 21st century. This is a region that 
demands more attention, not less, so that we can meet looming 
challenges, so we can seize new opportunities, and we can also 
take advantage of some significant progress that has been 
obtained through the work that has been done by the United 
States thus far.
    In India, I had the opportunity last month to have an 
excellent visit with Senator King, Angus King, and we had 
meetings with governmental, business, and civil society 
leaders. There is an extraordinary momentum in the 
relationship, and it is a wonderful time to capitalize on it.
    More than a billion and a half people, the world's oldest 
democracy. The United States linking up with the world's 
largest democracy is an incredible opportunity. The 
relationship is unique. It is built on a solid foundation from 
the bottom up, beginning with shared affection between the 
populations of the United States and India, people-to-people 
ties, business and entrepreneurial ties, and shared values.
    There is a greater potential, we learned as we visited, for 
defense and counterterrorism cooperation, trade and economic 
development. Senator King and I visited the Mazagon shipyards 
in Mumbai and also spent time at sites in Mumbai that were 
associated with the horrible terrorist attack on India in 
November 2008, another sad reality that both of our countries 
share both in our past but also in our concerns about today and 
tomorrow.
    We were very excited at Prime Minister Modi's visit to the 
United States a few months ago which was truly amazing. I do 
not even think Senator Johnson or I could fill Madison Square 
Garden if we went. And Prime Minister Modi's wonderful 
reception there and throughout his visit was remarkable. And we 
are excited that our President has been invited and is planning 
to go to India in January as a guest of honor for India's 
Republic Day, which is the first time a United States President 
is receiving that honor.
    Afghanistan I first visited in 2006 as Governor. My most 
recent visit was also in October. We had a subcommittee hearing 
here in April where we looked at progress in Afghanistan that 
is often overlooked, progress that has been the result of many 
factors but including significant U.S. investments in time, 
talent, blood, and treasure.
    Despite the many challenges--and the challenges continue to 
exist. And we will certainly ask Ambassador McKinley about 
them--Afghanistan has undergone a particularly extraordinary 
transformation. At the turn of the century just 14 years ago, 
few could have imagined that in today's Afghanistan 3 million 
Afghan girls are enrolled in school. Two-thirds of Afghans have 
cell phones. Over 75 television channels commonly accessed. 
Female life expectancy has increased by 20 years over the last 
13 years, and that is 20 extra years of life for more than 15 
million women.
    The security challenges cannot be underestimated. A recent 
spike in Taliban attacks especially in Kabul and elsewhere in 
the country raise concerns. We will talk about those. I very 
much support the decisions announced recently by the 
administration to broaden the authorities available to the U.S. 
military forces that remain in Afghanistan beginning in January 
2015. I think that was important and smart. It certainly 
resonates with what folks in Afghanistan mentioned when we were 
there.
    At the U.N., the U.S. leadership in the United Nations is 
more critical than ever whether it is our efforts against ISIL, 
upholding Ukraine's sovereignty, supporting Afghan political 
transition or continuing the very, very difficult challenge of 
hopefully finding a negotiated political settlement in the 
ongoing civil war in Syria. The U.N. plays a very important and 
critical role in promoting stability across the globe. The U.N. 
is often incredibly frustrating to us on this committee and 
incredibly frustrating to Americans of all political parties 
because of our belief that they can do more and that they 
should do more. And yet, it is important to remember that the 
U.N. only exists because of the farsighted wisdom of American 
leaders, particularly President Roosevelt who, even after the 
collapse of the League of Nations, knew that international 
institutions like the United Nations would be needed in the 
20th century and beyond. And if the United States had not 
played a leadership role, we would not have these institutions 
and the world would be poorer as a result.
    The United States is the largest contributor to the U.N., 
but it also means we should strive to do the utmost to make 
sure that every dollar of taxpayer money is spent right and 
that we appropriately leverage the investment we make to try to 
promote reforms both in the management and operations of the 
U.N. but also in the seriousness and maturity with which they 
tackle global problems.
    So these are important posts that you are each being 
nominated for.
    Now let me introduce the nominees.
    Richard Verma serves as senior counselor to the global law 
firm of Steptoe & Johnson, as well as to Albright Stonebridge 
Group in Washington, DC. Mr. Verma has an extensive public 
service background in the State Department, as a longtime 
national security advisor to Majority Leader Harry Reid, to 
other private firms, and he began his public service career as 
a first lieutenant and captain in the United States Air Force. 
Mr. Verma, we congratulate you on your nomination and welcome 
you here today.
    Ambassador Michael McKinley assumed his current position as 
U.S. Deputy Ambassador to Afghanistan in September 2013. 
Previously Ambassador McKinley served as the U.S. Ambassador to 
Colombia and Peru. He was also Deputy Chief of Mission at the 
European Union in Brussels and prior to that has served in 
numerous posts in countries as far flung as Mozambique, Uganda, 
Belgium, Bolivia, tours in Washington. He joined the Foreign 
Service in 1982. He has expertise in Latin America, and that is 
obviously why he has been sent to so many countries not in 
Latin America. They did not want him to grow stale with his 
Latin American expertise.
    Dr. Isobel Coleman was previously the senior fellow at the 
Council on Foreign Relations in New York. She directed the CFR 
Civil Society Markets and Democracy Program, and her areas of 
expertise included political economy of the Middle East, 
democratization, civil society, economic development, education 
reform, and gender issues. She is the author and coauthor of 
numerous books and articles. Prior to joining the CFR, she was 
the chief executive officer of a health care services company 
that partnered with McKinsey and Company in New York. She is a 
Marshall Scholar and holds degrees from Princeton and Oxford 
and serves on several nonprofit boards that are relevant to the 
proposed appointment to the United Nations.
    I would like to ask each of the witnesses to offer opening 
statements, and we will just start with Ambassador McKinley and 
move right across the table. Let me just see. Senator Risch is 
not yet here. When Senator Risch comes, I will offer him the 
chance to offer some opening comments, but I will have you 
deliver opening statements. Your entire written statements are 
going to be submitted into the record, so you can summarize if 
you choose. When Senator Reid comes, we will just pause and let 
him do the introductory comments that he wants to make about 
Mr. Verma. But welcome to all of you, and Ambassador McKinley, 
the floor is yours.

 STATEMENT OF HON. PETER MICHAEL McKINLEY, OF VIRGINIA, TO BE 
       AMBASSADOR TO THE ISLAMIC REPUBLIC OF AFGHANISTAN

    Ambassador McKinley. Mr. Chairman, members of the 
committee, thank you for the opportunity to appear before you 
today as President Obama's nominee to be the next U.S. 
Ambassador to the Islamic Republic of Afghanistan. I look 
forward, if confirmed by the Senate, to working with you to 
advance America's interests there.
    I have spent the past year serving as Deputy Ambassador in 
Kabul and have had the honor to work with hundreds of 
remarkable civilian personnel and with our equally remarkable 
men and women in uniform. They serve as inspiration and a 
reminder of the immense sacrifices our Nation has made these 
past 13 years in Afghanistan and of our achievements.
    Our national security interest brought us to Afghanistan, 
and it is our national security interests that keep us there. 
The United States combat mission in Afghanistan will conclude 
at the end of this year, but we will maintain counterterrorism 
capability to prevent an al-Qaeda resurgence. In order to 
safeguard the progress we have made with our Afghan partners, 
we, along with our NATO allies and partners will continue to 
train, advise, and assist the Afghan National Security Forces.
    As Secretary Kerry said today at the NATO ministerial, we 
will also consult closely with Afghanistan's leaders on 
security issues, to include a discussion of possible 
refinements to our plans regarding the mission's duration, and 
work closely with ISAF Commander General Campbell as he makes 
his own assessments. Our shared partnership and successes in 
Afghanistan will help us continue to protect vital American 
interests in a critical region.
    Afghanistan has undergone a major transformation. Millions 
of boys and girls go to school and university. Afghanistan has 
among the freest press in the region. The economy has 
quadrupled. Millions of refugees returned home. Women are no 
longer in the shadows.
    This is the context for 2014, a year that we knew would be 
one of transition. I want to talk about where that transition 
stands.
    Even as the Afghan Security Forces now provide security for 
the majority of Afghan people, Afghans recognize the need for 
continued international support. On September 30, 1 day after 
his inauguration, President Ghani and CEO Abdullah witnessed 
the signing of the bilateral security agreement and the NATO 
status of forces agreement. The Afghan Parliament 
overwhelmingly ratified both.
    The transition is also happening politically. This year saw 
Afghanistan's first peaceful democratic transfer of power as 
Ashraf Ghani succeeded Hamid Karzai as President. The election 
was not easy, and we should not have expected it to be. Yet, 
millions of Afghans defied Taliban threats and voted. With 
fraud allegations threatening to undermine the election, the 
candidates agreed to an unprecedented audit, to abide by its 
outcome, and to form a unity government. The result is a 
legitimate and inclusive government.
    The new government knows that continued international 
assistance depends on concrete actions. President Ghani is 
acting, presenting an austerity budget and reopening the Kabul 
Bank investigation. He has pledged to address corruption at all 
levels, to bolster revenue collection, to reform the banking 
sector, to work with donors on a sustainable long-term 
strategy, and to protect the gains women have made as USAID 
launches its largest-ever gender program with Promote. These 
themes are at the center of the national unity government's 
presentation at the London Conference which begins tomorrow.
    We owe the U.S. taxpayer the strictest accountability and 
assurances that the resources we provide will be used to good 
effect. If confirmed, I will work closely with all of our 
oversight inspection offices to address the shortcomings that 
are identified in our programming and to chart the most 
transparent way forward.
    The new government is also improving Afghanistan's 
relations with the international community. Both President 
Ghani and CEO Abdullah are in Brussels today and will attend 
the London Conference. President Ghani has reached out to 
neighbors in the Heart of Asia meeting in Beijing, at the South 
Asia summit in Nepal, and has visited Pakistan.
    The optimism I express reflects the energy of the 
government of national unity, which took office just over 60 
days ago. The terrible acts of terrorism by the Taliban in 
recent days will not slow this momentum. Afghans are hopeful 
for their future and want to take control of their destiny. We 
have a stake in their success not just because of our 
sacrifices or the partnership we built with the Afghan people, 
but because Afghanistan's success is in our national interest.
    Thank you, Mr. Chairman and members of the committee. I 
look forward to your questions.
    [The prepared statement of Ambassador McKinley follows:]

              Prepared Statement of Peter Michael McKinley

    Mr. Chairman, Ranking Member Risch, members of the committee, thank 
you for the opportunity to appear before you today as President Obama's 
nominee to be the next U.S. Ambassador to the Islamic Republic of 
Afghanistan. I am honored to have been nominated by the President, and 
look forward, if confirmed by the Senate, to working closely with you 
to advance America's interests in Afghanistan.
    I have spent the past year serving as Deputy Ambassador in Kabul, 
and have had the honor to work with hundreds of remarkable civilian 
personnel from across the U.S. Government and with our equally 
remarkable men and women in uniform. They serve as inspiration and a 
daily reminder of the immense sacrifices our Nation has made these past 
13 years in Afghanistan, and of the achievements that provide a strong 
foundation for the next phase of our relationship with the Afghan 
people.
    Our national security interest brought us to Afghanistan 13 years 
ago, and it is our national security interest that keeps us there. It 
was in Afghanistan that the attacks of September 11, 2001, were 
planned. It was in Afghanistan that al-Qaeda had its safest harbor. As 
the President announced in May, the United States combat mission in 
Afghanistan will conclude at the end of this year, but we will continue 
to maintain a counterterrorism capability there to prevent an al-Qaeda 
resurgence in Afghanistan. And in order to safeguard the progress we 
have made in building with our Afghan partners a stronger, more stable, 
and more resilient Afghanistan, we, along with our NATO allies and 
other international partners, will continue to train, advise, and 
assist the Afghan National Security Forces (ANSF). Our shared 
partnership and successes in Afghanistan will help us continue to 
protect vital American interests in a critical region of the globe.
    Thirteen years on, Afghanistan has undergone a major 
transformation. Millions of boys and girls go to school and university. 
Afghanistan has among the freest press and political environments in 
the region. The economy has quadrupled in size. Afghans have 
participated in four major elections. Millions of refugees have 
returned home. Women are no longer in the shadows but have a place in 
Afghanistan's Government and public society. While we continue to help, 
the Afghan National Security Forces (ANSF) have the lead in combat 
operations and provide security for the majority of the Afghans.
    This is the context for 2014, a year that we anticipated would be a 
critical point of transition. And so it has proved to be. After a 
difficult period when the future of the U.S. security relationship with 
Afghanistan was unclear; when it was unclear whether a peaceful 
political transition could be achieved; and when the economic future of 
Afghanistan appeared to hang in the balance; the transition is 
happening, the Bilateral Security Agreement has been ratified, there is 
a new government in Kabul, and the Afghans can now turn their attention 
to their economy.
    On the security front, as noted, the ANSF have had the lead role in 
all combat operations since June 2013, and are on track to assume full 
security responsibility at the end of this year. They secured two 
rounds of elections earlier this year. The courage of the ANSF in 
carrying on the fight in spite of heavy casualties is a tribute to 
their resolve. Now, the ANSF are looking to consolidate the gains of 
past years, improve respect for human rights, and strengthen their 
capabilities to counter the Taliban and be a more effective partner to 
us in countering terrorism.
    Afghans have recognized and welcomed the need for continued 
international support. On September 30, one day after his inauguration, 
President Ashraf Ghani, with his former rival and now his Chief 
Executive Officer, Dr. Abdullah Abdullah, witnessed the signing of the 
Bilateral Security Agreement (BSA) and the NATO Status of Forces 
Agreement. The Afghan Parliament voted overwhelmingly to endorse 
ratification of both of these agreements, demonstrating the broad 
popular support for a continued security relationship with the United 
States and our allies and partners. These agreements give us the basis 
to work with NATO and partner nations to train, advise, and assist 
Afghan forces and to continue our counterterrorism mission.
    The transition is also happening politically. This year saw the 
first peaceful, democratic transition of power in Afghanistan's 
history, as Ashraf Ghani succeeded Hamid Karzai as President. The 
election was not easy, and we should not have expected it to be. The 
Taliban made clear their intention to target those who went to the 
polls. Two years ago, the country did not have the necessary legal 
framework for national elections. Millions of new voters needed to be 
registered; and the logistics and security for the elections took 
months to plan.
    Afghans overcame these challenges, passing electoral laws, 
registering nearly 4 million new voters, more than a third of whom were 
women, and distributing ballots to every province. Afghan political 
leaders put together strong, multiethnic tickets, three of which 
included women as vice-presidential candidates. They conducted 
nationwide campaigns, organized hundreds of rallies and held many 
televised debates. And millions of Afghans defied Taliban threats and 
voted.
    When credible allegations of fraud threatened to undermine these 
achievements, the two leading candidates agreed to an unprecedented 
audit, to abide by its outcome, and to form a unity government. The 
result is a legitimate and inclusive government of national unity with 
a solid mandate to pursue reforms to increase security, improve 
governance, strengthen democracy, and build the economy. It is 
important to emphasize that, while the United States and the 
international community facilitated this effort, the outcome is an 
Afghan political agreement that reflects the will of Afghan voters.
    The transition is also happening in economic terms and 
developmental terms, as investors and ordinary Afghans look to the 
future with greater confidence and the new government outlines 
important reform objectives.
    At the same time, however, it is clear that continued international 
assistance depends on concrete actions by Afghanistan to address 
corruption, increase transparency, improve revenue collection, and 
implement economic policies to lessen its dependence on aid. There are 
real concerns about the short-term fiscal shortfall the new government 
inherited and the need for a more sustainable economic model. President 
Ghani is already implementing an austerity regime, has pledged to 
reform Afghanistan's budget process, address endemic corruption, 
bolster revenue collection, reform the banking sector, and work with 
donors on a sustainable long-term strategy to grow the economy and to 
create employment. These are critical steps toward making Afghanistan 
an increasingly self-reliant, sustainable state. These themes are the 
centerpiece of the national unity government's presentation at the 
London Conference on Afghanistan which begins tomorrow December 3.
    We owe the U.S. taxpayer the strictest accountability and 
assurances that the resources we provide will be used to achieve our 
foreign policy goals, strengthening and building on what has been 
achieved. I will, if confirmed, work closely with all our oversight 
inspection offices, including SIGAR, to address real shortcomings that 
are identified in our programming, and to chart the most transparent 
paths forward to success. This includes reviewing our counternarcotics 
programs as part of the broader challenge to develop strong Afghan 
institutions and implement the rule of law.
    As I have noted, there have been many gains in the area of women's 
rights. The new Afghan Government intends to build on these gains. 
Three weeks ago, Ambassador Cunningham and USAID Administrator Rajiv 
Shah, in partnership with President Ghani, committed to the largest-
ever USAID gender program in the world. The goals are to empower women 
entering leadership positions, expand higher education for girls, and 
strengthen gender protections. President Ghani has also pledged to 
nominate women to senior positions in the Cabinet and judiciary.
    The optimism I express reflects the energy of the government of 
national unity, which took office less than 60 days ago and is already 
transforming promises--to promote national unity, protect human rights, 
and tackle corruption--into action. President Ghani, with the full 
support of CEO Abdullah, reopened the Kabul Bank investigation, the 
largest financial scandal in the nation's history. Money laundering 
regulations have been improved and issued. Reporters penalized for 
doing their jobs have been allowed to return to work. Judges complicit 
in the release of a drug trafficker have been charged. The government 
of national unity has also signed and effectively lobbied for 
ratification of the BSA and NATO SOFA and announced agreement on a 
formula and a timeline for appointing Cabinet members.
    The new government acted quickly to improve Afghanistan's relations 
with the international community. Both President Ghani and Chief 
Executive Abdullah are in Brussels today for the NATO ministerial and 
will attend the London Conference tomorrow. President Ghani recognizes 
the importance of regional integration and has already reached out to 
neighbors in the ``Heart of Asia'' meeting in Beijing, and the South 
Asia Association for Regional Cooperation (SAARC) discussions in Nepal. 
Energy investments and trade reforms are at the top of the integration 
agenda. President Ghani also visited Pakistan recently. The two 
countries are now focused on new opportunities to improve security 
cooperation and cross-border linkages in transportation, energy, and 
trade.
    Ultimately, there will be the need to address a political solution 
to the conflict with the insurgency. President Ghani has taken the step 
of inviting the Taliban to talks. The United States has made clear we 
support efforts to negotiate an end to conflict inside Afghanistan. 
This, however, must remain an Afghan-owned, Afghan-led political 
process.
    Afghans are hopeful for their future and want to take control of 
their destiny. At the same time, we have a stake in their success. Not 
just because of our sacrifices, or the partnership we built with the 
Afghan people, but because Afghanistan's success will, I repeat, will 
help protect vital American interests in a critical region of the 
globe. Our challenge is to consolidate and strengthen the gains of the 
past 13 years.
    Thank you Mr. Chairman, Ranking Member Risch, and members of the 
committee. I look forward to your questions.

    Senator Kaine. Thank you, Ambassador McKinley.
    Dr. Coleman.

      STATEMENT OF DR. ISOBEL COLEMAN, OF NEW YORK, TO BE 
 REPRESENTATIVE TO THE UNITED NATIONS FOR U.N. MANAGEMENT AND 
   REFORM, WITH THE RANK OF AMBASSADOR; AND AS AN ALTERNATE 
 REPRESENTATIVE TO THE SESSIONS OF THE GENERAL ASSEMBLY OF THE 
 UNITED NATIONS DURING HER TENURE OF SERVICE AS REPRESENTATIVE 
      TO THE UNITED NATIONS FOR U.N. MANAGEMENT AND REFORM

    Dr. Coleman. Chairman Kaine, Ranking Member Risch, and 
other distinguished members, I am truly honored to come before 
you as the President's nominee to be the U.S. Representative to 
the United Nations for Management and Reform. I am grateful to 
President Obama, Secretary Kerry, and Ambassador Power for 
their confidence.
    And I would also like to briefly acknowledge my family 
members who are here: my parents, my father and stepmother; my 
children, my five children; and my niece, Chloe, who are here 
today. They are a tremendous source of pride for me. So I 
appreciate their support.
    Mr. Chairman, if confirmed, I will work tirelessly to 
advance America's interests at the United Nations. At its best, 
the U.N. can be a powerful partner of the United States, 
promoting our values and advancing global peace and security at 
far less cost to American taxpayers than if we act alone. 
Today, under enormously difficult conditions, U.N. peacekeepers 
are bolstering fragile states in places such as Liberia, Mali, 
and Haiti. U.N. experts are on the front lines of the Ebola 
crisis, working to halt its spread. Each of these critical 
activities and many others conducted daily by various U.N. 
agencies around the world are tackling global challenges and 
humanitarian crises that no one nation can or should have to 
address on its own.
    But as we all know, the U.N. can be more effective. As 
President Obama has said, the U.N. is indispensable but also 
imperfect. Too often, there is a significant gap between the 
promise of the organization and the reality of its 
shortcomings, such as incidents of sexual exploitation by 
individual peacekeepers or politically motivated resolutions. 
As the largest contributor to the United Nations, we have a 
significant stake in holding wrongdoers accountable and 
demanding transparency and effectiveness across the entire 
organization. In recent years, U.S.-led reform efforts have 
achieved some meaningful results, such as creating a new 
inspector general for peacekeeping missions and streamlined 
logistics through the Global Field Support Strategy. Much-
needed rationalization, for example, has led to the elimination 
of nearly 220 redundant positions and the freezing of salary 
and benefits for U.N. staff while the U.N. undergoes a 
comprehensive review of its compensation practices.
    But let us not lose sight of the fact that the U.N.'s 
regular budget doubled in size in 10 years. There is clearly 
room for greater budget discipline. If confirmed, I will work 
to ensure that the U.N. is deploying its resources in the most 
efficient and effective way, that it is conducting its business 
in a consistently ethical and transparent fashion, and that it 
is meeting the highest standards of conduct and integrity. 
American taxpayers deserve no less.
    I have spent much of my professional life bringing reform 
and accountability to a variety of organizations. For nearly a 
decade, I was a management consultant at McKinsey, helping some 
of the biggest multinational corporations streamline 
complicated business and management operations; implement 
world-class human resource solutions; improve risk management 
and cut costs. I also worked in a pro bono capacity with public 
institutions such as the New York City Department of Education 
on multiyear efforts to enhance accountability and improve 
performance. In many of my client situations, I had to work 
with managers determined to maintain the status quo; legacy 
systems resistant to modernization; and organizations skeptical 
of change. Achieving success in these efforts depended on my 
listening to good ideas from all quarters and finding ways to 
bring the naysayers on board.
    As a small business founder and CEO, I developed a deep 
intolerance for seeing scarce resources wasted or misused 
through a business-as-usual mindset. Having to make payroll 
every week instilled in me an even stronger appreciation for 
the value of each and every dollar.
    For the past 12 years at the Council on Foreign Relations, 
I have focused my energies on bringing attention to the 
possibilities of reform in a global context, including economic 
reform, gender equality, educational reform, and political 
reform. The constant thread connecting all my work has been a 
relentless focus on improving outcomes. The opportunity to 
represent American interests in management and reform efforts 
at the United Nations in many ways uniquely marries my 
operational and management experience with my deep engagement 
on global issues.
    If confirmed, I would be honored to join Ambassador Power 
in her determined efforts to make the U.N. more effective, 
efficient, and accountable. Working with others in the 
administration, in Congress, and especially with this 
committee, I would do my utmost to help the U.N. live up both 
to its ideals and its potential.
    Thank you for the opportunity to appear here before you 
today, and I look forward to answering your questions.
    [The prepared statement of Dr. Coleman follows:]

                  Prepared Statement of Isobel Coleman

    Chairman Kaine, Ranking Member Risch, and distinguished members, I 
am truly honored to come before you as the President's nominee to be 
the U.S. Representative to the United Nations for Management and 
Reform. I am grateful to President Obama, Secretary Kerry, and 
Ambassador Power for their confidence. I would like briefly to 
acknowledge my family members--my father and stepmother, my husband 
Struan, niece Chloe who lives with us, and my five children--who are 
here today for this hearing. My family is a source of tremendous pride 
and joy for me and I so appreciate their support.
    Mr. Chairman, if confirmed, I will work tirelessly to advance 
America's interests at the United Nations. At its best, the U.N. can be 
a powerful partner of the United States, promoting our values, and 
advancing global peace and security at far less cost to American 
taxpayers than if we act alone. Today, under enormously difficult 
conditions, U.N. peacekeepers are bolstering fragile states in places 
such as Liberia, Mali, and Haiti; U.N. experts are on the front lines 
of the Ebola crisis, working to halt its spread; and in Iraq, U.N. 
agencies are making their biggest push in a decade to provide emergency 
shelter and essential vaccinations to the nearly 2 million Iraqis 
displaced by the current violence in advance of winter. Each of these 
critical activities, and many others conducted daily by various U.N. 
agencies around the world, are tackling global challenges and 
humanitarian crises that no one nation can, or should have to, address 
on its own. When the U.N. works effectively, Americans are safer, our 
interests are promoted and burdens are fairly shared across member 
states.
    But as we all know, the U.N. can be more effective. As President 
Obama has said, the U.N. is ``indispensable'' but also ``imperfect.'' 
Too often, there is a significant gap between the promise of the 
organization, and the reality of its shortcomings, such as incidents of 
sexual exploitation by individual peacekeepers or politically motivated 
resolutions. As the largest contributor to the United Nations, we have 
a significant stake in holding wrongdoers accountable and demanding 
transparency and effectiveness across the entire organization. In 
recent years, U.S.-led reform efforts have achieved some meaningful 
results, such as creating a new inspector general for peacekeeping 
missions and streamlined logistics through the Global Field Support 
Strategy. Much-needed rationalization, for example, has led to the 
elimination of nearly 220 redundant positions and the freezing of 
salary and benefits for U.N. staff while the U.N. undergoes a 
comprehensive review of its compensation practices. The result has been 
the slowing of the long-term growth trend of the regular budget.
    But let's not lose sight of the fact that the U.N.'s regular budget 
doubled in size over 10 years. There is clearly room for greater budget 
discipline. If confirmed I will work to ensure that the U.N. is 
deploying its resources in the most efficient and effective way, that 
it is conducting its business in a consistently ethical and transparent 
fashion, and that it is meeting the highest standards of conduct and 
integrity. American taxpayers deserve no less.
    To ensure that U.S. funds are spent responsibly, improvements are 
still needed in audit transparency, whistleblower protections, and 
oversight. With over 70 percent of the U.N.'s regular budget going to 
personnel costs, the U.N. must have an effective human resources system 
that delivers the most capable and dynamic workforce, ensures 
accountability for performance and results, and also controls growth in 
compensation costs. Procurement and business processes must also meet 
international best practices.
    I have spent much of my professional life bringing reform and 
accountability to a variety of organizations. For nearly a decade, I 
was a management consultant at McKinsey, helping some of the biggest 
multinational corporations streamline complicated business operations; 
implement world-class human resource solutions; improve risk management 
and cut costs. I also worked in a pro bono capacity with public 
institutions such as the New York City Department of Education on 
multiyear efforts to enhance accountability and improve performance. In 
many of my client situations, I had to work with managers determined to 
maintain the status quo; legacy systems resistant to modernization; and 
organizations skeptical of change. Achieving success in these efforts 
depended on my listening to good ideas from all quarters and finding 
ways to bring the naysayers on board.
    As a small business founder and CEO, I developed a deep intolerance 
for seeing scarce resources wasted or misused through a ``business-as-
usual'' mind-set. Having to make payroll every week instilled in me an 
even stronger appreciation for the value of each and every dollar.
    For the past 12 years at the Council on Foreign Relations, I have 
focused my energies on bringing attention to the possibilities of 
reform in a global context: including economic reform, gender equality, 
educational reform, and political reform. The constant thread 
connecting all my work has been a relentless focus on improving 
outcomes. The opportunity to represent American interests in management 
and reform efforts at the United Nations in many ways uniquely marries 
my operational and management experience with my deep engagement on 
global issues.
    If confirmed, I would be honored to join Ambassador Power in her 
determined efforts to make the U.N. more effective, efficient, and 
accountable. Working with others in the administration, in Congress, 
and especially in this committee, I would do my utmost to help the U.N. 
live up both to its ideals and its potential.
    Thank you for the opportunity to appear before you today, and I 
look forward to answering your questions.

    Senator Kaine. Thank you, Dr. Coleman.
    Mr. Verma.

   STATEMENT OF HON. RICHARD RAHUL VERMA, OF MARYLAND, TO BE 
              AMBASSADOR TO THE REPUBLIC OF INDIA

    Mr. Verma. Mr. Chairman and Senator Risch, it is a great 
honor to appear before you today. I have worked closely with 
this committee for many years when I worked in the Senate 
Leader's office and also when I was at the State Department as 
the Assistant Secretary for Legislative Affairs. If confirmed, 
I am committed to working with this committee closely again in 
shaping our relationship with India, a country so important 
that President Obama called it the defining relationship for 
the United States in the 21st century.
    Let me thank Senator Reid in advance, who will be here to 
do an introduction of me. I also want to thank President Obama 
for nominating me and Secretary Kerry for offering me the 
chance to be back in the State Department family once again. It 
is a high honor and a privilege I do not take lightly.
    Let me also thank my family and friends that are here 
today. There are 11 members of my family here. I will not 
introduce all of them. But my wife Pinky and my children, Zoe, 
Lucy, and Dylan--I owe them all a special debt of thanks as 
they have enthusiastically embraced this new adventure and 
supported me at every turn. And to my parents, Dr. Kamal Verma, 
who is here today, and my mother, the late Savitri Verma; they 
left India, the country they loved, some 50 years ago to build 
a new life here in America, overcoming odds and working so 
hard. I cannot thank them enough for their courage, wisdom, and 
countless sacrifices they made on behalf of their children. And 
my wife's father, Fred Blackwell, a World War II veteran and 
former chief counsel of the Senate Labor Committee, is here as 
well.
    There is a no question that this a defining and exciting 
time in the United States-India relationship. President Obama 
will make a historic visit to India in January, becoming the 
first United States head of state to attend India's Republic 
Day and the only sitting U.S. President to visit India twice. 
His trip will build on Prime Minister Modi's highly successful 
visit to the United States this past September. There is little 
doubt the relationship has been reenergized, with renewed 
enthusiasm to take our partnership to the next level.
    The United States' strategic partnership with India is 
rooted in our shared democratic values and in our joint vision 
of a peaceful, just, and prosperous world. From expanding trade 
and defense relationships, to ensuring maritime security and 
freedom of navigation, from countering terrorist networks, to 
promoting clean energy and sustainable development, the United 
States and India share a wide range of critical national 
interests. Our partnership is deep. It touches nearly every 
endeavor of human pursuit, and it has produced important gains 
for each of our countries.
    Two-way trade between our nations has increased fivefold to 
$100 billion. The President and Prime Minister have talked 
about increasing it another fivefold, which would create tens 
of thousands of jobs in both countries.
    On the defense front, the United States has become one of 
India's largest suppliers of defense items, and active 
discussions continue on identifying projects for coproduction 
and development, as well as renewing our 10-year defense 
framework agreement.
    Our people-to-people exchanges are flourishing. There are 
over 100,000 Indian students studying in the United States, and 
the Indian diaspora in the United States, now estimated to be 
over 3 million, continues to make deep and lasting 
contributions to United States society.
    On climate, energy, health, infrastructure, human rights, 
development, and so much more, the United States and Indian 
potential for collaboration and joint problem-solving is 
limited only by our imagination.
    Beyond our initiatives, we are working hard at increasing 
regional connectivity. India shares our belief that peace and 
stability are much more likely to be sustained when the 
countries of the region are tied together in trade, economic 
agreements, and through physical infrastructure.
    Across Asia, United States and Indian interests are 
converging. India has been called the lynchpin of our Asia 
rebalance. With India's Look East policies, our two countries 
can play a critically important role together in bolstering 
peace and security and promoting a rules-based, liberal, 
democratic order in the Indo-Pacific region.
    And the ripple effects of our partnership need not be 
limited to Asia. As Prime Minister Modi noted, the true power 
and potential in this relationship is that when the oldest and 
largest democracies come together, the world will benefit.
    We will have our differences from time to time. Close 
friends often do, but when we do have differences, it is 
imperative that we maintain a healthy dialogue, as we did 
recently with the Trade Policy Forum and as we will with the 
Civil-Nuclear Contact Group. We can stand up for our interests 
while not losing sight of the larger strategic interests that 
India and the United States share together.
    Finally, Mr. Chairman, if confirmed, I will faithfully 
discharge my most fundamental responsibility and that is to 
protect the welfare of American citizens in India. This 
includes providing a safe and secure work environment for the 
U.S. Government employees and their families at Embassy New 
Delhi and our consulates in Chennai, Hyderabad, Kolkata, and 
Mumbai. We value their distinguished service, and I will be 
their biggest advocate and supporter.
    Mr. Chairman, let me say in closing that I am deeply 
appreciative of all those who have served and worked so hard on 
cultivating this relationship over the many decades, the 
diplomats, development experts, security professionals, Members 
of Congress, and so many more, but also the immigrants from the 
Indian subcontinent, those who took a chance like my parents 
who worked hard, who continue to pursue their dreams, and along 
the way have helped ensure India and the United States have 
become the closest of friends.
    Again, I appreciate the chance to be here today and look 
forward to your questions.
    [The prepared statement of Mr. Verma follows:]

                 Prepared Statement of Richard R. Verma

    Mr. Chairman and Senator Risch, it is a great honor to appear 
before you today. I have worked closely with this committee for many 
years, when I worked in the Senate Leader's office and at the State 
Department as the Assistant Secretary for Legislative Affairs. If 
confirmed, I am committed to partnering with you again in shaping our 
relationship to India--a country so important that President Obama 
called it the defining relationship for the United States in the 21st 
century.
    I would like to thank Senator Reid for his kind introduction, and 
of course, I would like to thank President Obama for nominating me, and 
Secretary Kerry for offering me the chance to again be part of the 
State Department family. It is a high honor and privilege that I don't 
take lightly. I'm also delighted to be here with Ambassador Mike 
McKinley, a highly decorated diplomat who represents the best of the 
Foreign Service, and Isobel Coleman, who brings a breadth of foreign 
policy experience to a critical position, Representative of the United 
States to the United Nations for U.N. Management and Reform.
    Let me also thank my family and friends that have helped get me to 
this place. My wife, Pinky, my children Zoe, Lucy, and Dylan, I owe 
them all a special debt of thanks, as they have enthusiastically 
embraced this new adventure and supported me at every turn. And, to my 
parents, Dr. Kamal Verma, who is here today, and my mother, the late 
Savitri Verma. They left India--the country they loved--50 years ago to 
build a new life here in America, overcoming odds and working so hard. 
I can't thank them enough for their courage, wisdom, and countless 
sacrifices they made on behalf of their children.
    For over two decades, I have had the good fortune of working in the 
national security and foreign policy arenas, with much of that time 
focused on South Asia. Whether in the military, working here on Capitol 
Hill, the State Department or in the private sector, I have seen 
firsthand how consequential our partnership with India can be.
    There is no question that this is a defining and exciting time in 
the U.S.-India relationship. President Obama will make a historic visit 
to India in January, becoming the first U.S. head of state to attend 
India's Republic Day and the only sitting U.S. President to visit India 
twice. His trip will build on Prime Minister Modi's highly successful 
visit to the United States this past September. There's little doubt 
the relationship has been reenergized, with renewed enthusiasm to take 
our partnership to the next level.
    The United States strategic partnership with India is rooted in our 
shared democratic values and in our joint vision of a peaceful, just, 
and prosperous world. From expanding trade and defense relationships, 
to ensuring maritime security and freedom of navigation; from 
countering terrorist networks, to promoting clean energy and 
sustainable development, the United States and India share a wide range 
of critical national interests. Our partnership is deep, it touches 
nearly every endeavor of human pursuit, and it has produced important 
gains for each of our countries.
    Two-way trade between our nations has increased fivefold since 2001 
to nearly $100 billion. In their recent meetings, President Obama and 
PM Modi committed to increasing trade another fivefold, which would 
create tens of thousands of new jobs in both the United States and 
India.
    On the defense front, the United States has become one of India's 
largest suppliers of defense items over the last 3 years and active 
discussions continue on identifying projects for coproduction and 
development as well as renewing our 10-year Defense Framework 
Agreement.
    Our people-to-people exchanges are flourishing. There are over 
100,000 Indian students currently studying in the United States. And, 
the Indian diaspora in the United States, now estimated to number over 
3 million, continues to make deep and lasting contributions to U.S. 
society.
    On climate, energy, health, infrastructure, human rights, and 
development and so much more--the U.S. and Indian potential for 
collaboration and joint problem-solving is limited only by our 
imagination.
    Beyond our initiatives, we are working hard at increasing regional 
connectivity. India shares our belief that peace and stability are much 
more likely to be sustained when the countries of the region are tied 
together in trade, economic agreements, and through physical 
infrastructure.
    Across Asia, U.S. and Indian interests are converging. India has 
been called the lynchpin of our Asia rebalance. With India's Look East, 
and now Act East policies, our two countries can play a critically 
important role together in bolstering peace and security and promoting 
a rules-based, liberal, democratic order in the Indo-Pacific region.
    The ripple effects of our partnership need not be limited to Asia. 
As Prime Minister Modi noted, the true power and potential in this 
relationship is that when the oldest and largest democracies come 
together, the world will benefit.
    We will have our differences from time to time--close friends often 
do--but when we do have differences, it is imperative that we maintain 
a healthy dialogue. The successful Trade Policy Forum held just last 
week in New Delhi--the first since 2010--and the recently established 
Civil-Nuclear Contact Group are examples of our collaborative, 
dialogue-driven approach when pursuing consensus in key areas. We can 
stand up for our interests, while not losing sight of the larger 
strategic interests that India and the United States share together.
    Finally, Mr. Chairman, if confirmed, I will faithfully discharge my 
most fundamental responsibility: to promote and protect the welfare of 
American citizens in India. This includes providing a safe and secure 
work environment for the U.S. Government employees and their families 
at Embassy New Delhi and our consulates in Chennai, Hyderabad, Kolkata, 
and Mumbai. We value their distinguished service, and I intend to be 
their biggest advocate and supporter.
    Mr. Chairman, let me say in closing that I am deeply appreciative 
of all those who have worked so hard on cultivating this relationship 
over many decades--the diplomats, development experts, security 
professionals, Members of Congress, and so many other dedicated public 
servants; but also the immigrants from the Indian subcontinent, those 
who took a chance like my parents, who worked hard, who continue to 
pursue their dreams, and along the way have helped ensure India and the 
United States become the closest of friends and partners. I will strive 
to live up to the high standards they have set.
    Mr. Chairman, again, I appreciate the chance to be here today, and 
I look forward to your questions.

    Senator Kaine. Thank you, Mr. Verma.
    We will begin questioning now. We will have a round of 7-
minute questions. There is some chance that we may get into 
multiple rounds of questions because these are important 
nominations and important posts.
    And the hearing of this committee will remain open until 
the close of business today so that any members attending or 
not who have questions to submit for the record can submit 
questions by the end of the day. And we would encourage your 
prompt response should they do so.
    To Ambassador McKinley, talk a little bit about what you 
see as the reason for the recent up-tick of attacks in Kabul 
but maybe more especially how are the Afghan forces responding 
to those up-ticks in Taliban attacks?
    Ambassador McKinley. Well, there is a cyclical approach to 
the tactics the insurgency employs inside the country, and we 
have been here before. There have been up-ticks in urban 
violence and terrorism targeting civilians at different stages 
over the last 13 years. Over the last few weeks but certainly 
throughout this year, there has been emphasis on attacking 
urban centers. The Taliban sought to thwart the elections which 
took place this year, and they are also trying to challenge the 
relationship that Afghanistan will have with the international 
community going forward.
    The fact of the matter is, as you look at not just this 
year, but the last 2 years of progression in the capabilities 
of the Afghan Security Forces to deal with security inside 
their own country, they are having successes. At the moment, 
there is a very serious review going on on Kabul's security 
involving the police, the security forces, and obviously the 
international partners. But the fact of the matter is, as you 
look at the year as a whole, insurgent activity inside the 
country looks like it will be at or lower than the levels of 
2013 and in the context of the Afghan Security Forces carrying 
out 99 percent of operations inside the country.
    Senator Kaine. Ambassador McKinley, you raised in your 
opening comments some of the positives that you have seen, that 
we have seen since the formation of the national unity 
government, which was significantly aided by the efforts of 
Secretary Kerry and others in the State Department. The London 
donor's conference, which starts within a few days--one of the 
questions I know the donors are going to be pressing is the 
formation of the Cabinet. I read the news earlier this week 
that the President, President Ghani, had dismissed the previous 
Cabinet. Talk about the progress toward the formation of a new 
Cabinet. I gather that that has been difficult, and I would 
love to get kind of a status report.
    Ambassador McKinley. Well, the government of national unity 
came about after a prolonged electoral crisis in which there 
was an audit and then discussion between the two candidates on 
what the path forward would be, and a government of national 
unity duly emerged at the end of September.
    Over the past 60 days, President Ghani and CEO Abdullah 
have actually been working well together, meeting several times 
a week, discussing the major policy issues on the table, 
agreeing to very specific measures to put meat on the bones of 
the reforms that both promised when they were candidates.
    In terms of the division of power inside the Cabinet, these 
discussions have taken longer than some would have wished, but 
on Sunday President Ghani, CEO Abdullah, and all of their 
deputies on national television and radio announced that they 
had an agreement on the methodology going forward, picking 
future Cabinet Ministers who would be new to the Cabinet and 
untainted by the past, and have a formula for how they will 
divide these Cabinet positions between the two groupings inside 
the government. The anticipation is that the naming of actual 
ministers will take place over the next 2 to 4 weeks. So, 
again, while it is taking longer than some might have desired, 
the progression is all in the right direction.
    And I would note that on Sunday the two teams, so to speak, 
appearing together was the first time that had been seen since 
the signing of the BSA and was yet another public and important 
symbolic exhibition of a national unity government with a sense 
of purpose going forward.
    Senator Kaine. We have had testimony at this committee and 
before the Armed Services Committee that corruption may pose a 
more significant existential threat to Afghanistan than 
terrorism. What can the United States best do to engage in 
accountability and governance issues with the new unity 
government?
    Ambassador McKinley. We are very fortunate that the unity 
government, since it has come in, has made fighting corruption 
a priority. When you look at the documentation and the work 
that has gone into preparing for the London Conference, in fact 
the government's presentation in London in 2 days--and I am not 
really anticipating. It has already been foreshadowed over the 
past week--will include a very strong component on specific 
measures to address corruption inside the country. In fact, 
President Ghani and CEO Abdullah have signaled that fighting 
corruption has to rank in the top two or three priorities of 
the new government.
    In terms of specific measures, we are looking at everything 
from the reopening of the Kabul Bank investigation, the biggest 
financial scandal in the country's history where $900 million 
went missing. We are taking a look at reviewing how customs is 
administered. The President is speaking about replacing 
hundreds of corrupt officials and revamping the customs and 
revenue collection system around the country. There is going to 
be an effort to revive the strength and efficacy of the 
judiciary, taking a look at the attorney general's office, 
taking a look at how the Supreme Court operates. Procurement is 
going to be taken out of individual government ministries and 
centralized so that there is greater transparency and less 
opportunity for fraud in contracting in this government. There 
are other measures that the President has proposed, and he will 
be laying out in greater detail in London in the next 2 days. 
But the fact of the matter is more is being done. More has been 
done in the last 60 days than we have seen in many years.
    Senator Kaine. One more question. Then I would like to have 
Majority Leader Reid offer introductory comments about Mr. 
Verma.
    A personal opinion. I had been concerned from my first 
visit to Afghanistan in 2006 that policymakers with a lot of 
challenges on our plate have in the past turned our eyes away 
from Afghanistan, and we have let situations in Iraq take our 
attention in another direction. When I was in Afghanistan in 
2006, the then-Ambassador warned that that could happen and he 
was concerned about it. And I think often that has, in fact, 
happened. Now we have a significant challenge in Iraq with the 
war against ISIL that we have to take very seriously. But I do 
have some concern, as we are tackling that threat, that it 
could cause us to turn our attention away from Afghanistan.
    If you could talk about the fragility of the gains that we 
have achieved and give us an encouragement to maintain our eye 
on the need for continued promotion and acceleration of 
progress in the country.
    Ambassador McKinley. If I can start by saying that in the 
first place, thanks in large part to the support of the members 
of this committee, but our commitment to Afghanistan over a 
very difficult period in the last 2 years have been difficult 
in terms of our bilateral relationship with the country. We 
have stayed the course. There is a bilateral security agreement 
on the table which will give us an opportunity to continue a 
strong security relationship going forward. There is a 
significant commitment both in terms of what we will do to 
support the Afghan Security Forces in budgetary terms. The 
commitment we are making in terms of development assistance, 
sustaining the pledges that we made in Tokyo in 2012. So the 
basis for a strong, ongoing relationship with Afghanistan is 
there.
    It depends on the new Afghan Government making good on the 
many commitments to reform it has already announced and frankly 
a transformation of the relationship with the United States 
going into this next stage of our relationship with the 
country. And we do have a strong basis. We are working very 
differently on political issues, on security issues, on 
developmental issues going forward.
    Notwithstanding, the fragility is there. The poverty rate 
in the country is still 36 percent of the population below the 
poverty line. The Taliban insurgency remains a very serious 
concern. Afghanistan's democracy has progressed but still needs 
consolidation, and in fact, one of the objectives of the 
government of national unity is to strengthen governance and 
democratic reforms in the coming years. And given those 
fragilities, I think the importance of sustaining a positive 
forward-looking relationship with Afghanistan is 
extraordinarily important, and if I could add, in the context 
of what is happening more widely in the region, the successes 
we have in Afghanistan are important to consolidate, and we now 
have a government and the basis on which to make good on the 
gains that we have had.
    Senator Kaine. Thank you, Ambassador McKinley.
    As I indicated at the top of the hearing, we will now take 
time for Majority Leader Reid to offer some comments about one 
of these nominees that he knows very well, Mr. Verma.
    Majority Leader Reid.

                 STATEMENT OF HON. HARRY REID, 
                    U.S. SENATOR FROM NEVADA

    Senator Reid. Thank you very much. Appreciate that. Members 
of the committee, this is really a pleasure for me to come in 
here and to see his lovely wife and his little children who I 
have not seen very much. I cannot imagine how they have grown 
the way they have. And I have a lot of affection for his wife 
for a lot of reasons, but one, when I was growing up and until 
after I got out of high school, I was known as ``Pinky.'' Well, 
that is her name. So if that does not create affection, I do 
not know what would. [Laughter.]
    Ambassador to India, without being too overzealous here, is 
an extremely important post and that is a gross understatement. 
With a population approaching 1.3 billion people, India is the 
world's largest democracy and indispensable partner to the 
United States. India's new Prime Minister has committed to 
strengthen ties between our two nations, as evidenced by his 
recent trip here to the United States just in September.
    Our ties to India transcend global policies. My home State 
of Nevada and so many other States in this country have a proud 
and thriving Indian American population that promote the values 
and interests of India. We share them clearly with India.
    Rich Verma is somebody that is uniquely suited to be our 
Ambassador in India. He is an expert on foreign policy, 
Southeast Asia. He served as Assistant Secretary of State for 
Congressional Affairs under Secretary Hillary Clinton. He 
served honorably in the United States Air Force. He worked for 
me as my national security advisor for more than 4 years. He is 
a wonderful, wonderful, caring man with a great mind. His 
ethnic background will be extremely helpful to us in India.
    One of my boys, my next-to-youngest boy--his best friend 
growing up in high school was a Verma whose father was a math 
professor at the University of Nevada at Las Vegas. So many 
Vermas, a name that I have known for a long, long time.
    Rich is very good at building consensus. He works across 
party lines as well as anyone I have ever seen. His bipartisan 
approach, coupled with his keen understanding of legislation, 
helped us pass the United States-India Civil-Nuclear 
Cooperation Agreement. Frankly, I am not sure it could have 
been done without him. He was an instructor for me. I was so 
well educated in pushing this matter forward.
    Rich is the son of Indian immigrants. He has an 
understanding of India.
    As I have indicated, I have known him for a long, long 
time. I repeat. He has a perfect family. And I say without any 
hyperbole, I say with complete confidence that no better choice 
could have been made, no more highly qualified candidate for 
this important post than Rich Verma. So I hope you will give 
him and the other two nominees before this committee, which I 
know you will, the utmost consideration as quickly as possible.
    Thank you very much.
    Senator Kaine. Thank you, Majority Leader Reid.
    Senator Reid. And I am glad you do not have any questions. 
[Laughter.]
    Senator Kaine. We will ask you what you really think about 
him later. [Laughter.]
    Ranking Member Risch for questions.
    Senator Risch. Thank you, Mr. Chairman.
    Mr. Verma, you certainly come with excellent qualifications 
when it comes to nuclear matters. And we know that one of the 
priorities of the Modi government is to do better as far as 
providing energy to its people. That is particularly true with 
electrical generation.
    My State is the home of the Idaho National Laboratory, as 
you know. The lab is the lead agency when it comes to dealing 
with India on the nuclear cooperation agreement. As you 
probably know, they hold a conference each year, alternately 
once in India, once in Idaho every other year to work this out. 
And I can tell you that the people at the lab are anxious to 
continue that. They are experts in this area. They do an 
excellent job.
    Having said all that, we still in the United States are 
troubled by the fact that our people who provide nuclear parts, 
nuclear equipment, nuclear know-how to India are hamstrung 
because of the laws in India that have stymied really the 
development of nuclear power. With your background, I am sure 
you know that nuclear power certainly is one of the important 
answers for the current administration in India.
    Can you give me your thoughts on that a little bit about 
how you would move the ball forward in that regard and try to 
make a better climate there for American manufacturers, 
American companies who want to do business in this area to 
actually start some work there?
    Mr. Verma. Senator Risch, thank you for the question.
    I am aware of the work of the Idaho National Lab. I have 
seen the public minutes of their work and together with their 
Indian counterparts, and I know what a critical role they play.
    As Senator Reid said, I was also involved with the passage 
of the Hyde Act. I worked the amendments on the floor. And it 
was a great moment for both countries who came together closely 
like never before.
    I also know that there has been great disappointment in the 
full implementation of the agreement mainly because of the 
liability issues, although there are another couple of issues 
that need to be resolved as well.
    I am encouraged, however, by the fact that President Obama 
and Prime Minister Modi came together and discussed this issue 
in great detail in September. I have no doubt it will come up 
again. But one of the important developments that came up out 
of their meetings was the establishment of a contact group to 
try to press this issue forward and get to a solution. It has 
to come to a resolution. The Prime Minister himself said he 
wants to triple the amount of nuclear energy used in India. It 
is not just an American company concern. It is a concern of 
European companies and others, including Indian companies. So I 
am hopeful that we can resolve the liability issue in a way 
that will live up to the promise of the accord that was reached 
many years ago here in this body.
    Senator Risch. Well, I appreciate that. And it has been a 
long time coming. Certainly with your expertise, I have high 
hopes that you are going to be able to move the ball forward 
and we can actually get something started. There are knotty 
problems. No question about it. But it is good to hear your 
input on that and also, like you, I have seen publicly the 
statements from the Modi administration where they are going to 
try to resolve that. And I hope you can urge them to do that.
    Mr. McKinley, we all know that probably the two biggest 
issues that the Afghan people are facing are the corruption 
issue, which you have already addressed. And of course, 
secondly is the Taliban. If those two issues were resolved, I 
think everyone would feel a lot better walking away and feel 
that the result might be better than what a lot of us think may 
be going to happen.
    Tell us a little bit about the negotiations with the 
Taliban, both ours and the Afghans themselves. What can you 
tell us about that?
    Ambassador McKinley. Over the last 4 to 5 years, there 
certainly have been efforts and a declared intention of the 
Afghan Government to try to negotiate with the Taliban. And the 
conditions which have been set out at various times on that 
have been related to an acceptance of a constitution and a 
renouncement of the links with al-Qaeda and participating 
peacefully in the political process and in the national life. 
The progress I think, as we all know, has been extremely fitful 
over the years with the Taliban intent on a violent insurgency 
and still on a violent overthrow of a government inside 
Afghanistan.
    In terms of our own role in this, we do view reconciliation 
efforts as something to be handled by the Afghan Government. At 
the end of the day, if negotiations materialize, it will be an 
Afghan-to-Afghan process, but we do recognize that a political 
solution to the insurgency at some point would be a very good 
thing. So in our own efforts and dialogue with the government, 
before with President Karzai's government and now with 
President Ghani, we will support efforts of the Afghan 
Government in its outreach to explore the possibilities of 
launching negotiations to bring conflict to an end inside 
Afghanistan.
    Senator Risch. Well, understanding you cannot predict the 
future, what is your personal view as to how this plays out?
    Ambassador McKinley. Across this year--and we have seen the 
very public evidence of the approach the Taliban has taken to 
this year of transition. First, there was the focus on trying 
to thwart the elections, and notwithstanding the threats, we 
had 7 million and 8 million Afghans coming out to vote in each 
of the two rounds of elections that were held. In terms of 
their stated declarations about the continued international 
presence and what they carried out in terms of an offensive 
through the spring and the summer and what we are seeing in 
terms of terrorism in urban centers which target not just 
international actors but innocent Afghans from all walks of 
life, to include young boys and men at volleyball games, there 
is not much to indicate that there is an interest in engaging 
in talks. That said, insurgencies and conflicts around the 
world have shown over time that the openings come at the most 
unexpected of times and they must be taken when they present 
themselves.
    Senator Risch. Thank you, Mr. McKinley. Appreciate your 
thoughts in that regard.
    My time is up. Thank you, Mr. Chairman.
    Senator Kaine. Thank you, Senator Risch.
    Chairman Menendez.
    The Chairman. Well, thank you, Senator Kaine. Let me thank 
you and Senator Risch for conducting this hearing toward the 
end of the session with an important panel of nominees that I 
hope, assuming that all the questions here go well, could 
ultimately make it before a business committee meeting and then 
before the Senate adjourns for this congressional session. 
These are incredibly important positions. So I want to thank 
you for holding the hearing.
    Mr. Verma, with reference to India, your tenure there, if 
confirmed, would come at a pretty critical time in our 
relationship. There is a host of challenges in Asia, as both 
India and China grow in economic influence and military 
strength. And I would like to hear from you what is your 
strategic vision for the U.S. relationship with India, and how 
does that strategic vision deal with, for example--I have been 
a strong supporter of the United States-India relationship for 
years. But their nonalignment movement creates a somewhat 
insular set of circumstances that concerns me about how do we 
get them to be the larger player that they should be in 
strategic questions that we care about. So why do we not start 
there?
    Mr. Verma. Mr. Chairman, thank you. Mr. Chairman, the 
relationship that we seek with India is really anchored in our 
values and our interests, the largest democracy and oldest 
democracy. And I think our impact and our strategic impact can 
be felt not only in South Asia but also now in East Asia as we 
do have a convergence of interests. I think we have to 
articulate a vision, which you and others on this committee 
have articulated, which is the United States and India 
upholding liberal democratic rules-based order not only in 
South Asia but in East Asia and ensuring maritime cooperation, 
freedom of navigation so that the kinds of cooperation that we 
engage in--I think we have to think much broader than a 
transactional relationship, think about the strategic 
partnership that we both can have and can achieve. And that is 
the vision statement. We have to operationalize that, and we 
can operationalize that through our defense relationship, 
through economics and trade, through energy and climate. There 
are a lot of different ways. And the richness of this 
partnership is really unlimited.
    Now, as you rightly point out, Mr. Chairman, we have had 
also challenges which come from India's history, a very proud 
history of nonalignment, and sometimes we get frustrated when 
they do not join us in international campaigns or on 
international efforts more publicly. But I would say that the 
trend line in our partnership is very strong and that we have 
to view it over a period of time and that we have to do the 
hard work that our bureaucracies are doing. And the fact that 
the two leaders of both countries came together and articulated 
a very strong strategic vision statement for both countries I 
think really bodes well for the relationship. And I do think 
the time is now to build upon that.
    The Chairman. Well, I hope we can get the Prime Minister to 
engage with us in a more robust way than we have seen so far. I 
mean, there is a lot of great expectations. And I had an 
opportunity to meet him when he was in New York. But I hope 
that this can be taken more than the niceties that have 
appeared.
    There are a lot of substantive questions. One of them that 
I would like to get your commitment on is the question of 
intellectual property rights, and while the Trade 
Representative is largely in charge of this, the messaging that 
you will send as a U.S. Ambassador is incredibly important. It 
makes no sense to have trade agreements if, at the end of the 
day, you cannot have them be enforced, and it makes no sense to 
produce some of the greatest ingenuity in the world if, at the 
end of the day, other countries with impunity will take your 
ingenuity and use it without recognizing the intellectual 
property rights that created it.
    So with India, we have some challenges in this regard. We 
have a special 301 report from USTR that found India's IPR 
protections lacking. I think a stronger IPR regime will help 
India, at the end of the day, attract the international 
investment in technology that it wants for economic growth.
    Will you commit to me that if you are confirmed, you will 
work on driving this issue with the Indian Government 
particularly as well with the pharmaceutical industry as one 
element of the IPR industry that I am concerned about?
    Mr. Verma. Mr. Chairman, I am aware of your leadership on 
this issue, and you will have my commitment to make this a top 
tier issue. There was some encouraging progress out of the 
Intellectual Property Working Group that just met. But you will 
have my commitment to make this part of the regular engagement 
with the Indian Government to try to achieve stronger 
intellectual property policy and framework and also stronger 
enforcement.
    The Chairman. I appreciate that. You know, the announcement 
of the Indian commerce minister to look at a new IPR policy is 
encouraging, but some suggest that that was a prelude to the 
visit so that it would not be pressed. And I just want to make 
it very clear we are going to keep pressing this issue. I am a 
big supporter of the relationship. I think there is enormous 
potential in it, but you have got to live up to your 
agreements.
    Ambassador McKinley, first of all, thank you for your 
service.
    I just want to drive on Afghanistan the question of a 
committee report that we issued in October which scrutinized 
our assistance to Afghanistan and called for more 
accountability for the investments made by the American 
taxpayer.
    What lessons do you think the United States has learned 
from conditioning a portion of our assistance to Afghanistan, 
and how are these lessons instructive for future plans to 
condition assistance based on some concrete reforms? We 
understand we got a new partner here. It looks promising, but 
we have also seen a lot of investments that have headed in a 
direction that is less than desirable.
    Ambassador McKinley. Thank you, Senator, for the question.
    I have read the report, and I think the report encapsulates 
the challenges but also the achievements we have had to date 
and points the way towards how we must try to do things better.
    The fact of the matter is when we look at the investments 
we have made over the years, there are many positive results we 
can point to, but there are also many examples of cases where 
we could have done better on accountability in terms of project 
and programmatic management. And we are constantly striving and 
have over the years to improve the management of United States 
assistance to Afghanistan both because of our responsibility to 
the U.S. taxpayer but also because of the strategic importance 
of getting it right.
    The Chairman. My time is running out here.
    Do you see us conditioning as one element of trying to get 
the success that we want?
    Ambassador McKinley. Yes, I do. And what we have seen in 
terms of this incentive fund that was created a couple of years 
ago to try to elicit more proactive engagement in getting 
things done inside Afghan Government ministries is one example 
of that.
    But going forward, I think we actually have a new 
opportunity now, and if confirmed, I would be looking forward 
to working that opportunity with a new government which is 
already looking at the conditionalities which the international 
community is putting forward as the basis for sustaining our 
assistance in the coming years, to include working on 
transparent budgets, cutting back on government expenditures 
that are unnecessary, improving not just revenue collection but 
the transparency of revenue collection, taking a look at what 
works in terms of priorities in assistance long term and what 
we can get done in the shorter term and in a more concrete 
fashion, something President Ghani is very much focused on. So 
as we look forward to the meeting in London tomorrow and 
Thursday, there will be a lot of discussion on how we can 
actually ensure that the funding we provide the government 
works in accord with the conditionalities which in other terms 
are simply the objectives that all of us share.
    The Chairman. If I may, Mr. Chairman. I know the difficulty 
of trying to keep this clock.
    Ms. Coleman, these are important nominees because they are 
country-specific. Your nomination in my view is a very 
important one because as a strong defender of the United 
Nations, I have to tell you it gets harder and harder when we 
do not have the type of reform of an institution which we 
largely fund at the end of the day. And so I would like to hear 
from you the essence--assuming you are confirmed for this job, 
what are the specific reforms that you will look to work on and 
how do you get through the General Assembly part of it, which 
has been part of our challenge each and every time?
    Dr. Coleman. Thank you, Mr. Chairman, for that question.
    The U.N. is frustrating. I am the first to admit it, that 
it is a frustrating organization but also an indispensable 
organization. And my ideas on reform would revolve around 
several different areas. One is certainly in the budgeting 
process. In the Fifth Committee, there are a number of 
negotiations where I think we can count on likeminded countries 
to support us in achieving a fair and rational methodology for 
determining shares of expenditure for countries at the U.N. So 
pressing the U.S. interests in the Fifth Committee will 
certainly be one of my priorities, and there are a number of 
issues coming up in that arena.
    Another area would be in peacekeeping. This is not only a 
source of significant cost at the U.N. but also of performance 
issues. And I think the time right now is ripe for a review of 
peacekeeping issues. And the good news is that the Secretary 
General has called for a review of peacekeeping, and I think 
one of my priorities would be to really push U.S. interests in 
seeing the most cost efficient and effective processes in place 
for peacekeeping missions around the world.
    And two other things I would like to mention. Of course, a 
big source of cost at the U.N. is people costs. It is 
personnel, and 70 percent of the regular budget is personnel 
compensation and benefits. And so I would like to look at that 
area too. I think having a modern, simple, effective 
compensation system in place at the U.N. is in our interest so 
that the U.N. can have the best people in place to be pushing 
its interests forward. And the objectives that we have really 
depend on that.
    And lastly would be procurement. Again, another source of 
potential efficiency improvements could be in the whole 
procurement area. Some work has been done there, but we cannot 
be satisfied with what has been done thus far. We have to keep 
pushing on the reform agenda.
    The Chairman. Well, I appreciate that. I hope you have 
sharp elbows. You are going to need them at the U.N.
    Thank you.
    Senator Kaine. Thank you, Mr. Chair.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    I thank the witnesses and I appreciate their outstanding 
records of service to our country.
    Mr. Verma, I believe that you are assuming a post at a 
nation that may be the most important relationship between the 
United States and India certainly in the future. And there are 
challenges, but I am very optimistic about the new Prime 
Minister, many of the reforms that are being made. And I know 
that you will work closely with the new government.
    Ambassador McKinley, how would you assess the condition--
well, let me put it this way. In 2014, General Dunford 
testified to the Senator Armed Services Committee that he does 
not believe the Afghan military will be capable of conducting 
the kind of operations we are conducting now to put pressure on 
al-Qaeda and others in the network of extremists threatening 
security before 2017.
    Last week, we had a meeting with the chief of staff of the 
Indian Army, General Sharif. I asked him. I said if we totally 
withdraw under the schedule that we are withdrawing, can the 
Afghan Government survive. His answer was no.
    I also am convinced that unless we have a conditions-based 
withdrawal, that we will see the Iraqi movie again.
    Are you at all concerned about the schedule for withdrawal 
when it is clear that the Taliban attacks have escalated 
recently? And we are in the wintertime and they are already 
planning to escalate attacks as soon as the fighting season 
begins again.
    Ambassador McKinley. Senator, thank you for the question.
    The answer is we do have to be concerned about security 
changes on the ground inside Afghanistan. And the fact is that 
looking to the future, we are prepared in discussion and 
consultation with the Afghan Government, which is carrying out 
a thorough security review and a review of threats to the 
country, and in close consultation with General Campbell on the 
ground who regularly reviews not just what is happening on the 
ground but also whether adjustments need to be made to the 
planning that was originally forecast for our presence there. 
The option will be there to take a look as we go forward and 
the security situation and strategic situation inside 
Afghanistan changes.
    Senator McCain. I am not sure that message has gotten 
through to the Taliban or to Members of Congress. Is the 
President going to announce that we are reviewing the policy 
and the requirement that by 2017 every American literally will 
be withdrawn?
    Ambassador McKinley. The calendar that was announced was a 
decision based on close consultation with our military 
commands.
    Senator McCain. Is our present plan still----
    Ambassador McKinley. And the present plan is still the 
one----
    Senator McCain. Is that still the plan?
    Ambassador McKinley. That is still the plan.
    Senator McCain. In your view, should that be the plan?
    Ambassador McKinley. I believe that we should continue to 
look at the situation on the ground and, if necessary, take a 
look at what necessary adjustments need to be made.
    Senator McCain. You see what is disheartening about your 
statement is that I agree with you, but yet, the message has 
been that not only are we going to be out, but we are going to 
celebrate that we are out. And yet, when I talk to General 
Dunford, I talk to other military leaders who have spent a lot 
of time on the ground there, all of them say what the Pakistani 
chief of the army said, that if we do not go to a conditions-
based withdrawal, that we cannot succeed. And yet, the message 
has been sent that we have this schedule of withdrawal. Would 
it not be nice if the President of the United States said, wait 
a minute, we are going to gauge our withdrawal as to the 
conditions on the ground rather than what is now a declared 
policy of withdrawal by 2017?
    Ambassador McKinley. Secretary Kerry today at the NATO 
ministerial stated clearly that we would be in close 
consultation with the Afghan Government.
    Senator McCain. That is a lot different from we need to 
have a conditions-based withdrawal. That is very different.
    Ambassador McKinley. What he did say was that we were 
prepared to enter discussions with the Afghan Government on 
alterations to the timetable if they became necessary on the 
basis of a strategic consultation.
    Senator McCain. What is happening now would not drive that. 
Right now, we are seeing attacks in downtown Kabul. We are 
seeing foreign facilities inhabited by foreigners being 
attacked by suicide bombers. We are seeing Helmand in a state 
of significant disarray if you count the overrunning of a major 
base that we turned over to the Afghans. And that is, frankly, 
why I am a little disappointed in your statement because they 
talk about all the political gains and all of the efforts 
against fraud. Yet, there is no assessment in here of the 
situation on the ground.
    So maybe you can give us an assessment verbally as to how 
serious you think this uprising is and the increase in attacks. 
First of all, you agree that attacks have increased, and how 
much does that concern you?
    Ambassador McKinley. Well, it is a matter of serious 
concern. When you take a look at the context of the combat 
operations over the last 2 years and in fact if you take a look 
at them over the whole period of our engagement inside 
Afghanistan, we do have to be concerned about the ability of 
the Taliban to continue to carry out attacks on the civilian 
population, on the security forces, on the international 
presence inside the country.
    Over the past 2 years, a change that has come into play is 
a reflection of a 4 to 5 year investment in taking Afghan 
Security Forces, which in 2009 numbered less than 150,000, did 
not have the capabilities of carrying out operations, did not 
have a presence in all of the provinces inside the country, to 
what we have today, which is a force of 350,000, a presence in 
34 provinces, and which in the last 2 years has denied the 
Taliban the ability to take and hold territory, has protected 
two major electoral cycles, and is the most respected 
institution inside the country. That is not to say----
    Senator McCain. Look, I appreciate everything you are 
saying, but again, facts are stubborn things. And the facts 
are--by the way, no one could be more pleased than you and me 
at the recent political environment in Afghanistan. It is 
wonderful. And I think we have got very serious efforts to 
address many of the problems that existed under the Karzai 
administration.
    But the facts on the ground are that militarily the Taliban 
is still very strong and capable of mounting serious attacks, 
including inside the capital. And the message that has been 
sent is we are going to be out. And as long as that message is 
received in that way by the Taliban, it is bound to have 
encouraged them. And that is the problem that I see. I think 
you and I share the same concern.
    I would like to see a statement from the administration 
that our withdrawal will be conditions-based rather than 
dictated by a certain calendar. And I hope you will maybe urge 
the President, not just the Secretary of State, but the 
President, who is the Commander in Chief, to make that 
reality--counter the reality on the ground with a policy which 
is based on conditions-based. Otherwise, Mr. Ambassador, we 
will see Iraq over again, and that is of extreme urgency to me 
since I do not think many Americans would like to see that 
movie again which, by the way, there was a few of us predicted 
would happen.
    I thank you, Mr. Chairman.
    Do you want to respond to that, Mr. Ambassador?
    Ambassador McKinley. Senator, the challenge of the 
insurgency I think is very real, as you say. The Taliban remain 
strong and it remains a priority, obviously, inside the country 
to confront, challenge, contain them. What we have seen over 
the past 2 years is a change in the way the Afghan Security 
Forces operate which give a basis for some optimism going 
forward on how the next fighting season will be dealt with. 
That does not mean the challenge has gone away. And, in fact, 
the intensification of Taliban attacks over the past 2 years 
and the ability of the security forces to contain and respond 
to those challenges is a positive indicator for the future.
    We have also now had a change of government with a 
President who is prepared to enter into a security discussion 
with the United States, something his predecessor was not 
prepared to do. Constraints that have been in place on the 
Afghan Security Forces in responding to the insurgency have 
been lifted. In terms of the approach to the future, taking 
into account very valid points you raise about the situation we 
are in now, there is a national security review underway in 
close consultation with us, which is looking to address the 
very problems you have highlighted. And in the context of what 
we are seeing of heightened terrorism inside urban centers and 
in particular the capital, there is a very urgent review 
underway led by the palace with the security ministries to find 
a more effective way to respond to the challenge. This includes 
also what we have seen in Helmand, in Kunduz province in which 
the Taliban have surged but where the government is mobilizing 
a strong response.
    So rather than sort of focusing on it remains a very 
serious challenge, I also believe we are at the cusp of an 
opportunity to respond to some of these challenges in a new 
way.
    Senator McCain. I thank you and thank you for your service.
    Thank you, Mr. Chairman.
    Senator Kaine. Thank you, Senator McCain.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Ambassador McKinley, let me just follow up a little bit on 
some of the issues that Senator McCain has raised because one 
of the questions that I am not sure I have heard an answer to 
is whether we have heard from either President Ghani or CEO 
Abdullah or the ASF about whether they would like to see 
American forces extended. You mentioned an ongoing dialogue 
about national security that is underway. Is this something 
that we expect to be discussed as part of that dialogue?
    Ambassador McKinley. Senator, thank you for the question.
    Absolutely, yes, we do. And in fact, in terms of the timing 
for that dialogue, there is an invitation from President Obama 
to President Ghani to visit Washington early in the new year. 
And in addition to the panoply of issues related to the 
bilateral relationship, we do anticipate security issues and 
the future of our relationship with Afghanistan to be part of 
that discussion.
    Senator Shaheen. Thank you.
    You mentioned in your statement and when we met last month, 
one of the things we discussed was the potential for agreement 
between President Ghani and Abdullah on the formation of a new 
Cabinet. And you suggested that they have come to some 
agreement around what the guidelines for that new cabinet might 
be. How soon do we expect some action on that? And is this 
something that will come up when they are in London tomorrow? 
Do we expect some assurances, that they will give some 
assurances in London about how swiftly they will move forward 
on a new cabinet and forming the rest of their government?
    Ambassador McKinley. Senator, we do believe we will be 
given assurances. I mentioned earlier that there is 
disappointment that the actual naming of Cabinet Ministers has 
been somewhat delayed. But in the context of everything else 
the government of national unity has managed to accomplished in 
just a little over 2 months, this is really part of the 
process. And just 2 days ago in the Presidential Palace, 
President Ghani accompanied by CEO Abdullah and by all their 
deputies made a public announcement to the Afghan people on a 
timetable for naming ministers, and they were talking about a 2 
to 4 week timetable. And we do know that there have been 
ongoing discussions between both men over the disposition of 
different Cabinet postings, potential nominees, and general 
agreement that the persons selected not only should be the best 
ones for the job but people who have a high degree of integrity 
and credibility inside Afghanistan so the government's reform 
program can be carried forward. We, obviously, are going to 
have to wait a little longer, but this presentation 2 days ago 
I think gave us hope that this issue is moving towards 
resolution.
    Senator Shaheen. Thank you.
    Mr. Verma, I have watched, as have so many people around 
the world, the debate in India since 2012 when there was the 
gang rape of the young woman from New Delhi and she ultimately 
died from the violence. Obviously, there still seems to be a 
fair amount of debate in India about how to address gender-
based violence. Can you talk about what you can do, if 
confirmed, to help promote discussions to improve women's 
empowerment in India and how to address that kind of sexual 
violence and what we can do as Americans to support that?
    Mr. Verma. Senator, thank you for the question. This is a 
really important area, and it is a tragedy unfortunately not 
limited to India. But it was encouraging to see millions of 
Indians actually march against this kind of violence. It was 
encouraging to hear the Prime Minister in one of his opening 
speeches speak out against this kind of violence. And we have 
to continue to keep it as a top issue that we speak out against 
rhetorically.
    Then at the programmatic level, I think there is a lot we 
can do and that we currently do. So USAID and other agencies of 
our Government in India have a number of programs to promote 
women's leadership, to promote women's skills training, 
entrepreneurship, skills development. But on gender-based 
violence specifically, there are a number of programs, for 
example, a Safe Cities program using mobile phone technology to 
ensure that women are able to report instances of violence. I 
think there is a lot that we can do together. I think we have 
to continue to focus on it.
    In addition, the women's empowerment dialogue led by 
Ambassador Cathy Russell is also going to be stood up again, 
and this will be really important for her and her counterparts 
to continue to keep this as a high priority issue. It is an 
issue that cuts across law enforcement, societal issues, 
economics, training, but we have to really stay on top of it 
with our counterparts in India.
    Senator Shaheen. Thank you. I think all of the women in the 
Senate certainly stand ready to be as supportive as we can.
    Given that we now have new leaders in both India and 
Pakistan, what is the potential that we might see a 
breakthrough in their relationship?
    Mr. Verma. I think, Senator, there was promise when the 
Pakistani Prime Minister came to the inauguration of the Indian 
Prime Minister, his inauguration back earlier in 2014. And just 
recently this past weekend, there was a handshake and some 
discussion between the two leaders at the SARC summit that led 
to the signing of some agreements on energy and motorways and 
railcars. And I think what we can do is continue to encourage 
that kind of dialogue. But ultimately it is for the Indians and 
the Pakistanis to discuss the security issues. I think where we 
can help is on the regional connectivity issues and on the 
economic and people-to-people issues between the two countries. 
And so this is something I think the three countries have to 
work at very hard. But again, on the security issues 
themselves, the pace, the character and the scope of those 
discussions between Pakistan and India are ultimately up to the 
two countries.
    Senator Shaheen. Thank you.
    Ms. Coleman, one of the stories that led the news today was 
the fact that the U.N. had run out of food rationing for Syrian 
refugees. I wonder if you have any sense of what might have 
been done differently and what should be done now to address 
that since we have millions of Syrian refugees who are now 
facing an even more bleak future.
    Dr. Coleman. Thank you, Senator Shaheen, for that question.
    It is really a tragedy that is unfolding in that part of 
the world. The actions of the U.N. there I think underscore the 
importance of the U.N. and the tremendous work that they are 
doing in Jordan and in Iraq dealing with refugees from Syria, 
internally displaced people within Iraq, almost 2 million of 
them, trying to provide shelter in the advance of winter. I 
mean, this is a very critical situation. Clearly the urgency is 
building here, and the U,N, is trying to respond to this crisis 
in real time. You know, this is an ongoing issue. It is only 
getting worse, not better. It is not unique what has happened. 
You can look at the U.N. response to Ebola in West Africa. It 
has been the same type of crisis management in real time.
    And if confirmed, looking at these situations would be 
something that I would put a lot of priority on to learn from 
what we did well in responding to these crisis situations and 
what we did not do well and what we could do a lot better 
because one thing we know is that they are not going away. 
There are going to be other crises that the U.N. will have to 
respond to in same critical fashion, and certainly we can do 
things better than we have and that there are learnings to be 
had from the same, you know, logistics, supply chain, all of 
these types of things. We should not reinvent the wheel. We 
should understand what worked, what best practices, and how to 
implement that in future scenarios.
    Senator Shaheen. Well, thank you. My time is up. But I 
certainly hope that if you are confirmed--and I expect that you 
will be--I certainly hope that all three of you will be 
confirmed very expeditiously--that you will look at whatever 
action we can take to support the Syrian refugees who clearly 
are facing a very dire future. Thank you.
    Thank you, Mr. Chairman.
    Senator Kaine. Thank you, Senator Shaheen.
    And I think it is important that we always point out that 
the United States is the largest provider of humanitarian 
relief to Syrian refugees in the world. I often hear comments 
at these hearings that the United States does not have a Syria 
policy as if the fact that we are the largest provider of 
humanitarian relief is just by accident. It is not by accident. 
We are doing it because it is an official part of our 
administration's policy. It is supported by the Senate and by 
others. But the Syrian refugee challenge is one that at the 
U.N. the efforts by Russia and China largely to block vigorous 
humanitarian responses in the Security Council is something we 
feel very deeply.
    Now the favorite time of the hearing. Others have asked 
their questions and I get to go on ad nauseam without worrying 
about time limits. So let me jump to Dr. Coleman.
    In 2007, the U.S. mission for the U.N. established this 
U.N. Transparency and Accountability Initiative, which was 
continued by President Obama. Could you talk a little bit about 
the results of that initiative and how it has done in tracking 
the adoption of management reforms by the U.N. funds and 
programs in the last 7 years?
    Dr. Coleman. Sure. Thank you, Mr. Chairman.
    As I look at it, the basis of reform is transparency. You 
know, if you do not know what is going on, you cannot fix it. 
And so having full transparency is critical. And I think the 
UNTAI measure that you have spoken of is a step in the right 
direction.
    There have been some positive results from that. The 
requirement of audits and the publishing of audits and those 
types of things have been important. But can we go further? 
Yes. I think now it is a matter of consistent implementation 
and making sure that across the entire organization that they 
are meeting the highest standards of transparency and following 
through. So there is more work to be done but I think some good 
progress has already been made to date.
    Senator Kaine. The other debate that often occurs here is 
whether we tie financial support to the U.N. to progress either 
on strategic goals or particularly to management reforms. What 
do you think about that mechanism for conditioning U.S. 
taxpayer support for the U.N. on improvements in the management 
area?
    Dr. Coleman. Well, as the largest contributor to the U.N., 
the United States has an obligation to make sure that the money 
is spent as efficiently, as effectively as possible. And if 
confirmed, that would be one of my highest priorities, to 
really ensure value for American taxpayers.
    Conditioning our contributions, withholding our 
contributions is not always the most effective way to move 
forward. When we do that, we end up without a seat at the 
table, and our leadership on many of these issues is critically 
important. Likeminded countries who care about efficiency and 
effectiveness look to us for leadership on these issues, and 
when we condition our contributions, when we withhold payment, 
we lose credibility, our voice is weakened, and our leadership 
is diminished. And so I think that by engaging, we have shown 
some progress and we can continue to show progress by using our 
leverage with a seat at the table to really push for further 
reforms and increased accountability, transparency, and 
efficiency.
    Senator Kaine. Thank you, Dr. Coleman.
    Mr. Verma, today by fortune of coincidence, a hearing this 
morning in Armed Services concerned the nomination of Admiral 
Harris to be the head of PACOM, which includes the Indian 
subcontinent and the United States-India military relationship. 
And I noticed that both he and you used a phrase that I am 
going to start using in talking about the Pacific region. That 
is no longer the phrase. It is the Indo-Pacific region.'' So 
for purposes of any rebalancing or pivoting to Asia, the notion 
of the Indo-Pacific region I think actually is a more accurate 
expression. And I have learned something today as a result.
    The United States and India held this trade policy forum 
last week to discuss a variety of economic issues. Talk a 
little bit about kind of the action items that have come out of 
the forum. And in particular, I know there has been significant 
concern about intellectual property in the WTO process, but 
there have been some recent advances on that that the United 
States has helped broker. Could you talk a little bit about the 
progress on the trade side?
    Mr. Verma. Sure. I think in recent weeks there is a good-
news story on the trade side. Ambassador Froman and his team 
working through the WTO process and with their Indian 
counterparts were able to separate out and have the trade 
facilitation agreement move through the WTO, which was 
important to many developing countries, including India, and 
able to address India's food security concerns separately 
through what is called a peace clause in the WTO which again 
was an important breakthrough and it allows us now to talk 
about other issues such as copyright protection and patent 
protection. And we can have robust discussions in these areas.
    I think certainly health access and delivery of 
pharmaceuticals has been a contentious issue over the past few 
years, and if we can talk about those issues in a way where we 
can bring our best practices together with some of the needs of 
India in delivering pharmaceuticals and delivering health and 
medicine, those are the kinds of discussions I think that can 
get us past some of the thorny issues.
    The fact that we had an intellectual property working group 
meet was I also think very significant. As I said to the 
chairman earlier, this has to remain a top issue because 
ultimately we want to help India attract investment, help India 
open markets, and that is what Prime Minister Modi said when he 
was here. He is looking for renewed investment in India, help 
economic growth. That will come through opening of markets and 
effective trade policies. That is not only good for American 
businesses but good for Indian consumers and Indian citizens 
across India.
    As I said in my opening statement, trade with India has 
increased five times in the last 10 years. We can do much more 
if we can work together on some of these market access issues 
and on some of the trade issues which are vitally important.
    Senator Kaine. When I was in India recently and returned, I 
had a couple of thoughts about areas of cooperation that I 
would like to focus on in the kind of national security space. 
Both our countries have been victimized by terrorist attacks on 
our home soil in recent years. And it was very moving, more 
moving than I actually thought it would be, to go to the sites 
associated with the LeT terrorist attack in Mumbai in November 
2008. The terrorist attack was a huge atrocity. We had 
scheduled--Senator King and I--to do a couple of visits in the 
midst of a full day of events. And I do not know that we really 
walked in prepared to grapple with the extent of the challenge, 
and it obviously called up a lot of memories of the U.S. 
attacks on 9/11. It would seem that counterterrorism 
cooperation, because of this shared experience, would really be 
a significant opportunity in our work.
    And secondly, we are dealing with cyber threats that grow 
and multiply in sort of a geometric way every day. Our cultures 
and educational systems and educational institutions in the 
United States and India produce significant technical 
expertise, technical wizardry that would seem to give us some 
real opportunity to work together on countering cyber threats. 
I wonder if you can talk a little bit about kind of current 
status but maybe more especially opportunities in the future 
for the United States and India to deepen counterterrorism 
cooperation and cooperation dealing with cybersecurity attacks.
    Mr. Verma. Sure. Senator, I think these are both really 
important areas, and what you described about your visit to 
Mumbai I am sure was especially moving. And when we talk about 
shared values between our two countries, one of those shared 
values is standing against terrorism, having people being able 
to live peacefully in society, settling disputes peacefully. 
And we have built a very robust set of counterterrorism 
cooperation measures over the years with the Indians, and it is 
run across multiple agencies, Department of Homeland Security, 
Department of State, the FBI, and the Justice Department, the 
Department of Defense. It is fairly widespread. And I think we 
should look at ways to bolster it and we should continue to 
look at ways to do joint training, joint law enforcement 
cooperation, joint intelligence sharing so that we can be sure 
that citizens of both countries are sharing those values of 
peace and justice.
    And on cyber as well, I think this is a critically 
important area not only on the technical side but working with 
India to really be a role model in cyber cooperation in how 
cyber is handled in a democracy in Asia. I think this can just 
send a very powerful message not only in South Asia but across 
Asia.
    Senator Kaine. On the issue of counterterrorism, I want to 
segue into a follow-up on Senator Shaheen who asked you about 
the India-Pakistan relationship. The attack by the terrorist 
group LeT--those individuals are deeply connected with 
Pakistan. You indicated that the relationship between those two 
countries is obviously for them to figure out. We can be 
facilitators. We can be helpful. It is not our primary 
responsibility. But I know one of the security concerns we 
would have in this region with two nations that have nuclear 
weapons would be the danger of the escalation of an incident.
    Senator King and I were in India and Pakistan at the time 
of, you know, what is kind of an annual almost set of border 
skirmishes in disputed border areas in the Kashmir. Most 
observers thought that the border skirmishes this year were 
sort of at their most aggressive in about the last 10 years. 
And I think a huge concern for the United States would be the 
danger of an escalation. If there would be another terrorist 
attack by LeT, for example, that could escalate pretty quickly. 
And in the absence of kind of regular channels of dialogue 
between the countries--we had hoped that that dialogue would 
have been more regularized beginning with the investiture of 
Prime Minister Modi last summer. Some of your comments suggest 
that we may be getting on track. In the absence of some of 
these mechanisms of consistent dialogue, I think a significant 
concern is this escalation effect which you may have seen it or 
maybe this past fall was a little bit of an aberration.
    What do you think you can do in your post to encourage the 
creation of a more normal dialogue so that the communication 
does not just have to happen in times of emergency where there 
is an escalation danger that could get out of hand?
    Mr. Verma. Senator, I think one way that we can do this, as 
I said, is through increasing regional connectivity so that the 
people-to-people ties actually increase. I think the trade 
right now between India and Pakistan stands around $3 billion, 
which is a very small sum compared to what it could be. To the 
extent that greater trade, economic infrastructure, energy 
developments can be made through the countries, that will 
naturally help increase connectivity outside of the 
governments.
    From the government-to-government level, obviously both 
capitals both in New Delhi and Islamabad, it is important to 
call for dialogue, try to encourage dialogue at every turn. We 
support the healthiest possible relationship between the two 
countries, and if confirmed, Senator, you can be sure that that 
is something that I will work on very closely.
    Senator Kaine. The Modi government is still relatively new. 
So they need time to really probably demonstrate this. But can 
you talk a little bit about under the new government, India's 
role in Asian kind of regional architecture. There is an 
organization, the Asia Pacific Economic Cooperation Forum, that 
I think India has not necessarily been a significant 
participant in in the past, but there are some opportunities 
there. What can you say about the Modi government's attitude 
toward the regional architecture in the area?
    Mr. Verma. Well, it has been fascinating to watch over the 
last year when Look East has become Act East because it has not 
just been about looking or rhetorical kind of flourishes. It 
has been about actual developments. The prime minister has 
made, I think, at least two trips to East Asia already, 
successful visits to Australia, to Japan. They have trade and 
defense relationships with Vietnam, with Malaysia, with 
Indonesia. There is joint training that now takes place. The 
Singapore-India trade relationship is huge. So they really are 
seeing a lot of their future, both economically and from a 
security perspective, in East Asia.
    And as I had mentioned earlier, Senator, I think that 
converges with our rebalance to Asia as well, and there really, 
truly is a convergence of interests where we can work together 
on issues such as counterterrorism, such as maritime security, 
ultimately resolving disputes peacefully but preserving this 
post-World War II liberal democratic rules-based order that has 
been so important to the global system.
    Senator Kaine. That is a very important point. I feel like 
in the aftermath of the collapse of the Soviet Union, we have 
been kind of looking for the new model to how to describe 
global relations. And I kind of look at it as a competition now 
between three leadership models, liberal democracies, 
authoritarian regimes, and sort of sectarian jihad, which is 
often non-state. And it is so helpful to have great examples of 
the liberal democracies on each of the continents, and India 
certainly is and even can be more that example and the world 
needs that example.
    India's relationship with China is a complicated one, just 
as ours is. Economic cooperation but also strategic rivalry. 
Premier Ji's visit to Prime Minister Modi after he became Prime 
Minister coincided with the flare-up of border tensions along 
the India-China border, and there was a lot of confusion about 
exactly why that would have been the moment for there to be a 
flareup of tensions when this head of state visit that was so 
important was being paid.
    What can you say about the current status of that 
relationship from your observations?
    Mr. Verma. Senator, much like the United States, the India 
relationship with China has elements of cooperation and 
elements of competition. But Prime Minister Modi himself has 
said that he wants a strong and healthy relationship with 
China. It is very much in our interest to see these two 
countries have a healthy relationship. There is a dialogue on 
border issues when they occur. And again, the economic issues 
are important to both countries. And so anything that we can do 
to ensure that the dialogue remains open, that trade and 
connectivity remain strong. There will be disagreements from 
time to time, but again, to the extent these are resolved 
peacefully--and thus far, I would say the Prime Minister has 
set out on a very positive footing on an economic basis raising 
security concerns when they come up but in a very positive set 
of outreach to their Chinese neighbors.
    Senator Kaine. Thank you, Mr. Verma.
    Ambassador McKinley, just kind of two last points. I wanted 
to ask you about your perceptions of the Afghanistan-Pakistan 
relationship. That is obviously critically important. As 
bordering nations, those areas of Afghanistan that border some 
of the tribal areas and others in Pakistan can be very critical 
in terms of the security issues. At least in the initial days 
of the Ghani/Abdullah government, what do you see as the 
developing relations between this new government in Afghanistan 
and the Government of Pakistan?
    Ambassador McKinley. There is a real change in tone and 
rhetoric but also substance, and both Prime Minister Sharif and 
President Ghani have outlined areas where they think they can 
cooperate that include security, a heavy emphasis on restoring 
consultations on border issues. There is an emphasis on cross-
border trade which is absolutely essential for Afghanistan. And 
if I can sort of parallel what Rich said about India and 
Pakistan, obviously the opportunities of opening borders in the 
subcontinent and Central Asia is a very important objective in 
terms of creating opportunities and changing the economic 
dynamic of the region. And so President Ghani, in his visit to 
Islamabad, made a point of bringing along a business private 
sector contingent, meeting with Pakistani business, and working 
with Pakistani ministries to identify literally dozens of steps 
that can be taken to change the economic relationship between 
the two countries.
    So there has also been communication exchanges, visits by 
security ministers. General Rahil has visited Kabul. And we 
have a very different dynamic at work.
    Now, obviously the challenges are serious. We have a 
history of tensions and misunderstandings, but this is a very 
promising start to addressing some of those longstanding 
concerns.
    Senator Kaine. Ambassador McKinley, last point. And I want 
to return to the line of questioning that Senator McCain was 
engaged in. His concern about drawdown of personnel or moves 
based on the calendar rather than based on conditions on the 
ground is a concern that is widely felt on this committee and 
in the Senate. But I was heartened to notice, after our visit 
and after our return from Afghanistan, the President made some 
adjustments to the authorities under which the United States 
military will operate in 2015. He did not change the calendar. 
He did not change the troop numbers, but facts on the ground, 
including some of these activities of the Taliban to 
destabilize Kabul and other parts of the country recently led 
the White House to make a proposed change in some of the 
authorities under which the U.S. military will operate during 
their mission in 2015.
    I viewed that as sort of we have a plan, and it is good to 
have a plan better than no plan. But that plan is going to be 
determined, whether we just fully follow the plan or make 
adjustments, by facts on the ground. So I viewed it as a 
hopeful sign when I read press accounts that there was a slight 
shift in direction with respect to military authorities. I know 
you and others were encouraging that based upon what you were 
seeing on the ground.
    Do you view it the same way?
    Ambassador McKinley. The President made his decision in May 
on the troop presence and the timetable, and those subsequent 
months were spent both factoring in the changing dynamic inside 
Afghanistan in political terms and security terms but also the 
legal and operational requirements for our presence inside the 
country. And they always envisaged combat enablers in certain 
situations to continue supporting the ANSF, as well as creating 
the basis for force protection for our troops that stay inside 
the country and also to support the counterterrorism objectives 
that we continue to have in the region and our interests in, 
frankly, continuing to build the Afghan Security Force 
capabilities.
    So the AUMF continues to be 2001, but in terms of, again, 
of defining how we would operate going forward, that is what 
was done over the months subsequent to the announcement on the 
timetable for the Resolute Support mission. And it is, 
obviously, going to provide a good and flexible base for us to 
respond to the challenges ahead.
    Senator Kaine. And that process resulted in an outcome that 
was sensitive to the current facts on the ground as are being 
reported back to the administration from all of the United 
States hands that are there in Afghanistan.
    Ambassador McKinley. That is correct. And if I can perhaps 
state a little more clearly where we are. Secretary Kerry did, 
today at the NATO ministerial, make it clear that we are 
prepared to consult with the Afghan Government on refinements 
to our mission's duration. We are consulting, working closely 
with General Campbell on security assessments on the ground and 
what adjustments, if necessary, over time must be taken to make 
our mission more effective. And it is in consonance with this 
radical national security review being carried out by the 
Afghans themselves as they look to build on the extremely 
positive transformation of their security forces since 2009-10 
and what they need to do going forward to deal with a threat 
that we all agree is serious but I would like to put it in the 
context of a year of offenses in which--I repeat--the Taliban 
did not retain or gain territory, in which the Afghan Security 
Forces greatly increased their operational tempo and led all 
combat operations, and in which their capabilities going 
forward look like they will only be strengthened.
    Senator Kaine. When you think about what would have been 
the Taliban's motives during calendar year 2014, clearly the 
destabilization of the first set of civilian elections to 
peacefully transfer power was their top objective. They could 
not destabilize the first round of the Presidential elections. 
They could not destabilize the second round of the Presidential 
elections. When there was an audit and all of the ballots were 
gathered in one place for a pretty extensive review of those 
ballots, that was a real target for destabilization activities. 
They could not destabilize that. The defense against 
destabilization was largely carried out by Afghan Security 
Forces nearly completely. So their strongest motive was to 
destabilize a process that stretched out over a number of 
months and they were not able to do it. That gives us some 
confidence.
    However, we are all deeply worried, given the American 
sacrifice to achieve the gains that I indicated in my opening 
statement, about any notion that a calendar date would 
magically suggest that we leave or that we are done because 
that could encourage other activities that would lose the gains 
and hurt the Afghan people. And so we are really counting on--
and the comments that you quote from Secretary Kerry today--we 
are really counting on this administration focusing on 
continuing gains rather than dates on the calendar. It is 
important to have a plan, but to the extent that the plan needs 
to be adjusted so that we can continue to harvest the gains 
that we have been a part of, we would continue to encourage you 
and other critical officials in the administration to advocate 
for that so that the right decisions are made. And I have no 
doubt that that is exactly what you will do, should you be 
confirmed.
    Thank you all. You each have impressive track records. You 
each are taking on important responsibilities, and you each 
will also serve as leaders of organizations with some 
spectacular people. Everybody who serves in the Foreign Service 
in this country, even in New York, which to Virginia can seem 
foreign on occasion--everybody is a dedicated public servant 
and they are all small A ambassadors for the United States, and 
you are lucky to work with good teams. And I know you view that 
as one of the real honors of the responsibilities that you are 
being entrusted with.
    With that, the hearing adjourns. If there are questions 
that other members want to submit, they can do so by the close 
of business today, and I would encourage you to respond 
promptly. The hearing is adjourned.
    [Whereupon, at 4:15 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


             Responses of Richard Rahul Verma to Questions 
                  Submitted by Senator Robert Menendez

    Question. I believe that we should be expanding educational ties in 
all sectors--the best and the brightest from both sides should exchange 
ideas and build on the innovative and entrepreneurial spirit that 
exists in both countries. Rutgers University, for example, has formed 
strong relationships with Indian educational and research institutions, 
and has increased the profile of India with business, community, and 
nonprofit organizations in New Jersey.

  <diamond> How will the United States and India increase areas of 
        collaboration, including student and faculty exchange, research 
        cooperation, e-learning, and cooperation between community 
        colleges?
  <diamond> India's higher education system is increasingly stressed by 
        India's large and growing youth population. In what ways, if 
        any, has the U.S.-India Higher Education Dialogue improved 
        bilateral collaboration in this area?

    Answer. Increasing educational collaboration, including student and 
faculty exchange, research cooperation, e-learning, and cooperation 
between community colleges, is one of the key focuses of the U.S.-India 
Higher Education Dialogue. The Fulbright-Nehru program has nearly 
tripled in size since 2009, with approximately 300 Indian and U.S. 
students and scholars participating annually. In addition, the United 
States and India launched the $10 million 21st Century Knowledge 
Initiative in 2012 to support partnerships between higher education 
institutions in both countries. These projects strengthen teaching and 
research in priority fields such as energy, climate change, and public 
health. In the coming year, the U.S. Government plans to work with the 
Indian Government to bring more American science and technology 
professors and researchers to India.
    India is home to the world's largest youth population, with more 
than 50 percent of India's population under 25 years of age, and over 
two-thirds under age 35. This demographic dividend presents a 
tremendous opportunity for India to become a global economic leader, 
and create new and diverse investment opportunities for the world. With 
U.S. and Indian Government support through the Higher Education 
Dialogue, U.S. community colleges partner with Indian institutions to 
enhance economic opportunity in India through adoption of American 
community college and skills development best practices.
    At last year's dialogue, the American Association of Community 
Colleges signed an agreement with the All-India Council on Technical 
Education to assist as India expands its community college model, with 
particular focus on building linkages with industry to ensure young 
Indian graduates can fully participate in the fast-changing workforce. 
To support the growth of institution-to-institution partnerships, the 
United States supports exchanges of administrators and education 
officials responsible for community colleges and vocational education, 
including through the Fulbright-Nehru International Education 
Administrators Program this fall and the Community College 
Administrators Program that will launch next year.

    Question. In the early 1990s, approximately 108,000 Lhotshampa, 
primarily Nepali-speaking Hindus, were forced to leave Bhutan. After 
living in camps in Nepal for 20 years, nearly 80,000 Bhutanese refugees 
have been resettled across the United States and constitute one of the 
largest refugee populations in the country. Thousands have resettled 
and become United States citizens as they strive to become ever 
contributing members of our society and economy. More than 25,000 still 
remain in camps. Bhutan has thus far refused to allow any refugees to 
return.

  <diamond> Given the United States does not have direct diplomatic 
        ties with Bhutan, what can the U.S. Embassy in India do to 
        ensure that resettled Bhutanese Hindus, now Americans, as well 
        as those remaining in the camps in Nepal are given the ability 
        to return to Bhutan should they choose to do so?

    Answer. Finding a durable solution to the issue of Bhutanese 
refugees is a major U.S. priority. Our Embassy in New Delhi and U.N. 
missions in Geneva and New York regularly engage with the Government of 
Bhutan--including through visits of U.S. Embassy officials to Bhutan 
and through close ties with Bhutan's Embassy in New Delhi--to advocate 
for a lasting solution that takes into account the wishes of the 
refugees. The United States consistently urges Bhutan to approve 
voluntary repatriation cases referred by the United Nations High 
Commissioner for Refugees (UNHCR) and to work together with Nepal and 
UNHCR to advance a solution for the residual population of Bhutanese 
refugees in Nepal. The U.S. Government is proud that more than 90,000 
refugees from Bhutan have been resettled in third countries, including 
nearly 80,000 to the United States.

    Question. On September 5, 1986, Pan Am Flight 73 was hijacked in 
Pakistan by terrorists acting under the direction of the Libyan 
Government. By the time the Pakistani military intervened, 20 
passengers had died and over 120 had been injured. In 2008, the State 
Department concluded the U.S.-Libya Claims Settlement Agreement, which 
led to the permanent termination of all pending lawsuits against Libya 
and to the creation of a humanitarian settlement fund administered by 
the Foreign Claims Settlement Commission. Victims of the Pan Am 
Lockerbie flight and the Berlin LaBelle Disco bombing were compensated 
regardless of nationality. However, compensation has been denied to Pan 
Am 73 passengers who were Indian citizens at the time, but have since 
become naturalized American citizens. These victims have been directed 
by the U.S. State Department to the Indian Government, which has 
responded that Pan Am 73 was an American Carrier, targeted because it 
belonged to America, and that the duty therefore lies upon the United 
States Government to ensure that everyone on board Pan Am 73 is awarded 
just compensation.

  <diamond> What recourse do these naturalized American citizens have 
        in seeking compensation for their injuries?

    Answer. The Department of State strongly condemns all acts of 
terrorism and deeply regrets the losses sustained by the victims of the 
Pan Am 73 hijacking.
    The Department of State's requirement that a claimant be a 
continuous U.S. national at the time of the incident--and not after--to 
be eligible for an award of compensation is a well-established 
principle of international claims practice. International, domestic, 
and mixed claims arbitral tribunals have applied the rule of continuous 
nationality, and it has been the consistent policy and practice of the 
Department to decline to espouse claims which have not been 
continuously owned by U.S. nationals from the date of injury. The Libya 
claims settlement involving the Pan Am Lockerbie flight and the Berlin 
LaBelle Disco bombing is no different, and the references to claims of 
U.S. nationals in the Claims Settlement Agreement, and other documents 
implementing the settlement, are necessarily informed by this 
principle.
    Although the United States is not in a position under international 
law to espouse the claims of these victims, nothing in our agreements 
with Libya regarding compensation for U.S. nationals in the Pan Am 
Lockerbie flight and the Berlin LaBelle Disco bombing would restrict 
the ability of the Government of India to take up these distinct Pan Am 
73 claims with Libya or for the Pan Am 73 victims themselves to pursue 
these claims with Libyan authorities.

    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What is the 
impact of your actions? Why were your actions significant?

    Answer. I have had the privilege of working on democracy and human 
rights issues for over 20 years. From 1993 to 1994, I was the country 
director for the National Democratic Institute for International 
Affairs (NDI) in Bucharest, Romania, where I led NDI's efforts to help 
build democratic institutions and improve the capacity of civil society 
groups. Again in 1999, I went on behalf of NDI to West Africa to the 
Republic of Niger for 1 month to train new parliamentarians in an 
effort to rebuild legislative capacity following a military coup. In 
2000, NDI sent me to Nepal for several weeks to conduct an assessment 
and training on anticorruption efforts in Kathmandu, working with 
legislators and civil society. I continue to serve on the NDI Board of 
Directors, and provide advice on a wide range of NDI programming in the 
Middle East, Eastern Europe and Asia.
    During my service in the U.S. Air Force, I served on the faculty of 
the Expanded International Military Education and Training program (E-
IMET), where we provided extensive training to various countries' 
militaries on the role of a military in a democracy. Over a 4-year 
period, I worked with the militaries of Poland, Argentina, and Romania 
to conduct in-country trainings on human rights, the rule of law, and 
civilian control of the military, in addition to other related topics.
    While working in the Senate Leader's office, I focused a great deal 
of attention on human rights, antitrafficking, and religious freedom 
issues around the world, traveling widely on staff and congressional 
delegations to bring attention to these issues in Africa, the Middle 
East and Persian Gulf region, South and Central Asia, Eastern Europe, 
and Latin America. I continued to work on these issues as Assistant 
Secretary of State for Legislative Affairs, and in that role, I also 
supported Secretary Clinton's efforts to promote women's rights, as a 
core component of our national- security and foreign-policy agenda 
globally.
    In my private law practice, I have had the good fortune of 
representing, in a complex political asylum case, a young man from El 
Salvador who was targeted by Salvadorian gangs because of his sexual 
orientation. The case was recently successfully brought to conclusion, 
with asylum and temporary permanent residence awarded to this brave 
Salvadorian national. I have also been proud to be a member of the 
Board of Directors of Human Rights First (formerly the Lawyers 
Committee for Human Rights) for over 3 years, where I have helped 
advise and speak on matters related to the law of war and the Geneva 
conventions, refugee issues, and other humanitarian rights issues. If 
confirmed, I would continue to make democracy and human rights a 
priority, as it has been for me over the course of my career.

    Question. What are the most pressing human rights issues in India? 
What are the most important steps you expect to take--if confirmed--to 
promote human rights and democracy in India? What do you hope to 
accomplish through these actions?

    Answer. Although India has a long tradition of democratic values 
and a vibrant civil society, we do engage with the Government of India 
on a number of human-rights concerns, including police and security 
force abuses and corruption; societal violence, including gender-based 
violence; labor violations; human trafficking; and violations of 
religious freedom.
    The U.S. Government has worked with successive Indian governments, 
through the Strategic Dialogue, the Global Issues Forum, the Women's 
Empowerment Dialogue, and other engagements, to emphasize the 
importance the United States places on human-rights issues. If 
confirmed, I will use these mechanisms, bilateral meetings, and quiet 
consultations to urge the Indian Government to promote tolerance and 
freedoms for ethnic, religious, and sexual minorities, support space 
for civil society to operate, combat corruption, respect fundamental 
labor rights, and combat gender-based violence by promoting equality 
and rule of law.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in India in advancing 
human rights and democracy in general?

    Answer. While no country has a perfect human-rights record, India 
has a long-standing tradition of pluralism, rule of law, and protection 
of minority rights. As in many countries, uneven enforcement of 
existing civil-liberty protections, and in some areas, uneven 
protections for civilian populations, can fuel impunity among security 
forces. While India has improved its laws on rape, enforcement remains 
uneven, and as in the United States, sexual violence is still vastly 
underreported. Religious freedom is protected by India's secular 
constitution; however, differences between state and federal laws can 
curtail these freedoms. And corruption, lack of political will, and 
lack of capacity can undermine the enforcement of laws protecting 
workers from abusive conditions. If confirmed, I will work with the 
Government of India and courageous members of India's civil society, 
such as 2014 International Women of Courage Award winner Laxmi and 
Nobel Peace Prize Winner Kailash Satyarthi to promote our human-rights 
goals.
    If confirmed, I will be a strong advocate for human rights and 
democracy. It's important to note that India's national elections this 
year--the world's largest organized human activity--saw more than 550 
million citizens, about 8 percent of the world's population, turn out 
to vote. India's elections, and peaceful transition of power, were a 
reminder for both our nations that democratic principles are a common 
thread between our peoples. If confirmed, I intend to build on this 
common foundation of open and inclusive rules-based order to work with 
India to advance our common democratic interests.

    Question. Are you committed to meeting with human rights and other 
nongovernmental organizations in the United States and with local human 
rights NGOs in India?

    Answer. You have my commitment that, if confirmed, I will meet with 
human- rights and other nongovernmental organizations in the United 
States and with local human rights NGOs in India.
    As Under Secretary for Civilian Security, Democracy, and Human 
Rights Sarah Sewall emphasized during her recent visit to India, 
promoting tolerance freedoms for ethnic, religious, and sexual 
minorities, supporting space for civil society to operate, fighting 
gender-based violence, combating corruption, and respecting fundamental 
labor rights are core U.S. interests and integral elements of our 
relationship with India. Meeting with civil-society organizations, 
human-rights organizations, advocates for women's rights, and other 
NGOs is an important component of advancing our core human-rights 
interests.
                                 ______
                                 

           Responses of Peter Michael McKinley to Questions 
                  Submitted by Senator Robert Menendez

    Question. What steps can President Ghani and CEO Abdullah take over 
the next year to improve women's rights in Afghanistan?

    Answer. In their campaigns and since taking office, President Ghani 
and CEO Abdullah have repeatedly emphasized their commitment to 
consolidate and expand the gains women have made in Afghanistan since 
2001. The Afghan Government's strategy to achieve this goal is based on 
three pillars: ending discrimination and violence against women and 
ensuring the equal treatment of women under the law, improving 
educational and economic opportunities for women and girls, and 
implementing gender-neutral policies and women-friendly employment 
practices throughout the government.
    The Afghan Government has committed to implement fully the 2009 Law 
on the Elimination of Violence Against Women. This is a critical step 
to safeguard Afghan women's rights and access to justice, which 
requires raising greater public awareness among men and women on the 
law as well as improving implementation of the law within the justice 
sector.
    As outlined in its paper for the December 3-4 London Conference on 
Afghanistan, the Afghan Government plans to develop a National Economic 
Empowerment Plan for Women. This plan would address critical issues 
such as women's inheritance and property ownership, financial literacy 
and financial inclusion, and affirmative action in government hiring.
    Increasing women's participation in government will also be key to 
ensuring progress on women's rights. President Ghani has expressed his 
intent to nominate a qualified woman candidate to Afghanistan's Supreme 
Court, a step the U.S. Government and many Afghan women's groups have 
applauded. His spokesman has also said the new Cabinet will include 
four women as ministers, up from three currently. It will be critical 
that the new government include qualified women at all levels, from 
ministers to entry-level civil servants--an important issue we have 
raised with the Afghan Government. Increasing the number of women in 
the Afghan National Security Forces, with assistance from the United 
States and other members of the international community, will improve 
women's security and access to justice.
    To facilitate the increased participation of women in government, 
it will be important for President Ghani to follow through on his plans 
to make government service more women-friendly. These plans include the 
introduction of a sexual harassment policy, the implementation of 
affirmative action in hiring, and the provision of additional support 
to women serving in traditionally male fields such as the security 
forces.
    The upcoming Parliamentary and district-level elections will also 
be an opportunity for the new government to take action early and 
diligently on ensuring the full participation of women as candidates, 
voters, election workers as well as addressing security issues to 
support an enabling environment for women to freely access polling 
stations as they did in the 2014 elections.

    Question. The Special Immigrant Visa Program is an important 
initiative which helped to ensure the safety of thousands of locally 
employed staff in Afghanistan. It has also left a void in the Embassy 
and USAID's capacity to conduct diplomacy and assistance programs and 
engage with Afghans.

  <diamond> What are your plans to mitigate this loss of capacity and 
        institutional memory?

    Answer. The SIV program remains a critical tool to helping brave 
Afghans who have helped the U.S. mission over the last 13 years and I 
appreciate the Congress' strong support for this program.
    The U.S. Embassy in Kabul has taken a number of steps to mitigate 
the resulting departure of local staff. These efforts include 
increasing our recruiting pipeline and shifting back office functions 
to locations outside of Afghanistan when possible. Where possible, the 
Embassy is also looking into relying more heavily on multidonor trust 
funds to implement development assistance. Another mitigation strategy 
the Embassy uses is to assign local staff on Temporary Duty (TDY) from 
other countries to fill critical positions. These staffers often serve 
more than one tour, function effectively as the institutional memory of 
the mission, and help build the capacity of Afghan staff. This program 
has been in existence for several years and continues to be one of our 
best options for obtaining talented, experienced local staff. Finally, 
it may be possible to fill a small number of critical need positions 
with long-term (2-3 year) Third Country Nationals (TCNs).

    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What is the 
impact of your actions? Why were your actions significant?

    Answer. I have worked to support human rights and democracy 
throughout my career. In Mozambique from 1994-97, as Deputy Chief of 
Mission and later as Charge d'Affaires, I worked with the government 
and the former rebel movement to ensure a smooth outcome to contested 
elections, leading to the first democratic government in the country. 
In both Mozambique and Uganda (1997-2000), I helped secure funding for 
returning refugees and for displaced conflict victims in northern 
Uganda fleeing atrocities by the Lord's Resistance Army (LRA). In 
addition, I helped draw attention to the plight of boys and girls 
rescued from the LRA.
    As Deputy Assistant Secretary in the Bureau of Population, 
Refugees, and Migration (PRM) I was responsible for identifying refugee 
populations for resettlement in the United States, and shepherding the 
relaunch of the refugee resettlement program in our country after it 
was closed down in the aftermath of 9/11; tens of thousands of refugees 
benefited as a result. As the PRM Bureau's lead point person 
responsible for Africa, I worked to improve conditions in refugee camps 
in Darfur and protection for women in these camps.
    In Colombia and Peru, as Ambassador, I secured funding for the 
first rape crisis center in a conflict zone in Colombia and helped 
launch the second-ever LGBT Chamber of Commerce in Latin America. I 
personally negotiated labor rights protection clauses in the Free Trade 
Agreement with Colombia. I publicly highlighted the plight of left-wing 
activists threatened in Colombia, and lobbied successfully for 
additional funding for Afro-Colombian minority communities in both 
Colombia and Peru.
    As mentioned, for much of my career I have been active supporting 
negotiations to end conflict, and save lives. I was proud to be part of 
the team that negotiated Namibia's independence and the withdrawal of 
Cuban troops from Africa. I also worked on peace negotiations in Uganda 
and Darfur.

    Question. What are the most pressing human rights issues in 
Afghanistan? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Afghanistan? What 
do you hope to accomplish through these actions?

    Answer. As our human rights reports make clear, there are many 
pressing human rights concerns inside Afghanistan. Perhaps the most 
urgent is the need to preserve the enormous strides the Afghan people 
have made in this area over the past 13 years. Taliban views on human 
rights are made clear by their record when they controlled Kabul, their 
more recent pronouncements on issues such as the right of ordinary 
citizens to vote for their leaders, and the countless civilian 
casualties that are the hallmark of the insurgency they fuel. One of my 
most important missions, if confirmed, will be fostering a partnership 
with the Afghan Government based on the shared values enumerated in our 
Strategic Partnership Agreement.
    Also of great importance is the protection of the rights of women 
and girls. That is why gender has been a policy and programming 
priority for U.S. Embassy Kabul, and why it will continue to be a 
priority if I am confirmed. The United States must support and hold the 
Afghan Government accountable for the implementation of its strategy to 
advance women's rights. This strategy focuses on ending discrimination 
and violence against women and ensuring the equal treatment of women 
under the law, improving educational and economic opportunities for 
women and girls, and implementing gender-neutral policies and women-
friendly employment practices throughout the government. The new 
government of national unity has also declared its intention to work on 
gender protection and opportunity, as well as on strengthening the 
capacity of the judiciary to end impunity before the law.
    In a related issue, we are strengthening the funding for 
Trafficking in Persons (TIP) initiatives, and I hope that this will 
allow for an expansion of shelters for women and boys in Afghanistan.
    Given the Taliban threat mentioned above, an important part of our 
partnership with the Afghan Government is our cooperation with the 
Afghan National Security Forces. An essential part of that partnership 
must be confidence that the Afghan Armed Forces have the highest 
respect for human rights. President Ghani has made clear that he shares 
this view, and that he will not tolerate abuses committed by Afghan 
security forces. Beyond being U.S. law, Leahy vetting is an important 
and concrete reminder of our beliefs, and, if confirmed, I intend to 
ensure that we implement this process to the fullest extent of the 
letter and spirit of the law.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response?

    Answer. We have many programs to promote and protect human rights 
in Afghanistan. However, as our presence in Afghanistan decreases, 
security restrictions will affect our outreach to some of Afghanistan's 
most vulnerable populations. To overcome this challenge, we are 
adopting creative solutions that allow us to continue implementing 
projects in the field without losing the ability to monitor and 
evaluate our programming.

    Question. Are you committed to meeting with human rights and other 
nongovernmental organizations in the United States and with local human 
rights NGOs in Afghanistan?

    Answer. Yes. Throughout my career I have met with and worked with 
civil society--independent NGOs, universities, women's groups, the 
media, and human rights organizations. I have every intention of 
continuing to do so in Afghanistan, where strengthening civil society 
organizations is absolutely critical to our achieving our objectives, 
and where they need our visible support.
                                 ______
                                 

               Responses of Isobel Coleman to Questions 
                  Submitted by Senator Robert Menendez

    Question. What steps has the U.S. Government undertaken since 2009 
to address abuse and misconduct by U.N. peacekeepers and civilian 
personnel participating in those operations? What further steps are you 
pursuing? Please address abuses by peacekeepers in UNMISS, MINUSTAH, 
and MONUSCO and responses taken.

    Answer. The United States has long been a leading advocate for 
measures to eliminate abuse and misconduct, including sexual 
exploitation and abuse (SEA), by U.N. peacekeepers. We have been a 
leading advocate for changes to the system. With strong U.S. 
encouragement, the U.N. has improved its internal oversight process, 
sped up investigations, improved oversight of field missions, and 
worked hard to obtain and publish better data. All U.N. peacekeepers--
whether military, police, or civilian, seconded or contracted--must 
abide by the U.N.'s clear code of conduct.
    The U.N. has focused on increasing good standards and has 
instituted enhanced screening procedures for peacekeepers, due in large 
part to pressure from the United States. For civilians, the U.N. 
maintains records of any prior misconduct by previous employees, and 
runs background checks on new hires. Screening for military and police 
personnel--in part because of the volume and frequent turnover--is more 
difficult, and currently consists of certification by the contributing 
government that the individual has a clean record. Measures are in 
place to screen all categories of peacekeeping personnel with the 
exception of troops, a deficiency that the United States is actively 
working with other U.N. member states to fix.
    In 2009, with strong U.S. encouragement, the U.N. developed a 
strategy for peacekeeping and humanitarian missions to provide short- 
and medium-term support to victims of sexual exploitation and abuse and 
children born to peacekeepers, even if the allegations have not been 
substantiated. Victims seek longer term restitution from the alleged 
perpetrators. The U.N. provides various types of assistance to victims, 
including counseling, medical treatment, and legal support.
    The Conduct and Discipline Unit (CDU) in the Department of Field 
Support is responsible for overseeing policy and regulations on 
misconduct. They have a small but very dedicated staff. We have been 
able to help them in a couple of ways. First, we worked with Vanderbilt 
Law School, which funded a four-student team to help CDU clear a 
backlog of cases. The team also developed a field manual on SEA rules 
and procedures. Second, the Bureau of International Organization 
Affairs is funding an entry-level professional position in CDU that is 
filled by a young American, whose job specifically includes updating 
and energizing the Victim's Assistance policy. I, as well as CDU, 
regard keeping this position as a priority.
    The CDU has also made progress in expanding the scope of its 
program to screen peacekeeping personnel before deployment, including 
the conclusion of an information-sharing agreement with the United 
Nations Volunteer (UNV) program that authorizes CDU to access 
information about whether prospective U.N. civilian staff members who 
previously served as UNVs were subject to any disciplinary measures. 
Second, there is now an interface between the CDU's Misconduct Tracking 
System (MTS) and the recruitment systems used by the Police Division 
and the Office of Military Affairs in the Department of Peacekeeping 
Operations (DPKO). CDU is now able to screen individual police 
officers, military observers, and military liaison officers serving in 
the field.
    U.S. training under the Global Peace Operations Initiative (GPOI), 
which includes the Africa Contingency Operations and Assistance 
(ACOTA), includes instruction on conduct and discipline, including SEA 
prevention, as part of all peacekeeping training. Such instruction is 
included in both ``train the trainer'' programs and training for 
individual units that will deploy to peacekeeping operations. Trainers 
are provided a full set of course material and U.N. documents, but 
tailor the length and specific content of instruction based on the 
course being offered (for example, infantry, medical, officer, or 
enlisted), the length of the class, and the individual or unit's 
previous peacekeeping experience. Topics include the standards of 
conduct, impact on the local population and the mission, human 
trafficking, vulnerable groups, reporting, and scenarios.
    U.S. training for police officers serving with U.N. missions 
includes both ``train the trainer'' programs for partner countries and 
training U.S. police officers who are deploying to U.N. missions. Both 
types of training include instruction on SEA regulations and 
procedures.
    Overall, the number of SEA allegations per year has steadily 
decreased over the last 5 years. This is largely due to the U.N. 
strengthening its zero tolerance framework through increased and more 
targeted training, community outreach, and effective leadership. U.N. 
peacekeeping operations are fostering greater understanding of U.N. SEA 
and TIP policy, procedures, and reporting mechanism within local 
communities.
    The U.N. Organization Stabilization Mission in the Democratic 
Republic of the Congo (MONUSCO), which has consistently had the highest 
rates of SEA allegations, is experiencing a decline. This is greatly 
due to training, assessment visits, and outreach efforts both within 
the mission and with civil society. In addition to new SEA preventative 
measures, MONUSCO has implemented a policy that refers local MONUSCO 
staff who commit SEA to local authorities.
    The U.N. Stabilization Mission in Haiti (MINUSTAH) has also 
experienced a marked decrease in SEA allegations, which reflects the 
success of a multidimensional approach to tackling SEA by U.N. 
peacekeepers, including ``train the trainer'' and other courses, 
nationwide awareness campaigns, and a robust zero tolerance policy. 
Unfortunately, much of these changes are a result of a series of past 
public SEA allegations against MINUSTAH peacekeepers. For example, in 
January 2012, three members of the Pakistani Formed Police Unit (FPU) 
serving with MINUSTAH were accused of sexually assaulting a 14-year-old 
Haitian teenage boy. Following an initial investigation by the U.N. 
Office of Internal Oversight Services (OIOS), Pakistani authorities 
flew a Pakistani judge to Haiti and conducted an immediate trial. All 
three personnel were convicted, dishonorably discharged, and flown back 
to Pakistan in March that year to serve 1-year prison sentences.
    The U.N. Mission in the Republic of South Sudan (UNMISS), and its 
predecessor the U.N. Mission in Sudan (UNMIS), have consistently been 
among the missions with the highest allegations of SEA. Unfortunately, 
UNMISS' Conduct and Discipline Team (CDT) does not currently have the 
capacity to maintain a presence outside Juba and relies heavily on 
state offices to handle the case intake. These local officials often 
are untrained in SEA procedures and have other portfolios rather than 
working full-time on conduct and discipline. As a consequence, the 
local population is often unaware of U.N. SEA policies and reporting 
procedures. Furthermore, the current UNMISS budget does not contain 
resources to fund awareness campaigns.
    To address these problems, I will push the U.N. to increase their 
followup to allegations of SEA and other peacekeeper misconduct, 
particularly with victims and the local community, on actions taken 
against perpetrators. The U.N. does not have the authority to 
prosecute, so any prosecution when appropriate would be conducted by a 
national government (either the host government or relevant troop 
contributing country). However, the U.N. cannot compel member states to 
report on actions taken.
    Additionally, I will also increase efforts with like-minded 
countries to press troop and police contributing countries to take 
action when personnel are repatriated. Finally, I will continue to 
encourage the U.N. to properly fund and staff the CDU and the OIOS, 
which sends professional investigators, with experience in collecting 
and evaluating evidence.

    Question. In your view, what issues in the broad area of U.N. 
management and reform should have top priority? What reforms will the 
U.S. mission emphasize during your tenure?

    Answer. The U.S. mission will engage on multiple management and 
reform priorities during my tenure.
    Reform of the Regular Budget Process: The United States will engage 
with likeminded allies to improve the U.N. regular budget process, 
which produces budgets of limited strategic value because of 
``incremental'' development (prior budgets are used as baselines 
without any analytical justification). The Department agrees with a 
recent U.N. Board of Auditor's report (July 2014) suggesting the U.N. 
should better align program planning and strategic goals/work plans and 
more thoroughly link budget information to desired outcomes. Our 
overall goal, in addition to emphasizing broad reforms in the budget 
process, is to reduce costs as much as possible and seek absorption 
within the existing budget.
    Another focus of U.N. budget reform during my tenure will be the 
U.N.'s practice of recosting, where the U.N. revises cost estimates to 
take into account inflation, exchange rate losses, increased personnel 
costs resulting from mandatory salary adjustments, and lower-then-
planned vacancy rates. A recent U.N. report on the recosting process 
did not go as far as we would have liked, so we will work with our 
likeminded allies and others to continue the momentum for recosting 
reform, establish guidance and mechanisms to alleviate the impact of 
recosting, and pressure the Secretariat to live within its budget.
    U.N. Staff Compensation (``Common System''): Earlier this year, the 
International Civil Service Commission implemented a landmark multiyear 
pay freeze affecting 30,000 U.N. staff across 24 organizations in the 
U.N. common system, and it continues work on a new compensational 
package. The pay freeze will narrow the 
5-year average margin between U.N. staff and U.S. federal civil 
servants by 2019 and give U.N. common system organizations interim 
relief from budget growth caused by increases in staff costs. Our 
primary goal is to preserve the pay freeze decision by the ICSC and 
ensure that the new compensation package is simple, modern, and cost 
effective.
    Human Resource Management: The United States is working with like-
minded allies to pressure the Secretariat to establish a new 
performance management system that should allow for the effective 
measurement of performance, rewarding of good performance, and 
sanctioning for underperformance. If confirmed, I will continue to 
emphasize the paramount focus of the U.N. Charter as favoring the most 
qualified applicant over a more equitable geographic distribution of 
posts.
    Oversight and Transparency: In 2012, the United States successfully 
advocated for the disclosure of audit reports by the Office of Internal 
Oversight Services, which are available to the public on a trial basis, 
through December 2014. As evident in a recent report by the Independent 
Audit Advisory Committee, public disclosure of internal audit reports 
had a positive impact on the quality of the reports. Based on the 
overall success of the pilot, I will work with like-minded member 
states to urge the General Assembly to make publication of internal 
audit reports permanent.
    Procurement: Procurement has become an increasingly prominent issue 
for the U.N. In 2006, the Secretary General proposed a range of 
procurement-related reforms including strengthening internal controls, 
optimizing U.N. acquisition management to reduce costs, and ensuring 
staff have sufficient training and skillsets to support these efforts. 
According to the Advisory Committee on Administrative and Budgetary 
Issues and Joint Inspection Unit, the Procurement Division has improved 
its operations since 2006. However, the Office of Internal Oversight 
Services and Board of Auditors note that further improvements are 
necessary. If confirmed, I will engage the Secretariat to ensure 
progress with adequate training in contract management, well-defined 
delegations of authority, implementation of a monitoring framework, 
application of best value for money, and reductions in delays 
delivering goods and services.

    Question. Some observers and experts, including U.S. policymakers, 
have argued that OIOS should not rely on funding from the U.N. programs 
and bodies that it audits in order to avoid a real or perceived 
conflict of interest. How does this conflict of interest impede their 
ability to accurately provide oversight and audit the appropriate 
programs? What steps, if any, is the United States taking to achieve 
operational independence for OIOS?

    Answer. As the U.N.'s internal watchdog, we believe that OIOS 
should have all the tools it needs to conduct its work as efficiently 
and effectively as possible. Operational independence and jurisdiction 
over its budget and personnel decisions are essential for OIOS to 
perform its oversight functions free from influence by the 
organizations and officials it oversees. OIOS funding comes from three 
sources--regular budget, peacekeeping, and extra-budgetary sources. The 
United States remains concerned that this funding structure limits 
OIOS' flexibility to utilize resources where needed, restricting its 
ability to achieve its organizational goals.
    The United States will continue to strongly support efforts to 
revitalize OIOS and further strengthen its core functions of audit, 
investigation, and evaluation. We worked tirelessly in the General 
Assembly to establish an Assistant Secretary General position to serve 
as OIOS deputy to elevate OIOS' role within the U.N. system. The Fifth 
Committee of the 69th session of the U.N. General Assembly is currently 
reviewing OIOS' annual report and the resolutions which govern OIOS. 
The United States is engaged with like-minded member states to use this 
mandate review as an opportunity to increase OIOS' operational and 
budgetary independence. The OIOS is also conducting a review of its 
funding arrangements, including its impact on operational independence. 
We will work with OIOS and member states to propose improvements to its 
funding structure and improve its operational independence, and I look 
forward to consulting with Congress on the results of these 
discussions, if confirmed.

    Question. The implementation of humanitarian reforms within the 
United Nations since 2005 has focused on strengthening the capacity of 
response through relief sections; increasing coordination and 
leadership through the creation of the Humanitarian Coordinator at the 
country level, and the establishment of the Central Emergency Response 
Fund (CERF) to provide a faster U.N. response to humanitarian 
emergencies.

  <diamond> Please comment on the implementation of these reforms. What 
        are the strengths and weaknesses in the international 
        humanitarian response system? What further reforms, if any, are 
        necessary? Please discuss with regard to UNMISS and UNMEER.

    Answer. There has been significant progress on U.N.-led 
humanitarian reforms since 2005. The Inter-Agency Standing Committee 
(IASC)'s Transformative Agenda (ITA) is the most recent iteration of 
these efforts and has focused on strengthening leadership, improving 
coordination, and enhancing accountability. Today, highly qualified and 
experienced humanitarians are regularly appointed to lead U.N. efforts 
in countries where there are major humanitarian crises. Field 
coordination continues to improve. Most humanitarian organizations 
engage in and strongly support the ``cluster system,'' the coordination 
mechanism in place to provide leadership, coordinate needs assessments 
and gap analyses, and ensure comprehensive engagement by all actors 
operating under specific humanitarian sectors, including water and 
sanitation, food and nutrition, and health. Efforts to improve 
accountability to affected populations lag behind other reforms; 
however, improvements in humanitarian leadership and coordination have 
brought greater predictability to international humanitarian response 
and thus more accountability to the populations served.
    The strengths of the system include resource mobilization, the 
ability of humanitarian staffers to work in difficult and often 
insecure environments, improved communication and coordination between 
and among humanitarian actors, greater clarity about organizations' 
roles and responsibilities, stronger and more effective leadership, and 
improved information management. There are also important efforts 
underway to refine and improve the quality of the Strategic Response 
Plans, which provide overall direction to the response and support 
important prioritization of needs. The Central Emergency Response Fund 
(CERF) administered by OCHA has been extremely effective in providing 
rapid funding to U.N. agencies when crises emerge.
    More efforts need to be made to include local and national actors 
in humanitarian response. More senior U.N. and other humanitarian 
officials need to be nominated for the Resident and Humanitarian 
Coordinator pools. Stronger partnerships between humanitarian and 
development actors are required, particularly since most humanitarian 
crises are protracted and last for several years. More countries need 
to contribute to the humanitarian appeals. All actors need to 
coordinate more closely with the U.N.-led response to avoid 
duplication, waste, and confusion. In terms of additional reforms, we 
will continue to support the full implementation of the ITA by all 
humanitarian actors.
    Currently in South Sudan there is strong coordination between 
UNMISS and the U.N. Humanitarian Country Team (UNHCT). Deputy Special 
Representative of the Secretary General/Resident Coordinator/
Humanitarian Coordinator, Toby Lanzer, is working closely with both the 
peacekeeping operation and humanitarian actors to ensure strong 
cooperation and appropriate division of labor. South Sudan remains one 
of the largest humanitarian operations globally, and there are 
continued efforts to improve UNMISS and UNHCT operations in the 
Protection of Civilians (POC) sites in particular.
    UNMEER, established to respond to the unprecedented Ebola outbreak, 
is the first-ever U.N. emergency health mission. UNMEER harnesses the 
capabilities of a number of U.N. bodies, especially WHO, WFP, UNICEF, 
and UNDP, through a unified operational structure. Its objective is to 
ensure a rapid and coherent response to the crisis. Efforts continue to 
refine UNMEER to improve field coordination and information management 
and ensure it is able to stop transmission of the virus. Many U.N. 
organizations have seconded staff to UNMEER and are working closely 
with UNMEER leadership to provide all necessary support to improve the 
effectiveness of the U.N. response.
                                 ______
                                 

             Responses of Richard Rahul Verma to Questions 
                    Submitted by Senator Bob Corker

    Question. Over the past decade, the United States and India have 
pursued several bilateral strategic and economic initiatives yet there 
has been little demonstrable progress in these potential areas of 
cooperation. This has led some analysts to suggest that Washington and 
New Delhi have established unrealistic expectations for the bilateral 
relationship.

  <diamond> Is it time to recalibrate expectations for the United 
        States-India relationship?

    Answer. We have, and should maintain, high expectations for the 
vibrant and growing partnership between the United States and India. 
Successive administrations have made the strategic decision that a 
rising India and a strong bilateral relationship are in the U.S. 
national interest. President Obama has called our ties with India a 
defining partnership for the 21st century. Our rebalance to the Asia-
Pacific is premised on the consequential role the region's 4.3 billion 
people will play in global politics, security, and economics this 
century. A strong India will play a critical role in the coming decades 
in affirmatively shaping this Asian landscape. Our partnership with 
India will play an increasingly important role in providing security, 
prosperity, and stability in the Indo-Pacific region. All partnerships 
face challenges, but given our shared interests, the U.S. Government is 
confident that our investments in the relationship will yield 
dividends.

    Question. Prime Minister Modi has articulated an ambitious agenda, 
including a desire to strengthen relations with the United States. If 
confirmed, how do you intend to work with the Modi government to 
translate this enthusiasm into tangible areas of progress in the 
bilateral relationship? What areas do you believe are most ripe for 
advancing our shared interests?

    Answer. If confirmed as U.S. Ambassador to India, I will execute 
the President's vision for the United States-India strategic 
partnership as outlined in the Joint Statement issued by President 
Obama and Prime Minister Modi during the Prime Minister's successful 
visit to Washington this past fall.
    Given our increasingly convergent national security interests in 
the Indo-Pacific region and around the world, I will work with India to 
promote regional and global security. Additionally, solidifying and 
renewing our 10-year Defense Framework Agreement will be one of my 
highest priorities. Another of my top defense priorities will be to 
conclude codevelopment and coproduction projects under the auspices of 
the Defense Trade and Technology Initiative (DTTI) between our two 
governments. On the energy and environment front, I will work to 
promote both American exports and India's energy security and by 
helping India to diversify its hydrocarbon-dependent energy needs and 
by promoting renewable energy sources through our Partnership to 
Advance Clean Energy (PACE) and Promoting Energy Access through Clean 
Energy (PEACE) initiatives. I will also assist U.S. companies to 
participate in India's growing nuclear power sector by fully realizing 
our civil nuclear deal. I will dedicate a significant portion of my 
time to expanding two-way trade between our two nations, an effort that 
will increase employment for U.S. workers. To ensure our companies 
compete on the most level playing field possible, I will take every 
opportunity to convince Indian Government and business leaders that 
adoption of an intellectual property-rights regime based on 
international norms is the only way for India to attract the level of 
foreign investment the country needs to achieve its ambitious economic 
development agenda.
                                 ______
                                 

               Responses of Isobel Coleman to Questions 
                    Submitted by Senator Bob Corker

    Question. The U.N. General Assembly's Fifth Committee deals with 
administrative and budgetary aspects of U.N. Peacekeeping. Allegations 
of serious misconduct including sexual, exploitation, and abuse (SEA) 
continue to compromise the success of peacekeeping missions.

  <diamond> If confirmed, within your responsibilities over management 
        and reforms, what initial actions do you intend to take to 
        implement meaningful reforms to reduce these occurrences?
  <diamond> More broadly, what are the long-term challenges facing U.S. 
        and U.N. policymakers as they attempt to reduce instances of 
        SEA in peacekeeping operations?
  <diamond> Describe and detail your plan for addressing in a 
        substantial and meaningful way this chronic problem of 
        peacekeeper abuses?

    Answer. The United States has been a leading proponent for measures 
to prevent misconduct by U.N. peacekeepers, in particular sexual 
misconduct, for almost a decade, and is a strong supporter of the 
U.N.'s efforts to fully implement its policy of zero tolerance of 
sexual misconduct.
    The U.N. has made significant progress in strengthening measures 
against sexual exploitation and abuse (SEA) over the past few years, 
largely due to efforts by the administration, which shares your deep 
concern about this issue. Strengthened measures include enhancing its 
misconduct tracking system, institution of a screening policy for all 
categories of personnel, and provisions withholding reimbursement to 
troop and police contributing countries on account of contingent 
personnel repatriated for misconduct, including SEA. If confirmed, I 
intend to push for a review of the recommendations of the 2005 report 
of the panel headed by Prince Zeid of Jordan, which was the basis for 
the measures currently in place, and I look forward to staying in close 
touch with you and your staff about this critically important issue.
    Indeed, the U.N. has robust policies and procedures in place for 
prevention and training, handling allegations received, and 
investigations (for civilian and police personnel). Further progress, 
however, depends not on the U.N. alone, but also on the willingness of 
troop and police contributing countries to fulfill their obligations 
with regard to misconduct. More progress is needed to ensure that 
contingent commanders maintain discipline within the units under their 
command, that troop-contributing countries expeditiously investigate 
allegations of misconduct by their soldiers and inform the U.N. of the 
results of those investigations, and that both troop and police 
contributing countries take the appropriate disciplinary action 
(including, if relevant, prosecution) against soldiers and/or police 
found to have engaged in misconduct, including SEA.
    To address this problem, I will push the U.N. to increase their 
followup to allegations of SEA and other peacekeeper misconduct, 
particularly with victims and the local community, on actions taken 
against perpetrators. The U.N. does not have the authority to 
prosecute, so any prosecution when appropriate would be conducted by a 
national government (either the host government or relevant troop 
contributing country). However, the U.N. cannot compel member states to 
report on actions taken. Additionally, I will also increase efforts 
with like-minded countries to press troop and police contributing 
countries to take action when personnel are repatriated.
    Additionally, I will continue to encourage the U.N. to properly 
fund and staff the U.N.'s Conduct and Discipline Unit (CDU) in the 
Department of Field Support and the U.N. Office of Internal Oversight 
Services (OIOS). The CDU is responsible for overseeing policy and 
regulations on misconduct. They have a small but very dedicated staff. 
In the case of serious allegations against civilians and police 
officers, OIOS sends professional investigators, with experience in 
collecting and evaluating evidence. Preserving evidence, whether 
interviews or physical evidence, may also pose challenges in post-
crisis environments (often poor countries) where contemporary missions 
are deployed: the situation is chaotic, and the physical facilities and 
technical expertise may not be available.
    Another area on which I intend to engage the U.N. is increasing the 
number of female peacekeepers in the field. In addition to providing 
role models for the local population, the presence of female 
peacekeepers reportedly decreases the incidents of SEA by other 
peacekeepers.

    Question. This year, the U.N.'s Office of Internal Oversight 
Services found that peacekeeping missions have fallen short in 
upholding their protection of civilian mandates. Do you agree with the 
findings of the report? What reforms do you think are needed to ensure 
that peacekeepers are fully implementing their mandates in this 
respect?

    Answer. I am aware of this report and share your concern, as well 
as the administration's support of the report's release. It provided 
empirical evidence proving something that we all suspected: that there 
is a disconnect between the intention of the U.N. Security Council in 
mandating peacekeeping operations to protect civilians, and the 
actions--or lack thereof--of peacekeeping troops on the ground, 
especially when the use of force is necessary in order to effectively 
protect civilians. Peacekeepers are authorized to use force to protect 
themselves--and to protect their mandate. In missions with protection 
of civilian mandates, peacekeepers are authorized and expected to use 
force to protect civilians from violence when necessary. The behavior 
detailed in the report is unacceptable and the U.S. Government is 
taking concrete steps to remedy this situation.
    The administration has underscored its concern about the findings 
of this report to the most senior officials at the United Nations. The 
U.S. Government is pressing the United Nations to develop a 
comprehensive set of reforms--encompassing doctrine, communications, 
training, monitoring, accountability, coordination and political 
engagement--to more effectively ensure the protection of civilians in 
peacekeeping.
    The administration recognizes that a key part of the problem is 
that troops in U.N. peacekeeping operations receive political guidance 
from their capitals not to take active measures to protect civilians, 
out of fear that these actions would compromise the peacekeepers 
impartiality and would place the troops at greater risk. The U.S. 
Government is therefore also making concerted diplomatic efforts to 
address this challenge. It is engaging troop contributors at a 
political level to press them to change their approach. The U.S. 
Government is also working with like-minded countries. For example, 
Rwanda plans to host a high-level conference in March on improving the 
protection of civilians in U.N. peacekeeping Operations.

    Question. The U.S. Ambassador for U.N. Management and Reform is 
tasked with promoting a culture of accountability, integrity and 
transparency. Protecting legitimate whistleblowers is critical to 
success in this effort. How effective do you think the U.N.'s 
whistleblower policy has been in serving the organization? What are the 
policy's strengths, and which specific weaknesses do you believe need 
to be addressed?

    Answer. The administration remains deeply committed to advancing 
accountability, integrity, and transparency reforms throughout the U.N. 
system. Since the U.N. Ethics Office became operational in January 
2006, it has significantly improved whistleblower protections for all 
U.N. Secretariat officials. In December 2007, the Secretary General 
established an ethics framework for the U.N. Secretariat and the U.N. 
funds and programs (ST/SGB/2007/11), requiring all U.N. funds and 
programs to establish independent ethics offices. The U.N. policy is 
designed to protect U.N. personnel against retaliation and reverse 
administrative actions deemed to be retaliatory. The ethics framework 
also established the U.N. Ethics Panel, to unify ethical standards and 
provide a mechanism for staff to appeal ethics rulings and decisions by 
their organization.
    Through an ongoing dialogue with the U.N. Ethics Director and other 
senior U.N. officials, I will continue to promote improvements to the 
culture of accountability and protections for whistleblowers at the 
United Nations. At the urging of the United States and other major 
donors, U.N. member states requested the Secretary General to expedite 
the development of strengthened protections against whistleblower 
retaliation. To facilitate that process, the U.N. Ethics Office is 
currently reviewing the effectiveness of the current policy. The U.N. 
Ethics Office is expected to report its findings in 2015. To strengthen 
the culture of accountability, I will continue to advocate for the 
Ethics Director to have greater authority in order to make binding 
recommendations. Finally, in addition to providing remedies for victims 
of retaliation, I believe greater action should be taken to hold 
perpetrators of misconduct accountable.

    Question. The U.N.'s internal justice system was reformed in 2009, 
and many observers agree that the reforms improved the effectiveness of 
the system. At the same time, however, some staff members and their 
attorneys have argued that the reforms did not go far enough.

  <diamond> What is your opinion of the reforms made, and are you 
        satisfied with them?
  <diamond> Are there aspects of the justice system that concern you 
        still? How might these concerns be addressed?

    Answer. The United States was one of the primary architects of the 
reform of the previous U.N. administration of justice system in 2009. 
Over the past 5 years, the new United Nations Dispute Tribunal and 
Appeals Tribunal, along with a number of other innovative reforms, have 
made a positive impact on the transparency, fairness, efficiency, and 
accountability of the United Nations personnel system.
    The administration is particularly pleased that the caseload of the 
Tribunals appears to be stabilizing. We applaud efforts to ensure easy 
access to the jurisprudence of the Tribunals allowing U.N. staff and 
management, as well as anyone acting as legal representatives, to 
inform themselves about the latest developments of the jurisprudence, 
to establish precedent that can guide the assessment of other cases, 
and to better understand relevant rules and regulations as applied by 
the Tribunals.
    Now that the system is established, it is important to turn a 
critical eye toward evaluating its effectiveness. There are a number of 
issues that need to be monitored and addressed. These include ensuring 
that the Dispute Tribunal and Appeals Tribunal do not exercise powers 
beyond those conferred under their respective statutes and ensuring 
that recourse to general principles of law and the Charter, by the 
Tribunals, takes place within the context of, and consistent with, 
statutes and relevant General Assembly resolutions, regulations, rules, 
and administrative issuances. Of course we respect the independence of 
the Tribunals, but we also believe that these issues must be addressed 
to prevent judicial overreach.
    This administration strongly supported the General Assembly's 
request last year for the Secretary General to present a proposal for 
conducting an interim independent assessment of the formal 
administration of justice, and the United States is currently exploring 
how the Secretary General can form an independent panel to conduct the 
assessment in a cost-efficient manner.

    Question. Some observers and experts, including U.S. policymakers, 
have argued that the U.N. Office of Internal Oversight Services (OIOS) 
should not rely on funding from the U.N. programs and bodies that it 
audits in order to avoid a real or perceived conflict of interest.

  <diamond> Do you agree with this assessment? Please explain. What 
        steps, if any, is the United States taking to achieve 
        operational independence for OIOS?

    Answer. As the U.N.'s internal watchdog, we believe that OIOS 
should have all the tools it needs to conduct its work as efficiently 
and effectively as possible. Operational independence and jurisdiction 
over its budget and personnel decisions are essential for OIOS to 
perform its oversight functions free from influence by the 
organizations and officials it oversees. OIOS funding comes from three 
sources--regular budget, peacekeeping, and extra-budgetary sources. The 
United States remains concerned that this funding structure limits 
OIOS' flexibility to utilize resources where needed, restricting its 
ability to achieve its organizational goals.
    The United States will continue to strongly support efforts to 
revitalize OIOS and further strengthen its core functions of audit, 
investigation, and evaluation. We worked tirelessly in the General 
Assembly to establish an Assistant Secretary General position to serve 
as OIOS deputy to elevate OIOS' role within the U.N. system. The Fifth 
Committee of the 69th session of the U.N. General Assembly is currently 
reviewing OIOS' annual report and the resolutions which govern OIOS. 
The United States is engaged with like-minded member states to use this 
mandate review as an opportunity to increase OIOS' operational and 
budgetary independence. The OIOS is also conducting a review of its 
funding arrangements, including its impact on operational independence. 
We will work with OIOS and member states to propose improvements to its 
funding structure and improve its operational independence, and I look 
forward to consulting with Congress on the results of these 
discussions, if confirmed.
                                 ______
                                 

              Response of Richard Rahul Verma to Question 
                   Submitted by Senator Barbara Boxer

    Question. As you know, the United States has made gender equality 
and efforts to combat gender-based violence a priority within its 
foreign policy. In India, rape and sexual violence against women have 
been long-standing challenges that have received increased attention in 
recent months due to high profile attacks on women and girls.

  <diamond> How can the United States utilize the tools and actions 
        outlined in the U.S. Strategy to Prevent and Respond to Gender-
        Based Violence Globally to better respond to gender-based 
        violence in India?
  <diamond> If confirmed, how will you work to demonstrate the United 
        States continued commitment to the basic human rights of Indian 
        women and girls?

    Answer. Given the global nature of the issue, gender equality has 
been, and remains, a top strategic priority for the Obama 
administration. The administration has been encouraged by steps taken 
by the new government to address gender-based violence and aim to 
strengthen our cooperation on women's issues. The United States, 
consistent with the tools outlined in the U.S. Strategy to Prevent and 
Respond to Gender-Based Violence Globally, is seeking to renew its 
Women's Empowerment Dialogue with the new Indian Government, focusing 
on four key priority areas: national development planning and women's 
issues; expanding a national framework to address gender-based 
violence; promoting secondary education in India; and United States-
India economic cooperation and women's economic advancement. Our 
bilateral Global Issues Forum also provides a platform to address human 
rights and gender-based violence. The Secretary noted during the last 
U.S.-India Strategic Dialogue that gender equality is a priority for 
the administration. As Under Secretary for Civilian Security, 
Democracy, and Human Rights Sarah Sewall underscored during her recent 
visit to India, advancing these priorities will help prevent gender 
inequality and find constructive ways to address the problem of gender-
based violence, while improving protections and rights for women and 
girls and accountability for the perpetrators of such violence.
    The USG has worked with successive Indian governments to address 
human rights issues, sharing our Nation's experience in forming a more 
perfect union. If confirmed, I will continue this respectful dialogue 
with the new Indian Government and continue to engage with advocates 
for women's rights and other civil society organizations.
                                 ______
                                 

           Responses of Peter Michael McKinley to Questions 
                   Submitted by Senator Barbara Boxer

    Question. The nation of Afghanistan has made important progress on 
women's rights in the last decade. Millions of girls are attending 
school, women have run for, and been elected to, public office, and 
many more have joined the civil service and the Afghan National Army 
and Police.
    It is important now more than ever that the United States work with 
the new administration of President Ghani to ensure that the rights of 
women and girls are protected and that these important gains are not 
rolled back.

  <diamond> If confirmed, how will you work to ensure that the United 
        States continues to be a strong advocate for the rights of 
        women and girls in Afghanistan?

    Answer. As Secretary Kerry has said, creating opportunities for 
women and girls is not just the right thing to do, it is a strategic 
necessity. Societies where women are safe and empowered to exercise 
their rights and move their communities forward are more prosperous and 
more stable. Nowhere is the pursuit of that vision more compelling or 
critical than in Afghanistan. So let there be no doubt that even as the 
U.S. role in Afghanistan changes during the next few years, we will 
continue to stand with and work closely with Afghan women and girls. We 
will be vigilant and disciplined in our support and in our refusal to 
accept the erosion of women's rights and freedoms.
    If I am confirmed, gender will continue to be a policy and 
programming priority for U.S. Embassy Kabul. The United States must 
support and hold the Afghan Government accountable for the 
implementation of its strategy to advance women's rights. This strategy 
focuses on: ending discrimination and violence against women and 
ensuring the equal treatment of women under the law, improving 
educational and economic opportunities for women and girls, and 
implementing gender-neutral policies and women-friendly employment 
practices throughout the government.
    We must also continue to press for the full implementation of the 
2009 Law on the Elimination of Violence Against Women, increased 
numbers of women in the Afghan National Security Forces, and the 
implementation of Afghanistan's National Action Plan on Women, Peace, 
and Security.
    That is why the United States is investing more in gender 
programming in Afghanistan than it ever has anywhere in the world. 
USAID's Promote project, which will be worth at least $216 million over 
the next 5 years, is an investment in a new generation of Afghan women 
leaders. Promote is only one of dozens of U.S. Government projects that 
will invest in Afghan women's development in the Transformation Decade 
(2015-24). These projects address, among other concerns, women's 
educational opportunities, economic empowerment, access to justice, 
health and nutrition, and gender-based violence prevention and victims' 
assistance.

    Question. I was deeply disturbed by a recent report from Oxfam 
International, which found that Afghan women have been systematically 
excluded from the Afghan Government's efforts to start peace talks with 
the Taliban.
    As you may know, the United States National Action Plan on Women, 
Peace, and Security seeks to ensure that the United States promotes 
women's meaningful inclusion and participation in mediation and 
negotiation processes undertaken in order to prevent, mitigate, or 
resolve violent conflict.

  <diamond> If confirmed, what will you do to ensure that Afghan women 
        are fully and meaningfully represented in any future peace 
        talks between the Afghan Government and the Taliban?

    Answer. It is essential that women play a meaningful role in any 
future peace talks between the Afghan Government and the Taliban. This 
is critical not only because of our commitment to Women, Peace, and 
Security, but because any attempt at peace made by excluding more than 
half the population is no peace at all.
    Ensuring women have a voice at all levels--national, provincial and 
local--at the decisionmaking tables and in rebuilding their nation 
alongside men will help to consolidate security gains. That is why the 
international community has made clear that the necessary outcomes of 
any process are that the Taliban and other armed opposition groups end 
violence, break ties with al-Qaeda, and accept Afghanistan's 
constitution, including its protections for women and minorities. As 
Secretary Kerry has said, ``there can't be an effective peace, and 
there won't be, in Afghanistan if we can't hold onto the gains and 
continue them, continue the progress that is being made with respect to 
women's participation in Afghan society.''
    If confirmed, I will do my best to ensure women play a significant 
role in determining Afghanistan's future. I plan to advocate for 
meaningful representation of women in any peace negotiations and the 
timely implementation of Afghanistan's new National Action Plan on 
Women, Peace, and Security.

                                  [all]
</pre></body></html>
